<html>
<title> - WHITE HOUSE COMPLIANCE WITH COMMITTEE SUBPOENAS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



            WHITE HOUSE COMPLIANCE WITH COMMITTEE SUBPOENAS

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                             AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                         NOVEMBER 6 AND 7, 1997

                               __________

                           Serial No. 105-61

                               __________

Printed for the use of the Committee on Government Reform and Oversight



45-405              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                   Richard D. Bennett, Chief Counsel
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    November 6, 1997.............................................     1
    November 7, 1997.............................................   151
Statement of:
    Ruff, Charles F.C., Counsel to the President.................    44
Letters, statements, etc., submitted for the record by:
    Apperson, Jay, special counsel, Subcommittee on National 
      Economic Growth, Natural Resources, and Regulatory Affairs:
        Exhibits 155 and C-64....................................    99
        Exhibits C-65 and 147....................................   105
        Exhibits 166, 162, and C-66..............................   109
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia:
        Exhibit 147..............................................   168
        Memorandum dated June 28, 1994...........................   171
    Bennett, Richard, chief counsel, Committee on Government 
      Reform and Oversight:
        Exhibits 135, 136, and 137...............................    52
        Exhibit 138..............................................    61
        Exhibit 139..............................................    67
        Exhibit 140..............................................    76
        Exhibit 141..............................................    81
        Exhibit 141-A............................................    85
        Exhibit 142..............................................    90
        Exhibit 146..............................................    94
        Exhibit 147..............................................   256
        Exhibit 155..............................................   259
    Breuer, Lanny:
        Deposition of............................................   633
        Exhibits to deposition...................................   701
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Washington Post article, ``The Last Prosecutor'' dated 
          June 19, 1977,.........................................   210
        Minority consultant contract.............................     2
        Prepared statement of....................................    36
    Fattah, Hon. Chaka, a Representative in Congress from the 
      State of Pennsylvania:
        National Journal article ``Troubled Times for the Triad 
          Group''................................................   251
        News clippings relative to investigation.................    21
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Memoranda dated April 8, 1996, and August 23, 1996.......   190
        Letter dated November 26, 1996; letter dated January 15, 
          1997, reply dated January 15, 1997; reply letter dated 
          January 21, 1997, and letter dated February 25, 1997...   182
    Imbroscio, Michael:
        Deposition of............................................   454
        Exhibits to deposition...................................   509
    Lantos, Hon. Tom, a Representative in Congress from the State 
      of California, Final Report of the Iran-Contra Committees..   123
    McIntosh, Hon. David M., a Representative in Congress from 
      the State of Indiana:
        Letter dated May 22, 1997................................   135
        Prepared statement of....................................   138
    Mills, Cheryl:
        Deposition of............................................   268
        Exhibits to deposition...................................   323
    Nionakis, Dimitri:
        Deposition of............................................   547
        Exhibits to deposition...................................   595
    Quinn, Jack:
        Deposition of............................................   767
        Exhibits to deposition...................................   805
    Ruff, Charles F.C., Counsel to the President:
        Letter dated August 19, 1997.............................   145
        Prepared statement of....................................    47
    Shadagg, Hon. John, a Representative in Congress from the 
      State of Arizona, exhibit 168..............................   238
    Simmons, Colonel Joseph:
        Deposition of............................................   936
        Exhibits to deposition...................................   984
    Smith, Steven:
        Deposition of............................................   881
        Exhibits to deposition...................................   913
    Sullivan, Alan:
        Deposition of............................................  1005
        Exhibits to deposition...................................  1043
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, letter dated September 23, 1997.......    18

 
            WHITE HOUSE COMPLIANCE WITH COMMITTEE SUBPOENAS

                              ----------                              


                       THURSDAY, NOVEMBER 6, 1997

                  House of Representatives,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:25 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Morella, Shays, Cox, 
McHugh, Davis of Virginia, McIntosh, Souder, Sununu, Sessions, 
Pappas, Snowbarger, Barr, Waxman, Lantos, Owens, Kanjorski, 
Condit, Sanders, Barrett, Norton, Fattah, Cummings, Kucinich, 
Blagojevich, Davis of Illinois, Tierney, Allen, and Ford.
    Staff present: Kevin Binger, staff director; Richard 
Bennett, chief counsel; Barbara Comstock, chief investigative 
counsel; Judith McCoy, chief clerk; Teresa Austin, assistant 
clerk/calendar clerk; William Moschella, deputy counsel and 
parliamentarian; Robin Butler, office manager; Dan Moll, deputy 
staff director; Will Dwyer, director of communications; Ashley 
Williams, deputy director of communications; Dave Bossie, 
oversight coordinator; Robert Rohrbaugh, James C. Wilson, Uttam 
Dhillon, and Tim Griffin, senior investigative counsels; Phil 
Larsen, investigative consultant; Kristi Remington and Bill 
Hanka, investigative counsels; Jason Foster, investigator; 
Carolyn Pritts, investigative staff; David Jones and John 
Mastranadi, investigative staff assistants; Jay Apperson, 
special counsel, and J. Keith Ausbrook, senior counsel, 
Subcommittee on National Economic Growth, Natural Resources, 
and Regulatory Affairs; Phil Schiliro, minority staff director; 
Phil Barnett, minority chief counsel; Kenneth Ballen, minority 
chief investigative counsel; Agnieszka Fryszman, Elizabeth 
Mundinger, Kristin Amerling, Christopher Lu, Andrew McLaughlin, 
David Sadkin, and Michael Yang, minority counsels; Ellen 
Rayner, minority chief clerk; Becky Claster, minority staff 
assistant; and Sheridan Pauker, minority research assistant.
    Mr. Burton. The committee will come to order.
    The first order of business before we discuss business with 
our guests this morning will be the minority consultant 
contract. Without objection, the contract will be considered as 
read.
    [The contract referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.001
    
    [GRAPHIC] [TIFF OMITTED] T5405.002
    
    [GRAPHIC] [TIFF OMITTED] T5405.003
    
    [GRAPHIC] [TIFF OMITTED] T5405.004
    
    [GRAPHIC] [TIFF OMITTED] T5405.005
    
    [GRAPHIC] [TIFF OMITTED] T5405.006
    
    [GRAPHIC] [TIFF OMITTED] T5405.007
    
    [GRAPHIC] [TIFF OMITTED] T5405.008
    
    [GRAPHIC] [TIFF OMITTED] T5405.009
    
    [GRAPHIC] [TIFF OMITTED] T5405.010
    
    [GRAPHIC] [TIFF OMITTED] T5405.011
    
    [GRAPHIC] [TIFF OMITTED] T5405.012
    
    Mr. Burton. The gentleman from California, Mr. Waxman is 
recognized in support of this contract.
    Mr. Waxman. Thank you, Mr. Chairman. The minority is 
proposing that the committee approve a consultant to contract 
with the Emerald Group. The Emerald Group is an international 
security management firm that provides investigative services 
to corporations, institutions and individuals.
    The minority proposes the contract because the minority 
seeks the assistance of the Emerald Group in investigating 
possible conduit payments to the Republican National Committee 
and the Dole campaign.
    These conduit payments are the same activity that the 
committee is investigating, except the recipients are 
Republicans, not Democrats.
    Approval of this contract should be routine. In June, the 
majority and the minority discussed how consultants would be 
handled. We proposed that consultants hired by our committee be 
a joint resource, which means that both sides would be informed 
about the work of the consultants.
    Chairman Burton's staff rejected this idea. They insisted 
that they wanted complete control over the activities of the 
consultants hired by the majority. As a result, what we agreed 
to is they get 75 percent of the money that would be used for 
consultants, and we would get 25 percent of the money, to 
allocate as each of us sees fit and those consultants would 
work for each of us.
    Since June, the majority has hired four consultants. Three 
of these consultants--including a private investigator and a 
former CIA operations officer--were hired with our votes. We 
supported the idea of those consultants being hired because it 
was the choice of the minority.
    Today, we are making our first request for a consultant. We 
have expected this would be routinely approved just like the 
majority approved all of its requests for consultants. 
Unfortunately, it now appears that the majority will deny the 
minority any consultants. This is simply unfair. It seems that 
every chance the majority gets, the majority tries to tilt the 
deck in their favor by denying the rights of the minority.
    Now, the majority is opposing the Emerald Group contract 
because they say it does not prevent conflicts of interest. The 
fact of the matter is that the Emerald Group has agreed to 
follow exactly the same precautions and procedures that Mr. 
Bennett agreed to follow. As explained in a September 23 letter 
to myself, the Emerald Group has pledged to follow the House 
Code of Official Conduct, and the House gift ban, just as Mr. 
Bennett did.
    The Emerald Group has also agreed to conduct a careful 
review before accepting any assignments to assure that there is 
no conflict of interest, exactly the same procedure that Mr. 
Bennett is following.
    Specifically, the Emerald Group wrote, quote, for each 
specific assignment provided Emerald, Emerald will perform a 
thorough check using the firm's computer technology to ensure 
that there is no conflict of interest with respect to its 
existing client list, and if there is a conflict, Emerald will 
not accept the assignment, end quote.
    What we are seeing is a double standard being applied by 
the majority and it becomes especially apparent when you 
compare the Emerald Group contract with the first three major 
consultants. The majority approved these consultants without 
requiring any safeguards against conflicts of interest. These 
consultants are directly comparable to the Emerald Group. Like 
the Emerald Group, they are being used for discrete projects.
    The Republicans also argue that the consultant contract 
with the Emerald Group is flawed because it is an entire 
organization, not a single individual. According to them, it 
makes it harder to ensure there are no conflicts or other 
problems. I would submit that this argument is a straw man. 
There is no rule against hiring organizations as consultants. 
In fact, the use of organizations as consultants is expressly 
authorized by law. 2 U.S.C. Section 72(a) provides that ``Each 
standing committee of the House of Representatives is 
authorized to procure the temporary services of individual 
consultants or organizations thereof.''
    There is nothing unusual at all about having a consultant 
contract with a firm instead of a single individual. For 
example, this is exactly what the Republican majority on the 
House Oversight Committee has done in the Sanchez-Dornan 
investigation.
    On January 8 of this year, the majority entered into a 
contract for the services of the Baker Hostettler Law Firm. 
This contract did not limit the number of Baker and Hostettler 
attorneys working under the contract. In fact, it specifically 
provided that the rate of compensation could not exceed $300 
per day per attorney providing services.
    Well, there are a lot of precedents. For example, in the 
Gingrich investigation by the House Ethics Committee, the 
consultant contract was not with Jim Cole individually, but 
with the Bryan, Cave Law Firm.
    Mr. Chairman and my colleagues, we are making this request. 
We think it is a respectable request, given the rules that we 
have set out and the way we have operated. I expect that we are 
going to lose this. I expect that the Republicans are going to 
exercise their majority and vote it down. But if they do, it is 
another example of how the Republican majority of the committee 
is closing out the rights of the minority to do our 
investigation, to participate in the campaign financing 
investigation of the committee overall, and how this is an 
investigation run by the Republican majority to the exclusion 
of the Democratic minority for purposes that I believe are 
partisan because they are solely in the interest of the 
Republican majority rather than in the interest of this country 
for an honest campaign finance investigation. Thank you, Mr. 
Chairman.
    Mr. Burton. Thank you, Mr. Waxman. I must regretfully 
oppose the contract that Congressman Waxman has proposed today. 
I was hoping that we could reach an agreement on this matter. I 
have offered to work with him to restructure this contract in a 
form that would be acceptable to the entire committee. But, it 
is apparently not going to be possible.
    We reached an agreement earlier this year to give the 
minority 25 percent of the consultant budget, while the 
majority would control 75 percent of the budget. I served in 
the minority for 12 years, and this is a better deal than we 
were ever offered on any committee that I ever served on.
    After reaching this agreement earlier this year, I was very 
disappointed that the minority decided to vote in lock step 
against Dick Bennett's contract. Mr. Bennett's contract was 
identical to contracts used by the House Oversight Committee 
and the House Ethics Committee under both Democrats and 
Republicans to hire attorneys for sensitive investigations. It 
should have been routine. And yet they voted in lock step 
against him. Unfortunately, we were forced to approve it on a 
party line vote.
    Despite this, I am still willing to work with the gentleman 
from California to resolve some of the problems with this 
contract. I would like to suggest, once again, to the gentleman 
that he withdraw it and work with me to solve some of these 
problems. The problems are fairly basic.
    First, this committee has never before contracted with the 
firm of private investigators to work on an investigation such 
as this. All of the majority's consultants have been 
individuals, not entire companies or investigative agencies.
    The Emerald Group is an international firm. It has offices 
and major corporate clients all over the world. This is an 
investigation of influence buying by foreign companies, foreign 
individuals and possibly foreign governments. The prospects for 
serious conflicts of interest are too large when you deal with 
an entire firm like this.
    The Emerald Group's brochure states that it never reveals 
the identities of its clients and that is why it is far more 
appropriate to hire an individual to come in and work out of 
the committee offices alongside the regular committee staff 
like Mr. Bennett has. When Dick Bennett came to work as chief 
counsel, he set up a fire wall between his law firm and his 
work here on this committee. Nobody else from his firm works on 
this investigation. No resources of his law firm are utilized. 
This makes it very easy to isolate the potential for any 
conflicts.
    I have invited Mr. Waxman to structure this contract in the 
same way. I have urged him to put together a contract in the 
same manner that the majority contracts are structured. I think 
that this is a reasonable and fair proposal.
    Second, this contract offers not even a general description 
of the type of work to be done by this firm. Not only is the 
work to be done at an unknown corporate office, the type of 
work to be done is a closely guarded secret. Every contract 
proposed by the majority has contained a general description of 
the work to be done by the consultant and the general issue 
area. This is a standard practice.
    Today, Members are being asked to vote in the dark. As I 
said before, I think the offer we have made to our friends in 
the minority is more generous than we ever would have received 
during all of the years that we served in the minority. Despite 
the fact that not a single Democrat here today voted for Dick 
Bennett's contract, I am still willing to work with you, Mr. 
Waxman, to resolve some of these problems. I believe that we 
could reach an agreement on the contract that the entire 
committee could support. If that is not possible, then I must 
reluctantly oppose this contract.
    Do any further Members seek to be recognized on this issue?
    Mr. Waxman. Mr. Chairman, if you would yield to me?
    Mr. Burton. I am happy to yield to my colleague.
    Mr. Waxman. I want to point out that we have supported all 
the consultants requested by the majority. We have tried to 
structure the conflict of interest issue with the Emerald Group 
in the same way that you handled Mr. Bennett's agreement. We 
cannot agree to let the majority have such supervisory role as 
you would if they were individuals as opposed to an 
organization. We do not know what your consultants do. They 
operate for you and we agreed to let them do that. We want the 
ability for a very specific project of checking out Republican 
conduit payments to have this group that we think is quite 
qualified to handle it and we think offer the best services to 
accomplish this goal.
    We have a disagreement. It is not unusual on this committee 
that we have a disagreement. You are the chairman of the 
majority party, which means your party has the majority and has 
exercised that power every step of the way to succeed in 
accomplishing your goals and I expect you will do the same 
here.
    I know that there are Members who have other places they 
have to be, and rather than ask for a recorded vote, we will 
ask only for a voice vote on this matter. I do want to put in 
the record a letter from the Emerald Group to me that I 
referred to in my opening statement.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.013
    
    Mr. Burton. Let me just say that the majority is 
investigating both Democrat and Republican conduit payments, 
contrary to some of the media reports, and we will continue to 
do that wherever we find illegal activities or alleged illegal 
activities we are going to investigate.
    With that, is there further discussion on the issue? If 
not, the question occurs on the contract offered by Mr. Waxman.
    All those in favor of the contract signify by saying, aye.
    All those opposed will signify by saying, no. In the 
opinion of the chair, the noes have it. The noes have it, and 
the contract is not agreed to.
    We now have a vote on the floor.
    Mr. Waxman. Mr. Chairman, could I ask you one question?
    Mr. Burton. Yes.
    Mr. Waxman. You made a statement that you are investigating 
some Republican conduit payments. We have no knowledge of that. 
Can you tell us anything more about that?
    Mr. Burton. Mr. Bennett, do you want to respond to him 
briefly?
    Mr. Bennett. Congressman Waxman for the record, agents both 
of this committee, including the particular individual assigned 
to your staff, were in California last week and I won't say on 
the record what was done, but there were matters--the inquiry 
concerned contributions from a foreign source and the inquiry 
concerned a clear record of distribution of those contributions 
to a Republican candidate. And I would be glad to deal with 
that in some detail obviously in a better setting.
    Mr. Waxman. I appreciate that. If these are joint 
detailees, they are supposed to report----
    Mr. Bennett. No, these were not joint detailees. I believe 
it's Harry, and I have forgotten his last name.
    Mr. Waxman. Is there any other example, Mr. Bennett?
    Mr. Bennett. Mr. Waxman, I am glad to go into more detail, 
but clearly as of last week we were seeking to do that as well. 
So, it is not a correct statement.
    Mr. Burton. Nevertheless, some of these things we are 
looking at and are not ready to be made public.
    Mr. Waxman. We are not asking it to be made public. We are 
colleagues on the committee. If you are doing an investigation 
for the first time in our knowledge that involves Republicans, 
I think you ought to let us know about it.
    Mr. Burton. We certainly will, Mr. Waxman. I will be happy 
to consult with you and your counsel as soon as possible. We 
have a vote on the floor, and I know that we want to go through 
these hearings with as few interruptions as possible, so why 
don't we go ahead and vote and come back as quickly as possible 
and get into the meat of the hearing. We stand in recess until 
the fall of the gavel.
    [Recess.]
    Mr. Burton. The committee will come to order.
    The gentleman from Pennsylvania, Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. I seek unanimous 
consent to enter into the record a number of news clippings 
relative to our investigation. And the first one is from a 
Capitol Hill magazine, which suggests that senior aides in a 
Dole campaign were involved in, at least it alleges, were 
involved in a kickback scheme in the latter days of the 
campaign. And another is from the newspaper, the Wall Street 
Journal, references unfortunately a Pennsylvania family who 
gave close to $2 million to issue advocacy groups having to do 
with the Triad Management, and there are a number of other 
ones. And I mention these and I want to insert them in the 
record because of the chairman's statement earlier that we have 
crossed a major rubicon in that we now have an investigation in 
which we will look at Republican misdeeds. I want to thank the 
chairman for that and seek unanimous consent that these matters 
be entered into the record because they may help our 
investigators toward some of the misdeeds that may have been 
prevalent on the Republican side.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.014
    
    [GRAPHIC] [TIFF OMITTED] T5405.015
    
    [GRAPHIC] [TIFF OMITTED] T5405.016
    
    [GRAPHIC] [TIFF OMITTED] T5405.017
    
    [GRAPHIC] [TIFF OMITTED] T5405.018
    
    [GRAPHIC] [TIFF OMITTED] T5405.019
    
    [GRAPHIC] [TIFF OMITTED] T5405.020
    
    Mr. Burton. Before the distinguished ranking member and 
myself deliver our opening statements, the committee must first 
dispose of procedural issues, pursuant to an agreement reached 
last night with Mr. Ruff. I thank Mr. Ruff for coming up to our 
office on the Hill last night. I know it was a strain on you 
and your staff.
    Mr. Ruff. Not at all, Mr. Chairman.
    Mr. Burton. Members are advised that they may not release 
copies of documents listed on the White House privilege log 
dated October 21, 1997. These documents, which relate to the 
Hudson Dog Track issues, do not implicate core Presidential 
powers or responsibilities. They do not implicate national 
defense, national security, or foreign policy concerns. They do 
not implicate the appointment or removal power of the 
President. In fact, they don't even implicate a decision the 
President would ever be called to make.
    However, because these documents are still subject to 
Presidential claims of privilege, we have agreed to meet again 
in a collegial way to discuss the committee's future public use 
of these documents. Members may refer to the documents by 
noting the description on the privileged log and may discuss 
with the witnesses the documents generally. However, Members 
should not quote in large part from the documents or release 
them publicly at this time.
    Furthermore, consistent with the unanimous consent 
agreement I am about to offer, Members may quote from 
depositions pertinent to today's hearings. However, the 
committee will not make them public today. They will only be 
made public after Mr. Ruff has had an opportunity to review the 
depositions. He needs a couple of days to notify the committee 
about any deposition testimony which may be subject to 
privilege. Staff will redact any material subject to privilege, 
and then the redacted depositions will be made public.
    With that understanding, I ask unanimous consent that 
Members be able to use the depositions of Lanny Breuer, Michael 
Imbroscio, Cheryl Mills, Dimitri Nionakis, Jack Quinn, Steven 
Smith, Colonel Joseph Simmons and Alan Sullivan at today's 
hearing. Without objection, so ordered.
    I ask unanimous consent that those depositions be made 
public after the Counsel to the President notifies the 
committee that the deposition material is not subject to 
privilege, or after the committee staff redacts material after 
Counsel to the President notifies the committee staff as to 
material subject to claims of privilege.
    Without objection.
    Mr. Waxman. Reserving the right to object.
    Mr. Burton. The gentleman reserves the right to object. The 
gentleman will state his reservation.
    Mr. Waxman. You are asking unanimous consent that we make 
these depositions public after we have information from the 
White House as to what ought to be redacted because it is 
privileged. Is this decision up to the White House or is it up 
to our committee counsel to decide what will be withheld and 
redacted?
    Mr. Burton. I think last night we decided that there would 
be a conference between the White House and our committee 
staff, including the general counsel, Mr. Bennett, and that 
would be a decision that would be made jointly.
    Mr. Waxman. Well, if I might inquire, then, what you are 
asking us to agree to by unanimous consent is an agreement you 
have made with the White House on this information; is that 
correct?
    Mr. Burton. I think that is correct.
    Mr. Waxman. I withdraw my reservation.
    Mr. Souder. Reserving the right to object.
    Mr. Burton. The gentleman will state his reservation.
    Mr. Souder. I am willing to trust the chairman and the 
ranking member and the White House counsel in working through 
this at this point, but I am very concerned that one of the 
processes here is that we make as much public as possible, 
because that is part of the education of the general public in 
understanding. Because this is an oversight committee that 
hopefully will lead potentially to changes in both how the 
Government behaves directly and what laws need to be changed 
and part of that is minimizing the information that is not 
available to the public.
    Mr. Burton. The gentleman's point is well taken. Let me 
just say that the committee reserves the right to release these 
documents. But we felt, after consultation with Mr. Ruff last 
night, that they deserved an adequate amount of time to make 
their case regarding privilege, and if they could not make 
their case, then of course we would go ahead and make the 
documents public.
    Mr. Waxman. Would the gentleman yield?
    Mr. Souder. Yes.
    Mr. Waxman. I appreciate your comment. I agree with it 
completely. That is why we sought to make all the depositions 
public that had been taken by this committee. And we were 
defeated on that on a party line vote. But I do think the 
public ought to get the depositions, be able to review them, 
because I don't think there is anything in all the 50 
depositions that this committee has taken and that is the 
reason I submit, that the Republicans defeated our attempt to 
make it public.
    But your statement was you think these depositions ought to 
be out, the public ought to be able to see them. I fully 
support that.
    Mr. Burton. Without objection, so ordered.
    I ask unanimous consent that copies of the depositions 
listed in the Deputy Independent Counsel's November 5, 1997, 
letter, except the deposition of Gina Ratliff, be transmitted 
to the Office of Independent Counsel.
    Mr. Waxman. Reserving the right to object.
    Mr. Burton. The gentleman will state it.
    Mr. Waxman. I have no objection to releasing these 
documents to Ken Starr. If they are relevant in any way to his 
investigation, he should have them. But I want to remake the 
point I just stated for the record. I believe we should also be 
releasing these depositions to the public.
    I would note for the record that the minority Members 
offered a motion to release these depositions at a recent 
committee meeting and we were voted down on a party line vote. 
The Republicans voted not to let the public have these 
depositions and to be able to review them and to see what was 
said in a secret, closed-door deposition of these witnesses.
    So, let's give them to Ken Starr. That is your unanimous 
consent request, and I will not object to it. But I want to use 
this opportunity to point out that he is not the only one who 
should get these depositions. The American people should see 
how this committee has spent its money in depositions and what 
we have to show for it. I withdraw my reservation.
    Mr. Burton. Does the gentleman, Mr. Souder, have further 
comments?
    Mr. Souder. No, I withdraw my objection.
    Mr. Burton. Without objection, so ordered. I ask unanimous 
consent that questioning in the matter under consideration 
proceed under 2(j)(2) of House Rule XI and Committee Rule 14 in 
which the chairman and ranking minority member allocate time to 
committee counsel as they deem appropriate for extended 
questioning, not to exceed 60 minutes equally divided between 
the majority and minority.
    Mr. Waxman. We have no objection.
    Mr. Burton. Without objection, so ordered. I ask unanimous 
consent that the witnesses and Members' statements appear in 
the record in their entirety. Without objection.
    I ask further unanimous consent that questioning in the 
matter under consideration proceed under clause 2(j)(2) of the 
House Rule XI and Committee Rule 14 in which the chairman and 
ranking minority member allocate time to members of the 
committee as they deem appropriate for extended questioning not 
to exceed 60 minutes equally divided. We have already covered 
that. Without objection, so ordered.
    Mr. Waxman. Mr. Chairman? If we are making unanimous 
consent requests, let me suggest a way to expedite our hearing 
today. We have two panels and since they are all from the same 
area in the White House, I would suggest and make a unanimous 
consent request that we put them all together and then have 
questioning of all of them by the Members. And I have no 
problem if we go through several rounds so Members will have a 
full opportunity to ask all the questions they want to ask. But 
it seems to me pretty wasteful to have two separate panels and 
to go through the testimony in two separate groupings.
    Mr. Burton. The Chair would object to that because we have 
some reasons to have these two panels split. And so an 
objection is heard.
    Without objection, the previous question is ordered. We 
have a vote on the floor, I have been notified, and we have 
opening statements. So before we begin the opening statements, 
we will recess once again. There probably will be numerous 
recesses today. There are some dilatory tactics that are going 
to be employed on the floor. So I would urge Members to get 
back as quickly as possible so that there would be some 
continuity in the hearing. The Chair recesses the hearing to 
the fall of the gavel.
    [Recess.]
    Mr. Burton. The committee will reconvene.
    Today, we are addressing how the White House has complied 
with subpoenas issued by this committee in the course of its 
investigation into fund-raising abuses and the funneling of 
foreign money into political campaigns. While the issue of the 
White House videotapes of fund-raising events being withheld 
for months brings us to this point today, it is part of a 
bigger picture of a consistent pattern of lack of cooperation 
by the Clinton White House in any and all investigations.
    This conduct by the White House is just one of the bricks 
in the stone wall put up to stop this and other investigations. 
Other bricks in the stone wall include the over 60 witnesses 
who have taken the fifth amendment or fled the country, 
including a number of close friends of the President such as 
Webb Hubbell, John Huang, Mark Middleton and Charlie Trie, and 
the remarkable lack of memory of so many of the key facts by 
those witnesses who are still available.
    This situation with the White House videotapes is hardly 
unique. It is part of a 5-year history of stonewalling of any 
investigative body, the House, the Senate, any number of 
Independent Counsels and even the President's own Justice 
Department. While we are addressing this matter publicly today, 
I would note that the Justice Department has already called 
before the grand jury various members of the White House 
Counsel's Office and other White House staffers regarding this 
very serious matter. Despite what many of us may feel is a weak 
investigation by the Attorney General, even General Reno did 
not feel she should have to tolerate such defiance among those 
subpoenas. It was only due to 2 months of pointed requests and 
questions from the Senate, that these long-subpoenaed items 
finally were turned over.
    Initially, the existence of videotapes of the White House 
coffees was denied by the White House after a month of alleged 
inquiry into the matter. It then took another month of pressing 
from the Senate to finally result in the White House's 
compliance with months-old subpoenas with which the White House 
Counsel had assured us the White House had complied.
    The Washington Post has written a series of editorials on 
how the White House responds to subpoenas and inquiries in 
``dribs and drabs'' and provides varying accounts of various 
events as new pieces of information are uncovered. The story is 
the same: Run the clock, attack those who attempt to 
investigate, change the subject, drag everything out long 
enough that most will lose interest or energy.
    Those at the White House charged with the task of producing 
relevant records perhaps may not want to find out how many 
other shoes are yet to drop or where these other shoes are 
located. As columnist Michael Kelly has observed, ``the White 
House is on a need-to-know basis about itself these days and 
what it does not need to know and does not want to hear about 
grows and grows.''
    Republicans in Congress are not the only ones who have been 
frustrated by the Clinton White House. As I already noted, the 
Attorney General has expressed her exasperation with White 
House's foot dragging on the videotapes.
    Last Congress, we heard from one of the city's most 
respected senior Justice Department officials, Michael Shaheen, 
who testified before this committee during the Travelgate 
investigation that, quote, the lack of cooperation and candor, 
end quote, that he received from the Clinton White House was 
unprecedented in his 20-year Justice Department career in the 
Office of Personal Responsibility.
    At issue in that case were withheld documents pertaining to 
the Travel Office inquiry. Mr. Shaheen stated that in 1995, 
quote, even a minimal level of cooperation by the White House, 
end quote, would have resulted in documents requested 2 years 
earlier being produced.
    In that same investigation, we heard from the head of 
public integrity, Lee Radek that he too was faced with an 
uncooperative White House. After a year of attempting to obtain 
documents about Harry Thomason in the Travel Office inquiry, 
Mr. Radek wrote to Acting Criminal Division Chief Jack Keeney 
in September 1994 stating quote, At this point we are not 
confident that the White House has produced to us all documents 
in its possession relating to the Thomason allegations. The 
White House's incomplete production greatly concerns us because 
the integrity of our review is completely dependent upon our 
obtaining all relevant documents, end quote.
    Even after the Justice Department issued a subpoena to the 
White House because of Mr. Radek's concerns, it was only after 
this committee subpoenaed documents from Harry Thomason that 
the White House and other documents which should have been 
produced years earlier finally came to light years after they 
were originally subpoenaed.
    Other instances of this investigative stonewalling by the 
Clinton White House include White House billing records showing 
up in the White House private residence book room almost 3 
years after they were first subpoenaed; Webb Hubbell, while he 
was essentially running the Justice Department, transferring 
Whitewater files to his basement at the same time the Justice 
Department was investigating this matter; a former bar bouncer 
at the White House, Craig Livingstone, inexplicably ending up 
with hundreds of FBI files on Reagan and Bush officials, and 
the White House calling it a bureaucratic snafu.
    The FBI Director called it an inexcusable invasion of 
privacy. The White House withholding subpoenaed records 
regarding the investigation of the Hudson Casino project from 
the House and Senate until the information made its way into 
the press; the White House delivering just a week ago documents 
on the White House data base requested over a year ago by 
Chairman McIntosh.
    If anyone wonders why we must continue this investigation, 
just consider the history of this White House. Would anyone be 
surprised, including our witnesses today, if documents central 
to our investigation are still somewhere in the book rooms at 
the White House or basement offices or misplaced files?
    No doubt we will hear much about how many documents have 
been produced, but compliance with subpoenas is not measured by 
the pound. Quantity does not mean compliance.
    It is not a mistake here or there that is troublesome. We 
all understand that mistakes will occur. It is the consistent 
patterns of behavior throughout five different White House 
Counsels that raise serious questions and concerns; questions 
and concerns which I earlier noted are shared by my colleagues 
in the Senate as well as the Attorney General, and rightfully 
so. The atmosphere that has been created at the White House is 
that compliance with congressional subpoenas is not treated 
seriously.
    Sadly, this year it took a threat of contempt of the White 
House to produce many responsive records, and then the 
President attempted to claim executive privilege in May, 
something which Mr. Ruff told me the President didn't intend to 
do when we first met on February 6, 1997. At that time, Mr. 
Ruff pledged the President's full cooperation.
    But this is a White House which has always had more staff 
operating on spin control than it has on document production. A 
White House which often hides the facts from its own people and 
its own lawyers. This is the White House which not only had a 
Johnny Chung giving $50,000 checks to the First Lady's Chief of 
Staff, but which saw Johnny Chung solicited by close friends of 
the First Lady to contribute $25,000 to the Back to Business 
Committee, a group set up by close friends of the President and 
First Lady to thwart any investigations and attack committee 
chairmen and Independent Counsels appointed by their own 
Justice Department.
    This is a White House which gathered documents back in 
October 1996, about John Huang and others and held on to those 
documents and held its collective breath until Election Day. 
Trying to find out about how the DNC vice chairman, John Huang, 
raised money was attacked as quote, ``partisan.'' Yet at least 
one candid White House staffer said a week before last year's 
Presidential election, quote, all they, [the DNC] are trying to 
do is push this back until after the election and then we'll 
watch it all blow up, end quote.
    Let's take for example the White House coffees. Initially, 
the President said they were an opportunity for outreach to 
stay in touch with people. The White House overnights, all 938 
of them were friends. ``I did not have any strangers here,'' 
said the President. While it is hard to imagine that all 938 
overnighters were friends or that the President really needed 
to reach out and touch a Chinese arms dealer or a Florida drug 
dealer, now that we have the videotapes we do, indeed, see that 
certain individual people central to this investigation who 
have now taken the fifth or fled the country were intimate 
friends of the President.
    A picture paints 1,000 words. On one video we see the Trie 
team, which included Charlie Trie and the infamous Mr. Wu, the 
Macau gambling honcho, who provided Trie with over $1 million 
in wire transfers from overseas. It sends a message, the 
President was told when he posed with Mr. Trie, Mr. Wu, and 
various of their business associates. It sends a message, 
indeed. What message is sent by a President who made time for 
these shady characters, but leaves human rights activists and 
friend of many of us, Harry Wu, like an unwanted orphan? It 
sends a message, indeed. Why is the President meeting with Mr. 
Wu, instead of the humanitarian Harry Wu?
    If anyone wants to know why we need to complete this 
investigation, they also should roll the videotapes of Jiang 
Zemin being feted at the White House just a few days ago. 
Representative Nancy Pelosi said last week, quote, ``As the 
Clinton administration gives a 21-gun salute to President Jiang 
Zemin today, which the Chinese Government insisted upon that 
President Clinton and all those assembled remember the shots 
fired in Tiananmen Square.'' The President's National Security 
Advisor, Sandy Berger, said last week that the Chinese 
Government has denied any plan to funnel money into our 
political system. Let's remember they also denied killing 
anyone at Tiananmen Square.
    Does anyone really believe that we learned all there is to 
learn in these matters? There is much work left to do. The 
stonewall erected by the White House and the President's 
operatives must be taken down brick by brick. ``James Riady 
sent me,'' whispered the Riady intermediary, Arief Wiriadinata, 
in a September coffee 1995. Mr. Wiriadinata provided $450,000 
to the DNC, the legality of which was questioned over a year 
ago.
    Consider if the James-Riady-sent-me tape was public in 
October 1996 instead of October 1997. Would we have accepted 
the DNC's assurances that there was nothing to an Indonesian 
gardener of moderate income contributing close to half a 
million dollars to the DNC? The James-Riady-sent-me greeting 
brought an approving nod from the President. Now we have 
learned that Mr. Wiriadinata's lawyers are telling him to stay 
out of the country along with over 60 others who have taken the 
fifth amendment or fled the country. Mr. Wiriadinata is just 
another brick in the White House stonewall.
    These videotapes are a treasure trove of information on the 
way this President worked for campaign cash. We now are able to 
see how those who have taken the fifth and fled the country in 
order to obstruct this investigation were intimately engaged 
with the President who knew them on a first name basis. A 
Presidential hug for Johnny Chung, a ``Hi Pauline'' for Pauline 
Kanchanalak, the woman who has fled the country and left a 
multitude of questions about her quarter-of-a-million-dollar 
DNC contributions. Questions, regrettably, which apparently 
create no curiosity on the part of the President, the White 
House, or many in Congress. Who are these people and what were 
they doing at the White House?
    I would like to add one other thing that just came to my 
mind. I sent two letters to the President of the United States 
regarding Charlie Trie, asking him to talk to the Chinese 
Government and in particular, the Chinese President about 
bringing Mr. Trie back before this committee so we could talk 
to him and ask him questions. To my knowledge, and to the 
media's knowledge, that question was never asked of the Chinese 
President. And I would like to know why the President didn't 
ask him that if he really wants to get to the bottom of this 
investigation. Could it be because Charlie Trie has answers we 
want and cannot get as long as he is in China? That is 
something I am very concerned about and I think other members 
of the committee are concerned about as well.
    These pictures clearly provide a clear picture of what we 
are investigating and the withholding of such information is 
inexcusable as the ranking member of this committee, Mr. 
Waxman, has acknowledged. They were clearly responsive to our 
subpoena of March 4, 1997. There is no contention about this. 
The President's counsel has admitted the videotapes should have 
been turned over.
    As we go forward in our investigation, the FBI assigns more 
agents every day and additional Cabinet members are under 
investigation by a slow-moving Justice Department. Some would 
suggest we should stop investigating, but the role of oversight 
is to inform the American public of important information which 
may affect American policy. There is much left here yet to 
uncover.
    The fact that an unprecedented number of witnesses have 
either pled the fifth amendment or fled the country cannot and 
will not deter us even if it will make our task more lengthy 
and difficult. The White House shouldn't be assisting in this 
stonewalling effort. Rather the President should demand that 
the public servants who serve him make every effort to get at 
the truth.
    With that I yield to my colleague Mr. Waxman for his 
opening statement.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.021
    
    [GRAPHIC] [TIFF OMITTED] T5405.022
    
    [GRAPHIC] [TIFF OMITTED] T5405.023
    
    [GRAPHIC] [TIFF OMITTED] T5405.024
    
    [GRAPHIC] [TIFF OMITTED] T5405.025
    
    [GRAPHIC] [TIFF OMITTED] T5405.026
    
    Mr. Waxman. Thank you, Mr. Chairman. Since our committee 
last met, Senator Thompson announced that he was bringing his 
hearings to a close. He held 32 hearings this year, but 
concluded he wasn't going to hold more hearings just for the 
sake of holding hearings.
    I completely agree with Senator Thompson's assessment that 
his hearings showed the need for real campaign finance reform. 
Our system is broken and desperately needs fixing. In New 
York's special congressional election, for instance, just 2 
days ago, more than $1 million in soft money was pumped into a 
single congressional race. That was inconceivable just 8 years 
ago.
    This morning's Washington Post has an article, ``Fund-
Raising Flourishes in the House.'' In the first 6 months of 
1997, incumbent Members of the House of Representatives raised 
$52.9 million, up $7.4 million from the comparable period 2 
years ago, according to a new report by the Federal Elections 
Commission. And they pointed out Members who raised a lot of 
money recently and they pointed out a lot of Members who were 
holding on to war chests.
    In terms of people who raised a lot of money, they talked 
about Newt Gingrich as of June 30th raising a million eight, 
and Richard Gephardt, the Democratic leader, a million four; 
Joe Kennedy, $1 million, and others over hundreds of thousands 
of dollars.
    They pointed out that some of our colleagues have stored 
away money. David Dreier, $2.7--over $2.7 million he is holding 
on to. Joe Kennedy has a million eight. Dick Gephardt a million 
one. Our chairman, $995,000.
    We need to change this system. People are out grubbing for 
money and that is what we have seen in the Congress and that is 
what we have seen from the Presidential campaigns as well.
    That is only one of the reasons that nearly every Democrat 
on this committee and Representative Sanders has signed on to 
the discharge petition that would force a vote just simply a 
vote on the House floor on campaign finance legislation. And I 
also want to mention that one Member of the majority, 
Congressman Shays, has also signed that petition, and nearly 
every minority Member supports passing a bill that would ban 
soft money. The fact that we have soft money that can be thrown 
into these campaigns, Presidential and congressional, has meant 
that we have seen extraordinary, extraordinary lengths to which 
people have gone to raise more and more money.
    At the same time, many of us are wondering why we are 
having this hearing today since Senator Thompson covered the 
same ground with the same witnesses last week. It might be a 
better use of our time to focus on other issues like the Triad 
Management's role in the 1996 election. And I very much doubt 
when we hear that our majority is looking at Republican 
campaign finance abuses that they are looking into that. One 
should. Or the Empire Landfill's conduit contribution scheme. 
These were ignored by the Senate. They shouldn't be ignored by 
our committee.
    The continual duplication of the Senate's work suggests 
that the real objective may not be the truth, but to drive the 
Democratic party further into debt. There are two points I want 
to make about today's hearing. First, the White House has an 
absolute obligation to provide Congress with information 
pursuant to legitimate information requests. No one on this 
committee, Republican or Democrat, will tolerate frivolous 
privilege claims or any attempt to hide important information 
from Congress.
    Over the past year, there have been a series of editorials 
in the Washington Post titled ``Dribs and Drabs'' and I 
noticed, Mr. Chairman, you used the term, dribs and drabs. The 
point of the series, which I think many Members agree with, is 
that the White House has sometimes failed to provide needed or 
accurate information to the public. At some point, it matters 
less why that happens, than the fact that it undermines 
credibility.
    In many instances, it is a failure to provide information 
when first requested, and not even the substance of the 
information, that is damaging. For this reason, my personal 
view is that careless mistakes, not malicious intent, is the 
likely explanation. Based on the evidence I have seen, there is 
no indication that Charles Ruff or his staff have intentionally 
misled the Congress.
    It is also essential that we put the White House's action 
in context. The White House has received over 1,100 requests 
for information from the House and the Senate, the Independent 
Counsel and the Justice Department. They have spent millions of 
dollars complying with these requests and have worked with a 
small staff under tight deadlines. In a process like this, 
mistakes and omissions are possible.
    As important as it is for the White House to cooperate with 
us, we must be reasonable in our requests and careful in the 
accusations we make. In October, for instance, Mr. Chairman, 
you appeared on Face the Nation and leveled a serious charge at 
the Clinton administration. You said that, quote, ``We think 
that some of those tapes may have been cutoff intentionally. 
They have been altered in some way.''
    Now, this very serious accusation was the lead story on the 
evening news and was in the next day, and it was even sent out 
in a prominent Washington Post headline: ``Tapes May Have Been 
Altered, Representative Burton Says.''
    There is only one problem. It is apparently not true. I 
know of no evidence that substantiates your charge. In fact, 
several witnesses who testified in the Senate, including Chief 
Petty Officer Charles McGrath and Colonel Charles Campbell, 
swore under oath that the videos have not been altered.
    The depositions that we are releasing today, or at least we 
are going to release after some of the privileged information 
is redacted, will provide further evidence that there was no 
tampering. And I understand that Paul Ginsberg, a video expert 
hired by Senator Thompson has also concluded that there was no 
tampering.
    Mr. Chairman, if you have some evidence on this matter, I 
hope you will share it with the committee this morning. If not, 
I would ask that you correct the record so that reputations are 
not needlessly impugned.
    Furthermore, I found your opening statement really curious, 
because you attacked the President for entertaining some of 
these contributors at the White House. At the same time you 
attacked the President for receiving the President of China, as 
if there is some conspiracy that the President of China coming 
to the White House had something to do with these other 
characters.
    I just don't see it. And I have to say that you and I have 
not disagreed on policies that we voted on in the House when it 
has come to China because both of us voted against most favored 
nation status to China and strongly spoken out against human 
rights abuses in China. Speaker Gingrich received the President 
of China. Senator Lott received the President of China. The 
President of the United States received him as well.
    I think we have to be careful. I think the White House has 
to be careful to be sure to comply with the requests for 
information or they are going to lose their credibility. And 
that is something they should take seriously. But I think we as 
Members of Congress have to be careful when accusations are 
made if there is no substantiating evidence for it. Let us 
conduct an investigation to get the facts, to get to the truth, 
and not make statements for which there are no facts to 
substantiate them.
    I look forward to any new information that last week's 
hearing might have overlooked when these same witnesses 
appeared in the Senate. I yield back the balance of my time.
    Mr. Burton. Thank you, Mr. Waxman. We would like to ask 
other Members to submit their statements for the record so we 
can get to our witnesses as quickly as possible.
    And with that, Mr. Ruff, Ms. Mills, would you raise your 
right hands, please?
    [Witnesses sworn.]
    Mr. Burton. Thank you. Mr. Bennett.
    Mr. Bennett. Mr. Chairman, I believe Mr. Ruff has an 
opening statement.
    Mr. Burton. Pardon me, I agree. Mr. Ruff, you are 
recognized for an opening statement. If you could keep it to 5 
minutes we would appreciate it.

    STATEMENT OF CHARLES F.C. RUFF, COUNSEL TO THE PRESIDENT

    Mr. Ruff. Mr. Chairman, I will do my best to abide by that 
constraint. I submitted my opening statement 2 days ago. And I 
will read it into the record, but I want to begin with one very 
brief, very pointed response, Mr. Chairman, to your opening.
    There is not in my office, there never has been, and there 
never will be defiance, stonewalling, obstruction, or any other 
inappropriate conduct. My orders from the President of the 
United States are to cooperate with this committee's legitimate 
demands. We do so. And that is all we do.
    Now, my colleagues and I are here to respond to the 
committee's questions today concerning compliance with your 
document request and subpoenas. When we have answered those 
questions, I am confident that the committee will conclude that 
our efforts have been diligent and our compliance with the 
committee's demands exemplary.
    It is inevitable in any adversarial setting that there will 
be disagreements about process and substance. Mr. Chairman, you 
and I have disagreed on occasion. You have been candid in 
letting me know about your concerns, and I trust that you have 
found my responses equally candid.
    Our staffs, too, have had disagreements, most of which have 
been resolved just as they should be, by ongoing discussion. 
When we have found some requests to be overbroad, your staff 
has often been willing to narrow them. When demands have 
strained our resources, we have been able to prioritize your 
requests. When concerns over privilege have arisen, we have 
been able to establish a process that ensures committee access 
to all relevant documents.
    And I will pause here for a moment to reiterate what I said 
earlier, Mr. Chairman. I appreciate your taking the time to 
meet with me last night to resolve what I think was really a 
procedural question about how these issues ought to be 
addressed. It was symptomatic, I think, of the relationship we 
have developed in which we are honest with each other about our 
concerns and we try to find solutions to them.
    When the committee has made special requests for expedited 
production we have done our best to respond. At every stage, we 
have worked to give the committee the information it needs.
    Where we have erred, we have been forthright in admitting 
it, and we have done our best to correct mistakes as quickly as 
possible. But I submit that, considering the extraordinary 
number and breadth of the demands placed on us by this 
committee and other investigative body, those mistakes have 
been few.
    On that point, let me address one of the principal issues 
that has brought us here today, the recent discovery and 
production of the videotapes. The charges of impropriety 
surrounding that discovery, although readily disposed of, are 
symptomatic of a tendency of some, I would submit, to reach 
hasty and ill-considered conclusions.
    We do not dispute that the videotapes were responsive to 
the committee's subpoenas and should have been found and 
produced some months ago. But the record developed over the 
past month makes it clear beyond any doubt, that the reason 
they were not found was simple and innocuous. One page of my 
directive, faxed from the White House Military Office to the 
White House Communications Agency was misplaced. WHCA personnel 
have testified that if they had received that page, they would 
have searched their computer looking for tapes of the coffees. 
There was no conspiracy. There was no effort to obstruct 
justice. There was no stonewalling. There was only a mistake of 
the most mechanical, routine and innocent variety.
    Thus, the suggestion that the videotapes were concealed or 
their production delayed for some ulterior purpose is 
absolutely baseless. Nor is there any basis whatsoever for the 
claim that the tapes were altered before they were produced. 
The WHCA professionals, career military personnel, have 
testified that they retrieved the original tapes from the 
archives and copied them. Nothing else.
    I began with the issue of the videotapes because, just as 
the charges that have been levied concerning their discovery 
are baseless, so is the more general allegation that the White 
House has been deliberately slow in responding to subpoenas or 
has somehow been concealing relevant documents. Those who make 
such accusations need to understand two things.
    First, to withhold, for tactical or political purposes, 
documents responsive to this committee's legitimate demands 
would be inconsistent with our professional responsibility, a 
responsibility that all the lawyers in my office take very 
seriously.
    Second, to search for documents in the White House is an 
enormous task. There are some 2,000 employees in some 40 
different units within the Executive Office of the President. 
No matter how focused a search request may be, and most are far 
from that, it may require us to contact every 1 of those 2,000 
people, examine every one of their files, search the central 
records storage system as well.
    Faced with deadlines from this committee and others that 
any dispassionate observer would find extraordinarily short, my 
lawyers have worked 100-hour weeks to meet the committee's 
demands in a manner that deserves, I submit, not criticism, but 
praise. When we receive a subpoena, a letter, or merely a phone 
call, we respond as rapidly as possible.
    When a subpoena is broad-ranging or numerous requests have 
been received from various investigative bodies, we issue a 
directive to all personnel of the Executive Office asking them 
to search their files. Lawyers in our office are available to 
answer questions or assist in the search. In addition, my 
lawyers visit the individual offices that are most likely to 
contain responsive files and work with the Office of Records 
Management to guide their search for archived documents.
    In response to more limited requests, we conduct targeted 
searches or send special directives to those persons who are 
most likely to have responsive millionaires and for WAVES 
records, phone logs and e-mails we search through mounds of 
paper ourselves, often in response to some emergency request.
    No process, however careful, can ensure error-free 
compliance, particularly given the demands and deadlines we 
have faced. Indeed, any lawyer who has been involved in large-
scale document production, even in routine civil litigation 
will understand that mistakes sometimes larger, sometimes 
smaller are inevitable.
    We can, however, take all reasonable steps to minimize the 
chances of error and to that end, we have continued to search 
to make sure that we have found every responsive document. When 
we find such a document, we produce it. That is the responsible 
and professional course that any lawyer would follow.
    It is a course, Mr. Chairman, that is consistent with my 
mandate from the President to respond forthrightly to this 
committee's legitimate demands. No one has ever so much as 
hinted that we do anything less, and neither the President nor 
I would accept anything less. With that, Mr. Chairman we are 
happy to respond to the committee's questions.
    [The prepared statement of Mr. Ruff follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.027
    
    [GRAPHIC] [TIFF OMITTED] T5405.028
    
    [GRAPHIC] [TIFF OMITTED] T5405.029
    
    [GRAPHIC] [TIFF OMITTED] T5405.030
    
    Mr. Burton. Thank you, Mr. Ruff.
    Ms. Mills, do you have an opening statement.
    Ms. Mills. I do not.
    Mr. Burton. Thank you.
    Mr. Bennett.
    Mr. Bennett. Thank you, Mr. Chairman. Mr. Ruff, Ms. Mills. 
Good morning. Almost good afternoon. I thank you for your 
patience. Mr. Ruff, I, too, want to thank you for your visit up 
here last night. I enjoyed our meeting.
    Let me first, for the record, note Ms. Mills, you are 
accompanied here by your attorney, Mr. Neil Eggleston; is that 
correct?
    Ms. Mills. That is correct.
    Mr. Bennett. Mr. Eggleston, if you want to be seated next 
to your client at the table, you are welcomed to do so, sir. If 
at any time you want to stop my questions, please so advise.
    Mr. Ruff, you did not arrive as Chief Counsel to the 
President until late January or early February of this year; is 
that correct?
    Mr. Ruff. February 10th was my first day, Mr. Bennett.
    Mr. Bennett. Had you previously served in any capacity in 
the White House at previous administrations?
    Mr. Ruff. No, I had not.
    Mr. Bennett. What was the general status of varying 
investigative matters upon your arrival?
    Mr. Ruff. I think it's fair to say that they rested in 
various stages. Some matters were left over from the previous 
Congress and actions were being taken to respond to a variety 
of requests that had been lodged over the preceding months. 
Others were just gearing up.
    For example, we were aware that the Thompson committee was 
about to begin, but hadn't yet begun its work. Similarly, the 
work of this committee was just beginning, and, indeed, I think 
maybe even before I arrived in my office I had my first meeting 
with the chairman.
    Mr. Bennett. And that would have been, I believe, February 
6th of this year; is that correct?
    Mr. Ruff. I believe that's correct.
    Mr. Bennett. So essentially there were matters having to do 
with the Senate, the House, the Department of Justice and 
Independent Counsel as you arrived on the scene; is that 
correct?
    Mr. Ruff. That is true.
    Mr. Bennett. You will note that there were in fact earlier 
directives from your predecessor, Mr. Jack Quinn, concerning 
information sought by these investigative bodies and I believe 
if we can put up on the screen certain directives which had 
been previously sent by Mr. Quinn. Exhibit 135, a directive, I 
believe, in October 1996; exhibit 136, a directive of December 
16, 1996; and exhibit 137, I believe it was a directive of 
January 9, 1997.
    Did you have occasion to review those directives from your 
predecessor when you arrived, Mr. Ruff?
    Mr. Ruff. In the days and weeks following my arrival, I 
reviewed these directives as part of my ongoing effort to try 
to catch up with the state of affairs and begin to address how 
we would go about making production.
    [Exhibits 135, 136, and 137 follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.031
    
    [GRAPHIC] [TIFF OMITTED] T5405.032
    
    [GRAPHIC] [TIFF OMITTED] T5405.033
    
    [GRAPHIC] [TIFF OMITTED] T5405.034
    
    [GRAPHIC] [TIFF OMITTED] T5405.035
    
    [GRAPHIC] [TIFF OMITTED] T5405.036
    
    Mr. Bennett. I note with respect to the first directive, 
exhibit 135, looking at the second page, that that directive 
included the particular attached request for information or 
subpoena. I think it's on the television screen in front of 
you, sir, if you want to take a minute to look at it on the 
document.
    Mr. Ruff. Unhappily, sir, the screen is only modestly 
legible. Yes, I see it.
    Mr. Bennett. That directive, in fact, Mr. Quinn just also 
attached the particular request for information which had come 
from the investigative body; isn't that correct?
    Mr. Ruff. Yes, that appears to be the case.
    Mr. Bennett. Ms. Mills, you, in fact, worked with Mr. Quinn 
prior to working with Mr. Ruff; is that correct?
    Ms. Mills. That is correct.
    Mr. Bennett. And what is your present title?
    Ms. Mills. Deputy Counsel to the President.
    Mr. Bennett. You are essentially the No. 2 lawyer in the 
office; is that right?
    Ms. Mills. There are two deputy counsels; myself and Mr. 
Bruce Lindsey.
    Mr. Bennett. So essentially only Mr. Ruff outranks you in 
the Office of White House Counsel; is that correct?
    Mr. Ruff. I don't like to think of it that way, Mr. 
Bennett.
    Mr. Bennett. I won't ask you if you outrank Mr. Ruff. Let 
me rephrase my question.
    You had, in fact, been employed in the first term of the 
Clinton administration in the Office of White House Counsel?
    Ms. Mills. Yes.
    Mr. Bennett. And you, in fact, assisted Mr. Quinn in the 
preparation of these directives that we just placed up on the 
screen; isn't that correct?
    Ms. Mills. No, it's not. I think, as you know from my 
deposition testimony, this first directive I was not involved 
in. The second directive I was.
    Mr. Bennett. I'm sorry, Ms. Mills, I did not take your 
deposition. I apologize for that error.
    Ms. Mills. I'm sorry; I thought you had my transcript.
    Mr. Bennett. I looked at part of it. Then you assisted in 
the second directive; is that correct?
    Ms. Mills. Right.
    Mr. Bennett. And how about the third directive? Did you 
assist in the preparation of that directive?
    Ms. Mills. Yes.
    Mr. Bennett. So then I misstated as to the first of the 
three, but then directives two and three in December and 
January you prepared those?
    Ms. Mills. That's exactly correct.
    Mr. Bennett. And whose decision was it to attach copies of 
the actual request, whether it was a request for documents or a 
subpoena? Did you make a decision to attach the particular 
request with these directives from Mr. Quinn?
    Ms. Mills. I think you are speaking about the first 
directive, and I was not involved in the first directive. The 
second two directives actually were with respect to requests 
that we had received and we went about ensuring that we put all 
the information from the particular requests in there in a form 
that would be understandable to our staff.
    Mr. Bennett. Ms. Mills, was it Mr. Quinn's policy to 
generally seek to attach the particular document request or 
subpoena to a directive?
    Ms. Mills. No.
    Mr. Bennett. And directing your attention to the group of 
lawyers who arrived--in fact, you and Mr. Lindsey were the only 
two holdovers from the first term; isn't that correct?
    Ms. Mills. That's incorrect. In fact, at that time there 
were several other members of the Counsel's Office who were 
still there, but they have since departed.
    Mr. Bennett. Well, let me ask you this. Is it safe to say 
that by February or March of this year that essentially there 
had been a complete turnover with the exception of you and Mr. 
Lindsey?
    Ms. Mills. I think by June, that would be an accurate 
statement.
    Mr. Bennett. And by mid-January of this year, just prior to 
Mr. Ruff 's arrival, there were a considerable number of 
documents which had already been compiled; isn't that right?
    Ms. Mills. We were beginning the collection with respect to 
the December 16th and January 9th. At that point, we had 
compiled documents. We had not completed, obviously, compiling 
all of the materials nor had we began all the production 
related to those materials, as I think you might know.
    Mr. Bennett. In fact, in late January, early February, 
right around the time of Mr. Ruff 's arrival, a significant 
number of documents were turned over to the Department of 
Justice under your supervision; isn't that correct?
    Ms. Mills. I believe somewhere on the order of 3,000 pages 
had been turned over at that point.
    Mr. Bennett. And in terms of your efforts for document 
compliance in searching for information, you had actually gone 
through a number of documents yourself with respect to Mr. John 
Huang; isn't that correct?
    Ms. Mills. Yes.
    Mr. Bennett. In fact, you sent an aide down to the photo 
office to see if you could find photographs of Mr. Huang or the 
Riadys at some point in time.
    Ms. Mills. With respect to the WAVES request, when we were 
getting press requests from a number of individuals, we made an 
attempt to go through and identify all the different WAVES 
records for Mr. Huang. I believe we had a request from the 
committee for that information as well. And so in the course of 
trying to establish which was the correct John Huang, which was 
an individual who was also named John Huang, but not the same 
John Huang, that is how we went about trying to discern the 
appropriate visitor and determining whether or not Mr. Huang 
was or was not the correct John Huang.
    Mr. Bennett. And during that process, did you, in fact, 
deal with the White House Communications Agency, better known 
as WHCA?
    Ms. Mills. I dealt with the photo office. I did not deal 
with the audio visual section of the WHCA, as I think you 
probably are aware. I was not familiar with their practices 
with regard to videotaping.
    Mr. Bennett. Directing your attention to January 15th of 
this year, prior to Mr. Ruff 's arrival, there was, in fact, a 
letter sent by Chairman Burton of this committee, I believe it 
is exhibit 138 that is on the screen now, with respect to the 
matter of compliance with document requests of this committee. 
Did you discuss this matter with Mr. Ruff when he arrived?
    [Exhibit 138 follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.037
    
    [GRAPHIC] [TIFF OMITTED] T5405.038
    
    [GRAPHIC] [TIFF OMITTED] T5405.039
    
    [GRAPHIC] [TIFF OMITTED] T5405.040
    
    [GRAPHIC] [TIFF OMITTED] T5405.041
    
    Ms. Mills. When everyone arrived, there was, as you would 
say, there was a large number of individuals who arrived to do 
the investigative work, and I did sit down with the new staff 
who were going to be doing the investigative work to apprise 
them of what had taken place to that point and also what 
matters we had that had just come in that needed to be 
addressed.
    Mr. Bennett. In fact, your office is right next door to Mr. 
Ruff 's office in the White House; is that right?
    Ms. Mills. It is now. At the time you're speaking of now, 
it was in the Old Executive Office Building.
    Mr. Bennett. And when did your office move next door to Mr. 
Ruff 's?
    Ms. Mills. Early February.
    Mr. Bennett. Upon his arrival?
    Ms. Mills. I believe that is correct.
    Mr. Bennett. Incidentally, Ms. Mills, just to perhaps 
correct a misimpression by Congressman Waxman, you did not 
testify before the Senate; is that correct?
    Ms. Mills. No, I did not.
    Mr. Bennett. Ms. Mills, with respect to the time period of 
February 6th at the time that Mr. Ruff met with Chairman 
Burton, I assume that except for Bruce Lindsey, there were 
basically no other persons upon whom Mr. Ruff could rely for 
document production in that I think Mr. Breuer has testified 
that at least he thought by February or March, Mr. Breuer in an 
earlier deposition testimony, that by February or March the 
entire new team had arrived. So I gather that upon Mr. Ruff 's 
arrival and your taking the office next to Mr. Ruff, that Mr. 
Ruff was relying upon you to assist him in efforts of document 
production upon his arrival?
    Ms. Mills. That's correct. I was transitioning those 
matters. There was one member of the team who arrived in 
December 1996, but apart from that; that is correct.
    Mr. Bennett. Mr. Ruff, ultimately there was a subpoena that 
was served by the committee, the subject subpoena for your 
appearance today, and I believe that is exhibit 139. The March 
4th subpoena. Mr. Ruff, do you know who actually received the 
subpoena and receipted it?
    [Exhibit 139 follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.042
    
    [GRAPHIC] [TIFF OMITTED] T5405.043
    
    [GRAPHIC] [TIFF OMITTED] T5405.044
    
    [GRAPHIC] [TIFF OMITTED] T5405.045
    
    [GRAPHIC] [TIFF OMITTED] T5405.046
    
    [GRAPHIC] [TIFF OMITTED] T5405.047
    
    [GRAPHIC] [TIFF OMITTED] T5405.048
    
    [GRAPHIC] [TIFF OMITTED] T5405.049
    
    Mr. Ruff. I do not. That tends to vary depending on how it 
is delivered and what time of day and who happens to be 
present. But we view it as having been served on and received 
by the Office of White House Counsel.
    Mr. Bennett. Who made the initial determination as to who 
was going to ensure compliance with that subpoena and gather 
the requested material?
    Mr. Ruff. I think it is fair to say, Mr. Bennett, that we 
treated this subpoena as we would any other subpoena or request 
for documents. Principal responsibility for responding to these 
sorts of subpoenas is vested in what I'll refer to as the 
investigative side of my office, which is headed by Mr. Breuer 
as Special Counsel to the President.
    Mr. Bennett. Ms. Mills and Mr. Ruff, I'll note that 
paragraph 1 of page 1 of that subpoena, clearly calls for 
videotapes; isn't that correct?
    Mr. Ruff. It refers to video or audio recording, yes.
    Mr. Bennett. And I believe, and if I am incorrect, Mr. 
Ruff, correct me, and I note and have appreciated your great 
candor in our meetings in terms of the error in not turning the 
material over, but neither of you dispute the fact that the 
videotapes recently produced by the White House were clearly 
within the scope of this subpoena back in March of this year; 
is that correct?
    Ms. Mills. That's correct.
    Mr. Ruff. Yes, Mr. Bennett.
    Mr. Bennett. Now, Mr. Ruff there was a directive which you 
ultimately sent out on April 28, 1997, I believe noted as 
exhibit 140 and we will place it on the screen.
    [Exhibit 140 follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.050
    
    [GRAPHIC] [TIFF OMITTED] T5405.051
    
    [GRAPHIC] [TIFF OMITTED] T5405.052
    
    [GRAPHIC] [TIFF OMITTED] T5405.053
    
    Mr. Ruff. Yes, sir.
    Mr. Bennett. Is there any reason why there was almost a 2-
month delay before forwarding this directive to members of your 
staff to seek compliance with this subpoena?
    Mr. Ruff. This directive to my best recollection, Mr. 
Bennett, was intended to encompass a variety of requests and 
subpoenas received not only from this committee, but from other 
investigative bodies as well.
    There had been, as you know, during the February, March, 
April period, ongoing efforts to collect documents and produce 
those that were responsive to the earlier Quinn directives as 
well as specific searches that were being conducted. This 
really was designed to wrap up a whole range of different 
requests that had come into the office.
    Mr. Bennett. Ms. Mills, you were, in fact, aware of the 
existence of the entity known as the White House Communications 
Agency as early as last year, 1996, weren't you?
    Ms. Mills. Yes.
    Mr. Bennett. In fact, that is the entity that produces the 
videotapes that are subject to question here among the many 
questions we have?
    Ms. Mills. It is the entity that produces them among lots 
of other responsibilities that they have.
    Mr. Bennett. And if I can, showing you exhibit 141, which 
is the memorandum in April 1996 from Mr. Quinn, noting that 
that agency, WHCA, would be recording political events, you in 
fact assisted in authoring that memorandum in April 1996; is 
that correct?
    [Exhibit 141 follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.054
    
    [GRAPHIC] [TIFF OMITTED] T5405.055
    
    [GRAPHIC] [TIFF OMITTED] T5405.056
    
    Ms. Mills. That's correct. It indicates that it would be 
recording Presidential remarks as opposed to political events.
    Mr. Bennett. But essentially you were aware of the efforts 
of WHCA in that regard?
    Ms. Mills. My interactions with WHCA at that time were not 
to walk through a memo. As you probably are aware, there was a 
precursor memo that WHCA sent to me outlining what their 
activities were. With respect to that memo, we were focused, in 
particular, on activities and support that they provided that 
were telecommunications-related.
    For example, when the President travels, every trip that he 
takes, there is always a staff room, and associated with it 
there are computers, faxes, phones and other equipment. WHCA 
wanted to ensure that they were appropriately following the 
guidelines that had been laid out in earlier memoranda that we 
had sent out regarding political activity, so our discussions 
related to those matters, as opposed to what other practices or 
activity they might actually engage in as an agency.
    Mr. Bennett. Showing you a memorandum 4 months later, once 
again involving you with WHCA--and correct me if I'm wrong, Ms. 
Mills, because I'm really not sure of this--but exhibit 141-A 
is a memorandum in August 1996, and I believe there is a note 
as to guidelines, as to the taping of political events by this 
agency; is that correct?
    [Exhibit 141-A follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.057
    
    [GRAPHIC] [TIFF OMITTED] T5405.058
    
    Ms. Mills. If you're speaking about on the second page, 
where it speaks about reporting Presidential remarks, it is, 
and as you are probably aware, there is a precursor memo to 
this memo from WHCA that is identical almost to this memo. So 
what I was trying to do was ensure that I was providing advice 
to our staff regarding the activities that they indicated that 
they did or didn't do.
    Mr. Bennett. Just so you understand, there is a limited 
amount of time, so I can't necessarily produce each document to 
lead into the next document.
    Ms. Mills. No, I understand. But I noticed that that one 
was not here, so----
    Mr. Bennett. In fact, correct me if I'm wrong, your 
personal notation is in your handwriting at the top of that 
page to the right; isn't it?
    Ms. Mills. Right.
    Mr. Bennett. Did you at that time--the notation there in 
terms of your handwriting on that memorandum, did you at that 
time have a general discussion with audiovisual officials with 
respect to the particular events that were going to be 
videotaped by WHCA over the course of the Presidential 
campaign?
    Ms. Mills. No. And as I think you are probably aware, the 
individuals with whom I met were not familiar with what WHCA's 
audiovisual practices were at that time. Indeed, Mr. Steve 
Smith was not yet assigned to the audiovisual unit, so he was 
unaware what practices they had with regard to what they taped 
and what they didn't tape; and the other individuals also, I 
think, as you probably are aware from testimony in the Senate, 
were unaware at that time. So we did not discuss that.
    Indeed, what we were trying to ensure was with respect to 
the President's political activity during a time period where 
there would be a considerable amount, we were making sure that 
WHCA's resources with respect to their phone, their faxes, 
their equipment, and their computers were being used 
appropriately; and that was particularly of interest because in 
this time period forward, the President's activity at that time 
was primarily campaign-related with respect to his traveling.
    Mr. Bennett. In fact, I can't report to you that I read all 
the Senate testimony, but Steven Smith, I believe, testified 
before the Senate within the last 2 weeks that you came to 
speak with him about the role of WHCA in filming events; is 
that correct?
    Ms. Mills. That is not correct.
    Mr. Bennett. His testimony would be incorrect in that 
regard?
    Ms. Mills. I'm not familiar that he has made testimony with 
respect to us having discussions regarding WHCA's filming.
    Mr. Bennett. But if that was the extent of his testimony, 
then you would disagree with that?
    Ms. Mills. I would disagree with that, though it is my 
understanding that Mr. Smith has indicated that we did not 
discuss WHCA's videotaping practices at that time. Indeed, he 
was not familiar with them at that time.
    Mr. Bennett. Ms. Mills, in fact, you are on one of the 
videotapes that was released within the last few weeks, I think 
the March 11, 1995, videotape, if I can have exhibit Roman 
Numeral 6 or VI. And if we can, just quickly that is, in fact--
--
    Mr. Barrett. Mr. Chairman? Parliamentary inquiry, Mr. 
Chairman.
    Ms. Mills. That's my lovely family.
    Mr. Bennett. That is you and your family there; is that 
correct?
    Ms. Mills. That's correct.
    Mr. Bennett. I will stop, Mr. Chairman, if there is a----
    Mr. Barrett. Mr. Chairman, I have a parliamentary inquiry 
here.
    Mr. Fattah. Mr. Chairman, when we are requesting 
information for someone to respond to testimony, we should 
provide the transcript of that testimony so the witness can 
familiarize herself with it.
    Mr. Burton. The point is well taken.
    Mr. Bennett. Ms. Mills in that regard----
    Mr. Barrett. Mr. Chairman, I have an inquiry, too.
    Mr. Burton. The gentleman will state his inquiry.
    Mr. Barrett. Do we have a copy of all the exhibits that are 
being shown here? I understand there may have been one copy 
given to the minority. It is difficult when we see a corner of 
a picture to know what the probative value of that is. I mean, 
it would be helpful for us, as we go through these, so when 
counsel is asking a question, we see more than just the part 
that is on the screen.
    Mr. Bennett. I will be glad to respond to that, Mr. 
Chairman.
    Mr. Burton. Please, Mr. Bennett.
    Mr. Bennett. The tape, Congressman, is quite lengthy. It 
wasn't my intent to play the entire tape.
    Mr. Barrett. No, not the tape. I'm referring more to the 
prior one that we saw. The prior exhibit that we saw on the 
screen here. What I would like to do is be able to look at the 
whole document as you are showing it on the screen, and to know 
what the document is.
    Mr. Waxman. Will the gentleman yield to me?
    Mr. Barrett. Yes.
    Mr. Waxman. I was going to point out that the majority gave 
us these documents and we are now trying to duplicate them. 
They just gave it to us just now, so we are trying to make 
copies as quickly as possible.
    Mr. Burton. In the future, we will try to make sure that 
documents relevant to the hearings will be provided in advance.
    Mr. Barrett. Thank you very much, Mr. Chairman.
    Mr. Fattah. Mr. Chairman, no attempt to be dilatory either, 
there have been a series of questions in which the witness has 
said, ``as you are aware,'' and I guess the concern would be--
that would arise out of that is, if the counsel has some 
information to the contrary or that would infer a different 
slant to things--I mean, there just seems to be something going 
on that I am not----
    Mr. Burton. Well, relevant documents, we will try to make 
sure are given to the minority so that they are aware.
    Mr. Bennett. Congressman Fattah, there is nothing going on 
between Ms. Mills and myself. I think we have met each other 
once before. Is that correct, Ms. Mills, in case my wife 
happens to watch?
    Ms. Mills. I'm not going to answer that question.
    Mr. Burton. The gentleman will suspend.
    Yes, Mr. Kanjorski?
    Mr. Kanjorski. If I may followup on Mr. Fattah, I think the 
counsel examined and asked, as you are aware, Mr. Smith 
testified on such and such in the Senate. And then that was not 
her recollection, that she is aware that he so testified. It 
would be awfully helpful, if there is that type of testimony of 
which the counsel is aware, if the staff immediately provides 
us with it, and follows up and provides it to the witness.
    Mr. Burton. As I said, Mr. Kanjorski, we in the future will 
try to make sure that depositions or testimony given in the 
other body that's being referred to will be provided to all 
Members.
    Mr. Bennett.
    Mr. Bennett. Ms. Mills, I think just for the record, you 
and I, I think, have met once before on Friday morning, October 
10th, in Mr. Ruff 's office; is that correct?
    Ms. Mills. I believe that's correct.
    Mr. Bennett. And this is only the second time you and I 
have actually spoken; isn't that correct?
    Ms. Mills. I believe it is.
    Mr. Bennett. And to the extent that you indicate, as I may 
be aware--I don't presume that I am as aware of some of the 
facts as you are--I am trying to get to some facts. If to any 
extent I summarize something that you think is inaccurate, 
please correct me, if you will.
    Ms. Mills. I am assuming that you have my deposition 
transcript, because that is what I was informed at my 
deposition. So if I don't have that, I don't, so--OK, I have 
yours. Thanks.
    Mr. Bennett. Directing your attention to June of this year, 
Mr. Ruff, I'll show you your letter of June 27th, which is 
exhibit 142.
    [Exhibit 142 follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.059
    
    Mr. Ruff. Yes, Mr. Bennett.
    Mr. Bennett. And essentially at that time you represented 
to Chairman Burton that, to your knowledge, your staff had 
complied with all requests contained in the subpoenas; is that 
correct?
    Mr. Ruff. That's correct. As you will note, my letter 
states, ``To the best of my knowledge, the White House has 
produced all documents responsive to the committee's subpoenas, 
with the exception of those documents that appear on the 
privilege logs,'' and then goes on in the next paragraph to 
note ``our continuing efforts to ensure that we have been fully 
productive of these documents and that our searches are 
continuing and we will produce documents that we find.''
    Mr. Bennett. Did you have any knowledge of the existence of 
videotapes at that time, Mr. Ruff?
    Mr. Ruff. No, I did not.
    Mr. Bennett. Ms. Mills--at any time, did Ms. Mills indicate 
to you, Mr. Ruff, that there were videotapes?
    Mr. Ruff. No, sir.
    Mr. Bennett. And did you ever inquire of Ms. Mills as to 
whether or not she knew of any videotapes?
    Mr. Ruff. No, I did not.
    Mr. Bennett. Were there any discussions with her?
    Mr. Ruff. Many discussions with her about the general 
duties of our office, including the discovery and production of 
documents, but nothing that was focused on the issue of 
videotapes.
    Mr. Bennett. According to--again just as a matter of public 
record and not trying to give any concerns to the minority, not 
trying to repeat the testimony of the Senate, but I think that 
everyone is aware of the testimony in the Senate, and if I 
summarize this incorrectly, please correct me, Mr. Ruff. But 
according to testimony presented in the Senate, there came a 
point in time where attorney Donald Bucklin of Senator 
Thompson's committee inquired of your office with respect to 
the existence of some taping; isn't that correct?
    Mr. Ruff. I believe the sequence of events is essentially 
this, Mr. Bennett: That in a conversation with Michael 
Imbroscio of my office on August 7th, Mr. Bucklin raised with 
Mr. Imbroscio the question of whether there was some form of 
clandestine taping of conversations in the Oval Office, and 
asked him to inquire into that.
    Then, later in August--I believe the date was August 19th--
Mr. Bucklin sent a letter to Mr. Breuer asking more broadly 
about the activities of WHCA. The first time, I believe, which 
the issue of videotaping coffees was broached was at a meeting 
between Mr. Imbroscio and Mr. Bucklin on September 9th, in 
which Mr. Imbroscio described the preliminary results of his 
inquiry to Mr. Bucklin; told him there was no evidence of 
clandestine taping; that there was taping of DNC fund-raisers; 
that he didn't believe that the coffees had been videotaped, 
but that he would continue to search to be sure of the story on 
that subject.
    Mr. Bennett. Well, with respect to your interpretation of 
possible clandestine taping--and I believe those are your 
words, sir--did you discuss with Ms. Mills a question from 
counsel for the Senate which you interpreted to ask about 
clandestine taping at the White House? Did you inquire of Ms. 
Mills as to that?
    Mr. Ruff. You know, I don't remember Mr. Bennett. Mr. 
Imbroscio came to me shortly after his August 7th meeting with 
Mr. Bucklin--and by the way, I think the clandestine taping 
reference was Mr. Bucklin's. I expressed, given my historical 
experience, a mild degree of skepticism that any sort of 
clandestine taping in the Oval Office had gone on, but 
instructed Mr. Imbroscio to do whatever was necessary to find 
out. I do not remember whether I mentioned that subject to Ms. 
Mills or not, because I did discuss it with Mr. Breuer and Mr. 
Imbroscio.
    Mr. Bennett. You basically cannot say that you did or did 
not; you just don't recall?
    Mr. Ruff. I just don't have a recollection. Ms. Mills 
might.
    Mr. Bennett. Ms. Mills, do you recall whether Mr. Ruff 
broached the topic with you of counsel for Senator Thompson's 
committee, suggesting that there might be clandestine taping at 
the White House?
    Ms. Mills. I do not recall that.
    Mr. Bennett. When you say you do not recall, is it your 
testimony that it did not occur, or you cannot say one way or 
the other?
    Ms. Mills. I don't have a recollection of it occurring.
    Mr. Bennett. And with respect to the September 9th meeting, 
Mr. Ruff, when there was apparently a discussion with staff in 
the Senate as to taping of political events, but not 
specifically coffees, did you at any time have any member of 
your staff contact any representatives of this committee with 
respect to the fact of political taping of any type, which you 
learned about on September the 9th?
    Mr. Ruff. Let me be clear, Mr. Bennett, that my brief 
recitation of the chronology with respect to Mr. Imbroscio's 
meeting was largely a matter of having heard his testimony on 
the subject and discussing it with him. I was not aware of the 
September 9th meeting, indeed, I think, until October 1st when 
I first learned of the existence of the tapes themselves. So 
there was really no predicate, I think, for the question of 
whether or not I would instruct somebody to raise it with this 
committee.
    Mr. Bennett. And with respect to the importance of that 
kind of topic, there is no point in time that you didn't ask 
Mr. Lindsey or Ms. Mills, based on their history during the 
first term of the President's administration, as to this whole 
matter of taping, to your recollection?
    Mr. Ruff. No, I am certain I did not. And indeed I would 
only comment in that regard, Mr. Bennett, that although 
legitimately so, the issue of videotaping has taken on a sort 
of life of its own in the last month, the existence or 
nonexistence of videotaping really was not an issue that was, I 
think, high on anybody's screen here, other than as a general 
matter searching for all responsive documents, whatever form 
they took.
    Mr. Bennett. Mr. Ruff, let me ask you this. There was a 
meeting in your office on Friday morning, October 3, 1997, this 
year, when these videotapes had been discovered; isn't that 
correct?
    Mr. Ruff. That's correct.
    Mr. Bennett. And who was in attendance at that meeting?
    Mr. Ruff. I don't remember who all were there, but it was 
basically the investigative team in my office, which would have 
been Mr. Breuer, Mr. Imbroscio, and a variety of other lawyers 
who work on the investigative side, the purpose being to 
discuss where we stood on various elements of document 
collection and production and, particularly, the issue of the 
recently discovered videotapes.
    Mr. Bennett. And Mr. Ruff, Ms. Mills was present at that 
meeting at well, wasn't she?
    Mr. Ruff. I believe so.
    Mr. Bennett. Ms. Mills, were you present?
    Ms. Mills. Yes, I was.
    Mr. Bennett. At that point in time, was there any 
discussion by anyone of the fact that they knew that there had 
been, in fact, videotapes of political events before?
    Mr. Ruff. Well, there was discussion of Mr. Imbroscio's 
having found the initial evidence of videotaping. I recall no 
other discussion of the subject.
    Mr. Bennett. Ms. Mills, did you at that point in time 
indicate to Mr. Ruff that if you had known they wanted 
videotapes, you certainly could have let people know that there 
were videotapes? Did you express any surprise at this request?
    Ms. Mills. I learned about this the morning of the 3rd, so, 
I think, as you might know from prior testimony of mine. So one 
of the things that I think was at issue at that time was that 
the taping was the coffees. I was quite surprised to learn that 
there were videotapes related to the coffees.
    Mr. Bennett. Did you--what steps did you take over the 
weekend with respect to this matter?
    Ms. Mills. I tried to work with the staff and assist in any 
way that I could with regard to ensuring that all the 
appropriate materials were produced.
    Mr. Bennett. Did you contact Mr. Steve Goodin?
    Ms. Mills. I'm sure I would have contacted Mr. Goodin prior 
to the time we would have produced them, because at that time 
we had understood that Mr. Goodin might have been one of the 
individuals who worked with WHCA to apprise them of what events 
should and shouldn't be taped.
    Mr. Bennett. Moving on to just the general topic, Mr. Ruff, 
of compliance--Mr. Chairman, I'll yield the balance of my time 
to another attorney on the staff of this committee and the 
subcommittee, Jay Apperson, and I ask that exhibit 146 be 
placed up on the screen.
    [Exhibit 146 follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.060
    
    [GRAPHIC] [TIFF OMITTED] T5405.061
    
    [GRAPHIC] [TIFF OMITTED] T5405.062
    
    Mr. Burton. Mr. Apperson is recognized for the remainder of 
the time.
    Mr. Apperson. Thank you, Mr. Chairman.
    Mr. Ruff, Ms. Mills, good afternoon. The subcommittee of 
this committee, chaired by Representative David McIntosh, has 
been tasked with conducting an investigation of the White House 
data base which was planned and developed inside the Clinton 
White House with the use of taxpayer funds to the tune of $1 
million-plus dollars. The investigation includes the possible 
misuse of that data base for partisan political purposes.
    The subject of our inquiry, from the subcommittee's 
standpoint today, stems from a remarkable incident just last 
week. After being repeatedly assured that the requests for 
documents by the chairman and by the subcommittee had been 
complied with, we were sent a letter, as you know, Mr. Ruff, on 
October 28th, conveying additional documents. And we learned 
for the first time that those documents contained some very 
important ones, ones that had, in fact, been discovered not in 
some dusty room in the basement of the White House, as you 
referenced in other instances in your opening statement, but 
had been discovered fully a year ago when they were first 
requested; and that someone in the White House had found those 
documents pursuant to the subcommittee's request and pursuant 
to the directive from the Counsel's Office to find it and to 
give it to the Counsel's Office. And the record reflects that 
whoever that was in the White House in fact delivered it to the 
Counsel's Office for production to the Congress.
    This is an instance in which that document was then 
deliberately determined not to be provided to the Congress 
pursuant to its request, not by some low-level staffer but by 
someone directly in the White House Counsel's Office. That 
person or other persons thereafter placed that responsive 
document in a file and there it remained.
    Now, Mr. Ruff, on August 2, 1996, after repeated attempts 
to obtain cooperation and relevant evidence from your 
predecessor, Jack Quinn, the subcommittee sent a letter 
directly to the President, signed by all majority members of 
the subcommittee, requesting all documents and materials 
related to the White House data base known as WHoDB. The 
subcommittee had been led to believe that, the relevant 
documents pursuant to that request had in fact been produced.
    Now, I have noted your letter of just last week conveying 
additional documents and that's what I want to talk about. 
Among these documents----
    Mr. Waxman. Point of inquiry, Mr. Chairman.
    Mr. Burton. The gentleman will state his point of inquiry.
    Mr. Waxman. Are we in the process of questions or are we 
now in a monologue? Are we getting to a question?
    Mr. Burton. The counsel has the time as requested and 
agreed to, and I'm sure it will result in questions. I think he 
is setting the stage for his questions.
    The gentleman will proceed.
    Mr. Apperson. Thank you, Mr. Chairman. On the screen is the 
pertinent portion of the request from the subcommittee.
    Mr. Ruff. Mr. Apperson, may I request what exhibit you are 
looking at? It's very difficult to read.
    Mr. Apperson. You have it right on the screen. It's in a 
separate notebook identified as White House data base 
information, and you will find that as exhibit No. 3, sir. The 
attachment to that request is very specific and sets forth: 
Requires response from the White House to furnish documents for 
all communications concerning the WHoDB, including and 
involving the White House, its employees, internal 
communications, notes, et cetera.
    Now, produced along with your letter was a handwritten 
notation, and I will ask that that be put up now as C-64.
    [Exhibits 155 and C-64 follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.063
    
    [GRAPHIC] [TIFF OMITTED] T5405.064
    
    [GRAPHIC] [TIFF OMITTED] T5405.065
    
    [GRAPHIC] [TIFF OMITTED] T5405.066
    
    [GRAPHIC] [TIFF OMITTED] T5405.067
    
    Mr. Barrett. Parliamentary inquiry?
    Mr. Burton. The gentleman will suspend. The gentleman will 
state his parliamentary inquiry.
    Mr. Barrett. Before we get to the next one, again, I am 
having difficulty, and it may be that we do have the documents. 
I have here exhibit C-65, which is the prior screen, and it has 
obviously this material that's been taken out and highlighted. 
Everything else on the page, I'm unable to read.
    Mr. Apperson. If I may, Mr. Chairman, it will be found in 
the Members' books as exhibit 147.
    [Exhibits C-65 and 147 follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.069
    
    [GRAPHIC] [TIFF OMITTED] T5405.070
    
    Mr. Barrett. Could you refer to that when you have an 
exhibit up there?
    Mr. Apperson. I will attempt to do so.
    Mr. Barrett. Thank you.
    Mr. Fattah. Parliamentary inquiry, Mr. Chairman. Is this 
line of questioning related to our investigation of Chinese 
influence in the 1996 elections?
    Mr. Burton. It's related to the investigation by this full 
committee and the subcommittee chaired by Mr. McIntosh.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. McIntosh. Mr. Chairman, parliamentary inquiry.
    Mr. Burton. The gentleman will state it.
    Mr. McIntosh. The counsel's time is not being docked for 
all of the inquiries, is it?
    Mr. Burton. It is not. We are giving him the full time. Add 
an additional minute and a half or 2 minutes to that. Thank 
you.
    Mr. Apperson. Thank you, Mr. Chairman.
    Mr. Ruff, with respect to that document--and I know you are 
familiar with it because it was one of a very few documents 
which were sent accompanying your letter, is a handwritten 
note, a single page that references and provides evidence that 
Harold Ickes, who was then Deputy Chief of Staff to the 
President, and Deborah DeLee, Executive Director of the 
Democratic National Committee, wanted to assure that the WHoDB, 
the White House data base, is integrated with the DNC data base 
so that each can share the information.
    The handwritten notations further reflect that evidently 
POTUS, President of the United States, wants this done. It 
further talks about the desire on the part of Mr. Ickes for a 
meeting to take place to further this plan. And it talks 
further that Bobby Watson, Deborah DeLee's assistant at the 
DNC, is working on that very plan at their end, i.e., at the 
DNC. You can imagine that after a year, we were quite 
interested to receive this document.
    Now, in your letter of October 28th, conveying the 
document--well over a year--you stated, quote, ``certain of 
these documents,'' accompanying your letter, ``are arguably not 
responsive.''
    Mr. Ruff, I am going to ask you directly with respect to 
this document, these handwritten notations which set forth a 
plan by persons in the highest level of the White House and at 
the DNC to share prohibited data from the White House data 
base, do you consider that relevant to the request from this 
subcommittee in August 1996?
    Mr. Ruff. Mr. Apperson, I don't want to be impolite, but I 
will avoid, I think, trying to parse, line by line, the 
introduction to that question; because I disagree with at least 
many of the implications that it contained.
    My view of this document is that it was clearly something 
that we should produce to the subcommittee as soon as we found 
it, which we did. We have taken the view in the months since 
Congressman McIntosh and I exchanged what seemed to be an 
endless number of letters--some before and some after I took 
office--and I told him that my view of this process was----
    Mr. Apperson. With all respect, Mr. Ruff, I appreciate your 
views of the process; my question is with respect to this 
document.
    Mr. Ruff. I am attempting to answer your question, Mr. 
Apperson.
    Mr. Apperson. My question is, is this document responsive 
to the August 2 letter?
    Mr. Ruff. If you will permit me, I will try to make my 
answer shorter than the introduction.
    Mr. Burton. Just wait a second. We all want to hear what 
you have to say, and when beepers go off----
    Mr. Ruff. Thank you, Mr. Chairman. I appreciate it. I 
didn't know that beepers could be controlled, but I appreciate 
it.
    My view has been, since the early months of this year, and 
as reflected in my discussion, my correspondence with Chairman 
McIntosh, that we would break through the impasse that had 
developed previous to that. We have produced documents erring 
on the side of responsiveness without worrying, candidly, about 
fine questions about whether or not they fit exactly within a 
particular description. I will not, I think, venture to go back 
into even the modestly dim mists of history and make a judgment 
about where this document fit into the sequence of events.
    I made the decision on production on October 28th because 
there was no question in my mind that it was directly relevant 
to the chairman's concerns, the committee's investigation, the 
subcommittee's investigation, and there was clearly no 
reluctance on our part to produce it at that time.
    Mr. Apperson. Well, Mr. Ruff, a year before, well over a 
year before, there was more than a reluctance on the part of 
someone in your office to make that exact decision. And my 
question to you is, who in 1996 in the White House Counsel's 
Office made the decision to withhold that document?
    Mr. Ruff. Mr. Apperson, obviously I was not there at the 
time so what I am about to tell you is a reconstruction of 
events that led up to my letter of October 28th to Chairman 
McIntosh.
    As I understand the situation last fall, there were a 
number of lawyers working to collect documents responsive to 
the WHoDB request. Ultimately, as I understand it, the 
decisions about responsiveness were made by my predecessor, Mr. 
Quinn, who, as is my practice, reviews these close questions 
whenever they arise and makes the ultimate judgment about them.
    [Exhibits 166, 162, and C-66 follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.071
    
    [GRAPHIC] [TIFF OMITTED] T5405.072
    
    [GRAPHIC] [TIFF OMITTED] T5405.073
    
    [GRAPHIC] [TIFF OMITTED] T5405.074
    
    [GRAPHIC] [TIFF OMITTED] T5405.075
    
    Mr. Apperson. Are you testifying that Mr. Quinn made the 
decision----
    Mr. Ruff. I cannot----
    Mr. Apperson. Excuse me--not to produce this document?
    Mr. Ruff. I obviously cannot tell you as to each document, 
who made which decision, because I was not there.
    Mr. Apperson. Have you asked the people in the White House 
Counsel's Office the question I am asking you now?
    Mr. Ruff. No, I have not. But may I suggest----
    Mr. Fattah. Could we allow the witness to answer the 
question?
    Mr. Ruff. May I suggest that my colleague's recollection, 
that since she was there at the time, she may be able to shed 
some light on that.
    Mr. Apperson. I appreciate it.
    Ms. Mills, do you know about this?
    Ms. Mills. Yes. At that time----
    Mr. Apperson. Let me ask the question of you.
    Who made the decision in the White House Counsel's Office 
in 1996 not to produce this document, which had been provided 
to you pursuant to the request of the committee for production? 
Who made the decision in 1996 not to give it to Congress?
    Ms. Mills. Well, setting aside your premise, because 
actually this was one of the materials that were found by the 
Counsel's Office in going through archived materials----
    Mr. Apperson. When?
    Ms. Mills. Back in September.
    Mr. Apperson. Of what year?
    Mr. Fattah. Mr. Chairman, can we allow the witness to 
answer the question?
    Mr. Burton. Let her answer the question.
    Ms. Mills. Thank you.
    Mr. Apperson. What year?
    Ms. Mills. In 1996, as--I don't know if you were familiar 
with the data base production at that time, but Mr. McIntosh at 
that time was seeking seven itemized materials related to the 
data base; and in connection with that, we sent out a directive 
on September 12th.
    On September 18th, when documents were to be returned, Mr. 
McIntosh determined that he needed those documents that day. We 
began production at that time. We completed production within 4 
days of over 27,000 documents----
    Mr. McIntosh. Mr. Chairman, the witness is not answering 
the question as to who made the decision.
    Mr. Sanders. Mr. Chairman, let her answer the question, 
please.
    Mr. McIntosh. Could I ask unanimous consent for additional 
time if she is going to stonewall and not answer the question 
as to who made the decision?
    Mr. Waxman. I object. I object.
    Mr. Fattah. I have no objection that he has the time, but 
we should allow the witness to answer the question if we want 
to know the truth.
    Mr. McIntosh. And that's all I ask for is time.
    Mr. Barrett. I understand that Mr. McIntosh is upset that 
he can't control the witness's answer, but if she could be 
allowed to continue.
    Mr. Burton. That's enough. That's enough.
    The gentlelady will be allowed the time to answer the 
question, and we will allow the continuance to get to the 
conclusion of this. We have 10 minutes. Go ahead.
    Ms. Mills. We reviewed all the materials at that time and 
produced them to you. At that time, this is a part of the 
materials that I reviewed and then reviewed with Mr. Quinn, and 
made the determination that these materials were not responsive 
to the seven enumerated items that you all had listed in the 
August 2nd directive.
    Mr. Apperson. So your testimony is that you looked at this 
document, which reflected ``WHoDB'' in bold letters at the top 
line of that document, and reflects people at the highest 
levels of the White House and the DNC sharing data bases, and 
you determined it was not responsive to a request for WHoDB 
material?
    Ms. Mills. Actually, I think you probably are familiar with 
the directive that actually asked for seven enumerated things. 
It doesn't ask for all documents related to WHoDB.
    But setting that aside, I can't go back and re-create for 
you at this time what information I had that led us to conclude 
that this material was not responsive to any of the seven 
enumerated items. But at that time we sat down, we looked at 
these documents, I reviewed them with Mr. Quinn, and ultimately 
made the determination that those materials did not fall within 
the scope of the materials that were requested.
    As you likely--are probably aware, there were many 
documents of a similar type to this that we produced that are 
equally--provide the same information with respect to the 
desire by many of the staff members to ensure that there were 
supporters of the President included in the data base, so that 
they might have an opportunity to invite and include them in 
events. The President and First Lady also were obviously 
interested in ensuring that they could have a data base that 
would provide them with an opportunity to include supporters at 
events, and that is something that----
    Mr. Burton. The gentleman's time has expired.
    The Chair will stand in recess, and when we return, the 
minority will have their half-hour.
    Mr. Burton. The committee will reconvene. The gentleman 
from California is recognized for 30 minutes.
    Mr. Waxman. Thank you, Mr. Chairman. In my opening 
statement----
    Mr. Burton. Excuse me. I agreed that Mr. Ruff would have 1 
minute to respond to some comments that were made earlier so, 
Mr. Ruff, if you want to be recognized, we will go to Mr. 
Waxman.
    Mr. Ruff. Excuse me, Mr. Waxman, and thank you, Mr. 
Chairman. In your opening statement, Mr. Chairman, you raise 
the question about the importance of communications with the 
leaders of the People's Republic of China concerning 
cooperation with this committee's and other investigations I 
just wanted to inform the Chair that indeed this very issue of 
cooperation in the investigation, of course, had been raised 
previously by both the Vice President and the Secretary of 
State during their visits to Beijing, but more importantly for 
today's purposes, this was an issue that is the importance of 
cooperation with your investigation and others, that was raised 
directly by the President, with the President of the People's 
Republic during his recent visit. The administration intends to 
continue to press for further cooperation by the Chinese 
Government in these matters, and I wanted to put that on the 
record.
    Mr. Burton. Just for clarification, did the President 
specifically ask Charlie Trie be returned to the United States 
for questioning?
    Mr. Ruff. Mr. Chairman, I am not familiar with the details 
of the conversation, but I am advised he did specifically raise 
and press for full cooperation in all aspects of your and other 
investigations.
    Mr. Burton. But you do not know about Charlie Trie.
    Mr. Ruff. I do not, Mr. Chairman.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. In my opening statement, I noted that this 
hearing, like the first and only other campaign finance hearing 
we have held, duplicates hearings already held in the Senate, 
and if this committee is going to investigate campaign finance 
issues, they should look into matters not previously 
investigated by the Senate, such as the activities of nonprofit 
groups like Triad Management.
    I do not want my skepticism about this hearing to be 
construed as an endorsement of the White Houses actions. The 
Presidency is the highest office in our country. Those who 
serve in the White House should be held to high standards. It 
is reasonable to expect the White House to comply fully and 
promptly to all reasonable congressional requests for 
information, including requests for videotapes of political 
coffees.
    Mr. Ruff, you testified, and I want to quote, our efforts 
have been diligent and our compliance exemplary, end quote. I 
do not doubt that your efforts may have been diligent. You have 
a small staff of talented lawyers who have been working very 
hard, but I would not call the failure to discover the 
videotapes exemplary.
    In fact, I was extremely disappointed when I learned it had 
taken the White House so many months to produce the videotapes. 
In a word, I think it is inexcusable.
    In a sense, Mr. Madigan, the Senate counsel, captured some 
of my thoughts when he asked you about a series of questions 
about Starbucks. And if I may, I would like to replay a portion 
of that Senate hearing, and you can see it on the monitor in 
front of you.
    It would be helpful if we had sound.
    Mr. Burton. Run it back to the beginning, please. This will 
not be counted against the gentleman's time. The only thing 
worse than this is when the Super Bowl goes silent. We have an 
hour, I have been informed.
    Mr. Waxman. Thank God they don't have the Super Bowl 
repeated as we have the hearings repeated.
    Mr. Burton. While we are waiting for the sound, I would 
like to make one brief response to my colleague from 
California. It is my understanding Ms. Mills did not testify 
before the Senate, so that is some new information for our 
investigation.
    Mr. Waxman. A new witness. I don't know about new 
information.
    While we are waiting, just for the record, both Lanny 
Breuer and Mr. Ruff testified in the Senate and Ms. Mills gave 
them a deposition in the Senate, but did not testify.
    Mr. Burton. That is correct.
    Would it be possible, Mr. Waxman, for you to come back to 
this part of your testimony or your statement?
    Mr. Waxman. I can't understand why we can't master the 
technology to run a videotape. You turn it louder. You have got 
the video. It is running, so, therefore, the sound, audio, has 
to be turned up.
    Mr. Ruff. I may remember what I said.
    Mr. Waxman. Mr. Chairman, have you hired lip readers?
    Mr. Burton. Let me think about that.
    Mr. Waxman. Well, I would have liked everyone to have seen 
this videotape, because it encompassed some of the very same 
questions that have been asked already, and in that videotape, 
Mr. Ruff, it was the questioning of you.
    Mr. Ruff. Yes.
    Mr. Waxman. You were asked whether you would go to the 
President or the CEO of a company if you were trying to get 
information to comply with the request for information. And as 
I understand your answer, you said you would not.
    Mr. Ruff. I think the way it played out was this, 
Congressman Waxman. Mr. Madigan was pressing to learn how we go 
about checking to make sure we got everything that is 
responsive, and we, of course, had talked about sending the 
directive out to WHCA, and then he asked----
    Mr. Waxman. WHCA is the White House.
    Mr. Ruff. Communications Agency that did the taping and, of 
course, how we lost relevant pages, as we have often been told. 
He then asked, well, did you go to see the President, and I 
think my response was, something along the lines of, if you 
were conducting a document search in Starbucks, you wouldn't go 
talk to the CEO about where those documents were. I think that 
was the exchange to which you had reference.
    Mr. Waxman. And with that kind of an answer, I presume that 
when you start a document search, you don't go to the President 
of the United States because you would be taking up his time at 
every request for information.
    Mr. Ruff. I think that is a fair assessment, yes.
    Mr. Waxman. What I don't fully understand is why you or 
your staff didn't talk with enough people close to the 
President to know the coffees had been videotaped. Can you 
explain why you didn't learn about the videotapes earlier?
    Mr. Ruff. Well, I think it is difficult to look back over 
the last several months and respond to that question, simply 
because the videotapes have taken on such an enormous aspect in 
the last month or so, and, quite rightly, they have.
    When we send out a directive asking for information in all 
its forms, computerized and every other, and we get back a 
specific response from the agency involved, as we did in this 
case, as we do from all the people to whom we send this 
directive, and we get computerized information and photographs 
and e-mails, and everything else, we have no reason at that 
point to pick out the videotape process or the coffees as a 
special item for inquiry, and we didn't really have that until 
August when Mr. Imbroscio began his inquiry into the matter.
    Mr. Waxman. Did you send out a directive to the White House 
Communications Agency requesting information that would have 
included videotapes?
    Mr. Ruff. We sent the directive of April 28 to all the key 
agencies, including the White House Military Office, which is 
the parent agency of the White House Communications Agency, and 
as you know from testimony, Congressman Waxman, they in turn 
sent that directive to WHCA, and one page didn't make it off 
the fax machine.
    Mr. Waxman. Well, Mr. Ruff, I am going to tell you that I 
would have hoped you would have done more than this to find the 
tapes, and I wish that you had asked people who participated in 
the coffees what kind of information existed about those 
coffees, and perhaps if you had taken a more active approach, 
you would have learned about the videotapes earlier. This could 
have saved you, the President, and everybody, in general, a lot 
of embarrassment.
    Mr. Ruff. I will second your wish that I had done just 
that, if only to have avoided the last 5 weeks of turmoil.
    Mr. Waxman. Well, for the reasons I indicated to you, I 
wish you had done a better job of locating the videotapes, plus 
I am critical of your efforts.
    Mr. Ruff. I understand.
    Mr. Waxman. But there is a big difference between making a 
mistake and deliberately trying to obstruct a congressional 
investigation or deliberately tampering with the evidence. The 
chairman and other Republican members of the committee have 
gone much further in their criticism than I have. The chairman 
said on national television that he thought the tapes had been 
intentionally cutoff and altered.
    This would have been a deliberate obstruction of justice. 
Other Republican Members have also raised allegations of 
obstruction of justice. In fact, Mr. Barr, a member of this 
committee, sent a letter to me and other Members of the House 
this week that said articles of impeachment should be filed 
against the President.
    Now, these are very serious charges. If they are true, 
there should be serious consequences for the White House, but 
if they are false or unsubstantiated, they represent 
partisanship at its worst. Serious investigators don't throw 
around unsubstantiated charges, but those conducting a partisan 
witch hunt do.
    This issue of obstruction of justice was addressed in the 
Senate and we have another videotape and I want to see if the 
sound is working so we can show that videotape. That was an 
inquiry by Mr. Baron, the minority counsel, where I thought he 
cut right to the issue. Has anybody contacted Ms. Ros-Lehtinen 
to see if we can get the sound working, because she was very 
successful last week?
    Mr. Burton. We have a technician that is on his way to get 
to this. I apologize, once again, somebody must have kicked a 
wire loose or something.
    Mr. Waxman. Well, let me read from the testimony in the 
Senate.

    Mr. Baron. Mr. Imbroscio, have you ever been told or has it 
ever been suggested to you directly or indirectly or in some 
implicit way to conceal a document or any other material from 
being produced?
    Mr. Imbroscio. One-hundred percent, absolutely not.
    Mr. Baron. Are you aware of anybody else within the White 
House attempting to conceal or fail to produce a document that 
was responsive to requests?
    Mr. Imbroscio. Certainly not, and if I were, I would 
probably go immediately to Mr. Ruff.
    Mr. Baron. With regard to the videotapes, are you aware of 
anybody attempting to conceal, alter, or in any way hinder the 
production of the videotapes?
    Mr. Imbroscio. Certainly not.

    Those were the statements given, under oath, before the 
Senate Committee. Mr. Ruff, I would like to ask you the same 
questions Mr. Baron asked one of your lawyers.
    First, have you ever been told or has it ever been 
suggested to you directly or indirectly or in some implicit way 
to conceal a document or any other material from being 
produced?
    Mr. Ruff. I can't say it better than Mike Imbroscio did, 
100 percent, absolutely not.
    Mr. Waxman. Are you aware of anybody else in the White 
House attempting to conceal or fail to produce a document that 
was responsive to a request?
    Mr. Ruff. Absolutely not.
    Mr. Waxman. With regard to the videotapes, are you aware of 
anybody attempting to conceal, alter, or in any way hinder the 
production of the videotapes?
    Mr. Ruff. I am not.
    Mr. Waxman. Mr. Ruff, are you aware that this committee has 
taken the deposition of Colonel Joseph Simmons, the commander 
of the White House Communications Agency, Colonel Alan Simmons, 
who heads the White House Military Office, which oversees the 
White House Communications Agency and Steven Smith, Chief of 
Operations of the White House Communications Agency?
    Mr. Ruff. I am aware their depositions were taken, yes, 
sir.
    Mr. Waxman. Each of these witnesses are nonpartisan White 
House employees. They have distinguished military records. They 
are all in the chain of command responsible for those 
videotapes. Each of them was asked whether they were aware of 
any evidence of tampering or altering those tapes, and do you 
know what they told this committee?
    Mr. Ruff. I know only in summary that they absolutely deny 
any knowledge of such tampering.
    Mr. Waxman. They all testified under oath that there was no 
alteration of those videotapes. Mr. Chairman, I wrote to you a 
letter last week asking you to substantiate your accusations of 
tampering, and I said you should either come forward with 
evidence supporting these allegations or you should apologize 
to the President, Mr. Ruff, and to everyone else responsible 
for the tapes at the White House.
    Unfortunately, you didn't respond to that letter, but in 
light of the testimony in the Senate, given under oath by 
people who are not even partisans, who work at the White House, 
and the testimony received today, I would like to yield to you 
if you want to retract that accusation.
    Mr. Burton. If the gentleman would yield, the Justice 
Department, the Senate committee and our committee are going to 
be examining the tapes if it hasn't been done already by expert 
technicians to make sure that the tapes were intact and were 
not at all altered in any way. What I said on national 
television, I believe it was on Face the Nation, is I thought 
there was a real possibility that they may have been altered. I 
made no categorical statement they were altered.
    Mr. Waxman. On what basis did you think there was a real 
possibility?
    Mr. Burton. I will be glad to restate what I said on Face 
the Nation.
    Mr. Waxman. I heard what you said. In fact, we even have 
the videotape, but we wouldn't get the sound from that one 
either.
    Mr. Burton. I can get you sound.
    Mr. Waxman. You said there may be alteration of those 
tapes. You made the statement. Do you have any basis for it?
    Mr. Burton. The basis we have is there were interruptions, 
there were tapes that had no sound, there were tapes that were 
broken in the middle and have information that may have been 
relevant was left out and we are trying to find out if that was 
a deliberate attempt to keep information from the committee or 
if it wasn't. The fact of the matter is, we are investigating 
that right now, and if we find no attempt to alter the tapes, 
then we will so state.
    Mr. Waxman. The only thing I can say is Mr. Ginsberg also 
testified in the Senate who said there was no alteration of the 
tapes.
    Mr. Burton. If the gentleman will yield, I believe they 
said to the best of their knowledge.
    Mr. Waxman. I am reclaiming my time. To the best of your 
knowledge, Mr. Chairman, you had no evidence. You were making a 
guess, and when you make a guess, and you are the man leading 
the investigation, that is what ends up in the headline the 
next day, and often the truth never catches up with the 
accusation, and I think that that is not a responsible way for 
an investigative committee to be proceeding.
    Now, we have additional time and I want to yield to members 
of the committee, and I promised that I would yield to--well, 
Mr. Sanders, I know I promised, let me yield to him a minute or 
two and see if we have time for others.
    Mr. Sanders. Very briefly, Mr. Chairman, I will get into 
greater discussion later on. It seems to me one of the problems 
we have had in the whole hearing is that the focus of attention 
has only been on the White House.
    Now, I think we should probe as deeply as we can, all of 
the problems, and there are many associated with the 
President's fund-raising, no argument from me, but I think that 
the reason that these hearings have not captured the interest 
of the American people is there is nobody in America, maybe 
with the exception of a few people on that side of the aisle, 
who think campaign finance problems are limited to the White 
House.
    Let me quote, if I might, it doesn't have to go very far, 
today's newspaper. USA Today, quote, ``National Republican 
organizations sank $5 million into their sweep of Tuesday's 
elections in New York, New Jersey and Virginia, more than five 
times what Democrats invested.''
    Next article, today's paper, Wall Street Journal, quote, 
After months of intraparty second guessing, Tuesday's elections 
became a triumph to gladden Republican hearts and perhaps also 
to stiffen their spines against the prospect of sweeping 
campaign finance overall, end of quote. In other words, they 
raised five times more money, they won the elections and they 
are saying, hey, who needs campaign finance reform.
    Mr. Chairman, I would hope very much that we might hold 
some hearings on that issue. And the second point I would like 
to make with that regard is an article in Roll Call, October 
30, just last week. The thrust of the articles are Democrats 
are very upset, because corporate America, the largest 
corporations in this country, are contributing more money to 
the Republican party than they are to the Democratic party, it 
is a great concern to the Democrats. AT&T, American 
International Group, Anheuser-Busch, are putting millions of 
dollars in soft money, and the Democrats are upset the 
Republicans are getting more.
    I would hope very much that we can have a hearing which I 
think really would capture the attention of the American people 
if we brought corporate America in here and asked them why they 
are contributing millions of dollars to both political parties, 
and what they expect to get from that. It is no secret that the 
rich get richer, the middle class is shrinking, working people 
have seen a decline in their standard of living, and I think 
the American people understand that that is directly related to 
the role that corporate America and big money have on campaign 
finance.
    Mr. Waxman. Thank you, Mr. Sanders. I want to yield to some 
of the other Members. I thought you had some good points.
    Mr. Lantos, 2 minutes.
    Mr. Lantos. Thank you, Mr. Chairman. Let me first commend 
Mr. Ruff and Ms. Mills for an outstanding job conducted in a 
most professional manner. We don't know each other. This is the 
first in my life I have seen you, but on behalf of the 
committee, I want to express our apologies to you, because you 
have been harassed, incessantly, and in an utterly 
irresponsible fashion and there as one member of this 
committee, I want you to know how sorry I am and how fully you 
do not deserve this.
    Now, I want to bring a bit of reality check to this hearing 
because to call this trivial pursuit is an insult to other 
trivial pursuits. This is much worse than that. This is a 
reckless and irresponsible and hypocritical attempt to create 
an impression that highly professional and dedicated public 
servants, who have been doing their jobs, have somehow, 
illegally, attempted to confuse and cloud and obfuscate an 
issue.
    I would like to remind our Members that 10 years ago, this 
week, in November 1987, at the conclusion of the Iran-Contra 
hearings, some of the most respected Members of this body, some 
of them no longer alive, future Speaker of the House, Tom 
Foley; future Secretary of Defense at that time, Les Aspin; 
chairman of the House Judiciary Committee during the Iran-
Contra hearings, Peter Rodino, issued a report concerning the 
Reagan White House's noncompliance with requests.
    I want to read just one paragraph. Because of President 
Reagan's personal promise that the executive branch would fully 
cooperate with the committees in their investigation, the 
committees did not issue subpoenas to any person or agency of 
the executive branch. However, the White House and a number of 
executive agencies, either belatedly produced or withheld 
information requested by the committees. This delayed 
production, nonproduction, and noncompliance with committee 
requests, made witness interviews difficult, made it necessary 
that some witnesses be reinterviewed, and complicated the 
committee's preparation for public hearings.
    Mr. Chairman, I ask unanimous consent that this report be 
made a part of the record.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.076
    
    [GRAPHIC] [TIFF OMITTED] T5405.077
    
    [GRAPHIC] [TIFF OMITTED] T5405.078
    
    Mr. Lantos. Now, it is important for us, who are so self-
absorbed in our own importance in this particular trivial 
pursuit, to recognize that there is a whole world out there. 
Southeast-Asian economies are crumbling, Iraq is preparing 
weapons of mass destruction, there is a new palace revolution 
within the Kremlin, and as we speak, 6 million political 
prisoners in China are suffering fate that most people in this 
country cannot even comprehend.
    So I would like to call on you, Mr. Chairman, to follow the 
example of Senator Thompson, who recognized that there is 
nothing there, throw in the towel and call off the 
investigation. What we are witnessing is an irresponsible and 
reckless partisan political theater of the absurd, with self 
righteousness oozing, oozing from the pours of this committee, 
at a time when the country is, in fact, in need of dealing with 
serious domestic and international issues.
    Last night, as we were here until past 11 voting, some of 
us went into the Cloakroom and watched Ken Burns' Masterpiece, 
the Lewis and Clark expedition, and it sort of restored one's 
faith in both the past and future of this country. But, 
frankly, I couldn't care less whether these breathless movies 
showing Sweet 'N Low being put into a coffee at a White House 
gathering, whether it is released Tuesday or Wednesday or next 
Friday afternoon, and this pathetic attempt to make it appear 
that we are dealing with issues of major import, matters of 
deep concern for the United States, when military officers are 
testifying that nobody altered these films, that mistakes were 
made in releasing them late, never having made a mistake in my 
life, I really have no sympathy for people who make mistakes in 
the White House or elsewhere, but I just think it is important 
to wake up and realize that there are real issues to be dealt 
with, and this trivial pursuit needs to come to an end.
    Campaign fund-raising reform is long overdue, the 
Republicans are as guilty as the Democrats of historic mistakes 
and we better move on to some real issues. Thank you, Mr. 
Chairman.
    Mr. Waxman. Thank you, Mr. Lantos.
    Mr. Kanjorski.
    Mr. Kanjorski. Thank you very much. Just as a point, I 
think we have all seen it in Pennsylvania. We call it Monday 
morning quarterbacking, and, of course, we can all outguess Joe 
Paterno, particularly if he loses. It seems to me we have had a 
perfect example here today where even the simplest of modern 
technology goofs up on three occasions.
    We are incapable of providing just the sound to evidential 
documents that we wanted to be presented to the witnesses and 
the committee. And I have not heard a cry for an investigation 
of miscarriage of justice or an attempt to avoid proper 
pursuits of the same. I think that Mr. Lantos has adequately 
summed up what we are all about, or should be about. But Mr. 
Ruff, I would like to follow through, particularly on this 
question of the tapes.
    As I understand it, and I want to make sure the American 
people that are watching this, the explanation is that there 
was not a protocol until April 10 of this year in which any 
documents were supplied by the White House to this committee; 
is that correct?
    Mr. Ruff. There were some documents supplied before that 
time, but not really in any flow until we had that arrangement 
with the committee; that is correct.
    Mr. Kanjorski. And the protocol we would be talking about 
for the average American out there is the system or process 
under which it would operate.
    Mr. Ruff. That is correct.
    Mr. Kanjorski. There was an understanding for protection 
and security, that those documents would not be misused, abused 
or inadvertently leaked or intentionally leaked; is that 
correct?
    Mr. Ruff. That is correct, sir.
    Mr. Kanjorski. We are dealing with a period that moves from 
April, when the documents were begun to be released. As I 
understand it, the White House encompasses about 19 offices in 
the Executive Office of the White House; is that correct?
    Mr. Ruff. Actually, more offices than that, depending on 
how you count. In the neighborhood of 40.
    Mr. Kanjorski. What now is the breakdown? I think when I 
was Chair of the committee that had jurisdiction over the White 
House, we have about 22 or 23 offices now.
    Mr. Ruff. More than that, actually.
    Mr. Kanjorski. And as I understand it, there are more than 
2,500 employees in the White House engaged in various pursuits.
    Mr. Ruff. That is correct.
    Mr. Kanjorski. And as I understand it, and I am being 
facetious, you were given $6 million in the Counsel's Office to 
respond. We appropriated that money, did we not?
    Mr. Ruff. I have been searching for the $6 million. I am 
sure it is there somewhere.
    Mr. Kanjorski. In reality, you have in the President 
Counsel Office, yourself, a deputy and several assistants, four 
or five assistants?
    Mr. Ruff. We have a total of 17 lawyers, about half of whom 
work on noninvestigative matters, the real business of the 
office.
    Mr. Kanjorski. And the Congress has not seen fit to give 
you additional appropriations so you could increase that staff, 
even though you have three intensive examinations going on, one 
by the Senate, one by the House committee we are at now, and 
one by the Justice Department; is that correct?
    Mr. Ruff. That is correct, sir.
    Mr. Kanjorski. And in the course of this period of time, is 
it correct that you have had over 300 subpoenas to which to 
respond?
    Mr. Ruff. We have had 300 requests or so from this 
committee alone, plus about the same from the Senate, and 
several hundred from other bodies.
    Mr. Kanjorski. OK. So we are talking about a receipt of 
maybe seven to eight subpoenas per working day, since April.
    Mr. Ruff. Well, I haven't tried the division, but certainly 
if you divide the 1,100 or so requests we have got into the 
intervening days, certainly on work days; that is correct.
    Mr. Kanjorski. I understand in this committee alone you 
provided us with more than 110,000 documents.
    Mr. Ruff. That is correct.
    Mr. Kanjorski. All of which had to be found, read, and 
determined whether or not they violated national security or 
were subject to executive privilege?
    Mr. Ruff. That is correct, Mr. Kanjorski.
    Mr. Waxman. Mr. Kanjorski, will you yield to me just to 
make one point?
    Mr. Kanjorski. Certainly, Mr. Waxman.
    Mr. Waxman. You have 17 people.
    Mr. Ruff. We have 17 lawyers total, Congressman Waxman. Ms. 
Mills, myself and Mr. Lindsey, are the three headquarters 
lawyers, and then we have about a--half our lawyers work on 
investigations, about seven, and another seven to work on 
noninvestigative matters.
    Mr. Waxman. In this committee alone, we have 60 people 
investigating you.
    Mr. Ruff. I would have guessed more, given their presence, 
but I will take your word for it.
    Mr. Waxman. Sometimes they ask the same questions over 
again. And I must say, 60 people working on the investigation 
in this committee, it hasn't been a model of efficiency.
    Mr. Kanjorski. Let us attack just that. This committee has 
already issued six subpoenas to misidentified Americans that 
had nothing to do or were not intended to be subpoenaed. We 
brought the bank records in of people, examined their bank 
records, when they had absolutely no relationship to it, so 
with our 60 employees and all our lawyers, and all the 
coordination between the House and the Senate side and whoever 
else, I think there are probably some nonprofit organizations 
out there that are even providing soft support, they have made 
significant errors, it could border, if you were not fair-
minded, to say men make mistakes and sometimes things don't 
pursue a degree of incompetence. As a matter of fact, as I 
recall, about 2 months ago, there was a chief counsel on the 
majority side, who resigned because of incompetence and 
political activity on the part of the majority.
    Have you had any of your attorneys at the White House 
resign because they felt you were politicizing the office or 
that the office was acting in an incompetent manner?
    Mr. Ruff. No, sir.
    Mr. Waxman. Mr. Kanjorski, I am going to yield some time to 
Mr. Fattah, who has been here as well, and we will have more 
time to go back and forth.
    Mr. Fattah.
    Mr. Fattah. Let me thank the ranking member.
    I guess I want to get at two issues as quickly as I can and 
as concisely as I can. The President is at, on one hand, the 
most successful politician of his generation, and the most 
successful Democrat, in at least two, maybe three decades, 
having won the White House twice. So on one hand we have a very 
successful politician, and on the other hand, as best as I can 
determine it, between Whitewater and Filegate and Travelgate 
and now the campaign finance investigation, he is also--
somewhere around 55 million or so being spent on investigating 
his activities, the most investigated person, ever in the 
history of this country.
    Would that be a correct statement, Mr. Ruff?
    Mr. Ruff. I am not sure that my history is good enough, but 
certainly there are more investigations than one would care to 
contemplate.
    Mr. Fattah. What I mean is by most investigated, I mean 
that no one has ever had that much resources spent analyzing, 
investigating his every activity, meetings, phone calls, his 
wife's activities, even down to Socks the cat, I think there 
have been allegations of some type of wrongdoing. And through 
it all, there has not been anything that has come of these 
investigations, and the Senate, after spending millions of 
dollars, has concluded its campaign finance investigation, and 
today we spent a long time talking about videotapes, the 
suggestion being there was an obstruction of justice and the 
reality is there is nothing on the videotapes that is 
incriminating in any way, shape or form, as best I have been 
able to determine.
    Do you have some contrary determination about that?
    Mr. Ruff. I think, quite so, Congressman Fattah, the 
videotapes of the coffees are entirely consistent with the 
descriptions previously given of those events and certainly 
reveal no improper activity.
    Mr. Fattah. So you have been brought over here with your 
deputy to be questioned about obstructing the delivery of 
incriminating evidence, supposedly, which is not incriminating 
at all.
    Mr. Ruff. I think that is fair.
    Mr. Fattah. Now there was an election that took place in 
1996 and one that took place in 1992, and I think that maybe 
the biggest offense of Bill Clinton is that he beat the 
Republicans, but there is another point I would like to make 
about those elections, is that there was some similarities 
between the two campaigns, the Republican party's campaign and 
Democratic party campaign. Both campaigns used soft money for 
issue advocacy and other purposes, and both campaigns received 
foreign contributions that they had to return in the millions 
of dollars, and there are some differences in the two 
campaigns. The Dole campaign is the only one of the two in 
which there have now been two successful criminal prosecutions, 
one of a campaign chair, who was fined some $6 or $8 million, I 
can't recall, and put under house arrest for laundering money 
through a Hong Kong bank, and we now have a Pennsylvania 
company that has pled guilty to a conduit of hundreds of 
thousands of dollars into the Republican campaign coffers.
    Have there been, to your knowledge, any successful 
prosecution of any official in the Clinton campaign having to 
do with conduit payments?
    Mr. Ruff. No, sir.
    Mr. Fattah. Have there been any charges made, specific 
criminal charges, to your knowledge, of the President or anyone 
else, being involved in criminal activity, conduit campaign 
contributions?
    Mr. Ruff. Not to my knowledge, Congressman.
    Mr. Fattah. So there is a distinction between the two 
campaigns, in that one has been burdened by successful 
prosecutions of illegalities, and the other, at best, what we 
have had is a Senate investigation, which has concluded with 
nothing but thin air. And I think that it is important, as we 
deal with this issue, that we try to put this in its own 
perspective because I assume your office has other 
responsibilities, as the counsel to the White House.
    Mr. Ruff. I would like to think so, Congressman, yes.
    Mr. Fattah. I have no idea, since I am not a lawyer and I 
never worked in the White House Counsel's Office, would you in 
a bullet form tell us about some of the other responsibilities 
that you have as counsel to the White House?
    Mr. Ruff. Well, my principal responsibility, of course, is 
to try to advise the President on a whole range of legal 
matters arising out of legislation, the work of this body, and 
others. We are responsible for advising the President 
concerning the selection of judges, certainly one of the most 
important functions the President has; we serve as ethics 
counsel to all White House employees.
    Mr. Fattah. I would assume there are some national security 
issues that you have to deal with?
    Mr. Ruff. We, together with the National Security Council 
legal advisors, work on a number of those matters.
    Mr. Fattah. Let me just conclude because I know the ranking 
member has a limited amount of time, but the real crime that 
may have been committed is that this White House, this 
administration, notwithstanding its political success, has been 
burdened, as you have already illustrated, by a whole range of 
investigations. My colleague, Mr. Kanjorski, said we have one 
investigation here in the House. There are other committees in 
the House that are issuing subpoenas and making requests around 
other matters, and I remember the Speaker saying that once the 
Republicans took over they were going to have every committee 
of the Congress be an investigatory committee and they will 
have subpoenas flying all over the place. I think that one 
possibility is that the biggest crime that has been committed 
here is that this administration is, even though it is elected 
by the people of the country twice now, is being impeded from 
carrying out its policy objectives by this continuing assault, 
within, after all of it, after tens of millions of dollars 
being spent, no one has even come close to being able to bring 
any type of a criminal activity or improper activity upon the 
President or saying that he had any knowledge thereof. So I 
want to thank you for your appearance here and I want to thank 
the ranking member for yielding to me.
    Mr. Burton. The gentleman's time has expired. I would like 
to just make a couple of clarifying comments before I yield to 
Mr. McIntosh for his 10 minutes.
    First of all, Senator Thompson wanted more time. In fact, I 
think he said when he concluded his hearings that, in effect, 
the White House had run out the clock and he thought setting 
time constraints on him was probably, in retrospect, the wrong 
thing to do because they had more they had to look into.
    Second, it was two and not six people to whom we sent 
erroneous subpoenas. Those records that we received were 
returned without us reviewing them. Obviously, when you send 
out 300 or 400 subpoenas, sometimes there is a mistake made, 
but we made sure they were not violated in any way because 
those records were returned without review.
    Finally, there are 62-plus people that we have been 
investigating and asking for information on the Democrat side 
who have taken the fifth amendment or fled the country, none on 
the Republican side. That is the reason why the preponderance 
of effort in the investigation has been on the Democrat side. 
That is not to say that we are not going to investigate 
Republican alleged illegal activity. We are. When you have 62 
people taking the fifth amendment or fleeing the country, you 
have to look into that.
    Finally, I want to ask Mr. Ruff one quick question. Has 
anybody on my staff, on the majority side, harassed you in any 
way?
    Mr. Ruff. Mr. Chairman, we are engaged, I believe, in good, 
hard fought occasionally, professional dealings with you and 
your staff. As I indicated at the beginning of my comments 
today, I have always appreciated the candor with which you and 
I have dealt with each other, and I appreciate the candor with 
which Mr. Bennett and I deal with each other. We do not always 
agree, almost never agree, but I have always felt our 
relationships to be professional. I feel burdened because you 
have asked for a lot of stuff from us, but our relations, as I 
said, I viewed as professional, occasionally contentious but 
professional.
    Mr. Burton. But not harassed?
    Mr. Ruff. No, sir.
    Mr. Burton. Mr. McIntosh.
    Mr. McIntosh. Mr. Chairman, let me start with an inquiry. 
Do you want to stop for the vote, first?
    Mr. Burton. If you would like, Mr. McIntosh, we can break 
for the vote and come back and then you can start when we come 
back.
    Mr. McIntosh. We have 10 minutes. I am happy to do it.
    Mr. Burton. We have the time.
    Mr. McIntosh. Good afternoon, Mr. Ruff and Ms. Mills. Let 
me pick up where we left off on the WhoDB question. And, Ms. 
Mills, in addition to you and Mr. Quinn, were there any other 
individuals who were involved in the decision to withhold the 
handwritten notes and the other documents in the fall of 1996.
    Ms. Mills. In the fall of 1996, given the short timeframe 
in which we had to review the materials, we went about asking 
those members of our office who had time that weekend to come 
in to help go through all the different materials that had been 
collected. I couldn't tell you how many of those different 
people might have had occasion to review this document, but 
what we did try and do, once we got to this particular document 
and some others, is review them carefully and make a 
determination based on the criteria you outlined that you were 
looking for and make a determination regarding its 
responsiveness.
    Mr. McIntosh. OK. And do you recall which weekend that was?
    Ms. Mills. I believe, actually, we sent out our request on 
the 12th. I believe on the 18th is when we had our directive 
return date for the documents, so we had a very quick 
turnaround for the return date. I believe it was on the 18th or 
19th that you sought the materials from us and we started 
producing them around that time. That is my best recollection.
    Mr. McIntosh. Was that decision ever revisited?
    Ms. Mills. The decision to produce documents to you?
    Mr. McIntosh. The particular ones that we were talking 
about earlier, the handwritten memo and the other documents 
that Mr. Ruff said?
    Ms. Mills. They were placed in a file and at the time when 
I concluded handling this matter I transferred them to another 
attorney who was handling them. I don't believe she had 
occasion to re-review those materials until sometime recently 
in response to additional requests that you have been posing.
    Mr. McIntosh. You and Mr. Quinn didn't revisit that 
decision?
    Ms. Mills. At that time we didn't revisit because we didn't 
have any new requests from you; that is correct.
    Mr. McIntosh. Well, let me point out we had an outstanding 
request for all of the documents. Let me ask you about some 
individuals to see if you remember whether they were involved 
in that initial decision. There was Mr. Quinn. Were any of the 
individuals listed in the handwritten document, there is 
Erskine, which I presume is Erskine Bowles, was he consulted 
about the document?
    Ms. Mills. No, these are--these were internal notes of a 
particular staff member so he was not consulted with regard to 
this document, this was somebody's notes.
    Mr. McIntosh. Mr. Bowles was not consulted?
    Ms. Mills. Correct.
    Mr. McIntosh. Do you know whose notes these were?
    Ms. Mills. It is my understanding they are Brian Bailey's 
notes.
    Mr. McIntosh. Was Mr. Bailey consulted?
    Ms. Mills. I don't know if he was consulted at that time or 
not.
    Mr. McIntosh. OK. Do you know--Harold is listed. Was Harold 
Ickes consulted?
    Ms. Mills. I don't believe he would have been. These would 
have been Mr. Bailey's internal notes, so I don't believe we 
would have consulted him, but I am doing my best to recall from 
over a year ago.
    Mr. McIntosh. I understand. How about Deborah DeLee, would 
she have been consulted?
    Ms. Mills. No.
    Mr. McIntosh. Or Bobby Watson?
    Ms. Mills. No.
    Mr. McIntosh. OK. And then the other one, I have to ask, 
was the POTUS consulted?
    Ms. Mills. No.
    Mr. McIntosh. The President?
    Ms. Mills. No.
    Mr. McIntosh. Who is Brian Bailey again?
    Ms. Mills. Brian Bailey was at that time serving in, I 
believe, the Deputy Chief of Staff 's Office. He was an 
assistant in that office.
    Mr. McIntosh. So he was the deputy to which deputy?
    Ms. Mills. I don't know that he was a deputy to a deputy.
    Mr. McIntosh. OK.
    Ms. Mills. I actually don't know what his official title 
was. He was one of the staff members in the Deputy Chief of 
Staff 's Office.
    Mr. McIntosh. Forgive me if I forget the organizational 
chart. Was Mr. Ickes and Mr. Bowles, both of them were 
deputies? Did he work with one or the other?
    Ms. Mills. I believe both of them were deputies at the time 
Mr. Bailey was working in the White House, I believe that is 
correct. I believe at that time he was working with Mr. Bowles, 
but that is my best understanding.
    Mr. McIntosh. OK. Thank you. Let me ask you this. To get 
the sequence correct, on that weekend when the documents were 
reviewed, Mr. Ruff indicated in his letter they were then put 
in the folder. That was your job, to put them in the folder and 
then keep custody of the documents?
    Ms. Mills. Yes, at the end of what I was doing is I created 
a working file, a file of other materials that might need to be 
reviewed or issues that needed to be handled in that file. When 
I was transferring the matter, that file was transferred.
    Mr. McIntosh. OK. And who was the attorney to whom the 
documents were then transferred?
    Ms. Mills. Miss Sally Paxton.
    Mr. McIntosh. Miss Paxton. Did you review with her at that 
time the contents of the folder of documents that you had 
deemed were not relevant?
    Ms. Mills. I don't believe I reviewed the contents of the 
folder. I believe I might have reviewed my working file with 
her, in other words, the different files that were in my 
working file, but I don't believe or at least I don't recall as 
I sit here right now going through those documents with her.
    Mr. McIntosh. OK. Approximately when did you give Miss 
Paxton the files?
    Ms. Mills. I believe it would have been sometime in 
December.
    Mr. McIntosh. December.
    Ms. Mills. Of 1996.
    Mr. McIntosh. And, again, you gave them to her because you 
were being reassigned to different duties, or what was the 
reason you gave them.
    Ms. Mills. There were a lot of different matters I was also 
starting to handle, and so we were transitioning different 
matters to different people. This was one of the matters that 
Miss Paxton had the fortune to be transferred to her.
    Mr. McIntosh. We have enjoyed working with her, too, 
actually.
    We are talking about the WHoDB matter generally, or--just 
to be clear, the matter that was being transferred to her was 
the WHoDB investigation and the responses to our subcommittee?
    Ms. Mills. Correct.
    Mr. McIntosh. OK. Let me ask you, Mr. Ruff, could you tell 
me, and I want to point everybody's attention to a letter that 
you wrote to me on May 20, and it is tab 9 in the book of 
documents about the WHoDB investigation, and for my colleagues, 
it is in the green folder, the May 22 letter, from Mr. Ruff to 
me.
    You indicate there, and we disagreed at the time, but in 
fairness to you, you stated there was no evidence that in this 
memorandum or anywhere else that WHoDB was planned to be used 
for political purposes.
    Now we have new evidence that you tell me in your October 
28 letter was newly--you became newly aware of. It strikes me 
that this new evidence, whether or not it is dispositive, is 
evidence that a discussion of an illegal activity, using a 
Government data base to share information with a political 
campaign is now before us.
    Do you disagree with that, and I don't want to hold you to 
the May 22nd letter?
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.079
    
    [GRAPHIC] [TIFF OMITTED] T5405.080
    
    Mr. Ruff. First of all, I disagree with your 
characterization. I would not now and hope never to hold myself 
out as an expert on the intricacies of WHoDB and all its many 
iterations, but as I understand the situation, there is a 
distinction, and I cannot tell what is reflected in this 
memorandum, because I have not discussed it with anybody, 
between making data bases compatible so that information can be 
used and making federally funded assets available for political 
purposes. Now we may disagree about where on that spectrum this 
note or any other piece of evidence falls, but I know of 
nothing to suggest a misuse of Government assets for political 
purposes.
    Mr. McIntosh. I must say, Mr. Ruff, when the notion of 
sharing data comes up, that that is a nongovernmental function 
of a Government asset and so a distinction that doesn't carry 
the difference.
    I am deeply concerned by this and will want to continue to 
ask all of you about questions on custody of this document, but 
for now let me yield back the balance of my time to the 
chairman.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    The Chair will stand in recess. We have three votes on the 
floor, on H.R. 188. We will return just as quickly as possible.
    [The prepared statement of Hon. David M. McIntosh follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.082
    
    Mr. Burton. The committee will come to order.
    Mr. Waxman, your side is recognized for 10 minutes for 
whomever you designate.
    Mr. Waxman. Mr. Barrett.
    Mr. Burton. Mr. Barrett is recognized for 10 minutes.
    Mr. Barrett. I don't really want to use a lot of time. I 
just have a couple of observations and then a couple of 
questions.
    One of the observations I had was, earlier the chairman--
you referred to the number of witnesses who had given testimony 
who have not come forth to testify and pointed out, quite 
correctly, that all those who have not testified are associated 
with the Democrats. You said that there was zero on the 
Republican side, which I assume is pretty accurate, given the 
fact that you haven't asked any Republicans to testify.
    Mr. Waxman. Would the gentleman yield?
    Mr. Barrett. I would be happy to yield.
    Mr. Waxman. I can't quite hear you. I don't think the sound 
system is working.
    Mr. Barrett. I will try this. Is that a little better?
    Mr. Waxman. I can hear you because I can hear your voice, 
but it sounds like the sound system----
    Mr. Barrett. I will speak a little louder into the 
microphone, too.
    But I think it is accurate to say that if no subpoenas are 
given to the Republican side, you are not going to have any 
Republicans refuse to testify. You can turn that around and say 
that not a single Republican has agreed to come forth to 
testify, which would also be factually accurate. So I think we 
have to sort of keep a perspective of what we are doing here.
    Mr. Ruff, I have what has been labeled as exhibit 64. I 
don't know if you can grab that document, but it is the 
handwritten notes that we saw on the television screen here.
    Mr. Ruff. Is this what we were discussing with Congressman 
McIntosh?
    Mr. Barrett. No--I think Mr. McIntosh did have that on the 
screen, yes. I don't know whose notes they are, but they are 
handwritten notes.
    My question--and maybe you don't even have to look at it--
when you produced this document, is it accurate to say that the 
White House produced this document?
    Mr. Ruff. Yes. If we are discussing the notes relating to 
WhoDB, when we found the document--I guess it was last week; I 
have lost track of my weeks--I sent it along with some others 
to Chairman McIntosh, explaining the circumstances under which 
it had been discovered.
    Mr. Barrett. OK. So it was not something that was refused? 
It may have been late, it may not have come as quickly as they 
wanted, but this is something that was produced by the White 
House; is that right?
    Mr. Ruff. The subcommittee now has it, that's correct.
    Mr. Barrett. Again, this may be material that's already 
been gone over here, but it would be helpful for me. To date, 
roughly how many documents have been produced by the White 
House?
    Mr. Ruff. I am not sure I can break it into documents, but 
we are somewhere north of 110,000 pages of stuff.
    Mr. Barrett. 110,000 pages of stuff?
    Mr. Waxman. Would the gentleman yield for a second?
    This PA system doesn't seem to be working. Mine does. This 
one--not either.
    Mr. Ruff. Yours is breaking up, too.
    Mr. Waxman. Well, Mr. Chairman, it is your committee.
    Mr. Ruff. Can we call the White House staff?
    Mr. Waxman. Your television doesn't produce sound. Your 
sound system produces staccato. Is this a plot or what are we 
to make of it?
    Mr. Burton. I think the sound----
    Mr. Waxman. The Senate system worked.
    Mr. Burton. I think that we have got static here. We need 
to change that. Have we called anybody over here to take a look 
at this system?
    The VCR is now fixed. So now we can hear on the TV, but we 
can't hear each other.
    Mr. Kanjorski. The Otis elevator technician has been in.
    Mr. Burton. Call and get a technician over here as quickly 
as possible and find out what is wrong with the microphones.
    Mr. Barrett. Do you want me to proceed, Mr. Chairman, or 
shall we wait?
    Mr. Burton. I think that we can figure out what you are 
saying, and if you want to proceed, we can do that.
    Mr. Barrett. I would be more than happy to proceed.
    Mr. Burton. Thank you.
    Mr. Barrett. I don't have a lot.
    Again, 110,000 pages have been produced. Do you have a feel 
for exactly how many pages we are fighting over that have not 
been produced or that mistakes were made on out of those 
110,000?
    Mr. Ruff. I am not sure. I think it is fair to say, 
Congressman, that with very few and very minor remaining 
exceptions, all of which the committee staff is aware of, we 
are in essence in compliance with the outstanding subpoenas and 
requests.
    Mr. Barrett. Of the 110,000 pages, how many mistakes were 
made? What percentage would you attribute to mistakes?
    Mr. Ruff. Well, of course, there is no question that the 
videotape issue is--looms largest as our single biggest failure 
to find what we could have found. I think, other than that, 
what we have done is, by and large, to have found bits and 
pieces from time to time that should have been found earlier; 
but the vast bulk of what has been produced has been produced 
in a regular and, I believe, timely fashion.
    Mr. Barrett. From your perspective, has the videotape issue 
been pretty much resolved?
    Mr. Ruff. I certainly hope it has, Congressman. I think the 
record is so clear at this point about the circumstances under 
which it was first not found and then found, I hope there is 
very little dispute there. We are in the process even now of 
talking with the committee about any other tapes they may be 
interested in looking at, but I certainly hope the general 
issue is close to being put to rest.
    Mr. Barrett. OK. Thank you. The reason I raise the 110,000 
pages and the percentage of pages that were either erroneously 
or maliciously, if one wants to argue that, mistaken, is 
because of the issue that was raised a little earlier, that I 
think is important to raise again, and that is the woman who 
lives in Congressman Moran's district who received a subpoena 
for her bank records.
    This is the woman, as this committee knows, who was 
applying for American citizenship. Her sin apparently, 
according to this committee, is that she has an Asian American 
background, and for that reason her bank records were 
subpoenaed.
    That was a mistake. The Republican party recognizes it was 
a mistake. I think that they have apologized, rightly so. But I 
think, as a percentage--and again my understanding is the 
chairman mentioned that there were maybe 600 subpoenas issued 
and there were 2 subpoenas that were erroneously issued--6 
subpoenas that were erroneously issued. That's a 1 percent 
error rate.
    If we are talking about 110,000 pages of documents that are 
produced--that have been produced, if we are looking at a 1 
percent error rate, you have got about 1,100 pages you can 
screw up before I think we are on equal ground with the 
Republicans in this.
    And again, I look at what happened to that woman, a woman 
who is waiting for American citizenship and is served with a 
subpoena to look at her bank records, and what is her reaction? 
If it were me, my reaction would be to freak out, wondering 
what in God's name have I done wrong?
    As it turns out, she was not from a politically active 
family. In fact, her husband's last contribution was in 1986 
when he gave $50. I think he was a Republican at that time.
    But she is not from a politically active family. But she is 
a victim, she is a victim of this investigation for the simple 
reason that she has an Asian-American last name.
    And I think that if we are going to point fingers, I think 
that we should be pointing them equally. And I think that there 
was a mistake that was made, and I will grant the majority 
party that there are going to be mistakes made. But I think 
that there is a two-way street here, and it seems somewhat 
ironic to me that when the White House makes a mistake, and you 
have made a mistake--you should have produced those documents 
earlier.
    When there is a mistake made by the Democratic 
administration, what do we do? We have 2 days of hearings. When 
there is a mistake made by the Republican side, oops.
    No further questions, Mr. Chairman.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. We have additional time. Do any other members 
on this side of the aisle wish to ask questions?
    Mr. Fattah. Yes.
    Mr. Waxman. Mr. Fattah.
    Mr. Fattah. Thank you very much.
    One of the allegations that has been bandied about in terms 
of the President's efforts at fund-raising in the last election 
was that he hosted supporters of his in the White House, which 
is the subject of the discussion about the videotapes.
    Now, we know that he is not the only President that has 
done this. In fact, we have seen, at least on videotape, 
President Reagan hosting them. The videotapes that were 
supplied by the White House, there are other videotapes that 
the Senate Democrats wanted to receive from the Bush Library 
and from the Reagan Library, and neither wanted to comply.
    As White House counsel, could you tell me whether or not in 
the archives of the White House Communications Agency copies of 
those tapes would be available to this committee if we wanted 
to request them?
    Mr. Ruff. I don't believe so, but let me check with my--I 
believe that they are then transferred to the individual 
Presidential libraries. We do have, I understand, but I have 
not seen it--nor has anyone else, I believe, in my office--
logs, computer records of what used to be in the archives, but 
I believe everything has now gone to the individual 
Presidential library.
    Mr. Fattah. So the only way that this committee could get 
those is if we requested them from those Presidential 
libraries?
    Mr. Ruff. From the libraries, I believe that's correct.
    Mr. Fattah. Which are taxpayer-supported libraries?
    Mr. Ruff. That's correct.
    Mr. Fattah. OK. Because it may be helpful to put this in 
some perspective, that President Clinton is among a number of 
Presidents who have, as part of their practice, hosted 
supporters of the White House in some form or fashion, 
financial supporters, and in some varying degrees thanked them, 
encouraged them in some way to be supportive of the political 
activity of the party. So the President doesn't do it alone in 
that respect.
    The other issue has been--the principal issue has been 
focused on foreign money, and both parties have received 
foreign money and returned it. And the chairman mentioned 
earlier, he was emphasizing that there were grand jury 
investigations of certain activities, but neglected to put on 
the record, and I want to put on the record, that it has also 
been reported that Chairman Haley Barbour has been called 
before what I assume should be a secret grand jury proceeding, 
but one in a similar manner. But he testified before the Senate 
that he went to a foreign land and requested and received over 
$2 million of foreign money, which eventually helped facilitate 
the election of the Republican Members of Congress.
    The circumstances surrounding that are very different from 
the circumstances surrounding the allegations of conduit 
payments in the Clinton campaign, and I want to see if I can 
draw that distinction for the record. One is that conduit 
payments are really kind of a fairly common violation of 
Federal election law.
    There have been hundreds of cases in which people who seek 
to make contributions in someone else's name--it happened in 
the congressional campaign and seemingly it may have happened 
in the Clinton campaign. In all of those cases, to the best of 
my recollection, with one exception having to do with a member 
of the Congress, it has been the position of the Justice 
Department that neither Bob Dole knew nor any of these other 
parties knew that these illegal contributions were being made 
to their campaign.
    Mr. Burton. Mr. Fattah.
    Mr. Fattah. Yes.
    Mr. Burton. The lights aren't working. We have a technician 
there. He is going to be one of the most popular fellows in the 
place.
    But your time has expired. We will have to keep time with a 
watch for our next round of questioning.
    Mr. Cox.
    Mr. Cox. Thank you. We are sitting sufficiently close 
together that even if this doesn't work, I am sure we will be 
able to hear each other.
    Mr. Ruff. Yes, sir.
    Mr. Cox. As you know from our earlier meetings, I used to 
work in the White House Counsel's Office. My job was, Ms. 
Mills, roughly equivalent to yours, and I empathize with what 
you are going through.
    I understand that you produced 110,000 pages worth of 
documents.
    Because one of my colleagues from California earlier raised 
the Iran-Contra example, I would point to it as an example of 
what Congress typically does in an investigation of this sort, 
and just read briefly from the Iran-Contra report. At that 
time, the Democrats controlled the Congress. The chairman of 
the Senate committee was Daniel Inouye; the vice chairman was 
Warren Rudman.

    We wish to recognize the cooperation that we received from 
the White House throughout this inquiry. Once our investigation 
commenced, the White House rose above partisan considerations 
in cooperating with our far-reaching requests and ensuring the 
cooperation of other agencies and departments of the executive 
branch. In compliance with our requests, over 250,000 documents 
were produced by the White House alone.

    I would point out that is more than twice the number of 
documents that we are talking about here in less than half the 
time.

    Additional large quantities of material were produced by 
other executive branch agencies and departments. Relevant 
personnel and officials, et cetera, were made available for 
interviews, depositions, discussions and assistance in 
facilitating our work. All of our requests to the White House 
and the executive branch were fulfilled. The White House 
pledged to cooperate with this investigation, and it did.

    That's not a report that this committee is likely to issue 
because we have been meeting with you about compliance with 
subpoenas that have been outstanding for months. And the one of 
them, we are talking about here today, one of several that we 
are talking about here today, was issued on March 4th.
    It is my understanding that the White House Counsel's 
Office did not even contact agencies within the White House to 
return information about the subpoena for some time after that. 
There was a March 24th return date on that subpoena, and a 
month after the return date on the subpoena had expired, on 
April 28th, there was a memorandum sent to the Executive Office 
of the President covering these videotapes that went to the 
Military Office and to WHCA.
    Is my date correct? Was it April 28th that you sent that 
memo?
    Mr. Ruff. That directive was sent out on April 28th. It was 
not, however, the only step that was taken with respect to the 
production of documents to this committee.
    Mr. Cox. Did you send a memo to WHCA prior to April 28, 
1997?
    Mr. Ruff. No, I did not.
    Mr. Cox. Thank you.
    About 4 months later, 4 months after you sent that memo to 
WHCA, on August 19, 1997, the U.S. Senate Committee on 
Governmental Affairs asked the White House, did WHCA make any 
videotapes? It is a reasonably plain-English letter, and it 
says, ``please advise immediately whether any video or audio 
record exists and whether it will be produced pursuant to the 
outstanding subpoena.'' And the understanding expressed in the 
letter is that the videotapes were made by the White House 
Communications Agency, WHCA, and that that information would be 
responsive to the subpoena. The letter is only one page long.
    Did you send a copy of that letter to WHCA, ever?
    Mr. Ruff. No, but it wasn't necessary to do so, Congressman 
Cox, because Mr. Imbroscio was already fully engaged in the 
process of dealing with Mr. Bucklin's questions about WHCA.
    Mr. Cox. Now, if you didn't send a copy of the letter which 
asked for the videotapes, did you send your own memo to WHCA 
asking for videotapes?
    Mr. Ruff. First of all----
    Mr. Cox. In response to this letter of August 19, 1997?
    Mr. Ruff. First of all, Congressman, I don't have the 
August 19th letter with me, but my recollection of the first 
paragraph is not exactly as you have recited it.
    Second----
    Mr. Cox. I am sorry. In what respect does your recollection 
differ?
    Mr. Ruff. Can we be provided with a copy?
    Mr. Cox. I would be happy to have you read the first 
paragraph, whatever it says.
    Can we suspend the time while the witness is given a copy 
of this letter? It is very short. It is only three paragraphs.
    Mr. Ruff. Yes. I have it now.
    Mr. Cox. In what respect does your recollection of this 
letter differ from what we are discussing here?
    Mr. Ruff. It doesn't. I just wanted to be clear that what 
this paragraph says is--and it might be useful for me just to 
put it on the record, so that we all have----
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5405.083
    
    Mr. Cox. Please don't read the letter. I have got a copy of 
it as well.
    Mr. Ruff. Well, I think it is important to understand what 
this letter is, because it frames what the question was.
    Mr. Cox. With all respect, I understand exactly what the 
letter is. It is a request for videotapes from WHCA, is what it 
says it is; and my understanding is that you did not send a 
copy of this letter to WHCA. Neither did you send your own memo 
in plain English, saying, we have been contacted by the U.S. 
Senate, and they have said that their outstanding subpoena 
expressly includes WHCA tapes, and we would like you to make 
those WHCA tapes available to us.
    No such memo went, my understanding is, from the White 
House Counsel's Office to WHCA at any date after August 19, 
1997. Tell me if I am wrong and there was such a memo or 
whether you sent a copy.
    Mr. Ruff. You are not wrong, but I believe your question 
and last statement is misleading, Congressman, because as the 
record very clearly reflects, Mr. Imbroscio within, I believe, 
10 days of this letter was personally speaking with WHCA about 
the very issues posed in the initial conversation with Mr. 
Bucklin, and--in this letter, as well as the broader request 
made in the April 28th directive.
    Mr. Cox. You are aware, I am sure, that WHCA's testimony is 
that they were not properly asked for this information. That's 
why I would expect a lawyer's office to ask for documents in 
response to subpoenas, which are much more serious than simply 
document requests in writing.
    When I worked in the White House Counsel's Office, that's 
the way it was done.
    Now, I want to ask some additional questions.
    Mr. Ruff. If I may, Congressman, because your question, I 
think, is once again not entirely an accurate reflection of the 
record, the WHCA personnel did not testify that they were not 
properly asked.
    The testimony was, I believe, quite clearly, that the 
directive of April 28th was sent from the White House Military 
Office to WHCA; that one page, the critical page referring to 
coffees, in some fashion didn't make it through the fax machine 
or from the fax machine to the relevant people. They testified 
that if they had received----
    Mr. Cox. I am sorry, Counsel, but I am going to have to 
interrupt you, because you are talking now about the original 
document request.
    Mr. Ruff. That's correct.
    Mr. Cox. That antedates by months the letter we got from 
the U.S. Senate to the White House.
    What I have been able to establish, in response to the 
questions I have just put to you, is that--I think I asked the 
question clearly, and you responded in a straightforward 
fashion that you neither sent a copy of the letter that the 
Senate sent to the White House, expressly asking for WHCA to 
turn over videotapes, nor did you restate that in your own 
language and send it WHCA.
    There was simply no correspondence, no writing on this 
document requesting documents from the White House to WHCA.
    Now I want to ask you a different question. Do you remember 
this headline from the New York Times, which reads ``Reno in 
Letter to Congress''--it was page 1--``Rejects Most Allegations 
That Clinton Violated Law''?
    Do you remember the date that happened? It was a Saturday 
morning.
    Mr. Ruff. I don't remember the particular document, but I 
take your word for the fact that it is in the New York Times.
    Mr. Cox. Do you remember that it was front page news in 
newspapers across America when Janet Reno issued her letter on 
Friday, October 3rd?
    Mr. Ruff. I surely do.
    Mr. Cox. Were you surprised that that was front page news 
in the newspapers across America?
    Mr. Ruff. No, I wasn't surprised.
    Mr. Cox. Why weren't you surprised?
    Mr. Ruff. Because I would think that any time the Attorney 
General speaks to issues, particularly in the form of a 
response to the chairman of the House Judiciary Committee, that 
bear on her assessment of violations of law by senior official, 
that that would be front page news.
    Mr. Cox. Would another reason that you were not surprised 
be that you knew in advance that October 3rd was the date that 
she was due to make that decision to respond to Henry Hyde's 
letter to us?
    Mr. Ruff. Indeed, I did.
    Mr. Cox. Or from us to you, I should say.
    Mr. Ruff. Indeed, I did.
    Mr. Cox. And that was a deadline that was pretty well known 
across the country; isn't that right?
    Mr. Ruff. Absolutely.
    Mr. Cox. All right. Because the question was, will there be 
an Independent Counsel investigation taken one step further 
with respect to the President and the Vice President? That's a 
pretty serious matter.
    Now, that was October 3rd. You met with the Attorney 
General the day before, didn't you?
    Mr. Ruff. That's correct.
    Mr. Cox. You met with her about 3 in the afternoon?
    Mr. Ruff. That's correct.
    Mr. Cox. Did you do something unusual that morning before 
you met with her?
    Mr. Ruff. Congressman, no, actually, I didn't. But if you 
are--if you are----
    Mr. Cox. Did you look at videotapes of the President at 
these White House coffees that morning?
    Mr. Ruff. If your question is, was I aware of the 
videotapes earlier that day, it was either late morning or 
early afternoon----
    Mr. Cox. That was not the question. The question is, did 
you look at those videotapes?
    Mr. Ruff. I did. I have so testified. I have so stated 
publicly.
    Mr. Cox. All right. Now, that's not unusual?
    Mr. Ruff. Of course it is unusual. But I am trying to be as 
responsive to your questions as I can.
    Mr. Cox. Yes. And that is why I asked you whether it was an 
unusual morning, because believe me, when I worked at the White 
House Counsel's Office, if we were in the middle of an 
investigation of this magnitude--and particularly you, knowing 
what meaning tapes have in an investigation like this because 
of the Watergate days, I am sure--we are sitting on a 
bombshell, you understood that, because that also made national 
news.
    You stated earlier in your testimony here today that this 
has taken on a life of its own and it has occupied the media's 
attention for a month. But you knew this, and the rest of the 
world didn't know it that morning. And in fact--how long did it 
take you to watch the videotapes that morning?
    Mr. Ruff. Perhaps 5 minutes.
    Mr. Cox. You watched them for 5 minutes. And what is the 
name of the member of the Counsel's Office that first informed 
you about it that morning?
    Mr. Ruff. Mr. Imbroscio.
    Mr. Cox. And how long did you talk to Mr. Imbroscio about 
those tapes?
    Mr. Ruff. He came in, said that he had found evidence in 
the computer data base that these tapes existed, that he had--
--
    Mr. Cox. How long did it take him?
    Mr. Ruff. I am just trying to give you a sense of it. He 
showed me--told me that he had a sample of them; I believe 
there were three, perhaps four--showed them to me, and I told 
him to take whatever steps were necessary to find them.
    Mr. Cox. Did you talk to anybody about it on the phone that 
day before you met with the Attorney General?
    Mr. Ruff. No, I didn't.
    Mr. Cox. Did you talk to the President about it that day?
    Mr. Ruff. No, I didn't.
    Mr. Cox. Did you talk to the Chief of Staff of the White 
House about it that day?
    Mr. Ruff. No, I didn't.
    Mr. Cox. Did you talk to Mike McCurry about it?
    Mr. Ruff. No.
    Mr. Cox. So you kind of kept it to yourself?
    Mr. Ruff. Other than my conversation with Mr. Imbroscio, 
that's correct.
    Mr. Cox. And then you met with the Attorney General later 
that day?
    Mr. Ruff. Uh-huh.
    Mr. Cox. And when you met with her, were you aware that the 
Justice Department had an outstanding request for those very 
documents?
    Mr. Ruff. I think it is fair to say I was aware. I so 
testified.
    Mr. Cox. And you were also aware that the next day was the 
day that she was going to make national news, one way or the 
other, you weren't sure which way, on the question of whether 
an Independent Counsel should look into these things?
    Mr. Ruff. Indeed. As I have stated publicly.
    Mr. Cox. Mr. Chairman, has my time expired?
    Mr. Burton. I think the gentleman has a few more seconds, 
but----
    Mr. Kanjorski. Mr. Chairman, I am informed that the 
responses of the witness are not getting on television at all. 
In all fairness, it seems to me we ought to make sure this high 
tech system of ours really works.
    Mr. Burton. If you like----
    Mr. Kanjorski. You have got the example of the White House.
    Mr. Burton. If you like, I hate to inconvenience the 
witnesses, but what we could do is recess until tomorrow 
morning at 10.
    Mr. Waxman. Mr. Chairman----
    Mr. Burton. This is important for the American people as 
well, and the television stations that are here can't pick this 
up because of the annoying interference. So since we can't get 
this fixed, I don't think it would be of long duration 
tomorrow, but would it be possible for you to come back so we 
can conclude this in a short period of time tomorrow?
    Mr. Ruff. Of course we are at the committee's disposal, Mr. 
Chairman.
    Mr. Burton. I think what we will do is just recess until 10 
a.m. I will make sure that this is fixed. Thank you.
    The committee stands in recess until 10 a.m. tomorrow.
    [Whereupon, at 4:10 p.m., the committee recessed, to 
reconvene at 10 a.m., Friday, November 7, 1997.]


            WHITE HOUSE COMPLIANCE WITH COMMITTEE SUBPOENAS

                              ----------                              


                        FRIDAY, NOVEMBER 7, 1997

                  House of Representatives,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Cox, Horn, Mica, McIntosh, 
Shadegg, Sununu, Sessions, Snowbarger, Barr, Portman, Waxman, 
Lantos, Kanjorski, Condit, Maloney, Fattah, Cummings, Kucinich, 
Blagojevich, Davis of Illinois, and Ford.
    Staff present: Kevin Binger, staff director; Richard 
Bennett, chief counsel; Barbara Comstock, chief investigative 
counsel; Judith McCoy, chief clerk; Teresa Austin, assistant 
clerk/calendar clerk; William Moschella, deputy counsel and 
parliamentarian; Robin Butler, office manager; Dan Moll, deputy 
staff director; Will Dwyer, director of communications; Ashley 
Williams, deputy director of communications; Dave Bossie, 
oversight coordinator; Robert Rohrbaugh, James C. Wilson, Uttam 
Dhillon, and Tim Griffin, senior investigative counsels; Phil 
Larsen, investigative consultant; Kristi Remington and Bill 
Hanka, investigative counsels; Jason Foster, investigator; 
Carolyn Pritts, investigative staff; David Jones and John 
Mastranadi, investigative staff assistants; Jay Apperson, 
special counsel, and J. Keith Ausbrook, senior counsel, 
Subcommittee on National Economic Growth, Natural Resources, 
and Regulatory Affairs; Phil Schiliro, minority staff director; 
Phil Barnett, minority chief counsel; Kenneth Ballen, minority 
chief investigative counsel; Agnieszka Fryszman, Elizabeth 
Mundinger, Kristin Amerling, Christopher Lu, Andrew McLaughlin, 
David Sadkin, and Michael Yang, minority counsels; Ellen 
Rayner, minority chief clerk; Becky Claster, minority staff 
assistant; and Sheridan Pauker, minority research assistant.
    Mr. Burton. The committee will reconvene.
    I want to thank our guests for coming back this morning. I 
hope you had a good night's sleep. You have heard of Murphy's 
law, Mr. Ruff and Ms. Mills. I went out to the parking lot, and 
I am not sure if you had anything to do with it or not, but I 
had a flat tire. And I didn't get home till 1 o'clock in the 
morning. And I really believe the White House had something to 
do with it. I am going to check this out.
    Mr. Ruff. Mr. Chairman, you and I will have to talk about 
it a little bit later, but I think I can explain it to you.
    Mr. Burton. You are a very inventive fellow, Mr. Ruff.
    In any event, we have two more individuals that we need to 
have sworn in this morning. And we thought in accordance with 
your request, Mr. Ruff, we would have all four of you up there 
at the same time to try to complete this in an expeditious way.
    Mr. Ruff. I appreciate this, Mr. Chairman. Thank you.
    Mr. Burton. Mr. Breuer and Mr. Nionakis, would you please 
stand up?
    [Witnesses sworn.]
    Mr. Burton. Thank you.
    I want you to know how well the sound system is working 
today. It is kind of a miraculous thing. Because of the glitch 
in the sound system yesterday, what we have decided to do is to 
go back to where the system really got out of control, because 
I think the person that was doing the transcribing as well as 
people who were watching this hearing on television were having 
a difficult time of it. So we are going to go back and give the 
minority 10 minutes. Then we are going to come back to Mr. Cox 
and give him 10 minutes. Then we will have 10 and 10. And then 
we will get back to the regular order. So we will----
    Mr. Waxman. Let's see if we understand this right. You are 
going to give--we agreed we would have three segments of 10 
each side.
    Mr. Burton. That is correct.
    Mr. Waxman. We are on the second round of 10 minutes. Mr. 
Cox went yesterday for 10 minutes. He was the second questioner 
for 10 minutes. Now it is our turn. Will there be another round 
of 10 minutes on your side and another round here of 10 
minutes?
    Mr. Burton. That is correct. You will have the same number 
of 10 minute rounds as the majority.
    Mr. Waxman. We are fine on this.
    Mr. Burton. OK. So Mr. Waxman, to whomever you designate.
    Mr. Waxman. Mr. Kanjorski.
    Mr. Kanjorski. Thank you very much, Mr. Waxman.
    Mr. Ruff, when I ended up yesterday in some of my 
examination, we were moving through the process of how many 
people you had in the Counsel's Office and how many documents 
you have delivered. And, we were just about to get into the 
idea of the videotapes.
    Now, although the tapes are an old story in this town and 
has a story of itself, as you have pointed out in testimony, 
because we are talking of videotapes and because we are talking 
of the White House, and because we are talking of subpoenas, to 
the American people there still is that idea that there must be 
something sinister involved. Or, of course, why else would the 
black helicopters in the White House do what they are doing? So 
in order to try and extract that idea, maybe we could walk 
through your experience and my experience with videotaping in 
the White House.
    First and foremost, as I understand it, this White House 
Communications Agency is not a politically appointed office or 
even a civilian office in the White House. It is something 
long-standing. It is commanded by a major or a colonel who is a 
professional military officer of the U.S. Government. And that 
regardless who is President of the United States or what party 
wins the election, this office goes on in continuity with the 
same personnel serving either administration in a very 
professional capacity. Is that correct?
    Mr. Ruff. That's my understanding.
    Mr. Kanjorski. And that it is not something new, relatively 
new as black helicopters, it has actually been around the White 
House for more than a quarter of a century I am sure.
    Mr. Ruff. Yes.
    Mr. Kanjorski. And we are not even quite sure where these 
tapes are located, but unlike the famous Watergate tapes, there 
is not a little hole in the front of the desk and a wire and 
somebody in the basement sitting with a monitor, as we conjure 
up in our imagination. But there is something like a typical 
home-run operated camera that people walk around and take 
pictures.
    Mr. Ruff. I think we probably have some real live examples 
with us this morning.
    Mr. Kanjorski. So, if we asked every one of these fine 
television men to reverse that camera and turn it on 
themselves, what we see walking around here walks around the 
White House all the time.
    Mr. Ruff. That's correct.
    Mr. Kanjorski. As a matter of fact, I do not think any of 
us would want to put a number on how many events at the White 
House would be taped. But, again, the American people do not 
meet movie stars and Nobel prize winners, and Congressmen every 
day of the week as the President does. He has a strange 
function down there. He is doing, 10, 12, 15 meetings that are 
televised almost every day. Is that not correct?
    Mr. Ruff. I'm not sure of the number. But certainly a great 
many of the things that he does, particularly the ones that are 
ceremonial, but also occasionally ones that are official.
    Mr. Kanjorski. Right. Well, I was thinking in the back of 
my mind, the amount of time that I spent with the President or 
have seen him or been around him, and whether there were 
cameras there. And I had to conclude that probably half of the 
time that I have been with the President, there has been a 
camera there, but it is blended into the woodwork because we 
were not paying attention to it: it was just expected.
    And prior to events starting, whether it is a very serious 
meeting or whether it is just a ceremonial meeting, an entire 
crew comes in with cameras and snaps pictures. Then they clear 
them out, and then you start doing something serious. And, of 
course, the cameras are off at that time.
    So it is unlike what average, typical Americans experience 
with a camera, or the 25th anniversary party that gets taped, 
or anything else; this is such a regular occurrence at the 
White House that none of us would probably make any to-do about 
it. As a matter of fact, in that regard, I was thinking I hope 
that Mr. Burton never sends a subpoena to me and asks the same 
question to provide this committee with all the tapes, because 
I always forget to ask these guys, we have three, four, five, 
six, eight, I think a count of nine television cameras in this 
room right now, and I haven't the slightest idea who they are. 
It could be NBC, CBS, Japanese television. It could be--there 
is a new network, RNC. They are usually around and about. But 
all these people come in and constantly take our pictures and 
it blends into the woodwork. We do not know. But how in the 
world would I find out? Or if any staff and I received the 
subpoena and I said, answer this subpoena, I am not sure we 
could go back here and find out every occasion I have been in 
this room or other rooms and who these people are and where 
these tapes are. So inevitably, regardless of what material or 
documents I send, I would never comply 100 percent. Would that 
be reasonable to assume?
    Mr. Ruff. I think it probable, given the life you lead, 
Congressman.
    Mr. Kanjorski. I heard you say in reading a couple of their 
letters in response, ``Dear Mr. Chairman, we have to the best 
of my knowledge complied with your subpoena completely.'' And 
that word struck me, as a lawyer, that God only knows there is 
nothing in this world that is complete. And you are a lawyer 
and you agree with that, too. Invariably, whatever we do, 
somebody is going to go back to that White House and open up a 
file cabinet or talk to somebody somewhere, maybe the assistant 
stewardess on the President's helicopter, and find out that she 
had a taping machine one day and carried on a taping where 
somebody got on the helicopter with the President and he hadn't 
even thought about it. Isn't that correct?
    Mr. Ruff. It's a frightening prospect, but it's distinctly 
possible.
    Mr. Kanjorski. All right. Now that we have an idea of the 
understanding. These are not hidden documents. These are things 
actually for historical record and future use of the archives 
of the library of this President as it has been for every 
President of modern times.
    Mr. Ruff. That's true, Congressman.
    Mr. Kanjorski. And all this shaking and everything, they 
didn't produce the tapes, there is nothing--you are testifying 
there is absolutely no intent on--that you found from anyone in 
the White House, in your office, or any other place in the 
White House that they intended to do this, because, in fact, 
they didn't even recall or remember that these were made. And 
the people that should have didn't receive that one document in 
the inquiry to assemble all the documents that were missed; is 
that correct, the famous missing tapes?
    Mr. Ruff. That's correct. I think the record is absolutely 
clear on that. We are rightfully subject to criticism for 
failing to produce them because they were responsive. But there 
certainly is no basis for suggesting that it was anything other 
than the essentially mechanical problem that has been testified 
about on the public record.
    Mr. Kanjorski. And so the American people understand that 
there--that is the best answer, made a mistake, damnedest 
mistake.
    I agree with Mr. Waxman. We don't like to hear you do those 
things. But then we have had the occasion to see how many 
mistakes this committee has made in the short life of this 
committee, and we don't nearly have the full burden to carry on 
the operation of the Presidency. So we are all prone to 
mistakes, and those of us that want to pretend that we are 
absolutely accurate and correct all the time are disingenuous. 
Our life isn't like that. The average American knows that. We 
don't have to belabor that.
    Now that we know this process has had a fracture in it or 
failing and we didn't get those tapes on time, it strikes me, 
as an average person in there, well, what are we arguing about 
here? Are we arguing about process or are we arguing about 
substance? The process obviously didn't work. And the majority 
of the committee has raised holy hell about that process not 
working.
    But let us assume that the process had worked and all the 
tapes that have been found or delivered had been found or 
delivered 2 or 3 months before because that is all the 
difference was. What have we found in those tapes that 
indicates anything wrong happened at the White House?
    Mr. Ruff. I think the answer to that is quite easy, 
Congressman, which is zero.
    Mr. Kanjorski. Zero. No impropriety, no illegal activity, 
no conspiratorial activity. Actually, humorously, someone 
called my attention to it, they caught the President making a 
joke. After listening to the joke, he wished somebody had a 
tape of it; he would like to record that tape. Little did he 
know that joke is on tape, right?
    Mr. Ruff. That suggests the level to which cameras become 
part of the woodwork.
    Mr. Kanjorski. That is right. Now if that is the case, 
there is nothing substantive in these tapes indicating any 
wrongdoing. We are spending an awful lot of time on process. 
And unless the majority of this committee can indicate there 
was an intentional act to subvert justice, or obstruct justice 
here--purposely cabal, if you will, a conspiracy at the White 
House to avoid answering a subpoena--then we are really wasting 
an awful lot of time about process. Process that didn't work 
for about 2 months or so until actually it did occur; is that 
correct?
    Mr. Ruff. That's correct, Congressman.
    Mr. Kanjorski. It seems to me a lot to do about nothing. 
Not to say that when a committee of Congress asks the White 
House to do something isn't something, but what they asked them 
to do, if it had been done on time wouldn't have been worthy of 
one word in the newspaper, because there was no substance in 
the tapes. On the other hand, it shows us that the White House 
isn't any more perfect than this committee. It makes mistakes 
and sometimes doesn't find things or sometimes acts less than 
up to the standard we would like to see it act. But that wasn't 
done by political operatives in the White House or people of 
the President, that was done by military officers that are 
professional that had no reason to do that other than they 
either didn't get the material, the communication correctly, or 
they just didn't think about.
    Now, I think there is probably one other criticism of the 
White House. And I found that criticism myself in dealing with 
not only this White House, with this President, but past 
Presidents since I have been in office. I find it to be an area 
that is a little too focused and compartmentalized that one 
group doesn't talk to the next group. And as a result we don't 
get a synthesis of brain power working there but get very 
focused brain power.
    And sometimes, well, I guess the famous holes in the floor 
of the network and people starting to slip through where things 
are slipping through, and that is what is happening more often, 
as exemplified by the tapes, that, in fact, those 16 lawyers 
down there probably didn't go to enough parties at the White 
House to understand that they are taped. And maybe if we gave 
them a little more time and a little less subpoenas and 
requests for documents, they would be a little more socially 
minded. Maybe we should do that.
    Mr. Ruff. It sounds like a good idea.
    Mr. Kanjorski. If I may, in closing, I appreciate it, Mr. 
Chairman. Mr. Ruff, I just wanted to point out that there is 
nothing sinister here. There is no conspiracy here. As a matter 
of fact, this is procedure over substance. And even when you 
get to the procedure it is a 2-month delay. But, clearly, when 
you get to the substance there was nothing in these tapes, 
never has been anything in these tapes, never will be, and 
therefore we are chasing fanciful goblins, if you will.
    Mr. Ruff. I agree, Congressman.
    Mr. Kanjorski. Thank you very much.
    Mr. Burton. Before I yield to Mr. Cox, I am going to take 
just a little bit of his time and I will then yield to him. I 
want to make three points. First of all we will be liberal with 
the clock, Mr. Waxman.
    Mr. Waxman. I hope it will be liberal on both sides. Let's 
keep track of the time on both sides.
    Mr. Burton. Mr. Waxman, we will do that. I can assure you. 
I just gave Mr. Kanjorski a little extra time. We will try to 
be fair.
    The subpoena was sent regarding the tapes and all other 
materials 7 months before we received them. That is No. 1. No. 
2, Ms. Mills knew about the White House data base memo 13 
months before we received it. She knew about it. She knew it 
was in a file. Three, Ms. Mills and the President and most 
people close to the President knew there were tapes being made 
of the Presidential meetings for a long, long time.
    Now, you can say anything you want, Mr. Kanjorski, but 
these are the facts. Now, you say that there is nothing----
    Mr. Kanjorski. Mr. Chairman.
    Mr. Burton. No.
    Mr. Kanjorski. If those are the facts--you mentioned my 
name in your remarks.
    Mr. Burton. Mr. Kanjorski, those are the facts. You had 
your time. We will get back to your side.
    Mr. Kanjorski. I would only call the Chair's attention----
    Mr. Burton. We will get back to your side in a moment.
    Now I want to point out that there are some very 
interesting things on some of these tapes. I want to show you 
now a tape of December 7, 1995, during which the President 
openly discusses how to go around Federal election laws. Run 
that tape back and show it all. Wait until we shut off the 
machines because Mr. Waxman is leaving his on. Just 1 second. 
Wait till Mr. Waxman shuts off his machine. OK. Now you can 
show it. I want everybody to see this.
    [Video presentation was shown.]
    Mr. Burton. I think that is one picture that is worth 1,000 
words. The committee will stand in recess until after this 
vote.
    Mr. Kanjorski. Mr. Chairman, if I can just say I'm shocked 
at that. Can you imagine funds down here in Washington being 
raised for campaigns? I am really shocked.
    [Brief Recess.]
    Mr. Ruff. Mr. Chairman, forgive me, I wonder if before we 
begin I might just take a moment to respond to your comments as 
you closed the meeting, if I might have that privilege?
    Mr. Burton. I am always anxious to hear your response, Mr. 
Ruff.
    Mr. Ruff. It will be brief, Mr. Chairman. I just want the 
record to be very clear, as I believe it has been on prior 
occasions when the segment of tape that you showed has been 
displayed elsewhere, that the President's comments about so-
called issue ads reflected an entirely legitimate program of 
advertising that was engaged in by both the Republican National 
Committee and the Democratic National Committee, fully analyzed 
and approved by counsel. And I didn't want the record to remain 
silent, at least at my end of the record, with respect to your 
suggestion that there was something inappropriate with respect 
to that tape.
    Mr. Burton. I think there is a divergence of opinion on 
that point. I think many people, some on both sides of the 
aisle, but certainly on the Republican side, believe that there 
was a definite, definite line that was crossed by the President 
when he was talking about using soft money for campaign ads 
that were going to benefit his re-election. And for that reason 
we think it was a very important piece to be shown to the 
audience.
    Ms. Mills. Mr. Chairman, I would also just like to address 
one of the statements that you made.
    Mr. Burton. Sure.
    Ms. Mills. In particular with regard to my knowledge of 
tapes, I just wanted to assure you that I was unaware that WHCA 
taped the coffees. That's something I had no knowledge of. I 
simply was not familiar with what WHCA's practices were, with 
respect to what they did and did not tape. And I think, as 
probably was evident from the Senate hearings, WHCA's own 
supervisors were unaware of what they taped and what they did 
not tape. So certainly someone such as myself who was not a 
part of their office would be less likely also to have 
knowledge of that. I think there are many events that they do 
tape, but I simply was unaware, one, that they taped the 
coffees and, two, as to what their practices were as to what 
they did and wasn't taped.
    Mr. Burton. Thank you, Ms. Mills. But the relevant point is 
you were in one tape and you knew tapes existed and you were 
Associate Counsel to the President of the United States and you 
didn't even tell Mr. Ruff about them and we think that is very 
curious.
    Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman.
    And I welcome the two witnesses that have joined us this 
morning that were not part of yesterday's proceedings so that 
we now have four members of the White House Counsel's Office 
before us. As you perhaps know, I served 10 years ago in the 
White House Counsel's Office in a position similar to yours. 
And I empathize with the demands that are placed upon you. I 
mentioned at the outset yesterday that in the Iran-Contra 
investigation, the White House produced some 250,000 pages of 
documents fully apart from and on top of all the documents 
produced by other parts of the executive branch of Government. 
And that is more than twice as many as have been produced in 
this manner. We did it in less than half the time. And I am 
well aware of the burden that it places on the office.
    In that investigation, and I read yesterday from the report 
of the Senate select committee, because the chairman and the 
vice chairman of that committee who were both, of course, 
Democrats and not of the same political party as the President 
of the United States, praise the White House and the White 
House Counsel's Office for its responsiveness in every respect 
to document requests.
    And I would hope that the integrity of the White House 
Counsel's Office, which has been high in administration after 
administration, would be something that you all would be 
interested in upholding. And I am concerned that mechanically, 
the procedures that are being followed are not designed to 
either evidence full cooperation or to result in it. Rather, we 
are here today because we have several examples such as the 
memorandum that says that the President of the United States 
wants us to integrate the White House data base with the DNC 
data base, a document that was uncovered by the White House 
Counsel's Office. That is what it says. It was not turned over 
in response to our request for information about the White 
House data base. Nothing could be more clearly a smoking memo 
than this. And to hang on to it for so long having looked at 
it, having intelligent lawyers involved in this evidences all 
the wrong things about the Counsel's Office.
    Mr. Ruff, I met with you earlier this year and explained 
how I thought it was beyond the pale that a subpoena could be 
issued in March of this year and that months after the return 
date on the subpoena, the subpoena being a lawful demand for 
the production of documents and a valid one, that we had not 
gotten the documents that we should have gotten in response to 
that subpoena. The subpoena was issued on March 4th. The return 
date was March 24th on the subpoena. Your office did not issue 
a directive to other parts of the White House, such as WHCA, 
the Military Office, and so on, until April 28th, long after 
the return date on the subpoena. So you didn't even start to 
look for the documents until after legally they were due.
    Now, we are here after you have provided the committee with 
a letter in June saying the White House has produced all 
documents responsive to the committee subpoenas with the 
exception of those documents that appear on the privilege logs 
that we have provided the committee, except of course for the 
videotapes.
    And the videotapes were asked for by the U.S. Senate in a 
letter in plain English that says, does WHCA have any 
videotapes? And yet, it wasn't until a long time afterward that 
these videotapes were produced.
    Now yesterday I asked you whether this New York Times 
headline, which is three columns across and three lines deep, 
that says ``Reno in Letter to Congress Rejects Most Allegations 
That Clinton Violated Law.'' This was on October 4th. You said 
that you were aware of that headline. And of course it ran in 
every newspaper in America. Because the day before, October 
3rd, was a very important day, the date on which everybody 
expected the Attorney General was going to decide whether to go 
forward with an Independent Counsel. And you met with the 
Attorney General of the United States the day before. You met 
with her at 3 p.m. And I asked you whether or not you had done 
anything unusual that morning. And you said no. But I asked 
further, then, whether or not you had watched videotapes of 
White House coffees that morning. And you said yes. And you 
acknowledge that actually was an unusual thing because you had 
just learned about those White House coffee tapes that morning. 
And I asked you whether or not you were aware at the time that 
you met with the Attorney General later that day, that the 
Justice Department had outstanding, a document request that 
covered those videotapes and you said yes.
    Now, you have already told us in your deposition that you 
didn't tell the Attorney General about the existence of those 
videotapes. And I asked you yesterday whether you told anyone 
else. I asked you whether you told the President. I asked you 
whether you told the Chief of Staff, whether you told Mike 
McCurry, or whether you called anybody outside the White House. 
And you said in response to all of those things, no, you did 
not.
    I would like to ask you now whether or not you told anyone 
else besides your own staff about the existence of these 
videotapes prior to your meeting at 3 p.m., on October 3rd with 
the--excuse me, on October 2nd with the Attorney General. That 
was a Thursday, the day before she made her decision on October 
3rd. Prior to your--pardon me, I want to make sure I have this 
chronology straight. You discovered the existence of the tapes 
on the very day you met with the Attorney General; is that 
right?
    Mr. Ruff. I was told about the tapes; that's correct.
    Mr. Cox. And watched them.
    Mr. Ruff. Watched three of them, I believe.
    Mr. Cox. And later that day you met with the Attorney 
General?
    Mr. Ruff. That's correct.
    Mr. Cox. And did not tell her about the existence of those 
tapes that day?
    Mr. Ruff. That's correct.
    Mr. Cox. And did you tell anybody else outside the White 
House Counsel's Office before your meeting with her at 3 
o'clock?
    Mr. Ruff. No, I did not.
    Mr. Cox. The next day when the Attorney General, one of 
those headlines for absolving the President in saying we didn't 
need an Independent Counsel, did you tell anybody outside the 
White House Counsel's Office that day?
    Mr. Ruff. Let me, if I may, describe the sequence of events 
so that you have a full understanding of the persons outside 
the Counsel's Office who were aware of this and the time in 
which they became aware of it.
    Mr. Cox. If I may, I just want to know who you told.
    Mr. Ruff. That's what I'm about to explain to you. On 
Thursday afternoon, as has already been testified by Mr. 
Imbroscio, he informed counsel for the Senate about the 
existence of the tapes. I believe on Friday morning, I 
advised----
    Mr. Cox. I'm sorry, you told the Senate about this when?
    Mr. Ruff. One of my staff members told the Senate about 
this on Thursday afternoon.
    Mr. Cox. Before you told the Justice Department?
    Mr. Ruff. I don't know what the timing was.
    Mr. Cox. But the Justice Department knew before----
    Mr. Ruff. Yes. Before the Justice Department was aware of 
that.
    Mr. Cox. The Attorney General didn't find out until after 
the----
    Mr. Ruff. You're absolutely correct. You're absolutely 
correct. I'm walking through the sequence with you.
    So that the Senate counsel was aware of this on Thursday 
afternoon. On Friday morning, I advised Ms. Mills, as she's 
previously testified. I've also spoken with Deputy Chief of 
Staff Podesta and advised him of the existence of the tapes, 
the fact that we were searching for them. I don't think there 
was anybody else outside the Counsel's Office who I informed on 
that day.
    Mr. Cox. And at what point did you discuss this with the 
President for the first time?
    Mr. Ruff. I did not--I was not the first person who 
discussed this matter with the President as I think has also 
been a matter of public record. My only conversation with the 
President on this subject occurred after the press leakage over 
the weekend to advise him that the tapes would be released both 
to the Congress and to the press.
    Mr. Cox. I asked these questions about your involvement 
because I want to know who is in charge of this investigation. 
You represented to us that the White House has produced all 
documents responsive to the committee subpoenas, even though it 
was months after they were due, in June 1997. And even though 
it turned out that you had not produced all documents in 
response to these subpoenas, because they were discovered 
later. I want to know who is in charge. You qualified your 
representation to the committee by saying to the best of your 
knowledge. So it matters a great deal to us in understanding 
the value of your representation to us how much you know and 
how actively you are involved.
    As you know, a major part of the investigation is into 
illegal payments, both by Congress and by the Justice 
Department. Those investigations concerns alleged money 
laundering between the Teamsters and the DNC and the Teamsters 
and the Clinton/Gore campaign. Because you represented the 
Teamsters in 1994, I take it you have recused yourself of all 
matters having to do with this?
    Mr. Ruff. That's correct.
    Mr. Cox. Has your recusal been in writing?
    Mr. Ruff. I don't believe it's been in writing. I advised 
my staff and I had nothing to do with that aspect of the 
investigation.
    Mr. Cox. And who in the White House is in charge of that 
part of the investigation?
    Mr. Ruff. Mr. Breuer, as part of his supervision of the 
investigative side of the office, is responsible for producing 
all documents and responding to questions with respect to any 
aspect of campaign finance, including any inquiries that may 
come in about the Teamsters.
    Mr. Cox. Now, in your representations to the Congress about 
responses to subpoenas, do you have procedures that you follow 
to make sure that somebody else is making representations 
concerning the Teamsters?
    Mr. Ruff. The basis of any representation I make to the 
Congress is intended to reflect the collective wisdom and 
understanding and activity of my office. Obviously, I write on 
behalf of the office as well as signing the letter personally. 
And I rely, and I think rely well, on my staff to be sure that 
what representations I make on the office's behalf are accurate 
ones.
    Mr. Cox. Mr. Chairman, and the members on the minority 
side, if I might, yesterday I asked a question to Mr. Ruff, 
which he answered under oath. He has told me in a sidebar he 
would like to change his answer to that question. I would like 
to give him an opportunity to do that. May I have additional 
time for that purpose?
    Mr. Burton. Yes. We will give the Democrat side additional 
time as well. Go ahead.
    Mr. Cox. One of the matters that we discussed yesterday was 
your response to the Senate's letter asking whether there were 
videotapes by WHCA of these events, such as we have seen here, 
that would be responsive to their subpoena and indicating that 
they thought there were such documents and asking for a 
definitive reply. I asked whether or not you had written a memo 
in response to that inquiry from the Senate, which was made in 
August of this year. You replied that you had not sent your own 
memo asking for those documents. And I take it that is still 
your testimony today. But I also asked you whether a copy of 
that letter was provided to the Military Office. And you 
testified yesterday that the Counsel's Office did not provide a 
copy of it. And my understanding is that, in fact, another 
member of the Counsel's Office, not you, but another member did 
provide that letter; is that correct?
    Mr. Ruff. That's correct, Congressman. When I responded to 
your questions yesterday, I was unaware of the fact that Mr. 
Imbroscio of my staff had, in fact, when he met with Mr. Smith 
of WHCA, I believe on August 29th, turned over a copy to Mr. 
Smith of the August 19th letter. I advised you this morning 
before the session began of that fact and that I wanted to 
clarify the record. I appreciate your giving me the opportunity 
to do that.
    Mr. Cox. Mr. Ruff, the reason I remain concerned is that 
when we call you up here to testify under oath about an 
investigation over which you have control about a matter that 
we have discussed at some great length that has been the 
subject of national headlines, and when I ask you whether the 
letter asking for the tapes had gone from the White House 
Counsel's Office to WHCA, you didn't know the answer to that 
question yesterday. You only have discovered the answer between 
yesterday and today. That means that some underling was 
handling this and you were not handling it. And it again raises 
a question of whether somebody is really in charge of this 
investigation and whether it is being taken seriously inside 
the White House. Every indication that I have is that it is 
not.
    I thank you for the clarification.
    Mr. Ruff. Just a moment, Congressman, Mr. Chairman, my 
apologies. That simply cannot go unresponded to, Congressman 
Cox. I do my best when I appear before this committee or any 
committee or any other public forum to be aware of the relevant 
facts and to be prepared to respond. You are quite correct that 
I did not know yesterday that one of my staff members had given 
this letter. And I thought it would be helpful to this 
committee to understand what the true facts were, indeed, I 
would commend to the committee a full review of the relevant 
depositions so that those facts are fully set out on both the 
private and the public record. Beyond that, though, I think, 
Congressman Cox, you have to go back to my answer yesterday to 
your basic question suggesting that there was somehow a failing 
in the process once the August 19th letter had been received. 
And what I told you in response to that, and which I think is 
directly responsive to the underlying concern you have, is that 
at the moment that that letter was received and in the ensuing 
days and weeks, one of my staff members was directly involved 
in seeking to respond to the Senate's inquiry. And thus that, 
the issue of whether a new directive went out was, in my view, 
not an issue of note during that period.
    Mr. Cox. Mr. Ruff.
    Mr. Ruff. Just a moment, Congressman. I'm entitled, I 
believe, Mr. Chairman.
    Mr. Cox. You have had more time than I have.
    Mr. Ruff. I don't think so, Mr. Congressman. I want to be, 
with all due respect, sure that the record is absolutely clear. 
If you have concerns about the extent to which I am responsible 
for or taking responsibility for the operations of this 
investigation, I'll be happy to address them. But I think when 
I come to you in a good faith effort to clarify the record, 
that does not justify a suggestion that somehow my failure to 
know that fact yesterday afternoon suggests anything other than 
full responsibility in every respect for the ongoing nature of 
the investigation.
    Mr. Cox. Counsel.
    Mr. Burton. The gentleman's time has expired. I would like 
to say to Mr. Cox that we will have another round. And I hope 
you will come back and address this.
    Mr. Cox. I shall, indeed.
    Mr. Burton. OK. Thank you. How much time, additional time 
was there on Mr. Cox's time? Four minutes. The minority will be 
given 14 minutes. Mr. Waxman.
    Mr. Waxman. Mr. Chairman, just to put this matter into 
context, I take this investigation very seriously. And I know 
Mr. Burton does as well. But there are things that go on that 
he and I both aren't fully apprised of. And I see this often, 
because in exchange of letters after I have talked to Mr. 
Burton, he hasn't been aware of all the things in these 
letters. I think the fact that you weren't aware of one issue 
should not lead people to the conclusion that Mr. Cox is 
reaching, because that is preposterous. You are saying that you 
weren't aware of one transmittal of a letter to another 
department; is that the issue, Mr. Ruff?
    Mr. Ruff. That's correct.
    Mr. Waxman. And therefore, from that fact, which you 
voluntarily brought to our attention to make sure that the 
record was straight, he is trying to reach the conclusion that 
you are not serious about the investigation, you are not 
serious about your job, you are not following the ethical 
standards that would be required of you?
    Mr. Ruff. I, as my comments to Congressman Cox reflect, and 
I trust not in disrespectful tone, reject any such suggestion.
    Mr. Waxman. OK. Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman.
    I want to associate myself with the ranking member's 
observations. I think it is outrageous, it is outrageous to 
imply that since Mr. Ruff does not know of every single 
communication of any--of all of the members of his staff, to 
all of the entities involved here, there is something 
inappropriate here. And I want to state for the record I have 
total confidence in your integrity and professionalism, Mr. 
Ruff.
    Mr. Ruff. Thank you, Congressman.
    Mr. Lantos. I did not expect to be treated to XXX-Rated 
movies earlier today. But since the chairman chose to show the 
Clinton movie, which I thought I was too young really to see 
because it relates to his comment about how the funds raised by 
Democrats will be used for democratic campaign purposes, I 
would like to show and read several similar XXX-Rated 
observations of Presidential candidate Bob Dole and President 
Ronald Reagan. So if we can have the tape, if it is ready. If 
not, I will be happy to read it.
    [Video tape presentation shown.]
    Mr. Lantos. Well, this little XXX-Rated piece sort of 
equalizes the field, Mr. Chairman. Presidential candidate 
Clinton and Presidential candidate Dole tell their, I have 
people and the media that, through the use of soft money, they 
hope to advance their respective candidacies. I was shocked 
when I saw the Clinton tape, but now my mind is at peace again, 
because I see that the playing field is level and equalized.
    But I also would like to offer some historic views on this. 
And without any hint of criticism of President Reagan, I would 
like to read to you statements of former President Ronald 
Reagan concerning identical events.
    The Republican Eagles event held in the East Room on 9/30/
87, President Reagan: ``You started as just 85 contributors, 
but your support helped our party. . . . You played a vital 
role in our victory in 1980. Thanks to the Eagles, the 
Republican Party had the financial strength, not only to 
recapture the White House, but to recapture the Senate as well. 
. . . I know this is silly, but can I count on you to help out 
in 1988? . . . Besides keeping the White House the top of our 
list is getting back the Senate, and I know we have got a lot 
of people here today to help lead that charge.'' End President 
Reagan.
    Republican Eagles event, 9/12/85, East Room: ``You have 
made all the difference. The hard work and generosity of the 
Eagles has provided us with the means to send out those 
messages. . . . Please don't just keep up your tremendous work, 
redouble your efforts.'' End Senator--President Reagan.
    Dinner reception in the East Room, April 29, 1987: ``I want 
each of you to know how grateful we are for your generous 
support for our cause. . . . Your efforts have made the dinner 
tonight an unparalleled success. . . . I am expecting tonight 
that they will tell us that last year we set the record for a 
political fund-raising event. And tonight, we are going to 
break that all-time record. . . . I am told that this function 
has raised an enormous sum. It is tough enough raising 
political funds in an election year, but to do it in an off 
year, . . . thank you.''
    President's dinner reception, 5/11/88, the East Room: 
President Reagan: ``Nancy and I want to say a special word of 
thanks to those of you that made a special contribution toward 
this evening. . . . The proceeds from the splendid evening will 
go to a cause that can hardly be more important to the future 
of our Nation, giving George Bush a Congress he can work 
with.''
    Republican re-election committee, East Room, 8/29/84, 
President Reagan: ``You raised funds that we spent down at the 
grass-roots in all 50 States, and these funds went to aspects 
of the campaign that were important. The results speak for 
themselves.''
    President's dinner reception, East Room, May 10, 1984: ``I 
want to give my heartfelt thanks to all of you in this room. . 
. . We still have a lot to do and that is why your support 
during this campaign is vital.''
    President's trust donors meeting, East Room, April 2, 1985: 
``You raised almost $7 million to support the re-election 
effort.''
    Republican congressional leadership counsel reception, 
April 22, 1985, East Room, President Reagan: ``I appreciate all 
you have done for the Republican Party. . . . The Republican 
Congressional Leadership Council was able to funnel,'' and 
funnel is a very tricky word here, ``funnel $4 million into 
Republican congressional campaigns. . . . I know that many of 
you were instrumental in giving us the means to keep control of 
the Senate. I hope I can count on all of you next time 
around.''
    Now these quotes go on ad nauseam and ad infinitum.
    The point I want to make, Mr. Chairman, is that when you 
showed a tiny clip of President Clinton making a statement, 
which is indistinguishable from the statements of former 
Senator Dole and President Reagan, you said a picture is worth 
1,000 words. Well, pictures occasionally are, but not these 
pictures.
    These pictures show fund-raising events. Some of us feel 
that fund-raising needs to be reformed. Some of you on the 
Republican side don't. But to make this a partisan issue reeks 
of hypocrisy. I want you to reread every one of President 
Reagan's statements. I want you to look at the Dole clip again, 
and then say, mia culpa, mia maxima culpa, I was guilty of one-
sided, blatant partisanship, and I will not engage in this any 
further.
    There is one more point I would like to make. Yesterday I 
suggested that we are engaged in a trivial pursuit and I 
apologize to the concept of trivial pursuit because what we are 
engaged in is much less than a trivial pursuit. It is a 
diversion. It is a diversion at a time the country has serious 
problems. But it is not just a diversion. This issue is not 
only a pointless exercise, but it is a harmful exercise.
    It is a harmful exercise, Mr. Chairman, in two ways. It is 
a harmful exercise internationally because the work of this 
committee is making a laughing stock of the Congress of the 
United States, across the globe, as Saddam Hussein is getting 
ready to build weapons of mass destruction; as global issues 
crowd in on us on all continents; and we are trying to find out 
whether it was Thursday or Friday that Mr. Ruff or somebody in 
his staff notified someone on the Senate committee or in the 
Attorney General's office as to the availability of these 
breathtaking tapes, these tapes which have shaped American 
history, which showed Clinton was raising money in the White 
House, as was Bush, as was Reagan, as were other Presidents. So 
it is harmful to us abroad, because instead of this legislative 
body being seen to be engaged in the serious work dealing with 
the problems of the United States of America, we are engaged in 
what I can most generously label only as a trivial pursuit.
    It is harmful to us domestically. There is already a great 
deal of lack of trust between the American people and their 
Government. And by attempting to undermine faith and trust in 
our governmental institutions, these hearings undermine 
confidence in our democratic system of government.
    So it is not only pointless, it is not only trivial, it is 
harmful, and I hope, Mr. Chairman, as I asked you yesterday, 
that you will follow the example of your distinguished fellow 
Republican, Senator Thompson, and recognize that this circus 
must come to an end. We have played it long enough, we have 
played it hard enough, we have come up with nothing, and the 
time has come to admit it and to say so. Thank you.
    Mr. Waxman. Thank you, Mr. Lantos. We have a couple minutes 
left on this round. Mr. Cummings is the next Member in order of 
seniority who has not asked questions yet. I want to ask if he 
wants to ask questions at this time or reserve his time for the 
next round.
    Mr. Cummings. I would prefer to reserve my time, Mr. 
Chairman.
    Mr. Waxman. Mr. Kucinich, I will recognize you. You will 
have the balance of the time.
    Mr. Kucinich. Thank you very much, Mr. Chairman, and 
members of the committee.
    One of the things which has concerned me as a member of 
this committee, from the comments that I heard yesterday 
relative to news shows where certain suspicions were broadcast 
publicly, is that some Members are proceeding with offering 
what is an implied verdict, that wrongdoing was committed, that 
crimes were committed, and I would just like to say publicly 
that I think we do the House better credit if we proceed from 
first the facts, and then the verdicts, instead of an Alice in 
Wonderland scenario of first the verdict and then the facts.
    The Senate just spent $2.2 million to hold 32 hearings 
featuring 81 witnesses and allegations of campaign finance 
abuses, including 3 days of hearings on videotapes in the White 
House. These issues are also being investigated by the 
Department of Justice task force, Independent Counsel Kenneth 
Starr, and a number of other congressional committees. This 
committee has already spent at least $3 million on this 
investigation.
    I would like to ask, Mr. Ruff, is there anything you can 
tell us today or have told us today, other than the incident 
involving a lack of communication with one piece of paper, that 
you haven't already told the U.S. Senate?
    Mr. Ruff. I would like to think that the record is fairly 
clear on many fronts, both at the Senate and in the media on 
this subject, Congressman, and it may be that there is 
somewhere in the recesses of my brain a piece of information 
which is not on the record, but I can't think of what it is.
    Mr. Kucinich. Is it true that every person, relevant to 
this issue, from the White House counsel to the chief petty 
officer in charge of the audio visual unit, gave extensive 
testimony to the U.S. Senate?
    Mr. Ruff. I believe that is the case.
    Mr. Kucinich. Isn't it also true that most, if not all, of 
the major areas of questions which have been put to you in 
these hearings, were put to the White House personnel who 
testified before the Senate?
    Mr. Ruff. That is correct.
    Mr. Kucinich. Now there have been accusations of altering 
the videotapes. Isn't it true that in the Senate hearings, 
Chief Petty Officer McGrath, Mr. Imbroscio, Colonel Campbell, 
and Mr. Smith all categorically rejected Chairman Burton's 
allegation of tape alterations?
    Mr. Ruff. Very clearly.
    Mr. Kucinich. Some members of this committee have suggested 
that the Counsel's Office omitted videotapes from the 
definition of responsive documents in its directive to all 
White House personnel. Isn't it a fact that the Counsel's 
Office directive instructed White House officers to provide all 
records, that is whether in hard copy, computer or other form?
    Mr. Ruff. That is correct, Congressman.
    Mr. Kucinich. And isn't it also a fact that this issue was 
discussed at length in the Senate hearings, and in those 
hearings laid to rest?
    Mr. Ruff. That is correct.
    Mr. Kucinich. And you gave extensive testimony in the 
Senate that there was no effort whatsoever to exclude videos of 
political coffees from the White House document search?
    Mr. Ruff. I did.
    Mr. Kucinich. And the lawyers and career military people 
who testified in the Senate said that every effort was made to 
comply with the demands of this committee, the Senate 
committee, and the Department of Justice?
    Mr. Ruff. And we believe we have always engaged in a good 
faith effort to be responsive.
    Mr. Kucinich. Now, how much of the materials produced by 
the White House in response to the committee subpoenas 
duplicated what was provided to the Senate?
    Mr. Ruff. I think the vast bulk.
    Mr. Kucinich. OK.
    Mr. Burton. Mr. Kucinich, one thing I would like to say, 
Mr. Kucinich, is you were gone some of yesterday and there are 
some other relevant documents we did not receive in a timely 
fashion which we would be happy to provide for you.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Barr, you are recognized for 10 minutes.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Ruff, if we could turn our attention back, please, to 
your discussion yesterday with Mr. McIntosh, and if we could 
have the document 147 up on the screen, please. Document 147, 
as I am sure you will recall, Mr. Ruff, is the one that says at 
the top of that page, Harold and Deborah DeLee want to make 
sure WHoDB is integrated with DNC data base so we can share, 
evidently POTUS wants this too, make sense, then it goes on 
from there.
    If I am not mistaken, in response to some questions from 
Mr. McIntosh, you used a word to describe the essence of this 
document that doesn't appear in it. I know you are a very 
learned man, and I know also you are a very, very careful 
attorney and you choose your words very, very carefully, as you 
should. And, therefore, when you used this certain word 
yesterday, I wondered why you were using it because it doesn't 
appear in the document and it has a meaning quite different 
from the plain meaning of the words in the documents. The word 
in the document that I believe Mr. McIntosh was talking about 
was the word ``integrated,'' and he was talking about that in 
the context of having two data bases, the White House data base 
and DNC, and integrating them together. And in response to his 
question, I think you very deliberately used a word, not 
``integrate'' but ``compatible,'' to make them compatible, and 
making two data bases compatible is something very, very 
different from integrating them, as I am sure you know.
    Compatible means, and I quote from the dictionary here, 
``capable of existing or operating together in harmony,'' the 
implication being you have two entities that are different and 
very distinct, but they work together, and I certainly agree 
with you, that it is not against the law to make two data bases 
compatible. That is very different from making those two data 
bases--to integrate those two data bases. To integrate means to 
form, to coordinate or blend into a functioning or unified 
whole.
    I was just wondering why you chose to use the term 
``compatible,'' which is not used in this document, as I 
suspect--and maybe this is your job as a lawyer, to, you know, 
shift the focus, change the meaning of something.
    Do you not see that this document is talking about 
integrating two data bases and would you not agree that that is 
different, substantially different, from simply taking steps to 
make two data bases compatible with each other?
    [Exhibit 147 follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.084
    
    Mr. Ruff. First, I appreciate your suggestion that I am 
either learned or careful. I do try to be careful. I reject the 
notion, however, of being learned certainly when it comes to 
the White House data base. As I think I indicated in my 
response to Congressman McIntosh, I neither have nor aspire to 
a level of understanding of the intricacies of the White House 
data base. But that said, my effort to try to be responsive 
yesterday to his questions was to suggest that--and I have no 
idea, obviously, what the author of this memo may or may not 
have meant.
    Mr. Barr. Have you checked into it?
    Mr. Ruff. No, I certainly have not.
    Mr. Barr. Do you intend to?
    Mr. Ruff. Congressman Barr, I know you will appreciate 
fully the constraints that the White House Counsel's Office 
operates under. We tend not to conduct independent inquiries 
because those inquiries, in turn, tend to become the subject of 
further inquiries.
    Mr. Barr. Do you intend to forward this to the Attorney 
General, since on its face this would seem to indicate, very 
clearly, that two data bases, which by law cannot be merged or 
integrated, unified, that it is the intent of at least some 
people to do just that? Does that not concern you as an 
attorney?
    Mr. Ruff. These documents are, in fact, in the possession 
of the Justice Department for whatever action they deem 
appropriate. What I was trying to suggest in my response to 
Congressman McIntosh yesterday, albeit from less than a learned 
posture, was that it is fully appropriate to make incoming 
information available, that is, that two data bases could be 
compatible for purposes of sharing information from the DNC 
into the White House. If I did not make myself clear on that, I 
should have done a better job. But I do not purport either to 
understand exactly what Mr. Bailey meant when he took these 
notes, nor did I intend, certainly, to suggest that I was 
reaching any conclusion, either as to the meaning of 
``integration'' or to use ``compatible,'' other than in my 
understanding of the capacity to absorb information from the 
DNC. There is no suggestion on my part, and I believe there is 
none in this memorandum, of any impropriety or illegality.
    Mr. Barr. Well, OK, that really gets us back to some of the 
fundamental concerns here, and maybe our focus ought to be on 
the process. I know we heard from folks on the other side 
earlier, they don't think that the process is important, they 
make light of it. I would hope that you won't, and don't.
    Process goes to the heart of whether or not our system of 
laws in this country and our system of government operates 
properly. Process is at the heart of our Federal statutes on 
obstruction. Folks on the other side, you were very ready to 
agree with them that this is all about process in response to 
their questions that that is not important. I beg to differ. I 
think process is very important, and time and time again, we 
see people look at documents, look at tapes, even when they are 
in them and say, oh, that is not important, we don't know what 
that means, that, no, that raises no questions.
    One can look at the tapes that have just been played and 
reach a certain conclusion about those tapes, whether they are 
tapes from 10 years ago or from a year ago, but to simply and 
constantly turn a blind eye to say, oh, a document that talks 
about integrating two data bases that by law cannot and should 
not be integrated, and saying, oh, we are too busy to do 
anything about that, and I don't see anything wrong with that 
anyway, yet it is very easy for you to say, oh, it looks as if 
they are just talking about something being compatible, raises 
very serious questions in our mind.
    Another thing that raises very serious questions in our 
mind is you all's use of executive privilege, and I would like 
now to turn to that, although perhaps it might be better, Mr. 
Chairman, after the next vote, in the context of another very 
disturbing incident.
    Mr. Burton. Does the gentleman wish to suspend at this 
point and come back?
    Mr. Barr. The gentleman does.
    Mr. Burton. The Chair will stand in recess. He will 
conclude his interrogation when we come back.
    [Brief Recess.]
    Mr. Burton. The committee will reconvene.
    When we recessed, Mr. Barr of Georgia was in the middle of 
his questioning. I think he has some time remaining, so don't 
start the clock just yet; wait until Mr. Barr is ready.
    I might inform anybody who is interested, the next time we 
have a series of votes, because it is lunch time, or past lunch 
time, and Mr. Ruff said he cannot stand not having a sandwich, 
especially if it is egg salad--that is a personal joke. What we 
will do is, we will break for at least 30 minutes so everybody 
can get a sandwich or something to eat. Are you ready, Mr. 
Barr?
    Mr. Barr. Yes, Mr. Chairman. Before going into one other 
area, I would like to have document 162 put up. Mr. Ruff, this 
document also concerns the White House data base, and----
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.085
    
    [GRAPHIC] [TIFF OMITTED] T5405.086
    
    Mr. Ruff. Excuse me, Mr. Barr, can I try to find it in my 
book here. I see it. Thank you very much.
    Mr. Barr. This document, similar to the one we were 
discussing earlier, although typed instead of handwritten, also 
relates to the White House data base. This document was 
provided to the committee or subcommittee, I believe in 
February 1997.
    For those of us, I guess you and I both fall into this 
category, that we don't know an awful lot about data bases, but 
at least I understand the difference between integrating and 
making data bases compatible, and I thought we both agreed that 
it would be illegal for campaign data bases to be integrated 
with the official data base of the White House. I am not sure 
we even agree on that. But if you look, Mr. Ruff, at this 
document, particularly the last paragraph on the first page, 
which goes into, in some length, about proposing a new system, 
and, well, I see they use your word ``compatible'' there. In 
the second paragraph, however, on the first paragraph on the 
second page, they go into great length about a system, they 
talk about PeopleBase, which is a campaign data base, a 
political data base, and then go on to talk about the DNC 
designing a system that will meet needs and specifications to 
clone another system for specific uses later on, that the 
information stored with PeopleBase could then be dumped into 
the new system, presumably the White House data base, and made 
available when deemed necessary to the DNC.
    I don't know a lot about computers either, Mr. Ruff, but I 
do note, when I see somebody discussing taking information from 
one data base into another, making these two data bases work 
together, and explicitly talking about taking information, 
store it in a political campaign data base, putting it into the 
new White House system, making it available to the DNC, is 
against the law. And we have the First Lady saying, this sounds 
promising, please advise.
    Now I am not sure we know what the advice to her was, but 
as with the first document that we looked at earlier, on its 
face, there seems to be at least a colorable issue raised of 
illegality. I happen to think it is more than a colorable 
inference of illegality, but I think at a minimum is that.
    This document was provided to us earlier this year. The one 
we talked about previously was not. We did not get this one 
until last week, even though, as with this document, they both 
talk very clearly about the data bases. I think it is 
obstruction not to have provided this. I think there is no 
reasonable explanation that has been put forward, and I guess, 
again, I would like to ask you why is it that when you looked 
at these documents, and I understand that you all have a lot to 
do, but when you look at these documents on their face, they 
don't raise in your mind any inference whatsoever, possibility 
that there was illegal action occurring here, merging these two 
data bases in some way?
    Mr. Ruff. Congressman Barr, I will give you the one-line 
answer and then if I can impose on the committee, I will ask my 
colleague, Ms. Mills, who knows a lot more about the issue of 
the data bases than I do, to respond to the specific questions 
you have.
    The basic answer is no, we do not believe that anything 
that either was contemplated or that happened with respect to 
WhoDB involved any impropriety, much less any violation of law, 
and if I can, I will let Ms. Mills try to address the 
particular language of this memorandum as it bears on the 
relationship between the data bases.
    Ms. Mills. Mr. Barr, I think the paragraphs you are 
referencing are all referencing outside data bases and the 
sharing of information with respect to those outside data 
bases.
    The last paragraph which you reference indicates my 
conversations with the DNC about the new system they are 
proposing. ``We have asked that their system be modeled after 
whatever system we decide to use outside the White House.'' 
That is with respect to whatever other data bases are going to 
be used to deal with the campaign or the DNC's data base, 
outside the White House. PeopleBase, which you referred to as a 
political data base is not; it is actually the Legacy data base 
of President Clinton from his time as Governor in Arkansas.
    Mr. Barr. That wasn't the Clinton/Gore data base?
    Ms. Mills. No, it was not. PeopleBase is the Governor's 
data base of contacts with people and correspondence that he 
had as Governor.
    Mr. Barr. It was used for political purposes?
    Ms. Mills. Actually, the PeopleBase was used as a means of 
maintaining his contacts with individuals that he met and dealt 
with as Governor of Arkansas.
    Mr. Barr. But it was used for political purposes.
    Ms. Mills. I am not aware it was used for political 
purposes.
    Mr. Barr. I am not asking if you were--I mean, what you 
have just described is----
    Ms. Mills. Well, you are asserting that it is.
    Mr. Barr [continuing]. A political process.
    Ms. Mills. I guess if you can believe serving as Governor 
of Arkansas, that is a political process, then, yes, I agree 
with you.
    Mr. Barr. We are making progress.
    Ms. Mills. OK. I am happy to say that all politicians are 
obviously involved in politics, and to the extent they have 
data bases that are associated with the work that they perform 
in their duties, then to the extent that that is perceived as 
political, they are obviously politicians, that is political, 
but it relates to what they do when they are elected to do 
those jobs.
    Mr. Barr. And how do you, then, explain away the top 
paragraph on page 2?
    Ms. Mills. Well, I won't attempt to explain it away, but I 
will attempt to tell you what my understanding of the truth is 
with respect to this document as I understand it.
    With respect to the second part, it is talking about 
cloning or duplicating different data bases can be done 
relatively easy, they have been able to establish it can be 
done on the outside, therefore, their suggestion they take the 
old outdated PeopleBase that doesn't meet their needs and let 
their team work with the DNC to design a system that meets 
their needs, that is with respect to the DNC's data base, an 
outside data base. In other words, we are not going to use the 
format that was used in PeopleBase for the DNC's data base; we 
are going to use a new format that is more user friendly, also 
outside of the White House.
    Mr. Barr. Does it disturb you, or perhaps Mr. Ruff, that 
White House people are doing this? I mean, clearly, there are 
at least two, maybe there are three, but at least two different 
data bases here, a political data base and the development of a 
White House data base. And then you also have the DNC ones.
    You are talking about people at the White House, paid by 
the taxpayers of this country, to perform official duties, 
engaging in setting up data base or data bases, and then 
working with the DNC dumping information back and forth, again, 
that doesn't raise any red lights or you think this is 
perfectly hunky-dory and ethical and legal, obviously.
    Ms. Mills. I think I am on the record as to what is ethical 
and appropriate with respect to the data base. We are allowed 
to take information in with respect to the data base. I think 
the other thing that is important to remember is that the Hatch 
Act clearly intends and expects that there will be people who 
engage in political activity and they draw careful lines----
    Mr. Barr. The Hatch Act is not a defense to what we are 
talking about.
    Ms. Mills. The Hatch Act clearly anticipates and has for 
many years understood that people will engage in political 
activity----
    Mr. Barr. The Hatch Act----
    Ms. Mills. What it does do is try and draw----
    Mr. Barr. If you don't see that, you don't see anything.
    Ms. Mills. Well, I would like to respond. I don't know how 
you can know what I see if I haven't at least tried to give you 
an opportunity to understand.
    Mr. Burton. Ms. Mills, I think the point has been made. The 
gentleman's time has expired. We will have another round, Mr. 
Barr, and we will give you an opportunity to revisit this 
issue.
    Mr. Waxman is not back but we will yield 10 or 12 minutes 
to Mr. Fattah and whomever else he designates, as the senior 
member here on the Democrat side.
    Mr. Fattah. Thank you, Mr. Chairman, and let me try to 
cover a few important points here. One is that I have had the 
responsibility to serve on this committee in two successive 
Congresses, so I am somewhat aware of this data base issue 
because it was one of the various investigations we as a 
committee conducted in regard to the White House in the last 
session. It is not, however, part of the investigation of 
foreign influences and illegalities connected to the 1996 
election, so some people who may be spectators here might be 
somewhat confused because the committee has spent at least half 
of its time focusing in on a subject unrelated to the subject 
matter of the committee's new charge, but the data base may be 
a priority of the committee. But I want to put on the record 
that if it is, the committee has held not one--the subcommittee 
has held not one hearing this year and only held one hearing in 
all of last year, so this interesting focus on the data base 
itself is a new found interest at best. It is intruding upon 
what was at least allegedly going to be this massive 
investigation of foreign influences and illegal contributions 
in the 1996 campaign, but I want to try to clear a few things 
up.
    Let me ask Mr. Ruff, a data base, just so that those of us 
who are following this can understand it, is a list of names 
and addresses and contacts, information?
    Mr. Ruff. That is correct.
    Mr. Fattah. Phone numbers.
    Mr. Ruff. Stored in a computer, as I understand it.
    Mr. Fattah. Would there be a legal distinction between 
whether or not you kept those on a three by five card or 
whether you kept them in a computer?
    Mr. Ruff. Not that I can think of.
    Mr. Fattah. A data base is a Rolodex; it is an address 
book?
    Mr. Ruff. That is in essence correct.
    Mr. Fattah. So if a Member of Congress or the Vice 
President or the President of the United States or anyone in 
conduct with their professional duties might have a phone log 
or a Rolodex these are the essential ingredients; the only 
difference here is that they were put into a computer?
    Mr. Ruff. That is correct.
    Mr. Fattah. Now the committee's interest in this data base 
precedes you becoming White House Counsel?
    Mr. Ruff. It does, yes.
    Mr. Fattah. So the memos you were being questioned about, 
you were not around in 1994 when this was written, right?
    Mr. Ruff. That is true.
    Mr. Fattah. But there wouldn't be--I mean, if by chance any 
of us had on our Rolodexes back in our office a list of 
politically important people in our districts, or people who 
supported us, there wouldn't be any difference between that 
Rolodex, from a legal distinction, and a computer data base, 
right?
    Mr. Ruff. That is true.
    Mr. Fattah. Even some of the Members of Congress, who are 
computer literate, they have these hand-held systems where they 
can call people on and so on. So the interest here about 
whether or not the President had enough common sense to want to 
stay in touch with his supporters is not a big distinction 
between those of us who do that here?
    Mr. Ruff. I trust everybody who runs for office probably 
wants to do the same thing.
    Mr. Fattah. Well, I think that the other issue I want to 
cover has to do more with the 1996 investigation. There has 
been some discussion about a check that was delivered to the 
White House and it was then sent over to the DNC, and in the 
Congress, we have a set of rules, that if we inadvertently 
receive a contribution, we have I think up to 7 days to get it 
from our office to our political campaigns. The White House, as 
I understand it, has a policy that says, basically, immediately 
or as soon as possible, if inadvertently a check were to come 
it should be sent away?
    Mr. Ruff. That's correct.
    Mr. Fattah. Do you see any distinction between those two 
policies?
    Mr. Ruff. No, obviously the Congress is free to make its 
own rules in this area, and the White House policy is designed 
to ensure that these issues are resolved as rapidly as possible 
in a way that does not implicate any potential violation of 
law.
    Mr. Fattah. Let me yield to the gentleman for a second.
    Mr. Kucinich. Thank you very much, Congressman Fattah.
    Again, to Mr. Ruff or Ms. Mills, whichever, the Bailey 
document which we are talking about seems to indicate that the 
President was interested in integrating the White House data 
base with the DNC data base.
    Do you have any reason to believe that integration ever 
happened?
    Mr. Ruff. Absolutely not.
    Mr. Fattah. Reclaiming my time, it is interesting because a 
number of my colleagues who have spoken have spoken out in the 
past on issues in relationship to some of the allegations that 
are basically being inferred here, that is to say that the 
Speaker of the House had a circumstance in which there was an 
inquiry, an investigation into some of his activities, and he 
misled the Ethics Committee, but he made a distinction, and 
many of my colleagues here spoke out publicly on the record 
that it was a very important distinction in that he did not 
intend to mislead the Ethics Committee and that was the reason 
why, in the final hours of that issue, the Speaker was 
reprimanded and had to pay a $300,000 fine, but people, 
especially those in his party, stood up and said he didn't 
intend to mislead the committee and, therefore we should kind 
of go on.
    There have been circumstances in which, whether it was the 
videotapes or other circumstances, in which things did not 
happen perfectly in terms of communications between the White 
House and this committee.
    Mr. Waxman. Will the gentleman yield?
    Mr. Fattah. Yes.
    Mr. Waxman. I think you are making an excellent point and I 
think we all have to keep things in perspective. If the 
gentleman will permit, I wanted to yield to Mr. Condit some of 
the time. He hasn't had a chance to ask any of his questions 
yet in the last 2 days.
    Mr. Condit. Thank you, Mr. Waxman, and thank you, Mr. 
Chairman. I will be brief, but I feel somewhat compelled to 
make an observation, and I do have some questions that I will 
ask when we begin to ask questions, but, Mr. Chairman, in front 
of us today are witnesses from the White House Counsel's Office 
who in some cases have appeared before three or four different 
investigative bodies. Charles Ruff, deposed by the Senate, 
testified before the Senate. Lanny Breuer, deposed by the 
Senate, testified before the Senate, testified before the grand 
jury. And Cheryl Mills, deposed by the Senate.
    I have just a couple questions and they can be rhetorical 
questions or you can respond to them if you would like, and, 
basically, we need to figure out how much is enough? How many 
times are we going to haul the same people in here so they can 
repeat what they have already told the other investigative 
bodies? How much money are we going to spend and waste to do 
that, and what will we discover that we haven't already 
discovered in the documents that we have available to us?
    We did this exact thing a month ago with Manlin Foung and 
Joseph Landon, the very same thing. We hauled them in here. We 
brow beat them for several hours and we did not learn anything 
new. Nothing significant came up that would help this 
investigation, and, Mr. Chairman, if we were serious about 
doing something constructive and in a bipartisan manner, there 
is a discharge petition at the well of the House, it has 187 
Members who have signed the discharge petition to bring to the 
floor immediately campaign finance reform. You know and I know 
it takes 218 signatures to bring it to the floor. I would 
respectfully call on my colleagues on the other side of the 
aisle and on this committee to sign the discharge petition and 
we could have a solution to the problem that we have been 
discussing.
    Matter of fact, we have been duplicating our discussions, 
multiple times, but we can really solve this problem if we 
could force ourselves to deal with campaign finance reform, and 
one of the ways we can do that is to put our money where our 
mouth is and sign the discharge petition and bring about 
campaign finance reform.
    I felt compelled, Mr. Chairman, to make this point. I have 
made the same point over and over again. I guess some might say 
I am being duplicative, but I think someone needs to make the 
point that these folks have been through this several times, 
and I think it is just unreasonable for us to continue this and 
keep them in here asking the same questions over and over 
again.
    I will yield back to Mr. Waxman.
    Mr. Waxman. Thank you very much.
    Mr. Burton. I won't take any of your time. We will add to 
your time. I just want to say I will not answer right now. I 
will at the conclusion of your time, but I appreciate your 
remarks, Mr. Condit.
    Mr. Waxman. We still have time, Mr. Chairman, and we are 
not yielding back the balance of it because we have other 
Members who wish to speak. I want to point out the only reason 
we have to get a discharge petition is because the Republican 
leadership in the House will not schedule a vote, so the rules 
of the House allow us, if we get 218, a majority, to sign this 
discharge petition, we could force it to the floor, but we 
shouldn't have to do that.
    Mr. Kucinich, you were interrupted in your questions. I 
want to yield to you.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Mr. Condit. Mr. Chairman, may I have a point of order here? 
There is a little confusion on my part, too, Mr. Waxman about 
is this the appropriate time to ask questions.
    Mr. Waxman. Yes, it is.
    Mr. Condit. I understand that and----
    Mr. Waxman. If Mr. Kucinich will allow, I----
    Mr. Condit. I will let him continue and then if you have 
time, come back to me. I do have a couple questions to ask.
    Mr. Waxman. I yield to Mr. Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman.
    I would like to go back to a point I was asking about 
before about the handwritten page. I want to ask Mr. Ruff, if 
that handwritten page presents new evidence that had never 
before been produced to the subcommittee?
    Mr. Ruff. Congressman Kucinich, I have to say that I am 
really not probably in a position to make an expert assessment 
of that. In my view, it does not add to the core information 
that had been made available to the committee, that is with 
respect to the nature of the White House data base. I have to 
leave it, I guess, to those who are on the receiving end to 
decide whether they find anything in there that is 
substantively advancing the cause of this investigation.
    Mr. Kucinich. Well, Mr. Cox yesterday asked whether the 
White House Communication's Agency had been given a copy of the 
letter from Senate investigators and you answered that, and to 
the best of your knowledge, the letter was not given to the 
Communication's Agency. Now today you corrected the record.
    Mr. Ruff. That's correct.
    Mr. Kucinich. And you told us that you learned yesterday 
after the hearing, one of your staff attorneys, Michael 
Imbroscio did, in fact, give a copy of the letter to Steven 
Smith, Chief of Operations, Communications Agency.
    Now I know that some members of this committee may not have 
read the depositions taken by this committee, but the record 
should be clear that Steven Smith, in his deposition to this 
committee a few weeks ago, clearly stated that he had received 
a copy of the Senate letter from Mr. Imbroscio, so even if Mr. 
Cox didn't know that, it seems to me the staff could have told 
him, and so my question is, do you know every single action 
that every single one of your staff members has taken in the 
last 2 years in connection with the subpoena compliance?
    Mr. Ruff. I would never venture to make such a statement, 
Congressman. I appreciate your making the record clear with 
respect to the deposition testimony on this.
    Mr. Kucinich. Do you feel Mr. Imbroscio was doing his job 
by passing that letter along to the Communications Agency?
    Mr. Ruff. Absolutely.
    Mr. Kucinich. I yield back, Mr. Chairman.
    Well, while we are at it, I would like to take the 
opportunity to ask one other question about the cost of the 
White House data base investigation, because I am very 
concerned that this might be costly to the taxpayers, and, 
actually, costing too much money.
    Can you estimate how many hours the White House has spent 
answering questions about this data base inquiry?
    Mr. Ruff. Perhaps I will consult with my colleague who has 
been actually through this.
    Mr. Kucinich. And just one followup question, how much does 
this cost the taxpayers?
    Ms. Mills. Well, in one 3-month period that we were 
auditing the time and costs associated with it, it was more 
than $155,000, and that was in a 3-month period. Obviously, we 
have been working with this matter for over a year.
    Mr. Kucinich. I might add in conclusion, this doesn't even 
include the hundreds of thousands that have been spent by the 
committee on this issue. Thanks.
    Thanks, Mr. Chairman.
    Mr. Waxman. We have spent over $3 million in this 
committee. We yield back the balance of our time.
    Mr. Burton. I would like to respond briefly before I yield 
to Mr. Horn.
    First of all, two of these witness have not appeared before 
the Senate, and there have been some depositions taken but they 
have not appeared before the Senate. And what we are looking at 
is activities where current law has been broken, and that is 
the reason why we are not talking about new campaign laws, 
which is under the purview of the House Oversight Committee, 
and with that I will be happy to yield.
    Mr. Waxman. Mr. Chairman, will you yield? You say current 
laws have been broken. Can you site for us any law that has 
been broken? There are allegations, but nobody has proved any 
law has been broken by anyone, as best as I can tell.
    Mr. Burton. Well, first of all, the Democratic National 
Committee has returned questionable contributions amounting to 
several million dollars.
    Mr. Waxman. As has the Republican National Committee.
    Mr. Burton. No. 2, 62 people at least have either taken the 
fifth amendment or fled the country. Many of these people are 
very close to the President. If there is no concern about laws 
being broken, I would welcome them before the committee. So it 
is my opinion that laws have been broken. You may differ.
    Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman.
    Mr. Ruff, I am going to ask a series of questions that are 
related to a request for information by the Subcommittee on 
Government Management, Information, and Technology, which I 
Chair. We have had a long-term operation of looking at travel 
by senior executive branch officials that happened to include 
the costs of the trip the President took to the Asian Pacific 
Economic Cooperation meeting in Asia in November 1996. We first 
requested information on the actual cost of the trip, almost a 
year ago, November 26, 1996. The reply, which came from the 
director of administration, came only after repeated staff 
calls, and the second letter was sent on January 15, and we 
never got any specific information on the actual cost of the 
trip, and we are talking about a trip that ran somewhere 
between $4.7 million and maybe $5\1/2\ million. I did send a 
letter to you and I realize you weren't there in the initial 
stages, but I did send a letter to you, as I did to Mr. Quinn 
and others, on February 25, 1997, asking for compliance with 
this simple information request. Over 6 months and almost 
weekly phone calls from our subcommittee staff and its 
director, Russell George, I have received no reply to this 
letter.
    Is there a reason why the White House Counsel's Office has 
decided not to reply? I might add a footnote that one reply 
said, well, we will give it to the subcommittee when we give it 
to the full committee. What you have given the full committee 
stops, essentially, at October 1996, and, thus, we don't have 
the data, and what you gave the full committee only reached 
them because you had a press inquiry.
    Now it sounds to me like press inquiries get first dibbs at 
the White House, let's give them the information, then when 
they go to the full committee or one of its subcommittees, they 
can say this is old news, don't bother me about it. Now I am 
just curious, how seriously do we take congressional inquiries?
    Mr. Ruff. I can tell you as a basic proposition that we 
take congressional inquiries very seriously, and we do try to 
be as responsive as we can be. I also have to confess, however, 
that I am not familiar with the specifics of your request. I 
will commit to you that I will make myself familiar with them 
and I will respond personally to you on this point as soon as I 
have had an opportunity to learn the background and the 
circumstances of your request.
    Mr. Horn. Mr. Chairman, I would like at this point simply 
to put in the record the letter I sent to Franklin S. Reeder, 
Director of Office of Administration, November 26, 1996, letter 
to White House Counsel to the President, Jack Quinn, January 
15, 1997, and his reply and another reply from Mr. Reeder, 
which has the estimates but not the actual costs in the letter 
of February 25, 1997, to the Counsel of the President, Mr. 
Ruff. I would like it at this point in the record.
    Mr. Burton. Without objection, all exhibits, documents, 
articles and other material referred to by Members today shall 
be included in the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.087
    
    [GRAPHIC] [TIFF OMITTED] T5405.088
    
    [GRAPHIC] [TIFF OMITTED] T5405.089
    
    [GRAPHIC] [TIFF OMITTED] T5405.090
    
    [GRAPHIC] [TIFF OMITTED] T5405.091
    
    [GRAPHIC] [TIFF OMITTED] T5405.092
    
    Mr. Horn. I have one more question. This is simply to 
clarify, and it might have been answered when I was out of the 
room, to Ms. Mills, one of the senior counsels, deputy counsel 
in the office.
    I gather there is a confusion about when you learned about 
the White House Communications Agency, and as I understand the 
record we have in front of us, I am looking at a document of 
April 8, 1996, from Jack Quinn, Counsel to the President, 
memorandum for White House staff; I am looking at another one, 
August 23, 1996, from Jack Quinn, Counsel to the President, 
memorandum for White House office staff; and the hitch of both 
of these, which I believe was prepared by you, and your name is 
in the last sentence on one of them, exclusively, and shared 
with another member, I assume, of the counsel's staff, Don 
Sherwa, if I am pronouncing it correctly, and I assume you 
wrote these memoranda, which would mean you knew quite a bit 
about the White House Communications Agency, as of April 8, 
1996 and of August 23, 1996, and as I understand it your family 
and you were actually videotaped by them in a tour of the White 
House on March 11, 1995.
    The query obviously is, is why was the ball dropped on 
videotapes? You were the most knowledgeable person on the 
staff. I realize there was a transition, but as I understand it 
through depositions and everything else a lot of members of the 
White House Counsel's Office went to you just to ask how things 
are done because you are the longest serving member, I believe, 
of the Office of White House Counsel.
    Now you came in on January 20, 1993; is that not correct?
    Ms. Mills. I arrived on January 20, 1993. I guess there are 
several things I would like to try and address to be helpful. 
First, with respect to the videotape on which I appeared, it 
was not a tour of the White House, it was a radio address. 
Second----
    Mr. Horn. I believe you toured with your family, though; 
did you not?
    Ms. Mills. No.
    Mr. Horn. Weren't you taking them through the White House?
    Ms. Mills. No.
    Mr. Horn. OK. Your family wasn't with you?
    Ms. Mills. My family was with me at a radio address.
    Mr. Horn. OK.
    Ms. Mills. OK.
    Mr. Horn. But you were taking them, wouldn't you say radio 
address is partly touring the White House?
    Ms. Mills. My family, because they didn't go to a radio 
address until 1995, and I don't want to quibble with you about 
this, had had many tours of the White House by that point.
    But with respect to my knowledge of WHCA, as you may know 
from some of the testimony that has been received over the past 
several months, WHCA has approximately 900 employees. In 
dealing with WHCA, their primary function is with respect to 
telecommunications support of the President. Only seven of the 
employees deal with the audio visual aspects of WHCA.
    In my dealings with WHCA, we were dealing with issues 
relating the President's travel, in particular the resources 
related to that that they provide on the road. On the road they 
provide staff support in terms of pagers, phones, computers, 
faxes, beepers, and lots of other materials that the staff use, 
obviously, to conduct their business. I wanted to ensure that 
the staff used those resources in a way that was consistent 
with the Hatch Act, in other words, that they didn't use it for 
political activity. That was the substance of our discussions 
and that is what we were talking about with the WHCA personnel.
    WHCA had provided me with their own memorandum they drafted 
regarding their activities. We didn't discuss the substance of 
the memoranda. What we discussed was the substance of what 
activities they performed for the staff with respect to the 
resources they provided, so I wasn't in a position to know what 
their practices were with regard to what they videotaped and 
what they didn't videotape; I simply didn't know. And I think, 
as I indicated earlier, WHCA's own supervisors did not know 
what their practices were with respect to what they videotaped 
and what they did not, so to the extent they responded to a 
document request and indicated at that time they did not have 
any responsive material, I would not have been in a better 
position to know whether or not they had or had not taped the 
coffees. I hope that is helpful.
    Mr. Horn. Well, that helps, but isn't it true, then, you 
knew the videotape operation did exist and when we asked in the 
subpoena for videotapes, wouldn't that be the first place you 
would go to ask if they have the relevant material?
    Ms. Mills. That is what we did, we sent a directive to 
WHCA.
    Mr. Horn. You did or who did?
    Ms. Mills. No, I do not--contrary to what might be popular 
opinion, I am not a part of the investigative team so my day-
to-day duties actually involve the other parts of the office. I 
try to work with the investigative team to try to be as 
supportive and helpful as I can, but my daily duties are not 
with respect to the investigative team. Mr. Breuer, who is the 
special counsel, handles the matters.
    Mr. Burton. The gentleman's time has expired.
    Mr. Horn. I would like these letters put in the record, Mr. 
Chairman.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.093
    
    [GRAPHIC] [TIFF OMITTED] T5405.094
    
    [GRAPHIC] [TIFF OMITTED] T5405.095
    
    [GRAPHIC] [TIFF OMITTED] T5405.096
    
    [GRAPHIC] [TIFF OMITTED] T5405.097
    
    Mr. Waxman. Mr. Chairman, now that we are under the 5-
minute rule, I wish to be recognized for 5 minutes and then I 
will yield.
    How many times have you been asked that question?
    Ms. Mills. I've been asked that question at least more than 
35 times.
    Mr. Waxman. A good use of all of our time and taxpayers' 
money.
    Mr. Condit.
    Mr. Condit. Thank you, Mr. Waxman. Mr. Waxman has actually 
kicked off my theme here. I would like, if I may, to go to Mr. 
Breuer. I want to ask you a series of questions, Mr. Breuer, 
and you feel comfortable to take whatever time you need to 
answer. I am going to ask most everyone there similar 
questions.
    Have you been asked for information by any other 
investigative body or have you testified before any other body?
    Mr. Breuer. I have, Congressman. I have testified before 
this body, as I am doing now. I have obviously been deposed by 
this body. I also was deposed by the Senate. I testified 
publicly in front of the Senate. I testified before the grand 
jury. I have also publicly spoken about these issues, so I have 
done it quite a few times just in the last few weeks.
    Mr. Condit. So you have appeared four or five times before 
the investigative committees or bodies?
    Mr. Breuer. That is correct, Congressman.
    Mr. Condit. Have the other requests for information 
overlapped with the request of this committee?
    Mr. Breuer. They have, in many respects. We probably, in 
the short time I have been at the White House, since February, 
we have received approximately 1,100 different types of 
requests or approximately that. We probably received 
approximately 300 requests from this committee, many of which 
do overlap.
    In addition, we are responsible for and try to do whatever 
we can, Congressman, to make White House employees available 
for interviews and depositions. Many of the White House 
employees have been interviewed and deposed more than on one 
occasion by the Senate and in addition have been deposed or 
interviewed by this committee, in addition to other 
investigatory bodies and subcommittees as well.
    Mr. Condit. Do you have a count on how many White House 
employees have been deposed or interviewed by this committee?
    Mr. Breuer. My rough count is--unfortunately, this 
committee, unlike some other investigatory bodies, has chosen 
not to go directly through the Counsel's Office, and so the 
dilemma that I have found that we have is that I don't find out 
directly when White House people are contacted by the 
committee. Indeed, the only time I usually find out about it is 
when there is a problem, and as an attempt at accommodation, we 
are asked to intercede and help make the process work, 
something that is very important to Mr. Ruff, and to the 
President as well. In saying that, probably approximately 50 
people have been made available just to this full committee for 
depositions and for interviews. That is not including the 
subcommittee by Congressman McIntosh or some of the other 
subcommittees. It doesn't include any of the depositions or 
interviews in the Senate.
    Mr. Condit. Has anyone from the White House refused to 
cooperate or to give information to this committee or any other 
investigative body?
    Mr. Breuer. Absolutely not. Indeed everyone has agreed to 
come forward voluntarily. Indeed, I think it is the experience 
on the Senate side, where the Counsel's Office is present, 
something that I was hopeful could be done in this committee, 
something Mr. Ruff as well wanted, whenever there were dilemmas 
at all or any attempt to ask a question that perhaps might 
implicate certain privileged or other issues, we found a way of 
accommodating the need of the Senate committee to get the 
information it needed, while also preserving the very important 
institutional rights of the White House. So I would like to 
take pride in thinking that we accommodated the needs 
throughout the depositions and interviews, and as far as I 
know, every single White House person agreed to come 
voluntarily.
    Mr. Condit. Can you estimate for me how much time you have 
spent responding to this committee's request for information?
    Mr. Breuer. It is hard, Congressman, just specifically to 
divide up the amount of time we have spent on this committee's 
request as opposed to all the committees' requests because we 
indeed received so many and we received so many on a daily and 
weekly basis. But the 6 lawyers I have had the privilege of 
working with indeed, more often than not, work 7 days a week 
and, more often than not, work between 12 and 16 hours. Quite a 
bit of that time, Congressman, has been in responding to the 
requests of this committee.
    Mr. Condit. Would you say it would be true that most of the 
topics before us today, you have already addressed most of them 
with some other body?
    Mr. Breuer. I think that is fair, that most of the topics 
addressed today have, indeed, been addressed previously.
    Mr. Condit. I would like to go to Mr. Ruff, if I may. I 
appreciate you being here, Mr. Ruff. Have you been asked for 
information by any other investigative body or have you 
testified before any other body?
    Mr. Ruff. Congressman Condit, I have been deposed by the 
Senate leading up to my testimony of last week, before the 
Senate, and this is only the second formal open session that I 
have had the pleasure of attending.
    Mr. Condit. Have the requests for information by those 
committees or bodies overlapped with the request of this 
committee?
    Mr. Ruff. Substantially so.
    Mr. Condit. Could you explain that a little bit for me?
    Mr. Ruff. Well, as is true on the--obviously on the public 
record, the substantial portion of my testimony before the 
Senate had to do with the videotapes, which have certainly been 
a subject of some discussion yesterday and today, as well as 
more broadly the processes we used for finding documents and 
other materials in response to committee requests. So those two 
areas, I think, have been explored in some depth.
    Mr. Condit. Can you give me an estimate of how much time 
you spent responding to this committee's request for 
information?
    Mr. Ruff. Well, I would venture to guess that in any given 
work day, probably close to a half of my waking hours tend to 
be immersed in document or similar requests or dealing with 
various other issues relating to this and similar committees. 
Relying largely on my colleagues to deal with this issue, I 
nonetheless find myself caught up in it inevitably because I am 
ultimately responsible for what the office does.
    Mr. Condit. Thank you, Mr. Ruff. I see my time has expired. 
I apologize to Ms. Mills. I know she has similar answers. We 
documented that. If we have another round, I might get back to 
her.
    Thank you, Mr. Chairman. Could you put the response to 
those questions in the record, Ms. Mills?
    Ms. Mills. I will.
    Mr. Condit. Thank you.
    Mr. Burton. Ms. Mills, have you appeared before any----
    Ms. Mills. I apologize.
    Mr. Burton. Have you appeared before any congressional 
committee before today?
    Ms. Mills. Yes, I appeared before the Senate, a deposition.
    Mr. Burton. Did you appear for testimony before any 
committee before today?
    Ms. Mills. No. I was deposed in the Senate twice and 
deposed here.
    Mr. Burton. I know, but you did not appear in open 
testimony before today?
    Ms. Mills. That is correct.
    Mr. Burton. Mr. Nionakis, have you appeared before any 
congressional committee before today?
    Mr. Nionakis. No, Mr. Chairman, I have not.
    Mr. Burton. Thank you very much.
    Mr. Shadegg.
    Mr. Shadegg. I don't believe I have any questions. I 
appreciate the 5 minutes. I simply want to clarify something. 
The subject of this hearing today has to do with the 
responsiveness of the White House in terms of producing 
documents, that is correct; isn't it, Mr. Chairman?
    I guess my comment is that I am somewhat mystified by some 
of the dialog that is going on here. I have heard a discussion 
all morning about this duplicates the Thompson hearings, 
witnesses have already appeared before, this is a complete 
waste of time, and that seems to be a consistent theme we hear 
on the other side and yet I just heard some comments by a 
Member on the other side, which said, my goodness, what are we 
doing going into the White House data base, that isn't the 
subject of this hearing, the White House data base isn't 
appropriate, this is all new.
    It seems to me that the White House data base and 
withholding documents pertaining to the White House data base 
investigation is very appropriate to our inquiry today. The 
Senate did not look at the White House data base issue. The 
White House data base issue is clearly related to the 1996 
election and to the overall subject matter of the jurisdiction 
of this hearing and the hearings we are conducting.
    I am a little mystified. We are criticized for not doing 
anything that the Senate committee hasn't already done, and 
then when we do something the Senate committee hasn't already 
done, we are criticized for not doing something--for doing 
something the Senate committee hasn't already done, and I just 
find it mystifying, and it seems to me the White House data 
base is a very pertinent topic here and we have already brought 
out very significant evidence about the withholding of 
information that related to the investigation of the White 
House data base. It is new material and I think it is very 
newsworthy and important.
    Thank you, Mr. Chairman.
    Mr. Burton. Does the gentleman yield back the balance of 
his time or does he yield to someone else?
    Mr. Shadegg. I would be happy to yield to my colleague, Mr. 
Cox.
    Mr. Cox. I thank my colleague from Arizona. I would just 
briefly pick up where I left off with Mr. Ruff on an earlier 
matter because the time did not permit me to respond to what he 
said.
    And I want to be straight with you, so that you understand 
my concern as a former member of the Counsel's Office.
    Mr. Ruff. I appreciate that, Congressman.
    Mr. Cox. About the way these things are handled, we were 
talking about the efforts that the Counsel's Office made and 
did not make, respectively, to get the videotapes in response 
to a subpoena.
    And to recap, the subpoena was issued in early March, March 
4th, the return date on the subpoena was March 24th, and it was 
more than a month after that when the first request to offices 
around the White House went out in writing to return 
information in response to that subpoena. Is that correct?
    Mr. Ruff. That is true that the first directive went out at 
the end of April. As you undoubtedly know, Congressman, there 
were two things at work during that period of time: First, the 
collection and production and preparing for production of 
documents collected under the Quinn directives, which had gone 
out earlier and which covered much of the same territory; and 
considerable discussion between the staffs, White House staff 
and the committee staff, about working out procedures and scope 
of that March 4th subpoena.
    Mr. Cox. My concern is that there was not an internal 
investigation going on in the White House. It is a lawyer's 
point, and lawyers argue about these things, whether or not you 
can stave off compliance with a subpoena. But to not 
investigate internally, to not undertake that investigation 
yourself is what concerns me. And that investigation wasn't 
even commenced internally with respect to any of the things 
covered by our subpoena, including the White House 
communications office, until over a month after the return date 
on the subpoena.
    Mr. Ruff. I don't believe that's accurate. I'm sorry, go 
ahead I didn't mean to interrupt.
    Mr. Cox. It is accurate, is it not, that the first 
directive went out on April 28th?
    Mr. Ruff. Yes, but you made a broader statement that there 
was no internal investigation or inquiry or gathering of 
documents. That is not accurate.
    Mr. Cox. Did you, Mr. Ruff, make any written request of the 
Military Office for White House videotapes prior to April 28, 
1997?
    Mr. Ruff. No, but I was trying to respond to your broader 
comment, Congressman.
    Mr. Cox. Well, I'm trying to get us on a specific point 
which you left hanging before, which is the White House 
videotapes.
    Mr. Ruff. Happy to do that. Happy to do that.
    Mr. Cox. When I asked you yesterday whether or not the 
White House, in response to the Senate's written request, 
homing in on videotapes in August, saying we have a subpoena 
outstanding, we understand there are videotapes, we understand 
WHCA makes them, we would like to get an answer from you on 
this, I asked whether or not you sent anything in writing to 
the Military Office.
    Yesterday you said you did not. Today you said that you did 
not, but that a copy of that letter itself was physically 
carried by an associate member of the Counsel's Office.
    And my concern with your not knowing yesterday and only 
discovering this today is that it makes it clear that you 
didn't do any of those things yourself; that you weren't aware 
of them, as you were, for example, and as routinely the Counsel 
to the President is aware with any other document request, 
whether this is a memorandum for the Executive Office of the 
President's staff from Chuck Ruff, Counsel to the President, 
re: document request. Initialed by you, it went out because you 
received a subpoena from the Office of the Independent Counsel.
    But no such writing of any kind at any time went from your 
office in response to the request from the Senate Governmental 
Affairs Committee, and that is what concerns me. I want to ask 
you about your change in testimony between yesterday and today; 
whether when your staff told you that a staff member had made a 
copy of the Senate's letter available, whether that triggered a 
recollection that you had actually known he had done that, or 
whether you didn't know at any time before that he had done 
that and that is the first you had learned of it?
    Mr. Ruff. That is the first I have learned of it, 
Congressman. And let me just say that, although I appreciate 
your concern, I'm trying to be responsive to it.
    Let me make two points. The fact is I did not indeed 
personally talk to WHCA about this, nor did I personally 
deliver that letter, nor did I personally deliver the 
directives. I do try to become involved to the point where I 
have an understanding and an appreciation of the things my 
office is doing. I delegate a fair amount of responsibility.
    But let me, with respect to this issue of the transmittal 
of the August 19th letter, make a point. I fear that you were 
not here earlier when Congressman Kucinich noted that Mr. Smith 
had specifically testified in his deposition some weeks ago 
that he had received that letter. So it was a matter of record 
at least for the committee.
    It was, I regret to tell you, not something I knew 
yesterday nor did it trigger any recollection on my part once 
Mr. Imbroscio had advised me of it.
    Mr. Cox. That's fair enough.
    Mr. Chairman, I think we have had enough on the point. I 
simply want to focus on the degree to which the Counsel to the 
President is in charge of this investigation, the extent to 
which the White House itself is making efforts to uncover this 
information, and I think the counsel's testimony that he didn't 
even know about this until today or yesterday speaks for 
itself.
    Mr. Burton. The gentleman's time has expired. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Ruff, we just mentioned the April 28th directive. Is it 
true that this directive calls for all White House employees to 
conduct a thorough and complete search of all your records, 
whether they were in hard copy, computer or any other form?
    Mr. Ruff. That's correct, Congressman.
    Mr. Davis of Illinois. Would you agree or would you assert 
that the language in that directive is clear?
    Mr. Ruff. I believe it clear and all encompassing, and I 
think the message it conveyed to the people who received it was 
exactly what was intended, which is all--capital-letters--``in 
any form,'' and that is what the people understood who received 
it.
    Mr. Davis of Illinois. Do you recall if there were any 
limitations of any kind in that memorandum?
    Mr. Ruff. To the contrary. I believe it was emphasized that 
there were no limitations on the form or nature of the 
documents to be retrieved.
    Mr. Davis of Illinois. And so it would be very difficult 
for one to suggest in reality that there was any confusion in 
relationship to what the directive actually meant?
    Mr. Ruff. I think it was clear. I doubt that there was any 
confusion. To the extent that anyone had any questions, our 
lawyers were ready to respond and did respond to any questions.
    Mr. Davis of Illinois. And so even if some confusion would 
arise, although it was unlikely, there were individuals listed 
that one could call and inquire or ask or clear up any 
questions that they may have?
    Mr. Ruff. That's correct. And, in addition, my lawyers 
actually visited individuals and offices to make sure whether 
they needed assistance in pursuing their searches.
    Mr. Davis of Illinois. Let me also ask, did you ask the 
heads of the different offices to certify in writing that both 
they and their employees had done a complete search in response 
to the April 28th directive?
    Mr. Ruff. Yes, we did.
    Mr. Davis of Illinois. And did they, in fact, comply?
    Mr. Ruff. Routinely so, yes.
    Mr. Davis of Illinois. Then you would find it difficult, as 
I do, to rationalize how anyone could suggest that there was 
any lack of clarity or lack of understanding relative to the 
effort put forth to comply in the generation of all documents 
and information that was available?
    Mr. Ruff. I believe and hope that we were clear and that is 
my understanding.
    Mr. Davis of Illinois. Thank you very much. I have no 
further questions, Mr. Chairman.
    Mr. Ford. Would the gentleman yield?
    Mr. Davis of Illinois. I will yield to Representative Ford.
    Mr. Ford. Thank you. I really just have one question. I 
thank the panelists for coming and I appreciate your patience. 
Your patience is being tested, as ours are on this panel, on 
this committee.
    But just to be clear, Ms. Mills, the 11 documents that we 
have, those on this committee and others in this Congress have 
expressed some disappointment in receiving late, do those 
documents show that there was any integration of them? My dear 
colleague from Ohio has mentioned this, but I want the record 
to reflect clearly.
    Does it show that there was any integration between White 
House data bases and DNC data bases?
    Ms. Mills. It does not, and it is also duplicative of other 
information we provided to the subcommittee some time ago.
    Mr. Ford. Does it show, do any of those documents 
demonstrate that any of these data bases were used for campaign 
purposes?
    Ms. Mills. No.
    Mr. Ford. Does it show that anything--do any of these 
documents suggest there was anything illegal done by anyone in 
your office or anyone in the White House with regard to the 
1996 campaign?
    Ms. Mills. No.
    Mr. Ford. I have no further questions. Thank you, Ms. 
Mills.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. Mr. Ruff and Ms. Mills, 
to your knowledge, did anyone in your office discuss with 
others at the White House potentially responsive records 
pertaining to the White House coffees? Mr. Ruff.
    Mr. Ruff. I am not sure I fully understand the question, 
Congressman.
    Mr. Mica. Did anyone discuss or did you discuss or anyone 
in the office, to your knowledge, discuss with others at the 
White House potentially responsive, being responsive to the 
request you had made regarding the coffees? Any type of 
discussions taking place?
    Mr. Ruff. My colleague, Mr. Breuer, is probably best able 
to respond, but I think it's fair to say the answer is, yes, in 
the sense that when we search for documents we frequently end 
up talking to people who have those documents or have questions 
about whether they have responsive documents.
    Mr. Mica. Well, was the discussion limited to the 
individuals that are at the table or beyond that?
    Mr. Ruff. Perhaps, if I can, I will allow Mr. Breuer to 
respond.
    Mr. Breuer. Congressman, in attempting to respond to the 
many requests of this committee, we endeavor to search through 
a variety of different ways. One way that we did that has been 
discussed: through the directive. But the other way that we did 
it, frankly, was through targeted searches. And in doing that 
we did speak to people at the White House, and we attempted, 
Congressman----
    Mr. Mica. My question is, we have counsels here that 
primarily were involved with dealing with questions and 
discussions about the coffees and the tapes; right?
    Mr. Breuer. Well, Congressman, in all due respect, I am 
trying to--I will try to answer that. It is not, in retrospect, 
a reality to say that there were discussions just about 
videotapes.
    Mr. Mica. What I am trying to do is trace when the 
subpoenas came in, and the subpoena came in and you knew some 
time ago that, and I guess it is January; is that the first 
time folks knew about the existence of videotapes?
    Mr. Ruff. No.
    Mr. Breuer. No.
    Mr. Mica. Were you made aware of it in January?
    Mr. Breuer. I'm not sure what you are referring to when you 
are talking about January, Congressman. Are you talking about 
when we first received a request for videotapes? Or are you 
saying when did we first learn there were videotapes of the 
coffees?
    Mr. Mica. When did you first learn there were videotapes, 
Ms. Mills?
    Ms. Mills. I learned of the videotapes of the coffees on 
October 3rd.
    Mr. Mica. Of this year?
    Ms. Mills. Correct.
    Mr. Mica. But you were not aware that these things were 
being done before?
    Ms. Mills. Correct.
    Mr. Mica. OK. And, again, the discussion took place among 
you from October 3rd forward?
    Mr. Breuer. Well, Congressman----
    Mr. Mica. Did you discuss it--you were involved in trying 
to get information on the early subpoena, which was the 
beginning of the year?
    Mr. Breuer. Well, we received a subpoena from this 
committee in March, Congressman.
    Mr. Mica. Right. Was there any discussion before that, 
among any of the folks who were involved in dealing with the 
systems that were issued by this committee?
    Mr. Breuer. And now are you asking, Congressman, if there 
were discussions specifically about videotaping of coffees or 
simply about discussions in general?
    Mr. Mica. Existence of videotapes; about----
    Mr. Breuer. Congressman----
    Mr. Mica. Anything that pertained to potentially responsive 
records relating to what was requested by this committee or the 
Senate committee.
    Mr. Breuer. Congressman, as I'm sure you are aware, this 
committee has generated approximately 300 requests. When I 
first came about, in the middle of February--Congressman, I 
have to be----
    Mr. Mica. You are not answering my question, though. My 
question is did you all know of the existence of these tapes 
prior to that point, or was there any discussion among any of 
the folks who were involved about the existence of those tapes?
    Mr. Breuer. Congressman, I have testified before the House, 
before the Senate, and in other forums that I, in fact, did not 
know about the existence of videotapes of coffees, and had I 
known about it, of course, we would have produced them to you 
promptly.
    Mr. Mica. You are not answering my question.
    Mr. Breuer. I think I am trying to.
    Mr. Mica. Were there any discussions prior to that date 
about the existence of the videotapes or a request from this 
committee or the Senate committee for that? Were there 
discussions----
    Mr. Breuer. I was not involved----
    Mr. Mica. If I----
    Mr. Breuer. I was not involved in any conversations with 
respect specifically to the videotaping of coffees in March of 
this year, Congressman.
    Mr. Mica. You keep changing my question. Prior to March, or 
prior to March and in response to our requests, are you aware 
of any discussions that you had or others had relating to the 
existence of these tapes?
    Mr. Breuer. I joined the White House Counsel's Office 
approximately February 18th. Between February 18th and March 
5th, or, in fact, until much after that, Congressman, I am 
aware of absolutely no conversations dealing with videotapes 
and coffees.
    Mr. Mica. OK. Mr. Ruff, did you have any knowledge of the 
existence of the tapes?
    Mr. Ruff. Certainly did not, Congressman, until October 
2nd, nor am I aware of any discussions focusing on the 
existence or nonexistence of videotapes before that time.
    Mr. Mica. But our request came some time ago.
    Mr. Ruff. Yes.
    Mr. Mica. And you are saying you were never aware and you 
never discussed with anyone the question of are there 
videotapes?
    Mr. Ruff. That's correct, not until I was alerted to their 
existence on October 2nd.
    Mr. Mica. Who did you talk with, then, about the existence 
of videotapes?
    Mr. Breuer. Well, Congressman, as we have stated before, 
that when the request came in from the Senate, it was a much 
more general request. At the time that the request came in to 
one of the associate counsels on approximately August 7th, Mr. 
Imbroscio began the inquiry to determine whether or not there 
were videotapes from WHCA. At some point, he did learn about 
those and we pursued that matter.
    He found out about that, Congressman, and continued to 
endeavor to find out, and on September 9th notified the Senate 
of the existence of videotapes for fund-raising events, but at 
that time was under the understanding that he did not and there 
were not videotapes of coffees.
    He confirmed the fact that there were videotapes of 
coffees, I believe, either late in the evening of October 1 or 
sometime on October 2. The Senate was notified, as you know, 
Congressman, on October 2. And that is the chronology of the 
discovery of the videotapes.
    Mr. Mica. That is the famous Saturday?
    Mr. Breuer. I think Saturday was the 3rd--the 4th, I'm 
sorry. Saturday was the 4th. October 4th. I was referring to 
Friday, October 3rd.
    Mr. Burton. The gentleman's time has expired.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. I truly believe that 
any hearing that focuses on campaigns and how campaigns are run 
and the vast amount of money involved is critically important. 
Because I really believe that our democracy is at stake, given 
the way that our campaign laws, that are weak to begin with, 
are being manipulated, coordinated, sidetracked and abused.
    I would like to focus on a group called Triad, which, 
according to reports in the press, not in any hearings before 
Congress, but in the press, that Triad Management ran $5 
million in attack ads and coordinated PACs in the closing days 
of the 1996 elections.
    I have one question, Mr. Chairman. I would like to know 
when you are going to issue subpoenas to the groups and 
individuals involved in the Triad Management scheme to violate 
or evade the campaign finance laws?
    This has been reported in the press over and over again. 
Now, if we are going to look at how campaigns are being run, we 
are going to look at money. This is a group that needs to be 
looked at. And I would like to know what is it going to take? 
You have issued a lot of subpoenas. What is it going to take to 
subpoena the Triad Management group?
    Mr. Burton. Is that a question you would like to pose to me 
this morning?
    Mrs. Maloney. Yes.
    Mr. Burton. Let me just say we don't disclose potential 
subpoenas before we issue them. We will be issuing additional 
subpoenas, some to Republican targets as well as Democrat 
targets. I will not tell you that we are going to issue them to 
the Triad group, but I will tell you that we are going to look 
at it. We are looking at it. And we very well may do that.
    Mrs. Maloney. Well, thank you, Mr. Chairman.
    There have been many reports that these hearings have been 
very partisan, but I am hopeful that you will be bipartisan and 
look at both parties, because I believe there are skeletons in 
both parties.
    Mr. Burton. I can assure you wherever we find illegal or 
potentially illegal activities in the area of fund-raising, we 
will look at it, regardless of where the chips may fall.
    Mrs. Maloney. Well, I would like to challenge the ranking 
Democratic member, Mr. Waxman, who is incredibly busy curbing 
the money of tobacco interests in our country and working on 
trying to improve public health, but I would like to challenge 
you, since I don't believe we're going to have hearings that 
are going to focus on Triad and the abuses that took place.
    I would like to read into the record what has been 
reported, not before congressional committees, not in hearings, 
but reported by Time Magazine, the New York Times, the L.A. 
Times, the Washington Post, but not before congressional 
hearings, and they show ways that they are getting around 
campaign finance laws.
    I feel even if you don't have the officials, the documents 
that we can bring together, this has to be brought up to the 
public, and I would hope that the ranking member would pay 
attention to this. And if you have to go down the hall or into 
some other office building to have it, the Vice President's 
office or the President's office to have a room to have a 
hearing, they have offices on the Capitol if we can't get one 
from the Republicans, as happened in the past. I would like to 
challenge you to have hearings on Triad Management.
    Mr. Waxman. Would you yield to me?
    Mrs. Maloney. I certainly will.
    Mr. Waxman. Our committee has already sent out document 
requests or subpoenas, over 600, to Democratic targets and only 
10 to Republican targets.
    The chairman answered your question as if you were a member 
of the press. You said are you going to pursue the Triad issue 
because it's been so prominently mentioned in the press as a 
clear issue similar to the ones we have been investigating. His 
answer was he wouldn't tell you specifically because he's not 
going to talk about specific subpoenas. Well, you are a member 
of the committee.
    Mr. Burton. Would the gentleman----
    Mr. Waxman. I'm the ranking Democrat on the committee. He 
hasn't mentioned that he is going to pursue that issue at all.
    Mr. Burton. Would the gentleman yield?
    Mr. Waxman. I will in a minute, or she will, I would 
encourage her to in a minute. It is her time.
    But if I can just complete my statement. We see no evidence 
that this committee is going to pursue anything that has to do 
with Republican targets. We have heard this rhetoric from the 
chairman over and over again. We are going to pursue these 
things wherever they may be, but we have seen no action to back 
up that rhetoric.
    We have seen a clear record of going after Democrats, and, 
of course, we're reminded again what the former chief counsel 
of this committee said when he quit. He said, they're only 
interested in ``sliming'' Democrats.
    Mrs. Maloney. Reclaiming my time.
    Mr. Burton. Would the gentlelady yield for a response?
    Mrs. Maloney. Reclaiming my time, I will certainly yield on 
your time. But on my time I have a point that I would like to 
make, and this is that in the final days of the 1996 election, 
tax exempt organizations, tax exempt organizations spent more 
than $5 million on attack ads benefiting Republicans in 34 key 
congressional races. Among the groups that paid for this, for 
this media blitz, were the Coalition for our Children's Future, 
Citizens for Reform, and Citizens for the Republic Education 
Fund.
    All of these groups did not have to disclose to the Federal 
Election Commission how they spent their money or where their 
money came from. The Citizens for Reform and the Citizens for 
the Republic Education Fund were directly run by the Triad, 
according to the Washington Post and the New York Times.
    Again, there have been no hearings on this. We are relying 
on the press. But the point is here, they have been credited by 
the press for turning and winning elections at the last minute, 
yet they don't have to disclose where their money comes from. 
It is a way to get around the existing laws, and this loophole 
should be changed.
    I have a bill in, by the way----
    Mr. Burton. The gentlelady's time has expired.
    Mrs. Maloney [continuing]. With Mr. Horn that would close 
this loophole, and I hope that is one measure this Congress can 
pass.
    I look forward to your response now, Mr. Chairman.
    Mr. Burton. The gentlelady's time has expired. And I will 
just say that I will be happy to talk with any member of the 
committee privately about the potential targets for subpoenas. 
We have done that in the past.
    We have sent subpoenas out to the Young Brothers, which was 
a company out of Hong Kong that had a shell corporation that 
sent money to the RNC. We are looking at that as well. So we 
will look at these things, and I will discuss them with you.
    I do not believe that potential subpoenas or targets should 
be discussed in an open forum. So when Mr. Waxman says that 
we're trying to keep it from members of this committee, he is 
in error.
    Now, let me just say I want to take my 5 minutes now, so 
please start the clock.
    I would like to put up Exhibit No.s 141 and 141-A, please.
    [Note.--Exhibit 141 can be found on p. 81, and exhibit 141-
A can be found on p. 85.]
    Mr. Burton. Now, Ms. Mills, you have danced around this 
issue quite a bit by saying that you were not aware of 
videotapes of coffees. Now, if you look at these two documents, 
I believe they were your documents. It is very clear you knew 
there were videotapes being made in the White House, correct?
    Ms. Mills. I was aware that WHCA videotaped events of the 
President. I was not aware as to which events WHCA videotaped.
    Mr. Burton. But you were aware that videotapes were being 
made?
    Ms. Mills. I certainly was aware that the President's 
remarks at events were videotaped. I was not aware as to which 
events were videotaped.
    Mr. Burton. But it was in the White House?
    Ms. Mills. He travels as well.
    Mr. Burton. In the White House?
    Ms. Mills. I have been to events in the White House where 
the press are present and WHCA is present as well, yes.
    Mr. Burton. In the White House.
    Ms. Mills. I just said, I will say again, I have been to 
events in the White House in which WHCA is present and 
videotaping, along with other cameras as well.
    Mr. Burton. Now, in the subpoena that was sent to Mr. Ruff, 
does it say videotapes of the coffees?
    Ms. Mills. I'm sure it does.
    Mr. Burton. To your knowledge.
    Ms. Mills. I did not review the subpoena. I have seen the 
directives. As you probably are aware, Mr. Breuer is the 
Special Counsel who ends up handling these types of matters.
    Mr. Burton. Were you in any meetings with Mr. Ruff when you 
discussed the subpoena we sent to you?
    Ms. Mills. I do not recall an occasion where I have been in 
a meeting with Mr. Ruff or Mr. Breuer where we talked about 
videotapes.
    Mr. Burton. No.
    Ms. Mills. I have been in many meetings--Mr. Chairman, I 
really will try to be responsive to your question, if you let 
me. I have been in many meetings when we have discussed 
different requests that are--to the White House, but I could 
not tell you whether those requests are from this committee, 
the Senate or others.
    Mr. Burton. Were you in any meetings--and Mr. Ruff, I will 
ask you if she was in any meetings; or Mr. Breuer, was she in 
any meetings when you discussed or had any discussion 
whatsoever about the subpoena that I sent to you back in March?
    Ms. Mills. I will answer that one more time and then I will 
let both of them answer it.
    I am quite confident that I have been in meetings where 
issues that were covered by your subpoenas were discussed. I 
don't know if they were discussed as your subpoena, but I'm 
quite confident that I have been in meetings where issues that 
you all, this committee and other committees are interested in, 
have been discussed.
    Mr. Burton. Thank you. Now, let me just followup on that. 
In the subpoena that I sent to Mr. Ruff, it very clearly asks 
for video and audiotapes, and it does not specify whether or 
not they were coffees or Presidential addresses or anything 
else. Is that correct, Mr. Ruff?
    Mr. Ruff. I believe that in the definition of documents 
audio and visual taping is included as a definition and, thus, 
we treat that as encompassing any relevant matter that is 
listed in the subpoena as something the committee is looking 
for.
    Mr. Burton. So those tapes, even though they may not have 
been coffee tapes, would have been included under our subpoena, 
correct?
    Mr. Ruff. If there was a request concerning an individual 
or an event and we knew about a video or an audiotape that 
encompassed that individual or event, yes, it would be 
responsive.
    Mr. Burton. So, to me, it stretches credulity to think that 
from March, until late June when you sent me that letter, that 
somebody would not have said, hey, there were videotapes made, 
shouldn't we check into this? And yet that wasn't done until 
October.
    Can you explain to me why? I mean, how many--all videotapes 
were encompassed in my subpoena. Now, why is it, Ms. Mills, and 
the others who were very well aware--if you look at the 
documents that are on the screen, why is it that nobody even 
said, hey, there were some videotapes taken; shouldn't we take 
a look at this, especially in view of the fact that everybody 
knows what happened in Watergate when we found out about the 
audiotapes?
    You would think somebody would have thought of that. And 
for a group of people as intelligent as you--and you are very 
intelligent, we all know that--to not even discuss the contents 
of my subpoena, which was all-inclusive about videotapes, just 
stretches somebody's imagination beyond credulity, as I said.
    Mr. Ruff. I won't comment on what is or is not within the 
bounds of imagination. I will simply repeat what I have said 
before.
    It is absolutely true that there was never in any 
conversation I have been a part of or, I'm sure, any member of 
my staff has been a part of, any discussion of the existence of 
videotapes that would be relevant to this committee's response 
until I first learned of it on October 2nd.
    Mr. Burton. I'd like to point out that my letter of January 
15th, before you became Counsel, noted videotapes even before 
you came on board.
    So we asked for videotapes in a letter; we asked for video 
or audiotapes in a subpoena. You sent me a letter in June 
saying that to the best of your knowledge everything I asked 
for in my subpoena had been complied with. Since that time, 
we've had 12 boxes of documents; and now, in October, we find 
out there were videotapes.
    There's an appearance here that you were trying to stop us 
from getting information that was relevant to our 
investigation. Now, I know you're going to say that that 
appearance is erroneous.
    Mr. Ruff. Indeed, that is in fact my testimony.
    Mr. Burton. But anybody in the public who sees this, they 
would have to say, my gosh, 12 boxes of documents after you 
said we had everything; videotapes which were asked for not 
once, but twice, as well as audiotapes, we don't find out about 
until October, when the young lady who sits right next to you, 
who is Associate Counsel to the President of the United States, 
who was in one videotape, had letters containing two 
videotapes, it just doesn't make any sense.
    So I think that it's something that the American people, if 
they are paying attention to this, would question, even though 
we have high regard for you and your ability.
    And I would like to just say for the record--and I will 
bring this up in just a few moments, my time has run out; I 
want to bring up a statement you made back at the end of the 
Watergate hearings, which I talked to you about yesterday, 
where I think you indicated that it's convenient for you not to 
know certain things, because if you didn't know those things, 
you couldn't be held accountable. And we will put that in the 
record before too long.
    Mr. Ruff. Mr. Chairman, since you have raised that issue 
with me, after you raised it with me the other night, since I 
didn't ever remember saying that, I went back and put my own 
name in Lexis-Nexis, and went back to my--I won't say youth, 
because I was not youthful at the time, in 1977, when the 
Watergate office closed. In an interview with Bob Woodward I 
was quoted as saying, I think--and I am trying to put myself 
back in my mood on that day, which was, as expressed in that 
article, one of relief and an overwhelming desire to close the 
doors of the office and move on to other things. I think I said 
something along the lines of, the one lesson I have learned, 
and one can go back and look at the teachers during that period 
of time, was that if called on to recite the events of 
Watergate, that one escape from that question was a failure of 
recollection.
    It had nothing to do with--first of all, it was facetious, 
Mr. Chairman; and second, it had nothing to do with what is 
another line from Watergate, which is ``plausible 
deniability.'' I don't have any of that. I take responsibility 
for everything my office does.
    Mr. Burton. Let me just read to you exactly what Mr. 
Woodward said that you said. He said, ``If called to testify 
someday at such an inquiry, Ruff said he knows just what to do, 
just what to do, quote, `I'd say, gee, I just don't remember 
what happened back then, and they won't be able to indict me 
for perjury,' and that `maybe that's the principal thing that 
I've learned in 4 years. I just intend to rely on that failure 
of memory.' ''
    And I want you to know that maybe you didn't mean that, Mr. 
Ruff, but when you look at all the things we're talking about 
here today, it certainly sounds like you took that to heart.
    And with that, I would be happy to yield----
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.098
    
    [GRAPHIC] [TIFF OMITTED] T5405.099
    
    [GRAPHIC] [TIFF OMITTED] T5405.100
    
    [GRAPHIC] [TIFF OMITTED] T5405.101
    
    Mr. Ruff. Mr. Chairman, I think we probably all--those in 
this room and elsewhere--have made comments to the press that 
were perhaps facetious when made and came back to haunt one.
    But I will tell you this: Whatever I said in that moment to 
Bob Woodward--and I said it on the record, knowing that he was 
going to print it, it has nothing to do, nothing to do with my 
role as Counsel to the President of the United States.
    I have told you what we've done. We did it in good faith. 
My testimony here is accurate. My testimony here is as 
responsive as I can make it to this committee's questions and 
nothing else.
    Mr. Burton. Who do you have at this time?
    Mr. Fattah.
    Mr. Waxman. Mr. Fattah, would you yield to me?
    Mr. Fattah. Let me yield to the ranking member.
    Mr. Waxman. I just want to say a couple of things for the 
record. One, I want to quote from the Washington Times, July 
3rd. ``Committee aide said, Mr. Rowley, who was the chief 
counsel of this committee, had tried to fire Mr. Bossie, but 
was overruled by Mr. Burton. They said Mr. Rowley complained 
that Mr. Bossie was trying to use the probe to `slime' the 
Democrats, while Mr. Rowley wanted to `follow where the 
evidence leads us.' ''
    Second, I want to point out that on May 8, 1997, the 
Democrats asked Mr. Burton to issue subpoenas to investigate 
congressional fund-raising on Federal properties; for example, 
the 1995 Republican House-Senate dinner invitations put a price 
tag on Federal property, and he refused to issue the subpoenas 
or investigate.
    Second, we also asked that events held by GOPAC, which is 
Speaker Gingrich's political action committee, on Federal 
property, be examined; and Mr. Burton refused to investigate.
    I want those things on the record, when we hear how this 
investigation is going to pursue wrongdoing wherever it may 
lead. You can't pursue wrongdoing that you refuse to know 
anything about.
    I thank you for yielding.
    Mr. Fattah. Thank you, Mr. Chairman.
    Let me try to delve back into this. Again, we're talking 
about the same videotapes that everyone's seen that show that 
the President didn't do anything improper or wrong or different 
than Bob Dole in his campaign? Are those the videotapes we're 
talking about?
    Mr. Ruff. Those are, I presume, the videotapes we are 
talking about.
    Mr. Fattah. So the inference and the accusation, after 
trying to, I think four or five times, state that it was a tour 
with your family in the White House, when you were telling us 
under oath that it wasn't a tour--the allegation is that 
basically you somehow knew something about the fact that these 
coffees were videotaped and that by your absence of letting 
someone know, you were purposely trying to obstruct this 
committee from ever seeing these videotapes that exonerate the 
President?
    Ms. Mills. That would appear to be the line of questioning.
    Mr. Fattah. Now, the people who have questioned you about 
this, they don't want to bring the people from the White House 
Communications Agency in, the supervisors, the people who 
control the activities of this office, who themselves did not 
know that these were the types of events that were being 
videotaped, right?
    Ms. Mills. That's correct. They indicated that they did not 
know. Indeed, Mr. Smith, when I met with him at the time, when 
we were drafting this particular memo, was not over the 
audiovisual and did not know at that time what they taped and 
what they did not tape, so he could not have communicated that 
information because he himself was not aware of it.
    Mr. Fattah. Now, you are an attorney, right?
    Ms. Mills. Yes.
    Mr. Fattah. And you don't do any videotaping yourself, do 
you? Have you videotaped any of these coffees?
    Ms. Mills. I have not.
    Mr. Fattah. That is not part of your responsibility at the 
White House?
    Ms. Mills. It is not.
    Mr. Fattah. And the people who were videotaping in the 
White House, they didn't come knock on your door--videotaping 
the coffees, they didn't come knock on your door and say we 
videotaped those coffees that everybody is talking about and 
here they are.
    Ms. Mills. That's correct. I was unaware that any of the 
coffees had been videotaped.
    Mr. Fattah. In fact, even these military officials, when 
they testified before the Senate, said they didn't know 
anything about this confusion. They are like the majority of 
the American public; they are not paying attention to this. 
They are dealing with more pressing issues of the day.
    Ms. Mills. That is my understanding of what they said.
    Mr. Fattah. So just so the record can be clear, this 
accusation is baseless, and it really stretches the credibility 
of our committee to continue this kind of assault 
unnecessarily. I think maybe we can move on to some other 
issues.
    We have covered--I was intrigued by Congressman Horn's 
questions about the transportation budget of the President on 
one of his international visits, and the allegation that 
somehow you were being unresponsive in letting us know about 
what the travel costs for that visit were.
    I just think that what it appears to me to be is that the 
committee and the Congress have made so many requests, issued 
so many subpoenas, that they really have created a situation 
where there is always going to be something that is a little 
bit late or hard to get your hands on, because it is a 
purposeful overload of a very small office in the White House, 
making, would you say, over 300 requests from this committee?
    Mr. Ruff. That is correct.
    Mr. Fattah. 1,100 or so in total. And you have six lawyers 
responding to them.
    Mr. Ruff. That's correct.
    Mr. Fattah. Now, this committee has a staff of, I guess 
there are 60 people we heard yesterday. So if we cannot keep 
track of who we are subpoenaing, and we have had our own 
problems that have been illustrated in the press, and keep 
track of what we are doing, it is possible the White House 
could be having some difficulty.
    But I want to be as clear as I can. Mr. Ruff, the questions 
of Mr. Horn about the President's trip to Southeast Asia, he 
said he had sent you a letter about that. He actually sent that 
letter to Jack Quinn.
    Mr. Ruff. I believe he said he'd sent a letter to Mr. Quinn 
and then one later to me. But I must say it is not one I'm 
aware of, and I told him I'd look into it.
    Mr. Fattah. This has to do with his concern about how much 
it costs for the President to travel?
    Mr. Ruff. I believe that's correct.
    Mr. Fattah. And this is what Jay Letterman, the guy who's 
got the show at night. He was talking about the fact of why 
people don't walk across the street from the White House and 
use the phone booth. Because it costs a lot of money to move 
the President around, right?
    Mr. Ruff. Yes.
    Mr. Fattah. Thank you very much.
    Jay Leno was his name. Thank you.
    Mr. Burton. Mr. McIntosh will be recognized for 5 minutes. 
Then we will go vote and break and we will allow our guests to 
get some lunch, as well as members of the committee, and we 
will reconvene about 10 minutes after 2 or 15 minutes after 2. 
That will give us 5 minutes for Mr. McIntosh and then 30 
minutes for lunch.
    Mr. McIntosh. Thank you, Mr. Chairman. Continuing on with 
some of the questions that we had yesterday on the WhoDB 
documents, Ms. Mills, you testified yesterday that on the 
weekend of September 18th, when you were going through the 
documents to respond to one of our early requests, that there 
were some additional lawyers who helped you review those 
documents. Were those lawyers also all members of the White 
House Counsel's Office staff, or were there lawyers outside of 
that office or outside of the White House staff?
    Ms. Mills. There were a number of people who helped and who 
volunteered to try to be of assistance. I recall speaking to 
people in the Counsel's Office at a staff meeting, asking if 
there was any way they could be helpful, I would appreciate it.
    Mr. McIntosh. Could you help me by trying to recall who 
some or all of those lawyers are?
    Ms. Mills. I'm probably not going to do a good job, so I 
don't want to try to misrepresent the record.
    Mr. McIntosh. Let me ask two things. Let me ask unanimous 
consent that we keep the record open for 5 days so that you can 
get a chance to look and talk to your colleagues and find that 
out.
    Ms. Mills. OK.
    Mr. McIntosh. Are there any that you know of today who 
helped with this?
    Ms. Mills. As I sit here, the best of my recollection--I 
have a recollection, I believe, of Wendy White having 
volunteered some of her time. Potentially, Dawn Chirwa. I just 
can't--but those are two of the people who come to my mind as I 
sit here right now.
    Mr. McIntosh. If I could ask, Mr. Chairman, for unanimous 
consent to allow the record to be open so Ms. Mills could go 
back and consult with her colleagues and try to find her best 
knowledge possible who was involved in that.
    Mr. Burton. Without objection.
    [Note.--The information referred to was requested but never 
received.]
    Mr. McIntosh. Thank you.
    Mr. Ruff, obviously I'm interested not only in the 
documents that were sent to us in your recent letter and 
which--I appreciated your candor in sending that. But all of 
the documents that were apparently set aside in a folder or 
another box as being determined to be nonresponsive, but having 
been sent to the White House Counsel's Office.
    Have we received all of the documents that were in that 
folder as having been at one point determined to be 
nonresponsive?
    Mr. Ruff. No, you haven't. Mr. Chairman, I reviewed that 
folder and determined, I believe, three--I believe three, but I 
will clarify it further once I go back and look again. One 
comes to mind, for example; it was simply a memo from a person 
asking for a pay raise. The other had to do with, I think, the 
archived records of President Clinton when he was Governor. I 
forget what the third one was.
    But there was no reference, direct or indirect, to WhoDB in 
any of those three documents. We turned over everything else, 
as I think I indicated in my letter to you, erring on the side 
of over-inclusiveness, because we surely did not want to 
suggest that there was any fine lines being drawn, given the 
concerns I expressed in my letter, that I wanted to be fully 
open and candid with you on this matter.
    Mr. McIntosh. So we have all but those three?
    Mr. Ruff. Of those folders; that's correct.
    Mr. McIntosh. Of those folders. Were any of the documents 
that were at one point sent to the White House Counsel's Office 
sent back during the last year?
    Mr. Ruff. Not to my knowledge, Mr. Chairman.
    Mr. McIntosh. Ms. Mills, to your knowledge, is that true?
    Ms. Mills. These were in a file that I transferred in 
December to another attorney who is handling the matter. It is 
my understanding that they remained in that file with that 
attorney during that entire time.
    Mr. McIntosh. During the time you had responsibility for 
the investigation, none of the documents sent to your office, 
pursuant to your request within the White House, were sent 
back? They were all kept and either determined to be 
nonresponsive or sent to the committee?
    Ms. Mills. Right. That's the best of my understanding.
    Mr. McIntosh. OK. And currently all the documents are in 
custody of the White House Counsel's Office; is that correct?
    Mr. Ruff. That's correct.
    Mr. McIntosh. Mr. Ruff, let me, I guess, say we will 
probably want to work with you--I know we will want to work 
with you as a procedure to also look at the remaining 
documents, because I think it's important that we satisfy 
ourselves, given what we've seen so far.
    Mr. Ruff. I understand that concern, and we will be glad to 
work with your staff.
    Mr. McIntosh. The other question that I want to ask at this 
point is, have you satisfied yourself that there are no 
documents in the White House about--that your process has been 
thorough enough that you have received all the documents that 
may be responsive to our requests?
    Mr. Ruff. I believe that's the case, Mr. McIntosh.
    Let me do this, which I will commit to do at your staff's 
convenience: I will need to talk through with Ms. Paxton 
whether there are any remaining issues, because she is in the 
process of trying to respond to one of your earlier letters, 
and I will be able to make that representation to you once I 
have had that further detailed conversation.
    Mr. McIntosh. The other thing that would be helpful is, for 
a while there was no document log kept; and I think you have 
changed the procedure on that, to do it. We will need to have 
that, to the best of the ability of those involved, go back and 
try to recreate some of that.
    And I understand that's a resource question. Given the 
difficulty we're having, I think that would be important.
    Mr. Ruff. It is, I'm afraid, not just a resource question; 
it is a question of people, just because most of it was done in 
1996 and before, who are no longer around and it may be very 
difficult.
    We will do our best to try to respond. Particularly if you 
have a particular document or set of documents that you have a 
question about, we will do our best to try to reconstruct it. 
But I am told that it's a very difficult process just because 
the people are not there anymore.
    Mr. McIntosh. And the final----
    Mr. Burton. The gentleman's time has expired.
    Mr. McIntosh. I ask unanimous consent for 10 more seconds.
    Mr. Burton. All right.
    Mr. McIntosh. The White House data base, I understand, is 
continuing to be used and has a legitimate function, but the 
audit trail has never been engaged, and we need you to engage 
that audit trail. And that's a computer function that needs to 
be switched on. It was built into it, but never turned on.
    Mr. Ruff. You have now gone well past my understanding of 
what's in the computer, but we will be happy to talk to staff 
about what's possible and be as responsive as we can.
    Mr. McIntosh. Thank you.
    Mr. Burton. The gentleman's time has expired. The committee 
will stand in recess until 2:20.
    Mr. Burton. The committee will come to order. What we have 
decided to do to help expedite things is, Mr. Bennett will go 
ahead and start his last round of questioning and then when 
Members come back, we may interrupt him so that they can have 
their questioning. That way, we will not have to impose on your 
time any more than is absolutely necessary.
    Mr. Bennett.
    Mr. Bennett. Thank you, Mr. Chairman.
    Mr. Breuer, Mr. Nionakis, I compliment you on your 
patience. You were both here all day yesterday. And, Mr. 
Nionakis, you must be exhausted after all your testimony thus 
far. For the record, I believe you are represented by Mr. Neil 
Eggleston of the law firm of Howrey & Simon, Mr. Eggleston?
    Mr. Nionakis. That is correct.
    Mr. Bennett. And Mr. Breuer, you're represented by Mr. Mark 
Lynch of the firm of Covington & Burling; is that correct?
    Mr. Breuer. That's correct, Mr. Bennett.
    As you know, I had been hopeful that the White House 
Counsel would be able to represent the various people in the 
office, as has been in other fora. This committee chose not to 
permit that to take place, and so we have endeavored to get 
representation for the various lawyers, given that they are 
going to have to be deposed and appear in various hearings.
    Mr. Bennett. Certainly. Mr. Lynch and Mr. Eggleston, 
welcome. Nice to see you here. We will move along, and to the 
extent any Members want to come in, I will stop and interrupt 
my questioning.
    Mr. Breuer, you, in fact began your employment in the White 
House Counsel's Office in February of this year; is that 
correct?
    Mr. Breuer. That's correct, Mr. Bennett, I did.
    Mr. Bennett. And, Mr. Nionakis, you began your employment 
in March of this year?
    Mr. Burton. Would you pull the mic a little bit closer so 
we can pick you up?
    Mr. Bennett. Mr. Nionakis, you began your employment when, 
sir?
    Mr. Nionakis. In the beginning of March 1997.
    Mr. Bennett. And Mr. Breuer, you had extensive experience 
with respect to the area of law known as white collar criminal 
defense practice; isn't that correct?
    Mr. Breuer. Fairly extensive, that's correct, yes.
    Mr. Bennett. I think you need to pull the microphone a 
little closer to you again.
    Mr. Breuer. I keep changing it because every time I move 
it, the camera people ask me to move it back. But I will move 
it toward me.
    Mr. Bennett. Certainly defer to the camera people over me, 
sir.
    And in terms of your private practice background, you have 
had considerable experience with respect to compliance with 
grand jury subpoenas for individual clients and corporations; 
is that correct?
    Mr. Breuer. I did have a fair degree, yes.
    Mr. Bennett. And what percentage of your practice would 
have been based in that area of the law, sir?
    Mr. Breuer. As you know, Mr. Bennett, I said in my 
deposition it is somewhat difficult to give you a percentage of 
the different types. During my 7\1/2\ years at Covington & 
Burling, more or less of my time would be spent on criminal 
work, but a significant amount. I don't think I can do better 
than that.
    Mr. Bennett. Mr. Nionakis, have you had any experience with 
respect to white collar criminal practice and/or grand jury 
subpoena compliance?
    Mr. Nionakis. Yes, I have.
    Mr. Bennett. And what was the nature of your experience in 
private practice?
    Mr. Nionakis. As an associate in a downtown law firm here 
in DC, I--a portion of my practice was working on white collar 
matters.
    Mr. Bennett. And I gather with respect with your precise 
role, Mr. Breuer, I think you've indicated that you were in 
fact--or I think Mr. Ruff has indicated you were in fact hired 
specifically to handle the various investigations currently 
being handled by the White House Counsel's Office; isn't that 
correct?
    Mr. Breuer. That's correct, under Mr. Ruff.
    Mr. Bennett. And that is your primary task, to handle all 
those matters?
    Mr. Breuer. It is to the handle a good number of the 
investigatory matters that face the White House. That is 
correct.
    Mr. Bennett. And that would include the Senate, the House, 
as well as the Department of Justice or any Independent Counsel 
who have been appointed?
    Mr. Breuer. That is correct for the most part, yes.
    Mr. Bennett. Mr. Nionakis, what would have been the extent 
of your particular assignments since March?
    Mr. Nionakis. Excuse me, with respect to?
    Mr. Bennett. In terms of, are you assigned on the side of 
the office Mr. Ruff addressed that deals with judicial 
appointments, are you assigned to the side of the office 
dealing with investigations?
    Mr. Nionakis. I do mostly investigations.
    Mr. Bennett. And what percentage of your time is spent on 
the investigations?
    Mr. Nionakis. Since I have begun at the White House, 
virtually all of my time.
    Mr. Bennett. And Mr. Breuer, essentially--correct me if I 
am wrong--I believe I asked Ms. Mills yesterday, as of February 
or March of this year, essentially an entirely new team of 
lawyers came on board with the exception of Ms. Mills and Mr. 
Bruce Lindsey. Is that basically correct?
    Mr. Breuer. That's essentially correct. That's right. There 
are some lawyers, who still have stayed on, that had various 
responsibilities, but for the most part there was a new team.
    Mr. Bennett. And Ms. Mills, I think you have previously 
indicated, particularly played a key role in orienting the new 
team with respect to document compliance, is that correct, Mr. 
Breuer?
    Mr. Breuer. I'm sorry; I thought that was directed to Ms. 
Mills.
    Ms. Mills has been very willing and extremely helpful in 
providing information to the team. That is correct.
    Mr. Bennett. Mr. Nionakis, were Ms. Mills and Mr. Lindsey 
both helpful to you also with respect to your initial work 
assignments?
    Mr. Nionakis. I would say that is true with respect to Ms. 
Mills, yes.
    Mr. Bennett. In fact, one of the first assignments both of 
you worked on upon coming to the White House Counsel's Office 
was with respect to the compliance with this committee's 
subpoena of March 4, 1997; isn't that correct?
    Mr. Breuer. That's correct. This committee's subpoena of 
March 4, among others, was of central importance and something 
we did in fact work on soon after I joined the White House.
    Mr. Bennett. And I gather, with respect to document 
production, that Ms. Mills has continued to play some role and 
assist you and the members of your team in compliance with 
document production, is that correct, Mr. Breuer?
    Mr. Breuer. She has certainly played--as the Deputy White 
House Counsel, she has definitely played a role; that's 
correct.
    Mr. Bennett. Now, you have both patiently sat through a 
great deal of testimony, and I'm not going to go through the 
matter of the March 4, 1977, subpoena--1997 subpoena or Mr. 
Ruff's directive of April 28th of this year.
    And I think that Mr. Breuer, with respect to--your 
testimony with respect to the videotapes is a matter of public 
record, so I will again try not to have you repeat that for 
purposes of time.
    But, Mr. Nionakis, you did not testify before the Senate, 
did you, sir?
    Mr. Nionakis. I did not. That's correct.
    Mr. Bennett. And exactly when did you become aware of the 
fact that there was an inquiry with respect to videotaping at 
the White House?
    Mr. Nionakis. It would have been sometime prior to October 
2nd, but sometime after the Senate committee staff member had 
made the inquiry to Mr. Imbroscio in the Counsel's Office.
    Mr. Bennett. And what was the nature of the inquiry from 
the committee staff member from the Senate?
    Mr. Nionakis. Well, the way it was conveyed to me was that 
the subcommittee staff member had inquired about the possible 
existence of clandestine audiotapings in the Oval Office.
    Mr. Bennett. Did that seem somewhat bizarre to you?
    Mr. Nionakis. ``Bizarre'' probably isn't the word I'd use; 
but ``odd,'' I would say.
    Mr. Bennett. And given what you determined would be an odd 
inquiry, exactly with whom did you speak about possible 
clandestine taping at the White House?
    Mr. Nionakis. I only had one conversation and that was with 
Mr. Imbroscio when he conveyed the substance of that 
conversation that he had had with a Senate subcommittee staff 
member.
    Mr. Bennett. You did speak with Mr. Imbroscio about this?
    Mr. Nionakis. He conveyed to me the conversation that he 
had had with the person on the Senate committee.
    Mr. Bennett. Yes, Mr. Chairman?
    Mr. Burton. Mr. Cox has another appointment, and I promised 
him when he came back that we would give him 5 minutes.
    Mr. Bennett. Absolutely, sir.
    Mr. Burton. So could you suspend?
    Mr. Bennett. Absolutely, sir.
    Mr. Burton. Keep track of the time down there, will you 
please?
    Mr. Cox.
    Mr. Cox. You've very kind, and I thank you for yielding, 
and I thank the chairman.
    If I might, Mr. Breuer, ask you, in the Counsel's Office, 
whom do you report to?
    Mr. Breuer. I report to Mr. Ruff, Congressman.
    Mr. Cox. And on Teamsters matters, whom do you report to?
    Mr. Breuer. On Teamsters matters, I inform Ms. Mills about 
the matters. I'm not sure to what degree, if any, Mr. Ruff 
follows it, but there have been----
    Mr. Cox. Would it be fair then to say that you report to 
Ms. Mills on Teamsters matters?
    Mr. Breuer. No, I don't think it would be fair to say that 
I report to her.
    Mr. Cox. You report to somebody else?
    Mr. Breuer. I don't think with respect to the particular 
matter of the Teamsters that I really think in terms of 
reporting to someone.
    Mr. Cox. Are you sort of--you are as far as it goes in the 
White House?
    Mr. Breuer. No, I don't think I'm as far as it goes. I 
think on a general matter, various people in the White House 
Counsel's Office are aware of what we're doing. I think Ms. 
Mills may be aware. Frankly, I'm not positive.
    Mr. Cox. Now, the Counsel to the President in other matters 
reports to the President, of course. He is an Assistant to the 
President. Since he has got to recuse himself because he has 
represented the Teamsters, in Teamsters matters do you report 
to the President?
    Mr. Breuer. Well, Congressman, I----
    Mr. Cox. Have you ever reported to the President on the 
Teamsters matters?
    Mr. Breuer. Without really going into the substance of what 
requests have been made, there have been a limited number of 
requests that have, in fact, been made by various committees 
and others about Teamsters matters. And with respect to those, 
they have been document requests and we have simply fulfilled 
those requests by identifying the relevant documents and 
producing them.
    Mr. Cox. So it's safe to say there is not an independent 
White House investigation of any of this?
    Mr. Breuer. None that I'm aware of, that's correct, 
Congressman.
    Mr. Cox. Mr. Ruff, you recused yourself on what date?
    Mr. Ruff. I don't recall. I think the first occasion on 
which--whenever it was, on which allegations began to surface 
about possible links between the fund-raising inquiry and the 
Carey re-election, I indicated to my staff that I really didn't 
want to participate in those matters because I had represented 
the union, not in connection with anything that was involved in 
these matters, but in 1994. I just thought it better that I not 
have any substantive role in the process.
    Mr. Cox. Now, you told me that you didn't write any kind of 
recusal letter.
    Mr. Ruff. That's correct.
    Mr. Cox. Is there anything memorializing your recusal, even 
a memo to the file?
    Mr. Ruff. No, there is not. This is not a matter in which 
there was any conflict of interest, Congressman. I simply 
thought it better, given my former representation, that the 
rest of my staff deal with any document requests that arose in 
this connection.
    Mr. Cox. Why is there not a conflict of interest?
    Mr. Ruff. Because I didn't represent the Teamsters Union in 
any matters that to my knowledge are at issue in the ongoing 
inquiries.
    Mr. Cox. There is litigation right now, is there not, by 
union members against the Teamsters to determine what the 
$152,000 that you spent to hire Jack Palladino----
    Mr. Ruff. There was litigation on that subject but that is 
not the subject, to my knowledge, of any inquiries that have 
been made of the White House. In any event, that was not the 
triggering event. I simply believed that in light of my 
representation of the union, it would not be appropriate----
    Mr. Cox. It seems to me that the Counsel's Office is 
supposed to be concerned about making sure the President avoids 
even the appearance of impropriety. And for to you say there is 
no conflict, when you were representing Teamsters management in 
1994, when there is litigation pending about that right now, 
you were representing Teamsters management precisely because 
there were allegations about Mafia ties and so on, and your job 
was to make sure that all those allegations were dispersed, I 
think that is a serious conflict.
    Right now allegations are that there was money laundering 
between the Teamsters and the campaign, the Clinton/Gore 
campaign, and the DNC. I think it is quite proper for to you 
recuse yourself.
    Mr. Ruff. Congressman, as I've said, I did. We might 
disagree on whether there was a conflict within the meaning of 
the rules of professional conduct, but the fact is that I have 
not played any role in responding to Teamsters-related 
inquiries.
    Mr. Cox. Now, when you were representing the Teamsters, 
were you a partner at Covington & Burling? In fact, the 
Teamsters hired the firm, right?
    Mr. Ruff. That is correct.
    Mr. Cox. Now, you have turned over the Teamsters matters to 
Mr. Breuer. Was Mr. Breuer a partner at Covington & Burling 
also?
    Mr. Ruff. No, he wasn't. Not during the time involved.
    Mr. Cox. But was he a partner at Covington & Burling?
    Mr. Ruff. Just in the year or so before he came to the work 
in the White House.
    Mr. Cox. And before that he was an associate at Covington & 
Burling?
    Mr. Ruff. That's correct.
    Mr. Cox. Mr. Breuer, how long did you work at Covington & 
Burling?
    Mr. Breuer. Since 1989. I'd like to make a point if I----
    Mr. Cox. Why is it that you were picked to be the guy to 
resolve the conflict that Mr. Ruff had because he worked at 
Covington & Burling? If you are trying to avoid the appearance 
of impropriety, wouldn't almost anybody else be a better 
choice?
    Mr. Breuer. Well, I don't think I ought to be the person to 
discuss why certain decisions that I don't make are made. But I 
want to----
    Mr. Cox. Well, you accepted the position to be in charge of 
the Teamsters----
    Mr. Breuer. Congressman, I just want to answer your 
question about one point that I think is important. When we 
talk about Teamsters inquiries you have to understand, as we 
get from this committee and others, we simply get requests and 
it is not always obvious to know why we get requests.
    For instance, the kind of request we may get is for WAVES 
records, the amount of time that someone actually comes to the 
White House, a certain individual. That individual may or may 
not be involved in, as you described it, Congressman, a 
Teamster inquiry. But all that we are doing in that function is 
literally getting the documentation to establish how often a 
particular individual came to the White House, and that may be 
related to Teamsters or it may not. We are not always clear to 
know if it's Teamsters related or not.
    Mr. Cox. Innocuous requests, of course, pose no problem. 
But it seems to me that, first of all, if there is no written 
recusal there is probably no notice to anybody else in the 
White House that it would be improper for them to contact you, 
Mr. Ruff, about Teamsters matters. How are they to know that 
they're not supposed to contact you?
    Mr. Ruff. No one has ever contacted me. If anyone began to 
have such a conversation with me, I would refer them to Mr. 
Breuer or Ms. Mills.
    Mr. Cox. Don't you think it would be more advisable for to 
you do a written recusal?
    Mr. Ruff. A written recusal is perfectly appropriate under 
the circumstances. I don't believe it's necessary. And I 
believe that there has been no hint or suggestion of any sort 
that I've played any role in connection with Teamsters matters 
while I have been at the White House, despite occasional press 
speculation on the contrary.
    Mr. Cox. My concern--and I don't wish in any way to 
question your scruples on this. I think it is quite appropriate 
that you have recused yourself. My concern is that there is not 
anybody in charge of these investigations in the White House in 
any way that--I mean, Mr. Breuer is not reporting to anyone 
except occasionally Ms. Mills, but not really, he said. You're 
the last person in charge of this.
    I just compare it to the Iran-Contra matter where the 
President issued an Executive order, brought in the Tower 
Commission, did all of the document discovery because the White 
House wanted to get to the bottom of this before Congress 
forced them to. And that is how 250,000 documents were sent up 
here, and why at end of the investigation the Democratic 
chairman and various chairmen said, ``Congratulations on 
producing all of these things that we asked for.''
    Here, we are not uncovering the documents that we should be 
uncovering. I see that my time has expired and I apologize for 
running over. But I think as an oversight committee our concern 
is that----
    Mr. Waxman. Mr. Chairman, he has run over, and it seems to 
be only fair to give us a chance over here on this side.
    Mr. Burton. I most certainly will. The Chair wants to be 
fair.
    Mr. Cox. I yield back.
    Mr. Burton. Mr. Cox, if you choose we can have another 
round and you can get back to this.
    Mr. Waxman. Mr. Chairman, I'm seeking recognition.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. First of all, Mr. Ruff let me tell you I have 
to apologize to you, to have you come here and have to be 
abused in the rudest possible way. Now, the idea that you don't 
have a recusal in writing is nonsense, because if you claim you 
are recusing yourself, you are recusing yourself. There is no 
requirement that it be in writing.
    No one asked Senator Lott, when he recused himself in the 
tobacco issue because his brother-in-law is a lawyer 
representing some of the parties in that negotiation, whether 
he had it in writing. We trust his judgment, if he says he is 
recusing himself, to recuse himself.
    I just think that Mr. Cox has been quite out of line in the 
questions that he has asked and I want to state that publicly. 
And I just think that at some point--it's like we're not going 
to leave a stone unturned; we're going to turn it over and 
we're going to turn it over and we're going to turn it over and 
we're going to turn it over again.
    You have all answered the questions that have been asked by 
members continuously. I hope C-SPAN, if C-SPAN is covering 
this, would just pan how many Members are sitting here. Members 
are not sitting here, they leave, they are doing other things, 
and then they walk in and ask you the exact same questions that 
the other Members asked.
    So you have answered the same questions over and over 
again, and that has been just today. And then you did it 
yesterday, and then you did it in the Senate, and then you all 
did it in depositions. And we are all paying your salary 
because we're all taxpayers. Now it seems to me is that at some 
point this gets to be a little ridiculous.
    What is happening, of course, is that you're being asked 
these questions and being attacked so that the press will write 
it in the newspapers. Now they don't make a judgment as to what 
is accurate or not. They say things like ``GOP accuses White 
House of stonewalling,'' ``Republicans accuse White House 
counsel of not turning over documents,'' or whatever. And they 
don't even have to have evidence sometimes for these kinds of 
accusation that are made--when they are made.
    As I said when we started this hearing, our chairman said 
that the tapes were altered and he's yet to explain to us any 
evidence that would lead him to that conclusion. But it's like 
Members of Congress don't need any evidence to make an 
accusation, and we're never subject to any lawsuits because the 
Constitution gives us immunity from any defamation, unlike 
other Americans who have to watch what they say for fear that 
they may be sued.
    Now, are we under the 5-minute rule?
    Let me--some in this committee have raised questions about 
the Hudson casino document. Mr. Ruff, can you explain that 
issue to me and what the disagreement is all about?
    Mr. Ruff. I will try to do it in something approaching 
shorthand, Congressman Waxman.
    There has been for some time now litigation against the 
United States in Wisconsin dealing with the question of 
approval by the Interior Department, or the disapproval, of a 
casino on Indian reservation land. As part of the discovery 
process in that litigation, documents were sought from the 
White House.
    At the same time as we were searching for those documents, 
represented in that process by the Department of Justice--since 
we were not parties to the litigation, they were representing 
the United States, and they were representing our interest as 
the subject of discovery in the search for those documents--we 
produced some 300-plus documents which were turned over to this 
committee in mid-September. Some 9 documents, I believe, were 
listed on a privilege log prepared with the advice and guidance 
of the Department of Justice and filed with the court in 
Wisconsin in response to the document request. Also, a copy of 
that log was provided to the committee.
    The privilege assertions on that log, reflected as well in 
the privilege claims raised but never formally asserted before 
this committee, were essentially claims having to do with the 
protection of the confidentiality of White House 
communications.
    This committee has had since mid-September, as I said, the 
330 or so documents produced to the plaintiffs. In addition, 
since October 21st the committee has had all of the documents 
as to which we have stated that there are issues of privilege.
    Mr. Waxman. So we have these documents?
    Mr. Ruff. You do have them, and they----
    Mr. Waxman. They were not withheld from this committee. No 
privilege was asserted over these documents, not executive 
privilege, not attorney-client privilege, not deliberative 
process privilege?
    Mr. Ruff. No. Pursuant to the understanding we have with 
the committee which has worked well over the last several 
months, where we have privilege issues which we believe are 
raised by some of the documents, we turn them over to the 
committee for the committee's use, and that's what's happened 
here. There was an exchange of correspondence between me and 
the chairman back in June.
    Mr. Waxman. So that correspondence we have?
    Mr. Ruff. Yes.
    Mr. Waxman. I see my yellow light and my time is going to 
be up and I don't want to abuse the time as some Members do on 
this committee. I just want to say this: You recused yourself 
on some issue where you have a conflict of interest. Tomorrow's 
headline could say, ``Ruff Claims Conflict of Interest,'' and 
they will never quite explain what is going on. Just like we 
will never see a headline explaining, ``Tapes Were Never 
Altered,'' when we finally get everybody to admit that, 
although not everybody will admit that either.
    And I must say I am sorry Mr. Cox was not here. He was in 
your position at the White House. I don't know if it was the 
Reagan White House or the Bush White House. I don't know if he 
was there when Reagan was making fund-raising appeals or 
meeting with contributors or if he had any role in that, and I 
don't know if he was there when Bush was trying to cover up 
Iran-Contra. But for somebody who had that position to come and 
throw these grenades at you, I'm just outraged. I think it is 
completely out of line to take the scantiest information and 
try to blow it up into something when there is nothing there. 
My red light is on, I yield back the balance of my time.
    Mr. Burton. Before I yield to Mr. Barr, yesterday, we 
dedicated with a great deal of fanfare the President Bush 
Library, and President Clinton even attended and I don't 
believe anybody, to my knowledge, has ever accused President 
Bush of any kind of a cover-up or wrongdoing of that type, and 
I am disappointed that my colleague did.
    I also want to say briefly that we sent a subpoena in March 
to Mr. Ruff. In June, after the subpoena had expired, he sent a 
letter saying that we had received everything to the best of 
his knowledge that we requested. We have since then received 12 
boxes of additional documents. They said they didn't know 
anything about the videotapes until October. Ms. Mills was in 
videotapes. She had memos about videotapes. She had a memo 
about a document pertaining to the WHoDB system in a file that 
she kept for 13 months.
    I mean for my colleagues on the other side to try to infer 
that this exercise is just duplication and waste just goes 
beyond reason. And I just want my colleague to know that we're 
not trying to get headlines. We're not trying to get anything 
except at the truth.
    Mr. Barr.
    Mr. Waxman. Will the gentleman yield?
    Mr. Breuer. Mr. Chairman, may I respond to your comment?
    Mr. Burton. Mr. Barr is recognized.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Waxman. Thank you, Mr. Chairman, for your lack of 
courtesy.
    Mr. Barr. We hear that the ranking minority member is 
outraged that a Member on this side asked a question about 
recusal. Well, let me explain to the outraged Member that here, 
again, process does matter. The folks on the other side don't 
seem to feel that process matters at all.
    Those of us who believe in some semblance of the rule of 
law believe that it does. When I served as U.S. Attorney 
recusal did matter. You want to avoid even the appearance of 
any impropriety. And if matters came before my office in which 
I might have, because of prior association, had even a passing 
interest, knowledge, or familiarity with those things, then I 
felt duty bound do recuse myself. Not because of the substance, 
but because of the process and because it was important in the 
Reagan and Bush Departments of Justice to avoid the appearance 
of any impropriety.
    So the fact that process does matter, that there are such 
things as formal recusals that are required in certain 
administrations to avoid that appearance may outrage the 
ranking member. So what. Process does matter to the many of us 
on this side of the aisle, and I suspect that deep down, it 
does matter to Mr. Ruff, whom I've known for many, many, many 
years.
    Let me turn to process again. With regard to the Hudson Dog 
Track Indian gambling matter that we have begun to touch on 
here, Mr. Breuer, are you familiar with the various subpoenas 
that have been served on the White House regarding production 
of documents for this committee?
    Mr. Breuer. Congressman Barr, in general, I am aware of the 
various subpoenas that we have received.
    Mr. Barr. OK. Are you aware of any of those subpoenas, 
including but not limited to those that relate to the Hudson 
Indian gambling matter, that have either a footnote or contain 
a limitation in the body of those subpoenas that say: This 
subpoena does not extend to documents that may be of a kind 
that are not different from those that we have already gotten?
    Mr. Breuer. Congressman, I'm not----
    Mr. Barr. Are you familiar with any language to that effect 
in any of the subpoenas that have been served on the White 
House by either the Senate or House committees? Yes or no?
    Mr. Breuer. I'll have to check. I'm not--the language that 
you're saying----
    Mr. Barr. That's very disingenuous. You know as well as I 
do that no such language is ever contained in a subpoena from 
the Congress.
    Mr. Breuer. Congressman, I'd like to say first----
    Mr. Barr. And the reason that I ask you that question----
    Mr. Breuer. Congressman, if I may. You've just called me 
disingenuous.
    Mr. Barr. No, you may not. Let me finish.
    Mr. Fattah. Could the chairman allow the witness to answer 
the question?
    Mr. Barr. I'm controlling the time, not the gentleman from 
Pennsylvania. The reason I ask you that question Mr. Breuer, is 
very simple----
    Mr. Fattah. Parliamentary inquiry, Mr. Chairman.
    Mr. Burton. What's your parliamentary inquiry?
    Mr. Barr. In your deposition, Mr. Breuer----
    Mr. Burton. Just 1 second.
    Mr. Fattah. Is it the practice of the committee that we 
allow witnesses to answer a question that has been asked to 
them?
    Mr. Burton. It is the practice of the committee, and Mr. 
Barr is trying, I think, to get to the end of the question and 
we will allow the witness to answer the question.
    Mr. Barr. The reason that I ask you this question, Mr. 
Breuer, is because in your deposition, in response to questions 
about why additional documents on this matter had not been 
provided, you said as a reason for further delays and not 
providing the information that, quote, It is not at all clear 
to me that the documents in front of me here represent 
information of a kind so different than the 330, the 340 pages 
of materials that you previously received on this issue, closed 
quote.
    And my point is that that is not the basis, and never has 
been the basis for not supplying information pursuant to a 
lawful subpoena from this Congress. You know that as well as I 
do that language does not appear on any subpoena.
    So that's my point. And you know that that language does 
not appear on any subpoenas. That is not an excuse for not 
providing information, is it?
    Mr. Breuer. Congressman, may I respond? First, I would like 
to take exception. The chief counsel of the majority has gone 
out of his way to say, in the very deposition you are quoting, 
that he believed I have been nothing but forthright and 
complete in all of my questions.
    Mr. Barr. I haven't presumed otherwise.
    Mr. Breuer. Indeed, the chairman of the committee has said 
much of the same. So on a personal note, Congressman, we don't 
know one another, but I assure you I am not being disingenuous. 
As a second point, Congressman, I----
    Mr. Barr. No, I think you are because you know as well as I 
do----
    Mr. Breuer. And as you are doing now, Congressman, I was 
unable to complete my answer----
    Mr. Barr. That--Mr. Breuer, I am finished on that 
particular point. I am not interested in pursuing that further.
    Mr. Breuer. Obviously.
    Mr. Barr. I think it is a very disingenuous response.
    Mr. Breuer. I was not able to finish my answer, and indeed, 
Congressman, I don't believe you are fairly characterizing my 
deposition testimony as well.
    Mr. Barr. Life is tough, Mr. Breuer. Life is tough.
    Mr. Breuer. I am sure that my deposition testimony will be 
taken as a whole in the record.
    Mr. Barr. Oh, I'm sure.
    If I could, turning now back to this Indian matter, we have 
touched on it briefly. What is the basis, Mr. Ruff, a number of 
documents, including one EOP 069092, which you discussed with 
the chairman Wednesday night, which is a notation, a 
handwritten notation from the President to Mr. Panetta 
inquiring about the Indian tribal deal. He asked what the 
status of that is. That is one document for which you have 
asserted some form of privilege so that it is not made 
available to us in a way that can be made public so the 
American people can see it.
    There have been several other documents, as you are well 
aware of, that fit into the category in the subpoenas that have 
been served with regard to the Indian gambling matter, the 
Hudson Dog Track matter. What is the basis for asserting 
executive privilege, particularly in light of the fact that we 
have very recent case law, and I cite you to the case of In re 
Sealed Case, 121 F 3rd 729, decided by the DC Circuit just a 
few months ago in June, that I think makes very clear that 
there continue to be limitations on the assertion of executive 
privilege. That particularly where there is evidence to believe 
that misconduct may have occurred in this case, very clear 
evidence that a decision by the BIA and the Department of the 
Interior stemming from a meeting at which President Clinton was 
present, may have been influenced by moneys. What is the basis 
for the assertion of executive privilege with regard to these 
types of documents?
    Mr. Ruff. Congressman Barr, I think probably of all the 
members of in committee you may be in the best place to 
appreciate the circumstances surrounding the production of 
these documents.
    As you know, these documents were initially the subject of 
discovery requests from a private plaintiff. And the assertions 
of privilege here were initially contained in privilege claims 
asserted vis-a-vis those private plaintiffs. The goal, as you 
will fully appreciate, is to make available to the plaintiffs 
as much as possible those documents which are relevant to their 
lawsuit, but to protect the confidentiality interests of the 
Executive Office of the President.
    That's what was done in this case with the full cooperation 
and advice of the Department of Justice, who is representing 
through the U.S. Attorneys Office in Madison, the interests of 
the White House in this matter.
    So that what has occurred here is that six or seven 
documents were treated as privileged vis-a-vis those private 
plaintiffs who are seeking them in this discovery. They were 
all turned over to this committee, as you know. And so the 
question you raise is in essence should this committee be able 
to make public documents which are the subject of private 
litigation and in which the private plaintiffs do not have a 
right of access unless they can convince a judge or convince us 
as a matter of discretion that they ought to be released?
    So this is not a setting in which this committee has been 
deprived in any way of the opportunity to study these 
documents. They have been fully available to you now for some 2 
weeks and they will continue to be available to you hereafter.
    With respect to the specific document you question, I would 
note only this: First of all, the mere allegation of 
impropriety cannot be taken to wipe out the legitimate 
confidentiality concerns of the White House, particularly with 
respect to this document. As you're fully aware, it was 
prepared some year or more after the decision in the Hudson 
Casino matter had been made, and is simply a retrospective 
discussion of the circumstances surrounding the litigation.
    When communications are made to the President of the United 
States, or he asks questions about a particular matter, that 
goes, obviously, presumptively to the very heart of the 
Presidential communications which are the subject of In re 
Sealed Case. Far from that opinion being a voice for 
restricting the extent to which privileges can be claimed, that 
opinion is a ringing endorsement of the breadth, albeit 
exercised with discretion, of the Presidential communications 
privilege.
    And I suggest to you that we have accommodated this 
committee pursuant to my understanding and agreement with the 
chairman, to the maximum extent that could ever be contemplated 
in a setting in which the confidentiality interests of the 
President of the United States are implicated because you have 
the documents, as does every member of this committee, and may 
use them for every purpose in taking depositions, in analyzing 
the particular substance of the matter at issue. All we ask is 
because they are not being made public in connection with the 
litigation, that they not be made public here.
    Mr. Burton. The gentleman's time has expired. Let me just 
say we did have a meeting last Wednesday with the President's 
counsel, Mr. Ruff and Mr. Breuer. The question was at that 
time--and my legal counsel concurred--the question was that 
they didn't have enough time to review and make the case that 
executive privilege was necessary. And because of the 
sensitivity of the documents, we decided to give them a little 
bit more time to make their case.
    That's not to say that at some point, if we don't feel the 
case is made, that we won't release the documents. And so, Mr. 
Ruff, and I and Mr. Bennett and Mr. Breuer and others will be 
discussing this and debating it and at some point they may very 
well be made public.
    Mr. Ruff. Your description of our understanding is exactly 
correct, Mr. Chairman. We look forward to further discussions 
on this subject.
    Mr. Burton. I think both Mr. Fattah has had two rounds of 
questioning and so has Mr. Waxman. Did Mr. Shadegg want a 
second round of questioning? Mr. Mica you want to go first?
    Mr. Fattah. Wait a minute, Mr. Chairman, excuse me. 
Parliamentary inquiry. Isn't it the rule of the committee that 
it is 5 minutes on that side and 5 minutes on our side?
    Mr. Burton. It is as long as we have Members on both sides 
that--but we've had two rounds. We are going by rounds.
    Mr. Waxman. I don't think Mr. Fattah has had two.
    Mr. Fattah. I would insist that there be a ruling by the 
Parliamentarian on this matter. We are entitled to equal time.
    Mr. Burton. We will check. Just 1 second. I stand 
corrected. You have had but one round. You're next. Mr. Fattah.
    Mr. Fattah. Let me pursue my parliamentary inquiry first. 
Is it not true, even if I had had a second round, that we are 
entitled to 5 minutes for every 5 minutes that the majority 
has?
    Mr. Burton. The Parliamentarian informs me that you have to 
extinguish the round for all Members before you go back, even 
if there is fewer minority or majority Members in attendance. 
So if we had two majority Members and you had six minority 
Members here, we would go ahead and proceed after a round until 
that round was completed.
    Mr. Fattah. Thank you, Mr. Chairman.
    This issue of ethics in Government is one that has got a 
lot of attention, especially here on the Hill, because we have 
had our own share of problems. We had a member of the 
Republican leadership, at least as reported in the press that, 
had a logbook of contributions by various lobbyists and would 
direct them when they came into the office to, you know, look 
at where they stood in relative conformity to Republican 
giving.
    And we had, as I was mentioning earlier, the Speaker of the 
House, who was defended enthusiastically by Members on this 
committee, even though he had misled the Ethics Committee, 
because it was stated that he had no intent to. And we have 
seen the selective investigative techniques of our committee.
    I mean, we have had plenty of examples of foreign money in 
the 1996 elections that we have neglected to look at. We had a 
foreign arms dealer who donated thousands of dollars to the 
Speaker's campaign. We had a circumstance in Florida where the 
Florida Republican party was sanctioned by the court in a fine 
of significant dollars because of a gentleman of--a foreigner 
who had contributed hundreds of thousands of dollars. And we 
have had, as I was interested in discussing earlier, the Haley 
Barbour trip in which he went over--first of all, created 
something called the National Policy Forum. In the documents 
that established the framework for creating this entity, it was 
said to be established so that they could attract foreign 
money. He then went in, asked for, and received some $2 
million. And as the chairman mentioned earlier, the Young 
brothers' front corporation was the vehicle under which this 
money eventually made its way back and was focused in on the 
election of Republicans to the Congress.
    And just a few days ago we had the circumstance in New York 
in which there was a contested election, and it was widely 
publicized that the Home Builders PAC and the Realtors PAC were 
both informed by the Republican leadership that if they had 
contributed to the Democratic candidate as their local 
membership wanted them to contribute, they would be effectively 
left out of the debate here on matters that might have been of 
importance to them.
    So the reason why I assume the Congress is so interested in 
ethics is that we have our own burdens to bear. I was reading 
this new book that was written on the subject, a book entitled 
``The Appearance of Impropriety'' by Morgan and Reynolds and it 
goes to great length to make a very important point, and that 
is that the appearance of something being amiss does not mean 
necessarily that something is amiss. And the appearance that 
everything is fine does not mean that everything is fine.
    It starts out with the whole discussion of how con men 
operate, that the whole notion of their framework. And I am 
reminded that when we had the S&L scandal we had people who 
seemingly were conducting appropriate business but doing 
something else.
    This committee is focusing in on the appearance of what may 
be some delay in receiving some information, but we have not 
focused in on the substance of what that information is, and we 
had the gentleman from Georgia who was talking about, Mr. Ruff, 
you not recusing yourself.
    Now, one could draw a number of inferences on this matter, 
or one might recuse themselves of something they might already 
have had some involvement in. But we have members of this 
committee who have already said that the President of the 
United States should be impeached. They have already come to 
the conclusion that there are impeachable offenses that have 
been acted upon by the President. And one might draw a notion 
that they might not be objective, fair investigators of the 
facts because they have already come to that conclusion.
    But one could always know that it is not the appearance of 
these issues. I am sure the gentleman from Georgia and others 
can, in fact, be fair, and that they are going to search and 
work hard at it as we go forward, because we are supposedly 
operating not as just mere partisans but we are supposed to be 
representatives of the American people. And it does a great 
disservice to this committee, to this House, for us to be in a 
situation in which we, first of all, question but not even give 
room for one to answer.
    And I want to yield the remainder of my time to Mr. Breuer 
to have an opportunity to further expound on responses to 
inquiries that were made to him, but he was not able to answer.
    Mr. Breuer. Congressman, the one point that I would like to 
make is that there's been a reference that since the time of 
the certification that was made by Mr. Ruff that some 12 boxes 
of documents came to this committee. Well, in fact, as those 
most familiar with this process are aware, we alerted the 
committee that we would give a certification, if indeed 
required, that there were certain types of materials that were 
physically not possible to produce by the time of the 
certification. Those included the e-mail system, Congressman, 
that, in fact, for the most part was inherited by prior 
administrations for which it is extraordinarily costly and 
time-consuming to produce and reconstruct e-mails so that we 
can actually generate them, go through them, find the 
responsive materials and produce them to you. Much of the boxes 
that occurred after the certification were, in fact, those e-
mails.
    Second, as we informed the staff of this committee, there 
were phone logs. There are many phone logs, as you can imagine, 
at the White House that are in storage. Literally--paralegals 
have to go page by page through every single phone log to try 
to determine which of those are responsive. We alerted the 
committee that this was a remarkably time-consuming task and 
that, too, could not be done until after the certification.
    And last, because of the instructions by Mr. Ruff and the 
fact we should remain as thorough and complete as possible, we 
sent lawyers and paralegals back to review briefing papers and 
schedules to determine that, in fact, if there were other 
responsive materials that could not be gleaned, either from 
computer searches or because of subsequent information we had 
learned, that we went over and again tried to find those, and 
indeed we did that. And we did that so that we could be as 
thorough as possible.
    If we simply wanted to have an appearance, as you have 
described Congressman--and I agree, appearance and content are 
not always the same--we would have simply closed up and said: 
we're all done and let the appearance be that, because Mr. Ruff 
had written a certification, that it was all over. But we 
didn't do that. We went back and we looked further.
    That is why there have been 12 additional boxes, but that's 
not really a surprise to the staff of this committee. We have 
apprised this committee that we would continue to look and, 
indeed, we will continue to look. And the best we can do in a 
place as large and complex as the White House with as many 
employees as the White House has, some 2,000 not even including 
the military people when are nearly another thousand, is that 
as we learn more we will endeavor to search more and find more, 
and regardless of the political repercussions, we will produce 
those materials to you as quickly as we can. I think we did 
that here.
    Mr. Burton. The gentleman's time has expired.
    Let me just make one brief observation before I yield to 
Mr. Shadegg, and that is that Senator Thompson and I have been 
of the same opinion that there has been a very, very, very slow 
production of a lot of documents. Mr. Thompson, I think, said 
at the conclusion of his set of hearings, that he was 
frustrated because he was upset with the--I think he used the 
term ``stonewalling,'' I am not sure, by the White House. And 
so I want you to know that while I respect all of you folks a 
great deal, I think the appearance to both of the chairmen of 
the committees in the Congress that have been investigating 
this, that there has been either incompetence or a deliberate 
attempt to keep information from getting to us in a timely 
fashion, and that is something that really concerns us.
    Mr. Mica. Excuse me.
    Mr. Mica. Thank you, Mr. Chairman. Let me just go back to 
sequencing your involvement in the production of documents.
    Now, Ms. Mills, you are the long-term, I guess, individual 
involved in this. When did you start looking for various 
documents that were requested?
    Ms. Mills. I took over responsibility in an interim basis 
on October 30th of 1996 for requests that were coming in 
related to different matters. And transitioned that matter in 
the beginning of February.
    Mr. Mica. So you were basically in charge of getting the 
information requested. Mr. Quinn, would he direct you at that 
time?
    Ms. Mills. That's correct.
    Mr. Mica. And these gentlemen came on, when did you come 
on? March?
    Mr. Breuer. I came in the middle of February, Congressman.
    Mr. Nionakis. I came on in the beginning of March.
    Mr. Mica. And you came in February?
    Mr. Ruff. February 10th.
    Mr. Mica. Well, we have documents here, the very beginning 
exhibits, I have 135 requesting information and you were 
involved, I guess, in trying to help Mr. Quinn get some of this 
information together, documents and backgrounds.
    Ms. Mills. I think as I testified yesterday I wasn't 
involved with this particular request, but I was involved with 
the subsequent one on December 16th.
    Mr. Mica. December 16th. These are some that I am referring 
to.
    Ms. Mills. That's correct.
    Mr. Mica. Then we have the January 15th memo from our 
chairman, and it was addressed because--I guess you were coming 
in; is that correct?
    Mr. Ruff. My appointment had been announced on January 6th, 
I believe, Congressman, but I didn't arrive for another month.
    Mr. Mica. Or our request, January 15th, was directed to 
both you and Mr. Quinn as White House counsel. Now, this is 
back in January. Did you see this January 15th memo that was 
directed to you?
    Mr. Ruff. I saw it, I believe, after I had arrived at the 
White House. I'm not positive, though.
    Mr. Mica. Did you ask that there be any followup to comply 
with that request since you had taken over those 
responsibilities?
    Mr. Ruff. When I arrived, there was an ongoing process of 
trying to collect documents pursuant to the Quinn directives.
    Mr. Mica. But did you read the 15th memo?
    Mr. Ruff. I believe I reviewed all of the outstanding 
document requests that had been collected in those early days 
of my tenure.
    Mr. Mica. So you did review the 15th memo----
    Mr. Ruff. I believe I did, yes.
    Mr. Mica [continuing]. From the committee. And in that 15th 
memo--now, you had already been assigned to work on the request 
of December 16th, and you were starting on the work on the 
15th? Did Mr. Quinn give you--did he give you any requests from 
the 15th to comply with our requests?
    Ms. Mills. I'm sure that I would have seen this, though at 
that time Mr. Quinn indicated to the committee that we were 
transitioning that and the committee indicated that they 
understood and would be working with the new Members.
    Mr. Mica. So Mr. Quinn, not Mr. Ruff, showed you the memo 
of the 15th?
    Ms. Mills. I believe that would have been correct.
    Mr. Mica. I mean, the memo of the 15th says to prevent any 
conflicts or appearance of conflicts, it is essential that none 
of the individuals involved in dealing with Mr. Huang, Mr. Trie 
or any of the DC fund-raising matters be involved in the 
collection of documents or response to congressional requests.
    In this regard, it has been confirmed by the White House 
that deputy counsels Bruce Lindsey and Cheryl Mills attended a 
May 9, 1996, meeting regarding questionable funds raised by Mr. 
Trie for the Presidential Legal Expense Trust fund.
    So Mr. Quinn gave you this that said you shouldn't be 
involved in putting together any information for response to 
this committee?
    Ms. Mills. As you likely are aware, Congressman, Mr. Quinn 
wrote back and indicated that there was not indeed a conflict. 
And indeed, if on every occasion that that was alleged, we 
would never be in a position to be able to assist this 
committee because there would be no one in our office left to 
be able to assist. So one of the things we try and do is review 
all of the materials and requests that you all have and come to 
a reasonable way to try and address them.
    Mr. Mica. But you did read this and you weren't concerned 
that already that your involvement was called into question 
January 15, 1997, by this committee that expressed concern so 
you just went on with your regular----
    Ms. Mills. You all had requests; I thought it was my job to 
try and address them. That's what I try and do. The particular 
matter that you all indicated that I should recuse myself or 
not be involved was that I was at a meeting in which the legal 
expense trust was discussed with regard to contributions that 
had been received. I was in that position in my role as 
Associate Counsel in the Counsel's Office, and that is 
something that I had an obligation and a responsibility to do.
    Mr. Mica. Were you in charge of this inquiry at that point 
or had anyone else come in?
    Ms. Mills. At that point--in October is when I took 
responsibility for dealing with these matters.
    Mr. Mica. Right. And we are now up to January. He has come 
in. He has looked at this memo.
    Ms. Mills. Actually, Mr. Ruff came in in February, as he 
just indicated, and we had also indicated to this committee 
that we anticipated new arrivals and that they would be 
addressing this matter with respect to your requests.
    Mr. Mica. From December on through this time----
    Ms. Mills. Yes, that was me.
    Mr. Mica. And you were totally in charge?
    Ms. Mills. I wasn't totally in charge. As you might be 
aware, during that time period I was associate counsel. There 
were two deputy counsels and also a counsel.
    Mr. Mica. But you were given this responsibility?
    Ms. Mills. I had the responsibility for trying to respond 
to different requests, including this committee's requests.
    Mr. Mica. What concerns me is that I am also hearing that 
we may be getting more. There may be more tapes, there may be 
requests for information or the material that we have requested 
coming in dribbles and drabs. It sounded like you were talking 
about that we should expect this and shouldn't be shocked by 
it.
    Mr. Breuer. Well, don't think that's fair, Congressman. 
What I do think is the fact is that we have produced to you, as 
best as we can, completely. Now, this committee has reviewed--
it should be no secret, that since the beginning of the 
Presidency, the President has had videotapes. We have now 
provided to you far in excess of any request you have ever made 
the videotape data bases of every single event where the 
President of the United States has either been videotaped or 
audiotaped. This subcommittee has at least indicated, at least 
initially, an interest in videotapes or audiotapes that at 
first blush, Congressman, appear to have no relationship 
whatsoever to your inquiry. But we have said because Mr. Ruff 
has instructed us to----
    Mr. Mica. They just happened to feature all of the 
principals in that----
    Mr. Breuer. Well, no, Congressman. Some of them happen to 
feature nothing more than private personal events.
    Mr. Mica. I have seen them.
    Mr. Breuer. We're talking about the ones you don't have.
    Mr. Mica. Oh, I am sorry.
    Mr. Breuer. Because you have now expressed interest--
because videotapes since the first day, Congressman, of this 
administration, as there have been in all administrations. I am 
simply telling you----
    Mr. Mica. So don't be surprised.
    Mr. Breuer. No, it is that we're willing to work with you 
and we want to know what you're interesting in.
    Mr. Mica. At least though November of next year. Thank you.
    Mr. Burton. The gentleman's time has expired.
    Let me say, there are a number of videotapes that we will 
be reviewing. We are going to be going down to WHCA and taking 
a look at those videotapes, and the ones that we think are 
relevant to the investigation, we will be asking for the 
original copies of that and bring them down for further review 
and analysis. So we are in the process of looking at a lot of 
those. We are looking at hundreds more.
    I think, Mr. Fattah, we will come back to you in just a 
minute because we want to be fair. Is Mrs. Maloney back? Did 
you want to ask any questions at this time? Let me go to Mr. 
Shadegg then and then we will come back to you.
    Mr. Fattah. Mr. Chairman, can I renew my point that I 
believe it is the custom and precedent of the committee, and it 
is a committee I have served on for two Congresses in that it 
is supposed to be a balance between both sides in the use of 
time.
    Mr. Burton. Mr. Fattah, I will accede to your wishes. That 
is not the rule of the committee but we will accede to your 
wishes.
    Mr. Fattah. I will be glad to yield to Mr. Shadegg away the 
time, but just to act as if we don't have the right to have a 
fair amount of time is the wrong way for this committee to 
proceed. If the gentleman has to leave, he can have the time.
    Mr. Burton. I am not sure the rule wasn't created to make 
sure that Members attended. But if you want to yield to Mr. 
Shadegg, you may.
    Mr. Fattah. I yield our time and receive it back on the 
other end.
    Mr. Burton. You are a very nice fellow. Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    First of all, let me say to the panelist it has been a 
very, very long afternoon and I apologize it has taken so long. 
Unfortunately, that impinges also on my time because I was 
supposed to get 10 minutes to do what I now have to try to do 
in 5 minutes. So if I am a little short with you, please 
understand that I can't tolerate long answers.
    Mr. Ruff, I would like you to start by looking at exhibit 
168, which is on the screen. It is a part of this issue of 
documents produced or produced late and perhaps why they were 
produced late. It is identified as a memo from Marsha Scott to 
Harold Ickes and Bruce Lindsey and it reflects I believe a 
carbon copy to the First Lady. This is a document that Mr. 
Ruff, you produced to the committee in February; isn't that 
right?
    [Exhibit 168 follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.102
    
    [GRAPHIC] [TIFF OMITTED] T5405.103
    
    Mr. Ruff. I am trying to track down a copy of it, because 
the screen is not really legible.
    Mr. Shadegg. We don't give you a screen to look at it.
    Mr. Ruff. You give me a screen, but not much that is 
legible on it, Mr. Congressman. Thank you. One of my colleagues 
has handed me the document. I'm sorry, go ahead, sir.
    Mr. Shadegg. That was a document that you produced to the 
subcommittee in February, correct?
    Mr. Ruff. I believe that's correct.
    Mr. Shadegg. At the time you produced it, you had concluded 
that it was responsive to the subcommittee's August 1996 
request, correct?
    Mr. Ruff. Yes, that's correct.
    Mr. Shadegg. Your letter shows that. As a matter of fact, 
your February 26th letter to the subcommittee indicates that it 
was produced in response to that and expressly states that it 
was responsive, that those documents were responsive to that 
request, right?
    Mr. Ruff. That's right.
    Mr. Shadegg. If we could look at the first sentence of the 
second paragraph, and it is highlighted on the screen which you 
can't read, it says: Currently in the White House we are 
preparing, as you know, to implement a new data base system 
starting August 1.
    That sentence I believe, and the rest of the paragraph, 
which is about the WHo data base made it clear to you that the 
document was responsive to the August 2, 1996, request?
    Mr. Ruff. I'm candidly reluctant to tell you which 
particular line it was, if any, that triggered this, but I have 
no doubt that that reference is among the things that we 
believed were relevant.
    Mr. Shadegg. Well, clearly the new data base that it 
referred to there in a memo from Marsha Scott who was 
responsible for creating the WHo data base is a reference to 
the WHo data base, right?
    Mr. Ruff. I believe so but I'm not positive. My colleague 
here is who is more knowledgeable--I don't want to take up your 
brief time and I'm happy to turn the light off if I can do that 
from the witness stand.
    Mr. Shadegg. Actually, there is a letter in which you 
acknowledge that fact.
    Mr. Ruff. That it is relevant, yes.
    Mr. Shadegg. No, I think there is a letter in which you 
acknowledge that it was a reference to the WHo data base. 
Marsha Scott wrote it. I can't imagine what else it would be 
about.
    Mr. Ruff. I am willing to accept the fact that the document 
is responsive and that that response may well be one of the 
triggering elements.
    Mr. Shadegg. OK. I posit that it is, and anybody who reads 
the whole memo can figure that out.
    Ms. Mills, you found this document in September 1996, 
didn't you?
    Ms. Mills. I found a version of this document. It didn't 
have the First Lady's handwriting on it.
    Mr. Shadegg. OK. And you did not produce it at that time; 
is that right?
    Ms. Mills. That's correct.
    Mr. Shadegg. OK. As a matter of fact, like the handwritten 
notes of yesterday, you determined that it was not responsive 
and put it in that separate folder?
    Ms. Mills. That's correct, because I had a working 
knowledge then of the different data bases that had been 
addressed at that time. Ms. Scott was trying to address several 
different types, and this particular one, at the time I had 
knowledge of, was not related to WhoDB.
    Subsequently, WhoDB, which is what your request was, came 
into being and the documents that were specifically related to 
WhoDB were provided.
    Mr. Shadegg. Well, you said subsequently. But you wrote--
you had already written in January 1994 a memo to Marsha Scott 
about WhoDB and you knew that she was working on WhoDB.
    Ms. Mills. Actually, that's not correct. My memoranda in 
January is about a new correspondence data base, and as I think 
you probably are aware, in the end the data base that was 
implemented was not a correspondence data base, but WhoDB, 
which is the data base that is used throughout the White House.
    Mr. Shadegg. So your January 17th data base didn't have to 
do with WhoDB?
    Ms. Mills. That was my impression at the time, that's 
correct.
    Mr. Shadegg. The second paragraph does talk about the new 
data base and you now agree with me that that is the WhoDB. And 
you are saying that it wasn't the WhoDB at the time?
    Ms. Mills. It was my impression at the time, through 
conversations and other materials that we had with respect to 
this, that it was not with regard to the WhoDB. As you probably 
are aware, there were many different data bases in the White 
House and there were many different designs that were 
considered as to what would be the final data base that was 
going to ultimately be used.
    At this time, we are talking about using a system modeled 
on PeopleBase. Ultimately, they ended up using WhoDB, which is 
not modeled on PeopleBase.
    Mr. Shadegg. OK. Let's talk about the first sentence of the 
third paragraph. Let me turn your attention to that.
    That sentence says, ``My team and I are involved in 
conversations with the DNC about the new system they are 
proposing.''
    Do you see that?
    Ms. Mills. Yes.
    Mr. Shadegg. Do you have any idea why someone in the White 
House, a White House official, working with a team, presumably 
a team of Government officials, would be working on a DNC, or 
discussing working with the DNC on a data base?
    Ms. Mills. As you probably are aware, White House officials 
and others are allowed to engage in political activity and they 
are allowed to use their time in that way when they volunteer 
to provide political activity, so to the extent that Ms. Scott 
wanted to provide or make herself available to engage in those 
activities, provided she did not use Government resources, that 
would be perfectly consistent with the Hatch Act.
    Mr. Shadegg. Government resources seems to be a good 
question. This is on stationery which says the White House, 
Washington. I presume that would be a Government resource, 
wouldn't it?
    Ms. Mills. Yes, it would.
    Mr. Shadegg. OK. And I suppose it is going to be difficult 
to figure out what computer she used. But the paper certainly 
suggests that it may have been a White House computer?
    Ms. Mills. Well, the paper--yes, I would certainly think 
that.
    Mr. Shadegg. OK. I guess I just have to--I find it curious 
that you don't produce this document, which I think clearly 
references the WhoDB, and I think any reasonable mind would 
conclude that, and it contains this information in it, which is 
rather embarrassing to the White House, and we are talking 
about responding to a request from our committee before the 
1996 election, a document that gets set aside and not produced 
until months after the 1996 election.
    And I just have to tell you that from my perspective, it is 
a little bit difficult to believe that it wasn't concern about 
those embarrassing comments in there, and I have only been able 
to go over one--there are several others in there, references 
to working with this data base and coordinating it with the DNC 
and trading information back and forth. I find it a little bit 
hard to believe that that didn't influence the decision not to 
produce it.
    And I guess, since unfortunately my time has run out, I 
find it even more curious, when you go to the document you did 
refer to, which you said you did find in September, which 
shows--and now we will put that one up on the screen--which 
shows the First Lady's notation that says, ``This sounds 
promising; please advise,'' and has the First Lady's initials 
on it.
    Ms. Mills. Right. As I probably indicated to you, the one 
that we were reviewing did not have the First Lady's 
handwriting on it.
    But one thing I would like to point out, we gave careful 
advice to the staff regarding what was and wasn't appropriate 
for them to do and they were very clear on the fact that they 
could not share data from the White House data base with other 
data bases unless there was some official purpose.
    And in that regard, I think one of the things I would like 
to try and address in your statement is that people have to 
observe the rules, but when they observe the rules they 
properly can work with the DNC or other entities provided that 
they observe the appropriate rules, and it is my understanding 
that that is what they did.
    Mr. Shadegg. Well, except that the appropriate--if I could, 
Mr. Chairman, just two comments, briefly. The appropriate rules 
include not using White House resources, that's not one and, 
No. 2, this memo is clearly responsive, as Mr. Ruff has 
indicated, to our request whether it had the First Lady's 
initials on it or not.
    Ms. Mills. Right. At that time, I probably had a little bit 
greater familiarity because we were working through all of the 
different data bases. There were numerous data bases, as I 
think the correspondence back and forth with Mr. McIntosh 
indicated. He indicated an interest in the WhoDB data base.
    Ultimately, the data base that was implemented was WhoDB, 
but there were numerous other models and prototypes that were 
considered prior to that time.
    Mr. Shadegg. Maybe we will have to ask Mrs. Scott whether 
or not this is, in fact, the WhoDB. I believe that's what she 
was working on. Thank you.
    Ms. Mills. OK. But that is not my impression at the time.
    Mr. Burton. The time of the gentleman has expired. But I 
would like just to add one additional question here because it 
is relevant and it is timely.
    The next paragraph on the next page says, ``The time to act 
is now. Cloning or duplicating data base systems is not 
difficult if carefully planned by a good design team. We have 
proven that it can also be done relatively quickly and 
inexpensively. Therefore, I suggest that instead of continuing 
with an old outdated system, PeopleBase, that does not meet our 
current demands, let my team work with the DNC to help design a 
system that will meet our needs and technical specifications. 
We can show them what to do and then clone another system for 
our specific uses later on,'' which looks like, to a person 
just reading that paragraph, that they wanted a system that 
would work together with the other for political purposes.
    Ms. Mills. They were talking about their outside data bases 
and they did want those to be able to work together.
    Mr. Burton. Outside. What was the other outside data base 
if it wasn't the DNC?
    Ms. Mills. There is PeopleBase, the DNC and the campaign.
    Mr. Burton. But they were talking about a data base that 
was going to be consistent with the DNC one, one they could 
clone. What was that for, the other one?
    Ms. Mills. I believe at the time----
    Mr. Burton. There was the DNC. What is the other one for?
    Ms. Mills. Which one, the campaign?
    Mr. Burton. No. If you read what they say there, it says, 
``let my team work with the DNC to help them design a system 
that will meet our needs and technical specifications.''
    Ms. Mills. That was with respect to information that they 
had from the campaign where they wanted to create a place where 
that information could ultimately end up residing, and they 
wanted that to be consistent and compatible with the DNC's.
    Mr. Burton. But they were talking about the DNC----
    Mr. Fattah. She is agreeing with you.
    Mr. Burton. And then in the next sentence it says, ``We can 
show them what to do and then clone another system for our 
specific uses later on.''
    It sounded like they were talking about a DNC system and 
another system that would be the same. Explain to me what the 
other system was. Is that the White House?
    Ms. Mills. No. It was the campaign.
    Mr. Burton. The DNC and the Presidential campaign?
    Ms. Mills. They wanted the DNC's data base to be consistent 
with whatever data base they ultimately ended up creating for 
the campaign, so that they would be compatible.
    Mr. Burton. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    First of all, I would like to really apologize to the two 
witnesses who are being asked to duplicate their testimony 
today, and I really see no need for it.
    I really feel like it is sort of a deja vu all over again. 
I think that we are just reviewing what took place in the 
Senate Governmental Affairs Committees. And I think we ought to 
think about not only talking to the same witnesses, Mr. 
Chairman, we ought to talk about stealing their budget.
    The Senate committee managed to hold 32 hearings. They 
called 81 witnesses. They spent $2.2 million. This committee 
has spent $3 million and this is only the third day of 
testimony.
    So, Mr. Ruff and Mr. Breuer are 2 of 29 witnesses who have 
been doubly deposed, and I really feel it has been unfair to 
you and your time.
    There has been a great deal of talk today about videos, but 
there is one video that wasn't shown, that I wish we had, and I 
was talking earlier about Triad and the resulting expenditure 
of $5 million in attack ads and asked the chairman when he 
would be subpoenaing witnesses in that respect, but according 
to the Washington Post they talk about a video where a 
Republican Senator, Don Nickels, appears and in the film he 
says, and I quote, ``I think Triad is a fantastic organization. 
This is a very effective organization that is going in and 
helping us in those races that are close, in those races that 
are targeted.''
    According to the Washington Post and National Journal 
Report, this was filmed in part in his Senate office. And I 
would like to request from the chairman if he would likewise 
show this tape at these hearings.
    But we do happen to have a tape, a tape that was filmed in 
1987 in the East Room with our former President Ronald Reagan 
speaking, and I would like to ask if we could show that tape. I 
think we should be able to show some tapes on the Democratic 
side.
    And while they are preparing it, I would like to simply ask 
the chairman--well, he is in conversation.
    Mr. Burton. I beg your pardon.
    Mrs. Maloney. I am getting ready to show a tape and I 
wanted you to see this.
    Mr. Burton. OK. Thank you.
    [Videotape shown.]
    Mr. Waxman. I think those tapes were altered.
    Mrs. Maloney. There are a whole list of them here, 10. We 
won't have time to look at all of them. But, Mr. Chairman, I 
would really like to request that the tape of the Triad fund-
raising appeal be played at this committee so that tapes that 
are current can be shown. This was in the past. But we have 
read--again, it hasn't been before any of the hearings, but we 
have read in the papers, the papers have covered how Triad used 
a shield of not-for-profit organizations, giving tax breaks to 
American citizens to donate for political campaigns and they 
would then target it into vulnerable campaigns to defeat 
Democrats.
    And I think that this is a loophole that needs to be 
changed in our law. As I mentioned earlier, Congressman Horn 
and I have a bill in that would require all of these so-called 
not-for-profits, such as Triad's Citizens for Reform--it sounds 
very nonpartisan but, in fact, according to the documents in 
the press, it was very partisan and totally funded to defeat 
Democratic candidates. But not to get partisan, I just think 
that we should look at this loophole. We should close it.
    And I, again, appeal to the chairman to have a hearing 
focusing on Citizens for Reform and some of these so-called 
independent groups that have, in some cases, spent twice as 
much as a candidate spends.
    We had an example just a week ago in New York where in the 
last week of the campaign, they came in and spent $1 million of 
soft money. This type of thing is going on, and I think, at the 
very least, the American public should know who is trying to 
buy their vote or influence the election; and under the current 
laws, the soft money does not have to be disclosed.
    I think it should be banned, but at the very least, we 
should disclose who is making these contributions.
    And since the press has covered this in detail, I think 
that at least we should have one governmental hearing on this 
issue.
    Mr. Burton. The gentlelady's time has expired. Let me just 
say, as I said before with Lanny Davis before the media a while 
ago--I see his smiling face out there in the audience--that we 
are certainly going to look at Triad. We may very well subpoena 
records from them.
    So we are going to be as fair as we possibly can in the 
investigation. If we find illegal campaign contributions, we 
are going to try to pursue that.
    Let me just say--yes, ma'am?
    Mrs. Maloney. You mentioned you were going to be as fair as 
we possibly can.
    Mr. Burton. That's true.
    Mrs. Maloney. Very respectfully, why have you approved four 
consultants for your side of the aisle, yet the consultant that 
the ranking member tried to have hired for the Democrats was 
not approved?
    If you talk about--you have got us outgunned four to zero, 
why not just be three to one?
    Mr. Burton. The gentlelady, if she was here--I think she 
was here when we had our discussion yesterday; and the vote on 
that, it was clear--at least I hope--from my remarks that if 
the contractual agreement with the Emerald Group that you were 
talking about was consistent with the one that we had for Mr. 
Bennett, we probably would have had no problem.
    I also said in my remarks that I was more than willing to 
work with Mr. Waxman to try to work out our differences so that 
you could hire a consultant that you felt comfortable with.
    Now, let me just end up by saying, we have two more people 
Mr. Barr has not had a second round, nor Mr. Snowbarger. Then 
what I would like to do is have Mr. Bennett conclude, because 
our witnesses have been here for a long time, and I know they 
are getting a little tired. They are getting saddle sores.
    Mr. Fattah. Mr. Chairman, I thought we agreed that you were 
going to have two on your side and then we would have two on 
our side.
    Mr. Burton. Mr. Fattah, the Chair wants to be fair. Let me 
go to Mr. Snowbarger. Then we will come back to someone on your 
side and then we will go to Mr. Barr and then we will--if it is 
all right with you, we will go to Mr. Bennett and then wind up.
    Mrs. Maloney. Point of information.
    Mr. Burton. The gentlelady will state her point.
    Mrs. Maloney. I would just like to clarify for the record, 
in response to your statement, Mr. Waxman agreed--correct me if 
I am wrong, Mr. Waxman--that our consultant would apply and 
follow the same guidelines as Mr. Bennett.
    Is that correct, Mr. Waxman?
    Mr. Waxman. Yes.
    Mrs. Maloney. I thought that's what you said yesterday. So, 
in other words, we said we would--or rather Mr. Waxman said on 
behalf of the Democrats that we would abide--our consultant 
would abide by the exact same guidelines as your consultants. 
Yet you hired yours and not a Democratic one. And I think it 
is--you are in the majority; you can have three to one. But to 
have four to zero and to sit here and talk about fairness, it 
is a little unfair to try to act like you are fair when you are 
not being fair.
    Mr. Burton. Mrs. Maloney, I will talk with you about this 
later. I think we can work out our differences.
    Let me go to Mr. Snowbarger.
    Mr. Snowbarger. Thank you, Mr. Chairman. I will try to make 
these brief.
    Ms. Mills, I am trying to understand exactly how documents 
were handled in the White House. When you sent out your 
requests for information, they--as I understand it, they came 
back into the Legal Office, and when they came into the Legal 
Office, you would put them in folders that would show the 
source, in other words, where they had come from.
    Is that a fair description?
    Ms. Mills. That's a fair description with respect to the 
Quinn directive.
    Mr. Snowbarger. OK. Just so I make sure, so if a document, 
say, came from Harold Ickes, it would be in a file either 
labeled with his office or his name.
    If it came from the Social Office, there would be a file 
from the Social Office, that kind of thing?
    Ms. Mills. Correct.
    Mr. Snowbarger. OK. And so with a system like that, you 
would at least be able to know where the document originated 
from?
    Ms. Mills. Typically, that's what we try to do when we have 
sufficient time to be able to do that, correct.
    Mr. Snowbarger. OK.
    Mr. Ruff, I think we were told yesterday that the 
handwritten document that we have talked about over the last 
couple of days, that was discovered in 1996 but not produced 
until, I guess it was last week sometime, that that was written 
by Brian Bailey.
    Mr. Ruff. So I understand, yes.
    Mr. Snowbarger. The production log that you gave us for 
that particular numbered document indicates that the source of 
that document was the Office of the White House Counsel.
    Is Mr. Bailey in that office?
    Mr. Ruff. No, he is not.
    Mr. Snowbarger. Has he ever been in that office?
    Mr. Ruff. I don't believe so, at least----
    Mr. Snowbarger. Then why would we be told that the source 
of that was the White House Counsel's Office?
    Mr. Ruff. Well, perhaps I can have Ms. Mills respond, but I 
believe it reflects that, as has already been explained at some 
length, that document was found in a folder contained in files 
stored in the White House Counsel's Office; and that's fully 
explained in my letter to Mr. McIntosh.
    Mr. Snowbarger. So you aggregated all these files from 
various sources that might have had labels at some point in 
time, telling us where they came from, but now everything comes 
from the White House Counsel's Office?
    Mr. Ruff. No, sir. But you are candidly out of my depth, 
because I didn't actually find the document. So let me----
    Mr. Snowbarger. Well, we can have Ms. Mills----
    Mr. Ruff. But I would be happy to explain it to you at 
length if--either--if there is someone here who can do it, or I 
will get you the information.
    Mr. Snowbarger. Well, if Ms. Mills could respond to that. I 
am confused. We are trying to find out where documents like 
this come from.
    Ms. Mills. Right.
    Mr. Snowbarger. And obviously, if we are told that 
everything that we are getting now is coming from the White 
House Counsel's Office, we are not--we are not going to know 
much about the document.
    Ms. Mills. No. I can understand that.
    With respect to the WhoDB document request, we actually 
collected documents, and on the day they were collected, they 
were asked to be produced. So we did not have the time that we 
would ordinarily have to go through those documents and provide 
them with respect to what files and offices they came from.
    Indeed, we asked people just to send the records and we 
started Bates Stamping as soon as they came in and producing 
them so we could produce them in a timely fashion.
    Those materials were reviewed and placed in a file because 
they were not produced at that time, so they remained in the 
Counsel's Office, and I believe that's the reason why it says 
the Counsel's Office.
    Mr. Snowbarger. There was no attempt whatsoever in your 
files to make a notation where the document originated from?
    Ms. Mills. At that time we did not have sufficient time to 
be able to do that because we were asked to produce documents 
on the day that people turned them into our office.
    Mr. Snowbarger. So what was the label of the file that you 
put this into?
    Ms. Mills. Nonresponsive.
    Mr. Snowbarger. Nonresponsive?
    Ms. Mills. Correct.
    Mr. Snowbarger. OK. Understanding our concern about trying 
to be able to find sources--I mean, we don't want to have to go 
and depose everyone in the White House to find out whose 
handwriting this is.
    Ms. Mills. No. I understand that. I think if you have 
documents that you all have questions about, I think we have 
tried to be responsive in identifying where they came from.
    Mr. Snowbarger. Well, if you could, we have a number of 
documents that are listed here as White House Counsel's Office, 
M 33292 through 33302; I would ask at a minimum that we get a 
log that shows us specifically where those documents came from. 
And, again, I think--I suspect we have other production logs 
like this that are very general in nature, and I think we need 
to have that more specific information.
    Mr. Ruff. As I indicated to Congressman McIntosh when he 
raised this issue a little earlier today, we will be happy to 
work with his committee staff to identify the source of any 
documents we can that are of particular concern.
    Mr. Snowbarger. Mr. Chairman, thank you. I would yield 
back.
    Mr. Burton. Are you finished, Mr. Snowbarger?
    Mr. Snowbarger. Yes, I yield back.
    Mr. Burton. The gentleman has completed.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    In our search for the truth, I have some final questions I 
just want to walk through.
    Ms. Mills, you have been at the White House since--for how 
many years?
    Ms. Mills. Since January 20, 1993.
    Mr. Fattah. And during this period of time, you have had a 
number of different supervisors?
    Ms. Mills. Yes, that's fair to say.
    Mr. Fattah. Or people that you report to?
    Ms. Mills. Yes.
    Mr. Fattah. Can you lay them out in chronological order for 
us?
    Ms. Mills. I reported to Bernard Nussbaum. I subsequently 
reported to Lloyd Cutler. I subsequently reported to Ab Mikva. 
And I subsequently reported to Jack Quinn; and then I 
subsequently report to Chuck Ruff.
    Mr. Fattah. In all of the times that these issues that the 
committee has asked you about, did you have someone you were 
directly reporting to?
    Ms. Mills. Yes, indeed, with respect to these materials, I 
reviewed them.
    Mr. Fattah. In response to this particular issue about the 
memo that was termed to be nonresponsive, was it not your 
testimony yesterday that that was a decision jointly arrived at 
between you and White House Counsel Quinn?
    Ms. Mills. Yes.
    Mr. Fattah. The two of you made this decision?
    Ms. Mills. Yes. I put----
    Mr. Fattah. Because in subsequent questions by members of 
the committee, they seemed to have missed this point; that this 
was not an individual decision that was made by you.
    Ms. Mills. That's correct.
    Mr. Fattah. OK. So I just wanted to clarify the record. You 
also indicated that the subcommittee's response vis-a-vis this 
data base was quite specific, seven enumerated questions, and 
that, under the decision of the person who was your immediate 
supervisor and was, in fact, the ultimate authority on what was 
going to be responsive, both of you agreed that this was not 
responsive at that time?
    Ms. Mills. That's correct.
    Mr. Fattah. Now, Counsel Ruff has indicated to the 
committee that he has a different view of responding to this 
committee's requests. He says, we are going to give them 
everything, even those things that maybe are not responsive, so 
that we don't get accused of being not responsive.
    Ms. Mills. That's correct. I think a----
    Mr. Fattah. That is a different policy in the office, 
right?
    Ms. Mills. That's correct.
    Mr. Fattah. So whereas before you were responding to the 
specific nature of the subpoenas, this is a broader 
interpretation of what should be delivered?
    Ms. Mills. Correct; and it was a request, that's correct.
    Mr. Fattah. So that as we--and the other thing that you 
said, I think, in your testimony yesterday, was that 
substantially the same information that's in this document, 
that people keep going around and around about was available in 
other information that was provided?
    Ms. Mills. That's correct.
    Mr. Fattah. So that in all of this smoke, there was nothing 
that was being hidden from anyone?
    Ms. Mills. That's correct.
    Mr. Fattah. And that finally, when the chairman was asking 
you whether or not, when they talk about having these--these 
data bases being able to be compatible, that it was fully the 
White House's viewpoint that legally they could develop a data 
base that would serve a public purpose, but that also had the 
ability to be coordinated with data bases that were built and 
financed through political dollars?
    Ms. Mills. That's correct.
    Mr. Fattah. And that this was advice that various legal 
authorities had given to those who were producing this or 
preparing this data base?
    Ms. Mills. Correct.
    Mr. Fattah. So that at all times when those who were 
involved in the effort to produce the data base, they thought 
that they were acting and still believed that they were acting 
well within the color of the law?
    Ms. Mills. Yes, that's my understanding.
    Mr. Fattah. I want to thank you for your testimony. I want 
to thank all of you, and I want to thank the chairman for 
allowing me an opportunity to clarify the record as we conclude 
this hearing.
    Mr. Burton. Mr. Fattah.
    Mr. Mica. Mr. Chairman, would the gentleman yield?
    Mr. Burton. Would you yield to Mr. Mica?
    Mr. Fattah. I would be glad to yield.
    Let me ask one last thing, though. I do want to ask 
unanimous consent--I know you provided a general unanimous 
consent to all
Members. There is an article in this magazine on Triad 
Management and its activities, and I know that we are going to 
be searching for the truth in that direction and I thought 
maybe the committee might find it useful.
    Mr. Burton. Without objection.
    [The article follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.104
    
    [GRAPHIC] [TIFF OMITTED] T5405.105
    
    Mr. Mica. Just to clarify the record, if I may--and I thank 
the gentleman for yielding--there were comments made, I think, 
by the gentlelady from New York, and I am sorry she is not 
here, but I did want to clarify the record that, in fact, this 
committee on which I have served since 1992 has been very fair, 
both in the distribution of staff--when I came on this 
committee, there were 5 minority--we were in the minority--
investigative staff and 55 staff. The record is clear. It will 
show that.
    Also, in fact, the cost of this investigation is less than 
the cost, if you go back and look at the responsibilities we 
now have, is less than the cost of the similar operations under 
the 103d Congress, including the cost of this investigation, 
which is an important responsibility in this Congress that we 
get the facts from the executive branches and other agencies we 
oversee, and have that important responsibility for oversight 
and audit investigations.
    Thank you.
    Mr. Fattah. Reclaiming my time, let me again thank the 
chairman for his patience.
    Mr. Burton. Mr. Fattah, your eloquence has only been 
exceeded by your kindness, and it is great being with you. I 
hope you have a nice vote.
    Mr. Bennett.
    Mr. Bennett. Mr. Ruff, Ms. Mills, Mr. Breuer, Mr. Nionakis, 
I just have about 2\1/2\ hours of questions that I would like 
to pursue. No, just to wind up, as the chief counsel for this 
committee, I want to definitely let those that arrived at the 
White House in February or March, in a transition period, 
understand that I have been on this job less than 2 months. So 
just as you take certain attacks in terms of your conduct in 
office, I take it pretty seriously when Members from the other 
side of the aisle question what we are doing. I am still trying 
to catch up and do the best we can do in the fairest way 
possible.
    In that regard, Mr. Ruff, I want to say that you and I have 
had some very delightful conversations, and Mr. Breuer, you and 
I have, and I am looking forward to working with both of you. 
And I want to commend you for your professionalism here today. 
We disagree on a lot of points but I would be remiss if I 
didn't note that for the record before I wind up.
    Mr. Ruff. I appreciate it, Mr. Bennett. It will always be 
the case that our differences can be resolved or at least 
addressed through professional dialog, and that's what we have 
always had.
    Mr. Bennett. Just for the record, you and I have dealt with 
each other before over our careers. I am sure that relationship 
will continue.
    Ms. Mills, if I can, just to pick up on a few points, 
because quite frankly I think some of these things really 
aren't in dispute, and I am just trying to clarify it and I am 
not--I don't mean that in an attacking way. I am just trying to 
clarify some matters.
    You indicated earlier this afternoon, talking about the 
data base, that you were--you talked about the correspondence 
data base and the data base of the Correspondence Office as 
opposed to the WhoDB data base.
    Ms. Mills. Actually, there were several data bases and 
models that were considered, so it wasn't just that one. 
Subsequently, there were lots of different models that were 
considered before they settled on WhoDB.
    Mr. Bennett. I understand. But, for example, Marsha Scott 
was the prime force overseeing the development of WhoDB, isn't 
that correct?
    Ms. Mills. That is correct. She----
    Mr. Bennett. I am sorry.
    Ms. Mills. She looked at a number of different models 
before settling on WhoDB. At least that was my impression at 
the time.
    Mr. Bennett. And in January 1994, Marsha Scott was working 
in the White House Correspondence Office at that time, wasn't 
she?
    Ms. Mills. Right, that is correct.
    Mr. Bennett. It is that reason that you referred to the 
data base as the correspondence data base, because ultimately 
the correspondence data base became WhoDB, didn't it?
    Ms. Mills. Actually, I referred to it as the correspondence 
data base because, as you imagine, when staff comes to you they 
have different ideas about what it is they were going to do. At 
that particular time her interest was in setting up a data base 
that was related to correspondence. Obviously, over time, it 
evolved.
    Mr. Bennett. And ultimately it became WhoDB?
    Ms. Mills. Ultimately the model that they settled on for 
doing a wide variety of things, and not just the things related 
to correspondence, became WhoDB.
    Mr. Bennett. And if I can just go back in terms of where we 
were yesterday afternoon and clarify, in January 1994--you are 
the only holdover from the first term of the Clinton 
administration in the White House Counsel's Office, correct, 
you and Mr. Lindsey?
    Ms. Mills. You mean January 1997?
    Mr. Bennett. No, I am going to get to January 1994. 
Basically, as we speak now today, it is essentially you and Mr. 
Lindsey are the only two holdovers from the first term in terms 
of the White House Counsel's Office, isn't that correct? There 
is an entirely new team of lawyers that have----
    Ms. Mills. No, there are other lawyers who were in the 
Counsel's Office in President Clinton's first term who are in 
the White House.
    Mr. Bennett. I am sorry. In terms of investigations, then. 
I must have misspoken. Mr. Breuer came in?
    Ms. Mills. Ms. Paxton was in the Counsel's Office in the 
first administration. She was on the investigative team.
    Mr. Bennett. All right. I apologize for my confusion, then.
    Ms. Mills. That's OK.
    Mr. Bennett. Directing your attention to January 17, 1994, 
in a document that we have had before, there you set forth very 
clearly the standard in that memorandum, accurately noting that 
with respect to the creation of a data base, that it becomes 
Government property and that data from that data base system 
may be provided to sources outside the Federal Government only 
for authorized purposes. Correct?
    Ms. Mills. I believe that's correct.
    Mr. Bennett. And essentially you clearly set forth the 
legal standard to be applied with respect to that--I can assure 
you, I don't intend to take 20 minutes, I promise you--that 
standard having been set. Correct me if I am wrong.
    But then looking at the handwritten notes of Mr. Brian 
Bailey, I believe that's exhibit 147, clearly there is no 
dispute, is there, that with respect to that suggestion--and 
this is a document that was recently turned over, and I am not 
going to get into the matter of the timing right now, but 
clearly as to that document where it says, ``make sure WhoDB is 
integrated with the DNC data base so we can share,'' and the 
notes there, clearly those--those notes would reflect, in your 
opinion, an improper political use of the computer at the White 
House, would it not?
    [Exhibit 147 follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.106
    
    Ms. Mills. It was actually my impression that what they 
were ultimately hoping to do was create a data base that would 
allow them to share with the White House, and I think Mr. 
Bailey has indicated, I guess through a statement he released 
yesterday, that that was also his intention.
    Mr. Bennett. I understand that. But my point is, is that 
ultimately there isn't any question that you testified today 
that clearly that is an improper--this document that is on the 
screen now clearly reflects an improper use of the data base, 
would it not?
    Ms. Mills. You and I have a different interpretation of 
this document. I understood this document to be referencing--
because I was aware that Mr. Bailey was apprised of the rules 
with regard to sharing of information--that this was speaking 
of sharing information that could be included in the White 
House data base.
    Mr. Bennett. But my point to you is, clearly as you speak 
today, you would acknowledge that that document that's on the 
screen does not meet the standard that you set in January 1994?
    Ms. Mills. I think there was some debate earlier about what 
it means to be integrated but I think, at least as I understand 
this document, I understood it to be sharing of information 
with the White House; and Mr. Bailey has indicated that that is 
what his own notes meant.
    Mr. Bennett. I am just trying to understand what the 
position of the White House was in the Washington Post today. 
It is my understanding that clearly, if you did not state 
directly, perhaps Mr. Davis in the back of the hearing room or 
someone indicated that the White House now takes the position 
that this document should have been disclosed in response to 
the request by Congressman McIntosh's subcommittee in August. 
Is that correct?
    Ms. Mills. I think certainly to have eliminated any debate 
about its responsiveness, I would happily have provided this 
document because there is nothing in this document that 
concerns me with regard to the materials. But one of the things 
I obviously was trying to do at the time that we got the 
request was be particularly responsive to the materials--the 
request as it was laid out, and as we put this document against 
the request as it was laid out, we did not believe it was 
responsive. But I would have happily provided it to avoid any 
of the debate that we are having right now.
    Mr. Bennett. Hold on 1 second, please.
    If I can on this screen, if we can have exhibit 155, and 
that is the request from Congressman McIntosh's committee. And 
as to paragraph 3 that is being highlighted there--again, I 
don't want to--it is late in the day and I don't want to 
belabor this point but I think that with all the discussions, 
some things are pretty clear here, it seems to me.
    Clearly you set an appropriate standard, rightfully so, in 
January 1994. Clearly there is a document, which is my 
understanding there is not much dispute about now, doesn't meet 
that standard and implied improper uses. And I am not castings 
aspersions on you but clearly it was a suggestion that it would 
not meet your standard.
    Looking at exhibit 155, paragraph 3, if you want to take a 
look on the screen, clearly the suggestion in terms of the 
political use and integration with the DNC would fall within 
that request, paragraph 3, wouldn't it?
    [Exhibit 155 follows:]

    [GRAPHIC] [TIFF OMITTED] T5405.107
    
    [GRAPHIC] [TIFF OMITTED] T5405.108
    
    [GRAPHIC] [TIFF OMITTED] T5405.109
    
    [GRAPHIC] [TIFF OMITTED] T5405.110
    
    Ms. Mills. I think that as we looked at this request, we 
noted that Mr. McIntosh had made distinctions between instances 
where he was seeking all documents and instances where he was 
seeking communications. I think if you look at 3, he indicates 
he is seeking communications. I think if you look at 4, 6, and 
7, he had indicated documents.
    So I think at that time, when we were setting this beside 
his request and trying to be uniquely responsive, that's how we 
interpreted it, and we interpreted Mr. Bailey's own notes as 
not being responsive.
    I understand that there is a debate. I have no interest in 
a debate. I quite clearly find it something that we could 
provide. It was nothing I was concerned about and don't really 
believe it is worth debating, because you all have the document 
and there is nothing to hide or be concerned about.
    Mr. Bennett. Right. I want to get to that. I want to get to 
that. I understand now the position is it is not worth debating 
and that the White House has now essentially in the Washington 
Post today said you should have had the document; you didn't 
get it. So I don't think there is any real dispute about it 
being within the requirements of paragraph 3.
    Ms. Mills. I think probably Mr. Quinn's own statement is he 
probably would dispute that. I just don't--I don't know.
    Mr. Bennett. I don't know who made the statement. Is Mr. 
Quinn speaking for the White House? I am talking about what is 
quoted in the paper today.
    Ms. Mills. No. I think at that time we were reviewing the 
materials, and I think there are a number of things. And I just 
think that we tried to be uniquely responsive to the request as 
it was drafted. We assumed that Mr. McIntosh intended something 
in particular with respect to stating ``communications.''
    Mr. Burton. Let me just interrupt. The appearance is that 
you were splitting hairs in order not to comply with the intent 
of the memo.
    Ms. Mills. Actually, Mr.----
    Mr. Burton. You know----
    Ms. Mills. Mr. Burton, I can understand and appreciate that 
concern, and I think one of the things we tried to do was be 
very responsive to this request because we had such a short 
period of time to try and address it. And I can appreciate how 
that might appear, and it is certainly the reason why I think 
it is not worth any debate and would provide it, and if I sat 
here tomorrow and knew that you all would be seeking this 
document again, I would certainly provide it.
    I think what we tried to do was be uniquely responsive to 
your requests. And I appreciate your concern.
    Mr. Bennett. Just to wind up, and I will come back in just 
1 second, Ms. Mills; Mr. Ruff, in terms of this whole point in 
these documents, clearly this document that was turned over--
and I know that you wrote a very professional letter to 
Congressman McIntosh's subcommittee on October 28th, extending 
apologies and turning the document over--clearly that document 
was within the requirement of paragraph 3 of Congressman 
McIntosh's request; wasn't it?
    Mr. Ruff. Mr. Bennett, you will appreciate that it is very 
difficult for me to put myself back in the setting of last 
September because I had no involvement with this, no knowledge 
of the matter then or any discussions there were with Mr. 
McIntosh's committee and his staff.
    My view of this is, and without using the--abusing the 
chairman's language, by the time we got around to dealing with 
Mr. McIntosh's committee, after I arrived, there had been a 
considerably heated exchange of documents. In an effort to sort 
of cool the temperatures, I simply said, look, if it is even 
within shouting distance of responsiveness, produce it. This 
document is clearly within shouting distance.
    Whether I would have made the same call in September or not 
is something I simply can't put myself in the position to make.
    Mr. Bennett. And I understand your reluctance to second-
guess Mr. Quinn. But, essentially, Mr. Ruff, there is no 
question, as you make that call today, that clearly that 
document was within the request, should have been turned over, 
and you have turned it over, correct?
    Mr. Ruff. I have turned it over. As you quite properly 
said, I would never and don't intend to put myself in Mr. 
Quinn's shoes for this purpose.
    Mr. Bennett. And in light of the acknowledgment of the 
White House in today's Washington Post in terms of clearly it 
should have been turned over and it wasn't, just as--from the 
position of White House counsel, there is a concern about an 
overbreadth with respect to subpoenas and requests of 
documents, and something that I certainly will be sensitive to 
in acting in my role as chief counsel, the point of this 
exercise is to show that to the extent that there is this kind 
of fine hairsplitting, when clearly lawyers, regardless of 
their political persuasion, can clearly see that a document is 
required and then it is not turned over and then there is later 
acknowledgment by the White House spin office, well, yes, you 
are right, we should have turned it over, that causes the 
overbreadth of the request.
    And I can assure you on our side we will seek, to you and 
Mr. Breuer and to others, not to have these requests be too 
cumbersome. And in response we would hope that we would not 
have this fine hairsplitting, because as I think we would agree 
in light of the tone of some of the questions today, it upsets 
members of this committee and raises suspicions, whether 
justifiable or not.
    Do you understand what I am saying?
    Mr. Ruff. I understand your concerns. I can guarantee you 
that my hairsplitting tools are nowhere to be found. We take a 
responsible, but I hope a broadly reasonable, approach to 
responding to this committee's requests.
    Mr. Bennett. Thank you, Mr. Ruff, Mr. Breuer.
    I have no further questions, Mr. Chairman.
    Mr. Burton. Mr. Barr has returned and I promised Mr. Barr 
before we adjourned I would give him one more brief round for 
questioning. He has not finished his second round, Mr. Fattah.
    Mr. Fattah. Mr. Chairman, the majority has just used up at 
least 13 minutes, and now you are suggesting that you be given 
another 5 without an opportunity for the minority to speak?
    Mr. Burton. Mr. Fattah, under the agreement that was agreed 
to by both sides at the beginning, with each group of witnesses 
there was supposed to be 30 minutes for both majority and 
minority counsel.
    Mr. Fattah. If you think it is fair, Mr. Chairman, I will 
go along with you. Do you think that is fair?
    Mr. Burton. Mr. Fattah, I always want to be fair. Would you 
like to question some more?
    Mr. Fattah. I just want to clarify for the record one more 
time, Ms. Mills, Jack Quinn was your supervisor?
    Ms. Mills. Yes.
    Mr. Fattah. And when you conferred with him about whether 
this was responsive, you jointly made the decision that it was 
not responsive?
    Ms. Mills. That is correct.
    Mr. Fattah. And then at a subsequent time, Mr. Ruff was 
your supervisor?
    Ms. Mills. That is correct.
    Mr. Fattah. The person you reported to?
    Ms. Mills. Yes.
    Mr. Fattah. You conferred with him?
    Ms. Mills. Yes.
    Mr. Fattah. You decided that it was responsive?
    Ms. Mills. And I concurred with producing the document.
    Mr. Fattah. And you provided the document?
    Ms. Mills. Correct.
    Mr. Fattah. Thank you.
    Mr. Burton. Before I yield for a final group of questions, 
and then we can all go have an egg salad sandwich, Mr. Ruff, 
the committee will submit questions to you for the record and 
would appreciate if you would make sure that they are answered 
in a timely fashion.
    Mr. Ruff. I will do my very best, Mr. Chairman.
    Mr. Burton. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    I would like to just return briefly to two particular 
topics that we have touched on. One which has been touched on 
by a number of people, and I do this at the risk of having 
folks on the other side complain again about repeating 
ourselves, but I think it does bear repeating.
    Mr. Ruff, both you and Ms. Mills have continually, and I 
can understand why, when we put up--if you would put up this 
document, refer to this document, you all keep using the word 
``compatible'' or ``compatibility'' or whatnot. I can 
understand why you want to do that because using a word like 
``compatible,'' which is a word used in one--in this other 
memo, may make the difference between something being legal and 
illegal.
    If you have two data bases, one that belongs to the 
taxpayers of this country, that is used for the use of the 
President and his administration for official purposes, and if 
you have another one that is a political data base not paid for 
by the taxpayers of this country to be used for whatever 
political purposes, a political campaign or the DNC or the RNC 
wants to use it, then that is fine. And you can take steps, I 
believe, under the law to make those two systems compatible. I 
don't think that there is any inherent illegality or any 
inference of illegality if that is what we are talking about.
    This document says something very different, and it puts 
us, I believe, squarely in the realm of an inference of and 
evidence of illegality. When you go from making two systems 
compatible to integrating systems, that is very different.
    And I think also, if you look at the specific language on 
exhibit 162-2 in the first paragraph on page 2, I think you 
also very clearly go from the realm of something that is OK to 
do, and that is simply taking steps by the two entities, 
discretely, making sure that their data bases are compatible, 
you go from that into people at the White House putting 
together a data base directly for a political entity, the DNC 
or an outside campaign, and you discuss, as this document does, 
more than just making those two systems compatible, even though 
they are discrete, to exchanging data back and forth, taking 
data from one to the other, you go from the realm of something 
that has the presumption of something that is permissible and 
legal into the area, the arena, of something that is possibly 
illegal and for which there is an inference of illegality.
    [Note.--Exhibit 162-2 can be found on p. 112.]
    Mr. Barr. So I understand why you all are very hesitant to 
use the terminology that appears in this document and shy away 
from what is here.
    My only point is, I think we are talking about something, 
quite aside from the obstruction, which I believe has been 
practiced in holding on to this document as being nonresponsive 
when clearly on its face it is clearly responsive, and this 
other document as well, for the time that it was withheld, I 
think that we are talking about something--and my only distress 
over this point, Mr. Ruff, is that you won't even admit that 
there is a possibility that maybe something had gone wrong here 
or there is at least some possible inference or possible 
illegality.
    Mr. Ruff. May I----
    Mr. Barr. I think clearly there is.
    Mr. Ruff. May I respond briefly, Mr. Congressman?
    Mr. Barr. Briefly, please.
    Mr. Ruff. Yes. First of all, let's talk--the word 
``integrated'' is, of course, neither your word nor mine. It is 
Mr. Bailey's word. I have no idea, I have not spoken to Mr. 
Bailey, about what he intended, although I understand he has 
made a public statement yesterday suggesting that he understood 
what the rules were and intended to abide by them.
    But even beyond that, let's assume the very worst, that Mr. 
Bailey, when he wrote this memo, believed that it was all right 
or didn't believe that it was all right, to integrate the data 
bases. To my knowledge, there is not a single piece of evidence 
anywhere that, in fact, anything wrong was ever done with 
respect to the construction or use of WHoDB.
    If there is evidence of impropriety, I am sure that the 
authorities will pursue it properly and deal appropriately with 
the people involved.
    Mr. Barr. Well, I know that you taught, and very ably, 
contract law at Georgetown and not criminal law, but I must 
assume that you are familiar, for example.
    Mr. Ruff. I also taught criminal law. Not to you, 
Congressman.
    Mr. Barr. OK. Then I know that you would be familiar with, 
for example, the law of conspiracy, criminal conspiracy, that 
one can engage in and be convicted of engaging in a conspiracy 
even though one ultimately may extricate themselves from that 
conspiracy and that would shield them from liability after they 
withdraw if, in fact, they actually withdraw.
    But the fact that ultimately the two data bases may not 
have been fully implemented and integrated does not mean that 
there were not steps taken in that direction which at least on 
the surface it appears to me that there were. And to simply 
say, well, just because eventually the ultimate or an ultimate 
crime was not consummated does not mean something wrong 
occurred leading up to the point where that decision may have 
been made.
    Mr. Ruff. Both of us used to hold the same job, one in 
Atlanta and the other in the District of Columbia, in which we 
tested matters against available evidence to determine whether, 
in fact, there was any basis to believe that criminal activity 
had occurred.
    In my judgment, Congressman, with all due respect, there is 
absolutely no evidence of any such activity in this case.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Waxman. Mr. Chairman.
    Mr. Burton. The gentleman's time has expired.
    The gentleman from California.
    Mr. Waxman. Our side is entitled to half-hour questions. I 
can't imagine going through anything more. This has been 
redundant. It is now quarter after 5 in the afternoon. You have 
been here since 10 in the morning today, not that we have had 
all that time for questions and answers but almost all that 
time. We had breaks for votes on the floor.
    You were here yesterday almost all day as well. I don't 
think after all of those hours we have learned anything that we 
didn't know already. I apologize to you on behalf of those of 
us who are offended by some of our colleagues who I think were 
bullying you, but there is nothing more--unless you have 
something more you want to say, there is nothing more I have to 
ask you.
    Mr. Ruff. Well, I would like to stay and chat for another 
half-hour or so.
    Mr. Waxman. Do you want to speak into the microphone?
    Mr. Ruff. I would like to stay and chat for another half-
hour or so but in deference to my colleagues, who aren't as 
filled with stamina as I am, I think I would be happy to go 
home.
    Mr. Waxman. Well, Mr. Chairman, on the assumption that you 
are not going to have more people ask questions, we will yield 
back our time.
    Mr. Burton. Mr. Fattah.
    Mr. Waxman. No, no, we yield back our time.
    Mr. Burton. The gentleman yields back the balance of the 
time.
    Mr. Ruff, we would like to ask the Counsel's Office to 
review the depositions we discussed on Wednesday by early next 
week regarding executive privilege concerns so that we can make 
your deposition part of the public record.
    Mr. Ruff. We will do that and get back to Mr. Bennett as 
quickly as possible, Mr. Chairman.
    Mr. Burton. Once again, I want to thank you and Lanny Davis 
for being with us. Lanny, it is good seeing you.
    We thank you for being with us today. We are sorry for the 
delays that were caused by the actions on the floor. But we 
appreciate your help and your patience. Thank you.
    Mr. Ruff. Appreciate your courtesy, Mr. Chairman. Thank 
you.
    [Whereupon, at 5:20 p.m., the committee was adjourned.]
    [The depositions of Cheryl Mills, Michael Imbroscio, 
Dimitri Nionakis, Lanny Breuer, Jack Quinn, Steven Smith, 
Colonel Joseph Simmons, and Alan Sullivan follow:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                     DEPOSITION OF: CHERYL D. MILLS
                                   Monday, November 3, 1997

    The deposition in the above matter was held in Room 2247, Rayburn 
House Office Building, commencing at 8:15 a.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Barbara Comstock, Chief Investigative Counsel; Uttam Dhillon, Senior 
Investigative Counsel; Kristi Remington, Investigative Counsel; Kenneth 
Ballen, Minority Chief Investigative Counsel; Christopher Lu, Minority 
Counsel; David Sadkin, Minority Counsel; and David Jones, Staff 
Assistant.
For MS. MILLS:
    W. NEIL EGGLESTON, ESQ.
    Howrey & Simon
    1299 Pennsylvania Ave., N.W.
    Washington, D.C. 200040-2402

    Ms. Comstock. Good morning. We are on the record this morning for 
the deposition of Cheryl Mills, Deputy Counsel at the White House. She 
is joined this morning by her counsel, Neil Eggleston. My name is 
Barbara Comstock. I am the designated Majority counsel this morning. I 
will be joined by David Jones and later Kristi Remington.
    I will at this time ask Minority counsel to identify themselves.
    Mr. Ballen. Ken Ballen.
    Ms. Comstock. Ken, you will be designated counsel this morning?
    Mr. Ballen. Yes. Also present are David Sadkin and Chris Lu.
    Ms. Comstock. We are going to skip the preliminary statement this 
morning by agreement with counsel and the Minority, and also skip over 
Ms. Mills' background and get right into matters so as to expedite and 
shorten things up here.
    Mr. Eggleston. That's fine.

 THEREUPON, CHERYL D. MILLS, a witness, was called for examination by 
   Counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

                      examination by ms. comstock:
    Question. Ms. Mills, your official title is Deputy Counsel to the 
President?
    Answer. Yes.
    Question. And Special Assistant?
    Answer. Deputy Assistant.
    Question. Deputy Assistant to the President?
    Answer. Yes.
    Question. Okay. And who do you report directly to?
    Answer. Chuck Ruff.
    Question. And do you have anybody else that you have any reporting 
capacity to?
    Answer. We all report to the President of the United States.
    Question. Okay. Is there anybody in the Deputy Chief of Staff's 
office to whom you report?
    Answer. I report to Chuck Ruff.
    Question. So there is nobody other than in the Chief of Staff's 
office or the Deputy Chief of Staff's office that you report to on a 
regular basis?
    Answer. That's correct.
    Question. You are familiar in the past that Jane Sherburne had a 
reporting relationship to Harold Ickes?
    Answer. I am familiar with that description.
    Question. And have you ever, in your capacity as the Deputy 
Counsel, had any type of reporting relationship like that to the Deputy 
Counsel--I mean Deputy Chief of Staff's office or Chief of Staff's 
office?
    Answer. No.
    Question. Who are the attorneys in the Counsel's Office who work 
under you, directly, on a day-to-day basis?
    Answer. Well, as Deputy Counsel you just have general supervisory 
responsibilities and there is a list of people who work in our office 
who would fall under that.
    Question. Okay. In that capacity, do you then have a role 
overseeing Mr. Breuer and his team of attorneys and paralegals that 
work on special investigations?
    Answer. Well, Mr. Breuer reports to Chuck Ruff, and so I think we 
have more of a consultative relationship with the attorneys who work 
under them. Yes, I am still responsible for them if there are 
administrative issues, including Lanny's, like parking, office space 
and all the other attractive things that go with my position.
    Question. On a day-to-day basis do attorneys from Mr. Breuer's 
office come to you for advice and information?
    Answer. I try to be available for all attorneys so if they have 
questions or things they would like to talk to me about--I am always 
responsive to them like I am responsive to anybody else in the office.
    Question. Are there other attorneys in the Counsel's Office--you 
began your work in the Counsel's Office on January 20th, 1993; is that 
correct?
    Answer. Yes.
    Question. Are there other attorneys in the Counsel's Office who 
have as long a tenure as you do at this time?
    Answer. Bruce Lindsey began on January 20th. He was not in the 
Counsel's Office at that time. He was Director of Presidential 
Personnel. But he has been in the White House since that time period. 
There are a couple of attorneys who are in the vetting shop who have 
been there probably from a very early point, but I can't identify what 
date it would be.
    Question. Okay. Who is that?
    Answer. Stacey Reynolds has been there for quite a period of time.
    Question. Is there anybody else who has been there since '93 or so?
    Answer. Not that I can recall them sitting here right now.
    Question. Would it be fair to say that you have the most historical 
knowledge then of the Counsel's Office at this point of the people who 
are there at this time?
    Answer. It is certainly fair to say I have been there the longest.
    Question. Okay. Did there come a time where you became involved in 
handling matters related to fund-raising investigations?
    Answer. Yes.
    Question. And when was that?
    Answer. October 30th, 1996.
    Question. Could you tell us how that came about?
    Answer. Ms. Sherburne, who had been handling the matters as they 
had begun to arise, indicated that she was going to be leaving the 
Counsel's Office and at that time those--that responsibility for the 
campaign finance issues was transitioned to me.
    Question. Did Ms. Sherburne speak with you about this matter?
    Answer. Sure, she did. She just went through the different files 
and materials that she had when she was transferring.
    Question. All right. What files did she transfer to you?
    Answer. She had created basically newspaper clipping files of 
different people based on the different articles and other things like 
that that had occurred, and so in those files she basically transferred 
all of those different materials to me.
    Question. All right. Do you recall how many files there were?
    Answer. I don't.
    Question. Bigger than a bread box?
    Answer. It was, I would say, two bread boxes, maybe.
    Question. Did it deal with matters relating to John Huang?
    Answer. It dealt with all the matters related to campaign finance, 
including John Huang. So if there were articles at that time, which I 
believe there were, about John Huang, there would have been materials 
related to that as well.
    Question. Would it have included things such as a $250,000 
contribution that--to Chong Yam (phonetic) at that time?
    Answer. I don't recall if there were newspaper articles, or things 
like that, about that at that time; it would have likely included that. 
I can't really specifically recall all the different materials.
    Question. Did anybody else in the Counsel's Office speak with you 
about taking over these duties?
    Answer. Mr. Quinn.
    Question. All right. And what did he ask you to do?
    Answer. He basically said it was a transitionary matter if I could 
handle this until we hired someone to take responsibility for doing the 
same position that Ms. Sherburne had done.
    Question. All right. And prior to--this was October 30th when you 
started with these duties?
    Answer. Yes.
    Question. Had you been involved in any of these matters prior to 
October 30th?
    Answer. Not really. I am sure if people had questions related to 
political activity or something like that or about the Hatch Act, they 
would have called and asked me a question, but I wasn't involved in the 
day-to-day handling of it.
    Question. Okay. Now, prior to this, had you been involved in any 
advisory capacities about fund-raising or campaign matters?
    Answer. I don't understand your question.
    Question. You said you generally dealt with Hatch Act things, that 
was one of the things that you dealt with.
    Answer. One of my issue areas of responsibility was the Hatch Act, 
yes.
    Question. In that capacity, did you ever write any memos to White 
House employees on how to handle political activities at the White 
House?
    Answer. Yes.
    Question. All right. And could you describe what you did in that 
capacity?
    Answer. As a general matter, we provide guidance to the staff, and 
I think you are probably familiar with it in the form of the Ab Mikva 
1995 memoranda on political activity, but we provide that kind of 
advice and guidance to the staff regarding political activity.
    Question. I am showing the memo the witness has mentioned, which is 
an April 27th, 1995 memo, to White House staff from Abner Mikva, 
Counsel to the President at that time, and Cheryl Mills, Associate 
Counsel to the President in 1995.
    The topic of this memo is Presidential Campaign-Related Political 
Activity. We don't have a Bates stamp number on this document.
    Could you describe the purpose of this memo?
    Mr. Eggleston. Are you going to mark this as an exhibit?
    Ms. Comstock. Yes. I will make this Deposition Exhibit No. 1.
    [Mills Deposition Exhibit No. CM-1 was marked for identification.]

    [Note.--All exhibits referred to may be found at end of 
deposition on p. 323.]

    The Witness. Could you repeat your question?

                      EXAMINATION BY MS. COMSTOCK:

    Question. Could you describe the purpose of this memo?
    Answer. The purpose of the memo is to advise staff regarding rules 
with respect to the Hatch Act and other obligations that we have as 
Federal employees with respect to political activity.
    Question. Directing your attention to page 3 of this memo, item No. 
3, which actually is marked----
    Ms. Comstock. I will just note for the record the copy that we have 
has been marked. This is a copy that we had received informally. So 
these are not markings, I believe, from the White House and they aren't 
the witness' markings. They just are markings on this document.
    Mr. Ballen. I would note for the record the last page of the 
document is a fax apparently from C. Boyden Gray at Wilmer, Cutler & 
Pickering, dated March 4th, 1997.
    Ms. Comstock. Actually, I think that may go to another document, so 
why don't we take that off because I don't think that came with this. 
There are some other memos by Mr. Gray that that may have gone with. So 
thank you for identifying that.
    Mr. Eggleston. Just so that I am clear on the record, the document 
that was labeled Mills 1 had attached to it a memorandum from Boyden 
Gray, who was Counsel to the President in a Republican administration. 
I take it you are not telling us you got this memorandum from Mr. Gray; 
he has transmitted other documents to you and that relates to that?
    Ms. Comstock. Yes. Actually, I am not sure--I am not sure--I know 
we have gotten this memo somehow informally. I think we may have 
actually gotten a copy ultimately from the White House also. I think 
this copy that is before us, which is marked has some other markings. I 
know we did get some other memos both from the White House and from 
other outside sources. So I am just not sure where this one came from.
    So I just want to make clear for the record that the underlinings 
or anything like that are not from the White House, from the witness, 
and let's move forward in that way. Just so that we have a record on 
that.
    Mr. Eggleston. I mean, Mr. Gray, of course, would not have been in 
the White House in April of 1995, so if he had it he did not receive it 
in a capacity as a White House employee?
    Ms. Comstock. Right. I believe this memo has been floating around 
out with the press and a lot of people since last spring or summer--I 
know long before we had it from the White House.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Directing your attention again to item No. 3, where it 
reads, that Federal employees, including White House employees, may not 
ever knowingly solicit, accept or receive a political contribution from 
any person, including a subordinate or other Federal employee, did 
you--you included that in this memo?
    Answer. Yes.
    Question. And could you tell us why that was included?
    Answer. It is one of the restrictions in the Hatch Act for Federal 
employees.
    Question. Okay. And besides sending out this memo, was there any 
effort to discuss this memo or advise people at the White House about 
this?
    Answer. Well, with respect to this memo, separately, no, but we 
regularly have ethics training and also during the course of the time 
period when the President was a candidate we had different meetings 
with staff to advise them about the rules of political activity and 
particular questions that particular staff might have as relates to 
their duties.
    Question. Okay. And so when it says no one can ever knowingly 
solicit, accept or receive, I take it that means exactly what it says, 
you cannot accept checks at the White House?
    Answer. No, actually the Hatch Act regs and also some of the 
opinions that interpret it define ``accept'' and ``receive'' probably 
differently than what they might ordinarily have as their kind of 
everyday usage, but other than that, yes.
    Question. Okay. And does that mean, you know, if, for example, 
checks are mailed in there is a process by which they can be 
forwarded----
    Answer. Yes.
    Question [continuing]. To a campaign?
    But as far as somebody accepting a check in the White House, 
someone coming in and handing a check to the White House, is this 
designed to prevent that type of thing?
    Answer. If you are asking with respect to the Hatch Act, if someone 
hands you a check if you are not an authorized recipient, then that is 
not in violation of the act.
    Question. Okay. Handing a check to somebody?
    Answer. Correct.
    Question. And are you aware then of individuals at the White House 
accepting checks for political campaigns?
    Answer. I am aware of the incident with respect to Ms. Williams. 
But other than that, I don't have any other knowledge.
    Question. Okay. So at no time--actually, on Ms. Williams' 
situation, were you aware at the time of Ms. Williams' accepting that 
check in March of '95?
    Answer. No.
    Question. Did you know anything about Johnny Chung who was the 
individual who is alleged to have given the check to Ms. Williams?
    Mr. Eggleston. Did she know in March of 1995?
    Ms. Comstock. In March of 1995.
    The Witness. No.

                      EXAMINATION BY MS. COMSTOCK:

    Question. When did you first hear about that incident?
    Answer. I don't recall. Around the time that I am sure it was 
publicized in the media would have been around the time that I learned.
    Question. Did anybody call you for advice on that matter or about 
the particulars involved in that matter?
    Answer. I don't recall. I mean, at that point obviously whenever 
there are issues or questions related to the Hatch Act, I talk to 
numerous people because obviously there are press inquiries and other 
things like that, so I am certain I would have had conversations, but I 
couldn't tell you particularly with whom.
    Question. And other than the incident with Ms. Williams, were you 
aware--you were not aware then of any other incidents where checks were 
given to individuals at the White House?
    Answer. I am not personally aware of any, no.
    Question. Did you ever hear about any other instances from anybody 
at the White House?
    Answer. No, because I think I would have been made personally aware 
or heard of something, but I have not heard of another situation in 
which someone was handed a check.
    Question. You have not heard of another situation from any source?
    Answer. That's correct.
    Mr. Ballen. And just so the record is clear, you are not making any 
legal judgment about the Maggie Williams' situation, are you?
    The Witness. No, I am not, but I am obviously under the Hatch Act. 
Her situation is not inconsistent with the Hatch Act. It is consistent 
with the Hatch Act.

                      EXAMINATION BY MS. COMSTOCK:

    Question. So is it the position of the White House then that 
individuals can accept checks at the White House?
    Answer. I don't know that the White House has a position one way or 
another. I think I was answering the question with respect to the Hatch 
Act.
    Question. Okay. But on this memo, was the purpose of item number 3 
here in this memo to instruct the employees at the White House not to 
accept checks from individuals?
    Answer. What I was attempting to do was convey to them the 
requirements of the Hatch Act, and this is one of the particular--in 
fact, the language is actually specifically from the Hatch Act, and I 
was trying to convey that to them.
    Question. And are you familiar with the videotape of the coffee in 
which Don Fowler tells an individual not--that he can't give him a 
check in the White House?
    Answer. I have not seen that videotape. I am familiar with it from 
descriptions of it in the press, but I have not seen the videotape.
    Question. Okay. And do you know if Mr. Fowler was ever advised by 
anyone at the White House as to whether or not checks could be accepted 
in the White House?
    Answer. I do not know if he was advised.
    Question. Did you ever talk with anyone in the DNC about checks 
being transmitted or given to anybody during events at the White House?
    Answer. I don't believe so.
    Question. All right. Were you in regular touch with Joe Sandler?
    Answer. Yes.
    Question. During your--well, could you just tell us your 
relationship with Joe Sandler in terms of how often you are in touch?
    Answer. Joe Sandler was and is the General Counsel for the DNC, so 
I would say certainly since he gained that position, and I don't recall 
when that is; he is a person with whom I have conversations to ensure 
that we are making sure both the DNC and the White House abided by the 
appropriate restrictions with regard to political activity.
    Question. Okay. Did you have occasion to discuss at any time with 
Mr. Sandler whether or not checks to the DNC or any political campaign 
could be given to people at events at the White House?
    Answer. I don't believe so. I believe my conversation with Mr. 
Sandler was with respect to the procedures for checks that were mailed 
into the White House being provided to the DNC.
    Question. And what did you tell him about that?
    Answer. I don't recall anything in particular, other than we had a 
process whereby there was a mail room where people had to send any 
checks that they might have received and also where checks might have 
been mailed into--their messenger had to come by and pick those up 
regularly.
    Question. And whose office was that?
    Answer. That would have been in Correspondence, Jim Dorskind's 
office.
    Question. In fact, in this memo, the April 27th, 1995 memo, on page 
4, the bottom of page 4, receipt of campaign contributions at the White 
House, Mr. Dorskind is identified there as the individual to whom 
checks are supposed to be forwarded if they are received at the White 
House?
    Answer. Correct.
    Question. Okay. In this paragraph it talks about occasionally 
contributions intended for a campaign committee may be addressed to the 
White House and delivered with other mail. Do you know how often that 
occurred?
    Answer. I do not.
    Question. Okay. Did individuals call you when that occurred or talk 
to you about it?
    Answer. Typically not. I mean, I think the directions were probably 
clear enough that I didn't tend to get questions like that.
    Question. Do you have any idea about the volume of mail that would 
have been directed to Mr. Dorskind?
    Answer. I do not.
    Question. At any time did Mr. Dorskind come to you to talk about 
how to handle these checks or what to do with them?
    Answer. At the time we--that this was placed in the memo, I am sure 
I would have had conversations with him regarding ensuring that the 
messenger came and picked it up and designating a place where they 
would be picked up from.
    Question. Would a messenger from the DNC come over to pick them up 
or some other entity?
    Answer. From the DNC.
    Question. Okay. Were there also--was there occasion for 
contributions to be sent to the President's legal expense trust also 
that would be sent to the White House?
    Answer. Yes.
    Question. Okay. And would Mr. Dorskind also receive those from 
people at the White House if that occurred?
    Answer. No.
    Question. Okay. How were those transmitted?
    Answer. Those typically would have been forwarded to my office and 
then a messenger from the Presidential Legal Expense Trust would have 
come and picked them up.
    Question. Was there any direction provided to individuals at the 
White House about what to do with checks from the trust?
    Answer. Yes.
    Question. And were memos sent out about that also?
    Answer. At the time when the trust was set up, we did send out a 
memo that directed people to recognize the distinction between the 
trust and the White House in terms of separate entities and that the 
contributions for the Legal Expense Trust should be sent to the 
Counsel's Office. They should not be answered.
    Question. Okay. In this paragraph on the bottom of page 4, it 
appears that generally you envisioned the contributions that would be 
forwarded to Mr. Dorskind would be ones that would be mailed in; is 
that correct?
    Answer. Yes.
    Question. All right. And other than the incident with Ms. Williams, 
it is your testimony then that you do not know of any other checks that 
were given to individuals at the White House?
    Answer. I am not familiar with any. That's not to say that people 
got checks that were given to them at the White House they wouldn't 
have forwarded them to Mr. Dorskind. I am just personally not familiar 
with it.
    Question. Do you know of, in the case of Ms. Williams if she did, 
in fact, forward to Mr. Dorskind the check she received from Mr. Chung?
    Answer. I believe she did.
    Question. Do you recall how you learned that?
    Answer. I believe during the time period that this was being 
reported in the media. One of the things that I think was reported was 
with respect to the fact that she had had the particular check 
forwarded, I believe, to that office, but I am only guessing. I really 
don't have a particularized knowledge of exactly where it was forwarded 
to.
    Question. Okay. You have not talked to Mr. Dorskind then about that 
particular check?
    Answer. No, I have not.
    Question. Okay. Or have you talked to anybody, Ms. Williams or 
anyone in her office, about how that check was forwarded?
    Answer. I am certain during that time period I would have spoken to 
Ms. Williams or any of her assistants to make sure that we were giving 
accurate information to the press, but I don't recall any 
particularized conversation which would track through where exactly the 
check went. It was my understanding that she had forwarded it.
    Question. Okay. Can you recall with any more specificity how the 
check was handled?
    Answer. No.
    Question. All right. Okay. Again, if you turn to page 3 of this 
memo, footnote No. 5, it says the sole exception to this prohibition--
and this is a footnote to the paragraph on Federal employees not being 
able to solicit, accept or receive political contributions from any 
person. It says, the sole exception to this prohibition is Federal 
labor or employee organizations, and then it indicates, please consult 
our office before undertaking any action implicating this exception.
    Could you explain why that footnote was here?
    Answer. The Hatch Act provides for people being able to solicit 
people who are members of Federal labor organizations, and we provided 
that exception in there to identify the fact that the act does provide 
for an exception but we wanted to ensure prior to anyone actually 
soliciting that they consult with our office.
    Question. Did, in fact, people consult with your office about this 
exception?
    Answer. I am not aware of anybody consulting with us regarding that 
exception, and I think I typically would be the person who would have 
been asked.
    Question. Okay. Were there any other people in your office who 
worked on these matters with you?
    Answer. Towards the end of the campaign, we hired a woman named 
Dawn Chirwa who began working on these matters, but typically I ended 
up handling these matters and she shadowed me.
    Question. Is Ms. Chirwa at the White House now?
    Answer. Yes.
    Question. What matters does she generally work on?
    Answer. Ethics.
    Question. In the course--before we return to your duties in fund-
raising in general, do you also handle matters related to other 
Independent Counsels?
    Answer. I don't have duties related to fund-raising. I actually 
have duties related to political activity where that was typically the 
area that I had responsibility with respect to.
    Question. Okay. Then actually I was meaning your interim duties 
that you had in October when Ms. Sherburne left and before Lanny Breuer 
came on?
    Answer. You mean campaign finance?
    Question. Yes.
    Answer. When you said fund-raising, I think of fund-raising as 
fund-raising as opposed to the fund-raising matter.
    Question. What I wanted to ask you was in terms of other duties 
that you have regarding other investigations?
    Answer. Currently or previously?
    Question. Both. Historically, what your involvement has been in 
handling matters related to other investigations?
    Answer. With respect to the Independent Counsels, I have worked 
with respect to the Espy and Cisneros Independent Counsel matters.
    Question. What have your duties with that involved?
    Answer. Responding to requests that they provide to us asking for 
information that they requested.
    Question. That includes responding to subpoenas?
    Answer. Yes.
    Question. What was your standard way of obtaining information that 
was subpoenaed in those investigations?
    Answer. Depending on what the nature of their subpoena was, we 
would send the particular request to the targeted audience through a 
directive that we drafted using the information provided in the 
subpoena; collect the particular information that was provided; review 
it for responsiveness and provide the responsive materials to the 
particular Independent Counsel office that was seeking it, and if there 
were privileged matters, address them as well.
    Question. Okay. And did you have occasion also to work with various 
attorneys of the individuals involved in those investigations?
    Answer. Typically not, primarily because at the stage at which the 
Independent Counsel was discussing matters with us we had the 
information they were seeking; it didn't require us to consult or seek 
other information. With respect to the Espy matter, prior to the 
Independent Counsel sending a request to us we obviously spoke to Mr. 
Weingarten. He was representing to Mr. Espy at that time and made 
several visits to the White House prior to Mr. Espy's decision to 
resign.
    Question. Okay. And in the course of those meetings, were notes 
taken?
    Mr. Eggleston. Ms. Comstock, I must say that Mr. Espy is under 
indictment, and I really am not sure why this is within the course of 
your investigation, which I wouldn't ordinarily object to, but there is 
a pending indictment of Mr. Espy.
    Ms. Comstock. Actually, I am really just trying to go at how you 
handle--really more historically how you handle investigative matters. 
So I appreciate your concerns. I really want to see how you handle, you 
know, subpoenas in general and to the extent that you can provide some 
guidance on, you know, discussing with attorneys, and we don't need to 
go into the particulars of what was discussed.
    Mr. Eggleston. Thank you.
    Ms. Comstock. But your interaction with the attorneys, the kind of 
standard operating procedures that you have in responding to subpoenas 
and handling investigative matters.
    The Witness. Typically when we get a request, we review the 
request. We draft a directive. We circulate the directive to the 
particular audience that has been requested.
    When we receive the documents back, we go through them for 
responsiveness. To the extent we have questions or other things, we 
might talk directly to the individuals who were involved in preparing 
the materials. To the extent that those people might be represented by 
attorneys, we obviously would consult with them in that process. We 
would then go about providing or collecting the responsive material and 
providing it to the requesting entity.

                      EXAMINATION BY MS. COMSTOCK:

    Question. So is the purpose of those contacts in those types of 
situations to be able to effectively respond to the subpoenas?
    Answer. Typically it is to be able to respond to subpoenas. Often 
they are the subject of press attention, so they might be to respond to 
press questions to ensure that we are giving out accurate information 
with respect to them. Most of the time, the goal of those conversations 
is to provide accurate information to whatever entity, and also the 
public to the extent that they also are inquiring with respect to the 
matter.
    Question. Okay. Are you aware of any other individuals at the White 
House working on, for example, the Espy matter, or is that largely 
handled out of the Counsel's Office?
    Answer. It is largely handled out of the Counsel's Office.
    Question. You indicated that you also worked on the Cisneros 
matter?
    Answer. Yes.
    Question. Do you know if anyone at the White House was ever--in the 
Counsel's Office was ever tasked with handling matters related to the 
Ron Brown investigation?
    Answer. Yes. During that time period initially Beth Nolan was 
tasked and it was transitioned to me.
    Question. Okay. And in the course of that, did you have occasion to 
deal with attorneys of various witnesses in that matter?
    Answer. No, we did not because we didn't receive--we didn't have a 
lot of interaction with the Independent Counsel prior to the 
Independent Counsel's decision to terminate upon Ron Brown's death.
    Question. Do you know if Mr. Podesta was involved in contacting any 
witnesses or potential witnesses in the Ron Brown matter?
    Answer. I am not aware that he is.
    Question. Okay. Do you know of any of his duties that would be 
involved in doing that?
    Answer. No.
    Question. Okay. Do you know if in that case, the Ron Brown 
investigation, if Reid Weingarten had been contacted in that matter?
    Mr. Ballen. I am going to object to this entire line of 
questioning. I think from the Minority's point of view, we have been 
lenient with the questions as a matter of background, but that Ms. 
Mills's involvement with the Ron Brown matter has any relationship at 
all to our investigation or subpoena compliance, I mean, you asked her 
the general question on background and we are getting far afield here, 
and I don't think it is appropriate.
    Ms. Comstock. Actually, the committee's investigation does include 
matters related to Ron Brown and a number of the witnesses involved in 
that. I don't think this is going to be a very long line of inquiry, 
but I just wanted to find out what information in that area the witness 
might have.
    Mr. Eggleston. I actually did not understand that. Is it in the 
resolution?
    Ms. Comstock. I know we did not discuss this particularly, so I 
don't intend to go into detail, but if you could----
    Mr. Eggleston. If you are asking her general questions about 
compliance and then you are going to get to, did you comply in the same 
fashion in the fund-raising investigation, I think that's a background 
if you want to cover it generally.
    Ms. Comstock. Also in response to our subpoena, we do have 
documents, actually subpoena requests for documents related to the Ron 
Brown investigation. So I did want to, you know, get a sense of what 
had been done in that area, if possible. I mean, I understand we did 
not specifically talk about it, so if the witness is not prepared in 
detail to talk about it, I understand; but if there is general 
information she might have, I think it would be helpful for the 
compliance process.
    Mr. Ballen. Is it in the resolution or the report, the Ron Brown?
    Mr. Eggleston. Is this a two-page resolution?
    Mr. Ballen. No. It should be three pages.
    Mr. Eggleston. Usually in resolutions it says what you are 
investigating, which I don't see here.
    Mr. Ballen. That's just the rules.
    Mr. Ballen. Just for the record, the resolution says, while Ms. 
Comstock is looking for that, this resolution shall apply to the 
investigation by the Committee on Government Reform of political fund-
raising improprieties and possible violations of law. And the 
Minority's view of that is that is in the conjunctive.
    Mr. Eggleston. Yes, I understand. I would certainly dispute that 
they could pass a resolution saying just violations of law and depose 
anybody about any possible violations of law.
    Mr. Ballen. Although we have had that point of view articulated to 
us in several depositions that would involve any possible violations of 
law, the only fair reading of that is political fund-raising 
improprieties and possible violations of law. And, frankly, I fail to 
see how the Ron Brown matter relates to that in any way, the matter of 
investigation with an Independent Counsel.
    Ms. Comstock. I am sorry. This is fairly lengthy and I have not 
marked this particular part. I think we can move on on this pretty 
quickly.
    Mr. Eggleston. Okay. If you want to do it as background, that's 
fine, but you are going to have to show me if you are investigating Ron 
Brown, because I would say the resolution does not include Ron Brown 
issues, did not relate to campaign fund-raising in 1996, since he was 
long dead by then.
    Ms. Comstock. The committee is looking at a number of areas in the 
Commerce Department and activities related to that, but I think if we 
can just move through--you know, what the Counsel's Office may have 
been handling in that regard I think we can move through this.
    The Witness. With respect to--like any other Independent Counsel 
matter, if they made a request to us we would have circulated it and 
sought whatever documents or materials. I truthfully don't recall there 
being a subpoena in the Ron Brown matter.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Then returning to when you first began working on matters 
related to John Huang and James Riady, which were the first issues that 
came up in October of 1996, can you tell us what you did after Ms. 
Sherburne provided you with the files and the information, what actions 
you then took?
    Answer. With respect to requests that we had from Members of 
Congress or from the press, we would obviously try and go about 
collecting information and being responsive to that in connection with 
those requests.
    Question. Okay. Were there individuals that you reached out to at 
the White House to try and find out what Mr. Huang's activities had 
been at the White House?
    Answer. Well, I am sure I did. I obviously went through and we had 
to collect his WAVE requests. I believe that was the requests we had 
from Chairman Clinger with respect to the WAVES of Mr. Huang; in the 
course of undertaking to provide that information, I am confident I had 
conversations with lots of people regarding his particular visits, so 
that we could give accurate information to the committee.
    Ms. Comstock. I am showing the witness an October 18th, 1996, 
letter to the President that was signed by Henry Hyde, Chairman Hyde, 
Chairman Clinger, at the time the Chairman of this committee, and 
Chairman Thomas of the Committee on House Oversight. I will make this 
Deposition Exhibit 2. Again, it is an October 18th, 1996 letter.
    [Mills Deposition Exhibit No. CM-2 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall receiving this letter or discussing this 
letter with anybody at the White House?
    Answer. I don't recall receiving this letter. I am sure I would 
have ultimately seen it, but I don't recall receiving this letter or 
having discussions regarding it.
    Question. Okay. Then directing your attention to the second page, 
where it discusses Mr. Huang's unavailability at the time in October 
for various parties to ask him questions about his activities, do you 
know if anybody at the White House was in touch with Mr. Huang in 
October of 1996?
    Answer. I do not know.
    Question. All right. So you were not in touch with Mr. Huang or his 
attorneys at that time?
    Answer. Correct.
    Question. And you have no knowledge of any other White House 
attorneys being in touch with him?
    Answer. That's correct.
    Question. Do you have any knowledge of DNC attorneys, Mr. Sandler 
or others, being in touch with Mr. Huang or his attorneys in October of 
1996?
    Answer. It was my understanding that Mr. Sandler was dealing with 
his attorneys and that Mr. Sandler had indicated that that is why they 
weren't able to talk with Mr. Huang directly. That's my only 
understanding.
    Question. Okay. Were you aware of discussions at the White House 
between and among Harold Ickes and Bruce Lindsey and Joe Sandler about 
matters related to Mr. Huang?
    Answer. I am sure if they had questions regarding the Hatch Act or 
his duties, and I recall one of the issues related to his move to the 
DNC and also Commerce, I would have had conversations regarding that, 
but I don't recall anything more particular than that.
    Question. Okay. Did you learn of any potential Hatch Act violations 
that Mr. Huang had been involved in?
    Answer. The only issue that I recall being raised was with respect 
to, I guess, his leaving of the Commerce Department and his starting at 
the DNC and that there may have been some overlapping period with 
respect to that because of government shutdown and Commerce not taking 
him off their payroll, something to that effect. That's my best 
recollection.
    Question. Do you recall how you learned that?
    Answer. I don't recall how I learned that. It might have been in 
conversations with Mr. Sandler. I just don't recall.
    Question. Okay. And that was when Mr. Huang initially had asked to 
go to the DNC at September 13th, 1995 meeting with the President and 
Mr. Giroir and Mr. Lindsey?
    Answer. I wasn't present at that meeting. I am confident you 
probably know that.
    Question. Yes.
    Answer. Okay.
    Question. So you are speaking, though, about that time when Mr. 
Huang requested to go to the DNC and then he left his Commerce 
Department job sometime in December?
    Answer. I am speaking about having learned in 1996 with respect to 
one of the questions being the time period in which he may have been on 
both the DNC and Commerce Department payroll because the Commerce 
Department had not transitioned him off their payroll. I am speaking 
about that.
    Question. Okay. And did you have occasion to talk to anybody at the 
Commerce Department about that?
    Answer. I just don't recall. I am sure if there were questions I 
would have tried to address them but I don't recall.
    Question. Okay. Do you recall if Mr. Quinn asked you to look into 
that?
    Answer. He did not.
    Question. Okay. Do you recall if Ms. Sherburne had already looked 
into that matter at the time when you assumed these duties on October 
30th?
    Answer. She may have.
    Question. All right. Do you know if she provided you with any files 
or notes on that?
    Answer. She may have.
    Question. All right. And to your knowledge, were all of the notes 
and files that Ms. Sherburne provided to you preserved--you know, 
whatever materials she had gathered at that time, she had passed on to 
you?
    Answer. Right. But the majority of her materials were clips and 
materials like that and other things that were in her files that had 
already been produced.
    Question. All right. You mean they have been produced to this 
committee?
    Answer. Correct.
    Question. Okay. Another one of the issues that came up in October 
of 1996 were payments to Webster Hubbell from the Lippo Group. Do you 
recall dealing with that matter at all in October of 1996?
    Answer. No.
    Question. All right. Do you recall at any time, while you were 
handling these matters during the transition time between Ms. Sherburne 
leaving and Mr. Breuer coming aboard in February of 1997 handling any 
matters related to Mr. Hubbell and the Lippo Group, or Mr. Hubbell in 
general?
    Answer. I recall the issues regarding Mr. Hubbell arising in 1997 
as opposed to in 1996. That's my best recollection.
    Question. Now, there were editorials and stories that appeared 
about the Lippo Group in early October 1996.
    Answer. Okay. I am not familiar with those.
    Question. If that refreshes your recollection?
    Answer. It doesn't.
    Question. Okay. And earlier in 1996, in February of 1996, in fact, 
Mr. Hubbell had testified before the Whitewater committee and was asked 
questions about Lippo. Did you have occasion to be involved in any 
discussions related to that?
    Answer. No.
    Question. Okay. That would have been Ms. Sherburne's responsibility 
at that time; is that correct?
    Answer. Yes.
    Question. Okay. And so nobody at any time in February 1996 came to 
you to ask you about any of those matters related to Mr. Hubbell?
    Answer. That's correct.
    Question. Okay. Did you ever have occasion to discuss with Mr. 
Lindsey any matters related to Mr. Hubbell and the Lippo Group?
    Answer. I am confident when this issue arose in the press sometime 
in early 1997 I would have had conversations with him. I don't recall 
having conversations with him prior to that time.
    Question. Okay. And we haven't gone through a lot of the 
preliminaries today, but just for the record, Mr. Lindsey is also 
Deputy Counsel at the White House?
    Answer. Yes, but he is an Assistant to the President.
    Question. Okay. And do you have any kind of reporting relationship 
to Mr. Lindsey on any regular basis regarding any of these matters?
    Answer. I do not.
    Question. Okay. But on a regular colleague basis, do you discuss 
these matters with Mr. Lindsey, or are your duties fairly separate so 
that you aren't discussing these matters?
    Answer. Our duties tend to be fairly separate. He tends to deal 
with more substantive issues like securities, litigation, products, 
tobacco. Those are typically not issues on which we overlap.
    Question. Okay. Do you know when you first came to take over these 
duties on October 30th, 1996, did Mr. Quinn give you any type of 
deadlines or how quickly information should be provided?
    Answer. No.
    Question. Okay. Do you know when you first came on board to take 
over these duties, did you have Mr. Huang's WAVES records at that time? 
Were they in the materials that Ms. Sherburne provided you with?
    Answer. Some of them were. The problem is that Ms. Sherburne had 
not identified that there were two John Huangs. So the process was 
going through and identifying the wrong John Huang, so that we gave the 
committee the right John Huang's WAVES.
    Question. How did you learn that there were two John Huangs?
    Answer. In the process of going through and talking with people 
about potential meetings that might have happened, people would 
indicate that they had never met with the John Huang that was appearing 
on the TV, and which ultimately led us to determine that there had been 
a John Huang who was an IRS employee who had been working on the 
National Performance Review; and then it was easier to tell by the 
pattern of meetings which John Huang was the right John Huang and which 
John Huang was the wrong John Huang.
    Question. Our tongue twister for the day.
    I am showing the witness an e-mail that is marked EOP 068461, which 
was--October 31st, 1996, is the date. It is to Jane Sherburne. Maybe 
you can tell us a little bit about the creation date and that type of 
thing, how the e-mails read just so we have a clear record of that?
    Answer. Well, this would have been an e-mail that was to Mary Ellen 
Glynn from Jane Sherburne, and Jane would have been communicating that 
I had informed her that there were two different John Huangs. That's 
what it appears to be.
    Question. Okay.
    Answer. This is an e-mail record so the e-mail record that comes 
back is a confirmation. That's why the ``to'' is to Jane Sherburne. She 
gets an e-mail record of the transmission of her page.
    Question. Okay. And do you recall transmitting this information to 
Ms. Sherburne about the two John Huangs?
    Answer. I don't actually have a particular recollection of 
discussing that with her, but I am sure I would have.
    Question. Okay. At that time, was Ms. Sherburne then still involved 
to some degree in handling any of the matters related to Mr. Huang?
    Answer. Well, this was the day after she had given me the files, so 
I don't know how you would describe that, but I am sure that if she had 
asked, or if we had had a conversation, I would have informed her of 
that.
    Question. Okay. Were any contacts made with the other John Huang to 
find out when he had been at the White House?
    Answer. I actually did not make any contacts with the other John 
Huang. Basically, we tried by talking to the different staff members to 
walk through there, and so it was a process that took a little while.
    Ms. Comstock. Okay. This is Deposition Exhibit No. 3.
    [Mills Deposition Exhibit No. 3 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am handing you two letters of October 31, 1996, one to 
Terry Good, head of Office of Records Management, and the other to the 
President.
    Mr. Eggleston. You didn't give me the first one, I don't think.
    Ms. Comstock. We will make the Terry Good letter Deposition Exhibit 
No. 4 and the October 31st letter to the President Deposition Exhibit 
No. 5.
    [Mills Deposition Exhibit Nos. CM-4 and CM-5 were marked for 
identification.]
    Mr. Eggleston. Is that another court reporter coming in?
    Ms. Comstock. Yes. Just so you know, the only people that are 
permitted in the room are court reporters and Majority and Minority 
staff. We will attempt to identify them as they come in.
    Mr. Eggleston. Since she had that pull cart, I thought she was a 
court reporter, but I thought she might also be Kristi whoever.
    The Witness. Remington.
    Mr. Eggleston. That's what I wasn't sure about.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Have you seen either of these letters before?
    Answer. I believe I have seen this letter. I don't recall seeing 
this letter, but I likely would have.
    Mr. Eggleston. The first letter she was referring to was Mills 4 
and the second letter she referred to was Mills 5.
                      examination by ms. comstock:
    Question. Okay. Do you recall how you learned about the letter to 
Terry Good?
    Answer. I don't recall how I learned about it. I am sure I would 
have probably gotten a copy of it.
    Question. Okay. Do you know if Ms. Sherburne had talked to Mr. Good 
about obtaining WAVES records?
    Answer. I do not know if she had.
    Question. Okay. Who has WAVES records at the White House? When you 
need to find the WAVES records and look at them, where do you go?
    Answer. We would go to Records Management, which would have the 
hard copies of the WAVES records, and review the hard copies to try and 
determine people's visits. It typically is a pretty long process 
because there are boxes and boxes of WAVES for all the different years.
    Question. And when--do you know generally when Mr. Good was 
requested or somebody in the records office was requested to get Mr. 
Huang's WAVES records?
    Answer. I do not.
    Question. Okay. Do you know at all how quickly he was able to 
provide them or when he provided them?
    Answer. It is a process. He can't do it himself. Actually, on a lot 
of occasions we have to provide people to actually go through it. It is 
literally boxes and boxes and boxes of material, which is--it is pretty 
substantial so if one person were undertaking that task it would take 
them days.
    Question. Okay. Now, on October 31st, this committee had sent a 
letter to Mr. Good regarding obtaining the WAVES records. He had 
informed the committee that Mr. Good had the--you know, he could 
provide these dates--these records within a day or so. Did you have 
occasion sometimes for Mr. Good in the records office to provide you 
WAVES records in a day or two?
    Answer. I have never had occasion where they have been able to 
provide them in a day or two.
    Mr. Eggleston. Nor does Ms. Mills have any knowledge about the 
representation that you just made about Mr. Good.
    Ms. Comstock. No, I understand. I am making that representation.
    Mr. Eggleston. I want to make clear she didn't buy into that, 
because I don't believe she has any knowledge of that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall any discussions you had with Mr. Good about 
the WAVES records pertaining to Mr. Huang?
    Answer. No, I don't believe so. I believe that--I believe that 
those materials might have been in the materials Ms. Sherburne provided 
to me, because I don't recall having a particular discussion with Mr. 
Good. But I am only guessing.
    Question. Do you recall then when you first took over these duties 
and if Mr. Quinn asked you to gather all the information that you could 
about Mr. Huang and his visits to the White House?
    Answer. I recall when I took this over that there were questions 
regarding Mr. Huang's visits, so I don't know that anybody specifically 
had to direct me in that regard. I recall knowing that one of the 
issues of interest was Mr. Huang's WAVES.
    Question. Okay. I will provide you with a copy--actually, this is 
EOP 4969 through 5018. And it is a fax cover sheet from the Counsel's 
Office dated November 2nd, 1996 to Bruce Lindsey from C.D. Mills, which 
would be you; is that correct?
    Answer. Yes.
    Question. And can you just tell us about this fax and these WAVES 
records attached to it?
    Answer. We were trying to attempt to go through and identify and 
eliminate the wrong John Huang from the WAVES records, and this was, as 
of the 2nd, what we had been able to eliminate as the wrong John Huang. 
Subsequently, we identified more, but at this point, this is where I 
was in my ability to be able to do that.
    Question. Okay. And so is it your testimony then that these WAVES 
records that are attached to this fax, that you had this information, 
the WAVES records, when Ms. Sherburne gave you the files on October 
30th?
    Answer. I think it is quite possible that that was the case. That's 
my best guess, because I don't recall speaking to Mr. Good regarding 
the WAVES records for Mr. Huang.
    Question. So between October 30th, when you took over these duties, 
and November 2nd, the date of this fax, which has the WAVES attached to 
it, you do not recall going to Mr. Good and asking him to produce these 
records?
    Answer. That's correct. I do not.
    Question. You don't have any idea how long prior to this date he 
had been asked to provide the records?
    Answer. Correct.
    Question. Do you know if Mr. Good's office keeps track of requests 
or there is any dating on this document, which indicates when it was 
requested?
    Answer. No.
    Question. Could you just describe the process, then, by which you 
went through these WAVES records?
    Answer. I typically tried to speak to the different people, if the 
person might have been waved in, to try to determine if it was the 
right John Huang or the wrong John Huang.
    Question. And this fax had been sent to Mr. Lindsey?
    Answer. Yes.
    Question. Why was it sent to Mr. Lindsey?
    Answer. At this point they were receiving questions on the road 
regarding Mr. Huang's visits to the White House, and I know that one of 
the issues was whether or not we were able or in a point to accurately 
identify Mr. Huang's visits.
    Question. When the fax number here says ``Road Runner,'' is that to 
send the fax to Air Force One or where is it sent to?
    Answer. Road Runner travels wherever the President is, so if he is 
down in a hotel room, then Road Runner is in the hotel, if he is 
traveling, it is on the plane, if he is golfing, it's at the golf 
course. Road Runner is the particular fax machine that travels 
wherever.
    Question. So the fax even goes to the golf course?
    Answer. Yes.
    Question. Why don't we then go through these, then, starting on 
page EOP 4971. These WAVES include both Riady WAVES and then I believe 
they pick up John Huang WAVES; is that correct?
    Answer. 4978 is where the Huang WAVES start. Prior to that are 
Riady WAVES.
    Question. Just so that the record is clear, do you recall that the 
Riady WAVES were also in the group of documents that Ms. Sherburne 
transferred over to you?
    Answer. I would guess that they were because I don't recall having 
a conversation with Terry Good about the Riady WAVES.
    Question. Okay. And do you know why the Riady WAVES were collected 
at this time?
    Answer. I do not, other than he obviously had an association with 
Mr. Huang.
    Question. Then if you could just, you know, as we start, then, 
going through these, this is your handwriting on this document?
    Answer. Yes.
    Question. Okay. And on some of these, for example, on the first 
one, it says James Riady. Next to it it says, meeting, then it says, 
Neel, N-E-E-L, and then it says, Huang, Grobmyer, drop by. Would that 
be, then, information that you learned when you talked to Mr. Neel?
    Answer. Well, just to be clear, meeting is ``MTG,'' so it is 
referring to meeting but it says ``MTG.''
    Secondly, I don't recall actually having a conversation with Mr. 
Neel but it would have been through either Mr. Neel or other 
information that we were able to discern that this was a meeting or our 
best information was that it was a meeting.
    Question. And what was the body of information that you used to 
check to determine some of these things?
    Answer. I would ask people for any schedules, what their 
recollection might be, any of the President's schedules, any kind of 
materials that might suggest if there were newspaper articles written 
about that, about particular things at the time period, I might look at 
that. I would look at anything that would seem to provide information 
or shed light about the different visits.
    Question. At this time did you have anybody working with you on 
this?
    Answer. At this time I had only my assistant, Melissa Murray.
    Question. Okay. And is she still in the office with you?
    Answer. She actually left to go work at Arnold and Porter.
    Question. Is she an attorney?
    Answer. No.
    Question. She is a paralegal?
    Answer. Of a sort. She is better than a paralegal.
    Question. Sort of a super staff assistant?
    Answer. Yes.
    Question. I'm sorry, her name again?
    Answer. Melissa Murray.
    Question. What was Ms. Murray doing to assist you with this 
project?
    Answer. She is my assistant so she actually answers my phones, she 
collects materials if somebody is supposed to be sending them to me. 
She literally is my assistant.
    Question. Do you sit down and sort of figure out what would be the 
places to go to find out about these meetings and the sources of 
information to be able to determine, you know, what these visits to the 
White House were about?
    Answer. I don't recall really sitting down very often because it 
was very--there were a lot of requests that were coming in at that 
point toward these particular materials, but I would obviously sit and 
try and think through as I went through each one of these who I might 
need to talk to to try and figure out what the particular visit might 
be about or what information I might be able to look at to figure that 
out, so I might ask her to go to the scheduling office and pick up the 
President's schedule for a particular day and she would go and fetch it 
for me. I mean, that is what she would do.
    Question. And who would she go to to get that, the President's 
schedule?
    Answer. We have a scheduling in advance office.
    Question. And she could go there, pick a date, and get the 
scheduling information fairly instantaneously?
    Answer. She could get it. Fairly instantaneously might be a little 
bit of an overstatement, but, yes, she could go to the office and get 
it.
    Question. She would get it that day?
    Answer. Yes, usually, typically, unless it was late and there was 
no one there.
    Question. Is this the President's computerized schedule that is 
kept track of or how is the information scheduled?
    Answer. The President has a schedule every day, which are also 
published, as you know, in the Presidential documents, they keep a copy 
of them.
    Question. Are there any other schedules that you had her check?
    Answer. I am sure if there were other schedules, I would have had 
her check them as well. I had her check whatever materials or 
information I needed to try and address a particular request.
    Question. Did she check with Ms. Hernreich or with the diarist or 
any of those sources?
    Answer. I am sure if there was information that would have been 
helpful in either of those places, we would have gone there. I don't 
particularly recall that, but if there would have been information, we 
would have tried to collect it.
    Ms. Comstock. And why don't I go ahead and--we will go ahead and 
make this Deposition Exhibit No. 6, which we are going to have to use 
your copy when we get done here.
    The Witness. Could you start again, I'm sorry.
    Ms. Comstock. We are going to make these WAVES records Deposition 
Exhibit 6.
    [Mills Deposition Exhibit No. CM-6 was marked for identification.]
    Ms. Comstock. But I also wanted, while we are going through this, 
to show you what would be Deposition Exhibit 7, which is EOP 4499 
through 4501, which is a ``Summary of Records of Riady Meetings.''
    [Mills Deposition Exhibit No. CM-7 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. And just so we can clarify for the record, is that your 
handwriting on this document?
    Answer. It is not.
    Question. Do you know whose handwriting that is?
    Answer. I do not.
    Question. Have you seen this document before?
    Answer. I have.
    Question. Okay. Do you know who is working on ``Summary of Records 
of Riady Meetings''?
    Answer. I believe Ms. Sherburne.
    Question. And do you recall, then, if she transmitted this to you 
in the materials she gave you?
    Answer. I believe this would have been something that would have 
been in the materials. I don't have a particular memory, but this would 
strike me as something that would have been in the materials.
    Question. Do you know if you did any additional work on this or 
taught somebody to work on a ``Summary of Records of Riady Meetings''?
    Answer. Other than the WAVES records we provided and to the extent 
there are charts that list out each particular visitor and visitee, no, 
I did not.
    Question. Okay. Do you know if Ms. Sherburne provided you with 
``Summary of Records of Huang's Meetings'' at this point?
    Answer. I don't recall. I recall this particular document, but I 
don't recall whether or not she had done a similar document for Mr. 
Huang. Mr. Huang's visits were substantially more in number, so I just 
don't recall actually seeing the Huang chronology. That is just my best 
memory now.
    Question. Okay. And so would it be a fair guess that the documents 
that Ms. Sherburne lists in the ``Summary of Records of Riady 
Meetings'' were included in these records she gave you at that time?
    Answer. They may be, but not all of them would have been. I mean, 
some of these are just information she might have had through 
conversations or other things like that.
    Question. Like the first item, it says an April 11, 1993, memo from 
Hernreich to the President, it says that, quote, Joe Girorir called on 
behalf of his client, Riady, who is in D.C., and would like to meet 
with you about Suharta, I think it is Suharta, but would that have been 
in a document that was in the records?
    Answer. It might have been, though I don't recall that document, 
quite candidly.
    Question. Do you recall discussing with Ms. Sherburne, you know, if 
she had gone out and gathered records from people such as Ms. Hernreich 
or others about Riady or Huang?
    Answer. I don't recall having that discussion. I recall when she 
transferred the materials that she indicated that she was transferring 
what she had done to that point. I don't recall having conversations 
about how she had gone about doing that.
    Question. Do you need to take a break?
    Answer. No.
    Mr. Eggleston. Not right now.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. And then, also, in this first paragraph it says, 
``Betty has in BC memos a letter from Mark Grobmyer on this same 
topic.''
    Do you know if that is Betty Currie, who works in the President's 
office?
    Answer. That is what I would have guessed.
    Question. And do you know what BC memos refers to?
    Answer. Ms. Currie has a practice of when a correspondence comes 
in, writing a memo saying this is what the correspondence particularly 
says, and I think you probably have copies of some of those because we 
provided them in connection.
    Question. So Ms. Currie, as a practice, keeps all of the letters 
and correspondence that goes directly to the President?
    Answer. No, I didn't say that. She has a practice of summarizing 
correspondence that she reviews. I don't know what her system is and 
whether or not she sees all the correspondence or anything with respect 
to that.
    Question. But any correspondence that she does see, she has a 
practice?
    Answer. I don't know what her decision-making is to decide what she 
actually puts in the memo, so I don't know if she sees correspondence 
that she doesn't put in or if she puts all of it in. I don't know what 
her practice is in that regard.
    Question. Have you had occasion to gather documents from Ms. Currie 
in the past?
    Answer. Yes.
    Question. Okay. And do you just have a general familiarity with the 
BC memos file?
    Answer. Correct. It is not, to my knowledge, a file, actually. My 
only experience with it has been with respect to copies of it that have 
printed from her computer.
    Question. So this is a computerized record that she keeps?
    Answer. It is a memo. I don't know if you all have seen the 
documents, but we provided to you in your documents a memo where she 
writes a memo to the President, correspondence and then she writes a 
summary of each one of them, and I am confident that is in the 
materials we provided. That is what I am familiar with.
    Question. Okay. So it is your recollection, then, that this 
``Summary of the Records of Riady Meetings'' you had at the time when 
you started going through to assess what some of these meetings were 
about?
    Answer. It is my best guess that I would have had it. I don't have 
a specific recollection of having had it, but I recall seeing this 
document.
    Question. Okay. And, again, could we then just return and maybe go 
through some of these meetings that Mr. Riady had, and if you can look 
at the actual record to refresh your recollection of who you talked to 
and tell us about the people you talked to and what they told you about 
the meetings?
    Mr. Eggleston. Actually, I could use a 5-minute break.
    Ms. Comstock. We will go off the record for a few minutes.
    [Brief Recess.]
    Ms. Comstock. Back on the record.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I think we were talking about if you could explain the 
process whereby you went through and talked to various people in 
various offices.
    Answer. Generally, what I tried to do is look at the WAVES records 
and then figure out what information might be helpful in determining 
what the visit was about and talk to people or look at whatever 
schedules or other things I could to determine what a particular visit 
might have been about.
    Question. Do you know if you reviewed any pictures or checked with 
the photo office about any events?
    Answer. I don't recall. I am sure I might have, but I just don't 
recall.
    Question. You said the first James Riady visit, which the visitee 
is identified as Neel, would that be Roy Neel?
    Answer. That is my best information, yes.
    Question. And do you recall talking to Mr. Neel about this visit?
    Answer. I don't.
    Question. Okay. So is it your guess that you learned from other 
records who else was at this meeting or do you recall? If you have any 
recollection.
    Answer. Right, I don't have any recollection so I couldn't guess. I 
mean, this was for me a while ago so I am not in a position to recall 
who I spoke to and who I didn't and what materials I might have looked 
at.
    Question. And then the second person is listed as a visitee for 
April 13, 1993, visit, is Dickey. Do you recall talking with, was it 
Robin or Helen, whichever Dickey this is?
    Answer. Right, I don't know which Dickey this is and I don't recall 
whether or not I spoke to them. I am sure I might have but I just don't 
recall.
    Question. And then there is another entry on April 13 for Yee. Do 
you know if that would be Melinda Yee, who worked in the personnel 
office at that time?
    Answer. That is my best information.
    Question. Do you recall if you talked to Melinda Yee at any time 
about John Huang or James Riady?
    Answer. I don't believe I did because I don't believe she was in 
the White House at this point, so I don't believe I did.
    Question. Do you know if you reached out to anybody outside the 
White House sort of in going through these?
    Answer. I am sure I might have but I just don't recall with respect 
to Ms. Yee having had a conversation with her.
    Question. Do you know Melinda Yee?
    Answer. I do know her.
    Question. And have you had occasion to speak with her at all about 
any of her dealings with John Huang?
    Answer. No.
    Question. Or with James Riady?
    Answer. No.
    Question. Or with matters related to fund-raising, any of the 
matters under investigation?
    Answer. No.
    Question. And, again, there is another entry on April 16 for the 
visitee being Dickey. You don't recall having any conversations?
    Answer. I don't recall what I would have done to determine what 
that particular visit would have been about.
    Question. And then the 4/19/93 entry is for Rubin, and then it says 
in POTUS photo, with all three men, Riady, Huang, Grobmyer.
    Do you recall discussing that visit with anybody?
    Answer. I don't recall having discussions regarding that other than 
trying to figure out whether or not they had actually gone and seen the 
President on that occasion. I believe, actually, Ms. Sherburne had 
information about that but I don't recall any particular discussions.
    Question. Okay. Do you recall anything about what that meeting was 
about or how you learned that there was a photo?
    Answer. I don't recall.
    Question. The next page of these documents, EOP 4972, it continues 
with Mr. Riady's visits, and the next two entries are for Aileen and 
James Riady on June 21, 1993, and the visitee is Middleton. Is that 
Mark Middleton?
    Answer. Yes.
    Question. Do you recall if you spoke with Mr. Middleton about any 
of his visits with Mr. Riady?
    Answer. I might have. I don't recall having done so, but I might 
have.
    Question. You don't have any recollection of talking to Mr. 
Middleton about these visits?
    Answer. I actually do not.
    Question. Okay. When you say you might have----
    Answer. I just say I might have because he is a person who is still 
in town, but I don't recall having conversations with him regarding 
this.
    Question. Do you recall any discussions with his attorney?
    Answer. I am sure I probably would have.
    Question. Can you tell us what you discussed with his attorney 
about any meetings?
    Answer. I don't recall having any particular discussions in that 
regard, other than probably to indicate his name was on these and we 
were going to be sending out the WAVES records. I think the only other 
thing, actually now that I think about it, is that his attorney, who is 
Bob Luskin, I believe, would have indicated, I think, that he would 
answer questions about this. I am only guessing that because there is 
nothing next to these so I probably would have referred any questions 
that came directly to him. I only say that because there is nothing 
next to these that is written.
    Question. So it is your recollection that Mr. Luskin told you that 
any inquiries could be directly sent to him?
    Answer. That is my best guess.
    Question. Instead of giving you the information?
    Answer. That is my guess by looking at the records. I don't have a 
particular recollection.
    Question. And I have asked you about whether you talked to him 
about Mr. Middleton's visits with Riady. Do you recall if you ever 
talked to him, Mr. Luskin or Mr. Middleton about his visits with John 
Huang?
    Answer. I am sure as we have gone through these records I would 
have had conversations with Mr. Luskin regarding Mr. Middleton or any 
questions or information that we needed with respect to that to be 
giving accurate information. I don't recall any particular discussions.
    Question. Okay. When you spoke with Mr. Middleton's attorney, did 
he express any reluctance to discuss why he was meeting with Mr. Riady 
or Mr. Huang?
    Answer. I don't recall that, but I also don't recall what the 
substance of all of our conversations were, but I don't recall him ever 
expressing reluctance or anything like that.
    Question. And the time frame of October of 1996, there had been a 
story about Mr. Middleton allegedly soliciting or being offered $15 
million from somebody in Taiwan for the DNC. Do you recall ever having 
any discussions with his attorney about that matter?
    Answer. I do not recall that matter.
    Question. Do you know Mark Middleton personally?
    Answer. Yes.
    Question. Have you ever had any discussions with him on any of the 
matters under investigation?
    Answer. Not that I recall.
    Question. Do you have any knowledge as to why he is taking the 
fifth on these investigations?
    Mr. Ballen. I am going to object to that question.
    Mr. Eggleston. Because he is exercising constitutional right.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you have any personal knowledge about Mr. Middleton's 
meetings with John Huang or James Riady?
    Answer. No.
    Question. This is your handwriting. It says the entry that is fifth 
down, Johnson, visitee, James Riady, on June 28, 1993, and it says that 
he worked for Middleton. Do you know who that is?
    Answer. I don't know who it is. I think I was able to discern--I 
believe it might be that the person was Mr. Middleton's assistant. I 
don't know how I was able to determine that.
    Question. You don't recall learning that from Mr. Middleton or his 
lawyer?
    Answer. Correct.
    Question. Let's go on to the next page, EOP 4973. Now, on this 
page, there is a second entry, James Riady, visitee is Middleton, and 
it also lists Huang.
    Do you know if you learned that from Mr. Middleton or his attorney 
or if that was in reviewing other WAVES records or how you learned it?
    Answer. Probably that I would have learned by looking at Mr. 
Huang's WAVES but that is just my best guess.
    Question. And this visit in June of 1994 was in the time frame when 
Mr. Hubbell received his payments from the LIPPO Group. Do you recall 
ever having any discussions with Mr. Middleton or his attorney about 
Mr. Hubbell?
    Answer. I don't recall.
    Question. And the third entry on this page for June 23, 1994, is 
for I guess another member of the Riady family, where it says, Nancy. 
Is that another--it's an Indonesian name. It's spelled T-J-A-H-A-J-A, 
and then to the left of it it says, Nancy.
    Answer. I don't know why it says Nancy.
    Question. Okay. And then the visitee is Herman. Would that be 
Alexis Herman?
    Answer. Yes.
    Question. And do you recall having any discussions with Ms. Herman 
about Mr. Riady?
    Answer. I do not.
    Question. Okay. Now there is a star on Ms. Herman's name where it 
says Herman not present, briefing to CEOs, and reps of corps. That is 
your handwriting. Why don't I have you read it instead, if you can, if 
it is your handwriting.
    Answer. It is my handwriting but the copy is not clear, though my 
understanding is, it says, Herman not present, briefing to CEOs and 
reps of corporations, or C-O-R-P, semicolon, Doris welcome slash 
Emerson Gatt, slash, Rubin economy in Roosevelt room.
    Question. Okay. And do you recall how you learned of that meeting 
and that description?
    Answer. I don't recall, actually. It might have been a briefing 
paper. It might have been anything. I just don't recall.
    Question. Okay. And Emerson, is that John Emerson?
    Answer. Yes.
    Question. And Rubin, is that Robert Rubin?
    Answer. Yes.
    Question. And then you have no other recollection of what you 
learned about this meeting?
    Answer. No. This was actually quite a while ago and a relatively 
detailed process and I just don't recall, actually, with respect to 
these particular entries, other than I obviously tried to talk to 
people and look at whatever schedules or other information there might 
be to try and discern any particularized conversations or other things 
like that with regard to those records.
    Question. Did you keep contemporaneous notes of these conversations 
you were having with people at that time or was this the only document 
you put information on?
    Answer. This is the document I put information on.
    Question. Did you have other notes you kept as you were going 
along, or that you took but you did not keep?
    Answer. I don't believe so.
    Question. So were you sitting down as you called people and just 
noting things on each of these meetings?
    Answer. Or I would recall, based on conversations I had with them, 
or having looked at something, I would either do it while I was having 
conversations or I would recall conversations that I had.
    Question. Okay. Do you recall how long of a process this was, going 
through these WAVES records?
    Answer. I actually don't. But this was the process that helped be 
able to learn that there were two John Huangs because I placed I think 
a random call to one person that just looked different than other 
people, and that is how I started this process, and that is why we 
started going through the entire process.
    Ms. Comstock. For the record, Kristi Remington is also joining us 
this morning.
                      examination by ms. comstock:
    Question. Okay. And the next entry here is Middleton, again, it 
is----
    Mr. Eggleston. Ms. Comstock, I am not going to stop you from doing 
this, but I am fairly confident you are going to get the same answer. 
You can go through every one of these, and, again, I haven't reviewed 
these with her, and it's possible I am wrong, but I am willing to bet 
that every time you ask her she is going to say I generally remember 
doing this, I can't tell you where I got the information. Again, it is 
your deposition, I can't stop you, but I am fairly confident she is 
going to give you the same answer.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Well, maybe if you can review them, and in reviewing the 
documents if there is anything that you can tell us about, for example, 
Mr. Middleton and any conversations you had with him, some of these 
indicate whether this was lunch or that it was lunch, you know, how you 
learned about that, who were the sources of information that you would 
go to to find out if an event was a lunch or how you would determine 
information like that?
    Answer. Typically, with respect to time frames, if it was around 
noon or 1:15, our best estimate would be those would be lunches, 
because those are the sittings for the Mess.
    Question. Okay. And do you recall if you had conversations with Mr. 
Middleton's attorney about did Mark meet with these guys for lunch or 
have them over or know generally that he had done so?
    Answer. I am sure I would have asked whether or not it would have 
been likely he would have been having lunch, but I just don't recall 
particularly.
    Question. Okay. And this Weaver is identified here also as one of 
the visitees. Do you know Vanessa Weaver?
    Answer. Yes, she works in the White House currently.
    Question. And do you recall any conversations you had with Ms. 
Weaver about the Riadys?
    Answer. I am sure I would have spoken with Ms. Weaver or seen 
materials or information that led to it. I don't recall particularly, 
but I am sure I would have.
    Question. Do you have any understanding of what Ms. Weaver's 
contacts with the Riadys were about?
    Answer. I do not, other than the information reflected on here.
    Question. Do you recall trying to discuss with her why she was 
meeting with them or why they were there?
    Answer. I am sure I probably would have but I don't recall 
particularly having those conversations, but I am sure that is 
something I would have tried to do to try and give accurate 
information.
    Question. Okay. Was there anybody that the Riadys met with that you 
have any recollection of talking about what their meetings were about?
    Answer. I am looking because I recall an occasion where I had a 
conversation with someone regarding Mrs. Riady. This conversation I 
recall with respect to Mrs. Mochtar Riady also being present because 
people remembered her jewelry. I just recall that standing out in my 
head.
    Question. Is that on page----
    Answer. That is EOP 4976.
    Question. That reflects a record of Mochtar Riady visit, and Weaver 
is the visitee and it says lunch, Peg Clark, Paul Miller, John Huang, 
Mrs. Riady, question mark?
    Answer. Correct.
    Question. And do you recall who you talked with about that?
    Answer. It would have been either Vanessa Weaver or Peg Clark.
    Question. And who is Peg Clark?
    Answer. She also works in Presidential Personnel or did work in 
Presidential Personnel.
    Question. Who is Paul Miller?
    Answer. He used to work in Presidential Personnel.
    Question. And do you know why all these people in Presidential 
Personnel were meeting with the Riadys on June 27, 1996?
    Answer. I do not.
    Question. Okay. A number of these meetings were with people in the 
personnel office--well, I guess with Ms. Weaver, largely, and then, 
initially, the meetings with Melinda Yee were at a time when she was in 
the personnel office.
    Do you recall generally learning of the Riadys talking to people in 
the personnel office?
    Answer. No, actually, I don't. I don't recall learning that.
    Question. Do you have any knowledge as to why they were meeting 
with people in the personnel office?
    Answer. No. It is my sense that they were actually meeting with 
people, as opposed to meeting with the personnel office.
    Question. Were you aware of the Riadys trying to recommend people 
for positions?
    Answer. That is how I interpreted your first question, and no I was 
not.
    Question. Did you attempt to learn anything about their attempts to 
assist people with getting jobs?
    Answer. I was unaware that they made attempts to assist people in 
getting jobs.
    Question. Do you recall reviewing any correspondence or seeing any 
records where they were promoting any individuals for positions?
    Answer. I recall that Mr. Huang was interested in a position, and I 
believe Mr. Huang might have indicated Mr. De Queljoe, I recall seeing 
correspondence like that that I know were produced to you.
    Question. And did you talk with Ms. Weaver or anybody else at the 
personnel office about Mr. De Queljoe?
    Answer. I don't believe so. I am sure I might have spoken with 
someone about Mr. De Queljoe when there were inquiries regarding him 
and we were looking for materials related to him, but apart from that, 
I don't.
    Question. So other than this meeting where people recalled Mrs. 
Riady's jewelry, is there anything else that you recall about the 
Riadys, hair styles or anything?
    Answer. That is the one that sticks out in my mind.
    Question. Were you attempting at this time to find out what they 
were doing there, why they were there?
    Answer. I was attempting to determine what the purposes of their 
meetings were, particularly as we wanted to ensure that we were 
obviously providing accurate information.
    Question. And do you have a general impression of what you learned 
in that process, of what they were doing there?
    Answer. I don't, actually, other than it just appeared to me they 
were actually visiting people as opposed to having any particular 
agenda.
    Question. And was it your understanding these were people they knew 
prior to these individuals joining the administration?
    Answer. I don't know the answer to that question. I don't believe I 
had that impression one way or another.
    Question. Well, did you inquire as to how they came to meet with 
these particular people, why were they meeting with Mark Middleton, why 
didn't he become somebody who was a point of contact for both Mr. Riady 
and Mr. Huang? Do you recall having any discussions about that?
    Answer. Setting aside the premise of your question, I don't recall 
any particular sense of why they were seeing the particular people they 
were, other than the things I ended up reflecting on this particular 
document.
    Question. And the premise of my question was that a number of the 
meetings with both Mr. Riady and Mr. Huang, quite a few of the Mr. 
Huang ones, and actually, although we don't have them here, Mr. Trie 
also met with Mr. Middleton quite a bit.
    Answer. Just to be clear, I am only looking at the Riady records 
right now so I don't have a perfect memory of that.
    Question. And that is why I am saying the entire document here does 
have--as we move on later, Mr. Middleton also had occasion to meet with 
Mr. Huang, so I was wondering if that stands out in your mind, having 
learned about Mr. Middleton being a point of contact for some of these 
people, Mr. Riady, Mr. Huang, Mr. Trie, others?
    Answer. No, it does not. I don't recall him being a point of 
contact for them. That is not something that stood out in my mind.
    Question. Now on page EOP 4974, it has an asterisks for Aileen 
Riady, also present in picture. Again, I know I asked you before about 
pictures, but do you recall if there were pictures in the file that Ms. 
Sherburne turned over to you?
    Answer. I do not recall there being pictures in the files. There 
may have been; I just don't recall that.
    Question. Do you recall if you asked your assistant to check with 
the photo office or look into that?
    Answer. Asking my assistant, you said? I thought you said her 
assistant. I am sure I would have asked if it would have been likely if 
there was a picture to ask her to go look and see if there was one. I 
just don't recall that in particular.
    Question. And on page EOP 4975, they have visitee, and on the top 
entry on September 13, 1995, it says Nancy Hernreich, and that was a 
meeting with the President and Mr. Lindsey, Joe Girorir, and then John 
Huang, and I believe Mr. Riady.
    Do you recall having a discussion with anybody about that meeting?
    Answer. I recall there being lots of discussions about this meeting 
in the press and other places. At the time that I was doing this, I 
don't recall, other than obviously going through and identifying the 
participants for that particular meeting. I believe there came a point 
there was lots of discussion regarding that meeting.
    Question. Okay. And I will go into that a little later but I was 
wondering, at the time did Mr. Lindsey tell you about this meeting or 
did you discuss it with him?
    Answer. I just don't recall because I recall this meeting becoming 
the topic of conversation at some point when there were news articles 
related to it, and I can't associate in time to tell you when those 
would have been in relationship to this. I think they may have been 
subsequent to this.
    Question. Generally, can you tell us what Mr. Lindsey told you 
about this meeting? At any time can you recall what his recounting of 
this meeting was to you?
    Answer. I recall that there were discussions related to Arkansas 
family and friends. I recall that Mr. Huang had indicated at some point 
that he was interested in going to the DNC, and I recall that--I think 
that is my best recollection right now with respect to that. There was 
a subsequent meeting I guess with Mr. Riady too, and sometimes in my 
brain I collapse the two because both of those were topics of interest 
from the press.
    Question. And would that be this October of '96 meeting?
    Answer. Yes.
    Question. Where Mr. Middleton was at that meeting with Mr. Lindsey?
    Answer. Right.
    Question. And Mr. Riady?
    Answer. Correct.
    Question. And do you recall what you talked about at that meeting?
    Answer. I recall learning that that also was an occasion where Mr. 
Riady and the President talked about Arkansas and family and friends.
    Question. Did you learn how that meeting came about?
    Answer. Not that I recall.
    Question. Were you told anything about Mr. Middleton setting up 
that meeting?
    Answer. That would make sense, but I don't recall actually being 
told it was Mr. Middleton. I am sure at the time period when this was 
going on, I probably knew, but I don't recall right now.
    Question. Do you have any knowledge, now or then, tell us when you 
had it, about Mr. Middleton doing any work for Mr. Riady or with the 
LIPPO Group?
    Answer. No.
    Question. When you say it would make sense he would set it up, why 
would it make sense Mr. Middleton would set up the meeting with the 
President for Mr. Riady?
    Answer. Because he was present, so I am just guessing based upon 
his presence he might have called and said he was going to be in town.
    Question. And do you know why Mr. Middleton would be the person 
setting up the meeting for Mr. Riady?
    Answer. I do not.
    Question. Did you attempt to find out anything about what Mr. 
Middleton was doing with Mr. Riady?
    Answer. I am sure at that time I probably did, but I don't have any 
particular recollection that stands out in my mind about that.
    Question. You have no recollection of what Mr. Middleton was doing 
in connection with the Riadys?
    Answer. I do not, but I am sure there are materials or other 
documents we probably produced to you that might shed light on that 
that I would have obviously been familiar with at that time, but I 
don't have a particular recollection of it right now.
    Question. And sitting here today, you didn't get an impression or 
an understanding of what he was doing?
    Answer. That's correct.
    Question. Were you seeking to find that out or were you just trying 
to get the basics?
    Answer. At this point I probably was trying to get the basics, 
primarily, because obviously we were trying to make sure we had 
accurate information and there were lots of requests for the materials. 
I am sure at the time when there were all the different press inquiries 
and interests with respect to Mr. Riady's meetings with the President I 
would have learned more. I just don't recall in particular any 
association with why Mr. Middleton was present at the meeting and why 
he might have set it up.
    Question. Again, do you recall having any discussions with Mr. 
Middleton or his attorney about, in particular, him setting up that 
September '96 meeting or being involved in it?
    Answer. I am sure I would have talked to his attorney. I don't have 
a particular recollection of what might have been communicated in that 
conversation, but I am quite confident I would have attempted to speak 
to his attorney about it.
    Question. When you speak with people's attorneys, do you take notes 
of those conversations?
    Answer. I do not.
    Question. And is that a practice that you had stopped then at some 
point at the White House?
    Answer. It is a practice I do not engage in.
    Question. Okay. Again, EOP 4977 is the September 9, 1996, meeting, 
which I think we were referring to with Mr. Middleton, Bruce Lindsey 
and the President, and is that another name for James Riady then? Is 
that your understanding?
    Answer. Yes.
    Question. And I will try to pronounce that. I don't know if you are 
able to.
    Answer. No.
    Question. It's spelled T-J-A-H-A-J-A. I know it is not very good 
handwriting--your handwriting is very good, but the copy isn't very 
good here, but can you tell us what, to the extent possible, what your 
notes say on the bottom of that page?
    Answer. Respect to foreign policy, supportive of our trade, I can't 
read those two, and hope for continuing better relations. There is a 
part in the middle I cannot read.
    Question. Where there is a slash there, is that something China?
    Answer. It could be. I just can't read it very clearly.
    Question. Do you recall if that referred to Mr. Riady having a 
general discussion with the President about China policy?
    Answer. I don't recall him having a general discussion. I actually 
recall it as Mr. Riady, upon his departure, indicating he was glad the 
President had addressed China and encouraged that we continue engaging 
China. That is my best recollection and that is based on all the 
different attention that ultimately ended up being paid to that meeting 
and the previous one.
    Question. Can you tell us the time frame of when you were making 
these notes or doing this?
    Answer. This would have been--I mean, the best guess I would have 
would be sometime in November I would have been doing these.
    Question. Now this copy was actually sent to Mr. Lindsey on 
November 2nd?
    Answer. That is not----
    Question. That is not the case?
    Answer. That is not accurate. The copy that was sent to Mr. Lindsey 
did not have handwriting on it, so it would have been exactly this 
without handwriting.
    Question. So initially what you sent to Mr. Lindsey on November 2nd 
was a copy of this document without any handwriting at all?
    Answer. I don't know if it was exactly this document, yes, it would 
not have had handwriting on it, or that is my best guess.
    Question. And why do you say that?
    Answer. Because at that point we were still trying to determine 
what were the actual correct WAVES for John Huang, and so subsequent to 
the faxes that I sent at that point, we discovered there were more John 
Huangs that were the wrong John Huang.
    Question. All right. And on the front cover, it says, on the fax 
sheet, the November 2nd one says, new version, eliminate several 
instances where it was a different John Huang, otherwise say an exact, 
is that cleanup?
    Answer. Yes.
    Question. Date of birth in 1996?
    Answer. Correct.
    Question. Could you tell us what that means?
    Answer. That was just trying to eliminate the different John 
Huangs.
    Question. And how did you do that?
    Answer. By talking to different people and also by, in certain 
instances in '96, the date of birth is actually indicated, so we could 
eliminate based on the date of birth.
    Question. So the date of birth is actually in the database or the 
WAVES database----
    Answer. In '96 it was. In previous years it wasn't. That is why it 
requires conversations with people.
    Question. And then on the next fax page of November 3rd, 1996, can 
you explain your comments there that you made on that fax transmittal 
sheet?
    Answer. Additional Huang, checked ones are new; total: 11 WAVES; 6 
actuals; new total, 140 WAVES; 95 actual WAVES.
    Question. Okay. Could you explain that?
    Answer. It is still part of the process of trying to get rid of the 
wrong John Huangs and make sure we had the right ones.
    Question. At this time it says you only faxed 6 pages in the second 
time, 6 pages that were part of this 41 that we--or however many?
    Answer. That is probably right, part of the overall WAVES.
    Question. Now this is a November 1st, 1996, letter from Chairman 
Clinger of this committee. At this time when you were working with 
this, were you aware that Chairman Clinger had requested these records?
    Answer. I don't have a particular association. There were lots of 
people requesting them so I don't know I would have had a particular 
association with him versus all the other Members seeking copies of 
John Huang's WAVE, but I was cognizant of the fact that Members of 
Congress were receiving the WAVES and were trying to go about 
determining what records would be responsive to do that.
    Question. And was Kathleen Wallman involved in this process at that 
time?
    Answer. She was the deputy at that time.
    Question. And were you working with her on these matters at all?
    Answer. Not particularly.
    Question. Now this letter reflects conversations made at the time, 
and I understand--do you have any knowledge of those conversations Ms. 
Wallman had with this committee?
    Answer. No.
    Question. And the letter here refers to a discussion with Ms. 
Wallman, where she claimed that Mr. Quinn was too busy to get to these 
records and that they weren't going to be getting to them.
    Do you recall anyone telling you that they weren't going to get to 
these records or not to do them?
    Answer. No.
    Mr. Eggleston. Nor does she know in fact whether that was said by 
Ms. Wallman.
    Ms. Comstock. I understand. I am just asking about your knowledge 
of anybody communicating with you that they are trying to get the 
records to anybody at a certain time.
    The Witness. It was my impression that these records were being 
requested and that we were going about trying to address that request, 
and that is with respect to what I was doing.
    Ms. Comstock. What document number are we up to?
    Mr. Eggleston. I thought this was 8.
    Ms. Comstock. This is 6.
    I will make the November 1st, 1996, letter to Mr. Quinn from 
Chairman Clinger Deposition Exhibit No. 8.
    [Mills Deposition Exhibit No. CM-8 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Here is an October 31, 1996, memo for all staff of the 
White House from Jack Quinn regarding documents of the LIPPO Group, 
Indonesia and other matters. Do you recall seeing this document?
    Answer. I am sure I did see this document, though I was not 
involved in this particular request.
    Question. Do you know if this is a request that Ms. Sherburne or 
Ms. Wallman or somebody else had put together?
    Answer. I do not recall who was tasked with this particular 
request.
    Question. Now this request attaches a request to it. Do you know 
where the attachment came from?
    Answer. I do not.
    Question. And the contact person on this request--actually, why 
don't I--for the record, this is I guess what will be called a 
directive to all staff to turn over documents?
    Answer. Correct.
    Question. Regarding certain topics; would that be correct?
    Answer. Correct.
    Question. And it indicates the White House has received a 
congressional request for production of documents relating to the LIPPO 
Group, Indonesia and other matters, and it says, ``The precise document 
requested is attached.''
    Is it your understanding the precise request that came from 
Congress was attached to this directive?
    Answer. I can only do the same thing you are doing and that is read 
this particular document. I don't recall being involved with this 
particular request.
    Question. Okay. And the contact person here was Kathy Wallman or 
Alan Kreczko. Alan Kreczko is at NSC?
    Answer. Correct.
    Question. Do you know why they were the contact people on this?
    Answer. I do not.
    Question. Do you recall having conversations with Ms. Wallman about 
LIPPO documents that were gathered?
    Answer. I am sure there would have been an occasion where we would 
have had a conversation. I don't recall in particular conversations 
regarding it, but I am sure we would have discussed it.
    Question. Did Ms. Wallman, in fact, give you documents that had 
been gathered about the LIPPO Group, Indonesia and the matters we 
related in the attached two pages?
    Answer. I recall that production being a separate production but I 
could be wrong and just not having an accurate memory in that regard.
    Question. How do you mean that it was separate production?
    Answer. I don't recall it being part of the request that I ended 
up--a document I ended up addressing which was we got a request in 
December from the Justice Department where we circulated a directive, 
that is, the documents that I recall addressing with respect to 
collecting materials.
    Question. Okay. At any time did Ms. Wallman give you the documents 
that she had gathered?
    Answer. If she had already produced them, she probably wouldn't 
have. I just don't recall.
    Question. Okay. Because this request, which is about the LIPPO 
Group and Indonesia, I imagine, overlap some, the request that came 
from the Justice Department in December?
    Answer. I am certain it would.
    Question. Why don't I just get that for you so you have it in front 
of you. This is the December 16, 1996, directive to Executive Office of 
the President staff from Jack Quinn, regarding a document request, and 
it indicates, we received document requests from certain congressional 
committees and the Department of Justice, and then asks for a search of 
records relating to a number of individuals. And then on the second 
page is a number of entities.
    Question. Do you recall in preparing this directive going back to 
Ms. Wallman about what she had collected at that point?
    Answer. I don't recall that, but I am certain that if there were 
materials that had not been produced, those materials would have been 
captured in this.
    Question. And this October 31, 1996, directive----
    Answer. Let me just address, as it says on the second page, we 
recognize that this request, in some respects, is duplicative of a 
prior document request. To ensure complete response, however, please 
provide all responsive documents, even those you may have previously 
provided.
    Question. Was it your understanding, then, that whatever documents 
had been given to Ms. Wallman or Mr. Kreczko would again come back to 
you?
    Answer. I don't know that I had an impression, with regard to them 
transferring materials, every staff member would have to go back 
through all their materials to make production that was responsive to 
this request.
    Question. And on that second page of the December 16, 1996, 
directive, which we will go ahead and make Deposition Exhibit No. 9, 
you are the contact person on these documents along with Wendy White; 
is that correct?
    Answer. Yes.
    Question. And what was Ms. White then working on at this time?
    Mr. Eggleston. I don't mean to be a housekeeper, but if you didn't 
make this an exhibit, it maybe should be.
    Ms. Comstock. I'm sorry. We will make October 31, 1996, Deposition 
Exhibit 9, and December 16, 1996, Deposition Exhibit 10, and I always 
appreciate housekeepers.
    [Mills Deposition Exhibit No. CM-9 was marked for identification.]
    [Mills Deposition Exhibit No. CM-10 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. And I just wanted you to be able to have both of them in 
front of you so we all aren't referring to documents that you don't 
have a chance to refer to, in fairness to you.
    But why don't we return to the October 31, 1996, memo. It does ask 
the documents be turned over to William Leary in the NSC. Do you know 
who that is?
    Answer. Bill Leary is their, for lack of a better word, documents 
person. He is like Terry Good is for records management. He also 
manages their records for the NSC.
    Question. And it asks that the documents be turned over by November 
12, 1996. Do you know if that generally occurred, if documents were 
produced by that date?
    Answer. I do not know. I was not involved in this request.
    Question. Okay. Generally, when you have a directive and have a 
date on it, do you generally get most of the documents by that date, 
some, all?
    Answer. I would say we get most of them, but we always get 
documents after that date. If staff have been traveling where they 
weren't in the office on a day the record went out, and as they come 
out, they obviously provide their records as quickly as they can.
    Question. Historically has there been particular offices that you 
have learned, you know, you have to go and kind of bother them or 
remind them or tell them that it doesn't appear they have looked 
through the documents?
    Answer. No.
    Question. Is it your experience, then, that people have responded 
in a timely fashion then to your directives?
    Answer. Usually people try and respond in a timely fashion. 
Obviously there are things that people schedule, travel and things like 
that, but people try and respond in a timely fashion.
    Question. So would it be fair to say by November 12, 1996, a body 
of documents regarding the LIPPO Group and the matters identified on 
the attached sheets would have been collected within the White House?
    Answer. I don't----
    Mr. Ballen. I object. The witness testified she wasn't involved in 
the directive and you are asking basically speculative questions at 
this point.
    The Witness. I don't know, which I already started to say, I don't 
know kind of what the production was like on this particular request.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. Well, then, referring to the December 16 directive, 
as you noted earlier on the second page, you had said we recognize this 
request is somewhat duplicative of a prior document request. Do you 
know if you were referring to any other request, aside from the October 
31, 1996, request?
    Answer. I don't know.
    Question. Okay.
    Answer. I just knew there had been lots of requests for information 
regarding all of these matters, and so to ensure we got all of the 
records, we required people to do another production.
    Question. And at or around the time of this December 16, 1996, 
directive, do you recall that you already had gathered a fair amount of 
documents pertaining to these matters?
    Answer. No, this was the first request I sent out.
    Question. So the documents that had come in to Bill Leary, you had 
not seen then, prior to doing the December 16 directive?
    Answer. I don't recall if I had gone through these materials or 
not. I don't recall.
    Question. Now, generally, Mr. Leary wouldn't be sending out 
documents in response to a congressional request; is that correct?
    Answer. No, Mr. Leary actually deals with--as you probably can 
imagine, in the NSC there are lots of materials that are classified, so 
I am sure part of the rationale for the production, for Mr. Leary, was 
with respect to ensuring they would be able to be maintained in a 
fashion consistent with their classification.
    Question. Mr. Leary wouldn't be the person who would bundle them up 
and send them up to the Hill or to HPSCI?
    Answer. No, I imagine Kathy Wallman and Alan Kreczko would have 
been playing that role.
    Question. And would they have gone through you at this time, before 
anything was transferred?
    Answer. I don't know that they would have gone through me, 
primarily, just because of their seniority at that time, but I am sure 
we would have tried to ensure that we had all the appropriate documents 
and to the extent that this request was sent out, one of the ways we 
tried to ensure that was to ask for all records to be reproduced.
    Question. And the deadline on this directive of December 16, 1996, 
Deposition Exhibit 10, was December 23, 1996, and do you recall if you 
did get a lot of those documents by that date?
    Answer. We got a fair number but because it was the holiday season 
there were a number of people out so we continued to receive documents 
throughout the end of the month.
    Question. Okay.
    Answer. Into the beginning of the next year, too.
    Question. So by early to mid January, had you received a lot of the 
documents, then, pertaining to, for example, John Huang, Mr. Riady?
    Answer. I think we would have received a fair amount of the 
documents by that point, yes.
    Question. And do you recall any discussions you had about 
transmitting them to the congressional committees and the Department of 
Justice?
    Answer. I recall that obviously we needed to go through, Bate stamp 
them, review them for responsiveness, and we needed to provide them as 
we were able to do so.
    Question. Do you recall when you provided the documents to the 
Justice Department?
    Answer. I believe sometime in January.
    Question. All right. And do you know why the documents at that time 
were not provided to congressional committees?
    Answer. It is my impression that the documents ultimately were 
being reviewed to be provided and I just don't recall what the 
different issues were with committees. If I recall correctly, most of 
the committees were at that point setting up what were going to be 
their processes, and there was some discussion regarding whether or not 
this matter was going to be handled by Mr. Gilman, is it Representative 
Gilman, is that correct, or this committee.
    Similarly, on the Senate side, I recall there being lots of 
discussions in that regard, and then I subsequently transitioned out so 
I didn't participate in the follow-up discussions to determine how you 
all ultimately ended up resolving that, though obviously the committee 
ended up with jurisdiction here and on the Senate side they ended up as 
they did.
    Question. When you gathered these documents pertaining to John 
Huang or James Riady, and Ms. Kanchanalak is listed on here, Charlie 
Trie, Johnny Chung, others, do you recall if you had gathered the memos 
which I think we sort of obliquely referred to earlier, regarding James 
Riady's visits to the White House, the Sherburne memos, that discussed 
I guess her disagreements with Mr. Lindsey about various accounts of 
the Riady meetings?
    Answer. I don't know what date Ms. Sherburne created her document, 
but we would have gathered them in the process of all the other 
requests that we would have been dealing with.
    Ms. Comstock. I will make this Deposition Exhibit No. 11. This was 
a November 26, 1996, memo to Leon Panetta and Erskine Bowles and Jane 
Sherburne regarding White House statements regarding the Riady 
meetings.
    [Mills Deposition Exhibit No. CM-11 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. This is an exhibit from a different deposition and I just 
marked it correctly. So then since this memo was on November 26th, 
1996, is it your understanding that it would have been collected 
pursuant to the December 16th directive?
    Answer. Yes, it should have been collected at that time period, 
right.
    Question. Do you know if it was provided to the Justice Department 
in January?
    Answer. I do not know. I don't know that all of our production was 
complete to the Department of Justice in January. If my memory serves 
correctly, towards the end of January, we made our initial production 
but we had subsequent productions that continued throughout March. 
That's my best recollection.
    Question. Do you know any reason why this particular document would 
have been withheld and not provided in January? I am not saying it is. 
I am just saying, if you know.
    Answer. I don't know that it wasn't. I don't know when it was 
provided, actually.
    Question. Do you recall any discussions about--there are a number 
of other documents that are related to this or other copies of this 
memo, but I will just refer to this one for now somewhat generically if 
we can on the topic.
    Do you recall any discussions about withholding these--this memo or 
others related to it for executive privilege purposes?
    Answer. I am sure that because this is a memo from Jane Sherburne 
we would have had to review this in the context of other documents that 
might be subject to privilege. So I am sure this one would have had to 
have been reviewed in that context. I don't recall particularly this 
particular document but I am sure we would have reviewed it in that 
context.
    Question. Okay. Did you have any conversations within the counsel's 
office about claiming executive privilege vis-a-vis Justice Department 
requests?
    Answer. I am sure we would have gone through, as we do for any 
document production, to review documents and determined whether or not 
there is privileges associated with them and then how to address those 
particular privileges that might be associated with the documents.
    Question. But in a situation where the Justice Department was 
asking the White House for documents, or the particular issues that 
were raised about how to go about claiming executive privilege when the 
Justice Department is asking you for?
    Answer. I don't know that--since the Justice Department is another 
branch of the government, I don't know that you have that same issue as 
opposed to when you are dealing with Congress, quite candidly.
    Question. That's what I am trying to get at. Usually, the counsel's 
office would go to OLC for advice and counseling on claiming executive 
privilege. Isn't that correct?
    Answer. It depends. There have been numerous investigations that 
have been ongoing that we have not been able to engage in that process 
either because of their particular investigation that they were doing 
or other reasons, and particularly, for example, in the Whitewater case 
there were some instances where--in the Whitewater matter there were 
some instances where we did not consult because of ongoing matters that 
they might have had.
    Question. Because of potential conflict?
    Answer. I don't know if it is always potential conflict, quite 
candidly.
    Question. Okay. Were you aware of--did you ever have any 
discussions with Mr. Ruff about Ms. Reno recusing herself from 
executive privilege issues as far as the fund-raising investigation is 
concerned?
    Answer. I am sure we would have had conversations to conclude that 
since the Department was going to be reviewing these matters that we 
would not review with OLC materials that would be going to them. I am 
sure we would have probably had those kinds of discussions.
    Question. Okay. Do you recall in particular conversations you had?
    Answer. I mean, I just recall that issue coming up. I don't recall 
particular conversations, but I recall that issue coming up and 
addressing that issue. Otherwise, as a matter of practice we probably 
would always be addressing these with OLC so I am sure we did have 
discussions in that regard.
    Mr. Ballen. Does that mean that you made a categorical decision not 
to address it with OLC as to all documents or just you had some 
discussions about appropriateness?
    The Witness. We had discussions regarding what would be 
appropriate, I am sure, documents for them, given their particular, I 
guess, investigation.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Was there ever any decision made that the White House 
would not claim executive privilege over documents--I mean, that the 
Justice Department requested?
    Answer. I don't know that the executive privilege issue arises in 
that context because it is an executive branch agency. So I don't know 
that we have the same issue in that context. So I think discussions 
would have been in that vein as opposed to asserting executive 
privilege with respect to the Department. They are an executive branch 
agency.
    Question. Are you aware of instances previously where the White 
House did withhold documents from the Justice Department based on 
attorney/client or executive privilege issues?
    Answer. I am not.
    Question. This is a matter Mr. Eggleston and I have discussed 
previously in another life.
    But did you then not work on any issues related to Whitewater and 
the withholding of documents in that case on executive privilege--on 
attorney/client privilege or anything like that?
    Answer. That's correct, I did not work on the Whitewater matter. 
Otherwise I think we would have worked together.
    Question. As far as--I didn't work on that one.
    Answer. Okay.
    Question. You aren't familiar then generally with the White House 
having then withheld documents from the Justice Department in the past, 
pursuant to any type of privilege?
    Answer. They may have. You may be able to walk me through a 
scenario where it would refresh my recollection, but I don't 
particularly have a recollection as I am sitting here, and I did not 
work on the Whitewater-related matters to the extent it arose in that 
context.
    Question. In the whole fund-raising case, you do not recall any 
particular documents where the issue came up and you had any 
discussions about withholding particular documents and how that might 
be done?
    Answer. Correct.
    Question. All right. So is it your--and I am gathering from your 
response that usually it would be unusual for the White House to claim 
executive privilege over another executive branch. Since you are within 
the executive branch claiming executive privilege, it is not something 
that normally one does?
    Answer. I don't know if it would be unusual. In this matter, I 
recall that they--we are an executive branch agency so to the extent 
that the context of our discussions arose, or our discussions arose in 
that context, I don't know what might be the context in which it would 
arise in other investigations.
    Question. In the December--I am sorry. Why don't we keep the 
December 16th directive out and then I think we may still need the 
WAVES records, too.
    When you compiled this list on December 16th, what was the source 
of the various names and requests? I mean, it says that there is 
congressional committees and Department of Justice had requested these 
things. Were there names on here, some of which you all didn't know who 
they were or what they were about?
    Answer. My best recollection is that the Department of Justice had 
been fairly specific in their interest and they were the first ones who 
were as specific about all the different entities they were interested 
in, so that's my best recollection of where we would have drawn most of 
the information from.
    Question. Do you know if there was any effort to find out--for 
example, the last name on the list Yue F. Chu; did you all look at that 
and say who is that?
    Answer. I still don't know who Yue F. Chu is.
    Question. Or Keshi Zahn?
    Answer. Right. I mean, all of these were individuals or entities 
that had been, at least to that point, identified as of interest to, I 
know, certainly the Department of Justice and many of them overlapped 
with other requests that we had. And so we attempted to try and do a 
comprehensive document search at that point.
    Question. Okay. Was there any attempt to find out internally who 
these people were? Or was the directive just sent out?
    Answer. We sent the directive out and to the extent that we learned 
who people were if it was helpful in trying to help people we would, 
but we basically sent the directive out.
    Question. Okay. I guess we said earlier Wendy White assisted you 
then with this.
    Answer. Yes, I believe that would be correct.
    Question. And what were Wendy White's duties in this regard?
    Answer. I think Wendy was at that time also assisting with the 
collection of the materials, and reviewing of the materials.
    Question. And did you task her or anybody else with finding out who 
any of these people were?
    Answer. I am sure we tried to find out who these people were but I 
don't recall in particular tasking anybody to try and address them. I 
think often as documents came in it became clear who the different 
people were.
    Question. Okay. For example, were you familiar with Yogesh Ghandi?
    Answer. Yes.
    Question. Okay. Now you had in fact worked on some matters related 
to Mr. Ghandi?
    Answer. Yes.
    Question. All right. And did you then gather up the files that you 
had or material that you had on Mr. Ghandi?
    Answer. The material I would have had on Mr. Ghandi would have been 
a memo that Cathy Whalen had so that would have been something I would 
have sent back just because at that point I wasn't handling that 
matter; Ms. Whalen was handling it.
    Question. With respect to what?
    Answer. With respect to the Yogesh Ghandi award, Ms. Whalen was 
handling that matter.
    Question. In collecting these documents, did you put the Ghandi 
documents into the pile that was being collected pursuant to the 
December 16th directive?
    Answer. Yes, to the extent that I had Ghandi documents.
    Question. Okay. So it is your recollection that you had sent them 
off to--sent a lot of the documents to Ms. Whalen?
    Answer. I don't recall actually being consulted other than one 
question that was raised with me with regard to Mr. Ghandi, and that 
was basically someone forwarding me a request to look at the issue. 
Since Cathy was already working on it, I just sent it down to her.
    Question. Do you recall in January, when documents were turned over 
to the Justice Department, if the Ghandi documents were included in 
that?
    Answer. I just don't recall.
    Question. Okay.
    Answer. I should be clear that we did not complete production to 
the Justice Department in January. We basically began production in 
January, towards the end, I believe. So this would have been a process 
of going through all the materials and it would have taken a couple of 
months probably before we completed production.
    Question. Okay. And who worked on that, that initial--that January 
production with you?
    Answer. Karen Popp in our office and then it was transitioned 
obviously to well, Mr. Breuer's staff and team when they came on board.
    Question. And when did Ms. Popp come on board?
    Answer. December 23rd, I believe, or the 24th; some awful time 
right before Christmas.
    Question. And she worked with you exclusively?
    Answer. At that point, she did.
    Question. Okay. Can you tell us when she came on board, what you 
did to sort of get her up to speed on these matters?
    Answer. I believe at that point we already sent out the directive 
when she came on board and so I basically asked her to look through the 
materials. I tried to explain to her where the different places were 
where we looked for materials, how we gather materials, basically all 
the things you would need to know to be able to hopefully be helpful 
and effective in a process like this.
    Question. Okay. Did you indicate to her what offices would be most 
likely to have documents regarding any of these people?
    Answer. To the extent that there was follow-up required, but I 
believe that the document requests had already gone out by the time 
that she came on board so we would have already been receiving in the 
materials.
    To the extent that we were trying to follow up on materials or 
follow up on information, I would obviously describe to her where we 
might need to follow up based on materials or other information that we 
had.
    Question. Okay. And can you describe anything else you did to sort 
of acclimate her to this process and how she would go about gathering 
the documents and making sure that she would obtain all responsive 
documents within the White House?
    Answer. Well, these were already coming in so she didn't have an 
obligation to make sure they were coming in; they were already coming 
in. We had already sent out the directive. But typically, what I tried 
to do with her and with others, to the extent that I have information 
that might be helpful, is to walk them through what I have already 
learned; walk them through whatever information we already know; walk 
them through the different places where there might be information 
coming from based on what we know and also try and introduce them to 
different people as they are working through the process so that they 
know who the different people are in the different offices so they can 
always have a point of contact that they can talk to to ask questions 
about materials and other things.
    Question. Okay. And who were those key type people?
    Answer. They would be whoever the particular assistants were for 
the office or other people who might be their assistants. Those would 
be people who might likely see a lot of the paper or information that 
goes through the office.
    Question. Can you tell me some of those office, like the staff 
secretary's office would have a lot of the people?
    Answer. Staff secretary's office probably I would indicate Terry 
Good because that comes under there, and Terry Good would be a person--
he has another person on his staff who also is particularly responsive 
in trying to ensure that we go through materials, and so--Tom Taggert, 
I would indicate he is another person in Records Management to talk to. 
We would go through the different offices and identify people who were 
in those offices and likely to be able to provide help or guidance with 
respect to materials that come from their office.
    Question. Do you know the volume of documents that have been 
gathered by January that you had collected, you know, boxes or folders?
    Answer. I do not know the volume but it was certainly boxes.
    Question. All right. Do you know where it was being stored or kept?
    Answer. We have a room where we just stored materials, and that's 
where they were being stored.
    Question. Can you just describe the process, how they came in and 
what you did when records would come in responsive to a directive such 
as the December 16th?
    Answer. Typically when records came in we would try and place them 
in a file folder or something that would help identify the source of 
those particular records, and then we would just place it in a box and 
keep collecting the records until the time period when we perceived 
that we had most of the documents that were out there, which was 
usually somewhere shortly thereafter the date of production that we had 
given out our memos.
    Question. Would you identify the offices from which the documents 
came as they came in?
    Answer. The name of the person or the office if there was no name 
associated with it.
    Question. Okay. So as the documents came in to--what was the room 
number that this came in?
    Answer. They came into my office and then we would put them 
basically into a box to try and go about identifying them as they came 
in to ensure that we had all the records identified when they came in.
    Question. If Mr. McLarty sent documents from his office, they would 
come in from his office and they would be identified Mr. McLarty's 
documents?
    Answer. Correct.
    Question. Is that correct? And if Terry Good sent over documents 
from Records Management would he usually--would he know whose offices 
they had come from?
    Answer. They would be identified in ours as from Records 
Management.
    Question. Okay. But would Mr. Good in his records have a record of 
whose records those are?
    Answer. I am sure he probably does.
    Question. Okay. But so would he then be able to inform you whose 
records they are when he sent them over?
    Answer. I am sure he could, though typically when they came in they 
came in as Records Management documents. In other words, they came in 
as archives documents rather than archive documents of X person.
    Question. If you were to go back to Mr. Good and say, Gee, I have 
this document, I don't know what it is, can you tell me whose file it 
came from, does Mr. Good have a process by which any documents he gives 
to you he can then trace in his tracking system to tell you where he 
got it initially?
    Answer. I don't know, but I am sure he does.
    Question. Isn't that part of what Records Management is, to know 
where the records came from that he is managing and filing?
    Answer. It is partially that. It is also just to ensure that we 
have a complete record so that sometimes there obviously will be 
occasions where they don't know particularly whose file a record might 
have come out of but they try and make sure they have all the records.
    Question. Generally, he tries to identify--I mean, if somebody 
comes and drops a box on his doorstep and doesn't tell him where it is 
from, obviously he wouldn't know. But if he was given information when 
he was given the documents, doesn't the office then go ahead and 
identify the documents?
    Answer. That's my understanding of their practice.
    Question. Well, in gathering documents in your office, do you then 
go back and find out the source of those original documents aside from 
Records Management?
    Answer. Not beyond Records Management.
    Question. All right. When you provided documents to the Justice 
Department, did you recall if you did a production log to the Justice 
Department?
    Answer. I don't recall if we did a production log, but if we did we 
still would have identified it as Records Management unless we had more 
information.
    Question. Okay. Do you recall--you don't recall if you did a 
production log for the Justice Department?
    Answer. That's correct. I am sure there was one that was done but 
it would have been done after the time period that I was handling this 
matter.
    Question. Okay.
    Answer. Production logs typically are done at the end of 
productions. This production was not completed by the time I 
transitioned out of the matter.
    Question. Okay. How much was completed in terms of the Justice 
Department production while you were still working on these matters?
    Answer. I believe we had only done our first production to them, 
and I believe there were several subsequent productions.
    Question. Okay. Do you have any general recollection of how much of 
a volume of documents you turned over at that time?
    Answer. I don't. I really don't.
    Question. Do you know who would know?
    Answer. No. I mean, I think that's a piece of information we could 
try and find out for you but I don't have a particular recollection.
    Question. Well, I am just trying to get a sense of by the time you 
left how much was gathered and together on these various topics.
    Answer. I don't know that I can give you a good answer on that 
because I wasn't involved in the subsequent aspects of the production 
and what review went into those in terms of trying to ensure complete 
production in that sense. That was something that was handled by 
somebody else. So I can't give you a sense of whether or not we 
produced 3 boxes to Justice and there ultimately were 12 boxes 
produced. I just don't ultimately have a sense of that.
    Question. Okay. I think in looking at the WAVES records--I did not 
want to return to the WAVES records, but we have probably gone through 
pretty much all you recall on any of the Riady meetings; is that 
correct?
    Answer. Correct.
    Question. Okay. And I just wanted to now refer to Mr. Huang's 
visits at the White House and to the extent you have any knowledge of 
those events and who he was meeting with.
    Answer. I don't have any particularized knowledge beyond what I 
ultimately ended up reflecting on these documents.
    Question. Okay. And the bottom of page 4978, that is your 
handwriting on the February 11th, 1993, notation?
    Answer. Correct.
    Question. Can you make that out?
    Answer. POTUS economic briefing in East Room. I can't make out the 
next section. Open press. The next line I cannot make out.
    Mr. Ballen. Cannot make out because the Xerox copy is poor.
    Ms. Comstock. I understand. Ms. Mills has some of the best 
handwriting that we have seen on documents so that has nothing to do 
with her handwriting. It is a poor copy.
    The Witness. The last paren says ``photo, too,'' T-O-O.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Then on the next page, EOP 4979, it indicates there is a 
photo in file. Do you know if that is a photo that you had in your file 
at that point or what you are referring to there?
    Answer. It probably would reflect that there was photos in the 
photo office in their file.
    Question. Okay. So I know we mentioned this a little earlier, but 
is it your recollection that you would have sent your assistant to get 
photos from the photo office about this?
    Answer. Well, you can't get photos but you can actually look at the 
contact sheets or get a copy of the contact sheets. I probably would 
have asked my assistant to go up and look and tell me if there was a 
photo in the file or not.
    Question. So this notation would mean that someone had seen a photo 
in the photo office but that you didn't actually have a physical copy 
of it?
    Answer. Right, though I might have had a copy of the contact sheet.
    Question. How would you go about getting a copy of the contact 
sheet?
    Answer. I have to confess to not knowing because I don't actually 
do it. I would ask my assistant to do it.
    Mr. Ballen. Just so the record is clear, you were not a participant 
in any of these meetings; were you?
    The Witness. That's correct.
    Mr. Ballen. This was something you were finding out to respond to 
the various requests that came in?
    The Witness. Yes. I was not a participant in the meetings.
    Ms. Comstock. I hope the record will reflect that. We are asking 
the witness about her notations about this and none of the meetings are 
with her.
    The Witness. Correct.
    Mr. Ballen. Not based on her firsthand knowledge, just based on 
information she collected either from talking to people or looking at 
documents.
    The Witness. Correct.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And again on page 4980, Melinda Yee is mentioned in 
meetings with Mr. Huang. Again, you don't recall talking to Melinda Yee 
about John Huang?
    Answer. That's correct.
    Question. Do you recall any general discussion about John Huang's 
relationship with the President or how long they had known each other? 
Do you recall getting an impression of what the relationship was?
    Answer. I am sure that that is something I would have learned, and 
I know the President has spoken to that. I can't tell you in 
particular, in time frame, that I would have learned that, but I 
understood that Mr. Huang had spent some time in Arkansas.
    Question. I am just trying to get a sense. I mean, when you go 
about--when you went about this exercise, were you attempting, you 
know, as a lawyer to find out, you know, the client, you know, what the 
involvement was here to find out as much as you could about Mr. Riady 
and Mr. Huang and what their interactions were at the White House?
    Answer. I wasn't particularly interested in Riady and Huang as I 
was interested in what the nature and purpose of their visits were and 
what kinds of events they might have been attending and why they might 
have been attending them. I didn't have a particularized interest in 
John Huang per se or Riady per se. I had an interest in understanding 
what their contact had been with the White House.
    Question. And do you know who Holt is who has a meeting? It is on 
page 4983, 6-24-93 meeting.
    Answer. I do not know who Holt is, though obviously I indicated he 
or she works in the visitors office.
    Question. Do you recall having any discussions with Mr. Holt or 
Miss Holt or whoever that might be?
    Answer. No. And that visit actually appears to reflect that the 
visit didn't actually transpire.
    Question. That's because of the little stars there would mean there 
is not an arrival time?
    Answer. Under the TOA, there is four stars which would indicate 
that at least the record would reflect that they did not arrive.
    Question. Okay. Page 4985, where the visitee is the President but 
then you have next to it ``Meeting with California opinion leaders.''
    Answer. Correct.
    Question. Is that something you would have gathered from the 
Presidential records or something like that?
    Answer. Yes.
    Question. On page 4986, I think we have talked about Miss Dickey. 
You don't recall the conversations with Ms. Dickey about John Huang or 
James Riady?
    Answer. I am sure I would have spoken to Ms. Dickey but I don't 
recall having a particular conversation, and I couldn't tell if it is 
Robin or Helen Dickey.
    Question. Do you recall ever discussing with Mr. Quinn, who is 
listed as a visitee on 9-24-93, any discussions he had with John Huang 
or meetings?
    Answer. No, but I am sure I would have called him.
    Question. The stars again on the side----
    Answer. Oh, you are right. I might not have.
    Question. So I do want the record to reflect that. Do you recall 
having any discussions like, hey, Jack, did you set up a meeting with 
John Huang and what can you tell me about it?
    Answer. I am sure I would have. I don't recall particularly, but I 
am sure I would have.
    Question. All right. Do you recall what he said?
    Answer. No, I actually don't.
    Question. You are laughing. I am not sure--can you----
    Answer. I am just laughing because it is Jack Quinn so I would 
have, of course, wanted to call him but I don't recall in particular.
    Question. But you have no recollection of what he said he was 
meeting with Mr. Huang about or might have been meeting--had--obviously 
this reflects there was a scheduled meeting or that there was at least 
an attempt for Mr. Huang to come in and Mr. Quinn was a visitee.
    Answer. Correct. But since there was no time of arrival, obviously 
people I think tended to have a harder time figuring out what they 
might have been meeting with people about when actually didn't meet 
with the people as opposed to when they did. That was just generally 
kind of one of the things I noticed as I was going through here. I 
don't particularly recall any conversations with Mr. Quinn in which he 
was able to reconstruct what that might have been about.
    Question. All right. Then there are a number of receptions and 
events. Again, you just had your assistant check about these events; is 
that how you learned of it?
    Answer. Correct. Or you look at the schedule to see what events 
were going on at that time period.
    Question. Okay. Now, Ms. Matsui had some meetings with Mr. Huang; 
is that correct? And I am on page 4991. The Bates stamp number has 
fallen off the page there.
    Do you recall any discussions you had with Ms. Matsui about her 
interaction with Mr. Huang?
    Answer. I am sure I had discussions with Ms. Matsui about her 
interactions with John Huang primarily because I believe there was some 
plan that was put out by the Asian Pacific working group and I recall 
having discussions with her in that context. So I am confident I had 
conversations with Ms. Matsui.
    Question. And what did she tell you?
    Answer. I don't recall her telling me anything in particular about 
Mr. Huang other than him being a part of the same working group and 
being, I believe at that point, at Commerce initially and often being 
an advocate for the involvement of Asian Americans.
    Question. Okay. And talking with any of these people about Mr. 
Huang, do you recall anyone ever raising any concerns about, gee, I 
thought it was funny that he brought this person or that person in, or 
as the stories came out of anybody ever saying to you that, gee, I had 
suspicions about this or that or anything of that nature?
    Answer. No.
    Question. Okay. Are you aware of anybody at the--did anyone at the 
DNC ever say anything like that to you?
    Answer. No.
    Question. Have you ever heard that anyone told you about, gee, 
someone at the DNC told me they were wondering where he got that money 
from a certain event or anything of that nature?
    Answer. No.
    Question. Okay. Then I guess going through, as we did with the 
Riady ones, if you could look through any other John Huangs and see if 
there are any ones in particular that you might recall having 
discussions with the individuals?
    Answer. None of these stick out in particular, but I am sure I had 
conversations with Ms. Matsui. I recall having had a conversation with 
Bob Kyle and that he indicated it was an Indonesian meeting, so I 
recall having spoken to him about that. Others don't really stick out 
into my mind as to what conversations might have happened or materials 
I might have been looking at to determine what they were.
    Question. Do you recall any discussions with Harold Ickes about any 
meetings he had with Mr. Huang?
    Answer. I don't, but I am sure if he is on here I would have 
probably asked him about it.
    Question. Or Maggie Williams?
    Answer. I recall speaking to an assistant in her office. I don't 
recall who, regarding an Ambassador who came to visit, an Ambassador 
from--Ambassador March Fong Eu or someone by that name. I recall that.
    Question. March Fong Eu, Ambassador to Micronesia?
    Answer. Yes.
    Question. And do you recall what she told you about that?
    Answer. I just recall that one of her assistants had indicated that 
they had dropped by, I believe on one day and Ms. Williams wasn't there 
and they came by another time and introduced them to her. That's to the 
best of my recollection.
    Question. Did they tell you why she was coming to visit Ms. 
Williams?
    Answer. No. It was my impression they were just introducing the 
Ambassador to Ms. Williams.
    Question. Again, as with Mr. Riady, a number of the meetings were 
with people in the personnel office, somebody Huynh, H-U-Y-N-H; do you 
know who that individual was?
    Answer. I believe his name was Fu Huyhn. I believe he was also 
involved in the Asian American appointees group that they had.
    Question. Did you ever talk with anyone about John Huang was trying 
to get people placed or, you know, get jobs for anybody or making 
recommendations?
    Answer. I don't particularly recall that, but I also recall that 
Mr. Huang, as an Asian American appointee of the President, was 
interested, as were Ms. Matsui and others, in seeing Asian Americans 
appointed to positions in the administration.
    Question. All right. Can we just generally discuss in addition--we 
had discussed already a little bit about how you transitioned Ms. Popp 
into working on these matters. As other people came on board, could you 
describe that process and what you did to sort of transition out of 
working on this?
    Answer. As other people came on board, I sat down, I particularly 
recall with Mr. Breuer and I guess Ms. Peterson might have been there 
as well, but others and just walked them through what had been done to 
that point, what materials there were, where materials tended to come 
from in terms of what offices would have what kinds of materials; where 
they could go about finding out information about schedules or events 
and things like that and kind of walk them through the ways in which 
they could go about discerning information that might be helpful or 
responsive or provide greater insight into different events or things 
that might have transpired that would be responsive to or elaborate on 
the requests that we were receiving from the various entities.
    Question. All right. Did you tell them about the White House 
Communications Office?
    Answer. No.
    Question. All right. And did you tell them anything about 
audiotapes or videotape records or any type of records in that regard?
    Answer. No.
    Question. Do you recall----
    Mr. Eggleston. Could I ask you a question: Have you had access to 
the Senate deposition?
    Ms. Comstock. Are we going into some areas there?
    Mr. Eggleston. No, no. She has pretty much done this in the Senate.
    Ms. Comstock. Actually, I don't think we are going to go into that 
a lot because I understand the testimony and everything with Senate and 
everything, so I am trying to----
    The Witness. As you are probably aware, I didn't have a great 
familiarity with what they taped and what they didn't tape and so had 
not been a participant in productions with regard to tapes. So I was 
not familiar with what they might have and what they might not have. I 
obviously understood that everyone got the directive, but beyond that I 
didn't have any particular familiarity with what their practices were 
and what they taped.

                      EXAMINATION BY MS. COMSTOCK:

    Question. But in working on the memos that you had done with them, 
the memos did discuss that there was taping of Presidential events; is 
that correct?
    Answer. Actually the memos referenced recordings and they do not 
discuss taping. As you are probably aware from my deposition, and from 
the depositions of the others as they testified to at least when they 
were at their hearings, we did not discuss videotaping.
    Mr. Ballen. For the record, do you have--this is an internal 
matter, but we have not received a copy of your deposition in the 
Senate, the Minority.
    Do you have that, Ms. Comstock, from the Senate?
    Ms. Comstock. We can discuss internal matters elsewhere. I am 
trying to stay on----
    Mr. Ballen. I am going to object then entirely to any questions 
about any matter raised in the Senate. If you have access to the Senate 
deposition and the Minority does not, I don't think that's fair, and to 
question a witness about it, to repeat the questioning we have a long-
standing objection to that without providing Minority a copy at least 
of the Senate deposition. So it is more than an internal matter if you 
plan to ask questions that this witness has already testified to.
    Ms. Comstock. If you can indicate matters as they come up that you 
think--because I think we have been staying--you know, trying to 
discuss our subpoenas and our matters.
    Mr. Eggleston. That's fine. I will tell you generally, the Senate 
was interested in the videotape issue as anybody who watches ABC News 
knows. Ms. Mills testified in a fairly lengthy Senate deposition and, 
frankly, I can't imagine there are any questions that you could ask her 
about the videotapes that weren't asked of her at the Senate. But, I 
mean, they were pretty exhaustive on this subject.
    It was really almost exclusively the subject of a couple hour 
deposition. I don't know that I can remember every single question that 
she was asked, but they pretty much occupied the field on this issue. 
And since then, of course, the WHCA employees all testified they didn't 
talk about the videotapes with her so that it turns out she is not in 
the WHCA videotape story as the matter ended up.
    Ms. Comstock. Okay.

                      EXAMINATION BY MS. COMSTOCK:

    Question. In the course of your gathering documents in the January 
time frame, were you aware of documents from Mr. Ickes' office being 
gathered in any manner?
    Answer. Yes. Mr. Ickes provided documents in response to the 
request.
    Question. Okay. And were you aware of Harold Ickes taking documents 
with him?
    Answer. I am aware of that now. I don't know if at that time that 
would have struck a bell, but I am certainly aware that there were 
materials that were campaign materials or other things like that that 
he departed with.
    Question. And this committee received documents from Mr. Ickes in 
February of 1996. Were you aware of discussions about whether or not 
Mr. Ickes should turn over documents to this committee--in February of 
1997, I am sorry. Were you aware of any discussions in the counsel's 
office about Mr. Ickes turning over documents?
    Answer. I am certain we had discussions regarding whether or not 
any of these materials were materials over which there potentially 
would be privilege issues that needed to be addressed and we would have 
had those conversations in that context.
    Question. Okay. Do you know if there were discussions with Mr. 
Bennett about that, Mr. Bennett being Mr. Ickes' attorney?
    Answer. Right. I actually recall there probably being discussions 
with Ms. Amy Sabirn, who I believe also worked on this matter with Mr. 
Ickes.
    Question. Do you recall--were you involved in those discussions?
    Answer. I am sure I would have been involved in those discussions 
with respect to Mr. Ickes' documents if they were done in the beginning 
of the--of February. I am sure that would have been a time period that 
I would have still been involved in those matters.
    Question. Okay. Do you recall any particular issues regarding Mr. 
Ickes' documents and what he had taken with him?
    Answer. I recall there being press attention to the fact that he 
had materials that were with him. I don't recall there being any 
particular issue, other than ensuring that to the extent there were any 
privileges that might properly be associated that we would have an 
opportunity to review and identify them. Other than that, no.
    Question. Was there any discussion about Mr. Ickes had a number of 
documents that were his memos to the President and the President had 
written on them, things such as that?
    Answer. I don't recall any particular issues about that, no.
    Question. Okay. I wanted to ask you some questions about when you 
were working on matters in the fall of 1996. One of the matters you 
also worked on was the White House database; is that correct?
    Answer. Correct.
    Question. And could you tell us how you came to be involved in 
gathering those documents?
    Answer. It was just one of the issues that was assigned to me by 
Mr. Quinn.
    Question. All right. And were you involved then in the process of 
turning over White House database documents?
    Answer. Yes.
    Question. Since we are going into a new area here, would it be okay 
to take a break for just a minute?
    Answer. Sure.
    Ms. Comstock. Let's go off the record.
    Mr. Ballen. A 5-minute break?
    Ms. Comstock. Yes.
    [Brief Recess.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. We were talking about the White House database and I am 
not sure where we were in terms of----
    Mr. Eggleston. You had not asked a question yet.
    Ms. Comstock. Okay.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you involved in discussions on actually turning over 
the records on the database to the committee?
    Answer. I was handling the database matter until approximately 
November/December of 1996.
    Question. Okay. At that time Sally Paxton began handling that 
issue; is that correct?
    Answer. Correct.
    Question. Are you aware of documents that were gathered during the 
summer/fall time period of 1996?
    Answer. Fall, correct.
    Question. And let me show you an exhibit. Are you familiar with the 
letter that Mr. Ruff had sent last week to the committee?
    Answer. Yes.
    Question. And if you could just tell us, what is your understanding 
of these documents and where they have been?
    Answer. When I stopped handling this matter, these--my files were 
transferred to Ms. Paxton and the documents were transferred to Ms. 
Paxton. In my working file was a file that had these materials in them 
that were transferred to Ms. Paxton at that time so that would have 
been probably the end of November or December sometime.
    Question. Okay. And----
    Answer. And remained in those files until they were provided to the 
committee.
    Question. Okay. And at that time, they were not turned over to the 
committee?
    Answer. They were not turned over initially to the committee with 
respect to their first request because they were not responsive.
    Question. Okay.
    Mr. Eggleston. Again, we are talking about--there were a number of 
documents provided. You are talking about the documents that are 
attached to Mr. Ruff's October 28th, letter?
    Ms. Comstock. Yes, the October 28th, 1997, letter to Chairman 
McIntosh, who is chairman of the subcommittee of this committee and 
attached--it is a 2-page letter and attached to it are documents Bates 
stamp numbered M 33292 through 3302 from the Office of White House 
Counsel.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Is your testimony then that these documents were not 
turned over at that time because they were not responsive to the 
committee's request?
    Answer. To the particular request, correct.
    Question. And were there any privilege issues attached to any of 
these documents or just it was the sense that they were not responsive 
to the request in the fall of 1996?
    Answer. August 1996, correct.
    Question. And then you had transferred all of these files to Ms. 
Paxton?
    Answer. Correct.
    Question. And then when initial requests came in this year, did you 
talk to anyone about your files or where anything was at?
    Answer. Other than obviously Ms. Paxton had all of my files, and I 
already have indicated when I have gotten questions about the database 
that, you know, I have transferred all my materials to Ms. Paxton so 
they would have to look through the materials that were transferred to 
her.
    Question. Have you had discussions about these documents that were 
attached to Mr. Ruff's letter recently?
    Answer. Oh, sure, before they were provided, yes.
    Question. How did they come about to be--Mr. Ruff had stated that 
they just were found recently when Ms. Paxton went back to review her 
files?
    Answer. Correct. I believe Ms. Paxton was reviewing her files for 
another request that had come in from the Chairman and she went through 
all of her files and this file was one of the files that was in her 
files, yes.
    Question. Okay. And did you have any discussions with her about why 
they hadn't been turned over earlier?
    Answer. Other than at the time that we reviewed them they were 
deemed not responsive, those were the discussions that we had had.
    Question. To your knowledge, have all of the files that you turned 
over to Ms. Paxton now been reviewed and all the responsive documents 
turned over to date?
    Answer. I believe so. Ms. Paxton obviously reviews all the files 
and materials in that regard, but I believe she has done that.
    Ms. Comstock. All right. I will make this Deposition Exhibit No. 
12.
    [Mills Deposition Exhibit No. CM-12 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. When the database information was first turned over to 
the subcommittee, was there any discussion about information about the 
coffee events being on the database internally at the White House?
    Answer. I don't believe so. I am sitting here trying to think about 
that. I know that in the course of trying to determine the list of 
coffees that had occurred and the coffees that--and the attendees, 
obviously some of the attendees' lists were in the database but that 
was not discussed.
    Question. Was the White House database ever used as a source of 
information for tracking down documents or information as responsive to 
various document or subpoena requests?
    Answer. I am certain if we get documents from the database that 
would indicate responsive materials might exist someplace else we would 
follow up to try and collect those materials.
    Question. Like if--I know the committee has received things such 
as--there was--say, if we had asked for all documents related to John 
Huang, we would get a sheet from the database which is a readout of 
John Huang's attendance at various events. Was that something that you 
normally did in other productions where you would go to the database 
and say, print me out all of the events attended by whoever the 
subpoena was requesting information on?
    Answer. Once the database came on-line that's one of the things we 
would try to do to ensure that we had materials that might be 
responsive. In other words, we would look at those--the database 
sometimes against the WAVES records so it would help sometimes identify 
what particular visits might have been about.
    Question. And do you know if in the course of going through the 
Riady and Huang WAVES, did you use the White House database to check on 
those things?
    Answer. I don't know. I am sure we would have. If it had 
information that would have been responsive, I am sure we would.
    Question. And do you recall any issues, when the database 
information was turned over, that some of the information in there was 
obviously private or not known to the public at that time and how 
that--you know, do you have any internal discussions about, these 
coffees were private events or anything like that and indicate that 
this information would now be known to Congress that there were these 
coffee events?
    Answer. I don't recall discussions about coffee events, 
particularly because there are lots of coffees that are held. I know 
people are most familiar with political coffees, but there are coffees 
held, all kinds of different coffees. There are coffees with Members of 
Congress. There are coffees with the Childrens Defense Fund. I mean, it 
is just one of the types of events that we have at the White House.
    Question. Was it your understanding that these political coffees 
were like those coffees?
    Answer. I didn't have any understanding of the political coffees 
until sometime in January of 1997.
    Question. How did you learn of that?
    Answer. There were press inquiries with respect to how many coffees 
the President had had with different political supporters.
    Question. All right. And at that time, did you utilize a database 
to find out that information?
    Answer. At that time we actually went and tried to go back through 
schedules, briefing books and other materials that might have guest 
lists.
    Question. Okay. And in particular the coffee Wang Jun attended 
became public, and I think there were some news articles in December of 
1996 around the time the story about Charlie Trie came out. Did you 
attempt in that December time frame of 1996 to find out about why Wang 
Jun was at a coffee?
    Answer. I think whenever the coffee issue arose, we attempted to 
try and gather all the information that would give us a list of who had 
attended the coffees and the dates that the coffees had occurred. We 
didn't have any requests regarding coffees that I am familiar with, and 
so at that point what we were trying to do was gain an understanding of 
the different events that had been held in that regard, and I believe 
that was one of the coffees, but there were other coffees that people 
were also interested in as well.
    Question. Okay. And you are familiar with Charlie Trie at this 
point; is that correct?
    Answer. I have become familiar with--yes, that's correct.
    Question. Okay.
    Answer. By at this point, you are talking about December of 1996?
    Question. Correct. Right. I don't think we are going to go into all 
the Charlie Trie May events and the May 9th meeting and all of that. I 
think that's been covered in Mr. Cardozo's testimony, unless you have 
anything to add that it was contrary to Mr. Cardozo's public testimony 
or accounts of those meetings.
    Answer. No, but I didn't see all of his testimony, but no.
    Question. We had already discussed prior that we weren't going to 
be going into a lot in that area and were going to be staying more in 
the compliance area in general.
    But in regard to Mr. Trie, do you recall ever discussing anything 
related to Wang Jun and Mr. Trie, Mr. Trie bringing in Wang Jun or 
learning about that at the time of the coffee?
    Mr. Ballen. Discussions with whom, with Wang Jun or Charlie Trie--
--
    Ms. Comstock. Discussions about----
    Mr. Ballen. My question was discussions with whom? Would they be 
discussions with Wang Jun? Would they be discussions with Charlie Trie.
    Ms. Comstock. I don't know if he speaks English.
    The Witness. If you are talking about the December '96 time period, 
or the January '97 time period with respect to coffees, I am sure we 
would have tried to ask whatever questions we could to try and 
determine the guest lists and other things like that. I don't 
particularly recall conversations about each particular guest, though I 
do believe he was somebody that people were interested in. So I would 
have had conversations to try and determine how he came to be there, 
but I don't really particularly recall him as disassociated from some 
of the other people that people might have been interested in.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you aware of any process at the White House whereby 
some of the people who went to coffees were checked or anybody at the 
NSC asked about them?
    Answer. I have learned, during the course of handling this matter, 
that I guess it was people's expectation that the DNC was reviewing 
these guests. At least in the White House we did not have, I think, 
adequate procedures to review for the guests, and that's something that 
was subsequently implemented.
    Question. What is that process now?
    Answer. I am not familiar enough with it, but each particular 
contact person or assistant to the President who has responsibility for 
an event has the obligation for ensuring all the different guests are 
vetted for the various events that they might be coming in for.
    Question. Do you recall if anyone had ever asked you about Wang Jun 
or his attendance at a coffee?
    Answer. I don't recall anyone asking me. I am familiar with an e-
mail that I have. I don't recall the circumstances surrounding that e-
mail. I became familiar with that during the course of our production.
    Question. Okay. I believe this is an e-mail that we just received 
recently.
    Answer. No, this would have been produced quite some time ago.
    Mr. Eggleston. In any event, you have it now.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Yes. It is a February 5th, 1996, e-mail from Phil Caplan 
to you; is that correct?
    Answer. Yes.
    Question. And on the e-mail it says, ``As we discussed: Mr. Wang 
Jun.'' It says, ``Chairman, China International Trust and Investment 
Corp,'' and then ``Dr. Carlos Mersan'' and then it says, ``Let me know. 
Thanks.''
    You don't recall any conversation with Mr. Caplan?
    Answer. No, and I have looked at this. I don't recall a 
conversation with him.
    Question. Okay. Have you talked to Mr. Caplan about this?
    Answer. I have not.
    Ms. Comstock. I will make that Deposition Exhibit No. 13.
    [Mills Deposition Exhibit No. CM-13 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Would I be correct then this document was brought to your 
attention recently or sometime in the past few months, whenever it was 
produced----
    Answer. Correct.
    Question [continuing]. To the committee?
    And at that time did you discuss with anybody, you know, whether 
you had done any general vetting of anybody or anything in relation to 
people such as Mr. Wang Jun or Carlos Mersan?
    Answer. That's a compound question.
    Mr. Ballen. Excuse me. I don't understand the question.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I was wondering--this was brought to your attention at 
some point, whenever it was produced to the committee; is that correct?
    Answer. That's correct.
    Question. You have no recollection, other than someone brought it 
to your attention?
    Answer. Correct.
    Question. So at the time of the February 6th coffee or sometime at 
or around the February 6th coffee, you have no recollection of anybody 
approaching you about Wang Jun?
    Answer. Correct.
    Question. You have no recollection of anybody approaching you about 
Carlos Mersan?
    Answer. Correct.
    Question. In particular, you have no recollection about Phil 
Caplan, who is the author of this e-mail, contacting you about either?
    Answer. Correct. Indeed, when I saw this e-mail I didn't recall it 
at all. It surprised me that I had this e-mail.
    Question. Have you checked with anyone else in the counsel's office 
to find out if they had discussed Mr. Wang Jun or Mr. Mersan, Dr. 
Mersan, with Mr. Caplan?
    Answer. No. But, you know, his e-mail is to me so I would be the 
person who would probably have a recollection, and I don't.
    Question. Okay. Then I guess my question I was trying to get at is 
any type of vetting that was ever asked of you, did anyone ever come to 
you and say, can we have so and so come to an event or----
    Answer. I am sure that has happened in the past, and typically I 
would try and be responsive to whatever requests I might have got. I 
don't have particular associations with anybody in particular, but I am 
sure that might have happened in the past. There was no systemized 
process or anything like that, if that's what your question is.
    Question. Okay. Were there ever any issues where people who 
attended coffees had some type of criminal background or had hits on 
their--on, you know, when you come in with the Secret Service there are 
some hits on their name?
    Answer. If there were, I did not know.
    Question. Did somebody ever raise that? Nobody would ever call you 
about that and say, DNC wants to let this person in and we have an 
issue with this; what should we do?
    Answer. I am not aware of anybody raising with me that someone has 
had a hit or whatever you are identifying with respect to their WAVES 
record or--or their Secret Service check.
    Question. Do you know anybody at the White House who was tasked 
with sort of monitoring these lists and who was on them?
    Answer. It was my impression that that was actually the Secret 
Service's task. Obviously, through this process, we have discerned that 
they don't make judgments regarding propriety but only security, and so 
someone might have other issues that are associated with them that 
might be criminal but that they don't view to be actually a threat 
risk. That's something that we learned through this process. Prior to 
that, I think it was my impression that that was one of the functions 
that the Secret Service performed.
    Question. You mean up until recently, that was your understanding 
of the Secret Service?
    Answer. Up until all of this--until it all got raised, the fact 
that there were people who obviously had particular issues in their 
background who were visiting the complex, correct.
    Question. Okay. That wasn't brought to your attention, for example, 
last year with Mr. Livingstone and the FBI files or any of the things 
that came about?
    Answer. No. I actually wasn't involved in those matters so it 
probably wouldn't have been something that would have perked my 
attention.
    Question. So we are just blank on this e-mail?
    Answer. Yeah.
    Question. Okay.
    Mr. Ballen. Has that been entered as an exhibit?
    Ms. Comstock. Yes. That is Exhibit 13.
    Mr. Ballen. Thank you.

                      EXAMINATION BY MS. COMSTOCK:

    Question. There was no--on the Yogesh Ghandi matter that we just 
discussed briefly, and I really don't intend to go into that a lot 
except in the matter of this background thing, did anything you do in 
regards to Yogesh Ghandi have to do with dealing with his background 
and any concerns about his background?
    Answer. No.
    Question. I have another e-mail from July 22nd, 1996, regarding 
Chong Lo. Actually it is regarding the Lotus fund gala. Do you 
recollect having any discussions with Karen Hancox or Daniel, is it 
Bernal, B-E-R-N-A-L, about the Lotus fund gala?
    Answer. I do not, though obviously one of my responsibilities was 
to review different invitations and other things like that to ensure 
that they were consistent with the Hatch Act. I just don't know what 
this particular one was about, but that was one of the responsibilities 
I had.
    Question. Okay. Now, are you aware of someone named Chong Lo who 
was connected with this Lotus fund gala?
    Answer. I am now. I was not at that time.
    Question. Do you know if--was this e-mail to you or this question 
to you about the Lotus fund, you don't have any--do you have any 
recollection of what it was about?
    Answer. No.
    Question. Were you aware of Chong Lo having some legal problems in 
July of 1996?
    Answer. No.
    Question. All right.
    Answer. I wasn't aware of Chong Lo in July of 1996.
    Mr. Eggleston. I am sorry. I am probably the only one here who is 
dense. Chong Lo's name is not on this e-mail.
    Ms. Comstock. It is not. It says ``Lotus fund gala,'' and Chong Lo 
is an individual who is associated with the Lotus fund gala, which I 
believe was an event that may have been cancelled, although I don't 
want to represent that for the record.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am not asking you to confirm that or anything. I am 
just asking you if anyone ever contacted you about Chong Lo and any 
fund-raising events she was connected with to ask you for guidance?
    Answer. Not to my recollection.
    Ms. Comstock. Okay. I will make that Deposition Exhibit No. 14.
    [Mills Deposition Exhibit No. CM-14 was marked for identification.]
                      examination by ms. comstock:
    Question. Were you aware of Karen Hancox or Doug Sosnik ever doing 
any vetting of people? Is that something you had an understanding they 
were involved in?
    Answer. It is my understanding now that one of the tasks that Karen 
might perform would be to check with the NSC from time to time. Apart 
from that, no.
    Question. Check with the NSC?
    Answer. Yes.
    Question. On people's backgrounds?
    Answer. On whether or not--I think whether or not there would be a 
foreign policy issue with regard to their attendance.
    Question. Okay. And then did any of that ever get kicked back to 
the counsel's office, as far as you know?
    Answer. Not that I recall.
    Question. So would she go--it was your understanding she would go 
directly to the NSC to discuss these matters?
    Answer. It is my understanding that there is an exec secretary who 
is basically the point of intake for any information or questions, and 
that was who she might be discussing it with.
    Question. Do you know of particular individuals she discussed with 
the NSC?
    Answer. No. I am sure there are materials or documents that we 
might have produced that might address that, but I don't recall any as 
I am sitting here.
    Question. Okay. And how did you learn of this?
    Answer. During the course of producing materials.
    Question. Okay. That's your only knowledge of that?
    Answer. That's my only particular recollection of it, yes. I am not 
saying that Karen and I couldn't have had conversations. I had 
conversations with Ms. Hancox quite frequently obviously over the 
course of '95 and '96. It's quite plausible we might have had a 
conversation. I don't recall one.
    Question. You had discussions about coffees with her in general; is 
that correct?
    Answer. No, that's not correct.
    Question. Okay. You did not discuss with her where events could be 
held or anything like that?
    Answer. I discussed--as one of the issues I always deal with is 
where different events could be held. That is something that I did 
discuss, but not necessarily in particular to particular types of 
events.
    Question. Okay. Did you have any discussions with anybody about 
whether political coffees could be held in the White House or not?
    Answer. I don't recall. I mean, one of the things that I typically 
do is give advice about events. It doesn't matter what the kind of 
event, whether it is a coffee, lunch, tea, breakfast or dinner. 
Typically the issue is the type of event. I don't recall any particular 
events about the coffees per se, but do recall that we obviously had 
discussions about political events and where they were held.
    Question. Was it your advice that the political coffees would 
generally be held in a part of the White House that is considered a 
residence?
    Answer. I specifically said I did not have conversations about 
political coffees. I was unaware of all the coffees that were 
transpiring until after the issue got raised in the press. I had 
discussions about events.
    Question. All right. So when people would come to you, they 
wouldn't tell you necessarily what they were talking about? They would 
be asking, can we do this or that, and you wouldn't necessarily know?
    Answer. Can we hold an event, a political event, in X place or Y 
place or Z place, correct.
    Question. So you wouldn't know what the event is? They are just 
sort of asking you for, you know, if I do it here what can I do; if I 
do it there, what can I do?
    Answer. Yes, though sometimes I might know what the event is. It 
just depends on the circumstances of what the person communicated to 
me.
    Question. Was there any reason why they wouldn't tell you what the 
event is?
    Answer. No, other than I think it is not relevant in determining 
where the thing occurs as to what the nature of it is.
    Question. Did you get a sense sometimes people might not want to 
sort of ask you things because you might say no or they might sort of 
hide the ball from you in terms of what it was?
    Answer. No. My experience is more particularly that they ask me for 
cover, so I have the opposite experience.
    Mr. Eggleston. It just doesn't matter to what they are going to 
serve at the event, I take it?
    The Witness. Right.
                      examination by ms. comstock:
    Question. When you say they are asking you for cover, would that be 
before or after the fact?
    Answer. Before the event they would typically consult if there was 
a question that they had.
    Question. Okay. But you have no recollection of them coming to you 
at all discussing these particular political coffees?
    Answer. No. I mean, that's not to say that someone might not have 
asked me a question about an event or a coffee or something, but I 
don't recall having a discussion regarding the fact that there were 
going to be a series of coffees that were held over a period of time 
that subsequently were the materials that we ended up disclosing to the 
press in terms of the number of coffees and the guests associated with 
them.
    Question. The political coffees, I mean, as you understand them 
now, were those supposed to be held in the Oval Office? Was that an 
appropriate place for them to be held?
    Answer. They can be held anywhere.
    Question. And that was advice that you gave them at the time, that 
political events connected--whether they are connected with fund-
raising or not could be held anywhere?
    Answer. The Hatch Act actually provides that political events or 
political activity can be--can occur anywhere within the White House.
    Question. This is a March 7th, 1996, e-mail regarding an April 30th 
coffee and it is to Karen Hancox and the creator is Margo Spiritus. And 
we will note either of these are to or from you. They just mention you 
in the body of the e-mail.
    Are you familiar with these documents?
    Mr. Eggleston. I am sorry. Are these different?
    Ms. Comstock. Yes. I think they follow upon one another so that's 
why I wanted to give you both of them.
    Mr. Eggleston. Okay. The one you gave us second is the first one?
    Ms. Comstock. I think so.
    Mr. Eggleston. They are Mills 15 and 16?
    Ms. Comstock. Yes.
    I will make EOP 62689 Deposition Exhibit No. 15, and EOP 62693 
Deposition Exhibit 16.
    [Mills Deposition Exhibit No. CM-15 was marked for identification.]
    [Mills Deposition Exhibit No. CM-16 was marked for identification.]
    The Witness. I have not seen these before, that I recall.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay, so you haven't seen them in the course of document 
production either?
    Answer. Not that I recall.
    Question. Okay.
    Answer. I might have but I don't recall.
    Question. The initial one says ``SS suggested you ask Cheryl Mills 
if it would be ok if we do a coffee on the same date but in the west 
wing. What do you think? Is this doable?'' It begins, ``Well actually, 
SS suggested,'' and so forth. Do you know who ``SS'' is in this 
context?
    Answer. Stephanie Streett.
    Question. Okay. And do you recall talking to any of the people 
named here about this event?
    Answer. No.
    Question. And you don't recall any of these people asking you about 
the event and where it could be held?
    Answer. Correct, but you have to recognize, I receive somewhere on 
the order of about 70 calls a day, so I talk to lots of people, and in 
that time frame I was receiving a fair number of calls.
    Question. And I am not particularly referencing this particular 
coffee, but do you recall generally someone calling and saying ``Can we 
do this in the West Wing? Where should we do it?'' And a follow-up to 
this initial e-mail, Deposition Exhibit 15, says ``I guess the only 
place to do it would be Roosevelt or Cabinet Room but I don't think you 
can do political stuff in the Cabinet Room, that's why I wanted to run 
it by Cheryl Mills.''
    Answer. I don't recall that particular series of discussions, but 
people called me all the time asking where they could hold events.
    Question. And was this the kind of advice you would have given them 
in terms of where events could be held?
    Answer. I would answer whatever----
    Question. That you can't do the political stuff in the Cabinet 
Room?
    Answer. I would answer whatever particular question they might 
actually ask me.
    Question. Do you recall telling people whether something could be 
done in the Cabinet Room or not?
    Answer. No.
    Question. Something to that effect?
    Answer. No.
    Question. And you don't recall particularly telling them whether or 
not any particular event could be held in the Oval Office, per se?
    Answer. The Hatch Act provides that events can be held in all these 
particular places.
    Question. Then I am wondering, why were the people calling you? 
They were just calling you to find that out again?
    Answer. I think it just arises from people's confusion with respect 
to the Hatch Act.
    Question. I will make these Exhibits 15 and 16. Were you involved 
in the decision in January of '96 to make the information about the 
White House coffees public?
    Answer. January of '97 I was.
    Question. '97, I'm sorry.
    Answer. Yes.
    Question. And how did that decision come about?
    Answer. I believe the President had been receiving that information 
for a period of time, and so we tried to go about collecting that 
information so we could give a complete and accurate picture.
    Question. And did you talk with Ms. Hancox and Doug Sosnik and 
others who were involved in the coffees to find out what was involved 
with the coffees?
    Answer. I am sure I would have.
    Question. And did you sit down to discuss with them sort of the 
body of potential records that may have been related to the coffees?
    Answer. No, primarily because we didn't have a request regarding 
the coffees, but what we were seeking to do is satisfy particular press 
questions. In particular, the press wanted to know who had attended the 
coffees and how many there were.
    Question. And so there was no effort on the part of the White House 
to find out other information at that time that you might know about 
the coffees?
    Answer. No, I was trying to find out who attended and what dates 
the coffees were held on.
    Question. And then in relation to the White House database having 
included the White House coffees, do you have any knowledge as to who 
was actually inputting the information about the coffees into the 
database?
    Answer. No.
    Question. Do you have an understanding of who was inputting 
information in general into the coffees or where they were getting that 
information from?
    Answer. It was my understanding the DNC would submit a list of 
guests for the coffees.
    Question. And do you know who they submitted it to?
    Answer. I do not.
    Question. Did you ever have any concerns that were raised to you 
from any source in the White House that the White House database was 
being misused by Marsha Scott or others for political purposes?
    Answer. No. I am aware, obviously, that that is one of the issues 
that the subcommittee has asked about, and I know that in reviewing 
that, I believe Ms. Paxton did a lot of that, but there has not been 
such information, and that is my best knowledge.
    Question. I am asking in particular if anyone at the White House, 
the DNC or from an outside--you know, other than Congress, has 
approached you about ``I am concerned that this might have crossed the 
line here'' or how they are doing things or anything like that?
    Answer. No, I don't recall anybody approaching me in that regard.
    Question. Okay. So prior to your transitioning out of the 
collection of documents in this area, you didn't get involved then in 
really going any further in terms of collecting documents pertaining to 
the coffees?
    Answer. Correct.
    Question. And then the first time you learned about the videotape 
to the coffees, then, was in October of this year?
    Answer. Correct.
    Question. Okay. And who told you about that initially?
    Answer. On October 3rd, I believe in the morning, Mr. Ruff informed 
me Mr. Imbroscio had determined there were snippets of the coffees that 
had been videotaped.
    Question. And that was the first you heard of it?
    Answer. Correct.
    Question. And I am really not going to go into this at length, but 
you were the individual who informed the President about the videotapes 
of the coffees and other events, is that correct?
    Answer. Correct.
    Question. Could you just tell us what you said to the President?
    Answer. I think I testified to that in my deposition with the 
Senate.
    Question. But there has been--the President has said on one 
occasion he was very mad and I have read other accounts that said he 
wasn't mad. Can you shed any light on that?
    Answer. I think, as I said in my Senate deposition, it was my 
impression he was concerned about the fact they had not been produced 
and insisted they be produced right away, and I think he has accurately 
addressed his emotions with respect to that.
    Question. I am asking not for how he has expressed it but your 
impression at that time.
    Answer. I don't have impressions that differ in any way from his.
    Question. Is that a policy matter or is that your impression?
    Answer. No, that is my polite way of saying I agree.
    Question. Did he express anger that these hadn't been turned over 
earlier?
    Answer. I think it would be accurate to say he expressed 
considerable concern that they had not been turned over earlier.
    Question. Was anybody else in the office when you told him about 
this?
    Answer. No.
    Question. And how did it come that you were the individual to 
discuss this with the President?
    Answer. I don't recall. It was just after one of our discussions 
about this. We all took different responsibilities, and that is the one 
I took.
    Question. I think earlier we discussed why documents hadn't been 
turned over to this committee that were obviously gathered in January.
    Mr. Eggleston. You are going to have to do a better lead into this 
because I don't agree to that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Well, I think you had testified, I believe, that 
documents were turned over, some documents were turned over to the 
Justice Department in January. The only documents that this committee 
received in January were documents relating to the coffees. I believe 
there had been a few WAVES----
    Answer. I believe you also got WAVES materials, and those were 
materials we provided to the department.
    Question [continuing]. That were made public to the press at the 
same time we got information or sometime prior to that.
    Answer. I want to be clear, I don't know what was the actual 
production date of the first set of materials to the Justice 
Department. You keep referencing that it would have been sometime in 
January. That is my best understanding, too.
    Question. If you can give us an approximate date, at or around 
January, as opposed to May?
    Answer. I know it is around January or February as opposed to May.
    Question. That is all I am talking about and trying to represent--
--
    Mr. Eggleston. Can I have a copy of this?
    Ms. Comstock. Yes.

                      EXAMINATION BY MS. COMSTOCK:

    Question [continuing]. That the committee received only documents 
that--documents of coffees in January, and I believe some of the 
documents pertaining to Tony Lake's confirmation in February.
    Answer. You should have also received WAVES material.
    Question. WAVES material in December, Kanchanalak, Charlie Trie?
    Answer. You also received some in November with respect to John 
Huang.
    Question. That is correct. Do you recall receiving this January 15 
request from Chairman Burton?
    Answer. I don't recall, but it mirrors in large part the request we 
had already circulated to the White House.
    Question. Okay. And in fact, it was designed to reflect the 
directive that had gone around, knowing, in fact, that you all had been 
collecting documents pertaining to these particular topics, so do you 
recall discussing whether or not these documents would be provided or 
whatever documents had been gathered at that point would be provided to 
this committee?
    Answer. I am actually sitting here recalling that we probably 
produced documents to the department at the end of January because it 
would have been after I returned from a vacation, which would have 
probably been around the 30th or sometime toward the end of January.
    Ms. Comstock. Okay, and I will go ahead and make that January 15, 
1997 letter and request Deposition Exhibit No. 17, and then I will make 
this January 31 letter Deposition Exhibit No. 18.
    [Mills Deposition Exhibit No. CM-17 was marked for identification.]
    [Mills Deposition Exhibit No. CM-18 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. And there is a January 17 letter from Mr. Quinn that I do 
not have, but it is referenced here in the January 31st letter, which 
indicates he would not be able to provide the designated documents by 
the 30th. Do you know why there was a problem in physically producing 
any of the documents related by the 30th?
    Answer. In producing, there are several problems but, yes, there is 
obviously the amount of production that has to be done, and probably as 
people are aware, at that point there were only three people doing what 
now there are approximately nine people doing, so our opportunity and 
ability to be able to satisfy different requests was considerably 
reduced from where it is now.
    Question. And is it your understanding, then, that the documents 
are not able to be produced to this committee because of physical 
limitations of the Counsel's Office?
    Answer. A; and, B, we also have to go back through and Bates stamp 
them for the committee, so it creates a whole other process that has to 
be associated with the production.
    It was also my impression, though I could be wrong, that there was 
discussion regarding what committees, what protocols and other things 
might be appropriate to deal with particular documents. It was my sense 
that those had not--or were just beginning as I was transitioning out 
of this matter.
    Question. Were you involved in any of the discussions on the 
limited committee access type documents that were going to be withheld 
from committees and ask the committee if they actually would come down 
and physically look at documents, as opposed to producing them?
    Answer. It was my impression that limited committee access were 
actually materials that were being produced but only certain people on 
committees who had a need to review them would be reviewing them, so it 
was my impression limited access documents were being produced to you 
all.
    Question. Were there going to be other documents that had to be 
viewed at the White House?
    Answer. I am sure that is probably something we did discuss with 
respect to matters that might be subject to privilege or something of 
that type.
    Question. When Mr. Ruff came on board, did you have particular 
documents that you discussed with him at that point, documents that you 
had gathered up until that point, that you felt were executive 
privilege documents that had been sort of segregated? Do you have a way 
that you segregated them from other documents?
    Answer. Typically if a document may have privileged issues, those 
are documents you put toward the end of the production so everybody can 
sit down and review them and make a judgment about whether they are or 
aren't and produce them. I am sure that is exactly what we would have 
done with Mr. Ruff because that is typically the way production is 
done. You review all of them in context and eliminate those that are 
not subject to privilege and produce those, and to the extent there are 
materials subject to privilege, figure out what the appropriate 
accommodations will be to address those documents.
    Question. Okay. Now we had previously discussed Ms. Sherburne's 
memo of the 26th about the Riady meetings and the varying accounts of 
that, and that document is actually one of the documents that have been 
withheld from the committee until the committee was discussing 
contempt, and then the documents came forward in a production following 
cancellation of a contempt hearing. There was not privilege claimed 
over them but it was represented by Mr. Ruff it had been withheld up 
until that time because of privileged concerns.
    Do you remember discussing those particular documents and any 
privilege concerns there might be?
    Ms. Comstock. I will note for the record, Uttam Dhillon, who is the 
majority counsel, is also here at this moment.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall any----
    Answer. I am sure this is a document we would have discussed in 
that context because it is from the special counsel, so it is one of 
the documents that would have to be reviewed toward the end of 
production to be able to determine whether or not a privilege is going 
to be asserted with respect to it or at least identified as potentially 
associated with it, or whether or not it is a document we are going to 
produce.
    Question. Given those were documents--I mean, we have not gone into 
detail on that today and I am not going to go into great detail on 
that, but that was the exchange sort of between Mr. Lindsey and Ms. 
Sherburne on the account of the Riady meetings, was something that you 
were involved in to some extent, the back and forth, after the fact?
    Answer. I wasn't involved in the initial. I was only involved with 
respect to Ms. Sherburne was attempting to draft an editorial and had a 
conversation with me with respect to that because I at that point was 
handling the matter, and I ended up drafting a draft editorial with 
respect to that, as she was trying to draft one in that context. That 
was my involvement in the matter.
    Question. And you were aware Mr. Lindsey disagreed with Ms. 
Sherburne's account of what he had said about the meetings?
    Answer. It is my impression the issue related to whether or not 
these meetings are appropriately described as primarily social or 
policy, and that was my understanding of the debate that was going on.
    Question. You are familiar with the document where Mr. Lindsey has 
written on Ms. Sherburne's memo ``This is a bunch of crap.''
    Mr. Ballen. I don't know if that is exactly what he said.
    The Witness. I think he said, ``This is mostly crap.''
    Mr. Eggleston. I guess you are familiar with it.
    The Witness. That would have been one of the documents produced.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall discussing that with Mr. Lindsey?
    Answer. No.
    Question. And do you recall discussing with Mr. Lindsey the 
producing of those documents to this committee or any other body?
    Answer. No. I am sure I might have but I don't recall any 
particular discussions about it.
    Question. Okay. And you don't recall any discussions with anybody 
about discussing those memos?
    Answer. I am quite confident those memos would have been in the 
materials we would have reviewed to determine privilege, so they would 
have been conversations we would have had with counsel and Chuck Ruff.
    Ms. Comstock. Since we have been discussing it--okay, it says, 
``Jack, this is mostly crap. Bruce,'' on the November 26th memo, which 
we will make Deposition Exhibit No. 19.
    [Mills Deposition Exhibit No. CM-19 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. And I am just trying to understand. Given this was 
something you had been involved in, the back and forth between Ms. 
Sherburne and Mr. Lindsey on this, do you recall any discussions about 
holding up these documents or how these documents would be handled in 
particular?
    Answer. Setting aside the way in which you characterized your 
question, I am confident that this would have been a document that we 
would have discussed in the context of whether or not privilege 
appropriately applies because it relates to Ms. Sherburne and materials 
she has written as special counsel. We would obviously--this would be 
an obvious candidate for a document that would have to be reviewed and 
determined whether or not there were any privileges associated with it. 
So I am quite confident those discussions happened and that I would 
have participated in them.
    Question. Were you aware that Mr. Ruff--or did Mr. Ruff ever 
discuss with you that the President had told him he did not intend to 
claim executive privilege over any documents related to these fund-
raising matters?
    Answer. It was my understanding that the President indicated he was 
not going to assert executive privilege over fund-raising matters.
    Question. And what was your understanding of that?
    Answer. That is my entire understanding of it.
    Question. Well, he was not going to claim executive privilege. Why 
were you then withholding--why were documents then withheld to review 
privilege issues?
    Answer. I think the question as to what is a fund-raising issue and 
what is not are two different things. There are different 
interpretations you might have as to whether or not this is a fund-
raising matter.
    This is not associated with his raising of monies, the DNC's 
raising of monies, or John Huang or any of the other individuals who 
were raising money, and there were questions about their contributions, 
and so I think this was actually a document that can be looked at any 
number of ways as to whether or not it is or is not a fund-raising 
matter. I think it is not.
    Question. You were aware Mr. Riady was certainly a central focus of 
many people in the course of this fund-raising investigation?
    Answer. Yes.
    Question. And was it your understanding, when the President said he 
was not going to claim executive privilege over these matters, was it 
sort of that the document wasn't just necessarily related to but had to 
say fund-raising on the document? Was it that specific?
    Answer. I don't know I had any particular association in that 
regard, but it was my understanding we were not going to assert 
privilege over fund-raising matters, at least in my--at that time all 
the questions were being raised with respect to contributions that were 
being returned.
    Question. And are you aware that Mr. Riady had been a contributor 
in the past to the DNC, a fairly substantial contributor?
    Answer. I am not aware that Mr. Mochtar Riady ever contributed, and 
James Riady may have contributed. I don't have a particular association 
with that right now, but I am sure if that is the case I would have 
known it at that time.
    Question. And you are aware of it?
    Answer. Though it is my impression he did not contribute in 1996.
    Question. There are no checks, apparently, with his name on them in 
1996?
    Answer. That is how I know who contributes.
    Question. Okay. I believe in '92 there were quite a few checks to 
the DNC?
    Answer. I didn't understand you all were looking at '92.
    Question. And obviously there was some interest in some of the 
people who were associated with Mr. Riady in terms of fund-raising 
issues. Do you have an understanding of that?
    Mr. Eggleston. I am losing track of this. This relates to----
    Ms. Comstock. To Mr. Riady's meetings.
    Mr. Eggleston. It actually relates to how the White House dealt 
with a press release, and press statements that took place. That is the 
substance of this.
    Ms. Comstock. I am trying to get a sense of what the understanding 
was that there would be no executive privilege claimed, if it was more 
general or if it was more specific.
    The Witness. I can only tell you my best understanding is not with 
respect to fund-raising matters.
    Ms. Comstock. Okay.
    Mr. Ballen. For the record, there may have been other privileges, 
such as attorney-client, that the White House may want to be sensitive 
to for other reasons.
    The Witness. Correct.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. When you say that the documents that are privileged 
are generally held to the end of the production, given----
    Answer. I want to correct you right now. Documents that may have a 
privilege associated with them would get reviewed at one period of time 
to make a determination with respect to them. They are not withheld, 
because to withhold it would require you to have completed your 
production and identify them as materials you are not providing.
    Question. Was there usually an attempt to sort of at least inform 
or identify that there would be privileged documents prior to, say, if 
a subpoena due date comes due? Is there usually an attempt to say, 
``Well, we have not yet identified all documents, but we believe we may 
have some privileged documents,'' so there is at least an understanding 
there may be some documents that are not yet being produced because of 
privilege issues?
    Answer. No.
    Question. Were there any policy matters on how you would, you know, 
inform somebody that, well, there may still be more documents that are 
privileged?
    Answer. I think you don't know if there are going to be materials 
that are going to be privileged until you actually review them, so part 
of what we obviously do is inform people we have materials, we are 
producing them, once we get to the close of our production, we will 
identify any materials that are subject to a privilege.
    Question. Okay. Did you ever see the Committee's March 4th subpoena 
that has the definitions of records----
    Answer. I just saw it recently.
    Question. So prior to that time you had not been asked any 
questions about it or asked any advice on how to respond to it?
    Answer. I am sure if it is a substance issue I might have been 
asked. I don't typically get involved with the day-to-day 
correspondence and materials that come in. I typically end up seeing 
directives when they get circulated, and to the extent people have 
questions or issues, I try to be helpful regarding them. I am sure I 
would have circulated that but I don't recall it.
    Question. We have not put it in the record, but during your time 
frame when there was another directive, a January 9 directive, that 
really was just a follow-up for the December 16 we have been previously 
discussing. Is that correct?
    Answer. That is.
    Ms. Comstock. And I will just go ahead and make that an exhibit for 
the record. It is Deposition Exhibit No. 20.
    [Mills Deposition Exhibit No. CM-20 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. And would it be correct this was just to follow up and 
make sure you had gotten all additional documents from the December 
16th request?
    Answer. Yes, and also to get any documents that were created 
between December 23 and January 9.
    Question. Did that come pursuant to an additional request or how 
did that--is that something you all decided to follow up on?
    Answer. It is my recollection that the department was particularly 
interested up until that date.
    Question. Okay. Were there any particular matters that were going 
on in late December or early January regarding any of these 
individuals?
    Answer. Not that I know.
    Question. That you have knowledge of, and I am not asking what you 
provided to the Justice Department, I am just asking your activities in 
that time frame.
    Answer. Not that I am aware of.
    Question. Mr. Trie, who was on both of these, you know, December 16 
and January 9 directives, I believe he had attended a Christmas party 
event in December of '96. Were you aware of that at the time?
    Answer. I am sure somebody apprised me at the time he actually went 
to the event that he went.
    Question. Now we haven't discussed at length Mr. Trie or, you know, 
the fund-raising problems that kind of came to light a little bit after 
that Christmas party in December 1996, but you had been apprised of 
problems of Mr. Trie's fund-raising for the Presidential Legal Defense 
Trust in May of '96. Is that correct?
    Answer. I had been apprised in May of 1996 with respect to the 
contributions that had been provided by others, as opposed to him. He 
did not provide a contribution.
    Question. Okay. The contributions that he had collected and 
provided that were in sequential money orders, those are the 
contributions you are talking about?
    Answer. Yes, as well as other contributions that were received that 
were not in sequential money orders, they were people's personal checks 
or other things.
    Question. And you were aware that much of the money he had raised 
had been--quite a bit of it had been returned in the summer of 1996?
    Answer. I was aware they were going to return it, that is correct.
    Question. And so in the time frame of December of 1996 you were 
aware that money that had been collected by Charlie Trie had been 
returned?
    Answer. Or was going to be returned, right.
    Question. And when you took over these duties in October of 1996 on 
fund-raising, did you ever discuss with anybody at that time, Ms. 
Sherburne, Harold Ickes or anybody, Charlie Trie?
    Answer. No, I don't recall Mr. Trie arising in the context of news 
reports until I believe--my best and earliest recollection is sometime 
in November of 1996.
    Question. Okay. And you are aware now, I believe Mr. Ickes has said 
he told somebody at the DNC or mentioned something to the DNC or 
somebody asked him or something to that effect, in mid-October, about 
Mr. Trie?
    Answer. Correct.
    Question. But at the time you were dealing with that in October, 
you had no knowledge of Mr. Ickes saying anything about Charlie Trie?
    Answer. Correct, because I was dealing with it as of October 30 of 
1996.
    Question. Okay. And at that time, did you ever raise with anybody 
``We should look at this'' or have an understanding Charlie Trie was 
doing DNC fund-raising?
    Answer. It didn't come to my attention until sometime in November 
that Mr. Trie was a supporter of the DNC.
    Question. In the May 9th meeting with Mr. Cardozo, no one raised 
that Mr. Trie was a fund-raiser for the DNC?
    Answer. I don't recall anyone raising that. I understand Mr. 
Cardozo has testified, but I don't recall anyone raising that.
    Question. And you are speaking of Mr. Cardozo's testimony that 
Bruce Lindsey mentioned Mr. Trie was a fund-raiser?
    Answer. Well, I don't know if----
    Question. Or that is his recollection?
    Answer. I don't know what he said with respect--I do recall him 
saying Mr. Trie was associated with the DNC. That is what I understand 
Mr. Cardozo to have said in his testimony. I did not hear such a 
comment.
    Question. Have you discussed that with Mr. Lindsey, whether he had 
knowledge about Charlie Trie being a fund-raiser?
    Answer. I am sure I would have asked him. I just don't recall, but 
I don't think he did.
    Ms. Comstock. Off the record for a minute.
    [Discussion off the record.]
    Ms. Comstock. Back on the record.
    We are going to make the March 4 subpoena Deposition Exhibit No. 
21.
    [Mills Deposition Exhibit No. 21 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. And it is your testimony that prior to these videotape 
issues becoming an issue, you had not seen this subpoena?
    Answer. No, actually--I don't know that I actually have reviewed 
the subpoena. I don't typically review the correspondence coming in 
from the different committees.
    Question. And when a subpoena is received at the White House, 
generally, and as you were responding to any number of bodies about 
this, would there ever be any meetings in the Counsel's Office about, 
``Okay, where are all the possible places that there might be records?"
    Answer. We obviously have meetings in the Counsel's Office to try 
and ensure that we are responding to the request. We don't have 
meetings about where would particular things be, at least I don't 
participate in them. Obviously Lanny Breuer meets with his team and 
they might have those kind of discussions. I don't participate in 
meetings where Mr. Breuer is meeting his team. To the extent I 
participate in any meetings, it tends to be the larger meetings we 
have.
    Question. Given your historical knowledge of the office, do you 
ever attempt to provide any guidance on, you know, check a book room, 
check stacks, here is where you might find things, so you don't run 
into some of the problems that have occurred in the past?
    Answer. I think as I testified to initially, when people came on 
board and to the extent people have ongoing or continuing questions, I 
try to do just that.
    Question. And given that some of these events were, you know, many 
of the events that were involved were political events, and many of 
them have been held at the White House, was there ever any discussion 
of the type of photograph--when we looked at the WAVES records, you had 
checked for photos on a lot of these people. At that time, did you ever 
check on any videotapes or any other type of photographic record that 
might be of individuals or people or events?
    Answer. No.
    Question. Was that not something you normally checked, in the way 
you did--I mean, you clearly were looking at the photos, so I am trying 
to get a sense of why you checked with the photos but not on videotape.
    Mr. Ballen. I object, because I think that the witness said she did 
not review the subpoena, so you are asking her how she would have 
checked on something she didn't review.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am talking in relation to when we looked at the WAVES 
records and you were trying to determine when John Huang was at events 
or when James Riady was. One of the resources you went to, I believe 
prompted by a particular request, was to look for photos, is that 
correct?
    Answer. Yes.
    Question. Okay. At that time, no one had asked you particularly, 
Congress hadn't spelled out particularly, ``Give us all photos of John 
Huang,'' is that correct?
    Answer. Yes.
    Question. But you went or sent somebody to locate what photos are 
here, what is the universe of pictures or what type of things might 
assist us with knowing about what records are in the White House about 
Mr. Riady or Mr. Huang. Is that correct?
    Answer. Yes. I was familiar with the photo office.
    Question. And were you not familiar with the videotaping office, 
then?
    Answer. Correct.
    Question. Are you aware of remedial measures, or whatever measures 
have been taken since the videotapes have been found, to sort of 
regroup in the Counsel's Office and consider other records which might 
be responsive to various requests, in order to assist getting all the 
information to the Justice Department?
    Answer. This request actually would have gotten to the right place 
and would have gotten the videotape, so I think actually this whole 
exercise exemplified the process we have been using would ordinarily 
have captured the materials, but for the fax issue that arose in WHCA's 
office.
    Mr. Ballen. Just so that is clear, you are referring to the fax 
issue. Why don't you state that for the record?
    The Witness. As the WHCA individuals testified, the person who 
would have been the one to do the search for these materials indicated 
if he had gotten the request, it was sufficient to be able to identify 
that they needed to search for the videotapes. In addition, our request 
asked for all computerized records.
    The way in which you search for the videotapes is not to actually 
look at videotape boxes but to search the computer database, so all of 
the information would have been captured if they had had a--if it got 
circulated to them by their chief of staff, the actual request that 
identified coffees as one of the issues that the committee was 
interested in.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Now there was a 10/31/96 request that we had looked at 
earlier today, which was the one that referenced documents that would 
go to Bill Leary, and Alan Kreczko and Kathy Wallman were also contact 
points on that. That request had actually attached the congressional 
request to it.
    Answer. I think, as I told you, I am not familiar with the origin 
of those particular materials.
    Question. Do you know of other instances where the actual request 
was attached to a directive?
    Answer. Typically, we write the language of the request as opposed 
to attaching particular requests.
    Question. And are you aware of testimony from some of the WHCA 
people as to the subpoena itself actually would have assisted them also 
in finding these records?
    Answer. No, I'm not familiar with it. I'm not disputing they might 
have said it but I am not familiar with it.
    Question. The definition section in the subpoena, I guess directing 
your attention to page one, definitions and instructions are very 
specific in terms of all of the records, by going down item by item and 
describing them. Was there ever any discussion of putting a more 
detailed description of documents on directives, so that when a 
particular office would get it they would know it is not just paper 
files or computer files but any records, anything?
    Answer. No, because our directives actually asked for all records, 
and typically we say in whatever form they exist.
    Question. And was there an effort to go around to different 
offices, sort of ``What do you have?"
    Answer. I can only speak obviously with respect to mine in 
particular, the requests I handled. We do try and get whatever 
materials we can get from people. We obviously have a certification 
process for people to identify whether or not they have searched for 
the records. The process is used to ensure people have produced 
whatever responsive materials they have.
    Question. And are those certifications that are signed by people in 
various offices and provided to the Counsel's Office?
    Answer. Yes.
    Question. You all keep a record of those for everybody who has 
certified they have produced documents?
    Answer. I can certainly speak to mine, yes, but I don't know kind 
of what the process is since then, but I would assume it is the same.
    Question. The practice, when you were collecting these documents, 
was that you went around to each office to collect the certifications?
    Answer. We didn't go around to each office. We require each office 
to send us a certification.
    Question. One of the things you wanted to get, if you sat down and 
you didn't have a certification by the due date or some reasonable time 
afterwards, you would say--either yourself or go to somebody and say, I 
need a certification from Political Affairs that they have given us all 
the documents?
    Answer. Correct.
    Question. And in regard to another recent issue which has just come 
up in the past week or so regarding the dog track issue generically, 
can you tell us--we also have Jim Wilson and David Bossie also here 
from majority staff.
    Could you tell us of your involvement on executive privileged 
documents related to the dog track issue?
    Answer. I am sure if there are privileged materials about the dog 
track, which I believe there are, I would have participated in the 
process to ensure that if there were appropriate privileges, that they 
were identified.
    Question. And do you know when that process occurred?
    Answer. I don't know kind of what the time frame was for it, but it 
was only relatively recently we ended up producing the privilege log in 
connection with litigation that is going on, so it would have been 
close to that time period.
    Ms. Comstock. Okay. Actually, this is the August 4th directive, 
which on the second page includes a request for documents. It is 
request No. 8, ``All documents relating to the Department of Interior's 
decision to deny a petition for a casino in Hudson, Wisconsin.'' I will 
make that Deposition Exhibit No. 22.
    And then in particular this committee, as well as, I believe the 
Senate has requested probably even earlier than we had, documents 
pertaining to the dog track issue. That will be Exhibit 23.
    [Mills Deposition Exhibit No. CM-22 was marked for identification.]
    [Mills Deposition Exhibit No. CM-23 was marked for identification.]
    The Witness. Number 8, is it you all's intention that all documents 
relating to the Department of Interior's decision to deny a petition 
that arose out of you all's request----

                      EXAMINATION BY MS. COMSTOCK:

    Question. No, because our subpoena is actually after that date. I 
believe there are requests from the Senate at an earlier date.
    Answer. Yours was on the 4th of September.
    Question. Actually it was the 21st of August, due on the 4th of 
September. The directive is August 4, 1997. I assume the directive was 
pursuant to another request, other than ours, prior to August 4th?
    Answer. Are these individuals that are listed on the attachment 
associated with the dog track matter?
    Question. Yes, all records relating to St. Croix Meadows Greyhound 
Racing Park. That is the dog track.
    Answer. The dog track issue is the same as the St. Croix Meadows 
racing track, racing park?
    Mr. Eggleston. Well, obviously you can say what you know.
    The Witness. I don't believe that St. Croix is--it's Chippewa. That 
is why I am trying to understand how this captures the Chippewa. I am 
just trying to understand.
    Ms. Comstock. Okay. Can we just take a break here for a minute, 
then?
    [Brief recess.]
    Ms. Comstock. Back on the record.

                      EXAMINATION BY MS. COMSTOCK:

    Question. The August 4th directive, were you aware of documents 
being collected regarding the Department of Interior's decision?
    Answer. I am sure they would have been, and I am sure if I saw this 
request, I would know materials associated with that would have been 
collected, yes.
    Question. The contact person on this is Michael Imbroscio?
    Answer. That is correct.
    Question. Did Mr. Imbroscio talk to you about this issue at any 
time?
    Answer. No, not that I believe.
    Question. Would your involvement in this only be regarding any 
executive privilege issues?
    Answer. Typically, yes.
    Question. So you weren't day-to-day involved in the substance of 
the issue; you would only be involved in the addressing of executive 
privilege issues regarding any documents?
    Answer. Typically, that is right, and the day-to-day production I 
didn't do.
    Ms. Comstock. To shorten this up, we can skip to executive 
privilege issues, less than the substance of these. And have we marked 
these yet? We can just skip that and go to the documents, if that is 
easier, so we don't need that.
    Mr. Eggleston. I had this marked Exhibit 22.
    Ms. Comstock. We can mark those 22 and 23. And this is the 
privilege log.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Maybe if you could just tell us generically your 
involvement in discussing these issues, and I am assuming it's fairly 
recent; is that correct?
    Answer. Correct.
    Question. Within the past month or so?
    Answer. Correct.
    Question. And did you discuss these matters with Mr. Lindsey, with 
his involvement in the dog track issue in general?
    Answer. No, the issues that we had regarding privilege--and Mr. 
Lindsey was not a part of those discussions, it was discussions that 
were with Mr. Ruff, Mr. Breuer and Mr. Nionakis.
    Question. In order to get an understanding of the issue in general, 
did you discuss with Mr. Lindsey the comments that have now been 
reported, that the President made a comment to him and then there were 
phone calls?
    Answer. I might have talked with him about it because there have 
been different news articles that have been written about it, but this 
is an issue that was reported on last year as well, so it is something 
that is kind of part of the public domain now.
    Question. And we had discussed this a little earlier about the 
concept of the Justice Department working with the White House on 
executive privilege issues. Given that this matter is under 
investigation now by the Justice Department, were there any discussions 
with the Justice Department about how they would both simultaneously 
assist the White House with claiming privilege while they were 
investigating the preliminary matter regarding Secretary Babbitt?
    Answer. I am not aware of any such discussions.
    Question. You don't know of any having occurred at the White House?
    Answer. Correct.
    Question. Between or among people at the White House or the Justice 
Department?
    Answer. Right. I mean, this is with respect to litigation that is 
actually ongoing, and so the Department represents us in that 
particular litigation. We are not actually the subject of the 
litigation, someone else is, and so I am not aware of discussions of 
the sort that you have indicated.
    Question. And do you know who the point person was at OLC who was 
working on this?
    [Witness confers with counsel.]
    Mr. Eggleston. If you don't know, tell her.
    The Witness. No, I don't know for certain.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know if Beth Nolan has been involved in working on 
these matters?
    Answer. She has not.
    Question. Has she recused herself from this because she was at the 
White House when some of the initial events occurred, do you know?
    Answer. I don't know.
    Question. Okay. Could you just tell us, then, what the discussions 
were in claiming privilege over some of these documents?
    Answer. I think the process typically is, we identify documents 
that may be subject to privilege, in this instance the Department 
reviews them and makes a determination with respect to the privileges, 
and then we place them on a privilege log and provide them.
    Mr. Ballen. When you say the Department----
    The Witness. The Department of Justice in that instance, and then 
we provided them to the committee. The committee actually has these 
documents.

                      EXAMINATION BY MS. COMSTOCK:

    Question. The committee was provided these documents after a story 
in the press?
    Answer. The story in the press, though, originated because we 
produced on the Friday the production of the privilege log in the 
litigation, which would have been on Monday you all got the materials. 
Because there are reporters who obviously are interested in this matter 
and report on it during the course of the weekend, that is the only 
reason it would have been produced afterwards, but it was produced in a 
timely fashion. Indeed, the privilege log was not even filed until late 
that day on Friday.
    Question. Was there any discussion prior to filing this privilege 
log in the litigation that they might want to inform Congress that some 
of these documents, you know, had not been produced yet, so they 
weren't reading about them in the paper, you know, the documents being 
withheld?
    Answer. The documents hadn't been withheld. The documents had been 
provided to you and were not going to be withheld. It is my 
understanding there is a non-waiver agreement, so these would be 
materials you all would receive once they had been determined with 
respect to what privileges might have been associated with them. The 
only withholding is with respect to private litigants in the litigation 
in Wisconsin, not with respect to the committee.
    Question. The directive that we made, Exhibit No. 23 asked to have 
all these documents turned in by August 11. Do you know how long these 
documents had been gathered, why there was the delay in turning them 
over?
    Answer. I don't know that there was delay in turning them over and 
I don't know when they were collected and gathered.
    Question. Okay. And this is one of the documents that was----
    Mr. Eggleston. Ms. Comstock, I have to tell you, I am not sure what 
we are doing here because it seems to me you are only doing this with 
regard to the private litigation. The committee has them. There has not 
been privilege claimed over them. I think they have never been 
withheld. You have a privilege log. They weren't late.
    And it seems to me unless you are just acting on behalf of a 
private party, I don't understand what issue it is--I mean, there is 
litigation involving private parties, but I don't see what you think 
the White House has done that is inappropriate on this. And it seems to 
me, since I think the likelihood this deposition is going to be leaked 
is close to 100 percent, the notion you are going to question her about 
the process by which the executive branch asserted privilege over 
documents involved in private litigation, I don't see the slightest 
congressional interest in that.
    Ms. Comstock. For the record, none of the depositions we have taken 
to date have been leaked, and I would disagree with that percentage as 
well as----
    Mr. Eggleston. On that issue, let me say they are usually released 
at the time of public testimony, so certainly this is likely to be.
    Ms. Comstock. Actually, these documents were----
    Mr. Eggleston. I don't see the interest the committee has in 
advancing private interests, and apart from that, I don't see what else 
the purpose of this is, because these have not been--they were provided 
to the committee, they weren't late, and I don't see what interest is 
being pursued here.
    Ms. Comstock. Actually they were gathered in August and not 
produced until October, after they were produced to private litigants. 
What we are trying to determine is the process going on here and why 
there was this delay in producing them.
    The Witness. I don't know there is actually a delay. I think, as I 
probably indicated previously, that when documents--we put a date on 
there, and people obviously have to go through whatever materials they 
have and provide them. And they try and provide them as closely as they 
can, but there is a process of review that would take time, so I don't 
know if I would buy into the notion of there being a delay.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And this is EOP 69070, which is an April 24, 1995 memo 
for Harold Ickes from Loretta Avent, and this is one of the documents 
which is executive privilege, subject to executive privilege. Is it 
correct that privilege has not actually been asserted, then, by the 
President?
    Answer. Correct.
    Mr. Eggleston. It also is correct you just handed them to us and 
they are in the possession of the committee, correct?
    Ms. Comstock. That is correct, and we are trying to determine the 
process by which this document was considered executive privilege.
    Mr. Eggleston. I think she just said executive privilege has not 
been asserted, and in fact, they are in the hands--if you are asking 
why they put it on a private litigant privilege log, then I think----
    Ms. Comstock. We received a privilege log from this committee 
saying this is a document subject to executive privilege, and we are 
also looking at the Justice Department having reviewed this and agreed 
with this, and I think we have some issues of why there may or may not 
be some conflicts on this. And what we are trying to understand is the 
process by which, you know, going through and determining this document 
was subject to executive privilege, a memo for Harold Ickes, from 
Loretta Avent----
    Mr. Ballen. Subject to executive privilege in a private litigation. 
Has the privilege been asserted as regards this committee?
    The Witness. No.

                      EXAMINATION BY MS. COMSTOCK:

    Question. We have a document here that says it is subject to 
executive privilege. What I am asking is why is it contended that this 
is a document subject to executive privilege. This is part of this non-
waiver agreement thing that we have--the committee has not signed any 
non-waiver agreement, but there is an informal----
    Answer. Does that mean the committee does not abide by the non-
waiver agreements? You are saying it is informal. What does that mean?
    Question. We have been asked to have an agreement that this is 
subject to executive privilege, and if these are some kind of special 
documents, what we are asking----
    Answer. Is it the case the committee does not have an agreement, 
does not have a non-waiver agreement? Is that what you are saying?
    Question. We have a letter agreement.

    Answer. Does the letter agreement encompass a non-waiver agreement?

    Question. Well, I don't have the letter in front of me here, but 
the point is I am trying to ask why is this subject to--why are we 
being asked to put that in the category of documents that are subject 
to or in this waiver agreement--non-waiver agreement? What is the 
purpose of that?

    Answer. Well, if documents are subject to executive privilege, then 
they would fall in the category of the non-waiver agreement.

    Question. Why is this document, the April 24, 1995 document for 
Harold Ickes, subject to executive privilege?

    Answer. I can't go about re-creating whatever people's judgments 
and decision-making processes with respect to particular documents, but 
in general the way we determine privilege is to review the principles 
that are outlined in a case that recently came down called the In Re: 
Seal case and look at it, also another memorandum that addresses 
executive privilege, and review the document in that context.
    Question. You review these matters with the assistance of OLC; is 
that correct?
    Answer. It is my understanding in this instance OLC was consulted 
with regards to these materials because it is involved in ongoing 
litigation of private parties.
    Question. Do you know who in the Counsel's Office was talking to 
OLC about this?
    Answer. It would be my impression Dimitri Nionakis would be.
    Mr. Ballen. I want to note it is 12:30, for the record, and 
although we agreed I believe to finish up now, and the Minority does 
have some questions, I want to get the witness out on time.
    Ms. Comstock. I think we are going to be able to meet that time 
frame.
    We are going ahead and make the privilege log deposition Exhibit 24 
and memo deposition Exhibit No. 25.
    [Mills Deposition Exhibit No. CM-24 was marked for identification.]
    [Mills Deposition Exhibit No. CM-25 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. To your knowledge, are there any documents which are 
currently being reviewed for privilege issues that have not been 
produced to the committee, that are sort of the subject of ongoing 
privilege evaluations?
    Answer. No.
    Ms. Comstock. I believe that is all I have at this time.
    Mr. Eggleston. Can we just take a 2-minute break?
    Mr. Ballen. Yes.
    [Brief recess.]
    Mr. Ballen. I just want to make one comment for the record because 
we didn't resolve this earlier. If you have in your possession her 
deposition before the Senate or any other depositions, we request they 
be turned over to us.
    Ms. Comstock. And we can talk about that.
    Mr. Ballen. Particularly since we have hearings later this week.
    Ms. Comstock. Yes. I know on Friday Mr. McLaughlin had mentioned 
that he had other depositions, and I think there may have been a 
misunderstanding, but we can resolve all that, and I think that is what 
we have tried to do. I talked to Mr. Eggleston about areas that had 
been covered and we talked early last week about all of that, so we 
tried to focus on some areas in October of last year and in particular 
in our subpoenas, with a lot of the information already actually being 
made public. I appreciate Mr. Eggleston's assistance in that, and thank 
you.
    Mr. Ballen. Okay. Thank you.
    [Whereupon, at 12:35 p.m., the deposition was concluded.]

    [The deposition exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.111
    
    [GRAPHIC] [TIFF OMITTED] T5405.112
    
    [GRAPHIC] [TIFF OMITTED] T5405.113
    
    [GRAPHIC] [TIFF OMITTED] T5405.114
    
    [GRAPHIC] [TIFF OMITTED] T5405.115
    
    [GRAPHIC] [TIFF OMITTED] T5405.116
    
    [GRAPHIC] [TIFF OMITTED] T5405.117
    
    [GRAPHIC] [TIFF OMITTED] T5405.118
    
    [GRAPHIC] [TIFF OMITTED] T5405.119
    
    [GRAPHIC] [TIFF OMITTED] T5405.120
    
    [GRAPHIC] [TIFF OMITTED] T5405.121
    
    [GRAPHIC] [TIFF OMITTED] T5405.122
    
    [GRAPHIC] [TIFF OMITTED] T5405.123
    
    [GRAPHIC] [TIFF OMITTED] T5405.124
    
    [GRAPHIC] [TIFF OMITTED] T5405.125
    
    [GRAPHIC] [TIFF OMITTED] T5405.126
    
    [GRAPHIC] [TIFF OMITTED] T5405.127
    
    [GRAPHIC] [TIFF OMITTED] T5405.128
    
    [GRAPHIC] [TIFF OMITTED] T5405.129
    
    [GRAPHIC] [TIFF OMITTED] T5405.130
    
    [GRAPHIC] [TIFF OMITTED] T5405.131
    
    [GRAPHIC] [TIFF OMITTED] T5405.132
    
    [GRAPHIC] [TIFF OMITTED] T5405.133
    
    [GRAPHIC] [TIFF OMITTED] T5405.134
    
    [GRAPHIC] [TIFF OMITTED] T5405.135
    
    [GRAPHIC] [TIFF OMITTED] T5405.136
    
    [GRAPHIC] [TIFF OMITTED] T5405.137
    
    [GRAPHIC] [TIFF OMITTED] T5405.138
    
    [GRAPHIC] [TIFF OMITTED] T5405.139
    
    [GRAPHIC] [TIFF OMITTED] T5405.140
    
    [GRAPHIC] [TIFF OMITTED] T5405.141
    
    [GRAPHIC] [TIFF OMITTED] T5405.142
    
    [GRAPHIC] [TIFF OMITTED] T5405.143
    
    [GRAPHIC] [TIFF OMITTED] T5405.144
    
    [GRAPHIC] [TIFF OMITTED] T5405.145
    
    [GRAPHIC] [TIFF OMITTED] T5405.146
    
    [GRAPHIC] [TIFF OMITTED] T5405.147
    
    [GRAPHIC] [TIFF OMITTED] T5405.148
    
    [GRAPHIC] [TIFF OMITTED] T5405.149
    
    [GRAPHIC] [TIFF OMITTED] T5405.150
    
    [GRAPHIC] [TIFF OMITTED] T5405.151
    
    [GRAPHIC] [TIFF OMITTED] T5405.152
    
    [GRAPHIC] [TIFF OMITTED] T5405.153
    
    [GRAPHIC] [TIFF OMITTED] T5405.155
    
    [GRAPHIC] [TIFF OMITTED] T5405.156
    
    [GRAPHIC] [TIFF OMITTED] T5405.157
    
    [GRAPHIC] [TIFF OMITTED] T5405.158
    
    [GRAPHIC] [TIFF OMITTED] T5405.159
    
    [GRAPHIC] [TIFF OMITTED] T5405.160
    
    [GRAPHIC] [TIFF OMITTED] T5405.161
    
    [GRAPHIC] [TIFF OMITTED] T5405.162
    
    [GRAPHIC] [TIFF OMITTED] T5405.163
    
    [GRAPHIC] [TIFF OMITTED] T5405.164
    
    [GRAPHIC] [TIFF OMITTED] T5405.165
    
    [GRAPHIC] [TIFF OMITTED] T5405.166
    
    [GRAPHIC] [TIFF OMITTED] T5405.167
    
    [GRAPHIC] [TIFF OMITTED] T5405.168
    
    [GRAPHIC] [TIFF OMITTED] T5405.169
    
    [GRAPHIC] [TIFF OMITTED] T5405.170
    
    [GRAPHIC] [TIFF OMITTED] T5405.171
    
    [GRAPHIC] [TIFF OMITTED] T5405.172
    
    [GRAPHIC] [TIFF OMITTED] T5405.173
    
    [GRAPHIC] [TIFF OMITTED] T5405.174
    
    [GRAPHIC] [TIFF OMITTED] T5405.175
    
    [GRAPHIC] [TIFF OMITTED] T5405.176
    
    [GRAPHIC] [TIFF OMITTED] T5405.177
    
    [GRAPHIC] [TIFF OMITTED] T5405.178
    
    [GRAPHIC] [TIFF OMITTED] T5405.179
    
    [GRAPHIC] [TIFF OMITTED] T5405.180
    
    [GRAPHIC] [TIFF OMITTED] T5405.181
    
    [GRAPHIC] [TIFF OMITTED] T5405.182
    
    [GRAPHIC] [TIFF OMITTED] T5405.183
    
    [GRAPHIC] [TIFF OMITTED] T5405.184
    
    [GRAPHIC] [TIFF OMITTED] T5405.185
    
    [GRAPHIC] [TIFF OMITTED] T5405.186
    
    [GRAPHIC] [TIFF OMITTED] T5405.187
    
    [GRAPHIC] [TIFF OMITTED] T5405.188
    
    [GRAPHIC] [TIFF OMITTED] T5405.189
    
    [GRAPHIC] [TIFF OMITTED] T5405.190
    
    [GRAPHIC] [TIFF OMITTED] T5405.191
    
    [GRAPHIC] [TIFF OMITTED] T5405.192
    
    [GRAPHIC] [TIFF OMITTED] T5405.193
    
    [GRAPHIC] [TIFF OMITTED] T5405.194
    
    [GRAPHIC] [TIFF OMITTED] T5405.195
    
    [GRAPHIC] [TIFF OMITTED] T5405.196
    
    [GRAPHIC] [TIFF OMITTED] T5405.197
    
    [GRAPHIC] [TIFF OMITTED] T5405.198
    
    [GRAPHIC] [TIFF OMITTED] T5405.199
    
    [GRAPHIC] [TIFF OMITTED] T5405.200
    
    [GRAPHIC] [TIFF OMITTED] T5405.201
    
    [GRAPHIC] [TIFF OMITTED] T5405.202
    
    [GRAPHIC] [TIFF OMITTED] T5405.203
    
    [GRAPHIC] [TIFF OMITTED] T5405.204
    
    [GRAPHIC] [TIFF OMITTED] T5405.205
    
    [GRAPHIC] [TIFF OMITTED] T5405.206
    
    [GRAPHIC] [TIFF OMITTED] T5405.207
    
    [GRAPHIC] [TIFF OMITTED] T5405.208
    
    [GRAPHIC] [TIFF OMITTED] T5405.209
    
    [GRAPHIC] [TIFF OMITTED] T5405.210
    
    [GRAPHIC] [TIFF OMITTED] T5405.211
    
    [GRAPHIC] [TIFF OMITTED] T5405.212
    
    [GRAPHIC] [TIFF OMITTED] T5405.213
    
    [GRAPHIC] [TIFF OMITTED] T5405.214
    
    [GRAPHIC] [TIFF OMITTED] T5405.215
    
    [GRAPHIC] [TIFF OMITTED] T5405.216
    
    [GRAPHIC] [TIFF OMITTED] T5405.217
    
    [GRAPHIC] [TIFF OMITTED] T5405.218
    
    [GRAPHIC] [TIFF OMITTED] T5405.219
    
    [GRAPHIC] [TIFF OMITTED] T5405.220
    
    [GRAPHIC] [TIFF OMITTED] T5405.221
    
    [GRAPHIC] [TIFF OMITTED] T5405.222
    
    [GRAPHIC] [TIFF OMITTED] T5405.223
    
    [GRAPHIC] [TIFF OMITTED] T5405.224
    
    [GRAPHIC] [TIFF OMITTED] T5405.225
    
    [GRAPHIC] [TIFF OMITTED] T5405.226
    
    [GRAPHIC] [TIFF OMITTED] T5405.227
    
    [GRAPHIC] [TIFF OMITTED] T5405.228
    
    [GRAPHIC] [TIFF OMITTED] T5405.229
    
    [GRAPHIC] [TIFF OMITTED] T5405.230
    
    [GRAPHIC] [TIFF OMITTED] T5405.231
    
    [GRAPHIC] [TIFF OMITTED] T5405.232
    
    [GRAPHIC] [TIFF OMITTED] T5405.233
    
    [GRAPHIC] [TIFF OMITTED] T5405.234
    
    [GRAPHIC] [TIFF OMITTED] T5405.235
    
    [GRAPHIC] [TIFF OMITTED] T5405.236
    
    [GRAPHIC] [TIFF OMITTED] T5405.237
    
    [GRAPHIC] [TIFF OMITTED] T5405.238
    
    [GRAPHIC] [TIFF OMITTED] T5405.239
    
    [GRAPHIC] [TIFF OMITTED] T5405.240
    
    [GRAPHIC] [TIFF OMITTED] T5405.241
    
    [GRAPHIC] [TIFF OMITTED] T5405.242
    
    [The deposition of Michael Imbroscio follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                  DEPOSITION OF: MICHAEL X. IMBROSCIO
                                 Thursday, October 16, 1997

    The deposition in the above matter was held in Room 2157, Rayburn 
House Office Building, commencing at 10:10 a.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Barbara Comstock, Chief Investigative Counsel; Kristi Remington, 
Investigative Counsel; David Bossie, Richard Bennett, Chief Counsel; 
James C. Wilson, Senior Investigative Counsel; Oversight Coordinator; 
Kenneth Ballen, Minority Chief Investigative Counsel; Andrew J. 
McLaughlin, Minority Counsel.
For MR. IMBROSCIO:
    MARK H. LYNCH, ESQ.
    Covington & Burling
    2301 Pennsylvania Avenue, N.W.
    P.O. Box 7566
    Washington, D.C. 23044

    Ms. Comstock. Good morning. On behalf of the Members of the 
Committee on Government Reform and Oversight, I thank you for appearing 
here today. This proceeding is known as a deposition. The person 
transcribing this proceeding is a House reporter and a notary public. I 
will now request Robin Butler of the Committee staff to place you under 
oath.

THEREUPON, MICHAEL X. IMBROSCIO, a witness, was called for examination 
and, after having been first duly sworn, was examined and testified as 
                                follows:

    Ms. Comstock. I would like to note for the record those who are 
present at the beginning of this deposition.
    My name is Barbara Comstock, chief investigative counsel for the 
Committee; I am accompanied today by Kristi Remington, associate 
counsel, who is with the Majority staff; Ken Ballen, designated 
Minority counsel for the Committee this morning, and he is accompanied 
by Andrew McLaughlin. The deponent is represented by Mr. Mark Lynch, 
and the deponent is Mr. Michael Imbroscio.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath, your testimony has 
the same force and effect as if you were testifying before a Committee 
or in a courtroom. If I ask you about conversations you have had in the 
past and you are unable to recall the exact words used in that 
conversation, I would ask that you state you are unable to recall the 
exact words but give the gist or substance of any such conversation to 
the best of your recollection. If you recall only part of a 
conversation or only part of an event, please give me the best 
recollection of those events or parts of conversations that you do 
recall.
    If I ask you whether you have any information about a particular 
subject and you have overheard other persons conversing with each other 
regarding that subject or have seen correspondence or documentation 
about that subject, I would ask that you provide such information and 
indicate the source from which you have derived such knowledge.
    Before we begin the questioning, I would like to give you some 
background about the investigation and your appearance here. Pursuant 
to its authority under House Rules X and XI of the House of 
Representatives, the Committee is engaged in a wide-ranging review of 
possible political fund raising improprieties and possible violations 
of law. Pages 2 through 4 of House Report 105-139 summarizes the 
investigation as of June 19, 1997, and describes new matters which I 
will raise in the course of the investigation. Also, pages 4 through 11 
of the report explain the background of the investigation.
    All questions related either directly or indirectly to these 
issues, or questions which have the tendency to make the existence of 
any pertinent fact more or less probable than it would have been 
without the evidence, are proper.
    The Committee has been granted specific authorization to conduct 
this deposition pursuant to House Resolution 167, which passed the full 
House on June 20th, 1997. Committee Rule 20 outlines the ground rules 
for the deposition. Majority and Minority Committee counsel will ask 
you questions regarding the subject matter of this deposition. Minority 
counsel will ask questions after Majority counsel is finished. After 
the Minority counsel has completed questioning you, a new round of 
questioning may begin. Members of Congress who wish to ask questions 
will be afforded an immediate opportunity ask their questions at any 
time when they may be present. When they are finished, Committee 
counsel will resume questioning.
    Pursuant to the Committee's rules, you are allowed to have an 
attorney present to advise you of your rights. Any objection raised 
during the course of the deposition needs to be stated for the record. 
If the witness is instructed not to answer a question or otherwise 
refuses to answer a question, Majority and Minority counsel will confer 
to determine whether the objection is proper. If Majority and Minority 
counsel agree that a question is proper, the witness will be asked to 
answer the question. If an objection is not withdrawn, the Chairman or 
a Member designated by the Chairman may decide whether the objection is 
proper.
    This deposition is considered taken in Executive Session of the 
Committee, which means that it may not be made public without the 
consent of the Committee, pursuant to clause 2(k)(7) of House Rule XI. 
We ask that you abide by the rules of the House and not discuss with 
anyone other than your attorney this deposition and the issues and 
questions raised during this proceeding.
    Finally, no later than 5 days after your testimony is transcribed 
and you have been notified that your transcript is available, you may 
submit suggested changes to the Chairman.
    That 5-day rule, with agreement of Minority, has been routinely 
waived in order for people to be able to work with their counsel in a 
timely manner.
    A transcript may be available for you for review at the Committee 
office or we can, if you can sign a form that you are not copying it or 
sharing it with anyone, we can make it available to you to review 
outside the Committee offices with your client.
    Mr. Lynch. Appreciate that.
    Ms. Comstock. Committee staff may make any typographic or technical 
changes requested by you. Substantive changes, modifications, 
clarifications or amendments to the deposition transcript submitted by 
you must be accompanied by a letter requesting the changes and a 
statement of your reasons for each proposed change. A letter requesting 
substantive changes, modifications, clarifications or amendments must 
be signed by you. Any substantive changes, modifications, 
clarifications or amendments shall be included as an appendix to the 
transcript conditioned upon your signing of the transcript.
    Do you understand everything we have gone over so far?
    The Witness. Yes.
    Ms. Comstock. Do you have any questions about anything?
    The Witness. No.
    Ms. Comstock. I just want to go through a few ground rules.
    The reporter will be taking down everything we say to make a 
written record. You need to give verbal, audible answers. We don't want 
to talk over each other. Wait until we are finished asking the 
questions, then I will also wait until you have finished your answer.
    Are you here voluntarily today or as a result of a subpoena?
    The Witness. Voluntarily, I believe.
    Mr. Lynch. Yes, Mr. Imbroscio is here voluntarily.
    May I say something at this point?
    Ms. Comstock. Yes.
    Mr. Lynch. I had a conversation with Mr. Bennett yesterday in which 
I explained to him that I have only been very recently retained by Mr. 
Imbroscio.
    As you know, the Committee has taken the position that attorneys in 
the Office of the Counsel to the President may not be represented by 
other attorneys in that office, so it was necessary for them to seek 
private counsel. And as I said, I have just been retained a very few 
days ago. We have thoroughly reviewed the subject matter of the 
discovery of the audio tapes and are fully ready to discuss that as 
long as and as completely as you want to do today.
    To the extent that you are interested in the broader question of 
compliance with subpoenas and other requests for documents, there may 
well be areas that I simply have not had a chance yet to discuss with 
Mr. Imbroscio, and we certainly would anticipate coming back at a later 
time after we have had a chance to go over all that material, but we 
simply have not been able to cover that material.
    I explained all this to Mr. Bennett yesterday. We are certainly not 
suggesting that you're not entitled to go into everything, but we are 
asking if today we could focus on the discovery of the videotapes, 
because that is really all I have been able to get my arms around at 
this point.
    Ms. Comstock. Okay. Mr. Bennett had shared your conversation with 
him with me also, and I do understand that you expressed those concerns 
to him.
    To the extent that the videotapes do and the discovery springs from 
certain requests and things like that, I think it will be necessary to 
go into the general areas. I think what we can do is, if we start 
general and then you can indicate areas where you have not had that 
opportunity yet to work with your client, then we can just skip over 
those areas as we go through. But maybe it will be easier if we can get 
through what you are comfortable going through, and then if there are 
areas that you just have not had a chance to discuss yet, then we will 
put those off for another day.
    Mr. Lynch. Sure. We appreciate that.
    Ms. Comstock. But it may be that in working on the videotapes and 
in general work on those matters, that some of the other more general 
questions will be able to be answered. But why don't we just see as we 
go how far we can get.
    Mr. Lynch. Sure. And we will certainly take this on a question-by-
question basis.
    Ms. Comstock. We would certainly prefer to make any revisit shorter 
rather than longer.
    Mr. Lynch. Sure.
    Ms. Comstock. Or unnecessary, if possible.
    Mr. Ballen. And, whenever appropriate, I have a statement before we 
begin.
    Ms. Comstock. Okay.
    Mr. Ballen. I will do it now.
    First of all, on this issue of scope, what we understand the scope 
to be in the Minority is to be on the compliance with the subpoenas and 
nothing beyond that. And Mr. Lynch has indicated today a question of 
preparation on the videotapes versus nonvideotape issues, but what we 
understand the scope of these depositions to be is related to 
compliance with subpoenas and not anything else.
    To the extent, and let me make it very clear on behalf of the 
Members in the Minority, to the extent there is any questioning beyond 
the issue of compliance with the subpoenas that were issued by this 
Committee and by the Senate and by others, we will object most 
strenuously to that, and we will seek, because we believe it is beyond 
the proper scope of this Committee, we will seek a Committee vote on 
any such questions. And so I want that to be clear at the outset, our 
view on the scope of these depositions.
    Having stated that, what I need to also state is several other 
views of the Minority. First, we object to these depositions. we object 
to these depositions being taken at all, but I will get to that at the 
last. As a procedural matter, we object. Mr. Condit wrote a letter on 
behalf of the Minority Members to the Chairman and----
    Ms. Comstock. Is that a letter we have received, to your knowledge?
    Mr. Ballen. It went out yesterday. I certainly hope----
    Ms. Comstock. We have not received that letter. I read about it in 
the paper this morning, but we have not received it.
    Mr. Ballen. Well, Mr. Condit sent it out yesterday and I will enter 
it. I know Mr. Condit sent it to the Chairman.
    In fact, let me enter it into the record at this point. It is a 
public letter sent out by Mr. Condit yesterday. I know Mr. Condit is 
very good about making sure letters are delivered, so I am sure he--we 
can mark it as Minority Exhibit Number 1.
    [Minority Exhibit No. 1 was marked for identification.]

    [Note.--All exhibits referred to may be found at end of 
deposition on p. 509.]

    First off, as Mr. Condit states quite eloquently in his letter, we 
object to these depositions being taken without either conducting them 
jointly with the Senate, deferring the House until the Senate has 
conducted them, or the Senate deferring until the House has conducted 
them. These are depositions with the exact same witnesses, exact same 
issues, same questions, same documents, and if there ever were a case 
for coordinating between the House and the Senate, our view is the 
entire investigation should be coordinated, but at least this one 
discrete aspect should be coordinated. So we object to that.
    Our Members, including Mr. Waxman, Mr. Lantos, Mr. Kanjorski and 
Mr. Condit, specifically object to these depositions occurring now. We 
believe that the Members should have a right to attend these 
depositions; that if they are important enough to do, Members of 
Congress, who are now on recess and are not available, should be 
afforded the opportunity to attend, and our Members very strongly 
wanted that opportunity. And, again, these have been scheduled over our 
objection to taking them, which is set forth in Mr. Condit's letter as 
well.
    Let me read verbatim a statement Mr. Condit would like read in the 
record. ``I object to these depositions taking place at this particular 
time.'' This is Mr. Condit's statement. ``Given the short notice of the 
depositions, scheduled after Members left for the current recess, and 
given scheduling problems associated with the recess, it is impossible 
for Members who may choose to be present for the depositions to be 
here. Additionally, I have written to Chairman Burton spelling out this 
objection and, as yet, have not received a reply. I would, therefore, 
object and urge postponement of these depositions until such time as 
Members have returned from their respective districts.''
    And that is a statement of Mr. Condit and is a statement that is 
echoed by all Minority Members of this Committee, and we fail to see 
the urgency in proceeding in this fashion.
    Lastly, I want to note something for the record, which is the 
extreme dismay that I have that we are going through this process at 
all. I have been up on the Hill on and off for 10 years now and was 
intimately involved in the Iran-contra investigation. And I must say we 
had problems with the White House during Iran-contra in terms of 
documents being submitted, other documents being withheld, documents 
being discovered late, and outright refusal to turn over some of the 
information subpoenaed, period, without assertion of any privilege or 
any other reason.
    This White House has been cooperative and, from my point of view, 
as far as we know, acted in good faith. To put people whose job it was, 
who are in the counsel's office, through this kind of a process, under 
oath, without giving them the benefit of trying to explain themselves 
first, strikes me as an unfortunate exercise of the Majority's power. 
These depositions were done without consult with the Minority 
whatsoever and, frankly, without really giving the White House an 
opportunity in good faith to reply to what had happened.
    I have to note, too, that if this were an issue where documents 
that were incriminating in any effect were not turned over, maybe this 
entire process could be justified, but we're talking about, the best we 
can determine at this point in time, exculpatory information. Why 
anyone would submit themselves to this kind of proceeding for failure 
to turn over information that would have helped them had it been turned 
over earlier boggles the mind.
    So with those objections noted for the record, we should proceed.
    Ms. Comstock. Okay. I would like to note that the letter that Mr. 
Ballen entered into the record apparently was faxed to Mr. Waxman's 
office last night at 6:12 p.m. We were not in receipt of that letter at 
any time before the deposition this morning.
    We did read about the letter in Roll Call this morning, so 
apparently it was made, at least the sense of it was made available to 
Roll Call at some point before deadline last evening, but we were not 
aware of any of these objections.
    We did have a meeting last Friday with Mr. Ballen and with the 
White House Counsel, Chuck Ruff, and with Deputy Counsel Cheryl Mills 
and Special Counsel Lanny Breuer. At that time Mr. Ballen did not voice 
any of these concerns, and actually the White House Counsel, Mr. Ruff, 
had no objection to us going forward. And during a very candid and 
frank discussion, Mr. Ruff understood exactly why the Committee was 
going forward with these depositions.
    He did not raise the issue of joint depositions or anything like 
that because, in fact, this investigation, the House investigation and 
the Senate, has a number of different issues. We have different scopes. 
And certainly, as the witness will probably be able to tell us today, 
our subpoenas have been different, our requests have been different. 
While there obviously is some overlap in these matters, how and when 
our subpoenas were responded to as opposed to Senate subpoenas or 
others are different issues, and for that reason we are going to 
continue to proceed this morning.
    And like Mr. Ballen, I too have been involved in a number of 
investigations up here on the Hill over the years and, unfortunately, 
the patterns that we have seen with this one have been all too common. 
We have had records turn up years after they were sought, and this has 
been a concern that this chairman and many Members of this Committee, 
who not only have served during this Congress on this investigation but 
served on the Committee with previous investigations and were familiar 
with the lack of response that has resulted often from our subpoenas. 
And, in fact, we have had to move in the past on contempt as we did 
this year with the White House.
    So with all those things in mind, the Committee Members and on the 
Majority side felt very strongly it was important to establish not only 
the issue of the videotapes and how they were discovered but general 
compliance with the Committee's subpoenas.
    Now, as we have discussed with counsel already, we understand that 
the witness may not be ready this morning for the entire area of 
compliance issues, but we are going to cover those that we are able to 
deal with this morning.
    Mr. Ballen. Let me just note for the record, I don't want to engage 
in a long debate with counsel for the Majority, but to point out 
several facts.
    One is that our objections to these, I talked to Mr. Bennett about 
it and this was faxed from Congressman--my understanding is Mr. Condit 
delivered this letter to Mr. Burton yesterday. That is my 
understanding. That is what I was told by Mr. Condit's office: The 
letter was delivered here yesterday. Why you have not received it, I do 
not know.
    It was faxed from Mr. Waxman's office to me. And if you look at the 
bottom of the thing, it says 5:18 p.m. That is when I received it. I 
don't know what that 6:12 is on the top, because I received it from our 
main office, which is the faxes, earlier in the day. I don't know what 
that is at the top because I know when I received it. It was refaxed, 
apparently.
    But in any event, it was delivered to you yesterday. And if you 
want to beg to differ with Mr. Condit on that, his office assured me 
that it was delivered to you yesterday afternoon. And my objections 
were made to Mr. Bennett earlier, in any event.
    Ms. Comstock. I would note for the record, counsel apparently had 
this by 5:18 or 6:12 and did not bring this to our attention last 
evening.
    Mr. Ballen. Which counsel?
    Ms. Comstock. Minority counsel.
    Mr. Ballen. Why should I, if it was delivered to you by Mr. Condit. 
And that office delivered it to you. If I am told a letter is delivered 
to you, I assume it was delivered. That is what I was told. I didn't 
see any reason to bring it to your attention since you received an 
original of it in the afternoon.
    Mr. Lynch. One minor housekeeping item. I think when you identified 
the people present you did not identify Mr. Bossie.
    Ms. Comstock. I think we had forgot. Mr. Bossie was down here on 
the list already.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay, if we could begin. Could you please provide your 
employment history from college forward?
    Answer. Let me take a step back. I was born in Ohio in 1968, I 
attended Ohio State University, graduating summa cum laude in 1990. 
Thereafter attended Harvard Law School, graduated in 1993 magna cum 
laude. I clerked for one year for Judge John M. Walker, Jr., on the 
Second Circuit Court of Appeals in New York. Judge Walker is, as you 
probably are aware, President Bush's first cousin. After clerking for 
Judge Walker, I entered employment with Covington & Burling, where I 
worked over the summer a few years earlier, and worked at Covington & 
Burling for approximately two-and-a-half years until March of this 
year.
    Question. Then at that time were you hired at the White House?
    Answer. My first day at the White House was March 3, 1997.
    Question. And who hired you?
    Answer. While at Covington & Burling I worked closely with Mr. 
Lanny Breuer, and he, as well as Mr. Ruff, hired me to come work at the 
White House.
    Question. And what are your duties at the White House?
    Answer. I work on Mr. Breuer's team of lawyers doing our best to 
comply with the numerous requests for documents and other materials 
from the various investigative committees and other investigative 
bodies.
    Question. Is Mr. Breuer your supervisor?
    Answer. He is.
    Question. And how many of you work on these matters?
    Answer. We have a small staff of about five or six lawyers who work 
on these matters.
    Question. And could you identify those people, please?
    Answer. I may leave out one or two, but our team is comprised of 
myself, I am the most junior lawyer on the team; Michelle Peterson, 
Demetri Nionakis, Karl Racine, Karen Popp, and Mr. Breuer.
    Question. And is Lanny Davis also part of that team?
    Answer. Lanny Davis' responsibilities are to deal with the various 
press inquiries that our office receives. He is in no way a part of the 
document compliance team.
    Question. And do you also have paralegals and support staff who 
work with you?
    Answer. We do have a few parallels and support staff.
    Question. Who are those individuals?
    Answer. We have three paralegals and Mr. Breuer has an assistant.
    Question. And who are the paralegals?
    Answer. Their names are Debra, Dimi and Erin.
    Question. Could you give me their full names?
    Answer. I have a hard time spelling a few of them. Debra Falk, F-A-
L-K; Erin Green, G-R-E-E-N; and Dimi Dooufekias, spelling of which I 
will not attempt.
    Question. And so Mr. Breuer has an assistant also?
    Answer. Mr. Breuer does have an assistant.
    Question. And who is that?
    Answer. His name, as you might be aware, is Brian Smith.
    Question. And are there any other individuals who work on Mr. 
Breuer's team?
    Answer. Throughout the summer and currently we occasionally have 
various volunteers and interns that are assigned to our office in the 
White House.
    Question. And does Cheryl Mills also work on any of these 
production matters?
    Answer. She does not. Cheryl is the deputy counsel to the 
President. I don't know what the whole host of her duties entail, but 
she is not a member of the day-to-day compliance team.
    Question. In a letter of people who had been involved in production 
matters, in these videotapes in particular, Mr. Ruff provided Ms. 
Mills' name. Do you know what her role is on this?
    Answer. I believe Mr. Ruff also provided his own name, and 
certainly Mr. Ruff is not involved in the day-to-day production issues 
of our team. But certainly Mr. Ruff, Ms. Mills and the rest of us on 
the team are certainly lawyers in the office who work on these matters.
    Question. Do you know who Ms. Mills reports to in that structure of 
the counsel's office?
    Answer. My understanding of it is that she reports to Mr. Ruff.
    Question. And do you know if Mr. Lindsey has had any involvement in 
any of the production issues or production?
    Answer. During my 7 months at the White House Mr. Lindsey has had 
absolutely no involvement in production issues. I believe I spoke with 
Mr. Lindsey less than three times.
    Question. Why don't you describe to us what you do in terms of 
gathering documents.
    Mr. Ballen. Gathering documents when? In response to the subpoena?

                      EXAMINATION BY MS. COMSTOCK:

    Question. In response to letter requests or subpoenas.
    Mr. Ballen. From who? It is a rather broad question. He might have 
different procedures with regard to different types of issues.

                      EXAMINATION BY MS. COMSTOCK:

    Question. This team of people you identified, do you respond to the 
House letter requests and subpoenas in the course of this 
investigation?
    Answer. Yes, we do.
    Question. Do you also respond to the Senate requests or subpoenas 
for information?
    Answer. As I testified earlier, this is the team that responds to 
all requests from various committee and other investigative bodies.
    Question. Okay. And so that would include the Justice Department 
also?
    Answer. It would.
    Question. And that would be any independent counsel or the Justice 
Department task force? This would be the same group of people that 
would respond to those matters?
    Answer. That's correct.
    Question. Now, are any particular people assigned to the White 
House or the Senate or Justice Department subpoenas?
    Answer. Not in any formal sense, no.
    Question. So there's not somebody who is the House guy, and then 
the Senate guy, and the Justice Department guy who sort of is in charge 
of compliance and making sure that particular subpoenas are complied 
with at the end of the day?
    Answer. Again, not in any formal sense. We all have various roles 
depending on various requests. We obviously get numerous requests from 
many bodies, and if it happens to be a request that relates to an 
earlier request that somebody had responsibility for, they would then 
take responsibility for that request. But, again, there's no designated 
individual to handle requests from a particular body.
    Question. And is Mr. Breuer, then, in charge of all of these areas 
then in terms of final compliance? Is that where the buck stops, 
generally?
    Answer. That is part of his role as Special Counsel to the 
President, yes.
    Question. Is he working on other matters besides responding to 
these investigations?
    Answer. I stumble on the word ``responding.'' If you define 
responding very broadly, yes, that is his responsibility. Responding 
not only to documents but responding more generally.
    Question. He is not working on appointment of judges or things that 
other counsel people might work on?
    Answer. That's accurate.
    Question. How many attorneys are in the counsel's office?
    Answer. I'm not sure, but I think somewhere between 14 and 18 at 
any given time.
    Question. And do you know the total number of people who are in the 
counsel's office?
    Answer. I thought I just answered that question.
    Question. With support staff and paralegals.
    Answer. Several of the lawyers who are not on our team who do 
various other tasks of the counsel's office, like judges and 
appointments, as you just mentioned, they often share an assistant. I 
believe there are a few assistants throughout the office that support 
the other attorneys.
    Question. Any other attorneys detailed, to your knowledge, to the 
counsel's office?
    Answer. My understanding is that there are such attorneys and that 
they do primarily vetting. But in all honesty, I have not met any of 
these such attorneys. I am told they exist but cannot confirm it under 
oath.
    Question. To your knowledge, are any of the individuals you named 
who are on the team, were they detailed from other agencies or from 
U.S. Attorneys' offices?
    Answer. No, they are not.
    Question. Now, you said you are the low man on the totem pole in 
terms of this team; is that correct?
    Answer. I believe I said I was the most junior attorney on the 
team, yes. I'm 29 years old, for the record.
    Question. And why don't you tell us how you go about then 
responding, if there is a difference--is there a difference in how you 
respond to the House or Senate or Justice Department subpoenas or 
requests?
    Answer. We do not distinguish between requests from one entity 
versus the other.
    Question. Why don't you tell us how you generally respond to 
requests; how they are handled in your office.
    Answer. Okay, I can speak generally at this point. Generally, when 
we receive a request, and we receive many of them, we evaluate the 
nature of the request; ask ourselves does the request require an entire 
White House-wide search or something more limited.
    For instance, if it is a WAVE search, that would not require an 
entire White House-wide search. If it does require a White House-wide 
search, we undertake the steps to conduct a targeted search to the 
areas or offices of the White House that would be likely to have 
responsive documents.
    If it does require a White House-wide search, the practice that is 
in place, and as I understand has been in place well before, well 
before I came into this office, is that the Counsel to the President, 
and there have been several, currently Mr. Ruff, will send out a 
memorandum to the entire Executive Office of the President, sometimes 
shortened to EOP, detailing what those requests are and asking 
attorneys to search--asking employees of the EOP to search all of their 
records for materials and provide to the counsel's office any 
responsive materials.
    Question. Maybe if we could get a little, sort of some of the 
technical aspects of when a letter request comes into your office, who 
is the person who receives it, to your knowledge?
    Answer. Typically, the person who receives it is the person to whom 
it is sent. Sometimes they are sent to the President of the United 
States, sometimes they are sent to Mr. Ruff, sometimes they are sent to 
Mr. Breuer, and sometimes, particularly ones where there is a working 
relationship between our staff and staffs of other committees, the 
letter will come in directed to one of the staff attorneys.
    Question. And is there a process whereby a letter is logged in in 
the counsel's office?
    Answer. There very well might be, but I am not aware of such a 
process.
    Question. Is there a process by which a subpoena is logged in?
    Answer. Same answer.
    Question. Do you know if there's any type of database or accounting 
of various requests?
    Answer. No, not to my knowledge.
    Question. I'm just wondering, last night on the news I think Mr. 
Lanny Davis was saying how many requests had been made from different 
agencies, and I was wondering who is in charge of counting those or 
where is that body of information that would count that?
    Answer. Well, I believe we have a collection of correspondence, 
subpoenas and other requests that are probably put together in various 
binders. I am sure there is a binder for the House of Representatives 
as there are for the other investigative bodies, and I suspect the 
counting took--it meant someone going through and counting the various 
requests for the various bodies.
    Question. Do you know who did that in this case?
    Answer. I have no idea.
    Question. But there's not any type of, you are not in charge of 
that recordkeeping or accounting of requests?
    Answer. I am not.
    Question. Do you know who is?
    Answer. I do not know if anyone is in charge at all and if there is 
someone in charge who that person would be.
    Question. Do you know how, once the request is received by Mr. 
Breuer, by whoever it was addressed to, how is it handled from that 
point?
    Answer. At that point it is usually discussed at a gathering of 
lawyers on the team and the task of, the discussion of what it takes to 
respond is discussed, as I testified earlier that that process occurs, 
and the request may be assigned to a particular person, if it is a 
rather discrete request, or it will be, a strategy for responding to a 
particularly larger request would be discussed.
    Question. And then are particular people put in charge of different 
areas of a subpoena or is one person put in charge of each request?
    Answer. Again, there's no set answer. It really is case specific. 
It depends on the breadth of the subpoena, if it is a subpoena; depends 
on the nature of the requests, whether they require a White House-wide 
search or whether they require more targeted searches.
    Mr. Lynch. I think the record should reflect that Mr. Imbroscio 
explained, when we first came in, that he has aggravated an old knee 
injury within the last day or two, and he is in some obvious discomfort 
I think everyone here at the table will recognize. And among other 
things he has to get up and walk around once in a while to relieve the 
pain in his knee.
    Ms. Comstock. And if at any time you need a break, just let us 
know. Feel free to--we are in a pretty small area, so if it helps to 
walk around, that will be fine.
    The Witness. I appreciate that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I want to maybe distinguish between letter requests and 
subpoenas. Are those treated differently, to your knowledge, and how 
you respond to them?
    Answer. Well, we respond to all requests fully and completely. So 
in the sense of whether one gets second class status, absolutely not.
    Question. And when you said that memos are often put out, office 
wide memos are put out, who generally writes up those memos?
    Answer. We sometimes call them directives because they direct the 
White House staff to search their files. Such directives are sent out 
under the name of the Counsel to the President, and particular members 
of the staff will work with the Counsel to the President in drafting 
and formalizing and finalizing such a memo.
    Question. But usually Mr. Ruff himself is not sitting at the 
computer drafting the memo?
    Answer. As you might suspect, he is not usually the original 
drafter, but certainly he does have a part in the editing of the 
document.
    Question. You had said you started at the White House on March 3 of 
this year; is that correct?
    Answer. That was a Monday, that is correct.
    Question. And where is your office located?
    Answer. My office has moved once since I have been here, but if we 
can get away with this, in the Old Executive Office Building.
    Question. And is that where you started?
    Answer. That is where I started.
    Question. And do you have an office mate, someone that is in your 
office with you?
    Answer. I do not.
    Question. Is there a suite of offices where this team works?
    Answer. The Old Executive Office Building was built in, I believe 
beginning in 1871. Its design and construction does not involve various 
suites of offices. My office is on the fourth floor, which is a hallway 
that several of the attorneys on my team also have offices.
    Question. Generally, you are in an area together? You are not 
spread out across the complex? That is what I am trying to understand.
    Answer. That is generally correct, yes.
    Question. So who else is in that group of offices?
    Answer. Mr. Racine, Mr. Nionakis, Miss Peterson and Ms. Popp have 
offices generally in the same corridor.
    Question. And is there also a Michael Waitzkin who is on your team?
    Answer. Yes. His name is Michael ``Buzz'' Waitzkin. Buzz was a 
partner at a law firm in town and joined the counsel's office some 
months after I joined. He is a person that I probably have left off the 
original list.
    As you can gather from his previous status, he's a more senior 
lawyer and while he does have involvement generally in responding to 
requests, he is not one of the line attorneys as the other ones I 
described in responding to requests.
    Question. And where is Mr. Breuer's office?
    Answer. Mr. Breuer's office is in a different part of the Old 
Executive Office Building. We are on the fourth floor. When I say we, I 
mean the individuals I just testified about a few minutes ago. Mr. 
Breuer's office is on the first floor of the Old Executive Office 
Building.
    Question. And are there other people from the team and all who are 
with Mr. Breuer?
    Answer. Not on our team. Mr. Davis has an office in proximity to 
Mr. Breuer, but not any one of the ones on our team.
    Question. And then Brian Smith is in Mr. Breuer's office?
    Answer. He sits outside of Mr. Breuer's office, yes. And just to be 
clear, Mr. Waitzkin also has an office on the first floor in the same 
general vicinity as Mr. Breuer but not in terribly close proximity.
    Question. So Mr. Breuer, Mr. Waitzkin and Lanny Davis have offices 
in close proximity on the first floor?
    Answer. I would say they have offices on the first floor. Mr. 
Breuer and Mr. Davis' office are in closer proximity than Mr. Waitzkin 
office.
    Question. And Mr. Ruff's office is in the West Wing; is that 
correct?
    Answer. That's correct.
    Question. And where is Ms. Mills' office?
    Answer. Ms. Mills, as Deputy Counsel to the President, has an 
office in the office typically held by the Deputy Counsel to the 
President, which is adjacent to Mr. Ruff's office.
    Question. And Mr. Lindsey's office is also in the West Wing?
    Answer. That's my understanding, yes. I have never been to Mr. 
Lindsey's office.
    Question. How is communication between the offices handled? Do you 
have daily meetings in order for Mr. Breuer to give you assignments?
    Mr. Ballen. Is this in relation to compliance with subpoenas or?

                      EXAMINATION BY MS. COMSTOCK:

    Question. Yes, and I am limiting that to subpoenas and document 
response.
    Answer. As you might suspect, we meet quite frequently on a whole 
host of topics. Many times a particular meeting will cover several 
topics, one of which might be document compliance. There is no set 
pattern for document compliance meetings nor is there a set frequency.
    Question. Okay. Where are the documents that you all have now put 
things? Where are they physically located?
    Answer. They are physically located in the offices of people who 
send them to us.
    Question. But where, when they send them to counsel's office, where 
are they kept in the counsel's office?
    Answer. The copies of the documents are generally kept in a large 
workroom that is close in proximity to the offices on the fourth floor. 
I will stop with that.
    Question. So when these memos are sent out asking for documents 
they would be returned, then, to the fourth floor offices, to your 
attention or Mr. Nionakis or somebody up there?
    Answer. Yeah, it depends on--typically, there is a contact person 
on each of the directives. That contact person would handle particular 
requests, or generally, or a request for follow-up guidance on what a 
particular term in the directive means. That same person would usually 
be the recipient of the documents and they would be the ones to receive 
them, process them, at least initially, before storing them more 
generally in the large workroom.
    Question. And, generally, do people sign, employees at the White 
House, sign forms attesting to searches for files in their office?
    Answer. It is my understanding that the heads of the various 
offices would sign such a form attesting to the fact that all of the 
employees under their direction have made full and complete searches of 
their files and provided all responsive records to the best of their 
ability.
    Question. Now, when you get a request, do you send out the actual 
request with whatever memo you send out to the various offices?
    Answer. We typically do not. We have a White House full of 
nonlawyers and oftentimes the requests that come in are many, many, 
many, many pages long. I believe the subpoena the Committee issued is 
somewhere in the neighborhood of 15 pages long. We do our best to 
summarize the requests, making sure to encompass every single request 
in the directive, but try to put it in a language that nonlawyers can 
understand and will, in fact, maximize the chances that they actually 
read the document and provide us with responsive documents.
    Question. When you joined the White House in March of this year, 
how were you brought up to speed as to requests that had already been 
made?
    Answer. I believe--I came to the office, as I say on March 3rd. I 
believe we received your subpoena, which was dated March 3rd, a few 
days later. That was, for all intents and purposes, the first huge 
request that we had received that related to this investigation. There 
were several earlier requests, but my understanding is your subpoena, 
which as I am sure you probably drafted it, was quite comprehensive and 
in many ways became the guiding document for the nature of requests.
    Question. When you came on board were you aware of previous letter 
requests that this Committee had made?
    Answer. Not specifically. Not specifically, no. I assumed there 
was--I understand there had been some requests, but I have no specific 
knowledge or recollection of what those requests might have been.
    Question. When you came on board did someone sort of direct you to 
files, like here are the outstanding requests and here is--did anyone 
fill you in on what they were doing in terms of document response at 
that time?
    Answer. With respect to document response, I was informed that our 
obligation and directive from Mr. Ruff was to respond to all requests 
as fully and as completely as possible. No one sat me down and walked 
me through the list of requests that had previously been made.
    Question. And the other individuals who are there, could you just 
maybe tell us when each person came on board, to the extent that you 
know?
    Answer. To the extent that I know, I believe it would be as 
follows: Mr. Ruff was probably a matter of public record when he became 
counsel to the President. I do not know the exact date. Ms. Mills has 
been in the counsel's office for some time. Mr. Breuer started, I 
believe, a week or two prior to the time when I started. Miss Popp 
started sometime before I started. I don't know the exact time. Miss 
Peterson came with Mr. Ruff from the corporation counsel's office, so I 
assume her employment coincided to some degree with Mr. Ruff's entry 
into the counsel's office. Mr. Nionakis started approximately the same 
time I did. And Mr. Racine started some months, or a month or two after 
I started. Mr. Waitzkin started about the same time as Mr. Racine, as 
best I can recall.
    Question. And then Lanny Davis started sometime earlier, late last 
year?
    Answer. I assume you guys would have a better understanding of that 
one. I simply don't know. He was there when I got here.
    Question. And your understanding of the paralegals, were they 
people who had been at the White House or were they new also. All three 
of the paralegals started after I started. They are all new paralegals.
    Question. So to your knowledge, is there anyone on this team, then, 
who has worked on any of these matters before at the White House?
    Answer. Can you please define these matters?
    Question. Responding to investigations, responding to subpoenas.
    Answer. Apart from Ms. Mills, who I assume, I don't know 
specifically, but I assume she had some responsibilities before I 
started, we generally had a brand new team of lawyers on this team.
    There is one lawyer who has only tangential responsibility, she 
deals primarily with an investigation of one of your subcommittees, who 
had been around prior to the time when we all came on in essentially 
calendar year 1997.
    Question. Do you know if someone named Ches Johnson was still 
working on these matters for you all?
    Answer. Ches had been around for, I understand, a previous time 
period. Ches has no day-to-day involvement in document compliance 
issues. My understanding of Ches Johnson's role at this point is as an 
assistant to Mr. Davis.
    Question. I'm sorry, did you say that somebody in the counsel's 
office had worked on a subcommittee matter with this Committee that you 
are familiar with?
    Answer. Yes.
    Question. And who was that?
    Answer. Her name is Sally Paxton. I believe she was a partner in 
the law firm of Jenner & Block. Came to the White House, as best I 
know, sometime in calendar year 1996, and deals primarily with issues 
relating to Congressman McIntosh's subcommittee, which is 
investigating, as I understand it, the WHODB, W-H-O-D-B, White House 
database.
    Question. When you came on board, did you have any knowledge of 
what Jack Quinn had done in terms of responding to requests prior to 
the date of your coming on board, or Mr. Ruff coming on board? I guess 
Mr. Ruff came on board in February of '97?
    Answer. I have no specific knowledge. I assume Mr. Quinn responded 
to requests during the time when he was Counsel to the President. I 
don't know what Mr. Quinn did.
    Question. Did you ever see any memos that Mr. Quinn had put out to 
the White House to gather various documents for this investigation?
    And I guess we can just say the investigation I am referring to is 
the investigation that this Committee is conducting that you are 
familiar with, and this Committee and the Senate is basically what you 
have been working on; is that correct?
    Answer. That is generally accurate.
    Question. So we can generically refer to it, and if I am talking 
about some other investigation I will distinguish it in more particular 
terms?
    Answer. Okay.
    Question. Were you aware of Mr. Quinn responding to matters on this 
investigation?
    Answer. I assume that he did respond to such matters, if that is 
the question, yes.
    Question. Did you see any memos he had put out to the White House?
    Answer. I have seen, I think, two memos that Mr. Quinn circulated, 
two directives, I should use the word, that he circulated sometime in 
December and January of this year.
    Question. I'm showing the witness a January 9th, 1997, memo for the 
Executive Office of the President staff from Jack Quinn, Counsel to the 
President, as follow-up to a December 16th, 1996 document request.
    Have you seen this document before?
    Mr. Lynch. Let me interpose here. We are starting to get into areas 
now that I'm uncomfortable with because I haven't had a chance to 
review with Mr. Imbroscio.
    We have gone on generally about how the office is set up and who 
does what, and that's fine and I have no problem. But I do have a 
problem asking him specific questions about documents that we haven't 
had a chance to review together, and, obviously, memos from Mr. Quinn 
are matters that I haven't gotten into yet because, as I have mentioned 
earlier, I have stuck to the tapes matter.
    Ms. Comstock. So would you prefer to wait on those questions?
    Mr. Lynch. Yes. Maybe this is getting into a level of detail I'm 
uncomfortable with.
    Ms. Comstock. Sure. We will pick that up at another time.
    Mr. Ballen. I am not entitled to keep a Committee record?
    Ms. Comstock. It is not a subpoenaed document.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Why don't we turn, then, to the March 4th subpoena. Do 
you all have a copy of that?
    Mr. Ballen. You said it was not a subpoenaed document? This? May I 
ask, how did you receive it if it is not subpoenaed?
    Ms. Comstock. Can we go off the record for a minute?
    [Discussion off the record.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. I'm showing the witness the March 4th subpoena that this 
Committee issued. You're familiar with this subpoena?
    Mr. Lynch. Excuse me, are we going to mark this for identifying in 
any way?
    Ms. Comstock. Yes, I will make this Exhibit 1. We might as well go 
ahead and mark that.
    Mr. Lynch. It might be easier to keep track of them if we mark them 
before we start talking about them.
    [Imbroscio Exhibit No. MI-1 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. You are familiar with this subpoena?
    Answer. Generally, yes.
    Question. And can you just tell us generally what work you did on 
this subpoena? Just walk us through anything you did in regards to the 
subpoena.
    Answer. Well, again, I would like to keep it as general as 
possible. I have not discussed this with my attorney.
    Generally, we received the subpoena. I believe, although I was not 
part of such discussions--there was a long, long series of discussions 
and conversations between lawyers from my office and lawyers from the 
Committee staff, I believe primarily yourself and Mr. Rowley, who no 
longer works for the Committee, to try to work with the staff to focus 
the request. I think that that was culminated in a letter sometime the 
following month and we then set about the search for those records.
    Question. So is it your testimony that there was no search done of 
the records until after--I guess the letter you are referring to is our 
April 18 letter?
    Answer. I don't have the date in front of me. And the answer to 
your question is no, that is not what I said.
    We searched for records and I think, I believe that the record will 
establish we began providing records well before the April time period, 
but we did not purport to commence a White House-wide search through 
the directive process until we had a firm focus and understanding of 
what documents the Committee was seeking.
    Question. Okay. And the subpoena that we've marked as Exhibit 1, 
had a due date of March 24th; is that correct?
    Answer. The date March 24th, appears on the subpoena, yes.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you aware of any memos or directives to gather 
documents responsive to this March 4 subpoena that were done prior to 
March 24?
    Answer. Can you ask your question again?
    Question. Were you aware of any directives that were done prior to 
March 24 that were sent out to collect documents responsive to this 
March 4 subpoena?
    Mr. Lynch. Again, we are getting into a level of detail on matters 
other than the videotapes or the coffees that makes me uncomfortable. 
We would be very happy to go into this at another time after we've had 
more opportunity to go over all the material.
    Mr. Ballen. Just so I note for the record, you've had a limited 
time and been brought into this thing on a very expedited schedule, 
Counsel, so I think that your request is quite reasonable.
    The Witness. I'm happy to talk with you about this at some point in 
the future.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Maybe if we can direct it to the coffees, do you know if 
there was any attempt to gather information regarding the White House 
coffees prior to March 24?
    Mr. Lynch. Which is referred to in paragraph 16 of the subpoena?
    Ms. Comstock. Yes.
    The Witness. Again, I think my answer would be on the general 
level. We had started almost from the outset to try to evaluate this 
request and develop a strategy that would maximize the chances of 
finding all responsive documents on a request that, as initially 
written, had 45 numbered requests.
    We began, I think, searches in targeted areas sometime in the 
months of March and April. Specifically, I don't recall the exact 
times. But with respect to coffees, I am not aware of anything 
particularly we did for that request versus other requests for this 
subpoena.
    Question. Were you aware of any representations that had been made 
by the White House that, generally, documents pertaining to the coffees 
had already been provided?
    Answer. I guess I don't understand your question. Can you repeat 
it?
    Question. Was it your understanding that documents pertaining--and 
this was prior to when you came to the White House, there were 
documents provided to the public and to the press, actually they were 
provided on January 24 to the press, they were provided to this 
committee on January 29, 5 days after they were provided to the press, 
but there were documents pertaining to the White House coffees that 
were provided back in January. And if this helps refresh your 
recollection, do you have any understanding as to whether there were 
outstanding documents related to the White House coffees?
    Mr. Ballen. I'm going to have to interrupt. Between the phone call 
and everything, I missed part of that question.
    The Witness. I kind of had a hard time following it as well. I 
think I know the answer, but if you could ask it again.
    Mr. Ballen. I just want to note for the record, Mr. Bossie received 
a cell phone call in the middle of the question, so I didn't hear it 
all.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Again, I'm not going to go into particulars on this, but 
as we just discussed, this is the January 24 letter we received, 
actually it was cc'd to us, it was sent to Chairman Gilman and cc'd to 
Chairman Solomon and Chairman Burton. Guest lists for coffees held at 
the White House were provided to the media on this date, January 24. We 
did not in the committee receive these documents until January 29, so 
at that time we had, in January we had received documents pertaining to 
the coffees. I will go ahead and make that Exhibit 2.
    But I just wanted to put this in context and get that on the record 
that we had received documents pertaining to the coffees.
    [Imbroscio Deposition Exhibit No. MI-2 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you aware in this March-April time frame of any 
discussions--did you have any discussions about seeking other documents 
pertaining to the White House coffees?
    Answer. Let me answer, I think, the question you had asked 
previously and go into that question. I was aware generally that the 
White House had disclosed a list of attendees that attended the various 
coffees. I read about it in the Washington Post sometime in January, I 
believe, before I had any inkling that I would ever be working at the 
White House. I don't know the specifics on when the committee actually 
received these documents. I will take you at your word that you 
received them some days after the date of the letter.
    With respect to discussions held in March and April related to 
coffee documents, again I cannot answer specifically whether the topic 
of coffees versus any of the other 45 topics in the subpoena was 
discussed, but certainly by the time I came into the White House 
counsel's office or shortly thereafter, I did have an understanding 
that a list of attendees had been provided both to the committees and 
to the media.
    Question. Did you have any understanding of other documents 
pertaining to White House coffees that existed?
    Answer. I certainly probably understood that such documents did 
exist, yes.
    Question. Did you have any understanding of the universe of what 
those documents might be?
    Answer. No, at that point I did not have an understanding.
    Question. Did you have any discussions with anyone in the counsel's 
office about what other types of documents pertaining to the coffees 
might exist in the White House?
    Answer. No.
    Question. At any time?
    Answer. No. Well, at any time, that's a tough question. Certainly 
we had discussions about responsive documents, responsive documents 
including documents relating to the White House political coffees as we 
entered and worked through this monumental task of responding to this 
request.
    So when you say did I have a discussion at any time about documents 
related to the White House coffees, I'd have to say, yes, I'm sure I 
did. I don't recall anything specifically, as you might expect.
    Question. I was just seeing if you could generally recall 
discussions that you had about the types of documents pertaining to the 
coffees that you might need to go about gathering in responding to this 
March 4 request.
    Answer. Again, not focused on the coffees, I had an understanding 
that documents were being gathered from the Office of Records 
Management, which houses the papers of the President, including the 
briefing papers which it is my understanding is the primary repository 
for documents relating to the coffees was in the briefing memos that we 
have provided to you all dealing with the attendees; and there is 
usually a short description of who the attendee is. Certainly I had an 
understanding that those documents were being gathered.
    Question. And do you know who is gathering those?
    Answer. The office generally was supervising the career 
professionals in the Office of Records Management, trying to gather all 
those documents.
    Question. So that would be Mr. Good's office?
    Answer. Exactly. Mr. Good, as a career employee, I think has been 
around since the Watergate time period.
    Question. And Mr. Good was going through his records at the Office 
of Records Management to find any documents about White House political 
coffees?
    Answer. I don't know if it was Mr. Good himself or one of his 
subordinates.
    Question. Somebody in his office?
    Answer. But it's my understanding that Records Management made a 
Herculean effort to go through all the briefing memos and tried to 
identify every single document relating to coffees.
    Question. Did you understand, do they have some kind of database or 
search base in the Office of Records Management for records?
    Answer. It is my understanding that they have such a system. I can 
certainly testify I know absolutely nothing about it.
    Question. Do you know if Mr. Good was ever provided with any types 
of records that he was supposed to look for, the definitions of what 
records would include?
    Answer. I suspect most certainly he received a copy of the 
directive of April 28, I believe the date of it is, that asked for all 
records in any form whatsoever. I am unaware if he had any more focused 
or specific request to search for any other types of documents.
    Question. We are going to get to the April 28 directive in a little 
while here, but aside from that directive, are you familiar with any 
other directive that asked for documents pertaining to the White House 
political coffees? Anyone prior to April 28?
    Answer. Any other directive? No, I'm not aware of any other White 
House-wide directive that would ask for documents relating to White 
House coffees. Again, I can't speak to what went on prior to March 3, 
1997, the date I started. There might have been. I am not aware of any.
    Question. But it is not something you have come across or were 
asked, here is the February directive, could you follow up on it? You 
were never given anything like that on the coffees?
    Answer. That's right.
    Question. So between the time you came on on March 3 and the April 
28 directive, you were not aware of any other directive about the 
coffees to White House-wide staff?
    Answer. I believe that's what I testified to, yes.
    Question. Directing your attention to the second page of the 
subpoena that you have, which is schedule A, the first page, where it 
says ``definitions and instructions,'' did you ever have any 
discussions with your working group, the people you have identified 
here, about the definitions section of the subpoena?
    Answer. No.
    Question. When you were gathering documents and records, did you 
have an understanding of what the universe of the types of records was 
that you were looking for?
    Answer. My understanding was we were searching for all records.
    Question. Does that understanding mean that you had an 
understanding that you were searching for all documents that had been 
filmed or were video- or audiotaped as the definition here on page 1 
includes?
    Answer. Let me answer it in this way.
    I had been in private practice for approximately 3 years, as I 
said, and did a lot of work responding to such, not so much subpoenas 
but other document requests. This was a list of definitions and 
instructions that were, in my mind, somewhat boilerplate, and 
oftentimes, as lawyers, we would read it but not focus on as much as 
when we get to the requested items portion of the subpoena.
    So to answer your question, I certainly read it initially, but did 
not focus on the 40 to 60 types of definitions of records that are 
listed in the subpoena, including punch cards and some of the other 
items.
    But, in fairness, I should say that I certainly knew that any and 
all records would be responsive to the subpoena.
    Question. And you had said, in private practice you did work on 
document production and response to subpoenas; is that correct?
    Answer. I'll answer that yes if you promise not to ask any more 
questions about what I did in private practice. I don't want to betray 
any prior confidences.
    Question. No, I'm not asking you about any of your clients; I'm 
asking more with your familiarity with searching for records and 
complying with subpoenas in general.
    You had done work in complying with subpoenas?
    Answer. I had.
    Question. You understood the legal obligations to respond with 
thorough searches?
    Answer. Absolutely.
    Mr. Lynch. I'm sorry, you just said subpoenas, and earlier Mike had 
said not so much subpoenas as document requests, and I think there's a 
little ambiguity there.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Are you using them interchangeably?
    Answer. I am. I'm using them generically. Certainly I was involved 
in responding to both, document requests typically in the civil 
context, as well as subpoenas including grand jury subpoenas.
    Question. When you were responding to grand jury subpoenas, would 
there often be definitions and instructions on the type of records they 
were seeking?
    Answer. I have not seen a document request or subpoena that did not 
include a paragraph similar to the one appearing in your subpoena.
    Question. So you are familiar with that type of definitions and 
instructions section in the subpoena?
    Answer. That type of boilerplate definitions and instructions 
section, yes.
    Question. Did you ever have any discussions in the counsel's office 
about the types of records generally that you would need to search out 
in the White House, the type of records that would be responsive?
    Answer. Not so much the types of records, but discussions as to 
where such--the location of such records, in other words, what offices 
would likely have responsive records.
    Question. And do you recall what offices those were that you came 
up with that would have responsive records?
    Answer. Well, it would depend on the particular request. For 
instance, a request related to John Huang, you might very likely find 
records in the Office of Public Liaison because of John Huang's 
connection when he was at the Department of Commerce with the working 
group and with various parts of the Office of Public Liaison.
    Records Management is always a good place to look for records 
because they are somewhat the central repository of all records. But, 
again, it was along the nature of evaluating particular requests and 
doing our darnedest best to find out and figure out where such records 
would likely be held.
    Question. And in regards to the coffees, it's your testimony you 
don't recall any particular conversations about trying to figure out, 
other than you have mentioned the Office of Records Management, in 
order to find the President's records and schedules and briefing memos 
on that? Were there other offices that you sought out in particular 
relation to the coffees?
    Answer. I don't think I said that that was the only place we 
looked. That was one place that sprang to mind. I don't have a specific 
recollection of discussing any other particular offices where coffee 
records would have been kept.
    I certainly assumed that such discussions were had, where there 
would be other places. For instance, the Office of Political Affairs, 
sitting here today, is one place I would also want to look for such 
records; and while I have no specific recollection of having a 
discussion along those lines, I can imagine that such a discussion 
could occur.
    Question. That's Mr. Sosnik's office?
    Answer. It had been Mr. Sosnik's office. I don't think he is now.
    Question. At the time of the coffees, that was Mr. Sosnik's office?
    Answer. Again, that's my understanding.
    Mr. Ballen. Can I ask a follow-up question, please?
    Ms. Comstock. Yes.
    Mr. Ballen. Were you the sole person responsible for complying with 
the subpoena?
    The Witness. No, not at all. Our entire team of 5 or 6 lawyers, as 
I testified earlier, were charged with responding to this request as 
well as to numerous other requests.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall generally any discussions with any 
attendees of the coffees about where records might be?
    Answer. You mean the White House staff members who attended?
    Question. Yes, the White House staff.
    Answer. No, I have not had any such discussions.
    Question. You were aware that White House staff had attended the 
coffees?
    Answer. I suppose I was aware, seeing Doug Sosnik's name appearing 
on many of the briefing papers as did Craig Smith's name appear on many 
of the outreach coffees of political supporters around the country.
    Question. Were you aware of Marsha Scott attending a number of the 
coffees?
    Answer. I suppose I became aware of that at some point later, but 
not at the time period which I believe we're discussing, which was 
sometime in the March-April time period. It became known to me sometime 
in the months thereafter that Marsha Scott did attend a number of the 
coffees.
    Question. And how did you learn of that?
    Answer. I believe I probably learned about it from reviewing 
documents and seeing her name on a lot of the coffees, and also from 
press reports.
    Question. And did you go to Ms. Scott at any time to ask her for 
any responsive records she might have about the White House coffees?
    Answer. I have never met Ms. Scott other than a brief hello, across 
the street at the Senate offices during a deposition where I was 
attending--not her deposition.
    Question. Were you aware of anyone in the counsel's office 
discussing the coffees with her at any time?
    Answer. I am not aware of any such discussion.
    Question. Were you aware of anybody from the counsel's office 
talking to her--when you say you have only met her, does that mean you 
haven't talked to her, either, about anything?
    Answer. I know what she looks like and I've seen her in the halls, 
but I've never had a substantive conversation with her other than a 
brief hello at the Senate during a deposition.
    Question. So that would include any phone calls, when you say you 
haven't met her, you're not meaning that you maybe only talked to her 
on the phone?
    Answer. No. To my knowledge I don't have any recollection of 
talking with her, ever. I'm not saying that I haven't talked to her, 
because we do get phone calls asking for, sometimes, guidance on 
document requests. I don't believe I've ever spoken to her.
    Question. Were you aware of requests in particular for notes that 
Ms. Scott may have taken at White House coffees?
    Answer. I am not aware of any specific request for notes of Ms. 
Scott. I now know that Ms. Scott did take some notes that I have seen 
as we have produced them to you. But if the question is dealing with a 
request for such notes, I have no knowledge of that.
    Question. Were you aware of anyone going to Ms. Scott from the 
counsel's office in particular to ask her about any other records she 
might have regarding the White House political coffees?
    Answer. I am not aware of that. I presume, based on our 
conversation here, that someone probably did, but I was not aware of 
that nor was I the person to do it.
    Question. And I'm just asking if you have any knowledge or have 
ever heard about anybody in the counsel's office going to Ms. Scott 
saying, what can you tell me about responsive documents on the coffees?
    Mr. Ballen. That is in addition to any directives that were sent 
out?
    Ms. Comstock. Right.
    The Witness. I believe I answered the question previously and I 
think I'll stick with that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Now, were you aware of anyone going to Mr. Sosnik from 
the counsel's office to talk with him about any knowledge he might have 
about any potentially responsive documents about White House political 
coffees?
    Answer. I believe I would say the same answer. I personally did not 
speak with Mr. Sosnik about this topic nor am I aware specifically of 
anyone going to talk with him about this topic, but I certainly cannot 
say whether or not anyone actually did.
    Question. Do you have any general knowledge of somebody in the 
counsel's office or somebody on your team being tasked as sort of to go 
to this group of people who attended coffees to ask them, please make 
sure you've given us all the documents that may have existed?
    Answer. If your question is, did I generally have an understanding 
that this was being done, I suppose the answer is yes. I have no other 
specifics to offer other than my, again, general understanding that it 
was being done.
    Question. Do you have any general understanding of who was doing 
it?
    Answer. It would have been one of the lawyers on our team. Again, I 
don't know who it would have been. It could have been one of--really, 
almost any of those folks. I don't have--I don't want to say--I don't 
want to offer a name when, in fact, it's not that person.
    Question. I understand. It's just your general understanding that 
in order to comply with the subpoena, somebody was going to these 
people who attended coffees to make sure that--have you guys given us 
everything that we need to have on the coffees?
    Answer. Yes.
    Question. And then directing your attention on the subpoena to item 
16, which reads, ``all records relating to the White House political 
coffees"; and then it goes on, ``and including but not limited to,'' 
and mentions a number of things and information about the coffees.
    This is the April 18, 1997, letter that, as you recounted, your 
office and our office, with the Minority, had discussed at length some 
of the areas that we wanted to have the White House focus its search, 
because at that time the White House had indicated that you wanted to 
have some kind of idea of the priorities, your office did.
    Directing your attention to item 16 in this letter, it is 
identified--I believe, in the beginning of the letter, it says that the 
items that were in bold on this letter were to be considered priority 
items.
    Mr. Lynch. Are we going to mark this letter?
    Ms. Comstock. Yes, this will be Deposition Exhibit No. 3.
    [Imbroscio Deposition Exhibit No. MI-3 was marked for 
identification.]
    Mr. Lynch. I just get worried sometimes if we don't mark them right 
away that we forget to mark them and chaos ensues.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I think the witness is aware of this, but this is a 
letter that was intended to assist the White House in focusing its 
search on a number of matters that the committee identified as 
priority--not in any way limiting, but just to focus it at this time or 
not to vitiate the subpoena at any time, and we had ongoing discussions 
about those.
    Answer. I would just say, without challenging your characterization 
of what this letter was, that I was not involved in the drafting of it 
or any negotiations. So I cannot affirm what you just said. By my 
silence, I should not----
    Question. And I am just giving you a little background for an 
understanding here, and I understand that you were not involved in 
that, that is correct, and I am not going to ask you questions about 
that negotiation, unless you have any understanding on some of the 
particular topics that we are discussing about whatever your 
understanding was on your end about those negotiations.
    Answer. Thank you.
    Mr. Ballen. For the record, excuse me, Counsel, I must disagree 
with your characterization of the letter, because I believe it does 
limit things on the term. So I have a different understanding, but that 
is not what this witness is here to answer today.

                      EXAMINATION BY MS. COMSTOCK:

    Question. On page 2 of the letter, right before it goes into 
listing the items, it reads, ``You have committed to provide requests 
numbered 1 through 8 by Monday, April 21, and we request all other 
priority items as indicated in boldface by Monday, April 28, 1997.'' At 
that time we were also requesting completion date for production which 
we did not have.
    But then I want to direct your attention to page 3 where request 
16, which pertained to the coffees, was in boldface as one of these 
items that was a priority item and that was going to be complied with--
was requested to be complied with by April 28.
    With that background, did you have an understanding of the coffee 
items as being a priority item to track down those documents?
    Answer. I suppose generally I did have an understanding that 
documents relating to the coffees were a priority both for this 
committee as well as other investigative bodies, and in fact, I believe 
we did our level best to get those documents to the committee as 
quickly as humanly possible. I believe we delivered a large batch of 
documents relating to the coffees sometime in the middle of May.
    Question. Could you just then go through from--we made this Exhibit 
3--leading up to the directive of April 28, any knowledge you have 
about how that was produced and what led up to that directive.
    Mr. Lynch. The April 28 directive?
    Ms. Comstock. Yes.
    We will make that Exhibit 4.
    [Imbroscio Deposition Exhibit No. MI-4 was marked for 
identification.]
    The Witness. We are taking off the cover sheet as part of the 
record?
    Ms. Comstock. Yes.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Could you walk us through whatever knowledge you have of 
trying to get the coffee documents and leading up to the directive?
    Answer. Could you rephrase the question?
    Question. Maybe what we should do is clarify.
    Did you see this April 18, 1997, letter which prioritized some of 
the subpoenaed items from the March 4, 1997 subpoena?
    Answer. I most certainly did see it.
    Question. What did you do? What were you asked to do in dealing 
with this letter?
    Answer. I think how I should answer is as follows:
    There was a very dynamic process both in negotiations with your 
committee as well as receiving our first request from the Senate 
committee in the month of April as well as receiving requests from 
other investigative bodies during this time period. And I believe the 
April 28 directive really was the culmination of our efforts to 
condense and provide a single document that would be designed to ask 
for all documents responsive to both this committee's request as well 
as other requests we had received.
    The reason really is quite simple. The risk of not receiving all 
responsive documents greatly increases the greater number of these 
documents you send out because we have a very hard-working White House 
staff that does a lot of other things besides respond to document 
requests; and the risk of it not being read and complied with greatly 
increases if you send one of these out every other day.
    So this was really our effort to put in one document all the 
requests that required a White House-wide search into one document.
    Question. Do you know who wrote this memo, the April 28 directive?
    Answer. I think it was a collaboration. I certainly had some 
involvement in it, but it was a culmination of many people's efforts, 
including myself.
    Question. This directive was--do you know who else was involved in 
working on this?
    Answer. I think probably most everyone on our team was involved. It 
required really to examine quite closely the state of the requests, as 
we had received them, which included the April 18 letter from this 
committee and the other requests, which I won't go into, from other 
investigative bodies.
    Many of the requests were greatly overlapping, as I'm sure you can 
guess, and this was really an effort to put in one document, as I said, 
and summarize all of the requests we had received that required a White 
House-wide search.
    As you're aware, it contains five sort of textual requests with 
many other subparts, as well as a list of names on attachment A, of 
individuals and entities somewhere in the neighborhood of over a 
hundred of such names and entities.
    Question. Was this directive then in response--in part, then, to 
the April 18 letter that you received from this committee?
    Answer. In part from the request from this committee, as well as 
requests from the Senate and other investigative bodies, yes.
    Question. And when had the Senate request been received?
    Answer. I can't give you an exact date. Sometime contemporaneous--
sometime in the middle of April, I believe. I don't know the exact 
date. I'm sure it's a matter of record.
    Question. Then you were also receiving Justice Department requests; 
is that correct?
    Answer. Yes, if you don't ask me any more questions. Yes.
    Question. I'm trying to understand. This directive then is 
combining a number of requests from all three areas to collect 
documents from people; was that the purpose of it?
    Answer. Yes.
    Question. And so our March 4 subpoena, as prioritized in the April 
18 letter, there was an attempt to include our request in this April 28 
letter?
    Answer. That's correct. A request for documents--a request that 
would require a White House-wide search; that's right.
    Question. I'm using the word ``request.'' It was--our March 4 
subpoena was a subpoena; the April 18 letter was prioritizing that 
subpoena. The Senate at that time was only sending you letter requests; 
isn't that correct?
    Answer. Yes, that is correct.
    Question. And the Senate did not send subpoenas until sometime in 
the summer, in July or so; isn't that correct?
    Answer. I believe they have issued one subpoena that was dated on 
July 31 that was received on August 1 by the White House.
    Question. I won't go into the content of the Justice requests, but 
were those by subpoena or request, if you can just answer that?
    Mr. Lynch. I think that gets into a very sticky area, because of, 
as you well know, the secrecy surrounding the Justice Department's 
investigative processes. I think we better not go into that at all.
    Question. Let's resolve that elsewhere. I think obviously at this 
point we did have a subpoena outstanding. The Senate requests were not 
by subpoena. That's correct, right? We have established that?
    Answer. That is correct. But as I said, whether it be by subpoena 
or letter request, no request received from any investigative body ever 
had second class status.
    Question. This was a letter to this committee on--I'll skip that.
    Answer. Are we at a good breaking point?
    Ms. Comstock. Yes. Why don't we take a break.
    [Recess.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Let me go back on the record. I think we were discussing 
the April 28, 1997, directive from Chuck Ruff to Executive Office of 
the President, and the subject was document request.
    On the bottom of this directive, it says that all documents must be 
provided by noon on Wednesday, May 7, to yourself, Michael Imbroscio or 
Dimitri Nionakis, OEOB room 125?
    Answer. Yes.
    Question. Is that where the documents were actually kept, or is 
that Mr. Breuer's office?
    Answer. Let me not answer that question but hopefully get to the 
information you want. 125 is Mr. Breuer's office. There are several 
offices right together. You go in the same door. At that point Mr. 
Nionakis had an office there as well, and that's where Mr. Smith sat.
    The reason that we had--I was across the hall at this time period. 
This was before I moved upstairs.
    The reason we had 125 is because Mr. Smith was typically at his 
desk while Mr. Nionakis and I were often not at our desks, and they 
were designed that he would be the person to--who would be there most 
likely to receive the documents.
    So the answer of where they were kept, they were kept there, I 
think, initially as almost a way station, but our production typically 
had been run out of the workroom on the fourth floor.
    Question. How did the documents come into room 125?
    Answer. In a variety of ways. Sometimes people would walk copies of 
the documents over. Sometimes they would be sent by messenger.
    Question. Would they be identified with sort of a transmittal memo?
    Answer. Unfortunately, not often. Usually they would come in an 
envelope sometimes with a Post-it note saying who they were from or 
where they were from.
    Question. Did they come in brown paper bags with no identification, 
or did people come in and say, these are Mack McLarty's documents and 
I'm responding for Mr. McLarty and all the various people in his 
office?
    Answer. Again, there was no set pattern. It would depend on the 
particular person, the particular responder. Most typically, we would 
receive not so much a brown paper bag but a brown envelope that would 
contain the documents as well as either a note on the envelope or--
informing the person receiving the documents where they were from.
    Question. So generally it would include where the documents were 
from?
    Answer. Generally, there would be some communication to the 
recipient, in this case it was many times Brian, of the source of the 
documents, yes. At least generally the office whereby the documents 
came from. Usually, we would get documents from a particular office as 
opposed to Joe or Sally or Mary.
    Question. Was there a process whereby they were checked in by Mr. 
Smith?
    Answer. I don't think they were formally checked in. They were 
placed into, as I recall a box, receiving box that would periodically 
be taken upstairs as they came in.
    Question. And who would take them upstairs?
    Answer. No one in particular. Perhaps Dimitri, perhaps myself, 
perhaps another lawyer working on the team.
    Question. And when you would get, say, documents that had been--if 
they were in the box and these are documents from John's office or 
Sally's office, would you then keep those documents together, how they 
had been received?
    Answer. Yes, typically.
    Question. Did you have a process--what is the process whereby you 
reviewed them?
    Answer. Well, typically we would receive a document from a 
particular entity or office in the White House. The lawyers would 
review them. Oftentimes people would send--would be overly inclusive in 
the documents they sent and would send us documents that were, in fact, 
not responsive. Lawyers would make a first cut for responsiveness, and 
then they would go into the production cycle.
    Question. And could you describe that cycle?
    Answer. Typically the way it happens is that the documents will be 
stickered or stamped, numbered, and then they will be copied, the 
requisite number of copies. If documents contain dates of birth, Social 
Security numbers, we try not to provide those. We haven't been perfect, 
but out of interest to people's privacy, we have tried to keep those 
out.
    And so that step, the redaction step of the birth dates, Social 
Security numbers, and sometimes other occasional private information, 
that would be done, and then the copies would be made, and they would 
be put together and produced.
    Question. You said sometimes people would provide things that were 
overly responsive?
    Answer. I wouldn't say overly responsive, I would say not 
responsive.
    Question. Would it be a case where, sort of in the abundance of 
caution, someone gave you a document and then you would determine 
whether or not they needed to turn it over?
    Answer. That happened occasionally, yes.
    Question. Would the first attorney who looked through them, would 
they be the sole person who would sort of weed out nonresponsive 
documents?
    Answer. I suppose on the ones that were very clear-cut, the 
attorney would have responsibility to do that weed-out. I suppose on 
close calls, sometimes there was a collaboration among lawyers: ``Do 
you think this document is responsive?'' It was a very dynamic process 
as you might suspect.
    Question. Other than yourself going through documents, who else 
looked through these documents and made this cut through what was 
responsive?
    Answer. I think it's safe to say that all the lawyers at various 
points would assume that role. Because of the vast number of documents 
that our office was charged with gathering, reviewing, and producing, 
it could not be one single person who did that.
    Question. Did it ever break down into particular areas where 
somebody would be doing documents: I'll look through all the documents 
pertaining to X subject and--because you had more familiarity with 
that, whereas somebody else might say the NSC documents and what was 
responsive on NSC documents? Would somebody within your office be the 
person who would usually look through NSC documents?
    Answer. I think the question you asked initially was different from 
the question you asked me at the end. Did a particular person review 
documents from a particular source? Yes. Typically that is the way it 
would work. Documents from that source may be responsive to six or 
seven different topics.
    But your question whether anyone reviewed all the coffee documents 
or all the John Huang documents or all the Joe and Sally Smith 
documents, that typically was not done, because it was not feasible to 
do it that way. When a particular office provides documents, it usually 
includes documents pertaining to a number of different topics.
    Question. So it was more broken down into offices that were 
responding?
    Answer. It would be broken down into offices, groups of documents, 
exactly.
    Question. Did there come a time, then, that you became tasked with 
dealing with the White House Communications Office, dealing with that 
office in particular?
    Answer. No, there was never a time where I became tasked for 
searching for documents, for searching for materials, in the White 
House Communications Office. I can get into the story as to how all 
that unfolded, but it was not in the normal course of receiving 
materials from the office that had been responsive to the directives.
    Question. Was there someone in your office that was one of the 
offices that was to keep track of making sure they got all their 
documents in?
    Answer. There was no one particularly responsible. We received 
documents from the White House Military Office, which is the body 
overseeing WHCA as well as, I believe, a number of other units. Those 
documents came in, they were reviewed, and responsive documents were 
provided.
    Question. What offices, if any, were you responsible for?
    Answer. Again, there was no set pattern or no set plan at the 
outset that I would be--if any document came in from a particular 
office, I would be the person responsible. It typically was a function 
of what documents had come in during a given time period and what 
lawyer was ready to start reviewing more documents.
    Question. Maybe if we could continue going through the process, you 
described where you made the cut through the documents and then you 
mark them and stamp them and all. Was there then--did it go up through 
your superiors as to what documents were going to be turned over?
    Answer. Typically, because we were dealing in such large volumes, 
we would get together a set, sometimes referred to affectionately as 
the working set. That would be the set of documents that would be 
produced in the next day or so. That set would be reviewed by other 
lawyers in the office as well as--other lawyers in the office who might 
not have had a particularly key role in putting those documents 
together.
    Question. Could you describe that process of looking through the 
working set?
    Answer. It was sort of generally available. And if people wanted to 
come look through it, they could.
    Question. Who would be able to look through it?
    Answer. Anyone in our office could look through it. Attorneys 
typically looked through it, because apart from responding to requests 
which, again, is my primary job, we also had an obligation to try to 
learn the records as best as possible, which I'm sure you can imagine, 
so it was not uncommon for the lawyers in the office to review 
documents that were going out.
    Question. And would Mr. Breuer be the person who did the final 
review of the documents?
    Answer. There really was no final review of the documents in the 
sense I think you're getting at. The documents as they were stamped to 
be produced, that's a manner they were produced. Certainly Lanny, Mr. 
Breuer, did want to have an understanding of what documents were being 
produced, and in fact we would try to bring to his attention documents 
he might be particularly interested in seeing.
    Question. And how did you do that?
    Answer. No set way. Either perhaps show him copies of some 
documents in his office or sometimes he would come, I believe, to room 
400 and sort of get a feel for which documents were going out and page 
through them.
    Question. Were these documents that might get particular attention 
that you were bringing to his attention?
    Answer. Generally, yes. I mean, the documents that would most 
likely be leaked to the press in short order after they were produced, 
so that he would be prepared, and I use the word ``leak,'' I don't mean 
to be pejorative, that would soon become the focus of public scrutiny, 
and so he would be prepared to handle that aspect of responding to 
press inquiries.
    Question. And was Mr. Lanny Davis also included in these--in 
informing him of these documents?
    Answer. Mr. Davis really had little, if any, role in reviewing 
documents before they went out.
    Certainly it was part of our job to let Lanny know what the 
particularly sensitive documents might be so that he would be in a 
position, once he started to get press inquiries, he would at least 
have some familiarity with it. But, again, that was very much after the 
fact, and he had--I think I can say safely, he had no role in the 
gathering, reviewing, or producing of documents.
    Question. But these documents, these particular documents you 
brought to the attention of Mr. Breuer, to your knowledge, were they 
also brought to the attention of Mr. Davis?
    Answer. Perhaps a subset of them were. Oftentimes what would happen 
is that Mr. Davis would be fielding press inquiries relating to 
documents that had been produced, and he in many cases would not have 
ever seen the document before, and oftentimes he would get the document 
because a reporter faxed him a document that we had produced to the 
various investigative bodies. It's at that point when we worked with 
Lanny to try to figure out the facts behind that particular document.
    Question. Now, when you had this working set of documents, did you 
also have some kind of log of what was in this set of documents?
    Answer. We had a very general, I don't know if ``log'' is the right 
word, but a general source identity of which offices various documents 
came from, and I believe we typically provide that to you.
    Question. At all times before you sent documents out, you knew what 
offices they came from?
    Answer. Well, not in the beginning. As you can understand, we 
inherited a system--we inherited a lot of documents that had already 
been gathered, and our role was to get them produced to you as quickly 
as possible.
    Because of the turnover, we did not--the turnover in our office 
combined with the need to provide documents as quickly as possible to 
you all, we did not have, at least at our hands at that time, a firm or 
in-hand source of all those documents. We, rather, did our best to get 
the documents produced to you.
    I think we subsequently have provided a log of where all those 
documents came from. That took, I think, a lot of time from paralegals 
to go through and source them all.
    Question. So it is your testimony that when you initially turned 
over documents, y'all didn't know where they had come from?
    Answer. No, I didn't say that. I believe what I'm saying is, our 
focus was to turn over documents as quickly as possible, and I believe 
we did our best to do that.
    The source for these logs, there was not a readily obtainable 
document, at least that we knew of, that identified the sources. We had 
various file folders where documents had come from, and it took--it was 
a project later on of the paralegal to go through quite meticulously 
and try to identify the office sources of those documents, and I 
believe we've given you that source log.
    Question. But initially when documents were turned over, what I'm 
trying to determine, were documents sent out here that you all did not 
know whose documents they were?
    Mr. Ballen. Objection. He's asked and answered this question three 
times now. I might note for the record, we still have not gotten into 
the issue of the videotapes and we're almost 2 hours into the 
deposition minus the break.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I just wanted to direct an answer on, if there were 
documents sent out, that it's your testimony that you didn't know whose 
they were. was there ever a time when documents were sent up here when 
you didn't know where these documents came from?
    Answer. I don't think I said that. I think I said that the sources 
were not readily at hand. But certainly we could--we did figure it out. 
In fact, we did figure it out. It was a meticulous process.
    Question. I wonder if Mr. Breuer knew? Was Mr. Breuer sending up 
documents up here saying, well, we don't know where these came from, 
but send them on up?
    Answer. No, I don't think that's what I've said at all.
    We had a general understanding that these documents had been 
gathered previously to the time when we were in this office. We knew 
that they could be sourced and identified by that process which was a 
laborious process, had not been undertaken at that point. We put the 
emphasis on providing you documents rather than waiting 3 weeks or 2 
and a half weeks to figure out and identify the sources of each of 
those documents.
    Question. Was there ever an occasion when Mr. Breuer, Mr. Ruff, or 
somebody in the counsel's office, before a document got sent up, before 
you send that up, ``Can you tell me where it came from and whose 
document it is? I'd like you to find that out before it goes up 
there''?
    Answer. Can you give me a time? I don't know if I understand your 
question. Can you repeat it?
    Question. I'm just saying, at any time from when you first started 
producing documents, were there situations where anyone in the 
counsel's office may have asked you, ``Find out whose document this is 
before I'm going to send it up there'' because someone sitting there 
looking at a working set of documents may not know whose documents they 
are.
    Did the people approving this document production have an interest 
in knowing whose documents they were?
    Mr. Ballen. That's a different question than the previous question. 
Did they have an interest in it, or was there ever a----

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did they ask you?
    Answer. I can recall specifically not being asked in any particular 
case as you had asked what is the source of this document. I think 
generally the sources of such documents sometimes speak for themselves. 
If it's a memo to someone or a memo from someone, you can assume 
generally that the document came either from the person who received it 
or the person who sent it.
    Question. Did you ever have a situation where there were 
handwritten notes that somebody said, ``Gee, whose notes are these?"
    Answer. No, not that I can recall.
    Question. Then returning to the April 28 directive, you said this 
had been a collaborative effort within the counsel's office?
    Answer. Yes, that's accurate to say.
    Question. That you worked on?
    Answer. I did certainly work on it, yes.
    Question. And, to your knowledge, did Mr. Breuer sign off on this 
also?
    Answer. Mr. Ruff signed off on it, which I think presupposes that 
Mr. Breuer signed off on it as well.
    Question. Turning to the second--why don't we stay on the first 
page where it reads, ``We ask''--in the first paragraph it says, ``We 
ask that you conduct a thorough and complete search of all your 
records, whether in hard copy, computer, or other form.'' was there any 
other supplemental assistance in terms of providing them an idea of 
what type of records you were looking for?
    Answer. I mean, I think the directive speaks as broadly as 
possible. It says all, capital A capital L capital L, of your records, 
whether in hard copy, computer, or other form.
    As you noticed on the final paragraph on this particular directive, 
Dimitri Nionakis and my name appears at the bottom. It would not be 
uncommon to field questions related to the particular requests, and we 
would have also been open to requests related to what types of records. 
We would have responded to any such requests, any type of record.
    Question. And did you have any inquiries about what types of 
records you asked for?
    Answer. I don't recall, no.
    Question. There is no indication in this memo that you had 
requested any videotapes or audiotapes or any type of tape recordings; 
is that correct?
    Answer. I would say that is actually not accurate. I would assume 
that by the words capital A capital L capital L, all of your records 
whether in hard copy, computer, or other form would subsume the 50 or 
60 types of records that are listed in both your subpoena as well as 
other document requests.
    Question. Could you tell us what your knowledge was maybe before 
the Senate approached you on the videotaping issue, what your knowledge 
was on what type of videotaping and audiotaping was done at the White 
House?
    Answer. I really had no knowledge, no specific knowledge. I guess 
somewhere in the back of my mind would assume that things the President 
does are videotaped. But the word ``video'' or the concept of 
videotaping was not in my mind.
    Question. Was there any discussion in the counsel's office about 
finding that type of record?
    Answer. There was none that I'm aware of.
    Question. So in any of these discussions that you had about sort of 
the universe of documents, videotapes or audiotapes never came up?
    Answer. That's right. And, again, in the universe of documents were 
almost always discussions of locations of documents as opposed to forms 
of records.
    Question. Then in the third paragraph, it discusses the heads of 
agencies being responsible during this. Were those people identified, 
or by this memo, did those people know who they were?
    Answer. I don't have a knowledge of how that process works. It was 
a process that proceeded that was in place before I came.
    There are lists of agency heads that attempt to be subsumed by this 
paragraph which I think was a boilerplate taken from perhaps Mr. 
Quinn's directive of January 9, which I don't know if you want to 
compare the language; it may very well be the same.
    But my understanding of the process is, the memo gets sent out to 
the various agency heads a short time after this directive gets sent 
out, notifies them of the fact that the directive had been sent out and 
that they should, when the search is complete, provide written 
certification that, in fact, the searches have been complete and that 
all records have been provided.
    Question. So there is a separate memo to them explaining their 
duties and responsibilities in that regard?
    Answer. That's my understanding, yes. Again, I was not personally 
involved in that process.
    Question. You had previously testified that this April 28 directive 
was intended to include this committee's request; is that correct?
    Answer. That's correct, yes.
    Question. Actually, our subpoena request.
    Answer. Those requests that required a White House-wide search.
    Question. Why wasn't the committee's definition of ``records'' 
included in the memo?
    Answer. I suppose it circles back to what I had testified a few 
minutes earlier about, we were trying to put together a document that, 
A, people will read, and, B, people will understand and provide the 
responsive records.
    We already had an entire page of instructions which, as you might 
understand, was quite lengthy. If we were to include an entire other 
page of definitions of types of records, that increases the risk that 
people will not read the document and people won't respond.
    I believe we chose those words which are quite broad, ``all of your 
records, whether in hard copy, computer, or other form,'' purposefully 
to include any types of records that might exist.
    Question. Was there any discussion of including the committee's 
actual subpoena with the memo?
    Answer. Not that I'm aware of, no.
    Question. Or was there any discussion of including the April 18 
letter with the memo?
    Answer. Again, not that I'm aware of. Each additional document that 
we would attach would be additional pages of requested materials that a 
nonlawyer might have trouble reading, certainly understanding, and the 
chances of them actually reading the document diminish with each 
additional page that's added to the memo sent around to the White 
House.
    Question. Why didn't you attach it, though, in terms of--if yours 
was going to be on top, why wouldn't you attach the subpoena or a 
letter which would provide additional information to them?
    Answer. I think the answer I just gave is the same, which is it 
would be attaching not just this committee's request but the requests 
of numerous other investigative bodies, and we would have a document 
that would very quickly become as thick as the binder sitting ahead of 
you. In front of you.
    Again, the memo is our good faith effort to provide in simple, 
nonlawyer, plain language, the hard-working staff of the White House, 
whose job certainly is not centrally focused on responding to and 
replying to document requests, to have them focus on the document, read 
it and provide all of the responsive efforts that they have.
    Question. Was there discussion in the counsel's office about 
whether or not to attach the subpoena or a letter request to these 
memos?
    Answer. I'm unaware of any such discussion.
    Question. Do you know of any subpoenas or document requests that 
have been sent, you know, attached to directives to collect documents?
    Answer. I am unaware that that ever occurred.
    Question. So this would be the case of the House subpoenas or 
letter requests, as well as the Senate, as well as the Justice 
Department? You do not send around the request or subpoena itself, you 
send around some type of directive which is represented as encompassing 
the things requested?
    Answer. That's accurate, to my knowledge. Again, I started on March 
3rd, '97.
    Question. Then directing your attention to the second page now of 
the directive, which begins, ``Please search your files and records for 
the following materials.'' Could you describe the process by which you 
came up with this list?
    Answer. I think I talked about it earlier as a dynamic process, 
trying to sit down with the numerous document requests and subpoenaed 
information that we had before us at this time period from this 
committee, from the Senate, from other investigative bodies, and try to 
synthesize those requests into a comprehensive but readable and 
understanding listing for those items which required a White House-wide 
search.
    Question. And do you recall particular items that didn't require a 
White House-wide search? You mentioned WAVES earlier?
    Answer. WAVES would be a very good example. Nothing springs to 
mind. But, for instance, if there were requests for all documents of a 
certain person related to a particular topic, it would be common to 
search that particular person's files as opposed to searching some 
completely unrelated person's files for the likelihood that they would 
have a document that would be responsive.
    Question. But for somebody like, say John Huang, all documents 
relating to John Huang, you included that on the attachment. John Huang 
is included on attachment A as individuals.
    Why would you include a name like that on here? So you could get 
any records pertaining to John Huang from anybody in the White House?
    Answer. That's correct.
    Question. Do you recall any discussions you had about this sort of 
cataloguing of items that you were asking people to search for?
    Answer. I guess I don't understand the question. I apologize.
    Question. Can you tell us anything else you recall about coming up 
with this directive?
    The first page, where it says, ``Please search your files and 
records for the following materials,'' and then the attachments to it, 
could you just walk us through the entire process of how you came up 
with requesting Executive Office of the President, White House-wide, 
for these particular records?
    Answer. Again, this is a process that took place some time ago. I 
don't know if I have a recollection of really any of the specifics 
other than what I testified, which is, we did our best to sit down with 
the various document requests in front of us and synthesize them and 
condense them into one document.
    I don't know what else you're looking for.
    Question. Can you tell me who was involved in that process?
    Answer. As I think I said, I was involved, as well as I think 
probably pretty much every lawyer on our team in the office at that 
time, which was certainly before Mr. Racine came to the office.
    Question. So was this listing then circulated among the attorneys 
for revisions or additions, that type of thing?
    Answer. I recall that it was, yes. Certainly the lawyers who were 
meeting with you and Mr. Rowley. I'm not even sure who those people 
were. You probably know better than I do. But certainly they would have 
been involved in the process.
    Question. If I say it was Karen Popp and Dimitri, do you recall 
working with them?
    Answer. I don't recall specifically, but I'm sure they were part of 
the team.
    Question. Did you have any separate discussions with minority staff 
of this committee about these document requests in counsel's office?
    Answer. No. Not that I recall, no. At this time period. The 
formation of this April 28th directive is what you're talking about?
    Question. Well, and generally in responding to these subpoenas, 
this time frame.
    Answer. That's right.
    Question. The spring of '97?
    Answer. That's right. Other than--I don't know if the minority was 
involved in your discussion, so I don't want to speak for the office 
when Karen Popp and Dimitri, as you say.
    Question. We did have some joint phone discussions on these 
matters.
    Answer. So I'm not aware of any. I did not personally.
    Question. I want to direct your attention back to the April 18th 
letter and request 29, which is on page 5, pertaining to records 
relating to Webb Hubbell.
    Answer. Uh-huh.
    Question. Do you recall any discussion about gathering documents 
related to Mr. Hubbell?
    Mr. Lynch. That gets way beyond what we're prepared to talk about. 
I haven't had any opportunity to go over with Mr. Imbroscio things 
other than the White House videotapes, and certainly generically we've 
been going on at great length about the way they put this memo together 
and the way they operated generically, but to ask questions about 
specific kinds of documents that we really haven't had a chance to 
discuss is one of the things I would like to defer.
    The Witness. I would feel more comfortable, too.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Well, in gathering and putting this directive together, 
were there any items that you made any decisions about not putting on 
the directive?
    The Witness. Let me just ask.
    [Witness confers with counsel.]
    The Witness. Just that, obviously, you pointed to a request that I 
can read from across the table that had Webb Hubbell's name on it. It 
is not surprising Webb Hubbell's name does not appear on this, because 
I believe in connection with the search of documents from another 
investigative body there have been contemporaneous requests for 
documents related to Webb Hubbell.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall seeing requests for Webb Hubbell?
    Answer. I recall that there was such a request, and that--I recall 
that there was such a White House-wide request.
    Question. And you recall seeing a document to that effect?
    Answer. I do recall that such a document existed. I don't have a 
present recollection of what that document looked like, but I do have 
an understanding that the request of documents related to Webb Hubbell.
    Question. Then on the second page of this directive it says any 
documents or materials, and then item (b) is referring or relating to 
White House political coffees.
    Answer. Sure.
    Question. Could you describe what materials you got as a result of 
this directive?
    Answer. Well, we received----
    Question. Regarding 1(b).
    Answer. Sure. We received a whole bunch of stuff: briefing memos, 
attendees lists, Marsha Scott's notes, and other documents relating to 
the coffees.
    Question. Do you recall getting any of the President's notes from 
coffees?
    Answer. I don't know if there were such notes from coffees. I do 
not recall receiving any such notes.
    Question. Were you aware of individuals saying that the President 
had taken notes at these coffees?
    Answer. No, that's the first I have heard of it.
    Question. Were you aware of any efforts to check with the President 
to see if he had any notes from these coffees?
    Answer. I was certainly not involved in such an effort and was not 
aware of any such effort.
    Question. Do you recall any discussions that you had with people 
about any particular documents relating to coffees, any particular 
issues that come to mind about whether or not certain documents should 
be turned over that were related to coffees?
    Answer. Specifically, I have no recollection. Let me answer 
generally to maybe move things along. Generally, if it related to 
coffees, we provided it. We turned it over.
    Question. Are you aware of any documents or records, and I guess 
when I say records, if you would like to look at our March 4th subpoena 
again, when I say records I would include all those.
    Are you aware of any records that your office has received 
regarding White House political coffees, that this committee has not 
received?
    Answer. Sitting here today, I am not aware of such records that the 
committee has not received or been made aware of. I guess you have 
received now all of the video--the videos of the coffees, which I guess 
we will get into in a second.
    Question. So to your knowledge, as of this date, we have all 
records pertaining to the White House political coffees?
    Answer. That's my understanding, yes. I'm aware of no documents or 
records relating to White House coffees that you have not been provided 
or made aware of.
    Question. These are documents the White House provided to us 
yesterday, sent over, which apparently were some records they had made 
available to the press and others regarding the response to this April 
28th directive.
    Answer. Sure.
    Question. They aren't Bates stamped at this time.
    Answer. Are you going to mark them?
    Ms. Comstock. Why don't we put the whole group of them together as 
Deposition Exhibit 5.
    [Imbroscio Deposition Exhibit No. MI-5 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Have you seen these documents?
    Answer. I have.
    Question. And could you just describe or tell us, to your 
knowledge, what these documents are?
    Answer. I believe these documents are, at least the top document of 
Exhibit 5, that has the date bearing April 29th, 1997, would be the 
kind of document I described to you a few minutes ago; would be a 
document sent out from our office to the various office heads, asking 
the office heads to ensure that their staff had thoroughly searched 
their files, and attesting that all such responsive records had been 
provided.
    Question. And this top memo is from Jodie Torkelson?
    Answer. Yes, that's correct. I would just note at the outset, which 
might avoid some confusion, the memo is dated April 29th, 1997. I 
suspect that is not the date which Jodie Torkelson returned it, but was 
probably the date it was sent out by our office.
    We basically had, as you can figure, this was a memo that was sent 
out to various heads of offices, and it was probably sent out on April 
29th. Probably should have been April blank, 1997.
    Question. So this document was a form document that you sent out 
from the counsel's office, someone from the counsel's office sent out, 
asking them to sign and attest that they had searched the files in 
response to a directive that people in your office had sent?
    Answer. Exactly, sent out to the various office heads to ensure 
that they were aware of the directive being sent out; that they had 
instructed their staff to thoroughly search their records and files and 
to forward to the counsel's office copies of anything responsive.
    Question. So Ms. Torkelson didn't send this memo on April 29th, is 
your understanding of it?
    Answer. That's quite correct, yes.
    Question. And then the second page is a May 7, 1997 memo for Jodie 
Torkelson from Ashley Raines, Chief of Staff, Management and 
Administration, and the subject is ``Independent Counsel Request For 
Documents.'' Can you tell us about that?
    Answer. I can shed some light on that, as well. I suspect that the 
top document, signed by Jodie Torkelson, probably was contemporaneous 
or right after the May 7th document, which appears second in the 
grouping, because I assume that she received this document from her 
chief of staff before signing the earlier document, which would place 
the date of the first document sometime around May 7th or May 8th.
    As for Ms. Torkelson's chief of staff's subject line, ``independent 
counsel request,'' that would be a misnomer. I suspect that, because 
certainly before I came to this office there had been several requests 
over the past years for documents related to the independent counsel, 
she mistakenly assumed this was also a request related to the 
independent counsel. That's just not accurate. So just to avoid any 
confusion.
    Question. And, actually, the April 28th directive, it was your 
testimony it was sort of a compilation of a number of requests from a 
number of different bodies?
    Answer. Related to campaign financing, yes.
    Question. Can you just tell us what you know about the individuals 
on this May 7th memo, to your knowledge? Whatever you know about them.
    Answer. I know nothing about the individuals on this memo. I assume 
they are people who work for Jodie Torkelson. Jodie created or Jodie's 
office created this second document to distinguish it from the first 
document, which counsel's office created as a way for her to track and 
demand extra accountability from people on her staff that they had in 
fact searched their records.
    Question. And who does she oversee?
    Answer. Individuals, I simply do not know. She oversaw the Office 
of Management and Administration, which sort of, in layman's terms, is 
the office that keeps the White House trains running.
    Question. Does the Military Office also report to her?
    Answer. I just--I don't know. It's my understanding, based on 
events in the past week or so now, that there is some reporting 
relationship between the Office of Management and Administration and 
the Military Office.
    I believe it has to do with complicated issues related to the 
budget and funding, which frankly I know nothing about. But there was 
some relationship between Jodie Torkelson's shop and the Military 
Office, but I'm not the person who can give you definitive answers on 
what that relationship is.
    Question. And the May 6, 1997 memo for Jodie Torkelson from Michael 
Malone, can you tell us about whatever knowledge you have about that 
memo?
    Answer. My answer for this memo would be identical to the answer on 
the memo we just discussed and which was dated May 7, which again I 
think is an example of Jodie demanding extra accountability from people 
on her staff in responding to the April 28th directive. Again, that is 
not a document that was created in the counsel's office.
    Question. And then the last document on here is May 6, 1997, memo 
for Charles Ruff from Alan Sullivan.
    Answer. Uh-huh.
    Question. Could you tell us about that document?
    Answer. This was a document that counsel's office received directly 
from Mr. Sullivan, who is the head of the White House Military Office, 
forwarding the documents that he had gathered in response to the 
directive.
    Question. Now, are these documents that were attached to this 
classified, to your knowledge?
    Answer. I think there was a classified document attached. And if 
you read, it says, ``Unclassified upon removal of Attachment 5,'' which 
means probably the 5th out of the 6 documents was classified; that's 
correct.
    Question. We may have them separately in a production, but we don't 
have them here with what the White House gave us, so I don't know what 
was attached to this. So to the extent that you have knowledge about 
the unclassified documents that were attached to this, do you know what 
those documents were?
    Answer. I do not. I assume they are documents that, if they were 
responsive, have been provided to you. I would more than assume that. I 
can assert if they were responsive to the committee's request or 
requests, they would have been duly provided.
    Question. And is it your understanding that these documents from 
Mr. Sullivan encompass documents from the White House Communications 
Agency?
    Answer. I don't have--I don't know where the documents came from, 
from within the Military Office.
    Question. Are you aware of any memos from the White House 
Communications Agency saying that they had searched their files?
    Answer. I am aware of no such memos.
    Question. So this memo is only from the Military Office and you 
have no knowledge of anything--this memo doesn't mention anything about 
the Communications Agency. I was wondering if you know anything about 
this being connected to anything related to the Communications Agency.
    Answer. All I can say is this. It is my understanding now that the 
White House Military Office has oversight over a number of units within 
the White House, one of which is the White House Communications Agency.
    Question. That's Deposition Exhibit 5.
    Okay, why don't we move along, then, to the videotapes.
    Answer. I'd be happy to do so.
    Question. Did there come a time where you were asked about any 
videotaping or audio taping that was done at the White House that would 
be responsive--did there come a time when you were asked about any 
responsive video or audiotapes, that would be responsive to our 
subpoenas or Senate subpoenas?
    Answer. Let me answer the question in this manner, which basically 
would take us to the beginning incident where the story starts.
    On August 7th, 1997, I attended a meeting with Lanny Breuer, Don 
Bucklin--Don Bucklin is the senior counsel to the Senate Committee on 
Governmental Affairs--and with Jeff Robbins, who is, I believe, the 
deputy minority counsel of that same committee. The meeting was to 
discuss a number of topics, including ongoing document compliance 
issues. The meeting occurred in Mr. Breuer's office the afternoon of 
August 7th, 1997.
    Question. And can you tell us what occurred at that meeting?
    Answer. Sure. As I said, the meeting--at the meeting, numerous 
items were discussed, from broad document compliance, difficulties in 
issues, to specific requests. At this point we had just received a 
subpoena from the Senate. There was some discussion as to some of their 
requests, trying to get a handle on what their requests were.
    The meeting lasted approximately, at this point, best estimate 
would be about 45 minutes. At the close of that meeting, after Mr. 
Breuer and Mr. Robbins left to attend another meeting with Senate 
majority-minority staff on another topic, also in the Old Executive 
Office Building, I had a brief discussion with Don Bucklin, as the two 
of us remained in Lanny Breuer's office.
    During that discussion, Don Bucklin asked me or indicated to me he 
had one additional item that he wanted to discuss. At this time it is 
just Mr. Bucklin and myself in Mr. Breuer's office. From what I can 
recall, and these may not be precise words, Mr. Bucklin said to me that 
he had a source, the reliability of which he would not attest, who told 
him that everything in the Oval Office was recorded, video and audio 
recorded.
    I looked at him, he looked at me a little funny, because it was a 
somewhat unusual request, but I agreed with Mr. Bucklin I would try to 
find out whether in fact such clandestine video and audio taping of 
meetings in the Oval Office existed. He then left.
    Either later that day or perhaps the next day, which I think would 
have been a Friday, I let Mr. Breuer know that Mr. Bucklin had made 
this somewhat unusual request, and it was agreed that I would try to 
identify the person who would know the answer to that somewhat unusual 
question.
    Sometime the following week, in a meeting between--a meeting 
involving Mr. Breuer, Mr. Ruff and myself, I believe on another topic, 
I communicated to Mr. Ruff the nature of Mr. Bucklin's request as to 
whether there was clandestine video and audio taping in the Oval 
Office.
    Question. Whose word was ``clandestine''?
    Answer. ``Clandestine'' is my word. I don't have a recollection 
that Don Bucklin used that word. I don't know if he used the word 
``secret'' or ``hidden,'' but clearly when I left that conversation I 
had the distinct understanding that he was speaking of clandestine 
taping in the Oval Office.
    That was what I communicated to Mr. Breuer, perhaps that day or the 
next, and what I communicated to Mr. Ruff along with Mr. Breuer 
sometime during the middle of the next week.
    It was agreed at that meeting that I would try to identify the 
appropriate official who would have the answer to such a sensitive 
question.
    Question. What did Mr. Ruff say to you?
    Answer. He said to me that I should try to find out from the 
appropriate official whether such recording did exist. He was skeptical 
as to the existence of such recordings, but agreed that I would have to 
try to find the appropriate individual to answer the question 
accurately.
    Question. What did Mr. Breuer say to you when you told him back on 
August 7th, later that day?
    Answer. And it might have been the next day, I'm just not sure. I 
think he had a similar reaction as the reaction Mr. Ruff had, which is 
a reaction of some skepticism that such taping actually existed, given 
recent history, but that we would endeavor to find out what the answer 
to the question was.
    Question. And did they, either of them, suggest who you should talk 
to about it?
    Answer. No, I--at some point the name WHCA was brought to my 
attention, or the entity WHCA. Mr. Bucklin, in our initial August 7th 
meeting, I don't think used the term WHCA, White House Communications. 
I do have a recollection he said it's some unit of the Department of 
Defense, but I don't think he used the word WHCA at that time period.
    But at some point in the week or 10 days that followed, the name 
WHCA was brought to my attention, and it was agreed that I would try to 
find the appropriate individual at WHCA who could answer that question.
    Question. And that was an agreement you had with Mr. Ruff and Mr. 
Breuer, then, that you would try to seek out who that person was at 
WHCA?
    Answer. Wasn't so much an agreement, it was an instruction to me 
that I would try to do that, yes.
    Question. Did they give you a deadline or a time frame within which 
you should do this?
    Answer. No explicit deadline, other than handle it in the course of 
things as I was handling, as we were working on ongoing document 
productions.
    Question. And then what did you do next?
    Answer. All during this month, as I know you are aware, because you 
received documents, we were producing documents, including e-mails. So 
that was really the primary focus of what I was doing, as well as 
handling multiple, multiple informal requests from the Senate as they 
were gearing up during the recess for their fall hearings.
    So as part of handling their various informal requests and in 
responding to their subpoena, I was--also on my list was to figure out 
the answer to this question.
    Sometime--well, not sometime--on Tuesday of the following week, and 
by this point I had not reached out to anyone at WHCA to try to find 
out who the person would be, we got a letter from Mr. Bucklin. The 
letter was dated Tuesday, August 19th, I believe. It was a Tuesday, 
whether it was the 19th or 18th, I don't have a sense of it in front of 
me.
    Can we take one break?
    Ms. Comstock. Sure.
    The Witness. I have a calendar in front of me of dates which will 
help me. I think it will help this process go more quickly. It is 
simply a calendar listing the days of the year of 1997.
    Ms. Comstock. Maybe what we should do is make copy of that for the 
record so that we can have in the record what you are referring to.
    The Witness. We can make a copy of 1997.
    Ms. Comstock. Do you want to take a break and do that so the 
minority has one too?
    The Witness. I think that would be the best, thank you very much.
    [Brief recess.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay, returning to the record, we were discussing events 
in August of this year.
    Answer. I believe I was about to discuss a letter that we had 
received on Tuesday, August 19th, and I have a calendar in front of me, 
the record should reflect.
    Ms. Comstock. And we will go ahead and make that Deposition Exhibit 
Number 6.
    [Imbroscio Deposition Exhibit No. MI-6 was marked for 
identification.]
    The Witness. Okay. And just to be clear, it is a calendar of simply 
days and months.
    Ms. Comstock. In 1997.
    The Witness. Yes.
    Sometime on August 19th, 1997, our office, Mr. Breuer particularly, 
received a letter from Mr. Bucklin that raised several topics, one of 
which was a follow-up of our August 7th discussion at the close of the 
meeting.
    Mr. Bucklin had asked, he had mentioned he had spoken to me on 
August 7th and asked in his letter a quite different question, or a 
broader question than he had asked of me at the August 7th meeting. 
This request was now not simply whether they were taping in the Oval 
Office, tapings in the Oval Office, but more generally what was it that 
WHCA does and what do they have that could potentially be responsive to 
their subpoenas.
    We received that letter on the 19th. I don't recall when I first 
had notice of it. Probably not that day, probably the next day, simply 
because sometimes it takes a day for the letters to get circulated in 
our office, particularly if it came late in the day, which I simply do 
not know.
    After getting that letter, I believe I had a discussion with Mr. 
Breuer where it was basically indicated, the existence of this request, 
and that I would continue to follow up on it as I had set out to do 
with respect to their secret Oval Office tapings request of August 7th.
    So it was either later that week, which according to the calendar 
would have been sometime the 21st, 22nd, or perhaps early the next 
week, which would be Monday the 25th, I set about to try to find the 
official at WHCA who could answer my question.
    As an aside, WHCA is somewhat of a unique agency in the White 
House. They do not--the members of WHCA do not appear in our phone 
book. There is no listing for WHCA nor is there a listing of any of the 
officials of WHCA. The one WHCA number that does appear in our phone 
book is a WHCA customer service number. That is the number we are asked 
to call if we would have any trouble with our pagers. WHCA is also the 
entity that provides us with our pagers.

                      EXAMINATION BY MS. COMSTOCK:

    Question. So prior to this August 19th letter, when you said you--
after that August 7th meeting, which was a Thursday, you said sometime 
in the next week you had talked with Mr. Ruff and Mr. Breuer and they 
had told you to find the person who could answer any questions----
    Answer. A specific question related to oval office tapings.
    Question. And prior to August 19th, you had found out nothing?
    Answer. Yes. I had many other items on my plate, including 
responding to the new round of requests that came in from the Senate, 
and frankly this was not at the top of my priority list at that point.
    Question. Why is that?
    Answer. I suspect the reason is, quite understandable, that we were 
in the middle of what was a pretty massive document production, 
producing I think over 10,230 pages of documents, including over 5,230 
pages of e-mails over this period, and that was my primary obligation, 
to respond to the written requests, and at this point it had become a 
Senate subpoena.
    For that reason it was not at the top of my ``to do'' list. After 
the August 19th meeting, I tried to, as I was about to testify----
    Question. You mean the letter?
    Answer. I'm sorry, yes, thank you very much. After receiving the 
letter and notification of the letter, sometime over the next couple of 
days I tried to find the official, an official at WHCA who would be 
sufficiently senior enough to answer what was a particularly sensitive 
question relating to secret Oval Office recordings.
    Question. To your knowledge, had Mr. Ruff talked to anybody about 
this prior to this time?
    Answer. To my knowledge, absolutely not.
    Question. Or Mr. Breuer?
    Answer. Not that I recollect.
    Question. Was there anybody else in the counsel's office you told 
about it in the time frame between August 7th and August 19th, when the 
letter came in?
    Answer. No one else.
    Question. You never told Mr. Nionakis about this request?
    Answer. No, I don't believe that I did. You know, we all had a full 
plate of items to handle. This was on my plate, and I don't recall 
discussing it with any of the other lawyers in the office. I'm not 
saying that this might have come up in a discussion, sort of what are 
you working on, what am I working on, but I have no specific 
recollection of discussing this particular request with any of the 
other lawyers apart from Mr. Breuer and Mr. Ruff.
    Question. And do you have daily meetings with this group that 
include Mr. Breuer, or how are your meetings that you have?
    Answer. As I think I said earlier, there is no set pattern. It 
depends very much on the nature of what is going on around us. If we're 
in the middle of hearings, we tend to meet more often than if we're not 
in the middle of hearings. Obviously, August was a month that, as you 
are aware, that the Congress and Senate were on recess and you all got 
to take vacations, I hope. No?
    Question. Let the record reflect not too many people took much of a 
vacation in August.
    Answer. Fair enough. But people were in the office less regularly 
during this period and, thus, there was not a series of regular--
certainly no series of regular meetings during this time period.
    After trying to get back to it, after receiving the letter, as I 
said, WHCA appears nowhere in the phone book. It is sort of a unique 
agency. I called up the number that appeared in the phone book, which 
was the customer service number of WHCA, and asked them where they were 
physically.
    I then went to that area, which was the area where I had picked up 
my pager, I think on my first day of employment on March 3rd, and asked 
a few of the career military people there who would be the head of the 
agency that I could talk to. I think the name they gave me was Mr. 
Steven Smith. I then set about to have a meeting----
    Question. Do you know who you asked when you called? You just got 
somebody on the phone?
    Answer. No. Well, I talked to somebody on the phone, asked them 
where they were, and actually physically went there to that office.
    Question. And where was that?
    Answer. It's also on the fourth floor, in the opposite corner of 
where my office is located.
    Question. And how much of an office do they have there?
    Answer. They have a room with some desks and cubicles, which is 
their customer service center, as I understand it.
    Question. So you went to that room to find out who to talk to?
    Answer. I went to that room. I wanted to find out where they were, 
and that is what I did in my phone call. Then I walked down, either 
after the phone call or maybe a short while later, I don't recall 
specifically, to talk to a human being in that room to try to identify 
an appropriate person.
    Question. Prior to that time you were not aware that that office 
was on the fourth floor?
    Answer. I suppose I was aware of it, because that was the office, 
when I walked in I realized was the office I picked up my pager on my 
first day, but I had long since forgotten that is where that office was 
or that was in fact the office that I was calling when I called the 
number.
    So I walked in the office and asked a couple of people there who 
had uniforms on, I don't recall what branch of service they were even 
in, and the name they gave me was Mr. Steven Smith.
    After obtaining Mr. Smith's name, I set about to schedule a meeting 
with him, and we ended up meeting sometime the latter part of the last 
week in August, which could have been anywhere between the 27th, 28th 
and 29th. I don't have a firm recollection of when the date was.
    Question. So you went down to the office sometime a day or two 
after this August 19th letter, then you set up a meeting for the 
following week?
    Answer. That's right. I don't have a firm recollection what day I 
actually went to their customer service center to get his name. I 
believe it was the latter part of that week. It might well have been 
the first part, Monday, or Tuesday of the following week, but sometime 
in the aftermath of receiving the August 19th letter I did that.
    Question. And where is Mr. Smith's office?
    Answer. Mr. Smith's office, I learned, was on the fifth floor of 
the Old Executive Office Building.
    Question. And was this appointment--was Mr. Smith not available 
that day to talk with?
    Answer. I don't recall the specifics of setting up an appointment, 
whether we had missed each other on phone calls. Mr. Smith, I 
understand, has an office on the fifth floor but also has duties 
outside of the complex, as well, and so is not there on a 9 to 5 basis, 
as many of the other career people are. There might have been some 
difficulty in setting up a meeting immediately, but what I do recall is 
we did meet the latter part of August 1997.
    Question. And did you have any discussions with anybody prior to 
that meeting, just about ``I found who I am supposed to talk to,'' or 
report back in any way?
    Answer. Not that I recall. Not that I recall, no.
    Question. And you had told Mr. Breuer and Mr. Ruff sometime 
following the August 7th meeting about the request of the Oval Office 
tapings, and then the letter came, and you don't recall any other 
discussions with Mr. Breuer or Mr. Ruff about this prior to your 
meeting with Mr. Smith?
    Answer. I certainly recall not discussing it with Mr. Ruff. I had 
only the single discussion I had mentioned. I very well might have had 
a discussion with Lanny to give him a status report that either I had 
found the person or I had scheduled a meeting with the person. I have 
no specific recollection of such a conversation, however.
    Question. Going back to that meeting after the August 7th when the 
request was made of you, that meeting was only with you, Mr. Ruff and 
Mr. Breuer; is that correct?
    Answer. That's correct. It was in Mr. Ruff's office.
    Question. And how did that meeting come about?
    Answer. I don't have a specific recollection. My sense is we were 
meeting for another reason.
    Question. Do you recall what that was for?
    Answer. No, I don't. But the reason I think that is because it was 
at the tail end of that meeting that I recall raising this issue. I 
don't know why we were meeting at that point.
    Question. Do you meet with Mr. Ruff often?
    Answer. Mr. Ruff prides himself on having an open door policy, and 
I meet both informally and formally with Mr. Ruff on numerous 
occasions.
    Question. How often, since March, if you recall?
    Answer. Well, if you mean formal meetings, Mr. Ruff has a weekly, 
sometimes twice a week staff meeting with all the lawyers in the 
counsel's office, not just our team handling this matter, this 
investigation, to use your term. So there are certainly those meetings.
    We also occasionally have more focused meetings with just the 
investigative team and Mr. Ruff. There are also numerous informal times 
when I walk into Mr. Ruff's office if I have a specific question or 
want his advice on a particular topic.
    Question. Would that be on some documents you were reviewing that 
you would have discussed with him?
    Answer. Perhaps, but that would be unlikely. It would be just more 
general advice or guidance.
    Question. Can you generally recall what some of those occasions 
were?
    Answer. No, I mean I really can't. You know, Mr. Ruff is my 
ultimate boss and I have the sort of communications and interactions 
with him as you might expect with any--as you do, I am sure, with the 
chairman or with people, with Mr. Bennett. We talk about office-related 
matters, sometimes we talk about personal and private matters as well; 
who is going to win the World Series.
    Question. You don't recall the other topic of this meeting?
    Answer. No, I'm sorry. I have given it some thought and I just 
can't recall what it was.
    Question. And did you sort of spontaneously bring this topic up in 
the meeting with Mr. Ruff, or had you told Mr. Breuer that you wanted 
to raise this with Mr. Ruff?
    Answer. I don't recall whether I brought it up spontaneously. I 
somewhat doubt I would have done it that way. I probably--I don't want 
to speculate, and this is pure speculation.
    Mr. Lynch. Well, don't do it.
    Mr. Ballen. Don't do it; right.
    Mr. Lynch. Don't do it if it is pure speculation.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am trying to get a sense, if you brought this up in a 
meeting with Mr. Ruff, did Mr. Ruff appear to know about it; that Mr. 
Breuer had told him?
    Answer. Absolutely not. It was clear this was the first time that 
Mr. Ruff had been made aware of Mr. Bucklin's request on August 7th.
    Question. Because you had told Lanny Breuer sort of sometime either 
the day you learned or the next day?
    Answer. That is correct. That was my testimony.
    Question. And then this meeting with Mr. Ruff is the next week or 
so, so some days after you had told Lanny Breuer. And you have no 
knowledge of anybody else that Mr. Breuer told about this request?
    Answer. I have no knowledge.
    Question. And Mr. Ruff, it is your testimony, was sort of skeptical 
about whether any type of taping system existed?
    Mr. Lynch. Taping existed?
    Ms. Comstock. In the Oval Office.
    Mr. Ballen. Clandestine taping.

                      EXAMINATION BY MS. COMSTOCK:

    Question. ``Clandestine'' was your word, you have told me. Mr. 
Bucklin's request wasn't asking you, he didn't use the word 
``clandestine.'' Isn't that correct?
    Answer. As I testified, I don't recall him using the word 
``clandestine.'' I don't know whether he used another word, like 
``secret'' or ``hidden'' camera, but what I do recall coming out of 
that meeting is the very clear impression that he was asking me whether 
there was secret or clandestine taping in the Oval Office. It is fair 
to say that Mr. Ruff's reaction was skepticism.
    Question. Did Mr. Ruff ever indicate if he was going to talk with 
the President about it or ask him anything about it?
    Answer. He never gave me any such indication, no.
    Question. Did he indicate whether he was going to talk to Mr. 
Lindsey about it?
    Answer. Again, no. It was resolved at the end of that meeting, as I 
said, that I would set about to try to find the appropriate WHCA 
individual. And, again, I don't know if WHCA, at that point I knew the 
name WHCA or not, but I would try to find the appropriate individual 
that could answer that question.
    Question. I think the record already reflects it, but I will make 
it clear: The conversations that you have recounted with Mr. Breuer and 
Mr. Ruff are the only conversations you had about this up until the 
time you met with Mr. Smith?
    Answer. Yes, that's my recollection.
    Question. And why don't we go into that meeting.
    Answer. Sure. The meeting took place in Mr. Smith's office on the 
fifth floor of the Old Executive Office Building. Mr. Smith, as I 
understand it, is the operations director of WHCA. The meeting lasted 
probably around 45 minutes, approximately.
    The meeting began with me introducing myself, explaining to Mr. 
Smith that I was a member of the counsel's office and part of the team 
handling the various investigations ongoing, and let him know that we 
had received a request from Senator Thompson's staff related to two 
topics.
    The first topic we discussed was the tie to the first question Mr. 
Bucklin had asked me on August 7th, which was whether, in fact, there 
was any sort of secret or clandestine taping system of meetings and 
conversations in the Oval Office. And after some discussion, Mr. Smith 
reported to me that no such taping existed.
    Question. Can you describe the discussion?
    Answer. I believe the discussion was mainly on my part. This was a 
rather extraordinary request. My effort was to communicate the 
seriousness of the request and the essential need to get the correct 
answer, and to try to probe his complete state of knowledge. I was 
trying to identify if in fact he would be the man who would know or the 
individual who would know whether in fact it existed.
    Question. And what did you ask him?
    Answer. I don't recall specifically. I recall asking him generally 
what his role was and what he--what generally his position was.
    I recall asking him questions about what sort of recordings, if 
any, took place in the Oval Office. And at the end of that discussion I 
was informed that no such secret or clandestine meetings in the Oval 
Office were recorded.
    Mr. Lynch. Can you read that back, because I think you may want to, 
the way it came out, you may want to rephrase it.
    [The reporter read back as requested.]
    The Witness. I think it is probably more accurate to say were made. 
No such secret or clandestine recordings were made.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Because you were asking generally about what type of 
recordings were made in the Oval Office?
    Answer. I was asking him specifically whether there was any sort of 
secret or clandestine video or audio taping system for meetings in the 
Oval Office.
    Question. Did you ask him if there were any recordings of meetings 
in the Oval Office?
    Answer. I will turn to that, but at this point in the conversation, 
no, it was not at that level. It was generality. It was trying to 
ascertain whether there were any clandestine recordings in the Oval 
Office.
    Question. So is this discussion sort of like, ``Are there any 
secret switches? Is there something like Nixon had?'' Is that the kind 
of discussion you are having? ``Is there something we don't know about, 
that is not known publicly?'' Is that what you are asking him about?
    Answer. That is accurate, to characterize it that way, and the 
answer was no, there is no such system or secret switches, as you put 
it.
    I next went into the more general topic, which really traced the 
request made in Mr. Bucklin's August 19th letter, which was my effort 
to ascertain what precisely WHCA did and what kind of video or audio 
records they would have and potentially what responses they might have.
    Mr. Smith then explained to me for some time the general mission 
and purpose of what WHCA does. He explained to me that WHCA, for the 
most part, is simply another camera crew along with the press, 
recording and documenting for archival purposes the presidency.
    He explained----
    Mr. Ballen. I'm sorry, the President's what?
    The Witness. The presidency, period.
    He explained that oftentimes they are simply another camera crew 
along with CBS, NBC, ABC and the others, recording the President's 
public and open appearances. And when I say public or open, I mean open 
to the press, not necessarily open to the general public.
    He explained to me that they typically did not--he also--put that 
aside for a minute. He also told me that at small events when there is 
only one pool camera--apparently, the way it works is if it is a small, 
closed--a small event with limited space, there would only be one 
network camera that would rotate to cover the event, but they are 
always an additional camera along with the pool.
    I asked him whether they would record fund-raisers, and he told me 
that typically they would record the President's remarks at such fund-
raisers, the President's speech, and occasionally his entrance into the 
room. I believe he also told me that sometimes usually the press are at 
some of these events as well, so again they are at the same event as 
the press is.
    I then, trying to understand precisely what they did, went through 
a litany of items to try to find out whether, in fact, they recorded 
certain types of items. On my list, I don't recall everything on the 
list, but certainly I recall a few of the things. One of the items was 
fund-raisers, and he gave me the response I just gave to you.
    I asked him whether meetings, small private meetings in the Oval 
Office, would be videotaped. I had in my mind in asking that question, 
for instance, whether the September 13th, 1995 meeting with Mr. Huang, 
Mr. Riady and Mr. Giroir would have been something that would have been 
videotaped, and he replied that that--Mr. Smith replied that that would 
not be something they would videotape, it being a small, private, 
closed meeting.
    I then went through a few other items. I believe I asked him about 
political dinners, and I have a recollection he gave me the same 
answer, which is that he would record the President's speech at such 
events and perhaps an entrance into the room.
    I recall asking him whether coffees would have been recorded, and 
gave him a description of what these coffees were: These were closed, 
private meetings, small group meetings that occurred typically in the 
Map Room. And I recall him telling me those would not be the types of 
events typically that would be recorded.
    Question. Did you ask him those types or----
    Answer. I recall mentioning the word ``coffee.'' Certainly they are 
not figured prominently in my litany of items. And I recall describing 
what these events were.
    Question. You were referring to the White House coffees that had 
been in the press?
    Answer. In my mind, that is what I had in my mind, because I was 
going through an event of what happens--going through a list of what 
perhaps could be responsive events; described them as they are, which 
were the small private gatherings typically held in the Map Room. And I 
recall he responded to me those would not be the types of events that 
they would typically record.
    I recall asking him about a few other items, one of which, I 
believe, was radio addresses, and I recall he told me that they 
typically would record the President's remarks at the radio address.
    By the time we got to this litany, we were probably quite near the 
end of the meeting, perhaps the last 5 minutes of the meeting, and I 
thanked him and I left the meeting.
    Question. How were things left at the end of that meeting?
    Answer. It was left as follows: I had asked him if he could try to 
ascertain for me what types of records or files or file cabinets or 
indexes they might have of events that were recorded, because I 
personally wanted to thumb through them so I would have a better 
understanding of what, in fact, they did record.
    Question. So you asked him for a complete index?
    Answer. I asked him--I didn't say give me a complete index. I asked 
him generally, ``What kinds of files or records do you maintain?'' 
Because I had in my mind the desire to want to go through such a file 
cabinet or such a binder of events to ascertain whether, in fact, there 
is anything that would be responsive to the request.
    Question. And did you in fact learn of such a record or index?
    Answer. Much later into the story. It will probably fit in quite 
naturally as I move forward, if you don't mind.
    Question. Sure.
    Mr. Lynch. Are we going to break for lunch at all?
    Ms. Comstock. I know we sort of have a four o'clock deadline. We 
can go off the record for a minute.
    [Whereupon, at 1:25 p.m., the deposition was recessed, to reconvene 
at 2:00 p.m. the same day.]
    Mr. Bennett. For the record, I'm Richard Bennett, chief counsel to 
the Committee on Government Reform and Oversight. It has been brought 
to my attention that there was a contention made earlier today that 
Minority counsel had previously indicated opposition to this 
deposition. Mr. Ballen can respond in a minute. I want to say that 
until that was brought to my attention this morning, that I have not 
received any correspondence from Minority counsel or any Minority 
member of the committee with respect to opposing the depositions, that 
to my knowledge there was certainly, at least as to this matter and the 
matter of compliance with the subpoenas issued by this committee, a 
bipartisan consensus that there must be compliance with our subpoenas.
    We attended last Friday at the White House, Barbara Comstock and I, 
accompanied by Dudley Butch Hodgson, an agent assigned to the Majority, 
as well as Mr. Kenneth Ballen, the chief Minority counsel, attended a 
meeting at the White House counsel's office last Friday October 10, 
1997 at which Mr. Ruff was in attendance, Ms. Cheryl Mills and Mr. 
Lanny Breuer.
    For the record, Mr. Ruff indicated his willingness to have us 
conduct any interviews of White House counsel personnel, and I 
indicated my insistence that I felt that White House personnel in the 
counsel's office needed to be placed under oath and be deposed. It was 
my recollection that there was no opposition voiced by Mr. Ballen at 
that time, that there has as we speak, until this very moment, never 
been any opposition, and indeed I recall Congressman Waxman at a 
hearing at some point a week and a half ago or a week ago finding that 
he felt it, I believe he used the word ``inexcusable.''
    So I think it's important to put this on the record. There has not 
been any contention about this and to the extent that there is a 
representation on the record that someone has told me that there is 
opposition to it, I have not heard one word of opposition until I was 
advised by Ms. Comstock here, who is conducting the deposition this 
morning, that there had been placed on the record a contention that 
previous opposition had been indicated. So I think it's important to 
put that on the record.
    Mr. Ballen, if my recollection is not correct, you need to put that 
on the record.
    Ms. Comstock. That was my recollection also, which I have reflected 
this morning on the record.
    Mr. Ballen. I agree with Mr. Bennett's representation at the 
meeting with Mr. Ruff. That is an accurate reflection. I don't dispute 
anything you said other than that. Perhaps I'm mistaken.
    Ms. Comstock. Because the representations this morning were that--
--
    Mr. Ballen. Could I finish, please?
    Ms. Comstock. I would like for the record to reflect that there 
were independent----
    Mr. McLaughlin. Could you just let him finish his comment before 
you start blabbing on the record?
    Ms. Comstock [continuing]. That there was a representation by Mr. 
Ballen that he had had an independent conversation with Mr. Bennett 
that I was not aware of and I think that is what was directed this 
morning on the record.
    Mr. Bennett. Go ahead, Ken.
    Mr. Ballen. Thank you. No, I don't dispute Mr. Bennett's 
recollection and I don't want to engage in a debate over that. I stated 
mine to the best of my recollection, but I don't dispute his 
recollection whatsoever. There was--because I won't do that. There was 
a letter sent from Mr. Condit's office representing the views of the 
Minority Members of this committee. My understanding is that letter was 
sent out yesterday, early afternoon to the Chairman. I don't know why 
you did not receive that. I don't understand why you didn't receive it. 
It was told, represented, to me that the letter was sent and delivered 
to this office that we are in now, the chairman's office, yesterday. 
More than that, I can't add to that, and that does represent the views 
of not only Mr. Condit but the Minority Members of the committee.
    Mr. Bennett. We are here to depose a witness. I don't want to get 
into that. But just so the record is clear, one, in terms of my 
understanding of the depositions and at some point in time we can go 
into the matter in opposition to this, but just so the record is clear 
in terms of my view as chief counsel, it is hard for me to imagine any 
meaningful effort at determining facts if there isn't some consensus 
that subpoenas need to be complied with, and that is our thrust. Our 
thrust is not to cast aspersions on anybody in terms of the matter of 
subpoena compliance, but it is hard for me to imagine that anybody on 
the committee, be they Majority or Minority, which I believe was the 
tone of the expression of Congressman Waxman a week ago was that we 
need that compliance with our subpoenas. That is why I would at least 
hope on this matter there can be some agreement. We can discuss this at 
a later point in time, but I just wanted to clarify the record on that 
and I thank you for allowing me to do.

                      EXAMINATION BY MS. COMSTOCK:

    Question. When we broke for lunch, we were discussing the meeting 
at the end of August that you had with Steven Smith. I believe you had 
finished all your recounting of that meeting, is that correct?
    Answer. That's my recollection, yes.
    Question. In the course of that meeting, I just have a few follow-
up questions, did he discuss with you at all any paperwork or anything 
that was sent to his office in order to make requests that events be 
taped?
    Answer. Not that I can recall.
    Question. Did he discuss the process by which his office made 
decisions about taping events?
    Answer. I don't recall a specific discussion as to the process. 
Certainly in the context of our larger discussion of what they did and 
what they did not do, I suppose implicit in that discussion is some 
understanding of their process. But I don't recall a specific 
discussion or question and answer colloquy along the lines of, ``What 
is your process? My process is X.''
    Question. And following that conversation that you had with Mr. 
Smith, what was the next action that you took regarding the videotapes 
and audio tapes?
    Answer. As I testified, that meeting occurred somewhere the latter 
part of the last week of August, 27, 28th or 29th. I simply don't 
recall. Sometime during the next week, I had a telephone conversation 
with Mr. Bucklin. It was not uncommon for Mr. Bucklin and I to speak on 
a wide variety of topics. In that conversation I recall indicating to 
him that I could--I had met initially with a representative of WHCA and 
I could report back to Mr. Bucklin and Minority staff the results of my 
preliminary inquiry. That meeting ultimately took place on September 9, 
the meeting occurred in Mr. Bucklin's office in the Senate committee. 
Present at that meeting was Mr. Bucklin, Mr. Robbins, who I believe is 
deputy Minority counsel for the Senate staff, and Ms. Maggie Hickey, H-
i-c-k-e-y, who is on Mr. Bucklin's staff.
    Question. Did you tell us what occurred at that meeting?
    Answer. Certainly.
    Mr. Lynch. Do you have a date for this?
    The Witness. Yes, that meeting took place on, I think I September 
9, 1997.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Was there a letter either prior to that or on that date?
    Answer. I am aware--relating to this topic?
    Question. Yes.
    Answer. I am aware of no letter on or about that date. At that 
meeting I set about to try to communicate to Mr. Bucklin, Mr. Robbins 
and Ms. Hickey what I had learned in my meeting a short time earlier 
with Mr. Smith. I recall initially discussing or revealing the fact----
    Question. Was this just you, as the only person from the White 
House counsel's office?
    Answer. Yes, that's my recollection.
    Question. Had you informed anyone in your office that you were 
going to be meeting with them?
    Answer. I believe I did. I believe I spoke with Mr. Breuer and he 
was aware that I was meeting with Mr. Bucklin.
    Question. Prior to the meeting and from the time you talked to Mr. 
Smith, did you talk to Mr. Breuer after that and tell him you were 
talking to Mr. Smith?
    Answer. I don't have a specific recollection of having such a 
conversation with Mr. Breuer. All I recall is I informed him of my 
intention to meet with Mr. Bucklin and others on the Senate staff to 
inform them of what I had learned from Mr. Smith of WHCA.
    Question. What did you tell Lanny Breuer you were going to be 
telling Mr. Bucklin and the Senate staff?
    Answer. Frankly, I have no recollection of what, if anything, I 
said to Mr. Breuer in that conversation. I don't know if I went through 
point by point everything I just told you or if I just provided to him 
more generally that I was going to make a status report. I simply don't 
recall.
    Question. So you can't recall if you even mentioned to Lanny Breuer 
that I'm going to tell them what I talked to WHCA about?
    Answer. As I think I said, I have a vague recollection of informing 
Mr. Breuer that I was going to be making a status report to Mr. Bucklin 
and others on the staff. What I can't recall is whether I gave Mr. 
Breuer a synopsis of what that status report would be.
    Question. This being the status report on subpoena response 
generally or in response to the August 7 and August 19 requests?
    Answer. The latter.
    Question. You can continue with the meeting.
    Answer. And so at that meeting, which occurred in Mr. Bucklin's 
office on September 9, I set about to try to relay the information that 
I had learned a short while earlier from Mr. Smith. I relayed first, 
and not surprisingly, that there is no clandestine, secret Oval Office 
recordings, and second, I described more generally what it was I 
learned and what I understood at the time to be WHCA's role and what 
they in fact filmed. I let Mr. Bucklin and the others in the room know 
that it was my understanding that WHCA generally filmed open press 
events and that they are another camera, as with the networks and other 
cameras, involved in documenting the President. I recall specifically 
informing them that the President--that fund-raisers were recorded more 
specifically, that the President's remarks at fund-raisers are recorded 
and that occasionally a few minutes, or a few seconds of him entering 
the room to the fanfare.
    I recall in response to a question whether coffees were also 
filmed, and I don't recall who asked the question. Someone in the room. 
I have no firm recollection who it was. I said it was my understanding 
that these were not the types of events that were filmed, but indicated 
that I would inquire further.
    Question. At that time you didn't have understanding either way 
whether those events had been taped or not?
    Answer. No, I think what I just said is that I communicated what I 
had learned from Mr. Smith sometime earlier, which is it was my 
understanding that those were not the types of events that would have 
been filmed. But I agreed to check further in response to that specific 
question. And just so we're clear, that was the first time in my 
communications with Mr. Bucklin and others that the word ``coffee'' had 
ever surfaced with respect to videotapes. That was on September 9.
    Question. When you had met with Mr. Smith back at the end of 
August, did you ask him were White House coffees taped?
    Answer. I think I testified about that earlier. What I did is I 
went through a litany of events, one of which I'm quite certain was 
coffees, and I recall describing what these coffees were, which were 
small private meetings that typically occurred in the Map Room. But 
again just so we're clear, that was a list of my own creation and not 
in response to any specific request at that time from the Senate 
committee.
    Question. Was this discussed further in that September 9 meeting 
with Mr. Bucklin?
    Answer. No. How the meeting ended was after the specific request 
for me to follow up on coffees, which I agreed to do, I said that I was 
in the process of trying to ascertain what, if any, kinds of records 
that WHCA maintained of these events so that I could be more 
comfortable in searching them and responding precisely, in getting 
precise answers to their questions.
    Question. So between the end of August, whenever you had this 
meeting, and September 9, you had not sought out those records at all?
    Answer. As I testified, where we left it--where I left it with Mr. 
Smith was he was going to get back with me to let me know what, if any, 
kinds of records they would have that could be manually looked at by 
me.
    Question. And he never got back to you?
    Answer. He did not get back to me on that point for some time, 
which I'll go into in a few minutes.
    So after that meeting, which again was September 9, I was also--by 
this point the Senate hearings had recommenced, as well as we were 
producing documents, so I was--my primary focus during this period was 
to produce documents as quickly as possible, particularly the E-mails 
which we had been getting back since the end of August and which we 
have produced to this committee as well as to the Senate since that 
time period, as well as the Senate hearings were ongoing.
    The next week the Senate hearing topic was, as you probably recall, 
Roger Tamraz and matters relating to Mr. Tamraz. That was one of the 
matters for which I was an attorney involved and thus spent a good deal 
of the next week in preparation for and working on those days of 
testimony.
    Question. Were you the lead attorney who worked on Roger Tamraz 
matters?
    Answer. Lanny Breuer is the lead attorney on all of our matters. 
Because there are a wide variety of topics that this investigation and 
other investigations are looking into, it tends to work out that 
particular attorneys develop certain expertise in particular areas. It 
just so happened that one of the areas in which I had developed some 
limited expertise was our friend Roger Tamraz.
    Question. Aside from your friend Roger Tamraz?
    Answer. I say that with a grin, and the record should reflect we 
are both grinning.
    Question. Aside from everybody's friend Roger Tamraz, what other 
areas of expertise did you work on or did you develop?
    Answer. That was primarily my----
    Ms. Comstock. If the record could reflect that Mr. McLaughlin, if 
you could restrain yourself from gestures and things during the 
deposition, I think that would be productive here.
    Mr. McLaughlin. I consider myself free to communicate with Mr. 
Ballen by whatever means I choose and deem necessary.
    Ms. Comstock. Let the record reflect that Mr. McLaughlin chooses to 
make ridiculous hand gestures throughout the deposition.
    The Witness. Let me give my best answer to your question, and I 
would like to get back to the story, which I think is important. Apart 
from Roger Tamraz, there really is no other particular area that I 
developed expertise. He was by and far the person that I was involved 
with. That largely stems from the fact that I was one of the first 
people on the staff to get security clearance and because, as you are 
certainly aware, several of the documents that went to Roger Tamraz 
require security clearance. It was by happenstance that I became the 
person on that matter.
    But getting back----
                      EXAMINATION BY MS. COMSTOCK:
    Question. So other than the Tamraz matter, you normally would not 
be pulled off of document production for handling matters like that?
    Answer. And frankly I was not pulled off of document production. I 
think all during that week, we had made document production. I think. I 
don't have the exact letters in front of me, but we certainly produced 
documents to this committee as well as to the Senate throughout this 
time period, including I believe productions in the middle weeks of 
September. So the document production train never stops, which I think 
is important to note.
    In any event, Thursday of that week, which was the 18th of 
September, I had a preexisting obligation to be out of town to visit my 
family and was out of town the week--the days of the 18th, 19th, 20th 
and 21st, returning back into the office on Monday, the 22nd. It was 
sometime during that week that I had a conversation with Mr. Bucklin in 
which we discussed several topics, one of which was he inquired as to 
the status of following up on the WHCA issue, which was, he had 
inquired where things stood with respect to getting my hands on what, 
if any, records they would have so I could answer his questions more 
fully.
    After that conversation which, and again I cannot put on it a 
particular date, but certainly the early part of the week I returned 
from out of town from visiting my family, I had a conversation with Mr. 
Smith, which was a telephone conversation, I'm quite certain, in which 
he indicated to me for the first time that there in fact was no hard 
copy logs or indexes or binders or any other types of hard copy 
material in existence, at least in one centralized location, that could 
be searched, but rather explained to me that there was a database which 
could be queried, was his word, essentially could be searched.
    Question. So between the end of August and this conversation with 
Mr. Smith sometime after you returned on the 20th, you had had no 
communication with Mr. Smith?
    Answer. No, I didn't say that. I believe that I had communications 
with Mr. Smith sometime the first week in September, before my meeting 
with Mr. Bucklin, and sometime the week after--or in the days after my 
meeting with Mr. Bucklin on September 9. I recall meeting with Mr. 
Smith in his office two, maybe three times. Certainly the first time 
will be the one I've testified already, the end of August. The second 
time, and the second time I'm sure of was on October 1, which I will 
get to momentarily. I might have had one additional meeting with him, I 
can't recall, in his office. But in any event, I spoke to him on the 
phone----
    Question. Do you keep a calendar or anything like that?
    Answer. No. And I also spoke with him on the phone on several 
occasions. As I testified earlier, Mr. Smith, as I understand it, has 
responsibilities offsite as well and thus my understanding is there are 
some days when he is not onsite, and when I say onsite, I mean within 
the 18-acre complex of the EOB and White House. So after talking with 
Mr. Bucklin in the early part of the week, I had a conversation with 
Mr. Smith. I believe the conversation was probably on Wednesday, the 
24th, as best as I can recollect. During that conversation, as I just 
testified, he explained to me for the first time that there in fact was 
no hard copy, extant log, index or file cabinet which would include 
everything they have, but rather there was a database. He explained to 
me that he had a subordinate draw up an outline of what the various 
fields in the database were.
    Question. Did he say who that was?
    Answer. No, he did not. And he agreed to get that document to me. 
On Friday, September 26, sometime shortly before noon, either Mr. Smith 
or someone who worked with him left that document on my chair in my 
office. I was not in my office at the time. I returned to my office 
that day, Friday, September 26, shortly after noon, and received that 
document at that point. I left work around 12:20 that day to leave town 
with my wife to visit my in-laws in North Carolina. When I returned on 
Monday, now that I had this document in hand, I called Mr. Smith back 
to set about situating myself in front of whatever computer terminal 
they had to start to figure out what the heck they had.
    Question. When you got the document on Friday, did you take it with 
you over the weekend and review it?
    Answer. No, I did not. It was a one-page document which simply 
described what the various fields are in the database. And by field, I 
mean database components. In other words, some of the fields were date, 
place, event, film type, other various fields that the WHCA staff 
maintained. But I did not take it with me.
    Question. Did you tell anybody else about it on that Friday?
    Answer. I did not, no. I got back to my office, it was there, and I 
left the office.
    Question. And during this entire time when you were dealing with 
Mr. Bucklin, there was nobody else in the counsel's office who is 
working with you on this?
    Answer. That is accurate. Other than Mr. Breuer having a general 
awareness that I was following up on this issue at the request of Mr. 
Bucklin, there was no one else involved.
    Question. Was there anybody else in the office who had general 
knowledge that you were working on these matters?
    Answer. No, not that I'm aware of. Mr. Breuer would be the one. Mr. 
Breuer is my direct supervisor.
    Question. None of your other colleagues that you were working with, 
this didn't come up at any meetings or discussions about document 
production or anything like that?
    Answer. No, not that I can recall. This was a rather discrete 
issue. And I don't recall it ever coming up at any larger meeting.
    Question. You never went to one of your colleagues and said, hey, 
do you know anything about this that you might be able to help me, do 
you know where I should look? Maybe check with any other colleagues to 
see if they might have some knowledge of any of this throughout this 
August-September time period?
    Answer. Other than Mr. Breuer, no. Other than the communications 
I've already testified about with Mr. Breuer, no.
    So I returned from North Carolina late on Sunday, September 28. I 
recall I did not get home until after 10. There was a bad wreck which 
had occurred at the 495 and 95 interchange that we got caught in the 
traffic of. I returned home late in the evening, returned back to work 
on Monday, the 29th. This was certainly at the top of my to do list at 
this point.
    I placed a call to Mr. Smith, did not reach him. We exchanged 
several phone messages between, on Monday and Tuesday, and I finally 
reached him shortly after noon on Wednesday, October 1. I recall the 
time because it was getting near the lunch hour, and I requested if we 
could meet immediately.
    Question. So you started calling him on the 29th, Monday?
    Answer. Yes. I placed a call to him on Monday, and we had exchanged 
a few messages on Monday and Tuesday. I recall Mr. Smith telling me 
that he was not in the complex during this whole period. There was a 
period when he was not in the complex, and I recall that because in our 
discussion when we finally hooked up, there was some initial small talk 
saying that ``Sorry we haven't hooked up, it's been hectic.''
    I went back to Mr. Smith's office after speaking with him on the 
phone, I asked whether we could meet immediately; he said yes. I went 
to his office with the document that he had given me. In anticipation 
of that meeting, I don't know whether I did it on September 29 or 
September 30, I had prepared a list of a few items that I wanted to 
check whether they were in the database or not. These were items that 
are events of interest that I wanted to check and find out what, if 
anything, they had.
    Question. Do you still have that document?
    Answer. I think I do have that list. What was on it, I put a couple 
of fund-raisers on it, a couple of political dinners, the September 13 
meeting, and a couple of the coffees, one of the coffees for sure was 
the April 1 Roger Tamraz coffee. Again it flows back to my limited 
expertise in Mr. Tamraz. I went to Mr. Smith's office that afternoon 
with my list in hand, and I suggested to him that I would like to 
search the database. He at that point made a phone call to I believe 
what turned out to be the video unit, which was on the ground floor of 
the Old Executive Office Building. Again to remind you, Mr. Smith's 
office was on the fifth floor. And he arranged a meeting with me after 
lunch at approximately 2 o'clock and it was resolved that I would go 
down to meet with the video folks after lunch. In fact, I did do that. 
Sometime shortly after 2 o'clock, I recall, it was probably a little 
bit late, I went to the video unit, which was on the ground floor of 
the Old Executive Office Building. The exact room number, I don't have 
in my mind. I spoke there with a gentleman by the name of Charles 
McGrath, Chuck McGrath who is sometimes referred to as Chief McGrath. 
I'm not sure if the chief refers to some military designation or chief 
of the unit and thus that's what he's referred to as.
    I sat down with Mr. McGrath, in the company of a few of his 
subordinates, I don't recall specifically who was there apart from Mr. 
McGrath, and began to ask him some of the same general questions that I 
had asked Mr. Smith in our first meeting, which were questions along 
the lines of what do you do generally, what is the nature of your 
mission, what do you typically film. After some time of initial 
discussion, perhaps 15 minutes to 20 minutes, I indicated to him that I 
would like to maybe query the database. I had some sample dates, and I 
would like to query the database for those dates to find out what if 
any events were in there. I don't recall what order I searched for the 
items, but I will give you the general results.
    One thing that I had learned even before I sat down at the database 
was that the database was sort of composed of two separate components. 
And, Ms. Comstock, you will probably learn this sometime in the next 
hour and a half as well, there is what is called a regular event 
database as well as a photo op database. The regular event database is 
sort of a compilation of one tape per event or more than one tape per 
event. The photo op database is a database of essentially tapes of the 
week that would document various snippets of the President's schedule 
during any given week. For instance, one photo op tape might have the 
President arrives from Andrews, the President goes to church, the 
President meets with the ambassador every some country. These were all 
typically snippets, one to five minutes on average, of what can 
generically be called photo ops.
    So when I sat down to search the database, there were two 
components of the database that required to be searched. I don't recall 
the order in which I searched that was on my list, but what I do recall 
is searching for a couple of fund-raisers on my list and I recall, not 
surprisingly, and consistent with what Mr. Smith had told me when I 
reported back to Mr. Bucklin and others, was that there were--that the 
fund-raisers that I had on my list were in fact, there were copies of 
tapes. That was not surprising. I presumed they were the President's 
remarks. I also checked at least one political dinner, I don't know if 
there was another, but the political dinner I recall checking was March 
27, 1996, one of the attendees of whom was Roger Tamraz. I also recall 
checking, I believe, 3 coffees. The April 1 coffee with Roger Tamraz, 
the June 18 coffee with John Huang, and the February 6 coffee with Wang 
Jun.
    Question. Wang Jun.
    Answer. Thank you very much.
    Question. And Charlie Trie.
    Answer. The searching for the coffees was a little bit different 
because I had a date--for instance, April 1 was not a date you could 
necessarily enter into the computer, but the photo op database is 
organized along the lines of week of. So we had to search the week of, 
whatever that week was, Sunday to Saturday, I believe. But I did--I do 
recall finding a hit for the April 1 coffee and for the June 18 coffee, 
but not for the February 6 coffee.
    And to skip ahead a bit, it's sort of a function of, I think the 
searching the week of issue, that was a problem because I've since 
learned that there is a tape of the February 6 coffee, which I think 
you have. But at that point, the computer had come back with a no hit. 
Once I realized--it was the discovery of the coffees in the database 
that first raised concern in my mind because this was the one thing 
that was inconsistent with what had been reported to me earlier and 
what I had reported to Mr. Bucklin on September 9. In short order, I 
went to Mr. Breuer's office. By this point, sometime approximately 4:30 
p.m., Mr. Breuer was on his way out of the office. That was to start 
Rosh Hashanah, the Jewish new year.
    Question. We're now on Wednesday, October 1?
    Answer. Yes, all this is occurring on Wednesday, October 1, as I 
think I made clear earlier.
    Question. Did you say anything--were there any discussions while 
you were in the office with Mr. McGrath, or Chief McGrath or others 
there, did you have any discussions with him about various events as 
you were going through them?
    Answer. At some point, and I'm not sure whether it was the late 
afternoon, early evening of October 1 or the morning of October 2, I 
did have a brief discussion with Mr. McGrath, questioning him whether 
in fact he had received the document request we had sent out and 
whether he had searched the database for coffees.
    Question. What did he say?
    Answer. I recall him telling me that he did receive the document 
request and that he did duly search the database for the names and 
entities on the list. I did not go into an accusatory mode at all. Mr. 
McGrath, or Chief McGrath and people who work for him, as you are 
aware, are career military people doing, you know, the best they can, 
and typically when this does happen, we don't--we try not to get into 
an accusatory mode but we rather try to rectify and remedy the 
situation as quickly as possible. So that was a brief conversation.
    Question. Did you speak with anyone else besides Mr. McGrath at 
that time?
    Answer. No, I did not.
    Question. So when you got a hit on some of these things you were 
looking at, was he sitting there with you?
    Answer. He was, yes.
    Question. And did you turn to him at some point and say, hey, what 
about this?
    Answer. I think that's what I just testified that I did. I don't 
have a precise recollection whether it was on the evening of the 1st or 
the next day, when I go back down there, which I'll talk about in a few 
seconds. But it was a brief exchange. It was a question by me of 
whether they had searched the database and an answer by him that yes, 
they had. But again it was not accusatory at all.
    Question. Had in fact he produced any videotapes to anybody in the 
counsel's office?
    Answer. No, he did not. And I had known that in fact. I had known 
that none of the tapes had been produced to us.
    Question. Because at that point there were no videotapes produced 
by anybody from anywhere?
    Answer. That's not quite accurate. There was a special request from 
Mr. Bucklin in anticipation of Mr. Berger's testimony, as you can 
recall, which occurred sometime in September, for a copy of the video 
that the White House's security professionals prepared to show at 
orientation for new employees. It's somewhat outdated. It was made 
during the Bush administration, I think about 8 years ago or 9 years 
ago, which simply lays out the various internal White House security 
procedures and the WAVE process.
    Question. This is the video that staff are shown for security?
    Answer. Precisely, yes.
    Question. Matters that Mr. Bucklin had asked you previously for, 
whatever video it is that you sit down and run the staff through about 
security matters?
    Answer. Yes. Essentially that encapsulates the ongoing discussions. 
I worked to get a copy of that tape and provided it to him under the 
conditions that were acceptable to the career security professionals at 
the White House. They had some concern about public dissemination of 
that tape, as you might imagine, but we were able to work out an 
arrangement whereby we provided a copy to Mr. Bucklin for Mr. Robbins' 
review as well to take a look at.
    Question. Are you aware of any other requests from anybody to the 
video office for any particular events, videos of events?
    Answer. I am not aware of any particular requests, no.
    Question. To this day?
    Answer. To this day.
    Question. Other than these requests that we are going to go into 
and discuss. But you aren't aware of cross calls or anything like that 
asking for video?
    Answer. No, that's exactly right.
    But I should be clear, in my discussions with Mr. McGrath, at some 
point, he informed me that they would get requests from Mr. McCurry's 
office to get copies of various President's speeches and things of that 
sort that they wanted to use. That's the only request that I'm aware of 
at this point.
    Question. Did he ever say if Mr. McCurry's office ever requested 
any videos for private events or anything like that?
    Answer. No, I did not get into that level of detail. So I think 
where I left off, it was approximately 4:30 p.m., I went into Mr. 
Breuer's office and explained to him that we might have a problem, that 
I had done a search of the computer database and found at least two 
coffees that appear in the database which was inconsistent with what I 
had known prior to that time. Mr. Breuer instructed me to essentially, 
I don't know his exact words, but to find out everything I could about 
it and to get on top of it.
    Question. Did you tell anybody else?
    Answer. I'm sorry?
    Question. Did you tell anybody else besides Mr. Breuer?
    Answer. I did not.
    Question. And so how long was this conversation--you went to Mr. 
Breuer's office?
    Answer. Yes. It was quite short. He was quite literally packing up 
and getting ready to walk out the door. I think he was running up 
against the sundown deadline. I explained to him very briefly that I 
had found at least two coffees and that he instructed me to find out 
everything I could. I then returned down to the video unit and 
instructed Mr. McGrath to pull back the tapes that we had gotten hits 
for from my sample list. And I remember this, it was close to 5 
o'clock, because we were running up against the 5 o'clock deadline for 
when the archives closes. They're career folks there as well, and my 
understanding is that they leave work pretty firmly 9 to 5. I 
instructed him I wanted him to pull those tapes back because I wanted 
to review them. He agreed to endeavor to do so. I then returned to my 
office----
    Question. So the tapes of the two coffees you hit, you asked Mr. 
McGrath to call the archives and get those tapes immediately?
    Answer. That's exactly right.
    Question. That's where you learned that that's where the tapes 
were?
    Answer. I don't recall precisely. Probably in asking Mr. McGrath 
how do I go about getting these tapes, he probably informed me that 
they're offsite at the archives.
    Question. So after talking to Mr. Breuer, you returned to Mr. 
McGrath and asked him to get those two?
    Answer. It was not just those two coffee tapes, but it was the 
other tapes that I had gotten hits on, a couple of fund-raisers and the 
one political dinner. He agreed to do so. I returned to my office and 
handled a few other matters. I believe we had produced documents later 
that week and I probably did some matters related to that. I think I 
might have called my wife to see what the dinner plans were as well. I 
returned back about 5:30--I returned back to Mr. McGrath's office about 
5:30 or so after receiving a telephone call from him that he was able 
to successfully retrieve from the archives those tapes before the 
archives closed. I then sat down at one of the TV screens and video 
units and undertook to review the tapes that they had brought back for 
me.
    Question. How were they--were they on a cassette or how did they 
come to you?
    Answer. As I understand it, the archives, or the WHCA people use 
beta tapes, which I was informed when I asked the very same question I 
think you are yet going to ask, why beta, that is apparently the 
industry standard. So I had in front of me a series of beta tapes which 
are the small Sony betas. I then set about to review what was on those 
tapes. And after reviewing them or in the process of reviewing them had 
asked one of the technicians who was present in the room to make for me 
a dub of these portions of these tapes onto a VHS tape so that I could 
inform people in my office and explain to them what at least I had 
found initially. By this point after having reviewed the various tapes 
that had been pulled back, it was somewhere in the area of 7, 7:30, 
maybe as late as 8 o'clock, and I was clearly--let me restate that. The 
folks who worked in that office were getting ready to go. They were 
around because I was there. So I took my tape that they had made for me 
and left.
    Question. Now, you didn't go back in the database at all during 
this time?
    Answer. Not at that time, no.
    Question. Did you ever consider talking to somebody else in the 
office to come and assist you; you were doing this all alone at this 
time?
    Answer. Yes. At this point people had generally left, the holiday 
had started on, so Mr. Breuer was gone, and I spent approximately 2 
hours or so down reviewing the tapes that they had pulled back.
    Question. There was nobody else in the counsel's office after 5:30?
    Answer. Well, Mr. Breuer was gone. He had been the principal person 
that I had been working with and that I had informed already. I don't 
recall checking whether Mr. Ruff was still in the office that evening 
or not. He might have been. He might not have been. But I did not check 
to see if he was there at that time. What I did is I took the tape and 
I left. When I had gotten back to my desk, I believe Mr. Bucklin had 
left a phone mail message raising several topics, one of which was 
following up on his message earlier, what the status was of finding the 
logs. I returned his call Wednesday sometime between 7:30 and 8, I 
would imagine. Did not reach him but left him a message that we needed 
to talk and that I wanted to give him a status report of what I had 
found so far. I had intended to let Mr. Bucklin know essentially what I 
had let Mr. Breuer know, which was that contrary to what I had 
understood before, there were at least two coffees that they had at 
least snippet videotape of. By this point I had seen the coffees and 
that they were, as you at this point realize, they were opening 
snippets. I did not reach Mr. Bucklin but left him a message that where 
he needed to talk and that I wanted to give him a status report. The 
next morning, I proceeded back down to the video unit of the White 
House Communications Agency.
    Question. On Wednesday afternoon, no one aside from yourself and 
Mr. Breuer were aware of the tapes?
    Answer. Certainly Mr. Breuer was the only one that I informed about 
the existence of these tapes. I don't know--I don't recall if there was 
anyone else in his office when I went in. There might have been, but I 
simply don't recall.
    Question. Including Captain McGrath in that?
    Answer. Certainly Chief McGrath.
    Question. I'm talking about in your office. That is our 
understanding.
    Answer. Fair enough. That is precisely accurate.
    The next morning I returned to the WHCA video unit and set out to 
carry out Mr. Breuer's instructions, which was to find out what 
additional coffees and other events that the WHCA database held. I sat 
down with Chief McGrath and I recall one of the technicians, whose name 
I don't know, and sat down in the database and began asking questions 
apart from the date, what other ways can we search the database. I 
thereafter, after some discussions, tried to search for the word 
``coffee'' in what is the, I believe the event field or the description 
field of the database and after searching that got a hit for, I got 49 
hits. Paged through the hits on the database, discovered that a good 
deal were actually not the coffees as you and I speak. One or two, 
maybe more were coffees with President Bush and some foreign leader. 
There was a tea and coffee with someone, but that there were 
approximately somewhere, from my rough estimate, somewhere between 30 
and 40 of the political coffees that occurred in 1995 and 1996 in the 
Map Room. I had at that point endeavored to print out the screens of 
those hits that contained the coffees, and either while the screens 
were printing out or immediately afterwards, set about to search for 
some other terms as well. I believe I searched for the word ``DNC.'' I 
believe I searched for the word ``Democratic National,'' and finally I 
believe I searched the word ``fund-raiser.'' Each of those searches 
came up with multiple hits. I don't recall the precise numbers of hits 
that each one of those responded to, but certainly there would be some 
overlap because an event that was a DNC fund-raiser would have been a 
hit for both DNC and for fund-raiser.
    At this point I took the tape that I had made the night before as 
well as the coffee hits and proceeded for Mr. Ruff's office. This was 
some time, as I best recall, after lunch, probably between 1 and 3 p.m. 
I don't recall the exact time but that's a ballpark figure, and let Mr. 
Ruff know, and this was the first conversation I've had with Mr. Ruff 
on this, that contrary to what I had understood before, at least 
apparently the snippets of the opening moments of somewhere between 30 
and 40 of the coffees were on videotape, and proceeded to show Mr. Ruff 
some of the excerpts of the tape that I had made, that the WHCA 
professionals had made for me the night before, which included the 
opening snippets of, I believe, 4 coffees. Because on the tape that 
contained the April 1 coffee and the tape that contained the June 18 
coffee, each contained an additional coffee of that week. And because 
these are week of tapes, they would end up getting 4 coffees on video. 
Mr. Ruff was concerned and instructed me to----
    Question. What did he say?
    Answer. I don't recall any specific words that Mr. Ruff used. 
Clearly----
    Question. You went up to his office and he was there?
    Answer. He was there.
    Question. And you asked to see him?
    Answer. Yes, that's right.
    Question. You just sort of have walk-in rights at the office or 
sort of check with his secretary, knock and see if he's available?
    Answer. It depends. Chuck prides himself on having an open door 
policy. Oftentimes he is in meetings and one cannot barge in when he is 
in a meeting. My recollection is he was not in a meeting and that I was 
able to go in either immediately or after a few moments into his office 
and let him know.
    Question. And he was alone in his office?
    Answer. He was. It was just the two of us.
    Question. So when you told him, it was just the two of you?
    Answer. That's precisely right. He was concerned and instructed 
me----
    Question. Do you have any general recollection of what he said to 
you about it?
    Answer. Mr. Ruff is a man of few words, and I believe he expressed 
his concern to me about this issue without using too many words.
    Question. Was he upset?
    Answer. I think concerned is really the emotion that I perceived. 
He instructed me to do everything I could to find out how many of these 
coffees were there, to get them duplicated, copied and produced as 
quickly as possible. I also informed him that I had a pending message 
from Mr. Bucklin in response to the message I left him the night 
before, you recall I said, saying that we needed to talk and that I 
wanted to give him a status report, and Mr. Ruff instructed me to 
call--to let Mr. Bucklin know what I had found at that point.
    Question. To tell him that you had found these videotapes?
    Answer. That at this point I wasn't sure what we had, but I had 
found at least 30 to 40 coffees apparently there's some videotape of, 
the opening snippets of. That's exactly right. So I left Mr. Ruff's 
office, proceeded to do several things, the exact order of which I'm 
not clear. But what I did is draw up--I went through the printout 
screens more carefully that they had printed out for me as I had gone 
through the database to develop a comprehensive list of what the 
political coffees were. I believe I used as a crosscheck the listing 
that we have produced to you, which was the listing that went to the 
press, the 3-page listing in chart form of the various coffees. And I 
had provided that list to Mr. McGrath and let him know certainly what 
needed to happen. And what needed to happen was he needed to get these 
tapes pulled back and we needed to set up a procedure whereby they 
could be reviewed, copied and made numerous copies of to produce.
    Question. And who set up that procedure?
    Answer. Mr. McGrath did. I gave him the list of tapes to be brought 
back. He arranged to have them brought back the next morning.
    Question. So at your direction, Mr. McGrath ordered particular 
tapes from the national archives? When you say pulled back from the 
archives, you mean he's to go and request from the archives that they 
deliver particular tapes to his office?
    Answer. That's more articulate but the same essence of what I have 
said.
    Question. So then he could spend--was he to review them, Mr. 
McGrath?
    Answer. No, I instructed him to pull them back so I could review 
them and identify the responsive items from those tapes and have them 
copied and produced as quickly as possible.
    Question. And who determined that you were going to be the person 
to review them?
    Answer. I don't know if there was an overt decision instructing--I 
mean that I was going to be the one. I was clearly the one involved in 
this from the beginning and Mr. Ruff instructed me to do everything 
within my power to have these reviewed, copied and produced as quickly 
as possible.
    Question. Did he suggest that you have anybody join you in working 
on this from the counsel's office?
    Answer. Yes. And I'll get into that in one second, just because 
that was the next morning. Apart from letting Mr. McGrath know that the 
list of tapes that we needed to be brought back, we also had--I also 
returned Mr. Bucklin's call sometime around 4:30 or so, let him know 
that contrary to what I had understood before and explained to him, 
there were at least snippets of somewhere between 30 and 40 coffees on 
video and that we were going to get them pulled back, reviewed and 
produced as quickly as possible. Mr. Bucklin explained to me that his 
committee's desire is to have copies of all of them, and I said that 
that's understandable and that I would be discussing it tomorrow with 
Mr. Breuer, who was not in the office at the time, that we would do 
everything we could to get them produced as quickly as possible.
    Question. So you spoke with Mr. Bucklin on Thursday afternoon, 
then?
    Answer. I did, yes. Sometime I think approximately 4:30 or so.
    Question. After that discussion you had with Mr. Ruff, you said it 
was after lunch, were you aware of him going over to the Attorney 
General's office and meeting with the Attorney General that day?
    Answer. I was not aware of it at the time. I have become aware of 
it now because of press reports, but I had no idea Mr. Ruff had a 
prescheduled meeting with the Attorney General at that time.
    Question. Did you have any discussion with him about these tapes or 
records being responsive to any Justice Department subpoenas or 
requests?
    Answer. Not in so many words. We certainly knew they were 
responsive to all the investigative bodies, including this committee, 
the Senate and the Justice Department, and Mr. Ruff's instruction to me 
was get them copied and produced to all 3 of the bodies.
    Question. So when you had that discussion on Thursday, his response 
was to get them to all--get them to the Justice Department, the House 
and the Senate?
    Answer. He did not delineate the 3 investigative bodies. He 
instructed me to get them produced as quickly as possible. I guess you 
could say it was understood that by getting them produced, it was 
getting them produced to all 3 investigative bodies.
    Question. Did he instruct you to call anybody at the Justice 
Department to inform them?
    Answer. He did not. He instructed me to undertake the process of 
searching, identifying and copying and producing the documents, or the 
videos. And he instructed me to, after I told him about Mr. Bucklin's 
pending call, of course to return his call and to give him a status 
report.
    Question. So on Thursday----
    Answer. Thursday, now we're sort of in the early evening on 
Thursday. At some point----
    Question. This is Thursday, October 2?
    Answer. That's precisely correct. Sometime after I spoke to Mr. 
Bucklin, I had a telephone conversation with Mr. Breuer. Mr. Breuer was 
in his car returning from religious services, I believe in Baltimore. I 
did not call him. I suspect he was calling in to the office to check 
the status of various things and had been patched into me. I don't 
recall if I told his assistant Mr. Smith that it was imperative that I 
spoke to Mr. Breuer. I believe that I did. And thus Lanny was patched 
in to me for that reason.
    Question. So he was returning a message you had left?
    Answer. That's my best recollection, yes. I then went about to 
explain to Lanny what I had already explained to Mr. Ruff and to Mr. 
Bucklin, which was contrary to what we had previously understood, there 
were videos of at least between 30 and 40 coffees, and that I was 
going--was in the process of trying to identify the universe of 
coffees, get them returned from the archives, reviewed, copied and 
produced.
    Question. And what did he say?
    Answer. He said similar much to what Mr. Ruff said, which was do 
everything I could to make it happen as quickly as possible.
    Question. And what did you do?
    Answer. Then I went back and I think it was at this point that I 
gave Mr. McGrath the list that I had checked and double checked 
carefully to make sure that I had all the events crosschecked against 
the master list and given him the list of coffees. I recall that it was 
after the 5 o'clock archive deadline, because I recall that they did 
not--they did not get pulled back until the next morning. I believe the 
rest of the evening I was working on a document production that we made 
on October 3, which I believe included a bunch of E-mails.
    Question. The October 3 production to this committee?
    Answer. Yes. As well as to--there was a mirror production to other 
committees.
    Question. And in producing that, was there ever any discussion 
about informing--this is October 3, a letter from you to myself 
delivering documents. Was there ever any discussion of informing the 
committee of these points since you were summing up this letter, about 
these events?
    Answer. Again, there was no specific discussion of informing the 
committee via letter, in this production letter. This is a fairly 
routine letter that sometimes gets drafted in conjunction with the 
document production and thus this letter might have been drafted prior 
to the documents--the advent of the video issue. But to answer your 
question, no, there was no specific--there was no specific discussion 
of informing this committee via letter during the document production.
                      EXAMINATION BY MS. COMSTOCK:
    Question. Now, you had informed Mr. Bucklin on Thursday. Was there 
any discussion throughout the rest of Thursday and Friday of discussing 
this with the Justice Department or this committee; just informing them 
that documents that were long past due and responsive to our subpoenas 
had been located?
    Answer. I will get into this in more detail. My role on Friday was 
a technical one, which was trying to identify the universe of videos, 
getting them produced and copied. I spent literally the entire day on 
Friday doing that task.
    I was not involved in any discussions as to the notification and 
timing of such notification to this committee, the Senate and the 
Justice Department.
    Question. Now, Thursday, you said--I guess these offices all sort 
of shut up at 5:00. The archives close down at 5:00, and the WHCA 
office you had kept there until 7:30 or 8:00, so they--on Thursday, how 
late did you stay working with them on Thursday?
    Answer. I had kept them late on Wednesday, which was the night that 
I had reviewed the videos. On Thursday, I recall, did not spend much of 
the evening down there because I had given them the list of videos that 
needed to be retrieved from the archives, and they had agreed to set in 
motion a procedure whereby I could review the tapes the next morning 
and have them systematically copied onto a tape to be produced to the 
various investigative bodies.
    And I believe I spent most of Thursday evening, as I think I 
testified, finalizing the document production that went out on October 
3rd.
    Ms. Comstock. This is the October 3rd letter, and we will make that 
Deposition Exhibit Number 7.
    [Imbroscio Deposition Exhibit No. MI-7 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Friday morning, then, is when the rest of these tapes 
were gotten from the archives?
    Answer. Yes.
    Question. As you just described, and they are copying them?
    Answer. If I can, I will give you the full story. Sure. Friday 
morning I got a message from, I believe, Chief McGrath confirming that, 
as he had promised at 0900 or 0800, or some military time, tapes had 
been brought back and were ready for me to go through the process of 
reviewing and having them copied.
    Friday morning we had a staff meeting with Mr. Ruff in which I 
briefed the rest of the Counsel's Office as to my findings over the 
previous 2 days.
    Question. And who was at that meeting?
    Answer. It was a meeting of all of the folks on the investigative 
team, so that would be Mr. Ruff, Mr. Breuer, Mr. Nionakis, I believe 
was there. Essentially, it was all--I don't know. I don't want my 
testimony today to establish the fact that some people were there. I 
recall Ms. Mills being there. It could have been that one or two of the 
attorneys from my office was not there, but it was generally a meeting 
of the attorneys in my office.
    Question. Okay.
    Answer. At that meeting I had informed them of the nature of my 
discovery.
    Question. And what was their response, the folks that were there?
    Answer. There was a response of concern and of wanting to do 
everything we could to identify the universe and get them produced as 
quickly as possible. So at the conclusion of that meeting, I was tasked 
to go and start the reviewing and copying process at WHCA.
    Question. Were any of the videotapes reviewed in that meeting?
    Answer. I had at the meeting a sample tape I had shown Mr. Ruff 
earlier that we had made Wednesday night, October 1st, and I recall 
playing some, but perhaps not all, of that sample videotape.
    Question. With the staff there?
    Answer. With the staff present, yes.
    Question. And were there any comments about the tapes?
    Answer. I don't recall any specific words uttered, but there was a 
discussion as to the significance of this discovery.
    Question. Being what?
    Answer. Well, that this was, in fact, a significant discovery and a 
fact we were not previously aware of, and that we had to do everything 
we could to get these--to identify the universe, make sure we had the 
entire universe, get them copied and produced as quickly as possible.
    Question. Did anyone discuss about informing the President about 
the tapes?
    Answer. No, not that I can recall at that meeting.
    Question. Are you aware of anybody informing the President about 
the tapes?
    Answer. The President--I had no firsthand knowledge of that. I have 
read press accounts of when the President said he was notified, but 
that exhausts my knowledge as to the notification issue to the 
President.
    Question. Were you aware of Ms. Mills being tasked to discuss this 
with the President?
    Answer. It's my understanding, from the press, that she was the one 
who spoke with the President. I have no firsthand knowledge if that 
was, in fact, the case.
    Question. So other than----
    Answer. Even to this day.
    Question. So other than press accounts, you have not discussed that 
with anybody, or you did not hear that from anybody in your office?
    Answer. That's correct. And again, just so it is clear, the first 
time that I communicated this to lawyers besides Mr. Breuer and Mr. 
Ruff was at that Friday meeting.
    Question. Did people ask you about what was on the other tapes?
    Answer. No, at this point I had not seen any of the tapes that was 
not on the sample tape. I let them know we were in the process of 
pulling back what we believed to be the universe of coffees and that we 
would get them copied and produced as quickly as possible.
    Question. Did they ask you about the types of events that were 
videotaped?
    Answer. I don't recall any discussion of any events other than the 
coffees. Certainly on the tape there were noncoffee--there was at least 
one or two noncoffee events, but again, that was not all that 
surprising.
    We sort of had a general understanding that the President's remarks 
at such events were on tape, and that had been communicated to the 
Senate on September 9th. So coffees--to answer your question, coffees 
was the essential focus because that was really the new fact we had not 
known prior to that time.
    Question. Did anybody say anything about or ask how these had been 
found or why they had not been found before?
    Answer. I don't recall there being a detailed question and answer 
as to the procedure by which I discovered these, as I just explained to 
you. I believe it was simply related to them that I had just discovered 
these had existed, without a detailed description as to the precise 
nature of that discovery.
    Question. Was this a surprise to everybody, then, that these had 
been obtained? Was that your impression?
    Answer. It was a surprise to everyone in the room, yes.
    Question. As a result of learning about these various coffee tapes, 
was there any attempt to go to some of the people that had actually 
attended them to ask them about any other records that they knew about 
with regard to the coffees?
    Answer. Not to my knowledge. Not to my knowledge. Again, during 
this time period, my primary role was, technically, to review the tapes 
and get them copied and produced.
    Question. I understand you were tied up with that. Did anyone 
raise, well, maybe somebody else should go return back and find out do 
we have everything on these or other events, and either should go back 
and revisit some of the people who may know more about these events?
    Answer. I understand your question, and not that I'm aware of.
    Question. So there was no discussion in that meeting?
    Answer. No, not that I can recall.
    Question. And you're not aware of any efforts in the Counsel's 
Office to revisit with any of the people who attended these events any 
other records they may have?
    Answer. I am not aware.
    Question. Why don't you continue with the Friday.
    Answer. So after that meeting on Friday morning, it probably broke 
up sometime between 9:45 and 10:00, I proceeded up to the fifth floor 
master control room, WHCA master control room, which was the location 
whereby Mr. McGrath had arranged for me to review and have the tapes 
copied. They had the tapes there, and I set about to review them and 
identifying for the professional staff there what portions of the tapes 
needed to be duplicated.
    Again, as I testified earlier, these tapes contained numerous 
snippets on any given tape of events like the President goes to church, 
the President lands, the President takes off. And my role was to review 
the tapes, identify what, if any, responsive coffee portions existed, 
and to have those entire portions copied onto a single tape.
    Question. So you were the sole person that was in charge of editing 
how the tapes would be edited for production to Congress?
    Answer. I think that asks two questions. The first question, was I 
the sole person involved, the answer is no.
    Question. Subjectively. Like, I understand there might be technical 
people who are going to tape. But were you the person making the 
judgment call on what should be taped and edited?
    Answer. I was there, along with another lawyer in my office, Karl 
Racine, and the two of us together reviewed the coffees, reviewed the 
tapes, and identified the responsive portions of those tapes.
    Again, these were not particularly close calls. They were tapes of 
events that appear on a master list that we released to the press and 
to the committee, and, thus, it became quite easy for us to identify 
what, in fact, were the responsive portions of the tapes.
    And there was no--just so we are clear and so the record is clear, 
the tape that you received contained every portion of the coffees as 
they had been recorded. There is no portion of any particular coffee 
that you did not receive because of any editorial decision or decision 
not to provide that. If I am clear.
    Question. So that would have been, whatever we have, say, on the 
February 6 coffee is everything that was taped that morning; that when 
it cuts off, that is when the camera crew was cut off?
    Answer. That is precisely right.
    Question. And when it begins is when the camera crew begins?
    Answer. That's precisely right. Just so it is clear. There is 
nothing on those tapes that you did not get. You have everything that 
was on the original tapes.
    Question. And is that true also for not just the coffee tapes, but 
then the other fund-raising events and items that we received this 
week?
    Answer. I am not in a position to answer that. I would presume that 
to be the case, but I have not been directly involved in this ongoing 
process. But certainly that would be the instructions given to the WHCA 
professionals.
    Question. So you were only involved in reviewing the coffee tapes, 
then?
    Answer. That's right. I have described my role in this.
    Question. And why don't I get this clear for the record. In this 
meeting that you had Friday morning, was Mr. Racine then tasked to 
assist you in reviewing the tapes?
    Answer. That's right, yes.
    Question. And who asked him to do that?
    Answer. I actually don't know because I had left the meeting 
momentarily, for what reason I don't recall, but I recall when the 
meeting broke up, I was informed that--I think Karl told me he had been 
asked to help me out on this project. So I don't know who tasked him to 
do it.
    Question. And then the two of you went back down there and started 
going through the tapes, then?
    Answer. We actually went back up there, because at this point we 
had been told to go up to the fifth floor, and we set about to review 
the tapes in chronological order and have them copied and put onto a 
master tape that could thereafter be dubbed and copied.
    That process took some time. I recall approximately 1:15 or so we 
were not done, we were still sometime in the month of April, we broke 
for lunch and I took care of a few matters, including finalizing this 
document production, and returned sometime in the neighborhood of 2:30, 
and we wrapped up the reviewing process sometime around 4:00.
    There was a natural time lag in getting the tapes that we had 
reviewed copied onto a master tape. And as I understand the process, 
and my understanding is not strong, that once they had this master 
tape, they would then--they were in a position to record VHS copies of 
the tapes that were thereafter produced.
    The first tapes were not available until early Friday evening, as I 
understand it.
    Question. And how many tapes were then produced at that time? At 
that point there was just one tape? However many coffees there were 
were on one tape at that point?
    Answer. Yes.
    Question. And you say that was completed at that time?
    Answer. That's correct. I'm on somewhat weak ground because I don't 
know the technicalities of it; left that to the WHCA professionals. All 
that I'm aware of is that we had finished our reviewing process 
sometime in the neighborhood of 4 o'clock and that the first tapes 
weren't available for review until sometime in the early evening. I 
don't recall the exact time.
    Question. And did someone give them to you early Friday evening?
    Answer. Yes. I mean, I recall receiving the tapes from the 
technical staff; receiving the first tapes from the technical staff on 
the fifth floor at WHCA.
    Question. How many had you asked them to make?
    Answer. I don't recall giving them a precise number; how many to 
make. I believe they have the ability to make several at one time, four 
at a time, once they have the master completed. And I asked them to 
basically produce, to start making copies of it.
    The problem is there is a real-time problem in that they cannot 
make them any faster than it takes to play through it all. So you 
cannot do any high-speed dubbing.
    Question. And do you recall how many copies you got that Friday 
evening?
    Answer. No, I don't recall how many I got. It would have been--I 
don't recall. We had multiple copies, but I don't recall how many.
    Question. And who delivered to it you, somebody from the office, 
WHCA office?
    Answer. I don't recall whether they were delivered to me or whether 
I went back up to that room and picked them up. But I recall having 
them in my possession sometime during the early evening of Friday.
    Question. And what did you do with them?
    Answer. I believe--I don't recall. At this point there were several 
discussions about what was on the tapes, and I probably provided a--I 
don't recall. I don't recall what I did with them.
    [Witness confers with counsel.]
    The Witness. I just don't recall.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did anybody else look at them, or were they just sitting 
in your office?
    Answer. No. Certainly I provided a copy--I recall providing a copy 
to Mr. Breuer. I don't know if he looked at it at that time or not.
    Question. So Mr. Breuer was back to work, then, Friday?
    Answer. Yes, that's exactly right. The holiday, as I understand it, 
ran from sundown on Wednesday to sundown on Thursday.
    Question. Did you inform Mr. Breuer that documents were to be 
delivered to this committee on Friday evening?
    Answer. I'm sure he was aware that documents were being delivered, 
but there was never a discussion drawing a nexus between the document 
production, which had been in the works for some time, and handling of 
the videotape issue.
    Question. And so you gave a copy to Mr. Breuer? You're sure you 
gave a copy to Mr. Breuer?
    Answer. No, frankly, I'm not sure. This was a point when there was 
a lot going on, and I want to be careful because I don't have a firm 
recollection of the precise timing of what went on that night and the 
next day.
    Question. How late did you stay that evening?
    Answer. I recall staying till approximately 8:30 or 9 o'clock. I 
left work for an engagement, prescheduled engagement, with my wife at a 
function of her office, and I believe I arrived sometime around 9 
o'clock.
    Question. And were you asked to come back in on Saturday to deal 
with any of these issues?
    Answer. I don't recall specifically being asked to come back in. We 
typically work 7 days a week in our office. In fact, the few days I 
took off that I discussed earlier were probably 4 or 5 of the 10 to 15 
days I took off since I started in March. So I was never asked to come 
in on a Saturday. I came in on Saturday because that was my normal 
course.
    Question. And do you know what happened--can you just tell us the 
rest of your knowledge of what happened with those tapes that you had 
copied?
    Answer. Yeah. My understanding is that Mr. Breuer had a meeting on 
Friday with the Senate staff. I was not at that meeting. Again, I was 
handling the technical aspects of it; and that we provided a copy of 
the video to the Senate and to the Justice Department sometime Saturday 
afternoon; and that we provided a copy to this committee, I believe, 
Sunday morning.
    Question. Sunday afternoon.
    Answer. Again, I don't know the technical details of it.
    Question. The copies that you got, do you know where they were kept 
on Friday night, what you did with them?
    Answer. I believe I had them in my office safe.
    Question. In your safe?
    Answer. Yes, I have a safe in my office to handle national security 
documents, and I believe I put them in my safe. I recall putting them 
in my safe.
    Question. Did somebody ask you to do that?
    Answer. No, I did that on my own accord.
    Question. Do you know why those tapes weren't turned over on Friday 
to any of the investigative bodies involved?
    Answer. I don't know.
    Question. Did anybody review them Friday night or Saturday, to your 
knowledge?
    Answer. Again, I don't have a clear recollection of the order of 
events really starting Friday after my reviewing process. Certainly 
people in my office began to look at the tapes in anticipation of 
getting them produced over the next day or so.
    Question. I'm sorry, I don't understand what you mean.
    Answer. Let me restate it. As I said, I don't have a clear 
recollection of who reviewed the tape and who watched it at what point, 
but over this period people were reviewing the tape in anticipation of 
having it produced over the next day or so.
    Question. So most of the people in your office were looking at 
copies of the tapes so that they knew what was going to be----
    Mr. Ballen. I think he said he doesn't have a clear recollection. 
He's said it three times now.
    The Witness. As I said, I don't know who reviewed it and who didn't 
review it.

                      EXAMINATION BY MS. COMSTOCK:

    Question. So did you take your copies out of the safe, then, to 
share with people; or were there other copies that started to be 
produced and sent around to offices?
    Answer. I certainly retrieved the copies from my safe on Saturday.
    Question. Do you know who you gave them to?
    Answer. I do not--I do not recall who I gave them to, whether I 
kept them in my own possession or whether I turned them over to anyone. 
But certainly we had those copies that were made the night before, and 
at some point on Saturday afternoon I think we received an additional 
set of copies.
    If I said Sunday, I mean Saturday afternoon.
    Question. Did there come a time, sometime Saturday afternoon or 
Saturday evening, when you learned that Time magazine was doing a story 
on these tapes?
    Answer. I did not become aware that Time magazine was doing a story 
on this tape until I was awakened by a phone call on Sunday morning.
    Question. And who called you?
    Answer. I recall it was Lanny Breuer who called me.
    Question. And what did Mr. Breuer say?
    Answer. Mr. Breuer said they had begun to get press inquiries 
relating to the videotapes and that--asked if I could come to the 
office as quickly as possible.
    Question. Do you recall what time that was?
    Answer. It was 8:30 a.m. And I should just note that I was unable 
to attend the Pittsburgh Steelers-Baltimore Ravens game that day 
because of this event, and I'm a huge Pittsburgh Steelers fan.
    Question. Do you know any reason why on Sunday, when obviously you 
started getting press inquiries, if there was any reluctance to deliver 
this videotape to this committee for any reason?
    Answer. No, I'm unaware of any such reluctance.
    Question. When we inquired, when we called in Saturday and we 
called in Sunday, we were told we couldn't get it until Monday. Are you 
aware of any shortage of tapes on Sunday that we wouldn't be able to 
have a copy until Monday?
    Answer. I'm aware of no such shortage, and I have no knowledge of 
the conversation which you describe. I would presume that in the normal 
course of events, typically we make productions on Monday. But, again, 
I know nothing about the conversation you just described. It was not 
with me, the record should be clear.
    Question. What time did you go into the office, then, on Sunday?
    Answer. Without unduly getting into my personal habits, I suspect--
--
    Question. Just asking the time.
    Answer. I suspect I arrived in the office sometime between 9:15 and 
9:45 a.m.
    Question. And who else was there when you arrived?
    Answer. I don't have a specific recollection of the entire roll 
call of lawyers who were there at that time. I recall Mr. Breuer was 
there.
    Question. And did you have a meeting with Mr. Breuer at that time?
    Answer. Let me just think about that for a second.
    [Witness confers with counsel.]
    The Witness. I should just be clear. I am actually not sure that 
Mr. Breuer was there when I got in that morning. He might have very 
well called me from home, I just don't recall. But certainly at some 
point that day, on Saturday, he was in the office.

                      EXAMINATION BY MS. COMSTOCK:

    Question. On Sunday, you mean?
    Answer. Yes, on Sunday.
    Question. You said he called you at 8:30 Sunday morning?
    Answer. I'm not sure if he was there when I arrived or got there 
sometime later.
    Question. I understand. So at some point by Sunday morning you are 
in the office, and Mr. Breuer's there also?
    Answer. Yes, without pinning a time on when Mr. Breuer arrived, 
that's correct.
    Question. Can you just describe what you did on Sunday in regards 
to the tapes?
    Answer. I recall very little, technically. I recall one of the 
things that I was asked to help out with was handling the various press 
inquiries that the office was getting, because I was the one who, as we 
have discussed here today, was the one who was sort of the principal 
person who discovered the tapes and was trying to answer press 
inquiries as best we could.
    Question. At this point, when Mr. Breuer has called you at 8:30 in 
the morning and is asking you to handle the press inquiries, was there 
ever a discussion that maybe you ought to turn it over to a committee 
that has already subpoenaed it who doesn't have it yet?
    Answer. I was not involved in any discussions on that front, 
basically.
    Question. You didn't suggest to Mr. Breuer, wait, we haven't given 
it to everybody who has subpoenaed it yet?
    Answer. There was a general understanding from the moment that I 
met with Mr. Ruff that this tape would be timely produced to all the 
investigative bodies that requested it, including this committee. I had 
no further discussions as to the particular timing of that production.
    Question. But when Mr. Breuer called you on Sunday morning, did he 
mention anything about making sure a copy of this got up to this 
committee?
    Answer. I don't recall that he did.
    Question. So he was talking to you about press inquiries and 
responding to the press inquiries on Sunday morning; is that a fair 
characterization of why he wanted you to come into the office?
    Answer. No, not quite; close, but not quite. I think he had asked 
me to come into the office because they were getting press inquiries, 
not so I could come in and answer the press inquiries. He asked me to 
come into the office because I was the person who knew the most about 
the discovery of the videotapes.
    It turned out that I spent a lot of my time that day dealing with 
press inquiries, but I was not tasked to come into the office to handle 
those press inquiries. It is an important distinction.
    Question. Was Lanny Davis at the White House that morning also?
    Answer. Again, he was certainly around that day. I don't know the 
precise timing of when he came in.
    Question. Do you recall anyone else who was there on Sunday?
    Answer. I recall that most people were there. If you were to tell 
me that you had evidence that someone wasn't there, I probably couldn't 
refute that. But generally people were there.
    I don't recall specifically who was or who wasn't, but as best I 
can recall, people were there. And, actually, I actually do not think 
that Ms. Peterson was there that day, just to spare her. I don't think 
she was there.
    Question. In the course of finding out about these videotapes, was 
there ever any attempt to go back and find out what other types of 
audio or video recordings may have occurred in any other events which 
may be responsive?
    Answer. Clearly there was, in the days that followed, a decision to 
undergo the Herculean task of trying to identify what the universe of 
potentially responsive items might be. That was a process that I 
actually had little involvement in, but I did have a general 
understanding that process was ongoing. And I believe you received the 
fruits of that process sometime over the past day or so and will have a 
chance to see the log in a few minutes.
    Question. Now, were you not involved, then, with that second group 
of the hundred or so, 230, however many events it was, were you not 
involved in going through those records?
    Answer. I had a very tangential involvement. Every lawyer in the 
office was working on it. There are a limited number of TVs in the 
control room that could be used to review it. There was never a point 
when there was a vacant TV. But because other lawyers had filled up the 
slate, so to speak, I did not have an active involvement.
    I have reviewed a few of them, when there were down times and 
people needed someone to help review, but I was not an integral part of 
that reviewing process.
    Question. So generally all the attorneys in your sort of 
investigative unit were involved in reviewing them?
    Answer. It's safe to say at various times all of the line 
attorneys, and by that I mean Mr. Racine, Mr. Nionakis, Ms. Peterson, 
Ms. Popp, and to some degree Mr. Waitzkin had involvement in reviewing 
and identifying for responsiveness those various tapes.
    Question. Now, Mr. Ruff had indicated to us that the Justice 
Department had also subpoenaed these records, so I would like to just 
ask any knowledge you have about whether there was any discussion about 
turning over the originals to the Justice Department; in lieu of you 
all reviewing them, turning them all over to the Justice Department 
instead?
    And maybe if you can divorce--if there is a general discussion. I 
am not going to ask you particularly the response to the subpoena, but 
if you just know of any discussion about turning these documents over 
to the Justice Department.
    Answer. I am unaware of any----
    Question. I'm sorry, records. The tapes. The videotapes.
    Answer. I'm unaware of any new subpoena we have received from the 
Justice Department in the aftermath of this incident. I do know that 
there was at least a request, and the request might very well have been 
a subpoena, I simply don't know.
    Question. And, I'm sorry, Mr. Ruff indicated they were due by 
Tuesday, so maybe it was an old subpoena or request.
    Answer. I simply don't know. What I do know is that there was a 
request for certain of the original tapes by the Justice Department 
relating to coffees.
    Question. And were they asked for by a date certain, to your 
knowledge?
    Answer. I do not know the specifics of the request.
    Question. Do you know if there was any discussion--I think what I 
want to get at more was the discussion in the office on how the 
handling of the tapes should be done in light of this being evidence.
    Answer. I was not privy to any such discussions.
    Question. So you were just directed to go review them and decide; 
of the ones you reviewed you decided what portions were responsive, and 
other attorneys would do the same?
    Answer. I lost that one along the way. I apologize.
    Question. I want to figure out how--I understand these are big 
reels of tapes--or not reels--or however they are produced to you, and 
you have to go through and figure out which sections are responsive; is 
that correct?
    Answer. Yes and no. With respect to tapes emanating from the photo-
op database, the photo-op tapes, you would have a series of snippets of 
unrelated events on any one given tape. With respect to tapes from the 
regular event database, you would have a tape that, for the most part, 
is unique to one event or more than one tape unique to that same event. 
So for those tapes there would be no ``this is in'' and ``this is 
out.'' The entire tape, if responsive, or tapes, would be in.
    With respect to the coffee, the photo-op tapes on which the coffees 
existed, there were certainly portions that were not responsive. For 
instance, the President goes to church, the President arrives from 
Andrews Air Force Base.
    Question. So would that be sort of, if it is morning, it started he 
went to church, then he's walking down the hall saying hi to people, 
then he's going to a coffee. Even though that's all on one tape, it 
would be cut sort of as he is going into the coffee, and that portion 
of the coffee to whenever the coffee tape cut off, that would be the 
portion of that tape that would be produced?
    Answer. Again, these tapes covered not just a day, but usually a 
week, and sometimes one event a day sometimes two events a day. But, 
yes, the portions of the tapes that were produced were the portions, 
the entire portions, that related to the White House coffee.
    And it is not--this is not a snippet, where it's one continuous 
shot that leads into the coffees. In between each snippet there is a 
break in the tape, whereby they put up the color bars to signify that 
it's a break and it is a new event. It's that portion that relates to 
the coffees on the photo-op tapes that were provided to this committee.
    Question. Did you then narrow your search to these particular 
events? Not narrow it, but you said you went through all these coffee 
events and then different DNC fund-raisers. Was the search primarily 
oriented towards those events, or was there, as you reviewed these, 
sort of if John Huang is going to church with the President, for 
example, or something like that, would that be produced? Just to try to 
figure out how you would go through this.
    Answer. I understand your question, and I think I need to divorce 
what I did with what was done in the days and weeks that followed for 
which you received the output.
    What I had done is gone through the tapes that I had pulled back 
from the archives that had apparently had coffees on them. I would 
review those tapes, particularly the portions of the coffees, and 
provide those entire portions onto what I think ended up on a single 
videotape.
    Question. So the tapes you looked at, though, you didn't look at 
them for other things that may have been responsive, like if there was 
a Webb Hubbell going-away party, and say, gee, that may be responsive? 
Would that be included, or was that not the universe of things you were 
looking for?
    Answer. If it were included, it would have been by happenstance 
because it so happened to be on that same tape. I have a recollection 
of only one event that was on one of the photo-op tapes that I reviewed 
for the coffees. That was an event of a political luncheon in the White 
House for which there was, I think, 2 or 3 minutes filmed that, just by 
pure coincidence, happened to be on one of the tapes of the coffees 
that was pulled back. As I understand it, and I'm actually quite 
certain, that event didn't make it onto the coffee compilation but made 
it onto the compilation of 66 tapes you received this week.
    But to answer your question, yes, there was an effort made to go 
through everything, and that's the effort that I assume you will learn 
more about in the next hour or so. But, again, I was not directly 
involved in that, so I can't speak to it too knowledgeably.
    Question. Are you aware of any taping that the President does 
himself of events or things that he does that has been discussed in the 
Counsel's Office?
    Answer. I'm not aware of any such statements.
    Question. Are you aware or did anyone bring to your attention 
former Press Secretary Dee Dee Myers talking about the President 
dictating or taping into a tape recorder of events and things as he 
went through day to day?
    Answer. That's the first I have heard of it.
    Question. Do you know if anybody in the Counsel's Office has sought 
such records or made a request from the President or the President's 
Office that would sort of alert them to turn over any such type 
records?
    Answer. Not to my knowledge.
    Ms. Comstock. Let's go off the record for a minute.
    [Discussion off the record.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. One of the things that I wanted to see if you know 
anything about is this is a Washington Post, October 6, article. 
Directing your attention to the third column on the bottom. It's 
highlighted on the copy you have.
    Answer. Okay.
    Question. Says, ``Within a week''--this is after the August 7th 
meeting with the Senate. It says, ``Within a week, according to a 
Senate staff member, White House lawyer Michael Imbroscio reported that 
the events videotaped were all public events, unless at the specific 
request of one of the principals, the President or the Vice President, 
they were asked to record a closed event.''
    Is that your understanding of how the events actually are to be 
taped is that the President or the Vice President would make the 
request?
    Answer. Again, I have no recollection of either learning that fact 
or reporting that fact to Mr. Bucklin.
    Question. So this account in the Post on October 6 is not your 
recollection?
    Answer. No, I believe----
    Question. It does say a Senate staff member says this.
    Answer. It probably goes to Mr. Bucklin, and it doesn't comport 
with my understanding.
    Question. Do you have an understanding of how those people show up, 
the camera people? Somebody obviously tells them to show up?
    Answer. Yeah. I don't have a firm understanding and can't speak as 
to what their procedures are.
    Question. Do you know Steve Goodin, who works with the President?
    Answer. I know of Mr. Goodin. I believe he is the President's aide, 
I believe is his title.
    Question. Do you know if Mr. Goodin has anything to do with 
requesting that people come to events to videotape, the audiovisual 
crew?
    Answer. It's my understanding that that is correct, that Steve 
Goodin has involvement in deciding which events are videotaped.
    Question. And does he do this by making a formal request or a paper 
request?
    Answer. Again, that's beyond my level of knowledge. I just don't 
know.
    Question. So have you told us then your entire knowledge of what 
Steve Goodin's role is in getting the audiovisual crews to tape the 
President?
    Answer. Yes, my general knowledge being that I understand he has 
some involvement. I don't know the precise nature of his involvement.
    Question. And when did you learn of Mr. Goodin's role?
    Answer. I think I learned of Mr. Goodin's role over a period of 
days that probably started with one of my initial discussions with Mr. 
McGrath, Chief McGrath, and my discussions in trying to figure out what 
they did and why they did it. I recall him using either Steve Goodin's 
name, or someone in Steve Goodin's position would have some say in what 
they did on a daily basis.
    Question. And are you aware of anyone in the Counsel's Office 
talking to Mr. Goodin about this?
    Answer. I don't have a specific recollection. I believe probably at 
some point, particularly when we were endeavoring to answer press 
inquiries, that someone from the Counsel's Office spoke with Mr. 
Goodin. But I did not speak with Mr. Goodin. I don't think I have ever 
spoke with Mr. Goodin, apart from one occasion when I said hi to him 
some months ago.
    Question. But you don't know who in the Counsel's Office spoke with 
Mr. Goodin?
    Answer. No, I don't have a recollection of who it would have been.
    Question. And does Mr. Goodin decide this on his own, or does he 
consult with the President, to your knowledge, about this?
    Answer. Again, that's way beyond what I know.
    Ms. Comstock. I guess we are running up against the clock here. So 
we do still have some additional inquiries, but we are just going to 
pick them up when we pick up the other general production matters that 
we wanted to revisit.
    Mr. Lynch. Okay.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And I guess we can take this up over at the Counsel's 
Office also, but are you aware of ongoing efforts to locate any 
additional audio or videotape recording?
    Answer. I'm aware there was a comprehensive effort over the past 
week or so to systematically identify, review and produce events that 
could potentially be responsive.
    Question. To your knowledge, is the President aware of that effort 
also?
    Answer. I have no personal knowledge of what the President is or is 
not aware of. I presume, since it has been reported widely in the press 
that this process is ongoing, that he has some understanding of it.
    Ms. Comstock. Do you all want to ask any questions at this time?
    Mr. Ballen. Yes, thank you.
    I don't know what questions I had, but I wanted to put two things 
on the record.
    First of all, just so it is clear, I talked to Mr. Bennett for 
about 15 minutes during the deposition this afternoon, and I think I 
can fairly state for the record, just so there is no misunderstanding, 
he and I have an honest and good faith difference of opinion over the 
conversation we had this past Tuesday, and we will leave it at that. I 
don't question his good faith, and I assume he does not question mine 
as to what the contents of our conversation was.
    The second thing I want stated on the record is to express our 
appreciation to Mr. Imbroscio for coming in here today and answering 
the questions fully and completely that have been posed to you. We can 
certainly take notice of the fact that you left a lucrative law 
practice at the early stage of your career to devote yourself to 
government service, and I think your integrity and competence are not, 
and character, are not what is at issue here in any fair reading of 
what has occurred.
    So I just wanted to note that for the record and hope that in any 
respect that your desire to go into public service and make that kind 
of sacrifice is not impugned here today.
    Nothing further.
    Ms. Comstock. I just have one additional inquiry.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know if any memos have been sent around regarding 
or instructing staff not to delete or eliminate any potential records 
that they may have that would be responsive to subpoenas?
    Answer. You mean generally?
    Question. Generally.
    Answer. Generally employees have an obligation under the 
Presidential Records Act to maintain the originals of any records that 
would potentially be defined as Presidential records. I believe the 
April 28th directive as well as other directives make that clear.
    I am not aware of any memos sent around along the lines of what you 
just asked.
    Ms. Comstock. Okay. You know, I think we will go ahead, since we 
did refer to this news article of October 6, and the witness did have a 
difference in the report, I think in fairness it would be helpful to 
put this into the record since this was not your recollection.
    It is an October 6, 1997 Washington Post article entitled White 
House Video Crew Taped Coffees. And we will make that Deposition 
Exhibit Number 8, and that was one we just referred to a little while 
back which quoted a Senate staff member.
    [Imbroscio Deposition Exhibit No. MI-8 was marked for 
identification.].
    Ms. Comstock. And we will end with that for today and have to meet 
again another time to finish up.
    [Whereupon, at 3:55 p.m., the deposition was concluded.]

    [The deposition exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.243
    
    [GRAPHIC] [TIFF OMITTED] T5405.244
    
    [GRAPHIC] [TIFF OMITTED] T5405.245
    
    [GRAPHIC] [TIFF OMITTED] T5405.246
    
    [GRAPHIC] [TIFF OMITTED] T5405.247
    
    [GRAPHIC] [TIFF OMITTED] T5405.248
    
    [GRAPHIC] [TIFF OMITTED] T5405.249
    
    [GRAPHIC] [TIFF OMITTED] T5405.250
    
    [GRAPHIC] [TIFF OMITTED] T5405.251
    
    [GRAPHIC] [TIFF OMITTED] T5405.252
    
    [GRAPHIC] [TIFF OMITTED] T5405.253
    
    [GRAPHIC] [TIFF OMITTED] T5405.254
    
    [GRAPHIC] [TIFF OMITTED] T5405.255
    
    [GRAPHIC] [TIFF OMITTED] T5405.256
    
    [GRAPHIC] [TIFF OMITTED] T5405.257
    
    [GRAPHIC] [TIFF OMITTED] T5405.258
    
    [GRAPHIC] [TIFF OMITTED] T5405.259
    
    [GRAPHIC] [TIFF OMITTED] T5405.260
    
    [GRAPHIC] [TIFF OMITTED] T5405.261
    
    [GRAPHIC] [TIFF OMITTED] T5405.262
    
    [GRAPHIC] [TIFF OMITTED] T5405.263
    
    [GRAPHIC] [TIFF OMITTED] T5405.264
    
    [GRAPHIC] [TIFF OMITTED] T5405.265
    
    [GRAPHIC] [TIFF OMITTED] T5405.266
    
    [GRAPHIC] [TIFF OMITTED] T5405.267
    
    [GRAPHIC] [TIFF OMITTED] T5405.268
    
    [GRAPHIC] [TIFF OMITTED] T5405.269
    
    [GRAPHIC] [TIFF OMITTED] T5405.270
    
    [GRAPHIC] [TIFF OMITTED] T5405.271
    
    [GRAPHIC] [TIFF OMITTED] T5405.272
    
    [GRAPHIC] [TIFF OMITTED] T5405.273
    
    [GRAPHIC] [TIFF OMITTED] T5405.274
    
    [GRAPHIC] [TIFF OMITTED] T5405.275
    
    [GRAPHIC] [TIFF OMITTED] T5405.276
    
    [GRAPHIC] [TIFF OMITTED] T5405.277
    
    [GRAPHIC] [TIFF OMITTED] T5405.278
    
    [GRAPHIC] [TIFF OMITTED] T5405.279
    
    [GRAPHIC] [TIFF OMITTED] T5405.280
    
    [The deposition of Dimitri Nionakis follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                   DEPOSITION OF: DIMITRI J. NIONAKIS
                                   Monday, November 3, 1997

    The deposition in the above matter was held in Room 2303, Rayburn 
House Office Building, commencing at 1:15 p.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Uttam Dhillon, Senior Investigative Counsel; James C. Wilson, Senior 
Investigative Counsel; Robert Dold, Counsel; Michael Yang, Minority 
Counsel; Andrew J. McLaughlin, Minority Counsel; and David Sadkin, 
Minority Counsel.
For MR. NIONAKIS:
    W. NEIL EGGLESTON, ESQ.
    Howrey & Simon
    1299 Pennsylvania Avenue, N.W.
    Washington, D.C. 22304-2702

    Mr. Dhillon. Good afternoon, I'd like to begin by thanking you on 
behalf of the Members of the Committee on Government Reform and 
Oversight for appearing here today. I would like to note for the record 
those who are present at the beginning of the deposition.
    I am Uttam Dhillon, the designated Majority counsel for the 
committee. I'm accompanied today by Robert Dold, who is with the 
Majority staff. Andrew McLaughlin as the designated Minority counsel 
for the committee. And he's accompanied by David Sadkin, who was is 
also with the Minority staff. The deponent is represented by Mr. Neil 
Eggleston.
    Mr. Nionakis, because you are an attorney, we're going to skip the 
usual preamble and ground rules and go straight into questioning, if 
that's all right with you.
    The Witness. That's fine.
    Mr. Dhillon. The only thing I would ask, if there are any questions 
you don't understand, would you please tell me you don't understand, 
and I'll rephrase the question.
    The Witness. Okay.
    Mr. Dhillon. And, Mr. McLaughlin, do you have something to state?
    Mr. McLaughlin. In honor of your skipping the preamble, I will skip 
my comment on the rules, too.

                      EXAMINATION BY MR. DHILLON:

    Question. Mr. Nionakis, can you give us a brief rundown of your 
employment history from college forward?
    Answer. I began working at a law firm downtown in the fall of 1991, 
a law firm. Would you like the name of the law firm?
    Question. Yes, sir.
    Answer. Howrey & Simon. And worked there from September '91 until 
about the end of February, 1997. At the beginning of March of 1997, I 
began at the White House as Associate Counsel to the President.
    Question. Who hired you? At the White House?
    Answer. Charles Ruff, Counsel to the President.
    Question. And who is your supervisor at the White House?
    Answer. My direct supervisor is Lanny Breuer: Charles Ruff is the 
highest supervisor in that office.
    Question. And where is your office physically located?
    Answer. My office is in the OEOB.
    Question. And is that the office?
    Answer. The Old Executive Office Building.
    Question. And are there any other members on the Counsel's Office 
at the same floor or near you at the OEOB?
    Answer. Yes.
    Question. And let me ask you first, what floor are you on?
    Answer. I'm on the fourth floor.
    Question. And who is--who from the Counsel's Office is also on the 
fourth floor near your office in the same vicinity as your office?
    Answer. The lawyers in the Counsel's Office on that floor, Karl 
Racine, Karen Popp, Michelle Peterson, Michael Imbroscio.
    Question. And where is Mr.----
    Answer. I think that's it.
    Question. Where is Mr. Breuer's office located?
    Answer. He is located on the first floor.
    Question. Of the Old Executive Office Building?
    Answer. Of the Old Executive Office Building.
    Question. And Mr. Ruff's office?
    Answer. He is in the west wing of the White House.
    Question. Now, what are your duties at the White House?
    Answer. I primarily work on investigative matters for the White 
House.
    Question. Have your duties been the same since the time you began 
in March of 1997?
    Answer. I think that's correct, yes. I think that's accurate.
    Question. When you say investigative matters, what exactly are you 
talking about? Well, let me rephrase the question. What exactly do you 
do with respect to investigative matters?
    Answer. I handle responding to inquiries from a variety of 
investigative bodies.
    Question. What investigative bodies have you responded to since you 
began working in March of 1997?
    Answer. This committee, the Senate committee, and the Department of 
Justice. So basically the Hill and the Department of Justice.
    Question. Well, are you also responsible for responding to any 
civil requests, involving civil litigation?
    Answer. Yes. They have come through the Department of Justice.
    Question. So there are no civil requests that come directly to the 
White House. They all come through the Department of Justice.
    Mr. Eggleston. I think you--of the ones--you're asking of the ones 
he was working on?
    The Witness. Right.

                      EXAMINATION BY MR. DHILLON:

    Question. Let me rephrase the question. Of the ones you're working 
on, you're aware of civil requests, but the request came through the 
Department of Justice?
    Answer. The one that I'm working on, the request came through the 
Department of Justice.
    Question. With respect to the requests through the Department of 
Justice, are there multiple kinds of requests that have come in from 
them that you've worked on?
    Answer. Yes.
    Question. And what are those kinds of requests?
    Answer. Let me take one step back. Could you clarify what you mean 
by multiple requests?
    Question. Are there requests from different entities at the 
Department of Justice that the Department of Justice is funneling 
through itself and, if I can ask you sort of a compound question, are 
there criminal and civil mixed in in those requests?
    Mr. McLaughlin. I'm a little bit confused here.
    Mr. Dhillon. Let me back up.

                      EXAMINATION BY MR. DHILLON:

    Question. With respect to the Department of Justice, have you 
responded to requests that are both criminal in nature and civil in 
nature?
    Mr. Eggleston. Well, he--now I'm confused, too, because he told you 
he responded to the Hill in connection with investigations that are 
going forward. And he's also told you that he's responded to request 
for documents from the Department of Justice that are civil in nature. 
He's already answered it.
    Mr. Dhillon. That's only--that's not----
    Mr. Eggleston. If you're asking a new one, then I don't understand 
what you're trying----
    Mr. Dhillon. No, I'm not. I am trying to establish that that's the 
only route that those come through. Let me just ask the question this 
way.
    Do you respond to requests for civil actions that come from the 
Department of Justice?
    Mr. McLaughlin. Is it do you or have you?
    Mr. Dhillon. Have you.
    The Witness. I have worked on a matter that is a piece of civil 
litigation. The plaintiffs in that matter have made requests of the 
White House. Those requests have come through the Department of 
Justice.

                      EXAMINATION BY MR. DHILLON:

    Question. Is that the only civil matter you've worked on?
    Answer. To the best of my recollection, that is correct.
    Question. Are there other requests that come from the Department of 
Justice, excluding that matter?
    Answer. I'm not aware of any.
    Question. Are there any----
    Answer. There may be. I don't know.
    Question [continuing]. An investigation by the Department of 
Justice into various activities that are similar to the--this 
committee's investigation?
    Answer. Yes. There are.
    Question. Okay. So that's another line of requests from the 
Department of Justice that you've responded to?
    Answer. That is a different request from a different part of the 
Department of Justice.
    Question. Okay.
    Answer. That's correct.
    Question. Now, we've identified two--you've identified two for us, 
that line of request and then that civil litigation. Are there any 
others--any other requests you responded to from the Department of 
Justice?
    Mr. McLaughlin. I'm sorry. Can we just be clear. There is one line 
of request from the Campaign Task Force from the Department of Justice.
    Mr. Dhillon. Why don't you ask him that question?
    Mr. McLaughlin. Yes. Let's pin down his visions.
    Mr. Dhillon. Mr. McLaughlin's question, could you answer that?
    The Witness. Yes. The task force that is investigating the campaign 
financing issue has made requests.

                      EXAMINATION BY MR. DHILLON:

    Question. All right.
    Answer. Separate from the requests that have come through another 
branch of the Department of Justice with respect to that civil 
litigation.
    Question. All right. Other than those two, is there anything else 
from the Department of Justice that you've responded to, any other 
requests?
    Answer. To the best of my knowledge, no.
    Question. Okay. Now, how is communication between the various 
offices--between the Counsel's Office handled? Between members of the 
Counsel's Office handled?
    Answer. I'm not sure I understand the question.
    Question. Do you have regular meetings?
    Answer. We have meetings, yes.
    Question. How frequently do you have those meetings?
    Answer. We have at least one meeting a week.
    Question. Who attends?
    Answer. There are staff meetings of the entire Counsel's Office in 
which all lawyers in the Counsel's Office attend. And there are smaller 
meetings where people who work on investigative matters may attend 
those?
    Question. Okay. Let's go to the big picture. How many attorneys are 
in the counsel's office?
    Answer. Approximately 12 to 14.
    Question. Are there any paralegals?
    Answer. Yes.
    Question. How many?
    Answer. The paralegals, I'm familiar with the paralegals who work 
in the investigative matters, and there are 3.
    Question. Three.
    Answer. Three.
    Question. Any interens?
    Answer. Yes. We have interns who come through our intern program, 
who spend some time working on investigative matters, but also work on 
other matters in the counsel's office.
    Question. Okay. You hit on this a little bit before. I would like 
to now ask you what the structure of the Counsel's Office is in terms 
of top to bottom and where do you fit in on that. So let's start with 
the first question. Let's start with the structure of the Counsel's 
Office.
    Answer. As a nonexpert on the structure, I'll tell you to the best 
of my knowledge. Charles Ruff is Counsel to the President. There are 
two Deputy Counsels, Cheryl Mills and Brucy Lindsey. Lanny Breuer is 
the Special Counsel. I believe there's another special counsel. And I 
may not be exact on that title. And there are several associate 
counsels. I'm one of the associate counsels. I should say the bulk, in 
those titles, the bulk of people are associate counsels, hold that 
title.
    Question. Now, you spoke of meetings with the entire Counsel's 
Office and then separate group meeting. Are you in a separate group?
    Answer. I wouldn't necessarily call it a separate group, but 
because I work on investigative matters, those people who work on 
investigative matters often have meetings.
    Question. How many people are in that group? Is calling it a group 
okay or would you prefer--what would you call it? Task force?
    Answer. No. I'm fine with group.
    Question. Okay.
    Answer. I'd say approximately six.
    Question. And who are they?
    Answer. Lanny Breuer, myself, Michelle Peterson, Michael Imbroscio, 
Karen Popp, Karl Racine. I think that's it.
    Question. And what's the objective of this group? What are they 
tasked with doing?
    Answer. Pretty much what I described earlier is what my role is.
    Question. In terms of the investigative, responding to 
investigative inquiries?
    Answer. That's correct.
    Question. Now, who's in charge of that particular group or team?
    Answer. Lanny Breuer.
    Question. Now, is Cheryl Mills involved in any aspect of the review 
or production of documents in response to requests or subpoenas from 
investigative bodies?
    Answer. No. I would say, no. Not on a direct day-to-day basis, no.
    Question. Who does Ms.--do you know who Ms. Mills reports to in the 
Counsel's Office?
    Answer. I don't know. I've never asked her.
    Question. What's your understanding of what her duties are and 
responsibilities are?
    Answer. I know--my understanding is that she has a broad range of 
responsibilities and duties. I have not sat down and asked her exactly 
what those are.
    Question. Is Mr. Brucy Lindsey involved in any aspect of the review 
or production of documents or things in response to request or 
subpoenas from investigative bodies?
    Answer. To the best of my recollection, I don't believe he is.
    Question. What's your understanding of what Mr. Lindsey's duties 
and responsibilities are?
    Answer. My best description of his duties would be as a senior 
advisor to the President.
    Question. Do you have any interaction with Mr. Lindsey?
    Answer. I do not have any regular interaction with Brucy Lindsey, 
no.
    Question. When you do have interactions with Brucy Lindsey, what 
are they regarding generally? Is there a specific area or topic that 
you have interactions with him on?
    Answer. No. It's typically, hi, Bruce, how are you.
    Question. What process does the Counsel's Office follow when 
responding to a subpoena or other requests from this committee from 
beginning to end?
    Answer. The entire process of responding to a subpoena?
    Question. I can break it down if you would like. I would prefer if 
you can give me a synopsis, and then we can sort of go over it, the 
parts that----
    Answer. Generally, we receive a request. We review the request. To 
the extent that we believe it's overbroad or unmanageable or unduly 
burdensome, we try and work with the investigative body to modify it, 
if possible. After that, we sit down and determine where responsive 
documents may be located. We set out to gather those documents. We 
receive them or we gather them. We review them. We produce them.
    Question. From the beginning, at the beginning of the process, who 
in the Counsel's Office accepts a subpoena or document request?
    Answer. I don't believe there's any particular individual who 
accepts a subpoena or document request. They simply come in.
    Question. Are the subpoenas or document requests logged into a 
database or computer of any kind?
    Answer. To my knowledge, no.
    Question. Is there any written logging in of a subpoena or document 
request?
    Answer. I don't believe so.
    Question. Who decides who will respond to a subpoena or a document 
request?
    Answer. I would say Lanny Breuer typically determines how he will 
allocate the resources, given the demands on the office.
    Question. Are there--you said typically. Are there times when Mr. 
Breuer doesn't do that and it's done in another manner?
    Answer. In the--when we get a very specific, narrow request, for 
instance, could you please provide the WAVES records for a particular 
individual, that is something that, when it comes in, I and the other 
associate counsels can simply just do it. It's not something that Lanny 
Breuer needs to necessarily think about and allocate.
    Question. So there are some subpoenas that are sufficiently narrow 
that you or another associate counsel would know how to obtain the 
responsive information without going through your supervisor.
    Mr. McLaughlin. Just for----
    The Witness. Actually----
    Mr. McLaughlin [continuing]. Just for clarification, I think he 
also mentions subpoenas with regard to WAVES records.
    The Witness. That's absolutely correct.
    Mr. McLaughlin. Do you mean to encompass subpoenas, document 
requests, and formal letter requests together; or do you want to 
separate those out one by one? I'm not sure where you're going on this.
    Mr. Dhillon. My questions have been both subpoenas and document 
requests or subpoenas and other requests.

                      EXAMINATION BY MR. DHILLON:

    Question. I'll ask this question. Do you treat a subpoena, a 
document request, or an informal type of request any differently in 
terms of how you respond to it?
    Answer. With respect to subpoenas, Lanny Breuer will definitely 
have some weighing in as to who will respond to it. The example I gave 
you was a subpoena, narrow, informal request for the WAVES records of a 
particular individual. And that example covers that exact type of 
request.
    Question. What do you mean when you talk about an informal request?
    Answer. Barbara Comstock might call me up and say may I have the 
WAVES records for a particular individual.
    Question. And your response would be to personally or have 
somebody, one of your fellow associates obtain those and produce them 
to the committee without going through a formal assignment process?
    Answer. Generally speaking, that's right.
    Question. And since we're on the subject, do you treat a written 
document request in, say, the form of a letter differently from a 
subpoena? Are those handled differently by your office?
    Mr. McLaughlin. I just want to--one more thing for clarification. 
As I understand it, there are subpoenas, there are document requests in 
the nature of a subpoena, in other words, with lengthy definitions and 
instructions and so forth, and then a series of items. There are also 
just simply letters that request information. You.
    Know, in my own mind, there's a distinction between those last two 
things. I think of the last category as being somewhat more informal. I 
want to be clear because, in other depositions, we've been trying to 
draw distinctions between those three kinds of requests.
    Mr. Dhillon. Then I'll ask that question.
    The Witness. I think it's more of the breadth and the scope of the 
request that determines whether or not it is something that needs to be 
allocated among several individuals or something that is so narrow and 
targeted that can be done fairly quickly and by one person. It's not 
really by the nature of, you know, whether it's a subpoena. We can get 
document requests that are much broader than subpoena requests.

                      EXAMINATION BY MR. DHILLON:

    Question. So the form of the request is less critical than the 
breadth or the size of the request?
    Answer. I don't know if that's the case either. I don't--I don't 
know if that's really the case.
    Mr. Eggleston. Mr. Dhillon, another individual has just entered the 
room. Could you identify him?
    Mr. McLaughlin. I will. He's on my staff. His name is Michael Yang. 
He's also counsel on minority staff.
    Mr. Eggleston. Thank you. I have no objection, I just want to know 
who people are as they come.
    Mr. McLaughlin. It's good practice.

                      EXAMINATION BY MR. DHILLON:

    Question. Is it safe to say that requests are handled on a request-
by-request basis, and there are different ways of handling them just 
depending on all the circumstances surrounding the request?
    Answer. That's very fair. Yes.
    Question. Now, what do you do--what's the next step after you've 
obtained, let's say, for example, a subpoena from this committee? 
What's the next thing that the Counsel's Office would do?
    Answer. We sit down and review it.
    Question. And then what?
    Answer. Determine whether we should try to or need to modify some 
of the requests to make them even more manageable. Sometimes they're 
overbroad. Sometimes they're a little bit unclear. All document 
requests tend to be that way sometimes.
    Question. And how do you do that?
    Answer. We consult with the committee, the investigative body.
    Question. And once you've reached an agreement--I take it in the 
past you've reached agreements about the language or the scope of 
subpoenas.
    Answer. We've made every attempt to do so, yes.
    Question. Once you've gotten to that point, what's the next step?
    Answer. We try to determine where responsive documents may be 
found.
    Question. Okay. How do you do that?
    Answer. By looking at the nature of the request, by looking at the 
various offices within the executive office of the President, trying to 
match the two up.
    Question. And what do you do once you've determined which offices 
are the offices you believe are likely to contain responsive documents?
    Answer. If it--if our conclusion is that it is probably many 
offices that may contain responsive documents, excuse me, then we will 
send out a directive that is EOP-wide. If it is one that we think is 
targeted--that is targeted, we will do a targeted search.
    Question. Now, do the people who receive this, let me back up. 
What's a directive?
    Answer. A directive is, in essence, a document that notifies the 
recipient that there has been a request for information and documents, 
and that they are asked to search their files and--for certain 
documents. And the documents are described. And to send them to the 
Counsel's Office.
    Question. Do the people who receive these directives ever sign any 
forms or in some way attest that they've done a search and they could 
or they did or did not find files--or I'm sorry, find responsive 
documents?
    Answer. In some instances, they do do that.
    Question. Is there a requirement or a form that the Counsel's 
Office has to make that--and that's made available to the individuals 
who receive the directive?
    Answer. In some instances, yes.
    Question. When is it--when is such a form given to the people who 
receive the directive?
    Answer. When we send out a very large EOP-wide directive, that is 
one--that I believe, to the best of my knowledge, is when we've done 
it.
    Question. And when did you not do it?
    Answer. If it's a targeted search where we will go to maybe one or 
two offices and we pretty much deal directly with those individuals and 
is more of a go over, get the documents, or have them provide the 
documents and make sure that the search has been completed.
    Question. Who would sign such a document?
    Mr. Eggleston. Are you talking about the certification?
    Mr. Dhillon. The certification, yes.
    The Witness. I believe the person in charge of a particular office 
will sign the certification.

                      EXAMINATION BY MR. DHILLON:

    Question. Now, how--when you do a large request, and you--that 
justifies a directive, how do you ensure that all of the offices have 
complied?
    Answer. Well, one way is usually the certification process that I 
just described.
    Question. What--does the certification process or--is there a form 
that you prepare, or is the form prepared by the office responding?
    Answer. The form is prepared by the Counsel's Office.
    Question. And does that form allow----
    Answer. Generally the form is prepared by the Counsel's Office, 
yeah.
    Question. And do you receive that form from every office, in the 
case of a directive, from every office the directive was sent to?
    Answer. To the best of my knowledge, I believe that we do do that.
    Question. So just so I'm clear, you ensure that--my question to you 
is how is compliance assured. And is the answer that you ensure that 
you received a form from every office that the directive was sent to?
    Answer. I personally, no. The Counsel's Office receives the 
certifications from the various offices after the certifications have 
gone out.
    Question. Who verifies that those certifications have been received 
from every office in the case of response to a request from the 
Counsel's Office, to a directive from the Counsel's Office?
    Answer. One of the--one of the Counsel's Office members.
    Question. An associate counsel?
    Answer. I don't know if it's particularly an associate counsel, but 
one of the Counsel Office's members.
    Question. Have you personally ever done that?
    Answer. I have not.
    Question. Do you know of anyone in the Counsel's Office who has?
    Answer. I believe Karen Popp did.
    Question. And in what circumstance or in response to which 
directive did she do that?
    Answer. I believe she did it in response to the April 28 directive.
    Question. And that was a directive sent out by Mr. Ruff?
    Answer. I believe his name is on it, yeah.
    Question. How are the documents--let's talk in the case of a 
directive--let's not. Let's talk in the case of a targeted request, and 
you used WAVES records as an example. Do you----
    [Pager interruption.]
    Answer. Sorry. I'm fine.
    Question. With respect to a targeted request----
    Answer. Uh-huh.
    Question [continuing]. You indicated that, if the request is, for 
example, WAVES records, you or one of your fellow counsels may go and 
simply obtain the records; is that accurate?
    Answer. In some instances, yes.
    Question. So there are times when you actually go digging through 
and--or go into the office and requesting--and actually physically 
requesting the records yourself?
    Answer. That's correct.
    Question. With respect to a directive, do you typically work in 
that manner, also?
    Answer. Typically not, because if the directive goes out, usually 
the person receiving the directive will send us the documents. There 
are instances where we will review documents in a person's office at 
their request.
    Question. Are the documents sent through interoffice mail or 
through couriers or interns? How do the documents physically get from 
one office to the Counsel's Office in response to a directive?
    Answer. Typically, they are hand-delivered.
    Question. Now, what happens when documents that are responsive to a 
directive are received? Where are they received, and where--where are 
they received? Where are they sent to?
    Answer. Generally, they are sent to one of the associate Counsel's 
Offices.
    Question. Where do they go from there?
    Answer. They are either reviewed by that associate counselor, they 
are placed in a workroom where somebody--one associate counsel will 
review them.
    Question. Is there a specific workroom that you have for reviewing 
the responses to directives and other document requests?
    Answer. We have a workroom that we use.
    Question. Do you use that for storing the documents, also?
    Answer. Storing, viewing, preparing.
    Question. Now, have you personally ever received documents 
responsive to a directive?
    Answer. Yes.
    Question. And what process did you follow with those documents?
    Answer. Either I would review them, or they would go to the 
document room where I or somebody else reviewed them.
    Question. And what would happen after the review process?
    Answer. Responsive documents are flagged for production.
    Question. When are they given their EOP number?
    Answer. When? Some--I don't mean to be flip, sometime before 
they're produced.
    Question. Okay.
    Answer. And prior to the copying obviously.
    Question. When the final decision has been made on production?
    Answer. Once they're deemed responsive.
    Question. Okay. You said that you review the documents, and you 
flag the ones you think are responsive. What's the next step after that 
with respect to your production?
    Answer. Generally speaking, they are Bates stamped and, at some 
point, they go out.
    Question. Are you, for example, in--for documents you've received 
in response to a directive, are you the final person to review those 
documents before they're produced to this committee?
    Answer. Sometimes yes. Sometimes no.
    Question. Under what circumstances are you the last person to 
review them?
    Answer. It's not really a formal process. It would just be that I 
was the last person to look at them.
    Question. Okay.
    Answer. Versus another associate counsel.
    Question. Do you have Mr. Breuer look at documents before they're 
produced?
    Mr. Eggleston. Would----
    Mr. Dhillon. I'm sorry. Jim Wilson of the Majority staff just 
entered the room.
    Mr. Eggleston. Thank you.
    The Witness. Sometimes he does, yes.

                      EXAMINATION BY MR. DHILLON:

    Question. And under what circumstances does he look at documents 
before they're produced, Mr. Breuer, that is?
    Answer. An example would be if a particular--if a production is 
going out, he may want to just get a sense as to what kind of documents 
are going out.
    Question. Okay. Was there ever a time when you specifically flagged 
a document for Mr. Breuer to review before sending it out?
    Answer. I need to confer for a second.
    [Witness confers with counsel].
    The Witness. Don't believe I've done that, no.

                      EXAMINATION BY MR. DHILLON:

    Question. Was there ever a time when Mr. Breuer came through and 
asked you just generally to review documents before they went out?
    Mr. Eggleston. I'm sorry. Those are documents he's not collected 
and someone else has collected?
    Mr. Dhillon. Yes. I'm sorry.
    Mr. Eggleston. Because otherwise----
    Mr. Dhillon. Yes. Documents you've collected that he asked you to 
review them before they went out.
    Mr. McLaughlin. Review a second time. I'm sorry, I'm confused. 
Documents he's already reviewed?

                      EXAMINATION BY MR. DHILLON:

    Question. I'll rephrase the question. Was there ever a time that 
Mr. Breuer asked you to provide to him documents for his review after 
you had reviewed them.
    Answer. I can't recall a time where he would do--where he has done 
that.
    Question. When has Mr. Breuer reviewed documents after you've 
reviewed them before they were sent to this committee?
    Mr. McLaughlin. You want dates? Do you want kinds of documents? I'm 
not sure what you mean by when.
    Mr. Dhillon. When means when.
    Mr. McLaughlin. Meaning what date and what month?
    Mr. Dhillon. When.
    The Witness. I actually don't recall.

                      EXAMINATION BY MR. DHILLON:

    Question. All right. Do you recall that event ever occurring?
    Answer. I don't.
    Question. So is it your recollection, then, that Mr. Breuer never 
has reviewed documents after you've reviewed them?
    Mr. McLaughlin. I don't think that was his testimony earlier.
    The Witness. I'm sorry. Was that the question?
    Mr. Dhillon. Yes.
    The Witness. Mr. Breuer has reviewed documents--has looked at 
documents after I have reviewed them.

                      EXAMINATION BY MR. DHILLON:

    Question. Under what circumstances did that occur?
    Answer. It would be under the circumstances where I would say, 
Lanny--as I said before, I think it would just be a circumstance where 
he would like to get a sense of what kinds of documents were going--
have been produced.
    Question. So that the request to review those documents that you 
reviewed come from Mr. Breuer?
    Answer. Are you saying--are you asking me if Mr. Breuer is the one 
who asked me?
    Question. Yes.
    Answer. I believe so, yeah.
    Question. And how often has that occurred?
    Answer. Not often. And I believe after documents have been 
produced.
    Question. Has Mr. Breuer ever asked you to review documents--has 
Mr. Breuer ever requested documents from you that you have reviewed 
prior to production to this committee or another investigative body?
    Answer. I don't recall his ever doing that.
    Question. When memos or directives are sent out by the Counsel's 
Office, who typically writes them?
    Answer. I think typically one of the associate counsels draft them.
    Question. Have you ever done that?
    Answer. I assisted in drafting. I've reviewed drafts of directives, 
yes.
    Question. Now, with respect to responding to specific document 
requests or subpoenas, does your team or group have regular meetings 
or--to discuss the response?
    Answer. If you're asking if our team meets regularly when we're 
responding to subpoenas or document requests, the answer is, yes.
    Question. What do you talk about at those meetings?
    Answer. The status of production.
    Question. Do you ever talk about specific documents and whether 
they should or should not be produced?
    Answer. I don't believe so, no.
    Question. Has the frequency of meetings remained relatively the 
same and stable since you arrived at the White House Counsel's Office?
    Mr. Eggleston. These are investigative team meetings?
    Mr. Dhillon. Yeah. That's correct.
    The Witness. I think so, yes.
    Mr. Eggleston. They meet a lot over there.
    Mr. McLaughlin. We do over here, too.

                      EXAMINATION BY MR. DHILLON:

    Question. Now, when you receive a subpoena or a document request or 
a letter request, do you send out the actual request to the various 
offices or units or groups?
    Answer. Could you repeat that question.
    Question. When the White House Counsel's Office receives a subpoena 
or document request or letter request, is that--is an actual copy of 
that sent to the various offices or units or entities within the White 
House?
    Answer. I don't believe so.
    Question. How do you advise the various entities within the White 
House of the subpoena, document request, or letter request?
    Answer. Generally, it's using the directive.
    Question. Which is a document created by the Counsel's Office?
    Answer. That's correct.
    Question. Do interns review any documents that are responsive or 
potentially responsive to committee subpoenas?
    Answer. At times, they will do an initial overbroad first cut.
    Question. And when you say ``first cut'', what does that mean?
    Answer. They will take a very large universe of documents, and 
using an overbroad scope, review those documents.
    Question. And using the scope, the overbroad scope, will they 
eliminate some documents from that universe of documents?
    Answer. I don't know. They might. I don't know.
    Question. Have you ever given interns instructions on how to review 
documents and what they were looking for, how they should----
    Answer. I have not.
    Question. Have you ever been present when anyone in the Counsel's 
Office gave an intern such an instruction or instructions?
    Answer. I have not.
    Question. How do you know that interns review documents?
    Answer. I have walked into the workroom and seen interns reviewing 
documents.
    Question. Are these interns that are working with the investigative 
group?
    Answer. That's correct.
    Question. And do you know what their names are?
    Answer. Actually, I don't know their full names.
    Question. Do you know who--how about first names. You know first 
names?
    Answer. Yes. I know one first name.
    Question. And that is?
    Answer. Erica.
    Question. Is Erica still employed as an intern at the White House 
Counsel's Office?
    Answer. I believe that she is.
    Question. Do you know who assigned the interns to review these 
documents?
    Answer. I don't know.
    Question. Have you ever assigned interns to do a first cut on 
documents responsive to this committee's subpoena or subpoenas?
    Answer. I don't recall ever doing that.
    Question. Now, what was the status--let me back up. When you 
arrived in March of 1997, was Mr. Quinn still there?
    Answer. No, he was not.
    Question. And what was the status of document gathering at the time 
you arrived?
    Answer. We were anticipating receiving a subpoena from this 
committee.
    Question. Did Mr. Quinn leave any memos or explanations of what he 
had done at that point?
    Answer. I don't know if he did.
    Question. Did you ever see any such memos?
    Answer. I did not.
    Question. Do you know who was in charge of responding to subpoenas 
or other requests under Mr. Quinn?
    Answer. I don't know.
    Question. Does the President see subpoenas from this committee?
    Answer. I don't know.
    [Discussion off the record.]
    Mr. Eggleston. He said he didn't know.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you know if the President is on the list to--I'll back 
up for a second.
    What about directives? Is the President provided with directives 
from your office?
    Answer. I don't know.
    Question. Now who----
    Answer. Now----
    [Witness conferring with counsel.]

                      EXAMINATION BY MR. DHILLON:

    Question. I'm sorry?
    Answer. I want to clarify one response, and that was to your 
question as to whether Lanny Breuer has ever asked to review documents 
after I reviewed them before they have gone out. I just want to make it 
clear that I don't recall his ever doing that. He may have, I just 
don't recall, okay?
    Mr. Dhillon. Okay.
    Mr. Eggleston. I just couldn't remember whether that's--he gave an 
answer close to that before, but I didn't remember. But I didn't take 
him----

                      EXAMINATION BY MR. DHILLON:

    Question. Okay. Who would provide the President with a copy of a 
subpoena or a directive?
    Answer. I really don't know who would. I assume one of his 
advisors.
    [Witness conferring with counsel.]
    The Witness. And, also, your question kind of presumed that he is 
provided with one. And as I said earlier, I don't know that he's 
provided with one.
    Mr. Eggleston. With one.
    The Witness. With a subpoena.

                      EXAMINATION BY MR. DHILLON:

    Question. I was asking about a couple of things.
    Answer. With a directive.
    Question. Subpoena or directives.
    Answer. Okay.
    Question. Who do you represent in your capacity as Associate 
Counsel to the President?
    Answer. I represent the President and the White House and the 
Executive Office of the President.
    Question. All three?
    Answer. Well, they are all part of the administration.
    Question. You do that as one entity or multiple entities?
    Answer. In the broad sense, yes.
    Question. Now, have all the responsive documents in the President--
of the President's been turned over to this committee?
    Answer. To the best of my knowledge, yes.
    Question. Who certifies from the President's Office the documents 
that have been turned over?
    Mr. McLaughlin. I'm sorry, in the President's possession, do you 
mean in his personal capacity or Oval Office operations or Executive 
Office of the President or immediate Office of the President? I'm not 
sure what you mean by that.

                      EXAMINATION BY MR. DHILLON:

    Question. Let's start off with personal capacity. I'll reask the 
question. Thank you. Have all responsive documents in the President's 
personal possession been turned over to the committee?
    Answer. I don't know if the President has documents in his personal 
possession. I'm not sure if I can answer that question.

                      EXAMINATION BY MR. DHILLON:

    Question. So it's possible, then, that the President does have 
documents in his personal possession that would be responsive to this 
committee?
    Answer. Either you misunderstood my answer or I misunderstood your 
first question. How about asking the first question again. You said--
why don't you ask it to me. You said something about the documents to 
the President?
    Question. I asked a question and I received a satisfactory answer, 
so I'm going to go on to the next question, which is: Is it possible 
that the President has documents in his personal possession that have 
not been produced to this committee?
    [Witness conferred with counsel.]
    The Witness. To my knowledge, no.
    Mr. McLaughlin. I'm sorry; were you given a chance to explain your 
answer? I think there was a disconnect.
    The Witness. There was a disconnect. But----
    Mr. McLaughlin. I'd like you to say whatever you think is important 
to say on the record.
    Mr. Eggleston. That's all.
    Mr. McLaughlin. Okay. As long as it's clear.

                      EXAMINATION BY MR. DHILLON:

    Question. Who certifies for the President personally that documents 
in his possession have been turned over, or that he has no such 
responsive documents?
    Answer. I don't know.
    Question. Have you ever seen such a certification from the 
President personally, or from someone acting on his behalf, that he has 
or does not have any documents responsive to a request of this 
committee?
    Answer. I don't recall ever seeing that.
    Question. Has the President personally ever provided the Counsel's 
Office with any documents responsive to this committee's subpoena or 
subpoenas?
    Answer. Could you explain what you mean by ``the President 
personally''?
    Question. Documents coming from the President himself.
    Answer. We have received documents from Oval Office Operations. I 
don't recall the President himself personally sending over responsive 
documents. But Oval Office Operations covers the area that the--of the 
Oval Office, which is where the President's office is.
    Question. Who in the Oval Office Operations procedure certifies 
that documents have been produced or could not be found or do not 
exist?
    Answer. I don't know. I don't recall. I should say as I sit here, I 
don't recall.
    Question. Is the First Lady's office provided with subpoenas, 
directives, letter requests, or----
    Answer. I believe so. Yes. Yes, they are.
    Question. Has the First Lady herself ever provided Counsel's Office 
with any documents responsive to subpoenas or directives or letter 
requests?
    Answer. We have received documents from the First Lady's office.
    Question. And who certified that the document--or that the search 
was complete?
    Answer. I don't recall.
    Question. Are you aware of the President taking any notes at 
coffees?
    Answer. No.
    Question. Are you aware of any attendees who said that the 
President took any notes at coffees?
    Answer. I am not.
    Question. Has anyone asked the President for notes that he may have 
taken at coffees?
    Answer. I don't know.
    Question. We are placing for, and you asked to be marked as Exhibit 
1, the March 4, 1997, subpoena issued by this committee, and I'd ask 
that you review it.
    [Nionakis Deposition Exhibit DN-1 was marked for identification.]

    [Note.--All exhibits referred to may be found at end of 
deposition on p. 595.]

    [Witness complies.]
    The Witness. I've flipped through it.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you recognize Exhibit 1?
    Answer. It looks like the March 4th subpoena that we received.
    Question. When was the first time you saw Exhibit 1?
    Answer. I believe March 5th.
    Question. I'm sorry, what day did you begin working at the White 
House Counsel's Office?
    Answer. Either the 1st or 2nd of March. It may have been the last 
day of February; I'm not sure exactly.
    Question. Okay. So you were already employed at the White House 
Counsel's Office at least for a few days when this arrived, when 
Exhibit 1 arrived?
    Answer. Yes, that's right.
    Question. As part of your responsibilities in the White House 
Counsel's Office, have you ever dealt with Exhibit 1 in any way?
    Answer. Yes.
    Question. How?
    Answer. I responded to it.
    Question. Were you given the responsibility of responding to 
Exhibit 1 or to any part of Exhibit 1?
    Answer. Several of us worked on responding to Exhibit 1.
    Question. And who--would you please identify those people?
    Answer. Mike Imbroscio, Karen Popp, Michelle Peterson. I think 
that's--among the associate counsels, I think that's it, yeah.
    Question. Who assigned you to respond to Exhibit 1?
    Answer. Lanny Breuer.
    Question. And when did that occur?
    Answer. I don't recall.
    Question. Did the Counsel's Office issue any memos or directives 
regarding Exhibit 1?
    Answer. Yes.
    Question. And approximately when was--well, what was issued?
    Answer. I believe it's the April 28th directive.
    Question. Were there any other directives issued by the Counsel's 
Office regarding Exhibit 1?
    Answer. There may have been; I'm not sure.
    Question. Was anyone assigned to locate and produce documents 
related specifically to coffees?
    Answer. I don't recall.
    Question. Did anyone take it upon themselves, during the course of 
producing or responding to Exhibit 1, to respond to or to look for 
coffee-related documents?
    Answer. I don't recall.
    Mr. Dhillon. Exhibit 2, now. We place before you what I will ask to 
be marked as Exhibit 2. On April 18, 1997, a letter from John Rowley, 
former chief counsel, to Lanny Breuer, Special Counsel to the 
President. Could you please review Exhibit 2.
    [Nionakis Deposition Exhibit DN-2 was marked for identification.]
    [Witness complies.]
    Mr. McLaughlin. When we reach a logical breaking point, could we 
take a bathroom break in the next 5 or 10 minutes?
    Mr. Dhillon. That's fine with me. How about a five-minute break 
now? It's a fairly long document and he's reviewing it. Why don't we 
take a bathroom break now. Off the record for five.
    [Recess taken from 2:20 p.m. to 2:25 p.m.]

                      EXAMINATION BY MR. DHILLON:

    Question. Do you recognize--have you had a chance to review Exhibit 
2?
    Answer. I briefly reviewed it, yes, sir.
    Question. Do you recognize Exhibit 2?
    Answer. I recognize it as a document--yes, I do.
    Question. What is it?
    Answer. It's a document sent by John Rowley to Lanny Breuer dated 
April 18, 1997.
    Question. Were you involved in any discussions with this committee 
that led to the preparation of Exhibit 2?
    Answer. I believe so, yes.
    Question. Besides yourself, who else in the Counsel's Office were 
involved in such discussions?
    Answer. I believe Lanny Breuer and Karen Popp. That's all I can 
recall right now.
    Question. Who did you have your discussions with in this--in the 
committee's office regarding this matter?
    Answer. Barbara Comstock, John Rowley, I believe Andrew McLaughlin 
was at some of the meetings. I believe Ken Ballen was, Phil Barnett, 
and David Bossie. And there may have been others.
    Question. When was the first time you saw Exhibit 2?
    Answer. On or soon after it was sent to us. I really don't recall 
exactly when.
    Question. Were any other members of the Counsel's Office provided 
with a copy of Exhibit 2?
    Answer. I believe so, yes.
    Question. What is your understanding of why certain items are in 
bold face on Exhibit 2?
    Answer. I have no idea.
    Mr. McLaughlin. Do you want him to read the instruction on the 
letter?

                      EXAMINATION BY MR. DHILLON:

    Question. Would reading that help refresh your recollection?
    Mr. Eggleston. Why don't you just direct him?
    The Witness. Can you direct me? If there is a particular----
    Mr. McLaughlin. How about the first full paragraph on page 2? Is 
your question whether Mr. Nionakis can read the instructions and report 
back to you----

                      EXAMINATION BY MR. DHILLON:

    Question. No my question is do you know why it is in bold face?
    Mr. Eggleston. You guys put it in bold face. Unless it is written 
here, it is fully in your control. Why are you making him guess?
    Mr. Dhillon. I am not asking him to guess. When he was part of 
this----
    Mr. McLaughlin. I think he testified that----
    Mr. Dhillon [continuing]. I am asking--if you would let me ask the 
question, I think we will get----
    Mr. McLaughlin. Let me make my statement. We are making a record 
here.
    Mr. Dhillon. You can make your statement when it is time to ask 
your questions.
    Mr. McLaughlin. I am making a statement----
    Mr. Dhillon. I withdrew the question. You have no statement to 
make.
    Mr. McLaughlin [continuing]. To make sure there is a clear record.
    Mr. Dhillon. I withdraw the question.

                      EXAMINATION BY MR. DHILLON:

    Question. I would ask you to review page 2.
    Mr. McLaughlin. I just to make clear that your prior question, now 
withdrawn, mischaracterizes Mr. Nionakis's testimony.
    Mr. Dhillon. If you want to make statements about questions that 
are not pending, that is your business.
    The Witness. Okay. Your question is?

                      EXAMINATION BY MR. DHILLON:

    Question. To your knowledge, what was your understanding of why 
certain items are boldfaced in Exhibit 2?
    Answer. I have no independent understanding as to why documents 
were--why certain things were boldfaced in this document.
    Question. After reviewing it, do you have a understanding of why 
they were boldfaced?
    Answer. I can only--I don't have an understanding. I only read Mr. 
Rowley's words that say: ``We request all other priority items (as 
indicated in boldface) by Monday, April 28, 1997.''
    Question. Did you use this document in any way in responding to the 
committee's subpoena which is marked Exhibit 1?
    Answer. Yes.
    Question. Did you understand when responding when using this 
document that the items in boldface were considered a priority by the 
committee in terms of production from the White House?
    The Witness. Could you read that question back?
    [Reporter read the record as requested.]
    The Witness. I don't recall.

                      EXAMINATION BY MR. DHILLON:

    Question. How did you use Exhibit 2 to respond to the committee's 
subpoena which is marked at Exhibit 1?
    Answer. As I had mentioned earlier, some of the--several if not 
many of the requests were either overbroad or unduly burdensome, and 
that we tried to modify them and limit them, and this document was the 
result of that attempt to limit the scope of various requests.
    Question. Did you treat the categories or subgroups of requests 
differently based upon the priority this committee assigned to them as 
demonstrated in Exhibit 2?
    Answer. I recall there were certain categories of documents that we 
made a very, very valiant attempt to produce as soon as possible.
    Question. Was that based on the fact that they were prioritized in 
Exhibit 2?
    Answer. I don't think so. I think it was based on the discussions 
that we had with the committee members--with the committee staff. I 
just don't recall specifically whether it was off of this document or 
after our discussions.
    Question. Did the White House Counsel's Office use Exhibit 2 in any 
way to prioritize the documents it would search for in responding to 
the subpoena which is marked as Exhibit 1?
    Answer. We may have. I don't recall, because we had many, many 
discussions as well.
    Question. Was it your understanding that information about the 
coffees were considered a priority item by the committee?
    Answer. I don't recall.
    Question. Exhibit 3. I'm asking that Exhibit 3 be placed before you 
and that it be marked as Exhibit 3. It is an April 28th, 1997, 
memorandum from Charles F.C. Ruff and I would ask that you please 
review it.
    [Nionakis Deposition Exhibit DN-3 was marked for identification.].
    [Witness complies.]
    The Witness. Okay.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you recognize Exhibit 3?
    Answer. Yes.
    Question. What is it?
    Answer. It is the April 28th, 1997 directive.
    Question. Who wrote Exhibit 3?
    Answer. It was I believe initially drafted by Michael Imbroscio. I 
reviewed the draft as well. And I think others may have looked at it; I 
just don't recall.
    Question. Did Mr. Ruff ultimately review Exhibit 3, if you know?
    Mr. Eggleston. He signed it.
    The Witness. I only know that he signed it.

                      EXAMINATION BY MR. DHILLON:

    Question. Did you----
    Answer. Hold on.
    [Witness conferring with counsel.]
    The Witness. I'm fine.

                      EXAMINATION BY MR. DHILLON:

    Question. Did you make any changes to the draft you received from 
Mr. Imbroscio?
    Answer. I don't recall.
    Question. In preparing Exhibit 3, did you use any other documents 
to help you--I'm sorry. Strike that.
    Did you use any documents to help you prepare Exhibit 3?
    Mr. McLaughlin. In reviewing Exhibit 3?
    Mr. Eggleston. He testified he did not prepare Exhibit 3.

                      EXAMINATION BY MR. DHILLON:

    Question. To review Exhibit 3?
    Answer. I don't recall.
    Question. What did you do or what was done with Exhibit 3 after it 
was finalized?
    Answer. I understand that it was sent to--sent throughout the EOP 
using our mail room process.
    Question. How many different offices or groups or units would it 
have been--was it sent to?
    Answer. I only know that it would have been many.
    Question. Do you have--I take it you received responses to it, 
which is how you know that it was sent out?
    Answer. That's correct.
    Question. Did anyone tell you it had been sent out?
    Answer. I know that it had been sent out because people called in 
and had questions about it. So.
    Question. You said it was distributed through--I'm sorry, the mail 
room, did you say?
    Answer. I think like any large structure, there's an inner office 
mail system. It was distributed using that system.
    Question. It wasn't faxed; it was mailed out?
    Answer. I don't know if it was faxed to certain places. I don't 
know how that inner office process works. I just know that that is the 
mechanism that was used to distribute this. If that is sometimes by 
hand and sometimes by fax, I'm not sure. But that's the system that was 
used.
    Question. Were Exhibits--and they're still before you, so you refer 
can to them if you need to--were Exhibits 1 and 2 distributed in a 
similar fashion?
    Answer. I don't know.
    Question. Did you receive any responses to Exhibit 3?
    Answer. Yes.
    Question. And who did you receive responses from?
    Answer. Various offices within the EOP.
    Question. You have already previously described the process you 
used when we were talking generally about responses to directives.
    Answer. Uh-huh.
    Question. Was that process in any way different with respect to 
this directive?
    Answer. To the best of my recollection, no.
    Question. With respect to this directive, were people assigned to 
any particular areas or individuals that they were to obtain documents 
from or about?
    Answer. I don't believe so, no.
    Question. Was anyone----
    Answer. I don't recall.
    Question. Was anyone assigned to or did anyone take it upon 
themselves to focus on the coffees?
    Answer. I think you asked me that before. I didn't recall then and 
I don't recall.
    Question. Just so we are clear, now I'm asking and I'm going to 
skip through a lot of this. I asked you that question. Now I am asking 
specifically about this directive.
    Answer. Same answer. I don't recall.
    Question. Was the procedure for reviewing the documents the same as 
already described with respect to this directive?
    Answer. Basically it's the same process, yes.
    Question. You said ``basically.'' Were there any differences with 
respect to this directive than what you just described?
    Answer. I don't recall any differences, no.
    Question. With respect to responding to this directive, did you 
ever bring any documents to anyone's attention to assist them in 
preparing for press inquiries?
    Answer. I don't recall doing that, no.
    Question. Did you ever bring any documents to anyone's attention 
for any other reasons?
    Answer. I don't recall doing that, no.
    Question. Did Mr. Davis have any role in gathering, reviewing, or 
producing the documents that were responsive to----
    Answer. No.
    Question [continuing]. Exhibit 3?
    Answer. I'm sorry.
    The Witness. Why don't you read that back.
    [Reporter read the record as requested.]
    The Witness. Other than his own documents that he provided to us in 
response to the directive, no, he did not.

                      EXAMINATION BY MR. DHILLON:

    Question. Did anyone from any of these offices or groups or units 
ever ask--that the directive had been sent to, ever ask you any 
questions about the kind of records being requested by Exhibit 3?
    Answer. Could you clarify that question?
    Question. Did you ever receive a phone call from somebody who 
received Exhibit 3 asking ``what do you want?"
    Answer. No.
    Question. Did you ever receive any other inquiries of any personal 
or by internal memo or by letter asking questions regarding what was 
being requested by the directive?
    Answer. Yes.
    Question. What sort of--what kind of inquiry did you receive? I'll 
do general and then we will break it down into individuals.
    Answer. I can only recall generally, and it was generally is this 
kind of--I've got this kind of stuff, is this kind of stuff responsive? 
Is this the kind of stuff that you think would be responsive? Is this 
the kind of stuff that I should send to you? More guidance-type 
questions.
    Question. How often did that occur, approximately?
    Answer. I can't recall exactly.
    Mr. Eggleston. And you're talking about in response to this 
directive?
    Mr. Dhillon. Yeah. Let's back up.
    The Witness. I'm only speaking about this directive.

                      EXAMINATION BY MR. DHILLON:

    Question. That's right, yes.
    Answer. I know it happened several times. I can't guess as to how 
many times it happened.
    Question. Do you recall any of the offices or agencies or entities 
that called you with such a question?
    Answer. No, I don't.
    Question. Did the military office ever call?
    Answer. No, not to my recollection.
    Question. Did WHCA ever call?
    Mr. McLaughlin. By WHCA, you mean the White House Communications 
Agency?

                      EXAMINATION BY MR. DHILLON:

    Question. Yes, that's what I mean. I'll refer to it as WHCA from 
now on.
    Mr. McLaughlin. And it's abbreviated W-H-C-A.
    The Witness. I don't recall WHCA ever calling me with any questions 
about the April 28th directive.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you recall WHCA ever calling you with any questions 
about anything?
    Answer. With respect to responding to this directive, no.
    Question. How about with respect to anything else?
    Answer. Yes.
    Question. And what did they call you about?
    Mr. Eggleston. Well, I mean, as you guys probably know, as I'm sure 
Ms. Comstock does know, he becomes involved after October 2nd or 3rd, 
if you want him to get into that line of questions. But if the question 
is prior to October 2 or 3, which may be a better question to ask----
    Mr. Dhillon. I assume that, and I'd like his response to that, and 
then I will break it down.
    The Witness. Sometime after October 3rd, I was working with WHCA to 
produce responsive videotaped events.

                      EXAMINATION BY MR. DHILLON:

    Question. Prior to October 3rd, did WHCA ever contact you?
    Answer. To the best of my knowledge, no.
    Question. Prior to----
    Answer. Recollection, no.
    Question. Prior to October 3rd, did you ever contact WHCA?
    Answer. I don't recall ever contacting WHCA.
    Question. Now, prior to distributing Exhibit 3, was anyone in the 
White House searching for documents responsive to the committee's 
subpoena which is marked as Exhibit 1?
    Answer. I recall that some of the requests on the March 4 subpoena 
from this committee had been already requested or had been already been 
part of a previous directive.
    Question. And which directive was that?
    Answer. I believe a directive went out in December of '96, I think 
a follow-up went out in January of '97.
    Question. Have you seen--did you ever see those directives?
    Answer. I recall seeing them at some point.
    Question. Did you ever respond to them? I'm sorry, let me back up. 
Let me ask another question. Were you ever in the process of collecting 
documents in response to the directives?
    Answer. Those directives went out prior to my tenure at the White 
House. I don't recall ever working to gather documents to respond to 
those directives or the requests encompassed by those directives.
    Question. When was--what were those directives in response to?
    Answer. I really don't know.
    Question. Were documents being produced pursuant to those 
directives at the time you arrived at the White House?
    Answer. I don't recall that they were.
    Question. So from the time--so from the time Exhibit 1 was provided 
to the White House, which is the subpoena, to the time Exhibit 3 was 
distributed to the White House----
    Answer. Uh-huh.
    Question [continuing]. Was anyone in the White House searching for 
or producing documents responsive to the committee's subpoena?
    Mr. McLaughlin. Other than the ones that had been encompassed in 
prior directives?
    Mr. Dhillon. No, that's not my question.
    The Witness. Could you read his question back?
    [Reporter read the record as requested.]
    The Witness. I recall that we were.

                      EXAMINATION BY MR. DHILLON:

    Question. Now, how did that process occur?
    Answer. I'm sorry, which process?
    Question. Well, as I understand it, Exhibits 1 and 2 were never 
sent out to anybody in the White House. Only Exhibit 3 was. How was it 
that responsive offices, units, groups or agencies could respond to the 
committee's subpoena prior to April 28th, 1997, the date of Exhibit 3?
    Answer. Let me give you an example. There were documents, I 
believe--the March 4--this is an example. The March 4th subpoena 
requested documents relating to John Huang. The December directive, my 
recollection is that the December directive also asked people to 
provide all documents that relate to John Huang.
    We were in the process of trying to gather any documents that had 
been collected in response to that directive, get them ready and 
prepare them for production to this committee, given that this subpoena 
asked for John Huang-related materials. There were other requests that 
were similar to that one.
    Question. Okay. So in other words, tell me if I'm correct, the 
White House had already collected documents responsive to the two 
directives, and you were sorting through those after you received this 
committee's subpoena to determine what in those documents was 
responsive to the committee's subpoena marked as Exhibit 1?
    Answer. Yes, that was one of the things we were doing, yes.
    Question. Now, the directives--but--I'm not sure of this so I'm 
going to ask you again. Do you recall why the directives or what the 
directives were responsive to? Were they requests from a committee or 
from the Department of Justice or what?
    Mr. Eggleston. The December '96, January '97 directives?
    Mr. Dhillon. Yes.
    Mr. Eggleston. Because there are a lot of directives in this 
matter. More than two.
    Mr. Dhillon. The two that you mentioned.
    The Witness. I don't recall.

                      EXAMINATION BY MR. DHILLON:

    Question. Other than the material that had been gathered pursuant 
to the directives, were any other areas of the White House being 
searched between the time the subpoena, which is marked Exhibit 1, was 
provided to the White House, and the time Exhibit 3 was sent out to all 
the various offices and agencies of the White House?
    Answer. I don't recall specifically, but generally, I recall that 
we were trying to at least locate areas where responsive materials may 
be and anticipate searching those areas for documents, if we hadn't 
already started searching those areas.
    Question. That was in addition to culling out the documents that 
were responsive to the directives--January and December directives?
    Answer. That's correct.
    Question. Were you doing anything else during that period of time? 
I mean by ``you,'' you or the White House Counsel's Office doing 
anything else to respond to the committee's subpoena?
    Answer. We may have been. I don't recall specifically.
    Question. The two directives, the December '96 and the January '97 
directive, did not cover all of the same material as the directive 
marked Exhibit 3; is that correct?
    Answer. I don't recall. I don't know.
    Mr. Dhillon. Let's go to Exhibit 4. I'm having placed before you, 
and I will ask to be marked Exhibit 4, a June 27, 1997, letter from Mr. 
Charles F.C. Ruff.
    [Nionakis Deposition Exhibit DN-4 was marked for identification.]
    The Witness. Okay.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you recognize Exhibit 4?
    Answer. Yes.
    Question. What is it?
    Answer. It is a letter from Charles Ruff to Chairman Burton dated 
June 27, 1997.
    Question. Did you assist in the preparation of Exhibit 4?
    Answer. I believe I did.
    Question. What did you do?
    Answer. I believe I assisted in drafting this letter.
    Question. At the time Exhibit 4 was--you were preparing Exhibit 4, 
were you aware of any documents or things that were not being produced 
to this committee?
    Answer. I was not aware.
    Question. Have there been document productions following the 
presentation of Exhibit 4 to the Chairman? Let me ask the question 
better----
    [Pager interruption.]
    Mr. Dhillon. Who is beeping?
    [Discussion off the record.]

                      EXAMINATION BY MR. DHILLON:

    Question. After providing the Chairman with this letter, were there 
additional document productions from the White House Counsel's Office?
    Answer. Yes.
    Question. How many productions have there been since the June 27th 
letter which is marked as Exhibit 4?
    Answer. I don't know.
    Question. How did those come about?
    Answer. I can't recall specifically how they came about.
    Question. Or where did the additional documents come from?
    Answer. I know that some were e-mails. They came from our archived 
e-mails.
    Question. Were you aware at the time you prepared this letter from 
Mr. Ruff that--well, let me back up. was somebody searching for the e-
mails in the White House Counsel's Office?
    Answer. At some point, someone was searching for them, yes.
    Question. When did that search begin?
    Answer. I don't know.
    Question. Who was searching for the e-mails?
    Answer. I don't know specifically who was searching for them.
    Question. Were e-mails responsive to the committee's subpoena, 
which is marked as Exhibit 1?
    Answer. I believe we produced e-mails to this committee and, 
therefore, I believe that they were probably responsive to the 
committee's subpoena.
    Question. Do you know what offices the additional productions came 
from? And by that I'm referring to productions that followed the June 
27th, 1997, letter marked as Exhibit 4.
    Answer. I don't recall the offices.
    Question. Were you involved in the production of any documents 
after June 27th, 1997, to this committee?
    Answer. With respect to this March 4 subpoena?
    Question. Yes.
    Answer. I may have been. I don't recall specifically.
    Question. Since June 27th, 1997, to today, what have you been doing 
with respect to--what have you been doing at the White House Counsel's 
Office?
    Answer. I continue to work on investigative matters.
    Question. Do you continue to search for documents responsive to the 
committee's subpoena which is marked Exhibit 1?
    Answer. I don't believe I do. I don't believe I continue to do 
that, no.
    Question. When did you cease searching for documents responsive to 
the committee's subpoena?
    Answer. I don't recall, but the one clarification I want to make is 
that if in the process of searching for documents responsive to another 
request, and if documents responsive to this March 4 subpoena arise or 
surface, we will produce them to this committee. And that is precisely 
what I believe is one point Mr. Ruff makes in Exhibit 4, and that is if 
we locate them, regardless of when we do, and how we do, we will 
promptly produce them to this committee.
    Question. Have you personally been involved in when that has 
occurred?
    Answer. Yes, I have been.
    Question. Under what circumstances--strike that. When?
    Answer. One example--one example I recall is some documents 
relating to either Trie or John Huang--and Barbara can remember because 
I had a long conversation with her.
    Mr. Eggleston. Ms. Comstock.
    The Witness. Ms. Comstock, excuse me. But documents relating to 
Charlie Trie--I believe it was Charlie Trie; if it wasn't Charlie Trie, 
it was John Huang--surfaced and I called up Ms. Comstock and told her 
that we had found these documents and we arranged for their production.

                      EXAMINATION BY MR. DHILLON:

    Question. How did the documents surface?
    Answer. I don't recall specifically, but I'm sure I explained it to 
Ms. Comstock. I just don't recall.
    Question. And approximately when did this occur?
    Answer. I believe it was late summer. I believe it was August, 
maybe.
    Question. Any other similar type events occur that you were 
personally involved in?
    Answer. I don't recall any.
    Question. Is there anyone in the White House Counsel's Office who 
is personally looking for documents responsive to the committee's 
subpoena marked as Exhibit 1?
    Answer. To the best of my knowledge, no.
    Question. And when did the Counsel's Office cease searching for 
documents responsive to the committee's subpoena?
    Answer. I don't know that there was a specific date when we sat 
around a table and decided that we were completely finished searching 
for documents.
    [Witness conferring with counsel.]
    The Witness. And I just want to add what I said before, and that is 
that if we find responsive stuff, regardless of how we find it or when 
we find it, if it is responsive to the March 4th subpoena, we will 
arrange to promptly produce them to this committee.
    And by the same token, if the committee believes that there is 
outstanding material and the committee comes forward and makes a 
request, we will do our best to make sure that we gather all the 
responsive documents.

                      EXAMINATION BY MR. DHILLON:

    Question. At the time you began your employment in the White House 
Counsel's Office, did you have any knowledge about videotaping or 
audiotaping conducted at the White House?
    Answer. None whatsoever.
    Question. When did you first learn about the existence of WHCA?
    Answer. I don't recall.
    Question. You are aware of what WHCA is?
    Answer. I am now, yes.
    Question. Do you recall when you became----
    Mr. Eggleston. As does the whole country.
    The Witness. As well as the entire country.

                      EXAMINATION BY MR. DHILLON:

    Question. You'd cut out a lot of questions if you said you didn't 
have the foggiest notion what I was talking about.
    Under what circumstances did you learn about WHCA?
    Answer. As I previously stated, I don't recall when I learned about 
WHCA. And I also don't recall specifically what the circumstances were 
that I learned about WHCA. At some point I learned about WHCA. How and 
when it happened, I just don't recall.
    Question. There have been a lot of events occurring that related to 
WHCA in the last 30 days.
    Answer. That's correct.
    Question. Did you--to the best of your knowledge, did you know that 
WHCA existed prior to these events occurring?
    Answer. I may have, which is why I keep saying I don't recall. I 
may have known about WHCA prior to these events occurring, I just--I'm 
not sure if I did. And if so, I don't recall when.
    Question. Have you personally ever received any responsive 
documents to either the committee's subpoena or to any request from 
WHCA?
    Answer. Again, as my counsel stated earlier, prior to these events 
occurring, no.
    Question. And let's be clear when we talk about prior to these 
events occurring, you had attached a date to that, October 2nd or 3rd, 
I believe?
    Answer. October 2nd.
    Question. Have you ever attended an event where the President was 
present and the event was being videotaped or audio taped?
    Mr. McLaughlin. By anybody?
    Mr. Eggleston. I was about to say.
    Mr. Dhillon. By anybody.
    Mr. McLaughlin. By TV cameras, personal tape recorders----
    Mr. Eggleston. That's enough.
    Mr. Dhillon. The answer is yes.
    The Witness. At the time I was at the event, I did not know it was 
being videotaped. As I sit here today, it probably was videotaped.

                      EXAMINATION BY MR. DHILLON:

    Question. What event was that?
    Answer. I attended a radio address with my parents.
    Question. When was that?
    Answer. That would have been in August of this year.
    Question. Besides your parents, yourself and the President, who 
else was present?
    Answer. A lot of other people.
    Question. From a specific group or do you recall?
    Answer. I know--there were a couple of other White House staff 
people whom I just know by face, and the other people, I just don't 
recall who they were.
    Question. Now, you said that at the time you didn't know it was 
videotaped but now you think it was. Could you clarify what you mean by 
that?
    Answer. My understanding is that WHCA----
    Mr. Eggleston. Your understanding today?
    The Witness. My understanding today is that WHCA typically or 
generally videotapes the President's radio address. So knowing what I 
know now, I think it is quite probable that that radio address was 
videotaped.

                      EXAMINATION BY MR. DHILLON:

    Question. And that was August of this year?
    Answer. Yeah.
    Question. Do you recall seeing a camera at the event?
    Answer. I recall seeing a photographic camera, because ultimately I 
was photographed.
    Question. Do you recall seeing a video camera?
    Answer. I don't really recall seeing a video camera, no.
    Question. Where was the radio address?
    Answer. The radio address I attended was in the Oval Office.
    Question. And how many people were present?
    Answer. Maybe 80.
    Question. Have you attended any other events where the President 
was present and the event was being videotaped or audiotaped?
    Answer. To the best of my knowledge, I don't believe I have.
    Question. Do you meet with the President on a regular basis?
    Answer. No, I don't. Even you had to laugh when you asked that 
question.
    Question. How many times you have personally met with the 
President, excluding the radio address?
    Answer. I wouldn't really call that encounter a personal meeting 
with the President. I have----
    Mr. Eggleston. You and 80 other people.
    The Witness. That's correct. I have been in the presence and 
greeted and exchanged greetings with the President on several 
occasions. I don't--I can't really count exactly how many.

                      EXAMINATION BY MR. DHILLON:

    Question. Were video cameras present at those times?
    Answer. I only recall photographic cameras.
    Question. Still cameras? Still photos?
    Answer. Still photos, photographic cameras, right.
    Question. No movie cameras?
    Answer. I don't remember movie cameras, camcorders, video cameras.
    Question. Now, prior to October 2nd, 1997----
    Answer. Uh-huh.
    Question [continuing]. Did you ever attend any meetings with anyone 
or anyone mention that there may exist audiotapes or videotapes 
responsive to any subpoena or document request?
    The Witness. Could you read that back?
    [Reporter read the record as requested.]
    The Witness. I had a brief conversation with Michael Imbroscio when 
he recounted his conversation with somebody from the Senate committee 
where that staff person inquired about clandestine audio recordings in 
the Oval Office. The possible existence of such recordings.

                      EXAMINATION BY MR. DHILLON:

    Question. Besides that, any other meetings where that came up?
    Answer. Prior to October 2nd, 3rd, no.
    Question. At any meeting--at any of your team or group meetings did 
anyone ever mention WHCA prior to October 2nd, 1997?
    Answer. They may have; I don't recall.
    Question. When was that meeting or discussion with Mr. Imbroscio?
    Answer. I don't recall.
    Question. What did he say?
    Answer. He said that a Senate committee staff member had made this 
inquiry.
    Question. And what was your response?
    Answer. I found it an incredible inquiry.
    Question. Did anyone ever ask the President whether such a system 
existed? Let me rephrase that so I'm clear on the ``system.'' Your 
conversation with Mr. Imbroscio focused on a clandestine recording 
system in the Oval Office; is that correct?
    Answer. That's not necessarily accurate.
    Question. Okay.
    Answer. He recounted a conversation that he had had with a person 
on the Senate committee. In that conversation with that person, that 
person inquired about the possible existence of clandestine audio 
recordings in the Oval Office.
    Question. Did anyone ever ask the President if such a system or 
such recordings were made or existed?
    Answer. I don't know.
    Question. Were you involved in any way in ascertaining whether such 
taping, clandestine taping occurred in the Oval Office?
    Answer. I was not involved.
    Question. Let's--prior--did anyone ask at one of these meetings or 
any other time, anyone else in the Counsel's Office about this sort of 
clandestine taping?
    Answer. I don't know.
    Question. Did anyone ask anyone in the President's office about 
clandestine taping?
    Answer. I don't know.
    Question. Prior to October 2nd, 1997, what did you do to locate 
audio or videotapes responsive to any document request or subpoena?
    Answer. I was not involved in doing any of that.
    Question. Were you notified about the existence of certain 
videotapes that relate to coffees on or about October 2nd, 1997?
    Answer. Yes.
    Question. Who told you about those?
    Answer. Can we go off the record for a second?
    Mr. Dhillon. Sure.
    [Discussion off the record.]
    The Witness. In the evening of October 2nd, I had a brief 
discussion with Michael Imbroscio in which he informed me that certain 
responsive videotapes had been located. I had bumped into him in our 
document room. I was in the process of doing something and so it was a 
very quick exchange. That was when I first learned about responsive 
videotapes. I did not know at that time that they related to coffees.
    Mr. McLaughlin. By October 2nd, you mean the Thursday?
    The Witness. Yes, the Thursday, that Thursday evening.

                      EXAMINATION BY MR. DHILLON:

    Question. What was the next--let's go through the sequence of 
events that occurred with respect to the tapes and your involvement. 
What was the next thing that occurred?
    Answer. With respect to the videotapes?
    Question. Yes, we are talking just about the videotapes. And you 
have spoken to Mr. Imbroscio on the second Thursday. What happened 
next?
    Answer. October 2nd.
    Question. October 2nd, yes.
    Answer. The next day, Friday morning, we had a meeting and that is 
when I became aware that the videotapes related to coffees.
    Question. You say ``we.'' Who are we talking about?
    Answer. People in the Counsel's Office.
    Question. Who was present?
    Answer. I recall Chuck Ruff, Lanny Breuer, Cheryl Mills, Michael 
Imbroscio, and there were probably other people there, I just don't 
recall who.
    Question. What was discussed?
    Answer. Among other things, that these videotapes had been located 
and that we would be producing them.
    Question. What was your--what was the next step? Was anyone 
assigned a task with respect to the videotapes at that meeting?
    Answer. I'll refer to Michael Imbroscio's testimony, but I 
believe----
    Mr. Eggleston. His public testimony.
    The Witness. His public testimony. I believe he handled the copying 
or overseeing the copying and the production of those tapes.

                      EXAMINATION BY MR. DHILLON:

    Question. Were you involved in that process at all?
    Answer. No, I was not.
    Question. Did you ever review the videotapes before they were 
produced to any entity?
    Answer. No, I did not.
    Question. Have you reviewed the videotapes since?
    Answer. No, I haven't. I will qualify. I will say I've seen the 
snippets of them, but I've not reviewed the videotapes of the coffees.
    Question. Were you involved, except for that meeting and the 
conversation you had with Mr. Imbroscio on October 2nd, were you 
involved in any way in the preparation or production of videotapes to 
any investigative group or agency?
    Answer. I had one conversation with Barbara Comstock on--Ms. 
Comstock on Sunday, and told her that she would be receiving copies of 
the tapes that afternoon.
    Question. Okay. And what prompted that call to Ms. Comstock?
    Answer. I had received a message from her asking her to call--to 
call her.
    Question. How did you obtain the information that you passed on to 
her?
    Answer. I believe I spoke to either Chuck Ruff or Lanny Breuer.
    Question. Except for that, were you involved in any way with 
respect to the review, location, and production of the videotapes?
    Answer. Relating to the coffees?
    Question. Yes.
    Answer. No.
    Question. What about relating to fund-raisers, were you involved in 
that process?
    Answer. Yes.
    Question. Okay. When did that process begin?
    Answer. I believe it began sometime during the week of the 6th of 
October.
    Question. And what was your responsibility with respect to 
noncoffee videotapes? Let me ask you this, how best do you characterize 
the videotapes that you were involved in? Were they fund-raising 
videotapes?
    Answer. They were videotapes relating to DNC events.
    Question. Okay.
    Answer. Those were fund-raising and nonfund-raising.
    Question. What was your involvement with respect to those 
videotapes?
    Answer. I oversaw the review of those tapes, and worked with WHCA 
to copy those tapes, the ones that needed to be copied. And they 
ultimately were the production of those tapes to the various 
investigative bodies.
    Question. Were you involved in the identification of responsive 
tapes?
    Answer. Yes.
    Question. And how did--describe how that process worked.
    Answer. We had--we, the Counsel's Office, obtained logs of the 
videotapes from WHCA. We then reviewed those logs, reviewed them 
against the President's schedule to locate potential responsive events. 
We then sat down and reviewed the tapes of those events.
    Question. And when you say ``we,'' who are you referring to besides 
yourself?
    Answer. Other people in the Counsel's Office.
    Question. Who were?
    Answer. Karl Racine--I believe he and I did most of the reviewing.
    Question. Where did you review the videotapes?
    Answer. In WHCA.
    Question. Did you review the originals?
    Answer. Yes. We reviewed the originals.
    Question. Did somebody retrieve those and put those in the machine 
for you, or were you doing that yourself?
    Answer. They were retrieved from the archives by WHCA. Steps were 
taken to ensure that there was no possibility of any accidental 
recording.
    Question. Recording over?
    Answer. Recording over of the original. And then we sat in WHCA and 
reviewed them in the presence of other--in the presence of WHCA staff.
    Question. What steps were taken, very briefly, to ensure that the 
tapes were not recorded over?
    Answer. Like a cassette, the--these are Beta cassettes, but like an 
audio cassette, there is a tab that could be removed that prevents any 
recording. Those tabs--I was told that those tabs were removed. Also, 
on the actual video machine, there's a button that you can press that 
says--it says something like ``antirecord'' or--it prevents any--even 
if I hit the record button, I was told that it would not engage, and 
there would be no recording.
    Question. What did you do after you reviewed the tapes?
    Answer. Handed them to the WHCA staff and asked them to be copied 
onto video--onto VHS.
    Question. Were there any tapes you reviewed that you did not 
produce to this committee?
    Answer. Yes.
    Question. Okay. And what were those? What were on those tapes--back 
up. Did you you conclude that those tapes were not responsive to the 
subpoena?
    Answer. To the best of our knowledge, in looking at those tapes, 
yes.
    Question. Approximately how many tapes fell into that category?
    Answer. I don't know. I can't recall.
    Question. More than five? Less than five?
    Answer. It would have been more than five.
    Question. More than 10?
    Answer. Possibly more than 10.
    Question. More than 15?
    Answer. Possibly. I just don't know.
    Question. What criteria did you use to determine if the tapes were 
relevant or responsive to the subpoena?
    Answer. We tried to locate those events that were sponsored in part 
or in whole by the DNC, whether they were fund-raising or nonfund-
raising events.
    Question. So as an--could you give me--can you give me an example 
of a tape you reviewed that wasn't responsive to the subpoena, that you 
determined wasn't responsive to the subpoena.
    Answer. A state party fund-raiser that was in no way sponsored by, 
in part or in whole by the DNC.
    Question. You have a specific one in mind?
    Answer. No, just one.
    Question. You recall----
    Answer. Generally, there was some state party fund-raisers that 
were not sponsored in part or in whole by the DNC.
    Question. And the President was obviously present at these fund-
raisers?
    Answer. Yes.
    Question. Any other categories or kinds of tapes that you reviewed 
that you concluded were not responsive to the subpoena, to the 
committee's subpoena?
    Answer. I don't recall, no.
    [Witness conferring with counsel.]

                      EXAMINATION BY MR. DHILLON:

    Question. After you reviewed the--let's see. After you reviewed the 
Beta tapes, you asked WHCA to prepare the VHS tapes.
    Answer. To record the--these events onto VHS tapes.
    Question. And then what did you do with those?
    Answer. Well, they did all the copying. And they created several 
copies. And they provided us with the copies. We had to sign for them. 
And then we produced them.
    Mr. Dhillon. Is this a good time for a break?
    Mr. McLaughlin. Sure.
    Mr. Dhillon. I would like to take an opportunity to look at my 
notes. Can we go off the record?
    [Recess taken.]

                      EXAMINATION BY MR. DHILLON:

    Question. Was the April 28th directive, which is marked as Exhibit 
3 that is before you, intended to include this committee's subpoena, 
which is marked as Exhibit 1?
    Answer. To the best of my recollection, it was intended to include 
many of the requests on the March 4 subpoena.
    Question. Okay. You've qualified that by saying ``many.'' Was there 
a point where certain requests were eliminated?
    Answer. Certain requests weren't eliminated. But certain requests 
may have been encompassed by another directive or were so narrow that 
we could go directly to that office and get the materials, rather than 
include it on the directive and either confuse or potentially 
overburden many other people who we know would not have such documents.
    Question. Except for the categories you've just named, was the 
document, which is Exhibit 3, intended to cover all the other areas 
that were covered by the subpoena, which is Exhibit 1?
    Answer. With--with the prior qualifications and one more, which is 
that certain requests were held in abeyance and certain requests were 
modified, in other words narrowed, this directive was used to respond 
to that subpoena and other requests from other investigative bodies.
    Question. Very briefly, how were requests either modified or held 
in abeyance?
    Answer. On the Exhibit 2, John Rowley's letter to Lanny Breuer, 
certain requests were held in abeyance by this committee. Certain 
requests were also narrowed after our discussions with the committee. 
And that was an agreement that we had reached. And it was like and--and 
later on verbal requests may have been narrowed. I just don't recall.
    Question. I would like to refer to page 2 of Exhibit 3.
    Answer. Page 2.
    Question. Item B.
    Answer. Excuse me, is that item 1-B?
    Question. Yes. I believe so. It's the coffees part.
    Answer. Uh-huh.
    Question. Now, did you receive--do you see that? It relates to 
coffees?
    Answer. Right. Excuse me one second.
    [Witness conferring with counsel.]

                      EXAMINATION BY MR. DHILLON:

    Question. We're on page 2 of Exhibit 3----
    Answer. Uh-huh.
    Question [continuing]. The section item B relating to coffees.
    Answer. Right.
    Question. Did you receive any documents or material in response to 
this item?
    Answer. I may have. I don't recall.
    Question. Do you recall what you received, if anything?
    Answer. Well, I--I don't--I may have received materials. I don't 
recall whether I did.
    Question. Okay. Do you--so you don't recall if you--if you did 
receive materials, you don't recall who you received them from?
    Mr. McLaughlin. Are we talking just about item 1-B now?
    Mr. Dhillon. Yes. Yes. Just coffees.
    The Witness. If I did receive materials, which I don't recall, I 
wouldn't recall who they were from either.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you have any specific recollection about receiving any 
materials related to coffees in response to the subpoena or--which is 
Exhibit 1 or Exhibit 3?
    Answer. I personally don't recall receiving any materials relating 
to coffees.
    Question. Do you recall----
    Answer. I want to say that I know for a fact that we have received 
materials relating to 1-B, i.e., the coffees.
    Question. Do you recall any conversations you had with anybody in 
the White House, either responding to Exhibit 3 or asking questions 
about Exhibit 3 that relate to coffees?
    Answer. I don't recall, no.
    Question. And that includes receiving any notes written by the 
President which related to coffees?
    Answer. That's correct. I don't recall receiving any such notes.
    Question. Did you make any efforts to determine if the President 
had made any notes relating to coffees?
    Answer. I personally do not recall doing that.
    Question. Did you have any discussions with anyone regarding the 
protection of documents or things related to coffees?
    Answer. Would you read that back again?
    Question. Did you have any discussions with anyone regarding the 
production of documents related to coffees?
    Answer. Other than a general discussion that, on a particular day, 
we were going to do a document production or perhaps my asking what 
kinds of stuff we were producing and somebody saying, among other 
things, you know, X, Y, Z, and some documents relating to coffees. 
That's the kind of stuff I recall.
    Question. Do you have any specific recollection of such 
conversations?
    Answer. No.
    Question. To your knowledge, has this committee received all 
documents, items, or things in the possession of the White House which 
relate to the political coffees?
    Answer. To the best of my knowledge, we have produced all documents 
relating to coffees that we have gathered and that we're aware of. I 
will also say, though, that I believe that there is one document on the 
last privilege log that you received that is related to a coffee. So 
you're aware of the existence of that document.
    Question. And you've had discussions with other members of the 
majority counsel regarding the production of that document?
    Answer. They have--they have the log. And I don't believe that they 
have asked any questions about it. But, as always, we are more than 
happy to engage in that process.
    Question. All right. Is the White House Counsel's Office actively 
looking for documents or records relating to coffees as we speak?
    Answer. I don't believe so.
    Question. We talked about documents. Did you also mean, when you 
say documents, videos, audio tapes? Did you encompass that in your----
    Answer. Yes. Documents in any form.
    Question. Okay. Are you aware of any tapes being given out to any 
of the attendees of coffees?
    Mr. McLaughlin. Tapes of what?
    Mr. Dhillon. I'm sorry. Thank you.

                      EXAMINATION BY MR. DHILLON:

    Question. Are you aware of any videotapes of the coffees themselves 
being given to any of the people who attended the coffees?
    Answer. I'm not aware of that happening.
    Question. Did you ever go to any office or subdivision or unit or--
excuse me. Off the record, please.
    [Discussion off the record.]
    Mr. Dhillon. Back on the record, please.

                      EXAMINATION BY MR. DHILLON:

    Question. Did you ever follow up on any subpoena or other requests, 
including Exhibit 3, by talking to a responsive department or group or 
division or subdivision within the White House to determine if there 
had been compliance with the committee's subpoena or Exhibit 3?
    Answer. I don't recall doing that.
    Question. Did you ever attempt to ascertain where responsive 
documents, documents responsive to the committee's subpoena or to any 
request would be located within the structure of the White House?
    Answer. I believe I've done that.
    Question. And under what circumstances did you do that?
    Answer. I recall with respect to the Trie documents that I 
mentioned earlier, the--this committee had made a request for documents 
related to the security clearance of Charlie Trie. I went to the 
offices that I thought might have such responsive documents and talked 
about that with those people. And that's how we yielded these 
documents.
    Question. Now, how did you figure out which offices might be 
responsible for that request?
    Answer. I determined which offices might be involved with clearance 
issues and spoke to those people in those offices.
    Question. Are you familiar with all of the departments and groups 
and offices and divisions that comprise the office, executive office of 
the department?
    Answer. Not all of them. I have general knowledge of what some of 
them do.
    Question. Okay. Is there anyone in the Counsel's Office that is 
familiar with all of them and what they do?
    Answer. I'm not familiar with anyone in the Counsel's Office who is 
familiar with every one of them.
    Question. Do you know how many such offices, groups, or units or 
divisions there are?
    Answer. No. I refer to a--an address book to determine--I don't 
know. I don't know off the top of my head.
    Question. Is there anybody in the Counsel's Office that is familiar 
with the responsibilities of each of those offices, groups, or 
subdivisions, or units?
    Answer. I don't know if anyone in the Counsel's Office has that 
familiarity with the EOP.
    Question. Did you ever receive response to a request or a directive 
that seemed, after review, inadequate?
    Answer. I don't recall.
    Question. Did you ever follow up on any subpoena, document request, 
or directive by talking to anyone in the military office?
    Answer. I don't recall ever doing that.
    Question. Did you ever follow up on any subpoena, document request, 
or directive by talking to anyone in WHCA?
    Answer. Prior?
    Question. Before October 22nd, 1997.
    Answer. I don't recall ever doing that, no.
    Question. Who in the White House has been involved with production 
of documents regarding the Hudson Dog Track?
    Answer. I have.
    Mr. Dhillon. Off the record for a minute.
    [Discussion off the record.]

                      EXAMINATION BY MR. DHILLON:

    Question. Who was involved in the production of Hudson Dog Track 
documents which were produced to this committee on October 22nd, 1997?
    Answer. Well, there was a production of Hudson Dog Track documents, 
I believe, to this committee on or about September 13th. We produced 
some 360 pages of documents relating to the Hudson Casino matter.
    Question. Were there any documents produced to this committee on 
October 22nd, 1997?
    Answer. There may have been. I don't know if there were exactly. I 
don't know.
    Question. Were you----
    Answer. There may have been on or about October 22nd.
    Question. Were you involved in that production?
    Answer. I was involved in a production in October of the Hudson 
Casino documents, yes.
    Question. Does October 22nd sound about right?
    Answer. It was about that time.
    Question. Was anyone else in the Counsel's Office involved in that 
production?
    Answer. The actual physical production, no. I don't believe so.
    Question. Now, with respect to the Hudson Dog Track documents, who 
in the White House took part in the decision to assert privilege over 
those documents?
    Answer. As a preliminary matter, privilege was not asserted over 
any of those documents. Those documents were placed on a log, as other 
documents in the past have been placed on a log, and designated as 
being subject to privilege.
    Question. Who in the White House took part in the decision to make 
them subject to privilege, the--let me rephrase the question so we're 
clear.
    With respect to the Hudson Dog Track documents, who in the White 
House took part in the decision to make them subject to privilege?
    Answer. I can speak generally about the process that we go through 
with respect to privileged documents.
    Question. Okay.
    Answer. When we find documents that we believe are potentially 
subject to privilege, they are gathered. And at some point, they are 
reviewed. And a final decision is made as to whether or not they are 
subject to privilege.
    With respect to those that we determine are subject to privilege, 
we place those--we describe them on a log, and we produce them to this 
committee. The added component, then, in this process with respect to 
the Hudson Casino documents is that, because they were at issue, and 
subpoenaed in a private litigation, the Justice Department, after our 
review, reviewed the documents in consultation with the office of legal 
counsel and determined that they were subject to privilege, put them on 
a log and filed that log in a private litigation.
    Question. That was the civil litigation you had talked about 
earlier in the deposition?
    Answer. That's correct.
    Question. Now, with respect to these dog track documents, I want to 
take you to a point where, before you've sent them over to the 
Department of Justice, who in the White House made the decision to make 
a claim that they were subject to privilege?
    Answer. I recall a meeting that Chuck Ruff, Lanny Breuer, Cheryl 
Mills and I participated in, in which we--during which we reviewed 
these documents.
    Question. And at that meeting, was that when the decision was made 
to make these documents subject to privilege?
    Answer. Not--not really, because, as I said, there was the added 
step. And so the conclusion at the end of this meeting was we 
believed--we believed that these documents were subject to privilege. 
But they had to be sent to the Department of Justice for their review 
and final determination prior to our putting them on any kind of a log.
    Question. When did that meeting occur?
    Answer. I don't recall.
    Question. How long did it take the Department of Justice to make 
its decision?
    Answer. I only know that it took them a while. I don't recall 
exactly how long.
    Question. More than a month?
    Answer. I know this, I know that they finalized their review to the 
Thursday before they were produced to this committee and filed the 
actual log in the civil litigation the Friday before these documents 
were produced to this committee.
    Question. So at the meeting with you and Mr. Breuer and Mr. Ruff, 
you concluded, the three of you concluded that these documents were 
subject to privilege subject to review of the Department of Justice--
I'm sorry, and Ms. Mills was also at that meeting?
    Answer. Yes. That was what I would consider to be our initial 
determination. But we knew that the next step was that they had to go 
to Justice.
    Question. Did the White House make any other determinations after 
that determination?
    Answer. No.
    Question. So you----
    Answer. I don't recall us making any other determinations after 
that one.
    Question. So it was--you said it was your initial determination. 
Was it fair to say it was the only determination the White House made 
with respect to whether those documents were subject to privilege?
    Answer. Prior to--yes. Yes, I believe that's accurate. I say 
``initial,'' because that was not the final step in this process is why 
I say that, because they have to go to Justice.
    Question. It was the final step for the White House Counsel's 
Office, though; is that correct?
    Answer. With respect to reviewing them to determine whether they 
may be subject to privilege, yes.
    Question. Now, when--now I'm only talking about the documents 
produced on or about October 22nd. When were these documents first 
discovered?
    Answer. I don't recall.
    Question. Who discovered them?
    Answer. They were provided to Counsel's Office, I believe, by the 
Office of Records Management.
    Question. Were those documents provided in response to the civil 
subpoena that had come through the Department of Justice?
    Answer. I don't recall specifically.
    Question. Do you recall when the request came through for those 
documents?
    Answer. By the civil?
    Question. By anyone.
    Answer. I don't recall specifically, no.
    Question. Do you recall by the civil----
    Answer. No, I don't.
    Question. Does the White House always send documents to the 
Department of Justice for privilege determination?
    Answer. No.
    Question. Was this the first time that that had occurred since you 
had been there?
    Answer. To my knowledge, yes.
    Question. And why were these documents sent to the Justice 
Department for privilege determination?
    Answer. They are representing us in that litigation. We are not a 
party, but they are representing us.
    Question. And you say ``us''?
    Answer. Excuse me, the White House.
    Question. And how was it that they came to--did they tell you that 
they were--strike that.
    Did the Department of Justice advise you that they wanted to review 
all documents that you believed were subject to privilege before they 
could be produced?
    Mr. Eggelston. Are you talking about in the civil----
    Mr. Dhillon. Right. In the civil.
    Mr. McLaughlin. You mean, as lawyers, did they need to fulfill 
their obligations as lawyers to review documents to be produced in the 
litigation?
    Mr. Dhillon. Let me rephrase the question.

                      EXAMINATION BY MR. DHILLON:

    Question. How did DOJ--with respect to the----
    Mr. Eggelston. I really need to break.
    Mr. Dhillon. Do you want to break now?
    Mr. Eggelston. Is that okay?
    Mr. Dhillon. Yeah. It's fine.
    [Recess taken.]
                      
EXAMINATION BY MR. DHILLON:

    Question. I would like to go back to the meeting that you were 
talking about before the break where the discussion of privilege about 
these documents occurred.
    Mr. Ruff was present, Mr. Breuer, Mr. Mills?
    Answer. Ms. Mills.
    Question. I'm sorry. Ms. Mills and you?
    Answer. That's correct.
    Question. And did that meeting occur prior to the production of the 
documents that you previously referred to, the September production?
    Answer. I don't recall.
    Question. With respect to the October production of documents, when 
were those documents first reviewed by anyone?
    Answer. I don't recall that either.
    Question. You talked about a September production. Were the 
documents that were produced--and you said there were how many hundreds 
of pages?
    Answer. I think around 380 pages.
    Question. Were the documents that were produced in October part of 
the set of documents that were produced in September and taken out?
    Answer. I don't recall that either.
    Question. Oh, I know what we were talking about, the review of 
documents by the Department of Justice.
    Answer. Uh-huh.
    Question. Why did the Department of Justice review the documents in 
this case?
    Answer. They are the ones representing us in this matter. They are 
the ones who have produced any documents--any White House documents in 
this private litigation. I don't, and the White House doesn't, directly 
produce documents to the private plaintiffs. We give our documents, the 
responsive documents to the Department of Justice. They then turn them 
over to the private plaintiffs.
    Question. Why did you wait for the Department of Justice to rule on 
whether the documents were subject to privilege before producing the 
documents to this committee?
    [Witness conferring with counsel.]
    The Witness. We wanted to resolve the issues with respect to the 
private litigation prior to doing anything with these documents with 
respect to the--this committee.

                      EXAMINATION BY MR. DHILLON:

    Question. When you say ``we,'' who are you referring to?
    Answer. The Counsel's Office.
    Question. Who in the Counsel's Office?
    Answer. As a collective entity, the Counsel's Office.
    Question. Did Mr. Ruff make that decision?
    [Witness conferring with counsel.]
    The Witness. He did, yes.

                      EXAMINATION BY MR. DHILLON:

    Question. And just so I'm clear, Mr. Ruff decided that no documents 
that were subject to privilege--are those the only ones that we're 
talking about here in terms of documents not produced in the September 
production that relate to the racetrack?
    Answer. Could you repeat that?
    Question. All I want to talk about--ask you about are documents 
that are subject to privilege. Actually, let me step back from that. 
All I want to talk to you about are the racetrack documents that were 
not produced in September, but were produced in October. Okay?
    Answer. Okay.
    Question. Was Mr. Ruff's decision--did Mr. Ruff decide not to 
produce documents subject to privilege to this committee until after 
the Department of Justice had also reviewed those documents?
    Answer. His decision was to wait until this issue was resolved with 
respect to the private litigation.
    Question. Did the--did Mr. Ruff or anyone in the White House 
Counsel's Office advise this committee that such documents existed and 
that there was an additional review being conducted by the Department 
of Justice?
    Answer. I don't know.
    Question. How did the Justice Department insert itself into the 
loop of review?
    Mr. Eggleston. I think he's really answered that. They produce the 
documents in the private litigation. I mean----
    Mr. Dhillon. Let me ask another question.
    Mr. Eggleston. I mean the words ``insert in the loop"; they're in 
the loop.
    The Witness. They're in the loop.
    Mr. McLaughlin. They're your questions.
    The Witness. Yes, that's correct; as I said, they're representing 
us.
    Mr. Eggleston. I just want to raise another issue, which is that 
you're also--I don't want to stop you from asking any questions, but 
there is currently private litigation involving the Department of 
Justice acting as attorney to the White House in connection with that 
litigation. And it's ongoing pending litigation.
    And so he's just going to have to be careful about answering some 
of these questions, because it relates to ongoing pending litigation, 
and the Department of Justice, as it always does, represents the White 
House in these matters. It is not unusual to have the Department of 
Justice represent the White House if they have responsive materials in 
connection with private litigation. That is the way the system is 
designed.

                      EXAMINATION BY MR. DHILLON:

    Question. Are the documents that were produced to the committee in 
October responsive to any committee subpoena?
    Answer. They may be.
    Question. Why were they produced to the committee?
    Answer. Because they--they may be responsive to one of the 
committee's requests.
    Question. So is it fair to say that these documents were--there was 
a dual nature to these documents? They were responsive not only to the 
civil litigation but also to this committee's request or subpoenas?
    Mr. Eggleston. I think he said ``may be.''
    The Witness. May be, yes.

                      EXAMINATION BY MR. DHILLON:

    Question. That there were a dual nature then to these documents?
    Answer. Maybe, yes. Yes, maybe.
    Question. The White House Counsel produced these documents?
    Answer. You have these documents.
    Question. You concede that in October the White House produced 
documents to this committee that we are talking about?
    Mr. Eggleston. This whole discussion has been about documents that 
are in your possession. If that's the question, the answer to that 
question is yes.

                      EXAMINATION BY MR. DHILLON:

    Question. And the White House produced those documents because they 
were responsive to a request from this committee; is that right?
    Mr. McLaughlin. That is the third time you have asked that 
question. Do you want to answer?
    Mr. Eggleston. He's going to say ``may be.''
    The Witness. They may be responsive to a request by this committee.

                      EXAMINATION BY MR. DHILLON:

    Question. The documents that may be responsive to requests or 
subpoenas by this committee up until that point had never gone through 
the Department of Justice for review, had they?
    Mr. Eggleston. I'm sorry? Did you understand that? These documents 
or other documents?

                      EXAMINATION BY MR. DHILLON:

    Question. Other documents except for these documents, the October 
documents that relate to the racetrack----
    Answer. All right.
    Question [continuing]. No other documents that were or may have 
been responsive to this committee's request or subpoena has gone to the 
Department of Justice for review; is that correct?
    [Witness conferring with counsel.]
    The Witness. To my knowledge, no, because to my knowledge, no other 
documents that have been requested by this committee were also at issue 
in a private litigation in which the Department of Justice was 
representing us.

                      EXAMINATION BY MR. DHILLON:

    Question. So this category of documents, the documents produced in 
October, were treated differently by the White House Counsel's Office 
by virtue of the fact that the Department of Justice was involved in 
civil litigation relating to the documents; is that correct?
    [Witness conferring with counsel.]
    The Witness. Different because they were subject to a subpoena in a 
private litigation in which the Department of Justice was representing 
us, the White House.

                      EXAMINATION BY MR. DHILLON:

    Question. And you had a--there was a meeting where this issue was 
discussed; is that correct?
    Mr. McLaughlin. Asked and answered.
    The Witness. What issue?

                      EXAMINATION BY MR. DHILLON:

    Question. Was there a meeting where it was discussed that these 
documents would be treated differently because they were under the 
subpoena through the civil action?
    [Witness conferring with counsel.]
    The Witness. We did not discuss treating these differently. We 
reviewed these documents and the next step, because they were 
subpoenaed in connection with a private litigation, was the Department 
of Justice was representing us, they had to go to the Department of 
Justice next. There was no discussion as to whether or not we were 
going to treat these documents any differently.

                      EXAMINATION BY MR. DHILLON:

    Question. Now, when did the dog track documents go to the 
Department of Justice?
    Answer. I don't recall.
    Question. Were there any communications to the Department of 
Justice about Congress, this committee, or the Senate, wanting those 
documents?
    Answer. I don't recall.
    Question. Was the Department of Justice told anything about the 
Congress's requests or needs with respect to those documents?
    Answer. I don't recall.
    Question. At the time--you were the person who produced the 
documents in September?
    Answer. The White House did. The Counsel's Office did. I'm not 
sure--I believe I was the person who shepherded them out the door.
    Question. At the time those documents were shepherded out the door, 
were you aware of the existence of the documents that were eventually 
produced to this committee in October of 1997?
    Answer. I don't recall.
    Question. Who at the Department of Justice reviewed the documents? 
And when I talk about ``the documents,'' from this point on it will be 
the October 22nd documents.
    Answer. The AUSA representing us, representing the White House, his 
name is David Jones.
    Question. Was he the person who did the Department of Justice 
review?
    Answer. He's the person I communicated with. I'm not sure if he was 
the person who did the review.
    Question. Who communicated back to you that the Department of 
Justice review was complete and what the results were?
    Answer. David Jones.
    Question. Did you meet with the Department of Justice at any time 
regarding the decision as to what documents to assert a privilege over?
    Answer. I had conversations with DOJ.
    Question. And who would that have been with? David Jones?
    Answer. David Jones, I believe I spoke to David Jones about this.
    [Witness conferring with counsel.]
    The Witness. I don't recall speaking to David Jones specifically 
about the documents and his review or if he reviewed them--the review 
of the documents. I recall speaking to someone at OLC, Office of Legal 
Counsel, about this.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you recall who you spoke to?
    Answer. Yes.
    Question. Who?
    Answer. Paul Colborn.
    Question. What did you tell Mr. Colborn?
    Mr. Eggleston. Now, hold it. Let me raise two objections. First, 
you are inquiring into communications between attorney and client in 
connection with ongoing private litigation. And I must say it is 
ongoing, and given the fact that you have these documents, it seems to 
me that you are doing little here other than trying to advance a 
private interest in private litigation. There is litigation going on, 
and maybe litigation that will arise as a result of the assertion of 
privilege by the White House.
    The Witness. If there is an assertion.
    Mr. Eggleston. If there is an assertion in connection with that. 
And your asking directly for communications between the Department of 
Justice and the White House in this matter I think is absolutely 
inappropriate, and I can't help but concluding that you are attempting 
to influence private interests. Because otherwise I don't see what this 
inquiry is about, because you have the documents. The documents have 
not been withheld from either the Senate or the House; and indeed, I 
think a few of these documents were actually used by the Senate in 
connection with its hearings.
    [Witness conferring with counsel.]
    Mr. Eggleston. And I really--finally, let me say I've let this go 
on quite some distance. But I talked to Ms. Comstock last week and told 
her that Mr. Nionakis would not be answering questions about this, and 
she said she would raise it with Mr. Ruff and Mr. Ruff would provide 
someone else to respond to questions. And since you talked to Mr. 
Breuer, I assume he has answered the questions.
    But I am really not in a position to let them respond to questions 
about communications between the Department of Justice acting as the 
lawyer, particularly in a circumstance where it seems to me you already 
have the documents. And I can't imagine what your interest in this 
could be, other than advancing private interest in private litigation.
    Mr. Dhillon. Are you instructing your client not to answer my 
question?
    Mr. Eggleston. I would very much like to accommodate this with you, 
but if your question is that--if you're going to ask about 
communications between Mr. Nionakis and the Department of Justice, I'll 
refer you back to my conversation with Ms. Comstock of last week, where 
she agreed that he would raise this issue with Mr. Ruff and Mr. Ruff 
would provide other people to respond to these questions. So, yes.
    Mr. Dhillon. Are you instructing your client not to answer the 
question?
    Mr. Eggleston. I am.
    Mr. McLaughlin. I'll just pitch in and say on behalf of the 
minority, I'm just sitting here like a bump on a log letting these 
questions go on, but I will second the objections. And just add my own, 
that the relevance of this line of questioning is not readily apparent 
to me in light of the fact that we have the documents and that they 
were in fact turned over to this committee. This seems like once again 
the committee comes close to crossing the line of self-parody. But that 
having been said, I will simply add my objection to the record.
    [Counsel confer off the record.]
    Mr. McLaughlin. When I can get Mr. Dhillon's attention, I will ask 
him to state the relevancy of the line of questioning that he has been 
propounding or he proposes to propound.
    Mr. Dhillon. Your request is so noted for the record.
    Mr. McLaughlin. Mr. Dhillon, you are declining to state on the 
record the relevancy of these questions?
    Mr. Dhillon. The relevance is self-evident, I am certain, to you.
    Mr. Eggleston. I might say it is not relevant to me. Indeed, I have 
taken the position that unless the relevance to you is in order to 
advance a private party litigation, there is no conceivable relevance 
about communications with the Department of Justice about these 
documents where they have not been withheld from the committee.
    It is certainly not self-evident to me. The only thing that is 
self-evident to me is if you were taking sides in a private 
litigation--and it seems to me that the likelihood of this deposition 
is going to be released at some time in the future, and it will assist 
a party in connection with private litigation to know about 
communications between the White House and the Department of Justice, 
that it otherwise would not be subject to discovery in that private 
litigation.
    I can't imagine that that is the reason that you are doing it, but 
it is the only conceivable relevance that I can imagine to any issue 
pending.
    Mr. Dhillon. Counsel, just so we are clear, you have advised your 
client to not answer my previous question, and I would like the 
reporter to please mark that and do an index of any other occasions 
when any attorney advises the witness not to answer a question.
    Mr. McLaughlin. And I will ask the reporter to make an index of all 
occasions in which majority counsel declines to fulfill his obligations 
under Supreme Court decision of ``Watkins vs. United States'' to state 
for the record the logical chain by which the question propounded is 
relevant to the scope of the investigation. I will identify those 
occasions for the benefit of the reporter.
    Mr. Dhillon. Counsel, I am going to try to proceed, and if you have 
any other objections, obviously, make them and then if we have to shut 
down, we will. But I think maybe I can get around this; I'll give it a 
try.
    Mr. Eggleston. Look, I don't want to stop you from asking any 
questions. But I can't let him get into an area that is going to impact 
on private litigation that is currently pending. I have really let you 
ask lots and lots about this. You have sort of gotten to the core of a 
communication, and I don't want to stop you. If you can get around it, 
so be it, go ahead and do it. I would much rather that be the outcome.

                      EXAMINATION BY MR. DHILLON:

    Question. In your conversations--before I get an objection, please 
let me finish it.
    Mr. Eggleston. I've done this before. I'll let you----
    Mr. Dhillon. And he's an attorney. I'm sure he will wait to answer 
the question.

                      EXAMINATION BY MR. DHILLON:

    Question. In your conversations with Justice Department lawyers or 
OLC lawyers, did you communicate with them the White House counsel's 
rationale for making certain documents potentially subject to 
privilege?
    [Witness confers with counsel.]
    The Witness. Can you read that question back?
    [Reporter read the record as requested.]
    [Witness conferring with counsel.]
    The Witness. I don't recall.

                      EXAMINATION BY MR. DHILLON:

    Question. Did you ever talk to a person named Beth Nolan?
    Mr. Eggleston. About this issue?
    Mr. Dhillon. Yes.
    The Witness. Never.

                      EXAMINATION BY MR. DHILLON:

    Question. And the person--you already gave us the name of the OLC 
person you dealt with. Were there any other OLC people that you dealt 
with?
    Answer. No.
    Question. Did all the dog track documents go to the Department of 
Justice at the same time?
    Answer. I don't recall.
    Question. Were there any meetings with Department of Justice 
attorneys or OLC attorneys?
    Answer. Other than the conversations I've just described, no. To 
the best of my recollection.
    Question. Was the President consulted on any of the documents that 
were subject to executive privilege?
    Answer. I don't know.
    Question. Who in the U.S. Attorney's office in Wisconsin took part 
in the decision to assert privilege?
    Answer. No privilege has been asserted over these documents.
    Question. Who in the U.S. Attorney's office in Wisconsin took part 
in the decision to potentially or to potentially assert privilege to 
some of these----
    Mr. McLaughlin. That mischaracterizes his testimony, the predicate 
assumption of the question.
    The Witness. These documents are designated as being subject to 
privilege, and the answer to your question is I don't know. I deal with 
David Jones, the AUSA.

                      EXAMINATION BY MR. DHILLON:

    Question. Who makes the final determination in the White House as 
to whether a privilege is to be asserted over documents?
    Mr. Eggleston. If you know.
    [Witness conferring with counsel.]
    Mr. Eggleston. We are back.
    Mr. Dhillon. If you could give us a second.
    The Witness. Sure.
    [Counsel confer off the record.]
    The Witness. With respect to White House documents, it's my 
understanding that the President is the person who will determine 
whether there is a formal assertion of privilege--will make the final 
determination as to whether there is a formal assertion of privilege.
    Mr. Dhillon. I ask that we place before the witness, and ask that 
it be marked Exhibit 5, a memo from Loretta Avent to Harold Ickes.
    [Nionakis Deposition Exhibit DN-5 was marked for identification.]
    Mr. Dhillon. I ask that you please review Exhibit 5.
    [Witness complies.]

                      EXAMINATION BY MR. DHILLON:

    Question. Do you recognize Exhibit 5?
    Answer. Yes.
    Question. What is it?
    Answer. I just recognize it as a memorandum from Loretta Avent to 
Harold Ickes dated April 24th, 1995, and it is one that is in the 
committee's possession.
    Question. And it is one of the documents that was produced on or 
about October 22nd----
    Answer. I believe so, yes.
    Question [continuing]. 1997. Who was involved in the decision to 
assert privilege over this document?
    Mr. McLaughlin. Objection. No decision to assert privilege over 
this document has been made. I don't know how many times we have to 
correct you, Mr. Dhillon, but no such decision has been made.
    The Witness. That's correct. No assertion of privilege has been 
made with respect to this document.
    Mr. McLaughlin. If an assertion of privilege had been made, we 
wouldn't have this document. I am sitting here looking at it. It was 
produced. It appears with an EOP number. You are asking perhaps why it 
might be subject to privilege in private litigation going on in 
Wisconsin, but your question implies that some decision was made that 
was not made.

                      EXAMINATION BY MR. DHILLON:

    Question. This document is on a privileged log, is it not?
    Answer. It was on a log of documents that are subject to privilege, 
and I believe the log clearly states that.
    Question. Who is involved in the decision to make this document 
subject to privilege?
    Answer. It was one of the documents that was reviewed by Chuck 
Ruff, Lanny Breuer, Cheryl Mills, myself, and then by the Department of 
Justice.
    Question. And this log was made subject to executive privilege; is 
that correct?
    Answer. No, the log has various privileges on there.
    Question. Would reviewing the log refresh your recollection as to 
what Exhibit 5 was subject to?
    Answer. I think the log probably speaks for itself.
    Question. I place before you what's been marked as Exhibit 10 and 
ask you to review it.
    [Nionakis Deposition Exhibit DN-10 was marked for identification.]
    Mr. McLaughlin. Exhibit 10?
    Mr. Dhillon. Yes, they were all premarked and that was marked as 
Exhibit 10. We will fill in the other ones in the interim.
    Mr. McLaughlin. Go ahead.
    The Witness. This document states that--I'm sorry, Exhibit 10 
reflects that Exhibit 5 is subject to executive privilege and subject 
to attorney-client communication privilege.

                      EXAMINATION BY MR. DHILLON:

    Question. I want to get into that, but let's back up just a second 
on Exhibit 10. What is Exhibit 10?
    Mr. Eggleston. Could I actually--could I ask you a question, 
because I'm getting increasingly concerned about the private 
litigation. If Mr. Nionakis's deposition is released publicly, are you 
going to release these documents such as Exhibit 5? Will they be 
released along with it?
    Mr. Dhillon. I'd like to go off the record for a moment.
    Mr. Eggleston. I'd like to do it on the record.
    Mr. McLaughlin. On the record.
    Mr. Eggleston. This is what concerns me about this. There is 
private litigation going on, and I am quite concerned what is going on 
here is the committee is acting as a stalking horse for private 
litigation. And that's why I want to know, if the deposition is 
released, which frequently happens, I want--these documents on the 
privileged log have not yet been produced in private litigation. In 
connection with responding to these questions I would like to know 
whether these documents are going to be released as part of his 
exhibits to his deposition. And now are we going to have testimony 
about them in a deposition that is going to be released.
    Mr. McLaughlin. A related--I will wait for Mr. Dhillon--a related 
point, counsel may or may not be aware that these documents were turned 
over to the committee pursuant to a nonwaiver agreement. And so 
accordingly, these documents cannot be made public without violating 
that agreement.
    And I presume that any deposition testimony relating to the 
substance of these documents would also be subject to a nonwaiver 
agreement. And, accordingly, that agreement would not afford this 
committee, without violating it, the ability to raise these documents 
publicly.
    Mr. Eggleston. That was actually my concern, which is if you are 
now going to start asking him questions about it, for example----
    Mr. Dhillon. You are looking at Exhibit 10.
    Mr. Eggleston. I know, Exhibit 10, but--for example, you have 
mentioned the name of an individual. That individual's name is not on 
the privileged log. As of this minute, if this deposition were released 
there would be information that is released off the face of a document 
that has been provided to the committee under a restrictive basis. I 
understand that would then be made public and be available for use by 
private litigants in private litigation. And I'm sure that this 
committee does not want to be taking sides in private litigation, I'm 
sure that is not what you are about. But it seems to me that is very 
definitely the road we are going down.
    And as I say, the problem is that I don't understand what the issue 
is that you're going to, since you have the documents. And so I don't 
understand what wrongdoing it is that you think that the White House is 
engaged in. You are showing him one of the documents. And my 
understanding is that you have them. The Senate has them. They were 
provided to you. And I don't see the relevance of this line of 
questioning, but it has substantial impact on private litigation, and 
that is my concern. I do not want to interfere with anything you're 
doing, but it seems to me the impact of this is only to interfere with 
private litigation, which I just am quite concerned about.
    I don't even know who the private parties are in the private 
litigation. It's not like I'm shilling for one side or the other. It is 
clear that there is a court and there's a process and apparently 
somewhere in Wisconsin, and by going down this route, if this 
deposition is released, we run substantial risk of interfering with the 
judicial process. And I think that that would be wrong to do. So I was 
back to the question of, if this gets released is it going to be 
redacted? What is happening?
    Mr. Dhillon. What I wanted to talk about were the procedures we 
followed off the record, but I guess we can do it on the records if you 
prefer.
    [Pager interruption.]
    Mr. Eggleston. I'm sorry; I'm not from the White House. It's a Sky-
Tel pager.
    Mr. Dhillon. You can put the paying client off.
    These are held in executive session. They can only be released 
through a vote of the committee. And we can redact portions that--or 
withhold portions that can be redacted or withheld. Mr. McLaughlin is 
here, and he seems very much aware of these issues; and I know he is 
very competent and able, and I am certain he will bring those issues to 
bear at that time so that everyone on the committee is aware of what 
portions are properly released or not properly released.
    And of course you can communicate with me and Mr. McLaughlin, and 
we can prepare a deposition that is--that I think meets with those 
concerns with respect to the private and civil litigation.
    Mr. McLaughlin. Well, the nonwaiver agreement is not between the 
minority and the White House. It is between the majority and the White 
House. Of course we had nothing to do with negotiating or implementing 
that nonwaiver agreement. It was your decision to enter into that 
agreement. You got these documents pursuant to it.
    This committee has a history of ignoring Chairman Burton's 
agreements with the minority, so I have no idea whether or not the 
members of the majority side will respect his agreements with regard to 
the White House. But my point is that obviously none of this can be 
released publicly without violating that agreement. So I'm sure that 
Mr. Dhillon, who is also competent and a conscientious, ethical 
attorney, I'm sure will also want to take whatever steps are necessary 
to avoid violating that agreement with the White House. That's not my 
agreement. I'll help you out if you want my help.
    Mr. Dhillon. I thank Mr. McLaughlin for his kind words, and there 
is no doubt that that is the case that we will abide by that agreement. 
And you certainly raise, both counsel for the witness and Mr. 
McLaughlin have raised some important issues with respect to the 
release or potential or possible release of the subpoena--I'm sorry, of 
this deposition.
    So I think we can work through those concerns. I wouldn't mind if 
we could have a moment off the record. I think that would be helpful 
once the speeches are done.
    Mr. McLaughlin. Let me restate my question on the record, which is 
that before you go any further on these questions, I would like to 
invite you to state the relevance. You have been challenged on the 
relevance by me, and you have declined to state the relevance of them 
for the reasons that have been ably stated by Mr. Eggleston. I can't 
understand how the designation of a document that is subject to 
privilege in ongoing private litigation is in any way relevant to this 
committee's inquiry, that once used to be about campaign fund-raising 
and related matters.
    Mr. Dhillon. It is really way too late in the day for these kinds 
of speeches. If we could go off the record please.
    [Recess.]
    Mr. Eggleston. Let me just say that of the nine documents----
    The Witness. Of the nine Hudson Casino related.
    Mr. Eggleston. Hudson Casino related documents that are reflected 
on the privilege log, two of them have been provided to the private 
plaintiffs and were--and the Senate was authorized last week to use 
them in their hearing and, in fact, I think, used one of them.
    And Mr. Nionakis can tell you which two those are. As to the 
remainder, they remain subject to privilege and at issue. And Mr.--just 
so that you know, Mr. Nionakis has been providing the process by which 
these decisions are made. He will not answer questions, and I will 
instruct him not to answer any questions if they have to do with 
discussions within the White House Counsel's Office over what kind of 
documents, why they asserted privilege--I'm sorry, why they deemed 
these documents subject to privilege.
    Those substantive decision making by the White House Counsel's 
Office, he will not answer questions about those, and he will not 
answer questions about substantive communications with the Justice 
Department on this same issue.
    Mr. Dhillon. Could I ask the basis for advising your client not to 
answer questions about conversations that occurred within the Counsel's 
Office?
    Mr. Eggleston. Well, it is part of the decision-making process of 
the Counsel's Office, and it's also subject to a conversation that I 
had last week where I thought--where I thought I had agreement with Ms. 
Comstock where she would discuss these issues with Mr. Ruff. And it was 
my understanding that she talked about it with Mr. Ruff, and he was 
going to provide someone to address the issue generally.
    In light of my conversation with Ms. Comstock, we've actually 
gotten much further into the Hudson Dog Track issues than I anticipated 
getting. Again, I had not wanted to get in the way of whatever you 
wanted to do, so I permitted him to answer process questions. But as to 
the substantive decision making by the White House Counsel's Office 
about why they treated these documents in one occasion or another and 
communications with the Justice Department, you should raise that issue 
with Mr. Ruff.
    Mr. Dhillon. Yeah, just so I'm clear, I'm sorry I'm not, your 
objection, then, the basis for advising your client not to answer any 
questions--and I was--I do intend to ask a lot of those questions, so I 
want it to be very clear for the record--is deliberative process. Is 
that what you said?
    Mr. Eggleston. Well, at this point, it's pursuant to an agreement 
with Ms. Comstock, where she was going to raise these issues with Mr. 
Ruff. And it was my understanding that she had done so. In addition, I 
think they're of subject to a variety of privileges, some of the 
attorney/client privilege, deliberative process, executive, 
Presidential communication, a variety of privileges. And I'm not going 
to limit myself to any one right now.
    Mr. Dhillon. But you're including executive privilege in the 
basis--as one of the bases for instructing your client not to answer 
any questions?
    Mr. Eggleston. Well, by not excluding any, yes.
    Mr. Dhillon. Okay. All right. Given what you put on the record, I 
want to ask the questions, and I would like you to obviously assert 
whatever objections you deem appropriate. Do it, rather than one 
document at a time, all of them at the same time when I ask the 
questions.
    Mr. Eggleston. I think that it would be fine.

                      EXAMINATION BY MR. DHILLON:

    Question. Let's finish up with Exhibit 10. So I'm clear on the 
record. What is Exhibit 10?
    Answer. I think I answered that question already.
    Question. Actually I checked. You didn't.
    Answer. Exhibit 10 is the log that we provided to this committee.
    Question. That was?
    Answer. Dated October 21, 1997.
    Question. And I would ask that exhibits--Exhibit 5 is before you. 
Exhibit 6 through 9 be placed before the witness.
    [Witness conferring with counsel.]

                      EXAMINATION BY MR. DHILLON:

    Question. Now, I'd ask you to look at Exhibits 5 through 9.
    Answer. I believe I only have----
    Mr. Eggleston. We don't see a 7. Do you?
    The Witness. No, I've got 7.
    Mr. Dhillon. Counsel, if I may ask, some of these exhibits were not 
placed on the log, which is Exhibit 10. Is it your intention to still 
assert the same objection and instruct your client not to answer 
questions about those documents?
    Mr. Eggleston. I don't think so. It was the privilege----
    Mr. Dhillon. Okay.
    Mr. Eggleston [continuing]. Issues that we're addressing.
    Mr. Dhillon. In that case, I better do these one at a time. I was 
reminded by my counsel, co-counsel that not all of these are on the 
log. So some of the questions that you objected to would be appropriate 
as to those documents, not that I'm conceding that your objection is 
appropriate.
    Mr. Eggleston. No, I didn't expect that.
    Mr. Dhillon. For the record, I am not. But let's proceed and see 
how far we can get.
    [Witness conferring with counsel.]

                      EXAMINATION BY MR. DHILLON:

    Question. Let's just go through them quickly. With respect to 
Exhibit 5.
    Answer. Okay. Before we go on, I do want to note for the record 
that these documents are all in the possession of this committee, every 
single one of them.
    Mr. McLaughlin. The documents listed on the privilege list.
    Mr. Dhillon. So noted.
    The Witness. The documents related to the Hudson casino matter 
listed on the privilege log have all been provided to this committee.
    Mr. Eggleston. And obviously documents----
    The Witness. Exhibits 5, 6, 7, 8 and 9----
    Mr. Eggleston [continuing]. Have been provided.
    The Witness [continuing]. Have been provided to this committee. So 
what's the issue?

                      EXAMINATION BY MR. DHILLON:

    Question. With respect to Exhibit 5, who was involved in the 
decision to assert privilege over--to--I'm sorry. That question has 
been asked. Let me go to the next question.
    What element of Exhibit 5 suggests executive privilege.
    Mr. Eggleston. Instruct not to answer.
    Mr. McLaughlin. And I object on the basis of relevance and on the 
basis of propriety.
    Mr. Dhillon. Again, I would ask that all--on all occasions when 
counsel advises client not to answer, that an index of those events be 
made.
    Mr. McLaughlin. And I would ask the court reporter make an index of 
all instances in which the majority counsel is challenged on the basis 
of relevance and declines to state for the record the relevance of the 
question propounded.

                      EXAMINATION BY MR. DHILLON:

    Question. What element of Exhibit 5 suggests attorney/client 
privilege?
    Mr. McLaughlin. Objection as to relevance. Objection as to 
propriety.
    Mr. Eggleston. Objection as to relevance. Objection as to--that 
question calls for privilege answers, and the witness is instructed not 
to answer.

                      EXAMINATION BY MR. DHILLON:

    Question. When was Exhibit 5 found?
    Mr. McLaughlin. Objection as to relevance. Objection as to 
propriety.
    Mr. Dhillon. We can just have a standing objection. If so, you 
don't have to say that all the time.
    Mr. McLaughlin. If you're going to ask each question, I'm going to 
raise each objection.
    [Witness conferring with counsel.]
    The Witness. I don't know.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you know where it was found?
    Answer. I don't know.
    Question. Do you----
    Answer. I don't recall, I should say.
    Question. Do you know whose files it was found in?
    Mr. McLaughlin. Objection as to relevance. Objection as to 
propriety.
    The Witness. I don't recall.
    Mr. Dhillon. Now, we'll move to Exhibit 6. That's already before 
you. I would ask that you please review it. That's a memo from a 
Chippewa Tribal Chairman to Loretta Avent.
    [Nionakis Deposition Exhibit DN-6 was marked for identification.]
    The Witness. I've reviewed it.
    Mr. Dhillon. Do you recognize Exhibit 6?
    Mr. McLaughlin. Objection as to relevance. Objection as to 
propriety.
    The Witness. I recognize it as a document that we've produced to 
this committee.

                      EXAMINATION BY MR. DHILLON:

    Question. Just in terms of how we proceed here, the privilege log 
that accompanied this document does not list it as a privileged 
document; is that correct?
    Answer. That's correct.
    Mr. Eggleston. So, I mean, the privilege didn't accompany it. This 
document is produced to you. It's not listed as a privilege document.
    The Witness. I want to state that we made a production of 
documents. And with that production of documents, we also provided you 
with a supplemental privilege log, which is something that we have done 
in the past, which is something that we do at a legitimate stopping 
point in the production.

                      EXAMINATION BY MR. DHILLON:

    Question. Okay. Why was this document not produced with the 
documents in September? I'm referring to Exhibit 6.
    Mr. Eggleston. I'm sorry. Objection as to relevance. Assertion of 
privilege. Witness is instructed not to answer.
    Mr. McLaughlin. I object as to relevance and object on the grounds 
it's not proper to ask that question.

                      EXAMINATION BY MR. DHILLON:

    Question. Was Exhibit 6 given to the Department of Justice lawyers 
for their review?
    Mr. Eggleston. Objection.
    Mr. McLaughlin. Objection.
    Mr. Eggleston. I'm sorry. You go.
    Mr. McLaughlin. Objection as to propriety. And objection as to 
relevance.
    [Witness conferring with counsel.]
    Mr. Eggleston. Objection as to relevance and assertion of 
privilege. The witness is instructed not to answer it.

                      EXAMINATION BY MR. DHILLON:

    Question. Did the Department of Justice conclude that Exhibit 6--
I'm sorry. Did the White House Counsel's Office conclude that Exhibit 6 
was privileged or that there should be an assertion or subject to 
privilege?
    Mr. McLaughlin. Objection as to relevance. Objection on the grounds 
that the question is improper.
    [Witness conferring with counsel.]
    The Witness. I don't recall.

                      EXAMINATION BY MR. DHILLON:

    Question. When was Exhibit 6 found?
    Answer. I don't recall.
    Mr. McLaughlin. Objection as to relevance. Objection as to----
    Mr. Dhillon. Where was it found?
    Mr. McLaughlin. Can I finish my objections, Mr. Dhillon?
    The Witness. That's my problem.
    Mr. Eggleston. It wasn't directed to you.
    Mr. McLaughlin. I have an objection as to relevance. I'm still 
objecting to the prior question. Objection as to relevance. And 
objection that it is improper to use committee resources to pursue 
private litigation.
    Mr. Dhillon. When? When was Exhibit 6 found?
    Mr. McLaughlin. Objection as to relevance and propriety.
    The Witness. I don't remember the----

                      EXAMINATION BY MR. DHILLON:

    Question. Where was Exhibit 6 found?
    Answer. I----
    Mr. McLaughlin. You're going to have to let me say this.
    The Witness. Right. I want to make----
    Mr. McLaughlin. So objections as to relevance and propriety.
    Mr. Dhillon. Do you know whose files it was found in?
    Mr. McLaughlin. Objection as to relevance and propriety.

                      EXAMINATION BY MR. DHILLON:

    Question. I ask you to review Exhibit 7, which is before you. And 
that is a memo to Loretta Avent, dated August 17th, 1995.
    [Nionakis Deposition Exhibit DN-7 was marked for identification.]

                      EXAMINATION BY MR. DHILLON:

    Question. Would you please review it?
    Answer. I'm sorry, Exhibit 7.
    Question. Yes.
    Answer. Okay. I've reviewed it.
    Question. Do you recognize it?
    Mr. McLaughlin. Objection as to relevance and propriety.
    The Witness. I recognize it.

                      EXAMINATION BY MR. DHILLON:

    Question. And what is it?
    Answer. It's a document that we produced to this committee.
    Question. And, once again, is this Exhibit 7 listed on the 
privilege log which is marked as Exhibit 10?
    Answer. It doesn't appear to be.
    Question. Was Exhibit 7 a document that you or the White House 
Counsel's Office concluded was subject to some sort of privilege?
    Mr. McLaughlin. Objection as to relevance and objection on the 
grounds that it is improper to ask that question.
    The Witness. I don't recall.

                      EXAMINATION BY MR. DHILLON:

    Question. Did the Department of Justice--was the Department of 
Justice provided with a copy of Exhibit 7?
    Mr. McLaughlin. Objection as to relevance. Objection on the grounds 
it's improper to use taxpayer resources to pursue private litigation.
    Mr. Eggleston. Objection as to relevance and, in addition, it's--
that question is covered by applicable privileges. And the witness is 
instructed not to answer it.

                      EXAMINATION BY MR. DHILLON:

    Question. When was Exhibit 7 found?
    Mr. McLaughlin. Objection as to relevance. Objection on the basis 
of impropriety.
    The Witness. I don't recall.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you know where it was found?
    Answer. I don't.
    Mr. McLaughlin. Objection as to relevance and as to propriety.
    The Witness. I don't recall.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you know whose file it was found in?
    Mr. McLaughlin. Objection as to relevance. Objection on the basis 
of impropriety.
    The Witness. I don't recall.
    Mr. Dhillon. Let's move on to Exhibit 8, which is already before 
you. It's a memo from Michael Schmidt to Cheryl Mills regarding a call 
from lobbyist, Pat O'Connor.
    [Nionakis Deposition Exhibit DN-8 was marked for identification.]

                      EXAMINATION BY MR. DHILLON:

    Question. Can you please review Exhibit 8?
    Answer. I reviewed it.
    Question. Who participated in the decision to make Exhibit 8 
subject to privilege?
    Mr. McLaughlin. Objection as to relevance. Objection on the ground 
it's improper to use taxpayer resources in pursuit of private 
litigation.
    Mr. Dhillon. May I inquire, Mr. McLaughlin, is it the Minority's 
position that the timing of production of this committee is not 
relevant to the work of this committee?
    Mr. McLaughlin. Mr. Dhillon, if you are asking questions concerning 
the timing of production of documents, I might, once again, sit here 
quietly like a bump on a log. You are not, however, going into the 
timing of production of documents. You are going into the question of 
why documents were classified as subject to privilege, an ongoing 
private litigation in Wisconsin.
    The committee has these documents. The questions regarding the 
designation ``subject to privilege'' are utterly improper, in my view, 
because the committee has them. I would encourage you to drop this line 
of questioning and to return to something which is even marginally 
relevant to the investigation.
    Mr. Dhillon. Well, you've objected several times to my questions of 
when was the document found. So I'll try to----
    Mr. McLaughlin. Well, because----
    Mr. Dhillon. Well, you can let me finish. I usually let you finish. 
In fact, I always have let you finish.
    Mr. McLaughlin. Fair enough.
    Mr. Dhillon. I've asked that question several times, and you've 
objected to it. And you just said a second ago timing is relevant. It 
appears to me----
    Mr. McLaughlin. Well----
    Mr. Dhillon. Sir, I'm not done. The timing of the production of 
documents has a direct bearing on whether this administration, this 
White House is cooperating with this committee or the Senate. It is 
patently relevant. If you want to continue making objections which are 
clearly baseless, you may continue to do so, and you may continue to 
waste everyone's time. You make quite a deal out of the resources being 
spent. Well, indeed, sir, your baseless constant objections are wasting 
time.
    I would ask you, sir, as a courtesy to everyone here, if you want 
to continue to assert basis objections, place a standing objection on 
the record. I will stipulate to a standing objection. I'm sure counsel 
for the witness will stipulate to a standing objection. I'm sure 
everyone in this room will stipulate to a standing objection.
    Mr. McLaughlin. Mr. Dhillon, I will happily agree to your 
suggestion not to make baseless objections. I will continue to make 
objections supported by the law and facts on the questions you're 
raising. So I will not stop making objections on a question-by-question 
basis.
    If you--because you are asking particular questions, I'm going to 
continue considering your questions on a question-by-question basis and 
raising what objections I deem appropriate.
    Your charges of wasting time are not well taken. This deposition 
has been crawling along since the very beginning, and it's not the 
fault of the witness. The subject matter that you've gotten into is one 
which is so blatantly beyond the scope of the investigation that I've 
objected to your questions as to timely because they clearly come in a 
sequence of questions which is in its entirety outside the scope of 
this investigation.
    Accordingly, I will continue to make my objections on a question-
by-question basis in the probably vain hope that you will shift your 
questioning at some point or other to a relevant line of questioning. 
As to the proprieties objections, I think your objection to my 
objection is not well taken.
    Mr. Dhillon. And so am I correct, then, because I think it's 
important, I usually don't think it's so important to get into one of 
the attorney things, so since you represent the Minority, it is 
important, is it correct, then, that the timing of production of 
documents, that it's your position that the timing of production of 
documents has no bearing at all, is not relevant to determine whether 
there has been cooperation with this committee or the Senate?
    And I would further add that the question of whether videotapes 
were timely produced is absolutely no different from what I--the 
questions that I am asking now of whether these documents were timely 
produced. They may not have the same media appeal as the videotapes do, 
but, sir, I have little doubt that they are identical in terms of the 
timely production of discovery.
    So is it the Minority's position that any questions that have to do 
with the timely production of discovery by the White House are simply 
irrelevant and not proper?
    Mr. McLaughlin. I'm not going to take your bait on that question, 
Mr. Dhillon. I will raise whatever objections are proper. This colloquy 
can best be served at a higher level than staff attorneys.
    Mr. Dhillon. I know the answer to the question. Do you know what 
the answer is to the question? In other words, I know what's relevant. 
Do you?
    Mr. McLaughlin. I make objections based on the relevance.
    Mr. Dhillon. You told me a second ago you wouldn't answer, you'll 
let someone answer.
    Mr. McLaughlin. No, no. You asked me what the Minority's position 
on the matter was. I'm not going to engage you in the colloquy.
    Mr. Dhillon. You're the Minority counsel.
    Mr. McLaughlin. You're here to take the deposition of the witness. 
Speechification and throwing questions back and forth among the 
Majority and Minority counsel is not an efficient use of the witness' 
time, my time, or your time.
    What I would continue to do is make objections on the basis of 
relevance of what you're asking. When the question is irrelevant, I'll 
object on the basis of irrelevance. When the question is improper, I'll 
object on the basis of impropriety.
    Mr. Dhillon. Mr. McLaughlin, you've finally come to the realization 
that making long speeches on the record are not appropriate. Let's 
continue.
    Okay. Were we on Exhibit 8?
    Mr. Eggleston. I don't know.
    Mr. Dhillon. I don't either.
    Mr. Eggleston. Yes. I think you had just shown him Exhibit 8.
    Mr. Dhillon. I didn't I think I had. I had.

                      EXAMINATION BY MR. DHILLON:

    Question. Who participated in the decision to assert privilege over 
to--to place Exhibit 8 subject to privilege?
    Mr. McLaughlin. Objection as to relevance. Objection on the grounds 
that it is improper to use committee resources to advance the interests 
of a private party in litigation.
    The Witness. I only know that, with respect to the White House, 
this document is one of the documents that was part of that meeting 
that I previously testified to.
    Mr. Eggleston. Ruff, Mills, Breuer.
    Mr. Dhillon. Can I go off the record for a minute?
    [Discussion off the record.]

                      EXAMINATION BY MR. DHILLON:

    Question. The privilege log, which is Exhibit 10, indicates that 
executive and attorney/client privilege--that this document was subject 
to executive and attorney/client privilege. Why was that?
    Mr. McLaughlin. Objection as to relevance. Objection on the grounds 
that it is improper to use committee resources to advance the interest 
of a private party in litigation.
    Mr. Eggleston. And I object on the basis of relevance and the 
assertion of applicable privileges and direct the witness not to 
respond to the question.

                      EXAMINATION BY MR. DHILLON:

    Question. Okay. Exhibit 9.
    [Witness conferring with counsel.]
    Mr. Dhillon. Is the White House instructing your client to assert 
executive privilege over any of these documents?
    Mr. Eggleston. Yes.
    Mr. Dhillon. Exhibit----
    Mr. Eggleston. Well, I'm sorry. Not over the documents. I'm sorry. 
No. Over questions related to communications within the White House 
Counsel's Office about how to classify these documents for the purpose 
of private litigation and communications with the Justice Department 
with regard to that issue. It's not over the documents. You have the 
documents. They've been given to you. And privilege has not been 
asserted.
    So, no, I don't want to be so flip. The answer to that question is, 
no. It's over communications related to how to respond to private 
litigation. That is the area of where privilege has been asserted.

                      EXAMINATION BY MR. DHILLON:

    Question. Exhibit 9, if you could, it is before you, if you could 
review it, please.
    Mr. Eggleston. That's 8.
    The Witness. Oh. Excuse me. Got it. I've reviewed it.
    [Nionakis Deposition Exhibit DN-9 was marked for identification.]

                      EXAMINATION BY MR. DHILLON:

    Question. Why is--why was this document subject to executive 
privilege?
    Mr. McLaughlin. Objection as to relevance. Objection that it--on 
the grounds that it's improper to use committee resources to advance 
the interests of a private party in litigation.
    Mr. Eggleston. I object as to relevance and direct--and direct the 
witness not to answer because it raises applicable privileges and 
inquires into the process with the White House with regard to private 
litigation.
    Mr. Dhillon. Who participated in the decision to assert executive 
privilege to make this document subject to privilege?
    Mr. McLaughlin. Objection as to relevance. Objection on the grounds 
that it is improper to use committee resources to advance the efforts 
of a private party in litigation.
    The Witness. This document was one of the documents that was part 
of the meeting that I have testified to earlier.
    Mr. Eggleston. Same answer. He already gave you that answer.

                      EXAMINATION BY MR. DHILLON:

    Question. When was that document found?
    Answer. I don't recall.
    Question. Where was it found?
    Answer. I don't recall.
    Question. In whose files was it found?
    Answer. I don't recall.
    Question. Why was that document not produced with the documents in 
September?
    Mr. McLaughlin. Objection as to relevance. Objection on the grounds 
that it's improper to use committee resources to advance the interests 
of a private party in litigation.
    [Witness conferring with counsel.]
    Mr. Dhillon. Mr. McLaughlin, you've made a relevance objection. I 
asked when the document was produced. Why is that not a relevant 
question?
    Mr. McLaughlin. This whole line of questions is irrelevant to the 
scope of this committee's investigation. These--we have the documents. 
The documents are sitting on the table in front of you. The White House 
produced them. You are probing into the production of documents that 
are also implicated in private litigation which is not--that the--the 
assertion of privilege in that litigation is not properly within the 
scope of this committee's investigation.
    So, accordingly, when you ask questions that fall directly 
underneath the umbrella of objectionable and improper questions, I will 
raise the objection.
    I'm fascinated that you're now paying so much attention to my 
objections. You stampede past them as you always do, as is you're right 
under the committee rules. I'm flattered as to you're now probing into 
the substantive basis of my objections. I'd be delighted to expound 
them to you off the record at some future time. I think the purpose of 
this deposition is to not waste any more of the witness' time. Why 
don't we keep going through your questions.
    Mr. Dhillon. I look forward to the day we can sit down and talk 
about that. The reason I ask is because you previously said that the 
timing was relevant, and that was specifically a timing question. You 
objected to it on relevance grounds.
    Mr. McLaughlin. Certain issues of timing are relevant. Other issues 
of timing are not relevant.
    Mr. Dhillon. Then I will ask that the question be answered.
    Mr. Eggleston. Well, look, I think he's already given you an answer 
to that question, and I'm happy to have him give the answer. I think he 
gave the answer an hour ago.
    Mr. Dhillon. I'd like to hear it again.
    Mr. Eggleston. No, I'm happy for him to give it to you again.
    The Witness. This was one of the documents that was part of the 
meeting that I testified to previously.

                      EXAMINATION BY MR. DHILLON:

    Question. So it was a document that the White House Counsel's 
Office believed was subject to some privilege?
    Answer. It is one that became part of that process where these 
documents were turned over to or produced to the Department of Justice 
for its review.
    Question. Other than your attorney, have you discussed this 
deposition with anyone else?
    Answer. I have not--other than logistics and timing, I have not 
discussed my deposition with anyone else.
    Question. You discussed logistics and timing with someone other 
than your attorney, but not the substance of your deposition?
    Answer. Well, I couldn't discuss the substance of my deposition--
I've been here all day. So, no, I haven't discussed----
    Question. Prior to being deposed, did you discuss?
    Answer. No, no. But when I--I don't mean to be flip, but timing and 
logistics, just simply I'm not going to be in the office after 1 
o'clock because I'm going to be in a deposition.
    Question. Have you contacted anyone in the Minority to discuss your 
deposition?
    Answer. No.
    Question. Have you had any meetings with Minority counsel about the 
videotapes?
    Mr. Eggleston. Objection. I'm sorry, I fell asleep. I thought you 
were asking--I'm going to object to questions about communications with 
Minority, Majority staff about this. I really think that's quite 
inappropriate.
    My recollection is that, for quite some time, there's been an 
understanding in this committee that neither side is probing the 
activities of the staff of the other side. And I can't imagine that 
those understandings have been abandoned.
    Mr. McLaughlin. Well, I'll just note for the record the following 
objection which is that, actually, I'm happy to have the witness answer 
that question. But I will tell you that the Chairman has repeatedly 
taken the position that investigating Members of Congress is outside 
the scope of this committee.
    If I'm wrong on that, I'll be delighted to learn that today and to 
hear that investigating the conduct of Members of Congress and with 
their staff is fully within the scope of this committee, because I 
assume that you must have some basis to think that something improper 
is going on with his communications with the Minority. But given that I 
know that not to be the case, I guess I don't have any objection to him 
answering the question. But perhaps Mr. Dhillon could clarify what is 
and isn't within the scope of the committee's jurisdiction.
    Mr. Eggleston. Just--I'm happy to have him answer the question. I 
really must say this is another example where I cannot conceive of the 
relevance. It was not my understanding the Majority was investigating 
the activities of the Minority on this committee. If it is, that seems 
to me it ought to be more widely disseminated. With that said, I'm 
happy to have Mr. Nionakis answer the question.
    Mr. Dhillon. That's two of the longest nonobjections on the record 
I've ever heard.
    Mr. Eggleston. I'm objecting as a matter of principle because I 
think it's quite inappropriate. Again, I have really tried very hard to 
let you get to the bottom of this.
    You were asked about the----
    The Witness. Right. The only discussion I recall with Minority 
staff about the videotapes is a discussion I had with Mr. McLaughlin in 
which I arranged to provide him--provide the Minority with a set of the 
videotapes weeks after a set was provided to the Majority.
    Mr. McLaughlin. And that was in the nature of my complaining about 
your failure to produce those tapes.
    The Witness. And, again, I apologize, Mr. McLaughlin, but with all 
due respect, yes, you were complaining quite vociferously.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you or your office--does anyone in your office or do 
you speak with defense counsel for any witnesses that have been named 
in subpoenas, for example, Exhibit 1? That was a long time ago, but 
that was the original subpoena from our committee?
    Answer. The question is do we speak with defense counsel for any 
witnesses?
    Question. Named in the subpoenas.
    Answer. I imagine that we all have spoken with defense counsel for 
various witnesses. We, that is----
    Mr. McLaughlin. Are you using defense counsel as a term of art 
there? You mean personal lawyers retained.
    The Witness. I mean private attorneys.
    Mr. Dhillon. In the form of prosecutor, on the other side is the 
defense, you're right. Counsel for the witness. That's a throwback.
    The Witness. You're absolutely right. They're not defendants. 
Private counsel for various witnesses, I imagine I have. And I imagine 
other people in the Counsel's Office have.

                      EXAMINATION BY MR. DHILLON:

    Question. Are you aware of anyone in the Counsel's Office or have 
you ever spoken with any lawyer for a person who has taken the fifth 
before this committee?
    Answer. I have not. And I'm not aware of anyone in the Counsel's 
Office who has.
    Question. Same question except for somebody who has fled the 
country?
    Answer. Same answer.
    Mr. Dhillon. I probably have a few more minutes of questions. I 
would like to take a break. I've got a bunch of notes that I need to 
look at. So I'll need a break to decide which ones to ask, but I'm 
ready to defer to you.
    Mr. McLaughlin. Why don't we get all the questions out of the way. 
I have a tiny number of questions. And we'll be happy to wait until 
you're finished.
    Mr. Dhillon. Shall we take five?
    Mr. Eggleston. Sure.
    Mr. McLaughlin. Sure.
    [Recess.]

                      EXAMINATION BY MR. DHILLON:

    Question. There's been some discussion of a nonwaiver agreement 
that may apply to these documents. When I say these documents, I'm 
referring to the October 22nd dog track documents. Do you know what 
that nonwaiver agreement is?
    Answer. In this substance----
    Mr. Eggleston. I'm sorry.
    [Witness conferring with counsel.]
    The Witness. I generally know, but I couldn't tell you sitting here 
exactly what it is.

                      EXAMINATION BY MR. DHILLON:

    Question. Okay. Does it apply to an agreement not to produce 
documents over which the White House has, in fact, asserted executive 
privilege or a privilege?
    Answer. I don't know.
    Question. Okay. Do you know if it would apply to documents where--
that are only subject to privilege?
    Answer. I don't know. And don't recall.
    Question. And just so we're clear, all the documents that we're 
talking about, I think they were Exhibits 5 through 9. Of the ones that 
were on the privilege log, there has been no actual claim of executive 
privilege as to those documents, correct?
    Answer. There has been no formal assertion of privilege with 
respect to those documents.
    Question. Has there been a claim of executive privilege as to those 
documents?
    Answer. The documents have been classified as being subject to 
privilege. That's--that's the best answer I can give you, to the best 
of my knowledge.
    Question. If the nonwaiver agreement applies only to documents over 
which a claim has actually been asserted, then it wouldn't apply to 
documents 5 through 9, correct?
    [Witness conferring with counsel.]
    Mr. Eggleston. You just have to ask someone who's more familiar 
with this. I mean, rarely are we going to have a nonwaiver, we, the 
White House, have a nonwaiver over a document that has been asserted, 
because you won't have it to release. So it's kind of a silly 
composition.
    Mr. Dhillon. And just for the record, I didn't bring it up. It was 
brought up by someone else----
    Mr. Eggleston. No, I understand.
    Mr. Dhillon [continuing]. Who started to complain about a nonwaiver 
agreement. And it seems to us, because I made certain assertions to you 
about it, that if we had been given those documents, and there's no 
subject--no privilege asserted, the nonwaiver agreement wouldn't have 
to apply.
    The Witness. It applies only to documents that are subject to 
privilege, but over which privilege has not been asserted. That's you 
get them. The White House gives them to the committee subject to 
privileges that it is not waiving by turning them over to the 
committee.
    So, in other words, it's an institutional accommodation where 
everybody's happy. The committee gets to see the documents. The White 
House doesn't have to waive privileges which it believes exists, but it 
nevertheless wants to make the documents available to Congress pursuant 
to its review and pursuant to the investigative oversight.
    Mr. Eggleston. The rest of it is Congress is not allowed to release 
it. The other half of the deal is they're not subject to release by 
Congress. And that's my understanding.
    Mr. Dhillon. The point I'm wanting to make is we're talking about 
documents that are subject to privilege not asserted.
    Mr. Eggleston. But that's the point.
    Mr. Dhillon. Right. No, I understand the point. I just wanted to be 
very clear about that. Because I understand, I think we're all sort of 
saying the same thing over and over again.
    Mr. Eggleston. Okay.
    Mr. Dhillon. I think we understand that.
    Mr. McLaughlin. And just to be clear, so the privileges can be 
asserted over these to documents in other contexts. Do you understand, 
like, for example, civil litigation.

                      EXAMINATION BY MR. DHILLON:

    Question. Do you know who a person named Dan Goldberg?
    Answer. Don Goldberg.
    Mr. Eggleston. I was going to tell you not to help him.
    The Witness. I know a Don Goldberg.

                      EXAMINATION BY MR. DHILLON:

    Question. Does he work for the White House?
    Answer. I believe he does.
    Question. Do you know in what capacity he's employed?
    Answer. I don't know his official title.
    Question. Do you know who he's employed with--is he employed with 
the Counsel's Office?
    Answer. I don't know.
    Question. Have you ever worked with him?
    Answer. Yes.
    Question. And in what capacity have you worked with him?
    Answer. On these, on investigative matters.
    Question. Is he a lawyer?
    Answer. I don't know.
    Question. What has he done for you or with you?
    Answer. [Witness conferring with counsel.]
    I only know he works on legislative affairs type matters. And to 
the extent that his role overlaps with my role, we have worked 
together.
    Question. Is he on the investigative group or team?
    Answer. I don't think so, no.
    Question. Do you know who he reports to?
    Answer. No.
    Question. I'll take you back to when we were talking about the 
process by which documents are produced pursuant to exhibit--I think it 
was Exhibit 4----
    Answer. Is this----
    Question [continuing]. Or Exhibit 3.
    Answer. The directive.
    Question. The directive, Exhibit 3. Did any documents come from an 
office that had already certified that it had produced all-responsive 
documents?
    Answer. I don't recall.
    Question. Now, with respect to the documents that we were just 
talking about, exhibits, I believe, 5 through 9----
    Answer. Uh-huh.
    Question [continuing]. Who sent those documents to Department of 
Justice?
    Answer. I did.
    Mr. Eggleston. Although I should say I don't believe he testified 
as to all of them that they were sent to the Department of Justice. I 
think, as to some of them, we refused to answer. I directed you not to 
respond to that question.
    The Witness. That's right.
    Mr. Eggleston. So your question was overinclusive. He has not 
testified that all of those documents were sent to the Justice 
Department.
    The Witness. That's correct.

                      EXAMINATION BY MR. DHILLON:

    Question. Did the Department of Justice make a document request to 
the White House regarding the Hudson Dog Track?
    [Witness conferring with counsel.]
    Mr. Eggleston. I'm sorry. I need to take a break.
    Mr. Dhillon. Okay.
    [Recess.]

                      EXAMINATION BY MR. DHILLON:

    Question. There's a question pending.
    Answer. Right. Which was? I believe your question was that the 
Department of Justice make a request for those documents. My response 
is that I think about--about a week and a half ago, the task force 
requested these documents.
    Question. Did the Department of Justice request the documents--but 
the Department of Justice through the subpoena in the civil action had 
requested the documents prior to that?
    Answer. But the Department of Justice did not. It's the private 
plaintiffs who asked for them.
    Question. Right.
    Answer. I need to be--I want to be perfectly clear.
    Question. No, I understand.
    Answer. The Department of Justice did not ask for these documents. 
The private plaintiff subpoenaed these documents. Your question now is, 
did the Department of Justice ever ask for these documents? My answer 
to you is, the only time the Department of Justice as an entity has 
asked for these documents is about a week and a half ago, and that 
would be the task force that asked for those.
    Question. And were they produced to the task force?
    Answer. Yes, they were.
    Question. Are--have these documents been released to the press, and 
I'm referring to Exhibits 5 through 9, to the press by the White House?
    Answer. To my knowledge, no.
    Mr. Eggleston. That's been three.

                      EXAMINATION BY MR. DHILLON:

    Question. How did the Department of Justice communicate the civil 
subpoena to you?
    Answer. We received copies of the subpoenas.
    Question. From the Department of Justice?
    Answer. From the Department of Justice.
    Question. When?
    Answer. I don't recall.
    Question. The meeting you had with Mr. Breuer, Mr. Ruff, Ms. Mills 
regarding the documents that we've been talking about before they went 
to the Department of Justice, do you recall the month that occurred?
    Answer. Actually, I don't.
    Question. Was it--do you recall if it was summer?
    Answer. I don't recall the month it was.
    Question. Have you had any meetings or conversations with Loretta 
Avent about the subject matter of the Hudson Dog Track documents?
    Answer. I don't--I have not.
    Question. Do you know if anyone else has had any discussions or 
communications with Loretta Avent?
    Answer. I don't know. To my knowledge, no.
    Question. Do you know what month the Department of Justice 
transmitted the civil subpoena to you?
    Answer. I don't recall.
    Question. Would there be such records at the White House about when 
those meetings occurred, that information?
    Answer. I don't believe so. No.
    Question. How about the subpoenas?
    Answer. I don't believe so either.
    Mr. Dhillon. No further questions.
    Mr. McLaughlin. Thank you, Mr. Dhillon.
                     examination by mr. mclaughlin:
    Question. Mr. Nionakis, I want to thank you for taking your time to 
come here. Your patience has been extraordinary in the case of what can 
only be termed a bizarre series of questions stretching well over an 
hour into the designation of documents as subject to privilege which 
have been turned over to this committee. And I congratulate you on your 
patience and forthrightness in responding to those questions 
nonetheless.
    I just have two questions for you. First of all, are you aware of--
have you--I'll rephrase the question. Have you knowingly withheld any 
responsive nonprivileged documents from this committee?
    Answer. No.
    Question. Have you undertaken your compliance with this committee's 
subpoena in a good faith manner and utilizing your best efforts at 
every step of the process?
    Answer. Absolutely.
    Question. Thank you. I have nothing further.
    Mr. Dhillon. I have one follow-up question.
    Mr. Eggleston. It's hard to have a follow-up question to those two.

                      EXAMINATION BY MR. DHILLON:

    Question. With respect to Exhibit 10, which is the log----
    Answer. Right.
    Question [continuing]. Was that created by the White House or by 
the Department of Justice?
    Answer. It was created by the White House.
    Mr. Dhillon. Also, I would like to state for the record that this 
committee and myself and Mr. Dold have no interest in this private 
litigation. There's been references to that. I know the counsel for the 
witness has raised that question, and Mr. McLaughlin has certainly 
intimated there is some interest. There is--this deposition and 
deposition questions being asked were not asked to further any interest 
in any litigation. They were asked to further, we believe, the 
legitimate goals of the investigation. I just wanted you to know that, 
sir.
    Mr. McLaughlin. I think--I'll just note that the record speaks for 
itself. And this committee's interest is a matter of--is now a matter 
of record. Observers can draw whatever conclusions they deem fit.
    Mr. Dhillon. Well, with your permission, I'm sure they will. Is 
there any further questions we need to ask?
    The Witness. No.
    Mr. Dhillon. Thank you very much, sir.
    The Witness. Thank you.
    [Whereupon, at 6:03 p.m., the deposition was concluded.]

    [The deposition exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.281
    
    [GRAPHIC] [TIFF OMITTED] T5405.282
    
    [GRAPHIC] [TIFF OMITTED] T5405.283
    
    [GRAPHIC] [TIFF OMITTED] T5405.284
    
    [GRAPHIC] [TIFF OMITTED] T5405.285
    
    [GRAPHIC] [TIFF OMITTED] T5405.286
    
    [GRAPHIC] [TIFF OMITTED] T5405.287
    
    [GRAPHIC] [TIFF OMITTED] T5405.288
    
    [GRAPHIC] [TIFF OMITTED] T5405.289
    
    [GRAPHIC] [TIFF OMITTED] T5405.290
    
    [GRAPHIC] [TIFF OMITTED] T5405.291
    
    [GRAPHIC] [TIFF OMITTED] T5405.292
    
    [GRAPHIC] [TIFF OMITTED] T5405.293
    
    [GRAPHIC] [TIFF OMITTED] T5405.294
    
    [GRAPHIC] [TIFF OMITTED] T5405.295
    
    [GRAPHIC] [TIFF OMITTED] T5405.296
    
    [GRAPHIC] [TIFF OMITTED] T5405.297
    
    [GRAPHIC] [TIFF OMITTED] T5405.298
    
    [GRAPHIC] [TIFF OMITTED] T5405.299
    
    [GRAPHIC] [TIFF OMITTED] T5405.300
    
    [GRAPHIC] [TIFF OMITTED] T5405.301
    
    [GRAPHIC] [TIFF OMITTED] T5405.302
    
    [GRAPHIC] [TIFF OMITTED] T5405.303
    
    [GRAPHIC] [TIFF OMITTED] T5405.304
    
    [GRAPHIC] [TIFF OMITTED] T5405.305
    
    [GRAPHIC] [TIFF OMITTED] T5405.306
    
    [GRAPHIC] [TIFF OMITTED] T5405.307
    
    [GRAPHIC] [TIFF OMITTED] T5405.308
    
    [GRAPHIC] [TIFF OMITTED] T5405.309
    
    [GRAPHIC] [TIFF OMITTED] T5405.310
    
    [GRAPHIC] [TIFF OMITTED] T5405.311
    
    [GRAPHIC] [TIFF OMITTED] T5405.312
    
    [GRAPHIC] [TIFF OMITTED] T5405.313
    
    [GRAPHIC] [TIFF OMITTED] T5405.314
    
    [GRAPHIC] [TIFF OMITTED] T5405.315
    
    [GRAPHIC] [TIFF OMITTED] T5405.316
    
    [GRAPHIC] [TIFF OMITTED] T5405.317
    
    [GRAPHIC] [TIFF OMITTED] T5405.318
    
    [The deposition of Lanny Breuer follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                      DEPOSITION OF: LANNY BREUER
                                   Friday, October 31, 1997

    The deposition in the above matter was held in Room 2303, Rayburn 
House Office Building, commencing at 8:45 a.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Richard Bennett, Chief Counsel; Barbara Comstock, Chief Investigative 
Counsel; Sophia Nelson, Staff Assistant; Kenneth Ballen, Minority Chief 
Investigative Counsel; Andrew J. McLaughlin, Minority Counsel; and 
David Sadkin, Minority Counsel.
    Also Present: Representatives Barrett and Kanjorski.
For MR. BREUER:
    MARK H. LYNCH, ESQ.
    Covington & Burling
    2301 Pennsylvania Avenue, NW
    Washington, D.C. 23044

    Mr. Bennett. Good morning, Mr. Breuer.
    Mr. Breuer. Good morning.
    Mr. Bennett. Mr. Lynch, nice to have you here early in the morning 
on this day. Congressman Barrett is here. He's had his workout and run, 
so we're ready to get rolling.
    On behalf of the members of the Committee on Government Reform and 
Oversight, we thank you for appearing today. There are certain 
preambles I just want to go over before we get started.
    Obviously you recognize that this is a deposition, and you have 
been placed under oath--or will be placed under oath to answer these 
questions. And I would request that the court reporter place you under 
oath now at this time.

  THEREUPON, LANNY BREUER, a witness, was called for examination, and 
   after having been first duly sworn, was examined and testified as 
                                follows:

    Mr. Bennett. I would like to note for the record those who are 
present here today with me. I'm Richard Bennett, chief counsel for the 
Majority; Ms. Barbara Comstock, chief investigative counsel. Ms. Sophia 
Nelson is here for the Majority. Mr. Andrew McLaughlin is here for the 
Minority, and Mr. David----
    Mr. Sadkin. Sadkin.
    Mr. Bennett [continuing]. Sadkin is here, along with Mr. Breuer and 
his counsel, Mr. Lynch. And we're pleased to also have Congressman Tom 
Barrett of Wisconsin, if I'm not mistaken----
    Mr. Barrett. That is correct.
    Mr. Bennett [continuing]. Congressman Barrett here as well as well.
    Mr. Bennett. Although this proceeding is being held in a somewhat 
informal atmosphere, because you've been placed under oath, your 
testimony here today has the same force and effect as if you were 
testifying before the committee or in a courtroom. Do you understand 
that, Mr. Breuer?
    The Witness. I do, Mr. Bennett.
    Mr. Bennett. If I ask you about conversations you have had in the 
past, and you're unable to recall the exact words used in that 
conversation, you may state that you're unable to recall the exact 
words, and then you may give me the gist or substance of that 
conversation to the best of your recollection.
    If you recall only part of a conversation or only part of an event, 
please give me your best recollection of those events or parts of 
conversations that you recall.
    If I ask you whether you have any information about a particular 
subject, and you have overheard other persons conversing with each 
other regarding that subject or have seen correspondence or 
documentation about that subject, please tell me that you do have such 
information, and indicate the source from which you derive such 
knowledge.
    Do you understand that?
    The Witness. I'll try to answer your questions as best as I can. 
I'm not sure if I'll remember all of your instructions, but I will try 
to answer everything the best I can.
    Mr. Bennett. I think the--the boilerplate is to the extent you were 
not in a conversation, but you have knowledge or reason to believe 
there was a conversation, to the extent you're able to provide us 
information, if you would do so. Do you understand that?
    The Witness. I'll do my best.
    Mr. Bennett. Before we begin the questioning, I want to give you 
some background about the investigation and your appearance here and 
the authority pursuant to which we've asked you to be here.
    Pursuant to its authority under House Rules X and XI of the House 
of Representatives, the committee is engaged in a wide-ranging review 
of possible political fund-raising improprieties and possible 
violations of law. Pages 2 through 4 of House Report 105-139 summarizes 
the investigation as of June 19, 1997, and describes new matters which 
have arisen in the course of the investigation. Also, pages 4 through 
11 of the report explain the background of the investigation.
    All questions related either directly or indirectly to these 
issues, or questions which have the tendency to make the existence of 
any pertinent fact more or less probable than it would be without the 
evidence, are proper pursuant to the House rules.
    This committee has been granted specific authorization to conduct 
this deposition pursuant to House Resolution 167, which passed the full 
House on June 20, 1997. Committee Rule 20 outlines the ground rules for 
the deposition.
    Majority and Minority committee counsel will ask you questions 
regarding the subject matter of the investigation. Minority counsel 
will ask questions after Majority counsel has finished. After the 
Minority counsel has completed questioning you, a new round of 
questioning may begin.
    Members of Congress who wish to ask questions will be afforded an 
immediate opportunity to ask their questions. When they are finished, 
committee counsel will resume questioning.
    Congressman Barrett is here this morning. He will be given an 
immediate opportunity to ask questions. He will also be permitted at 
any time to interrupt or ask that he be able to follow up on a 
question.
    Other Members of Congress may or may not attend this morning's 
session. In that regard, I would note that there is a business meeting 
scheduled for 10:30 this morning. It would be my intent, Mr. 
McLaughlin, around 10:30 to be prepared to stop for a period of time 
during the course of that business meeting pursuant to the question of 
some Members of the committee.
    I suspect that the business meeting may not start promptly at 
10:30, so I would suggest that we sort of have someone monitor when the 
business meeting starts, and then we can stop and continue the 
deposition if you would like.
    Mr. McLaughlin. Well, I appreciate that, Mr. Bennett. Let me just 
note in that regard that the Minority Members of the committee had 
hoped that this deposition would not be scheduled to conflict with that 
meeting at all. Nevertheless, given the constraints of Mr. Breuer's 
schedule and your determination to hold the deposition on this day, I 
propose that we just simply plow ahead with the deposition and get it 
over as quickly as possible.
    If any of the Minority Members wish to halt the deposition to be 
able to take part in that meeting, of course, I think we ought to honor 
that request. But barring such request, I would prefer to just plow 
forward and get it over with.
    Mr. Bennett. That's fine. In that regard, Mr. Lynch and I have 
spoken, and Mr. Breuer has probably the most important commitment of 
anyone here today. At noon, I have agreed that he can leave because he 
needs to be with children for a Halloween party.
    The Witness. I appreciate you honoring that, Mr. Bennett.
    Mr. Bennett. Let me say that the committee is not a committee 
without a heart, so we will be stopping at noon anyway. In light of 
that fact, Mr. Lynch and I have discussed the fact that very likely we 
will be continuing Monday morning until, perhaps, lunchtime.
    So in that regard, I have no concern one way or the other about 
stopping during the course of the business meeting, because I suspect 
we may not finish by noon today anyway. So, again, Mr. McLaughlin, in 
that regard, if you desire for us to stop during the business meeting 
as a courtesy to Members of the committee, please let me know.
    Mr. Bennett. Pursuant to the committee rules, Mr. Breuer, you are 
allowed to have an attorney present to advise you of your rights. And 
the record will reflect that Mr. Mark Lynch is here with you.
    Any objection raised during the course of the deposition shall 
stated for the record. If the witness is instructed not to answer a 
question or otherwise refuses to answer a question, Majority and 
Minority counsel will confer to determine whether the objection is 
proper. In that regard, only your counsel has the right to advise you 
not to answer a question.
    If Majority and Minority counsel agree that a question is proper, 
the witness will be asked to answer the question. If an objection is 
not withdrawn, the chairman or a Member designated by the chairman, in 
this case, Congressman Dan Burton of Indiana, may decide whether the 
objection is proper.
    This deposition is considered to be taken in executive session of 
the committee, which means that it may not be made public without the 
consent of the committee pursuant to clause 2(k)(7) of House Rule XI. 
You are asked to abide by the rules of the House and not discuss with 
anyone other than your attorney this deposition and the issues and 
questions raised during this proceeding. Do you understand that?
    The Witness. I do.
    Mr. Bennett. Finally, no later than 5 days after your testimony is 
transcribed and you have been notified that your transcript is 
available, you may submit suggested changes to the chairman. The 
transcript will be available for your review at the committee office. 
The committee staff may make any typographical and technical changes 
requested by you. Substantive changes, modifications, clarifications, 
amendments to the deposition transcript submitted by you must be 
accompanied by a letter requesting the changes and a statement for your 
reasons for each proposed change.
    In that regard, Mr. Lynch, we have been adopting a policy pursuant 
to which we can send the deposition to you, and you can review it with 
your client in his office or yours. And then I ask you that you return 
that back to us. You don't need to come back and come to the committee 
room. So we'll extend that courtesy to you.
    In light of the fact Mr. Breuer, as I indicated to Mr. Ruff last 
night, that the committee has noticed hearings for next Thursday and 
Friday, it's anticipated you will be called next Thursday, we will make 
this transcript available to you as quickly as possible, presumably 
today's transcript by Monday, and Monday's transcript by late Monday 
afternoon or Tuesday morning.
    The Witness. I appreciate that.
    Mr. Bennett. Do you understand everything we've gone over so far?
    The Witness. I think so.
    Mr. Bennett. Have I gone through the preamble too quickly? I hope 
not.
    The Witness. No. I think it's fine, Mr. Bennett.
    Mr. McLaughlin. Before you get to your substantive questions, Mr. 
Bennett, maybe I'll make my two points.
    Mr. Bennett. Sure.
    Mr. McLaughlin. The first point I want to make is my usual point, 
for Mr. Lynch's benefit; that is, pursuant to House Rule XI 2(k)(8), 
objections as to pertinence and relevance is the province of the full 
committee, and not merely the chairman, to rule on. Accordingly, any 
objection ruled on by the chairman is appealable to the committee.
    My second objection is in the nature of a continuing objection. I 
just want to state it at the outset so I won't have to waste time 
stating it during the course of the deposition, and that is that 
Minority objects to any questions in this deposition that have already 
been asked in Mr. Breuer's Senate deposition or in the public testimony 
that he gave 2 days ago.
    It's my understanding that the Senate deposition was made public. I 
was able to retrieve a copy from the hearing room, and I'm sure that 
you will have had a chance to review those depositions and we can avoid 
duplicative questioning. If necessary, I will be reiterate that 
objection, but I just want to get it out of the way at the beginning.
    It's the position of the Minority that redundant and duplicative 
questions should not be a part of this deposition in light of the fact 
Mr. Breuer has given testimony publicly under oath 2 days ago and under 
oath in a deposition last week.
    Mr. Bennett. And just in response to Mr. McLaughlin, I had a 
meeting with Mr. Ruff on Friday, October the 10th, which indicated that 
our concern with respect to the integrity and the process and subpoenas 
issued by this committee cover more than just a matter of videotapes. 
And Mr. Ruff has concurred. In fact, Mr. Breuer was present in that 
meeting.
    With respect to the matter of redundancy, we will make every effort 
not to be redundant, but we're going to be looking into the entire 
scope of the compliance with our subpoena and procedures prior to and 
subsequent to.
    So having said that, I think we'll move forward.

                      EXAMINATION BY MR. BENNETT:

    Question. Mr. Breuer, without getting into a lot of your 
background, which, as Mr. McLaughlin notes, is a matter of public 
record, and your distinguished academic career at Columbia University 
and Columbia Law School, let me, if I can, just go immediately into the 
matter of first your employment background.
    Mr. Barrett. Mr. Bennett, we may have a vote.
    Mr. Bennett. Excuse me, sir. I'm sorry. Excuse me, Congressman. I 
overlooked the fact that Congressman Barrett, as I noted, is here.
    Congressman Barrett, if you would like to ask any questions, you 
may do so.
    Mr. Barrett. Thank you. And I appreciate that.
    Mr. Bennett. I meant to do that, and I apologize. I was just going 
to get the background out of the way.
    Mr. Barrett. Sure. It's about 3 minutes to 9:00, and we're 
scheduled to go in at 9:00.
    Mr. Breuer, thank you for being here. Mr. Bennett, thank you.
    It's my understanding, Mr. Breuer, you left your law partnership 
with Covington & Burling early this year to serve the President and 
spend many, many hours responding to that request from this committee, 
from the Senate Governmental Affairs Committee, and from the Department 
of Justice, and I thank you for that. It's also my understanding that 
you have also appeared for a deposition before the Senate committee; is 
that correct?
    The Witness. That is correct, Congressman.
    Mr. Barrett. And how long did you spend in that deposition?
    The Witness. Approximately 2 hours----
    Mr. Barrett. 2 hours?
    The Witness [continuing]. In the deposition.
    Mr. Barrett. And you appeared before the full Senate committee 
earlier this week?
    The Witness. That's correct. I believe it was on Wednesday that I 
appeared before the full committee.
    Mr. Barrett. And how long was your testimony?
    The Witness. I was part of a panel of three. And we were there for 
approximately 3 hours.
    Mr. Barrett. Okay. And that was televised on C-SPAN?
    The Witness. Yes, so I understand; that's right.
    Mr. Barrett. I ask those questions simply because, Mr. Bennett, I 
don't know, have you got any copy of his deposition?
    Mr. Bennett. Yes. I have a reviewed a copy of his deposition from 
the Senate yesterday.
    Mr. Barrett. And also his testimony before the Senate?
    Mr. Bennett. I have reviewed portions of a transcript of his 
testimony. I had not seen the entire tape.
    Mr. Barrett. I raise that simply because of the concern that was 
raised earlier. It is my hope that we do not have a rerun of that show. 
And I think it's valid certainly to go into areas that haven't been 
examined, but, as you know and as has been pointed out, part of our 
objection is that this is just a waste of time, waste of money. It may 
be good for the attorney here if he's billing on an hourly basis, but 
otherwise, I don't see where anybody benefits at all by simply going 
through it.
    Mr. Bennett. So I can respond to that, Congressman, if I can, our 
subpoena was issued on March 4th, 1997, before the Senate's subpoena 
was issued. The matter of the complaint to our subpoena is a totally 
separate question in terms of steps taken with respect to our subpoena, 
totally apart from the Senate subpoena, which was issued later, as well 
as dialogue that was held with the Senate with respect to their 
subpoena, two entirely separate issues.
    Mr. Ruff and I, when we met on Friday, October the 10th, I think, 
had a fairly good understanding with respect to that. Ken Ballen, 
Minority counsel, was there. In fact, Mr. Breuer was present. And I 
indicated my concerns over the matter of compliance with our subpoena 
and some of the problems that this committee has had.
    And for the record, I believe that Congressman Waxman himself used 
the word ``inexcusable'' with respect to the nonproduction of matters 
for this committee, not directly necessarily with Mr. Breuer, but just 
generally the entire process.
    So we think it's important for counsel for this committee to try to 
inquire as to subpoena compliance generally and procedures that are 
taken. The matters we will cover as quickly as possible will not just 
be the matter of White House videotapes and just a repetition of the 
events of the month of October 1997.
    Mr. Barrett. And I appreciate that and understand that, but, again, 
so you understand, our concern is that it's a waste of time and waste 
of resources if we're just going to be running reruns.
    Mr. Bennett. Right. And I will do my best to the extent possible 
not to have reruns. Meaning no disrespect to my counterpart in the 
Senate, there are some matters I would like to go into a little more in 
depth, perhaps, than Mr. Madigan choose to go into, so to that extent, 
it will not be a rerun.
    Mr. Barrett. Okay. I'll yield to you.
    Mr. Bennett. And at any time you want to interrupt and ask 
questions, just so you'll know, please.

                      EXAMINATION BY MR. BENNETT:

    Question. In terms of your background, Mr. Breuer, you were, for a 
period of time prior to your engagement as White House Counsel, with 
the law firm of Covington & Burling here in Washington; is that 
correct?
    Answer. That's correct, Mr. Bennett.
    Question. And you started with that law firm upon graduation from 
law school, or completion of a clerkship rather?
    Answer. No, that's not correct. Upon graduating from law school in 
1985, I joined the Manhattan District Attorney's Office where I was an 
assistant district attorney for 4 years where I prosecuted violent and 
organized crime and some white collar crime. I then joined the law firm 
of Covington & Burling in 1989. I became a partner of the law firm in 
1995, and I left the law firm in February of 1997 to become Special 
Counsel to the President.
    Question. And with respect to your private practice and experience, 
you indicated that you prosecuted white collar criminal offenses in the 
District Attorney's Office in New York?
    Answer. Not in private practice, of course, but as an assistant 
district attorney, I did prosecute, yes.
    Question. And with regard to your private practice experience with 
Covington & Burling, it's my understanding that you engaged in 
representation of clients that will be defined as in the white collar 
criminal arena; is that correct?
    Answer. Right. I did both civil and criminal, but that's absolutely 
right, I had a white collar practice.
    Question. And in terms of a white collar criminal practice, that 
involves representing corporations or individuals with respect to 
government or corporate investigations as to alleged impropriety in 
what would be defined as the white collar area?
    Answer. That's correct. And as you know, that area has become 
broader and broader, but in essence that's correct, Mr. Bennett.
    Question. And with respect to that practice, it would involve, I 
gather, the dealing with and compliance with grand jury subpoenas and 
other subpoenas issued to your clients; is that correct?
    Answer. It is.
    Question. And what percentage of your practice was devoted to that 
area?
    Answer. It's hard for me to give you a percentage. I would say 
that, in the early years, more of my practice was devoted to civil 
litigation. In the last years, probably more of it was dedicated to 
white collar criminal. It's a little hard for me to give you a 
percentage. At any different--at different points, the majority would 
have been civil in the beginning, and in the end, the majority would 
have been criminal or white collar.
    Question. I gather, then, in light of your practice, it would be 
difficult for you to put a number on the number of white collar 
criminal investigations you've worked on?
    Answer. Yeah. I mean, I--it would be hard for me to give you a 
number. I--well, a fair number.
    Question. And you would then, I think, in terms of with the 
American Bar Association and with other professional associations, have 
held yourself out, properly so, I might add, as having expertise with 
respect to the practice of white collar criminal law; is that correct?
    Answer. I don't know what I would say about expertise. I was one of 
the editors of the Complex Crimes Journal. And I was on the Steering 
Committee on the Criminal Law and Civil Rights here in the District of 
Columbia.
    Question. And with respect to your editorship on the Complex Crimes 
Journal, essentially, that is a journal sent to other professionals who 
may engage in especially white collar criminal practice; isn't that 
correct?
    Answer. I think that's probably correct.
    Question. And, in fact, there were articles in that journal that 
relate to fairly esoteric white collar crime issues, including 
compliance with grand jury subpoenas, internal corporate investigations 
and things such as that; is that correct?
    Answer. That is correct.
    Question. And can I ask, with respect to the nature of your 
practice at Covington & Burling, did you ever find yourself in the type 
of situation that, unfortunately, White House Counsel is in now with 
respect to the matter of compliance with the subpoena?
    Answer. I'm not sure what you mean with regards--in your 
characterization. Obviously, one of the tasks that someone does in 
private practice is to comply with subpoenas, and I certainly was 
involved in that task. I've never before been deposed or challenged 
about--about activities involving what my colleagues or others have 
done in that pursuit.
    Question. And have you, during your career in private practice with 
Covington & Burling, have either you or your firm ever been challenged 
by a U.S. Attorney's Office or by a court with respect to your 
compliance with a grand jury subpoena on behalf of a client?
    Mr. Lynch. Are you asking him to comment on the entirety of 
Covington & Burling's experience since 1919?
    Mr. Bennett. Mr. Lynch, the point is well taken.
    With respect to Mr. Breuer's involvement on the cases he's worked 
on at Covington & Burling.
    The Witness. I don't think so. I mean, there's always, as you know, 
Mr. Bennett, the natural tension between private practice litigators 
and U.S. attorneys. U.S. attorneys want more. Private practice 
litigators will try to work with the U.S. attorneys.

                      EXAMINATION BY MR. BENNETT:

    Question. U.S. attorneys generally are very compassionate people, 
though, generally?
    Answer. And I'm familiar with your old office. So aside from the 
natural tensions that come into that dynamic, the answer is no.
    Question. So is it safe to say, is it not, and I'm not casting 
aspersions on you, Mr. Breuer, believe me I'm not, I'm just saying 
that, just presenting the question, it's safe to say, is it not, the 
circumstances surrounding the matter of these videotapes and compliance 
with the subpoena are fairly unique in your legal career; is that 
correct?
    Answer. Yes. Certainly I've never before been involved, Mr. 
Bennett, in a situation that's so highly politicized that, in the 
course of providing materials, that it becomes such a focus of public 
attention. And so it's a little hard to divorce the remarkable 
political atmosphere from the rest. And so with respect to that, for me 
personally this is a fairly unique experience.
    Question. And I guess specifically my question is, apart from the 
matter of the public nature of this dispute and the politicization of 
it, with respect, again, to your practice as an attorney, this is 
fairly unique, is it not, in your career for there to be a challenge 
over clear noncompliance with a subpoena? You've never been in that 
position before; isn't that correct?
    Answer. That is correct. I have--obviously, as I'm sure you're 
aware, Mr. Bennett, it's not unusual in a large production to find 
documents or materials subsequently; once you learn about them, to 
produce them. But you are right. I have never before been in this kind 
of situation.
    Question. And, indeed, as a matter of public record, that in light 
of the events of October 1997, this is October 31st, and you started a 
rather eventful month with information on October 1 that came to your 
attention--the record should reflect that you're smiling in that regard 
about--but this has been a pretty active month for you in terms of this 
particular question; is that right?
    Answer. That's right. I mean, every month since I've been at the 
White House has been very active. But the focus, of course, with this 
month with respect to the videotapes, it's been very active.
    Question. Again in terms of--it's a matter of public record in 
terms of being called before a Federal grand jury. For example, never 
in your career before has a Federal grand jury called you to appear 
before it with respect to compliance on behalf of a client with a 
subpoena; isn't that correct?
    [Witness confers with counsel.]
    The Witness. Mr. Bennett, without creating any sort of sexy issues, 
I do want to be clear that I have said earlier on, I may have said it 
to this committee, that early on I thought it was very important that, 
to the degree there were ever questions at the White House, that I 
would try to address them.
    The White House does not have a custodian of records like many 
corporations do. A number of the lawyers who work with me are younger 
lawyers, and I, of course, report to Mr. Ruff. I had from the start 
said to the Justice Department and others that I would step forward if 
anyone had any questions.
    So I just want it to be clear that, in going to the grand jury to 
do that, I, of course, can't read what are in other people's minds, but 
it was clear, I think, to those who had spoken to me before that, 
because the White House didn't have a custodian of records, because I 
didn't think we should put career people in that position, because I 
didn't think Mr. Ruff should be put in that position, and because I 
didn't think the younger lawyers should, that if at any point there 
were questions, that I would come up.
    So I just want to be clear I think it's in that vein, in all 
fairness, that I did appear before the grand jury. And I just wanted to 
put that in the correct context.

                      EXAMINATION BY MR. BENNETT:

    Question. I understand. And I gather that what you're saying is 
that, with respect to the appearance before the grand jury, you were 
the representative of the White House Counsel's Office who appeared 
before the grand jury as a representative of the entire office?
    Answer. Now, again, I don't--I'm not reading what is in the 
prosecutors' minds, of course, and I don't want to make any such 
representations, but, yes, I went in there as obviously, I thought, 
and, in fact, throughout this have acted as a representative of the 
White House. And it's in that capacity, my official capacity, that I 
appeared there, and, I would like to think, I'm appearing before you 
today.
    Question. Certainly. So to your knowledge, no one else in the White 
House Counsel's Office was asked to appear before the grand jury?
    [Witness confers with counsel.]
    The Witness. I----

                      EXAMINATION BY MR. BENNETT:

    Question. To your knowledge.
    Answer. To my knowledge, I am, in fact, now aware that others have 
appeared.
    Question. All right. Directing your attention to your employment at 
the White House in February of 1997, when you began working at the 
White House, who hired you? Who was your immediate supervisor?
    Mr. McLaughlin. I'm just going to note an objection. The background 
of Mr. Breuer's hiring at the White House Counsel's Office is part of 
the deposition and the hearing transcript before the Senate.
    Mr. Bennett. I've read the transcript, and I have follow-up 
questions, Mr. McLaughlin, as to that.

                      EXAMINATION BY MR. BENNETT:

    Question. Mr. Ruff, I believe, preceded you, and you practiced law 
with Mr. Ruff at Covington & Burling, correct?
    Answer. I did.
    Question. And I think at the Senate deposition you indicated that 
you had spoken with people prior to Mr. Ruff, and then you arrived 1 
week after him; is that correct?
    Answer. That's exactly correct.
    Question. And my question is, exactly with whom you had spoken 
prior to your arrival, because, obviously, Mr. Ruff wasn't there for 
you to speak with him?
    Answer. I initially was contacted about this position in December 
and asked if I would be interested in becoming Special Counsel.
    Question. And who contacted you?
    [Witness confers with counsel.]
    The Witness. Judge Garland, before he was on the bench, we had had 
some professional dealings. And he was the person who contacted me and 
said he had heard that the White House was looking for a Special 
Counsel and would I be interested. Without belaboring it, as I was 
joking, I had just got my partner's desk and really wasn't looking to 
move.

                      EXAMINATION BY MR. BENNETT:

    Question. You became a partner in '95 but didn't get your desk 
until '97?
    Answer. Yes. That's actually right. Right. It's a big firm.
    Mr. Lynch. It takes a while to clear the offices out.
    The Witness. But--and it was in that vein that I was initially 
contacted, Mr. Bennett. I then, after speaking to a couple of people, 
including Mr. Ruff, by pure coincidence, decided to send my resume. I 
then spoke to Ms. Kathy Wallman, who, I guess, at the time was the 
Deputy White House Counsel. I spoke to her over the telephone. I then 
probably the next day spoke to Mr. Quinn, who I did not know.

                      EXAMINATION BY MR. BENNETT:

    Question. Mr. Jack Quinn?
    Answer. Mr. Jack Quinn.
    Question. Mr. Ruff's predecessor as Counsel to the President?
    Answer. That's exactly right. And I did not know him. And I met him 
in his office, and that's with whom I spoke.
    It was soon thereafter, Mr. Bennett, that it was announced that Mr. 
Quinn was leaving the White House Counsel's Office, so I think my 
resume was held in abeyance or whatever. And then by coincidence Mr. 
Ruff, in fact, did become White House Counsel. And so at that point, I 
joined Mr. Ruff.
    Question. And so the point I was trying to clarify, which was not 
clear from the Senate deposition, is that your hiring at the White 
House was totally--to your knowledge, was totally independent of Mr. 
Ruff going to the White House?
    Answer. I don't think so. I think what happened, in all candor, is 
that Mr. Quinn was considering me when he made the announcement that he 
was leaving. And then, in fact, at that point, the decision was made 
that Mr. Ruff would make--the successor would make the decision.
    Mr. Ruff came. I, of course, knew Mr. Ruff. So I think ultimately 
Mr. Ruff selected me. So I think, though I was initially contacted by 
Mr. Quinn, it was literally within a couple of days that Mr. Quinn 
announced that he was leaving the White House Counsel's Office. No one 
acted on my resume. And then after Mr. Ruff came on board, he asked--he 
formally asked me to join the White House Counsel's Office.
    Question. Did Mr. Garland, then Mr. Garland, now Judge Garland, 
indicate why he had called or if anybody had said that you were looking 
for a position?
    Answer. No.
    Question. Do you know what prompted his call?
    Answer. We know one another, and many years earlier he knew--he has 
known that I'm interested in public service. I, in fact, was not 
looking for a position. I don't really know why he called other than he 
ultimately gave me a call.
    Question. Who--exactly who were the people with whom you spoke at 
the White House, if you can remember those people with whom you spoke?
    Answer. You mean prior to coming?
    Question. Yes.
    Answer. I think it was----
    Question. Did you speak with Bruce Lindsey?
    Answer. No.
    Question. Did you ever speak with Cheryl Mills?
    Answer. No. I really do think that the only people I spoke prior to 
Mr. Ruff and I speaking and Mr. Ruff hiring me was Ms. Wallman and Mr. 
Quinn, and we only met on one occasion, which was within a day or 2, 
candidly, of when I sent my resume. And then I probably spoke to Ms. 
Wallman a couple of times just to find out if there was going to be any 
action on my resume prior to the time of the selection of a new 
counsel. I think it was something I had the understanding that there 
would not be. And then Mr. Ruff was named.
    Question. To your knowledge, when was the first time you met Cheryl 
Mills or Bruce Lindsey?
    Answer. I can't give you the date, but I think the first time I met 
them was----
    Question. Let me step back. Maybe it will be easier for you. Did 
you meet them prior to your arrival at the White House?
    Answer. I did. And I'm really trying to think. I began, I think, on 
approximately the 16th or 18th. And Mr. Ruff asked me probably a couple 
of weeks before I started to come in on a Saturday just to meet some 
people and to meet with him, and that's when I met with Ms. Mills. And 
I think, as I recall, Mr. Lindsey at some point walked into the room, 
and literally I just shook his hand.
    Question. And what were their positions as you understand them?
    Answer. I'm not sure then if I really did have, to be candid, an 
understanding who was what, but I soon learned that they were both the 
Deputy White House Counsels.
    Question. And was it your understanding when you arrived that you 
would occupy a position subordinate to them?
    Answer. I didn't really have that understanding one way or the 
other, Mr. Bennett. My understanding was that I would report to Mr. 
Ruff; that Ms. Mills was the Deputy White House Counsel, and that she 
assisted Mr. Ruff, but that I reported to Mr. Ruff, but clearly she 
works with Mr. Ruff.
    Question. And in terms--and again it wasn't clear from the Senate 
deposition--in terms of the chain of command or the structure, then, 
you did not view Cheryl Mills as your superior?
    Answer. You know, it's hard to say. And I'm not--it's hard to say, 
because on the one hand, I don't report directly to her. On the other 
hand, she's Mr. Ruff's deputy, and so she often will fill in for him. 
So that's right. I didn't formally think of her as my superior. On the 
other hand, as the Deputy White House Counsel, there are times she 
works closely with Mr. Ruff.
    Question. Your title today is Assistant to the Counsel to the 
President?
    Answer. No, it's Special Counsel to the President.
    Question. Special Counsel to the President?
    Answer. Right.
    Question. She is, in fact, the number 2 person in the office. For 
example, she is the Deputy Counsel--deputy to Mr. Ruff who is Counsel 
to the President?
    Answer. Right. And she, of course, has responsibilities for the 
entire office, whereas I, day to day, so to speak, head the team that 
deals with the investigations. But it's--it should be very clear that I 
always report to Mr. Ruff----
    Question. So----
    Answer. Who ultimately makes the decisions.
    Mr. Lynch. I don't want to belabor this point.
    The Witness. That's right.

                      EXAMINATION BY MR. BENNETT:

    Question. So from your perspective, when you arrived on or about 
February 16th this year, it was your understanding that you would 
report directly to Mr. Ruff, and you did not feel that you needed to 
report to Mr. Ruff through Ms. Mills; is that essentially----
    Answer. Yeah. I don't want to overplay this. The answer is I would 
report to Mr. Ruff, but it didn't occur to me that I was--that I was 
trying to sidestep anyone. But that's right, ultimately, I reported to 
Mr. Ruff. And to the degree Ms. Mills was part of that process or 
practice, you know, she would be informed just as well. But, yes, 
that's right, I don't go through----
    Question. On any important matters, then, you would, not only 
report to Mr. Ruff, but keep Ms. Mills advised as best you could on 
important matters so that you wouldn't appear to certainly circumvent 
her; is that what you're saying?
    Answer. Right. I'm fairly open in my style. I think I'm known for 
that. That's true, I would let people know. If people were interested 
in knowing, I would always explain to people what we were doing.
    Question. Now, when you arrived on February 16th, there had been a 
meeting between Chairman Burton of this committee and Mr. Ruff just a 
matter of a week or 10 days prior to that; isn't that correct?
    Answer. I actually don't remember that, but I'm sure if you say so, 
that's right. I just don't remember that right now.
    Question. Well, I believe that you indicated in your deposition 
before the Senate that you were specifically hired to assist Mr. Ruff 
with respect to the handling of matters in connection with the 
congressional investigation; is that correct?
    Answer. Among others. Among others.
    Question. As well as Independent Counsel investigations?
    Answer. That's correct. And other issues that could come up. That's 
right.
    Question. But clearly--and correct me if I'm wrong, but how I 
understood your deposition before the Senate, but clearly your 
immediate task upon arrival was to deal with the matter of these 
investigations, whether they be Senate, House, Justice, or Independent 
Counsel?
    Answer. Yes. I think that's fair.
    Question. And they were the immediate duties that you assumed when 
you arrived?
    Answer. Yes. That's correct, Mr. Bennett.
    Question. So in that regard, you clearly would have been made aware 
at some point in time of dealings that Mr. Ruff had had with Chairman 
Burton of this committee with respect to issues; isn't that correct?
    Answer. Absolutely. And I just simply say sitting here I don't 
remember the timing of an initial meeting between the Chairman and Mr. 
Ruff.
    Question. What individuals were present at that time who were to 
assist you in the handling of these investigations?
    Answer. Well when I came, Ms. Popp, Karen Popp, was already there.
    Question. Is she an attorney?
    Answer. She is an attorney.
    Question. If you can, in your answers to these questions, if you 
indicate those people who are attorneys and those people who were 
paralegals.
    Answer. All right.
    Question. Because I believe you had a staff of both lawyers and 
paralegals; is that correct?
    Answer. Yeah, though when I got there--that's correct. When I got 
there, there were a number of people who needed to be hired. So Ms. 
Popp was already there. And Ms. Sally Paxton, who doesn't really work 
as directly with me, but who handles other issues that don't--that 
aren't the focus of the full committee was already there.
    Question. When you say aren't the focus of the full committee, you 
mean the committee of the White House or this committee?
    Answer. Your committee. She tends to work on some issues that I 
have absolutely nothing to do with and some issues that I have 
something to do with, but not----
    Question. So Sally Paxton would not have been involved necessarily 
with respect to the investigations and compliance with subpoenas, say, 
as actively as Karen Popp would have been?
    Answer. Well, she would have been, but she would have been more 
involved, for instance, in Chairman McIntosh's inquiry as opposed to 
Chairman Burton's or Chairmen Thompson's or the Department of 
Justice's. I'm not sure I would really focus on the specific issue she 
was handling.
    Question. And Chairman McIntosh's issues being the White House 
databases?
    Answer. Exactly.
    Question. Right. Go ahead.
    Answer. Certainly something I spend less time on that.
    So then with Mr. Ruff came Michelle Peterson, who I had known from 
Covington & Burling.
    Question. Did she come from Covington & Burling?
    Answer. Well, she came indirectly. She had left Covington & Burling 
to join Mr. Ruff at the Corporation Counsel's Office and then came with 
them there. But I had known her from the time she was at Covington & 
Burling.
    Question. Who were the other individuals who were going to be on 
the team?
    Answer. Michael Imbroscio, who joined me a few weeks later, who was 
an associate of Covington & Burling.
    Question. So Mr. Imbroscio came after you?
    Answer. That's correct. Dimitri Nionakis came after I did and came 
from the law firm of Howrey & Simon. Sometime after that, Karl Racine 
was hired, and he came from----
    Question. These are all lawyers thus far?
    Answer. These are all lawyers, that's exactly right--from the law 
firm of Cacheris & Treanor. And just so it's clear, these people are 
hired by the Counsel's Office. I don't have the authority.
    Question. I understand.
    Answer. Okay.
    Question. I'm just trying to go over the team of people. Thus far, 
correct me if I'm wrong, all the people you've named thus far----
    Answer. Are lawyers.
    Question. Are all arriving sometime in February of this year or 
afterwards?
    Answer. I would say February to March. I think that Ms. Popp was 
ahead of me. Ms. Paxton was here a while. I believe Mr. Imbroscio 
probably came in March.
    Question. How about Mr. Buzz Waitzkin?
    Answer. Mr. Buzz Waitzkin came sometime thereafter, and he was 
hired essentially to work on the issues dealing with the Vice President 
and works for the most part--he works--he was hired, I believe, out of 
the Counsel's Office, but essentially spends the great majority of time 
working on issues for the Vice President.
    Question. And again, Mr. Waitzkin came sometime in February, March 
of this year?
    Answer. I don't--I don't think February. I think more like--I may 
be wrong. I think more like maybe late March or April.
    Question. The matter that was unclear to me from the deposition 
before the Senate, Mr. Breuer, was--and you've confirmed my impression, 
but it wasn't clear from reading the transcript--is that all of the 
people on your team essentially in terms of working on these compliance 
issues with subpoenas from whatever source, they were all new to the 
White House, arriving after you did?
    Answer. Except for Ms. Popp.
    Question. I understand.
    Answer. Who's also relatively new, that's right.
    Question. And when did Karen Popp arrive?
    Answer. I think late December, perhaps January.
    Question. And who were the individuals whom they replaced; meaning 
who were the lawyers in the White House Counsel's Office that would 
normally have handled compliance with subpoenas from this committee, or 
the Senate, or the Independent Counsel, or the Justice Department?
    Answer. Mr. Bennett, as you may know, the institutional memory of 
the White House sometimes is a little thin.
    Question. We sort of have noticed that in some of the depositions.
    Answer. So I don't want to represent to you that I can give you by 
any means a full listing. Indeed, Ms. Comstock may be in a better 
position, seeing that you and I can name the players. But surely there 
was a woman Miriam Nimitz, who worked on compliance issues.
    Question. Maybe I can save some time for you.
    Answer. That would be great.
    Question. Again, not to cut you off, I guess the point I'm making 
is that all of the people, is it safe to say--and I don't want to put 
words in your mouth, Mr. Breuer--but it appears--it did not appear and 
was not clear in the Senate deposition, but it appears from what you're 
saying that, with respect to lawyers dealing with these compliance 
issues in the area of white collar criminal investigations, that, 
essentially, all the people who had handled those matters by December 
of '95--by December of '96 or January of '97 were leaving, and there 
was an entirely new team coming in to handle these issues? Is that a 
fair statement?
    Answer. It is, Mr. Bennett. I had been warned when I was still at 
Covington by someone, candidly, who had urged me not to take this job. 
The job becomes a very, very taxing and difficult job, not just because 
of the demands of the hours, but because in the highly politicized 
world we're in, that the actual lawyers and individuals become the 
focus themselves of questioning. And so that you have to really be 
willing to accept a lot of punishment, not just in the hours, but in 
sort of accusations that are made in a very highly charged partisan 
atmosphere. As a result, people don't stay very long. And people very 
much in the White House Counsel's Office wanted to leave and indeed did 
leave. So it was in that vein, in that environment, that new people 
were hired to take on the new challenges.
    Question. And then, again, not putting words in your mouth, but 
essentially we had an entirely new team coming on board to handle any 
subpoenas that arrived at the White House essentially?
    Answer. I think that's right, under Mr. Ruff's leadership. For the 
most part, that's correct.
    Question. Now, then, correct me if I'm wrong, my--again, what was 
Mr. Lindsey's title? Mr. Lindsey is Deputy Counsel to the----
    Answer. I think he has two titles, Mr. Bennett. I think he has the 
title of Deputy White House Counsel and also Assistant to the 
President.
    Question. Is it safe to say, then, with respect to Bruce Lindsey 
and Cheryl Mills that, in terms of the structure of the White House 
Counsel's Office, when there was this transition from the old team to 
the new team of which you were a part, that Mills and Lindsey were 
basically the only two people left who were going to be staying there?
    Answer. That's correct. And Ms. Paxton, who deals with not these 
issues, correct. I think that you are right.
    Question. So then in terms of grand jury compliance, compliance 
with congressional subpoenas, Independent Counsel subpoenas, when the 
new team arrived, Mills and Lindsey were the only people who had been 
there previously who had dealt with those kinds of issues on behalf of 
the White House before?
    Answer. I--I think that's correct.
    Question. Now, with respect to those individuals on the new team, 
Mr. Imbroscio, Ms. Peterson, and Mr. Nionakis, the entire group that 
we've named earlier, what was their level of experience with respect to 
white collar criminal practice? For example, Mr. Imbroscio, I believe 
you said, was an associate at Covington & Burling?
    Answer. That's correct.
    Question. He had not had, for example, meaning no disrespect to Mr. 
Imbroscio, he had not had the level of experience in dealing with white 
collar criminal investigations that you had had, for example?
    Answer. That's right. But Mr. Imbroscio is a remarkably able and 
dedicated young lawyer, and I had had the opportunity of working with 
him on a very complicated criminal case and had worked with him on some 
civil litigation. And as you know, a lot of dealing with document 
production issues is taking young, very bright people who are highly 
motivated and have great energy levels and are willing to do what they 
need to do to perform well. And Mr. Imbroscio, I thought, had really 
stood out. And I had mentioned that to Mr. Ruff, who knew him as well. 
So given the way white collar practice works, one of the key points to 
it, I think, is to have young lawyers who show the kinds of traits that 
Mr. Imbroscio does have.
    Question. Is it fair to state, though, with respect to all of these 
people, that they were fairly young and inexperienced when it came to 
complying with--certainly with congressional subpoenas? None of them 
had ever dealt with congressional subpoenas before; is that correct?
    Answer. I'm not sure that is correct. I'm not saying you----
    Question. I'm not questioning their abilities.
    Answer. No, no.
    Question. I'm saying their experience level.
    Answer. I'm just trying to give you a full answer. Mr. Nionakis was 
a mid to senior level associate. Mr. Racine was a young partner of 
Plato Cacheris, which as you know is a very prominent white collar 
firm. Ms. Peterson had worked with me on the largest investigation of a 
pharmaceutical company that indeed came from--that was prosecuted by 
your illustrious office.
    Question. For the record, that was the U.S. Attorney's Office from 
Maryland, not the office that I'm in now?
    Answer. That's right.
    Question. And Ms. Popp had been a Federal--had been an associate at 
Sullivan & Cromwell; had been a prosecutor in the Eastern District of 
New York, which she had prosecuted some of the most infamous organized 
crime cases; then had gone to the Office of Legal Counsel at the 
Justice Department, which you know has a very fine reputation, and had 
been practicing law as long as I have. So I'm not sure I would say that 
they're all inexperienced.
    Question. To your knowledge, had any of them dealt with compliance 
with congressional subpoenas in their private practice?
    Answer. I believe so. But--I believe so, but I can't tell you 
exactly who. For instance, I know Mr. Imbroscio had not. I suspect Ms. 
Peterson had not. I think some of the others may well have.
    Question. Was Mr. Quinn still on duty at any point in time when you 
arrived, or he had completely left by that point in time? Mr. Ruff had 
replaced him?
    Answer. That is exactly right.
    Question. Now, upon your arrival, I gather, with the new team that 
had arrived, I would assume, then, that you--for a period of time, the 
new team needed to rely, including Mr. Ruff, for that matter--you know, 
given his extensive background, he was still new on the job as Counsel 
to the President. I assume that Ms. Mills and Mr. Lindsey were fairly 
helpful in trying to orient the new team, having been holdovers from 
the first administration; isn't that correct?
    Answer. Yeah, I think people are helpful in general. Mr. Lindsey, I 
think it is fair to say, plays less of a direct role, at least with 
respect to the investigatory issues. And Ms. Mills, I think, was more 
helpful. Not saying Mr. Lindsey wasn't helpful, but she probably spent 
more of her time dealing with the kinds of issues that the team I work 
with was dealing with.
    Question. And would you define Ms. Mills as having been helpful 
in--I guess quite helpful in assisting you and orienting you to your 
job when you arrived?
    Answer. I do think that's correct. She was helpful.
    Question. And was she helpful to all the other members of the team 
in terms of assisting them with their duties as they arrived?
    Answer. I think so.
    Question. And all these people were arriving in February? You said 
you arrived on February 16th or somewhere between the 16th or the 18th?
    Answer. Whatever that Monday is.
    Question. I understand. And these others arrived after that through 
the month of March, I gather?
    Answer. Mr. Racine came later.
    Question. Essentially the month of February and March?
    Answer. Essentially March and some in April.
    Question. In terms of--in terms of the status of the investigations 
upon your arrival, Mr. Breuer, let me show you first what has been 
marked as Government Exhibits--strike that--Committee Exhibits or 
Deposition Exhibits 1 and 2.
    [Breuer Deposition Exhibit No. 1 was marked for identification.]

    [Note.--All exhibits referred to may be found at end of 
deposition on p. 701.]

    [Breuer Deposition Exhibit No. 2 was marked for identification.]
    Mr. McLaughlin. I don't mean to be picky, but can we have the 
witness shown the ones with the yellow tabs?
    Mr. Bennett. I don't care. That's fine.
    Mr. McLaughlin. I'll take your word for it.
    Mr. Bennett. I can assure you they're the same copies, Mr. 
McLaughlin, but I have no problem with that.
    Mr. Breuer, Mr. McLaughlin has requested that you look at the ones 
that have the yellow tab markers. For the record, we have accurate 
copies, but why don't you take those originals, if you will.
    Mr. McLaughlin. I have Exhibit 2 here. I don't think I have Exhibit 
1.
    Mr. Bennett. We'll do 1 and 2. We're handing out Exhibits 1 and 2 
right now, copies 1 and 2.
    We've handed all the copies of 1 and 2. Given Mr. Breuer has the 
originals, maybe we can--we need some more down here. We can--here's 
Exhibits 1 and 2, if anybody wants copies.

                      EXAMINATION BY MR. BENNETT:

    Question. Now, Exhibits 1 and 2, in terms of the status of the 
investigations, I gather, that you reviewed when you arrived in mid-
February, you attempted as best you could to determine what the status 
of the various investigations might be; isn't that correct?
    Answer. I think that's fair to say.
    Question. And you did that with respect to the investigations by 
the Independent Counsel?
    Answer. Certain Independent Counsel.
    Question. And--not all Independent Counsel?
    Answer. I don't handle all the Independent Counsel inquiries.
    Question. Who would handle any other Independent Counsel inquiries?
    Answer. Well, I do deal with the Independent Counsel inquiries 
dealing with the issues you're concerned with here. Other lawyers that 
respond to Mr. Ruff would handle the others.
    Question. Okay. Just without getting into the nature of those 
Independent Counsel inquiries, some of which are public record and some 
of which are not, obviously, which other lawyers in the White House 
would deal with any of those Independent Counsel inquiries?
    Answer. It may be some--more often than not, it would be the same 
ones we've talked about here.
    Question. In other words, either members of your team or Ms. Mills 
or Mr. Lindsey?
    Answer. I don't know if Mr. Lindsey deals with that.
    Question. Ms. Mills may?
    Answer. She may.
    Question. Okay. Anyone else besides you or Ms. Mills who would deal 
with Independent Counsel inquiries?
    [Witness confers with counsel.]
    The Witness. Mr. Rob Weiner will on occasion deal with certain 
issues dealing with Independent Counsel inquiries.
    Question. And I believe Shelly Peterson may as well?
    Answer. She would be one of the lawyers----
    Question. Okay.
    Answer. Who I already mentioned.
    Question. Rob Weiner is an individual who arrived----
    Answer. On the exact day I did.
    Question. You did not mention him as part of your team.
    Answer. He's not.
    Question. Okay. Is he in the Office of the Counsel of the 
President?
    Answer. He is. He's a Senior Counsel to the President and doesn't 
spend a lot of his time on such issues, but there has been some Senior 
Counsel to Mr.--he's Senior Counsel to Mr. Ruff.
    Mr. Lynch. Mr. Breuer misspoke when he said Senior Counsel to the 
President.
    The Witness. Yeah, I think it's Senior Counsel to Mr. Ruff. Thank 
you.

                      EXAMINATION BY MR. BENNETT:

    Question. And I gather, in reviewing the status, you would have 
necessarily reviewed such directives as those from Mr. Quinn as 
reflected by Exhibits 1 and 2; is that right?
    Answer. I think that's correct.
    Question. And just for the record, I am--I'll identify the exhibits 
and didn't mean any disrespect. I'll let you identify the exhibits. 
What are Exhibits 1 and 2?
    Answer. Number 1 is a directive dated December 16th, from Mr. Quinn 
to the Executive Office of the President. And Exhibit 2 is a January 9 
directive from Mr. Quinn to the Executive Office of the President.
    Question. And essentially these memoranda are memoranda throughout 
the White House seeking compliance with document requests from both 
this committee and the Senate as well as the Department of Justice; 
isn't that correct?
    Answer. I believe that that is correct, Mr. Bennett, and that they 
would go out to the entire Executive Office of the President.
    Question. Did you undertake steps with respect to determining 
whether or not there had been compliance with this directive--these 
directives from Mr. Quinn?
    Answer. Can you--I'm not sure I understand the question.
    Question. I guess my point is, when you arrived on February 16th or 
the 18th, did you undertake to review whether or not there had been 
compliance with the directives from Mr. Quinn in terms of document 
productions as to document requests not only from this committee, but 
the Senate and the Department of Justice?
    Answer. Yeah, I think Mr. Ruff and I tried to orient ourselves by 
learning about the production, and to get a sense of, as best you can 
in a place as large as the Executive Office of the President, which 
with over 2,230 people working there over many different buildings, we 
try to get a sense of the production. That's correct.
    Question. And so did you--did you undertake an inquiry to determine 
what the level of compliance had been with these two memoranda?
    Answer. Well, I'm not sure what an inquiry to the level of 
compliance is. I think we probably spoke with Ms. Mills and others 
about what had been done. At some point, as you know, we started to 
have extensive conversations with this committee. At that point I and 
other lawyers tried to learn how document productions were being done. 
We tried to educate ourselves about that.
    Question. And again----
    Answer. But I didn't go an office-by-office search.
    Question. I understand.
    Answer. I didn't want to leave the misrepresentation.
    Question. I'm not suggesting that's what you did.
    Answer. I want to be clear.
    Question. Clearly again, there's an example, I guess, as you have 
indicated previously, where Ms. Mills was quite helpful in terms of 
trying to assist you in terms of what the status had been prior to your 
arrival in terms of some of these matters?
    Answer. Yeah, to Mr. Ruff and to me and to others.
    Question. So Ms. Mills was not only helpful to you, but to Mr. Ruff 
and others?
    Answer. I suspect that's right, when we reached out.
    [Discussion off the record.]
    [Recess.]
    Mr. Bennett. For the record, if we can go back on, we have been 
joined here this morning by Congressman Paul Kanjorski of Pennsylvania, 
and pursuant to the protocols, I yield now to Congressman Kanjorski 
with respect to any questions he may have.
    Mr. Kanjorski. At this point, since I just entered, just follow 
through and follow up on your questions.
    Mr. Bennett. Just for the record, Congressman Kanjorski, so you 
understand, we had tried to schedule this deposition consistent with 
Mr. Breuer's schedule, Mr. Lynch's, counsel for the Minority and 
Majority. We may or may not finish by lunchtime today. Mr. Breuer has a 
very important family engagement that he must attend in the afternoon 
today.
    We have noted that there is a business meeting scheduled for the 
committee at 10:30. I have indicated we are fully prepared to stop at 
the time of that business meeting and adjourn and wait until the 
business meeting has concluded. Mr. McLaughlin has indicated he wishes 
to continue through. Whatever the wish of Minority is, we can undertake 
that, consistent with the protocols. And then we, I suspect, may come 
back Monday morning to finish up. That is the schedule we are on.
    The Witness. Obviously, Mr. Bennett, as you can imagine, I very 
much appreciate you taking my schedule into consideration. If there is 
a way to finish it, as I am sure it is not surprising to you, I would 
like to do that.
    Mr. McLaughlin. I just want to make clear that my preference is to 
proceed through, but that, of course, is subject to the wishes of any 
of the Minority Members to whom I report.
    Mr. Bennett. I guess where we will leave it is, if for any reason 
someone from the Minority wants us to stop at 10:30, we need not have 
any formal vote,, if just any Member, one Member, says, I prefer to 
have an opportunity to come up, then we will not go forward, and we 
will wait until the business meeting is over, and we will leave it at 
that.

                      EXAMINATION BY MR. BENNETT:

    Question. Now, Mr. Breuer, with respect to the collection of 
documents seeking to comply with Mr. Quinn's document request as 
reflected by Exhibits 1 and 2, which are before you, were you able to 
locate where these documents were or whether they had been accumulated 
when you arrived at the White House?
    Answer. As best as I recall, they were in an office or offices in 
the Old Executive Office Building. I may be incorrect, because there 
have been so many documents that have come through since I have been 
there. There may have been others that were still being collected 
pursuant to the Quinn directives, despite the return date, after I had 
come, but as I recall, the majority, or the vast majority of them, if 
not all of them, were in a couple of offices in the Old Executive 
Office Building.
    Question. I may have asked this question before the break, and if I 
did, I will have to ask you again, because I don't recall. Were you 
able to determine the level of compliance with Mr. Quinn's memorandum 
at that time? Were you satisfied that all the documents had been 
collected, or did it appear that all the documents he requested had not 
yet been collected?
    Answer. Mr. Bennett, I did my best, as did Mr. Ruff and others, to 
try to familiarize ourselves with the production as best we could. We 
spoke, in fact, to the committee about that. But, again, absent an 
office-by-office search, it is very difficult, probably it is the most 
difficult entity I have ever known, to try to figure out exactly how to 
identify all of the documents that are responsive. But having said 
that, I attempted to do it as best I could.
    Question. According to your review, you were able to determine, 
were you not, that some of those documents that had been requested, in 
fact, were, in fact, already turned over to some entities, including 
the Department of Justice at that point in time? Isn't that correct?
    Answer. I am not sure what you are referring to. I actually don't 
remember that.
    Question. You don't?
    Answer. You may be right. I am just not sure what you are 
specifically referring to.
    Question. At any point in time, did you come to learn that some 
documents which had been included on Mr. Quinn's list had been turned 
over to the Department of Justice?
    Answer. You are asking back in February?
    Question. When you arrived, yes.
    Answer. I don't remember that. That may be true, but given the 
number of materials I have reviewed, I don't have a specific memory of 
doing that, but that may well be the case.
    Question. I gather, again, this is an area where Ms. Mills was of 
great help, because she was the only holdover, so to speak, who would 
be able to help you with respect to that when you arrived?
    Answer. When I arrived, that is correct.
    I should say one thing. There were other lawyers, I believe, who in 
the interim may have been of some assistance, a little bit of 
assistance, in this production, but really at a very minor level, much 
like at anyplace where, in a crunch, you may ask someone to help out.
    But Ms. Mills clearly would have been the person who would have had 
the most knowledge about this; that's correct.
    Mr. Bennett. Let me show you what has been marked as Exhibit 3. You 
can put those in front of the court reporter, if you will.
    [Breuer Deposition Exhibit No. 3 was marked for identification.]

                      EXAMINATION BY MR. BENNETT:

    Question. Directing your attention to Exhibit 3, for the record, a 
letter from Chairman Burton dated January 15, 1997, to both Mr. Ruff 
and Mr. Quinn, first, do you know whether Mr. Ruff had, in fact, 
arrived there in his position? I know it had been announced, but do you 
know if he had arrived there on January 15th?
    Answer. I believe he had not. I am fairly confident Mr. Ruff was 
still the corporation counsel to the mayor.
    Question. And the mayor being the mayor of Washington, D.C.?
    Answer. The mayor of Washington, D.C.
    Question. And did you have occasion to review this letter--well, I 
gather you must have reviewed this letter upon your arrival at some 
point in time--having to do with compliance with requests for documents 
by this committee?
    Answer. I suspect I would have. I have no specific recollection, 
sitting here today, of reading this letter, but I am confident that 
sometime at or about the time that I joined the White House I would 
have reviewed this letter.
    Question. If you want to take just a second to quickly look through 
it right now to see if it might refresh your recollection as to reading 
that at the time when you arrived.
    Answer. Again, Mr. Bennett, I suspect I did read this letter, but I 
cannot state that I have at this point a specific recollection of 
reading--of reading this letter. I am sure--I try to make a practice of 
reading all correspondence from the chairman.
    Question. In reviewing that, do you recall the matter addressed in 
this letter, again, as something that certainly was not discussed in 
the Senate deposition?
    And I need to inquire into now, Mr. Breuer, this letter talks about 
an issue--it directs its attention in the third paragraph to a 
potential conflict of interest of Cheryl Mills with respect to her 
involvement in producing records in light of the fact that the chairman 
noted that she and Mr. Lindsey had attended a meeting in May of 1996 
regarding fund-raising and Mr. Trie, Mr. Charlie Trie, and the 
Presidential Legal Expense Trust.
    Without getting into the merits of whether there was or was not a 
conflict of interest, do you recall reading the letter where the issue 
of a conflict of interest was raised by the chairman?
    Answer. Again, I am confident I would have read this letter. I 
don't right now have a specific recollection of reading this particular 
letter.
    Question. Well, let me ask you this----
    Answer. That's not to say I am not sensitive to the issue you are 
addressing, but I want to be clear that I don't remember reading this 
exact letter.
    Question. I guess my question is: Did the matter of a conflict of 
interest, a potential conflict of interest with Ms. Mills and/or Mr. 
Lindsey, in terms of seeking compliance with certain document requests, 
in light of this issue raised by Congressman Burton--did that matter 
ever become a topic of discussion?
    Answer. Well, members of this committee--the staff of this 
committee, Ms. Comstock and others, have on occasion raised their 
concerns about Ms. Mills and others in meetings, and Mr. Lindsey. They 
have stated that. And so I clearly recall, for whatever reason, 
whatever the history is there, that neither you or I are a part of, 
there clearly is a history there. It is unfortunate, but there is one.
    Question. Well, my point is, I am not so much directing personal 
criticism at Ms. Mills right now. What I am trying to address is the 
question of when you arrived and the obviously thorough efforts you 
made to apprise yourself of the status of investigations.
    Did you address the issue of the chairman of this committee noting 
his concern about a conflict of interest? Did you address that issue?
    Answer. Well, Mr. Bennett, I am trying to answer the question; I 
truly am. I don't divorce what I am trying to say to you with what this 
issue is, and that is, I don't know whether or not there is a true 
conflict.
    Mr. Ruff satisfied himself, I think, that Ms. Mills is an integral 
part of the White House Counsel's Office. She is his deputy and acts as 
such. And, candidly, it was Mr. Ruff's office, and he, I think, ought 
to decide how the staff of the White House Counsel operates. And I 
think it is for him to make those decisions.
    Having said that, I think we were sensitive that there was a level 
of--I don't know if the right word is ``animosity,'' but certainly 
there is a history there that there have been staff on this committee 
who have been fairly candid, I think, about their views about certain 
people at the White House, and, unfortunately, Mr. Lindsey and Ms. 
Mills were two of those people.
    It is in that vein, not specifically in this one, that that issue 
came up. But we did satisfy ourselves, I believe, that there were no 
true conflicts.
    Question. And having satisfied Mr. Ruff--and, again, I am not 
getting into the merits of the decision.
    Answer. I know you are not. Nor am I.
    Question. Yes. But the point is that, having satisfied himself that 
he believed there was no conflict of interest, Mr. Ruff did not 
undertake any steps to preclude Ms. Mills' involvement in any of these 
matters; is that correct?
    Answer. I----
    Question. That's a poorly phrased question. Let me rephrase it. 
That was a legalistic question.
    The question is: Cheryl Mills stayed actively involved with respect 
to these issues of document production, and Mr. Ruff basically 
disagreed with Chairman Burton's point and moved forward, and Ms. Mills 
stayed involved. Isn't that basically what happened?
    Mr. Lynch. That's also quite a compound question.
    Mr. Bennett. It isn't a question, it is a statement, as a matter of 
fact, and I apologize.

                      EXAMINATION BY MR. BENNETT:

    Question. You know what I am getting at. Why don't you respond 
then, Mr. Breuer.
    Answer. Right. I think I do know. In this game--not this game. I 
don't mean that in a dismissive respect.
    But in this exercise that we are--which some at this table have 
much more experience than I, and I think we can't discuss any of these 
issues, Mr. Bennett, without the political nature we are in--we are 
right now in a world where we at the White House are criticized 
because, on the one level, those at least on the Senate side think that 
someone like Ms. Mills should have known about things like videotapes, 
and did we speak with her, and we may be criticized if we did or did 
not speak with her.
    On the other hand, we are criticized by those who think we should 
not speak with her. So there is sort of this ying and this yang in this 
exercise that, no matter what we attempt to do, someone else will 
always find fault with it.
    Ms. Mills is a member of the Counsel's Office, and Ms. Mills is 
the--one of the people who provides an institutional memory. I don't 
want to characterize how active or inactive, but clearly she remains a 
member of the Counsel's Office, remains Mr. Ruff's deputy, and, as 
such, is involved in the work of the Counsel's Office.
    And just so I directly answer your question, the work of this 
chairman and this committee is part of that--is part of the work of the 
Counsel's Office, the part that I spent a bit of time on, and, as such, 
Ms. Mills has an involvement in that, yes.
    I hope that answered your question fully.
    Question. I think it did. I think it did.
    What percent of your time, certainly in the early months, in 
February and March and April, were you spending on these investigations 
responding to the Senate and to the House, apart from the Department of 
Justice, just the Senate and House inquiries?
    Answer. It is hard to divide up the Senate and the House and the 
Justice Department, but the vast majority of my time I was spending on 
what I will call the campaign fund-raising inquiries from the Senate, 
from the House, from the Department of Justice, from the press, and 
whatever ancillary other issues or bodies were interested in campaign 
finance issues, that, and then Independent Counsel Starr and other 
independent counsels I spent time on as well. But I would say the 
majority of my time was clearly on campaign finance issues.
    Question. What was the status of grand jury subpoenas--strike that.
    Were you aware that grand jury subpoenas had been issued in 
December of 1996, when you arrived?
    Answer. If they were, I am aware of them. I received so many, 
literally hundreds of inquiries, that without looking at them, it is 
hard for me to remember when I got any one. But if they existed, I knew 
about them.
    Question. And with respect to the level of compliance with grand 
jury subpoenas, again, I am not asking you to recollect the specific 
document productions, but did you undertake to determine the level of 
compliance with grand jury subpoenas when you arrived?
    Answer. The exercise was the same as I described previously.
    Question. And, again, with respect to--and you would check the 
dates of production, compliance with subpoena, or do the best you could 
to determine where the office was when you arrived in terms of 
complying with those subpoenas?
    Answer. Mr. Bennett, as you know, from the moment I came here--and 
maybe your experience since you joined the committee is the same--from 
the moment I came to the White House, there was a remarkable flurry of 
activity, from this committee, from the Senate, from the House, from 
the press.
    So it is impossible for anyone to sit back, as one might in private 
practice or in another place, and sort of study everything that has 
occurred in the past. From the moment you walk into a place like the 
White House, you work remarkably long hours just trying to catch up 
with the day's events.
    So I don't want to give the false impression that I was studiously 
left alone in my office for a very long period of time, able to do some 
sort of remarkable analysis of what had occurred before me.
    Question. And in light of that, there, again, would lie the 
importance of Ms. Mills with respect to trying to assist you, because 
she was the only holdover from the previous administration?
    Answer. And others and----
    Question. That would be correct, would it not, with respect to Ms. 
Mills? She was of enormous help to you in trying to undertake these 
duties?
    Answer. And, again, I don't want to say--I don't want to be too 
specific here, but she was of enormous help to the office. I think that 
that is the most accurate way--given the way that any office such as 
ours works--it may be a mini microcosm, indeed, Mr. Bennett, of what 
you had when you were a U.S. attorney. There are so many demands. Often 
during the days, I have to go to very many meetings with Mr. Ruff or 
others. So during that exercise, my lawyers also undertake to do stuff 
and there is an open level of communication between many different 
people.
    She would be of help not just to me.
    Question. I am not suggesting that. The point I am making in terms 
of the pace of the office, for Congressman Kanjorski's benefit, because 
he wasn't here earlier this morning, that you literally have an 
entirely new team coming on board in February and March of 1997, an 
entire old team leaving. Ms. Mills being the only holdover, she 
obviously was enormously important in assisting you in these duties; is 
that correct?
    Answer. Yes, it would be correct that she was of great help, as 
were others, given the fact that, like this committee has an enormous--
has enormous resources to do its work and we, of course, have much more 
limited resources, with approximately six lawyers and three paralegals, 
you need to reach out, and we did that.
    Question. Directing your attention now to the subpoena issued by 
this committee, reflected by Exhibit 4, this subpoena--in fact why 
don't we, to expedite matters, let me show you also Exhibit 5, if we 
can, please.
    [Breuer Deposition Exhibit No. 5 was marked for identification.]

                      EXAMINATION BY MR. BENNETT:

    Question. Exhibit 4 is, in fact, the subpoena issued by this 
committee dated March 4 of 1997. Is that correct, from what you can 
see?
    Answer. Yes, it is.
    Question. And we will go back into the specifics in a minute, but 
then Exhibit 5 before you, if you can identify that, please?
    Answer. It is a letter that I wrote, it appears, on March 7, to Mr. 
Rowley, your predecessor. That's what it is.
    Question. Essentially noting your effort to comply with subpoenas 
issued and responding.
    So the subpoena was dated on March the 4th. The return date was 
March 24th. And you promptly replied on March 7th. So I gather that 
this--this subpoena had your immediate attention, and you gave it your 
immediate review immediately upon its arrival at White House Counsel's 
Office; is that correct?
    Answer. I don't have a specific memory. If a pattern or if history 
is any guide here--and I don't mean this disrespectfully--more often 
than not we would receive subpoenas at least a day or two after the 
date on the subpoena, and often I would first learn about a subpoena 
through the press.
    I don't know if on this--I suspect by the 7th I would have received 
the subpoena, but I don't know if I just received it that day.
    Question. Just for your edification, I believe the records of the 
committee would reflect, not that I am trying to testify here, but just 
to move along, I think this actually was served on the White House 
Counsel on the 5th.
    Answer. Okay, on the 5th.
    Question. I guess the point I am trying to address here is that in 
light of the subpoena being dated the 4th, service on the 5th, and your 
prompt letter dated March 7th, you gave this your immediate attention?
    Answer. I did. I gave it--I don't have, again, any specific memory, 
but the letter would suggest that I at least reached out to Mr. Rowley 
in a fairly quick time.
    Question. Now given that you had arrived on March--February 16th or 
February 18th, this is just 2, 3 weeks after your arrival that this 
subpoena is served on White House Counsel. Is that correct?
    Answer. That is correct.
    Question. And that would be your first involvement with a subpoena 
issued by this committee; isn't that correct?
    Answer. I suspect that this was the first subpoena issued by this 
committee after I came on board.
    Question. Do you recall whether or not you had dealt with any other 
subpoenas issued in connection with these matters by either the Senate 
or the Justice Department or Independent Counsel during those first 2 
or 3 weeks?
    Answer. I suspect I did deal with other subpoenas. I can't tell you 
if they were campaign finance or if they were from independent 
counsels, but I suspect that I already was dealing with other issues, 
subpoenas for people or for documents or for related issues.
    Question. Suffice it to say, you gave this your serious attention 
in that it was the first subpoena from the House of Representatives 
that you had dealt with?
    Answer. Again, I have no specific memory, but I think it is fair to 
say that I would have looked at the subpoena; I would have spoken with 
people about the subpoena; and, indeed, I think as I have--I have 
always tried to do in my practice is, I reached out to this committee 
right away so we could begin a dialogue about this.
    Question. If you will look through the subpoena--and I don't want 
to belabor this, because clearly this is established in the Senate 
deposition as well as in your public testimony 2 days ago before the 
Senate, but clearly the matter of this subpoena has not yet been 
discussed. This is our subpoena from this committee, and I need to 
inquire of you, Mr. Breuer, with respect to that.
    Answer. I understand that, Mr. Bennett.
    Question. On the first page of our subpoena which, for the record, 
predated the Senate subpoena--in fact, this subpoena does predate the 
Senate subpoena, does it not, Mr. Breuer? I would assume you are 
somewhat up-to-date on the Senate dates in light of your recent 
testimony.
    Answer. I think it predates it.
    Question. This committee subpoenaed--issued this subpoena prior to 
the Senate subpoena about what you were questioned 2 days ago; that's 
correct, isn't it?
    Answer. Yes, though when you say ``subpoena,'' I was questioned 
about--you know, the Senate did not subpoena us in the beginning. We 
only really received a subpoena from the Senate in July. I was 
questioned, though, about many document requests that came much before, 
and that's the only reason I have hesitated.
    Clearly, this predates the July subpoena, but many of the materials 
that are requested in this subpoena would have been reflected in 
correspondence that we had received from the Senate in formal requests.
    Question. The point is, is that without getting into the dates of 
their request, this committee was well in advance of the Senate in 
terms of the particular subpoena; isn't that correct?
    Answer. You were in advance in sending the document. Then, of 
course, after that, there was a subsequent history that this committee 
had dealings among itself, and so it is--we chronologically received 
the subpoena before the Senate subpoena.
    Question. Directing your attention to the first page of the 
subpoena, paragraph 1, definitions and instructions, based on your 
extensive experience in subpoena compliance and your background in 
terms of white-collar criminal defense, you certainly read the 
subpoena, did you not, Mr. Breuer?
    Answer. I am sure I read the subpoena.
    Question. And in reading this subpoena, clearly the word ``record'' 
or ``records'' on the very first page, the very first paragraph of the 
subpoena, mentions items, and it has a definition that includes video 
or audiotape.
    Do you see it there on the first page of the subpoena, paragraph 1?
    Answer. Yeah, I see it on the 5th line, video or audio recording. 
Is that what you are referencing?
    Question. I am actually looking where it says--the fifth line where 
it says, whether written, typed, printed, et cetera, et cetera, then 
video or audiotaped.
    Answer. Oh, I see where you are.
    Question. And then farther down it says, video or audio recording.
    Answer. I do see that.
    Question. So there are two different references; is that correct?
    Answer. Yes. There is one reference of video or audiotaped, and 
there is one to video or audio recording.
    Question. And also you would have read then, in terms of requested 
items, the particular items sought apart from the individuals listed. 
Paragraph 16, item 16 on page 5 of the House subpoena dated March 4, 
clearly also referred, and the very first words of item 16 are, all 
records relating to White House political coffees.
    Do you see that?
    Answer. I do see that.
    Question. What steps did you take--after having been served with 
this subpoena and reading the subpoena, what steps did you take--and I 
guess maybe the best way to do this, as to the House subpoena, as I 
discussed with Mr. Ruff two and a half weeks ago in terms of our 
concerns in this regard, is----
    Answer. And with me. I would like to think I was there.
    Question. You were there; and Ms. Mills was there; and, for the 
record, Ms. Comstock was there and Butch Hodson and Mr. Ballen from the 
Minority.
    What steps were taken, in terms of--for example, do you know who 
logged the subpoena in? Is there a log where you log in the subpoena 
and record its receipt?
    Answer. I don't specifically remember who was involved in the 
receipt of the subpoena. Typically, someone from this office----
    Question. Would there be a log?
    Answer. I don't think there would be a log. More often than not--
and Ms. Comstock may know better--more often than not, I think Mr. Ruff 
has been contacted when subpoenas have been received.
    Mr. Ruff actually works in the West Wing of the White House. I work 
in the Old Executive Office Building. More often than not, I think 
someone from Mr. Ruff's office actually physically gets the subpoena. I 
think that's been the practice of this committee.
    Some committees will call me or others, and so then my assistant or 
others may pick it up. I think it is more likely than not here--but I 
may be wrong--that probably someone from Mr. Ruff's office actually 
received the subpoena.
    Question. Do you know if there is a log that's kept of subpoenas 
when they arrive?
    Answer. There is no log I keep. Well, I will tell you what I have. 
What I keep is a book, where I keep all of the subpoenas. I keep all my 
correspondence in a loose leaf, I keep all the subpoenas in a loose 
leaf, and so I try to maintain all the correspondence that I have with 
respect to them.
    Question. I gather then, with respect to this subpoena, you would 
have done that?
    Answer. I think--yeah, this would be in my records, that's correct.
    Question. And apart from your own personal records, do you know if 
there are any White House Counsel records kept in that regard?
    Answer. I don't know if I would call them White House Counsel 
records. I am confident that Mr. Ruff and/or Ms. Mills have a filing 
system where they maintain their records.
    Question. I guess the point I am trying to inquire about is, at 
Covington and Burling, at your law firm, if a corporate client receives 
a grand jury subpoena or, for that matter, a congressional subpoena, 
there is a fairly careful indexing of, if you are going to receive a 
subpoena for a client, when you receive it, when it is logged in and 
the due date; is that correct, at Covington and Burling?
    Answer. There is, and, Mr. Bennett, as I hope you are sensitive, 
the practice of law at a private firm is very different from the 
practice of law at a place like the White House.
    Question. Why with respect to compliance with a subpoena, Mr. 
Breuer?
    Answer. Well, it is not with compliance with the subpoena, but it 
is with respect to memoranda that are kept by lawyers.
    Question. I am addressing, apart from the matter of memoranda or a 
different pace, why would there be any difference in terms of a 
compliance with a subpoena in the office of the White House or anywhere 
other than what you would normally do in the private sector?
    Answer. I am not suggesting----
    Mr. McLaughlin. Mr. Bennett, you cut Mr. Breuer off, and you should 
give him a chance to answer your question.
    The Witness. I am not suggesting, Mr. Bennett, I don't agree with 
your thesis. I am not saying that there was anything different. You are 
more than welcome to speak, and you are indicating you will--I am 
telling you what I do, and that's the best I can do. I think I keep 
pretty good records that establish when we receive information. I have 
no doubt I have this in my book, no doubt I have all the correspondence 
that reflects it, and so that's what I have in my book.
    All I wanted to be clear of, in your question about the White House 
Counsel's Office, is I am sure Mr. Ruff and Ms. Mills as well 
maintained their own records about that.

                      EXAMINATION BY MR. BENNETT:

    Question. Do you believe that the same steps were taken by Mr. Ruff 
in terms of documenting the service of subpoenas, compliance dates, et 
cetera, as would have been taken at Covington and Burling?
    Answer. Again, I am confident that Mr. Ruff would have followed the 
same--whatever his practice was at Covington, I suspect he would have 
followed a comparable practice. He and I have not talked about that.
    Question. As far as you are concerned, as far as you are concerned, 
there would be an effort to maintain the same level of due diligence at 
the White House Counsel's Office as would be undertaken at Covington 
and Burling?
    Answer. Right. I mean----
    Question. Is that correct?
    Answer. There would be the same attempt at complying in good faith 
with the subpoena. Mr. Ruff and I have the same devotion and dedication 
to complying with the subpoena in good faith, working in the White 
House, as we would have when we were at Covington and Burling.
    Question. And the same level of due diligence would apply? As far 
as you were concerned, you would try to meet that standard to the best 
of your ability?
    Answer. We would try to comply to the best of our ability.
    Question. And meet that standard to the best of your ability?
    Answer. I am not sure what the standard is that you are suggesting, 
so I will just simply say that we would do, and I did do, and the 
people in the Counsel's Office, as far as I am aware did, whatever we 
could to identify responsive materials and to produce them to you when 
we discovered them.
    Question. Let me just fall back if I can on one question.
    Answer. Sure.
    Question. If you look at Exhibits 1, 2, and 3 in terms of Mr. 
Quinn's memoranda reflected by Exhibits 1 and 2, and Chairman Burton's 
letter of January the 15th, essentially the--Chairman Burton's letter 
mirrors essentially Mr. Quinn's memoranda.
    And I guess my question to you: Even before the subpoena arrived in 
March, to your knowledge, why were no documents supplied in connection 
with Chairman Burton's letter in January and the memorandum from Quinn 
which actually predated your arrival? Why had no documents still 
arrived at the time that the subpoena ultimately had to be issued? Do 
you recall that?
    Answer. As I recall--and I can only speak as to what happened when 
I came on board. As I recall, we had lengthy discussions with this 
committee about having some sort of a protocol that we could all agree 
upon about the use and sanctity of how documents would be cared for.
    This was a new terrain for me, working at the White House, and I 
understood from those who were more schooled in this specific issue and 
had been dealing with it more that it was, indeed, routine, that when 
documents were produced to the committee that there would be an 
understanding both among the Majority and the Minority about how those 
documents would be maintained and that the White House would have a 
level of assurance that the documents would be maintained in a careful 
manner, given that, obviously, many of the issues that the White House 
deals with that could be contained in documents could be of significant 
import.
    It was in that vein that we began to have a series of discussions 
and, in fact, negotiations. As I recall--and I may be--there may be 
other factors. I don't have the correspondence, but as I recall, when I 
came in, that that was actually one of the issues that Mr. Ruff wanted 
us to deal with with the committee and, indeed, the issue that for 
quite sometime we did.
    As I recall, the chairman was taking the position, frankly, did he 
have the right to decide how documents would be dealt with, when they 
would be produced, when--released, when they wouldn't be released?
    We did have some concerns about documents as being not dealt with 
very carefully, and as--I may not be right, but that clearly was one of 
the issues that we were talking about.
    I think we were, frankly, Mr. Bennett--at least I was, though I may 
have been unskilled--very open about that in my dealings with at least 
Mr. Rowley, and I believe with Ms. Comstock as well.
    There may well have been other issues, as you know, that this 
committee itself at one point said it was going to get us a protocol. 
Then I believe there was a lot of internal problems in this committee 
about getting a budget. I think we were in the middle of discussions 
when all of that occurred and everything stopped from the committee, 
and, indeed, we didn't then again hear from the committee until after 
your authorization.
    I think that that is some of--not all, but some of the explanation 
that might affect the timing.
    Question. Were the documents, in fact, still collected, however?
    Answer. Some were, and we continued to--I tried, as best as I 
could, to try to continue to figure out how to collect documents. Some 
of them were collected. I don't remember exactly at what point.
    Question. Clearly, some documents could be collected to turn over 
to this committee pending the resolution of some of those issues you 
are talking about?
    Answer. Right.
    Question. But the actual physical act of gathering documents, was 
there an effort to do that even during this time period?
    Answer. There was some effort, though.
    One of the things that we tried to do--and I don't know exactly at 
what point, he said it is very hard--people at the White House feel 
very much, it may be hard to believe, under siege. They feel that all 
the time that everyone is skeptical of what they are doing, and they 
feel that these many investigations take on lives of their own.
    So one of the responsibilities that one has to do in the Counsel's 
Office is to attempt to gather documents, but also to enable people at 
the White House to continue to do their jobs.
    It is not like a corporation, Mr. Bennett, where maybe there will 
be one or two subpoenas. At the White House, given all of the level of 
activity and all the investigatory bodies, literally, there are 
requests for materials constantly, constantly. One could literally be 
sending out directives constantly. And you----
    Question. As to this committee, the----
    Mr. McLaughlin. Mr. Bennett, why don't you let him finish his 
answer before you interrupt.
    Mr. Bennett. Mr. McLaughlin, you have noted your great concern for 
the time. I have no difficulty with allowing Mr. Breuer to answer any 
question as long as he wants. I can assure you now, sir, I don't intend 
to then be told at noon that we should stop the deposition. I don't 
believe I have interrupted the witness.

                      EXAMINATION BY MR. BENNETT:

    Question. Mr. Breuer, have I been rude to you this morning?
    Answer. I don't believe you have.
    Question. Thank you.
    Answer. I hope you don't feel I am being overly wordy.
    Mr. McLaughlin. I will just state, I am interested in Mr. Breuer's 
answer. I was interested in what he was saying just now, and you 
produced--I think if the question is worth answering, you should let 
Mr. Breuer answer it in a way that he feels is complete.

                      EXAMINATION BY MR. BENNETT:

    Question. Why don't we save the theatrics. We are trying to 
accomplish this to allow Mr. Breuer to move through this.
    And my question is, with respect to--again, I haven't been rude to 
you, have I?
    Answer. No, I don't think you have been.
    Question. With respect to the matter of the House, I understand the 
matter of all of the other documents----
    Answer. Right.
    Question. But as to the House, clearly the House question had been 
crystallized in terms of Chairman Burton's letter, and at least 
according to our review and your review, I gather it is safe to say we 
have Chairman Burton's letter on January the 15th reflected by Exhibit 
3, and then we ultimately have the grand jury subpoena March the 4th; 
correct?
    Answer. Right. But----
    Question. So during that time period, at least as to the House, I 
am just trying to clarify that there wasn't any confusion over what the 
request was. There was a great deal of discussion about protocols, 
privilege, and what-have-you, and I guess my point is, you clearly knew 
what documents the House was seeking. Is that correct?
    Answer. Not exactly. And let me just explain, Mr. Bennett.
    Question. All right. Fine.
    Answer. As you know that we received broad requests even from this 
committee, just so I can finish my answer, the last one.
    Question. Go right ahead.
    Answer. We obviously don't send out directives for every particular 
inquiry. With respect to the requests even of this committee, at the 
same time that we were discussing appropriate protocols by which we 
could provide materials to you, we also were having discussions with 
you; and I am not going to represent exactly when. I can't leave----
    Question. I am not expecting you to.
    Answer. Okay. But we were, as I am sure is not a surprise to you, 
discussing the breadth of the inquiries. In fact, Ms. Comstock was a 
part of many of those discussions. So that even on paper if you would 
have asked for all the documents on X, Y, and Z, we would have 
discussions that would say, well, even though you asked for all the 
documents for X, Y, and Z, we would like to focus this with you.
    So with respect to that, it was a dynamic process; it was one that 
we were both engaged in. That's my caveat, that it would not be clear 
to us as to what you were expecting, and, indeed, in the end, that's 
exactly what happened on a number of requests.
    Question. Clearly, as to Mr. Quinn's memoranda that predated your 
arrival, Exhibits 1 and 2, it is clear what those memoranda required; 
there wasn't any ambiguity about those?
    Answer. All that was clear was what Mr. Quinn's gathered. 
Obviously, merely because counsel gathers materials from the White 
House doesn't mean that we turn over all of those documents. A 
layperson could, you know, send us documents that say there are from 
John Huang about someone having nothing to do with the investigation, 
and obviously we would be duty bound not to produce those kinds of 
materials to you.
    So it is not fair to say that even though materials were gathered, 
that there were no questions about them.
    Question. The question precisely is, and then we can move on----
    Answer. Okay.
    Question. As to the matter of document collection, is it my 
understanding that in light of the Quinn memoranda--two memoranda, 
Exhibits 1 and 2, and the chairman's letter from this committee, 
Exhibit 3, that even during the discussion of the various issues that 
you raised, there was the physical act of gathering documents together?
    Answer. There was the physical act of gathering certain documents 
together, yes.
    Question. And who would have been engaged in the physical act of 
gathering those documents?
    Answer. Well, a lot of these documents were coming in at this 
point. But depending on the different points that you are talking about 
the lawyers working with me and, frankly, the lawyers who preceded me, 
given the dates----
    Question. The team you brought on in February and March would have 
been engaged at some point ultimately in further gathering of 
documents?
    Answer. And ultimately what I--right. And the way you said it I am 
very satisfied with, which is, at some point subsequently. I am not 
going to say that it was continuous or at any point.
    Question. I understand.
    Answer. But certainly at some point we would have been involved in 
gathering materials for this committee and following up; not 
necessarily on the Quinn directives as much as on the directives, of 
course, that occurred after we all joined the White House.
    Question. And getting back to the matter of subpoena compliance, 
did you assign a particular response with respect to this subpoena 
reflected by--from the committee, reflected by Exhibit 4? Do you recall 
whether you had a particular--whether it was Ms. Popp or Mr. Waitzkin, 
and you said, here, I want you to take steps to comply with the 
subpoena? Do you recall what you did?
    Answer. I typically do do something like that, and I typically do 
assign people to specific tasks. In this particular case, I think a 
number of people would have been involved when we knew it was broad. 
Ms. Popp in the very beginning was, in fact, dealing with this 
committee.
    I don't know, though, if it is fair to say that she was assigned to 
the gathering of the materials as much as she had been. In the 
beginning, as I recall, she had a fairly active dialogue with the 
committee. She may have had more of an active dialogue with the 
committee in the beginning than I, because I was working on other 
matters as well.
    Question. In light of the fact that this was only your third week 
on the job, to what extent did you seek assistance from Ms. Mills on 
these issues?
    Answer. Here is what I think more likely would have happened. I 
would--more likely would have had discussions with Mr. Ruff, and I 
think Ms. Mills would have been a part of those discussions. I think 
that I probably did speak with her as well, but a lot of times, 
frankly, we wouldn't speak one-on-one. It might be more Mr. Ruff. And I 
think, frankly, lawyers, independent of me, which is my style, would 
have reached out to her. I am fairly open. I don't pretend to know----
    Question. Which lawyers would have reached out to her?
    Answer. I think at one point or another all of the lawyers would 
have talked to her, and again, it depends on the task. But I would be 
shocked--I mean, in fact, I am confident all lawyers have spoken with 
Ms. Mills, just like all lawyers have spoken with me and Mr. Ruff.
    Question. I think you mentioned in your previous answer that it 
was--being that you were new on the job, and I think your words were, 
if I am not mistaken, this was new terrain and that there were others 
that were more schooled in this regard.
    Answer. Particularly with respect to issues like the protocols and 
exactly--as you know, Mr. Bennett, when it comes to like grand jury 
productions, typically I would be less concerned about providing 
something to your office. I would get a subpoena; I would give it to 
you.
    Question. My prior office?
    Answer. Your prior office, I am sorry. Here I understood there were 
many issues with respect to how documents should be handled, given the 
politicized nature of this, and that was one of the big dialogues.
    Question. In light of Ms. Mills being the key holdover then, I 
gather, is she one of those more schooled, as you say, who you would 
have discussed this with?
    Answer. I suspect I would have spoken with her about this, and 
others.
    Question. And the members of the team, I gather that you--the new 
team that you had assembled, you let them know of her expertise, and 
you have indicated their contact with her. Was it a formal contact, or 
was it just on a daily basis for them to go see her if they needed 
help?
    Answer. It is a very small office. We are not as large as your 
office, Mr. Bennett. There are just--even the whole Counsel's Office, 
there are not that many people. So people deal with one another 
regularly. I am frequently not in the building. I am often either 
helping Mr. Ruff or doing something else.
    So to make the system work, so we can be as responsive as possible, 
lawyers are assigned tasks and they go about trying to identify, you 
know, how they can find materials. I am sure in that vein they would 
have spoken with her.
    Mr. Bennett. Let me just note just for one second, just pause for a 
second here. It is now 10:30. The Government Reform and Oversight 
Committee business meeting is scheduled to start at 10:30.
    Congressman Kanjorski, I don't know what your pleasure is, sir. 
Would you like me to continue?
    Mr. Kanjorski. Continue.
    Mr. Bennett. If at any time you want me to stop, in light of the 
meeting, I will stop.
    The Witness. I would appreciate continuing as well.

                      EXAMINATION BY MR. BENNETT:

    Question. Do you know if any memoranda were sent out in connection 
with this subpoena? Did you send out any memoranda in connection with 
the House subpoena reflected by Exhibit 4?
    Answer. I believe we sent out the directive in April to take those 
materials. I don't recall any other specific memoranda.
    Question. Just one second, please.
    Answer. I assume you mean internal memoranda.
    Question. Just continuing on, do you know to whom those memos would 
have been sent, those directives?
    Answer. I sent--well, I only mentioned one, the April 28th 
directive. That would have gone to everyone in the White House, in 
fact, of the--in the entire Executive Office of the President.
    Question. Let me step back for a second.
    Answer. Okay.
    Question. Apart from the April 28th, 1997, directive from Mr. 
Ruff--excuse me one second here. I will address that in a second. But 
apart from the April 28th, 1997, directive, to your knowledge--and that 
was the directive from Mr. Ruff--I think you were questioned about that 
before the Senate this week.
    Answer. I think that's correct.
    Question. Apart from that directive from--your letter of March 7th, 
1997, reflected by Exhibit 5, to the directive of Mr. Ruff dated April 
28th, 1997, to your knowledge, were there any other memoranda or 
directives sent out in connection with any--well, that directive, I 
will have you testify about that in a minute, but were there any 
directives sent out specifically with respect to the House of 
Representatives subpoena that you had received?
    Answer. I think not. I think that was a period of time that we were 
discussing issues with you like the protocol and other matters. I think 
you were having your internal debates at that point. So formal 
memoranda, no.
    There are far fewer memoranda sent at the White House than would be 
in other places, and I don't recall any.
    Question. Do you know who handles, for example, I gather, documents 
when they are produced are what are called Bates stamp? Are you 
familiar with that phrase?
    Answer. Yes, I am.
    Question. In the white collar criminal field there is Bates 
stamping religiously as to every piece of paper turned over, isn't 
there?
    Answer. I think that's fair to say.
    Question. Who was handling the Bates stamp at the White House?
    Answer. The White House is a big place. Within----
    Question. I am sorry. Specifically with respect to production and 
compliance with this subpoena of this committee.
    Answer. To give you a level of--to give you a little flavor, unlike 
at a firm where we have machines that automatically Bates stamp 
documents as they go through the Xerox machine, the White House--
literally, paralegals take stickers and put it on every piece of paper, 
because we don't have the facilities that other places do have. And 
that would have been the three paralegals who worked with us.
    Question. Are subpoenas--as far as you were concerned, were 
subpoenas to be handled differently than document requests?
    Answer. Again, there is no black-and-white answer to that.
    All of the document requests that we get we attempt to address. All 
of them are dealt with in the dynamic process of contacting the 
committee and working with the committee.
    We have received, for instance, very broad requests from this 
committee and others with very short turnaround times. With respect to 
that, I deal with that the way I would deal with other requests, which 
is to say, you know, we can't meet your deadline; let's talk about it.
    I try on some level to gauge the priorities of the requesting body, 
and so I can't say necessarily that a subpoena is always dealt with 
differently, but they are dealt with very seriously, and I try 
carefully.
    Question. Is there any supervisory review? Given the new team that 
had just been assembled--this was literally the first month for many of 
these people--what role did you play in terms of a supervisory role in 
ensuring compliance with document production?
    Answer. Well, what we attempted to do, as best we could, is--well, 
once we started--once we sent out the directive, we attempted to 
identify those offices that were more likely to have responsive 
materials. We attempted to go to those offices and speak to people 
about how they should go about doing their searches. We let people know 
that they could inquire of our lawyers on any questions they had. When 
we could identify places where we thought follow-up was necessary or 
when the committee and others called us, we attempted to follow up on 
that.
    And so it was through that process of talking that we tried to 
identify those places in the morass of the Executive Office of the 
White House, including OMB and USTR and----
    Question. Office of Management and Budget?
    Answer. Exactly. We had literally enormous places, the New 
Executive Office Building. You try, as you would in other scenarios, to 
identify those offices that are more likely than not to have materials, 
to speak to those people you can and to really impress upon them the 
necessity of searching their materials carefully.
    Question. Let me show you Exhibits 6 and 7 if I can, please.
    Answer. Okay.
    [Breuer Deposition Exhibits Nos. 6 and 7 were marked for 
identification.]

                      EXAMINATION BY MR. BENNETT:

    Question. If you will review Exhibits 6 and 7 just for a minute.
    Have you had a chance to review Exhibit 6, Mr. Breuer?
    Answer. Briefly.
    Question. If you need some more time, tell me.
    Answer. Do you want me to read the entire thing?
    Question. I will ask you some questions about this.
    Answer. Then I will probably violate my own cardinal rule that I 
tell my clients that they should read the entire document.
    Question. Read the entire document if you want to.
    Answer. I will if I need to.
    Question. Do you want to take a break for a few minutes to do that?
    Answer. No, no. I know I have the option. I am ready.
    Question. Reviewing Exhibit 6, Exhibit 6 is a letter, is it not, to 
you from Mr. John Rowley, who was then acting as chief counsel to this 
committee--to the Majority of the committee?
    Answer. It is.
    Question. And that letter basically, does it not, sort of 
summarizes or tries to focus on particular areas and areas of dispute 
or contention, trying to focus on particular matters, does it not?
    Answer. I think that's the intent, yes.
    Question. And that was, in fact, the result of conversations which 
you had had with Mr. Rowley about the various issues which you 
addressed earlier in your deposition, was it not?
    Answer. I think a group of us, Mr. Rowley, Ms. Comstock and Mr. 
Bossie from the House, and I, and maybe others on my team on my side. 
It wasn't just the two of us talking.
    Mr. McLaughlin. That included Mr. Ballen and myself, too?
    The Witness. Yes, and I do apologize, Mr. McLaughlin and Mr. 
Ballen.
    Mr. Bennett. Mr. McLaughlin was there, and Mr. Ballen was there.

                      EXAMINATION BY MR. BENNETT:

    Question. Essentially this at least gives greater focus, does it 
not, or focus that you desired in terms of certain areas where this 
committee was requesting that you give your immediate attention? Is 
that right?
    Answer. Well, I think we had had a dynamic process, frankly. I 
don't recall if this letter, in and of itself, represented more than 
our discussions back and forth.
    I had a very, I thought, very good working relationship with Mr. 
Rowley. So we had had that process ongoing. I don't know----
    Question. Exhibit 7 is your response basically noting your efforts 
in that regard? Not to belabor that point, but Exhibit 7----
    Answer. It may be, among others.
    Mr. McLaughlin. Just to interject here, I believe Exhibit 7 is in 
response to two subpoenas that this committee issued on April 24th, not 
the limiting letter of April 28th.
    The Witness. That's too what I was going to say. I don't think it 
is a direct response.
    As you know--and I can't tell the times--at different times, Mr. 
Bennett, we even had situations where we came to discuss matters with 
you and this committee, and Mr. Ruff was personally served with 
subpoenas at the end of the meetings, to our surprise.
    So I don't know if this was in response to one of the short 
subpoenas we had received.
    Question. You mean that predates my arrival?
    Answer. All of this predates your arrival. I just wanted to be 
clear that it is not clear to me at all what this letter responds to.
    Question. Let me perhaps assist a little bit just to move along.
    With respect to the subpoenas that are referred to in Exhibit 8, 
the first sentence, they were, in fact--in fact, subpoenas with respect 
to Mr. Huang and Mr. Riady, weren't they? Do you recall?
    Answer. I have no recollection. I don't even have a recollection of 
7 as related to 6. We received a number of subpoenas, and I just don't 
remember which subpoenas those responded to----
    Mr. McLaughlin. Do you----
    The Witness [continuing]. My letter of April 30th responds to.
    Mr. McLaughlin. I am sorry. I was just doing what I was complaining 
about before.
    Mr. Bennett. That's all right, Mr. McLaughlin. Go right ahead.
    Mr. McLaughlin. That happens.
    Do you plan to introduce the April 23rd, April 24th or April 29th 
subpoenas?
    Mr. Bennett. With respect to those as to Mr. Riady and Mr. Huang, 
we are trying to stay focused of the subpoena that included the 
specific reference to the videotapes and videotaping.
    Mr. McLaughlin. I just want to note then, this is my representation 
for the record--and this letter from Mr. Breuer speaks for itself and 
is dated April 30th. I will represent that that was the return date on 
the April 24th subpoenas and that this letter is in response to those.
    There is also a letter dated April 29th, which responds to the 
April 23rd subpoenas, also within the frame that--also on the return 
date listed on the subpoenas.
    There is another set of two subpoenas, I believe, that is April 
29th and the same series of targeted subpoenas, and, again, I believe 
that there was a responsive letter by the return date.
    I just think that, in fairness to Mr. Breuer, the record ought to 
reflect those documents if you don't plan to introduce them.
    Ms. Comstock. We should also note for the record that----
    Mr. McLaughlin. I am sorry. Who is the designated counsel?
    Ms. Comstock [continuing]. Those subpoenas were also a subset of 
the items 1--the first few items on the letter of April 18th, as well 
as the March 4th subpoena.

                      EXAMINATION BY MR. BENNETT:

    Question. Just to address the point, my next question is going to, 
I think, get to all of this, is that the second sentence of the letter, 
we have previously produced or made available for review all documents 
responsive to these subpoenas that we have thus far collected, I gather 
that that representation is, to the best of your ability, in terms of 
any subpoenas issued by this committee, be it the March 4th subpoena or 
any specific subpoena, is, as of April 30th, you were doing your best 
to tell Mr. Rowley that you had made available for review all documents 
responsive thus far?
    I mean, I am just trying to summarize or point where we are in the 
chronology of compliance.
    Answer. Let me tell you where I think we are. I think where we are 
is we are still, unfortunately, having a battle over protocol. We still 
feel that we would like some assurance on how our materials were going 
to be handled, and the committee has decided, the Majority has decided, 
that probably we should--probably what the White House wanted in a 
protocol was not going to occur.
    I was struggling with a way of dealing with how to deal with 
documents but also show we weren't at least under--with my involvement 
that we were trying to make things available to you.
    I think what I was suggesting here is, come look at everything; 
feel free to look at all of our documents, even if we are not going to 
give them to you yet because we haven't agreed on a protocol.
    I think, but I am not positive, that that is where we are in the 
chronology by April 30th.
    Question. With that status as of April 30th, come look at all of 
our documents, would that have included come look at any videotapes?
    Answer. If I had known on April 30th that there were videotapes, it 
would have. I didn't know. But let me tell you, if someone had said--
and your committee has been very good about telling us when you know of 
materials and us following up.
    If someone had called me specifically and said, Lanny, there are 
videotapes responsive to this guy Riady, we want to look at them, I am 
sure I would have done what I always do. I would have said, I will get 
back to you. I would have said to someone, what are they talking about? 
I would have sure talked to Chuck Ruff, if not others, and then I think 
probably--I would have probably said, if responsive, you can't have 
them yet because we are negotiating the protocol, but come look at 
them. I think so.
    Question. And with respect to that hypothetical about, come look at 
them----
    Answer. And that's a hypothetical; right.
    Question. I understand. In fact, it wasn't a hypothetical--and I 
will get back to this later either this morning or Monday morning, but 
it wasn't a hypothetical as of August 19th, when Don Bucklin from the 
Senate specifically addressed an inquiry about videotapes.
    Answer. Well, when Mr. Bucklin talks about the videotapes on August 
19th--well, he doesn't talk about August 19th. He writes a letter on 
August 19th, and we have spent many hours, and I think you probably 
have all deposed Mr. Ruff, so you know that--you know all what is going 
on there.
    But we looked into it. We informed Mr. Bucklin on September 9, I 
guess. I didn't, but Mr. Bucklin was informed September 9 of the 
videotapes.
    Mr. McLaughlin. I am going to interpose an objection that the 
conversations between Mr. Breuer and Bucklin and the other members of 
the Senate staff have been plummeted into great depth by the Senate in 
their deposition and in the public hearing. I don't think it does any 
good for us to go into that.

                      EXAMINATION BY MR. BENNETT:

    Question. With respect to the hypothetical--and we will address 
this later--the hypothetical you addressed on April 30th did, in fact, 
bear fruit, did it not?
    In August there was a specific inquiry by someone from the Senate 
directed, I believe, to Mr. Imbroscio with respect to the matter of 
whether or not there were videotapes in existence. Without getting into 
the specifics now, that did occur, in fact, in August?
    Answer. I think on August 19th is the first reference to 
videotapes. I think you are right, Mr. Bennett.
    Question. We will get back to that, but just picking up on the fact 
when you said--if someone had addressed it on April 30th, obviously----
    Answer. Well, no, if you had addressed it. I mean, part of the 
nature of this beast is that we get--for better or for worse, is we get 
so many inquiries all the time that we tend to associate requests with 
the individuals that make the request. So, Mr. Bennett, if you've never 
done it, I don't think you and I have ever chatted on the telephone, 
but if you called me and said, I want you to check into something, we 
would check into it, and we would get back to you, or I would try to 
get back to you personally. We have never had that actual exchange, but 
I would hope that's what we would do.
    Question. Let me show you now, if I can, Exhibit 8.
    [Breuer Deposition Exhibit No. 8 was marked for identification.]

                      EXAMINATION BY MR. BENNETT:

    Question. Exhibit 8 is, in fact, the Chuck Ruff directive of April 
28, 1997; is that correct?
    Answer. That is correct.
    Question. And, essentially, it directs--it's very similar to the 
Quinn memoranda of December and January--December '96, January of '97 
reflected by Exhibits 1 and 2; is that correct?
    Answer. I'm taking----
    Question. It is similar to the directives of Mr. Ruff's predecessor 
Jack Quinn reflected by Exhibits 1 and 2 of his deposition dated 
December 16, 1996, and January, 9, 1997; is that correct?
    Answer. I'm not sure it's similar. I mean, I think it speaks for 
itself. It was an attempt to taking a myriad of requests, and putting 
them in an understandable format, and providing that information to the 
Executive Office of the President. I mean, 1 and 2 have a short 
paragraph each and then a listing of names and then some descriptive 
paragraphs at the end. Exhibit 8 has far more instructions on the first 
page and then has the requests on pages 2 through 4.
    Question. With respect----
    Mr. Lynch. Can you----
    Mr. Bennett. I'm sorry.
    Mr. Lynch. I think we ought to note Exhibit 8, the word ``all'' in 
the third line in the text has a box drawn around it.
    Mr. Bennett. Yes.
    Mr. Lynch. And I think we'll all agree that the actual original 
directive did not have any markings around the word at all.
    Mr. Bennett. I believe that's correct.
    The Witness. Indeed, I can say it's pretty clear you got this from 
the Senate, because I think I'm the one who put the box by mistake 
around it during my last deposition.

                      EXAMINATION BY MR. BENNETT:

    Question. I can't represent source----
    Answer. I'm pretty sure.
    Question. Of--I know we've been seeking it from the White House. 
And I'm not criticizing Mr. Ruff, but whether Mr. Ruff finally sent it 
over or whether----
    Answer. I think he did.
    Question. Or whatever.
    Mr. Bennett. I concur, Mr. Lynch, that the box ``all'' as circled 
was clearly not in the original.

                      EXAMINATION BY MR. BENNETT:

    Question. Directing your attention to--directing your attention to 
Exhibit 8, Mr. Breuer, why was this the first such memorandum submitted 
with respect to the--for example, the subpoena of this committee was 
dated March the 4th, received March the 5th. Why would it take 7 weeks, 
almost 2 months, for there to be this kind of directive, which is not 
just directed to the House subpoena, but is directed to all subpoenas? 
Why would there be such a delay in seeking this?
    Answer. I don't think there was really such a delay if you were 
living through the process as we all were, in fairness, Mr. Bennett. 
There was first a dynamic process going on about discussion of 
protocols. In this committee--and I don't quite recall what was going 
on, Mr. Bennett----
    Question. I might help you in that regard. The protocols of this 
committee were passed in early April.
    Answer. Okay. I know that for one point we were discussing with the 
protocols. And we may, and I'm not saying we were, but we may well have 
been talking to you about the requests themselves, and you were 
discussing them with us. And when--you, I'm talking about the 
committee, not you personally, Mr. Bennett, since you weren't here.
    And then, frankly, there was an internal battle within the 
committee about various issues. And during that time, everything 
dropped. You didn't get back to us on a bunch of the issues. And we 
were waiting to hear back from you, whether about the protocol or about 
the scope of requests. That was all occurring.
    At the same time that that was occurring, we were, indeed, 
receiving requests from the Department of Justice and from the Senate 
and from other investigatory bodies. And instead of sending out, you 
know, repeated document requests, in the same way that now, you know, a 
lot of people are having repeated depositions, we tried to get whatever 
materials we could to end our negotiations with the various 
investigatory bodies and send out a comprehensive directive.
    And, indeed, if you look at the directive that we do identify, we 
tell people that certain documents they should give us from certain 
return dates, some as far back as January 1, '94, some from February of 
'95, others from January of '96, et cetera.
    And that was an attempt in taking all of the requests from all the 
different bodies and trying to put it in one place so that we could 
provide the materials to you. Indeed, it may turn out that this 
directive was requesting more materials than are actually in your 
subpoena. I haven't studied it, but it may well be the case.
    It was our attempt in one comprehensive way to make yet another 
directive, since Mr. Quinn had already had two himself; and, again, as 
I suggested, so that the White House doesn't continuously have 
directives. And, indeed, during this period there may have been 
directives sent out as a result of inquiries unrelated from Independent 
Counsels. I hope that answers your question.
    Question. Yes. In picking up on that, of whether this directive of 
April 28th was more extensive, if you'll look at Exhibit 4, Mr. Breuer, 
the subpoena itself, looking at page 6, item 29, there is a specific 
reference to, for example, just as an example----
    Answer. Right.
    Question. To Webster Hubbell----
    Answer. Sure.
    Question. In that subpoena. If you'll look at the directive of Mr. 
Ruff reflected by Exhibit 8----
    Answer. Right.
    Question. I believe you could look and see for yourself,, but I 
represent to you that there's no reference----
    Answer. Right.
    Question. To Webster Hubbell.
    Answer. Well, I'll try----
    Question. I wonder why that might be.
    Answer. Well, with Webb Hubbell, I'll try to give you the best 
example. I can't do it all the time. First, I initially told you that 
giving you all records relating to Webster Hubbell, I'm quite confident 
we had discussions with the committee, would be virtually impossible to 
do, given that Mr. Hubbell, for much of the periods of this 
administration, was, I believe, the Associate Attorney General. And 
there would be numerous documents, an enormous number of documents, 
having absolutely nothing to do with your inquiry and having everything 
to do with Mr. Hubbell's official responsibilities. And I think you 
acknowledged that.
    Question. I'm sorry. Who acknowledged that?
    Answer. The committee, not you, Mr. Bennett.
    But I think we had discussions with this committee, frankly. And I 
think if you were to talk to your colleagues, that people would 
acknowledge that, indeed, you were not interested in all documents 
relating to Webster Hubbell as we described it.
    Question. Let me follow up on that point.
    Answer. Can I finish?
    Question. Sure. Go ahead.
    Answer. Let me finish.
    So that's one point we would have talked about. But, secondly, 
there were other directives and other ways of getting materials. It is 
not--it should be of no surprise that Independent Counsel Starr, as one 
example, is interested in documenting dealing with Webb Hubbell.
    I believe in the case of Webb Hubbell, in my attempt not to every 
day barrage people with directives, we knew you wanted Hubbell 
documents, and we would have attempted to gather those, I suspect, I 
could double-check, but I suspect through our inquiry or directive that 
was more focused on the request from the Independent Counsel. And so 
even though it wasn't in this directive----
    Question. ``This'' meaning Exhibit 8?
    Answer. This Exhibit 8. Webb Hubbell-related documents would have 
been captured by a directive that, for the most part, would have 
focused more on what the Independent Counsel was seeking.
    Question. Did you draft this directive for Mr. Ruff, the April 28th 
directive?
    Answer. I think. Mr. Imbroscio and Mr. Nionakis did the first 
draft, and Mr. Ruff and I did the other. I believe, more likely than 
not, I would have not been the first drafter of the directive. The 
lawyers who are most responsible for the directive would do it. They 
would then circulate a draft. I'm fairly confident that that would have 
occurred.
    Question. You had some role to play in this directive?
    Answer. I had an editing role to play.
    Question. But you believe, even though it's your--so I understand 
your testimony, that with respect to Webster Hubbell, while the 
subpoena clearly called for records as to Webster Hubbell and the 
directive did not, you believe that was the result of conversations 
with staff on this committee as to how you were handling the Webster 
Hubbell?
    Answer. No, I didn't say that. It has nothing----
    Mr. McLaughlin. Just before you ask Mr. Breuer, can I suggest----
    Mr. Bennett. Sure.
    Mr. McLaughlin [continuing]. That you also take a look at the April 
18th limiting letter which also contains language limiting the request 
as to Mr. Hubbell?
    Mr. Bennett. That's fine. Sure.
    Mr. McLaughlin. You talk as though the subpoena and directive are 
directly linked, but, of course, there is the intervening limiting 
letter.

                      EXAMINATION BY MR. BENNETT:

    Question. Go right ahead, Mr. Breuer. You can address that.
    Answer. We have a dynamic question. I don't think I said that. I 
think what I said, Mr. Bennett, is that I would have pointed out, I 
suspect--I don't pretend to remember everything I said. I talk a lot, 
as you can tell.
    Question. You're doing fine. Go right ahead.
    Answer. I think I would have had said, look, Ms. Comstock, or Mr. 
Rowley, you can't really want every document dealing with Webb Hubbell. 
There are millions of documents associated with the Attorney General 
that have absolutely nothing to do with this investigation. That I 
would have said.
    I do not believe I would have said, oh, and by the way, this is how 
I'm going to go about putting it in a directive. That would not have 
been a part of my conversation. Instead we would have attempted to get 
those materials that were responsive. But I wouldn't have talked to 
you, the committee, about the means of doing that. I want to be clear 
about that. I'm not representing about what was or wasn't in the 
directive.
    Question. Let me pick up on this. If you'll look at Exhibit 6, Mr. 
McLaughlin's point about the narrowing letter, page 5, where Mr. Rowley 
addressed the matter of Webster Hubbell, clearly there was not a 
withdrawal of requests as to Hubbell. In fact, Mr. Rowley narrowed it 
and limited as follows: For the period January 1, '94 to present, all 
records relating to Hubbell, except documents in connection with his 
official duties at the Department of Justice.
    Do you see that?
    Answer. I do see that. Now----
    Question. My question is, again, in light of that narrowing, on 
April the 18th, why would there not be some reference to Webster 
Hubbell in the directive which followed 10 days later?
    Answer. For the same reason that I said before, because I think we 
had probably attempted to gather Webb Hubbell documents. And I'm not 
convinced, by the way, Mr. Bennett, that this is exactly the narrowing 
of the--I just don't remember--of the Hubbell request. I mean, this 
inquiry, as I recall, is about campaign finance and improprieties and 
illegalities. I don't recall if the Webb Hubbell documents that we 
provided to this committee would have been documents that are connected 
to improprieties and illegalities. I mean, this committee in its prior 
iterations has investigated Hubbell and Whitewater and all kinds of 
other issues. So I want to be clear about that.
    Question. Just for the record, the Committee on Government Reform 
and Oversight, you're saying, has investigated Webster Hubbell?
    Answer. I think under--I think Ms. Comstock has pointed out in the 
past that under Chairman Clinger, and I wasn't a part of it, that the 
White House had produced documents dealing with Mr. Hubbell and others.
    Question. Let me ask you a specific question on Hubbell in terms of 
the--his nonlisting, his not being on the list of Exhibit 8, the 
directive of April 28th. Do you specifically recall, yourself, a 
discussion as to Hubbell not being listed?
    Answer. No. I don't have a specific recollection, but I'm pretty 
sure he was captured in another body. I don't have a specific 
recollection. I thought I started by saying, I'm using your example of 
Hubbell. I have hundreds of conversations. And I give lots and lots of 
phone calls. So I want to be clear, I was giving you my sense of why 
that occurred.
    Question. That is your sense of it. But you specifically don't 
recall a discussion as to whether Hubbell was to be listed or not 
listed----
    Answer. I----
    Question. On Attachment A to Ruff's memorandum of April 28th?
    Answer. I suspect that I would have had a conversation at the time 
about how were we gathering the responsive documents for all of the 
inquiries. And either the person who handles Ken Starr's matters most 
would have said, through the directive I'm sending out, we will capture 
the Hubbell materials that will be responsive to the committee, or some 
analogous kind of a conversation would have occurred.
    Question. Let me give you another example in terms of a possible--
some variance between the subpoena and the directive of Mr. Ruff. Item 
34, you can look at item 34 on the subpoena of March 4th. And it's on 
page 6 of the Exhibit 4 there, as well----
    Answer. Page--I'm sorry.
    Question. Of the subpoena.
    Answer. Yeah, I found it.
    Question. It's page 6 of the subpoena, item 34. There is specific 
reference by the committee subpoena to Ron Brown documents. And then, 
if you look at page 6 of Mr. Rowley's letter of April 18th, there is an 
attempt to focus with greater specificity on the Ron Brown documents. 
Do you see that there, sir?
    Answer. I do.
    Question. And yet Mr. Ruff's directive of April the 28th does not 
make reference to Ron Brown documents.
    Answer. It may well be. And I don't--again, it may well be that 
Brown documents, that if there were any such documents that were 
responsive, that they may well have been gathered either by someone who 
is dealing with the Independent Counsel who, at the time, was looking 
for Ron Brown, and so someone would have had those materials and could 
have made the determination whether they were or weren't--we did or did 
not have responsive ones.
    In doing the directive, one of the exercises that would have been 
undertaken was to determine what documents had already been gathered 
for other reasons and to make a determination whether or not we had 
them or not. I also candidly don't recall in our discussions what we 
ultimately said about Ron Brown.
    Again, I want to be clear that this limiting letter was not the end 
of the process at all. I think we continued to have discussions, as far 
as I recall. And so I want to be clear about that. And I don't really--
I don't have a specific recollection of what we all decided or 
discussed about Ron Brown.
    Question. So you, yourself, other than understanding your good 
faith effort here now to summarize what you believe might have 
occurred, you yourself don't have any specific knowledge as to, apart 
from Webster Hubbell, why the matter of Ron Brown documents were not 
listed on Mr. Ruff's directive?
    Answer. Yeah, I don't. I don't know if we all--I don't remember if 
it's because we gathered it in a different way, whether we had narrowed 
it--that request in a different manner. And, indeed, there have been so 
many requests and so many directives that, you know, we could go all 
day and compare directives to requests, and I don't think I would be 
able to tell you sitting here today why we did something and with 
respect to a particular request one way or another.
    Question. Did you reread--do you recall whether you reread the 
subpoena in connection with Mr. Ruff's directive at the time that the 
Ruff directive went out?
    Answer. I don't recall. I suspect I did. I don't recall. I suspect 
that Mr. Ruff and I and others would have talked about the directive 
and tried to figure out the best way we could to capture the responsive 
materials.
    Question. Was there any particular reason why the subpoena itself 
was not attached to Ruff's directive?
    Answer. Yeah, a couple of reasons. One, the first directive I sent 
out made it in the newspapers. Prior to the time--the press received 
the copy of the directive prior to the time the people at the White 
House itself got it, so it becomes very disconcerting to people at the 
White House.
    Second of all, though various committees have requested that we 
produce to them everything that the grand jury gets, that the grand 
jury requests, we feel an obligation not to announce to the world what 
the grand juries are asking us for.
    And so to the degree we give a specific subpoena out, people will 
start figuring out what body is specifically asking for what. That's 
one reason.
    The second reason is, Mr. Bennett, is you all asked for documents 
in one way. The Senate asked for similar documents in a second way. The 
Department of Justice asked for similar documents in a third way. If we 
were to have given all of that to everyone, it would have been total 
mass confusion, and I suspect you would have gotten very little.
    That was the intent of the directive in trying to take all of these 
various requests and combine them. And I suggest that the White House 
people get too much paper anyway and get too many requests; that if we 
sent every one of the requests we get, that the response would not be a 
particularly good one.
    Question. Clearly, you and I would agree, would we not, that with 
respect to matters of grand jury secrecy, first of all, there are no 
matters of grand jury secrecy as to a subpoena of the House of 
Representatives or from the United States Senate?
    Answer. No, but I----
    Question. That's correct; is it not?
    Answer. That's exactly correct. But, of course, the problem is once 
I start producing all--once we produce documents to a body, and 
everybody knows what you have all asked for, then they can figure out 
by process of elimination what the Department of Justice has asked for.
    But my main reason, that's one reason. And, frankly, we were very 
sensitive. You not so much, but the Senate very specifically asked us 
to hand them over everything we gave to the Department of Justice, and 
I was clear that, though we might try to do that, I didn't want to 
identify specifically what those documents were. But the main reason is 
because you all have overlapping requests. It becomes very confusing if 
you just hand out the actual requests to everybody.
    Question. With respect to the Senate, there was no Senate subpoena 
at that time; there had just been a request?
    Answer. Right.
    Question. But on April the 28th, again, not going into the matters 
of grand jury service upon the White House, and I'm not asking that, 
but as to the Senate, there was no Senate subpoena. The only subpoena 
was from the House of Representatives?
    Answer. But there were requests. And we had said from the start, 
indeed, we hoped we could succeed with the Chairman--Mr. Ruff, I think 
in the meeting that you alluded to with the Chairman himself----
    Question. The meeting of February the 6th?
    Answer. I suspect. I don't remember the date. Mr. Ruff had said 
that he was very hopeful that you would not--I think he said, I may be 
wrong, but we were hopeful this committee would not issue subpoenas to 
the White House, but rather would give us requests, because we would 
deal with the requests in the same manner as we did with subpoenas. 
And, indeed, you all have given us subpoenas, and we dealt with them 
seriously. And we've received informal requests from you all, and we 
attempted to honor those as well.
    Question. Did you ever meet, for example, in terms of the 
distribution with the directive and compliance of this subpoena, did 
you ever meet with Alan Sullivan, head of the White House Military 
Office, for example?
    Answer. No, I did not.
    Question. Do you know Mr. Sullivan?
    Answer. I do not.
    Question. And, in fact, without going into all the details of the 
Senate depositions and your testimony before the Senate 2 days ago, you 
have heard, have you not, that those people who were seeking to gather 
materials or came up with the videotapes, who have said they are not 
aware of the subpoena and that they have not even seen the subpoena? 
You have heard that testimony, haven't you?
    Answer. Well, I'm not sure what you're referring to. What I'm 
familiar is with the fact that we sent out the directive, that it went 
to Mr. Sullivan or Colonel Sullivan, the head of WAMO, that he got it, 
and that he sent out our directive; and that, in fact, the people who 
are most responsible for finding it stated that, had they received the 
full directive, including page 2, that, indeed, they would have 
produced the videotapes. I'm familiar with that. I'm not familiar with 
what you said. I have not received access to the depositions, so I 
haven't read them, but I know they're public statements.
    Question. Did you at any time meet with Doug Sosnik or anyone in 
his office with respect to the matter of the subpoena?
    Answer. I've met with Doug Sosnik.
    Question. Who is Doug Sosnik?
    Answer. Doug Sosnik is one of the advisors, slash, counselors to 
the President.
    Question. He's a political director; is he not?
    Answer. I don't think he's currently the political director, though 
I may be wrong. I'm not sure he's currently in that position.
    Question. He has been?
    Answer. He has been the political director, that is correct.
    Question. Have you ever met with him with respect to subpoena 
compliance?
    Answer. I have met with Mr. Sosnik, and I have spoken to him in 
general about materials that would be in his possession or in control, 
and we've talked about that. Unfortunately, Mr. Bennett, from the very 
beginning, everyone thought that this is going to become highly 
politically charged and very cantankerous, so people from the start 
have their own lawyers at the White House. And one of the things that I 
deal with, frankly, Mr. Bennett, is often that I deal with people 
through their attorneys, because everybody suspects that they'll get to 
the point, as I am right now, where they're being deposed.
    So either--and so I've dealt with Mr. Sosnik, I've dealt with Mr. 
Sosnik's lawyer, and I am sure I spoke to Mr. Sosnik about what 
responsive materials he had or his office had. And, in fact, we 
received those materials, I believe, from Mr. Sosnik.
    Question. Let me pick up on this on that, if I can, with respect to 
dealing with Mr. Sosnik or his lawyer. Obviously, at some point in 
time, he didn't have a lawyer. He retained a lawyer at some point in 
time?
    Answer. Pretty early on when this inquiry began. I think--I don't 
know specifically.
    Question. When do you believe Mr. Sosnik retained a lawyer?
    Answer. Early on. I think the Senate early on stated that they 
wanted to depose him.
    Question. In terms of early on, I'm having a hard time 
identifying----
    Answer. Probably within a month. I may be wrong. I may be 
completely wrong, given how many--certainly within a month or so of my 
joining the White House.
    Question. So Mr. Sosnik had his own personal attorney, say, if you 
joined the White House staff at the White House Counsel's Office 
February the 16th, 1997, that was the date I think you gave; is that 
correct?
    Answer. Yeah. Whatever that----
    Question. I think the 16th or the 18th.
    Answer. Right. We can all figure out that Monday.
    Question. So to the best of your recollection, Mr. Sosnik had an 
attorney as of March 16th, or certainly by the end of March----
    Answer. Right.
    Question. To the best of your recollection?
    Answer. Right. I mean, I don't think we should have--you've given 
Mr. Sosnik as an example, and suddenly we're talking about Mr. Sosnik 
as opposed to someone else.
    Question. No, no. I want to follow up on what you said.
    Answer. I think so. I could be wrong, but I think so.
    Question. So with respect to the discussions on Mr. Sosnik, so I 
understand, I'm trying to pick up and follow to make sure I understand, 
you would have dealt with his lawyer before talking to Mr. Sosnik?
    Answer. No, not that. I just meant I would have talked to both. I 
would have talked to Mr. Sosnik directly about--or lawyers with me more 
often than I--about needing these kinds of materials. These are the 
materials that we need from your office, Mr. Sosnik, or from Political 
Affairs. Where are they?
    Question. Did you ever talk about political coffees with him?
    Answer. I'm sure--I don't know if the word ``political coffees.'' I 
think the discussion that I or others--I want to be clear here. I've 
talked to Doug Sosnik a number of times. I don't know if he and I sat 
down for a lengthy period of time where I would have said, Doug, we 
need various materials, and one of the lawyers is going to be 
contacting you directly or someone in your office directly. They're 
going to come visit your office. They're going to find out where 
responsive materials are, get them, assist you in that production.
    I think that some combination of that occurred.
    Question. Who were the people who might have assisted him? For 
example, was there a woman Karen Hancox, for example; would you have 
dealt with her perhaps?
    Answer. Ms. Hancox had already left.
    Question. All right.
    Answer. I think she had already left the White House.
    I would have dealt with Doug Sosnik. The lawyers working with me 
more likely than I would have dealt with Doug, and then the people 
under Doug who probably have a better sense of where the materials are. 
I think that's literally what would have happened.
    Question. Directing your attention to immediately after sort of, I 
guess, right in this time period, continuing on in the chronology, in 
May--let me, if I can, show you Exhibit 9.
    Answer. Should I put these aside?
    Question. You can just keep them in order if you want, and you can 
put them aside.
    Answer. All right. They're probably out of order now. I apologize. 
Which one are we up to now?
    Question. We're on Exhibit 9, which is a May 14, 97 letter to the 
chair from Mr. Ruff.
    [Breuer Deposition Exhibit No. 9 was marked for identification.]
    The Witness. Okay.

                      EXAMINATION BY MR. BENNETT:

    Question. Have you seen that letter before?
    Answer. I'm sure I have.
    Question. And, in fact, in May of 1997, there was an invitation of 
the committee for Mr. Ruff to appear and testify; is that correct?
    Answer. There was.
    Question. And, in fact, you were involved with Mr. Ruff, I gather, 
in his response with respect to the potentiality of contempt hearings. 
Do you recall that?
    Answer. Yeah. I and others, clearly, that is right.
    Question. So with respect to the potentiality of the contempt 
hearings as to the counsel and President, I gather that had some focus 
to it and caused people to try to get together and solve a problem; 
isn't that correct?
    Answer. I think it's fair to say I particularly took it very 
personally and wanted to get it resolved.
    Question. What role or involvement did you have in seeking to 
prepare responses as reflected by Chairman Burton's desire in the 
letter of May 14th, Exhibit 9?
    Answer. Are you talking about the privilege issue in particular?
    Question. Yes.
    Answer. I think what I tried to do is take whatever materials, 
given the speed with which we were--I was trying to get whatever 
materials had been withheld throughout the time of the collection, 
figure out what they were, figure out whether or not they should be put 
on a log. As you know, we didn't really want to have a log. The whole 
concept of executive privilege is a very dynamic process.
    I think both institutions have an obligation not to come to 
loggerheads if it's un-necessary, and I very much wanted to provide 
whatever means we could in providing you all with the access to 
documents that you needed, but also being able to preserve legitimate 
deliberations and protect those from disclosure if not necessary.
    We ultimately resolved that, I think, with this committee happily. 
It took 'til after all of this to occur. My involvement would have been 
to see how we could get to that point where we could give you what you 
all need, satisfy you that we weren't withholding documents pertinent 
to your investigation, but also enabling us to--what I think is a very 
institutional obligation--to preserve the deliberations of the White 
House. That's sort of a long-winded way of saying what my involvement 
would have been.
    Question. I don't think it was long-winded at all, and that was 
fine.
    Directing your attention, I'll give you this exhibit, and then 
we'll go through the time period. I'll show you what's now been marked 
Exhibit 10.
    [Breuer Deposition Exhibit No. 10 was marked for identification.]
    The Witness. Thanks. Okay.

                      EXAMINATION BY MR. BENNETT:

    Question. Directing your attention to Exhibit 10, that is, in fact, 
a letter of June 27th from Mr. Ruff to the Chairman with a copy to 
Congressman Henry A. Waxman, the Ranking Minority Member; is that 
correct?
    Answer. It is correct.
    Question. And it is essentially a letter in which Mr. Ruff uses the 
word ``certify'' to the best of his knowledge that the White House has 
produced all documents re-sponsive to the committee's subpoenas. Do you 
see that? The first paragraph of that letter.
    Answer. Yes, I do see it.
    Question. Now, can you describe what steps were taken from the 
letter of May 14 from the Chairman to Mr. Ruff until June 27 to put Mr. 
Ruff in a position where he basically was prepared at that time to 
certify that there had been full compliance?
    Answer. Yeah. I think he said, I think, certify to the best of his 
knowledge, with the caveat, which I think is in here----
    Question. I understand.
    Answer. But it's a very important caveat, particularly in a 
building that is as complicated and dynamic as the White House, that we 
have made--and I think he probably suggests, we will continue to make--
efforts, always continue to produce materials.
    The committee wanted Mr. Ruff to certify completion. I don't recall 
exactly what we did, but I suspect what we did is that we had lawyers 
go make sure that we checked the offices that were the most likely to 
have responsive materials; that we gathered certifications from offices 
that they had done their searches; that, in certain circumstances, we 
went back and made further inquiries.
    I mean, I've said to this committee, I think I've said to Ms. 
Comstock and to Mr. Rowley and Mr. Bossie at the time of the issues of 
contempt here, and I've certainly said it to the Senate, that, you 
know, I wake up a lot--I haven't said this, but I do wake up a lot 
wondering about how we can comply as well as possible, and that I think 
we will always continue to find more and more materials. But the best 
we can do is to try as best we can to identify those places where there 
are responsive materials and to push. And with six lawyers and three 
paralegals, we do that. And I think we engaged in that kind of a 
process. We engaged in that kind of process when Mr. Ruff wrote this 
letter.
    Question. And did you help draft this letter?
    Answer. I don't--well, help draft. I'm sure--I don't remember. I 
suspect that one of the--either one of the lawyers worked with me 
probably drafted it. Sometimes, as you know, letters go under my 
signature; sometimes they go under Mr. Ruff's signature. The process 
isn't always all that different between the two. When we write to the 
Chairman, pretty much we think it's appropriate for Mr. Ruff to do 
that. There's a lot of correspondence. So I don't really recall my 
exact role in this letter.
    Question. As of June 27th, were you yourself comfortable with the 
fact that Counsel to the President had certified to the Chairman of 
this congressional committee that, to the best of his knowledge, there 
had been compliance, complete compliance, at that point?
    Answer. Yeah.
    Question. Were you comfortable with that at that time?
    Answer. I never really wanted to certified, because I do think 
that, given the breadth of the request, given the volume of their 
requests, that we're always going to find more. I'm very open about 
that. I think anyone who is sitting in my seat and who worries about 
things that I do, we come out differently. But I understood sort of the 
necessity or the political necessity of doing that.
    Question. Doing what, of certifying?
    Answer. Of providing a certification because the Chairman wanted 
it. And there's no secret I would like to have good relationships with 
the committee. That's why we had Mr. Ruff certify to the best of his 
knowledge. We keep learning. The videotapes is a remarkable example, 
but an example of that. So I felt comfortable--to the degree we had to 
perform that exercise, I felt comfortable in it. I would have preferred 
not having to have done it at all, but to continue the dynamic process 
of providing materials as we discover them.
    Question. You would concur, would you not, that the matter of 
certification or use of the word ``certify,'' in light of the comments 
you just made, it's an important word, it's an important concept, and I 
understand your professional reservations about using it, but were 
there discussions with Mr. Ruff and others about the position to take 
in terms of certification?
    Answer. Again, I don't know at what point I should stop talking 
about the conversations.
    Question. I don't want to know the----
    Answer. Right.
    Question. I'm not asking the contents of the conversations, but----
    Answer. I think that I tried to be cautious. And I think I would 
have preferred not to have certified, simply because I think, frankly, 
as we sit here today, there very well be documents that someone will 
call me about at some point and tell me what they have that are 
responsive to this committee. And what I'm going to do is I'm going to 
call you or Ms. Comstock, and I'm going to say, I just found out about 
these, didn't know about them, and here they are.
    Question. Let me follow up with that, if I can. On the matter 
specifically of--not getting into the future, but in terms of this June 
27th certification----
    Answer. Right.
    Question. What--again, understanding your feelings as to the 
importance of that, and I respect that, what discussion--who were privy 
to discussions, again not the contents----
    Answer. Right.
    Question. But who would have discussed the matter of the Counsel to 
the President making that kind of certification? Would Mr. Lindsey have 
been part of a discussion with Mr. Ruff in that regard?
    Answer. He might have. I don't suspect so.
    Question. Would Ms. Mills have been part of it?
    Answer. She may well have been. She may well have been. Obviously, 
Ms. Mills' office is next to Mr. Ruff's office in the West Wing, and 
Mr. Lindsey's is. I'm in the Old Executive Office Building, so I'm 
there a lot. I'm sure many times they run into each other, and I'm 
nowhere near there.
    Question. Was that the location of their offices in June of this 
year?
    Answer. Oh, sure.
    Question. And it's still the location?
    Answer. Yes.
    Question. And do you recall in terms of a discussion about, apart 
from the political realities and necessities or whatever, about making 
a certification and bringing closure to this issue on June 27th, do you 
recall who, apart from Ms. Mills and yourself, Mr. Ruff would have 
discussed this with?
    Answer. I want to be clear, I'm not even--I'm not remembering a 
specific conversation with Mr. Ruff and Ms. Mills and I sat together.
    Question. I understand.
    Answer. Having said that, I'm confident Ms. Mills would have been 
aware of this and would have talked to Mr. Ruff.
    Question. Who also would have been aware?
    Answer. My other lawyers working with me. That's really--I would 
have reached out to them. Typically, what I would do is say, you've got 
to satisfy yourselves. I mean, we would talk about the offices. They 
would reach out and ask people like Ms. Mills or others about where 
other things may be. At times, Ms. Comstock and I at different points 
have talked, and she would say that I think--or the Minority--I think 
that there are materials somewhere, and we go about and try to figure 
it out.
    Question. And those other lawyers who would have been part of this 
discussion on certification you believe would have been those lawyers 
working in your group?
    Answer. I think so.
    Question. You would have tried to discuss it openly with all of 
them?
    Answer. I believe--again, what I would have done is, there's no 
secret here, they know that I want us to have the responsive materials. 
And so I would have said--I typically don't go to the different 
offices. Typically the lawyers working with me will check. And I 
suspect, you know, we have lawyers go back. We had lawyers--even when 
others have said they completed production, we've gone back and found 
other materials independently. We followed up independently of any 
request. And so, in that kind of a process, we would--I assume that's 
what----
    Question. Correct me if I'm wrong, but there was never the word 
``certify'' or such certification with respect to the Senate; isn't 
that correct?
    Answer. I think you're right. I think you are right.
    Question. And doesn't the matter of this certification in late June 
relate to the potentiality of contempt hearings where there was an 
effort to bring closure to the matter of the subpoena and say----
    Answer. Right.
    Question. Have you complied with the subpoena or not? Isn't that 
really why the certification is there?
    Answer. Yeah. I mean, it was involving requests--I think, you know, 
when Mr. Ruff and I came and met with the Chairman and others, we said, 
if you have concerns, let us know.
    Mr. McLaughlin. I'm sorry, we need to pause for a second.
    [Pause.]
    Mr. Bennett. Just for the record, the pause is not because Mr. 
McLaughlin is in distress, it's because a member of Mr. Kanjorski's 
staff has arrived in the room, and we're pausing as a courtesy to Mr. 
Kanjorski.
    Mr. McLaughlin. This is for executive session, so----
    Mr. Kanjorski. Let the record show there's a vote on the floor, and 
I have to leave, and a second vote to follow.
    The Witness. Thank you for coming.
    Mr. Bennett. Congressman, I gather you don't object to my 
continuing on?
    Mr. Kanjorski. Maybe let me make a note on the record. I've had the 
occasion to observe the deposition for approximately 2 hours, and I 
gather the contention is whether there was purposeful forgetting 
sources of information by the White House Counsel. And I've observed 
the demeanor of the committee chairman and the White House Counsel, and 
I see that he's fully cooperative in the spirit of examining the facts 
relating to it. And my own impressions are that, like many things in 
life, things appear to be obvious to many people and not obvious to 
those that are closely related to the information, so I wanted to have 
that on the record.
    The Witness. I think I was in the middle of an answer, but I'm not 
sure.
    Mr. Bennett. Can you read his answer back?
    [The reporter read back as requested.]
    The Witness. For the record, I hate when you read them back. I 
realize how many times I stop in midsentence.
    It was in connection with the threat of a contempt proceeding that 
we engaged in lengthy discussions. It was in that vein that we had said 
to the Majority and to the Minority that, to review your concerns, we 
wanted to know about them, that we would provide you the materials you 
wanted or continue to. In fact, we did provide to you those materials, 
and that, as we discovered materials, that we would continue to, you 
know--we would continue to look, and as we discovered materials, we 
would produce them. But it was in that vein that I suspect the request 
came to certify, and it was in that vein that Mr. Ruff would have 
written this letter.

                      EXAMINATION BY MR. BENNETT:

    Question. Then showing you Exhibit 11.
    [Breuer Deposition Exhibit No. 11 was marked for identification.]
    The Witness. Can we take a 30-second break?
    Mr. Bennett. Sure.
    [Recess.]

                      EXAMINATION BY MR. BENNETT:

    Question. Directing your attention to the Exhibit 11, which is the 
letter of September 11 from Mr. Ruff to Chairman Burton.
    Answer. Yes.
    Question. Suffice it to say that--well, maybe you can characterize 
it. I don't want to characterize it. What does the letter represent in 
terms of the continuing dialogue, which is now after the certification 
letter by some 2\1/2\ months?
    Answer. I haven't read this letter in some time, but----
    Question. If you want to take a minute to review it----
    Answer. But I think I know what it is.
    Mr. Lynch. Dick, would it be helpful to have the September 2 
letter?
    Mr. Bennett. It might, Mark, and I don't have it right in front of 
me, quite frankly. We don't need to go into the details of the matter, 
I'm just trying to get over the----

                      EXAMINATION BY MR. BENNETT:

    Question. I think it's clear for the record, and correct me if I'm 
wrong, Mr. Breuer, the September 11 letter is a response by Mr. Ruff to 
Chairman Burton with respect to the issue of continued production; is 
that basically correct?
    Answer. I think that is basically correct.
    Question. If you want to take a second to look at the Exhibit 11, 
September 11 letter then.
    Answer. I'll just be one more moment.
    Question. Okay. Take your time.
    Answer. Mr. Bennett, I haven't read the entire document, but let me 
give you my best of what this is. There are certain--the breadth of the 
requests that we have received from various bodies has required us to 
go back and continue to look for responsive materials. And, indeed, I 
had asked some lawyers, despite the press of time, to go back, even in 
offices where we have received materials, independently, frankly, and 
to go back, yet again, and double-check.
    So I had one lawyer, for instance, to go back and review briefing 
papers, because if you look through computer database or you look at 
one point of time, and you may not have the proper context, you may go 
back and look at briefing papers again. So at some point I or Mr. Ruff, 
I don't remember, but I tasked at least one lawyer when things calmed 
down a little to just go back again and go through all the briefing 
papers, because you hear about a new event or a new event comes up in 
the news, and you realize you didn't have that focus earlier on. That 
was one of the exercises that we had someone do independently, where we 
ourselves took over the search--do you want me to wait?
    Question. Go ahead.
    Answer. So that--so that--and I think that, for instance, where Mr. 
Ruff talks about the Presidential diarist, it was us going back yet 
again. And I think Mr. Ruff says in this letter, what I thought, that 
when he certified, he said that that was everything as best as we knew 
at that time, but we would keep going back.
    Electronic messages, as you know, the White House, for the most 
part, has the same e-mail system that we--that was adopted from the 
Bush administration, and during the Bush administration there was civil 
litigation, Armstrong litigation, to enable the administration to 
reconstruct its e-mails, which it had not done, and which it had not 
been producing in the Bush administration.
    We are producing e-mails, but it's a very laborious process, both 
very costly and very time-consuming. Indeed, we only were able, I 
think, to produce--and my dates may not be exactly right--e-mails as 
far back as June of '94 only became physically possible, as I 
understand it, to reconstruct, review, and produce in approximately 
July of this year. And that's a--it costs literally hundreds of 
thousands of dollars, as I understand it. It's very laborious, not that 
I pretend to have firsthand knowledge of how it's done. That's why we 
produced you the e-mails as we did.
    Phone logs for people at the White House who maintain them are kept 
for the most part separately in what's called the Office of Records 
Management. Typically when we get a search from you, given that there 
are millions of documents in the Office of Records Management, the 
Office, which is very good with career civil servants, will do index 
checks to see where are responsive materials. But with phone logs, you 
really can't do that because it's the most laborious process. You 
literally have to go through every page of someone's phone log, 
particularly if you have the cutouts where you might have four--I don't 
know if you know what I'm referring to, but you might have four phone 
logs on a piece of paper. And it literally requires a manual search 
where someone looks at every single piece of paper. And there are very 
many phone logs, and this committee and others were very interested in 
the phone logs of many people.
    I suspect, and the letter references it, that at some point this 
would have been one of the examples we gave with one of the really 
truly remarkable tasks that has to be undertaken to comply with the 
subpoenas, and that it was going to take a long time. But, nonetheless, 
we did it. And I think we--I don't remember exactly when--we're pretty 
up front about that task.
    The Vice President's Office tends, for the most part, to work a 
little bit independently. I think just historically Vice Presidents and 
Presidents have been working. So though we had been involved, the Vice 
President, too, had been continued to review materials.
    And I think that that--and the reference here, frankly, are 
materials that we had only recently received. As you know, Senator 
Thompson has had hearings, and in the due course--in the course of 
that, we would receive materials from outside entities, or we might 
receive them, but at the time we had initially produced documents we 
did not have.
    We produced those to you after we got them. Though an argument, I 
think, can be made they weren't in our custody and control, we didn't 
need to, I think the law suggested that--there is a lot of division in 
the law, and we did do that.
    The McLarty and Trie, I think, are fairly syncretic examples. I 
don't I don't think I need to go into them. I think it, you know, 
speaks for itself.
    So I think, in general, this was another attempt to go back and as 
best we could to provide to you materials. I want to be clear here 
that--that this is a sincere attempt, not a perfect attempt, but 
sincere attempt, to identify materials and get them to you. And in the 
course of time, you know, the more time we have, the more we can do. 
But e-mails and the phone logs are the two vaguest examples, plus the 
exercise that I had a couple of the lawyers undertake really the 
essence, I think, of what this letter was about.
    Question. And Mr. Ruff in his letter notes that he has revisited 
various offices to search for responsive documents. And he's even 
quoted as saying he's informed staff to let him know of, quote, any 
documents that had been overlooked. Do you know how he informed the 
staff of that? Did he send a memorandum out?
    Answer. No. I think--I don't think he did. I think that was the 
exercise of me having various lawyers, or Chuck and I asking the 
lawyers to go to the offices that we identified in particular as the 
ones that would have the most likely responsive materials, such as the 
briefing papers of the President, the schedules of the President, the 
real essence of what the production is, aside from the, you know--an 
office that may have one or two documents, and really, instead of just 
sending a memo, really going in and trying to see what else there might 
be. I think that that was the exercise he's referencing here.
    Question. Let me ask you this: In terms of this continuing exercise 
that you speak about, why would it be that other lawyers were not aware 
of the videotape request? Apart from the matter of WHCA and much of the 
discussion that was held with the Senate in public testimony 2 days 
ago, why were other lawyers not aware of the videotape request?
    Answer. I can't obviously speak to what's in other people's state 
of mind. I can tell you that I've never seen video cameras when I've 
been with the President, and I've been with him as frequently as 
others. But I think for one, it isn't that obvious. I mean, I think 
somebody in the committee said that, indeed, the commander of WAMO and 
the commander of WHCA themselves weren't aware of the videotaping of 
coffees. I simply wasn't aware of the videotaping. Surely the lawyers 
who worked with me, I suspect, were not aware. I don't think it's 
really all that obvious, and if you were in the White House, I think 
that would probably become evident.
    Question. Well, I guess----
    Answer. With respect----
    Question. I'm sorry. Go ahead.
    Answer. But I will say to you, it is clear, I want to be up front 
that early on in the process when we identified offices like the 
political office or the public liaison, I'm giving just examples, that 
I certainly didn't think the White House Military Office, which runs 
the Mess and all these other things, that that's an office that we 
ought to really focus in on.
    Question. Just with respect to you, in terms of your lack of 
awareness of the videotapes, you yourself don't travel with the 
President that frequently, I gather?
    Answer. I never travel with the President.
    Question. And you yourself do not attend many social events with 
the President?
    Answer. I have attended a social event with the President.
    Question. And you yourself never attended any political coffees? 
You weren't there in the election season of '96?
    Answer. That's correct. I was not.
    Question. And just so I understand it, from your perspective, if 
you had been so privileged, then the matter of videotapes might have 
been in your mind-set because you would have been there, but you have 
not been so privileged, so you wouldn't have any knowledge of that?
    Answer. Right. But let me be clear about one thing. As has been 
reported, much to my wife's chagrin, because she's a private person, I 
did take my family to a radio address recently. The only reason I point 
it out is that may or may not have been videotaped. I actually didn't 
notice it at the time, you know, whether it may have been or not. So 
it's not clear to me even if I had, I would have noticed it. But, 
you're right, I have not been privy to any of those kinds of events.
    Question. Again, following up on what you have just said, if you 
had been--for example, if you had been in a receiving line with the 
President, or meeting people or whatever, and that type of social event 
with cameras being present and videotaping, then you would have had a 
different mind-set with respect to these matters; but you were not so 
privy to that or involved, so you didn't have that on your radar 
screen, so to speak? Is that basically what you're saying?
    Answer. Yes and no. I mean, you're right, I wasn't a part of it. I 
can say, you know, hindsight is 20/20. You know, as you know, Mr. 
Bennett, the document requests that one gets, or subpoenas, define 
documents in very many ways. And I can't tell you that no matter how 
many of the events I would have been involved in, that I would have 
thought to myself one of the many definitions is videotapes, and I have 
been with the President at one of these kinds of events, and there were 
TV cameras. I don't think human nature is necessarily like that. 
Clearly, I didn't have the opportunity, so I clearly didn't, but I'm 
not even sure if I had the opportunity that I would have.
    Question. I guess my question to you is on the subpoena, March 4 
subpoena, Exhibit 4 that we discussed----
    Answer. Right.
    Question. That right on the very first page, very first paragraph 
that you previously testified to earlier this morning, there's not one, 
but two different references to audio and videotaping?
    Answer. Right.
    Question. And the point is that if you had been so privy to those 
events, clearly, when you read the subpoena for the first time, you 
would have been aware that there was videotaping; but you yourself were 
not at those events, so you would not have been aware?
    Answer. Right. I wasn't aware, so you're correct, I wasn't aware. I 
don't want to be saying I'm so special here. I don't know if I had been 
privy if I would have thought of it, because when you look at a 
subpoena, you look at the entire subpoena, and there are so many 
different references to documents. And, frankly, I don't know, it's 
quite likely that I wouldn't have thought of it.
    Question. You don't know.
    Answer. That's not my mind-set.
    Question. And in terms of that answer, it is perfectly possible 
that you might have thought of it because you have said, ah, I was 
there, and I recall videotapes.
    Answer. It's possible I might have; perhaps even more likely, in 
fact, that I would not have.
    Question. Directing your attention to--well, let me pick up one 
other thing. I'm sorry.
    Answer. Sure.
    Question. The matter of the Presidential diaries, we're talking 
about the matter of compliance with this committee's subpoena----
    Answer. Right.
    Question. And we're talking about the matter of Presidential 
diaries, the daily recordings or musings of the President, whatever, 
however you define it.
    Answer. They're clearly not that. I want to be clear. There's 
nothing about musings. Whether ``diary'' is a misnomer or not, I don't 
want to debate. But there is nothing--the person who is a diarist has 
no contact with the President as far as I know, works in the Old 
Executive Office Building. There are no musings or thinkings. It is 
simply what is on her computer, as I understand it. I have never had 
access myself, but as I understand, what is on her computer is a filing 
to--virtually an index that has enabled us to give the core source 
materials, I think approximately a thousand or so, that we've actually 
produced. That's my understanding of what she has.
    Question. When was the matter of the Presidential diarist 
discovered?
    Answer. Well----
    Mr. McLaughlin. Let me just interrupt and interject my usual 
objection. This was covered quite thoroughly in the public hearings 2 
days ago not only by Mr. Breuer, but also by Mr. Ruff and Mr. 
Imbroscio. Furthermore, I just want to note just in passing that the 
word ``diarist'' appears on page 2 of Exhibit 11, which is a letter 
sent September 11, and make it quite clear that diarist records have 
been turned over to this committee during the August production.
    Mr. Bennett. Your objection is noted, Mr. McLaughlin.

                      EXAMINATION BY MR. BENNETT:

    Question. Mr. Breuer, I'll make sure I finish in the next 7 minutes 
for your noon appointment. But I'll----
    Answer. Okay. And I can----
    Question. I can't represent that I've reviewed all of your tapes, 
and I apologize if this has been repetitive. I've made every effort not 
to duplicate, but on this particular issue I'm not privy to all the 
facts.
    Answer. And I can go a little after noon.
    Question. Thank you.
    Answer. I think the committee and others have, in fact, known about 
the existence of the diarist, because I think we've been producing 
materials to you from the start from the diarist. Those documents are 
the very documents that we've given you and I think--I think, I don't 
have them in front of me, would be reflected in production logs and 
others. So there is no mystery about that at all.
    There are many data, there are many sort of computer-generated 
finding tools in any institution. When we have attempted, or paralegals 
or others have attempted, to find responsive materials to you, one of 
the ways of doing that is to ask the diarist if they can look at the 
computer. By looking at the computer, you can find out that a document 
or material exists and then try to get it for you.
    So that's been an ongoing process. I think what happened is the 
Senate inquired about the actual what's on the computer, on the 
database. And I think that the Chairman thought, and I think 
mistakenly, that, in fact, this did contain the musings of the 
President. Indeed, it doesn't. There's--everything that's in the 
computer is simply duplicative--not even duplicative, but references, 
as I understand, the source materials that you all have. And that's, I 
think, what we're talking about here, to the best of my understanding.
    Question. Thank you. I appreciate that. That only took a few 
minutes, and I appreciate that. And for the record, I have not had an 
opportunity to review all of your transcript of your testimony.
    Answer. I hope you don't have to for your sake.
    Question. With respect to the events now in August--just to wind up 
a little bit this morning, and we'll pick up again, for the record, by 
agreement of counsel and Mr. Breuer at 3 o'clock this afternoon--in 
terms of, directing your attention to August of 1997 and the matter of 
the existence of videotapes, I'll show you Exhibit 12.
    [Breuer Deposition Exhibit No. 12 was marked for identification.]
    The Witness. Thank you.

                      EXAMINATION BY MR. BENNETT:

    Question. This is a matter, obviously, Mr. Breuer, that was 
addressed by the Senate in its deposition and in your public testimony. 
And we're not going to attempt to belabor many points, but it obviously 
relates to our subpoena of the House of Representatives as well, and 
that's why I need to inquire as to this. Directing your attention to 
Exhibit 12, that is a letter to you from Donald Bucklin, Majority 
counsel for the Committee on Governmental Affairs in the United States 
Senate; is that correct?
    Answer. It is correct.
    Question. And Mr. Bucklin addresses the meeting held on August 7th 
with respect to information that the Senate had received as to audio 
and visual support to the President. Do you see that there?
    Answer. He references, just so it's clear, and I have said it, but 
I would like to say it again, I had actually called that meeting, 
because we received a subpoena from the Senate, and it was a very 
overencompassing subpoena. And I, in fact, in that meeting stated that 
I wanted to figure out what we should--what they wanted first, 
prioritize the requests of the Senate.
    I also said at that meeting, coincidentally, I guess I had some 
ability at forecasting the future, that it would occur again that 
materials that were responsive to different committees would be 
discovered, and that, in the highly politically charged nature that 
we're in, whatever documents they were would become the cause celebre, 
and we would all find reasons, or those who want to find reasons would 
find reasons, why--if there's anything particularly special about the 
belatedly found material. But there was nothing we could do.
    And I also said, and I explained the circumstances surrounding the 
Ng Lap Seng discovery, and Mr. Bucklin indeed said, had I had the 
opportunity to explain that, that a lot of the public commotion, in his 
view, would have been unnecessary.
    Throughout that meeting Mr. Bucklin never raised any issue about 
taping or--he only did that after the meeting with Mr. Imbroscio. So I 
want to be clear, when it says at the meeting, it didn't occur at the 
meeting. It occurred after the meeting had ended.
    Question. Again, not trying to repeat your Senate testimony, but to 
make sure we're clear on this, the matter of the August 7th discussion 
is between Mr. Bucklin and Mr. Imbroscio, correct?
    Answer. Exactly. That's my point. Just the two of them.
    Question. And exactly when did Mr. Imbroscio make you aware of the 
discussion held with Mr. Bucklin where the issue of videotapes had come 
up?
    Answer. Well, I actually think, to the best I recall, Mr. Imbroscio 
and I had a discussion within a day or 2. But I think the focus of our 
discussion was that Mr. Bucklin thought there was secret taping in the 
Oval Office. That is the best of my memory. That is clearly the focus, 
as I took it, from what Mr. Imbroscio told me of what Mr. Bucklin was 
concerned about at that time. But it would have been within a day or 2 
of the August 7 discussion between Bucklin and Imbroscio.
    Question. So sometime, let's say, by August 9th, I believe is what 
you previously represented--if I'm misstating it, correct me--sometime 
between August 7th and August 10th, I think you said in your Senate 
deposition testimony, you became aware of an inquiry with respect to 
taping by Bucklin?
    Answer. Yes. And the focus became secret taping. And my sense it 
would have been audiotaping; but secret taping, more likely 
audiotaping, in the Oval Office.
    Question. And you'll note that Mr. Bucklin's letter talks about 
routine--not necessarily secret taping, but routine taping. I think you 
just indicated that you thought there might have been some inquiry as 
to secret taping. In fact, his letter--again, I know that you weren't 
privy to his conversation with Mr. Imbroscio, but his letter of August 
19th addresses what he would define as routine audio and visual 
support, not secret taping.
    Answer. Well, I don't take routine as not consistent with secret. I 
mean, I actually--it may well have been what Mr. Bucklin was concerned 
about is whether there was routine secret taping. That--the operative 
word to me wasn't ``routine'' versus ``extraordinary,'' but, rather, 
that there was some sort of secret taping system in the Oval Office. So 
I don't take this reference to be in any way different or inconsistent, 
from my understanding, with Mr.--from what Mr. Imbroscio told me.
    Mr. Bennett. Well, why don't we--it's noon. And we are--in light of 
the fact we're going to come back at 3:00, and I promised you could get 
to the children's Halloween party, why don't we stop promptly at noon 
so you get out of here, and start promptly at 3 o'clock.
    Mr. Lynch. Fine.
    Mr. McLaughlin. Let me make it clear, I have a 6 o'clock flight. If 
I leave here at 5----
    Mr. Bennett. We will be finished by 5 o'clock.
    Mr. Lynch. We have to leave here by 5 o'clock.
    Mr. McLaughlin. I would rather err a little light now or a little 
early before 3 to----
    Mr. Bennett. I think we will be fine.
    [Discussion off the record.]
    Mr. Bennett. And I just want the record to reflect, Mr. Breuer, I 
appreciate the depth of the discussion as far as you recall at our 
meeting on Friday morning, October the 10th, at which Mr. Ballen was 
present. Our concern is--I think you well understand, is not just the 
matter of these White House videotapes, but the whole matter of 
compliance with the subpoenas of this committee, past, present, future, 
and I appreciate your candor thus far.
    The Witness. And I want you to really know that I'm taking your 
questions very seriously.
    Mr. Bennett. I know.
    The Witness. And giving you as full answers as I can.
    Mr. Bennett. I know. Thank you.
    [Whereupon the deposition recessed to reconvene at 3 p.m. this same 
day.]
    Mr. Bennett. Okay. I think where we were----
    Mr. McLaughlin. Are we going back on the record now?
    Mr. Bennett. Yeah.
    Mr. McLaughlin. I just want to make one note. Mr. Kanjorski asked 
me to mention this.
    Mr. Bennett, you've already graciously apologized to Mr. Breuer for 
the TV camera out front. I want to do the same and just note that I 
hope that it isn't going to be a practice for the committee to be 
notifying the media when people are giving depositions.
    So far in my experience two TV cameras have shown up in this whole 
process, and it's both been times when a White House counsel person has 
shown. That's either remarkable sleuthing, or somebody somewhere along 
the line is giving the media a heads-up. On behalf of the Minority, I 
apologize for the camera.
    Mr. Bennett. In all candor, Mr. Breuer, I'm not sure where it came 
from. I can't tell you that it did not come from someone on the 
Majority staff. I just don't know. I know that there wasn't an 
announcement so a whole flock of media is there. But certainly there is 
one media crew out there in the hall. I think they're from--someone 
said they're from CBS is what I heard. I don't know whether they are or 
not.
    So I feel badly they're out there. I don't know whether our staff 
was responsible for that leak or not, but if it was clearly an 
announcement, we would have far more than just one TV camera out in the 
hall, I suspect.

                      EXAMINATION BY MR. BENNETT:

    Question. Okay. I think where we were is the matter of the events 
of August 19. And I think if you want to take Exhibit 12 and look at 
that exhibit in front of you.
    Answer. Okay.
    Question. For the record, Mr. James Wilson, the Majority counsel, 
is also here for a portion of your deposition--is here in the room.
    Directing your attention to August of 1997--if I am mistaken, 
correct me--I believe where we were, Mr. Breuer, when we took the break 
at lunchtime was that sometime during the period of August 7 to August 
10, 1997, Mr. Michael Imbroscio advised you of the conversation you had 
with Donald Bucklin, Majority Counsel for the United States Senate 
Committee on Governmental Affairs, with respect to an inquiry as to 
routine audio and visual support on some inquiry which is made. Is that 
basically correct? Is that the time period?
    Answer. That is the time period. And as I think I said at 
lunchtime, it's my recollection that, essentially, Mr. Imbroscio 
mentioned to me that Mr. Bucklin had inquired about secret taping--
whether audio, visual, I don't recall--but secret taping in the Oval 
Office.
    Question. And did you undertake to determine whether or not there 
had been any such secret taping?
    Answer. Well, I told Michael Imbroscio that he should look into 
that. And, indeed, he proceeded to do that.
    Question. Did you yourself make any inquiry, or did you speak with 
Mr. Ruff or Ms. Mills or anyone else regarding that matter?
    Answer. I did not. I--well, I did not. I did speak with Mr. Ruff at 
some point within a week or so. I don't really recall exactly.
    Question. Within a week of August 7th?
    Answer. Exactly. Mr. Imbroscio and Mr. Ruff and I had a meeting 
where we're talking, as I recall, about a variety of issues. This was 
one of them. That would have occurred prior to the time of this letter.
    Question. The time of the letter being August 19th?
    Answer. The 19th, that's right. And at that time as well, Michael 
researched the fact that Mr. Bucklin had raised the issue of secret 
taping at the White House, and we all agreed that Michael would look 
into it. I personally did not look into it.
    Question. When you say we all agreed----
    Answer. Mr. Ruff and I.
    Question. Sometime prior--in terms of a discussion, who--who were 
the attorneys who discussed this with Mr. Imbroscio in terms of the 
inquiry and the interpretation of whether or not there had been secret 
taping or not?
    Answer. To put it in context, when we say ``discussion,'' there 
wouldn't have been a lengthy discussion, given the volume of requests 
we receive. The first time that Michael came to my office and mentioned 
this, I told him I thought he should look into it. Then, again, within 
a week or so of the 7th, when Michael and I were with Mr. Ruff, among 
the issues discussed, Michael mentioned the fact that Mr. Bucklin had 
made this inquiry of him. And, once again, with Mr. Ruff there, the 
three of us agreed that Michael should look into this matter.
    Question. And with respect to inquiring as to the matter in terms 
of secret taping, you and Mr. Ruff and Mr. Imbroscio had all arrived in 
February of this year, correct?
    Answer. That's correct, yes.
    Question. And so----
    Answer. Well, Mr. Imbroscio, I think, started in March, to be 
literal.
    Question. Suffice it to say, all of you, the three of you mentioned 
thus far, were still, say, within your first 6 months of working at the 
White House; is that correct?
    Answer. Right. I think that's right.
    Question. Did you make any effort or were any efforts made--and 
again whether you were involved personally or have knowledge of or your 
impression with respect to discussions with people who were more 
experienced during the White House, had been there a longer period of 
time?
    Answer. I certainly have no firsthand knowledge of that at all.
    Question. When you say you have no firsthand knowledge, you weren't 
present?
    Answer. I wasn't present.
    Question. Is it your understanding that someone might have made 
that effort?
    Answer. I think what Mr. Imbroscio did actually was, on his own, 
tried to identify the appropriate agency or unit that was in charge of 
taping. And I learned that it was WHCA and proceeded from there. And 
again, that's secondhand. Obviously, Mr. Imbroscio has not testified to 
that in a public forum.
    I'm not aware of Mr. Imbroscio speaking to various individuals 
about this issue. I think he just attempted to identify the source and 
went from there.
    Question. I guess my question to you is that in light of personnel 
who were more experienced there, who had been there a longer period of 
time, it seems to me it would be logical, particularly in light of the 
proximity of offices, for someone to ask, is there such a thing as 
secret taping here at the White House?
    Wouldn't you think that would be a logical thing for you or Mr. 
Ruff to ask?
    Answer. Well, it would certainly be logical for us to do various 
things. Yeah, I think it is logical for us to do what I typically do 
when I get an inquiry of this sort, which is, I assign it to a lawyer, 
and frankly, I don't do anything more with it until the lawyer gets 
back to me. I tend to field a lot of inquiries.
    Perhaps, in all candor, if you called me directly and said, Lanny, 
I really need you to get back to me on X, Y and Z, I might do it. More 
often than not, in all candor, what I do is, I have one of the lawyers 
or even a paralegal check into something, depending on the issue. More 
often than not, then they get back to me.
    With respect to the Senate, in fact, this has been publicly 
testified, I had agreed to have Michael have an ongoing discussion 
dialogue with Mr. Bucklin. So it wouldn't, in that situation, at all be 
likely that, once Mr. Imbroscio was in charge, that I would start 
calling up.
    Question. I think you testified earlier as to meetings that you and 
Mr. Ruff and the entire team----
    Answer. Right.
    Question. Of Karen Popp, Shelly Peterson, Cheryl Mills, Buzz 
Waitzkin, the entire team of people who would have meetings on 
matters----
    Answer. Right.
    Question. Correct?
    Answer. Yes.
    Question. There were such meetings?
    Answer. There were such meetings on occasion.
    Question. And I'm asking in terms of this particular matter----
    Answer. Right.
    Question. You've indicated that you recall--specifically recall, 
just the three of you--Mr. Imbroscio, Mr. Ruff and you--meeting on this 
matter. And I'm inquiring as to why there would not, to your 
recollection, have been a more general discussion, so you understand 
the nature of my question.
    Answer. I understand. I do.
    Question. It seems like it's not a minor manner. If someone said 
there was clandestine taping in the offices of the House of 
Representatives, to me, I would be wanting to know right away what 
they're talking about.
    Answer. Well, putting it in context, I took that request to be a 
little off the wall. And I don't mean any disrespect; I just thought 
that there was virtually no likelihood at all that there was secret 
taping in the White House, in the Oval Office. And in the--and in the 
context of the requests we receive and given the fact that there were 
hearings about to begin again, which takes a fair bit of my time, there 
are various inquiries of the Vice President, the President, as has been 
publicly been disclosed, various actions of the Independent Counsel and 
various other requests, this particular request, in fact, did not seem 
of such moment.
    Indeed, I think that when Mr. Imbroscio and I were meeting with Mr. 
Ruff, this was a minor issue. We were, I suspect, discussing more one 
of the issues that Mr. Imbroscio deals with having absolutely nothing 
to do with it this at all, we were exploring that. And then we followed 
on with Mr. Imbroscio referencing this.
    In the meetings that we have, for the most part, it's not as if we 
run through every request. That's not what the meetings are. It's not 
as if we go through with Mr. Ruff every single request and go through 
them. I will, on occasion, have status reports where people will tell 
me, if you're in charge of this subpoena, you're in charge of this 
request, you'll let me know where you are. But it is not the practice 
that we go through all the correspondence en masse or at least with my 
lawyers and everybody starts talking about each of the requests. That's 
not the typical practice.
    Question. Again, my question to you is this, precisely on the 
matter of steps taken. You have indicated that as--that the request of 
Bucklin wasn't so much we think they're--given what you have said was 
your impression, and if I'm putting words in your mouth, correct me if 
I'm wrong----
    Answer. I will.
    Question. I thought you said--this morning you said it wasn't a 
matter that someone said, oh, by the way, I think there are videotapes 
of political functions at the White House. Someone was talking about 
what you interpret to be ``clandestine''--I think was your word, your 
phrase--taping.
    I guess my question to you is, in light of that interpretation that 
you gave it--and as you say this afternoon, you thought it was a little 
bit off the wall--I'm wondering why you would not have wanted to bring 
all the lawyers in to discuss a matter which could have certain 
implications, you know----
    Answer. I think.
    Question. Particularly lawyers who are more experienced as opposed 
to people who had only been there a few months?
    Answer. I think the answer is--in fact, I know the answer is that, 
in the scheme of the requests we got, this one just didn't rise to the 
top. Mr. Bucklin himself--at least my impression is, after speaking 
with Mr. Imbroscio, Mr. Bucklin himself thought the request was off the 
wall. Now, again, we're separating the oral discussion between Mr. 
Bucklin--I want to be precise here--and Mr. Imbroscio on the 7th with 
the subsequent letter on the 9th.
    Question. I understand.
    Answer. Just so we're clear.
    With respect to that, in all candor, I thought that the odds of it 
were 99.9 percent it didn't happen. Frankly, I think Chuck Ruff had the 
exact same impression from his facial expression when he heard for the 
first time this inquiry.
    As you can imagine, we sometimes get, and I don't mean it 
disrespectfully, other off-the-wall requests, and I don't really get 
everybody involved in a long discussion about off-the-wall requests; 
that's not my practice.
    Now, I'm not suggesting to you that a perfectly reasonable approach 
may not have been to talk to other people to find out about it. I don't 
think, in that particular case, that Mr. Imbroscio--well, I didn't do 
any more about it, because I have utter confidence in Michael, utter 
confidence. He's an exceptionally talented young lawyer. He's very good 
at getting to the bottom of things.
    He was handling a lot of matters; this was one of them. I left it 
to him. I knew he would get back to me, and proceeded to do what, in 
fact, without 20/20 hindsight, I think is a very reasonable thing, 
which is to try to figure out who's responsible and to talk to those 
people.
    Question. Let me ask you this, then. Let's move up then when you 
get the letter of August 19th, continuing with the chronology, I think 
you're talking about the time frame--I think you just mentioned the 
time frame up to getting the letter, the letter of August 19th from Mr. 
Bucklin, as reflected by Exhibit 12. There is the reminder or the 
comment by Mr. Bucklin as to the discussion with Mr. Imbroscio, and 
there, it's with more specificity. And that says, it is not a matter 
of, you know, interpreting clandestine taping; it's with more 
specificity, routine audio and visual support and reference to the 
White House Communications Agency having this information.
    Now, once you receive this letter, I gather you were able to give 
Mr. Imbroscio a little greater definition of how he might undertake to 
follow up on this?
    Answer. Well, actually, I would say that this letter is a broader 
request. I wouldn't call it more specific.
    Question. Fine.
    Answer. I actually would call it a broader request, at least, as I 
had understood the discussion between Mr. Bucklin and Mr. Imbroscio.
    I don't have a very--in fact, I don't have a specific recollection 
at all of a discussion with Mr. Imbroscio once I got this letter, 
though I'm confident that when we got this letter, that I spoke to Mr. 
Imbroscio. I think Mr. Imbroscio stated publicly that he was a little 
disappointed in getting this letter so quickly, because he had been 
handling a lot of the requests from Mr. Bucklin; and I suspect that I 
asked Michael if he was going to pursue it. And I suspect--I don't have 
a specific memory, but I'm doing my best as your instructions in the 
beginning were--I suspect that Michael informed me that he was pursuing 
this.
    I don't think, having said this, that I would have said to him now, 
I want you to do things differently. I'm quite confident that he would 
have, and indeed he did, contact WHCA.
    Question. Before I get to the content of the letter, during the 
time period up until the letter, which I think really zeros in on the 
matter of the White House Communications Agency, did you ever inquire 
of any individuals, or the President, in terms of whether or not there 
is any such clandestine taping?
    Answer. I did not. I never speak to the President about discovery 
requests at all.
    Question. Do you know if anybody else did?
    Answer. I'm quite confident nobody else did. But I only have 
firsthand knowledge, of course, of what I did. And certainly no one in 
my presence ever did, and I suspect no one did.
    Question. When you received the letter of August 19th, Exhibit 12, 
again in terms of Mr. Imbroscio's steps to be taken, the clear stating 
of the White House Communications Agency, as far as you were concerned, 
would prompt Mr. Imbroscio to contact the White House Communications 
Agency and to determine if that information was present?
    Answer. And, Mr. Bennett, I think he did. I think--the one thing 
that I tried to make clear during the hearing, I think what's very 
important, in fairness, is, we now all look at this document in 
isolation, and we act as if in the White House that's all people were 
dealing with. Indeed, at the time that we got this letter, we were 
really getting very many requests, particularly from the Senate.
    We had just received a subpoena from the Senate. The Chairman had 
very publicly stated----
    Question. There were no hearings in August, right?
    Answer. There were no hearings in August, but we had just 
received--we had just ended the hearings. The Chairman had just given 
us a large subpoena and had stated to the Nation that he expected that 
we produce the materials.
    Question. Chairman Thompson?
    Answer. Chairman Thompson, exactly. Chairman Thompson stated very 
clearly that we respond very quickly and get him the materials 
responsive to the subpoena. Indeed, the very purpose of the meeting on 
August 7th that I had called in my office with Mr. Bucklin and with the 
Minority Counsel in the Senate was to address the issues that were 
contained in the subpoena. That was clearly the focus of us. And 
indeed, I think, in fairness, that was the focus of the Senate; and 
indeed that was the focus of Mr. Bucklin while, in addition, Mr. 
Bucklin and others were making numerous other formal and informal 
requests.
    So when Mr. Imbroscio received this, he in fact, I think, did do 
the kinds of things that you're suggesting, that it would be unfair to 
say that this was the only thing on his or other people's plates. So 
that, in part, explains the period of time between the 7th and what--
until he gives the status report to Mr.----
    Question. Well, I'm getting to the period--I'm sorry.
    Answer. Bucklin on September 19th.
    I think you've probably deposed Mr. Imbroscio and know this 
probably better than I at this point, or someone on the committee.
    Question. My question is on Exhibit 12. This letter of August the 
19th from Mr. Bucklin is more than the matter of just actually giving 
some definition to the matter of taping by the White House 
Communications Agency or the possibility of it. Because there, the 
specific request is identical to the request made by Congressman Burton 
and his letter in mid-January, as reflected by Exhibit 3, which you 
have in front of you if you want to review it, in that there--it's 
indicated to you that Senator Thompson wants the same kind of 
certification of compliance that was provided to Congressman Burton.
    Answer. I'm--I apologize.
    Question. If you want to look at the list----
    Answer. I lost you.
    Question. Look at the last paragraph, the last paragraph of Exhibit 
12----
    Answer. Okay.
    Question. The letter to you----
    Answer. Right.
    Question. From Mr. Bucklin makes reference to your having ``assured 
Mike Madigan, Mark Tips, Majority Counsel for the Senate, and me,'' Mr. 
Bucklin, ``that a certification similar to that provided Congressman 
Burton would be provided,'' and similar to the certification as 
reflected in the exhibits here for this deposition.
    Do you see where it says that?
    Answer. I do see that.
    Question. And there's specific reference to ``certification similar 
to that provided''--there was actually a reference to Congressman 
Burton here. This was not just a letter to be lost among many letters. 
Here the Senate was now asking for the same type of certification that 
the House had required and, you know, Mr. Ruff had very carefully 
provided that type of certification in June of 1997, as reflected by 
one of the exhibits here. I'm not sure what the number is. It's one of 
the first 12 exhibits.
    For the record Mr. Bob Dold, Majority Counsel, has arrived. It's D-
O-L-D, not D-O-L-E.
    The Witness. I was going to say, he looks great.
    Mr. Bennett. Off the record for one second.
    [Discussion off the record.]
    Question. Back on the record.
    Answer. I don't think, Mr. Bennett, that if you were sitting in my 
chair, that that characterization is a fair one. I don't think the fact 
that there is a reference to a certification made this letter one of 
particular import. I think we treat the letters and the requests we 
get, or at least I do, quite seriously. But indeed, Mr. Bucklin and 
others had asked for a certification, and indeed, in the dynamic I 
experienced in the White House, there is a great amount, if not--I 
won't call it jealousy, but concern between the two bodies about who we 
were spending more time concentrating on; and the Senate was very 
concerned at different points about the amount of attention and 
timeliness with which we were providing materials at one point to you 
as opposed to them.
    So this idea of the certification was, in fact, something that had 
been bantered about. But the reference here did not suddenly--and I 
take it very seriously, certification, but it wasn't as if this was the 
only reference to it. And frankly, in the reading of the letter, until 
you have just now mentioned the certification, I never really focused 
on it; and indeed, I don't think Mr. Bucklin or Mr. Madigan or others 
have. Because we've talked about this letter, as you know, both 
publicly in the hearings, I believe, and in the depositions.
    So I want to be clear, you're absolutely right, it's a reference. 
This wasn't the only reference, as I used the term before. It was sort 
of a dynamic process. They would make requests of us; I would want to 
get back. It was hard to make a certification, particularly at that 
point, to them, given the flurry of activity, the number of subpoenas 
and requests we were getting.
    So despite the requests, I don't want you to think that that, in 
and of itself, made this letter more than the kind of letter that I was 
receiving on quite a frequent basis from the Senate and, in addition, a 
number of other investigatory bodies.
    Question. Now, in terms of this letter, Exhibit 12, the August 19th 
letter, and the reference to the White House Communications Agency, and 
with respect to any impression you had about an allegation of 
clandestine taping, up until that letter, it is my understanding that 
you never at any point in time ever spoke with any other lawyers at the 
White House concerning the potentiality of such a videotape.
    Answer. I have no recollection at all of speaking with anyone else 
about this request, other than Mr. Imbroscio and Mr. Ruff.
    I want to be clear here. I'm not definitively saying, it's 
impossible. I have absolutely no recollection, and indeed, I made no 
personal fact-finding mission. My involvement was literally tasking Mr. 
Imbroscio. And I recall, frankly, only speaking with him about it 
within a day or two after the 7th and again sometime about a week 
later. And then maybe at some point after that, he gave me some sort of 
a status report, but I don't have any specific recollection of that.
    Question. Do you recall specifically whether or not you would have 
spoken in any general context, in any way, with Bruce Lindsey at the 
White House concerning this?
    Answer. I'm positive I did not. I frankly don't speak very 
frequently with Mr. Lindsey; and I'm positive----
    Question. Where is Mr. Lindsey's office in relation to Mr. Ruff's?
    Answer. If, well, Mr.--Mr. Ruff's office is in one end of the 
second floor and Mr. Lindsey's is literally on the very opposite end of 
the floor--on that floor. When you get off the elevator, Mr. Ruff is 
all the way to the right, and Mr. Lindsey would be all the way to the 
left.
    Question. With respect to Cheryl Mills, her office is, in fact, 
right next to Mr. Ruff's?
    Answer. That's what I said to you earlier. That's right.
    Question. And with respect to Ms. Mills, do you have specific 
recollection that you did not speak to Ms. Mills at any point in time 
concerning the inquiry as to the taping?
    Answer. I do. As best as I can remember, I have a very specific 
recollection. If not, obviously this has become an issue, so I've 
thought about it pretty hard. I do, because frankly I wasn't making an 
inquiry of anybody about it.
    The only conversation I remember having specifically about the 
videotapes until their discovery was the discussion with Mr. Ruff, Mr. 
Imbroscio approximately a week later. In fact, I don't think I had a 
specific conversation with anybody about the videotapes until October 1 
in the evening when Mike Imbroscio came to my office.
    Question. Do you have any knowledge as to whether or not Mr. Ruff 
would ever have spoken with Ms. Mills concerning videotape?
    Answer. I--it is virtually inconceivable to me for the same reason. 
It's inconceivable to me that Mr. Ruff would have taken this request 
among the many, knowing that----
    Question. This meaning the August 19th letter?
    Answer. Exactly, the request encompassed by August 19th. It's 
inconceivable that Mr. Ruff, given all of his responsibilities, would 
have, on his own, endeavored to make a factual inquiry of this, given 
Michael Imbroscio was handling it. I can't imagine that would have 
occurred.
    Question. Do you know whether or not--do you have any personal 
knowledge as to whether or not Mr. Imbroscio ever spoke with Ms. Mills 
or anyone else at the White House?
    Answer. I believe Mr. Imbroscio told me he had not, but I don't 
have any personal knowledge apart from that. It's my understanding that 
he did not speak to her about that.
    Question. Now, just--as I understand it, then, after you received 
this letter of August the 19th, 1997, you had no further--and you spoke 
with Mr. Imbroscio about it and tasked him with looking into the 
matter.
    I gather, then you had no further conversations with anyone on this 
matter having to do with the videotapes or the White House 
Communications Agency until October 1?
    Answer. He--it is certainly conceivable, as I hope I said just a 
moment ago, and perhaps likely, though I don't recall, that at some 
point Mr. Imbroscio, who had come into my office fairly routinely, as 
with the other lawyers--given my style, I have a pretty open door--that 
among the issues he might have said something like, I talked to the 
WHCA people, or he might have given me a 2-minute status report.
    I don't specifically remember that, but I don't want to say that it 
did not occur, that between the week after August 19th and October 1 
that there was no reference. Indeed, he might have said--he might have, 
I don't recall--said, you know, I'm meeting with Bucklin about a 
variety of issues. One of the issues we are going to talk about is WHCA 
and what I've learned as of this day.
    Question. Is it correct to say then that with the exception of 
possibly talking with Michael Imbroscio between August 19, 1997, and 
October 1, 1997, that you would have definitely not had any 
conversations with any other individuals concerning WHCA or videotapes?
    Answer. I think that's correct. I would be shocked if I had. I 
really don't recall any. I think that that's a fair characterization, 
what you've said.
    Question. And with respect to the possibility of having any 
conversations with Mr. Imbroscio, you don't remember the specifics of 
any such conversations, but you believe they may or may not have 
occurred during that time period; you just don't recall?
    Answer. That's exactly right. And to the degree they did occur, 
there would have been a very brief status report.
    Question. In terms of the status report, it really wouldn't be that 
complicated, would it, as to WHCA and that if Mr. Imbroscio talked with 
WHCA----
    Answer. Right.
    Question. Either they did or didn't talk about videotapes?
    Answer. Right. And it wouldn't have been, oh, let me tell you about 
WHCA; it would be, I'm this far along on the phone logs, this is the 
story on E-mails, this is why we can't get E-mails out, there are four 
new press inquiries, there's this issue with--you know, Roger Tamraz or 
someone. I mean, that would be the most likely context in which this 
discussion, if it occurred, would have occurred.
    Question. Directing your attention then to October 1, 1997, it is 
your recollection then that on October 1--Wednesday, October 1st, 1997, 
was the first time that you were contacted by Mr. Imbroscio in terms of 
the existence of videotapes?
    Answer. That's right.
    Question. And in fact, I believe that October the 2nd was Rosh 
Hashanah; is that correct?
    Answer. The--yeah, the evening of October 1st is when it began----
    Question. Is when it began?
    Answer. And it goes to the evening of----
    Question. To sundown the following day.
    Answer. Right. Which is why I was rushing out.
    Question. So, again I have made every effort not to repeat the 
Senate testimony----
    Answer. That's fine.
    Question. But so I'm clear on this, and I think you have to 
acknowledge I have a done a very good job of trying to avoid that, is 
that correct, I'm trying not to be redundant on this.
    Answer. You've been very fine.
    Question. With respect to sundown, October 1st, and then sundown 
October 2nd, how soon before sundown when you left the White House were 
you made aware by Imbroscio--I'm not sure if I'm clear on this, I'm 
having trouble getting a handle on this.
    Answer. That's fine.
    Question. The time period, as you're leaving the White House when 
you're advised, by the way, there are videotapes----
    Answer. I'm smiling just because obviously this had come up.
    Question. It's a rather hectic night, I would think.
    Answer. It was. It probably is not a surprise, I don't have a very 
good record of getting out of the White House at a reasonable hour. And 
in my mind was that, given that and given that my wife has made that 
clear to me, I was really trying to get out for the holiday because we 
were going out with our children.
    So I was, I think, literally packing my bag and trying to get out--
and it may literally have been the earliest I've left the White House 
on a working day--when, as I recall, Michael Imbroscio walked in. And 
to the best I remember, he said something to the effect to me like, 
there may be videotapes of some coffees. He does not yet know.
    And our conversation, in all candor, was very short. I said 
something to him to the effect--I clearly don't have the exact words--
you know, you've got to find everything about this right away. Or 
you've got to find out everything about it, or figure it out, or 
something to that effect.
    And, you know, it may well have been that other people before had 
talked to me about other things. But as I remember, that's about the 
last thing I remember doing that day. And I left.
    Question. And did you talk with Mr. Ruff prior to leaving? As I 
understand it, you did not?
    Answer. No. I talked to Mr. Ruff----
    Question. You talked to Imbroscio and left?
    Answer. I didn't talk to Ruff about this. I talked to Mr. Ruff 
repeatedly every day, as I'm sure you can imagine. Literally, I think, 
after talking to Imbroscio, I left and got into my car.
    Question. Just so I'm clear again in terms of what I understand the 
record to be thus far in your Senate deposition testimony and your 
testimony Wednesday this week before the Senate, as you understand it, 
your next appearance was--in the office, was Friday morning, October 
the 3rd?
    Answer. That's exactly right. That's the first time I'm back in the 
office.
    Question. And during your religious observance of Rosh Hashanah, 
you were not in telephonic communication with the White House or 
speaking about this issue with----
    Answer. I was on one occasion.
    Question. And with whom did you speak?
    Answer. I spoke to Mr. Imbroscio from my car phone, coming back 
from Baltimore actually at approximately--this is rough--approximately 
a quarter of 5:00 or 5:00. And Mr. Imbroscio told me then that there 
were, in fact, videotapes, which is the first time he was now telling 
me that there were.
    Question. This is Thursday, October 2nd?
    Answer. This is Thursday, October 2nd. And he told me he had spoken 
to Mr. Ruff about it already and that he had already contacted the 
Senate.
    So the Senate already knew about it. And we had a very brief 
conversation. I think I said, well, you know, we can talk about it 
tomorrow or something. And I probably, after that, talked to my 
assistant about other unrelated issues.
    Question. Your assistant being----
    Answer. Brian Smith. But he was not a part of that conversation. He 
literally would like put me through to someone, and then I might call 
them back or something. And that was the extent of my conversation on 
this issue with Mr. Imbroscio.
    Question. There has been testimony received by counsel for this 
committee that officials from the White House Communications Agency 
said that Mr. Imbroscio was upset upon this discovery, I think he said, 
oh, and used an expletive with sort of an ``s''----
    Answer. Right.
    Question. When he heard about this matter.
    Answer. Right.
    Question. Did he express his distress either Wednesday, October 
1st, or Thursday, October 2nd, to you?
    Answer. Yeah. I mean, I don't remember--I mean, he didn't say, oh, 
expletive to me. But I think it's fair to say that he was upset. 
Frankly, I was upset. You know, I was not happy--and I've been public 
about that--that, you know, we suddenly found that something we thought 
did not exist that existed. It unfortunately confirmed what I had said 
before, which is that, at a place like the White House, given its 
breadth and complexity, that it would be inevitable--discoveries of 
materials. But we were not happy about it.
    Question. I understand.
    Answer. We were not happy that we were discovering it in October, 
as opposed to in April, which frankly would have been a lot better. 
Because unfortunately, once again, from my vantage point, the process 
becomes the subject, which I think is unfortunate, most of the 
substance of the issues that we all at least supposedly running to 
address.
    Question. And again, I think consistent with what you said this 
morning, you had never found yourself in a similar such position--in 
private practice at Covington & Burling, for example.
    Answer. Well, I had found myself in positions--I want to be clear--
in private practice where we would think that there were not responsive 
materials and that we would learn subsequently there were. I was never 
in a position that, as a result of that, it would be in the front page 
of every paper in the country and wild assertions would be made, as I'm 
sure you know, 99.9 percent of which were completely untrue. That's the 
problem, that that--despite best efforts, that everything becomes a 
remarkable incident. And regardless of the substance of the material, 
once there's late disclosure, by definition of the political exercise, 
those belatedly discovered materials become very significant to 
everybody.
    That had never occurred to me in private practice.
    Question. Arriving at the White House Counsel's Office Friday 
morning, October the 3rd, how quickly did you meet with Chuck Ruff in 
light of this?
    Answer. Well, to be honest with you--and maybe this gives you a 
little bit of flavor with my job--I ended up dealing with another 
problem totally unrelated to this. And so--in fact, I had to deal with 
an issue with respect to the Department of Justice having nothing--
having nothing to do even with the task force. And that was actually 
the first thing that I dealt with in the morning. It took some time.
    Question. And what time did you complete that task?
    Answer. I never--no tasks get completed. I don't mean that to be 
flip, but tasks typically take a long time.
    Question. What time did your attention to that matter terminate for 
that morning?
    Answer. To answer your question, I probably got to Mr. Ruff's 
office somewhere around the 9 o'clock hour. In fact, I think, on that 
day, we had a meeting of 9 o'clock in Mr. Ruff's office with the 
investigatory team.
    Question. And who would have been at that meeting? As I understand, 
the entire team was there, Cheryl Mills, Karen Popp, everyone was in 
Mr. Ruff's office; is that right?
    Answer. Right, I--I don't want to say exactly who was there because 
I don't remember. I think you're right, Cheryl Mills was there.
    Question. Who else was there?
    Answer. I think Ms. Popp was there. Mr. Imbroscio was obviously 
there. I think Ms. Peterson was there. Lanny Davis may have been there.
    Question. Mr. Davis had not been part of the investigative team, 
had he?
    Answer. No, but he is the press person. So for meetings of that 
nature, he will often come. He won't be a part of a meeting that I will 
have with respect to with--when I talk to my lawyers typically. But 
he'll come to meetings of that nature where we discuss things, sort of 
in general what's going on. And he, in fact, might tell us, you know, 
these are the issues that the press is interested in; here are the 
inquiries.
    I think he was there.
    Question. Was Don Goldberg there?
    Answer. He may have been. He may well have been. I'm trying to 
visualize; I'm not positive, but he may have been. It would not 
surprise me at all if he were there.
    Question. And reasonably it was a fairly significant meeting that 
morning, wasn't it? It was a situation you had to deal with 
immediately, and you had compliance issues to come up with?
    Answer. Yeah. The answer is, absolutely, it was important. But in 
fairness, off--it was very important. But in fairness, a lot of times, 
we're dealing with issues that are very important and always become 
cause celebre from a public point of view. But either it's a logical 
matter or issues--most of the days that I'm at the White House, 
something I'm handling somebody thinks is something that they truly, 
really care about. And so I just want to put that in context.
    Having said that, you're right, I think it's true to say it was 
important.
    Question. Did anyone indicate that they were aware of these 
videotapes, that the existence of them was not a surprise?
    Answer. No, no one said that.
    Question. Did everyone express surprise at the videotapes?
    Answer. There wasn't a lot, as I remember it, and maybe--maybe I'm 
not remembering it correctly exactly. I don't remember a lot of 
discussion about--I remember we were seeing the--Michael showed a 
couple of snippets of the videotapes. And my orientation in those 
situations, in all candor, is to try to figure out--not to second-guess 
what happened in the past, but I feel like I'm now confronted with a 
situation and I'm going to have to deal with it.
    And so I was focused on getting Michael--as was Chuck, I think--
Michael and I--Chuck and I were focussing on getting Michael and others 
to figure out, what's our universe? How long is it going to take? These 
things--I'm not that technical. These things always take a lot longer 
than I think they're going to take.
    So that was, to some degree, my orientation--in addition, in all 
candor, to other issues, such as the one I was handling earlier.
    Question. So no one at the meeting expressed knowledge of the fact 
that there were such videotapes, and essentially everyone expressed 
surprise that there were such videotapes, to your knowledge?
    Answer. Yeah, I want to be clear here that I don't purport to know 
what everybody said.
    Question. I see.
    Answer. I realize it's important. As I remember it, I do not 
personally remember anyone saying, oh, I knew there were videotapes. I 
suspect, if anyone said something like that, given the level of 
attention that has come on this issue, I would remember that. I have no 
memory of that. But I also don't have a memory of everyone talking.
    I think that it was pretty clear that I was upset about it, Chuck 
Ruff was upset about it. I think that sort of sets the tone. The tone 
is, let's resolve--let's correct this problem. And at least frankly 
among the things I was dealing with, that was my orientation.
    Question. Once the tapes were found, what process was undertaken to 
review the tapes? For example, did you yourself have actual access to 
the tapes?
    Answer. I never had--well, I--my access, let me describe what I 
did.
    There is a room in WHCA that--the tapes remained under the control 
of the WHCA people. I don't know how they did it, but they were able to 
do something to the tapes so there could be no erasure or no changing 
of the tapes. I can't tell you technically how that happens, but that's 
my understanding. Those tapes were then put in machines within the WHCA 
office. Lawyers then looked at those tapes in the WHCA office.
    Question. Lawyers from the White House?
    Answer. Yeah. Our lawyers, because we had to immediately figure 
out--we are getting requests from everybody--which of the tapes are 
responsive, which of the tapes are not responsive? And that's exactly 
the exercise that we undertook.
    Question. Which lawyers undertook to do that?
    Answer. Dimitri Nionakis did it. Sally Paxton helped, because I was 
pulling in--even though, typically, as I said earlier, she would not 
work on this, some people were away for the weekend, and I wanted 
people really working as quickly as I could. So she agreed to look at 
them. Karl Racine looked at them. Michael Imbroscio looked at them.
    Let me make sure I'm not forgetting anybody.
    Question. Is it safe to say that they were more voluminous than you 
expected in terms of having to go through all of these tapes and 
determine the extent to which they would be responsive to a subpoena?
    Answer. Well, I think it's fair to say that the coffee--the first 
process was simply to produce the coffee videotapes. It was inevitable 
that, once this became a cause celebre that everybody was going to ask 
for all videotapes of DNC events.
    As you may know, WHCA has been videotaping forever, and it's my 
understanding, anecdotal at best, that under no prior administration 
has any administration ever produced videotapes. So under the Reagan 
administration, under the Bush administration, it never happened 
before.
    Having said that, it was clear to me that once this happened, 
everybody was going to suddenly decide that every videotape was going 
to matter. We were getting requests. We got a request from this 
committee. We got a request from the Senate committee and from others 
to see, you know, a listing of everything ever videotaped that included 
the President.
    So it's a little hard to say more voluminous. I expected that the 
requests were going to expand and continue to expand.
    But the coffees, Michael was able to identify pretty quickly. And 
given the process, we were able actually to get them--I think it was 
out by--before Monday.
    Question. Who called the Senate? Did you make the call?
    Answer. Well, Mr.--Mike Imbroscio contacted the Senate on Thursday, 
telling them of the existence of the videotapes, even before I found 
out about them. That was the first inquiry. So that's what--on Friday, 
because I knew Don Bucklin, this had been something he was dealing 
with, I called up actually Michael Madigan, who is the chief counsel on 
the Senate, sort of your counterpart on the Senate side, to say, look, 
Michael, I--these things just came up, and I would like to sit down 
with you and talk to you about it.
    Question. I guess my question is, when you learned of the tapes on 
October 1st and then discussed them on October 2nd----
    Answer. I didn't learn about the tapes on October 1st. It's very 
important. I only--when I left, Michael Imbroscio told me there may be 
videotapes of coffees. He did not----
    Question. October 2nd, then.
    Answer. October 2nd, I talked to him from my car phone, that's 
exactly right, at about a quarter of 5:00 or so.
    Question. And by October 2nd, you clearly knew there were tapes?
    Answer. At about a quarter of 5:00 or so, from the car phone, I 
knew there were tapes.
    Question. And why did you not then contact both the Senate and the 
House?
    Answer. I didn't contact anyone, right. The Senate knew already. 
You did not know; that's correct.
    Question. When you say me, you mean the Committee on Government 
Reform and Oversight?
    Answer. Right. And I speak----
    Question. I understand.
    Answer. I never take--I never do anything personally.
    Question. But clearly this committee wasn't notified on October 
2nd.
    Answer. That's right.
    Question. And the Senate was notified exactly when again? I'm 
sorry.
    Answer. It was before--I think you've taken Mr. Imbroscio's 
deposition.
    Question. I apologize if I can't recall the exact time.
    Answer. No, no, that's fine. It's important. I was away with my 
family. So by the time I'm contacted on October 2nd, Mr. Bucklin has 
already been called. So I can tell you that--if I'm right in my rough 
estimate, that it was approximately a quarter of 5:00 that I'm driving 
back with my family, sometime before a quarter of 5:00 that day, is 
when the Senate was first contacted.
    Question. And the Department of Justice was not contacted?
    Answer. That's exactly right.
    Question. And this committee was not contacted?
    Answer. As far as I know, that's exactly right.
    Question. And then there is the meeting on Friday, October the 3rd, 
in Mr. Ruff's office?
    Answer. That's right.
    Question. And, again, the--and I'll get back to this in a minute, 
but the Senate is not contacted until Saturday, October the 4th?
    Answer. Now, the Senate was contacted----
    Question. I'm sorry. Excuse me. The Department of Justice was not 
contacted until Saturday, October the 4th.
    Answer. That's right. I only succeeded in contacting the Justice 
Department on Saturday. That's exactly right.
    Question. When you say ``succeeded,'' what efforts did you make on 
Friday, October the 3rd, to call the Justice Department?
    Answer. I called the Justice Department a couple of times. And let 
me----
    Question. Who were you calling?
    Answer. Let me explain. I called Bill Corcoran. If I had, in 
hindsight, thought that my contact with the Justice Department was 
going to be such a remarkably important event, or in fact--not that I 
should speak for him--I think if Mr. Ruff had thought of it, we could 
have all done something different.
    But at the time that I was dealing with this issue among other 
issues, what I was focused on was the fact that we had a very specific 
inquiry from the Senate about it. That's not to say that it wasn't 
responsive to one of your many requests or that it was not responsive 
to one of the Justice Department's many requests. But it was the Senate 
that was really pushing, and it was the eve--they were about to have a 
hearing.
    There was nothing that seemed particularly timely to me, maybe it 
was erroneous, there was nothing that seemed particularly timely to me 
about informing the Justice Department or you, and we probably should. 
I think others at the White House acted accordingly, by contacting 
people immediately.
    The Hyde letter, which has been the issue that has been raised in 
the press, frankly never was an issue that I considered. And what's 
more, it never would have occurred to me that if there was a discovery 
of these videotapes and they were relevant to an inquiry, that the 
Attorney General or anyone else would act any differently after the 
Hyde letter.
    I mean, in retrospect, if I had thought of it, which I think, as a 
lawyer involving----
    Question. When you say ``the Hyde letter,'' the letter from the 
Attorney General to Congressman Hyde?
    Answer. Right. And I think, in all candor, Mr. Bennett, as a lawyer 
opposed to this political exercise, I think we would all agree that 
there's nothing remarkably significant about the date of the letter as 
a legal matter. The investigation continues.
    So, A, I never thought about it; but B, even if I had thought about 
it, which I did not, I don't think the timing of it would have 
mattered. It was only as a political exercise that I think it mattered.
    Having said all of that, I wish I had contacted and I wish I tried 
harder with the Justice Department. I called Mr. Corcoran.
    Question. What is Mr. Corcoran's position?
    Answer. Well he--I don't know his exact title. He was, until 
recently, he may still be, but until recently, he was the attorney who 
probably I dealt with most frequently, day-to-day. I would deal with 
either him or Ms. Ingersoll. But he was the attorney I dealt with most 
recently on just pure document-related issues. He was the person who 
would call up and say we're sending over a subpoena or sending over a 
document request. So he was the person who, more often than not, was a 
person I called. And he was a person I reached out here.
    But I want to be clear here, and then I'll stop.
    I reached out to him in a fairly routine manner. I called. He 
returned my call at some point. I called him back. And one of those 
calls, I said, there's been a development. He called me back, and we 
didn't hook up; and that frankly is the extent of my activity.
    Question. When the effort--I'm sorry, excuse me.
    Answer. No.
    Question. Are you finished?
    Answer. That was a long answer.
    Question. That's all right.
    When the tapes were given to the Justice Department and the Senate 
on October the 4th, was there any particular reason why the tapes 
weren't turned over to this committee?
    Answer. There is no particularly good reason, no. I think that 
people--I mean, I--I think that people were moving as quickly as they 
could. We were doing a lot of--I mean, you weren't a big focus, and I 
don't mean that disrespectfully.
    During the time, early on, when we were working on some of the 
issues that were of greatest interest that we seemingly test to the 
House of Representatives, there were times I think the Senate felt that 
we weren't spending enough time concerning their issues.
    Question. You're aware, are you not, that members of the Majority 
staff called after press reports in terms of the existence of the 
tapes, that they actually learned about it from the newspapers or press 
reports?
    Answer. I'm not. The only thing that I'm aware of, and I have only 
secondhand knowledge of this conversation, is that Mr. Nionakis 
informed Ms. Comstock of the existence of the videotapes, and that Ms. 
Comstock expressed some concern about it. But what Mr. Nionakis said, 
as I recall, something to--unique. And immediately--he can--I'm sure, 
will discuss it in greater detail. But she was less concerned about 
exactly when she was going to get it.
    That's a very rough, very thirdhand, I want to be clear, but that's 
the only recollection I have of the conversation between the committee.
    No one on the committee actually spoke--called me about it. I think 
that's the only conversation I am aware of.
    Question. Did anyone, to your knowledge, you directly or anyone on 
your staff in the White House Counsel's Office, notify Minority counsel 
for this committee before Sunday----
    Answer. No.
    Question. October the 5th?
    Answer. Not to my knowledge, no.
    Question. Now----
    Answer. Indeed, I should say, ironically, you received the 
videotapes--the Majority received the videotapes far earlier than the 
Minority, because it was such a duplicating problem, that I couldn't 
send duplicate tapes, or we--when I say ``I,'' the White House. So 
indeed the Minority got the tapes far later than the Majority on the 
House side.
    Mr. McLaughlin. That was a matter of considerable annoyance to the 
Minority, I should note for the record.
    The Witness. I know. I should say for the record, at that time, I 
thought I could take the annoyance of the Minority a little bit better 
than the annoyance of the Majority. I don't mean that in a flip manner. 
Sometimes, sadly, those are the kinds of decisions that I have to make. 
And that was a very real decision that we made at that time.

                      EXAMINATION BY MR. BENNETT:

    Question. Were you involved with respect to any discussions or 
aware of any discussions as to exactly who was going to contact the 
President concerning the existence of these videotapes?
    Answer. I was--well, I don't believe I was. It was clear I was not. 
That is typically not something that I do. I believe that Mr.--and I 
don't know more than this, Mr. Ruff was either out of town or away. Mr. 
Ruff and Ms. Mills had--may well have had a conversation on that topic, 
but I was not a part of it.
    Question. Do you know what the mechanism was or the reason for 
Cheryl Mills being the one to notify the President?
    Answer. I think Mr. Ruff was not--was not at the White House. And 
in that circumstance, she, more likely than I, would be the person.
    Question. If he was at the White House and she still notified the 
President, do you know why she and not Mr. Ruff would be notifying the 
President? Would there be any reason?
    Answer. There would be a reason, and I don't know what the reason 
is. And I had nothing to do with any of those discussions.
    Question. With respect to the matter of the failure to notify 
Attorney General Reno of the existence of these tapes prior to her 
letter to Chairman Hyde of the House Judiciary Committee on Friday, 
October the 3rd, the Attorney General has indicated, as we're all well 
aware, that she was ``mad'' when, I believe you've heard her say, that 
she heard it; have you not?
    Answer. I think we're all aware of it.
    Question. And with respect to your appearance on national 
television Face The Nation, I believe--and correct me if I'm wrong--my 
review of the transcript of that indicates that you yourself used the 
word ``incompetence'' with respect to the performance, or your 
``embarrassment.''
    Do you recall--and I'm not going to hold you to the words if you 
can't recall what it was--exactly what word would you put on this 
fiasco, I guess is what I'm saying?
    Answer. I don't know what I said on Face The Nation. It was my 
first time on national TV, and I think it is as big a mea culpa as 
anyone should ever have to do. So I think I tried to step up to the 
plate.
    Having said that, I haven't reviewed the transcript. So all I can 
do is not tell you what I said, but I can tell you how I feel.
    I truly believe that there was no legal import whatsoever to 
notifying the Attorney General on Thursday, which I couldn't have on 
Thursday, I wasn't there, on Friday or Saturday. I clearly regret it 
because of the fire storm that has occurred.
    I wasn't thinking of the Hyde letter. I hadn't read the Hyde 
letter. Indeed, I hadn't read the Hyde letter response. I didn't read 
the Attorney General's letter to Chairman Hyde until sometime over the 
weekend, after the connection to the Hyde letter, I think came about. 
That wasn't the focus.
    There were many other focuses, the 30-day review of the Vice 
President, whether or not the preliminary investigation was going to be 
expanded on the phone call issue. The beginning of the review of the 
President. There were many other issues we were dealing with.
    And I do apologize, because I don't want to put anyone in an 
embarrassing situation. So I feel badly about that. But frankly, Mr. 
Bennett, given the number of issues that we deal with, the number of 
issues I deal with it, I think it's only with 20/20 hindsight that the 
Attorney General's response to the Hyde letter would be connected to 
the videotape and someone would say I should get it out.
    And as the Attorney General stated, if you had asked me before, it 
doesn't have any import. She's going to continue her investigation. And 
it would never have occurred to me that she would not.
    Question. Now, with respect to whether you used the word 
``incompetence''----
    Answer. I think I did. I think what I said there is there is no 
defense of incompetence.
    Hello, David.
    Question. And in terms of no defense of incompetence, did you feel 
that, in fact, there had been some incompetence with respect to 
compliance with the subpoena? Is that what you meant by that comment?
    Answer. No, I think we said--I think what I said, but the only time 
I remember using the word ``incompetence''--and I may be wrong, I 
haven't read the transcript--the only time I personally remember using 
the word ``incompetence'' in the Face the Nation interview is when I 
said to Mr. Sheaf, in response to a question he had, is that the White 
House says we don't give a defense of incompetence; then I tried to 
explain in my own words what I feel.
    I don't think we acted incompetently. And I do--I'm very, very 
proud, I am proud of, given the complex nature of the White House, the 
degree to which the lawyers working with me have attempted to honor 
subpoena requests. I think we've done a good job.
    Everything is relative, and I think, in hindsight--I would like to 
be perfect, but I think we've done a good job. But I clearly regret 
that we hadn't found the videotapes earlier.
    Question. Let me, if I can, go over the matter. And I don't intend 
to summarize or highlight your Senate testimony, but I just want to 
make sure I'm clear in terms of----
    Answer. And I haven't reviewed a transcript of my Senate----
    Question. I understand.
    Answer. Nor have I watched myself.
    Question. And just in terms of, as I understand the various areas 
that arose, I think, to reflect that, apart from the problems we've had 
with compliance, there are a series of issues with the Senate, were 
there not, in terms of compliance?
    For example, there's a dispute over July 31st information with 
respect to Ng Lap Seng, better known as Mr. Wu?
    Answer. Right. And I think there----
    Question. I'm not asking you to repeat all your explanations, but 
I'm just trying to go through the litany of the areas of concern or 
dispute, however you want to define them.
    Do you understand what I'm saying?
    Answer. I do. I feel obligated to say, with respect to Ng Lap Seng, 
when I had the opportunity in that August 7th meeting actually to 
explain to Mr. Bucklin the Ng Lap Seng issue, to tell him that such 
things could occur again, when I explained to him how that occurred, he 
said something to the effect--and I can't tell you exactly--that if I 
had had the opportunity to explain that to him earlier, he would have 
hoped that there wouldn't have been a public uproar.
    But clearly the Chairman referenced Ng Lap Seng; I don't think it's 
a fair example, but he did reference it.
    Question. And another area of dispute with the Senate, and if I'm 
wrong--again, I'm not trying to go into all the details of the facts or 
the facts concern Warren Medoff and a facsimile sent to Mr. Medoff from 
Harold Ickes to Mr. Medoff. It's another topic of dispute, correct?
    Answer. I don't think it's a fair one. And I'm not the one to 
debate point by point, but I think with Medoff, we produced everything 
we had. And, indeed, as I said to the Senate, the Senate itself 
misspelled Medoff's name. If we had wanted to be cute, we would have 
used the misspelling. Indeed, when we identified, without the Senate, 
that they had misspelled the name, and a lot of searches were computer 
generated, we did a subsequent search on our own with the correct 
spelling. I think, frankly, that the Chairman backed off on those.
    Question. Chairman Thompson?
    Answer. I think he did. I think those are--I think that they came 
up. I think that they're unfair. Those are two very unfair examples. 
And I may even have addressed this directly.
    Question. You mean unfair on the part of the Senate, not unfair in 
my asking the question?
    Answer. Absolutely. I think there are many legitimate issues of 
concern. I just say, if we're going to talk about those, I think 
dispassionate viewers would say that, on those two, there is not--that 
the White House acted well.
    Question. Another area of dispute with the Senate, totally apart 
from the problems we've had, for example, would be--I think that's 
actually in terms of the compliance with our subpoena, the matter of 
call sheets, telephone calls from the President. That was another area 
that came up, has it not, with the Senate in terms of a dispute over 
that?
    Answer. I think that when----
    Question. I mean, there has been a dispute, correct?
    Answer. Well----
    Question. You can explain if you want, but I'm just trying topic 
the area. Has there been a dispute on that?
    Answer. I don't want to speak for how the Senators view it. I will 
say the following: Until the Chairman or Mr. Madigan in the hearing 
raised that issue with me, it had not, to the best of my recollection, 
it had not been raised.
    At some point, if you can say----
    Mr. Bennett. I'll identify counsel here. Anyone present is counsel 
for our office or the court reporter who has arrived. There's no press.
    Mr. Lynch. I noticed Mr. David Bossie. I don't know who this 
gentleman is.
    Mr. Bennett. Mr. Uttam Dhillon.
    The Witness. So, in fact, I don't think--I think that that came in 
the context of Mr. Madigan alluding--I may be wrong, and I don't mean 
to make this a debating exercise about something with respect to call 
sheets. I think what I told him is, to the best my knowledge--and I 
think I was right, I think I am right--we gave him things that were 
responsive. So he began to talk about the call sheets, but indeed, I 
don't know of an existing dispute.
    Question. I guess my point is, I'm not trying to debate all those 
points with you. Again, I'm just trying to note for, in terms or for 
purposes of our concerns with compliance with the House subpoena, that 
there clearly had been areas of dispute with the Senate on these 
matters?
    Answer. Yeah, but I think that it's hard to say. I think that, 
again, in the political world we live in, when we're asked for very 
many, many different requests, we become criticized, sometimes fairly, 
but in fact, sometimes unfairly. And I don't think these have been all 
areas of dispute. Indeed, during at least the Senate hearings, you 
know, there were references that we hadn't produced documents that the 
Senate would like that had never been called for, that doesn't exist in 
any request at all.
    So I think those were not necessarily fair. I'm not going to say 
that in the natural tensions that exist, that that's not going to 
happen. I don't think that those examples are particularly fair ones, I 
guess is my point.
    Question. I think that, in terms of the October--strike that--the 
August 19th letter from Mr. Bucklin in the matter of the White House 
Communications Agency--correct me if I'm wrong--I believe you testified 
in front of the Senate 2 days ago that you yourself have only met Steve 
Goodin on one occasion?
    Answer. I don't think I said that.
    Question. How often have you met him?
    Answer. Well, I--I don't know how often. Presumably I've only met 
him the first time I met him. I have seen him----
    Question. Who was Mr. Goodin?
    Answer. Mr. Goodin is the President's aide, who is with the 
President often and who typically is outside the Oval Office. I've seen 
Mr. Goodin on a number of occasions, sometimes simply passing him in 
the halls of the West Wing, other times waiting before I go inside the 
Oval Office to brief the President on an issue. You know, I've seen him 
in the hallway of the Old Executive Office Building.
    Question. Mr. Goodin is, in fact, the individual who is that person 
who can determine whether or not videotape is to be turned on or off; 
isn't that correct? He tells the WHCA crew whether to film or not to 
film; isn't that correct?
    Question. That is correct, is it not, he is the one who says 
whether they are going to film or not film?
    Answer. I am really going to try to answer that. I think you have a 
better understanding of what Mr. Goodin does than I do because you had 
an opportunity to depose him and I haven't.
    Question. We have not deposed him yet.
    Answer. Oh, okay. I am sure you will. He has been deposed I guess 
on the Senate side. I apologize.
    It is my understanding he does deal with the WHCA people. I don't 
have any firsthand knowledge of that. As I understand it, having 
briefly spoken with him about it, when this issue occurred, he does 
meet with them in the mornings, and I am not sure if he makes the 
ultimate decision or it is more a collaborative effort. That is where, 
frankly, I am not positive of exactly how it goes.
    Question. When is the first time you would have spoken with Steven 
Goodin concerning the matter of videotapes?
    Answer. I think when the Senate notified us that they wanted to 
speak to Mr. Goodin, and that the reason they wanted to speak to Mr. 
Goodin is because they thought he had the responsibility that you have 
just described.
    Question. And when would that have been?
    Answer. It would have been within--I don't know exactly. It would 
have been probably within the last--between a week ago and 3 weeks ago.
    Question. In the month of October?
    Answer. It would have been in the month of October, sometime 
probably between the second and third weeks. More likely than not, he 
and I would have had a brief conversation about it.
    Question. Did you ever talk to Nancy Hernreich, if I am pronouncing 
her name correctly, with respect to production of documents?
    Answer. I have spoken to Nancy Hernreich about production of 
documents.
    Question. And, in fact, Stephen Goodin reports to Nancy Hernreich, 
does he not? She is the secretary to the President?
    Answer. She is not the secretary to the President. She has a title. 
I am not sure of the name. She is sort of in charge of Oval Office 
operations. She is not really the secretary. And I think you are 
correct, that in that capacity, Steve Goodin, I believe, reports to 
her.
    Question. And did you ever talk with Nancy Hernreich, if I am 
pronouncing her name correctly, with respect to any discussions she had 
with Cheryl Mills with respect to these videotapes?
    Answer. Never, and I am not aware of any.
    Question. As we said at our meeting Friday, October the 10th, 3 
weeks ago, Mr. Breuer, the staff on this committee is concerned about 
efforts toward subpoena compliance, not in terms of these past 
problems, but in terms of trying to proceed in the future in terms of 
assuring that measures are taken.
    What additional measures have been taken by the White House 
Counsel's Office to ensure that this kind of situation we find 
ourselves in with respect to the White House videotapes doesn't occur 
again?
    Answer. Well, it is a dynamic process, and I guess the answer is 
that I can never give you a full assurance. What I have done, and what 
I continue to try to do, knowing full well that even after 
certifications, we may produce documents, is I try to have lawyers go 
back to different areas and to re-review. So, for instance, without 
going through everything I do, I am right now in the process of trying 
to figure out, and will try to do that over the next couple of days, 
what are other likely offices that perhaps may have responsive 
materials, or offices that we have gone to once or twice, and to see if 
maybe we need to do another search.
    Question. It is my----
    Answer. But I want to be clear here. I don't, and I am very open 
about it, I don't have any magic solutions or any magic books. I think 
that people know pretty well that Mr. Ruff and I and others are very 
committed to finding materials that are responsive; I think we look for 
them. I think when they are identified, we try to get them, but I don't 
have any magic solutions.
    Question. My question to you specifically is to what extent have 
you undertaken any measures to tighten up the process?
    Answer. Well, again, I don't know what----
    Question. I don't mean to go into the long decision about talking 
to the staff, have there been any measures? Perhaps there haven't been.
    Answer. Mr. Bennett, I just want to say something. You know, I 
handled, and I am as fallible as the next person, but I think I had a 
pretty good record, both as a prosecutor and in private practice, when 
you represent a corporation and private practice in an enormous case, 
you walk around, you learn about the offices, maybe you talk to the in-
house lawyers, but at the end of the day you send memoranda, 
directives, to people within the organization, making it clear they 
have to provide materials to you, and you go about that, and as you 
learn about--just as a prosecutor will call up and say I got this but I 
didn't get this and I don't know why I didn't get this, you try to find 
out, but in the large corporation, that is what you do.
    The White House, in some ways, is like that, without even the 
benefit, frankly, of having a custodian of records. You have people who 
work very, very hard. And so except for the political discourse that 
comes up with people on both sides and all sides, it is not only one 
side, making assertions that I think are somewhat hallow, the actual 
exercise of finding materials is not an easy one. What you do is you 
send out directives. You try to focus. I think, in fairness, the 
directive we sent, despite what Mr. Madigan and others said, was the 
right kind of directive.
    Question. Directive meaning was the Exhibit 8, this deposition, 
Chuck Ruff?
    Answer. That would be the kind.
    Question. April the 28th?
    Answer. I believe that is the appropriate way and, indeed, I think 
it is the most likely way of getting materials.
    I think with respect to that you continue to have lawyers visit 
offices. I think the level of the number of lawyers who work with me or 
visited offices has been high and we continue to do it, but I don't 
feel comfortable talking about tightening procedures or processes, it 
is easy to say it, it is a quick fix, I don't know what that means. 
What I can tell you is we go back and identify materials and we try to 
provide them, and the more I learn about the White House, the more 
other lawyers learn about the White House----
    Question. I guess the question is, I gather that there aren't any 
changes in procedure, then?
    Answer. Well, I don't know about changes in procedures. I mean, we 
haven't received another directive, or we haven't received another 
subpoena, but that is not a fair statement. I don't want to--I mean, it 
is easy for me. If I say no, then it becomes a political exercise. You 
didn't do well and you haven't changed anything. I mean, we are 
attempting to identify places where there may be responsive materials. 
We are trying to figure out if we have everything. Indeed, no one 
congratulated us when, during the summer, or whenever, without a 
request from this committee, without a request from the Senate, on our 
own at a time when we weren't besieged with requests, I sent out a 
couple lawyers to go out and continue the process of looking and we 
found more. We didn't just sit there; we did find more and we produced 
it.
    Question. I think you indicated in your response a few minutes ago 
that you visited certain offices and talked to other lawyers. What 
other offices have you visited and which other lawyers have you spoken 
with?
    Answer. I meant the lawyers within my team, like, for instance, I 
had a lawyer go and review manually the briefing papers. We at the Vice 
President's office went back and manually reviewed the briefing papers, 
exercises that, frankly, I am not sure other administrations have done. 
I am not going to speak for them, but I think those are remarkably 
labor-intensive exercises. Those are the kinds of things.
    I mean, I think given the resources we have, we do a pretty great 
job, and I think with respect to the videotape issue, frankly, it was 
the most routine and pedestrian of mistakes. And I understand your 
frustration, I truly do, but I don't think it's fair, if you were 
sitting where I am, to suggest that lawyers, at least who are working 
with me, are doing a slipshod job in caring. They care a lot, and as 
far as I know are working very, very hard.
    Question. This morning we discussed the matter of the Ruff 
directive reflected by Exhibit 8 in the deposition transcript and the 
fact that our subpoena, the House subpoena, Exhibit 4, the subpoena 
dated March 4, 1997, was not attached to the directive. Do you recall 
that?
    Answer. I do remember that.
    Question. Is there any effort now to attach a subpoena to 
directives so that in addition to the summary of the contents made by a 
lawyer that the actual subpoena is attached, because I believe there 
are people from WHCA who indicated they thought that would have been 
helpful. Is there any effort in that regard?
    Mr. McLaughlin. Do you mean the subpoena as limited by the April 18 
letter? Are you asking about whether they should attach the subpoena 
along with the limiting language?

                      EXAMINATION BY MR. BENNETT:

    Question. My question is generic in terms of is there an effort to 
attach a subpoena to a directive now so that the particular agency 
actually sees the subpoena itself?
    Answer. Let me first just address one of the--one of the 
representations in your question, which is, as I recall, and I watched 
a fair bit of the Senate hearings, the two WHCA people who were the 
closest to the production of the videotapes, Colonel Campbell, and 
Chief Petty Officer McGrath, CPO McGrath, both said that had they 
received the directive, page 2, they would have found the videotapes. 
They would have found it because they would have remembered it, and 
they also would have found it because they would have looked through a 
computer database and we asked for it.
    I want to be clear that the two people who would have been tasked 
with the findings of these stated, I believe, under oath, pretty 
clearly had they received the directive, they would have found it. So I 
don't believe there was anything defective about the process, and, 
indeed, it was the most routine and pedestrian of mistakes that occur, 
and Colonel Campbell was describing everything within WHCA, and I think 
that is unavoidable. Having said that, I am more than happy to consider 
it. We don't have a directive right now, we haven't done it, and I am 
not saying we will do it, but I hear your suggestion.
    Question. Actually, it wasn't a suggestion; I meant to ask a 
question. Have you done it, and I gather your response is, no, you 
haven't.
    Answer. Well, there is nothing to have done in the last 3 weeks. I 
mean, I am not sure what the question is. In the last 3 weeks, we have 
not had the opportunity to do it, and indeed, I suggest to you that if 
we were to send around subpoenas--first of all, I have a real problem 
sending around grand jury subpoenas at the White House, and I think I 
alluded to that this morning, and I am not going to speak for the 
Department of Justice, but I suspect others would have serious concerns 
about that, being our practice.
    Question. Do you have any reluctance in sending around 
congressional subpoenas?
    Answer. Well, I do, but I am willing to consider it; I am willing 
to talk to Mr. Ruff about it. I don't think it is a better practice. I 
don't particularly believe that it is going to get more--you are going 
to get more responsive documents. Sadly, in the exercise, I mean, so 
much of it is political and so much is--you know, so much of our 
criteria have to be what will be said in hearings and the press and 
it's something that I am at least willing to consider.
    Question. I just want to go into one example of trying to assure 
compliance, and we will wind up, it shouldn't take that long, but let 
me ask you this: As we sit here today, do you have a level of comfort 
that there has been complete compliance with the subpoenas issued by 
this committee?
    Answer. I will never have a sufficient level of comfort that there 
has been complete compliance. I think there has been substantial 
compliance. I think there was substantial compliance even with respect 
to videotapes. That is not to say, Mr. Bennett, we won't find other 
materials. We have produced well over 230,230 pages. Our requests are 
very broad, they are continuous, but I can't--you know, I don't know, 
Mr. Bennett, there are over 2,230 people at the Executive Office of the 
President. They work, I think, in some five different buildings. There 
is no humanly possible way that any one person or a group of six 
lawyers can figure out what is in everybody's file cabinet or what 
people have put in one place or another. That is just the nature of the 
beast, and it is frankly the nature of the beast in private practice as 
well.
    Question. Mr. Breuer, why don't I give you a series of exhibits, to 
give an example of how we hope we can resolve some of these problems. I 
will give you Exhibits 13 through 20. Take a look at those, please, and 
I will pass these down.
    [Breuer Deposition Exhibit Nos. 13 thru 20 was marked for 
identification.]
    The Witness. Sure. I am going to want to take a 30-second break 
sometime here. Maybe this is a good time.
    Mr. Bennett. That is fine.
    [Brief Recess.]

                      EXAMINATION BY MR. BENNETT:

    Question. Just one thing. Chairman Burton sent me a note to make 
sure----
    Mr. McLaughlin. Are we back on the record?
    Mr. Bennett. Yes, we are. Excuse me. I apologize.

                      EXAMINATION BY MR. BENNETT:

    Question. Mr. Breuer, you and I discussed this morning the matter 
of daily taping by the President, in terms of I think we were talking 
about the diarist before the President. I think I discussed this just 
generally with you this morning; is that correct?
    Answer. Yes, we talked briefly about that.
    Question. To make sure you understand the nature of my inquiry, do 
you have any knowledge with respect to the Dictaphone of the President 
himself, in terms of dictating his personal notes to himself?
    Answer. I actually don't think the President has a Dictaphone.
    Question. If he does, you have no knowledge of it yourself?
    Answer. I have no knowledge of the President having a Dictaphone. 
In fact, I am under the strong impression he does not have a 
Dictaphone.
    Question. And it was my understanding what you said this morning, 
but I want to make sure we are clear on this, is you don't have any 
knowledge of daily memoranda or musings of the President, as it were, 
with respect to summaries of daily activities that he does himself on 
the tape recorder?
    Answer. That is exactly correct, I have no knowledge of that 
whatsoever.
    Question. Now I promised Mr. McLaughlin we will make sure we are 
finished by 5 o'clock, and this may not even take that long, but I have 
placed before you, and Mr. McLaughlin, you have before you Exhibits 13 
through 20, and this is just an example of what we perceive to be the 
continued compliance problem, Mr. Breuer, and that is what I am going 
to ask you about.
    We have inquired with respect to a subpoena, I believe the subpoena 
was dated August 21, 1997, with respect to the decision by the 
Department of the Interior that rejected an application by a Wisconsin 
Indian tribe to establish a casino at an existing Greyhound track. It 
is the topic about which Secretary Babbitt testified yesterday. Are you 
familiar with the general topic area?
    Answer. I am. Let me just be clear. You are referencing an October 
21 subpoena from this committee?
    Question. No, we are representing a August 21, 1997, subpoena. We 
actually received the documents on October 22, but the subpoena was 
August 21.
    Answer. From this committee?
    Question. That is correct.
    Answer. I don't have it in front of me. I am sure I will align your 
representation of the date.
    Question. Let me, if I can, for example, if you look at Exhibit 19, 
with respect to the document request, the document request of Mr. Ruff, 
with respect to this dog track, if you want to take a second to look at 
that exhibit.
    Answer. Okay.
    Question. You see that?
    Answer. I do.
    Question. Item 8 clearly lists the matter of documents relating to 
the Department of the Interior's decision to deny a petition for a 
casino in Hudson, Wisconsin.
    Answer. Right.
    Question. We received a number of documents in the White House on 
October 22, the middle of the last week, pertaining to that decision, 
and I need to just ask you, if you can, who in the White House has been 
involved with the production of documents about the Hudson dog track?
    Answer. Well, involved, I will tell you the people who are 
involved.
    Question. Just to make sure you understand, and then I want you to 
answer that, so you understand the predicate for the question. We view 
it here as a similar pattern to the White House videotapes.
    There is an initial request from Congress, there is then the 
document request by Mr. Ruff, then there is ultimately a subpoena, and 
then for we think a fairly extended time thereafter we wait and 
suddenly we get documents and we can't understand what the delay is and 
that is why I am asking the question.
    Answer. I would also like to address the substance of the premise 
of your question, but I will try to address both.
    Question. That is fine.
    Answer. As to who is involved, the lawyer probably most involved in 
this would have been Dimitri Nionakis. Cheryl Mills would have been 
involved. And Mr. Ruff and I, I am sure, were involved at different 
points.
    Question. Is there any reason why it is those four lawyers?
    Answer. The reason in this case is because, as I said, I typically 
am not always involved in the way Mr. Imbroscio is dealing with the 
videotape issue. More often than not, on a discrete issue, I might ask 
one lawyer to sort of take charge of something.
    Question. If Miss Mills is not really your subordinate, why would 
she be involved in this?
    Answer. Because I was not involved at all in the--well, I may be 
wrong. You asked me who was involved.
    Question. Yes.
    Answer. And she is not my subordinate but I think she had an 
involvement. I think I recall being in a meeting where she was present, 
and so, again, I don't know the degree of involvement, but those are 
all the people to one degree or another that I remember.
    Question. And if you will look at Exhibit----
    Answer. May I finish?
    Question. Sure.
    Answer. I just want to explain something. When you talk about the 
Hudson dog track, in fairness, I don't know exactly, but I think you 
have probably received, for some time, Mr. Bennett, probably about 330 
or 340 pages of documents on this issue. It is not at all clear to me, 
but I don't purport to know every document, that the documents in front 
of me here represent information of a kind so different than the 330 or 
340 pages of materials that you previously received on this issue. But, 
again, because you don't have them right away, and, again, this has 
nothing to do with you personally, because you didn't receive these 
right away, they will have a level of undue importance. But there also 
is a litigation going on in Wisconsin where the Department of Justice 
is representing the interests of the United States. And there the 
Department of Justice, as the lawyers, made a determination in 
consultation with the Office of Legal Counsel, the civil litigation, 
that there were certain documents that were subject to privilege, or 
potentially subject to privilege.
    Question. When were these documents requested pursuant to the civil 
litigation; do you know?
    Answer. I don't know.
    Question. And when were the determinations made as to privilege?
    Answer. I know that you received--we produced these materials 
immediately upon the time that the Department of Justice made those 
assertions to the court. I think you received it, literally, I believe, 
I could be wrong, it is tough, within the next working day or soon 
thereafter. So that was pretty expeditious.
    Question. Well----
    Answer. Well, let me finish.
    Question. I am trying to make sure we shorten this because I want 
to finish by 5:00.
    Answer. But I want you to understand my point. Because we want to 
show you that we are not hiding the ball, because we want to give you 
the materials, we arranged, and I think it was prior to your time when 
it was Mr. Bossie and Ms. Comstock and Mr. Rowley and I and some 
lawyers, we worked out a way of executing a nonwaiver agreement with 
you so that we could give you the substance of every single document so 
you could see them, but yet we would not have to make a formal 
assertion or waive a privilege with respect to private litigants, 
because in the same way you have an important constitutional 
responsibility, we at the White House have an important Constitution 
responsibility to protect certain kinds of deliberations.
    You have all the materials. You have them well before any of the 
hearings in your case, and I don't accept the premise that this is some 
late production. I think, frankly, another administration might have 
decided just not to produce them at all, but we figured a way, we 
executed a way so you could see every single document, but yet we could 
protect our rights, the rights of the United States, and the principles 
and deliberative process and other comparable principles with respect 
to private litigants, and that is what these documents represent.
    Question. We received these documents subject to those claims of 
privilege and you have the privilege log there reflected by Exhibit 13 
in front of you. Do you see that?
    Answer. I see this privilege log, I do.
    Question. And who in the White House took part in the decision to 
assert privilege?
    Answer. Well, the Justice Department made the determination of what 
documents were responsive.
    Question. Who at the Justice Department then?
    Answer. I don't actually know. I wasn't dealing with them directly. 
I don't know the names of the lawyers, but it was clearly lawyers at 
OLC, and it was also trial lawyers in the Justice Department.
    Question. With respect to interaction of the Justice Department, 
when were the documents transmitted to the Department of Justice?
    Answer. I don't know the answer to that.
    Question. Were there----
    Answer. I suspect Mr. Nionakis would know.
    Question. Were there meetings?
    Answer. I am sure there were conversations. I don't know if they 
were formal meetings.
    Question. When did you get the documents back from the Department 
of Justice?
    Answer. I don't know what ``back'' means.
    Question. When were they returned?
    Answer. I am not sure--I mean, I don't know if we retained a copy 
or not. I don't want to give the misimpression we ship them over and 
don't retain a copy. What I can tell you, what I do know is from the 
time of the filing of the privilege log with the Department, that the 
Department of Justice did in the Wisconsin litigation, we provided 
these materials. By the way, this is part of an ongoing process. It is 
probably the only way you can carry forth this kind of a process and 
still protect your rights with private litigants.
    Question. Was the President actually consulted with respect to the 
assertion of any executive privilege?
    Answer. No, there has been--well, I shouldn't be so quick to say 
no. I am unaware of such contact. There has been no formal assertion 
and that is the entire point, Mr. Bennett, of the nonwaiver agreement. 
The nonwaiver agreement is----
    Question. I understand. You don't need to go into that.
    Answer. But there has been no assertion so there would be no 
reason.
    Question. Who in the U.S. Attorneys' Office in Wisconsin would have 
taken part in any assertion of a privilege?
    Answer. I don't know who is handling it. Mr. Nionakis can tell you 
the name of the players.
    Question. So I have a feel for this, who at the White House makes 
the final determination about whether or not such a privilege is going 
to be asserted, executive privilege?
    Answer. Again, no assertion----
    Question. If there is to be an assertion.
    Answer. If there were a formal assertion of privilege, I believe it 
is the President who makes that final determination. He would do that 
after getting advice and consulting with Mr. Ruff.
    Question. The concern that this committee has is that, according to 
our records, these documents were shown to members of this committee 
staff on Sunday, October the 19th, and this came after, I note after, 
press reports about the Wisconsin Indian matter?
    Answer. Well, that is a little unfair.
    Question. I am just telling you what the chronology was.
    Answer. But there is a reason for that. We couldn't have done it 
quicker. The press reports came because of the formal filing of the 
privilege log. We couldn't show them or produce them before the filing 
of the log. The filing of the log occurs, the press reports occur, and 
we do it. I mean, obviously one of the--we are not a party to this 
litigation but one of the parties to the litigation knew there was no 
secret that the log was coming. In the same way there were TV cameras 
waiting for me in front of this deposition, there were TV cameras and 
there was a press report waiting for the log. So it is a little of a 
chicken and an egg; I don't know how we could have avoided that.
    Question. Let me show you the concern and the pattern as perceived 
here, and we won't belabor this point much longer.
    Answer. I want you to at least get my perspective on it.
    Question. And I am trying to give you our perspective. Let's look 
at Exhibit 14. Exhibit 14 is a memo from Loretta Avent, who I believe 
was in the Office of Intergovernmental Affairs at the White House; is 
that correct?
    Answer. I don't know her.
    Question. Do you know Miss Avent at all?
    Answer. I have never met her. I don't know her at all.
    Question. But you see it is a memo dated April 24, 1995, to Mr. 
Ickes?
    Answer. That is correct, I do see that.
    Question. It discusses a call from--it says, ``I just got a call 
from Bruce.'' Information we have at our committee is that it appears 
to clearly be Bruce Lindsey. And then looking at the privilege log, 
there is an executive privilege asserted, if you look at Exhibit 13, 
number two.
    Answer. I only have 2 pages.
    Question. The first page of Exhibit 13, the second entry, when I 
say entry two.
    Answer. Oh, I misunderstood.
    Question. Entry two, there is an assertion of a privilege, 
memorandum from special assistant to the President for 
intergovernmental affairs to deputy chief of staff, containing legal 
advice and discussion re American Indian gaming policy matters.
    And looking at that document, to which there is--E/P means 
executive privilege, correct, in your privilege log?
    Answer. Yes.
    Question. And A/C means attorney/client privilege?
    Answer. That is correct, Mr. Bennett.
    Question. And I note in that document, which, again, we got after 
press reports, it says, the second paragraph, it is in our best 
interest to keep it totally away from the White House in general, this 
is such a hot potato, too hot to touch. And then it goes over to the 
second page, the paragraph on the second--paragraph of the second page, 
press is just waiting for this kind of story, we don't need to give it 
to them. There are copies to Maggie Williams.
    Now is Ms. Williams an attorney?
    Answer. I don't think she is an attorney.
    Question. She was the personal secretary to Mrs. Clinton?
    Answer. Mr. Bossie is telling me no, so I don't think so. She is 
the chief of staff, I think--I think she was--I am quite confident she 
was the chief of staff to Mrs. Clinton.
    Question. No longer employed at the White House?
    Answer. That is correct.
    Question. At that time she was chief of staff to Mrs. Clinton?
    Answer. I think you are right. I wasn't there then. I think that is 
correct.
    Question. And with respect to the assertion of privilege, as to 
that document, who was involved in asserting the privileges as to that 
document?
    Answer. Well, I described the process. I don't particularly recall. 
I think there probably was a meeting, although I don't have a very good 
memory of it. I think it probably--I think I attended one meeting where 
these issues occurred. There may have been others. There would have 
been at least one meeting where Mr. Ruff and I, and Ms. Mills, and Mr. 
Nionakis were there, and, frankly, I didn't spend a lot of time on this 
issue. OLC and the Department of Justice had made a determination as to 
what documents were appropriate for privilege. This would be one, but I 
don't quite understand the issue because, Mr. Bennett, you have the 
document.
    Question. I am going to get into that.
    Answer. You have everything.
    Question. Clearly, the meeting must have been pretty recent, given 
the production. It would have been this month in October; wouldn't it?
    Answer. I don't think that is necessarily true. I don't know that 
to be the case. I don't think that actually is the case. I think 
probably at some point we reviewed the materials.
    Question. What element of this memo suggests--looking at Exhibit 
14, what element of this memo suggests executive privilege?
    Answer. I am actually not going to--I mean, I would want to spend a 
fair amount of time looking at the document and then start looking into 
it. If you want, I will take the time and read the document.
    Question. Well, you don't have to stop now but in preparation for 
testimony before the committee, if you would be able to take time to 
look at that to determine what element of the memo suggests executive 
privilege and in that regard what element of the memo suggests 
attorney/client privilege.
    Answer. I guess what I would do, and I don't mean this in a coy 
manner at all, but the people at the Office of Legal Counsel are really 
expert in this. They are probably the country's leading experts on 
executive privilege. We would never, in private litigation, we would 
not be able to assert or make documents subject to such privilege 
unless OLC determined that it was appropriate.
    Question. Who at OLC would have made that determination in this 
case?
    Answer. I don't know.
    Question. I gather you will be able to find out?
    Answer. And it may well be Mr. Nionakis or others already know 
that, but what I can assure you of, if indeed what the hearing is about 
is to figure out the principles of attorney/client or executive 
privilege, I would suggest you speak to the people at the Department of 
Justice who are far more expert in this than I.
    Question. But you are saying that was based on a representation of 
the Department of Justice; there was executive privilege or attorney/
client privilege to this document?
    Answer. I am saying to you, as far as I know, unless I am mistaken, 
that every document on this log is a document that the Department of 
Justice reviewed and made a determination was appropriate as a document 
subject to, in that particular case, executive privilege and attorney/
client, that is my understanding. I would be surprised to find out that 
that is incorrect.
    Question. Do you have any knowledge of disputes----
    Answer. But I don't have any great familiarity with this document.
    Question. You don't have any knowledge of any discussions between 
the attorney general and Mr. Ruff with respect to any disputes on the 
assertion of executive privilege?
    Answer. None whatsoever. I think that is quite unlikely. None that 
I know of.
    Question. Do you know when this document, for example, was found? I 
will go on to the next exhibit in a minute, but as to this document, do 
you have any knowledge as to when this was found?
    Answer. I think there was a request for, you said in August, am I 
correct, so it would be sometime subsequent to the request.
    Question. Let's look at Exhibit 15, and this is a memorandum from 
the Chairman to Miss Avent. This is not on the privilege log?
    Answer. I just want to be clear here, Mr. Bennett, as we sit here 
now. I may at one point have seen this document. I have no memory of 
it, and if you want me to talk about it, I am going to have to read it.
    Question. Go right ahead. I understand. The predicate of this 
question, and we are winding up here, is this document is not on the 
privilege log?
    Answer. Right.
    Question. And I just don't understand, as these documents came in 
last week, I don't understand what the delay was in turning the 
document over.
    Answer. I will tell you what it may have been, as best I can do, I 
will tell you what it may have been. It may have been, I am not saying 
it is, it may have been this is one of the documents the Department of 
Justice and Office of Legal Counsel determined should not be withheld 
subject to the privilege. That may be the explanation. I am not telling 
you it is the explanation.
    But, again, I understand your frustration, but if you can 
understand mine for just 30 seconds, we have produced to you pretty 
quickly about 335 pages. They talk about this issue, and once again the 
focus is always in what we don't give you as opposed to the fact we 
produced a lot of documents on this topic. I don't know the exact 
number, but I think that is probably a fairly accurate representation, 
and I am not trying to be coy, I am just saying----
    Question. And I am not trying to be coy with you.
    Answer. I know.
    Question. I think you would agree, and we are about to wind up 
today, you and I have had a fairly courteous exchange----
    Answer. On both sides.
    Question. And my point is, from our perspective, there seems to be 
a pattern that these documents arrive almost contemporaneous with the 
press reporting them, and I started reading about the Hudson dog track 
and these matters in the press last week and suddenly these documents 
arrive. Do you understand my frustration?
    Answer. Well, I hear your frustration and I do understand it, but I 
just need to respond----
    Question. Certainly.
    Answer. You received 330 or 340, whatever the number of pages of 
documents on Hudson casino before it was ever in the newspapers, it had 
nothing to do with it. Indeed, I don't think it should be a surprise we 
should submit the document subject to privilege to you, give you all of 
them, after the log has been filed. It was because--I want to make sure 
you are hearing this.
    Question. I am listening.
    Answer. It was only because the log was filed. It was the act of 
filing the log that triggered the press reporting. So the fact is that 
the culminating event was the filing of the log. You were going to get 
these documents at the same time the press reported because it became 
public, but I don't think it's fair, at least at the time it was 
related to that, and, again, the lion's share of all the responsive 
materials you had well before this was in the press.
    Question. Looking at Exhibit 16, again, this is not included in the 
privilege log and this is marked memorandum from Miss Avent marked 
``Urgent, Urgent, Urgent, Urgent,'' and this was not included in the 
privilege the log. Do you know when this document was found?
    Answer. I don't. I suspect, again, sometime subsequent to the 
search of your--subsequent to the subpoena, and I suspect, but I could 
be wrong, that it may well have been a document that was being withheld 
and that the Department of Justice or OLC determined that it was not. I 
don't have the most direct knowledge on this issue but that could well 
be it.
    Question. Looking at Exhibit 17.
    Answer. And you have them all.
    Question. If you would look at Exhibit 17.
    Answer. Is this on the log?
    Question. Yes, Exhibit 17. This is on the log, in terms of 
assertion of privilege, and executive privilege and attorney/client 
privilege is asserted and this is, in fact, a memorandum to Cheryl 
Mills regarding a call from a lobbyist. Do you see that?
    Answer. All I see, and I am not very familiar with this document, 
is that it is a letter--it is a memo to Cheryl Mills from Michael T. 
Schmidt.
    Question. Well, if you want to look----
    Answer. The subject is ``Call from Lobbyist Pat O'Connor,'' that is 
the subject of the memo, but the memo is from Schmidt. It appears here 
he is from the Domestic Policy Council, to Mills.
    Question. The point is, the very first sentence says, this e-mail 
is to fill you in in more detail about a call Loretta and I were on 
with lobbyist/fund-raiser Pat O'Connor. Do you see that?
    Answer. I do see that.
    Question. Who is the attorney in this situation, and for whom is 
there an attorney? I am grappling with where there is an attorney/
client privilege on the document?
    Answer. And I guess what I feel is given my familiarity with the 
document, that I am not familiar with it, or not very familiar with it. 
I could study it, but, A, I think it would be best for you to talk to 
those who are most familiar with it, both at the White House and 
perhaps at OLC and the Department of Justice.
    Question. You yourself cannot, looking at it, you probably can have 
time, in fact just the second page of this Exhibit 17, the one to which 
there is an assertion to privilege, if I can finish my question.
    Exhibit 17 has the quote, it has now been picked up by the press 
and we just got the document after the press, I guess, but it says, 
``it would be political poison for the President or his staff to be 
anywhere near this issue.'' Do you see that down about the fourth 
paragraph down?
    Answer. Yes. I want to say a couple of things.
    Question. Well, my question is where is there a privilege in this 
document that you can see?
    Answer. Well, I want to be clear. I don't want this record at some 
point to be misrepresented, and it would never be by you, I know, but I 
don't want this to sound like, a special counsel to the President was 
given an opportunity to review documents and wasn't asserting privilege 
or explaining it. I stated clearly I am not the most familiar with 
these documents. If we really want to spend the next few hours, I am 
willing to, once again, go through the exercise of reviewing it and 
making the determination, but I take assertions of executive privilege 
and attorney/client privilege seriously, as I am sure you do. I don't 
have a real familiarity with the document. There are people at the 
Department of Justice who do and I suspect people at the White House 
do. I think that exercise is better, in all candor, done with them to 
the degree you are curious. I just don't think this is the kind of 
topic we should be talking about in such a quick manner. If you want, I 
am happy to engage in the exercise. I don't want the record to suggest, 
given the opportunity, he couldn't do it; I am willing to try to do it. 
I just don't think you are well-served by that exercise, nor am I, 
given there are plenty of folks out there who can discuss this in 
greater substance than I.
    Question. Let me ask you, if you will look at Exhibit 18. For 
example, Exhibit 18 is a handwritten note, is it not? Exhibit 18 is 
right in front of you as well, it should be.
    Answer. It should be and I am sure it is.
    Mr. Lynch. Just so I am clear about this, these assertions----
    Mr. Bennett. I think you may have it underneath there. Here is 
Exhibit 18.
    Mr. Lynch. The assertions of privilege reflected in the privilege 
log of Exhibit 13 were prepared by the Department of Justice in 
connection with the litigation in Wisconsin.
    The Witness. Which we are not a part of.

                      EXAMINATION BY MR. BENNETT:

    Question. Who turned over this privilege log, Exhibit 13, Mr. 
Breuer?
    Answer. Well, it is not Bate stamped. Actually, Mr. Lynch brings up 
a good point, there is no EOP Bate stamp number on this.
    Question. Have you seen this privilege log before?
    Answer. I may have. I may have. I may have. We are not asserting a 
privilege of course as to you; you have all of the documents, so, 
again, I don't understand.
    Question. Again, I am trying to direct the matter of the validity 
of the assertion.
    Mr. Lynch. I am just trying to figure out who made the assertions.
    The Witness. First of all, nothing has been asserted.

                      EXAMINATION BY MR. BENNETT:

    Question. These came with the documents, this privilege log came 
with the documents.
    Answer. But no privilege has been asserted. Documents in private 
litigation, to which the White House is not a party, had been withheld 
subject to a privilege. There is a judge who can--as is appropriate, a 
judge can make whatever determinations he wants. Indeed, I believe, the 
matter is being resolved between the Department of Justice in this 
matter and the private litigants in Wisconsin.
    You have every single document. It was important to us that you get 
every document. So I don't understand why, not that it is for me to 
know here, since it is your deposition, but I don't understand what the 
exercise we are going through is. It would be one thing if we were 
saying you can't have these documents. You have them, we have given 
them to you, and that is what I don't understand.
    To the degree you are really concerned about it, I truly believe 
that speaking to the Department of Justice and the Office of Legal 
Counsel, which is representing the interests of the United States, in 
the private litigation, that that is the appropriate parties to address 
this matter with.
    Mr. Lynch. Let me say something at this point, Mr. Bennett. I guess 
I have been a little slow on the uptake here. But it now appears to me 
that privilege has been asserted by the Department of Justice with 
respect to these documents, and this log may reflect the assertions 
made by the Department of Justice.
    Mr. Bennett. Or they may reflect assertions made by the White 
House.
    Mr. Lynch. That has not been established.
    Mr. Bennett. And if the witness can't establish it, I understand 
that. I am asking if he can.
    Mr. Lynch. Well, it is not fair to quiz Mr. Breuer on assertions of 
privilege made by the Department of Justice.
    Mr. Bennett. Well, I am not trying to, is the point. And to the 
extent he has knowledge, I am asking him if he has knowledge, and I am 
not holding him to the fact that he is stating that; I am just asking 
if he has knowledge of that. And maybe to move on to show you my 
concern, so we can get back focused on the matter of compliance and the 
example, Exhibit 18 is a copy, this is what has been turned over to us, 
a copy of a handwritten note. It appears to be a handwritten note from 
the President to Leon Panetta, with ``BC.'' Is that how the President 
signs his notations, ``BC''?
    Answer. Clearly, this substitution is the President.
    Question. Okay.
    Answer. But I identify that because it says ``substitution.''
    Question. I am just showing you the document we have received. I am 
trying to understand the document. And there is an assertion of a 
privilege on this and we are trying to clarify from your record, Mr. 
Lynch, who actually asserted the privilege.
    But let me finish the question. The handwritten note says ``Leon, 
what's the deal on the Wisconsin tribe Indian dispute?'' And then it is 
typed. First of all, what is Mr. Leon Panetta's position at the White 
House, or what was it?
    Answer. He was the chief of staff.
    Question. And he was not an attorney, correct?
    Answer. Mr. Panetta is an attorney.
    Question. But do you know with respect to the President to his 
chief of staff, I am trying to determine if you have any knowledge as 
to who would have made a determination to list that on a privilege log 
with respect to asserting executive privilege on that?
    Answer. Executive privilege has absolutely nothing to do with being 
an attorney.
    Question. I agree.
    Answer. And I think that probably, given the fact that no attorney/
client privilege was--no document was withheld in private litigation on 
the basis of attorney/client suggests that Mr. Panetta wasn't working 
as an attorney.
    Mr. Lynch. I want to clarify. The document, your Exhibit 18, which 
is EOP 069092, to the extent that appears on this privilege log, the 
providence of which we haven't established, it is executive privilege 
only.
    Answer. Right, that is what I said.
    Mr. McLaughlin. Can I make a note. Also--whenever you are ready, 
Mr. Bennett. Mr. Bennett, I also want to note that the log refers to 
documents EOP 069092 to 069097, which means that there are an 
additional 4 pages to this document.
    Mr. Bennett. We will cut right to the core of this. It is getting 
late. It is very simple.

                      EXAMINATION BY MR. BENNETT:

    Question. To your knowledge, did Mr. Nionakis bring these documents 
over? If it is Mr. Nionakis, not you, I won't waste your time.
    Answer. Let me tell you what I understand, and I want to be clear, 
and it is getting late, but I think it has been very cordial 
throughout. Nothing has been withheld from you. We haven't asserted 
privilege with respect to you. We have given you everything. In private 
litigation, no document was withheld from private litigation without 
the concurrence and advice of the Department of Justice and the Office 
of Legal Counsel.
    Question. And who were the persons at the Department of Justice?
    Answer. And I told you, I don't know the names of the persons, but 
we can find out. But that is the appropriate way of dealing with this. 
You have everything. You have everything.
    Question. I guess my question to you is, on this note from the 
President, when is the first time you ever saw this note?
    Answer. I suspect, and I am not sure, at that meeting that I had 
that I described to you before, that I have this vague recollection of 
the four of us meeting.
    Question. And so you yourself don't have any involvement in the 
assertion of any executive privilege with respect to this document?
    Answer. I suspect to a degree we had a discussion in that room 
about documents that might be appropriate for--again, no assertion, 
whether we had a discussion about documents that might be appropriate, 
subject to the consent and review of the Department of Justice, that 
would be the subtotal of my involvement. You can determine that level 
of involvement. I was involved to the degree of being in one such 
meeting so I would have had that level of involvement. But, again, you 
have it all. You have always had it all. That is the purpose.
    Question. We have had it since October 22.
    Answer. Right.
    Question. We have always had it for 9 days.
    Answer. You have always had it for 9 days because probably 10, 11 
or 12 days ago the privilege log in the private litigation was put in. 
That is the process. We have had an ongoing process and nonwaiver 
agreement. The Chairman of this committee signed it, I think the 
Ranking Member.
    Question. I am not disputing that. I am not getting into that. My 
point is the timing with press announcements, is my concern.
    Answer. But I explained the press announcements.
    Question. Why don't we move on.
    Answer. I want to say one other thing about the press getting 
something before you. I, too, I will ask this as a rhetorical question, 
am keenly interested in knowing how the press did get the documents, 
very keenly interested, and I am not suggesting anything untoward here, 
but let me suggest that often documents are provided to the press. We 
take documents that are being withheld for privilege in private 
litigation very seriously. I think those around me knew I was quite 
shocked to find out that these materials were--or some of them were 
provided to the press.
    Question. Let me end with this, then, in terms of trying to stay on 
the question of subpoena compliance and we have three minutes before 
5:00 and we promised we would wind up at 5 o'clock.
    Looking at Exhibit 20, a letter from Robert Bennett, no relation to 
me, to Chairman Burton, on behalf of his client, Harold Ickes. Do you 
see his--I don't presuppose you have seen this before, so I will give 
you an opportunity to look at it.
    You see the second paragraph there says there is some assertion of 
attorney-client privilege, and the privilege is being asserted at the 
direction of counsel for either the White House, Clinton/Gore or the 
Democratic National Committee. Do you see that?
    Answer. I do see that paragraph. I do see it.
    Question. Now with respect to that, do you have any personal 
recollection of assertion of privilege as to this attached document?
    Answer. Assertion of privilege?
    Question. It's attached to the letter as part of the Exhibit 20, is 
an index of documents withheld as privileged from production?
    Answer. And, I'm sorry, just repeat your question.
    Question. My point is, do you recall any discussion of those items 
indexed as privileged, in connection with Mr. Bennett's production for 
Mr. Ickes?
    Answer. I don't remember speaking to Mr. Bennett. He may well have 
spoken to Chuck Ruff directly, I don't know. Mr. Bennett represents 
here that he is withholding documents. I think his language is we are 
one of the entities, he describes the White House, that he would have 
had a discussion with perhaps Mr. Ruff or another, you know, someone 
else in the counsel department.
    Question. If you look, to wind up here on this, then, to show you 
the frustration we have with production and compliance, look at the 
last page of the exhibit, and it is page 2 of the index with Mr. 
Bennett's letter.
    Answer. Okay.
    Question. And items 10 and 11, it refers to a 6/28/95 memorandum 
from Jane Sherburne, Special Counsel to the President, regarding 
summary of Hubbell's sentencing, 3 pages, then item 11 is a 02/06/95, 
February 6, '95, memorandum from Judge Mikva, counsel to the President 
to Mr. Panetta, chief of staff, regarding legal advice concerning 
continued employment of Suzanna Hubbell.
    Answer. Okay.
    Question. At the Department of the Interior. They are items having 
to do with Mr. Hubbell. We haven't seen these on a privilege log. We 
haven't seen them anywhere. Do you have any knowledge of those 
documents?
    Answer. I don't remember them. If they are not on a privilege log--
first of all, let me begin by saying any inquiries you have that you 
want me to get back to you on, I am more than happy to. I want to be 
very open about that. I don't remember--I suspect if they are not on a 
privilege log it is because, you know, we have not found them. Or, 
frankly, I would suspect that is the case. But I am more than happy to 
look into them. Sitting here right now, neither of these memos is 
ringing a bell to me.
    Question. So clearly there has been, according to the information 
provided to the committee, there has been an assertion of a privilege. 
This would have to be an assertion of a privilege by the White House, 
correct?
    Answer. It wouldn't be an assertion of a privilege necessarily.
    Question. Well, we will follow up, then. I am not trying to put you 
on the spot with this.
    Answer. I appreciate that.
    Question. The bottom line is with respect to the privilege issues 
and production of documents after press reports, it seems to be a 
continued pattern of late compliance.
    Answer. Well, I don't agree with that last assertion. Look, it is 
very complicated producing as many materials as we do in so many areas, 
but a lot of political hate can be made on both sides. I think we do a 
pretty good job.
    Question. Let me wind up with this.
    Answer. Well, let me finish.
    Question. Go right ahead.
    Answer. I want to be clear here. I don't know if we have the 
documents in our possession. I don't know if Mr. Ickes is the only one. 
I know Mr. Ickes took a number of documents with him. I simply can't 
provide a heck of a lot more information about it right now.
    Question. We will perhaps follow up with that.
    Answer. I assume you will let me know.
    Question. And consistent with my promise to Mr. McLaughlin, it is 
now 3 minutes after 5:00.
    Mr. McLaughlin. I am going to take just 2 minutes to ask questions.
    Mr. Bennett. Go right ahead. I am finish with my questions and 
Minority counsel will ask you a few.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. I have two questions, Mr. Breuer, and a brief apology. I 
will preface my questions this way: Mr. Lantos has been asking the 
question as to whether this investigation is more like theatre of the 
absurd or more like Alice in Wonderland, and I think that believing 
this recent line of questioning about these privileged matters would 
provide important new evidence to the case would tip the scale. My two 
questions are as follows: Have you or anyone on your staff knowingly 
withheld any responsive nonprivileged documents from this committee?
    Answer. Not to my knowledge, absolutely not.
    Question. Have you attempted to engage in the best good faith 
efforts to secure compliance for this committee's subpoenas at every 
step of the process?
    Answer. I have.
    Question. Let me end with just a brief apology on behalf of the 
Minority members of this committee. I apologize that the word 
``incompetence'' was thrown in front of you in this deposition. It is a 
matter of singular irony that this committee would choose to use the 
word ``incompetence,'' and I would note no one at the White House has 
resigned as counsel to the President on behalf of the unprofessionalism 
of the staff at the White House.
    The word ``noncompliance'' was also thrown out. It is also 
singularly ironic for that to be mentioned in the light of the pattern 
of staff bungling we have seen on the part of this committee.
    Minority experience has been one demonstrating consistent good 
faith efforts on the part of the White House to meet our requests for 
information and the request of the Majority staff for information.
    With that, I thank you for your public service and for your 
appearance today.
    Mr. Bennett. Why don't I follow up.
    Given that I am not one to make speeches, my practice of law has 
been a deposition is a place for questions and answers, Mr. Breuer, not 
political statements, but with respect to an inquiry I made today, the 
last 45 minutes, I believe, maybe 45 minutes with respect to the Hudson 
dog track issue, generally, I think you would agree, we have had a 
productive dialogue today. Would you agree with that.
    The Witness. I think we both entered these discussions with 
cordiality and mutual respect.
    Mr. Bennett. And have I in any way been disrespectful to you in any 
way?
    The Witness. No, and I hope you don't feel I have been either.
    Mr. Bennett. Absolutely not. And I hope you don't believe that I 
have. Do you believe that I have?
    The Witness. No, I do not.
    Mr. Bennett. And do you believe that my conduct in conducting this 
deposition has at all times been professional with respect to my 
treatment of you?
    The Witness. I do. And do you think my answers have been such?
    Mr. Bennett. Absolutely, I think you have been very professional in 
your response. And perhaps you and I can try to raise this conversation 
above the level recently exhibited in the last minute or two.
    Thank you very much, Mr. Breuer. It was nice to see you and good 
luck to you.
    [Whereupon, at 5:05 p.m., the deposition was concluded.]

    [The deposition exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.319
    
    [GRAPHIC] [TIFF OMITTED] T5405.320
    
    [GRAPHIC] [TIFF OMITTED] T5405.321
    
    [GRAPHIC] [TIFF OMITTED] T5405.322
    
    [GRAPHIC] [TIFF OMITTED] T5405.323
    
    [GRAPHIC] [TIFF OMITTED] T5405.324
    
    [GRAPHIC] [TIFF OMITTED] T5405.325
    
    [GRAPHIC] [TIFF OMITTED] T5405.326
    
    [GRAPHIC] [TIFF OMITTED] T5405.327
    
    [GRAPHIC] [TIFF OMITTED] T5405.328
    
    [GRAPHIC] [TIFF OMITTED] T5405.329
    
    [GRAPHIC] [TIFF OMITTED] T5405.330
    
    [GRAPHIC] [TIFF OMITTED] T5405.331
    
    [GRAPHIC] [TIFF OMITTED] T5405.332
    
    [GRAPHIC] [TIFF OMITTED] T5405.333
    
    [GRAPHIC] [TIFF OMITTED] T5405.334
    
    [GRAPHIC] [TIFF OMITTED] T5405.335
    
    [GRAPHIC] [TIFF OMITTED] T5405.336
    
    [GRAPHIC] [TIFF OMITTED] T5405.337
    
    [GRAPHIC] [TIFF OMITTED] T5405.338
    
    [GRAPHIC] [TIFF OMITTED] T5405.339
    
    [GRAPHIC] [TIFF OMITTED] T5405.340
    
    [GRAPHIC] [TIFF OMITTED] T5405.341
    
    [GRAPHIC] [TIFF OMITTED] T5405.342
    
    [GRAPHIC] [TIFF OMITTED] T5405.343
    
    [GRAPHIC] [TIFF OMITTED] T5405.344
    
    [GRAPHIC] [TIFF OMITTED] T5405.345
    
    [GRAPHIC] [TIFF OMITTED] T5405.346
    
    [GRAPHIC] [TIFF OMITTED] T5405.347
    
    [GRAPHIC] [TIFF OMITTED] T5405.348
    
    [GRAPHIC] [TIFF OMITTED] T5405.349
    
    [GRAPHIC] [TIFF OMITTED] T5405.350
    
    [GRAPHIC] [TIFF OMITTED] T5405.351
    
    [GRAPHIC] [TIFF OMITTED] T5405.352
    
    [GRAPHIC] [TIFF OMITTED] T5405.353
    
    [GRAPHIC] [TIFF OMITTED] T5405.354
    
    [GRAPHIC] [TIFF OMITTED] T5405.355
    
    [GRAPHIC] [TIFF OMITTED] T5405.356
    
    [GRAPHIC] [TIFF OMITTED] T5405.357
    
    [GRAPHIC] [TIFF OMITTED] T5405.358
    
    [GRAPHIC] [TIFF OMITTED] T5405.359
    
    [GRAPHIC] [TIFF OMITTED] T5405.360
    
    [GRAPHIC] [TIFF OMITTED] T5405.361
    
    [GRAPHIC] [TIFF OMITTED] T5405.362
    
    [GRAPHIC] [TIFF OMITTED] T5405.363
    
    [GRAPHIC] [TIFF OMITTED] T5405.364
    
    [GRAPHIC] [TIFF OMITTED] T5405.365
    
    [GRAPHIC] [TIFF OMITTED] T5405.366
    
    [GRAPHIC] [TIFF OMITTED] T5405.367
    
    [GRAPHIC] [TIFF OMITTED] T5405.368
    
    [GRAPHIC] [TIFF OMITTED] T5405.369
    
    [GRAPHIC] [TIFF OMITTED] T5405.370
    
    [GRAPHIC] [TIFF OMITTED] T5405.371
    
    [GRAPHIC] [TIFF OMITTED] T5405.372
    
    [GRAPHIC] [TIFF OMITTED] T5405.373
    
    [GRAPHIC] [TIFF OMITTED] T5405.374
    
    [GRAPHIC] [TIFF OMITTED] T5405.375
    
    [GRAPHIC] [TIFF OMITTED] T5405.376
    
    [GRAPHIC] [TIFF OMITTED] T5405.377
    
    [GRAPHIC] [TIFF OMITTED] T5405.378
    
    [GRAPHIC] [TIFF OMITTED] T5405.379
    
    [GRAPHIC] [TIFF OMITTED] T5405.380
    
    [GRAPHIC] [TIFF OMITTED] T5405.381
    
    [GRAPHIC] [TIFF OMITTED] T5405.382
    
    [GRAPHIC] [TIFF OMITTED] T5405.383
    
    [GRAPHIC] [TIFF OMITTED] T5405.384
    
    [The deposition of Jack Quinn follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                       DEPOSITION OF: JACK QUINN
                                  Tuesday, November 4, 1997

    The deposition in the above matter was held in Room 2303, Rayburn 
House Office Building, commencing at 9:37 a.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Barbara Comstock, Chief Investigative Counsel; Elliot Berke, 
Investigative Attorney; and Andrew J. McLaughlin, Minority Counsel.
    Also present: Representative Tierney and Representative Kanjorski.
For MR. QUINN:
    KATHLEEN A. BEHAN, ESQ.
    Arnold & Porter
    555 Twelfth Street, N.W.
    Washington, D.C. 22304-2306

    Ms. Comstock. Good morning. We are on the record this morning for 
the Committee on Government Reform and Oversight. Thank you for 
appearing here today, Mr. Quinn. Mr. Quinn is accompanied here this 
morning by Kitty Behan, his attorney.
    I would like to note for the record those present at the beginning 
of the deposition. My name is Barbara Comstock. I am the designated 
majority counsel for the committee, and I am accompanied today by 
Elliot Berke, who is also with majority staff. The designated counsel 
for the minority this morning is going to be Ken Ballen, who will be 
joining us shortly.
    Mr. McLaughlin. Actually, it is Andrew McLaughlin at this point.
    Ms. Comstock. But I think Ken indicated he wanted to be the 
designated counsel.
    Mr. McLaughlin. I am designated minority counsel. I am sitting here 
to take the deposition.
    Ms. Comstock. Okay. That is going to then be for the whole 
deposition?
    Mr. McLaughlin. We will see when Ken's appointment lets up. I mean, 
Ken wanted me to thank you on the record, Barbara, for accommodating 
his request for the appointment this morning, but seeing as how he is 
not out of there right now, we have to proceed.
    Ms. Comstock. Mr. Ballen asked us to move the deposition back to 
9:30 this morning so he could join us as designated counsel.
    Mr. McLaughlin. He thanks you for graciously accommodating his 
request. Nevertheless, he is not here and I am.
    Ms. Comstock. That's right, and no good deed goes unpunished. Okay. 
We will get started here. We are going to dispense with some of the 
preliminaries, as Mr. Quinn is familiar with those.
    We are joined also this morning by Congressman Tierney from 
Massachusetts. And at this time, Congressman, if you have any 
questions, I will defer to you.
    Mr. Tierney. I appreciate that. Thank you. I am just going to 
observe, but if I have questions on the minority side, I will pipe in.
    Ms. Comstock. Okay, thank you.
    Ms. Behan. If I could just state for the record, I understand the 
scope of the deposition will not repeat questions or lines of inquiry 
that were already fully pursued in the Senate deposition, though you 
may have some follow-up issues you want to pursue.
    Ms. Comstock. Right. As we discussed last night, I was able to 
review the Senate deposition, as was the minority, and so we agreed on 
a number of areas to pretty much entirely not go into them at all. 
There might be a few follow-up areas and some issues that veer off and 
a few of those things, but I think largely, if not entirely, we won't 
repeat any of that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Mr. Quinn, just for the record, could you just tell us 
your time period when you served at the White House and the various 
positions you had?
    Answer. I began my service at the White House on Inauguration Day 
1993, at which point I was the Counsel and Deputy Chief of Staff to 
Vice President Gore, a position I held until sometime later in the 
spring, roughly April or May, when I became Acting Chief of Staff to 
the Vice President. I became Chief of Staff to the Vice President at 
the end of June or early July of 1993, and I served in that position 
until October or November, 1995, at which point I became Counsel to the 
President.
    Court Reporter. Ms. Comstock, would you like him sworn in?
    Ms. Comstock. Oh, yes, I'm sorry.

    THEREUPON, JACK QUINN, a witness, was called for examination by 
   Counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

    The Witness. Including with respect to everything I just said.
    Ms. Comstock. We will trust you on that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And you served as Counsel until when?
    Answer. I served as Counsel until about the 14th or 15th of 
February, 1997.
    Question. Okay. And when you served as Counsel, who was your deputy 
or were your deputies?
    Answer. Kathleen Wallman, W-A-L-L-M-A-N, and Bruce Lindsey, L-I-N-
D-S-E-Y, were my two deputies.
    Question. Okay. And Jane Sherburne, who served as Special Counsel, 
did she also report to you?
    Answer. That is not as simple a question as you might think. She 
did for a time. There came a time when she believed she didn't, and 
when she reported instead to Mr. Ickes.
    Question. Okay. Can you describe generally when that time frame 
was?
    Answer. Sometime during 1996. She had always had a, I suppose a 
split reporting relationship, by which I mean she reported to both me 
and Mr. Ickes, and during the course of the year that evolved on her 
side as a reporting relationship solely to Mr. Ickes.
    Question. Okay. And was that something you were aware of at the 
time?
    Answer. Well, I was aware that--yes, I was aware of that.
    Question. And so can you be more specific in terms of the time 
frame when Ms. Sherburne stopped reporting to you and began reporting 
to Mr. Ickes?
    Answer. It wasn't something that happened by agreement. It happened 
over the course of a period of months, and I would say, oh, by the end 
of the summer of 1996 she was reporting only to Mr. Ickes.
    Question. Okay. And was that on the investigative matters that she 
worked on, she was only reporting to Mr. Ickes?
    Answer. Correct.
    Question. Okay. And those were largely pretty much 230 percent her 
duties at that time?
    Answer. Well, by ``the investigative matters'' you mean Whitewater 
and what else?
    Question. The other investigative matters that she handled. I mean, 
she was brought into the counsel's office to handle various 
investigations, Independent Counsels and that type of thing?
    Answer. She was brought in to handle certain matters, right.
    Question. And on those matters, by the end of sometime in the 
summer, she reported exclusively to Mr. Ickes?
    Answer. That is correct.
    Question. Okay.
    Answer. As a practical matter.
    Question. Okay.
    Answer. And so we are clear on this, that was not an arrangement to 
which I assented.
    Question. Okay. So in the course of that time frame when she 
transitioned into only reporting to Mr. Ickes, were you then not as 
involved in getting information on investigative matters then, or did 
you have another source?
    Answer. It was never easy to get information.
    Question. And why is that?
    Answer. Well, I don't think the reporting relationship was as 
smooth and comfortable as it might have been and as one would hope it 
would have been, at any point.
    Question. Okay. But was there somebody else, then, in the office, 
that then reported to you so you were kept apprised of these various 
matters as Counsel to the President?
    Answer. There were a number of people in the office who worked on 
those matters, and I don't mean to suggest Jane would not be responsive 
when I sought out information. When I sought it out, she would be 
responsive, and there were others in the office who were involved in 
those matters. Jane attended our regular Counsel's Office staff 
meetings and from time to time reported information.
    Question. All right. Could you tell us the process that you 
followed in terms of document production and subpoena response while 
you were counsel in the office?
    Answer. Well, to generalize, the process we followed was to receive 
a request for information, be it in the form of a letter request or a 
subpoena, analyze it, study it, do our best to interpret it fairly, 
cover it with an explanatory note and a strong admonition to the White 
House staff to promptly search for any responsive materials, get them 
back to a person in the Counsel's Office who might be handling that 
particular matter, gather the information, find out what we had and, 
you know, respond. I don't think I can generalize more than that.
    Question. When requests came in, or subpoenas, did they go directly 
to you initially and then you assigned them out to somebody?
    Answer. I can't say they all went directly to me. I think that 
there were occasions on the Hill when people, including yourself, dealt 
with others on the staff, for example, Jane, and transmitted requests 
directly to her. There well may have been others who received requests 
directly. I would be informed of those, in the ordinary course, so I 
believe I was aware--I don't believe there was any request of which I 
was unaware, and typically, though not in every instance, the directive 
to the staff would come from me.
    Mr. McLaughlin. Can I ask a relevance question, Barbara? Are we 
looking into subpoena compliance prior to this investigation? Are you 
looking at subpoena compliance with respect to other investigations? 
Are you looking at whether or not Counsel's Office complied with old 
subpoenas from the last Congress?
    Ms. Comstock. No. Mr. Quinn was there during the transition time 
and that is what we are going to focus on, but I am getting some 
background going into that time frame.

                      EXAMINATION BY MS. COMSTOCK:

    Question. When you said that you would review the subpoenas and 
examine what type of information was requested, was one of the things 
you did to sit down with a group of people and try to figure out the 
body or universe of responsive documents and how one would go about 
searching for it?
    Ms. Behan. That he might have done?
    The Witness. Let me just try to provide some context, and this does 
predate the investigation that is the subject of your inquiry, 
obviously. In the time I was counsel we had an enormous number of 
requests. We had relatively few resources with which to deal with those 
requests.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. When you were counsel, how many people did you have 
working on these investigative matters, sort of Jane's team of people?
    Answer. Oh, somewhere between 4 and 6, I would say. But there were 
other matters, as you know, that were the subject of document requests. 
Indeed, a directive went out to the committees from the leadership to 
investigate, seek documents, you are aware of that, and we were subject 
to--I don't know the number, but an enormous number of requests for 
information, and I can't easily generalize the process across all of 
those different requests.
    We had lawyers who worked for the National Security Counsel 
handling a number of inquiries. We had lawyers who were trying to 
handle a particularly urgent set of requests from one of the 
subcommittees here. We had requests from the Independent Counsel, we 
had requests from the Senate, we had requests from your committee, and 
we had relatively few resources with which to deal with them. People 
were greatly burdened, but I think we did a terrific job of responding 
to these requests.
    Question. Okay. When you would send out directives for requests, 
would you often attach the actual request that had come from a 
congressional committee?
    Answer. I believe almost always.
    Question. Okay. And so that was generally your practice when you 
were at the White House?
    Answer. Yes, I think so. I think we would either attach it or 
literally parrot it. I don't think we would summarize it or condense 
it; I think it was typically the case. Again, there were so many of 
these requests, I don't want to be heard to be saying that there might 
not have been exceptions to this, but I think typically we would do so.
    Question. Okay. And actually, we will look at some of the ones you 
did, and that was in fact my impression of it. And why did you do it 
that way, to sort of parrot what was requested?
    Answer. So that we would be true to the request, so that we would 
not get caught in a situation in which one might argue that we were 
asking for less than had been requested of us.
    Question. And when requests were sent around, now, when we are 
dealing with most of these investigative matters, that was largely the 
responsibility of Ms. Sherburne at the time you were counsel. Would 
that be correct?
    Ms. Behan. I am confused here, because we talked about a lot of 
different document requests coming in, and I want to make sure the 
record is clear when you talk about ``Jane's team'' and the like that 
we are clear on what Jane's duties were.
    The Witness. With respect to the subject matter this committee is 
now investigating, Jane did not have much of a responsibility.

                      EXAMINATION BY MS. COMSTOCK:

    Question. No, I understand that, and we will get to that. I am more 
or less trying to get a sense of what your knowledge may have been at 
the time of the practices, and I understand that the dynamics there 
were somewhat strange.
    Answer. She was responsible for some of the investigative matters, 
but not all.
    Question. Did there come a time when you were counsel where Ms. 
Sherburne stopped handling these matters?
    Ms. Behan. Which matters?
    Mr. McLaughlin. Which matters?

                      EXAMINATION BY MS. COMSTOCK:

    Question. The investigative matters.
    Answer. There came a time she transitioned out of the White House 
and left.
    Question. At or around October of 1996, did you task--some fund-
raising, campaign fund-raising issues arose--did you task somebody else 
to respond to those issues?
    Ms. Behan. Again, ``those issues,'' you mean the issues relating to 
this committee?
    Ms. Comstock. Yes.
    The Witness. I would answer you this way. Jane never had an 
assignment from me in this area. She undertook her own set of 
activities, either on her own initiative or at the request of Mr. 
Ickes, I don't know which, but I assigned Cheryl Mills to handle these 
matters on a transitional basis. I assured her that we would be getting 
the resources to hire additional people, to staff up, because I was 
trying very hard to get those resources.
    I wanted those matters handled in the meantime by somebody I could 
trust to do a thorough and complete and highly competent job. That was 
she, and in the meanwhile I undertook to get the authorization to hire 
people to respond--to deal with the matters that we knew would be 
coming up.

                      EXAMINATION BY MS. COMSTOCK:

    Question. So in the October of '96 time frame--and I believe the 
first stories about campaign finance problems relating to the DNC arose 
sometime in sort of late September, early October, you know, throughout 
the month of October--is it your testimony then that Ms. Sherburne was 
handling those in her--and at that point in her capacity reporting to 
Mr. Ickes, and that you were not aware of what she was doing?
    Answer. That is right. Whatever she was doing in that time period 
on the issues, she was doing with Mr. Ickes, not me.
    Question. Did you come to learn at some point what, exactly what 
she was doing during that time frame?
    Answer. No.
    Question. And when did you learn that she had been doing something 
on those matters, if you did?
    Ms. Behan. Objection, I don't think he knows.
    The Witness. Yes, I don't know, and it wasn't terribly important to 
me then. I assigned Cheryl to handle these matters until we could get 
permanent people on board to handle them.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And do you recall when you assigned Ms. Mills to that 
task?
    Answer. No. You know, there was a flurry of activity, as you say, 
in September and October, and we were trying to keep a lot of balls in 
the air, moving, trying to respond to these requests as best we could 
in that time period, and that included requests involving matters 
related to this fund-raising stuff, and I believe Cheryl was working on 
that at that time.
    Question. Okay. Now at that time, in October of '96, had Jane 
already decided she was going to be leaving? Is that why you tasked 
Cheryl Mills?
    Answer. Yes, it was my clear understanding she would be leaving.
    Question. And at that point, had you already planned on leaving at 
that point also, in October of '96?
    Answer. I was pretty much sure I would be leaving. I didn't know 
exactly when.
    Question. So I am just trying to get a sense of when you selected 
Ms. Mills to do that, was that because you thought both Ms. Sherburne 
wouldn't be there and you wouldn't be there, so you are selecting 
someone with historical or kind of long-term knowledge on these 
matters?
    Answer. There are a couple reasons. Number one, most importantly, 
she is a person of enormous ability and high integrity. Number two, she 
is somebody who did most of the counseling of people in the White House 
on matters involving the line between official and political 
activities. She was most familiar with the law in this area, so she was 
clearly the person best suited to handle these matters. I really had to 
persuade her to do this, and I had to assure her that this was only a 
temporary assignment, that we would be getting someone else to come in 
and take it on an ongoing basis.
    Question. Okay. And what did you ask Ms. Mills to do?
    Ms. Behan. With regard to what?

                      EXAMINATION BY MS. COMSTOCK:

    Question. With regard to when she took on these duties.
    Answer. Basically to oversee these matters.
    Question. When did you first learn about any campaign fund-raising 
problems related to John Huang?
    Ms. Behan. I object to the form of the question because I don't 
know he knows of any campaign fund-raising problems related to him.

                      EXAMINATION BY MS. COMSTOCK:

    Question. When did you learn of issues related to the campaign 
fund-raising of John Huang?
    Answer. Honestly, I can't pinpoint the date for you.
    Question. Was it spring '96, or summer or fall? Can you split it 
down?
    Answer. Whenever it became a matter of public knowledge in the 
press.
    Question. So prior to the public stories, nobody from the DNC, or 
some outside person hadn't called you up to say keep a look at this 
guy?
    Answer. I do not believe so. I don't believe I had any advance 
knowledge there was an emerging problem in this area.
    Question. All right. Do you recall if anybody from the DNC ever 
talked to you about John Huang prior to the news stories about issues 
related to his fund-raising?
    Answer. I certainly don't recall any such conversation.
    Question. When did you first meet John Huang?
    Answer. I don't know exactly when. It would have been during the 
time I was Counsel to the President, and he certainly--I was acquainted 
with him. I know I had seen him at DNC-related events, and I was 
reminded recently, or I am reminded that he apparently came by to visit 
me on at least one occasion, I saw him at a subsequent meeting in Los 
Angeles. You know, I have seen him on a number of occasions. When all 
of these matters did become public and I saw his picture in the 
newspaper, I recognized him as, ``Yes, I have seen that guy around. I 
know that guy.''
    Question. Did you do any work or campaign fund-raising in the '92 
campaign?
    Answer. Any work? I did not do fund-raising in the 1992 campaign or 
the 1996 campaign. I did help the Vice President after then Governor 
Clinton asked him to be on the ticket. I helped then Senator Gore out 
during the course of the campaign, in particular by assisting him in 
preparing for his debate.
    Mr. Tierney. Can I ask a clarification? Are we limited to matters 
pertaining to more recent periods, or are we going back to '92?
    Ms. Comstock. We have been covering '92 as well as '96. With this 
witness I do not intend to go back into much of '92.

                      EXAMINATION BY MS. COMSTOCK:

    Question. One of the things I wanted to ask is, because Mr. Huang 
was involved in fund-raising in '92, to see if you knew him then.
    Answer. I don't believe I did.
    Ms. Behan. I want to clarify for the record, you said you first met 
John Huang when you were Counsel to the President.
    The Witness. No, it would have been when I was in the Vice 
President's office.
    Ms. Behan. You said you recently learned that, you know, there was 
this letter from John Huang when he made a stop by, and that was in the 
Vice President's office.
    The Witness. I think I first met him while I was in the Gore 
office.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. And I think the letter you refer to, why don't we 
just take a look at it. This is a letter from Mr. Huang, and I will 
make this Deposition Exhibit No. 1.
    [Quinn Deposition Exhibit No. 1 was marked for identification.]

    [Note.--All exhibits referred to may be found at end of 
deposition on p. 805.]

    The Witness. Right.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. Is this the letter you are referring to that helped 
you recall, or actually did you recall that you had met with him prior 
to?
    Answer. I did not.
    Question. Okay.
    Answer. Let me be clear. He refers in this letter to seeing me--to 
stopping by the office, and he refers to a meeting on Monday, September 
27, in Los Angeles. I have a very clear memory of the September 27 
meeting in Los Angeles. I don't recall his stopping by and visiting, 
though it certainly appears that he did so.
    Mr. McLaughlin. Barbara, just for process, can you show the witness 
the one that is going to go in the record?
    Ms. Comstock. And it is an October 7, 1993 letter from Mr. Quinn to 
John Huang, EOP 49490.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Could you tell us what you recall about the September 27 
event, or if you have already told us everything you recall.
    Answer. One reason I remember it is because it was in a conference 
room in these law offices, it was standing room only, it felt like it 
was about 105 degrees, and I remember getting up, and I remember 
sitting by the door and like leaving on about three occasions because 
it was, you know, close and warm and uncomfortable in the room. It was 
pretty crowded.
    Question. Was that a fund-raising event?
    Answer. It was not. It was, as I recall it, it was with 30 or 40 
Asian American individuals, and it was sort of outreach to the Asian 
American population in California, leaders of that community in 
California.
    Question. And the Vice President was making remarks at that event?
    Answer. Yes, it was sort of--yes. It was sort of a, you know, he 
came in, he sat down, he sort of talked about what was going on in 
Washington, what the administration was doing, what it was pursuing, 
and then kind of took questions, went around the room and answered 
people's questions.
    Question. Do you recall if he made any remarks about Mr. Huang or 
his friendship with Mr. Huang or anything like that at that event?
    Answer. I do not, and that is not the sort of thing that would--you 
know, that I would try to remember.
    Question. Do you recall if anyone in the office had prepared 
remarks for the Vice President that were geared toward Mr. Huang in 
particular?
    Answer. I don't know the answer to that. You know, he would 
typically have in his briefing book a memo on the event which would 
identify the individuals in attendance. He has always been rather 
fastidious about being sure that he thanked all of the people who 
should be thanked, and is usually very unhappy if there is somebody he 
should thank and that individual is not identified by the staff. If 
anything, he over thanks. And so, you know, he might or might not have 
thanked Huang or any other individual.
    Question. To your knowledge, did the Vice President know Mr. Huang 
before this time period, September of '93, or thereabouts?
    Answer. I have the impression he did, but I don't have firsthand 
knowledge of that.
    Question. Do you recall ever talking to the Vice President about 
Mr. Huang?
    Answer. I do not.
    Question. At any time?
    Answer. At any time.
    Question. So we have discussed--is all you recall in the September 
27 meeting or whatever, assuming this date is correct, an event in Los 
Angeles at or around that time in 1993, but you do not recall the 
September 24th meeting in your office?
    Answer. I do not, and I don't believe that this was on my schedule, 
this meeting. And I want to emphasize here, I am reconstructing, and 
surmising and speculating.
    Question. Have you had an opportunity to review your schedules, in 
light of this issue becoming public, I guess it was this summer at some 
point?
    Answer. When I first heard about this, I looked back at my 
schedule, and I think my schedules are in the White House, and I asked 
somebody to look and see if I had a meeting with these people on this 
day and I apparently did not.
    Question. Okay.
    Answer. In reconstructing, my surmise or speculation is that they 
dropped by. You know, I would imagine that this was a brief drop by, 
and it well may have been because we were going to Los Angeles to meet 
with this group of Asian Americans, and it may be that somebody on the 
staff brought them by. But better than that, I can't do for you.
    Mr. McLaughlin. Can I pitch in for a second? The letter says, 
``Thank you for taking time out of your busy schedule to receive myself 
at your office.'' That is a little different from meeting; is that 
right? It says thank you for receiving us. You just greeted them in 
your office?
    The Witness. I believe that is probably what happened, but----
    Ms. Behan. But he doesn't want to speculate.
    The Witness. That is in the nature of speculation.
    Mr. McLaughlin. I just don't want the record to reflect that 
somehow a substantive meeting took place. The letter suggests to the 
contrary.
    Ms. Comstock. And the letter will be an exhibit.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall, I guess this Chairman Shen Jueren, do you 
have any recollection of him?
    Answer. No, and I don't believe----
    Question. I may be butchering this pronunciation.
    Answer. And I have no idea how to pronounce this gentleman's name. 
I don't recall having met with him on this occasion, and to the best of 
my knowledge, I never had anything to do with the guy after this.
    Question. Okay. And the assistant that is named here, Ms. Liang of 
China Resources Group, any recollection of her?
    Answer. No.
    Question. Do you know if you ever met with--I assume you do not 
recall meeting with this gentleman at any other time, Shen Jueren?
    Answer. I certainly do not.
    Question. Do you recall receiving this letter?
    Answer. No, I do not.
    Question. And the handwriting on the bottom of it, which I believe 
is John Huang's handwriting, just from a lot of the other documents we 
have gotten, and certainly in the context of the letter it appears to 
be his handwriting, can you make that out from anything?
    Answer. It appears to say, ``Let me know if you decide to go to 
Asia next.'' Again in the nature of speculation, I think that is 
probably a reference to a Vice Presidential trip, and it well may be 
that there was contemplation among the National Security people or 
others on our staff that one of the trips in the next year might be to 
Asia. I have a high degree of certainty he wasn't talking about my 
going to Asia, since in the whole time I was in the White House, I 
didn't go anywhere that one of the principals didn't go.
    Question. And were you aware of any trips that the Vice President 
had taken with John Huang to Asia, or have any knowledge of that prior 
to this time, prior to 1993?
    Answer. Was I aware of trips he had taken? I don't believe I was.
    Question. When issues relating to John Huang came up, you had to 
move back to 1996, about his fund-raising, at that time you said you 
saw his picture and, you know, recognized that you had seen him. Were 
you aware he was involved in fund-raising for the DNC?
    Answer. I think I was. You know, one of the difficulties is that so 
much has come out, I am trying my best to remember what I knew at the 
time, because we all learned a lot subsequently. It is my impression, 
and you can correct me if I am wrong, that when this became the subject 
of news stories he was working at the DNC as a fund-raiser.
    Question. Yes?
    Answer. So that that would have been apparent, at least at that 
time. So is your question did I know then or did I know prior to that?
    Question. Did you know at that time, or did somebody come and tell 
you and say, ``That is John Huang, our vice chairman of fund-raising,'' 
or that is the person that asked the President if he could go over to 
the DNC?
    Mr. McLaughlin. Do you mean other than from news accounts, did he 
have an independent source of knowledge prior?
    Ms. Comstock. Why don't I let the witness answer.
    The Witness. I am not exactly sure what you want me to answer.
                      
EXAMINATION BY MS. COMSTOCK:
    Question. At the time, as the news stories came out, what was the 
discussion sort of among staff, and in trying to find out what he was 
doing, you know, any conversations that you recall with staff at that 
time?
    Answer. Honestly, I can't recall staff conversations at the time. I 
mean, I would have to go back and look at these press accounts and try 
to reconstruct it. I don't even remember what the initial press stories 
were precisely about.
    Question. Okay. Well, they assist you in some way, the initial 
stories about a contribution of a quarter of $1 million that was 
returned that had been raised by Mr. Huang?
    Answer. Okay.
    Question. Do you recall anyone ever coming to the White House--or 
anyone discussing that issue with you?
    Answer. No. I do not.
    Question. Okay. And then subsequently there were the Wiriadinatas?
    Answer. Right.
    Question. The gardener or landscape architect, whatever your 
preference is, where he had contributed $450,230 under Mr. Huang, who 
was the solicitor?
    Answer. I learned about that from press accounts. Let me see if 
this helps you. No one, either inside the White House or at the DNC, 
came to me, I don't believe, in advance of these stories and said there 
are questionable contributions that have been raised, or there are 
problem contributions or contributions that have to be returned.
    I don't believe the Counsel's Office was involved in any of the 
legal issues around those contributions when these stories broke or 
before these stories broke. I believe I am correct. I am correct at 
least insofar as my own involvement is concerned. I am not aware--I 
can't say that no one in the office was put on notice that there were 
contribution issues at the DNC, but I am sure not aware of our office 
having been put on notice about that.
    Question. Okay. Now you have been put on notice about Charlie Trie 
and the contributions he raised for the President's Legal Expense 
Trust, correct?
    Answer. Correct.
    Question. I know you have testified to that in Senate depositions, 
so I do not want to belabor that or go into that too extensively, but 
in the context of this sort of October time frame and sort of 
potentially problematic fund-raising, did Charlie Trie's name ever come 
up again, knowing what you knew about him in relation to the trust?
    Ms. Behan. I'm sorry, outside of what did Charlie Trie's name come 
to his attention?

                      EXAMINATION BY MS. COMSTOCK:

    Question. Why don't we briefly get on the record, you were aware 
that Mr. Trie in the spring of 1996, March of 1996, had brought a large 
number of donations, individually, $1,230, sequential checks, and a 
number of other donations to the Legal Expense Trust?
    Answer. Right.
    Question. And that had been brought to your attention, apparently, 
on May 9, 1996 by Mr. Cardozo?
    Answer. Correct.
    Question. Prior to that time you did not know anything about Mr. 
Trie?
    Answer. I don't believe I had ever seen the name.
    Question. And you had not met him prior to that?
    Answer. I don't believe so, and----
    Question. And I understand he may have shown up at an event, and 
you are at a lot of events, and I am not holding you to that.
    Answer. I don't believe I have met him, and by contrast, when I saw 
his picture, I didn't think I recognized him. I became aware of him, as 
you indicate, when Michael Cardozo came to our offices and reported 
about this effort on Mr. Trie's part to make this large number of 
donations to the Legal Expense Trust, and that was the first, I 
believe, I had heard of them.
    Question. Were you aware he was a presidential appointee at that 
time?
    Answer. I did not know that at that time.
    Question. Did you tell the president anything about what Mr. 
Cardozo told you about Mr. Trie?
    Answer. I don't believe so. And I do not want to get into 
conversations I may have had with the President, but I am on the record 
already, so I don't believe I did.
    Question. Okay. And when you received that information about Mr. 
Trie, what was your understanding of the purpose of your being informed 
of that information?
    Ms. Behan. Are you talking about from Mr. Cardozo?

                      EXAMINATION BY MS. COMSTOCK:

    Question. I mean, Mr. Cardozo was executive director for the trust, 
so why did he go to you rather than the President and the First Lady 
and tell them, ``We have these donations we think we are going to have 
to investigate and possibly return.''
    Ms. Behan. I don't think there is any foundation for that at all. I 
don't think Jack has put in any testimony about where Mr. Cardozo went 
to.
    And I also, Jack, suggest you not speculate about what other 
people's purpose was in coming to you. And I also want to reiterate, 
there is a privilege here to be protected, and I assume you are not 
trying to get into any scope of the privilege of his conversations.
    Ms. Comstock. I think it is public record that the President was 
well aware of Mr. Trie's fund-raising.
    Mr. McLaughlin. I don't think that is public record, Barbara.
    Ms. Comstock. I think it very well is, and after seeing all the 
videotapes we know----
    Mr. Tierney. I don't think it makes a lot of sense for counsel to 
be putting their observations or conclusions on the record. You might 
want to ask the question. I don't mean to be critical, but I can see 
this going back and forth and having a lot of testimony from lawyers, 
and I am not sure that moves us along here.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I would like to explain, the reason I would like to 
discuss this is because I think, whether or not anyone agrees, that the 
President had knowledge of Charlie Trie being a fund-raiser. I think 
the record, the Congressman is correct, the record can speak for 
itself, and I will let it do so.
    But I would ask, you know, and I think you have already indicated, 
but I would ask you if you do recall if you told the President or First 
Lady about Mr. Trie's activities with the trust, the money he had given 
to the trust?
    Mr. McLaughlin. We have been joined by Mr. Kanjorski from the 
minority side.
    Ms. Comstock. At any point you may have questions, please let me 
know and interrupt, and we will cease.
    The Witness. What is your question?

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. My question is, I think we have already established 
you did not talk with the President about the information that Mr. 
Cardozo shared with you about Mr. Trie's donations, correct, or you 
don't believe you did?
    Answer. I don't believe I did.
    Question. Okay. Now did there come a time you became aware that Mr. 
Cardozo had informed the First Lady and Harold Ickes about Mr. Trie's 
contributions?
    Answer. I understand that to be the case.
    Question. When I say Mr. Trie's contributions, I understand they 
aren't his, but I am generically referring to the money, he brought it 
in the bag, and if we can shorthand that because I am trying to make it 
as brief as possible----
    Mr. McLaughlin. This was all covered in the Senate deposition. I 
don't see that it is productive for us to go into this.
    The Witness. I have heard that that happened.

                      EXAMINATION BY MS. COMSTOCK:

    Question. But at that time you did not know Mr. Cardozo had 
informed Mr. Ickes and the First Lady about Mr. Trie's donations he had 
provided to the trust?
    Answer. I am not sure when I became aware of that, but I don't 
believe I knew it on May 9.
    Question. Okay. And following----
    Answer. I can't be sure about that.
    Question [continuing]. Following the May 9 meeting, did you share 
the information you learned from Mr. Cardozo with anybody else at the 
White House?
    Ms. Behan. If you don't recall, you don't recall.
    The Witness. I am trying to remember if I recall. I don't recall.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall ever discussing anything related to Mr. 
Trie with Harold Ickes?
    Ms. Behan. Other than what has been discussed in the Senate 
deposition?
    Ms. Comstock. Right, and I understand Mr. Ickes----
    Ms. Behan. And what he's said about the Legal Expense Trust?
    Ms. Comstock.--Mr. Ickes was in the May 9 meeting.

                      EXAMINATION BY MS. COMSTOCK:

    Question. But did you ever have any discussions with Mr. Ickes, 
other than he was sitting in the room at the same time Mr. Cardozo 
relayed this information?
    Answer. Look, I can't say that at no time after that meeting we 
passed words about the situation, but I don't recall any specific 
conversation I might have had with him about the Trie donations.
    Question. Okay. And do you know if you discussed with anybody ever 
whether or not Mr. Trie was involved in DNC fund-raising?
    Answer. I am virtually certain I never had any such discussion with 
anyone.
    Question. All right. Now there came a time in December of 1996 
where it became public about Mr. Trie's donations. At that time, did 
you learn he had been involved in DNC fund-raising?
    Answer. I don't recall when I learned it, but it was, as you say, 
much later, much, much later.
    Question. So in the October time frame, October, 1996, Mr. Ickes 
has indicated that he told Ms. Thornberry at the DNC or made references 
to Charlie Trie. Did he ever mention anything like that to you in that 
time frame of October of 1996?
    Ms. Behan. Objection on foundation grounds.
    The Witness. I don't believe he did at that time. Again, I wish I 
could recall every snippet of every conversation I had in 4 years at 
the White House. There was a lot going on. This was one of a great many 
things going on. Looking back now, I don't recall Harold having told me 
that. But I have to be very careful about this because I can't sit here 
and swear that he didn't say any such thing. I don't believe he did, 
but that is the best I can do.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. Do you have any knowledge of him informing Ms. 
Sherburne about Mr. Trie's fund-raising?
    Answer. I do not.
    Question. And if we could return then to some of the--when the 
information about Mr. Huang's fund-raising first became public, there 
were requests from this and, I know, other committees about information 
relating to Mr. Huang. We will make this Deposition Exhibit No. 2. 
These are two requests from the same day: A letter to the President of 
October 31, 1996, from Chairman Clinger, the previous chairman of the 
committee; and an October 31, 1996 request to Terry Good of the Office 
of Records Management, requesting Mr. Huang's WAVE records.
    Do you recall dealing with either of these matters?
    Answer. Not specifically. Eventually, this letter addressed to the 
President would have found its way to my desk; almost always, I will 
tell you, with a good deal of delay, because for future reference, when 
you send a letter addressed to the President like this, it goes through 
the Legislative Affairs Office and it may sit there anywhere from a few 
hours to a few weeks.
    Question. So we should simultaneously fax to the Counsel's Office?
    Answer. You bet.
    Question. I think we learned that somewhere along the line.
    Do you recall if you tasked Ms. Mills in gathering John Huang's 
WAVE records or any records relating to John Huang in October of 1996?
    Answer. I don't specifically recall, but--well, that is my answer. 
I don't specifically recall whom I would have assigned this to in the 
office. There was a likelihood it would have been Ms. Mills.
    Question. Okay. And I know you have indicated sort of in the 
October time frame you weren't really--would it be fair to say you 
really weren't aware of what Ms. Sherburne was doing at that time on 
anything?
    Answer. That would be fair.
    Question. Okay. Now in fact, we have received testimony that Ms. 
Sherburne was sort of handling these issues or at least gathering 
documents relating to the issues. Did there come a time you learned she 
had sort of gathered some files, and did you ever ask her to pass them 
on to Ms. Mills or anything like that?
    Answer. There came a time I know she passed materials on to Ms. 
Mills, as she was transitioning out. I can't pinpoint the date, but I 
am aware of that.
    Ms. Comstock. Okay. And then why don't we go ahead and mark these 
two as Deposition Exhibits 2 and 3.
    [Quinn Deposition Exhibit No. 2 was marked for identification.]
    [Quinn Deposition Exhibit No. 3 was marked for identification.]
    Ms. Comstock. And this is another letter, a November 1st letter.
    Mr. McLaughlin. Do you have another copy, Barbara?
    Ms. Comstock. I will make this Deposition Exhibit No. 4.
    [Quinn Deposition Exhibit No. 4 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall receiving this letter?
    Answer. Vaguely, yes.
    Question. And do you recall Kathleen Wallman being involved in 
anything relating to Mr. Huang's WAVE records?
    Answer. No, but she was my deputy so she was involved in many of 
the things I was involved in.
    Mr. McLaughlin. I wanted to ask something. I understood you to say 
you were asking questions on background as to the transition to the 
current White House team. Are you looking at compliance with document 
requests issued by the last Congress to this White House counsel or are 
you actually trying to get at subpoena compliance? I mean, I just think 
it is a matter of public record.
    As you said before, the first subpoena issued by this committee was 
issued on March 4th. Mr. Quinn had left at least 2 weeks prior to that, 
and so background is one thing. Digging into back and forth exchanges 
back in October and November may be interesting political history but I 
don't think it sheds any light on subpoena compliance.
    Ms. Comstock. This all leads to the gathering of a body of 
information that was residing in the White House in January and early 
February at the time when Mr. Quinn left, and that's what we are trying 
to establish here, is to go through that as we did with other 
witnesses.
    Ms. Behan. I will just second the objection for the record. It 
sounds that--it appears to be beyond the scope. I will permit you to 
answer.
    The Witness. What is the question about this?
    Ms. Behan. On background.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I was wondering if you recall taking any action in terms 
of gathering documents related to Mr. Huang in response to this letter?
    Answer. Well, let me say this: It was my job, as counsel, to make 
sure that we were responsive to the request of the Congress for 
information on all of the legitimate matters Congress had an interest 
in for purposes of legislating and conducting oversight. We dealt with 
this, as we did with all other requests, by attempting to gather the 
information carefully, deliberately, thoroughly and responding to it in 
due course.
    There was, as you have pointed out by showing me these letters, a 
particular sense of urgency on the part of your committee, at the end 
of October of 1996, to getting this information. That sense of urgency 
no doubt had to do with the impending elections, and I know that it 
might--it might have created on the part of some up here some sense of 
eagerness to get whatever information it could.
    It was our job to collect all of the information you wanted and get 
it to you as promptly as we could, but as completely and thoroughly as 
we could, without reference to the fact that the election was coming 
up.
    Mr. Tierney. Mr. Quinn, can I interject for a second. Did you 
receive more than one request from more than one committee?
    The Witness. Yes. We had a good many requests on this and other 
topics.
    Mr. Tierney. Are you aware of any directive that the Republican 
leadership sent to its various committees instructing them or 
suggesting to them that they send off a number of requests to the White 
House all at once?
    The Witness. I am aware that the House leadership instructed its 
committees to investigate to a fare-thee-well to ferret out all 
information it could get on whatever could be found that might be 
helpful for political purposes. And I think that that instruction was a 
significant reason why we had a large volume of requests from the 
Congress, why we were never really able to negotiate reasonable scope 
on those requests and, you know, why it was just so difficult to do 
this under the artificial deadlines that were imposed on us.
    You look at the letters that have just been entered in as exhibits 
and see the deadlines that were imposed. They had--they all had 
reference to them--I mean, they were in a matter of days. They wanted 
them by noon on a certain day. It was never noon the day after the 
election. It was noon in advance of the election.
    Mr. Kanjorski. Do you think there may have been some relationship 
to that?
    Ms. Comstock. Or perhaps any relationship with them not being 
produced in time?
    The Witness. I think not. I think there was no relationship to 
their not being produced. And, look, I confess to you that this was a 
source of some frustration because we had, relatively speaking, a small 
staff; certainly a fraction of the staff that this committee and the 
Senate committee have employed to investigate these matters.
    It was always a source of frustration that none of the Members of 
Congress who wanted this information, and I say this to you with all 
respect, went down on to the floor of the House and said, let's 
appropriate more money to give these people the resources they need to 
answer our questions. All of the appropriations were for more staff to 
ask the questions. There has never been an appropriation for staff to 
answer the questions.
    Mr. Tierney. Other than this committee, the Government Reform and 
Oversight, can you think off the top of your head of some of the other 
committees that were making requests for documents at that same time?
    The Witness. Well, Mr. Solomon was making requests on a weekly, if 
not more frequent, basis, again with a great sense of urgency. There 
were requests, I believe, from the Foreign Affairs Committee. I can't 
identify all of them but there were a good many requests at the time. 
Mr. McIntosh had sort of a rolling set of requests.
    Mr. Tierney. Were they duplicative in any way?
    The Witness. They were overlapping, no doubt about it. And at this 
time there was a good deal of uncertainty, at least on our part, where 
the authority to investigate these matters would ultimately rest in the 
House of Representatives.
    There was, as you may recall, public discussion about the 
possibility of the Speaker putting together a special committee or a 
select committee, of his assigning it to joint task forces and so on. 
So there was a good deal of confusion.
    But putting all of that aside, again, when I would see a request 
for information in 3 days, what I feared was not getting the 
information out because, mind you, none of this information ultimately 
has been hurtful. What I feared was our putting the information out 
that we could get in 3 days and then a week later, quite naturally, 
finding additional information and then being accused of not providing 
everything when it was due.
    Mr. Kanjorski. Wasn't that a favorite expression of Mr. Clinger: 
This raises more questions?
    The Witness. Right. I mean, we would constantly get into sort of 
losing sight of what started all this, what the underlying issue is and 
get into process, frankly, as we are now. What becomes more interesting 
to people when the substance turns out to be noncontroversial is the 
process by which the White House responds to these matters.
    But it was always a trap to impose deadlines that were unreasonable 
that couldn't be met that have us provide some of the information but 
not all of the information and then later slam us for not having 
provided all of the information on a timely basis.
    We did everything we could, and I say that with all my heart. I 
went out and hired additional people to come in, after there were some 
admitted, acknowledged late-found documents--and no one was more 
distressed about that than I was--things that should have been turned 
over under previous counsels that were found in the White House while I 
was counsel. That was painful. And I went out and I brought in people, 
and I said, your job is to take this place and turn it upside down and 
shake it, and you find everything that's responsive to these requests 
and you get it to Ken Starr and you get it up to the Hill. And we did 
that. We did that.
    We had, in the period 1996, just the number of requests, it 
exploded exponentially and, frankly, it was just overwhelming. We were 
just drowning in requests and we did our very best to find the 
information and turn it over in a timely basis.
    Mr. Tierney. Was there any sense of coordination on your part from 
the Majority's issuance of these requests for documents? Did you get 
the sense that anybody was coordinating that effort or was it just 
coming in from all different directions?
    The Witness. Yeah, on the contrary. We got a sense that there was 
no coordination, that we were getting overlapping and inconsistent 
requests and having to assemble one set of information for one 
committee and a slightly different set of information for another one.
    And, again, we truly were shorthanded.
    Mr. McLaughlin. I have a quick follow-up. These deadlines----
    Ms. Comstock. Actually, I----
    Mr. McLaughlin. Just a quick follow-up to the Congressman's 
questions. These deadlines in Exhibits 3 and 4, was it--in Exhibit 4, 
was it humanly possible to meet a 1-day turnaround for all documents 
related to John Huang?
    Ms. Comstock. I will state for the record as having been the person 
who spoke with Mr. Good.
    Mr. McLaughlin. I am sorry. Are you testifying? I didn't actually 
ask you a question.
    Ms. Comstock. But you have raised questions.
    Mr. McLaughlin. I don't want you to testify in response to my 
question. My question was to Mr. Quinn.
    Mr. Quinn, was it humanly possible to obtain, within a 24-hour 
period, all documents relating to John Huang?
    The Witness. I have to answer you by telling you that I was a level 
or so removed from the process of actually gathering the documents. I 
had to rely on other people on my staff to go out and deal with the 
people who had access to them. So I didn't have firsthand knowledge.
    I do have, however, absolute confidence in the honesty and 
integrity of the people who had the documents in the White House and 
who work in the counsel's office and had the job of producing them. And 
I think that they did at the time and continue to do the very best they 
can to respond to these requests.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Is that----
    Mr. McLaughlin. My second follow-up question to the Congressman's 
questions is----
    Ms. Comstock. We are on the first round and you are, I guess now, 
the designated counsel for today?
    Mr. McLaughlin. Since the very beginning, as I indicated during 
your opening remarks.
    Ms. Comstock. It is just that Mr. Ballen is----
    Mr. McLaughlin. Mr. Quinn----
    Ms. Comstock. We are not on your round.
    Mr. McLaughlin. No. I am asking a follow-up question to the 
questions by the Congressman. Are you going to deny me the ability to 
ask a follow-up question to questions asked by members of this 
committee? Yes or no?
    Ms. Comstock. Just proceed, Mr. McLaughlin.
    Mr. McLaughlin. Thank you, Ms. Comstock.
    Is it at least conceivable to you, Mr. Quinn, that Chairman Clinger 
and the other committee and subcommittee chairmen that were passing 
these requests along in the week or two just prior to the election, is 
it conceivable to you that they were setting unreasonable deadlines so 
that the White House would not be able to meet them and so that they 
could yet then claim, as is so often the case here in Congress, that a 
cover-up was taking place? Is that conceivable?
    The Witness. Look, I am not going to question anyone's motivation, 
including Chairman Clinger.
    Ms. Comstock. I think usually counsel is asked not to speculate.
    Mr. McLaughlin. Actually, it is a question as to whether it is 
conceivable.
    Ms. Comstock. That's not speculative?
    The Witness. But I will say this--I will say this, and I said it, 
frankly, to either Mr. Clinger or Mr. McIntosh in the context of some 
of these requests, I was distressed at this time that there was a bald 
partisan political election related effort to use these committees not 
for legislative or oversight purposes but as, frankly, an adjunct to 
the Republican campaign.
    I ignored that. I wasn't going to let us be affected by democratic 
politics but I didn't think that we should be bullied into doing 
something incomplete or hastily or inappropriate just because some 
people wanted to use these investigations to affect the campaign.
    I certainly never thought there was anything here that would affect 
them, by the way, but with all my heart I tell you that there was not a 
person I worked with in the counsel's office who would countenance 
unreasonable delay, who would countenance anything in the nature of 
foot dragging, who would do anything other than do their job and do it 
thoroughly and completely and on a reasonable and timely basis.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know Mr. Good, who is the Office of Records 
Management chief?
    Answer. I may have met him at some point. I don't know him 
personally.
    Question. You know of his work and that he has been at the White 
House for over 25 years or so?
    Answer. I do.
    Question. All right. Do you have any reason to think that he would 
give misinformation to this committee?
    Answer. I do not.
    Question. Or lie?
    Answer. No, I do not.
    Question. If Mr. Good had told this committee that certain records 
were available within a day or two, do you think that he would have 
been giving misinformation to this committee for any political reasons 
or anything such as that?
    Ms. Behan. Objection. I don't know what you mean. Available within 
what?
    Mr. McLaughlin. Do you have any documents about this, Barbara?

                      EXAMINATION BY MS. COMSTOCK:

    Question. If Mr. Good had informed the committee that the WAVES 
could be made available promptly, do you have any reason to make 
believe that----
    Ms. Behan. I would object to the form of this question. It is 
calling for the same speculation that you have just said that he should 
not do.
    Mr. Kanjorski. I think we should call Mr. Good. I don't think Mr. 
Quinn should be called upon to testify.
    Ms. Comstock. I would hope that we don't have to call Mr. Good. 
Maybe we can just submit some questions to him.
    In fact, I will make this Deposition Exhibit No. 5.
    [Quinn Deposition Exhibit No. 5 was marked for identification.]
    Ms. Behan. Is Mr. Good getting special treatment?

                      EXAMINATION BY MS. COMSTOCK:

    Question. Weren't the WAVES records actually collected at some time 
in October, to your knowledge?
    Answer. I don't have direct knowledge of this. I assigned this 
matter to others in the office and I can't speak to what was collected 
or when it was collected. I did not involve myself in the collection of 
the documents, analysis of the documents, submission of the documents, 
except on certain exceptional occasions.
    So these questions are best directed to the lawyers and the staff 
who did gather the documents as to when they did and how they did.
    Question. Okay. Did anybody----
    Mr. McLaughlin. I just want to know--it now seems we are clearly 
straying beyond background to subpoena compliance. Now you are once 
again just poking around.
    Ms. Behan. I would like to reiterate that objection.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did you ever see these WAVES records that had been 
gathered at the time in regard to documents that were gathered 
regarding John Huang and James Riady? These are actually WAVES records 
from both Mr. Riady and Mr. Huang.
    Mr. McLaughlin. Barbara, is it the case that you are trying to 
figure out why information was not turned over immediately prior to the 
election? Because this information has been turned over. I am looking 
at it here. It has got an early EOP number. It obviously was an early 
part of the White House's production to this committee. Is this 
committee inquiring as to why this stuff was not added to the documents 
that the Congress wanted prior to the election? Is that the nature of 
the inquiry?
    Ms. Comstock. I will just let my question stand.
    Mr. McLaughlin. You are declining to respond to my question about 
your question? Is that yes or no, Barbara? Okay. I am just going to----

                      EXAMINATION BY MS. COMSTOCK:

    Question. If the witness could answer the question?
    Answer. And the question was?
    Question. The question was, at the time did you see Mr. Huang's 
records----
    Mr. McLaughlin. Before you answer, Mr. Quinn, I just want to note 
for the record that Majority counsel is declining to answer a basic 
question about the scope of the inquiry.
    The Witness. At the time, by which you mean November 2nd?

                      EXAMINATION BY MS. COMSTOCK:

    Question. On or around the end of October, early, mid-November, did 
you see these WAVES records before they were turned over?
    Answer. I don't recall seeing these particular records. I mean, I 
have seen other WAVES records and so they look familiar to me. But I 
don't recall having been shown these.
    Mr. McLaughlin. Is that the marked copy? Can we show the marked 
copy to the witness?
    Ms. Comstock. These are all identical copies. If you want to check 
at the end of the deposition to make sure these are the actual things, 
we have made identical copies of this. It is easier to mark them and--
--
    Mr. McLaughlin. That's your representation but the bottom line is 
it is normal deposition practice--I know that you are not a practicing 
lawyer, but it is a normal deposition practice to show the copy that 
goes into the record to the witness. That's just rudimentary law, 
rudimentary civil procedure.
    Ms. Behan. He is now looking at the official copy of the exhibit.
    Mr. Kanjorski. Are these supposed to mean something?
    Ms. Comstock. Yes.

                      EXAMINATION BY MS. COMSTOCK:

    Question. On page EOP 4986, I want to direct your attention to a 
WAVE entry for John Huang, and actually I think that is the date of 
Exhibit 1, the meeting that John Huang had referred to on September 
24th. And the visitee is listed as Quinn and the requester here is 
listed as Hopkins.
    I will note for the record--I don't know how familiar you are with 
WAVES--the stars there to the right sometimes indicate that people may 
or may not have come by.
    Mr. Huang's letter indicated he stopped by. These WAVES records are 
sort of inconclusive as to whether he came in. He may have come in at a 
different entrance. I think you maybe may have gone through----
    Ms. Behan. Are you indicating that the WAVES records do not suggest 
that he came there?

                      EXAMINATION BY MS. COMSTOCK:

    Question. No, I am just asking if Mr.--if you recall Mr. Hopkins or 
Ms. Hopkins, whoever that is, having anything to do with John Huang or 
if you talked--in seeing these WAVES records at or around November of 
1996, if you recall discussing any meetings that you may have had with 
John Huang?
    Answer. I do not recall.
    Ms. Behan. Do you recall seeing these WAVES records specifically?
    The Witness. I don't recall seeing these--these may have been shown 
to me in the Senate deposition. In any event, Kim Hopkins was one of 
the assistants who worked outside my office. She was a receptionist. 
And so it would not be unusual for her to wave people into the 
building.
    As I said earlier in this deposition, I don't doubt for a moment 
that John Huang stopped by to see me.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I understand. I am just wondering if this refreshes your 
recollection as to any discussions you may have had about Mr. Huang or 
when you say the WAVES records, if at the time you saw the WAVES 
records before turning them over, you----
    Answer. No, it really wouldn't. It really wouldn't. And it is 
highly unlikely I would have had any discussion with Kim about him.
    Question. Okay. Now, these WAVES records were WAVES records that 
were prepared by Ms. Mills, and as is reflected on the fax sheet she 
sent them to Mr. Lindsey. Were you aware of Mr. Lindsey handling 
matters relating to John Huang and James Riady at this time?
    Answer. I was aware that he was--Bruce has a deputy counsel, still 
is a deputy counsel, and was involved in these matters and in helping 
to ensure our compliance, sure.
    Question. Okay. Did you ask Ms. Mills to send these to Mr. Lindsey?
    Answer. I don't recall having done so, but Bruce is somebody whom 
it would have been my practice to consult on any number of matters, 
because he was a senior lawyer in the office and a person of good 
judgment.
    I am not sure why they had this interaction. I just don't know. I 
mean, you would have to ask them.
    Question. Okay. Is it your recollection that Mr. Lindsey was 
traveling with the President at that time, and this would be a few days 
before the election in 1996?
    Ms. Behan. I object. I think that is really calling for speculation 
since he knows so little about this.
    The Witness. True. I can't answer this.
    Ms. Comstock. I am referring to November 2nd.
    Ms. Behan. There is something----
    The Witness. There is a line on the first page that tells me it 
went to the--that it went to Mr. Lindsey while he was with the 
President on the road.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know any particular reason why Mr. Lindsey wanted 
these documents while they were on the road?
    Ms. Behan. Again, I am going to object. He said he is learning this 
from the face of the document.
    Mr. McLaughlin. I think he has already responded that Bruce Lindsey 
was involved in the matter.
    The Witness. I thought you folks were in a hurry to get these 
things. I mean, the alternative, it seemed to me, would be for Ms. 
Mills to wait until they returned.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am just trying to understand what your knowledge was at 
that time of preparing these records.
    Answer. My lawyer is going to let me speculate here that Ms. Mills 
was trying very hard to get you the information as quickly as possible, 
even going to the length of sending this material to Mr. Lindsey while 
he was on the road so that she could clear it with him or get his input 
and get it up to you as soon as possible. But I am speculating. Again, 
you would have to ask them.
    Ms. Comstock. I will mark this as Deposition Exhibit No. 6.
    [Quinn Deposition Exhibit No. 6 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. This is an October 31st, 1996, memo for all staff of the 
White House from yourself regarding documents relating to the Lippo 
Group. And as we had discussed earlier, I think you said it was your 
practice often to send out the actual request and that is--as indicated 
here, it is attached to this memo. Do you recall sending this memo out?
    Answer. Vaguely.
    Question. At this time, do you recall having Kathleen Wallman or 
Alan Kreczko handling these matters?
    Answer. Again, it appears as such from the face of the document.
    Question. Okay. And the due date for producing these documents was 
November 12th, 1996. Do you know if documents responsive to this 
request started coming in in that time frame?
    Answer. I don't know. Again, it--as you can see from the document, 
Wallman and Kreczko were sort of the people overseeing compliance with 
the request. The actual first line person gathering the documents was 
Bill Leary at the National Security Council, who is somebody who I will 
tell you is the--one of the people, if not the person, most expert in 
the classification of national security related materials and the 
person who would be in a position to know whether the disclosure of 
information might compromise the national security.
    Question. Okay. Is it your experience that Mr. Leary, if he were 
tasked with something such as this, would be responsive and make an 
effort to get the documents by the due date on this directive?
    Answer. I certainly believe so. I mean, he is not a political 
operative, if that's what the question is.
    Question. No, that's not the question. The question is just as to 
Mr. Leary's, you know, responsibilities that if he didn't get documents 
that he might go out and seek them and make sure people were complying 
with your directive.
    Answer. I tried very hard, in my time in the White House, not just 
to protect and preserve Presidential prerogatives as the constitutional 
responsibilities of the President, but I tried also, whenever matters 
arose that might implicate national security, to exercise utmost 
caution. And, again, we were in a period of time when there were a good 
many requests for information from different sources that went to 
matters involving foreign affairs and national security issues, and we 
had to take particular care to make sure that those matters were 
handled appropriately. And we tried to do so.
    Question. Okay. And was it your experience that Mr. Leary and Mr. 
Kreczko usually responded to your directives in a prompt manner?
    Answer. Absolutely. They are the utmost professionals, but they are 
also extremely careful to protect the national interests. I mean, I can 
give you examples. We had, again, in response to this directive from 
the leadership, I assume, you know, we had requests, for example, as 
breathtaking as this seems--I am sure even to you now--we had a 
congressional request for a memorandum of a conversation between 
President Clinton and President Yeltsin. That obviously is the sort of 
request that makes people whose job it is to protect the national 
security very nervous.
    We had inquiries, as I think you know, into the issues of arms 
shipments through Croatia into Bosnia and the report of the 
Intelligence Oversight Board on that matter.
    We had inquiries into the alleged involvement of intelligence 
agents and military personnel of this country in arms shipments to 
Bosnia. These are all matters--and I sat down on a number of occasions 
with Mr. Gilman and worked through these requests. Sometimes we agreed; 
sometimes we didn't. But the point I am making is that whenever we had 
a request that might implicate the national security or the foreign 
relations of the United States, I made sure that they were handled in a 
way that would allow the National Security Council and the Department 
of State and not the political people in the administration to exercise 
the ultimate judgment.
    Question. That is why Mr. Kreczko is on here and Mr. Leary?
    Answer. Right.
    Question. And if Mr. McLaughlin doesn't mind, I will note that we 
have had very fine dealings with Mr. Kreczko, and to the extent that 
Mr. Leary has been involved, that is true, too, and we agree with your 
assessment of those abilities.
    What I am trying to determine is if you have a knowledge of the 
volume of documents that have been gathered at or around this time in 
November, December of 1996?
    Answer. I don't. None of that, I don't believe, came back to me.
    Question. Were there any particular documents, as they were 
gathered, that people may have brought to your attention or talked to 
you about in that time frame?
    Answer. I don't recall any specific documents coming to me, but, 
you know, it is not out of the question. Again, I don't recall it in 
this context; that somebody might say, gee, do you think this is 
responsive or not responsive, questions like that.
    Question. And then during this time frame, say November, December 
1996, at that time did anybody come to you about any problems they had 
heard about John Huang or Charlie Trie and fund-raising issues?
    Ms. Behan. I believe he has already answered this.
    The Witness. Yeah. I just--again, I--well, let's take them one at a 
time.
    I don't recall anybody coming to me about John Huang, raising 
problems with me, asking me to take any action or anything like that.
    Charlie Trie, I became aware of in May in the context of his effort 
to make donations to the Presidential Legal Expense Trust. And since 
you have come back to that again, let me just tell you the--let me 
describe for you the prism through which I was looking at that issue.
    No one said to us, not Michael Cardozo or anyone in the White 
House, this guy is a democratic activist or a fund-raiser or somebody 
who makes contributions to the campaign. When this came to us, it was, 
this is a guy who has a restaurant in Little Rock and we have learned 
that some of these contributions are connected with a religious sect, 
some said cult, in California. And there was some description of the 
sort of activities and beliefs of this cult.
    For months, in my mind, this was this cult issue. These people were 
trying to give donations to the President. I didn't know why. I knew 
that the expense trust and its investigators thought they were 
questionable. But I didn't connect them up with the campaign or 
democratic politics or any other activities of Mr. Trie.
    The only other activity of which I was aware was that this guy was 
a former restaurant owner who loved the President.
    Question. At any time did you learn that he had been appointed by 
the President to a Presidential commission?
    Answer. I think I learned that much, much later. I can't tell you 
when I learned that, but it was not during those early months, I am 
virtually certain.
    Question. And the Executive order that expanded that commission----
    Answer. And may I--just one other point on this, because I think 
this is important. In the time I was counsel, it was always clear 
through the course of our dealings that the trustees of the trust and 
Mr. Cardozo and Mr. Cardozo's lawyer from Sullivan and Cromwell 
regarded the trust as independent. When they informed us of things, it 
was just that.
    Question. An FYI?
    Answer. Information.
    If I expressed a view, I might think they would take it into 
consideration, but it was always clear--and I think if you look at the 
trustees, you will understand why. It was always clear that they 
regarded themselves as the people who would make decisions about how to 
handle the affairs of the trust.
    I mean, you are talking about people like Elliott Richardson and--I 
mean, these were not people who were sending Michael Cardozo over to 
the White House to get direction from me or anyone else. It just didn't 
work that way. And so I didn't view the Trie donations issue as sort 
of--as being on our to-do list. Okay?
    Cardozo came over in May, said we have got this issue. We are 
undertaking, through this investigative agency, to run this down and 
get additional information.
    My reaction, frankly, was that, gosh, these people are really going 
to extraordinary lengths to make sure that they don't take any 
contribution that's inappropriate. I thought it was admirable. I still 
think it was admirable. I think they handled it with enormous integrity 
and responsibility.
    But when Michael Cardozo left the White House that day, I regarded 
the ball as being very much in his court and the court of the trustees; 
that they were going to conduct a further investigation and figure out 
what to do. They weren't expecting me to do anything. I didn't need to 
go running to the President and say, the trust has, you know, this 
problem; we need to do something.
    We didn't need to do anything. The ball was in their court.
    Question. Did he indicate whether he was going to--somebody was 
going to inform the President about the problematic contributions?
    Answer. I honestly don't recall how or when the President was 
informed. I just don't recall that.
    Question. Do you have any knowledge if the President knew sometime 
prior to the October 1996?
    Answer. I do not. I don't recall that. I just don't recall. I did 
become aware at some point, as you pointed out, that Cardozo had had a 
conversation with the First Lady and with Harold Ickes.
    Question. To your knowledge, and if you know, I mean, did the First 
Lady share information like that with the President, to your knowledge?
    Ms. Behan. I am going to object to this. I think this is 
inappropriate.
    The Witness. I can't speculate.
    Mr. McLaughlin. The indication is obnoxious, Barbara.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know whether the President knew about Charlie 
Trie's contributions?
    Answer. I don't now. If I did, I have forgotten, sincerely.
    Question. And I believe it was at a Christmas event in December of 
1996. I believe the date is at or around December 13th, 1996, Charlie 
Trie was invited to a Christmas party event. Do you recall any issues 
that arose around Mr. Trie attending that event?
    Answer. I do not.
    Question. That was not brought to your attention at that time?
    Ms. Behan. I am going to object to the foundation. I have no idea 
what you mean by ``issues,'' and if he doesn't recall then----

                      EXAMINATION BY MS. COMSTOCK:

    Question. If anyone brought it to your attention should we have him 
attend this or not, is that going to be appropriate?
    Answer. I don't recall that having come up.
    Ms. Behan. Shall we take a break? Do you need a break? No?
    The Witness. I would just assume plow through.
    Ms. Behan. Okay.
    [Quinn Deposition Exhibit No. 7 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am showing the witness a December 16th, 1996, 
directive, to all----
    Mr. McLaughlin. Do you have copies for the Congressmen?
    The Witness. Yeah. I mean, this goes back to, you know, your first 
question, how would I handle document requests. Well, I would tell 
people, you know, dammit, I want you to go through all of your files 
and I want you to turn things over to us promptly. In this case, what, 
in a week?

                      EXAMINATION BY MS. COMSTOCK:

    Question. I believe on the second page it indicates December 23rd?
    Answer. We gave people 1 week to respond to this request.
    Mr. Kanjorski. This was over Christmas; wasn't it?
    The Witness. Right.
    Ms. Behan. He was nice to them because it was shopping time.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall--the first paragraph of the memo indicates 
that, quote, we have received document requests from certain 
congressional committees and the Department of Justice.
    At that time, was there a grand jury subpoena that came to the 
White House about a number of these matters?
    Ms. Behan. If you recall.
    The Witness. I don't recall.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And----
    Answer. Do you know?
    Question. Yes, I believe there was. I was just seeing if you recall 
some of the events.
    Do you recall--the names that are listed here, did you have 
knowledge of who some of these people were? Aside from people like John 
Huang or James Riady, that you might have heard about in October or 
November, were you familiar with the other individuals on the list?
    Mr. McLaughlin. You mean other than from press accounts was he 
familiar with any of these names or do you mean including through press 
accounts?
    Ms. Comstock. Just any knowledge he had about them.
    The Witness. We have talked about Huang. I guess by this point I 
had heard plenty about Riady. I was familiar with Pauline Kanchanalak.

                      EXAMINATION BY MS. COMSTOCK:

    Question. How were you familiar with her?
    Answer. Back--I had seen her--I probably hadn't seen her in a 
couple of years, but I recall back in the days when I ran the Vice 
President's office seeing her at events, DNC-related events, that sort 
of thing.
    Question. Were you aware of her role in fund-raising or if she had 
a role? Or did you just see her at events?
    Answer. I saw her at events that were related to fund-raising, so I 
would have said she was a donor or somehow related to a donor.
    Question. Johnny Chung, had heard about him at that time?
    Answer. Well, I think I have seen him around as well. Okay?
    Question. I don't know if you had any pictures pop up. He had 
pictures with everybody.
    Answer. Well, as a matter of fact----
    Question. Do you have one?
    Answer. The reason I am smiling is because when I think of Johnny 
Chung, I mean, I have the image of this guy going 230 miles an hour, 
sort of running around with a camera and always asking people to pose 
for a picture.
    I was--and I will tell you that I was in a restaurant one night and 
I came across this group of about eight Asians or Asian Americans and 
this guy came up and asked me, can we take our picture with you? And I 
did. And I had a picture taken with these guys.
    It has always baffled me why they always wanted to--why this fellow 
always wanted to have pictures made. But in any event, he always had 
his camera ready.
    Question. Okay. Had you heard about him at the White House coming 
in often or trying to get people in, anything like that?
    Answer. Not really. I think--I will tell you what I knew about him. 
At some point when--somebody said to me at one point, this guy has a 
blast fax business. And I recall saying, what is a blast fax? And I 
learned that it is some technology that allows you to send a fax out to 
hundreds or thousands of people more or less simultaneously. And that's 
pretty much the extent of my knowledge of Johnny Chung.
    Question. Okay. And during the time frame when you were still 
counsel and documents were being collected, did you learn anything more 
about Mr. Chung----
    Answer. No.
    Question [continuing]. Or what he had done at the White House?
    Were you aware of the contributions that he--the $50,230 check that 
he gave to Maggie Williams?
    Answer. No, I was not.
    Question. When you were at the White House, did anyone ever hand 
you a check for the DNC?
    Answer. No.
    Question. Okay. Was it your understanding that people were not 
supposed to be giving you contributions at the White House?
    Answer. Well, I was familiar with the Hatch Act restrictions 
regarding the receipt, acceptance or solicitation of contributions. But 
it was never an issue, because I don't--I don't think anyone was ever 
tempted to give me a contribution.
    I never--I never had occasion to wonder if I could because I never 
was in a circumstance where someone might.
    Question. Okay. But if someone had walked up, here is a $50,230 
check, just wanted to drop it off with you, was it your understanding 
that you were supposed to direct them elsewhere?
    Answer. No, that's not necessarily my understanding now. I probably 
would have consulted somebody else. But it is my understanding at this 
time that it might be permissible to forward a contribution as long as 
one didn't hold it for some period of time. I think there are Hatch Act 
regulations or instructions on this.
    Question. Okay. So it is your understanding that you are not 
supposed to solicit checks in the White House?
    Answer. It is my understanding that persons subject to the Hatch 
Act----
    Question. Contributions?
    Answer. Are not to solicit contributions.
    Question. Okay.
    Some of the other people on this directive, did you----
    Answer. And just for the record I will say that----
    Question. And I won't--we are not going into the phone calls or any 
of the other things today.
    Answer. I want to say that the President and the Vice President are 
not subject to the Hatch Act, for the record.
    Question. Is that your legal opinion?
    Answer. It is fact.
    Mr. McLaughlin. Mere facts.
    Mr. Kanjorski. How about Members of Congress?
    The Witness. I don't think so.
    Mr. McLaughlin. Mere facts don't always pertain to this committee 
investigation.
    Ms. Comstock. Or apparently inquiries at the Justice Department, 
also.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Any of the other individuals here, Johnny Chung, as you 
go down the list, did you have any personal knowledge of other names 
listed here?
    Answer. I don't believe so.
    Question. And the second page, if you would turn to the entities, 
did you have any particular knowledge of any of these entities that 
were listed?
    Answer. I do not.
    Question. Did you task anybody to sort of find out, so that you 
would know, like who are some of these people or what are these 
entities, as we are trying to gather information, so that you would 
know, you know, where to look for information, you know, what it was 
you were looking for?
    Answer. I learned from experience that it would be unwise to try to 
narrow the places we were looking, because----
    Question. I am thinking more in terms of so that you look at enough 
places.
    Answer. My memo went to the Executive Office of the President's 
staff. Everybody, the gardeners, everybody was to comply; everybody was 
to search all of their records. If we had--if I had sat down and said, 
well, let's just think of where these things are most likely to be, 
then I would be sitting explaining to this committee why I only looked 
in those offices and not in the gardener's wastebasket.
    Mr. Kanjorski. If I may interpose a question. Executive Office of 
the President, would that include the White House WHCA--what is it 
called?
    The Witness. WHCA.
    Mr. Kanjorski. WHCA.
    The Witness. Yes, indeed. The Executive Office of the President 
includes what is called the White House office and it includes all of 
the related White House.
    Mr. Kanjorski. Twelve in all?
    The Witness. OMB and U.S. Trade Representative.
    Mr. Kanjorski. This talks about electronic material. Did they ever 
indicate to anyone or to you that they may have videotapes of any of 
these people?
    The Witness. No, I never heard that from--you mean did WHCA come to 
me and say that?
    Mr. Kanjorski. Under this directive, it would seem to me that WHCA 
should have looked into any possibilities that any of these people were 
on videotape.
    The Witness. Indeed.
    Mr. McLaughlin. Actually, we know WHCA searched for videotapes with 
every single directive.
    Ms. Comstock. Are you testifying, Mr. McLaughlin?
    Mr. McLaughlin. Actually, I am just stating a fact.
    Mr. Kanjorski. So that under this directive, Mr. Quinn, WHCA would 
have been on notice of trying to search in every office of the--in 
every entity of the Executive Office of the President who had this memo 
at that point in time, as of December 16th?
    The Witness. That's correct.
    Mr. Kanjorski. They should have been on notice to make that 
examination and finding?
    The Witness. I believe that's right.

                      EXAMINATION BY MS. COMSTOCK:

    Question. To your knowledge, did WHCA list people's names who 
attended events? Were they ever given names of individuals who were at 
events to put into their database so that they could search for 
people's names?
    Answer. I don't know the answer to that question, other than to say 
that there are some people on this committee who greatly object to the 
use of our database for recording people who come to events.
    Question. Well, I am talking about the White House Communications 
Office, which one of the things they did was tape the President. Were 
you aware of them, when they were taping the President, getting a list 
of names of people who were at an event with the President?
    Answer. No. I would say in the course of a typical day, the 
President might come in touch with hundreds of people.
    Question. Okay. Are you aware that they largely are taping the 
President himself and that they record events by date only and event?
    Answer. I am not familiar----
    Ms. Behan. Are you familiar today?
    The Witness. I wasn't then nor am I now familiar with how WHCA 
catalogs its materials.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you aware that there were videotaped events at the 
White House?
    Ms. Behan. When is this? When?
    Ms. Comstock. When you were at the White House.
    Mr. McLaughlin. Including by the press?

                      EXAMINATION BY MS. COMSTOCK:

    Question. By WHCA.
    Answer. Let me answer you this way: And I have to answer as to 
both. If you said to me, were Presidential events videotaped, I would 
say certainly, not as a matter of course. But certainly some things 
are, a good many by the press, which are open press events, and I would 
say to you, I also recall seeing video cameras on a small number of 
occasions and then you would say, like what? And I would say, the radio 
addresses. But I can't tell you for sure whose cameras they are, 
whether they are WHCA's or the press.
    But I have, for example, when I try to answer this question and I 
conjure up an image in my mind of the President sitting at his desk in 
the Oval Office and 40 people sitting around watching him do his radio 
address, in my mind's eye there is a camera in the middle of the room 
and it might be a WHCA camera.
    But I will also say to you that when you work around that place, 
cameras are ubiquitous. They are just all over. There are still 
cameras. There occasionally are the press, you know, what do you call, 
motion picture cameras, you know what I mean, video cameras.
    I hate to say this. I mean, photographers do start to blend into 
the wallpaper. Okay? But I would also say to you that in my experience 
most things the President does in the course of a day are not 
videotaped. So I would have said, no. I mean by and large he is not 
typically taped but there are occasions when he is.
    Question. Okay. And did you have any knowledge about the--any of 
the political, the White House political coffees being videotaped?
    Answer. I didn't. I mean, I would have thought not but I wouldn't 
be sure.
    Question. Okay. Did you know Steve Goodin?
    Answer. Sure.
    Question. Did he ever raise with you at any time, in response to 
any document request, while you were serving as counsel, that there 
might be videotape of any certain events or things that you were 
looking for?
    Answer. No, he didn't.
    Question. To your knowledge, is Steve--would Steve Goodin--he works 
in the Executive Office of the President?
    Answer. That's correct.
    Question. So he would receive a memo such as this?
    Answer. You bet.
    Question. So if he received a memo such as this, in an attempt to 
find out information from him that he might know about, would he be an 
individual who would have known about taping of Presidential events?
    Mr. McLaughlin. I am going to object.
    Ms. Behan. I will object and say you should not be speculating 
about what is in people's heads.
    Mr. McLaughlin. Let me just state----
    Ms. Comstock. What is your understanding----
    Mr. McLaughlin. Barbara, let me state my objection for the record, 
which is that it seems to me that on its face this document requests--
this directive requests documents that somebody has, not documents that 
somebody may suspect exist somewhere or even know about. So it is a 
mischaracterization to say that this directive somehow directs 
individuals to produce documents that they don't possess.
    Ms. Comstock. That's not my question.

                      EXAMINATION BY MS. COMSTOCK:

    Question. My question is: Did Mr. Goodin ever bring to your 
attention, in response to any type of document request he might have 
gotten, that you might want to look at videotapes?
    Answer. No, he didn't, but it was not my expectation that people 
would say, here is what I have and, by the way, you know, the following 
12 offices may also have documents.
    Question. No, I understand. But I am just asking, did he ever say 
to you----
    Answer. No, he did not.
    Question [continuing]. By the way, you might want to look at this?
    Answer. No, he did not.
    Mr. McLaughlin. He didn't do what you didn't ask him to do?
    The Witness. Right.
    Mr. Kanjorski. I have a question. When is the first time that the 
committee received any videotapes from the White House at all, Ms. 
Comstock?
    Ms. Comstock. I believe actually we had received some videotapes 
about Harry Thomasson perhaps last year from the White House that were 
Mr. Thomasson's but this year was October 5th, 1997.
    Mr. Kanjorski. The first time, this was a----
    Ms. Comstock. Did you want this on the record?
    Mr. Kanjorski. Yes. Was this some new thing that the committee 
became aware of that there may be taping at the White House?
    The reason I asked the question for the record is--of course, I 
have read Mr. Clinger has made requests, and I assume the subsequent 
chairman has made requests. And as a Member of Congress, I am aware of 
almost 50 percent of the times I have been in the White House that I 
have been on tape or a video machine or a movie machine was going on. I 
am curious why no member of the Majority of our committee ever brought 
that to the attention that when they are at the White House there is--I 
mean, if I go to the Christmas party, there is a videotape machine 
there.
    The Members of Congress were oblivious to it, also?
    Ms. Comstock. My understanding was that the way this came about was 
that it was brought to the attention of the White House by the Senate 
on August 7th, 1997, and then there were initially--they were initially 
told that they were not tapings of the coffee events in particular, and 
then they came back a month later and informed them that, in fact, 
there were taping of events and that's when they were produced.
    Mr. Kanjorski. But that was the first time that any Member, any 
House Member or Senate Member, that they were aware of functions at the 
White House where there was this individual who would be doing tapes?
    I am shocked about it. I am surprised. I assume when I am at the 
White House I am always on tape. That would be my presumption because I 
am mostly there at a function.
    Ms. Comstock. Well, actually, our request and subpoenas have always 
included videotapes. When things aren't produced, there is a 
presumption that they don't exist or there weren't responsive documents 
that exist.
    Mr. Kanjorski. Why wasn't there follow-up saying, well, I recall 
this function or that function that there was a videotape there. Have 
you searched different individuals?
    And we are all aware of the fact that it was usually done by the 
Defense Department, all of this, whatever it was, and that these were 
the people that really should have been zeroed in on. I am just curious 
why that didn't happen. We made such a big to-do of it in the press. It 
wasn't surprising to me.
    I could just name off dozens of functions and yet I am not sure how 
you would ever offer a subpoena for it. Let me give you an example. One 
day I took to the White House the winning national high school football 
team, and if you had asked whether Ron Pollis was on tape, that was the 
year he was the quarterback of that team, I am not sure you would ever 
find it unless you searched down the particular event and time and 
circumstance.
    Do they categorize and classify every individual? Because I don't 
think they took the names of the whole team.
    Ms. Comstock. I don't know that any of us probably should be 
testifying on that. But I think we do have testimony on that from 
others.
    Mr. Kanjorski. So as a member of the committee, you can tell me as 
counsel, that nobody, Mr. Clinger or no one else, ever raised that 
question? I have been in the Oval Office with Mr. Clinger when we have 
been taped.
    Ms. Comstock. Actually, in the last Congress we did raise the issue 
of tapes relating to Harry Thomasson related to a number of issues. We 
could ask the witness about that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall, you did have some documents and actually--
--
    Mr. McLaughlin. Just so I am clear, the committee did know that 
events were videotaped because they had received them in the last 
Congress and yet the Majority never made a specific request?
    Mr. Kanjorski. Let me give you a specific event so that there isn't 
any question about it. January 20th of 1996, Mr. Clinger sat with me in 
the Oval Office when a videotape was taken. Present at that meeting was 
Senator Specter, Senator Santorum, Bill Clinger, myself and possibly 
Jack Murtin. And none of the Republican Members of either the House or 
the Senate, Mr. Clinger in particular, never suspected or remembered 
that he was videotaped that day?
    Ms. Comstock. I don't know that there would be any reason that Mr. 
Clinger, in any previous requests, would have requested videotapes of 
himself.
    Mr. McLaughlin. I just want to note that it is fascinating that 
this committee knew of the existence of the videotapes in this last 
Congress and never made a request for searches to be made.
    Ms. Comstock. First of all, we are not testifying, and what we are 
talking about is we did have a previous--last year it also included 
tapes.
    The Witness. Can I----

                      EXAMINATION BY MS. COMSTOCK:

    Question. We can just show the witness a document and see if you 
recall. This was CGE 1048. It is a document received from last 
Congress. It was notes of Mr. Foster, who was deputy counsel. And item 
No. 9 mentions HT tapes.
    Do you recall at any time discussing the issue of Harry Thomasson 
tapes?
    Mr. McLaughlin. Let me raise an objection to this. This is so 
flagrantly outside the scope of today's deposition, I am not even sure 
that--words fail me.
    Ms. Comstock. I did not plan to raise this, but Mr. Kanjorski and 
yourself raised the issue tapes.
    Mr. McLaughlin. Please don't interrupt me. Anyway, it is so far 
outside the scope of this deposition that words fail me. We are now 
investigating, miraculously enough, Vince Foster's notes having 
something to do with Harry Thomasson. And I am flabbergasted, but 
frankly not surprised that we would careen off in directions like this.
    Mr. Kanjorski. What are the dates of these notes, if I may ask?
    Ms. Comstock. These are notes from December of 1993. Because you 
raised this, I am just asking if----
    Mr. Kanjorski. Was Mr. Quinn counsel to the President?
    Ms. Behan. No.
    Ms. Comstock. No, but these were matters that we were 
investigating.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am just wondering if at any time during 1996 if the 
issues of tapes relating to Harry Thomasson was raised?
    Answer. No, it was not.
    Ms. Comstock. I don't even think we need to go into this, I agree, 
but Mr. Kanjorski raised this.
    Mr. McLaughlin. This is going to be what exhibit number?
    Ms. Comstock. I am not making this an exhibit. The witness has said 
he didn't know about it.
    Mr. McLaughlin. Don't think all documents shown to the witness in 
the course of the deposition should be made a part of the record?
    Ms. Behan. We should make that part of the record.
    Ms. Comstock. Fine. We will make that deposition exhibit number----
    Mr. Tierney. Just mark it for identification. You don't have to 
mark it as an exhibit if you don't want.
    Mr. McLaughlin. Just include it for the record.
    Ms. Comstock. It is CGE 1048.

                      EXAMINATION BY MS. COMSTOCK:

    Question. But did the issue of tapes--was that ever discussed in 
previous productions? Do you recall discussing it or learning that 
there were tapes of particular events or private events?
    Answer. No. It was not, to my knowledge, the subject of any 
discussion.
    What I think is--and perhaps we are going to move on. I would like 
to say, as my memorandum of December 16th, 1996, makes clear, we asked 
for everything and we asked for it promptly. Tapes later turned up 
which were not turned over to us. I think the record ought to reflect 
there was nothing on the tapes of any interest to anyone.
    So, frankly, we spent a lot of time talking about whether these 
tapes could have been found earlier. Had they been found earlier, what? 
I mean, how would anything be different if these tapes had been located 
earlier?
    Mr. Kanjorski. We'd know that John Huang doesn't take sugar in his 
coffee.
    The Witness. It beats me.
    Ms. Comstock. I don't think we need to be answering rhetorical 
questions.
    This is Deposition Exhibit No. 8, which is a January 9 directive 
which followed up on your December 16, 1996 directive.
    The Witness. Yes.
    [Quinn Deposition Exhibit No. 8 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall sending this out?
    Answer. I vaguely recall that it was sent out. As you can see from 
the signature line, my deputy, Kathy Wallman, signed it in my absence.
    Question. And do you recall what prompted this additional 
directive?
    Answer. I do not. I don't know whether it is identical or not, I 
don't.
    Question. And then directing your attention to Page 2 of this memo, 
Deposition Exhibit No. 8, the January 9, 1997 directive, the due date 
on this is January 16, 1997, and the documents were to be produced to 
Cheryl Mills or Karen Popp?
    Answer. Yes.
    Question. Do you recall assigning Karen Popp to work on this 
matter?
    Answer. Karen was somebody I brought in to help on this. As I 
indicated earlier, I knew we had to beef up the staff. Karen was a 
career prosecutor from the Southern District of New York, and we added 
her to the team. I don't recall exactly what date I hired her, but we 
brought her in to help with compliance and make sure we got all the 
materials that were being requested.
    Question. Okay. And so at or around the time of mid-January, 1997, 
do you have any knowledge of the body of documents that had been 
gathered in response to, first, the October 31 directive that you had 
sent out, and then the December and the January directives?
    Answer. I do not.
    Question. Did you ever talk with Ms. Mills about what volume or 
type of documents were being collected?
    Ms. Behan. At any time?

                      EXAMINATION BY MS. COMSTOCK:

    Question. During this time frame, November, December, January?
    Answer. I don't recall now having such a conversation.
    Question. Do you recall discussing with her whether or not those 
documents would be produced to any investigative body, whether it be 
the Justice Department or congressional committees?
    Answer. Whether they would?
    Question. Yes.
    Answer. I didn't need to discuss that. We were going to gather 
everything everyone asked for and produce them.
    Question. While you were there, were you aware if documents were in 
fact produced?
    Answer. Let me state for the record, we never had discussions about 
not producing things that were called for.
    Question. Did you have any timetables that you had established for 
producing the documents?
    Answer. As soon as we reasonably and humanly could.
    Question. Okay. Now if the due dates on these were the initial--the 
October 31st one I believe was in mid-November, so then the December 16 
was December 23rd, and the January 9 was January 16. Do you know, then, 
following the gathering of those, how long it would be before you would 
produce documents?
    Ms. Behan. Just for the record, the due dates were internal dates 
for people to collect them.
    Ms. Comstock. Exactly, the due dates were for when they should be 
provided to counsel.
    The Witness. I don't know whether logs were created. I know we 
always had these discussions with your office about, you know, there 
was a desire not just for the documents but for logs.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Logs that would identify the documents and whose office 
they came from?
    Answer. Right, yes.
    Question. Is that what you are referring to?
    Answer. I don't know if those had to be prepared or not. I am not 
the person who can tell you what documents we gathered from what 
offices. And what cataloging or other work went on before they were 
delivered to the Congress, I don't have firsthand knowledge of.
    Mr. Kanjorski. Mr. Quinn, when you say you never had discussions of 
not producing documents, you don't mean you didn't have discussions not 
to produce documents that may have had executive privilege or----
    The Witness. Or that were not called for.
    Mr. Kanjorski. In other words, you did have discussions not to 
produce documents that may have been subject to the subpoena but may 
have had some sensitive information concerns?
    The Witness. That is correct, or that were questionable in terms of 
whether they were called for or not. But I was never, in my time in the 
White House, involved in a conversation involving a document that was 
clearly called for in which anyone suggested that we find a way not to 
produce it. If we knew a document was called for and it was not 
privileged, and it was clearly called for, everyone understood we are 
going to produce it, we are going to do what is right.
    Mr. McLaughlin. I have a quick follow-up to that.
    In light of the fact that a new Congress had just been convened, 
after you had collected the documents, might you have wanted to 
negotiate a reasonable document protocol for the handling of those 
documents before physically turning them over?
    The Witness. Absolutely. I mean, we always tried to do that, 
particularly--well, particularly where there might be documents with, 
as I say, a foreign policy or a national security implication.
    It was not unknown to us that documents we turned over to the Hill 
later found their way into the public and to the press. We had had a 
very unhappy experience with one of the subcommittees of this committee 
involving what I believed to have been the inappropriate and 
unforgivable disclosure of certain confidential information involving 
the database, despite assurances it would be maintained in confidence.
    But, again, the really important area is an area that involved 
foreign affairs and international security interests, and to the extent 
there might have been documents here that fell in that category, we 
would want to have an airtight protocol in addressing the handling of 
those documents.
    Mr. McLaughlin. So had you been at the White House after mid-
February, and had this committee not adopted a document protocol until 
April, there may well have been grounds to withhold certain documents 
for a period of time until the negotiations of the protocol had been 
settled and completed and then to produce those documents; is that 
fair?
    The Witness. Absolutely. I think that in the case of certain kinds 
of sensitive information, it would be irresponsible to produce it in 
the absence of a protocol.
    Mr. McLaughlin. And one last follow-up. It is particularly 
significant that a new protocol be negotiated in January of 1997 
because there is a new Congress, the old Congress has expired, and even 
some protocols have expired along with it?
    The Witness. That is correct, and we had, frankly, a new Chair.
    Mr. McLaughlin. Thank you, Barbara.
    Ms. Comstock. Are you through?
    Mr. McLaughlin. Yes.
    [Quinn Deposition Exhibit No. 9 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. In the course of collecting these documents, do you 
recall, or just in the normal course of having received documents----
    Mr. McLaughlin. Is this Exhibit BL-26?
    Ms. Comstock. No, I am changing it. For the witness, it will be 
Deposition Exhibit 9.
    The Witness. I am aware of this document.

                      EXAMINATION BY MS. COMSTOCK:

    Question. This is EOP 8737, and it is a November 26, 1996 memo to 
Leon Panetta and Erskine Bowles from Jane Sherburne, and the subject is 
``White House Statements Re Riady meetings.''
    Did you receive that in the normal course--?
    Answer. I did.
    Question [continuing]. Of November of 1996?
    Answer. When you say in the normal course, I mean, I received it. I 
won't say I received it in the normal course. I don't recall where I 
got it. It was not addressed to me.
    Question. I understand that. How did you get a copy of this 
document?
    Answer. I'm not sure. I know I got Erskine's copy, I may have 
gotten Leon's copy, I think I got Bruce's copy, I may have gotten 
Cheryl's copy.
    Question. And this one actually has a note from Bruce Lindsey on 
the top of it to you; is that correct?
    Answer. That is correct.
    Question. And this was regarding how the Riady meetings had been 
accounted for?
    Answer. Characterized.
    Question. And characterized in the press, is that correct?
    Answer. I still have not read this memo.
    Question. Okay. Well, then that will make our questions real brief.
    Ms. Behan. I also want to note for the record this was covered in 
the Senate deposition.

                      EXAMINATION BY MS. COMSTOCK:

    Question. We were discussing documents that had particular 
sensitivity or national security concerns. Was this such a document 
that had national security concerns, to your knowledge?
    Answer. I doubt it. I have not read the document, and so I am not 
familiar with its content except to the extent I was briefed on it. I 
was told about it, I was told what it was about. It is a long document. 
I mean, you know, it is a long memo, but I was made aware by others 
what it was about.
    Question. Okay. And what was your understanding of that? I think we 
can be very brief here.
    Answer. My understanding is that it was a memo written by Jane 
explaining why she took the position she did about the characterization 
of the Riady meetings, and I guess I understood it to be in defense of 
whatever she had told the New York Times about those meetings.
    Question. And was this a type of executive privilege document or 
sensitive document, to your understanding?
    Answer. No, I thought it was an unimportant document, not a 
sensitive document.
    Question. Was this the type of document you thought necessitated 
any type of particular protocol or national security protection?
    Ms. Behan. I want to state for the record, he testified he did not 
read the document.

                      EXAMINATION BY MS. COMSTOCK:

    Question. But your understanding of the document?
    Answer. This is not the type of document I had in mind when I made 
my earlier point.
    Question. That is what I was trying to get at. Thank you.
    Ms. Comstock. I would note for the record that is a document we 
received sometime in May after the committee had instituted--had 
actually scheduled a contempt hearing, and Mr. Ruff represented to us 
that that was a document that was being considered for executive 
privilege.
    Mr. McLaughlin. Well, if it was gathered pursuant to the March 3rd 
subpoena, as limited by the April 18 letter, May production does not 
strike me as particularly dilatory.
    Ms. Comstock. If we can return to----
    The Witness. Before you leave that.
    Ms. Behan. Wait, wait. I think it is important to note for the 
record that whatever calls were made on this document, Mr. Quinn 
himself has testified he did not read the document, so I think----
    Ms. Comstock. And I understand and I think that is clear.

                      EXAMINATION BY MS. COMSTOCK:

    Question. When you said earlier the January 9, 1997 directive, as 
well as Deposition Exhibit No. 7, which is a December 16 one, does call 
for all documents related to James Riady, would that produce this 
document, which indeed discusses James Riady, if people were properly 
responding?
    Ms. Behan. I am going to really object to that. You can say what 
you want, but I am going to object to your making any process calls on 
any document, both on privilege grounds, on the grounds that whatever 
her characterization of the document is----
                      
EXAMINATION BY MS. COMSTOCK:
    Question. Why don't you tell us if you turned over your copy.
    Answer. I am not going to talk about this document. What I would 
like to do is simply underscore the point that Congressman Kanjorski 
made a moment ago, that documents which are responsive to a request may 
nevertheless be subject to a legitimate claim of privilege, executive 
privilege or otherwise. And in response to the thrust of your 
questions, I will say that executive privilege is a concept that 
embraces more than just issues of national security.
    Question. I understand that, and I would agree, but I guess we have 
had a representation by Mr. McLaughlin that this particular document, 
Exhibit No. 9, was gathered in response to the March 4 subpoena, which 
I have no idea, unless he is over collecting documents at the White 
House for the White House, how he would have had any possibility of 
knowing that.
    Mr. McLaughlin. I don't want the record to be unclear. My statement 
is that this document is responsive to this committee's March 3rd 
subpoena as limited by the April 18 letter, so for us to get a document 
that is responsive to the subpoena within a month, I believe, of the 
limiting letter actually going out, does not strike me as dilatory. I 
have no idea what they collected it relative to. All I know is, the 
subpoena that this committee issued after Mr. Quinn left the White 
House called for this document.
    Ms. Comstock. And my question to the witness was his understanding 
of what documents would have been--if a document that existed on 
November 26 was requested--all documents relating to Mr. Riady were 
requested on December 16 and in a January 9 directive, has it been your 
experience that someone would produce such a document to the Counsel's 
Office?
    The Witness. I have lost the thrust of your question, but I will 
repeat, I still haven't read this document and I still don't plan to.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And did you have a copy in your files that you turned 
over at any point to Cheryl Mills or Karen Popp or whoever else may 
have been collecting documents?
    Answer. I think this came from my files.
    Question. I would think that is a fair guess since it is addressed 
to you, but do you recall turning that particular document over, or 
would you have had a secretary go through and check your records?
    Answer. I would have had a lawyer go through my files. You know, I 
may have been told this was going to be turned over. It was not a 
matter of great moment to me.
    [Quinn Deposition Exhibit No. 10 was marked for identification.]
                      
EXAMINATION BY MS. COMSTOCK:
    Question. Deposition Exhibit No. 10 is a January 15 letter request 
which is addressed to both Mr. Ruff and to you, and I understand at 
that time you were still the person represented as counsel; is that 
correct?
    Answer. Yes.
    Question. And Mr. Ruff had been named to come on board as your 
successor?
    Answer. Right.
    Question. Do you recall receiving this document request?
    Answer. I do.
    Question. And noting the attachment, which asks for certain 
records, do you recall that a large part of the requests in this 
mirrored the directives that you had sent out in December and January?
    Answer. Do I recall that now? I mean, I see that now. I mean, I see 
some similarities.
    Question. Okay. And actually, if I could direct your attention to 
Paragraph 2 of the letter, the first page of the letter does note that 
you had distributed two memos instructing White House staff to collect 
and submit documents to the Counsel's Office.
    Answer. Right.
    Question. Do you recall discussing with Ms. Mills or others in the 
Counsel's Office or anybody at the White House responding to this 
letter request of January 15?
    Answer. I think I did respond to it, did I not?
    Question. In general, in terms of turning over documents that had 
been collected, responsive to the----
    Answer. There was, as you know from the earlier exhibits, there was 
a document collection process ongoing at this time. I would have given 
this request to those who were supervising that process. To the extent 
it was duplicative, they would have made sure that the documents being 
collected were turned over in response to this request. To the extent 
that it may have asked for things not sought in the original two 
requests, they presumably would have made additional requests of the 
staff.
    Ms. Comstock. Okay. And you noted you did respond to this in a 
letter on January 17 from you to Chairman Burton, which I will make 
Deposition Exhibit No. 17.
    [Quinn Deposition Exhibit No. 11 was marked for identification.]
                      
EXAMINATION BY MS. COMSTOCK:
    Question. And I guess, directing your attention to the second page 
of the letter--and actually, if you would like an opportunity to review 
the entire letter, why don't we take some time.
    Answer. I was just looking at the first paragraph and thinking the 
chairman never called me to express his dissatisfaction with our 
response.
    Mr. McLaughlin. You received no such call from Chairman Burton?
    The Witness. No.
    Ms. Comstock. It is Deposition Exhibit No. 11. January 17 is the 
date of the letter, if I had it incorrect on the record.
    The Witness. I understand.
    Mr. McLaughlin. So no such call expressing dissatisfaction was 
received?
    The Witness. No.
    Mr. McLaughlin. Was there a document protocol in place at this 
time?
    The Witness. I don't believe so. As you can see, at this time I 
expressed the hope that we could sit down with the Chairman to talk 
about the scope and bases for his request and expressed the desire that 
we do that soon.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And in fact, did you come to learn the Chairman had a 
meeting with Mr. Ruff shortly thereafter?
    Answer. Was it shortly thereafter?
    Question. February 6th.
    Answer. I thought on your schedule that wasn't very shortly.
    Mr. McLaughlin. A little more than shortly?
    The Witness. But I will accept that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. Now directing your attention to the second page of 
the letter, the last line says, ``I look forward to discussing with you 
a reasonable timetable for the production of the documents requested in 
your letter.''
    Just in terms of the timetable, since the production had been going 
on, I mean, since people had been producing documents at the White 
House, presumably in response to your directive, since October 31, and 
there had been this previous practice of a rolling production, was 
there any problem in beginning to produce documents in January?
    Answer. Well, we didn't have any understanding. Look, I think you 
are familiar with this. I must say it always struck me as odd that, 
unlike in private practice, which was the only thing I was familiar 
with when I was there, typically when people ask for documents, you 
would say, ``Okay, let's get together, let's talk about two things, 
one, what you really need and how we can get it, and, two, when we can 
get it,'' there was never that kind of discussion, at least involving 
me. The deadlines were always, you know, now, now, now, now, now, and 
without any reference to what was possible. And I always felt, frankly, 
that the deadlines were set--one couldn't help but feel, frankly, that 
they were set precisely so that failure was inevitable, so that we 
could always be accused of not responding to the deadline.
    Question. Didn't you in fact turn over documents to the Justice 
Department responsive to some of these matters in late January, early 
February?
    Answer. I don't know the answer to that question. Again, I didn't 
collect and transfer the documents.
    Question. You have no knowledge of documents being turned over in 
late January, early February?
    Answer. That may have happened, but as I have tried to explain, 
people who were my subordinates on the staff undertook the collection 
to--undertook to supervise the collection of the documents, the 
handling of them once they came in and then the transmittal of them to 
the requesting party. I did not intervene in that process. I was not a 
screen between the collection of the documents and the transmittal of 
them, either to the Department of Justice or to you. I wasn't a screen 
in the middle of that process.
    Mr. McLaughlin. Can I ask a follow-up?
    Ms. Comstock. Can I finish my questions first?
    Mr. McLaughlin. Can I ask a follow-up? Barbara, are you going to 
deny me the opportunity to ask a directly relevant follow-up question?
    Mr. Quinn, is the Department of Justice subject to grand jury 
secrecy rules which cover the treatment and handling of documents and 
which do not apply to this committee?
    The Witness. That's correct.

                      EXAMINATION BY MS. COMSTOCK.

    Question. And I am talking about the timetable, and the timetable 
here--did the Justice Department, did you have any discussions with 
them that their timetable of producing things in late January, early 
February was unreasonable?
    Ms. Behan. I just want to say, I think this line of questioning is 
highly argumentative to what he is trying to address, which has to do 
with compliance with subpoenas for this committee and has nothing to do 
with the Department of Justice.
    The Witness. You know, the protocols were of course in place in the 
case of the Justice Department. I reached out to Chairman Burton, I 
asked him to sit down with me, I asked him to talk to me about the 
timetable for production. I never got a call.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And at that time you were planning to leave the White 
House; isn't that correct?
    Answer. I reached out to the Chairman, I asked him to sit down with 
me, I asked him to discuss the timetable for the production of 
documents. I never heard from him.
    Question. Well, I think the record will reflect the January 15 
letter was addressed to both Mr. Ruff and you, and Mr. Ruff also 
reached out, and since Mr. Ruff was going to be the person there long-
term, that was the person that the Chairman contacted.
    Mr. McLaughlin. Who is testifying now?

                      EXAMINATION BY MS. COMSTOCK:

    Question. But I am trying to find out if you know about the body of 
documents----
    Answer. I can't explain to you why it was that the meeting I 
requested took place 3 weeks later. If there was such a sense of 
urgency that we had to have the documents by the time Justice had them 
or by the end of January, I would think that meeting could have taken 
place at an earlier point, but it is not for me to explain that.
    All I can point out is that, as you will see from the documents I 
sent to the White House staff, number one, I put demanding timetables 
on them for the production of documents. Number two, I didn't ask for 
them once, I asked for them twice, and I twice put demanding timetables 
on them. Number three, I received the Chairman's request and responded, 
I think, in a forthcoming way, and expressed an eagerness to sit down 
with him and talk about how we could cooperate and meet his needs. Now 
the paper speaks for itself, I think.
    Question. Was there any particular reason that you felt that the 
January 30 deadline, given that these documents were collected, that no 
documents could be provided at that time?
    Answer. What January 30 deadline?
    Question. That was in the January 15 letter. The January 15 letter, 
Exhibit No. 10, had a deadline of January 30. I am wondering if there 
was a particular reason you can recall----
    Answer. My recollection is that we did not have in place at that 
time a protocol for the handling of the documents. We didn't have any 
understanding about how these documents would be handled, and I think 
it was very important that we have that in place.
    Question. Do you recall turning over documents relating to the 
coffees, providing them to the press in this time frame?
    Answer. I don't, no.
    Question. Were you involved in that at all?
    Answer. I am not sure----
    Question. I mean in doing a final review of them or a sign-off that 
they could be turned over or provided to the press.
    Answer. I am not sure what documents you are talking about.
    Question. The documents on the White House political coffees.
    Answer. If there were people in the White House whose job it was to 
deal with the press or whose job it was to deal with politics or whose 
job it was to deal with things other than legal matters, who made a 
decision to turn documents over to the press, they didn't need my 
permission to do that.
    Question. Did they usually consult with you before those documents 
were turned over, if they were documents----
    Answer. I can't give you an answer that applies to all situations.
    Question. But if I can finish my question, for example, when Mr. 
Fabiani was there, during your tenure for the most part; is that 
correct?
    Answer. Correct.
    Question. Before he would turn over documents to the press that 
were basically documents provided to various investigations, would he 
consult with you before turning those documents over to the press?
    Answer. He might or might not. It would depend on whether Jane 
recommended that he talk to me.
    Question. Is that part of the, I guess the reporting situation, 
where Jane would sometimes consult with Harold Ickes on that type of 
thing rather than you?
    Answer. That might have been a political judgment, not a legal 
issue.
    Question. On the White House political coffees information which 
was released in late January, do you recall being involved in that 
decision at all?
    Answer. I don't. I don't want to rule it out, but I just don't now 
remember.
    Mr. Kanjorski. For the record, may I ask, Ms. Comstock, my 
understanding is that Congress took no action to authorize the 
investigation of the campaign fund-raising until some time after its 
reorganization in January. In Mr. Burton's letter he references a prior 
understanding of 15 days as a reasonable response period. Isn't that 
consistent with the examination made of Whitewater, the FBI files, and 
sundry other examinations of Mr. Clinger's committee, as opposed to any 
understanding or protocol having taken place with Mr. Quinn and the 
White House regarding campaign files, or am I missing something? I 
assume we went home for an election in early October and had no further 
meeting with the committee to transact any business and any further 
examination until we returned in January. Am I understanding that?
    Ms. Comstock. I believe the 15-day turnaround time was both based 
on the fact Mr. Quinn's directives indicated documents would have been 
gathered at this point, as well as a previous understanding that that 
was an agreed upon turnaround time.
    The Witness. In another context. But the Congressman is quite right 
that it----
    Ms. Comstock. Which I think we clearly said and is clearly noted in 
the record.
    The Witness. At this point in time, and the reason we said ``I know 
that we will want to explore with you,'' I am quoting from my letter, 
``the scope and bases for your inquiries,'' is because it was not at 
all clear that this committee----
    Mr. Kanjorski. Had jurisdiction.
    The Witness. Had jurisdiction. We had Mr. Solomon expressing a good 
deal of interest. There was talk about the creation of a select 
committee. There was talk about the creation of a joint committee 
between the House and the Senate.
    Mr. Kanjorski. That goes to, and I want this on the record, these 
letters of late October or early November. Anyone in Washington at that 
period of time knew we were involved in a congressional and 
presidential election, the committee was no longer sitting, and the 
committee's charge in the 104th Congress had been an examination of 
Whitewater, FBI, and----
    Mr. McLaughlin. Travel Office.
    Mr. Kanjorski. Yes, Travel Office. I have lost track of all the 
investigations we have been involved in, but they all came to an end 
and the committee was charged with filing a report. Those members of 
the committee would have been astounded to know that Mr. Clinger, who 
was now clearly leaving office within the 60 days, would be making 
demands upon the White House on anything to do with campaign finance 
reform, because it was not an issue at that time before the committee.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I would like to talk briefly about your transition 
between you and Mr. Ruff. Can you just generally describe to us what 
assistance you provided to Mr. Ruff during the transition time? Perhaps 
you can tell us what the transition time period was, first.
    Answer. I provided all I could because I was so pleased he was 
there.
    Question. Was there an overlapping time when you both worked in the 
office together?
    Answer. Yes, a bit. Not as much as I would have liked, and not as 
much time as I had actually in the office with my predecessor, because 
my recollection is that Chuck had had more difficulty than he expected 
finding a replacement for himself at the Corporation Counsel's Office, 
and so he got out of there later than he had hoped to, so we didn't 
have as much time as I think we would have liked.
    Question. And did you have him meet Ms. Mills and the other people 
that had been handling this particular investigation, in terms of 
transitioning this information to him?
    Answer. We went through--I set up a series of briefings over the 
course of probably a week, in which people working on different matters 
came in and brought Chuck up to speed on those matters. It is 
important, I think, to put this in some context.
    Again, these matters with which you are now concerned, the 
production of documents on this inquiry at the time, and I am afraid 
that it has grown, but at the time these were just a small part of the 
work of our office. We had responsibility for a great many other 
matters ranging from, you know, overseeing the vetting of senior level 
appointees and the selection of candidates for different kinds of 
offices to advising the President and people in the White House on a 
range of legal issues related to policy matters.
    We would, for example, get involved in legislative issues that 
raised legal concerns. There were, for example, certain constitutional 
concerns that came up in welfare reform. We had to have people work on 
that. We were involved in legal reform, product liability and the like. 
We were involved in the tobacco litigation.
    Question. Well, I understand there are a lot of duties at the 
Counsel's Office, but I want to talk about----
    Answer. What I want you to understand is that in bringing Chuck 
Ruff up to speed on these matters, this would be but a fraction of the 
things he had to worry about.
    Question. And I just wanted to get an understanding of how you 
brought him up to speed on these particular campaign fund-raising 
matters.
    Answer. He would have been briefed by the people working on the 
matter.
    Question. Do you recall who that was at that time?
    Answer. No doubt it would be Cheryl and Karen Popp and whoever else 
might have been tasked to the matter at the time.
    Question. Okay. And do you recall generally, you know, what they 
had learned at that point or what they briefed Mr. Ruff on?
    Answer. No.
    Question. I mean, just topics? Not to go into details, but just, 
you know, ``We have gathered this many documents, this many boxes,'' 
something like that?
    Answer. I think we probably would have run through the status of 
the requests and identified for him the various requests coming in on 
this, and probably at that time point, you know, said our work is 
ongoing, we are still gathering the documents.
    Question. And the team that was going to be responding to this was 
both going to respond to the Justice Department investigation as well 
as the congressional investigation; is that correct?
    Answer. Actually now, as we are talking about this, I am 
recollecting. I mentioned to you earlier in the deposition that I had 
promised Cheryl I would be bringing in new people. When I made the 
decision to leave, it occurred to me that Chuck should be involved in 
the selection of those new people; that I shouldn't, in other words, 
hire a team of people to handle these matters and then turn around and 
say to Chuck, you know, ``I have hired six people and,'' you know, 
``you don't have any say in it.'' So at the same time he was coming in, 
we were in the process of interviewing people and hiring people for 
those new positions, people like Lanny Breuer and so on.
    Question. And did you interview Mr. Breuer?
    Answer. I did.
    Question. Okay. And did you have any briefings with Mr. Breuer or 
did you provide him with any briefings?
    Answer. Well, he actually came on after Chuck got there, okay, so 
we were kind of like passing on the way through the door.
    Question. So other than a meeting with him and interviewing him, 
did you have other meetings with him?
    Answer. I don't think he showed up for work until I was gone.
    Question. Okay. Do you know who was sort of physically showing 
people where, here are the files, here is what we have gathered?
    Answer. No. That happened a level or two down.
    Question. And who would have been doing that, to your knowledge?
    Answer. Karen Popp, Cheryl Mills, others who were doing the detail 
work.
    Question. And after you left, did Mr. Ruff or others at the 
Counsel's Office call you about where to find things or where documents 
might be or any potentially responsive documents?
    Answer. No, because I didn't have any documents--well, I mean, that 
is an overstatement, as you can no doubt imagine, but I didn't have 
other people's documents. I didn't collect things and store them in my 
office or outside my office or anything like that, so I wouldn't be the 
person they would call looking for documents. And I left my stuff 
there, so they had my stuff, they didn't need to call me for my stuff, 
and documents belonging to others were in the possession of others.
    Question. And I am not specifically asking about did they call you 
to say, you know, give us something, did they call you to ask, you 
know, can you give us some ideas on, you know, where certain things 
were.
    Answer. No, because, again--I have said this a couple times but let 
me try again--I wasn't the person who was the interface with the other 
offices. That happened a level or two down in my office, and there were 
other lawyers like Karen Popp who would know far better than I, you 
know, whether a particular office had responsive documents, the history 
of having been through the office, having talked to people, having 
gotten questions. Those would have gone to more junior lawyers in the 
office.
    Question. Was the practice of those lawyers to, after they sent out 
the directives, then they would try and ensure that documents were 
coming in in a timely fashion, would they get certifications from 
various offices that documents had been produced? Would that be 
something that was done?
    Ms. Behan. To the extent you know.
    The Witness. I don't think there was a uniform practice, but I 
think that that happened on some occasions. I just can't tell you which 
ones.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know if sometimes they would go to particular 
offices to say, you know, do you have any other----
    Answer. I don't have any firsthand knowledge.
    Question. If you know, if one stands out, that we would go to the 
Political Affairs Office or we would go to Mr. Ickes office to find 
that?
    Answer. I don't have firsthand knowledge. Others could answer that 
question better. I certainly believe there would have been a 
communication with the likely places where responsive documents would 
be.
    Question. Okay. While you were still there, since the issue of the 
coffees did come up in January and documents regarding the coffees were 
turned over to the press, do you recall at that time if anyone in the 
Counsel's Office went to Mr. Sosnik, who had been involved in that, to 
discuss with him any potentially responsive documents on the coffees?
    Answer. I don't know the answer to that.
    Question. And again, it is your testimony, then, you weren't 
involved at all in collecting documents or have any knowledge of the 
universe of documents about White House coffees?
    Answer. That is correct.
    Question. So no one ever mentioned to you anything about the 
videotaping or anything like that of the coffees?
    Ms. Behan. Asked and answered.
    The Witness. I heard about the videotapes recently.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. And since this has all come out, has anyone said to 
you something like, ``Boy, so-and-so knew that was there, they did, why 
didn't they say it,'' anything like that?
    Answer. No.
    Ms. Comstock. Okay. If we can take a brief break, the only 
questions I have remaining are a number of questions about Mr. Hubbell 
that I mentioned, and then I think we will be done shortly.
    [Brief recess.]
    Ms. Comstock. Back on the record.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Just on the question of tapes, I just wanted to finish up 
just a couple of other questions, just to make clear for the record.
    You have no knowledge of any other type of taping that the 
President does of any events or anything independently of anything WHCA 
does?
    Answer. No, I don't.
    Question. All right. And regarding pictures, you had mentioned 
Johnny Chung running around with pictures, but also you said there are 
regular photographers that are often taking pictures?
    Answer. Yes.
    Question. Do you know, in the course of doing document production, 
if going down to look at the pictures was something that your staff 
normally did in order to be responsive to subpoenas?
    Answer. I am sure the people in the Photographers' Office would 
have been recipients of our requests, but, again, I wouldn't have been 
the person dealing with those offices.
    Question. So you have no knowledge of how they are listed or 
anything like that at the photo office?
    Answer. I do not, no.
    Question. Okay. I wanted to turn to Mr. Hubbell and matters related 
to him. When did you first meet Webster Hubbell?
    Answer. Sometime during the transition, that is to say, after the 
election in 1992 and before the inauguration in 1993.
    Question. Were you at all involved in his confirmation process?
    Answer. No, I wasn't.
    Question. And did there come a time when you learned of legal 
problems that Mr. Hubbell had with his law firm?
    Answer. Yes.
    Question. And when did you first learn of that?
    Answer. I think it would have been when they became public.
    Ms. Behan. I just want to for the record object on scope. Unless 
you tie it in, I don't see how this has to do with political fund-
raising improprieties.
    Mr. Tierney. When you object, are you instructing the witness not 
to testify or not?
    Ms. Behan. I do believe I am trying to limit the scope of this to 
proper matters, because I don't believe Mr. Hubbell's personal problems 
are something that relates to fund-raising. So I am permitting the 
witness to answer, but with that objection.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And the report that the committee has in terms of the 
depositions did include matters relating to Mr. Hubbell and the Lippo 
Group and his consultant contracts, which is largely what we are going 
to be focusing on, is any knowledge you have about work he had after 
leaving.
    Answer. Okay.
    Question. And this is to establish a foundation for that and to go 
into that.
    Ms. Behan. Just as a technical matter, I don't think the report 
determines the scope of the deposition, but in any case I am permitting 
the witness to answer.
    Mr. McLaughlin. Similarly, I think it would be quite remarkable if 
one committee of Congress could bind the others by a report to its 
resolution. I am not sure the Rules Committee report, which is in fact 
a description of what the investigation might be about, is in no way 
dispositive of the question of what this committee's proper 
jurisdiction is pursuant to the resolution passed by the full house.
    Ms. Comstock. Do you recall the question now?
    The Witness. No.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall, other than learning about it in press 
accounts, do you recall knowing about Mr. Hubbell's legal problems 
prior to the press accounts?
    Answer. I do not.
    Question. And do you recall discussing that with anybody at the 
White House, what his legal situation was?
    Answer. You know, I am confident that I would have had 
conversations, I mean, you know, water cooler conversations with 
people. It was a fairly high profile matter. But I don't recall 
anything beyond that.
    Question. Okay. Did you ever talk to Mr. Hubbell about his legal 
situation?
    Answer. Not in any--I never discussed with him the factual 
allegations. I don't recall ever having had any such conversation with 
him.
    Question. Okay. And after he announced his resignation, at or 
around, I believe it was March 14th, and then he resigned in early 
April from the Justice Department, after he had announced his 
resignation, you kept in touch with him; is that correct?
    Answer. I don't think that is correct.
    Question. Did you have occasion to meet with him socially?
    Answer. I went to a good-bye party that employees of the Department 
of Justice had for him after he left. I have had lunch with Web Hubbell 
probably twice in my life.
    Question. Okay.
    Answer. I don't know exactly when. Whether one of those occasions 
was after he resigned or not, I can't be sure.
    Ms. Comstock. Okay. Well, this is a calendar of Mr. Hubbell's. This 
was a March 16, 1994 calendar entry. We will make that Deposition 
Exhibit No. 12.
    [Quinn Deposition Exhibit No. 12 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. And it indicates a lunch on March 16, 1994.
    Answer. Can I ask a question?
    Question. Sure. We may have your calendar too. This is Mr. 
Hubbell's, and I am not asking you to--you know, obviously this is his 
calendar.
    Answer. I don't know if this lunch actually happened. I believe it 
indicates on my calendar that I had lunch with Senator Mikulski this 
day.
    Question. Okay.
    Answer. But I am not sure. I know it wasn't the three of us, but I 
just can't be sure. I don't know if this happened.
    Question. Okay. And do you recall generally, then, after Mr. 
Hubbell left, if you discussed with him what he was going to be doing 
in terms of employment?
    Answer. I don't think I ever discussed with Mr. Hubbell what he was 
going to be doing.
    Question. Did you have any understanding of what he was doing at 
that time?
    Answer. No, I did not.
    Question. Did he ever discuss with you if you could help him with 
any assistance in getting a job at a law firm in town?
    Answer. He never asked for my help.
    Question. Not in any way, whether at a firm or consultancy or 
anything like that?
    Answer. No.
    Question. Do you have any knowledge of Mr. Hubbell doing any work 
for the Lippo Group?
    Answer. No, I don't.
    Question. Or for James Riady?
    Answer. No, I don't.
    Question. Did you have any knowledge of any of the other employers 
that Mr. Hubbell did consultant work for?
    Answer. I don't believe so.
    Question. Okay. Did you have any knowledge about Mr. Hubbell 
obtaining a contract with the City of Los Angeles?
    Answer. No, I did not.
    Question. Did you learn about that at any time while you were in 
the Counsel's Office?
    Answer. When it became public knowledge is, I believe, when I 
learned about it.
    Question. Were you involved in addressing any of the legal issues 
regarding that, or inquiries?
    Answer. Not that I recall.
    Question. All right. Would that have largely been in Ms. 
Sherburne's bailiwick?
    Answer. It might have been. I just don't recall the context.
    Question. Okay. Were you aware of any meetings at the White House, 
prior to Mr. Hubbell's resignation, aware of ever any meetings that any 
attorneys had at the White House to discuss his resignation?
    Answer. No. I wasn't counsel then.
    Question. I understand. You were still with the Vice President at 
that time, correct?
    Answer. Right, yes, so I wasn't privy to any of those 
conversations.
    Question. Were you aware of Mr. Hubbell staying in touch with 
people at the White House, generally?
    Answer. I don't think I have any or had any particular knowledge of 
his doing so. I don't think I had any particular knowledge of that.
    Question. Do you recall seeing him around the White House during 
the months after he left, at the Mess or visiting people or anything 
like that?
    Answer. I can't rule it out. It would not have been a common 
occurrence. I can't rule out that I might not have seen him on the 
premises on an occasion, but I don't have any specific memory of seeing 
him around.
    Question. Okay.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you aware of Mr. Hubbell utilizing office space with 
Michael Cardozo?
    Answer. No, I don't remember that.
    Question. Were you aware of any efforts to raise any money for Mr. 
Hubbell's legal defense fund?
    Answer. No.
    Question. No one ever contacted you with regard to any matters 
related to that defense fund as opposed to the President's?
    Answer. No; nor asked for a donation.
    Question. How did you first learn about Mr. Hubbell--that Mr. 
Hubbell was going to plead guilty to some of the charges? And that was 
in December of 1994, I believe, that he plead guilty.
    Answer. I don't recall when I learned that, and I don't think I had 
any particular advance knowledge of it.
    Question. Is your first recollection, then, press accounts?
    Answer. Probably. Again, I can't rule out that someone might have 
told me that it was going to happen but I am sure I didn't know of it 
long before it happened.
    Question. Okay. Other than the--you said you maybe had two lunches 
with Mr. Hubbell. Did you have any other contact with him? And I 
understand they may be not after he left but I guess one of the other 
ones, maybe before or after.
    Answer. Oh, yes, I had contact with him.
    Question. What was that contact?
    Answer. He was the Associate Attorney General.
    Question. I am saying after he left the Justice Department. I am 
saying you had said you had two lunches, and I just wanted to clarify 
for the record. I am not representing, and I don't think you have 
testified, that both of those lunches were after he left; you just had 
said in your life. So I just wanted to clarify my question.
    Answer. I had contact with him while he was in the Department of 
Justice on a number of matters. After he left the Department of 
Justice, I recall seeing him at the going away party I mentioned, which 
was not long after his departure. You know, I well might have seen him 
on one or two occasions between then and now, but I don't think on more 
than one or two occasions.
    Question. And do you know Mark Middleton?
    Answer. Yes.
    Question. Okay. And did you have--did you work with him while he 
was at the White House on any matters?
    Answer. Not really. I mean, we might have had dealings on an issue 
in which he was acting on behalf of Mack McLarty but I didn't have sort 
of regular ongoing dealings with him.
    Question. Okay. Did you ever have any knowledge of meetings that he 
was having with the Riadys or John Huang?
    Answer. No, I didn't.
    Question. Or Charlie Trie?
    Answer. No.
    Question. Or Mr. Wu or Ng Lap Seng?
    Answer. No.
    Question. Did you ever have occasion to meet Mr. Wu at the White 
House?
    Answer. No.
    Question. Or Antonio Pan?
    Answer. No.
    Question. Do you know who these individuals are?
    Answer. No.
    Question. Other than seeing them in the press in the past weeks?
    Answer. No, I don't.
    Question. Or the past months.
    Answer. These names don't ring any bells.
    Question. Okay. After Mr. Middleton left the White House, which was 
sometime in February of 1995, were you aware of what he was doing after 
he left the White House?
    Answer. No.
    Question. Okay. Did you have any knowledge of him working on any 
matters with the Riadys?
    Answer. No.
    Question. Or the Lippo Group?
    Answer. No.
    Question. Were you aware of him being in contact with Mr. Hubbell 
about any of these matters?
    Answer. No.
    Question. Or do you have any knowledge of him bringing donors or 
fund-raisers to the White House?
    Answer. No.
    Question. Okay. Did you ever have occasion, when you were in the 
Counsel's Office, to address any issues as to, you know, how people 
could use the White House--people such as Mr. Middleton coming back and 
bringing in donors or bringing business associates into the White House 
Mess or any issues like that?
    Answer. Well, I can't recall when the Middleton story broke. I 
remember----
    Question. By that do you mean the story about the alleged $15 
million contribution?
    Answer. No, no, no.
    Question. The phone----
    Answer. The story about Mark's phone rolling over or having a 
recording on one of McLarty's lines or something to that effect.
    Question. That was the end of October.
    Answer. Of?
    Question. 1996, if that helps.
    Answer. And his use of the Mess and people coming in. I recall 
being very unhappy about that.
    Question. Did you take any action with regard to that?
    Answer. Yeah. I think we did take action to make sure that, first 
of all, that his phone situation was changed. I think we looked into 
whether there were any other phone lines that--of departed employees 
that were being similarly misused, and just made sure that this sort of 
thing wasn't widespread.
    Question. Okay. And did you discuss with Mr. Middleton's attorney 
any matters related to this?
    Answer. Who is his attorney?
    Question. Bob Luskin.
    Answer. I don't believe so.
    Question. Or Mr. Middleton himself?
    Answer. No, I did not.
    Question. Are you aware of anyone in the Counsel's Office talking 
with Mr. Middleton or his attorney?
    Answer. I can't speak to that. I just don't know. I am not sure. 
You would have to ask others.
    Question. And did you have anyone, at that time in October 1996, 
check into any matters related to Mr. Middleton, or have anyone inform 
you about any fund-raising activities of Mr. Middleton?
    Answer. I don't think--again, when--I don't know that I knew about 
Mr. Middleton's fund-raising activities. What first came to my 
attention were the stories about Middleton having a phone number--you 
know, his old phone number, still having a voice message from him or 
directing people to where he was working; his being able to use the 
White House Mess and having other people get him into the Mess and put 
meals on their accounts and so on, so that he could entertain people 
there. I was very unhappy about that.
    Question. Who did you learn about that from?
    Answer. I don't recall, but we were--I was very unhappy, and I 
instructed people to take steps to make sure that that didn't happen, 
either in Mark's case or others.
    Question. Were you able to obtain records to find out when and how 
he had done that?
    Answer. I am not clear on the details of how much we knew, but I 
know we took action.
    Question. Okay. And just one final area. You mentioned the database 
a few times today, the White House database, which the subcommittee, 
this committee, has been looking at. Are you aware of--do you recall 
documents being gathered last fall about the database?
    Answer. The fall of '96?
    Question. Yes.
    Answer. Was it last fall? I guess that's right. Yeah.
    Question. Okay. And do you recall any documents being withheld or 
not turned over to the committee for any particular reason?
    Answer. I know that there were documents--yes, indeed. I know that 
there were documents related to the database that were deemed to be 
nonresponsive.
    Question. Okay. And you recall----
    Answer. They were not called for, I should say.
    Question. Do you recall reviewing those particular documents?
    Answer. I don't recall reviewing particular documents. I do recall 
being briefed on a group of documents which had been deemed to be not 
called for. But as I look at particular documents, I can't tell you 
that I have seen them, and I know that in some cases I don't feel like 
I did see the particular documents.
    Question. And do you recall who briefed you on that?
    Answer. Probably Cheryl Mills.
    Question. Okay. And was it Ms. Mills then who made the 
determination that she presented to you as to what was responsive or 
not?
    Answer. Not necessarily.
    Ms. Behan. I would object. Okay.
    The Witness. Not necessarily. They were more junior people, I 
think, who made the first cuts, the first determination. That was my 
impression.
                      
EXAMINATION BY MS. COMSTOCK:
    Question. But is it your recollection you signed off on particular 
documents not being responsive and produced?
    Answer. What I am saying----
    Question. And therefore not produced?
    Answer. No, I am saying something different; that--if you want to 
talk about a particular document, I am happy to, and I can answer your 
question about any particular document.
    Question. I don't mean to get into this at all in any length, but I 
just want to know if you discussed this.
    Answer. I recall being briefed about a group of documents, some of 
which I am sure I saw, all of which I am prepared to have others say I 
saw, but there are some documents which when I look at them now, I do 
not recognize them and I do not believe I have seen them previously.
    Ms. Behan. Did you want to state an objection for the record?
    Mr. McLaughlin. If you don't intend to go into it in any great 
length, why are we wasting everyone's time here by going into it in a 
cursory and rather confused fashion?
    Ms. Comstock. In order to find the witness' knowledge about this.
    The Witness. Are there----
    Mr. McLaughlin. Either do it properly or don't do it at all, is 
what I am saying.
    Ms. Comstock. I believe that is all I have for today.
    Mr. McLaughlin. Okay. I have just a few questions, but I will defer 
to the Members if they want to ask anything.
    Mr. Tierney. I just want to extract the promise from you that it is 
just a few of them.
    Mr. McLaughlin. Yes, just a few.
    Mr. Kanjorski. Go ahead.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. I just have two questions. To the best of your knowledge, 
did you or anyone at the White House knowingly withhold responsive, 
nonprivileged documents from this committee during your tenure at the 
White House?
    Answer. Absolutely not.
    Question. Did you consistently utilize your best good faith efforts 
to respond to this committee's request for documents and information at 
every step of the process?
    Answer. Yes, we did. We did what I think was a thoroughly 
professional job to respond completely and in a timely fashion, subject 
to the appropriate protocols for the protection of documents, the 
recognition and privileges, ensuring the confidentiality of sensitive 
materials; and we did this, again, despite what I knew to be, 
particularly in the fall of 1996, an overtly partisan and politically 
motivated effort to harass us.
    Mr. McLaughlin. I have nothing further. Thank you.
    The Witness. Thank you.
    Ms. Comstock. Thank you. We are off the record.
    [Whereupon, at 12:50 p.m., the deposition was concluded.]

    [The deposition exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.385
    
    [GRAPHIC] [TIFF OMITTED] T5405.386
    
    [GRAPHIC] [TIFF OMITTED] T5405.387
    
    [GRAPHIC] [TIFF OMITTED] T5405.388
    
    [GRAPHIC] [TIFF OMITTED] T5405.389
    
    [GRAPHIC] [TIFF OMITTED] T5405.390
    
    [GRAPHIC] [TIFF OMITTED] T5405.391
    
    [GRAPHIC] [TIFF OMITTED] T5405.392
    
    [GRAPHIC] [TIFF OMITTED] T5405.393
    
    [GRAPHIC] [TIFF OMITTED] T5405.394
    
    [GRAPHIC] [TIFF OMITTED] T5405.395
    
    [GRAPHIC] [TIFF OMITTED] T5405.396
    
    [GRAPHIC] [TIFF OMITTED] T5405.397
    
    [GRAPHIC] [TIFF OMITTED] T5405.398
    
    [GRAPHIC] [TIFF OMITTED] T5405.399
    
    [GRAPHIC] [TIFF OMITTED] T5405.400
    
    [GRAPHIC] [TIFF OMITTED] T5405.401
    
    [GRAPHIC] [TIFF OMITTED] T5405.402
    
    [GRAPHIC] [TIFF OMITTED] T5405.403
    
    [GRAPHIC] [TIFF OMITTED] T5405.404
    
    [GRAPHIC] [TIFF OMITTED] T5405.405
    
    [GRAPHIC] [TIFF OMITTED] T5405.406
    
    [GRAPHIC] [TIFF OMITTED] T5405.407
    
    [GRAPHIC] [TIFF OMITTED] T5405.408
    
    [GRAPHIC] [TIFF OMITTED] T5405.409
    
    [GRAPHIC] [TIFF OMITTED] T5405.410
    
    [GRAPHIC] [TIFF OMITTED] T5405.411
    
    [GRAPHIC] [TIFF OMITTED] T5405.412
    
    [GRAPHIC] [TIFF OMITTED] T5405.413
    
    [GRAPHIC] [TIFF OMITTED] T5405.414
    
    [GRAPHIC] [TIFF OMITTED] T5405.415
    
    [GRAPHIC] [TIFF OMITTED] T5405.416
    
    [GRAPHIC] [TIFF OMITTED] T5405.417
    
    [GRAPHIC] [TIFF OMITTED] T5405.418
    
    [GRAPHIC] [TIFF OMITTED] T5405.419
    
    [GRAPHIC] [TIFF OMITTED] T5405.420
    
    [GRAPHIC] [TIFF OMITTED] T5405.421
    
    [GRAPHIC] [TIFF OMITTED] T5405.422
    
    [GRAPHIC] [TIFF OMITTED] T5405.423
    
    [GRAPHIC] [TIFF OMITTED] T5405.424
    
    [GRAPHIC] [TIFF OMITTED] T5405.425
    
    [GRAPHIC] [TIFF OMITTED] T5405.426
    
    [GRAPHIC] [TIFF OMITTED] T5405.427
    
    [GRAPHIC] [TIFF OMITTED] T5405.428
    
    [GRAPHIC] [TIFF OMITTED] T5405.429
    
    [GRAPHIC] [TIFF OMITTED] T5405.430
    
    [GRAPHIC] [TIFF OMITTED] T5405.431
    
    [GRAPHIC] [TIFF OMITTED] T5405.432
    
    [GRAPHIC] [TIFF OMITTED] T5405.433
    
    [GRAPHIC] [TIFF OMITTED] T5405.434
    
    [GRAPHIC] [TIFF OMITTED] T5405.435
    
    [GRAPHIC] [TIFF OMITTED] T5405.436
    
    [GRAPHIC] [TIFF OMITTED] T5405.437
    
    [GRAPHIC] [TIFF OMITTED] T5405.438
    
    [GRAPHIC] [TIFF OMITTED] T5405.439
    
    [GRAPHIC] [TIFF OMITTED] T5405.440
    
    [GRAPHIC] [TIFF OMITTED] T5405.441
    
    [GRAPHIC] [TIFF OMITTED] T5405.442
    
    [GRAPHIC] [TIFF OMITTED] T5405.443
    
    [GRAPHIC] [TIFF OMITTED] T5405.444
    
    [GRAPHIC] [TIFF OMITTED] T5405.445
    
    [GRAPHIC] [TIFF OMITTED] T5405.446
    
    [GRAPHIC] [TIFF OMITTED] T5405.447
    
    [GRAPHIC] [TIFF OMITTED] T5405.448
    
    [GRAPHIC] [TIFF OMITTED] T5405.449
    
    [GRAPHIC] [TIFF OMITTED] T5405.450
    
    [GRAPHIC] [TIFF OMITTED] T5405.451
    
    [GRAPHIC] [TIFF OMITTED] T5405.452
    
    [GRAPHIC] [TIFF OMITTED] T5405.453
    
    [GRAPHIC] [TIFF OMITTED] T5405.454
    
    [GRAPHIC] [TIFF OMITTED] T5405.455
    
    [GRAPHIC] [TIFF OMITTED] T5405.456
    
    [GRAPHIC] [TIFF OMITTED] T5405.457
    
    [GRAPHIC] [TIFF OMITTED] T5405.458
    
    [GRAPHIC] [TIFF OMITTED] T5405.459
    
    [GRAPHIC] [TIFF OMITTED] T5405.460
    
    [The deposition of Steven Smith follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                      DEPOSITION OF: STEVEN SMITH
                                 Saturday, October 18, 1997

    The deposition in the above matter was held in Room 2303, Rayburn 
House Office Building, commencing at 4:00 p.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Barbara Comstock, Chief Investigative Counsel; Kristi Remington, 
Investigative Counsel; Andrew J. McLaughlin, Minority Counsel; 
Christopher Lu, Minority Counsel.
For STEVEN SMITH:
    LIEUTENANT COLONEL JOHN SPARKS, ESQ.
    National Security Council

    Ms. Comstock. Okay, we can get on the record here. I am going to 
read through this preamble that we have.
    Good afternoon. On behalf of the members of the Committee on 
Government Reform and Oversight, I would like to thank you for 
appearing here today.
    This proceeding is known as a deposition. The person transcribing 
this proceeding is a House reporter and notary public, and I will now 
request that the reporter place you under oath.

   THEREUPON, STEVEN SMITH, a witness, was called for examination by 
   counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

    Ms. Comstock. I would like to note for the record those who are 
going to be here at the deposition today. My name is Barbara Comstock, 
I'm the chief Majority investigative counsel and the designated counsel 
for the committee in this deposition. I'm accompanied today by Kristi 
Remington, who is also with the Majority staff; and Minority counsel 
who will be here today is Andrew McLaughlin.
    Is it Colonel Smith?
    The Witness. No, I'm a civilian. Steven Smith.
    Ms. Comstock. Mr. Steven Smith is here represented by Colonel John 
Sparks this afternoon.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath, your testimony 
here today has the same force and effect as if you were testifying 
before the committee or in a courtroom.
    If I ask you about conversations you have had in the past and you 
are unable to recall the exact words used in that conversation, you may 
state that you are unable to recall those exact words and then you may 
give me the gist or substance of any such conversations to the best of 
your recollection. If you recall only part of a conversation or only 
part of an event, I would ask you to give me your best recollection of 
those events or parts of conversations that you do recall.
    If I ask you whether you have any information about a particular 
subject and you have overheard other persons conversing with each other 
regarding that subject or have seen correspondence or documentation or 
any records or, obviously in this case videotapes regarding that 
subject, please tell me what you do have such information about and 
indicate the source from which you derived such knowledge.
    Before we begin the questioning, I would like to give you some 
background about the investigation and your appearance here today. 
Pursuant to its authority under House Rules X and XI of the House of 
Representatives, the committee is engaged in a wide-ranging review of 
possible political fund-raising improprieties and possible violations 
of law on related matters within the committee's jurisdiction.
    Pages 2 through 4 of House Report 105-139 summarizes the 
investigation as of June 19, 1997, and describes any new matters which 
arise directly or indirectly in the course of investigation. Also, 
pages 4 through 11 of the report explain the background of the 
investigation. All questions relating either directly or indirectly to 
these issues, or questions which have a tendency to make the existence 
of any pertinent fact more or less probable than it would be without 
the evidence, are proper.
    I would note at this point that your appearance here today is 
largely in regard to the videotapes and other records in WHCA, and so 
many of the general matters that the committee is investigating would 
not obviously be applicable in your case, but I want to just give you 
an understanding of the scope. But we have discussed with Colonel 
Sparks the areas that we are going to be addressing, and I think he is 
familiar from the other depositions what we will be going over.
    Lieutenant Colonel Sparks. Yes.
    Ms. Comstock. The committee has been granted specific authorization 
to conduct this deposition pursuant to House Resolution 167, passed by 
the full House on June 20, 1997. Committee Rule 20 outlines the ground 
rules for the deposition.
    Majority and Minority committee counsels will ask you questions 
regarding the subject matter of the investigation. Minority counsel 
will ask questions after Majority counsel is finished. Members of 
Congress who wish to ask questions will be afforded an immediate 
opportunity to ask their questions at any time when they may be 
present. We have had no indication today that there will be any Members 
attending. If they were here, when they were finished, committee 
counsel would resume questioning.
    Pursuant to the committee's rules, you are allowed to have an 
attorney present to advise you of your rights. Mr. Sparks is here 
representing you in that capacity today, although I would like to note 
for the record that Colonel Sparks is counsel at the NSC and not 
personal counsel for Mr. Smith.
    Any objection raised during the course of the deposition shall be 
stated for the record. If the witness is instructed by his counsel, 
Colonel Sparks, not to answer a question or otherwise refuses to answer 
a question, Majority and Minority counsel will confer to determine 
whether the objection is proper. If Majority and Minority counsel agree 
that a question is proper, the witness will be asked to answer the 
question. If an objection by your counsel is not withdrawn, the 
Chairman or a Member designated by the Chairman may decide if the 
objection is proper.
    This deposition is considered as taken in executive session of the 
committee, which means it will not be made public without the consent 
of the committee pursuant to clause 2(k)(7) of House Rule XI. You are 
asked to abide by the rules of the House and not discuss with anyone, 
other than your attorney, this deposition and the issues and questions 
raised during this proceeding.
    Finally, no later than 5 days after your testimony is transcribed 
and you have been notified that your transcript is available, you may 
submit suggested changes to the Chairman. I would note we have also 
been waiving that with the consent of the Minority. We can also send 
that down to you so that you can review that instead of coming up here 
to review it. Any changes we would just ask be accompanied by your 
signature and a letter requesting those changes and that they be put in 
writing and that you sign that.
    Do you understand everything we have gone over so far?
    The Witness. I do.
    Ms. Comstock. If you have any questions as we go along, please stop 
and ask me. If a question is unclear, let me know, or Colonel Sparks 
can also let me know at any time as we are proceeding.
    We have a court reporter here today. As we proceed through the 
deposition, if you can wait until I finish the question, and then I 
will also, in turn, wait until you finish the answer so that we don't 
speak over each other, they can get a clear record.
    Mr. McLaughlin. Let me make my two quick points before you gone on.
    The first is that objections are the province of the full committee 
and not the Chairman alone under House Rule XI(2)(k).
    The second comment I want to note again for the record is the 
Minority's ongoing objections to the scheduling of these depositions at 
such times as our Members are unable to attend.
    Mr. Condit has indicated the sense of the Minority Members and has 
made that request and that request has not been honored, so here we are 
at 4:05 on a Saturday taking this deposition. Thank you.
    Ms. Comstock. I believe the Chairman has written a letter to Mr. 
Condit in that regard and we can make that part of the record.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Can you just give us your full name and your employment 
history from college forward?
    Answer. My name is Steven Smith. I'm the Chief of Operations at the 
White House Communications Agency. I'm a DOD civilian. I have been a 
part of the Department of Defense for 23 years. For 20 years and 8 
months, I was an active duty member in the United States Army. I 
retired in June of '95 as Chief Warrant Officer.
    After a short break, I came back to the Department of Defense as a 
civilian with employment at the White House Communications Agency, and 
that was in July of '95, and I have been there ever since, totaling a 
23 year period.
    Question. And who hired you for this job at the White House?
    Answer. Actually, I was previously associated with the White House 
Communications Agency when I was on active duty. I spent 6\1/2\ years 
out of my 20 years and 8 months on active duty with the White House 
Communications Agency.
    After I retired, or during that period when I had retired, they had 
put out an announcement for a DOD civilian billet within the White 
House Communications Agency and I competed for that and I was selected 
in July of '95 and came back. And that selection process was through 
the Defense Information Systems Agency, which is within the 
administrative chain of command for the White House Communications 
Agency, a part of the Department of Defense.
    Question. Do you recall who interviewed you for that position?
    Answer. They actually interviewed records. I think I was told that 
there was 60-some records that they went through. Who actually did 
that, I don't know. I just got a phone call saying, you were selected.
    Question. And who is your direct supervisor?
    Answer. My direct supervisor is Colonel Joseph J. Simmons, IV, who 
is the commander of the White House Communications Agency.
    Question. Can you generally describe your duties in your position 
as chief of operations?
    Answer. My current duties are to provide oversight and management 
of both fixed and travel missions. And basically what that means is, 
fixed means within the Washington, D.C., area. There is a very large 
robust infrastructure that the White House Communications Agency has in 
place to support the President, the National Security Council, the 
Secret Service, and to aid them in doing their duties here in 
Washington.
    And the travel portion of my duties, as far as oversight, is when 
the President travels away from the White House complex, we also send 
teams comprised of White House Communications Agency personnel to 
provide telecommunications and other related support to the President 
and his staff as directed by the White House Military Office.
    Ms. Comstock. We can go off the record for a minute.
    [Discussion off the record.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Where is your office physically located?
    Answer. I have a primary office that is physically located on the 
fifth floor of the Old Executive Office Building in Washington, D.C. I 
have a small satellite office located at the Anacostia Naval Air 
Station in Washington, D.C., in Building 399.
    Question. And who else is in that fifth floor OEOB office that you 
have, or in that general vicinity, what other WHCA people are in that?
    Answer. There is administrative staff, a noncommissioned officer in 
charge of our customer support directorate, and the officer in charge 
of that directorate also is in the same vicinity of my office that I 
have on the fifth floor.
    Question. And who is that?
    Answer. Tom Carr is the officer in charge of the customer support 
directorate and Frank Barthol is the noncommissioned officer in charge 
of that directorate, also.
    Question. Could you spell those so we can get them accurately for 
the record, if you know?
    Answer. Tom Carr, last name is C-A-R-R; Master Sergeant Barthol's 
spelling is B-A-R-T-H-O-L. I believe that is the correct spelling.
    Question. Could you generally describe the chain of command in your 
office with what you do and how you report?
    Answer. The chain of command in my office is--obviously I am the--
well, let me, if I can back up for just a second. Recently the 
organization went into a redesign and I have moved from the operations 
division chief to the headquarters element.
    Prior to July 17th, the chain of command was from the division to 
the headquarters element. Now I'm part of the headquarters staff, which 
is a recent change. So my current chain of command is from myself 
upward to Colonel Simmons. Colonel Simmons then operationally reports 
to the directorate of the White House Military Office and 
administratively he reports to the commander of the Defense Information 
Systems Agency, who is General Kelley. So we have a parallel chain of 
command going upward.
    Then downward, there are several operational directorates that are 
directly under my control, and that is the travel support directorates, 
the customer support directorate, and the Washington area support 
directorate. Each one of the directorates have divisions and branches 
and so on and so forth.
    Ms. Comstock. I just wanted to enter for the record, and we will 
make this Deposition Exhibit Number 1, the White House Communications 
Agency structure of the office.
    [Smith Deposition Exhibit No. SS-1 was marked for identification.]

    [Note.--All exhibits referred to may be found at end of 
deposition on p. 913.]


                      EXAMINATION BY MS. COMSTOCK:

    Question. Could you just generally tell us the various 
directorates, what they include?
    Answer. Going from left to right in this exhibit, on the left side 
we have input directorates. There's a personnel and security 
directorate, and in that directorate what they do is personnel 
management and security. They process security clearances and so on and 
so forth, working in concert with other DOD entities.
    Then there's a resource management directorate, which is our 
financial management and acquisition directorate.
    Then there's a systems and services directorate, and they do 
configuration management, logistics-type support.
    Then there's a program management directorate, which does just 
that, program management for radio systems, information systems and 
network type infrastructure.
    Then there's a mission support directorate, which takes care of 
training and qualifications of our personnel. And they report directly 
to the chief of staff, who is a Colonel Ken Campbell.
    Moving to the right, next is chief of operations, which is myself. 
And then we have the output directorates, which fall directly under my 
span of control, and Washington area support directorate which is our 
voice operations division, networks division, audiovisual division and 
Camp David detachment.
    Then there's a travel support directorate, and they handle all the 
deployments away from the White House complex both for the President 
and the Vice President's travel.
    Then there's a customer support directorate, and they do the 
requirements and operations and customer services type stuff.
    Question. Could you tell us who is in charge of each of these 
areas?
    Answer. I can do that, I think.
    Question. And if you don't recall someone in particular, we could 
get that for the record, too. I don't want to unnecessarily----
    Answer. The personnel and security directorate, Lieutenant Colonel 
Fountain is in charge of that directorate. A Ms. Carla Hawkins is in 
charge of the resource management directorate. A Lieutenant Colonel 
Neal Riddle is in charge of the systems and services directorate. A Mr. 
Alan Hynes is in charge of the program management directorate. 
Lieutenant Colonel Warren Snow is in charge of the mission support 
directorate. Lieutenant Colonel Marty McLain is in charge of the 
Washington area support directorate. Lieutenant Colonel Nathaniel Smith 
is in charge of the travel support directorate. And, again, Lieutenant 
Colonel Tom Carr is in charge of the customer support directorate.
    Ms. Comstock. We will make that copy, your copy, Exhibit Number 1, 
and maybe we can use it as a reference point as we go through on 
various matters.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I would like to maybe move right into the major areas, 
because I know you have testified about this before and I'm not sure if 
you may be also testifying before the Senate shortly, so I will try to 
make this as brief as we can.
    Could you just walk through your beginning to be part of the 
process of responding to any subpoenas or document requests or 
directives that came from the counsel's office?
    Answer. The first time that I became involved in a document 
request, that I recall, was around 29th of April. We received an 
electronic mail from Colonel Campbell, who is currently the chief of 
staff, who at that time was the deputy of the agency under our whole 
organizational structure.
    Part of that e-mail there was attached a WordPerfect file. The 
attachment had a lot of names and entities identified on it and we were 
directed to check our files for any documents or materials that may be 
associated with those individuals identified. And we had a suspense on 
there that was the 5th of May.
    And that was sent out to all the operation and maintenance unit 
representatives, the senior individuals of those elements and all staff 
divisions, and to the best of my recollection everyone responded back. 
I believe there were a couple of documents that were identified; I 
believe that came out of our record communications or cable systems. 
And there was a formal response that went back from the White House 
Communications Agency to the White House Military Office. And that is 
where that tasking came from.
    My understanding of that process for that request was from the 
White House Counsel's Office to the White House Military Office to the 
White House Communications Agency, and we did an internal distribution. 
What was actually received at the White House Communications Agency, I 
really don't know. I can only speak of certainty of what I received, 
and that was the e-mail with the attached file that just had the names 
and entities.
    Recently, I was made aware that there were two other pages to that 
document that we, internal to the agency, did not receive. I did speak 
to Colonel Campbell, who was the one that interfaced directly with the 
White House Military Office, and he informed me that he was uncertain 
if he had received the entire document, but stated if he had, he must 
have mishandled it. He just doesn't really recall. And that's pretty 
much my initial contact.
    Then again----
    Question. I want to just for the record, because when you said the 
suspense was May 5th, you mean the date it was due; that's the term?
    Answer. For the e-mail, yes. I'm sorry.
    Question. I wanted it more for the record, for that to be clear.
    So when you got this e-mail, you had an understanding that you had 
a turnaround time of approximately?
    Answer. Six days or whatever.
    Question. Six or 7 days, okay. And the e-mail came from Colonel 
Campbell?
    Answer. That is correct.
    Question. Do you still have a copy of that e-mail?
    Answer. I did up till yesterday. I gave it to the grand jury. They 
took it when I was there.
    Question. I apologize because we don't have a copy of it yet, and 
maybe we can get it; we had requested from the White House to get the 
various documents and we have gotten some of them, so I don't want to 
sort of have you be in the dark or be describing things we don't 
necessarily have.
    Answer. Sure.
    Question. But I will go ahead and at least give you the April 28th 
directive which we have received from the White House.
    And was the attachment you referred to, that you got the e-mail, is 
that the attachment that is Attachment A on this April 28th, 1997, 
directive?
    Answer. Yes, it is.
    Ms. Comstock. And we will make this Deposition Exhibit Number 2.
    Mr. McLaughlin. My preference is that we be marking the copy that 
is actually shown the witness for inclusion in the record, for purposes 
of clarity.
    [Smith Deposition Exhibit No. SS-2 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did the e-mail that Colonel Campbell sent, did it have 
some information within the e-mail that he sent out to you?
    Answer. To the best I can recall, the e-mail directed us to take a 
look at all our internal documents and materials regardless of media in 
reference to the attachment, which to us, that was our search criteria 
that was identified to us, the agency.
    I know internal to my division, because at that time I was in the 
operations division, not in the headquarters element, and basically 
what that meant was to check my file cabinets to see if I had anything 
in there. And we directed our administrative staff to do that, they 
did, and we did not find anything within my division.
    Since that time frame, just in the recent time frame, rather, I 
went to the audiovisual unit or branch to see what they did when they 
got this request, and they brought to my attention that they did go 
through the audio and video archives that we have, using that as a 
search criteria, and they didn't find anything.
    I just recently found that out, after all the articles in the 
newspaper, I was just trying to find out what really happened and what 
has been going on.
    Question. And who brought that to your attention in the audiovisual 
unit?
    Answer. It was Chief Fischer, who is one of the individuals 
employed in our--actually the event productions, I think is their new 
name.
    Question. So do you generally recall the e-mail that you got, how 
long the message was from Colonel Campbell, a paragraph or two?
    Answer. A paragraph.
    Question. And then attached to that was the Attachment A that is on 
Deposition Exhibit Number 2?
    Answer. That's correct.
    Question. And it has only been subsequently, in the past several 
weeks, or since these matters have all come publicly to light about the 
videotapes, that you learned that, in fact, the audiovisual unit had 
searched for all the individuals and companies named in Attachment A?
    Answer. That is correct. They actually told me they did that the 
week of the 29th of April, but I recently found that out.
    Ms. Comstock. I will be showing the witness another copy, actually 
it is a group of memos together, that I will make Deposition Exhibit 
Number 3. They did not necessarily all come together; they were just 
provided to us together from the White House.
    [Smith Deposition Exhibit No. SS-3 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Have you seen these documents before?
    Answer. I have not.
    Question. Do you know if your office had provided any similar type 
memos, sort of certifying that searches had been done?
    Answer. I know each one of the staff elements and O&M units, 
operation and maintenance units, within our agency sent a response to 
our headquarters, and our headquarters sent a response to the White 
House Military Office stating that, or what they found. Because there 
were a couple of documents that were generated in that search, and I 
believe that was indicated in that response.
    I don't recall the exact language that was used, but I know there 
was one. And how I know that is just in the recent weeks I went through 
a file that we had at our headquarters and there was a copy of a draft 
memo that was prepared, I believe by either Colonel Campbell or his 
administrative assistant, to go to the White House Military Office in 
regards to this 28th April inquiry.
    Question. And have you provided those documents to the White House 
Counsel's Office?
    Answer. I have not.
    Question. Or to another body?
    Answer. The e-mail that he sent I gave to the grand jury yesterday. 
I believe when I was deposed by the Senate I gave the attachment. And 
the draft memo from the White House Military Office I have not given 
that to anyone.
    Question. And in the past few weeks, nobody from the counsel's 
office has asked your office for any of the responsive documents that 
may have been generated in response to the e-mails?
    Answer. Not that I'm aware of. And if I may add one caveat. I would 
think if the White House Military Office, excuse me, White House 
Counsel's Office wanted a document of that type, they would go through 
the White House Military Office, because that is pretty much how that's 
structured. And I'm not aware of them going through them to the White 
House Military Office, either.
    Question. Nobody in the White House Military Office has come to you 
to ask you for additional documents relating to the production that you 
all undertook as a result of the directive?
    Answer. Not that I'm aware of.
    Question. Directing your attention to the last page of this group 
of documents in Deposition Exhibit Number 3, it is a May 6th, 1997, 
memo for Charles Ruff, Counsel to the President, from Alan Sullivan.
    Now, you said you have not seen these documents before; is that 
correct?
    Answer. I may have seen this one before, because when I went over 
to the White House Military Office just in the last week or so I was 
talking to their admin folks, one of the individuals, more senior 
individuals in their office. I just asked, trying to do a postmortem of 
what happened, and I do believe that they have had a file copy of this 
document. That's the first time I saw it. But prior to that I had not.
    Question. And is it your understanding in the normal course of 
business that this is the type of memo that they would produce as a 
result of having received things from your office and other offices 
under their control?
    Answer. That is correct.
    Question. Just for your understanding, if Mr. Sullivan had written 
this memo, it would have been after receiving some type of response 
from your office?
    Answer. That is correct. That's the normal practice.
    Question. Now, you had said that at the time you conducted the 
search you saw the e-mail with the attachment to it; is that correct?
    Answer. That is----
    Question. That was the only document you saw at the time?
    Answer. That is correct.
    Question. Just for the record, I don't think you have seen this, 
this is this committee's March 4th, 1997, subpoena to the White House. 
Have you ever seen this document before?
    Answer. No, I have not.
    Question. Would it be correct, then, that this subpoena was not 
included in any type of memo or anything that was forwarded to your 
office to assist you in searching for records?
    Answer. That is correct.
    Question. And I would just note for the record this is the 
committee's March 4th, 1997, subpoena which includes as item number 16 
all records relating to White House political coffees, and then it also 
has a definitions and instructions paragraph which includes, among 
numerous records, videotapes and audiotapes and video and audio 
recording.
    But you never did receive anything like this at any time?
    Answer. No.
    Question. From the White House Military Office?
    Answer. No, I don't recall seeing this document before.
    Ms. Comstock. And we will make that Deposition Exhibit Number 4.
    [Smith Deposition Exhibit No. SS-4 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Now, had you previously responded to other document 
requests that came down through the military office?
    Answer. There have been other requests. I don't really recall what 
they were about. I know one of them had to do with Kennedy 
assassination documents, if we had anything on file, because our agency 
was obviously supporting them at the time that that tragedy happened. 
That's the only one I can really recall.
    But there have been inquiries over a period of time that we've 
done. How many, I don't know, and just what they were. I wasn't 
directly involved with them at the time. I was in a slightly different 
position.
    Question. And how long have you been in your current position?
    Answer. Current position since July of '97.
    Question. And prior to that your position was?
    Answer. Prior to that was in the operations division. First, I was 
in there as the deputy, from June of '95 to about June of '96. And it 
is very likely if something like that came in, that my predecessor may 
have handled it. But I would have thought I would have heard about it 
if it had.
    I just don't really recall anything of this type of nature. I do 
recall the Kennedy one, but that is about it.
    Question. And who was your predecessor?
    Answer. Lieutenant Colonel Mitch Ross.
    Question. And you said you were in that position until June of '96. 
Did you have another position between June'96 and '97?
    Answer. The agency restructured and they did away with the staff 
elements of the operations division and moved the operations function 
into the headquarters.
    Question. That was what we had previously discussed, the change?
    Answer. Right. Exactly.
    Question. Are you aware, from any previous document productions or 
searches that you did, of ever providing any videotapes or audiotapes 
to the--I guess you generally provide them to the military office and 
they forward them to the counsel's office; is that correct?
    Answer. The only time we have ever done that has just been in this 
last 2 weeks or 10 days. We have been working very closely directly 
with the White House Counsel's Office, but it has been under the 
direction of the White House Military Office. They have directed us to 
work with them.
    And we have--they have actually came into our facilities to review 
tapes. We have given them printouts of our audio and video database, 
and they have identified various tapes that they wanted to review and 
we've went to the National Archives to retrieve those. So there has 
been a closer working relationship with that office in the past 2 
weeks.
    But prior to that, I have no recollection of ever doing, giving 
tapes or providing tapes as part of an inquiry from the White House 
Counsel's Office.
    Question. Why don't we move into the videotape issue directly. Can 
you just tell us when this first came to light to you?
    Answer. Just to kind of give a chronology of my involvement, the 
very first time I ever got involved in a conversation about tapes was 
on the 29th of August when a Mr. Mike Imbroscio out of the White House 
Counsel's Office met me in my office. He said he was responding to an 
inquiry from, I believe he said Senator Thompson's office, and he 
wanted to discuss some issues with me.
    I invited him right up. He came up. When he came up we talked--the 
first thing he asked me is, is the White House Communications Office 
involved in doing clandestine kind of recordings. I started off by 
saying he had the wrong agency, because we are not a covert agency; 
that he needed to check with the CIA. He said something about he didn't 
care much for my sense of humor. He didn't quite say it that way. But I 
said that I have no knowledge about the CIA doing that, but our agency 
definitely doesn't.
    Then it was obvious to me he really didn't know or understand what 
our agency does, the types of services we provide.
    Question. He was asking about clandestine taping, something that 
was sort of secret and unknown to the parties involved?
    Answer. Right. And how he phrased it, if the President was in a 
meeting in the Oval Office would your agency be doing recordings that, 
like behind the walls or the people in the meeting wouldn't know that 
things were taking place; recordings were taking place that they 
weren't aware of. That's kind of the context of that conversation.
    And I went right into giving him a spiel on what we do for about 
the next 10 minutes or so. And we talked about audio and video services 
that we provide. We talked about the different types of events, closed, 
closed to the press or open to the press. We talked about political and 
official, which that really applies more on the road. We don't really 
make that distinction in the White House complex.
    I remember him asking if he could listen to one of our audio 
recordings because he had a question. He was wondering if the President 
was doing a radio address would our microphones be on prior to his 
radio address and pick up some of his conversations prior to doing 
that. I told him no, not to my knowledge.
    While he was there I called out, matter of fact, to Master Sergeant 
Barthol, who I referred to earlier, and asked for him to arrange for an 
audio cassette of the most recent radio address, and have it sent to my 
office. He immediately brought that up. He listened to the audio tape 
and we talked a little about video type stuff and recordings.
    Question. Now, is that while you were in this meeting on the 29th 
that you called and had somebody send over an audio tape of the most 
recent radio address?
    Answer. That is correct.
    Question. And then you and Mr. Imbroscio listened to it?
    Answer. That is correct.
    Question. All right. And it was Mr. Barthol that you called who 
brought that?
    Answer. That is correct.
    Question. So within, what?
    Answer. Ten minutes, tops. I mean they're right in the same 
building, lower floor, and they just made a copy. They already had a 
copy of it. It was just the 23rd, I believe was a Saturday, and the 
29th was, I believe, a Friday. So they had it right handy. It only took 
them a couple minutes to bring it up to me.
    Question. And the tape that you listened to just was the tape of 
the radio address itself? It didn't have anything before or after?
    Answer. That is correct. And he thanked me. We talked a little. He 
asked me a little more about other type of recordings. I don't remember 
the exact conversation.
    He was concerned about the type of video recordings we do and what 
type of environments. We talked about the archival and retrieval 
process, how you could get stuff from our database. I remember offering 
him a tour of our facility, because I could see he was kind of glazed 
over and there was a lot of information discussed in a very short 
period, and I just thought maybe walking through it would really help 
him in his efforts. He declined at that time and said he may take me up 
at a later date.
    That pretty much just--prior to his departure I remember asking him 
if there was any correspondence that went out in response to this 
inquiry, did I get a chance to review it for technical comment. He told 
me he was working a little more informal with somebody in Senator 
Thompson's office and he didn't think there would be any correspondence 
going out, but agreed that if it did, he would let me know. And the 
rest is pretty much history.
    Question. Did he tell you that he had received a letter from 
Senator Thompson's committee?
    Answer. He mentioned he was responding to, I believe he used the 
words, ``inquiry from Senator Thompson's office.'' But he did have a 
letter in his hands, and I have a copy of that here today. Because as 
he was leaving I remember asking him just quickly if I had a copy of 
it.
    And, really, what I wanted it for was to get an idea of just who he 
was talking to, where this information was, so I could brief my boss. 
Because immediately after that I went and picked him up at the airport 
and I wanted to make sure I could speak to him on that.
    Ms. Comstock. Why don't we go ahead then and make that part of the 
record. If we can take a break here to get a copy of them, also.
    [Smith Deposition Exhibit No. SS-5 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. So you indicated that at your meeting with Mr. Imbroscio 
he did end up giving you this letter that we have marked Deposition 
Exhibit Number 5 to Lanny Breuer, Special Counsel to the President, 
from Donald Bucklin, who is with the Senate Government Affairs 
Committee?
    Answer. That's correct.
    Question. In this discussion with Mr. Imbroscio, did he explain 
what his understanding was of what he thought that the Senate was 
looking for?
    Answer. He really just got right into the questions about what we 
did. He did give me, at the top of our meeting, about 10 seconds to 
glance at this. I didn't really read it. I looked it over and gave it 
right back to him.
    But during our conversations it looked like he was referring to the 
document as he would ask different questions, so that is pretty much 
how he articulated what to me they were looking for. And I kind of 
tried to extrapolate from those questions what they were really trying 
to find. But I must admit, after I read this a little later, I just 
figured to myself, and this was days later, I said, well, I was just 
certain he would come back.
    And eventually he did come back with more questions and there were 
certain other conversations that we have had. But I knew he'd be back 
sooner or later.
    Question. And you mentioned he talked about this clandestine taping 
and behind the walls or things like that that he was asking you about?
    Answer. That's correct.
    Question. And do you know where he got that idea from, clandestine 
type taping?
    Answer. I have no idea where that came from.
    Question. Why don't you continue then with your next encounter with 
Mr. Imbroscio, or actually why don't I back up a little. What did you 
do after this meeting, if anything, before your next encounter with Mr. 
Imbroscio?
    Answer. The only thing I did relative to this was I briefed my 
boss, Colonel Simmons, on my discussion I had with him later that day, 
and that was pretty much it.
    The next contact I had, or conversation on this topic was on the 
25th of September when I received a call from----
    Question. Was that September?
    Answer. September, 25th of September, and he wanted--he had asked 
me if I could provide him the exact format for the information for our 
audio and video archival system to do retrieval. We discussed it in our 
conversation on the 29th, but on the 25th he wanted me to actually 
provide him with that. I told him I would arrange to get that 
information to him, and that's pretty much the end of our conversation 
for the 25th.
    On the 26th I called him back. By that time I had an individual in 
our agency provide me an e-mail with that information on it, and I told 
him I had it. He said, okay, thanks. He sent an intern up to my office 
to pick it up that same day, and the intern picked it up. I have a copy 
of it here with me today.
    Then the next time we had a conversation was on the 30th----
    Question. Why don't we go ahead and mark that. Do you have a copy 
of that?
    Answer. I do. It has some of my personal notes on it, and that's 
fine, if it is okay with you. Just a chronology of the conversations 
and dates and times that I have had with Michael Imbroscio was also on 
there, but that is not what was on the original document. It was just 
this information here.
    Ms. Comstock. Well, we can make that clear for the record, if 
that's okay with you.
    Lieutenant Colonel Sparks. Sure.
    Ms. Comstock. Let's go off the record for a minute.
    [Smith Deposition Exhibit No. SS-6 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. As we were discussing, this document that we have made 
Deposition Exhibit Number 6, which has in its typed portion the, I 
guess material that you provided to Mr. Imbroscio on the 26th; would 
that be correct?
    Answer. I provided to an intern that he sent up to my office; that 
is correct.
    Question. And then the handwritten notations on here are notations 
that you had made subsequently which identify the contacts you have had 
with Mr. Imbroscio?
    Answer. That's correct.
    Question. We will continue with that, then. So Mr. Imbroscio sent 
an intern to pick up this listing that you had done for him?
    Answer. That's correct.
    Question. And do you know what happened to that list? Did Mr. 
Imbroscio call you and let you know he had gotten it?
    Answer. He did not. The next time that I heard anything from him 
was on the 30th of September, and he had called and wanted to meet with 
me again.
    He immediately came up to my office and at this time he had a list 
of dates and events, which was the proper search criteria for our 
database, and the assumption I made is that he got that, you know, he 
was using the outline that I gave him, the intern, on the 26th, and 
also we had discussed that on our initial meeting on the 29th.
    What he wanted to do was to see if, in fact, we had tapes for those 
specific events that he had on his little, on his pad that he had with 
him, and I think he had six or seven events and dates. He at that time 
had asked me if I had thought that we would have tapes, videotapes or 
audiotapes, for these events. And to the best of my recollection I told 
him all we really know is to check the system, and so he said he would 
like to do that.
    So I called down to our event productions branch, and I believe I 
spoke to Chief McGrath at the time and set up a meeting for them to 
meet the following day, which was the 1st of October, to take him 
through our system, give him an orientation and let him actually go 
through the database for tapes. And they did meet the following day. I 
believe they met around 10 o'clock or so.
    I was not present at that meeting, and from that time on the White 
House Counsel's Office has been working extensively with our members of 
the White House Communications Agency in this event productions area 
and master control facility to identify various tapes and retrieve 
them.
    Question. Now, when he met with you on September 30th, and you put 
him in touch with the AV unit, did you hear back from him the following 
day when he went over to the AV unit?
    Answer. I did not hear correctly back from him. I did get bits and 
pieces from our WHCA members, the agency members.
    Question. And who did you hear from?
    Answer. I believe it was Chief McGrath. I'm not sure. There has 
been so many conversations in the last 2 weeks, I don't remember who 
called me first. It was either he or Chief Fischer. I believe it was 
Chief McGrath.
    He told me they were finding some of the information they wanted. 
They had identified some tapes they would like to have us pull back 
from the National Archives and that they wanted to review and they were 
working with them.
    That's pretty much all I remember. This has been a constant request 
and updates. Actually, there have been hundreds of tapes that have been 
pulled back from the archives in the last 2 weeks.
    Question. Did Mr. Imbroscio ever come back to you to ask you 
anything more about the tapes or the systems or anything like that?
    Answer. He has not.
    Question. And when you had met with him on the 29th, did he ask you 
in particular whether the White House coffees had been taped?
    Answer. I don't ever remember in that conversation the word 
``coffee'' being used. The first time I heard the word ``coffee'' was 
he had, on the 30th of September, on that list of six or seven events, 
one or two of them were coffees. I don't really remember if there was 
one or two, but I know at that time that's the first time I recall 
hearing that word ``coffee.''
    Question. And do you recall if in the August 29th meeting, had you 
told him that you had a database that you could search for events?
    Answer. Absolutely.
    Question. And so at that time you had explained to him if he needs 
to find out something how he would search for it, what your office was 
capable of doing?
    Answer. That is correct. Because he had asked me if you had a name 
of an individual would you be able to search that way? I told him no, 
the way we do our archiving is by dates, the name or the title of 
event. And the title that's normally used is the same as on the 
President's schedule, or given to us from whatever office notifies us 
about a particular event.
    We don't even know who the attendees are, so that really means 
nothing at all to us.
    Question. And did he indicate to you that he was going to come back 
and give you any dates at that time on the 29th?
    Answer. Not at that time he didn't. What he did indicate that he 
was going to go back--well, he more implied that he had some--if he 
needed to come back, he would. He didn't say what he was going to come 
back with or when he was going to come back. He just said if I need any 
more information I will get ahold of you and kind of went away for the 
next few weeks.
    Question. Now, you indicated that when you first met on the 29th 
and he had given you the August 19th letter, that you had asked him 
that if he did respond or whatever that you would like to be able to 
see the correspondence, I guess, or some type of technical advice or 
anything like that.
    Did he ever come back to you with any letters that he was going to 
send back to Senator Thompson to ask for your input on any such letters 
or representations?
    Answer. No, he has not.
    Question. To this date he has never done that?
    Answer. That's right, he has not.
    Question. Were you aware of them informing the Senate of any 
information about anything that you had represented?
    Answer. I had picked up bits and pieces from various conversations. 
Not from Mike Imbroscio. My commander, he had some conversations with 
Cheryl Mills. I was in a phone conference after the information had 
already been given out.
    Question. So these are conversations in the past few weeks?
    Answer. Yes, but not at that time it all happened, I was not aware 
of it.
    Question. So throughout September you had no knowledge of any 
representations being made to the Thompson committee about what type of 
taping or audios you had in your office?
    Answer. That's correct.
    Question. And Mr. Imbroscio never came back to ask you for any 
clarifications or anything from the August 29th meeting?
    Answer. That's correct.
    Question. And the next time you hear from him is on this 25th date 
in September?
    Answer. In reference to the tapes, yes.
    Question. Why don't you tell me about the conversations that you 
indicated that you had with Cheryl Mills and your supervisor?
    Answer. She had just called. After I read a newspaper article, I 
was just kind of upset about it.
    Question. And was that when the story first became public?
    Answer. Yes.
    Question. I believe it was October 5th, was a Sunday morning, when 
the existence of the videotapes became public in the newspapers. 
Actually, it was a Time magazine report that came out. Was that the 
report that you are referring to?
    Answer. Yes.
    Question. Did somebody call you about that?
    Answer. I believe it was Colonel Simmons that called me first to 
tell me, you know, look at the newspaper. And I felt it was either 
slander or just miscommunications that had happened between, you know, 
Mike Imbroscio or I.
    I was a little, at first, a little emotional about it and upset, 
but after I got the emotion out of it, I just pretty much felt it must 
have been just miscommunications or journalism, but definitely it 
wasn't what transpired in our meeting. So I just couldn't understand 
how something like that could happen but it happened.
    And later on that week, I believe there was a conversation, I don't 
remember the exact day or night, Colonel Simmons was talking to Cheryl 
Mills and they were just being understanding about what happened, and 
just we didn't put that out there kind of thing. And there weren't any 
specific things that were said, it was just more of, hey, don't be 
upset, we didn't put that out there. And that was pretty much about it. 
There have been numerous conversations ever since.
    Question. This is a Washington Post article of October 6th. I think 
that was the first news. Your public knowledge of it was on October 5th 
from Time magazine. I don't think there were anything in the newspapers 
until on the 6th, but then this story was in the Post on the 6th, as 
well as a number of other accounts. There was the L.A. Times, the one 
Washington Times.
    Mr. McLaughlin. Are you going to make that part of the record?

                      EXAMINATION BY MS. COMSTOCK:

    Question. I wanted to ask, did you read the newspaper in the 
morning? When you got up in the morning, was that when you saw the news 
account?
    Answer. It probably was. I don't remember exactly when it was; what 
time of day it was. But it seems like the same information, if not the 
same article.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. And specifically when you said you were upset, were 
you upset about the account that had been given of your office's role 
in these tapes not being turned over earlier?
    Answer. I think actually what I was upset about is there was a 
comment, or a statement in the article, or a phrase rather, that 
implied that I said that we don't have tapes, and I know that never 
happened in our conversation on the 29th, and they were referring to 
videotapes. And as I recall in that conversation of the 29th, when we 
were talking about different types of events, the only time I ever 
remember even using those words was when regarding audio, I said we 
often do not do closed type of events, but video is really driven by 
the staff, and we could be videoing any type of event, because the real 
charter of that camera crew is to capture the presidency, and so it 
very well may be that we have something like that. The only thing I 
thought is that maybe he had taken the conversation, you know, that we 
had about audio tapes and applied it to the video, you know, just 
miscommunications or just too much information, and he wasn't able to 
assimilate it at all, or it was just slander, I don't know, I don't 
know what it was. But it wasn't what I said, and, you know, you can't 
help but to be a little frustrated by those kinds of things, but he 
seems like a good guy so I don't think it was deliberate.
    Question. And this may not be the story you are referring to, but 
there was a story later in the week where they did quote Mr. Imbroscio 
as well as Lanny Breuer so maybe when we take a break I can find the 
precise stories. This may not be the precise story and maybe you don't 
recall which story it was.
    Answer. I thought it was out of the Post, I thought it was Monday, 
but I am not sure. I know I have a copy of it. Somebody sent it to me 
trying to be humorous.
    Question. Well, we will go ahead and make this Deposition Exhibit 
No. 7, understanding, you know, whether or not this was the one.
    [Smith Deposition Exhibit No. SS-7 was marked for identification.]
    Mr. McLaughlin. Do you have a copy of that for me?
    Lieutenant Colonel Sparks. Can we go off the record for just a 
minute?
    [Recess.]
    Ms. Comstock. Back on the record.

                      EXAMINATION BY MS. COMSTOCK:

    Question. On October 1st, when Mr. Imbroscio went over to the AV 
unit, did you hear about it from--you said you thought it was Mr. 
McGrath or Mr. Fischer, about the accounts. Did you talk to them 
further about what Mr. Imbroscio was looking for?
    Mr. McLaughlin. Further on that day?
    The Witness. On the first?
    Mr. McLaughlin. Yes.
    The Witness. Actually, I am not even certain if I talked to them on 
the first. It may have been a day or 2 later. But by that time, several 
of us, myself, Colonel Simmons, were working very close with members of 
the White House Counsel the following week, so during that, you know, 
period while we were helping retrieve some information from the 
archives, delivering stuff to the White House Counsel's Office, there 
were numerous conversations that I had with individuals. I don't 
remember just when I was getting bits and pieces of what transpired 
with Mike Imbroscio and our folks. They did explain to me that he sat 
down at the database, he immediately realized there was probably a lot 
of stuff that had not surfaced previously. They told me he left and 
said he was going to come back and then give them some more dates, and, 
literally, they have been working with those folks, the White House 
Counsel's Office constantly, from the first on to, I believe it was 
probably as late as probably the 16th or so this week. I believe up 
until Wednesday or Thursday of this week.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did they say what Mr. Imbroscio said when he started 
entering things and he found some of these events, what his response 
was?
    Answer. They just said he was thankful, he was calm and grateful 
for their assistance.
    Question. And could you describe your understanding of the process 
by which they--tapes were pulled back from the archives and how you 
went forward in preparing the tapes to make copies of them and get all 
the events together--and why don't I back up a little? We initially, if 
this helps, I will separate out 2 events. We initially got copies of 
the White House coffee tapes, it was 44 or so coffees, they were all 
snippets printed onto one videotape and then there was a second round 
where we got the following week of--actually, it was this week we got, 
the initial 44 tapes we got on Sunday, October 5th. I think the Senate 
and Justice Department got them on Saturday, October 4th. We then, this 
week, the week of October 13th, I believe it was on the 14th and 15th, 
we actually received a second round of tapes which was all a number of 
fund-raising events. So I am going to try and separate the 2 different 
productions if we can and start with the initial production of the 
coffee tapes and how that process ensued.
    Answer. The process is the same for all of it, so that may help 
some. My understanding is the way it happened, and also my firsthand 
knowledge of it is we provided printouts of our entire database--not 
the entire data base, I think it was '93 to '96, both video and audio, 
to members of the White House Counsel.
    Question. Do you know when you did that?
    Answer. I believe it was Monday the 6th is when they got the 
detailed list. Prior to that, he, ``he'' meaning Mike Imbroscio, was 
working with our folks, he was getting dates and providing it to our 
audiovisual folks and as they would identify--confirm it was in the 
database and go to the National Archives and work with an individual at 
the National Archives to send the tapes over to the White House 
Communications Agency, and I know there was a very quick turnaround on 
the tapes, probably the following day, I am not certain of that. Then 
what they were doing was, the original tapes are in Betamax format and 
they would take the Betamax tapes and put them into a computer system 
that we have and upload it to the computer, and then download it to a 
VHS tape. This computer would allow them to take a variety of Betamax 
tapes and put them onto one VHS tape. Just what day they were turned 
over, you probably have better knowledge of that than I do.
    Question. From the time when Mr. Imbroscio learned--started putting 
in the dates on October 1st, were you aware of anyone else in the 
Counsel's Office learning about this or contacting anyone in your 
office?
    Answer. No one contacted anyone in our office, and I wouldn't know 
about if anybody in the White House Counsel's Office was getting that 
information. I can only assume, if they did, that Mike Imbroscio would 
be talking to someone, but I have no knowledge of that.
    Question. Is the first time that--the conversation you described 
with Cheryl Mills in response to the news articles, was that the first 
time that you have been in touch with the Counsel's Office after these 
events came out in public or, actually, after the tapes were known 
about, which I guess being October 1st?
    Answer. I was working with them on a separate issue that had 
nothing to do with the tapes, but relative to this, that is correct.
    Question. Okay. Were you working with them on other matters about 
responsive documents?
    Answer. I was working with them on--they were responding to 
something that had to do with Vice Presidential calls or something, was 
providing information on our billing and logs that WHCA maintains.
    Question. Okay. That is how you maintained the phone logs at the 
White House?
    Answer. That is right, phone logs that we the White House 
Communications Agency had and phone bills that we get from the 
commercial vendors.
    Question. And were you working with Cheryl Mills on that?
    Answer. That is correct.
    Question. And did you in fact provide any documents or information 
to Ms. Mills in response to that request?
    Answer. Actually, I ended up providing it to--she had actually 
introduced me to a Lisa Brown, who I believe is out of the VP's legal 
Counsel's Office, I think that is the side of the house she works on, 
and that is who I really worked more with and our final reply to those 
questions we routed through the White House Military Office and gave 
her an official response, but I had been working with her just so I 
could understand what she actually wanted.
    Question. And do you recall what that response was?
    Answer. You know, we let her know there was a Presidential log, 
calls that have operator intervention and they are kept up to 60 days 
and she wanted to know who else had those logs and I let her know we 
forward them to the Presidential front office, Nancy Hernreich, and I 
also let her know there is a log that we have, it has other 
governmental calls, VP type calls and that is kept up to 60 days, both 
hard copy and data file copy. Then we also talked about phone bills. 
She wanted to know what type of information, so she could put that in 
her memo coming back, who else she was going to respond to. I don't 
really remember who it was and I provided that information to her also, 
you know, detailed type information on the various types of bills we 
had, like an FTS--Federal Telephone Service--that is leased through 
AT&T, and I explained to her the type of information on that bill. Then 
I also let her know we have Bell Atlantic as a local provider, and we 
just went through the various vendors and bills.
    Question. Do you then have records of long distance phone calls 
from the White House that are identifiable?
    Answer. Well, actually, we wouldn't have--if it goes through our 
network, you would not have the originator, you would only have the 
distant end, and the originator would show like Trump Group, so you 
wouldn't have from originator to the individual you talked to, if it 
went through our network. We have a few lines that--you know, AT&T is 
our long distance provider, but those are really more for WHCA internal 
use or fax machines, to secure voice type terminals we have, but not 
for your common use type telephone calls you use in your office.
    Question. So would that mean the phone call--I mean, the basic 
White House number, 456-1414, would it--the originating number would be 
the same for all the calls, it wouldn't show what particular phone in 
somebody's office made the call but it would show they called Joe Smith 
in California?
    Answer. Conceptually, yes. But that 456, that is a different 
switchboard, that is not the White House Communications Agency. We are 
on a 757 exchange, they are on--456 I believe is the White House, but 
that is a separate phone system. We have a phone system that is 
primarily used for the President for----
    Question. For traveling?
    Answer. When he is traveling, it is more inbound calls from the 
trip site in through our network. Seldom does he use our regular 
commercial nonsecure network for routine type calls. He does use our 
network for secure calls, head of state type calls, those types of 
things, but just routine type calls he seldom uses our signal 
switchboard, is what we call it, for those calls. You know, recurring 
or routine calls, he would go through most likely the administrative 
board or dial direct. I believe he has that capability in his office.
    Question. And that is totally separate from your--your office 
doesn't have anything to do then with the regular 456 numbers?
    Answer. That is correct.
    Question. So all the phone calls that go out of the White House 
offices, the 456 numbers, are just on AT&T type billing?
    Answer. There is another organization within the White House that 
provides that type of service, they have their own operators, their own 
switchboards, very similar infrastructure to the one we have but they 
are independent of us.
    Question. Do you know what office is in charge of that?
    Answer. I believe it is the Office of Administration. I believe, I 
am not certain.
    Question. And do you know, similarly, with them, the long distance 
calls, are they just identifiable by the one number, but then you can 
identify who the call is made to?
    Answer. I don't know if their system is the same or not, quite 
honestly. I can really only speak to the way ours is, and our system, 
if you dial through our network you would not be able to tell what desk 
or what user made that call.
    Question. And, again, just so I can be clear, you did not then 
provide any documents to Ms. Mills or to the Vice President's office in 
response to those inquiries about phone calls?
    Answer. We just provided an explanation of how our system works and 
the types of bills that we have. They wanted to know who our bills are 
routed through and that kind of information, where they were paid. They 
obviously originate with the vendor. Our Federal Telephone Service we 
have leased through AT&T is through a General Service Administration, 
GSA, contract. They also get that information, and then it goes to an 
organization called DITCO, which is subordinate to the Defense 
Information Systems Agency, which actually does the payment, but we get 
a summary report, I believe it is called, I don't know if that is the 
technical term, that let's us know what calls were made and the amount 
of--the volume of traffic, that kind of information, but it is not 
detailed enough to where you could tell who originated a call.
    Question. You said you only keep the records for 60 days?
    Answer. Well, it depends on--well, for, I believe it is 60 days for 
the FTS bills, it was either--I am pretty sure it was 60, it might have 
been 90, I'm not certain. For the Bell Atlantic type bills, we do have 
a small number of commercial lines that don't go through our network, 
and those bills are only maintained in the agency if they are in 
dispute, but other than that, they are paid immediately and they are 
destroyed. We don't archive our bills, keep those around.
    Question. So they are just thrown out?
    Answer. Well, we have a----
    Question. I understand in the routine course of business kind of 
things, they are discarded after they are paid?
    Answer. That is correct.
    Question. And you said something was sent to Nancy Hernreich's 
office. What are those?
    Answer. It is called a Presidential call log. Any call that the 
President makes, that has a White House Communications Agency operator 
intervention to process the call, they will put the time of the call 
and, you know, the number and who he called, I think who he called, I'm 
not certain, quite honestly. We use that as a management tool, in the 
event there is a pending call or he wanted to talk to someone, you 
know, there was a call request for the President, he wanted to talk to 
someone, he may try to get ahold of that individual, they were not 
available so they know to keep trying to get the call processed or 
check his aide or try and the individual is not available and that is 
pretty much what we use it for. There is internal distribution within 
the agency for the log, it goes to the commander, he gets it daily, 
destroys it immediately, he doesn't keep it, and there is a copy that 
goes to Nancy Hernreich and I believe she also gets one from this OA 
board, this other signal board, and consolidates that information. And 
I believe it is for historical purposes, quite honestly. I am not 
certain of that, but it has been going on for the 8\1/2\ years or so I 
have been affiliated with the White House Communications Agency.
    Question. It is your understanding those logs are kept once they 
are given to Ms. Hernreich?
    Answer. I believe they are, I am not sure of that.
    Question. Do you know who prepares the logs on a daily basis?
    Answer. The signal supervisor within the White House Communications 
Agency, the individual in charge of that particular shift, he will 
prepare that and process it through.
    Question. And who is the supervisor of that office?
    Answer. There is a variety of individuals. I don't know their names 
quite honestly. It is a pretty large organization.
    Question. Do you know if there is a similar log for the Vice 
President's phone calls?
    Answer. There isn't a dedicated log, you know, like that for the 
Vice President that we maintain, there is the other log, the signal 
artiva report and in that they would put the Vice Presidential calls 
that are processed, would also be in there, but that doesn't go, you 
know, like to his front office for historical purposes, and there are 
other calls that would be, you know, in there for key staff members, 
cabinet members, that may have called in, would also be indicated on 
that document, and the handling of that is the same. I mean, we keep it 
for roughly 60 days and it is destroyed.
    Question. Were you aware of who in the Counsel's Office was 
involved in reviewing the videotapes, once they were found?
    Answer. Not all the individuals. I know one gentleman's name was 
Dimitri Nionakis. I know he was involved in it, the other named Karl, I 
don't remember his last name.
    Question. Racine?
    Answer. That is his last name, I do remember now that you say that. 
And there was another individual, I think he was more focused on audio 
tapes than videotapes, his name was Buzz.
    Question. Waitzkin?
    Answer. That is the last name. And those are the only ones I really 
recall. There were other individuals, but those are the ones I 
remember.
    Question. And could you just generally describe the process that 
your office has gone through since October 1st, when Mr. Imbroscio 
discovered that there were these videotapes that were responsive to the 
subpoenas?
    Answer. My understanding in that process is the White House 
Counsel's Office has identified specific tapes, both audio and video, 
that they wanted us to retrieve from the archives. We did the retrieval 
for the video, we put them into our computer system, we downloaded them 
to VHF tapes and they have been reviewing various tapes in our 
facility, it is called the master control facility, up on the fifth 
floor of the Old Executive Office Building.
    Question. The various counsel have been reviewing the tapes?
    Answer. That is correct.
    Question. When they were reviewing the tapes, were your staff 
present or other?
    Answer. Yes, the facility that they are using to view the tapes, is 
a White House Communications Agency facility, and it is called the 
master control facility and there are individuals that are manned up 
there around the clock working with them.
    Question. So your people would actually be loading the tape in and 
playing it for them to review?
    Answer. Actually, they took the original Betamax tape, put it onto 
the computer, gave them the VHF tapes and stuck the VHF tapes in the 
various monitors to let them view it, identifying which ones they 
wanted more copies of. I believe six was the number they have been 
doing multiple copies of certain tapes. There were I believe 39 
original Betamax tapes they requested, and I know we turned over to the 
White House Counsel's Office, Colonel Simmons and I did that directly, 
I don't really recall what night that was, I believe they were going to 
turn them over to--.
    Question. The Justice Department?
    Answer. The Justice Department, that is correct.
    Question. Was it your understanding those were tapes of the 
coffees, the original tapes?
    Answer. I don't know which ones were identified but my 
understanding is that is what they were, the coffees, but I am not 
certain of that, I didn't view them, I didn't read over the lists. We 
did do an inventory but the inventory only had numbers so we could do 
chain of custody, we filled out forms and turned them over to the White 
House Counsel's Office. It didn't really have a descriptive title of 
what was on the tapes. That was my assumption.
    Question. This chain of custody you did, those documents, the chain 
of custody documents have all been turned over to the Counsel's Office 
also?
    Answer. They have a copy and we have a copy.
    Question. So you have been maintaining the original in your 
offices?
    Answer. That is correct.
    Question. I know we maybe addressed this a little indirectly 
previously, but if we can get copies of all of the chain of custody 
documents I think that would be of some assistance also.
    When the counsels were viewing the tapes, were they making the 
decision, they were--was the process initially they would look through 
this database you provided them and find out which tapes they wanted to 
pull back from the archives, and then once they got those, they would 
view those to see if they were going to be responsive, is that your 
understanding?
    Answer. That is my understanding but I don't know what they were 
really looking for or what determined something that was going to be 
responsive and what wasn't.
    Question. But your staff and your people are just basically loading 
the tapes in there for them to watch and they would make the decision 
on what was responsive?
    Answer. That is correct.
    Question. You weren't involved, your staff or you yourself weren't 
involved in any type of editing or decision making process, in terms of 
what tapes were responsive or not responsive?
    Answer. Absolutely not, and they did no editing at all.
    Question. And is it your understanding that whatever tapes were 
turned over were turned over in their entirety, with however your staff 
had presented them to the counsels?
    Answer. I'm not sure I understand your question. Are you asking 
everything they identified and retrieved from the archives, if that is 
what has been turned over?
    Question. Yes.
    Answer. I don't believe that is what happened. I actually believe 
they reviewed hundreds of tapes.
    Question. There were many tapes they reviewed that they made a 
decision weren't responsive, so you didn't end up copying them or doing 
anything with them?
    Answer. We had to make the original, up load to the Beta, down load 
to the VHS for them to review it, but I don't believe that they were--
every one that they reviewed was responsive, for whatever reason, I 
don't know.
    Question. Now in the course of getting all of these tapes pulled 
back from the archives, do you know if the archives keeps a record of 
what tapes were requested of them to turn over?
    Answer. I am not certain that they do, but I would assume that they 
would, because they are handled, you know, pretty carefully.
    Question. Record keeping is their business?
    Answer. Yes. We provide them with information on the tapes we give 
to them when we turn them over and we only keep them for about 60 days 
inside the agency, so I would imagine they keep pretty good records.
    Question. And do you know if your office kept a record of all of 
the videotapes that were requested by the White House counsels to be 
pulled back from the archives?
    Answer. I am pretty certain they did.
    Question. And, again, if we could request that record, if you all 
have that available.
    So this process that I guess has been going on for the past couple 
of weeks, involved just this ongoing process of the White House 
reviewing these logs, and viewing the videotapes and then asking your 
staff to make copies of whatever they felt was responsive?
    Answer. That is correct.
    Question. All right. And to your knowledge, all of the videotapes 
they asked you to copy have been copied and provided?
    Answer. That is correct.
    Question. Or provided to the Counsel's Office. I understand you may 
not know who physically brought them up here or if they were even 
brought up here?
    Answer. That is correct.
    Question. Has anyone in the Counsel's Office, in addition to these 
videotapes, now asked you to go back and look through any other records 
you might have that would be responsive to various requests?
    Answer. Mr. Sullivan, the Director of the White House Military 
Office, has directed us to go through all of our databases again, and 
since then the White House Counsel's Office has provided new search 
criteria, I think it was like three pages of words that--to use to go 
through that base, and we have been going through that effort for 
probably a week and a half, 2 weeks now.
    Question. Have they provided you with dates of events, in addition 
to names, or words?
    Answer. No, the three-page document, which is a list of words, the 
dates and names, pretty much were worked as it relates to--in regards 
to the video and audio archive data base. That is really where the date 
part was really pertinent. The three-page list, it was just a list of 
key words, like DNC fund-raisers, those types of things. I do believe 
the search after the time frame was from '93 to '96, but I am not 
certain of that.
    Question. All right.
    Answer. But I know we were looking through entire databases.
    Question. You have actually gotten a sort of new three-page 
directive from the Counsel's Office instructing your office to look for 
a list of new items through all of your databases?
    Answer. Right. The direction to check came from the White House 
Military Office and the three-page list of words, I believe, came 
directly from the White House Counsel's Office, but I am not certain of 
that. It is a little convoluted how that all happened.
    Question. Do you recall, was that this week or last week when you 
received it, if you know?
    Answer. I believe it was last week.
    Question. And, again, if we could get a copy of that.
    Mr. McLaughlin. Being the 12th or the week of the 5th?
    The Witness. Week of the 5th. I think it was the tail-end of that 
week, but I'm not certain.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Have you had any other discussions or meetings with 
anyone in the Counsel's Office, you know, with them informing you of 
the kind of information that they were seeking in order to assist you 
in pinpointing information that you might have available?
    Answer. No, we have a pretty clear understanding what you are 
looking for now. No one from the Counsel's Office, has, as I recall--
well, there was one brief meeting. Cheryl introduced me to you, and 
that was all that meeting really entailed.
    Question. Now, the subpoena we had, the March 4th subpoena, which 
was Exhibit No. 4, has anyone provided that subpoena to you to date?
    Answer. No.
    Question. Has anyone in the Counsel's Office provided any other 
subpoena to you?
    Answer. No.
    Question. Okay. So other than this three-page summary of items, are 
you aware of any other information provided to your office in terms of 
searching for items?
    Answer. No.
    Question. All right. So, for example, if Webster Hubbell's name 
isn't on that--do you recall if Webster Hubbell's name is on that 
three-page directive?
    Answer. No, I don't.
    Question. If his name were not on that directive, would it be safe 
to assume you are not looking for anything related to him in your 
search?
    Answer. That is a very safe assumption.
    Question. Well, I would just note, maybe this is something you all 
want to take up with counsel so you don't end up revisiting this again 
in the future, our subpoena does include all records relating to 
Webster Hubbell. That is something we had represented to us in June of 
this year, had been fully complied with, that I don't know if that has 
been something searched or not but that is one thing also. I will be 
happy to provide you with a copy of our subpoena, also, if that would 
be of any assistance, but in particular, the items, all items related 
to John Huang and the Riadys, I think it is items 1 through 7 on the 
subpoena, have been represented to us as having been fully complied 
with. And I don't know if you can take a look at the names there, I am 
wondering if those are names, if you can recall, that are on the three-
page list?
    Answer. I don't recall.
    Question. Just to be clear, is it words or names that they have on 
this new list?
    Answer. I don't even believe they are names, I think they were like 
words like ``DNC fund-raiser.'' I don't recall names. I am not saying 
names aren't on there, but I just glanced at it and we gave it to folks 
working in our data centers. They have been doing queries of our E-mail 
system and various other databases that we have, but I don't recall 
names being on the list.
    Question. Okay. And, then again, do you recall dates being--
particular dates being on the list?
    Answer. I don't remember dates being on the list, but I think the 
direction was to look back as far as January of '93 to December of '96, 
I believe, that whole window.
    Question. Okay. Do you know if there is anything like, you know, 
look under this particular event to see if particular individuals are 
there, or anything like that?
    Answer. No, nor do I believe that would ever be given to us because 
we don't know any of the individuals. For instance, our video crews are 
only about 3 percent of the individuals in the agency that are involved 
in that production, meaning the sound and lighting and the recording 
and the video piece and the video crew. A part of that 3 percent is 
only seven individuals. So a very small amount of people in the agency 
is involved in that, and their focus is to capture the Presidency. They 
have no interest at all who is attending the various functions, so 
giving us names does not help us.
    Question. Does not help you at all?
    Answer. Yes.
    Question. And you have explained that now to the Counsel's Office 
fairly clearly?
    Answer. Numerous times, since the 29th of August.
    Question. So it is your belief they have an understanding that if 
they want to be able to find videotapes or audio tapes that pertain to 
something, that they need to come to you with information, such as a 
date and the people they are looking for, and then perhaps even look 
for that person themselves, if you don't happen to know who that person 
is?
    Answer. We won't know. They would have to give us a date and a 
title of an event and somebody who knows them. We would provide the 
tape for them to review it and somebody that has knowledge of the 
individuals, who is capable of identifying them, would physically have 
to get in front of the monitor and point that individual out, 
independent of our following.
    Question. If somebody told you we are looking for all the 
videotapes on Mr. Wu, you won't know Mr. Wu from Mr. Smith or Mr. 
Jones?
    Answer. That is absolutely correct.
    Question. Have you been given any type of deadline on this new 
request?
    Answer. We have been directed to do it as quickly as possible. 
There is no way you can give a deadline, and the reason for that is 
some of the databases that we have, they are not smart enough, like say 
for instance, you give me, say, a key search word of ``DNC,'' and it is 
in the title of an event or something, some of our databases, 
especially our records cable system or E-mail system, it will search 
the entire text of an E-mail document and if ``DNC'' appears anywhere, 
it may have nothing to do with Democratic Committee, but just because 
it is in the text, they are going to get a hit and somebody has to 
manually go in and review that. So right now today, based on the new 
search criteria, there are thousands of documents that they are going 
through, you know, taking a look at, that are just not relevant to this 
at all, but they are still going through the process.
    Question. And that is the Counsel's Office that is going through 
that, continuing to go through that process, in terms of reviewing?
    Answer. Our own individuals are looking at that right now. If it is 
something that is pertinent to the administration, I mean, even an 
internal E-mail document that I sent to somebody in my staff, that I 
may have used, you know, ``DNC'' or maybe a better example, say the 
word ``complete,'' maybe in the new word search, if P-L-E is somewhere 
in the text it may take a hit. So they have to physically go and take a 
look at it. So just about everything in our system right now is being 
manually reviewed to see if it is relative to the effort, and once they 
find it is, they will afford it. But right now they really haven't had 
a lot of pertinent or substantive hits. But they are still going 
through this extensive process because we have a new search criteria 
and we have been directed to do so. Some of this may take a month or 
more to go through.
    Question. You also have photograph databases, is that correct, or 
photo on databases?
    Answer. We have a photo archival system, where they have like 
contact sheets, negative type information, you know, of photos that 
were taken by the members of the White House Photo Office, which is 
independent of the White House Communications Agency.
    Lieutenant Colonel Sparks. You said negative type information, you 
mean negatives?
    Answer. Negatives, right. I'm sleepy.
    Question. Any time you want to take a break.
    Answer. We don't take any still photography. We do develop for the 
White House office and we do have a database with that information in 
it.
    Question. And how is that searched?
    Answer. I believe there is actually numbers that are assigned to 
specific events, I don't know, I am not really that familiar with that 
database system. I know there have been some queries for information, 
from I believe originally out of the White House Counsel's Office, but 
I am not certain. But I know we are checking all data bases.
    Question. Are you aware of the White House Press Office coming to--
going to the photo people to ask for the negatives, get access to the 
negative contact sheets?
    Answer. The White House press?
    Question. Yes.
    Answer. I don't have first-hand knowledge of it, but that is highly 
probable. I don't know if it has taken place or not.
    Question. Have you heard about anybody doing that or has anybody in 
your office told you about that occurring?
    Answer. No, and I would believe, if there was such a request from 
someone in the White House, it probably would come out of the White 
House Photo Office, not the White House press, but I am not aware of 
it.
    Question. If someone were to go to--who was the person who sort of 
in charge of the whole photo database in your office?
    Answer. The photo lab comes under the Washington Area Support 
Directorate, which is part of the Visual Division, and I just can't 
recall who is in charge of that now. It used to be a Sergeant Goanes, 
and I am not sure who is in charge of it currently.
    Question. And could you just describe the process of how those 
photographs are archived and maintained?
    Answer. I am really not that familiar with it. I know they do the 
development, they create a document, it is called a contact sheet. On 
the contact sheet they will have various frames that were taken, each 
one is assigned a number, the overall sheet has a number. I know they 
pass that to--routinely pass it to the White House Photo Office and 
they will identify which pictures they want to have, you know, larger, 
or actually prints made of and they will do that. But I am really just 
not that familiar with that archival system, you would have to talk to 
one of the technicians.
    Question. Do you know if----
    Mr. McLaughlin. For the record, we have been joined by Christopher 
Lu, who is Minority counsel on our staff.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know if over the past 6 or 9 months, in terms of 
responding to any directives or requests from the Counsel's Office, 
whether or not any photos have been provided to the Counsel's Office?
    Answer. I am not certain whether it has or not, but I was recently 
in a conversation and I don't remember who made the comment, they said 
it had been--there had been inquiries or a request for the photo lab to 
provide contact sheets, and I don't even remember recalling who made 
that statement in response to an inquiry.
    Question. So there was somebody in your office who said they had 
been asked to provide contact sheets?
    Answer. Not in my immediate office, just somebody in the agency. 
There had been so many conversations about inquiries and providing 
information in the last 2 weeks, I just don't even remember who made 
the comment.
    Question. And is there an original contact sheet that would stay in 
your office and you give a copy or if somebody requests it does the 
original go out?
    Answer. I believe we will always have a copy of the original.
    Question. Is that generally true for just about any record in your 
office, that any time a tape or an audio or something goes out, it goes 
out as a copy and you maintain the originals?
    Answer. That is correct, we would never get like a master or an 
original videotape or an audio tape. The exception to that, the only 
time I have ever seen in 8\1/2\ years is this recent time we provided 
it to the Justice Department.
    Question. But the normal practice would be, I mean, if somebody in 
the President's office called up and wanted a tape of his radio 
address, you would copy that tape and send it up to that office, you 
wouldn't send up the original for them to copy?
    Answer. That is correct.
    Question. That is part of the service you all provide?
    Answer. That is.
    Question. Does that occur often, that people from various offices 
in the White House will make a request to your office to get a copy of 
an audio or a video?
    Answer. It doesn't happen often, but it does happen from time to 
time.
    Question. And what is the process?
    Answer. I am really not that familiar with it. I know there is a 
release sheet that they have, in our master control facility that 
identifies certain individuals that tapes can be released to. I know 
that they will make a copy if we still have it, we normally maintain it 
for about 60 days. If they don't, they go to archives and retrieve it 
and make a copy, they provide it to the office and keep it up to about 
2 weeks, and then they will go back and retrieve that, and just copy 
over that tape.
    Question. And it is your understanding that there is some kind of 
request form that needs to be filled out in order for your office to 
produce a video?
    Answer. I think they just call and say I am from the White House 
Media Affairs Office and I would like to have a copy of the President's 
radio address, and I believe they put it in a little log.
    Question. Your office puts it on a log?
    Answer. Our agency, yes. Maybe I can help put this in perspective. 
There are about 850 people in the agency. This office of the AV portion 
that we are really talking about is really a very small group, about 
four layers or five layers, so I have very little first-hand knowledge 
of their internal procedures.
    Question. How many people are in that AV unit?
    Answer. Actually, there are probably about 230 people, roughly, 
that are associated with the audio visual duties of the agency, but the 
ones that really do event production in the video crew, there are 18 
people assigned to event productions, pertaining to the audio piece, 7 
do the video camera and then we have this facility called master 
control, which is also part of the audio visual mission, and there is 
probably 10 or 12 people working. So we are talking about a total of, 
at the most, 40 people, that really are involved in that type of stuff 
on the White House complex. And the only reason I bring that to the 
table is because I have very little first-hand knowledge of all the A 
to Z mechanics associated with how they do business.
    Question. Because WHCA has, what, approximately a thousand 
employees?
    Answer. 850.
    Question. And you are overseeing all the other offices?
    Answer. That is correct, from an operational perspective, and there 
are a lot of layers between me and them and we are kind of in the weeds 
from my perspective, but--someone that works in our office could be 
more conversant on that, but my understanding is they do log in those 
types of requests, and they do go back and retrieve those tapes and I 
know for a fact they never give up originals and that is the extent of 
my knowledge.
    Question. So if someone had wanted to, you know, if I was there and 
shook hands with the President and now I am running for Congress and 
want that tape, can somebody go in and make a request through somebody 
that I would like to get that copy of the videotape in the Rose Garden, 
shaking hands with the President, something like that?
    Answer. I don't know of that happening ever; I don't see it 
happening, quite honestly.
    Question. If you know, do you know what type of requests are made?
    Answer. I have seen requests, you know, where the President may 
have made--he may have had a structured speech, you know, that was 
written, and he may have deviated from the text, and he may have liked, 
you know, what he said and he wanted to hear that or maybe incorporate 
it in another speech or something and they have asked for copies of a 
tape, and then we give it right back. I mean, I don't know of any 
incident where somebody that attended, you know, one of his meetings or 
whatever, and asked for a copy and then we provided it, and if we had 
we wouldn't know that directly anyway because we would never take a 
request from someone outside of the White House. So we would have no 
knowledge of that.
    Question. But the request would then have to come from somebody 
within the White House?
    Answer. Absolutely.
    Question. And is it a fairly small group of people that would have 
to make that request?
    Answer. That is correct.
    Question. Do you know generally who the people are who have to make 
that request?
    Answer. I know the Media Affairs Office is one of the offices. It 
is very likely maybe the Social Office may request that, but I am not 
certain.
    Question. And is the process you would make a copy of the tape but 
then they end up returning the tape to you after they looked at it?
    Answer. That is correct.
    Question. Is there an obligation for them to return the tape or do 
you track it down and get the copy of it or is it something that they 
can actually have a copy and take home and keep in their file for their 
memoirs?
    Answer. There have been--there is probably some of both, but 
internally you have a procedure because it is DOD property that we use, 
that VHF tape, so that is really why we go out to retrieve it. And from 
my knowledge, people are very good at turning it back. Our folks will 
be proactive and call them and say we gave you a tape. There are cases 
where like the Boy Scouts of America, the President did an event with 
them and they want a copy of it and they may come to us and ask for it 
or we may direct them back to Media Affairs or some other office within 
the White House and they will call and if we have it internally, if it 
is still maintained in White House Communications Agency facility, we 
may make a copy and turn it over. We may give it to them and we know it 
is gone forever, but the norm for something like that is we would 
direct them to National Archives. Because it is in a public domain you 
can request it and get a copy.
    Question. Is that your understanding, once you send them over, and 
it is over there, there is supposed to be public access to those 
records?
    Answer. That is my understanding.
    Question. Has that been the practice, you said you have been with 
the agency for 8 years or so?
    Answer. Yes.
    Question. And so any event that may have been taped from 1993 or 
1994, we should be able to get by going down to the archives, as well 
as--?
    Answer. I believe that that is true. I know the Archives will make 
copies. I don't know, you know, all their rules and regulation of who 
can and who can't, but I do believe the public has access to that 
information. That is why I was a little surprised why they came to us. 
You know, we just recently heard about audio and videotapes the 29th of 
August, I was a little surprised why they didn't just go to the 
National Archives and get the information.
    Question. Have you heard anything about the Archives not providing 
such information or being prevented from providing any such information 
in recent years?
    Answer. No. I know they have worked a lot with us providing 
information here in the last 2 weeks, but I never heard of them not 
providing anything.
    Question. Let us discuss a little bit, to the extent that you have 
an understanding of this, how the audiovisual crews operate on a day-
to-day basis, how they get their instructions and how they decide what 
they're going to tape or not going to tape.
    Answer. It differs between the audio and the video side slightly. I 
will talk audio first.
    Both of them use the President's schedule as a planning document. 
On the President's published schedule, it will have the event, and 
there is some recurring, routine type events that we know that we 
always support, like radio addresses and things of that nature. In 
addition to that, they get taskings that come from the White House 
Social Office.
    There is an event that requires audiovisual support. They have a 
template type document that goes to various elements within the White 
House, White House Communications Agency being one, and on that sheet 
it will have things like ``record,'' ``announce,'' I think ``mike,'' 
just different audiovisual type services. Oh, there you go.
    Ms. Comstock. I will show you this. This is a Residence Event Task 
Sheet. Actually, there is three of them in this packet, and we will 
make that Deposition Exhibit Number--I think we are up to 8. And it is 
EOP 023953, EOP 023930, and EOP 023910.
    [Smith Deposition Exhibit No. SS-8 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. And is this the type of task sheet that you would be 
given?
    Answer. Yes.
    Question. And where do these come from?
    Answer. This document, I believe, is created out of the White House 
Social Office, and it is either faxed or hand carried over to our event 
productions office in the Old Executive Office Building.
    Question. And who is in charge of the White House Social Office?
    Answer. I believe it's Sara Farnsworth, but I'm not certain of 
that.
    Question. Is it your understanding Ms. Farnsworth would provide 
this type of task sheet to your office on a daily basis or----
    Answer. On an as-needed basis, when there was a requirement for 
White House Communications Agency support for an event on the White 
House complex.
    Question. And do you recall these type of sheets being received for 
White House coffees or anything like that?
    Answer. I would never have seen these types of sheets. The 
execution for these types of requirements are really decentralized. It 
is actually done in that work center, so Chief McGrath and Sergeant 
VanKareun, those types of individuals would be the ones that would 
actually see these types of documents and build a support group to go 
out to meet this requirement.
    Question. And maybe if you could just explain these task sheets, to 
the extent that you have knowledge about them.
    Answer. As I mentioned earlier, the task sheet goes to various 
offices within the White House. It has the White House photo office on 
there, the military office, and then it has the White House 
Communications Agency, and that is the part that is pertinent to us.
    On there, you will see things like podiums, mikes, recording, and 
it says yes or no. And there is an asterisk which would depict--if, for 
instance, a podium was required on that date, a speaking platform for 
the President, she would mark a ``yes.'' On this particular example she 
marked ``no.''
    Question. So the star that's next to ``no,'' that little asterisk?
    Answer. Right.
    Question. Represents the ``no''?
    Answer. The no requirement.
    Question. There is no podium?
    Answer. Required. Exactly.
    Question. And we are both looking at EOP 023953, the top page, just 
for the record.
    Answer. Exactly.
    Question. And then on this one, where it says ``announcer, mike,'' 
it also has an asterisk that says ``no;'' is that correct?
    Answer. That's correct.
    Question. And on this one, it also says ``recording,'' and the 
asterisk there, it would be your understanding, is for the ``no''?
    Answer. That's correct.
    Question. Now, the July 31, 1995, coffee was actually one of the 
coffees that we got a tape for. Do you know how it would be that it 
would end up being taped whereas this sheet had given your office 
directions not to? What event would have intervened in between?
    Answer. What would have happened--first of all, the date of the 
event is 3 August, not July 31.
    Question. You are correct; I'm sorry; the document creation date is 
July 31.
    Answer. This document would have not come to the White House 
Communications Agency for this particular event, because if you look at 
everything, the asterisks indicate no, as you mentioned earlier. 
However, you do know it was videotaped. How that really happens, this 
very likely was on the President's schedule as a coffee for that 
particular day.
    Shifting from audio to video, the video team leader or supervisor 
for that day on 3 August would have actually met with, most likely, a 
member of the White House staff. Daily they meet with the President's 
aide, Steve Goodin, and they would just ask him: Do you want us to be 
there or not? And he would say yes or no.
    If you have a tape, he or somebody representing him or that office 
requested us to be there. And then routinely, the way they do business 
is, they would be told when to be there, and they would be queued in 
and queued out. And that is pretty much how that happened. That is 
normal business.
    These would routinely say no. Where it says ``White House 
television'' here, that is the old name. It is really now the White 
House Communications Agency camera crew, but it is all the same 
organization.
    Lieutenant Colonel Sparks. Can we take 5 minutes or so?
    [Brief recess.]
    Ms. Comstock. We began this deposition at 4 o'clock today. At no 
time did Mr. McLaughlin, who, as the designated counsel by the 
Minority, indicate that he had to leave. He was clearly aware that this 
deposition would be very likely to go longer than 2 hours.
    At 6:20, Mr. McLaughlin informed everybody that he had to leave and 
apparently go out for a social engagement. So even though he is the 
designated Minority counsel for this deposition, he has just decided to 
leave in the middle of the deposition, an extremely unprofessional 
action that we have not had occur in any prior deposition. In my 
experience in this investigation or any prior investigations, or, in 
fact, in my legal experience, having an attorney leave in the middle of 
a deposition is a fairly unusual circumstance.
    But in his place he has asked to have Mr. Lu here, who is not the 
designated counsel, and our rules provide that there is one counsel 
from each side per round. We are on the first round. Mr. McLaughlin 
began the first round, and now he has exited. So we are going to 
proceed with this deposition so that we can finish up with our witness 
here.
    Mr. Lu. If I can state the Minority's position for the record, and 
let's just move on with it. I don't think we need to sit here and 
discuss Mr. McLaughlin's professionalism or lack of professionalism. I 
don't think that is really appropriate for a deposition. I don't think 
it's appropriate at 6:25 to be arguing about this on a Saturday 
evening.
    The Minority's position is that it is acceptable and it is within 
the context of the rules of the committee to switch counsel during a 
deposition. Mr. McLaughlin informed me that he has not asked any 
questions during this round. And we would argue even more so that our 
round of questioning has not even begun. Our round typically is begun 
after the Majority has asked all of its questions, and that is the 
position that the Majority has always stated when we have tried to ask 
follow-up questions.
    So I don't want to belabor this point. At the end of Majority 
counsel's questions, if I have any questions, I'm happy to let Majority 
counsel state that objection on the record. If at that point I am not 
allowed to continue, that's fine, we will just put that on the record 
and we will reserve our right to call the witness back at another 
point, something I don't think the witness or the witness's counsel or 
Majority counsel wants.
    I don't see any harm that is done from switching counsel at this 
point, but I think at this late time of the day we should just move on 
and try to wrap this up.
    Ms. Comstock. Well, we are not going to object to you going ahead 
and asking questions because the designated Minority counsel has taken 
these unprofessional actions and decided to leave. We will, obviously, 
allow you to ask questions for the record.
    Mr. McLaughlin was making comments earlier in the deposition and 
was acting in the capacity as designated counsel during the deposition. 
You were not here, so I don't know what representations he made to you. 
Apparently, at some point this evening, he decided to call you and 
inform you to come in, something he never discussed with us, because if 
he had indicated to us there was going to be a problem, we could have 
either waited for you to come in or have proceeded.
    But Mr. McLaughlin apparently just decided to play musical chairs 
here with attorneys, and there was no need for this if he had informed 
us beforehand. But I think his record and behavior speaks for itself, 
and we will proceed.
    Mr. Lu. Well, you have attacked the credibility of one of my 
colleagues, and all I can say is, Mr. McLaughlin has performed 
professionally, admirably, throughout this investigation, and I object 
to the characterization of his actions as anything but professional.
    Ms. Comstock. Well, I think leaving in the middle of a deposition 
speaks for itself.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Are you aware of records that are kept in your office on 
the use of White House fleets and cars, carpool information?
    Answer. Not at all. The White House Communications Agency doesn't 
use the White House fleet of cars.
    Question. I'm sorry, maybe I'm unclear. Are there any phone systems 
that are used with the cars that would go through your office?
    Answer. None that I'm aware of.
    Question. When we were discussing earlier the videotaping that is 
sometimes done for events, if a staff member perhaps requests a video 
of a President's speech to look at, you know, how that was done, do you 
know anything about a system whereby that taping can be put on some 
kind of White House internal TV system for people to watch?
    Answer. Within our agency, we have a facility called a master 
control facility and we have several dedicated channels where we can do 
an internal distribution of something, if it was requested, or even a 
live event that was being captured by one of the networks. We could 
distribute it internal to the White House complex.
    Question. So it is the kind of thing where you can say, I would 
like to see this at 6 p.m., the President's State of the Union from 
1995, and you can plug that into the system for someone to watch in 
their office?
    Answer. Technically, that could be done.
    Question. And do you keep logs of that type of thing also?
    Answer. I'm not certain if we do or not.
    Question. Were you aware of people in the Counsel's Office, of Mr. 
Breuer or Mr. Ruff, reviewing any particular tapes and any questions 
they may have had for you about any particular tapes?
    Answer. No, not at all.
    Question. Did anybody in the Counsel's Office ever ask you about 
any cuts in any tapes or any edits that had been made?
    Answer. None at all. We don't do editing, so I don't see why that 
question would come up.
    Question. You had mentioned earlier, or we discussed pretty much at 
the top of the deposition, about your being upset when you had seen 
news accounts about how WHCA had somehow missed the tapes. Did anyone 
in the Counsel's Office ever say anything to you directly about that?
    Answer. You mean about the articles themselves? Is that your 
question?
    Question. Yes.
    Answer. No.
    Question. Did they ever say whether they were misquoted or that 
they didn't mean for it to come out that way or anything like that?
    Answer. I was in one phone conversation with Colonel Simmons and 
Cheryl Mills and myself, and she made just kind of a general comment 
that, don't worry about what's in the newspaper. But I don't really 
remember her saying anything specific about a particular quote, but 
just kind of a general comment, don't be overly concerned about that, 
you know. That's pretty much it.
    Question. Now, were you aware of Mr. Breuer and Mr. Imbroscio 
making themselves available to the press and talking about this to the 
press?
    Answer. After the fact.
    Question. Did you see comments that they had made to the press 
about these matters?
    Answer. I just made some assumptions by what I saw in the newspaper 
that it must have been derived from their comments. I don't really know 
if that was their actual comments. I have no knowledge of that or any 
indication of it.
    Question. Now, WHCA's staff, you all can't really go out to the 
press and tell your side of the story, can you?
    Answer. Definitely cannot.
    Question. It is like the Secret Service, you guys can't say 
anything. Really, you don't have a PR office?
    Answer. No, we do not.
    Question. You don't have a press office that goes out and gives 
your side or account of events?
    Answer. That is correct.
    Question. And, obviously, the White House Counsel's Office is aware 
of that?
    Answer. I assume that they are. I don't know that for certain.
    Question. And if The Washington Post calls someone in your office 
up, they can't go on the record and make comments?
    Answer. Our office can't. Matter of fact, we have been deferring 
any type of media type requests to, I believe it was Lanny Davis as a 
contact.
    Question. And Lanny Davis being the counsel in the White House 
Counsel's Office who responds to press matters?
    Answer. I assume that's what his function is, but that is the name 
that we've been giving to folks. I haven't directly had any 
conversations with him, when I have given Lanny Davis' name--oh, yes, I 
have. I can't remember who it was. There was one. I can't remember if 
it was Washington Post.
    There has been a whole bunch of media folks all the way from the 
L.A. Times to Washington Post to the various networks trying to track 
me down since my name appeared in the paper. And I do believe I had a 
conversation with one of them, and I passed his name as a point of 
contact for questions.
    Question. And who told you that Lanny Davis should be the point of 
contact?
    Answer. It has been put out in our agency. We know it is our 
internal policy that we don't discuss business with anyone outside the 
agency. We just don't do it. It's always been the policy.
    And with all this visibility here in the last couple of weeks, 
that's just pretty much what we've been passing out to our staff, to 
vector everyone that have questions to--outside of the military, to 
Lanny Davis.
    Question. If the information that Lanny Davis was the point of 
contact, was that put out in a memo or e-mail, or someone told you 
orally?
    Answer. It was orally, verbal direction.
    Question. Do you recall who told you that?
    Answer. I think the first time I heard it was probably from Colonel 
Simmons.
    Question. Can I presume Lanny Davis probably isn't someone you were 
dealing with on a regular basis before?
    Answer. Definitely not. Definitely not, no.
    Question. Do you have any knowledge of the President being told 
about the tapes or hear anything about how he was told or when?
    Answer. No, I wouldn't have any knowledge on that.
    Question. When we discussed earlier not all of the tapes that had 
been pulled back were necessarily responsive, or your interpretation as 
well as the counsel's may have been that they weren't responsive so you 
may have records of hundreds and hundreds of tapes from the archives, 
that doesn't mean we're going to be getting hundreds and hundreds up 
here.
    Sort of in that winnowing down process that the Counsel's Office 
has been going through, have you been privy to any discussions as to 
the type of tapes that they weren't turning over or that they didn't 
think were responsive?
    Answer. No.
    Question. Have you, with your colleagues at WHCA, discussed 
anything about the individuals who had attended the coffees, a lot of 
the President's aides and people like Steve Goodin, who had directed 
cameras to be there and taken them?
    Did you ever have a discussion about those people, how come they 
didn't inform the Counsel's Office or tell somebody about what was 
fairly common knowledge about the taping?
    Answer. No, not really.
    Question. Have you had any discussions with Steve Goodin since this 
occurred?
    Answer. Absolutely not.
    Question. Do you know if anyone in the WHCA office has had any 
discussions with Steve Goodin since this occurred?
    Answer. About this?
    Question. Yes.
    Answer. Not likely, but I have no knowledge of that.
    Question. The people who deal with Steve Goodin on a day-to-day 
basis, the seven or so camera people, who I guess we have been seeing 
their names, even though we have not seen their faces yet, but have 
heard their names on a number of the tapes that we have received, those 
are generally the people who interface with Mr. Goodin on a day-to-day 
basis?
    Answer. That's correct.
    Question. Is there anybody else at WHCA who would be dealing with 
Mr. Goodin on any regular basis?
    Answer. Not on this issue.
    Question. Do you have any knowledge as to how Mr. Goodin decided 
whether or not an event should be taped or not?
    Answer. No, I don't.
    Question. Do you have any knowledge of who Mr. Goodin reported to, 
who his direct supervisor is?
    Answer. No, I don't. Not really.
    Question. You had occasion to travel with the President in your 
capacity?
    Answer. I have.
    Question. And on those trips, did Mr. Goodin go around with the 
camera crews? Is that generally what occurs?
    Answer. He doesn't really travel with the camera crew. It's more 
the other--the camera--there's always a camera crew assigned. Even when 
they are on Air Force One, there is a camera that is assigned.
    When they arrive at the event, they move around to various 
locations. The procedure for them to get directions is pretty much the 
same. Either they get a task from Steve Goodin, and there are a couple 
of other members of the administration that also may play into that; I 
think Chris Inskov is another individual that may, but it happens the 
same way. They get tasked from him on the road and also in the 
Washington area.
    Question. Is it your impression that it is generally sort of an ad 
hoc process, as they are sort of going along throughout the day, like, 
come on down and tape, the President is down in Texas and is going 
through a day-day center, then he stops off somewhere that maybe wasn't 
planned, and they say, come on tape something here in the hospital?
    Answer. Very much so. But their focus is always the President. They 
are not really taping the event or who is attending or where he is. 
They are really just keyed on trying to capture the President for 
archival purposes, and it is very much ad hoc for the video piece 
especially.
    Question. Is the practice such that Steve Goodin would sort of 
start out an event? Say if he goes to a dinner at a private home, it's 
going to be 20 people or so, they will film the beginning of it and 
then sort of, okay, cut off now, now we're going to have a really 
private event?
    Answer. Very much so like that. They may come in; there may be an 
event, say, like at a private residence, that may last hours. They may 
only film 2 or 3 minutes. They may film 5 minutes, but they normally 
will get the first minute or so, and then they will cue them to stop 
covering the event, and then maybe at the tail end of it they may get a 
piece again.
    But he doesn't normally say, get this, get that. He will just tell 
them, okay, he's going to come in this entrance; capture that.
    Question. Just sort of follow him usually--not specifically follow 
him, but make sure you get a picture with Jill and Jack?
    Answer. No, it's not normally that direct. And, one, they know we 
are there to capture the Presidency, and they also know we don't know 
who these individuals are. So somebody would literally have to be 
there. And they know that is not what our mission is, to capture these 
other individuals that are attending these various functions.
    Question. So they are usually not there saying, make sure you get 
Barbara Streisand in this frame?
    Answer. No.
    Question. There is no sort of stage directions; your camera crew is 
told, sort of, show up, and they make the elective decision to really 
focus on the President, follow him around?
    Answer. Exactly.
    Question. And get him in the picture, and everybody else is sort of 
peripheral to the camera crew?
    Answer. That is correct.
    Question. Now, when we watch some of these coffee tapes and we see 
them just cut off at some point, that is because that is exactly the 
way it was taped then?
    Answer. Exactly.
    Question. Does that mean at that point that that is when Mr. Goodin 
or whoever was doing that kind of said, cut, you're out of here?
    Answer. He probably just signaled, nodded to them or something, and 
they walked out.
    Breaks in the tape can be a variety of reasons. It could be that 
somebody was walking past the camera guy and he literally just cut the 
camera off to let the individual pass by him.
    Another thing that could cause that type of thing is, as you 
mentioned, they are cued to get out. Or it could be they are changing 
tapes. And when they're changing tapes in the camera, they have to cut 
the camera off and cut it back on.
    You can normally view the tape and pretty much figure out what is 
going on, if you are familiar with it.
    If they are changing positions can be another thing. Or if they are 
walking from point A to point B, they would normally cut the camera 
off.
    Sometimes they would leave it on and you would see the floor or the 
back of a table and you wonder what is going on, but that is usually 
what it is, they are just moving around, kind of an independent 
operation once they have queued the film.
    Ms. Comstock. I think at this point we may look at a couple of 
tapes, and if you could maybe comment on them.
    We are looking at White House tape number 5, which is a February 
19th, 1996, dinner at the Hay Adams Hotel.
    [Videotape shown.]
    Ms. Comstock. If we can freeze it there.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Where the screen sort of goes black and then goes on, can 
you explain, if you know, what has happened?
    Answer. Obviously, the only person that can give you an exact 
answer to what happened here is the individual that was on that camera 
that day. But most likely what happened there is, he just stopped 
filming, just cut it off at that point, because they don't capture the 
entire event. They caught the President, he panned out, and that's 
probably all he wanted to do.
    Question. And when people come back from events and they have their 
tapes, that is exactly how it was taped, it just goes directly into the 
archives in whatever way it was taped? It is not edited or changed in 
any way?
    Answer. That's right, it is not edited.
    Question. Have you ever had anyone on any occasion ask you to edit 
or do any editing of any event where it's like, gosh, we really didn't 
mean for you to be there, can you cut the end of the tape when somebody 
got really silly, and it was something, or it was like some event you 
were inadvertently at or taped?
    Answer. No, and I believe if that had ever happened, a request to 
do something like that, I would have heard about it, because something 
like that would be--that is not what we do.
    We are there to capture the Presidency. We are not there to edit in 
any way. And our procedures are to turn that in, assign a number to it, 
put it into our database, and eventually get it off to the archives.
    So I believe if there ever was such a request, that would 
immediately come up to my office, and that has never happened, and I 
have never even heard of it in the 8 and a half years I have been 
affiliated with the agency.
    Ms. Comstock. This is tape 63, which I believe is the end of a 
radio address, or it's in the Oval Office with the President, some type 
of photo-op situation. The date on this is September 10th, 1994.
    [Videotape shown.]
    The Witness. I saw where it changed frames. Is that what you're 
talking about?
    Ms. Comstock. Yes.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Again, the President was talking with James Riady. Then 
there was a frame switch, and John Huang and Mark Middleton was in the 
picture also.
    Do you have any knowledge of that?
    Answer. I don't have firsthand knowledge, but it is very likely 
that they were changing film at that time, and it takes a few seconds 
to do that. So that is probably what happened then.
    Question. And I don't want to put you on the record here as making 
representations about these tapes. I do want to state for the record 
that we understand that you are just sort of giving us your 
understanding of these things, of your experience in viewing tapes, and 
not making any particular representations about these particular tapes, 
because I understand you weren't there and you didn't take them, but we 
really are just asking you for your knowledge of the process and using 
these as examples in that process. So I wanted that to be clear for the 
record so there is no misunderstanding.
    Since these events have come to light in the past few weeks, have 
you had anybody--you mentioned the press tried to contact you. Has 
anyone other than the White House Counsel's Office come to you directly 
and tried to talk with you about these matters?
    Answer. No. A Washington Post individual approached me coming out 
of the grand jury, but nobody other than that.
    Question. Has anyone in the White House, any other staffers or 
anybody from any office, come to you to talk to you about your account 
of what happened or anything like that?
    Answer. No.
    Question. Following the news reports last week, after, I guess, 
your Senate deposition and then that information came out, did anybody 
from the Counsel's Office at that point come to you again to discuss 
whatever account you had given to the Senate of these events?
    Answer. No.
    Question. A little earlier, we had been discussing how the camera 
crews--their planning documents, and how they decide what events to 
videotape, and you had mentioned they worked off of the President's 
schedule.
    Do they get the President's private schedule or his complete 
schedule of what he is actually doing every day as opposed to his 
public schedule?
    Answer. I believe it is a private schedule, but internal 
distribution to certain elements within the White House. I don't 
believe it's the same one you see on television and in the newspaper.
    Question. I ask that in particular; I don't want to hide the ball 
here, but the coffees were not on the President's public schedule in 
any way, and I was wondering if you have any knowledge of the coffees 
being on those private schedules or if it was a situation where the 
camera crews just sort of went around with Mr. Goodin and he said, 
``Here you are; film''?
    Answer. I don't recall seeing--personally seeing coffee on his 
schedule, but I think it's very likely that it was on his schedule that 
is distributed internal to the White House.
    The only reason I say that is because the example, or the task 
sheet for 3 August, which was Exhibit 8, indicated that there was no 
White House--excuse me--White House Communications Agency camera crew 
requirement, but we do know that they videotaped it. So something had 
to prompt our individual to go find out what needed to be done.
    They're not just haphazardly hanging around Steve Goodin all day. 
They would normally go to him around 9 o'clock in the morning. This one 
here actually happened at 8:30 in the morning, as indicated on Exhibit 
8. I can only assume that they got that from him earlier on.
    Question. Would the situation be something like, the night before 
they may have called and said, ``Make sure you have camera crews here 
at 8:30,'' or do you have camera crews there 24 hours a day?
    Answer. They are not there 24 hours a day. I think they are there 
until about 8:00 at night. I'm not certain if that's the time they shut 
down. Obviously, it is dependent. If he has an event scheduled, they 
are there until that is over. But we do not keep people there around 
the clock.
    But the normal procedure for them is to take a look at the schedule 
when they come in in the morning. The schedule is faxed the night 
before. They will get in about 8 o'clock, check the schedule, and if 
there's anything that warrants further discussion or clarification, 
they would go to like a Steve Goodin and seek that information.
    Question. Would these documents then be maintained in your office, 
the type in Exhibit 8? Do you keep a record of these ongoing?
    Answer. I'm not certain if they archive that information or not, 
quite honestly. I don't believe they do, but I don't have any firsthand 
knowledge of what the disposition or destruction of that particular 
document or how long it's archived.
    Question. I don't have the actual transcript from when Mr. Ruff had 
been on TV last week, but he had said something to the effect that this 
happened because someone queued something in wrong into the computer.
    That isn't what occurred here; is that correct? You guys didn't put 
the wrong word into a computer?
    Answer. I don't know what context when he said that, but the words 
that we put into the computer are the words that they provided to us. 
So I don't really know----
    Question. So if they didn't give you the right information, you 
weren't going to be able to--sort of garbage in, garbage out type of 
situation?
    Answer. That's exactly right.
    Ms. Comstock. I believe that's all I have at this time.
    Mr. Lu. I want to thank you for coming in today. I really don't 
have a lot of questions. I know Majority counsel and I can spend a lot 
more time talking about whether I can ask the questions than the time 
it will take to ask them, but my understanding of the rules is that 
nothing prevents the Minority from switching counsel halfway through. 
It is unfortunate it happened. I apologize to you. I just have a couple 
of questions.

                         EXAMINATION BY MR. LU:

    Question. I think you have said that the job of your office is to 
basically catalogue the Presidency. I'm not sure that was your word, 
but to basically inventory, be an inventory of audio and video 
information about the Presidency; is that correct?
    Answer. That's correct.
    Question. And I believe you also said that it is not your job or 
your office's job to edit the video or audiotapes?
    Answer. That's correct, we don't do any editing.
    Question. And you also said that you knew of no instance during 
your time where a tape was altered, doctored, edited, whatever words 
you want to use?
    Answer. That's correct.
    Question. And I believe you also said that had there been such an 
event, you would have heard about it; isn't that correct?
    Answer. That's correct.
    Question. What would you have done if you had found one of the 
people that worked for you had done that, had edited a tape or altered 
a tape without your permission or without permission from somebody 
higher up?
    Answer. Well, that has never happened. But the action that I would 
have taken, obviously, I would have reported that through my chain of 
command, who is Colonel Simmons, who in turn would have, I'm sure, 
informed his boss in the operational chain of command, the directorate 
of the White House Military Office, and I'm also sure that we would 
have taken proper disciplinary actions to that individual that did such 
a thing, because, clearly, that is out of our charter and not part of 
our mission.
    Question. It is not standard operating procedure?
    Answer. It is not.
    Question. I believe you also said that after 60 days tapes are 
turned over to the National Archives; is that correct?
    Answer. That is correct.
    Question. And was that the practice before January 20th, 1993, 
before President Clinton took office?
    Answer. I believe that has been the normal practice. I really don't 
know. Quite honestly, I have been recently asked that question about, 
how long do we keep tapes, and was informed about 2 months' worth is 
what we keep on hand.
    Question. Do you have any understanding or any knowledge as to what 
the National Archives does with the tapes after a President leaves 
office and after a Presidential library is created?
    Answer. Not direct knowledge. But my understanding of that is that 
they are turned over to the Presidential library, or if that President 
wants, that library is put in place.
    Question. Is it your understanding they actually physically turn 
over the tapes, or do they make a copy for themselves and turn over a 
copy? Or do you have any understanding of that at all?
    Answer. No, I do not.
    Question. One thing you just alluded to, I asked you about the 
procedure before January 20th, 1993. Do you have any knowledge as to 
how the process for filming or recording events has changed from 
President Bush to President Clinton?
    Answer. My understanding is that it hasn't changed at all. I do 
believe we have been filming or videotaping Presidents for about 40 
years. Actually, the White House Communications Agency has picked that 
mission up in '94. Prior to that, it belonged to the Navy Imaging 
Command, who was under operational control of the White House Military 
Office.
    But I believe the practices and procedures have been the same for a 
very long time.
    Question. And when you say the practices and procedures, do you 
also mean the practices and procedures for the retaining of videotapes 
or audiotapes?
    Answer. That is correct.
    Question. How far back does your office keep logs of tapes?
    Answer. I believe we have a video database or archive system that 
has information all the way back to '89. I have not personally seen it, 
but I do believe that is how far back it goes. And the audio data base 
goes back to '93. They are two independent systems.
    Question. So for the videotape log, is that something that you or 
someone in your office could easily search?
    Answer. It could be searched, yes.
    Question. Going back to 1989?
    Answer. That is my understanding.
    Mr. Lu. I have no further questions.
    Ms. Comstock. I just have a few more questions.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Is there any editing equipment in your offices, that you 
know of?
    Answer. We do have an editing capability. And when I say we don't 
do any editing, that was in response, in reference to Presidential 
tapes, video and audiotapes.
    But we do do, like, for instance, what we call a news summary tape. 
If a lot of the different networks may have captured different--have an 
event or a segment on the President, our individuals in the master 
control facility will make a tape, a composite tape of those various 
news summaries. Instead of showing 30-minute segments from NBC, CBS, 
CNN, they will go through and edit that to just capture what is 
pertinent or relative to the President, put it on a composite tape, and 
make that available, if it's requested.
    Question. And one other thing I wanted to ask about was 
communications from Air Force One or Air Force Two. Your office handles 
those communications; is that correct?
    Answer. The communications infrastructure systems on Air Force One 
really belongs to the 89th Air Wing, not to the White House 
Communications Agency. However, there are some of the systems on board 
that aircraft that come into the White House Communications Agency's 
network or systems to be processed. They can also go independent.
    But if--for the ones that come through our agency, if it is for the 
President, they would handle it just like they do the calls if they 
were in the White House or out on a trip site in California or anywhere 
else.
    Question. Has anyone ever asked your office, for purposes of 
document responses or any directives you have gotten from the Counsel's 
Office, to check on any communications records from Air Force One?
    Answer. When I mentioned earlier I was working with Lisa Brown from 
the VP Counsel's Office for records and Cheryl Mills had directed me to 
her, we provided that information or that feedback. I send a log, a 
signal activities report, that is a composite. It doesn't make any 
difference if it is in the plane. That same information would be 
gathered in that same log. There isn't an independent log WHCA keeps 
for calls processed off the airplane.
    Recently I was asked about logs specifically that were made on the 
airplane, and basically I told them they needed to go to the 89th to 
get that. I believe that was the grand jury. And also I believe when I 
was deposed by the Senate they also asked that question. I'm pretty 
sure they did.
    Question. I don't have another copy of this. This is an April 18, 
1997, letter that we had sent to the White House where, in request 
number 43, we had asked for a check of certain phone calls from Air 
Force One to the following numbers.
    There is a list of numbers between October 22nd and November 5th, 
1996, and actually, in particular, if this helps to put it in context, 
these were phone numbers in connection with calls that had been made to 
Warren Meddoff, who had had some discussions with Harold Ickes while he 
was on Air Force One.
    Do you know if anyone in your office has ever been asked about any 
type of phone calls or messages in connection with any matters related 
to Mr. Meddoff or Air Force One records?
    I am trying to make it broad, so in case there's something----
    Answer. I don't recall this specific request, but I was just 
talking about, if a request of this nature came in, I really would 
think the White House Military Office would have sent that to the 89th 
Air Wing, not to the White House Communications Agency.
    Question. So that might bypass you and go directly from the 
military office to the 89th Air Wing?
    Answer. That is a possibility, because on Air Force One there is an 
operator on board, and that's probably where it would go. There is a 
possibility that the call was placed from Air Force One through the 
White House Communications Agency, and at that time we may have had 
some information pertinent to that. But I don't recall anybody asking 
that specifically.
    Question. So if someone were to do a thorough check of records 
then, your office would be a possible source of information to find out 
if calls actually had been made through WHCA?
    Answer. But we would only have information for the last 60 days.
    Question. Okay. So any records for phone calls back in 1996 would 
not be available?
    Answer. No.
    Lieutenant Colonel Sparks. I think he has already testified, too, 
that it would only be the President's calls.
    The Witness. That's correct.
    Lieutenant Colonel Sparks. He would not have staff members.
    The Witness. The Presidential log that we keep would only be for 
the President. Other calls, individuals that would generate a call, 
originate a call from Air Force One, we would not put it on our 
Presidential log.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know if the 89th Air Wing's records are kept in 
any different way, if they would still be available?
    Answer. I'm not certain, but I think they destroy theirs 
immediately after the flight. The reason we keep them are, really, if 
there are call problems, network problems, as a management tool.
    In their case, once that mission or flight is over with, it's over. 
They are not going to process a pending call, because it is no longer a 
part of that platform. If it is infrastructure related or a network 
problem, if it is not isolated to the aircraft, there is really no 
reason for them to keep historical documentation. So I would assume 
that they don't. That is an assumption.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And to your knowledge, are any of those calls or anything 
like that ever taped or recorded in any way?
    Answer. No.
    Question. Okay. And do you know of any other types of logs or 
records that were kept of those type of calls from Air Force One?
    Answer. No.
    Question. Okay. Are you aware of any other type of video or audio 
records that have not been brought to light in these past few weeks 
that----
    Mr. Lu. Be careful what you say right now.
    The Witness. Not that I'm aware of.

                      EXAMINATION BY MS. COMSTOCK:

    Question. This was in a press briefing sometime in 1993, Dee Dee 
Myers had indicated the President did some type of dictating of notes. 
Do you have any knowledge of anything ever being processed through your 
office as Presidential dictation or anything like that?
    Answer. No.
    Question. Have you ever heard of any type of, you know, Dictaphone 
or sort of audio records that the President himself is keeping of any 
events?
    Answer. No. There might have been a request to borrow a cassette 
recorder or something, but I have no knowledge of any records that are 
kept or anything like that.
    Question. When people request any equipment from your office, is 
there a log kept of that, like of who requests some type of recording 
equipment or to have some type of, you know, custody of some type of 
equipment?
    Answer. No, because there are very few individuals that we would 
give our equipment to, actually loan our equipment to, and there aren't 
any records that I am aware of.
    Question. And you have no knowledge of the President asking for any 
type of recording equipment from your office?
    Answer. To be quite honest, I don't even recall that ever even 
happening, but the possibility of it happening is there. I just know if 
the President was to ask, he would get it, but I don't ever know of him 
asking.
    Ms. Comstock. If I can take a minute and go off the record.
    [Off the record.]
    Ms. Comstock. Okay. I believe that is all I have. I would like to 
thank you very much, Mr. Smith. I know you have had a rough couple of 
weeks.
    Mr. Lu. I'm sorry.
    Ms. Comstock. Let me just finish this.
    I know you had a rough couple weeks and I appreciate you coming in 
here and very candidly and forthright telling us what went on, and I 
appreciate your recollection of events. I think the record will reflect 
it is a clear recollection of events, which is something which is 
welcomed and sometimes we don't always get, so I want to just thank you 
and we appreciate your time and effort.
    Mr. Lu. I won't keep you here too much longer. Just one more 
question.

                         EXAMINATION BY MR. LU:

    Question. In response to a question from Ms. Comstock, I believe 
you said that your office does have editing equipment, and you can do 
composite tapes. My understanding is the tapes that have been turned 
over to this committee and to the Senate have been composite tapes, you 
know, fragments pulled from a wide variety of tapes. Did your office 
create those composite tapes?
    Answer. They did.
    Question. They created all the composite tapes turned over to these 
committees?
    Answer. I have no knowledge of anybody else doing it but we didn't 
do the editing of the originals. Actually what they did is took the 
Betamax original tape, uploaded it to an avid computer system, and----
    Lieutenant Colonel Sparks. A-V-I-D.
    The Witness. The acronym, okay. A-V-I-D, it is a corporation. And 
then they downloaded to a VHS tape and they have done that for the 
purpose of this request of the White House Counsel's Office.

                         EXAMINATION BY MR. LU:

    Question. So what is on the tapes that were turned over to this 
committee and to the Senate were what your office found when it was 
doing searches over all the tapes?
    Answer. It is what we were directed to put on the tapes from the 
White House Counsel's Office to provide, but it is, you know, from the 
actual Betamax tape.
    Question. With no other alteration for editing, doctoring or 
anything like that?
    Answer. That is correct.
    Ms. Comstock. And I would like to clarify the record in case there 
are any future problems with tapes or things that didn't show up. 
Everything that you were asked to put on tapes by the Counsel's Office 
were put on tapes; is that correct.
    The Witness. That is correct.
    MS. Comstock. So if something is not on there, it is because you 
were not asked to put it on there; is that correct?
    The Witness. That is correct.
    Mr. Lu. That is all I have. I want to thank you as well and echo 
the comments of Majority counsel. I know this has not been a fun 
experience for you but we do appreciate your time and your effort for 
coming in here today.
    The Witness. Thank you.
    [Whereupon, at 7:10 p.m., the deposition was adjourned.]

    [The deposition exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.461
    
    [GRAPHIC] [TIFF OMITTED] T5405.462
    
    [GRAPHIC] [TIFF OMITTED] T5405.463
    
    [GRAPHIC] [TIFF OMITTED] T5405.464
    
    [GRAPHIC] [TIFF OMITTED] T5405.465
    
    [GRAPHIC] [TIFF OMITTED] T5405.466
    
    [GRAPHIC] [TIFF OMITTED] T5405.467
    
    [GRAPHIC] [TIFF OMITTED] T5405.468
    
    [GRAPHIC] [TIFF OMITTED] T5405.469
    
    [GRAPHIC] [TIFF OMITTED] T5405.470
    
    [GRAPHIC] [TIFF OMITTED] T5405.471
    
    [GRAPHIC] [TIFF OMITTED] T5405.472
    
    [GRAPHIC] [TIFF OMITTED] T5405.473
    
    [GRAPHIC] [TIFF OMITTED] T5405.474
    
    [GRAPHIC] [TIFF OMITTED] T5405.475
    
    [GRAPHIC] [TIFF OMITTED] T5405.476
    
    [GRAPHIC] [TIFF OMITTED] T5405.477
    
    [GRAPHIC] [TIFF OMITTED] T5405.478
    
    [GRAPHIC] [TIFF OMITTED] T5405.479
    
    [GRAPHIC] [TIFF OMITTED] T5405.480
    
    [GRAPHIC] [TIFF OMITTED] T5405.481
    
    [GRAPHIC] [TIFF OMITTED] T5405.482
    
    [GRAPHIC] [TIFF OMITTED] T5405.483
    
    [The deposition of Colonel Joseph Simmons follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                 DEPOSITION OF: COLONEL JOSEPH SIMMONS
                                 Saturday, October 18, 1997

    The deposition in the above matter was held in Room 2303, Rayburn 
House Office Building, commencing at 10:08 a.m.

Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
James C. Wilson, Senior Investigative Counsel; Miki White, 
Investigative Counsel; Butch Hodgson, Investigative Counsel; David 
Bossie, Oversight Coordinator; Barbara Comstock, Chief Investigative 
Counsel; Andrew McLauhlin, Minority Counsel; and Kristi Remington, 
Investigative Counsel.

For MR. SIMMONS:
    LT. COL. JOHN SPARKS, ESQ.
    Deputy Legal Advisor
    National Security Council
    Washington, D.C.

    Mr. Wilson. Good morning, Colonel Simmons. On behalf of the members 
of the Committee on Government Reform and Oversight, I thank you and 
appreciate you being here today. This proceeding is known as a 
deposition. The persons transcribing the proceedings are House 
reporters and notary publics, and I will now request that the reporter 
place you under oath, please.

     THEREUPON, COLONEL JOSEPH SIMMONS, a witness, was called for 
  examination by Counsel, and after having been first duly sworn, was 
                   examined and testified as follows:

    Mr. Wilson. For the record, I would like to note those present at 
the beginning of this deposition. My name is Jim Wilson. I am a Senior 
Majority Counsel for the committee. I am accompanied today by Miki 
White and Butch Hodgson. Appearing on behalf of the Minority is Andrew 
McLaughlin. The deponent, Colonel Simmons, is represented by John 
Sparks.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath, your testimony 
here today has the same force and effect as if you were testifying 
before the committee or in a courtroom. If I ask you about 
conversations you have had in the past and you are unable to recall the 
exact words used in that conversation or conversations, you may state 
that you are unable to recall those exact words and then give me the 
gist or substance of any such conversation to the best of your 
recollection.
    If you recall only part of a conversation or only part of an event, 
please give me your best recollection of those conversations or events. 
If I ask you whether you have any information about a particular 
subject and you have overheard other persons conversing with each other 
about that subject or have seen correspondence or documentation about 
that subject, please tell me that you do have such information and 
indicate the source from which you have derived such knowledge.
    Before I begin the questioning, I want to give you some brief 
background about the investigation and your appearance here. Pursuant 
to its authority under House rules X and XI of the House of 
Representatives, the committee has engaged in a wide-ranging review of 
the possible political fund-raising improprieties and possible 
violations of law.
    Pages 2 through 4 of House Report 105-139 summarize the 
investigation as of June 19, 1997, and describe new matters which have 
arisen in the course of the investigation. Pages 4 through 11 of the 
report explain the background of the investigation. All questions 
related either directly or indirectly to these issues are questions 
which have a tendency to make the existence of any pertinent fact more 
or less probable than it would be without the evidence are proper.
    Pursuant to the committee's rules, you are allowed to have an 
attorney present to advise you of your rights. Any objection raised 
during the course of the deposition shall be stated for the record. If 
the witness is instructed not to answer a question or otherwise refuses 
to answer a question, Minority and Majority counsel will confer to 
determine whether the objection is proper. If Majority and Minority 
counsel agree that the question is proper, the witness will be asked to 
answer the question.
    If an objection is not withdrawn, the Chairman or a Member 
designated by the Chairman may decide whether the objection is proper. 
No later than 5 days after your testimony is transcribed and you have 
been notified that your transcript is available, you may submit 
suggested changes to the Chairman. We have generally been able to turn 
the transcripts around fairly quickly and you will be notified, 
presumably at the beginning of the week about the transcript and we 
will make arrangements for a review of the transcript at that time.
    The committee staff may make any typographical or technical changes 
requested by you. Substantive changes must be accompanied by a letter 
requesting the change or changes and a statement of reasons for the 
proposed change. A letter requesting substantive changes or 
modifications or clarifications must be signed by the deponent. Any 
substantive changes shall be included as an appendix to the transcript, 
conditioned upon your signing of the transcript. Do you understand 
everything we have gone over so far?
    The Witness. Yes, I do.
    Mr. Wilson. I will be asking you questions concerning the subject 
matter of our investigation. Do you understand that?
    The Witness. Yes, I do.
    Mr. Wilson. If you don't understand a question, please say so and I 
will either rephrase or repeat the question. Do you understand that you 
should tell me if you don't understand my question?
    The Witness. I do.
    Mr. Wilson. The reporter will be taking down everything we say, and 
will make a written report of the deposition. Therefore, you are asked 
to please give verbal and audible answers. Do you understand that?
    The Witness. Yes, I do.
    Mr. Wilson. If you can't hear me, which I don't think will be a 
problem in this small room, please say so and I will repeat the 
question. Do you understand that?
    The Witness. Yes, I do.
    Mr. Wilson. It is my understanding you are here voluntarily and not 
as a result of a subpoena; is that correct?
    The Witness. I have not seen a subpoena.
    Mr. Wilson. Do you have any questions about the deposition or these 
proceedings before we begin?
    The Witness. No, I do not.
    Mr. Wilson. Now is an appropriate time, if anybody has a statement 
or any type of questions or clarifications, now would be a good time to 
put those on the record.
    Mr. McLaughlin. I will make my usual comment that pursuant to House 
Rule XI(2)(k), objections are as to province of the full committee, not 
merely the Chairman to resolve. Accordingly, any such objections are 
appealed to the full committee. That is my only comment. Thank you.

                       EXAMINATION BY MR. WILSON:

    Question. Colonel Simmons, could you please state your full name 
for the record?
    Answer. My name is Joseph Jacob Simmons, IV.
    Question. What is your current position?
    Answer. I am the Commander of the White House Communications 
Agency.
    Question. And what is your current rank in the Armed Forces?
    Answer. I am a colonel in the United States Army.
    Question. If you could, just provide a very brief professional 
history over the course of the last 10 years.
    Lieutenant Colonel Sparks. It might make more sense to just give a 
brief capsulated history beginning from the end.

                       EXAMINATION BY MR. WILSON:

    Question. Yes, if you could.
    Answer. I went back to 1987 and I drew a blank. Well, I enlisted in 
the Army in October of 1969. I had entered it on delayed entry program, 
which started in September, but everything correlates to the day you 
get paid and that was October, so I went to basic training at Fort 
Leonard Wood, Missouri, and, also, advanced individual training at Fort 
Leonard Wood, Missouri, and this was the height of sort of the Vietnam 
era, and after 8 weeks of basic training and 8 weeks of AIT, I felt 
that there was a little bit more to it than going over Vietnam right 
away, so I decided I would apply for officer candidate school, and I 
was accepted. And I went to the officer candidate program at Fort 
Benning, and when I arrived there, they were deciding to reduce the 
number of officers.
    I guess the Army had been commissioning 19,230 every year, and so 
they offered me an option to revert back to my enlisted rank and be 
assigned anywhere or go to this program. And I highlight this program 
because it was unique. Usually, when you went to officer candidate 
school, it was 24 weeks, and you wouldn't make it, but this one they 
decided that they were going to use us as an experimental group and 
they recruited TAC officers from various locations, and there were 288 
of us and only 88 were commissioned. They washed out 230.
    It was very rigorous physically and academically. I finished in the 
top ten of my class, and I could have been an infantry officer, but I 
was able to select Signal Corp, so I have been in the Signal Corp. And 
after I was commissioned, I was assigned to the Washington area at Fort 
Belvoir. And subsequent to that assignment, I went overseas to Germany.
    I have had a total of 4 years--four tours overseas, in Europe, in 
11 years. I have been a platoon leader, a company commander, operations 
officer, and battalion XO, battalion commander, and brigade commander. 
I have attended commander all staff college and also the senior service 
college, Army War College at Carlisle barracks.
    When I was wasn't in Europe, in the field, I was back here either 
attending school, military school or graduate school. I have a Masters 
Degree in computer science, and I have been assigned on various staffs. 
I have worked in the Defense Communications Agency, which is now the 
Defense Information Systems Agency, DISA, and I have worked at the 
Defense Intelligence Agency as a computer systems analyst, and those 
are basically the tours that I have had here.
    I was selected, nominated for this command by the Army. There were 
five Army officers and three Air Force officers, and we went through an 
interview process, and after that I was selected to command in October 
of 1994.
    Question. What is the current title of your position?
    Answer. The current title is Commander of the White House 
Communications Agency.
    Question. And you just referred to your current command, that is 
the one you went to in October of '94?
    Answer. That is correct.
    Question. Okay. Other than your attorney, who have you discussed 
this deposition with, if anybody?
    Answer. My deposition?
    Question. Yes.
    Answer. Just my attorney.
    Question. Have you had any discussions with Senate or House of 
Representatives staff prior to appearing here today?
    Answer. Yes, I have.
    Question. Who have you had discussions with?
    Answer. I believe it was--they were staffers at Representative--
Senator Thompson's committee, Senate Governmental Affairs Committee.
    Lieutenant Colonel Sparks. To make it clear, discussions or 
previous depositions?

                       EXAMINATION BY MR. WILSON:

    Question. I was about to ask. Have you been deposed by the Senate 
committee?
    Answer. I was deposed at that time.
    Question. If you could, I don't want to sort of dissect this with 
too fine a scalpel right now, but if you could please just give me a 
brief overview of--and I will refer to White House Communications by 
its acronym, WHCA, if you could provide a brief overview of the size 
and duties of WHCA.
    Answer. Okay. The White House Communications Agency is a joint 
agency. All five services are represented. When I say that, including 
the Coast Guard. It consists right now of 853 people. Our mission is to 
provide telecommunications support, and we further define information 
systems, services technology, which is very comprehensive, to the 
President, Vice President, National Security Council, Senior White 
House staff and the Secret Service, and others, as deemed related by 
the White House Military Office.
    Question. How many individuals work in the Audio Visual Unit?
    Answer. I don't know the exact number. I couldn't tell you right 
now. I would say roughly 80 some personnel.
    Question. And where is the location, or locations, of Audio Visual 
Unit or functions?
    Answer. They have a location in the Old Executive Office Building, 
Room 85, and, also, at my headquarters, which is Anacostia Naval 
Station, Building 399.
    Question. Where is your office located?
    Answer. I have two offices, one in the Old Executive Office 
Building, Room 592, and then my main office, I will say, is over in 
Building 399 at the headquarters.
    Question. Who works on a regular basis at the office, your office 
in the Old Executive Office Building?
    Answer. Mr. Steve Smith does. He is Chief of Operations.
    Question. Is Mr. Smith a civilian?
    Answer. Yes, he is a GS-15.
    Question. Do the two of you share a single office?
    Answer. No. In 592, I have an office that is there, that is 
reserved for me. I have meetings that I have to attend and it gives me 
a place to hold those meetings when I come to what we call the 18-acre 
complex. I never really counted it or measured it and I don't know if 
it is 18 acres, but that is what it is known by.
    Question. Where is Mr. Smith located?
    Answer. Mr. Smith's office is in the same room area, but he has a 
separate office.
    Question. Do any other individuals use that office on a regular 
basis?
    Answer. Right now, yes, I have what we call a Director of the 
Customer Support, Lieutenant Colonel Tom Carr, C-A-R-R.
    Question. And what is his function?
    Answer. He is in charge of our customer service director. In other 
words, he is the one that monitors customer service support and obtains 
feedback for us about how we are doing our job. It is a brand new 
director.
    Question. How long has he been in that position?
    Answer. As of August of this year.
    Question. As of August of 1997?
    Answer. 1997.
    Question. Was there anybody fulfilling the function that Mr. Carr 
now fills or a similar function prior to his coming on in August of 
'97?
    Answer. Yes, I had an office downstairs on the fourth floor of the 
Old Executive Office Building that is a customer service area and we 
decided to formalize it and make it a directorate, because we believed 
it was key to us improving the service that we provide.
    Question. And if you could just give me a little bit of background 
on what you mean when you say customer service, please?
    Answer. Well, we provide information technology services to the 
people that I delineated before, so we are in the service business, and 
so we have tried to adopt some of a business approach and apply it to a 
military hierarchy. We are still predominately a military organization. 
I have six civilians assigned in my organization of those 853. But we 
have initiated this redesign effort in order to improve our service, 
and we felt that one of the things that was missing was how we were 
doing, and we needed to gain feedback from the people that we provide 
services to, and it is just a matter of trying to improve our 
efficiency and processes, which I think, and believe, are very 
important, especially with the way, as dynamic as technology is today.
    Question. You mentioned that there are six civilians assigned?
    Answer. Yes.
    Question. Who are the six civilians?
    Answer. All right. Mr. Steve Smith is one of them. He is a GS-15. 
Mrs. Carla Hawkins, she is the head of the Resource and Management 
Directorate. She is a GS-15. Doctor--I will just put J as his initial, 
Suarez, S-U-A-R-E-Z. He is head of our Quality Management Directorate. 
He is a GS-14. Mr. Julian J-U-L-I-A-N, Gitlin, G-I-T-L-I-N. He is a GS-
14. He is an electrical engineer. Mr. Dave Ruble, R-U-B-L-E, he is a 
GS-13, and I have got one more. And Mr. Alan Hynes, H-Y-N-E-S, he is a 
GS-15.
    Question. And where are those individuals located? You don't need 
to be specific in terms of office, but just, you know, in the White 
House complex or somewhere else?
    Answer. Okay. Mr. Smith has two offices, just like myself; one in 
the Old Executive Office Building and also one in Building 399. Miss 
Hawkins is in Building 399 at the Naval Station--Anacostia Naval 
Station, and Mr. Ruble, Mr. Gitlin, and Mr. Hynes, and Suarez are also 
there. They are located in Building 399.
    Question. Who supervises the civilian employees?
    Answer. My deputy commander will supervise some. I have a chart 
with me, which I can show you, which would probably be a little bit 
better.
    Question. Actually, that might be very helpful and cut through my 
questions. Do you by any chance have a separate copy for Minority 
counsel?
    Answer. I certainly do.
    Question. Thank you very much. If I may have this, I will mark this 
as an exhibit and we will put it in the record. The chart is marked as 
JS-1.
    [Simmons Deposition Exhibit No. JS-1 was marked for 
identification.]

    [Note.--All exhibits referred to may be found at end of 
deposition on p. 984.]

    The Witness. As I stated, you see that Mr. Smith is in our 
Executive Office. He is the Chief of Operations. Okay. Miss Hawkins, 
she is the Resource and Management Directorate. My Deputy/Chief of 
Staff is Colonel Campbell. Under the old organization, he was a deputy 
commander and I still think he should be because when I travel--when 
the President travels, one of the two of us always has to be with him 
so we sort of have a co-relationship. But in this new organization, we 
defined it as also a Chief of Staff so it is a Deputy/Chief of Staff.
    Mr. McLaughlin. That is the same person as Chief of Staff, that is 
also the Deputy box.
    The Witness. Yes, and that is Colonel Ken Campbell. He is in the 
United States Air Force. He is a full colonel. As you can see, the line 
that goes alongside here, these are my input directorates and these are 
all the skills and services that I provide. I have also on the other 
side my output directorates, as far as the taskings and requirements 
that I receive and then you will see my customer service report that 
provides me feedback.
    The input directorates--so Colonel Campbell would supervise Ms. 
Hawkins, who is head of the Resource Management Directorate and he 
would also supervise the Program Management Director, which is Mr. Alan 
Hynes. The remaining people are all military in the organization.

                       EXAMINATION BY MR. WILSON:

    Question. In terms of the civilian employees, who was responsible 
for hiring them?
    Answer. I am responsible for hiring them. I have to go thorough--in 
conjunction with DISA, see, as far as personnel and management and 
manpower, I have to do that and that is the Defense Information Systems 
Agency. They give me the authorization, but I go through the 
competition phase and so forth and the interviews and then I decide. I 
have a panel convene and they make recommendations to me, I will say 
that, and then I am the one that has the final call.
    Question. With respect to Mr. Steven Smith, how was he hired?
    Answer. He had to compete for the job. He had worked in the agency 
roughly 8 years. He was a Chief Warrant Officer, United States Army, 
had a breadth of experience, worked mainly in operations in the 
Operations Directorate, with the agency, so he was--he competed and we 
had to submit it through DISA and the competition and his name came 
back when he decided to retire, and he was selected.
    Question. Would you characterize WHCA as an entirely apolitical 
organization?
    Answer. Absolutely.
    Question. Were any of the individuals now employed by WHCA--would 
you characterize any of them as political appointees?
    Answer. None of the WHCA people were political appointees.
    Question. Okay. As part of the hiring process, is the political 
affiliation of any of the individuals--the civilian individuals hired, 
was that ever determined?
    Answer. We asked the question, and I will say that of the military, 
when we assessed people and interviewed them for a position in our 
organization, and we asked them--it is very important to us because 
regardless of who is in administration, we feel that we have to do our 
job, and so that is a question that we asked the military. I have not 
sat on the board, you know. I usually get the recommendation. I have 
not sat on a board that has convened and when we hired a civilian and 
know if that is one of the questions that was asked.
    Question. When you came to your current position in August of 
1994----
    Answer. It was October.
    Question. October, I apologize.
    Question. Did you interview with any nonmilitary personnel?
    Answer. Yes.
    Question. And who was involved in the process, the nonmilitary 
personnel?
    Answer. It was the Director of the White House Military Office.
    Question. And who is that?
    Answer. At that time, it was Mr. Al Maldon, M-A-L-D-O-N.
    Question. And was he the only nonmilitary individual involved in 
the process of bringing you to the position you now hold in October of 
1994?
    Answer. Yes, sir.
    Question. Did you receive any recommendations for your position, 
for the current position?
    Answer. I received recommendations from military members, I also 
know that I received recommendations from one--one recommendation I 
know outside was a Mr. Leroy Borden, who heads the White House 
Transportation Agency.
    Question. Is Mr. Borden military personnel?
    Answer. He is a retired military. He is a civilian right now.
    Question. I just wanted to go into a little bit more of the sort of 
logistical aspects where you are located and where the offices are. You 
already told me where your offices are.
    Question. Does Mr. Alan Sullivan have an office in the Old 
Executive Office Building?
    Answer. No, sir.
    Question. What is Mr. Sullivan's title or position currently?
    Answer. He is the Director of the White House Military Office, and 
I sort of confused the terms because I know he is not an assistant to 
the President, but I believe he is Deputy Assistant to the President, 
and Director of the White House Military Office is his full title.
    Question. And how would you characterize his relationship with 
WHCA?
    Answer. He provides operational oversight of my agency.
    Question. I'm just trying to get a sense of the chain of command.
    Answer. Sure.
    Question. You have provided for us Exhibit JS-1, which gives us a 
very, I think, clear indication of where everybody fits into the WHCA 
picture. If you could, just give us a brief overview of the overall 
chain of command of people that have relationships with WHCA that are 
outside of the chart that you have provided for us this morning.
    Answer. Right. Okay. I have what you call a dual chain of command. 
I have an operational chain of command and the head of that is Mr. Alan 
Sullivan. He provides operational oversight, and through that chain of 
command, is where I receive my taskings.
    Now, not every tasking comes through his office, and that is why we 
use the term ``oversight''. Mr. Sullivan and I converse numerous times 
over the course of the day, so I am in almost daily contact with him. 
My missions are generated from the Travel and Scheduling Office and 
they interface with my organization, and there are functions--missions 
that will evolve that Mr. Sullivan will be aware of because I am just 
one part of a huge organization of the White House Military Office. 
That is the operational side.
    The administrative oversight is a Department of Defense chain, and 
the first one in that chain is the Director of the Defense Systems 
Agency and that is Lieutenant General Dave Kelley, K-E-L-L-E-Y and then 
he reports to Assistant Secretary of Defense for Command Control 
Communications and Intelligence.
    Question. Just focusing for a moment on the operational side of the 
organization, to whom does Mr. Sullivan report?
    Answer. He reports to the Director of Management and 
Administration.
    Question. And----
    Answer. Who is an assistant to the President.
    Question. Who is that individual?
    Answer. Right now it is Ms. Virginia Apuzzo, A-P-U-Z-Z-O.
    Question. And has she been in that position for the past year?
    Answer. No, sir.
    Question. Who was in the position before her?
    Answer. Ms. Jodie Torkelson, T-O-R-K-E-L-S-O-N.
    Question. When did Ms. Torkelson leave that position?
    Answer. She left August--I guess it would be 30 July, 31 July, of 
1997.
    Question. Okay. Now, you mentioned that you have many, many 
conversations with Mr. Sullivan. Who else works with Mr. Sullivan that 
you have regular contact with?
    Answer. His Chief of Staff, which now is a Colonel Tim Milbrath, M-
I-L-B-R-A-T-H, and I also work with a lieutenant colonel of the Marine 
Corp, Greg Raths, R-A-T-H-S, and I also interface with a Ms. Danny, D-
A-N-N-Y, Donnelly, D-O-N-N-E-L-L-Y. That is Mr. Sullivan's executive 
assistant or secretary.
    Question. Just going back for a moment to Mr. Smith, who is Chief 
of Operations, why was that position created?
    Answer. The position has always existed--it was created because we 
believed that in order for us to redesign or transform ourselves from 
an organization that would be ready for the changes in the 21st Century 
that he should be the Chief of Operations and have oversight of what we 
call the output directorates, and the lines of communication were not 
clearly defined under the old organization, and there was not what I 
thought was sufficient dialogue among the units, and, now with the 
dynamic change that technology is undergoing, and especially in the 
field of information systems, all systems are integrated and we decided 
that this has been the result of a 2-year project, and decided that 
this organization would be the one that would best suit us, and that we 
could also adapt it to the military hierarchy.
    So he is in charge of outputs, and then my Chief of Staff or Deputy 
is in charge of inputs, and it is sort of a cleaner situation. We had 
about 16 entities once before and we condensed them, so we are trying 
to become more efficient.
    Mr. Wilson. Just to change the subject entirely. Just so you know, 
Ms. Barbara Comstock has just entered the room, she is with the 
Majority staff, for the record.

                       EXAMINATION BY MR. WILSON:

    Question. Who else do you meet with or speak with within the White 
House in order to perform your job?
    Answer. I don't really understand that question.
    Question. It is a pretty broad question.
    Answer. I speak to everybody I see.
    Question. You mentioned a number of people. I mean, if you can 
characterize on a regular basis people that you interact with within 
the White House complex in order to perform your job, and I am leaving 
aside a one-shot phone call to ask somebody a question, but are there 
other individuals that you have a regular professional relationship 
with within the White House complex?
    Answer. As the commander, I occasionally talk to other members of 
the staff. I would talk to the director or management administration, 
as needed. I will also talk to the head of the Office of 
Administration, who is Mr. Mike Malone, as needed, but my main 
interface with the White House is through Mr. Sullivan. Now, I don't 
want to give you the impression that I don't know other people, but as 
far as really discussing anything that relates to my mission, those are 
the people that I talk to, but mainly it is Mr. Sullivan and his staff.
    Question. Who from among the White House staff actually provides 
tasking or directives to WHCA?
    Answer. The Scheduling in Advance Office. That is where the 
taskings and directorates come and they come to, even under the old 
organization, the travel support director, which is headed by 
Lieutanant Colonel Nate Smith. The taskings are involved from there, 
you know, the President has a schedule and so forth.
    Now, there are also routine taskings that occur that are a little 
bit different. Now taskings, as far as missions have pertained, have 
taken us out of town, and keeping us--and then tasks that relate to 
just things that happen on the 18-acre complex and then taskings that 
relate to in-town missions, all have a little different spin.
    Question. In the White House scheduling staff, is there an 
individual that is designated as the liaison with WHCA?
    Answer. In the scheduling.
    Question. Yes, and I am just trying to get at who is most often or 
usually is----
    Answer. Dan Rosenthal.
    Question. Okay. And are there other individuals on the White House 
staff that are sort of designated as the people that deal with WHCA?
    Answer. I guess I don't really understand the question.
    Question. Just as with the individual you just identified, are 
there other individuals in other offices who have, as their primary 
function--or as one of their functions, the relationship in dealing 
with WHCA?
    Answer. There is an element of the national security element that 
we deal with, right now it is Captain Kevin Kosgriff. I have an element 
that resides in the National Security Council's Situation Room, an 
eight-person element there, and they interface with the National 
Security Council. I have an Audio Visual Unit, what we call Event 
Productions, that interfaces with various members of the staff. It 
could be the White House Press Office. It could be the President's 
Aide, Steven Goodin. It could be head of Social, Sara Farnsworth. That 
is how a lot of the taskings for the audio visual, as it relates to an 
event that occurs on the White House complex, come in.
    Question. Sort of breaking that down, and sort of looking at two 
separate elements there. With Mr. Goodin, Steven Goodin, what is his 
relationship with WHCA?
    Answer. Well, he knows my camera crew. That is how he interfaces 
with them, and when we travel, I interface with him regularly, because 
there are certain things that he will bring to my attention that need 
to be done or that he would like, et cetera, telephone calls, and maybe 
the President will want to speak to a group of people, conference a 
call or he has a list of calls he wants to be made, special requests.
    Question. And I will get into this a little bit later, but does Mr. 
Goodin exercise supervisory authority over camera crews?
    Answer. I don't understand, when you say supervisory.
    Question. Can he make them start or stop or leave a room?
    Answer. Yes.
    Question. Is he the only individual that exercises that type of 
authority or are there other people on the White House staff?
    Answer. I am told that there are others.
    Question. Do you know who those are?
    Answer. I have been told by my camera crew that Sara Farnsworth 
will.
    Question. I probably will return to this later, but while we are 
going down this direction, in terms of a camera crew that is going to--
that had been tasked to record footage of a certain event, what type of 
written or verbal tasking do such camera crews usually get?
    Answer. There is a planning document, I understand, that I have 
seen, that is generated from the Social Director's Office, and Sara 
Farnsworth, and usually it lists an event, the time, and there is a 
portion of it that relates to WHCA, whether a podium is required, 
camera crew.
    Question. And just so that we all can get a sense of how this 
works, if a crew is requested to record a certain event or certain 
events, and they have a written tasking of some sort, how fluid or how 
concrete is it for them to actually record what their tasking is? What 
I am trying to get at is it seems like there is an override here and 
just from an employment perspective, if you were a videographer and you 
were trying to make a recording of something, you have been asked to do 
that, you wouldn't want naturally to respond to 50 different people 
telling you to do your job in a different way. I mean, how would you 
characterize the relationship between the camera people and White House 
staff, if you can do that?
    Answer. That would be very difficult to characterize because I am 
not a member of the camera crew. I can only tell you what I have 
observed on trips, and I know that Steve Goodin will say I need you to 
do this and he will talk to the camera crew. If I am there, he will say 
something to me, but the relationship is such that things are so fluid 
and he knows that I am concerned about other things on a trip, that he 
will direct the camera crew to come in and film an event.
    Question. How are the camera crews organized? Are there certain 
sort of crew leaders, who are in charge of groups?
    Answer. Yes. Well, there is one person that is in charge of the 
camera crew and that is Chief Petty Officer McGrath.
    Question. Have you ever received any complaints from any of the--
Chief Petty Officer McGrath or any other camera crew operators 
regarding overriding of what they regard as their mission?
    Answer. Well, to answer your question, no, they have never 
complained. They enjoy, and I will say that, it is a very tough job. It 
is demanding because it's so fluid. The mission that they have is that 
the camera crew sees the President as the Commander in Chief, and Head 
of State and Chief executive, and so President Clinton is always 
President Clinton. So any time that he speaks, if the event is an open 
event, they are there to record it, there are other people there to 
record it, and when I say open press event, they usually align 
themselves with the press. You will see them mixed in with our press 
and they will perform their mission. And when he is speaking, they will 
tape, videotape his portion and maybe a few pieces of others, but 
primarily focusing on the President.
    Most of the tapes will probably be focused on the President because 
they are supposed to record his activities and eventually these 
activities are archived. Then there are other events, closed events, of 
which the press is not allowed, I will say, and they will be directed 
by Mr. Steven Goodin or Sara Farnsworth to come in and record those 
events.
    Question. And in terms of the closed event, have you ever received 
any feedback from any of the camera crew leaders or operators or any 
complaints about not being able to record more than they have been 
recording?
    Answer. No.
    Question. Just very briefly, you mentioned that there is a 
relationship with the National Security Council. If you could provide 
an overview of the relationship between WHCA and the National Security 
Council?
    Answer. Well, we have an element that works in the Situation Room 
that is responsible for the communications for the National Security 
Council, ensuring that it can speak to other agencies as required. 
There are certain elements of that, that if I talk about it any 
further, we would get into classified.
    Question. And I certainly don't want to get into that.
    Answer. Mainly their function is they interface with the National 
Security Council, when the President travels overseas. I have an office 
that is set up for the National Security Advisor, Mr. Berger, and so 
forth so he can conduct his business. When we are traveling inside the 
continental area, a lot of the message traffic from the White House 
will come from the Situation Room, which is in the National Security 
Council and it usually relates to foreign policy and various other 
issues.
    Question. Does National Security Council staff ever interact with 
WHCA staff relating to just the everyday filming of open and closed 
events involving the President?
    Answer. They are not involved in that portion at all.
    Question. Have they ever reviewed any of the material that--and I 
am trying to segregate material that is prepared just for NSC purposes 
from other material. Has NSC ever reviewed material that has been 
prepared by WHCA?
    Answer. Before any of the--I guess if I can have a little more 
clarification. We deal with message traffic that is given to us from 
the Council, so we ensure that it gets to the right person.
    Question. Right, and that I want to stay far away from.
    Mr. McLaughlin. Do you mean the Audio Visual Unit specifically?
    Mr. Wilson. No, I don't. I am trying to be a little bit clearer on 
that.

                       EXAMINATION BY MR. WILSON:

    Question. Have you ever had a situation where NSC personnel have 
come to you and said we want to come back and review tapes or materials 
that involve the President being filmed in either open or closed 
setting?
    Answer. No.
    Question. And, again, your answer is inclusive and includes all of 
this, just to try to finish this line entirely. With the recent 
controversy over the coffee tapes, was there any NSC involvement to go 
back and review any of the materials that ultimately have been turned 
over to the media and congressional committees and the Department of 
Justice investigators?
    Answer. I will tell you that no one contacted me about that. And I 
am fairly confident that that did not occur.
    Question. If you could, please just provide an overview of the 
types of records that WHCA keeps track of?
    Answer. Well, we have information, services records that are mainly 
databases. Okay, we have message tracking in our Comm. Center, we have 
telephone logs that are made by our switching element, we have 
databases for audio tapes, databases for videotapes, and we have 
databases for--I guess when I said information systems, it would be any 
servers or mainframes that are available that reside in the White House 
complex.
    Question. Now just working through these, the last one is the one I 
understand the least and it is because of technological incompetence 
more than anything else. You mentioned servers or mainframes. Do the 
White House computer systems have some type of interface with WHCA?
    Answer. The National Security Council does.
    Question. Is it exclusively the National Security Council?
    Answer. That is correct. And I do interface with the White House 
network, information systems network, they call it Oasis. I do have a 
link there, but I don't have anything to do with their piece. I just 
interface with it. And that allows people that work in the Old 
Executive Office Building, like Ms. Apuzzo, to send me a message, an e-
mail message if she should desire.
    Question. Is it fair to say that is just your linkage to the White 
House computer system?
    Answer. That is correct.
    Question. I am trying to determine more about the records.
    Answer. Well, records that I keep?
    Question. Or that WHCA keeps, not you?
    Answer. Well, the records would reside in those information 
services. The mainframe of a computer. I also have my own mainframe, a 
CPU, central processing unit, but now as technology improves, you are 
moving to more of a distributed architecture and that is where you get 
into the server world. Mainframes are on their way out, you know. They 
are big, large machines and so forth, and servers are smaller and more 
robust and can do a lot more things, as far as information systems 
technology is concerned. So they are servers instead of--in the old 
days, I would have had a number of mainframe computers in order to set 
up a local area network.
    Now, I can set them up with a server and each one of those servers 
reside in this network and each one of those servers has a database, so 
that any e-mail traffic or traffic that is sent over it, I can capture 
it. And, you know, it's a matter of record.
    Question. And what about, for example, e-mail traffic within the 
White House. If somebody in the White House sent a message to the OEOB, 
is that the type of information that WHCA would ultimately keep in 
their record?
    Answer. No, because if someone in the White House sent a message, 
it would reside in the White House information systems side. See, the 
Office of Administration has its own information systems technology 
element, so if someone in the White House, say the President, sent a 
message to the Old Executive Office Building, their system would handle 
it. I have my own system that interfaces with them, but I don't have--
he doesn't have a computer that I put in his office to interface with 
me.
    Question. So is it correct to say, then, that the material that you 
have, and when I say you, I am using you for the global WHCA, is 
limited to the communications between the White House and WHCA, that 
particular service system?
    Answer. Yes, sir.
    Question. Okay. In terms of audio visual records, what type of 
records are kept by WHCA?
    Answer. Well, they have two databases that I know of; the audio 
tape database and the videotape database. They also have a record that 
when they receive a request for their service, they note the time and 
date and the person who requested it and so forth. That is usually a 
paper copy that they just fill out so they can say that we have this 
tasking.
    Question. Now, breaking that down for the audio tape component, 
what types of events, communications, or exchanges are captured in the 
audio tape record keeping?
    Answer. The schedule of events, if you saw the schedule of events 
for the President, it usually has either an open press event or a 
closed event. Audio tapes would be present at all open press events, 
and that is, I would say, when I say all, I can't just say absolutely 
all of them because there might be a few of them that might not have 
been present. But I will say normally the trend is for them to be there 
because when the President speaks, usually we are responsible for the 
public address system, and any time he speaks, it becomes a matter of 
record and so we record his remarks, and that is why audio tapes would 
be there.
    Usually, in a closed event, if he speaks and uses a public address 
system, I also will tape it, but dependent upon the size, if a public 
address system is not needed, then there will be no audio taping of 
that event.
    Question. And so you have characterized their events such as 
speeches and public events?
    Answer. Yes, sir.
    Question. And you have mentioned closed events, and I don't want to 
characterize these things because I certainly don't know what all of 
them are, but what, if you can provide sort of a very brief overview, 
what types of closed events you would record?
    Answer. What type of recording?
    Question. We are just thinking now of the audio.
    Answer. On the audio piece, I believe the best experts are probably 
my technicians that could probably tell you that.
    Question. Do you have any knowledge----
    Answer. The only thing that I can tell you, I know there are events 
that might take place in the Roosevelt Room, a very small crowd, it 
might be a pool spray where they allow the photographers to come in and 
go and shoot their pictures, and then they leave, and the podium is set 
up, and we would record the remarks the President would make and, you 
know, it could be a ceremony or a recognition of an individual. Various 
events like that occur in the East Room.
    There is usually a larger place, a larger audience and most events 
in the East Room are open, and I am sure there probably have been some 
that have been closed, but they are usually open and I think it depends 
upon the size of the crowd and what the press office decides, whether 
they want to make it open or closed. They are the ones that determine 
that.
    Question. So is it the press office that ultimately determines 
whether events will be recorded, at least the audio portion of events 
will be recorded?
    Answer. It is a number of people. I couldn't pin it exclusively on 
the press office. I know that if the tasking and the scheduling comes 
down to us and it says that we want you to provide a podium, a public 
address system, et cetera, then we will record the event, the audio 
portion of it.
    Answer. And who originates that tasking, it just depends. Sara 
Farnsworth, if we are talking about the 18 acres, the White House, that 
would happen. On the road all these events are determined beforehand, 
and we know exactly when we arrive on location that at this particular 
event and the podium is needed, a public address system is needed, 
lights are needed, et cetera.
    Question. I suppose that which brings us here today is the release 
of the coffee videotapes. Do you know whether any of the coffees, 
Presidential coffees, were ever recorded by audio recording methods?
    Answer. No, I do not.
    Question. Who would be the person who would know that?
    Answer. Probably Staff Sergeant VanKareun, would know about that.
    Mr. Ballen. Staff Sergeant VanKareun, V-A-N-K-A-R-E-U-N. Probably 
messing up his name. I don't know the spelling of his name.
    Mr. Wilson. It will be corrected by the time everything is said and 
done so nobody will ever know.
    The Witness. Sorry to do that.
    Mr. Wilson. Unless he is a deposition junkie, he may never read 
this.
    Lieutenant Colonel Sparks. Just so you know, the record should show 
that I think Ms. Comstock has VanKareun name.

                       EXAMINATION BY MR. WILSON:

    Question. What is Staff Sergeant VanKareun's position?
    Answer. He is my NCOIC--and that is noncommissioned officer in 
charge--of the Event Productions Section, the section that interfaces 
and gets taskings that relate to the 18 acres complex that require some 
type of audiovisual support.
    Question. Is the command broken down between audiovisual recording 
and just simply audio recording?
    Answer. Yes, there is a camera crew that resides in the command as 
well as people that--usually the ones--the operators that work public 
address systems do the audio recording, because we have what you call--
maybe you have seen it at rock concerts--a mix board. And they will 
interface with that mix board with a cassette recorder, and they will 
put a cassette tape in, and they will queue it with the mike, and they 
will run tests, and they will record that event. So usually someone 
that is operating the public address system would do the audio 
recording.
    So any time, in laymen terms, a microphone is required from us, it 
usually has to have some type of podium with it, and we also provide 
that, and there will be a mix; it could be a large mix board or a small 
one. In addition to that will be a cassette recorder, and so any time 
the President speaks, they will record.
    Question. Where are the tapes kept of the recordings?
    Answer. They are originally kept in our master control room, and 
then from there they go to the video archives--I mean, National 
Archives, I'm sorry.
    Question. And to the extent you know, how are they kept track of? 
How are they logged into the system?
    Answer. They have a procedure. They have a computer in the master 
control room which they log in all their tapes. There is a preset form 
that they can enter the software that they have. I believe they call it 
staircase--Stairs. Stairs is the software. And it allows them to enter 
the event date and usually to describe the event and so forth, and it 
is categorized in those terms.
    Question. Is the recordkeeping of the audiotapes and the 
audiovisual tapes integrated, or are they separate recordkeeping 
systems?
    Answer. They are separate recordkeeping systems. That is my 
understanding. I know that we can access the audio database, which we 
have done in this type process, and pulled up all the tapes over the 
last 4 years, and so forth.
    Question. We will get into this, hopefully in the not too distant 
future, but we all know now, through either deposition process or the 
media, that there was interest expressed in the audiovisual tapes and 
people did searches to find tapes that now have been released to this 
committee and to the media pertaining to the coffees.
    Do you know whether anybody has ever done a search of either the 
recordkeeping or the tapes themselves, the audiotapes themselves, to 
determine whether materials in those tapes is responsive to either this 
committee's subpoena or Senate subpoenas or Department of Justice 
information requests?
    Answer. Sir, I was present when the members from the White House 
counsel came to master control--that is the area where the audiotaping 
occurs--and requested the databases for 1993, '94, '95, and '96.
    Question. And did they do any searches other than the searches of 
the recordkeeping? Did people actually listen to tapes?
    Answer. Oh yes. Yes. I believe the count is up to 126 audiotapes 
that we have provided to them.
    Question. That you have provided to the White House Counsel's 
Office?
    Answer. That's correct.
    Question. Do you know whether any material from those tapes is 
responsive to subpoenas that this committee or the Senate or the 
Department of Justice have issued?
    Answer. Do I know? I know what I read. I know that my people have 
turned over 126 audiotapes to the counsel, and I can only assume they 
were going to either the Department of Justice or one of the 
committees.
    I have not--I know that we have a strict inventory process and we 
inventoried them and turned over--handed chain of custody to White 
House counsel for videotapes and audiotapes, and I was involved in the 
videotaping piece.
    Question. Right. But we're talking now of just the audiotapes, not 
the video?
    Answer. Yes, right.
    Question. Just going back to the categories and trying to work 
through this, we have talked about audiovisual tapes and audiotapes. 
Does WHCA either take or keep photographs, still photographs?
    Answer. We do not take pictures. We develop pictures.
    Question. I was going to get to that in a minute, but maybe it is 
best to finish this side of it now. What is WHCA's relationship with 
civilian photographers?
    Answer. We develop the film that members of the White House 
Photographic Office take.
    Question. And why is that?
    Answer. We will have to go back in history. Roughly in 1958, the 
White House Communications Agency started providing photographic 
support, and then at that time they were military. Since they have 
evolved, I guess in the 1960's, '63 or '64, I am not sure, but in the 
early part of the sixties it became a civilian position.
    There were various legal counsel reviews, by then the Defense 
Communications Agency, saying that it was okay for the White House 
Communications Agency to develop the film taken from those pictures.
    Now I am in the Signal Corps, and we probably gave birth to the Air 
Force and also balloons, et cetera, and photography also used to be one 
of the things that resided in Signal units.
    So in considering that the White House Communications Agency 
started off as a White House Army Signal detachment and then went to a 
White House Army Signal agency, I think there is probably a tradition 
that has been maintained.
    So taking pictures wouldn't be out of the norm for us in those 
days, and developing, so forth. So I think it has just been something 
that has just gone on through the years.
    Question. Are civilian photographers allowed to keep their films, 
take them away and develop them themselves?
    Answer. The White House Photographic Office, to get--I will just 
tell you what I know. I know that they take pictures and they provide 
the film to us. The photographers are not a part of WHCA. I hope I----
    Question. No; that's specifically what I was getting at.
    Answer. We don't do any--we don't take the pictures, but we do the 
development of the pictures that are taken.
    Question. And I was staying away from tourist X who walks in and 
takes pictures and takes the camera out.
    Answer. That's right.
    Question. But in terms of civilian professional photographers, they 
provide their films to WHCA; WHCA develops the films and returns the 
hard copy of whatever has been taken to the civilian photographer?
    Answer. What they do is, they use the term called a contact sheet, 
which has a number of pictures, and that's what they return back to the 
White House office and--White House Photographic Office, and they will 
circle whatever pictures they want developed and so forth.
    Question. Is WHCA responsible for providing whatever is wanted from 
the contact sheets?
    Answer. Yes.
    Question. If it is determined that they want 27 copies of whatever 
picture is circled, then WHCA actually does the making of the hard 
copies of the photographs?
    Answer. Yes, sir.
    Question. And does WHCA keep the negatives from all photographs?
    Answer. Yes, sir.
    Question. So the negatives are not actually the property of the 
civilian photographers?
    Answer. No, sir.
    Question. How far back does WHCA's keeping of the negatives go?
    Answer. I do not know the answer.
    Question. If it is longer than 5 or 6 years, then I don't need to 
know the specifics, but does WHCA keep negatives for the past, say, 5 
years?
    Answer. I know that we are right now doing photo archiving, and 
we're trying to photo archive the negatives, because you know that if 
you keep a negative just in a folder, in a file, as time goes by it 
will deteriorate or degrade. So now our photo archiving project is to 
take that negative and to put it on a CD-ROM, so that it will be 
archived, so that it will last longer and stay for quite a while.
    I know that we have records of negatives. I do not know how far 
back they go, but I know that they--I have been there since '94, so '94 
through the current are there, and I'm sure that prior to my taking 
over there is.
    But as you know, you would run out of space doing that, and that's 
why this photo archiving project is significant for us, so that we can 
archive the negatives and then not have to use all that space.
    Question. Where are the negatives now stored?
    Answer. They are now stored in my building, 399.
    Question. Do you know whether anybody has reviewed negatives for 
the past--over the course of the last 5 years to determine whether any 
of the materials contained in the negatives are responsive to the 
subpoenas from this committee or the Senate or the Department of 
Justice?
    Answer. Yes, sir, I do know that there have been two searches of 
that database, one initiated by the White House Press Office and one 
initiated by myself.
    Question. When did those searches take place?
    Answer. I don't know when the White House Press Office performed 
theirs. I was informed by my people that they had received requests to 
send certain contact sheets up and it was in relation to this whole 
incident. But then I decided I wanted to feel sure that we looked 
through all the databases, so I had my people in this area search, and 
it was sort of a duplication of effort, but we did it too.
    Question. Do you have an approximate time for the press office 
inquiry?
    Answer. I do not know it right now, sir.
    Question. Just in terms of the months?
    Answer. Oh, it would have to be--well, I don't want to say that. I 
don't know exactly when, because the conversation that took place--I 
went into the photo lab, and I asked them, and they said, sir--and they 
knew about--you can imagine my agency is saying what's going on, sir?
    So I went to talk to them, and they said, well, we've had several 
requests from the White House Press Office to send contact sheets up, 
and they have supposedly identified the pictures that they wanted 
printed, and we would also do that, and we returned them to them.
    I do not know the time frame in which those requests were made.
    Question. Was it after September 1st?
    Answer. I do not know that.
    Lieutenant Colonel Sparks. Can we go off the record for just a 
minutes.
    [Discussion off the record.]
    Mr. Wilson. If you could, speaking to the reporter here, could you 
refresh my recollection by giving me the last question that I asked of 
Colonel Simmons?
    [The reporter read back as requested.]

                       EXAMINATION BY MR. WILSON:

    Question. Staying for a moment with the subject of the photographs, 
do you know what the recordkeeping system for photographs is?
    Answer. No, sir, I'm not familiar with it exactly. I know in 
general terms that most of our records in our database correlate 
directly to a date. That's the quickest way to retrieve anything from 
our databases.
    Question. Do you know whether there's any recordkeeping by name of 
individual for photographs?
    Answer. I do not know, sir.
    Question. Who would be the individual within the WHCA hierarchy 
that would know most about the recordkeeping for photographs?
    Answer. It would be a Sergeant First Class Santoro, S-A-N-T-O-R-O. 
He will be glad to give you a tutorial on photography.
    Question. Do you know whether WHCA has ever made copies of 
photographs to provide to either the House of Representatives, the 
Senate, or Department of Justice pursuant to subpoenas or information 
requests that have been sent to WHCA?
    Answer. I do not know the answer to that question.
    Question. Have you ever been asked by the White House to conduct a 
review of the photographs in your records?
    Answer. Yes, I have. And the reason I paused is because that has 
been a recent occurrence. It was a request made by my boss, Mr. 
Sullivan, to ensure that as a result of what has happened now, that we 
ensure that we review all our databases.
    And that is what caused me to go down in my photo lab and ask them, 
did they perform a check on their database, and they said, sir, we were 
told that the White House Press Office was doing that.
    See, whatever data that we have archived, they have the same data 
up at the White House Press Office. They have visibility of it. So you 
could do a retrieval on the database from the White House Photographic 
Office and still do the one downstairs. But I wanted to be sure that we 
did our part.
    Mr. Ballen. I'm sorry, the press office or the photographic office?
    The Witness. Photographic office. White House Photographic Office.

                       EXAMINATION BY MR. WILSON:

    Question. Just to pursue that a little bit further, you mentioned 
that the rolls of film go to WHCA, the rolls of films are developed and 
produced into a contact sheet format and then sent--and I think I 
missed this--I think you said this, but where do the contact sheets go 
after they are produced?
    Answer. They are either, if they are not requested or not asked 
for--and that is why I believe you need to talk to Sergeant First Class 
Santoro--they are stored in a file cabinet, filing cabinets; I mean a 
huge area that we have in the photo lab.
    Question. And I don't want to be mysterious here, I am certainly 
not trying to trap anybody, I'm just trying to figure out----
    Answer. Sure.
    Question [continuing]. What the photographic office would have. It 
appears that if they didn't request--if somebody took 10 rolls of film 
from a certain event and there was not a request made by the 
photographic office, then they would not have any records from those 
rolls of film?
    Answer. The way I understand it, I'm sure there is a process, 
because everything, every event that my people develop, it correlates 
to a photographer. They can tell you which photographer took it. So 
there is some data entered in it.
    And I can only speak from what I have observed on trips. I have 
seen Mr. McNeely or Sharon Farmer or Barb McKinney; I have seen them; 
they have little pouches that they label when they take the film out of 
their cameras and put it in, and it has a date and so forth. And all 
that is turned in.
    Somehow there is--I'm sure there is a process, because our people 
can identify which photographer took it and the date it was taken and 
so forth.
    Question. I realize this is a question you may or may not be able 
to answer, because it is pretty specific, but if the recordkeeping is 
primarily by date and not by individual, it seems to me the only way 
you can determine whether individuals are in photographs is by looking 
at the photographs.
    I am trying to determine whether the White House photography office 
would have had hard copies or contact sheets or something to actually 
visually look at and decide whether there's material that is compliant 
with subpoenas or not.
    Answer. Maybe I wasn't clear enough. I know that the date resides 
with just about everything we do. I will not--I cannot say that it is 
the only thing that is a part of that record. I'm sure there are other 
entries there, more than just a date.
    Question. This is kind of piling on here. This is my last question 
on this. But do you know for a fact whether or not the White House 
photography office has copies of all the material that is in the WHCA 
archives of photographs?
    Answer. I don't know that.
    Question. So I have asked you questions about audio recordings, 
audiovisual recordings, and still photographs. There's a term of art 
that I have seen that I don't understand; it's called record 
communications. Do you know what that is?
    Answer. Yes, it's usually message traffic of some sort. It is a 
hard copy of whatever was sent. That is what you called record 
communications. And usually that starts--that can either be through our 
communications center or a facsimile machine as a form of record 
communications.
    Question. Now, staying away from sort of dedicated NSC types of 
communications, because we will not go there, what other types of 
record communications would WHCA keep on an ongoing basis?
    Answer. In my communications center, that would be the main focal 
point for record communications traffic.
    Question. But, again, my question is somewhat akin to the question 
I asked about e-mails between person A and person B in the White House. 
If someone were to use a fax machine in the White House and send a fax 
to somebody in Poughkeepsie, New York, there is a fax from the White 
House to Poughkeepsie. Is that something WHCA would keep track of?
    Answer. No.
    Question. So when you mentioned faxes, what type of faxes were 
you----
    Answer. Facsimile machines that I'm responsible for. There are 
facsimile machines throughout the White House complex that I do not 
have that are not part of my architecture.
    See, facsimile machines are part of a user-on, user-operated record 
communications traffic. That is why they were developed, so that you 
could send a message to anybody you wanted.
    I have that capability to fax, because when the President goes to a 
certain location, if we have all forms of communication, I have a van 
that follows him that has a facsimile capability, and it can receive 
fax traffic.
    Mr. McLaughlin. Is that what is known as the Road Runner?
    The Witness. That is the Road Runner, yes, sir.

                       EXAMINATION BY MR. WILSON:

    Question. Would you characterize these fax transmissions of all 
sorts? I don't want sort of classified or national security type of 
faxes, but this is just a fax capability to allow people to send faxes 
or traffic?
    Answer. I have the capability for facsimile for unclassified and 
classified traffic.
    Question. Do you know whether, pursuant to any of the subpoenas or 
document requests that have come from either the House of 
Representatives or the Senate or the Department of Justice, whether 
anybody has reviewed facsimile transmissions to determine whether they 
were responsive to either House, Senate, or Department of Justice 
document requests?
    Answer. I don't know that. But just let me explain what happens to 
me. Once I receive the fax traffic, I give it to the person that is 
identified, and they are the ones that dispose of it. If it is of a 
classified nature, they will return it back to me after they have read 
it, in some cases, not in all cases, and if they give it back to my 
operators, we will shred it immediately.
    Question. So what is kept on a permanent basis and what is not kept 
on a permanent basis?
    Answer. We don't keep fax traffic, facsimile traffic. And if you 
look in the buffer of your facsimile machine, I think it's limited to 
about 32 or 33 transactions; it depends on the size of your message and 
so forth. So you're not going to keep anything over the years and 
months or something like that.
    Question. Does WHCA keep track of telephone communications, or does 
WHCA record any telephone communications going into or coming out of 
the White House?
    Answer. Yes, sir. Those communications that come through----
    Lieutenant Colonel Sparks. Be clear. He asked you if any are 
recorded.
    The Witness. Oh, recorded. Okay, could you define ``recorded''?

                       EXAMINATION BY MR. WILSON:

    Question. Well, preserving on an ongoing basis the materials within 
the communications. If somebody made a telephone call into the White 
House or made a phone call out of the White House, is there something 
in your records that one could listen to to determine what was said?
    Answer. No, I don't do that.
    Question. What do you keep?
    Answer. I have a log that is maintained, and it only pertains to 
the President of the United States, and that's if he uses--he elects to 
make a call and interfaces with my operator and has my operator place 
the call.
    Question. And why would the President do that?
    Answer. Because Presidents don't like dialing numbers.
    Question. No; I used to work at the Department of Justice, and we 
had a command center, and a lot of times people didn't like to dial 
numbers and did the same thing. But in the Department of Justice we had 
our command center.
    My impression, which is seemingly wrong, is that the President 
would use the White House switchboard or the White House communications 
capability. So disabuse me of my--am I wrong or?
    Answer. No; he uses our switchboard extensively.
    Question. And it is a separate switchboard system than the White 
House switchboard system?
    Answer. Yes, it is. Yes, sir.
    Question. And is there any method to using one or the other?
    Answer. No, sir.
    Question. It is just whatever?
    Answer. Whatever he feels like doing.
    Question. Right, as is appropriate. And the recordkeeping of these 
usages, what is the recordkeeping?
    Answer. There is an entry, when the President wants a call or 
someone is making a call for the President and the President is going 
to speak to the party, I have a special assistance operator that 
answers that line. It has even a certain tone on the board so we know 
right off that it is the President. And he records the party that he 
wants to speak to, and the telephone number and the date is also 
present, and then he processes the call.
    Question. And how far back do the records go of these types of 
communications?
    Answer. 60 days.
    Question. And what happens after 60 days?
    Answer. The most likely--say we had--at October 31st, we would have 
September and October's log. When November started, we would destroy 
September's log and so forth. That is the process.
    Question. Have you ever received any communications from anybody--I 
will use ``anybody'' in the broadest sense--directing you or requesting 
that you preserve that type of information?
    Answer. No, I have not.
    Question. Has anybody from White House Counsel's Office ever 
discussed with you the types of information that are preserved in this 
log?
    Answer. Yes, sir.
    Question. And what have been the subjects of their discussions?
    Answer. Most recently with the Vice President's office.
    Question. And when you say that, are you referring to the issues 
that are in the media of telephone calls, his using the White House?
    Answer. Yes, I am.
    Question. Do you recall--and I will use a specific example; this is 
a good frame of reference. This committee sent a subpoena to the White 
House for certain types of information in March of 1997. At any time 
thereafter, did you receive any communications from the White House 
suggesting that you should not continue destroying the logs that you 
had kept?
    And I realize they would have only gone back for 2 months before 
that.
    Answer. Right. Yes, sir.
    Question. But did you ever get any communications or did you ever 
have any discussions about not destroying the logs that you did have at 
that time?
    Answer. No, sir.
    Lieutenant Colonel Sparks. Let me just say that you need to 
establish as a predicate whether or not he knows when any of these 
subpoenas come in, because I don't think that's the case.

                       EXAMINATION BY MR. WILSON:

    Question. Certainly, and I will ask you some questions about that, 
but I'm just really focusing on whether you got any--I'm not worried 
whether it is pursuant to a subpoena or whether it is pursuant to 
somebody's decision just to make an inquiry of you, but just trying to 
make certain that we have that no inquiries were made of you and no 
communications were made to you about preserving any materials that 
would have been contained in the logs of telephone calls.
    Answer. No, sir.
    Question. That was my question.
    Answer. I would say no to that, because the destruction of logs is 
a matter of policy, and I'm the only one that can change that.
    Question. I understand that is policy.
    Answer. And I'm saying that is why that issue would come directly 
to me. Not even my deputy could make that decision.
    Question. Just to finish off the discussion of telephone 
communications, does WHCA keep any ongoing record of telephone 
communications that come from either Air Force One or Air Force Two?
    Answer. No, sir.
    Question. Does WHCA keep----
    Answer. Now, let me define that. There is an operator on Air Force 
One, and it depends on the type of plane. On the 747, the largest 
plane, there is a whole communications suite on the top deck. There are 
89th Air Wing operators.
    On that plane, the only way you can access communications is to 
pick the phone up and you will get the operators. Operators intercept 
on them. There is no direct dialing or anything off of that plane from 
the passenger side. The President can't even do that. So they record; 
when someone picks up the phone, usually they identify themselves and 
say that: I would like to speak to so-and-so; this is the telephone 
number. They log that in on a sheet.
    And the only reason I know this is because I have to work very 
closely with them because they interface with my architecture. Any time 
the President flies, it all comes back to the Washington metropolitan 
area. I have ground entry points coming off of the satellite system to 
a ground entry point that is here in the metropolitan area of which I 
am responsible for. And I spend most of my time, when I'm on Air Force 
One up there, because, as you can imagine, it is a lot of message 
traffic, facsimile, messages of all types are coming up, and also 
communications up and from the plane are ongoing. So I have seen the 
process.
    Now, they destroy those logs immediately after the trip, they being 
the 89th Airborne.
    Mr. McLaughlin. You have just destroyed one of the premises of the 
movie ``Air Force One.'' It is really very disappointing to hear that.

                       EXAMINATION BY MR. WILSON:

    Question. Are there--and I am changing subjects entirely here--are 
there any permanent recording devices in the White House that you know 
of? And I will start with audio recording devices.
    Answer. No, sir.
    Question. Are there any visual image recording devices in the White 
House that are permanently installed that you know of?
    Answer. By visual images----
    Mr. McLaughlin. You mean security cameras?

                       EXAMINATION BY MR. WILSON:

    Question. Well, I will get to that, but cameras of any sort, and 
one subset of that could be a fixed or mounted security camera.
    Answer. There are fixed cameras in certain positions that I know 
of. And I will tell you the two areas that I know of.
    In the White House Press Office, there is a camera, so that when 
anybody makes a statement, it focuses right on the President or whoever 
is behind the podium; and also in room 450. Now, that is not run by me.
    Room 450 in the Old Executive Office Building, there is a camera 
there, too.
    Question. Sounds kind of Orwellian, but what is room 450?
    Answer. Well, that's an auditorium, basically, and there will be 
functions--depending upon the size of the crowd and whatever--held 
there by the President and Vice President.
    Mr. McLaughlin. That is where the White House has been screening 
these videotapes that are the subject of these depositions.

                       EXAMINATION BY MR. WILSON:

    Question. So those are the two fixed cameras you are aware of?
    Answer. Yes, sir.
    Question. You are not aware of any others?
    Answer. No, sir.
    Question. Who maintains the audiovisual tape from those cameras?
    Answer. You will have to--I will have to refer you to GSA for room 
450 and the tape for the--I don't know if there's a tape for the one in 
the press office. That's the one that we had something to do with.
    It just helped us out, because what happens is that when there is a 
press statement from the press lobby, or also there is a cable TV 
system and it allows us to take that picture and transmit it over a 
channel on a closed-circuit TV system that has been in existence since 
1960 something, and that camera is there--and I know that we had 
something to do with the history of WHCA putting that camera there so 
we could always have a picture of the podium, but I don't believe 
there's a tape.
    That is why I am saying you would have to--either Chief Petty 
Officer McGrath or VanKareun would know. I don't believe it is a tape. 
I believe it only allows you to just picture; it doesn't film. It is 
not like a videocamera that you would operate. You can turn it on and 
you can see who is behind it, in other words. It is more optical than 
video, is my understanding of it.
    Mr. Wilson. If we could go off the record for just a second.
    [Brief recess.]

                       EXAMINATION BY MR. WILSON:

    Question. Changing course slightly, I wanted to get into a little 
bit of discussion on who is doing the recording and who is responsible 
for the recording.
    I have provided Colonel Simmons with a document that has been 
marked JS-2, and it has a title on the top ``Residence Event Task 
Sheet.''
    Mr. McLaughlin. Actually, can we just make sure the copy that is 
going in the record is the one the witness is actually seeing. So I 
think the one that you have marked----
    Mr. Wilson. That would be fine.
    Mr. McLaughlin. Thanks.
    [Simmons Deposition Exhibit No. JS-2 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. As I stated, this is marked ``Residence Event Task 
Sheet.'' There are three pages, and there are sheets from three 
different dates. The first is July 31, 1995; the second is September 1, 
1995; and the third is September 13, 1995.
    Are these the types of task sheets that WHCA generates, or does 
WHCA generate these tasks sheets?
    Answer. No, sir, we do not generate these task sheets.
    Question. Do you know what these are?
    Answer. Sir, I have seen them, and I do believe that they come from 
the social office.
    Question. At the time that these were prepared, which is 1995, do 
you know whether the social office provided copies of these task sheets 
to WHCA personnel?
    Answer. I don't know if these specific sheets were provided, sir. 
However, during my discussions with my camera crew, they showed me one 
of these task sheets and said this is usually what they receive from 
the social office that tells them what event is going to take place and 
what is required of them.
    Question. Focusing your attention on a line that is about two-
thirds down the page next to the acronym initials WHCA, there are a 
number of categories, and one is recording. It has a yes or a no, and 
the no has an asterisk next to it.
    Do you know whether the social office, in advance, would provide 
directives to WHCA to either record or not record events?
    Answer. My understanding in my discussions with my people are that 
this sheet is a planning document. And by planning, it means it can be 
deviated from. So that is my understanding.
    Question. And bearing in mind this is something that you may not 
have seen at the time, the three sheets that you have in front of you 
have indications for no recording, and in fact we have now received 
materials that indicated there was recording at these particular 
events.
    Mr. McLaughlin. Of a portion of something prior to the actual event 
itself, might be a more fair characterization, Mr. Wilson.
    Mr. Wilson. I'm focusing on recording yes and recording no.
    Mr. McLaughlin. I would be surprised if you actually had a 
recording of the event itself after the door was closed, but I think 
what you are referring to is the tapes that have been produced of the 
President entering the room and greeting individuals.
    Mr. Wilson. Actually, I'm not trying to testify for anybody. I 
don't know what the witness knows. I was going to ask him questions.
    Mr. McLaughlin. I just wanted the record to be clear.
    Mr. Wilson. Well, to clarify the record, are you testifying that 
you know that there are no tapes of the entire event?
    Mr. McLaughlin. No. You just stated, you testified that there was 
such a recording, and I wanted to be clear that I don't think that is 
what you were testifying. And maybe I will phrase this as a question to 
counsel for purposes of clarifying the record.
    Are you referring to a tape of the entire event, or are you 
referring to the tapes that have been produced to this committee which 
are videotapes of brief exchanges prior to the coffee events 
themselves?
    Mr. Wilson. No. It's pointless to get into this, but I asked a 
question about recording, and it says yes or no. And I'm not stating or 
providing any information whatsoever on the duration of recording.
    Mr. McLaughlin. What you said, Mr. Wilson--and the record will 
speak for itself, but I believe what you said was, in fact, we know 
that there are recordings of these events. And I wanted to be clear 
that what you were referring to is the brief recordings of the 
President entering the room prior to the closing of the door.
    So if that is in fact what you are referring to, you can concur 
with my qualification of your statement. Otherwise, you can ask the 
question in a different way.
    Mr. Wilson. Well, if we could go back to my original question, if 
you are able to find that, I'd appreciate that.
    [The reporter read back as requested.]

                       EXAMINATION BY MR. WILSON:

    Question. Are you aware of any discussion from this time or 
subsequent about whether events should be recorded or not recorded 
related to these types of Residence Event Task Sheets?
    What I'm trying to get at here is, did you ever discuss with 
anybody or do you know of discussions that involve these types of 
sheets that specified types of recordings and whether there was any 
feedback on whether events should be recorded or not recorded?
    Answer. No, sir.
    Question. Who was involved in the taping of White House coffee 
events?
    And I shouldn't interrupt you, but I know that is a question that 
involves a lot of people.
    Lieutenant Colonel Sparks. Are you asking names?
    Mr. Wilson. I am actually asking names. I know these are names, and 
I don't want to belabor this in trying to recall a lot of names now. If 
it is possible to provide names for me at a later date, that would be 
sufficient for right now. I don't want to walk through a lot of names.
    The Witness. I think that would be better, because it would depend 
on who was assigned to the camera crew and who is still there, and some 
people have departed. I can name a few names right now, but I don't 
know if they were present during these particular events.
    Mr. Wilson. Right. Maybe, if we could leave it that you will make 
an effort in the course of the next week to provide names of 
individuals involved in taping coffee events.
    Lieutenant Colonel Sparks. Taping coffee events from?
    Mr. Wilson. From 1995 to 1996.

                       EXAMINATION BY MR. WILSON:

    Question. Do you know the names of any of the supervisors of the 
crews that did the taping?
    Answer. Well, that's sort of a difficult question to answer, and 
let me try to explain. If you look at this sheet, you will see where it 
says ``press'' and it says ``no.'' Normally, on the President's 
schedule there would be a piece that would identify, say, close press 
or open press.
    Open press means--usually means a full engagement of my audiovisual 
people as far as audio recording and video recording, public address 
system, podium, et cetera. Sometimes flags might be requested, et 
cetera, and all that.
    Now, a closed press event, unless someone from the staff, White 
House staff, tells them, usually it is broken down into just maybe a 
video recording. And that is not always the case, and that is why the 
video crew checks with the staff member to see if they will be 
required.
    When a closed press event like this says ``no podium,'' ``no 
announce mike,'' that means the President is not announced into the 
room. We do that. And ``no recording,'' that means there's probably no 
public address system so there will be no audio recording of it. But 
there will be a video that has audio capabilities there.
    Now, my White House camera crew will check with Steven Goodin or 
whatever the social office contact is, depending upon the time, and 
they get a copy of this sheet--at least that is my understanding--and 
verify if they are needed. And the only reason they have done that is 
because they have been, I won't say victimized, but they have read the 
sheet and it said no and then somebody said, ``Why weren't you there? 
We wanted you.''
    So now they have instituted measures to avert that type of mishap, 
if you may. So they check with the staff and make sure that, okay, is 
it you just want the video crew? Or sometimes they might just change 
and say, we want a microphone or podium capability. So it is a very, 
very fluid environment.
    So this is a planning document. And I believe that when you talk to 
my technicians, they will tell you that's all it is, and there can be 
deviations from it.

                       EXAMINATION BY MR. WILSON:

    Question. You mentioned a change in policy based on certain 
occasions when video operators were not at a particular event and 
somebody asked them afterwards why weren't you there.
    Do you know, was there a time at which that policy was changed?
    Answer. No, and I--let me try to clarify that. Things happen on the 
18-acre complex. Some things were very, very structured and then other 
things will just occur; and what will happen is that there will be 
maybe some ongoing activity that involves foreign policy or a statement 
that relates to domestic issues, and the President might just decide, I 
want to make a statement in the Rose Garden--I mean, bam, and so 
certain parties have to be notified.
    And so probably someone on the White House staff, maybe from the 
press office, maybe from the social office, maybe from Steve Goodin, 
the presidential aide will call and say we want this to happen now or 
maybe someone, from scheduling in advance, will call. So there are 
occurrences that take place on the White House complex that are not 
really planned and can happen, and so in order for my operators to 
preclude not being at a place when these type of occurrences, you know, 
all of a sudden pop up, they have decided to--and it wasn't like just a 
formal policy, a matter of, if somebody tells you, where were you last 
time, you learn very quickly that I need to be there or at least check 
to make sure if I need to be there.
    Question. Does WHCA have any material that is considered to be 
privileged or confidential? And those are terms of art, and I don't 
want to take a lot of time trying to define the terms of art; but is 
there any type of material that you know of--and again, I want to stay 
out of the National Security Council realms, types of things that 
involve national security issues.
    Lieutenant Colonel Sparks. I was going to say, you used 
``confidential''----
    Mr. Wilson. I knew that is what you were immediately thinking, and 
I don't want that and I don't want to go there.

                       EXAMINATION BY MR. WILSON:

    Question. But is there anything else that WHCA records that--maybe 
a better way of thinking of this is, fits into a different category, a 
category of heightened sensitivity.
    Answer. I am trying to understand your question. I can't think of 
anything that we would record that would be of that nature. You know, 
we would treat it as a presidential record, which, to me, puts it at a 
certain level of--and we are very sensitive to that, because we know it 
has to be archived; and that would be the sensitivity that we would 
direct to that type of recording.
    Question. Now, following from that, are there any types of--or any 
specific records that you have kept--and those could be audiovisual or 
simply audio--that in consultation with White House personnel it has 
been suggested that those materials contained privileged information? 
For example, if there was a recording of a White House lawyer talking 
to a White House employee that happened to be captured on a sort of 
normal video shoot, has that situation ever come up?
    Answer. To my knowledge, no, sir.
    Question. Has any White House employee suggested to anybody at WHCA 
that material that has been sought by either the House of 
Representatives, Senate, Department of Justice investigators, not be 
turned over because of any type of privilege or confidentiality or 
special nature of that material?
    Answer. Again, to my knowledge, no.
    Question. Breaking this down to the two components--actually, three 
components--we have photo, video and audio. Let's just take video 
first. Who has access to the video materials that have been recorded?
    Answer. Who has access? I am trying to understand your question.
    Question. For example, if I were to locate your office and knock on 
the door, and say, I'm here; I want to look at the tapes, would I be 
allowed that?
    Answer. No.
    Question. How could I be allowed to see the tapes, if there is a 
way?
    Answer. First, if you went to the area, you would have to go to 
Room 85, event productions, and if you asked for the tape, they would 
ask you to identify yourself because the people that they deal with, 
they know--they have developed a relationship where they know who they 
are; and if someone shows up that they do not know, they ask them 
questions, and they take their requests--we always try to be 
courteous--and then we tell them that they need to direct their inquiry 
to the White House Military Office.
    And usually about the course of that time, I will get a phone call 
or Mr. Smith will get a phone call--probably Mr. Smith, since he is my 
chief of operations--saying that a person is asking for a tape. That is 
something that is usually out of the norm, and we are very sensitive, 
because we treat anything that we record as a presidential record, and 
we are reluctant to give it to anyone unless someone provides us some 
type of authentication.
    Question. Is there a statutory or regulatory bar on people viewing 
the videos?
    Answer. The only reason I say that, I have not found it, and I have 
really tried to--I have even consulted with the other services, 
audiovisual elements; and the other services, I mean the Army, the 
Navy, and the Air Force. We have not found that statute as regards 
video per se, other than when it becomes, you know, a presidential 
record under the Presidential Records Act, you know, there is something 
there.
    But I have not--I guess when you--I believe that when you are in 
WHCA and we try to espouse this, that we have a very sensitive job as 
relates to the support that we provide, it is not something that we 
just broadcast to the world because they do not have a need to know. 
That is why we go to a very--a demanding security screening process.
    It takes either 6 to 9 months, and even if you have a Top Secret 
Compartmented clearance, that doesn't give you access to WHCA, you have 
to have what they call a Yankee White clearance that is unique to 
presidential support. And so our people, if anything, are very guarded 
in any type of information that they provide.
    Now, if a Steven Goodin called and said he wanted to see it--most 
likely, if a Harold Ickes called up and said he wanted it, he could 
probably see it too, absolutely. That is what I am saying, those are 
the types of people they would respond to. They know they are senior 
staff people and they would do it.
    But I would, in turn, or Mr. Smith would be notified, because when 
someone asks to retrieve a record, we are usually informed, because 
that is just not the norm unless, you know--usually when they ask for 
it, they state the purpose of it; and so I guess you would have to 
build me a scenario who was asking and what was the reason, what were 
the reasons they were asking.
    Question. Do you know whether there is any type of record-keeping 
system for people who do review video materials at WHCA?
    Answer. Again, I would like to refer that to my technicians. I know 
there is a form that they fill out, name and what they are requesting 
to see; and usually it is required for them to interface with the 
National Archives and retrieve the record, and those occurrences--I 
don't want to give you the idea those things don't happen because they 
have happened. I can't cite a specific incident, but I know that 
records have been retrieved from the National Archives. There is not a 
high demand, you know, everybody saying I want this back, and let me 
see this, how does this look, et cetera.
    Lieutenant Colonel Sparks. Jim, are you asking whether there is a 
record for people who want to come in and look at a tape in WHCA or 
retrieve the tape.
    Mr. Wilson. Actually, I am not familiar with the distinction so 
much. But I was actually asking for people--I will break it down--for 
people who do want to come in and view or review or look at one of the 
tapes, if there is a sign-in book or a log; and you have just described 
that there is a form.
    Lieutenant Colonel Sparks. That is what I am saying, the coming in, 
sitting and reviewing is different from coming in and asking to check 
out a copy of a tape.
    Mr. Wilson. I was actually going to get to the whole checkout 
aspect.
    Lieutenant Colonel Sparks. But for him to be clear, I think he is 
describing the retrieval system.
    The Witness. The retrieval system, correct.

                       EXAMINATION BY MR. WILSON:

    Question. Then just to be clear, if somebody wants to review a 
videotape at WHCA, is there a record kept of that individual, if they 
have in fact reviewed anything?
    Answer. I don't know that. I couldn't answer that. I know there is 
a record kept of retrieving a tape from the National Archives.
    Question. So--and part of this is my failure to grasp where the 
tapes literally are. When do tapes go to the Archives?
    Answer. The policy now that Chief McGrath has and has had for quite 
a while, since he has been on board, is he has tried to keep it within 
a week, videos that are recorded within a period of a week, they 
contact the National Archives and the National Archives comes and picks 
them up. They are temporarily stored in the master control facility, up 
on the fifth floor in the Old Executive Office Building.
    Question. So within a period of approximately 1 week, they are 
stored on site at the----
    Answer. And then that is dependent upon travel, you know, and all 
that.
    Question. Do you know where they are kept at the Archives?
    Answer. No, I have not been there.
    Question. Okay. So it is your understanding that when anybody wants 
to review any videotape, first it has to be retrieved, as long as it 
falls without the 1 week approximate time period?
    Answer. Correct, uh-huh.
    Question. And there is a form that is filled out to actually 
retrieve the tape?
    Answer. That is right.
    Question. Do you know where those forms are kept?
    Answer. No, I do not.
    Question. And is it your understanding that this system would apply 
to White House counsel who have recently reviewed videotapes?
    Answer. Oh, yes, very much so.
    Question. Turning to audiotapes, are audiotapes treated the same 
way as videotapes, as far as the record-keeping goes?
    Answer. Yes, sir, they all--both of them ultimately reside in the 
National Archives.
    Question. Do you know whether there is a retrieval form that is 
prepared to obtain older video- or audiotapes?
    Answer. I don't know the exact process. I know that we just can't 
call the National Archives up and say, we want this tape; so I know 
there is some type of record that is initiated, but I have not seen the 
form.
    Question. And then, finally, with negatives or contacts or 
photographs, do you know whether there is a record-keeping system for 
obtaining photographs or negatives, contacts, photographs or negatives 
of photographs?
    Answer. I couldn't answer that question.
    Question. Who would be----
    Answer. Sergeant, first class Santoro could tell you.
    Question. You indicated a moment ago that it was somewhat of a--I 
don't want to mischaracterize this, so just correct me immediately if I 
am wrong. It was a somewhat unusual situation for somebody to request 
materials from WHCA, older materials from WHCA, video- or audiotapes; 
is that correct?
    Answer. I did say that, and maybe--let me see if I can word that a 
little better.
    When we record video and audio, it becomes--it is treated as a 
presidential record, so presidential records ultimately end up in the 
National Archives, and we consider that very sensitive information in 
our business. So it's usually, you know, we are providing more input to 
the National Archives and are not using it just to have people call up 
and say, I want to see this.
    Now I don't want to give the impression that there aren't reasons 
or occurrences, and that is why I would like to defer that to my 
technicians, Sergeant VanKareun and Chief Petty Officer McGrath, 
because they probably have a better feel for it, but I am sure we--from 
my perspective, we provide input to the National Archives more than 
going back and retrieving them, until this very day, now we have done 
more work than we ever have before.
    Question. Do you know of any examples of requests for either video- 
or audiotapes to be copied and given to other individuals, for example, 
do you know of any requests where WHCA has been asked to provide five 
videotapes for their participants at a meeting or a lunch or an event?
    Answer. No, sir, I do not.
    Question. And as far as photographs go, do you know of any examples 
where somebody has contacted WHCA employees after an event and asked 
for photographs from a particular event?
    Answer. I will say no from the standpoint, I don't work in the 
photo lab, and ask for--you know, have been involved in that process.
    Lieutenant Colonel Sparks. Let me say this. You have to appreciate 
where Colonel Simmons is in this entire structure. You are asking him 
very technical questions about what very junior people do.
    Mr. Wilson. I understand that, and 3 weeks ago, I would have not 
asked the question, but in the recapitulation in the last 3 or 4 weeks, 
reviewing these matters with other people, talking about all the things 
that inevitably are coming up pursuant to why we are here, I am sure 
you have learned a lot of things--I am not sure of that, but--I started 
getting in the weeds.
    Mr. Wilson. You learned things you didn't know about before, and 
that is what I was getting at. And it was my assumption prior to this 
that if somebody wanted something, they dealt with the White House 
photographer people and they would deal with their own folks.
    The Witness. Usually those--and you will find in your discourse 
with my technicians, usually those requests come from the White House 
Photo Office, Photographic Office; and I am sure they have been done, 
but you know, I couldn't tell you--you know, I couldn't cite a specific 
date or event.
    Question. Just turning to preservation material that WHCA 
maintains, is there a policy manual or any type of directive that 
outlines how material is to be preserved?
    Answer. I would defer that to my technicians. I believe there is. 
Now, you are saying photographic negatives and tapes and so forth.
    Question. Yes. Yes, and that is obviously a very broad question, 
you have already answered in part some of the details, for example, 
with the photo logs, they are kept for--the telephone logs are kept for 
2 months and destroyed on a routine basis.
    So, I mean, there might be different manuals. I'm just getting a 
sense of whether you know of a basic policy manual or set of directives 
or even regulations----
    Answer. I know they have--I believe that they have their own SOPs 
that discuss what they do, how they archive and retrieve and so forth. 
And I guess I would have to defer that to them as far as how long they 
preserve the records.
    Question. Do you know whether any material that is potentially 
responsive to this committee's subpoena, or Senate subpoenas or 
Department of Justice information requests has been destroyed?
    Answer. In what context?
    Question. That is not meant as an offensive question. For example, 
the telephone logs are routinely----
    Answer. But----
    Lieutenant Colonel Sparks. The problem is, he doesn't know what was 
requested.
    Mr. Wilson. I suppose we will get to that.
    Mr. McLaughlin. Actually, a number of times you talked about 
requests from the two committees and the Department of Justice. It 
might be useful to establish a predicate as to whether or not he 
receives a directive from the Counsel's Office and whether that 
directive mentions the requesting body. It might be a more useful thing 
to refer to document directives from the Counsel's Office since, I 
believe--correct me if I am wrong, Colonel Simmons--that is what your 
office receives, and maybe you want to establish that predicate, rather 
than continue to refer to the requesting bodies.

                       EXAMINATION BY MR. WILSON:

    Question. We will get to that. Just in terms, though, of my 
question, do you know, in subsequent conversations with people, whether 
any material that you now believe might be responsive to any document 
requests or information requests has been destroyed?
    Answer. To my knowledge, none has been destroyed.
    Question. Is it possible that any material responsive to document 
requests no longer exists or has been destroyed?
    Lieutenant Colonel Sparks. I don't like that question at all. I 
mean, he would not know what was responsive to any of these requests.
    Mr. Wilson. That could be the answer then, if that is the answer.
    The Witness. Let me tell you the direction that I gave my people.
    As far as anything that they do--and we pulled them in when this 
whole issue surfaced, and I specifically said, there will be no 
changing of any records, tapes, videotapes, et cetera. And I told my 
people that, and it has been passed down. Now that is what I told them, 
and I have trust and confidence in them, and they wouldn't do it.

                       EXAMINATION BY MR. WILSON:

    Question. I am actually getting not so much the affirmative, 
somebody has gone out and thrown a tape away, to more the telephone log 
situation where there might have been material, it might or might not 
have been responsive. But it has, on a routine basis, been--I don't 
want to use the word with negative connotations--``destroyed,'' but the 
materials do not exist because of ongoing policy, and this is kind of a 
wrap-up question.
    Are you aware of any other types of materials that are not kept 
because of policy, that may have existed prior to today, that no longer 
exist?
    Answer. Right offhand, only the items that we have discussed. 
Telephone logs, I know that they are destroyed, and that is the policy 
that has been instituted long before this committee even started, even 
years back, okay, so that is--I have even read the policy; I know it.
    As far as videotapes and audiotapes, destruction of, I feel fairly 
confident in saying that they have not been destroyed, at least, you 
know, as far as my people are concerned. They treat them as 
presidential records. I know they are very guarded about what they do.
    Question. Do you know whether any of the raw audiovisual tapes or 
audiotapes that are recorded by technicians at the White House are ever 
altered in any way when they--after they have been initially recorded? 
And I am asking you about whether they are put in different formats or 
put into different sorts of categories or turned into compilations, 
just changed in any way from their original format.
    Answer. The only changes I know that occurred would have been with 
this process that has taken place recently. And let me define that.
    The tape that was used is a Beta tape, and then the conversion to a 
VHS, it was--you know, the format, it was changed, so you can see it, 
and so forth. That is the type of change I know as it relates to 
videotapes.
    As to audiotapes, I don't know of any changes at all.
    Question. So you are not aware of any change apart from that which 
you mentioned, the recorded state to the way that the tapes are 
ultimately put in the Archives?
    Answer. That is correct.
    Question. Turning your attention to the process of the information 
requests. When were you first aware that--and I will ask them all 
together--the Senate, the House of Representatives or the Department of 
Justice were interested in information that you might have with--I 
don't mean you personally--but that WHCA might have?
    Answer. There have been various memos through the course of this 
year, 1997, and '96 from the Counsel's Office that my organization has 
been in receipt of from the White House Military Office that asked for 
documents and records, and usually it had a list of names and 
organizations on it.
    Question. Do you know when the first request came to your 
attention?
    Answer. No. I have looked through my files, and I have seen some as 
far back as February of '96. I have seen some very recent, during 1997.
    Question. And I will just----
    Answer. I don't know when the first one came.
    Question. For clarity's sake on the record, you refer to February 
of '96?
    Answer. Yes, sir.
    Question. What request was that?
    Answer. I just looked through the file as of recently because a lot 
has been made mention of--memorandums and so forth--and I just pulled 
my file in my office, and I noticed there was one from February of '96, 
I just looked at the date; I was focusing more on the 28th of April of 
1997.
    Question. Okay. Now, bearing in mind that none of us know what this 
is, would it be possible after review by your counsel to provide us 
with the request from February of 1996?
    Lieutenant Colonel Sparks. Keeping in mind it is a White House 
document.
    Mr. McLaughlin. And that it is a counsel document.
    Mr. Wilson. I don't know what it is.
    Lieutenant Colonel Sparks. He described it as a document from 
counsel, so it is not WHCA's document. I will find out about it.
    Mr. Wilson. If you could, that would be very helpful.

                       EXAMINATION BY MR. WILSON:

    Question. Turning to the request that came in, when were you first 
aware that WHCA might have materials that were responsive to document 
requests by the Department of Justice, the White House or the House of 
Representatives--I mean the Department of Justice, Senate or the House 
of Representatives?
    Answer. I remember, as it relates to the 28th of April, 1997, 
request from counsel, I was made aware that some of the documents that 
we had were classified, and that were responsive to the request from 
the general Counsel's Office.
    Mr. McLaughlin. Can I ask a follow-up there? Did that directive 
state who the requesting entities were?
    The Witness. Yes, it did.
    Mr. McLaughlin. It did?
    The Witness. Yes, it did.
    Mr. McLaughlin. And those entities would be.
    The Witness. No--the requesting entities?
    Mr. McLaughlin. Yes. In other words, it was a directive from the 
Counsel's Office, I believe you represented, on April 28, 1997?
    The Witness. Right.
    Mr. McLaughlin. Do you recall if that document stated whether it 
was from an independent counsel, whether it was from a committee of 
Congress, whether----
    The Witness. No, it did not. I did not see the document for the 
28th of April. I am telling you that I was aware that we had documents 
in response to the request.
    Mr. Wilson. I will get to that, and we will work through that in a 
moment.

                       EXAMINATION BY MR. WILSON:

    Question. But just trying to recapitulate there, I suppose the best 
way to do this is, prior to April 28 of 1997, do you know whether WHCA 
provided any information pursuant to any document requests?
    Answer. Provided any information, yes.
    Mr. McLaughlin. Counsel, you mean from 10/94 to the present, or to 
April 28, 1997?
    Mr. Wilson. Correct.
    Mr. McLaughlin. Okay.
    The Witness. Any time we received a request for documents, the 
request came from the Counsel's Office, to the White House Military 
Office and ultimately to us. And all of those requests required a 
negative response, or if you had documents. So we either responded 
negatively or responded with a document.
    Question. I don't want to include anything that is not germane to 
document requests pertaining to the sort of umbrella campaign finance 
investigations.
    Mr. McLaughlin. Except for the February of '96 one that you have 
requested.
    Mr. Wilson. Well, I'm not referring to that now. I asked a question 
about that; they provided information. I don't quite understand----
    Mr. McLaughlin. You just said you weren't interested in things 
other than campaign finance----
    Mr. Wilson. Germane to this question.
    Mr. McLaughlin. Fair enough. I want the record to be clear.
    Mr. Wilson. Well, you will have an opportunity to follow up at the 
end of my questioning, and hopefully you will take an opportunity to do 
that, but these needless interruptions are not productive.
    Mr. McLaughlin. My obligation here is to ensure the cold record is 
clear. As you know, Mr. Wilson, I am intolerant of sloppiness and 
indecision, and when I detect it, I will state as much for the record.
    Mr. Wilson. And on occasion you are in error yourself. I wasn't 
referring to February of '96, you brought in an extraneous issue and 
needlessly interrupted my question. You might have thought there was a 
purpose to it, but there was not.
    Mr. McLaughlin. I apologize that my intelligence does not match 
yours, Mr. Wilson, but when I detect something confusing to me, I am 
going to state as much for the record. It is important to the success 
of this process, whatever it is, that the cold record that is produced 
from today's deposition be clear.
    I encourage you to move forward with your questions. I don't think 
this is a productive discussion be holding on the record.
    Mr. Wilson. Neither do I.
    Lieutenant Colonel Sparks. Jim, I'm sorry, I just want you to 
appreciate and to understand that the document requests they get are 
not all confined to this--to campaign finance reform. As long as you 
keep that in mind----
    Mr. Wilson. I understand, and I know it is difficult to parse one 
thing to another; and to the extent you can, you can. If you can't, 
tell me you can't, and I will try to be more clear on the subject.

                       EXAMINATION BY MR. WILSON:

    Question. I suppose the most direct way of getting at this is for 
requests that are germane to the campaign finance investigations--it is 
complicated, diverse; they come from different directions--but when was 
the first time WHCA provided any type of material germane to document 
requests?
    And, I mean, I understand if you interrupt me and say you can't 
answer that question.
    Answer. I can't give you the first date. I just know that there 
have been requests that relate to campaign finance activities, and 
there have been a series of memorandums, but I can't tell you the date 
of the first one or when we were aware of it.
    Mr. Wilson. I am providing Colonel Simmons with a document that is 
marked for the record JS-3. It is a copy of a subpoena that originated 
with the Government Reform and Oversight Committee of the House of 
Representatives, and it is directed to the counsel to the President.
    [Simmons Deposition Exhibit No. JS-3 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. You can take a moment to look at it, but the question is 
relatively simple and that is, did you ever receive a copy of this 
subpoena or sections of this subpoena?
    Answer. I have not received a copy of this subpoena.
    Question. Do you know whether, on or about March 4 of 1996, you 
received any communications or inquiries from the White House or the 
Office of the Counsel at the White House requesting information of 
any--I mean, take a moment and have a look at this if you would like--
requesting any of the information that is requested in this subpoena.
    That is an unfair question.
    There is an awful lot of information that is requested in the 
subpoena. I don't want one small part of it to be something that would 
cause you to sit here and read for 2 hours, but were you aware in any 
way of a subpoena coming from the House of Representatives to the White 
House that might have included information that WHCA had in its 
possession?
    Answer. No, I was not aware.
    Question. I will provide for Colonel Simmons a document that is 
marked Exhibit JS-4. It is a memorandum addressed to Executive Office 
of the President, from the Counsel to the President Charles Ruff; it is 
dated April 28, 1997.
    [Simmons Deposition Exhibit No. JS-4 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. And if you could take a moment just to look at this. It 
is a four-page document, two pages on attachment A that goes for two 
pages.
    Have you ever seen this document before?
    Answer. Yes, I have.
    Question. Did you receive it on or about April 28 of this year?
    Answer. Let me expand my answer. I have seen this document as a 
result of the inquiry about tapes. Initially, I had not seen this 
document in its entirety.
    Usually, correspondence of this nature--and I will say how we have 
handled other inquiries. My Deputy/Chief of Staff, Colonel Campbell, 
would usually deal directly with the White House Military Office as far 
as these types of inquiries from counsel. The reason I am familiar with 
this document is because when the request came through--and I am 
relating to you what I have learned as of my investigation of this 
whole issue--the attachment, a list, there were what we would call 
``hits.''
    We had documents when we did our search that surfaced as a result 
of doing the search on the names and entities, and that was made aware 
to me because they were of a classified nature. In other words, the 
names or entities were in the text of a classified message and there 
were about four messages, I believe; and that was--and I knew that 
because Ken and I have a very good relationship, and he is very 
thorough. And he says, well, we got hit on this one and, he says, it is 
classified; and I know there was a process that we had to initiate 
because it was classified message traffic, and we were making copies of 
it.
    Question. Do you know when this was?
    Answer. This had to be around the early May time frame, and the 
reason I state that is because I remember distinctly getting ready to 
leave for a trip, and my deputy was briefing me on what had happened.
    Question. And you indicated that you received certain specific hits 
when you were doing a search for material. What individual entities did 
that involve?
    Answer. All the entities that have access, that have databases; and 
this is a result of my perusal, various correspondence from various 
organizations within WHCA, e-mails, stating that they didn't have 
documents or so forth, so it--I know the process was implemented, the 
search was conducted.
    Question. Well, I think that was truly a time when my question was 
completely misleading. I was actually referring to when you obtained 
information about--you know, pursuant to the document request that 
involved certain people who were in the--and the information was of a 
classified nature, but it involved--and what I am asking is, who did 
that information involve, the individual, the entity.
    I am not asking for the substance or the copy of the classified 
material, but who did it involve?
    Answer. You want me to name them?
    Question. Yes.
    Lieutenant Colonel Sparks. Do you mean on here?
    Mr. Wilson. No, no.

                       EXAMINATION BY MR. WILSON:

    Question. I believe you testified that after receiving a document 
request, you did searches, you initiated searches?
    Answer. That is correct.
    Question. And certain information came up pursuant to that search?
    Answer. That is correct.
    Question. Or searches, and it involved certain individuals or 
entities?
    Answer. Correct.
    Question. I am just interested in what it was that was responsive.
    Mr. McLaughlin. You have testified there was correspondence coming 
back into the office from the various divisions of WHCA, and maybe the 
question is, which division came back with hits?
    Lieutenant Colonel Sparks. Is that your question. Your question is, 
which of these----
    Mr. Wilson. Precisely who was involved----
    Mr. McLaughlin. It is not, which individuals on there came back; it 
is, which individuals were involved in doing the search for hits?
    Mr. Wilson. No.
    Mr. McLaughlin. You want to know which individuals on the list came 
back, affirmative?
    Mr. Wilson. Yes.
    Mr. McLaughlin. Including the classified ones?
    Mr. Wilson. Yes, exactly.
    Mr. McLaughlin. Do we need to classify this deposition?
    Lieutenant Colonel Sparks. Do you even remember.
    The Witness. I know one name.
    Lieutenant Colonel Sparks. The problem is, that may be the one that 
is included on the request.
    Ms. Comstock. If we could go off the record for a minute.
    [Discussion off the record.]
    Mr. Wilson. Back on the record.

                       EXAMINATION BY MR. WILSON:

    Question. To follow up on my last question, the answer to the 
question is clear. It involves information that is still of a 
classified nature that counsel for Colonel Simmons has indicated that 
he will provide, in the appropriate forum and at the appropriate time, 
which I believe will be within the next week or so.
    Lieutenant Colonel Sparks. Sure.
    Mr. Wilson. As soon as is practicable, the information that would 
follow from my question. And we will move from that question.

                       EXAMINATION BY MR. WILSON:

    Question. In response to the April 28th memorandum, I have got to 
admit to being a little bit lost in where we are on this, but I was 
going in a certain direction and the direction was information that was 
provided by WHCA, pursuant to this request for information.
    Outside of anything that involves classified information, did WHCA 
provide documents that were responsive to this information request?
    Answer. Outside of those documents that I just talked about, that 
was it, that was the extent of what we provided.
    Question. Do you know who at WHCA was responsible for checking 
within WHCA to determine what was responsive to this document request?
    Answer. I know that my deputy, Colonel Ken Campbell, handled this 
request.
    Question. Were there any other individuals that were involved in 
the supervising?
    Answer. Well, what he did is, he sent an electronic e-mail, an 
electronic mail-out, with the attachment A names and entities, to all 
of the organizations within WHCA.
    Question. And do you know whether the e-mail that he sent out 
included just the names that are listed on attachment A, or did it 
include any of the text of the first two pages describing the document 
request?
    Answer. As a result of my perusal of this issue, I know he sent an 
e-mail out with attachment A.
    Question. But none of the material----
    Answer. None of the material, but the other two pages.
    Question. If you could give me an overview on the sort of diverse 
information, upon what was received and what wasn't received, do you 
know whether your deputy had the entire April 28 communication from 
counsel to the President, or did he just have the attachment?
    Answer. My discussion with him, he can't remember the entire 
document. And we reviewed this numerous times. He can't remember it. He 
is not saying it didn't exist, but he can't remember an entire 
document.
    And the reason that this amplified out a little more, usually the 
requests that we received from the general counsel were of the nature 
where there would be some text or paragraph; and then it will all point 
to the attachments and our lists with names. Even sometimes it was a 
single-page request with a list of names, and our entities on it, names 
of individuals, and that is the format where they usually came.
    For some reason--and we have tried to trace this back--he doesn't 
remember the top two pages. The White House Military Office says they 
faxed it to us, and so we are not denying that, but as a result, all we 
saw and all we have a record of is attachment A and his e-mail going 
out.
    Mr. McLaughlin. Can I ask a follow-up?
    Is only attachment A what you found in your files when you pulled 
your file later?
    The Witness. The hits that were taking place, yes, we used these 
names and entities as keys for the search.
    Mr. McLaughlin. I'm sorry, my question was unclear.
    You testified that recently you pulled your file to look at the 
document requests that had come from the Counsel's Office?
    The Witness. That is correct.
    Mr. McLaughlin. In your file, was there a four-page document on 
April 28, including the first two pages that are now in front of you, 
or only attachment A.
    The Witness. I only saw attachment A, and it wasn't even a fax 
copy.
    Mr. McLaughlin. It was a hard copy?
    The Witness. It was a hard copy.
    And now the way he sent the e-mail out, he had to scan that list 
into the computer and send it out, and all we have--because if it is a 
fax copy, you have a little date and a time at the top--and all we saw 
was just, I guess, a reproduction of the printout of attachment A.

                       EXAMINATION BY MR. WILSON:

    Question. You anticipated my question. We know about your files.
    Now in terms of--I have forgotten the name of the individual.
    Lieutenant Colonel Sparks. Al Sullivan.
    Mr. Wilson. No, who sent out the e-mail.
    The Witness. Colonel Campbell.

                       EXAMINATION BY MR. WILSON:

    Question. Yes, Colonel Campbell. Did you conduct a search of his 
files?
    Answer. Oh, we searched the entire office. We turned it upside 
down.
    Question. And what was contained in his files, if anything?
    Answer. Well, my files and his files are just one file, and--just 
for point of clarification, it is just one file that exists. But we 
have looked everywhere, and we just could not find the April 28th fax 
of the first two pages, or the entire message.
    Question. To the extent you know methodologically, the attachment A 
that we have in the document you have been shown as Exhibit JS-4, has a 
number of names of individuals and a number of names of entities, 
mostly companies or corporations.
    In terms of the method of searching for the material contained in 
this attachment, do you know how the searches were conducted?
    Answer. I don't know exactly how the searches were conducted; only, 
in my discussions, as have been told to me, we used the names and 
entities as keys for the search and would make queries based upon the 
names and the entities. That is the way that it was done.
    And as a result of that, we did get a hit.
    This was the most extensive list that we have received from the 
Counsel's Office.
    Question. Do you know who was involved in actually doing the 
database searching to determine whether materials related to these 
individuals or entities could be found?
    Answer. No, I don't know by name who did it. I just know that 
organizations, all the organizations in the White House Communications 
Agency conducted a search.
    Question. Do you know whether there was any discussion at the time 
on how a search might best be conducted to determine whether WHCA had 
information about the individuals or entities in this attachment?
    And I ask that--maybe you can provide me a narrative answer. It is 
my understanding that the materials in the WHCA files--it is my 
understanding from your answers to earlier questions that many of the 
materials are listed by a date or an event name; and if there was 
material pertaining to an individual, there might be no record of that 
individual, and it would be known by everybody searching the materials 
there might be no record of the individual in the database.
    Answer. Well, let me see if I understand your question, and try to 
answer it.
    The issue is that, yes, in the audiovisual world, the date is the 
best thing to use when you are searching through it. However, there are 
titles in there. I don't know specifically if there are names, unless 
it is a name of an event, and the event might have a name of an 
organization, et cetera, okay?
    But as to the other databases, the mainframe computers and the 
servers that--and the comm center database, as far as message traffic, 
and those types of databases, could possibly have names. So the dates 
are significant, and I think probably may have more meaning to the 
audiovisual and the--the audiovisual world as far as video- and 
audiotapes or the name of an event.
    Question. Apart from the materials that are provided as attachment 
A, that we are looking at right now, did you ever receive, in the basic 
time frame of the April document request, any other information or 
instructions to either clarify or amplify this document request?
    Answer. No, sir, as far as I know.
    Question. As far as you know, this is it?
    Answer. As far as I know, this was it.
    Question. Do you know whether your office ever made a request of 
Counsel's Office or anybody at the White House to provide any more 
clarifying information or any information that would help assist with 
searching for the material requested in this document request?
    Answer. I do not. And I will amplify that question and my answer. 
If my organization receives and I rest assured they received attachment 
A, they would conduct a search as they had other correspondence from 
the Counsel's Office, and this was the only one where something did 
surface, so they probably would have said, well, it wasn't an exercise 
in futility.
    Lieutenant Colonel Sparks. All I was going to say is, your question 
suggested that it was unclear when they got this. You said, seek 
clarification.
    Mr. Wilson. That is an unfair implication, which I don't mean to 
leave. I am just wondering, and I will explain because it is hard to 
ask the question in one sentence.

                       EXAMINATION BY MR. WILSON:

    Question. In retrospect, as we have received copies of tapes that 
involved coffees, it strikes me as being very difficult--if you are 
trying to find a particular individual in one of the tapes, or as the 
subject matter of one of the tapes, it would be very difficult to find 
that, searching through the database, unless you actually viewed the 
tape or unless the database was so comprehensive as to have a list of 
all the individuals within the event.
    So I am just sort of getting at the overview of when whoever was 
doing the searching looked at this, attachment A, and made a decision 
that they were going to do a search in a certain way, whether there was 
any other back and forth between your office and the people doing the 
search for your office or other offices in the White House, whether 
somebody said at any point in the process, it would be very difficult 
for us to know whether we have any information about individual A 
unless we know the date they came to the White House or more 
information.
    And so I am just trying to bring out whether you know of any 
additional communications between either your office and the White 
House or any offices within WHCA to provide a full search for the 
information requested.
    Answer. I know of no additional information or discussion on that.
    Question. Once the search for information requested in the April 
28th communication was completed, if you could, please describe the 
certification process or what WHCA did to indicate that it had 
completed that search and complied with the search.
    Answer. I believe that there was an E-mail or a facsimile--it had 
to be handled a little bit differently because of the classified 
nature, and that's the only reason this particular memo comes to mind. 
We had alerts, the White House Military Office, and there was a form 
that we had to fill out as far as releasing this classified traffic 
because it would accompany a packet that was going to be enclosed and 
ultimately sent back to the general Counsel's Office. So I know there 
was correspondence from us back to the White House Military Office.
    Question. Was that exclusively E-mail communication?
    Answer. No, I'm not sure--I doubt if it would be E-mail, because of 
the nature of the messages and so forth. But I don't know specifically 
how it got back, but I know that it did.
    Question. And that's because of the classified nature of the 
material?
    Answer. That's right.
    Question. That you would not have transferred that through E-mail?
    Answer. That's right.
    Question. Have you conducted any search of your files to determine 
or try to reconstruct what went on between your office and any office 
in the White House?
    Answer. Well, when this issue surfaced, I didn't even know about an 
April 28th memo because you don't carry dates in your head. And then 
someone said it was a four-page document and also that it had a cover 
memorandum from the Chief of Staff of the White House Military Office 
attached to it. And in my discussions with Colonel Campbell, he doesn't 
remember it, however, the list was in our file when we looked through 
it. A list of names and entities, and that was all that was there. And 
as far as his--and also his E-mail directing the other units within my 
organization to conduct a search on the attached names.
    Lieutenant Colonel Sparks. Excuse me, was your question what did 
they do to show that they had done the search, certifying the search?
    Mr. Wilson. Well, the question was just, subsequent to the tape 
issue coming to light, had either yourself our your deputy gone back 
and reconstructed in your files the exchanges between WHCA and the 
White House vis-a-vis this first document request.
    Mr. McLaughlin. By the White House, do you include the White House 
Military Office or do you mean agencies other than the White House 
Military Office?
    Mr. Wilson. I include any organization subsumed under the White 
House umbrella.
    The Witness. Okay. Are you talking about when this was done?
    Mr. Wilson. Yes.
    The Witness. Okay. I know that the White House Military Office was 
notified about the results of this particular search, as other 
searches, because, and you will have to ask Colonel Campbell, I believe 
that he usually sent an E-mail back to the White House Military Office 
saying we have conducted a search. Because the memo that would 
accompany this from the White House Military Office would ask for a 
reply, either positive or negative, and negative replies were required.
    [Simmons Deposition Exhibit No. JS-5 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. If you could take just a moment to review a compilation 
of pages that have been marked Exhibit JS-5. The first page is dated 
April 29. There are four pages in this document.
    Answer. Okay.
    Question. And bearing in mind that these are documents that come 
from different locations and that they don't include your name, I'm 
trying to get a sense of the certification process, WHCA's 
certification that it in fact completed searching for material that had 
been requested in the April 28 communication.
    If you could, just give us an overview, a narrative of what the 
certification process entailed and how the documents that you have in 
front of you, these four pages, fit into the certification process.
    Answer. I can't really speak to that, only because the deputy 
handled it, and I know that they were done and I was apprised of it if 
something did surface. I don't believe that's unusual in a military 
organization. I believe he would be the best person to speak with as 
far as what type of certification process.
    I had, during the course of looking at this, of seeing some E-mails 
from members of our organization saying that they had a negative reply, 
as far as that. And I know--and I believe, as thorough as my deputy is, 
he would compile all that and then transmit something back to the White 
House Military Office via either E-mail or facsimile.
    Question. Is it fair to say that your involvement in the 
certification process was limited to being told that the searches had 
been conducted?
    Answer. That's correct.
    Question. Or that they had been completed and material responsive 
had been in fact forwarded to the White House?
    Answer. That's correct.
    Question. Do you remember any or did you have any other 
conversations about certification, or do you remember anything else 
about it?
    Answer. No.
    Question. Was there ever any discussion about whether or not 
materials would have to actually be brought from the archives to be 
reviewed in order to check on whether compliance with the subpoena was 
completed or not?
    Answer. I'm not familiar with any discussions about materials being 
brought from archives, no.
    Let me go back and make sure I understand. You are talking about at 
that time; right?
    Question. At the time; correct.
    Answer. In April, no. Or previous other memoranda.
    Question. And sort of the simplest way of looking at this is to 
think of it in terms of anybody coming to you, or anybody you know of, 
and saying we can't really comply with this unless we pull out all our 
material from the archives, review it and decide whether the people 
involved or the companies involved, corporations involved are in the 
tapes.
    The question is directed at that, whether anybody came and said 
this is going to be really difficult for us to comply with without 
doing a lot more work.
    Answer. You act like my agency is just one big video and audio 
agency. It is not. There are so many other pieces and parts. The 
information services that we provide are huge, so the searches--I 
know--I feel very confident that these searches were done, and I even 
feel more confident about this 28 April memo, that a search was done on 
attachment A, because documents surfaced. Those searches were conducted 
and people will do exactly what they are told.
    Now, in the video and audio world, they would also do those 
searches. And the only reason I know that is I asked them, and I have 
no reason to doubt them.
    Now, the thing is, when you just know a small piece of a big 
picture, it's very difficult when you are a repository of many 
databases. So it seems like someone would sit down with you and discuss 
how they want to retrieve certain materials, if you wanted to do 
certain things.
    And that's me speaking, and, yes, Monday morning quarterbacking and 
thinking about it now, because we can do these types of searches, and 
we will do them very rigorously, but if we don't know how it plays into 
the full picture, then you might not get the type of information you 
want.
    Question. And that's what I'm trying to draw out here.
    Answer. Maybe I'm going overboard.
    Question. No, that's what I want to derive, and it is difficult to 
ask in a simple question.
    But in retrospect, when you look at what has been received and the 
types of requests that were made, it seems to me that it is difficult 
to obtain information without actually having reviewed some of the 
underlying material. And I just, I don't have any experience with the 
database.
    Answer. Right. Well, there are numerous databases in the White 
House Communications Agency, and the only ones that were not generating 
hits at the time were the ones in the audiovisual unit, which is our 
topic of discussion right now.
    Every one, and even they went through the process, but you 
weren't--you didn't retrieve what you have right now, and it would have 
required--one memo like this would not have done it. You would have to 
sit down with us and discuss the entire situation, and that's it, 
point-blank. So that then we can size the requirement and say, oh, we 
have these different types of databases. Well, you need to give me some 
dates and some events, because I'm not going to be able to do this on 
an audiovisual piece.
    Now, I can search through here, and I would do a name search on an 
audiovisual piece just in case a name came up, but if you really want 
to know, I have people that film that have no idea who is in 
attendance. So I need a date, if you can cite a date. And, ultimately, 
that's how these tapes were derived, dates were given, events were 
specified and, bam, it happened.
    So if someone had laid out the full thing to us, this whole issue 
would not have surfaced. So we weren't brought in, and I'm just 
speaking from the heart, the way that I think that we should have, and 
the agency has taken a lot of hits before that, and I think unfairly. 
And when someone just brought you into a small piece and said look at 
this, and we did, we did the job. We didn't--we don't hit wrong keys at 
WHCA. We'd be out of a job.
    So we did what we were told. We thought that was sufficient. We 
certainly felt good about this memo because something did happen. And 
until now, you know, I really don't understand it, and I'm probably 
getting a little bit too emotional, but you have got--any communicator 
knows that in order to support his commander he has to understand the 
intent. If you don't give me that, I can't provide the communications 
you need or the support.
    Question. Following from the April 28th communication and the 
materials that you provided, did you receive any ensuing requests or 
information from the White House about that document request? Was there 
anything that followed up from that?
    Answer. This?
    Question. That's the next thing.
    Answer. To my knowledge, no, sir, I did not.
    Question. And prior to relatively recently, when White House 
counsel did come back to WHCA and did ask for additional information, 
was there any other communication from the material we've looked at in 
Exhibit JS-5 to the first time White House counsel came back and made 
such a request about coffee tapes?
    Answer. Let me make sure I understand. The only reason I remember 
this correspondence is because there were some hits on it that we 
compiled during our search.
    Until August, and the only reason I remember that date is because I 
was coming back from Martha's Vineyard, it was August 29th, my chief of 
operations officer, Mr. Smith, told me that he had a meeting with Mike 
Imbroscio and there seemed to be some concerns.
    And I didn't--you know, I trust my operations officer. He said he 
had to go to a meeting, and I understand, and I left it at that. And it 
was from the Counsel's Office. And only through subsequent 
conversations with him did I determine that--I can't give you the exact 
time frame, the exact dates, but I will start with the 29th of August 
because I remember that's the first time.
    Question. If you could keep going with the narrative.
    Answer. Right, 29th of August is when I heard the name Mike 
Imbroscio and a meeting, and as a result of some discussions, and I 
can't give the date, we're at the end of August so it had to be 
sometime in September, I was told by Mr. Smith there was a question 
from him if we did any clandestine taping or recording, and the answer 
would be no, as I stated to you.
    And then there were some discussions--the next date that I can give 
you was 30 September. I had returned from a meeting in the White House 
and Mr. Imbroscio and Mr. Smith were discussing an issue, and they were 
just wrapping up their session, and that's when Mr. Smith told me that 
the issue of tapes came up. And this is the first time that it was 
brought to my attention that we had a concern about videotapes. Tapes 
in general, I will say that.
    Question. Where was the meeting between Imbroscio and Smith?
    Answer. It was in Room 592 in the Old Executive Office Building.
    Question. And at that time did you have a clear understanding or 
did anybody give you a clear understanding of what the White House was 
asking for in terms of giving them WHCA material?
    Answer. My understanding of that discussion that Mr. Smith had with 
him, I believe that Mr. Imbroscio understood that we had a database and 
that you give us a date or a specific event, and realizing the date, we 
could probably see if we had the information that was being requested, 
and he offered him the opportunity to see that, that database.
    And later on, and I believe it was 1 October, is when he actually 
sat down and started putting in dates and events and started getting 
hits.
    Question. Do you know whether prior to that time any media 
representatives had ever made requests about material that WHCA kept 
pertaining to coffees or any of the campaign finance investigation 
subject matter?
    Answer. At least none of those requests were funneled directly to 
me. Now, you know, my audiovisual people, as I have stated before, are 
in contact with media people, and you would have to ask the 
supervisors, but that's usually not the norm for them to request from 
us.
    Question. Does WHCA have a media relations office or an office that 
deals with the media?
    Answer. No, we do not have an office other than we interface with 
the media affairs in the Press Office of the White House. The White 
House Press Office.
    Question. Your narrative was good because it allowed me to go 
through a lot of questions here and eliminate them. So that is a 
positive thing.
    From the time that Mr. Imbroscio and Mr. Smith were talking to each 
other about possible responsive material and videos kept by WHCA, who 
was involved from that point on in the responses to White House 
Counsel's requests?
    Answer. What time frame?
    Question. From September 30th through the ultimate copying of the 
tapes.
    Answer. Legions of people.
    Question. That's going to be a lot of people?
    Answer. That's going to be a lot of people.
    Question. But to the extent you can direct towards offices or 
supervisors, Smith----
    Answer. The supervisors would be, well, Mr. Smith is my chief of 
operations, who had the discussion with him; Chief Petty Officer 
McGrath, Staff Sergeant VanKareun, and a staff sergeant--those would be 
the main ones that would be involved. And then there are legions of 
other troops that make this whole thing happen.
    Question. And I think it would be quite helpful, actually, if you 
could continue the narrative from the time Imbroscio and Smith were 
talking through the searches and up until the point where materials 
were copied. If you could provide additional narrative on that, it 
would be very helpful.
    Answer. Okay. I know that the issues of tapes came up the first of 
October, and didn't really hear anything until the following week and 
then there was--that's when I was informed about an April 28th memo by 
the Counsel's Office and it said that it had coffees in it. And I said 
I don't remember anything and all of this.
    I guess a lot of people were upset. I was upset because it looked 
like it was being projected that we were holding back tapes, and that 
is not the issue at all. The issue is that we were responsive to the 
request and we provided that.
    And then it was decided that the tapes needed to be retrieved, and 
so we just conducted--pulled everyone in in the audiovisual unit, in 
the event productions, and went up to master control. We had several 
interfaces with the White House Counsel; more people--I didn't know 
they had so many people. Every time I turned around it was a different 
face. And they were asking to understand--and this was all during the 
week of the 7th, I think, through the 10th. Or 6th through the 10th. 
Maybe the 5th. I'm a little fuzzy. But, anyway, through that period, 
and we started retrieving material.
    We had to put guys through 24 hours almost nonstop, getting two and 
three hours sleep. And we have reviewed, that I know of, over 600 some 
tapes. These are Beta cam tapes.
    Question. And when you state we reviewed, was that reviewing the 
tapes----
    Answer. We retrieved the tapes from the archives and members of the 
White House Counsel viewed them and identified the ones that they 
wanted.
    Question. And where did the viewing take place?
    Answer. That was all conducted on the fifth floor in the master 
control facilities in the Old Executive Office Building, my facility.
    Question. Did WHCA have, or at least WHCA personnel have custody of 
the tapes at all times during the review process?
    Answer. Yes, we did. And as a compilation, when we compiled all the 
tapes, and the ones that were identified by the counsel, my people went 
through a process of converting those Beta tapes to VHS, which is a 
lengthy process. I'm sure Chief Petty Officer McGrath will take you 
through it step by step, and the labeling.
    And as a result, the initial number was 66. Because you can--the 
Beta tape is usually 30 minutes. And when you put it through our 
devices, you can load four hours' worth of Beta tapes onto one single 
tape and then eventually dub it to a VHS tape. And we signed, we 
identified all those tapes by number in conjunction with the counsel 
and had a chain of custody inventory of which we now have record of.
    Question. Where did the copying take place?
    Answer. It took place up in my master control facility on the fifth 
floor.
    Question. Just to finish off on sort of the pre-coffee controversy 
period, the April 28th memo was sent out and received, or received in 
part. Between that time and the time that material was copied and 
produced to congressional and Department of Justice, to the extent it 
was produced to the Department of Justice, was any other campaign 
finance related investigatory material produced to anybody?
    Between the period of your furnishing information pursuant to the 
April 28th correspondence and the tapes that have recently been 
provided.
    Answer. To my knowledge, no.
    Lieutenant Colonel Sparks. You need to clarify what you know or 
don't know about the production from the Counsel's Office to the 
agencies.
    The Witness. Oh, I don't know about that. I only know as far as 
WHCA. From the time we sent our correspondence back to the White House 
Military Office, reference this memo, which I believe was the 4th or 
5th of May--and the only reason I know that is because we were one day 
ahead of their suspense, and I guess the first of October, when we knew 
about the tapes. And then the following week when we started copying 
the tapes, we didn't provide, to the best of my knowledge, any other 
material to the Counsel's Office.

                       EXAMINATION BY MR. WILSON:

    Question. Correct me if I'm wrong, my understanding from what you 
have said is that once you provided that material and the 
certifications were made, that was the end of WHCA's involvement in 
document requests until the next requests were made?
    Answer. Well, really, until the 29th of August. Then it seemed 
that--and the only reason I cite that is because it seemed around the 
29th of August we had not heard anything from the Counsel's Office 
relative to what we do.
    Question. Turning your attention again briefly to the April 29 JS-5 
material, is the final page of that, which is from Alan Sullivan to 
Charles Ruff, would that be considered the certification made on behalf 
of WHCA?
    Answer. Yes. See, as you know, WHCA has other entities involved, 
and when a tasking comes to the White House Military Office, it usually 
involves the entire military office. They disseminate that tasking to 
each entity that resides under the White House Military Office's 
umbrella, and this is the authentication that would go back to the 
White House saying that it was done.
    Question. So was Alan Sullivan the principal signatory for 
correspondence between WHCA and the White House in an official nature 
of this kind? He was the final sign-off on this type of certification?
    Answer. From our perspective, yes, sir.
    Question. Do you know who was involved from White House staff in 
reviewing the WHCA materials that were reviewed from the beginning of 
October on?
    I say that because I don't want to limit it to just--well, let me 
divide it up into two things, the audiovisual tapes and then the audio 
tapes, and we can talk about them in a moment.
    But as far as the audiovisual tapes are concerned, who from White 
House Counsel's Office was involved in reviewing those tapes?
    Answer. Involved, as you are saying, looking at the tapes and 
sitting down?
    Question. Yes.
    Answer. You would have to ask my people exactly. I can only tell 
you the people that I have discoursed with in the Counsel's Office. But 
I did not physically see them sitting down viewing the tapes.
    Question. Do you know whether any non-White House Counsel's Office 
personnel were involved in reviewing any of the tapes?
    Answer. I usually try to stay away from absolutes, but when this 
whole incident surfaced, there is a Sergeant, first class Dixon who is, 
as I'm sure you can relate to this when you talk to him, he is OD 
green. I walk into a room and he snaps.
    Lieutenant Colonel Sparks. Can you say that again.
    The Witness. Okay. Olive drab green. That describes Army because of 
the uniform.
    He comes to attention. And when you talk to him he's always at 
attention. I have to put him at ease and say ``Stand at ease, Sergeant 
Dixon.'' But it is not an act, it's just the way he is.
    I told him, I said, Sergeant Dixon, don't let anybody in that 
master control facility that is not a member of the White House General 
Counsel. He says, yes, sir, I got it.
    I received a call from Sergeant Dixon. He said, ``Sir, the counsel 
wants to bring in some Senate investigators to review it.'' I said, 
``Sergeant Dixon, you have your orders.'' ``Yes, sir.'' They went away.
    So I feel fairly sure, and my organization functions on trust, that 
only counsel people got in there, outside of the people that work in 
that setting, because Sergeant Dixon, if you ever met him, he's a tough 
nut.

                       EXAMINATION BY MR. WILSON:

    Question. Do you know when that exchange took place?
    Answer. I can't remember the date. I just know that I gave the 
order and he gave me a call when someone made a request out of the norm 
and I told him no and he said--it had to be during--it wouldn't be 
during this week, or it would have been last week or the week before 
last?
    Answer. Prior to----
    Answer. Well, we're in this week. So last week.
    Question. Kind of hard to know what week we're in now exactly.
    Answer. Right.
    Question. But just trying to key in on that specifically. Prior 
to----
    Answer. When they were reviewing the tapes and requesting these, 
right as we were beginning to do it, and there was a request made and I 
had outlined to him that no one, and had talked to the Counsel's 
Office, and I spoke directly to Cheryl Mills. She said, no, only White 
House Counsel people and that's it.
    Question. And do you know who the individuals were that the attempt 
was made to bring in?
    Answer. Well, I believe they--and let me clarify that. A member 
from the Counsel's Office made a request to see if they could do it. 
The individuals were not standing outside the door, because there had 
to be a whole process to get there, but asked if we could. And then 
Sergeant Dixon, as dutiful as he is, called me up direct. I called to 
the Counsel's Office and spoke to Cheryl Mills personally and she said 
no, and that was it.
    Mr. Wilson. Can we go off the record for just a moment, please.
    [Discussion off the record.]
    Mr. Wilson. The record should reflect, and so that you know, this 
is David Bossie, who is one of the majority committee staff.

                       EXAMINATION BY MR. WILSON:

    Question. Turning your attention to the timing of the release of 
the tapes, do you know why the tapes were released to different bodies, 
congressional bodies, at different times, or tapes produced to the 
media, to different congressional investigative bodies and perhaps to 
the Department of Justice? Do you know why they were released at 
different times?
    Answer. No, I do not.
    Question. Were copies of the tapes made all at the same time so 
that X number of copies--well, actually, let me ask you that. How many 
copies of tapes were requested?
    Answer. The last number that I was told, and I believe there had 
been some subsequent, but the last number was 66 and six copies of 66 
tapes were made.
    The first increment that was delivered to the White House Counsel 
was 50, and they picked up those 50, which would have been 370, and 
signed for them. And then the last batch ended up to 66. But I believe, 
I understand that there has been requests of two. I don't know if it's 
another tape or what.
    Question. So that the actual--that's the video--physical copies of 
the videotapes were all made at the same time?
    Answer. Yes.
    Question. They weren't made on a rolling basis?
    Answer. Well, when the 50 were handed over, they were beyond 50 and 
ultimately they got to the number 66.
    Question. And turning to the audiotapes, how many copies of 
audiotapes were made?
    Answer. I don't know how many copies. I just--I said the number 
126, and I don't know if that's times something, what multiple that is 
or what. But I was told 126 audiotapes.
    Question. You mentioned six copies of the body of audiovisual tapes 
that were made. Did WHCA personnel make multiple copies of the 
audiotapes as well?
    Answer. You would probably have to ask my technician about the 
audiotapes. My focus was mainly on the video because that was the most 
intensive effort because of the whole process that had to be set up as 
far as getting it from a Beta to a VHS, and whereas with an audio it 
was very easy to dub and you can do it very quickly.
    Question. Who is the one individual that was ultimately in charge 
of producing the copies of the tapes?
    Answer. There was no one--well, I guess, to whom did I--there were 
two people I spoke to, Chief Petty Officer McGrath and Chief Petty 
Officer Fischer. Those two technicians can probably tell you just 
everything.
    Fischer is an engineer type. He's the one that--we had a limited 
number of VHS machines that we could use, and we had another rack in a 
room, and he even set up a special operation for this and he wired that 
together. He was the technical piece. But he was also the one that 
would call me as far as the number of tapes that were being done and 
where they were and so forth, because there was concern about meeting a 
deadline, and Chief Petty Officer Fischer kept me apprised of that 
along with some other senior people. I had majors, lieutenant colonels 
in there also. But as far as the technicians that were there from in 
and out, it would be McGrath and Fischer.
    Question. Do you know who made the decision to take individual 
tapes and record them into a compilation? Take individuals and put them 
into sort of a multiple tape?
    Answer. You would have to ask McGrath and Fischer. That was part of 
the process.
    Question. But that was not something that was discussed?
    Answer. No, it wasn't discussed. I knew they were up there and I 
knew there was viewing going on, but I didn't walk in on the process.
    Question. Do you know whether Webster Hubbell appears on any of the 
tapes that were in WHCA's control?
    Answer. I have not viewed the tapes, other than the ones I have 
seen on television.
    Question. Have you either received or had produced a written report 
of the materials that have been produced to White House Counsel's 
Office?
    Answer. I know there are a chain of custody documents that we have 
of what we have provided to the White House Counsel.
    Question. And does that chain of custody documentation indicate 
with any specificity what has been provided or is it just listing the 
date?
    Answer. Well, the tapes--let me tell you one process that I was 
directly involved in. I was involved in delivering 39 original--I won't 
even say original, because I wasn't in the archives and retrieved them, 
but they came from the archives. They were in Beta form, 39 of them. I 
inventoried them personally, Mr. Smith and I, and we hand carried them 
over to the White House Counsel's Office and inventoried them to show 
them those and handed them over there.
    And I know that process was implemented throughout with the tapes 
that I was producing as a result of the screening. And it listed the 
number on the tape. There is a little serial number. Also matching the 
number inside the Beta film number. And it listed those numbers and it 
had a signature for the person who had it and then who we released the 
chain of custody to.
    Question. And you gave those tapes directly to Ms. Mills?
    Answer. Certainly did. She even locked them up in the safe.
    Question. So at that point the chain of custody, the tapes came out 
of the archives, you had control, you gave them to Cheryl Mills and she 
put them in a safe?
    Answer. That's right. And I know that for a fact, because when you 
query Chief Petty Officer McGrath, he called me when those tapes 
arrived from the archives and I went down there immediately, and we 
went--Chief McGrath and I did an inventory. There were more inventories 
done that night than anything. And both of us were involved.
    And it was just checking, because we knew there were 39 tapes. And 
then Mr. Smith, Chief McGrath and I compiled a list and developed this 
form and did an immediate chain of custody. And this was in conjunction 
with Cheryl Mills, because she wanted it just like this. She said this 
is the way to handle it. So it went from--it came from the archives, to 
us, to counsel.
    Question. But they had not been reviewed at that time?
    Answer. I don't know what the status of those tapes were, but I was 
just very sensitive about, as any one of our people, and especially 
with all the discussions about videotapes coming out of the archives, I 
didn't want anything to happen in between and somebody--so there is a 
chain of custody for those tapes.
    Question. And where did Ms. Mills put the tapes?
    Answer. She said that she was going to put them in a safe. I didn't 
physically see her place them in the safe.
    Question. And with those 39 tapes, do you know what happened next 
to them?
    Answer. I understand that they were supposed to go to the 
Department of Justice.
    Question. Now, I'm at a bit of a loss. I'm a bit confused here 
because here we have tapes coming from the archives through you to 
Cheryl Mills to a safe to the Department of Justice.
    Answer. That was my understanding.
    Question. But you hadn't reviewed them at this point and no WHCA 
personnel had reviewed them at this point; is that correct?
    Answer. Those tapes that came from the archives, and you will have 
to ask Chief McGrath, my understanding they had not been--I won't say--
I don't know if bits and pieces of them had been or were the result of 
the query that Mr. Imbroscio did, because there's a number 44 out 
there, there's a number 40, but I know I took 39 and that's all that I 
can vouch for.
    There were 39 tapes that I took over to the White House Counsel's 
Office from the archives. I don't know what the process was, as to why 
they were asked for and why they had to be over at the Justice 
Department.
    Now, well, things start coming when you start talking. I understand 
they had to go to Justice--well, I heard a discussion about Justice 
Department amplifying the audio on some of the Beta cam tapes. I don't 
know whether they went over there for that purpose or what.
    Question. How did those 39, to the extent you know, how did those 
39 tapes fit into the universe of tapes that were ultimately reviewed 
and copied and turned over to congressional committees?
    Answer. I guess you'd have to ask Counsel's Office. I have no idea. 
I was a little bit--I'm still confused about it, but maybe there are 
certain things that--you know, I just know how the chain of custody 
came, and I know that the--you can ask McGrath, because I asked him. I 
was a little--I said we're doing this upstairs, now these are coming 
from the archives, you know.
    But I know I was told by--well, I hate to put names on it--Dimitri 
Nionakis that some tapes coming from the archives had to be at the 
Department of Justice, and it was the day prior to or the day that 
Attorney General Reno went and spoke before the House Judiciary 
Committee. I hope I'm not confusing things.
    Question. Well, that was last Tuesday. It was Tuesday of this 
current week?
    Answer. Yes. That was my understanding. But I could--I know that if 
you talk to the Counsel's Office they could explain it to you. But 
there was an effort ongoing, and I remember distinctly talking to 
Dimitri Nionakis, who was concerned about us completing the requirement 
because I guess initially there was a suspense. And I don't know 
whether it was extended.
    But then Counselor Ruff knew or was apprised of an effort that our 
people were giving to this whole issue, and you just can't push people 
nonstop, and so we had to implement sleep hours for them and ensure 
they received some rest so they could work efficiently and do this job. 
But Mr. Nionakis stated that the most important, and he even said, 
Colonel, this is what we must do, is we must get the videotapes that 
are coming from the archives to the Department of Justice.
    And that's when I was informed that, and I informed my Petty 
Officer McGrath, and he was aware of it, he was already aware of it, he 
says that's the most important thing; that has to happen. And as far as 
the time we were taking to go through our process of copying the tapes, 
this had priority.
    Question. Because these were original----
    Answer. I believe they were original.
    Question. The original tapes, and they could well be the subset of 
tapes that had already been reviewed and copied?
    Answer. Correct.
    Question. And you recall something about the digital enhancement?
    Answer. That's right. That's right.
    Question. I don't mean to put words in your mouth, but you don't 
know whether this was part of the Department of Justice's efforts to 
follow up on materials they already had?
    Answer. That's right, I don't know.
    Mr. McLaughlin. To be clear, it is your recollection that that was 
around Tuesday of last week?
    The Witness. Yes.
    Mr. McLaughlin. Tuesday being about, what, five days ago now?
    The Witness. Yes. When did Reno go up?
    Mr. Wilson. Tuesday.
    The Witness. Tuesday? So Monday night is, I believe it was Monday 
night when I took the tapes over to the Counsel's Office. It was the 
night before. It wasn't the same day.

                       EXAMINATION BY MR. WILSON:

    Question. And you have a log of the tapes that were transmitted?
    Answer. Oh, yes. Oh, yes.
    Mr. Wilson. Would it be possible to furnish this committee with a 
copy of that log, Counsel?
    Lieutenant Colonel Sparks. I will have to find out.
    Mr. Wilson. Okay.

                       EXAMINATION BY MR. WILSON:

    Question. Just a final area I want to spend a little time on is 
just the integrity of the tapes that have been turned over to various 
bodies interested in the tapes.
    I was actually going to play you a couple of examples and ask you 
some questions about those, but are you able to, do you feel you are 
able to affirm that the tapes that have been provided to this committee 
are exact copies of what WHCA recorded at the time the tapes were made?
    Answer. The only thing that I can affirm to is that, and that's 
because I have trust in my people, that the copies that were furnished 
to the counsel were the ones that were there. I can't account for the 
ones from counsel.
    Question. I'm actually not keying in on the 39 specifically.
    Answer. No, I'm talking about as far as the handing over of tapes. 
Here is another number. Sixty-six tapes ultimately to the Counsel's 
Office. The 66 times 6, I guess is what, 396 tapes. I know how those 
were done, and I believe my people and what was done was--they did it.
    Question. Have you been involved in any conversations about gaps or 
breaks in any of the taping of the specific events? Have you gone back 
and specifically been involved in the individual tapes?
    Answer. No, I have not.
    Question. Have you been part of any discussions involving breaks or 
gaps in tapes?
    Answer. Only through my counsel.
    Lieutenant Colonel Sparks. For the record, I did inform Colonel 
Simmons of the fact he might be viewing the same tapes that Mr. 
Sullivan viewed yesterday. To that extent.

                       EXAMINATION BY MR. WILSON:

    Question. Just sort of as an overview. Outside of actually sitting 
down and looking at tapes with anybody, have you been involved in any 
conversations about whether the tapes are complete or not complete?
    Answer. No, I have not.
    Question. Do you know at present whether this committee has 
everything that WHCA has produced to White House Counsel's Office, that 
WHCA has produced pursuant to the document requests?
    Lieutenant Colonel Sparks. Again, he's not involved in the process 
of the Counsel's Office's producing things to you.
    Question. Fair enough. To summarize, is it fair to say you know 
what you have given to the White House Counsel's Office but beyond that 
you have no knowledge of what has happened to the materials, where they 
have gone and where they have been produced; is that correct?
    Answer. No, no, I do not.
    Question. If we could, let us just run one of the tapes. Hopefully, 
technology will not fail us and we will get through this real quickly. 
Three tapes. The first tape is an excerpt of a conversation between Mr. 
Riady and President Clinton. It is tape number 63.
    Mr. Wilson. Before the tape commences, let me say that we will 
provide a copy of the tape to Mr. Sparks and we will provide a copy to 
Minority, and we will provide a copy to the reporter for inclusion in 
the record as an exhibit.
    [Tape played.]

                       EXAMINATION BY MR. WILSON:

    Question. That which we were hoping you would have an opportunity 
to look at is what appears to be a conversation between the President 
and an individual, and what appears to be a break in the taping and 
then resumption of taping shortly thereafter.
    You have testified that you have not seen any of the tapes. Have 
you had any discussions about this particular example?
    Answer. No, I have not.
    Question. Do you know of any information indicating any breaks or 
editing of any of the tapes that have been provided to this committee?
    Answer. As it relates to the White House Communications Agency?
    Question. Correct.
    Answer. Editing; is that your question?
    Question. Yes.
    Answer. We don't edit tapes. We do not edit tapes. In view of that, 
you need to understand how they operate, and once you get a technician 
in here I'm sure they can be a little bit more articulate and succinct 
about how we film.
    They are usually competing for space, because there are people in 
rooms, and I only know this from traveling with them, and then there 
are still photographers that just are trying to get the angle of the 
particulars. So you have someone with a camera that is filming, then 
all of a sudden somebody will stand right in front.
    And if you notice that someone almost walked directly into the 
camera, the first one there, so it looks like he probably positioned 
himself. The only reason I know this is because we had an event on the 
road and the camera people, they have a very, very difficult job, they 
set up to film, the still photographers came in and positioned 
themselves right in front of the camera, and the photographer had to 
change his angle. And he has a person, in some cases, with him with a 
boom mike, so they had to move around. And it is almost like you have 
to fight for space.
    So that one looks like he just repositioned himself so that he 
probably shut his camera off. And the only reason I know that is 
because I have done a little filming myself, because it looks like it 
is at a different angle when he is there with the President.
    But as a policy, anything we record, as I stated before, is a 
Presidential record. So we will not do any editing to it. It goes--what 
is filmed or what is recorded, that's the way it goes to the National 
Archives. That's it.
    Mr. Wilson. Let us set the second one up.
    [Tape played.]

                       EXAMINATION BY MR. WILSON:

    Question. Again, I know you have not seen the tapes, but----
    Answer. No.
    Question. But this is tape number 64, which was a radio address, 
labeled as a radio address from March 11, 1995, and again it appears 
that the tape has been cut off at one point in that.
    Discussing earlier radio addresses, you indicated that a lot of the 
radio addresses were taped audio, actually.
    Answer. Yes, it has to be on audio because it goes on a radio 
address.
    Question. Right. Do you know whether the preliminaries to radio 
addresses were also recorded? What generally was recorded for radio 
addresses?
    Answer. The presidential remarks were what was recorded. What will 
go in, and Sergeant VanKareun can guide you through it, is they do a 
test to get a feel for the amplification, but everything is very 
structured.
    There is an announcement, depending on if it's a live address, if 
it's a live address and it is going to be on air, they make sure that 
the people in the room, even when it is not live--I have been in a 
couple of radio addresses--they tell you exactly, they give you a 
countdown and announce, ``Okay, anybody who has any pagers, turn them 
off, cell phones, turn them off,'' so that there is no noise, because, 
you know, all that will be picked up because of the audio portion.
    So the mike is not live until the crew receives a nod that the 
President is about to come in, and then he sits down and usually he 
looks at his text, even though he has seen it before, but he will look 
through it and then he will say, ``Are we ready?'' And then that is 
when they hit it and go live. And then, as soon as he finishes, boom, 
that is it, because we know it is a radio address.
    Question. If you could run, the final tape has been numbered in the 
production we received, Tape No. 4.
    [Tape played.]

                       EXAMINATION BY MR. WILSON:

    Question. Then there is a break in that tape. Have you any 
suggestions as to why there might be that break, or have you discussed 
breaks like that?
    Answer. No, I have not discussed breaks like that.
    Question. Have either yourself or members of your office had any 
discussions with White House personnel to attempt to refine an 
official--a story or a uninformed version of events as to why tapes 
were found recently and not back in March or earlier this year?
    Answer. You are saying has anyone from the White House discussed 
with me why we have not found----
    Question. No, just----
    Answer. Why we didn't find tapes?
    Question. Well, discussed the public rationale for the discovery of 
tapes now and not earlier. Aside from the conversation with Imbroscio, 
have there been any official meetings to try and come up with a uniform 
version of what happened with the tapes?
    Answer. There have not been any meetings, no.
    Okay. Now let me--I am not sure, maybe I don't understand your 
question. Meetings, I know there have been discussions. You know, 
people have not come into the room in which the White House 
Communications Agency is a part, and people sitting around the table, 
and said, ``What happened?'' That has not been done.
    Question. Well, in terms of just discussions, what discussions have 
taken place?
    Answer. Well, when the issue surfaced about the tapes, there was a 
discussion as to this memo, the 28th of April memo, and that is when it 
was brought to my mind. I said, ``What memo of the 28th?'' In other 
words, coffees, this seemed to be the whole thing. He says, ``Well, 
coffees was mentioned in the April 28th memo.'' And I said, ``I haven't 
seen the memo that mentioned coffees.'' And so eventually I found out 
what this 28th of April memo looked like, and it still wouldn't have 
produced what they wanted.
    Question. Who was involved in that discussion?
    Answer. Pardon me?
    Question. Who was involved in that discussion?
    Answer. Well, I just had some--I talked to the White House Military 
Office, Lieutenant Colonel Greg Raths, I called Mr. Sullivan up when 
the date of this memo surfaced. I said, ``They are referring to a 28 
April memo, sir.'' I said, ``I haven't received it, at least I haven't 
seen it, and they are talking about coffees,'' and I said, ``I have 
never seen a memo that came out and just talked about coffees,'' and so 
I just--I was at a loss.
    I didn't know what was going on, and I knew there was a lot of 
turmoil being created in saying WHCA all of a sudden had tapes that 
related to coffees, and it was told to me that they were asked for and 
the Counsel's Office said that they had forwarded it. And I said, ``I 
don't even see the memo,'' and I had this discussion with Cheryl Mills, 
and she can tell you, I was a little upset--more than upset, I was 
furious, and I said I hadn't seen it.
    And so that is the--and I have had discussions with Mr. Smith, and 
it has sort of just been terrible that something like this would 
happen. But I am concerned about the White House Communications Agency, 
our organization, and we are the ones that sort of like, well, they hit 
the wrong key, when Mr. Ruff said that I wanted to jump through the 
television and grab him. But it seems like everybody gets air time, 
talking about June 13, 1996.
    Well, Congressman Zeliff got air time when he said I procured 
equipment that doesn't fit on a C-141 because someone told him that, 
the IG. And then when I brought him a picture, frame-by-frame, of it 
going on a 141, he says, ``Well, that is why we have committee hearings 
like this, Colonel.'' But it was too late, he had his 15 minutes of 
fame already on ABC. And now the word is out that WHCA, you know, hit 
the wrong key, and that is all the people focus on and that is not 
true.
    Question. I have one more question. A couple weeks ago when one of 
the investigators, one of my colleagues called you up to discuss 
various matters, he was told that he should contact the chief Counsel's 
Office at the time. Why was that?
    Answer. The White House Communications Agency does not, as a 
policy, interact with any other agency unless it gets approval from the 
White House Military Office, and that is just the policy. So before we 
say anything or give any type of correspondence whatsoever, it has to 
go through the White House Military Office, and that has always been in 
existence.
    Mr. Wilson. Okay. For right now I have no further questions.
    Mr. McLaughlin. I have a few.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. Let me preface my questions by thanking you for coming 
here. On behalf of the Minority, we appreciate your very forthright and 
direct answers to the questions posed. And I also just want to note, on 
behalf of the Minority, we recognize that you have a record of 
remarkable accomplishment and integrity and service to this country and 
we thank you for that.
    I just want to follow up, first of all, on a remark that you just 
made and sort of ask you about it. In no way do I want to imply that I 
am aware of any kind of human error on the part of your men. I'm not. 
There could be all kinds of ways that communications--what somebody 
thought happened didn't happen, but I want to explore briefly how it 
might have happened.
    To be clear, you know for sure that Attachment A of the April 28th, 
1997 directive from Counsel's Office arrived in your office, is that 
correct?
    Answer. Yes, somehow, that is correct.
    Question. All right. It arrived one way or another, either by fax, 
by hard copy?
    Answer. Right.
    Question. And your assistant, I am blanking on his name?
    Answer. Colonel Campbell.
    Question. Colonel Campbell recalls seeing Attachment A. He does not 
recall seeing any of the other 2 pages, either of the other 2 pages of 
this directive, although he may have. Is that your understanding of 
this?
    Answer. That is my understanding, and the reason he recalls 
receiving Attachment A, we do a lot of transactions. If someone 
mentioned this memorandum from general counsel and so forth, we would 
probably draw a blank. The reason he recalls it is because he has a 
copy of this e-mail with Attachment A going out, and that is it, the 
other 2 pages are not there.
    Question. Okay. And to your satisfaction, the men and women under 
your command did proper searches for the terms and names and entities 
that are listed on Attachment A?
    Answer. That is correct.
    Question. Had they been requested to do searches of any other 
matters, any other names, you were confident they would perform those 
searches, is that correct?
    Answer. That is correct.
    Question. When a directive like this comes down in e-mail form from 
Colonel Campbell, it is in the nature of an order, is that correct?
    Answer. That is correct.
    Question. Your organization is military hierarchy?
    Answer. That is correct.
    Question. And when an order is issued, it is your experience that 
the men and women under your command follow and execute those orders, 
is that correct?
    Answer. That is correct.
    Question. Now, you stated on the record, and I just want to be 
careful so we have a clear record, you said something to the effect 
that had you received this April 28th memo, and I assume by that you 
mean the first 2 pages of it, and it would not have produced the tapes 
that are now at issue in this deposition.
    Can I direct your attention to Page 2 of the memo? It is Exhibit 4. 
And let me particularly refer you to the paragraph that is numbered 
1(b). Is it your belief that had Colonel Campbell received this page 
and reviewed these items here, that he would have been able to frame an 
e-mail to the men and women under your command that would have directed 
them to find, and I am quoting, ``any documents or materials referring 
or relating to White House political coffees.'' To repeat the question, 
is it your belief he could have framed an e-mail that would have passed 
that request along to the men and women under your command?
    Answer. He could have done that. But our duties, you know, and I 
will try to explain, as a headquarters element you try to streamline 
the process to your subordinates, such that they understand exactly 
what you want, and we--and I am just speaking of my headquarters. I 
would never send out a directive like that because I know that I would 
have to give my people some detail and explain to them the intent of 
this. Just by mentioning coffees and knowing the number of databases, I 
could probably conduct a search but I would probably go back and say, 
``I need some more information, I need to clarify.''
    Question. So had this come to Colonel Campbell, do you believe he 
would have sought clarification from you?
    Answer. I believe there is a possibility, and this is all in 
hindsight.
    Question. I understand this is Monday morning quarterbacking.
    Answer. You're right. I know what the issue is now. I can't put 
myself in the time of the up tempo of the organization and what we were 
doing. As I stated, we had deployments outside of the agency, missions 
ongoing, day-to-day. This comes through, I don't know.
    Question. Okay.
    Answer. I know he is a very thorough person and he reads things, 
and it might have caused some question or concern, and maybe--but then 
since the other memorandums came down, you know, and all that they had 
on them were names and entities, I am only assuming, and I drilled 
myself, he says paragraph 1(a), referring or relating to any 
individuals in Attachment A, and maybe quickly just looking through 
this and saying, ``Well, I will send this out to the subordinates 
because this is something that they can conduct a search on.''
    Because we have not sat down until recently, you know, since this 
whole issue, and actually scrutinized the database of the video and 
audio people. So as leaders, you know, we wouldn't know that the names 
weren't in there. You know, we know now, okay, but we wouldn't know 
that. We would know you need a date and maybe a title of an event, 
because the technicians do it, and it is not--you talk about a layer up 
here, and we are looking down at a database and an audiovisual unit, 
just don't have that visibility.
    Question. Now had the first 2 pages come through to Colonel 
Campbell, you don't believe that he would have ignored these 
directives, do you?
    Answer. No, he would not.
    Question. He would have done something to comply with them?
    Answer. That is correct.
    Question. He would have either composed an e-mail or sought 
guidance from you or someone else?
    Answer. That is correct.
    Question. And, again, there are entities listed on the second page 
of this memo that are not listed on the following list of individuals?
    Answer. That is correct.
    Question. I will represent that.
    Answer. That is correct, I noticed that too.
    Question. And do you have any knowledge whether the entities that 
are listed on the second page, but not on the attachment, were included 
in Colonel Campbell's e-mail?
    Answer. I know that Attachment A, with the entities, these last 2 
pages were the copies that were in the file.
    Question. Okay.
    Answer. Okay.
    Question. So it is your understanding that Mr. Alan Sullivan's 
office faxed the full four-page document to your office?
    Answer. That is correct.
    Question. They believe, at least, they faxed the document to your 
office?
    Answer. Yes.
    Question. Colonel Campbell recalls only receiving the last 2 pages, 
doesn't deny receiving the first 2, may have, may not have?
    Answer. Correct.
    Question. But I just wanted to be clear because you said if you 
received this, it would not have produced the tapes. But I just wanted 
to get your opinion as to whether, had you received it, it would have 
been maybe a back-and-forth process?
    Answer. It would have caused some question. In other words--and 
then, like I am saying, I know now, really reading this thing closely 
and knowing the full intent, and I guess that is what I want to impart 
to this body of what is going on, then I would know exactly what to do. 
This piece of paper is not going to give you the products of the tapes 
alone, without sitting down in a body and understanding. I have given 
you a Berlitz course on WHCA in the course of a few hours, and just for 
you to do your investigation, so it seems like counsel would have done 
the same thing to understand the databases that I have. That is all I 
am saying.
    Question. Okay. So just so I am clear, you don't believe that 
Colonel Campbell would have ignored any part of this?
    Answer. No, he would not.
    Question. He would have done what was necessary to comply with the 
directive?
    Answer. Correct.
    Question. And if I could direct your attention to the first page, 
the very last sentence on that page, I am quoting in part, quote, ``If 
you have any questions, please call Mike Imbroscio or Dimitri 
Nionakis,'' and there is a phone number. Had he received this, do you 
believe he would have read that sentence?
    Answer. I believe so.
    Question. And known he could call them if he had questions?
    Answer. That is true.
    Question. If there were difficulties in framing an e-mail?
    Answer. Uh-huh.
    Question. And that was a yes, just so the reporter can pick it up?
    Answer. Yes.
    Question. Okay. Let me turn your attention to what has been marked 
as Exhibit JS-3. This is the subpoena from this committee. Can I ask 
you just to sort of quickly thumb through the document and sort of look 
at it?
    Answer. I believe it is over there.
    Question. My question for you, and we will figure out if there is 
anything I need to do to make this more specific or more exact, my 
question is whether, had you received a copy of this document, which 
contains 45 items and is 7 pages long in particulars, whether this 
would have produced better responses than the White House Counsel's 
directive. In other words, would this have been more clear to Colonel 
Campbell as to what was to be included in his e-mail, or no more or 
less clear, or less clear?
    And let me direct your attention in particular to item 16 on page 
5, which does not provide dates, but does instead say ``all records 
relating White House Political Coffees'' and then says ``including but 
not limited to,'' and then it goes on and speaks for itself. Do you 
believe that this would have given more particular guidance to Colonel 
Campbell than the White House Counsel's directive?
    Answer. Yes, I do. And the only reason I am saying that is because 
then that would have engendered a response from him as to further 
explanation, and I guess we work fairly closely, we would have received 
it and perused through this. And then we would have naturally called 
the White House Military Office and said, okay, now what do they want 
us to do, and maybe we need to fully explain to them our capabilities.
    Question. Okay.
    Answer. This would have probably given us a big picture and at 
least a start point, a better start point from which to work.
    Question. That is because it contains more items?
    Answer. It contains more items, and they are asking for records. It 
would just, to me--and I can't speak for Colonel Campbell, I can only 
speak for myself, I would really--I would probably pick the phone up 
and call Mr. Sullivan and say, ``Sir, okay, I have this document here 
and there is something going on, can you fill me in on it,'' you know.
    Question. So just to be clear, it is not the text that is contained 
in No. 16 that is more specific, it is in fact the fact there are many 
more items listed here of much greater breadth?
    Answer. That is right.
    Question. Would have caused you to call someone for guidance?
    Answer. That is correct.
    Mr. Wilson. If I can interject there, there are a number of----
    Mr. McLaughlin. Let me just finish my line. I will be happy to let 
you follow up. Just to summarize, and then you can have him for as long 
as you need him.
                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. Similarly, it is your belief that had Colonel Campbell or 
you seen the first 2 pages of the April 28 request and reviewed it, you 
would have also sought guidance on the meaning or the means by which to 
search for political coffees?
    Answer. Would have sought guidance, yes.
    Question. That was a confusing question but I think you understood.
    Answer. That is correct.
    Mr. McLaughlin. Mr. Wilson?
    Mr. Wilson. That is fine. Finish up.
    Mr. McLaughlin. Okay.
                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. You stated that you consider videotapes taken by the 
audiovisual unit of the White House Communications Agency to be 
presidential records?
    Answer. Yes.
    Question. And the same is true for audio tapes?
    Answer. That is correct.
    Question. So let me direct your attention to the first page of the 
April 28 directive, which is Exhibit 4. The directive states, in the 
second sentence, ``We ask that you conduct a thorough and complete 
search of ALL,'' that is capitalized, capital A, capital L, capital L, 
``of your records,'' paren, ``whether in hard copy, computer or other 
form,'' closed paren, et cetera.
    Is it your understanding that the phrase ``all of your records, 
whether in hard copy, computer or other form'' would have included 
videotapes created by the audiovisual unit of the communications 
agency?
    Answer. I am not sure I understand the question.
    Question. Does the phrase ``all of your records,'' as used in this 
memo, include videotapes?
    Answer. That is correct.
    Question. Does it include audio tapes?
    Answer. That is correct.
    Question. Let me ask you one final question. You stated that there 
has been created a chain of custody inventory in the recent weeks as 
these videotapes have been produced. Are you aware of any efforts by 
any White House personnel to doctor or alter the tapes?
    Answer. No.
    Question. Do you believe that your men would have committed such an 
effort to take place or succeed, had they become aware of it?
    Answer. Absolutely not.
    Question. Do you believe they would have informed you had they 
become of any efforts to doctor, alter or otherwise edit the tapes?
    Answer. I know they would have.
    Mr. McLaughlin. No further questions at this time.

                       EXAMINATION BY MR. WILSON:

    Question. Just a couple follow-up. You indicated before that you 
had discussions with one of the members of the White House Counsel's 
staff, Cheryl Mills. When did you have discussions with Ms. Mills?
    Answer. I have had numerous discussions with her. What time frame?
    Question. Well, in the most recent time frame related to the coffee 
tapes, from September 30 on?
    Answer. I know from September 30th, I would say starting--
commencing once the tapes were discovered, and I guess reading the 
newspaper on that first Monday in October, I had a discussion with her, 
and that is only because WHCA was in the newspaper.
    Question. Did you call her or did she call you?
    Answer. One of the discussions resulted from--I can't remember. 
There were so many phone calls between the two of us, I can't remember 
who initiated it.
    Question. Going back to the first one in the series, do you recall 
what was discussed?
    Answer. Well, the issue revolved around tapes, and I stated that no 
one had requested tapes or videotapes. And then that is when she said 
there was a 28 April memo, and I said I have never seen anybody ask for 
the word, i.e., videotapes or tapes.
    And then she referred to this particular memo and said they had 
referenced coffees, and I was trying to figure out--I said, ``Well, 
first, I don't remember seeing this memo and I don't know where coffees 
came up.'' So then the discussion ensued and then we--I just told her--
she knew I was very upset and concerned about the press release on the 
White House Communications Agency and hitting the wrong key.
    And, you know, I told her we did the search based upon the names 
and we even received hits on the document, but I was not aware of any 
reference to coffees and not aware of anyone, until, you know, our 
discussion, until recently, of anyone asking for tapes. And it was, you 
know, it was conveyed that WHCA held these tapes from the time this 
memo came out until October, until the tapes surfaced, had held the 
tapes a secret and it wasn't--it wasn't any secret at all.
    Question. And you indicated you had a number of conversations with 
her. What were such subsequent conversations?
    Answer. Well, it involved this whole process, the retrieval 
process. She wanted to make sure it worked correctly, and she told us 
that she had discussions also with Mr. Smith. Both of us would talk to 
her. Then that is when I met Dimitri Nionakis, and she says that we 
ended up working with Nionakis and a number of other people, and we 
were just setting up the whole procedure as far as retrieval of tapes.
    The agency, even though we were disappointed about the press 
statements on us, we still are a very proud organization, and we were 
going to ensure that this operation worked correctly, because we knew 
what the issue was and we were involved in it from the beginning, and 
that was it. And anytime that I would have some concerns, I wanted to 
know what the time lines were.
    I wanted to know how many tapes needed to be done, because I wanted 
to be able to articulate to my people what was required and what the 
mission was and what the demands were, so they could size their 
operation based upon that. And I wanted to give her an appreciation for 
what we could do, and I say ``her,'' I was speaking to a number of 
counsels, not just her singularly.
    Question. Who else?
    Answer. Dimitri. Is there a Walt somebody. You don't know. I have 
seen so many of them, it is unbelievable. They're like rabbits. I 
definitely selected the wrong profession. I should have been a lawyer. 
But there were--I didn't know they had so many people in their office. 
I could identify their faces. I just--I know Dimitri. I knew Mike 
Imbroscio, but all of a sudden he vanished and I didn't see him, while 
we were doing this thing.
    But there were a number of lawyers up there, and I didn't want to 
go in--I give a mission to my people and I want them to know--they felt 
bad about this whole incident because of the whole issue of WHCA. So as 
they were viewing the tapes for the Counsel's Office, I wanted them to 
know that I trusted them. And that is why I let them do that operation, 
and all I did was oversee and make sure that they were doing a good 
job, and I would go up there and encourage them and that is it. I don't 
stand over people and watch them do work. And they did it and I am very 
proud of them for doing that, too, because they did it. It was an 
excellent job, getting this stuff done.
    Question. How many individuals were working on the production 
process? The White House indicated only six people were working on 
responding to various subpoenas. How many people have----
    Mr. McLaughlin. Six people or six lawyers?
    The Witness. You mean in my agency?

                       EXAMINATION BY MR. WILSON:

    Question. Okay. My question is completely out of bounds. Let me 
start from the beginning.
    Answer. Okay.
    Question. The White House indicated six lawyers had been working on 
the compliance process with the coffees issue.
    Answer. Okay.
    Question. Apart from the individuals you have mentioned, who else 
can you--can you identify anybody else, or do you have an approximate 
number of how many people have been working on the compliance issue?
    Mr. McLaughlin. I want to note for the record before you answer, I 
think that the representation that was made to us, without disclosing 
testimony from another deposition, I think the representation that has 
been made to us is there were six lawyers on the subpoena compliance 
team. I don't think a representation was ever made only six lawyers 
have ever worked on this issue, just so the record is clear. Cheryl 
Mills, for example, we have already heard her name mentioned. She is 
not a member of the six-lawyer subpoena compliance team. We have 
already heard she was involved in this.

                       EXAMINATION BY MR. WILSON:

    Question. So if you can, you have given us a sort of very broad 
number in your characterization, but are you able to provide any 
clearer indication?
    Answer. No, I can only tell you that I know that Dimitri Neonakis, 
and I can identify three of the people in addition to him that I saw up 
in our master control facility, and then including Cheryl Mills.
    Question. Just finally, you indicated that you had numerous 
contacts with Ms. Mills pursuant to the coffee issue, but prior to 
September 30 or prior to the coffee issue surfacing, had you had any 
contact with Cheryl Mills?
    Answer. Yes.
    Question. On what issues?
    Answer. Logs.
    Question. When did those contacts take place?
    Answer. That was around the 25th or 26th of September. I was in 
Little Rock, Arkansas.
    Question. And prior to that time period, had you had any 
conversations with Ms. Mills?
    Answer. Yes. Not about matters of this nature though.
    Question. On what?
    Answer. Just saying hello, that is it, just in passing her.
    Question. And as far as the telephone log exchanges go----
    Answer. Well, let me--maybe I don't understand your question.
    [Witness confers with counsel.]
    The Witness. Okay. That is what I thought. Okay. I had had 
discussions with her, let's see, I can go back to 1996, and probably--
'96 comes to minds, and early January, and even late 1995, and it was 
about campaign versus official support, and what the White House 
Communications Agency provides.

                       EXAMINATION BY MR. WILSON:

    Question. Okay. Moving forward from that to the phone log 
exchanges, what was she asking you to do at that time?
    Answer. Asking for a point of contact to talk to her about our 
telephone log and billing process. It seemed to focus more on bills, 
what actually was on a bill that we received, versus communications, 
you know, telephone communications. And I gave her Steve Smith as a 
point of contact, and then I explained to her what I knew of it, 
because I know I had a switchboard and we don't receive bills from a 
number to a certain number, we receive bills from our switchboard to a 
number. In other words, all calls that access my switchboard that are 
operator-intercepted, the call record only exists for the switch to the 
number called. And she just wanted to make sure she understood that 
because she had indicated she was responding to some type of 
correspondence.
    Question. I was going to ask you, why did she ask that?
    Answer. That is right.
    Question. You think it was in response to correspondence that she--
--
    Answer. That is right, referenced telephone bills.
    Question. Okay. Do you know whether there was any response to a 
request for information or a subpoena?
    Answer. I wasn't apprised at the time when I spoke with her of a 
subpoena.
    Question. Just one last thing. You indicated that Ms. Mills and 
yourself had had conversations in '95 and '96, matters that were 
campaign versus nonrelated campaign issues?
    Answer. Yes, political versus official.
    Question. What was the substance of those conversations?
    Answer. We knew that the campaign was--in '95, we at WHCA knew that 
the campaign was going to happen, and no one had ever supported 
President Bill Clinton. People that had been in the agency knew and 
heard what he did during 1992 with just a small group, and it was a 
very, very rigorous effort.
    And having supported him just in the role of conducting his duties 
and the demands there, we envisioned that the campaign effort was going 
to be very rigorous, and we also knew that there had to be a 
distinction to what we could do, since we are a DOD agency, and what we 
couldn't do. And Cheryl Mills, in previous meetings that I would have 
with the Director of Management and Administration, that somehow was 
introduced to her, would surface the issue and preface it by saying she 
was concerned about how we would support.
    And this is in relations to primary communications, 
telecommunications support, because we would be using a series of 
platforms from an airplane which is always in existence, to a train, to 
a bus, and wanted to ensure that we understood what we could and could 
not do as far as telephone lines and speechwriter support for a 
campaign and public address systems.
    Never during that time did anything come up about videotaping or 
taping. That was not a topic of discussion. It was more from a macro 
level. I don't want to leave you with the impression--there is more 
than to WHCA than videotaping and taping. That is just a small part of 
our mission, very minute. So when you have to request services for 
communication lines in a particular city, you have to deal with the 
local telephone company.
    She had apprised us that there was this element called the DNC that 
would be competing for services in the same area, and she wanted to 
make sure there was a distinction between the two and wanted to ensure 
that the political people would use resources, communications resources 
available to them by the DNC, and that those traveling in an official 
capacity would use the resources that we provided.
    Now as we said, the President is always the President, so that is 
why we are there. So we went through a very determined effort to ensure 
that when we went to various locations, the public address system was 
contracted by the DNC, and usually during the campaign that was the 
course. That was all set up. Yes, we would record him, but we did that 
with our mix, tying into this contracted public address system, and the 
contract was initiated by the DNC.
    The only reason we did the audio record and the video record is 
because it was a matter of presidential record, and that was it. But 
those details, we didn't get into the details of recording and filming 
and all of that. It was more or less trying to set up a line of 
demarcation as to what was our piece of the pie and what was the DNC, 
and what we could do and what we couldn't do.
    Question. You stated that you did not discuss videotaping?
    Answer. No.
    Question. So let me summarize to make sure it is correct. She 
didn't make any requests of you to determine how or whether WHCA could 
provide any videotape or audio tape or photographic information for any 
of the campaign-related purposes?
    Answer. No, she did not.
    Question. Okay.
    Answer. WHCA is a very, very--you would probably have a better feel 
if you would see our operation, but it is a very, very complex 
organization, and it is not uncommon for someone to not know all that 
we do because it blends in with everything. You would think that the 
taping and the--particularly the videotaping was being performed by the 
press because there is nothing that distinguishes them from the press, 
other than a small device, which I won't even tell you that, that they 
wear, and that is it. Otherwise they blend in perfectly. So you would 
not know in all cases that--that a WHCA person was there, you know, 
just by the crowd, and because even the White House Press Corps, they 
have the same equipment we do.
    Question. Which I have said this in my last question about five 
times, but it comes from what you just said about blending in. From a 
layman's perspective, there was a lot of filming going on of events 
that have recently been the subject of a lot of controversy, the 
coffees being among them, and obviously individuals with cameras were 
in situations where they would not blend in with the press.
    Have you had any discussions with any of your colleagues at WHCA 
about whether White House individuals who were present at events that 
were taped should or should not have pointed out to WHCA personnel that 
there were tapes made of issues that were very much the subject of 
document requests?
    And cutting through a long question, there were lots of people at 
these events, presumably, who knew that there were WHCA personnel 
filming the events, and has it ever been the subject of any speculation 
among you and your colleagues as to why White House personnel didn't 
come back and make a directed request, given the fact the cameras, in 
closed situations, would not have blended in?
    Lieutenant Colonel Sparks. I don't think that is a proper question 
at all. You are asking him to speculate.

                       EXAMINATION BY MR. WILSON:

    Question. I am asking you to recount discussions, not whether you 
should have talked about the things or not, but I am asking whether you 
have had any conversations with colleagues about the subject.
    Answer. I have had conversations with colleagues about the subject. 
The type of events that you are talking about and we focused on are 
coffees. Just prior to this inquiry, I knew that those events were 
closed events, and I knew also that there were exceptions--there are 
exceptions to policies on closed events, that we will be there even 
though the event is closed to the press.
    But I didn't have any knowledge at all that my people were at 
coffees until we engaged in this dialogue, because a coffee was a small 
piece of a rigorous routine operation that occurs. That is one event 
and that is where your focus is, but there are probably many, and I am 
sure that the President's schedule when he is in town, a coffee was not 
the singular event that occurred: press conferences, statements from 
the Rose Garden, something happening in the Roosevelt Room, something 
going on in Room 450, the one we talked about, the press lobby. So it 
was just a whole series of activities ongoing, of which a coffee 
happened to occur.
    Question. But, specifically, have any of your colleagues discussed 
with you whether individuals who actually attended these events might 
or might not have seen television cameras there or video cameras there, 
should have come and pointed with specificity to these types of events, 
to WHCA?
    Answer. No.
    Question. The overview is it is--I am not going to characterize it 
as fair to blame WHCA when they don't know quite what they were looking 
for, but if there were other people who might have known there was 
something to look for, it would be incumbent on them to point it out?
    Answer. No one pointed that out to us.
    Question. No one from the White House pointed that out?
    Answer. No.
    Question. Have you had conversations with your colleagues where you 
discussed this matter?
    Answer. I guess I am failing to understand your question, and I am 
trying to. I have talked at length about this matter. We do videotaping 
and we do audio taping; there is no secret about that, and we will be 
at certain events. And there are certain events that take place, and 
even when they are open press events, we check and see what is required 
because, as I stated in that document that you had, you showed me, that 
is a planning document. Things will change; requirements will change.
    Now not everybody on the White House staff is fully knowledgeable 
of all the capabilities we have. There are certain entities that I am 
sure--certain people that do know that we do audio taping and 
videotaping. I don't want to leave you with that impression, either, 
but it is not uncommon for someone not to know.
    Question. That is a given, but I am just trying to clarify this one 
thing as much as possible.
    Answer. Okay. All right.
    Question. Among your WHCA colleagues, not White House personnel but 
among your WHCA colleagues, has anybody ever expressed any concern or 
consternation that WHCA was never--WHCA personnel were never 
specifically approached or informed of the potential existence of 
coffee tapes by the people who were actually being filmed or were 
participating in the tapes?
    Answer. To my knowledge, no one has approached any of my colleagues 
about coffee tapes, you know, prior to this investigation.
    Question. I am not pointing out that they knew in advance, but now 
that we know that they do exist and now that they have been disclosed, 
has there been discussion among your colleagues as to whether somebody 
might have come forward at some point and said, ``We were there, we 
know there are tapes, why haven't you been able to give us tapes of 
coffees?''
    Answer. No one has come forward and said that.
    Question. Okay. That concludes my questioning.
    Mr. McLaughlin. I have just one question.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. You were recounting a conversation, your first 
conversation with Cheryl Mills on this issue, when you said your 
reaction was you weren't aware of any request for videotapes?
    Answer. That is correct.

                       EXAMINATION BY MR. WILSON:

    Question. You later learned, however, the audiovisual unit served 
the videotape database for the names on Attachment A, so you weren't 
aware at that time. However the AV unit did do a search for videotapes?
    Answer. That is correct.
    Question. For the names on Attachment A, is that correct?
    Answer. That is correct.
    Question. Thank you very much, sir.
    Mr. Wilson. Before we go off the record, I wanted to recount, I 
believe, four things that we discussed that you might be able to 
provide for us in the short term.
    Lieutenant Colonel Sparks. All right.
    Mr. Wilson. One was names of individuals who were on the WHCA 
taping crews for the coffees. The second was the February of 1996 
document request. Then there is the matter of the classified 
information that we did not go into in this deposition; and the fourth 
was a copy of the tape log, the audio tape log we discussed.
    Lieutenant Colonel Sparks. The inventory, is that what you all were 
talking about?
    Mr. Wilson. Yes, inventory of the audio tapes.
    Mr. McLaughlin. The chain of custody?
    Mr. Wilson. No, there was apparently a log for audio tapes, of what 
constituted audio tapes.
    The Witness. A database. You should have that.
    Lieutenant Colonel Sparks. I thought you needed the request--I 
thought you were requesting the log for the 39 tapes.
    Mr. Wilson. That is the final thing. Well, two other things. One is 
the log for the 39 tapes--actually, let's just discuss for a second the 
audio tapes. I did want some information on the audio tapes, but is it 
an extensive database?
    The Witness. Yes, we provided--I know I was present when we 
provided 4 years worth of information.
    Mr. Wilson. What I would like is not so much of the extensive, all-
inclusive, but the material that has been provided to the White House, 
the audio tapes, there is a log of the tapes.
    The Witness. There should be a record of the number of tapes we 
provided to the White House.
    Mr. Wilson. And whatever materials contained in the log. And you 
are correct, the 39 videotapes that were transferred directly to Cheryl 
Mills.
    The Witness. So you want the serial numbers on those, or whatever 
number identifies the tapes.
    Mr. Wilson. Yes, whatever you have. And one other thing that 
occurred to me, if it's possible to get a copy, I am not aware of 
whether we have or not, the e-mail that went from Colonel Campbell to 
WHCA personnel, pursuant to the Attachment A that was transmitted.
    Mr. McLaughlin. And one outstanding request that I believe we have 
made is for, first of all, to know what kind of logs exist from the 
Reagan and Bush administrations, and then to figure out a way to get us 
a copy of those database printouts. I know the records go back at least 
to '89, because the White House made available to us the printouts of 
the records, there was an RNC fund-raiser from '89, so we would be 
interested from January 20, 1981, through January 20, 1993. First, if 
you could just let us know as to the existence of those records, then 
we will figure out where to go from there in terms of which ones we 
actually need copies of.
    Lieutenant Colonel Sparks. I guess we can go off the record.
    Mr. Wilson. That concludes my questioning, and before we go off the 
record, I would like to thank, on behalf of everybody here, Colonel 
Simmons for coming here today voluntarily. Thank you.
    [Whereupon, at 3:08 p.m., the deposition was concluded.]

    [The deposition exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.484
    
    [GRAPHIC] [TIFF OMITTED] T5405.485
    
    [GRAPHIC] [TIFF OMITTED] T5405.486
    
    [GRAPHIC] [TIFF OMITTED] T5405.487
    
    [GRAPHIC] [TIFF OMITTED] T5405.488
    
    [GRAPHIC] [TIFF OMITTED] T5405.489
    
    [GRAPHIC] [TIFF OMITTED] T5405.490
    
    [GRAPHIC] [TIFF OMITTED] T5405.491
    
    [GRAPHIC] [TIFF OMITTED] T5405.492
    
    [GRAPHIC] [TIFF OMITTED] T5405.493
    
    [GRAPHIC] [TIFF OMITTED] T5405.494
    
    [GRAPHIC] [TIFF OMITTED] T5405.495
    
    [GRAPHIC] [TIFF OMITTED] T5405.496
    
    [GRAPHIC] [TIFF OMITTED] T5405.497
    
    [GRAPHIC] [TIFF OMITTED] T5405.498
    
    [GRAPHIC] [TIFF OMITTED] T5405.499
    
    [GRAPHIC] [TIFF OMITTED] T5405.500
    
    [GRAPHIC] [TIFF OMITTED] T5405.501
    
    [GRAPHIC] [TIFF OMITTED] T5405.502
    
    [GRAPHIC] [TIFF OMITTED] T5405.503
    
    [GRAPHIC] [TIFF OMITTED] T5405.504
    
    [The deposition of Alan Sullivan follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                    DEPOSITION OF: ALAN P. SULLIVAN
                                   Friday, October 17, 1997

    The deposition in the above matter was held in Room 2303, Rayburn 
House Office Building, commencing at 9:45 a.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Richard Bennett, Chief Majority Counsel; Barbara Comstock, Chief 
Investigative Counsel; Dudley F.B. Hodgson, Chief Investigator; J.T. 
Mastranadi, Staff Assistant; Andrew J. McLaughlin, Minority Counsel.
For MR. SULLIVAN:
    LIEUTENANT COLONEL JOHN SPARKS, ESQ.
    NATIONAL SECURITY COUNCIL

    Mr. Bennett. Good morning, Mr. Sullivan. I have to just go through 
a certain preamble just to make sure we put certain things on the 
record, and I want to begin by saying on behalf of the Members of the 
House on the Committee on Government Reform and Oversight, I thank you 
for appearing here today.
    This proceeding is known as a deposition, and the person 
transcribing this proceeding is a House reporter and notary public. I 
will now request that the reporter place you under oath.

THEREUPON, ALAN P. SULLIVAN, a witness, was called for examination, and 
   after having been first duly sworn, was examined and testified as 
                                follows:

    Mr. Bennett. I would like to note for the record those who are 
present at the beginning of this deposition. I am Dick Bennett, Chief 
Majority Counsel for the committee. I am accompanied by Butch Hodgson, 
Chief Investigator, and J. T. Mastranadi from our staff. Mr. Andrew 
McLaughlin is the designated Minority counsel for the committee 
attending this deposition.
    I believe you are also accompanied by your attorney, Lt. Col. John 
Sparks from the National Security Council.
    Is that correct, Colonel Sparks?
    Colonel Sparks. That is, sir.
    Mr. Bennett. Although this proceeding is being held in a somewhat 
informal atmosphere, because you have been placed under oath, your 
testimony here today has the same force and effect as if you were 
testifying before the committee or in a courtroom. Do you understand 
that, sir?
    The Witness. I do.
    Mr. Bennett. If I ask you about conversations you have had in the 
past, and you are unable to recall the exact words of the conversation, 
you may state that you are unable to recall those exact words, and you 
may then give me the gist and substance of any conversation to the best 
of your recollection.
    If you recall only part of a conversation or only part of an event, 
please give me your best recollection of those events or parts of 
conversations that you recall.
    Do you understand that, sir?
    The Witness. I do.
    Mr. Bennett. If I ask you whether you have any information about a 
particular subject, and you have overheard other persons conversing 
with each other regarding that subject or have seen correspondence or 
documentation about that subject, please tell us that you do have such 
information and indicate the source from which you derived such 
knowledge.
    Do you understand that?
    The Witness. I do.
    Mr. Bennett. Before we begin the questioning, I want to give you 
some background about this investigation and your appearance here.
    Pursuant to its authority under House rules X and XI of the House 
of Representatives, the committee is engaged in a wide-ranging review 
of possible political fund-raising improprieties and possible 
violations of law. Pages 2 through 4 of House Report 105-139 summarizes 
the investigation as of June 19, 1997, and describes matters which have 
arisen in the course of the investigation.
    Also pages 4 through 11 of that report explain the background of 
the investigation. I say that for benefit of your counsel if for some 
reason he would want to look at those materials.
    All questions related either directly or indirectly to these issues 
or questions which have the tendency to make the existence of any 
pertinent fact more or less probable than it would be without the 
evidence are proper.
    The committee has been granted specific authorization to conduct 
this deposition pursuant to House Resolution 167, which passed the full 
House on June 20, 1997. Committee Rule 20 outlines the ground rules for 
the deposition.
    Majority and Minority committee counsel will ask you questions 
regarding the subject matter of the investigation. Particularly with 
respect to today, it relates to compliance with the subpoena issued by 
the committee on March 4, 1997. Minority counsel will ask questions 
after Majority counsel has finished. After the Minority counsel has 
completed questioning you, a new round of questioning might begin.
    For the record, procedurally Majority counsel will go first and 
then Minority counsel will follow. Mr. McLaughlin, at certain points in 
time, if you desire a follow-up on a question, while I don't waive the 
right to assert the procedure to have Majority counsel ask all 
questions first before questions from Minority counsel, as a courtesy 
to you this morning I will extend you the opportunity, as we get into 
certain subject areas, if you indicate you want to follow up on a 
certain subject area before I finish, I will afford you the courtesy to 
go to that without having to wait until the end of my questioning.
    If at any time a Member of Congress wants to ask a question, that 
Member is afforded then an immediate opportunity to ask his or her 
questions, and we would stop and allow the Member to ask questions, and 
then we would proceed.
    Pursuant to committee rules, you are allowed to have an attorney 
present to advise you of your rights.
    And, Colonel Sparks, you are here today in that capacity; is that 
right?
    Colonel Sparks. I am, sir.
    Mr. Bennett. You are with the National Security Council?
    Colonel Sparks. I am.
    Mr. Bennett. Any objection raised by your counsel during the course 
of the deposition shall be stated for the record. If your counsel 
instructs you not to a question or you otherwise refuse to answer a 
question, Majority and Minority counsel will confer to determine 
whether the objection is proper.
    If we think the question is proper, either one of us, we will ask 
you to answer the question. If the objection is not withdrawn, then the 
chairman of the committee, Congressman Dan Burton, may decide whether 
the objection is proper.
    This deposition is considered as taken in executive session of the 
committee, which means the contents of the deposition will not be made 
public without the consent of the committee pursuant to clause 2(k)(7) 
of House rule XI. Do you understand that?
    The Witness. Yes. I understand what you said.
    Mr. Bennett. Colonel Sparks, do you understand that we don't 
release a transcript of this deposition? You will be given an 
opportunity to review it with your client, but this is in executive 
session, so no one is going to release, Mr. Sullivan, your deposition 
to anybody after the deposition concludes today.
    Colonel Sparks. That's right. When would we have that opportunity?
    Mr. Bennett. I would think by Monday. I believe the court reporter, 
they have been pretty fast with their responses, so I think by Monday 
you would have an opportunity to do that.
    As I have just mentioned, no later than 5 days after your testimony 
is transcribed, you may submit suggested changes to the chairman. You 
will have an opportunity to review it, and the transcript will be 
available for your review at the committee office.
    We have made arrangements also, Colonel Sparks, pursuant to which 
the deposition transcript can be sent to you, and you can review it and 
certify the safety of its contents, so to speak, and then send it back 
to us. We can arrange for that.
    Colonel Sparks. All right.
    Mr. Bennett. In the event that you would want to make changes, 
substantive changes, or modifications or clarifications or amendments 
to the deposition transcript submitted by you, they must be accompanied 
by a letter requesting those changes and a statement of reasons for 
each proposed change. A letter requesting substantive changes, 
modifications, clarifications or amendments must be signed by you. Any 
substantive changes, modifications, et cetera, would be included as an 
appendix.
    Is there anything that you don't understand that I have said thus 
far, Mr. Sullivan?
    The Witness. I understand it all.
    Mr. Bennett. Colonel Sparks, any questions you have in terms of 
procedure?
    Colonel Sparks. None.
    Mr. McLaughlin. Before you get into the substantive questions, I 
have two statements for the record.
    Mr. Bennett. Sure.
    Mr. McLaughlin. The first is I want to note for the record the 
Minority's ongoing objection as to the scheduling of this deposition, 
as Mr. Condit indicated in his letter on Wednesday, which I believe you 
saw it at least by yesterday.
    Mr. Bennett. I have yet to see Mr. Condit's letter.
    Mr. McLaughlin. I am not sure what staff error in your office has 
caused that to happen.
    Mr. Bennett. I don't presume it is a staff error, Mr. McLaughlin. 
Again, I haven't received it, and we have looked in our office. I have 
yet to receive a letter from Mr. Condit's office.
    Mr. McLaughlin. Copies were given and made a part of the record, 
Mr. Bennett. So I am not sure whose error it was in bringing it to you, 
but perhaps you want to investigate that staff error.
    Anyway, I want to make clear for the record that Minority members 
of this committee wanted the opportunity to participate in this 
deposition. They have requested that opportunity. They have requested 
it in writing, and it has not been honored. Accordingly, we object as 
to the scheduling of this deposition.
    Second, I want to note for Mr. Sparks that pursuant to House rule 
XI 2(k)(8), objections as to pertinence are the province of the full 
committee and not merely the chairman to decide. Accordingly, any 
rulings by the chairman on such objections are appealable to the full 
committee.
    Mr. Bennett. Just for the record, Congressman Condit is the one 
Member who apparently has voiced an objection to this scheduling. For 
the record, that was never voiced to me until Thursday, October the 
16th. I met with Mr. Ruff, Counsel to the President at the White House, 
last Friday, October the 10th, with Mr. Kenneth Ballen. It was 
discussed that we would begin immediately taking depositions. There has 
literally not been one word from any Member of Congress, Republican or 
Democrat, to me, with respect to the scheduling of these depositions 
until it was brought to my attention yesterday that Mr. Ballen had 
indicated an objection on the record.
    So meaning no disrespect to Congressman Condit, we will see that he 
gets a transcript of this or he has access to it as quickly as 
possible. And certainly in the event that Members of Congress desire to 
ask any questions, we may have to bring Mr. Sullivan back.
    Mr. McLaughlin. Let me just note that to the extent that you do 
uncover what happened to those copies of the letter that were sent to 
your committee, Mr. Bennett, you may want to review the text of the 
letter, and you will see that Mr. Condit is speaking not merely on 
behalf of himself, but of all the Democratic members of the Committee. 
And so I think it is not a trivial objection by one Member, but rather 
the sense of the entire Minority of the Committee that participation in 
these depositions is important. At the very least, you had notice of 
this yesterday, and I note that we are now sitting here, Thursday 
morning, going forward with this deposition.
    Mr. Bennett. For the record, it is Friday morning and was----
    Mr. McLaughlin. I stand corrected.
    Mr. Bennett. I received word of this late yesterday afternoon, and 
in light of the scheduling considerations and in light of the Members 
basically being here Monday nights through Thursday afternoons, it is 
very difficult, obviously, to schedule depositions at the convenience 
of witnesses and lawyers and schedule all those in a 3\1/2\-day time 
frame in light of the presence of the Members of Congress here in 
Washington. And again, we are certainly willing to reconvene the 
deposition, if necessary, and accord Members the opportunity to ask any 
questions.

                      EXAMINATION BY MR. BENNETT:

    Question. Mr. Sullivan, if you will state your date of birth, 
please?
    Answer. October 17th, 1948; which is 49 years ago today.
    Question. Well, happy birthday, Mr. Sullivan.
    Answer. Thank you.
    Question. I am sorry you have to spend your 49th birthday under 
these circumstances.
    Sir, you have been employed at the White House for how long?
    Answer. Slightly less than 3 years. Since November 1994.
    Question. What is your educational background, sir?
    Answer. I have three masters' degrees and a bachelor's degree.
    Question. And where did you attend college for your bachelor's 
degree?
    Answer. Villanova University.
    Question. And then having graduated from Villanova, you then 
received--got your master's degree where?
    Answer. I received a master's degree in human resources management 
from Pepperdine University; a master's degree in finance from New York 
University, that's an MBA; and a master's in strategic studies and 
national defense from the Naval War College.
    Question. Do you have a military background, sir?
    Answer. I do.
    Question. And what is your military background?
    Answer. Twenty-plus years of active duty in the United States 
Marine Corps, retired at the rank of colonel.
    Question. Do you prefer to go by Colonel Sullivan or Mr. Sullivan?
    Answer. Mister.
    Question. Mr. Sullivan. Well, again, as I am a retired major in the 
Reserves, perhaps I should call you Colonel Sullivan. I will call you 
Mister, but if I vary----
    Answer. I prefer Mister.
    Question. That's fine.
    When did you retire from the Marine Corps?
    Answer. I left--my last day of active duty was the Friday preceding 
my employment at the White House in 1994.
    Question. And I am sorry, did you say that was October of 1994?
    Answer. At the end of October or the beginning of November. I 
retired for record purposes 1 January 1995, having taken terminal 
leave.
    Question. I understand. I understand.
    Answer. In accordance with code 5--section 5 of the U.S. Code.
    Question. Then I gather prior to your employment at the White House 
in October of 1994, your political activities were somewhat limited in 
light of your active military status?
    Answer. I have no political activity whatsoever.
    Question. And what was--who was the person most responsible for 
your being hired at the White House?
    Answer. Al Mauldon.
    Question. How did you know Mr. Mauldon?
    Answer. I didn't.
    Question. Did you come to apply for the job? I guess I am asking 
how did you come to retire from the Marine Corps and come to work at 
the White House?
    Answer. I had planned on retiring from the Marine Corps. I had 
already turned down my colonel's command, the opportunity to command an 
air station, and indicated to the Marine Corps I planned to retire; I 
was out looking for jobs. And it came to the attention of one of the 
senior officials in the Department of Defense at the Office of the 
Secretary of Defense that I was planning on entering a private career, 
and he brought to my attention the fact that this position might be 
available, and John Deutch nominated me to be interviewed at the White 
House.
    Question. Okay. And the position being--head of the White House 
Military Office?
    Answer. Yes, an organization I had never heard of until that point.
    Question. And who was Mr. John Deutch?
    Answer. Right now?
    Question. Yes. I am sorry, who was he? Was he a personal friend of 
yours? Did you know him?
    Answer. He was the Deputy Secretary of Defense, and he was not a 
personal friend. He was a superior and a colleague. I worked directly 
for one of the assistant secretaries in the engineering--research and 
engineering area.
    Question. So then to whom did you submit your application at the 
White House to head up the White House Military Office?
    Answer. I interviewed with Phil Lader and Leon Panetta and Jodie 
Torkelson.
    Question. And Jodie Torkelson, I believe, was the Assistant to the 
President for Management and Administration?
    Answer. Correct.
    Question. And having interviewed with those persons, who was the 
person who told you that you were hired for the position?
    Answer. The President.
    Question. And when did you first meet with the President?
    Answer. I will estimate.
    Question. That's fine.
    Answer. In September or October of 1994.
    Question. And how many interview sessions did you have with the 
President prior to the time being hired?
    Answer. One.
    Question. Just one?
    Answer. About 30 seconds' worth.
    Question. And in terms of--you were hired then to be the Director 
of the White House Military Office?
    Answer. Correct.
    Question. And is that the only position that you have held at the 
White House?
    Answer. Yes.
    Question. And you have held that position then since approximately 
October of 1994?
    Answer. I actually walked through the door in November of 1994.
    Question. So you have been in that job almost----
    Answer. Two years and----
    Question. Almost 3 years then?
    Answer. Yes, almost 3 years.
    Question. How many people work in the White House Military Office?
    Answer. Fifteen percent less than in 1992. We are down to 1,800.
    Question. And how many different groups report to that office?
    Answer. Depending on how you parse it, you can call it 10 groups or 
11.
    Question. And one of those groups is the White House Communications 
Agency, known by the acronym WHCA, correct?
    Answer. Correct.
    Question. What are the other organizations that report to you?
    Answer. The entity known as the President's Pilots' Office, 
colloquially known as Air Force One; Marine Helicopter Squadron One, 
which provides a helicopter known as Marine One; a staff office called 
Airlift Operations; Camp David; the White House Communications Agency; 
the White House staff Mess; the White House Transportation Agency, 
known as the motor pool; the medical unit; the Special Programs Office; 
the Presidential Contingency Programs Office; and the Security Office; 
and the military aides, military aides to the President.
    Question. All told, the number of people in those various agencies 
total approximately 1,800?
    Answer. That's correct.
    Question. And in the White House Military Office itself, the 
coordinating center, where you are the Director, how many people are 
employed there?
    Answer. There are a total of eight people.
    Question. And the names of those people--how many people have been 
there in that group since you arrived in October of 1994?
    Answer. One.
    Question. And the eight people that are presently employed there, 
their names, please?
    Answer. My administrative assistant is Ms. Danie Donnelly, that's 
D-O-N-N-E-L-L-Y; my chief of staff is Colonel Timothy Milbrath, M-I-L-
B-R-A-T-H, active duty, U.S. Air Force; my assistant chief of staff is 
a Lieutenant Colonel Gregory Raths, R-A-T-H-S, U.S. Marine Corps; my 
ceremonies coordinator is Mr. Ron Wright, W-R-I-G-H-T; and I have three 
enlisted--junior enlisted personnel who work as clerks, a tech 
sergeant, John Otto, O-T-T-O; a sergeant, Darryl Turner, U.S. Army; and 
a WN-1, Denver Peters, P-E-T-E-R-S.
    Is that it?
    Colonel Sparks. Seven.
    The Witness. And me.

                      EXAMINATION BY MR. BENNETT:

    Question. And you report to an immediate supervisor who is the 
Assistant to the President for Management and Administration?
    Answer. Yep.
    Question. And that person was Ms. Jodie Torkelson, but I believe 
now she is with Voice of America; is that correct? I mean, she is no 
longer there, right?
    Answer. She is gone.
    Question. She is gone. Who took place her place?
    Answer. Ms. Virginia Apuzzo, A-P-U-Z-Z-O. She has been on the job 
12 days.
    Question. That's an interesting time for her to arrive, I guess.
    Colonel Sparks. Welcome party.
    Mr. Bennett. Yes. Let the record reflect that there was a chuckle 
with that.

                      EXAMINATION BY MR. BENNETT:

    Question. Prior to 12 days ago, when did Ms. Torkelson leave? I did 
not realize she left so recently.
    Answer. She left during the summer.
    Question. She did.
    Was the position vacant for a period of time?
    Answer. Yes, blessedly so.
    Question. As best you can recollect, when is the--for the record, 
Ms. Barbara Comstock, another counsel and chief investigative counsel 
for the Majority, has arrived.
    When did Ms. Jodie Torkelson leave the position Assistant to the 
President for Management and Administration?
    Answer. For the record, I can't remember, but it was in the summer 
of 1997, mid--midsummer.
    Question. And did the individual who took her place--she arrived, 
you say, 12 days ago?
    Answer. Correct, during the month of October 1997.
    Question. Now, Ms. Torkelson, did she leave in August or July? Do 
you recall exactly when she left?
    Answer. I honestly don't recollect.
    Question. Did you have any discussions with Ms. Torkelson prior to 
her departing her position as Assistant to the President for Management 
and Administration with respect to any inquiry concerning videotapes or 
audiotapes?
    Answer. No.
    Question. Okay. So to your knowledge, Ms. Torkelson had no 
involvement in that process at all, to your knowledge?
    Answer. She did not--if she was involved, she did not share it with 
me.
    Question. I understand. And to the extent that there was any 
inquiry by any congressional staffer, I think, for example, Mr. Bucklin 
from the Senate committee, to your knowledge, did Ms. Torkelson have 
any interaction with Mr. Bucklin?
    Answer. I don't know.
    Question. Directing your attention to the White House Military 
Office, and the relationship it has with the White House Communications 
Agency, WHCA, I believe that you prepared the OER, or what is known as 
the officer evaluation report, for the commander of WHCA; is that 
correct?
    Answer. The officer evaluation report for the commander of WHCA is 
signed by the Chief of Staff to the President of the United States.
    Question. Who prepares the OER?
    Answer. I do, that's correct.
    Question. So in terms of, for example, Colonel Simmons, Jake 
Simmons is the commander of WHCA?
    Answer. That's correct.
    Question. Then you are responsible for preparing his OER that you 
then submit to the Chief of Staff; is that correct?
    Answer. That's correct.
    Question. Have you prepared an OER yet for Colonel Simmons?
    Answer. Yes.
    Question. I guess you would have in the last 3 years--they are 
prepared annually. So when was the last time you prepared that?
    Answer. I don't recollect; certainly within the last year.
    Question. Then are you the one that provides the mission statement, 
in military jargon, or the tasking for WHCA with respect to orders to 
Colonel Simmons?
    Answer. I provide the taskings. I do not provide the details in how 
to accomplish those taskings.
    Question. In terms of the tasking, with what frequency do you 
provide tasking orders to Colonel Simmons?
    Answer. Daily, through a variety of mechanisms.
    Question. Do you have daily contact with Colonel Simmons?
    Answer. As needed.
    Question. And so is it fair to state that Colonel Simmons reports 
directly to you, and that his marching orders each day are received 
from you?
    Answer. His marching orders--it is fair to say that he has--he and 
I have a very close working relationship. It is equally fair to say 
that the routine events that go on daily throughout the White House and 
that require support from WHCA do not require me to tell him to read 
the schedule. Nor does it require him to read the schedule, because he 
has people that read the schedule in their functional areas who just go 
about and do it. So he and I wind up talking about nonroutine events.
    Question. And again, you would probably have a daily contact with 
him in some form?
    Answer. Absolutely.
    Question. Where is your office located in relation to his office?
    Answer. My office is in the East Wing of the White House. His 
office is in building 399 Naval Station Anacostia, Southeast, District 
of Columbia.
    Question. So most of your communications would either be by 
telephone or e-mail?
    Answer. The vast majority are telephonic.
    Question. Are there any communications by electronic mail?
    Answer. We do have e-mail.
    Question. Do you communicate with Colonel Feldman by means of e-
mail?
    Answer. I communicate with Colonel Simmons by e-mail.
    Question. Colonel Simmons, excuse me. By e-mail?
    Answer. I do.
    Question. Now, with respect to the White House taping operations, 
audiovisual and what have you, do you have personal knowledge of those 
taping operations? Are you familiar with them?
    Answer. I am now.
    Question. I guess you are. And when did you gain knowledge of the 
taping operations?
    Answer. It is--let me answer that in a--I gained knowledge 
incrementally about WHCA generally and each of its functional areas 
over time as I spent time there. From day one I received briefings 
about what they did. So I was certainly aware of the existence of an 
outfit that was videotaping the Presidency, as it had done for numerous 
Presidencies. That was formerly an independent organization and was 
only brought into WHCA at approximately the time that I arrived.
    Question. Well, let me follow up on that if I can. In terms of the 
operations of WHCA and the taping operations, when you first arrived in 
October of 1994, what was your understanding of the role performed by 
WHCA at that time?
    Answer. Provide--my understanding was framed by the mission 
statements that had been formulated in 1962 that established the White 
House Communications Agency as a field activity, and the updates to the 
mission statement. I cannot quote them to you but broadly, if I may 
summarize it.
    Question. Sure.
    Answer. It is essentially to provide all forms of electronic, 
audiovisual and other sorts of telecommunications support to the 
President, the Vice President and the Office of the President, and 
related staff, and the National Security Council.
    Question. And ultimately, you learned that essentially this White 
House Communications Agency would tape the President on essentially a 
daily basis, correct?
    Answer. I was aware that they--of the existence of that unit right 
from day one.
    Question. And with respect to the extent of their activities, when 
did you learn that WHCA essentially tapes every day in the life of the 
President?
    Answer. I would not subscribe to a specific date when that thought 
crossed my mind, but I understood that their mission--the unit was 
formerly called the White House TV, and I was initially confused by 
that. And I don't really suppose it sank in as to what they actually 
did until I went on several trips and just sort of saw how things 
worked.
    Question. And what did you observe with respect to how things 
worked?
    Answer. They taped all open events that were--that had the media 
present, and I saw them taping other events where the media was not 
present.
    Question. In terms of closed events?
    Answer. Yes.
    Question. I was going to ask you this later, but let me just get 
into this now, if I can. Who ordered--who determined whether an event 
was a closed event or an opened event?
    Answer. I don't know.
    Question. That wasn't your decision to make?
    Answer. Not at all.
    Question. And then there would be tape recording of open events, 
and there would also be tape recording of closed events also, correct?
    Answer. Some.
    Question. There would be some. Who would determine which closed 
events were taped and which ones were not?
    Answer. Well, at the time I didn't know. I have recently learned 
who is responsible for that decision.
    Question. Who is responsible for that decision?
    Answer. A civilian aide to the President. His name is Steven 
Goodin, G-O-O-D-I-N or E-N.
    Question. And Mr. Goodin then, to your knowledge, makes the 
determination presently as to whether or not an event is an open event 
or closed event?
    Answer. I do not know about that. I do know he makes the 
determination as to whether White House TV records a specific event or 
not.
    Question. Whether WHCA records?
    Answer. Yes, correct.
    Question. So, in other words, Mr. Goodin will then be the one to 
determine whether or not the cameras for WHCA are turned on or off 
essentially?
    Answer. Correct.
    Question. And how long has he had that responsibility?
    Answer. I don't know. I would infer it is an inherent part of his 
job.
    Question. And how long has he had his position?
    Answer. I would estimate 2 years.
    Question. Do you know who would have had the position prior to Mr. 
Goodin?
    Answer. Yes.
    Question. And who would that be?
    Answer. Andrew Friendly, like Friendly's Ice Cream.
    Question. And where is Mr. Friendly employed now?
    Answer. He still works in the Executive Office of the President.
    Question. And do you know how long he had that position?
    Answer. I think from January 20th, 1993, until he was replaced by 
Steven Goodin.
    Question. So you believe Mr. Friendly, and then succeeded by Mr. 
Goodin, those two individuals would have been the ones to determine 
whether or not WHCA was going to record an event?
    Answer. That's correct.
    Question. Be it a closed event or an open event?
    Answer. I would say that in terms of an open event, the question 
was never addressed. I think the presumption was that WHCA would record 
all open events. The questions would be which closed events would WHCA 
record.
    Mr. McLaughlin. I am sorry. We are talking about open and closed to 
the press; not opened and closed to the public; is that correct?
    The Witness. When we say open and closed, that is in reference to 
press coverage.
    It is--I am sorry. I got distracted there.
                      EXAMINATION BY MR. BENNETT:
    Question. In terms of, Mr. McLaughlin asked--pursuant to my 
understanding, Mr. McLaughlin can interject questions. In terms of 
following up on that, in terms of closed or open events, you said there 
were closed or open to the press, not necessarily to the public?
    Answer. In the context of this deposition, I--when we use the term 
opened and closed, I am using it open to the press and closed to the 
press. By press, I mean the media that distributes the images of the 
President at large.
    Question. With respect to a closed event that is closed to the 
press, what kind of event would be closed to the press but open to the 
public?
    Answer. Meetings with heads of state, meetings with groups.
    Question. I guess my follow-up question is in terms of meetings 
with heads of state, the press is really the public in a sense. And if 
a meeting with a head of state is closed to the press, I don't know 
that I as a member of the public could walk in and say, I would like to 
sit in and observe this meeting with a head of state. So I am not 
really sure what the distinction is between closed to the press or 
closed to the public.
    Answer. Well, let me give you an example that may help frame it.
    Question. Okay. Sure.
    Answer. Sometimes on the schedule when the President lands at a 
military airfield, the schedule will say closed to the public, but the 
media are with us, and they are filming the President getting off the 
airplane. So there is an event that is closed to the public but open to 
the press.
    Question. And I guess my question is: Can you frame one to me that 
is closed to the press but open to the public?
    Answer. No.
    Question. So really the matter of being closed to the press--
essentially, closed to the press is closed to the public, correct?
    Answer. Yes.
    Question. Now, in terms of determining whether or not an event was 
closed or opened, you indicated that you weren't certain whether Mr. 
Goodin made that determination.
    Answer. I have been told by the audiovisual people that Mr. Goodin 
does make that determination. They meet with him in the morning and go 
over the schedule and say, what events are we going to cover or not 
cover?
    Question. And once that determination is made, in terms of whether 
or not an event is closed or open, when that decision is made, is--is 
that decision communicated to you and then you communicate it to 
Colonel Simmons, or is it communicated directly to Colonel Simmons?
    Answer. It is communicated directly to the chief petty officer of 
the United States Navy that's running the camera.
    Question. Again, to follow up, a decision is made in terms of 
whether an event is closed or open, and they don't go through--whoever 
it is, Mr. Goodin or whoever makes that determination, does not go 
through you?
    Answer. No.
    Question. And, to your knowledge, he doesn't go through Colonel 
Simmons?
    Answer. No. This is a retail question, and Colonel Simmons and I 
deal at wholesale.
    Question. And in terms of dealing on the retail level, not the 
wholesale level, to pick up your metaphor, essentially then Mr. Goodin 
can make a determination pretty much on the spot with the audiovisual 
people whether it's going to be taped and whether it's closed or open?
    Answer. Yes, sir, that's correct.
    Question. And it can be done in a matter of just his--it isn't like 
a lot of paperwork is done with it. He verbally says, this is closed, 
or, this is open, and either we are or we are not going to tape; is 
that basically correct?
    Answer. Let me amplify that. The process as explained to me by the 
chief petty officer who runs this unit is that they meet daily with the 
President's aide. They go over the schedule, and they make a 
determination as to which events will be filmed by WHCA--taped, excuse 
me, taped by WHCA. The question as to opened and closed is not a 
question that is germane to the audiovisual unit in the sense of 
decision-making.
    If an event is open, it is presumed that the White House 
Communications Agency will videotape it. If an event is closed, that's 
when a decision--closed to the media--that's when a decision will be 
made.
    Question. And with respect to that decision being made, is that 
decision made in writing through----
    Answer. No.
    Question. It is just a verbal decision that's communicated to the 
video people, correct?
    Answer. Yes. It is a three-person huddle. You have the aide, you 
have the man with the camera, and you have the man with the boom 
microphone.
    Question. And the names of those people would--for example, in 
terms of understanding the three people who huddle, presently would Mr. 
Goodin be one of the three people who huddles?
    Answer. Yes.
    Question. He would huddle with what other two people?
    Answer. The assigned person with the camera and the assigned person 
with the microphone.
    Question. And you believe Mr. Friendly, prior to Mr. Goodin, would 
have the same role to play?
    Answer. I would conclude that.
    Question. I understand.
    Answer. I have no reason to--I have no facts to base that on.
    Question. I understand.
    With respect to WHCA taking orders from your office on day-to-day 
instructions, then, does your--does your office determine specifically 
which events the audiovisual crews should record?
    Answer. No.
    Question. Again, that is part of the three-person huddle, I guess, 
in terms of that decision being made?
    Answer. That's correct.
    Question. In other words, am I correct in understanding that you 
believe that absent some special circumstances, any event that's an 
open event would automatically be videotaped and recorded by WHCA?
    Answer. That's correct.
    Question. Do you keep any records of the political, as opposed to 
nonpolitical, events which the audiovisual crew records?
    Answer. No.
    Question. And do you know whether or not there are any records 
which distinguish between political and nonpolitical events kept by the 
White House?
    Mr. McLaughlin. I am sorry. I don't think I understood that 
question.
    Mr. Bennett. I will repeat it.

                      EXAMINATION BY MR. BENNETT:

    Question. Do you know whether or not there are records that 
distinguish between political and nonpolitical events recorded by any 
audiovisual crew of WHCA?
    Answer. The records are not organized on that basis. They have a 
chronological and topical log of the filming. Recollect--I feel 
compelled to point out that the purpose of the audiovisual unit is to 
provide a chronology of the Presidency and all the activities that the 
President will permit to be videotaped. And so, therefore, it is not 
parsed in terms of political or nonpolitical or even anything else. It 
is not even parsed in terms of any other dimension. It is a chronology. 
It is a video vacuum cleaner of the Presidency; no more, no less.
    Question. And those crews, in terms of the video vacuum cleaner, 
those crews pretty much operate, I think you indicated, on a daily 
basis?
    Answer. Yes. Not only that, they are in shifts so that they are 
available for work from the time the President wakes up until the time 
the President goes to bed.
    Question. And with respect to you indicating what the President 
permits to be videotaped, do you have any knowledge in terms of 
communications between the President and Mr. Goodin, and previous to 
Mr. Goodin, Mr. Friendly, in terms of any decision-making made by the 
President himself in terms of what is going to be videotaped?
    Answer. No, I do not.
    Question. Okay. You don't--you don't know the basis upon which Mr. 
Goodin and, prior to him, Mr. Friendly, will make a determination about 
whether the cameras are turned on or off?
    Answer. No, I do not.
    Question. Directing your attention, just quickly, if I can, just on 
an adjunct matter, Mr. Sullivan, just so I understand the background on 
this, I think last year the Inspector General at the Department of 
Defense was doing an audit of the White House Communications Agency; is 
that correct?
    Answer. That's very--that's correct. We are very proud of the 
results of that. I wish other organizations in government could do as 
well.
    Question. Without getting into the merits of that, I am just trying 
to verify, have you previously testified before this committee?
    Answer. No.
    Question. Last year?
    Answer. No.
    Question. And were you asked to do so?
    Answer. Yes.
    Question. And on how many occasions were you asked to do so?
    Answer. I am only aware of one.
    Question. And what was the basis of your not appearing before the 
committee?
    Answer. The basis was that it is an oversight hearing, and White 
House officials, political appointees, do not appear before committees 
on oversight issues.
    Question. So basically that determination not to appear was not 
necessarily yours made alone; it was made by your superiors?
    Answer. It is consistent with the policy. I did not--the decision 
was just simply made based upon the standing guidance of the White 
House counsel.
    Question. And essentially, you followed the advice of White House 
counsel in terms of not appearing then? It isn't that you made that 
summary decision yourself?
    Answer. That's correct.
    Question. Okay. With respect to these taping operations of WHCA, 
the daily taping operations, how often do you attend these taping 
sessions?
    Answer. The only time I would ever see this crew is if I am at an 
event at which the President is located. How----
    Question. If the President is not there, it is not to be taped and 
you are not there, so it would not be that you have any regular 
interaction with these audiovisual crews then?
    Answer. I have very little interaction with them, except when I am 
riding on Air Force One, I go back into the cheap seats and chat with 
them about life. That is my most regular interaction with them, ask 
them how the Cokes are.
    Question. And Air Force One is one of those agencies underneath 
your command; is that correct?
    Answer. That's correct.
    Question. In terms of preparing for this deposition, and then we 
will go over the matter of the subpoena itself that gives rise to this 
inquiry, other than your attorney Colonel Sparks, with whom have you 
discussed this deposition?
    Answer. Nobody.
    Question. Have you discussed the taking of this deposition with any 
other person other than Colonel Sparks?
    Answer. The taking of this deposition? My wife.
    Question. Who at the White House notified you that you would have 
to come forward for a deposition?
    Answer. Colonel Sparks.
    Question. At any time did Mr. Ruff or anybody from Mr. Ruff's 
office contact you about a deposition being taken?
    Answer. No.
    Question. And have at any time you discussed the taking of this 
deposition with any representatives of any Members of Congress?
    Answer. No.
    Question. Have you yourself reviewed the videotapes and any of the 
documents with respect to the videotapes or the audiotapes with any 
individuals?
    Answer. Nope.
    Question. Have you ever seen any of these videotapes?
    Answer. The snippets on the news, the evening news. That's the 
extent of my viewing.
    Question. To the extent that videotapes have been turned over to 
investigators either from the Senate or the House, you yourself have 
not seen any of those tapes?
    Answer. No.
    Question. Have you had any involvement with the preparation of 
these tapes or production pursuant to subpoenas issued by both the 
Senate and the House?
    Answer. No direct involvement. I have certainly been made aware 
that this has been going on. It has been a major crash, if you will, 
for the White House Communications Agency to dig all these things out 
of the archives. My--for completeness, let me say I did receive a phone 
call saying from the National Archives they had experienced a power 
outage, and would I please contact them and get it fixed quickly so we 
could finish retrieving the tapes.
    Question. When did the National Archives receive a--experience a 
power outage?
    Answer. This past weekend, Monday, Sunday.
    Question. Do you have any knowledge of any of the editing with 
respect to any of these videotapes?
    Answer. None.
    Question. Do you have--have you discussed or heard of any editing 
of the tapes with anyone?
    Answer. No.
    Question. Do you have any knowledge--do you have any knowledge of 
anyone altering, changing or destroying any videotapes taken by WHCA?
    Answer. No.
    Question. Do you have any knowledge as to who would have had 
custody, and perhaps you can explain, who would have had custody of any 
and all videotapes and audiotapes taken by WHCA since 1992--well, since 
January 1993, since President Clinton arrived in office?
    Answer. The--I can only describe the methods that are used by the 
audiovisual people to handle the tapes because there are probably 
thousands of tapes. So I cannot vouch for the handling of any 
particular tape. However, the method----
    Question. Can you tell me what the procedure is?
    Answer. The procedure is they take the videotapes.
    Question. ``They'' meaning the visual crew of WHCA?
    Answer. The audiovisual crew would take the tapes. They will record 
the tapes. They go back to their office. They create a log of what is 
on the tape, or catalog the tape, if you will. They put it in a box 
that is stored in their office, and periodically that box is carted to 
the National Archives and placed in temporary storage at the National 
Archives. The aim is that they will eventually wind up in whatever 
repository is created for the Presidency.
    To the best of my knowledge, this is the same procedure they have 
used for every administration that they have done this for.
    Question. And do you know the time frame pursuant to which the 
tapes, either be they visual or audio, are kept there at the offices of 
WHCA before going to the National Archives?
    Answer. I don't know the precise time frame. It is measured in 
weeks, not months; possibly days.
    Question. And to the extent that anyone wants to review any 
particular tape in the custody of WHCA or in the National Archives, is 
there a log of anyone who wants to review the tape?
    Answer. I don't know. I do know that they do not permit the 
original tapes to leave their hands.
    Question. ``They,'' so I understand?
    Answer. The White House Communications Agency audiovisual unit does 
not permit the original tape to leave their custody.
    Question. Until they give it to Archives?
    Answer. Correct, until they give it to the Archives.
    Question. Once it goes to Archives, do you know the procedure with 
respect to anyone wanting to view the original at the Archives?
    Answer. I do not know.
    Question. Do you know the name of the person who is responsible for 
the custody at the Archives?
    Answer. No.
    Question. In terms of the individual responsible at WHCA, would 
that be Colonel Simmons or one of his designees?
    Answer. Ultimately, it is Colonel Simmons. As a practical matter, 
it is Chief Petty Officer McGrath, who is the head of the audiovisual 
filming crew.
    Question. Is McGrath; M, small C, G-R-A-T-H?
    Answer. That's correct.
    Question. And how long has he been in that position; do you know?
    Answer. I don't know.
    Question. With respect to the matter of logs, again, and review of 
tapes and the originals, if anyone, say, today wanted to go and review 
an original of a videotape taken by WHCA, what would be the procedure 
within the White House if someone wanted to review the original?
    Answer. I don't know.
    Question. Who would know?
    Answer. WHCA may know.
    Question. Okay. And you believe Colonel Simmons might know?
    Answer. He might. Either he or counsel. I--I am unable to answer 
this because I don't believe we have ever had a request to review 
originals. I believe that the process has always been to make a 
duplicate and hand it to the requester.
    Question. Let me ask that. In terms of making a copy of the 
original and handing it to the requester, what is the mechanism as to 
that? Is a log kept of that?
    Answer. Yes, I believe so. I believe so.
    Question. And you believe the log is kept by WHCA?
    Answer. Yes.
    Question. Is it fair to state then that at any point in time, if 
anyone, be they the President or anyone at the White House, a counsel, 
a Member of Congress, if anyone wanted to review either the original or 
receive a copy of the original, is it your belief that there would be 
some type of log kept with respect to the particular person requesting 
to review the original or a copy of the original?
    Answer. It is my belief. I have not investigated or made certain of 
the facts in that matter.
    Question. I understand. But to the best of your knowledge, there 
would be such a log?
    Answer. It would seem reasonable.
    Question. So that there would be a record with respect to anyone 
reviewing those tapes?
    Answer. Yes. The quality of that record I would not vouch for.
    Question. And why would that be?
    Answer. Because as we sit in this large room, my audiovisual--
WHCA's audiovisual unit that does this consists of about seven enlisted 
people who film this stuff, catalog it, ship it and then commute to 
Fredericksburg. And by the way, they travel, too.
    Question. I am sorry? They what?
    Answer. They travel, too. I have 800 people in South America as we 
speak.
    Question. For the record, the President being in South America?
    Answer. In support of the President's trip to South America.
    So this is an organization which is devoid of lawyers and public 
affairs people, but is--understand their core mission, which is to 
videotape the Presidency and to safeguard the tapes.
    Question. And in terms of safeguarding the tapes, picking up on 
that, with respect to the log of keeping a record of whoever reviews 
the tapes, those--for example, today, those seven people who were 
there, what would be the names of those seven people? I may have asked 
you before. I am sorry. I am not sure I did.
    Answer. I only know the head of--the name of----
    Question. That's Chief Petty Officer McGrath?
    Answer. McGrath, right.
    Question. What is his first name?
    Answer. I don't know. Chief.
    Mr. Bennett. Colonel Sparks, I gather you could perhaps find out 
for me and let us know?
    Colonel Sparks. I think we may have supplied it already to Ms. 
Comstock.
    Mr. Bennett. Do you have it?
    Ms. Comstock. I think so, yes.
    Colonel Sparks. I can't remember myself. Afterwards, we can talk 
about it.
    Mr. McLaughlin. It is on the list.

                      EXAMINATION BY MR. BENNETT:

    Question. Now, Mr. Sullivan, do you have any knowledge of any 
splicing or cutting of WHCA tapes?
    Answer. No.
    Question. Do you have any knowledge of any video or audiotapes made 
of any telephone calls from Air Force One or Marine One?
    Answer. Video or audiotapes?
    Question. Yes, from Air Force One or Marine One, or any other 
vehicles used by the President or Vice President or members of their 
family.
    Colonel Sparks. Excuse me. Dick, is the question--could you state 
the question again?

                      EXAMINATION BY MR. BENNETT:

    Question. I will try to go back, if I can, John, to the--Mr. 
Sullivan indicated those agencies under his command for the White House 
Military Office, and they include----
    Answer. Yes.
    Question. What you--the acronym is Air Force One, correct?
    Answer. Yes.
    Question. Obviously the deposition doesn't pick up a nod of the 
head.
    Answer. Yes.
    Question. And Marine One? Again, yes?
    Answer. Yes.
    Question. Okay. And then Camp David, and I gather all the vehicles 
and associated--be they flight or motor vehicle?
    Answer. Yes, everything except the Secret Service limousines.
    Question. Now, in terms of the Secret Service limousines, they 
don't fall within the province of your office?
    Answer. They do not.
    Question. And do you know who has records with respect to--well, 
strike that.
    If there are any phone calls made from limousines, they would be 
within the purview of the Secret Service records, correct?
    Answer. No, that's not correct.
    Question. All right. Who would have those records?
    Answer. We would--the White House Communications Agency would have 
any records.
    Question. So, again, if there are any telephone calls and video or 
audiotapes with respect to limousines of the Secret Service, that would 
still be in the custody of WHCA; is that correct?
    Answer. That's correct. The White House Communications Agency 
installs communications equipment and maintains it inside the 
limousines.
    Question. And clearly, with respect to Air Force One and Marine 
One, to the extent that there are any video or audiotapes, that would 
also be in the custody of WHCA, correct?
    Answer. Yes, that's correct. I would like to amplify that, if I 
might.
    Question. Go ahead.
    Answer. To the best of my knowledge, we do not record conversations 
of the President of the United States. Nor do we videotape 
conversations of the President of the United States. There have been, 
at various moments, media permitted to observe the President making 
telephone calls; typically, to the winning coaches of the Super Bowl 
and similar events. But we--the White House Communications Agency and 
the White House Military Office does not make a practice of videotaping 
or recording anybody's telephone calls, that I am aware of.
    Now, there may be a--I exclude from that specifically head of state 
calls coordinated through the National Security Council which may 
require--may involve recording.
    Question. I am sorry. Just one second.
    Do--I gather that still photographs fall within the purview of the 
White House Communications Agency?
    Answer. The White House Communications Agency provides the film 
developing and the equipment.
    Question. Do they handle the framing of photographs taken of 
persons who come visit the President?
    Answer. We do not frame. That was stopped in 1993.
    Question. What do you do? You just provide the photograph itself 
and just forward it to an individual?
    Answer. We provide the print to the Photo Office.
    Question. And with respect to personal trips of the President, 
again, given the taping of the President on a daily basis in terms of 
the historical chronology of his Presidency, those trips would be taped 
as well, correct?
    Answer. Yes. We would send the photographers along.
    Question. To your knowledge----
    Answer. Excuse me, videotapers along.
    Question. Videotapers.
    Correct me if I am wrong. Just about every day in the life of the 
President is taped, correct?
    Answer. It--yes, that's correct.
    Mr. Bennett. Just for the record, Mr. Sparks was providing a note 
to the witness, for the record.
    The Witness. Yes, I understand the question. Yes.

                      EXAMINATION BY MR. BENNETT:

    Question. Every day in the life of the President is taped, correct?
    Answer. Yes. There may be some exceptions. Perhaps when he is at 
Camp David, they may or may not. I don't know. I am not invited.
    Question. I understand. But to your knowledge, you believe that 
absent some special circumstance, every day in the life of the 
President is taped?
    Answer. That's correct.
    Question. In terms of the subpoena process and request, how many 
subpoenas have you been required to deal with?
    Answer. I have never seen a subpoena.
    Question. You are about to see one before we are finished today; 
not one to you. For the record, we are laughing again.
    I am going to show you the one that is the subject of this 
deposition. But do you generally get involved in the subpoena process 
in any way?
    Answer. No.
    Question. Is this--how many times has your deposition been taken?
    Answer. My deposition?
    Question. Yes, such as this.
    Colonel Sparks. For these issues.
    The Witness. This is my second deposition.

                      EXAMINATION BY MR. BENNETT:

    Question. Okay. Apart from the Senate having--I gather the Senate 
took your deposition?
    Answer. That's correct.
    Question. Apart from the Senate and the House having taken 
depositions with respect to the matter of the White House videotapes, 
has your deposition ever been taken before?
    Answer. No.
    Question. And with respect to the matter of subpoenas and 
compliance with subpoenas, have you ever been involved with respect to 
the process of complying with a subpoena to the White House?
    Answer. Yes.
    Question. Okay. What was the nature of those subpoenas?
    Answer. I have--I have been requested to search for documents via 
memoranda from the Counsel's Office.
    Question. And they would be on a variety of topics?
    Answer. Yes. And those memoranda did not normally indicate to which 
client we were responding. From my point of view, it was the counsel 
requesting.
    Question. I understand. And you--to the extent that you were 
involved in document production, you would make those documents 
available to White House counsel?
    Answer. Absolutely.
    Question. Exactly what would you--if you can describe your role in 
the document production process when it has arisen.
    Answer. Very well. First the request is submitted to--excuse me, 
circulated from the Office of Counsel, normally to all White House 
staff and members of the Executive Office of the President. Upon my--it 
would be distributed through the normal distribution channels.
    Question. What are the normal distribution channels?
    Answer. Courier, in-box, out-box, that kind of thing.
    Question. I guess my question, to follow up sort of on your 
summary, are there certain people who gather documents in the West Wing 
or other offices in terms of complying with the subpoena?
    Answer. I don't know.
    Question. Okay. Then going back to the process in terms of your 
involvement, exactly what do you do once you are asked to assist White 
House counsel in compliance with the subpoena?
    Answer. Well, we get the document request, and then I distribute it 
to 10 different unit commanders and request that they search their own 
files, comply with the request, provide us with--provide my office with 
the results of their search. I collate the products, which is to say I 
staple them together, and put a memo on top to White House counsel and 
say, here is what we found.
    Question. And again, we are not directing your specific attention 
to the subpoena question. We will get there in a few minutes. But just 
in terms of the normal process, do you know who actually accepts a 
subpoena at the White House once it is delivered?
    Answer. No.
    Question. And you don't know who logs it in?
    Answer. No, I don't.
    Question. And do you know who assigns the response in terms of 
decisions made in terms of complying with the subpoena?
    Answer. No.
    Question. And do you know the names of other people who are 
generally involved in document production in terms of that checklist I 
think you made reference to, who generally would be on the list in 
terms of being involved in document production as a general rule of any 
subpoena delivered to the White House?
    Answer. As a general rule, I would assume it would be the heads of 
all the separate offices that make up the--that make up the White 
House.
    Question. And how many separate offices are there?
    Answer. I don't know. Lots.
    Question. When you have to retrieve any documents that fall within 
your purview of the White House Military Office, how are those 
documents sent to your office?
    Answer. They are normally brought over by people who are making 
courier runs from the various units to my office.
    Question. And does anyone catalog any documents delivered to your 
office in terms of compliance with the subpoena?
    Answer. No.
    Question. For example, is there Bates--what is known as Bates 
stamping that goes on?
    Answer. No.
    Question. You essentially will give the documents to White House 
Counsel's Office, and then the White House Counsel's Office will be 
responsible for stamping or documenting?
    Answer. I have only been asked to come up with material that is 
considered responsive, and the criteria is outlined very explicitly, 
and so we do a search. We collect the pieces of paper, and we just put 
them together.
    Question. So you don't necessarily catalog the documents by office?
    Answer. No, not at all.
    Question. Do any interns become involved in this process?
    Answer. We don't use interns in the Military Office due to security 
clearance problems.
    Question. To your knowledge, do people send in memos explaining the 
documents or describing what the documents contain?
    Answer. No. They normally produce the--they have always produced 
the actual document.
    Question. Do you know the distinction between a document request as 
opposed to a subpoena?
    Answer. I have a layman's understanding.
    Question. And what would your understanding be?
    Answer. Subpoenas, you got to do it.
    Question. What about document requests?
    Answer. You got to do it. Well, you got to do it if you value 
continued employment.
    Question. Do people sign forms in the White House in terms of 
attesting to searches of their files?
    Answer. When I forward the results of my document request--or, 
excuse me, of counsel's document request to the counsel, I'm certifying 
for my whole organization that we've conducted a search.
    Question. Again, in terms of forms, do people who are searching 
their respective files or offices, do they sign forms in any fashion to 
indicate what they have done?
    Answer. I have not directed it.
    Question. You yourself do that?
    Answer. We're organized in a military hierarchy so that things flow 
from bottom to top when we're responding. So I would assume that each 
unit commander, when they receive a document request from me, farms it 
out to each of the areas inside his or her own organization that has 
databases and that the custodians of those databases or logs or files 
would search it for the materials that are responsive, send it to their 
unit commander, who would pull it together, send it to my office, which 
would put together the responses from all 10 of the units as well as 
the results of our own search inside our own office files, and then we 
would put the whole thing together with a memorandum from me to the 
counsel.
    Question. Who ensures compliance office by office?
    Answer. At what level?
    Question. Say at your level. Ultimately you are the one who is 
responsible for assuring compliance in the White House military 
organization, the military office; correct?
    Answer. That's correct.
    Question. And is the subpoena itself--again, in terms of normal 
procedure, is the subpoena itself sent around to the respective White 
House offices?
    Answer. I have not seen any subpoenas.
    Question. Then in terms of definitions, in the definitional section 
of a subpoena, for example, as in this case the definition of 
``records'' as defined in the subpoena, how do people know which 
records to provide if there's no definitional section with respect to 
records forwarded?
    Answer. The White House Military Office is not an organization of 
lawyers, and we do not spend time worrying about terms. There is a 
military specialty called records clerk who is normally a 19-year-old 
person.
    Question. Is normally a what?
    Answer. A 19-year-old person. And that person knows what a record 
is, and he or she has probably never seen a subpoena. So I would say 
that we use a layman's construct of what constitutes a record.
    Question. And the subpoena itself, or the covering sheet for the 
subpoena, then, is not routinely forwarded to your office?
    Answer. No.
    Question. If you have questions over the scope of the term 
``records,'' what would you ordinarily do?
    Answer. I have never had a question, so. I would search all 
materials that were responsive.
    Question. Do you have any knowledge in terms of the breakdown, in 
terms of complying with the response to the Senate as opposed to the 
House or, for that matter, the Department of Justice? Are there 
different people assigned to respond depending upon the source of the 
subpoena?
    Answer. No.
    Question. So to your knowledge, in terms of responding to different 
investigations, there's no separation in terms of people assigned to 
make the response?
    Answer. We don't even--my office and the people in my organization 
don't even know the source of the request other than it's from the 
White House Counsel's Office. So it would be impossible for them to 
respond selectively for one investigative body compared to another.
    To the best of my knowledge, every search has been undertaken in 
precisely the same way. We've done 12 of these things in the past 8 
months.
    Question. And do you know what agencies have requested those 12 
searches?
    Answer. Nope. I'm getting a clue.
    Question. In terms of the matter of the production logs, and as I 
understand it, and if I am wrong, you yourself do not prepare a 
production log at the White House Military Office?
    Answer. What is a production log?
    Question. For example, whatever materials you gather--I thought I 
understood you to say a few minutes ago that whatever materials you 
gather you then send to the White House Counsel's Office.
    Answer. That's correct.
    Question. And you yourself do not Bates stamp or keep a record of 
the documents you send over to the White House Counsel's Office?
    Answer. I don't know what ``Bates stamp'' means.
    Question. For example, if we sent over the pages on this table here 
at the deposition, we would number them, say, P-1, P-2, P-3 through P-
230, and then we would keep a log that on a particular day from this 
table we produced 230 pieces of paper, and we would have them numbered.
    Does your office do that when it sends material over to the White 
House Counsel's Office?
    Answer. No. We keep a photocopy of what we send, though. We 
photostat the original memorandum I'm sending to the White House 
Counsel's Office and photostat the submissions.
    Question. So, then, whereas you don't number it, you keep a copy of 
whatever you would send to Mr. Ruff's offices as counsel to the 
President?
    Answer. Yes, with several exceptions. I have been asked to produce 
manifests of Air Force I and Marine I dating from January 20th. Those 
records are several feet long, so we did not put a copy of those in the 
files.
    Question. But to the extent that the volume of material is----
    Answer. Reasonable?
    Question [continuing]. Reasonable, you will keep copies of whatever 
you submit to Mr. Ruff's office?
    Answer. Yes.
    Question. And where are those copies kept?
    Answer. In my office.
    Question. And they are still presently in your office?
    Answer. Somewhere around there, yes.
    Question. And is it safe to say any such records you have turned 
over to Mr. Ruff, other than voluminous records which you could not 
photocopy, you would have photocopies in your office of those records 
since you began your employment in October of 1994?
    Answer. I hope so.
    Question. You have no involvement then on determining what 
documents may or may not be asserted as being privileged, obviously?
    Answer. No.
    Question. Have you ever directly consulted with the President or 
the Vice President with respect to the production of any records?
    Answer. Never.
    Question. You have dealt strictly with the White House Counsel's 
Office?
    Answer. Yes, and that has normally been the form of just responding 
to the memorandum as received.
    Question. And with whom have you dealt in the White House Counsel's 
Office?
    Answer. Wendy White and Cheryl Mills.
    Question. And have you dealt with Mr. Michael Imbroscio?
    Answer. No.
    Question. Anyone else besides Wendy White and Cheryl Mills?
    Answer. No.
    Question. Have you dealt directly with Mr. Breuer or Mr. Ruff with 
respect to such production?
    Answer. I have never seen Mr. Breuer or Mr. Ruff or talked to them 
on the phone.
    Question. To this day, Mr. Sullivan, have you ever met or spoken to 
Chuck Ruff?
    Answer. Never met him.
    Question. And to this day, have you ever met or spoken with Lanny 
Breuer?
    Answer. Never met him.
    Question. So, then, again, the total contact you have with the 
White House Counsel's Office is with Cheryl Mills and Wendy White?
    Answer. Yes, and of course Wendy White has since departed, and her 
and my capacity with her was 230 percent revolved around the House 
Government Reform and Oversight Committee's inquiry into the WHCA 
organization.
    Question. Last year?
    Answer. Last year.
    Question. And with respect to Cheryl Mills, with what frequency 
have you dealt with Ms. Mills?
    Answer. Sporadically.
    Question. When was the first time you spoke with Ms. Mills in 
connection with the matter of the White House videotapes that causes us 
to be here today?
    Answer. Sometime during October 1997.
    Question. You did not speak with her in August or September?
    Answer. No.
    Question. And what was the nature of your conversation with Cheryl 
Mills when you spoke with her in October of 1997?
    Colonel Sparks. Let me just ask this. I am not certain whether 
privilege issues are about to come up between the White House Counsel 
folks and anyone they would have talked to about this. Let me ask you 
where you are going to go with that.
    Mr. Bennett. I was going to go into the particular conversations 
with respect to compliance with the subpoena and production.
    Colonel Sparks. All right.
    Mr. Bennett. And just for the record, Ms. Comstock advised me 
yesterday, at the deposition of Michael Imbroscio, no privilege issues 
had been raised with respect to this discussion, nor has Mr. Ruff 
raised the issue with me. So I believe in terms of the nature of my 
inquiry, your client can answer.
    Colonel Sparks. Certainly.
    Mr. McLaughlin. Hold on. Are you making a representation that, to 
the best of your knowledge, the White House doesn't intend to assert 
privilege?
    Mr. Bennett. To my knowledge, in terms of asking personnel at the 
White House what they did with respect to compliance with the subpoena, 
the White House is not intending to assert privilege.
    Mr. McLaughlin. I am not arguing, I am asking. Is that based on a 
conversation or simply the experience of no privileges being asserted 
yesterday?
    Mr. Bennett. No; it is based on my conversation with Mr. Ruff last 
Friday and his indicating full cooperation with respect to White House 
personnel specifically on the matter of how the subpoena was--that 
there was an effort to comply with the subpoena.
    Mr. McLaughlin. Just so we are clear, did he make representation to 
you as to whether or not privilege issues had been asserted?
    Mr. Bennett. It didn't come up. He specifically told me that his 
office would completely cooperate and the personnel would come forward 
and answer any and all questions concerning the matter of efforts to 
comply with the March 4, 1997, subpoena.
    And I don't really believe I'm about to get into privilege issues 
anyway, and it seems clear that is why these people are being produced 
for depositions.
    Colonel Sparks. I understand.

                      EXAMINATION BY MR. BENNETT:

    Question. Mr. Sullivan, when, to your knowledge, was the first time 
you spoke with--let me step back from October of '97 and move forward.
    I gather you spoke with Ms. Mills in October, this month, with 
respect to the matter of the videotapes?
    Answer. That's correct.
    Question. Prior to speaking with Ms. Mills this month, and, again, 
did Ms. Mills take the place of Wendy White, to your knowledge?
    Answer. No.
    Question. Wendy White is no longer employed there at the White 
House Counsel's Office?
    Answer. She no longer is.
    Question. When was the last time she was employed there?
    Answer. I don't know.
    Question. Just a rough time period; several months? A year ago?
    Answer. I would hazard to guess a year ago.
    Question. With respect to Cheryl Mills, you indicated as the only 
other person from White House Counsel's Office with whom you have 
communicated. Prior to speaking with her this month concerning the 
videotapes, when was the last time you had spoken with Ms. Mills?
    Answer. I can't remember. A long time.
    Question. Several months?
    Answer. At least.
    Question. Certainly prior to the beginning of the summer?
    Answer. I think so, yes.
    Question. What was the nature of the conversation and the topic of 
the conversation, your first conversation, with Ms. Mills this month, 
in October of 1997?
    Answer. She called me and said that, National Archives was having a 
power outage; can you help get the power turned back on so we can get 
the videotapes up to have them reviewed?
    Question. And I gather you responded to that?
    Answer. I tried to.
    Question. Were you able to turn on the power at the National 
Archives?
    Answer. I was told it was a scheduled power outage and would I just 
relax.
    Question. How many other conversations have you had with Ms. Mills 
apart from that one?
    Answer. We have had several subsequent to that, and they revolved 
around the issue of--not the issue, but she and I both have agreed to 
do a very powerful search of all the databases inside the White House 
Communications Agency. That task is under way now.
    Question. And what is the nature of that search?
    Answer. Searching against all search terms that are possible. It is 
the universe of all prior searches and then some, using Boolean 
operators and root directories and computer technicians to get 
information.
    Question. Did Ms. Mills ever speak to you in terms of the 
definition of records, including videotapes, that were subpoenaed?
    Answer. No.
    Question. Have you ever had any conversation with Ms. Mills 
concerning the scope of a subpoena, including videotapes?
    Answer. No, I have never discussed a subpoena with Ms. Mills in my 
life.
    Question. I believe you indicated that you have, I think you used 
the number 12--on 12 other occasions you have dealt with document 
production in connection with the Committee on Government Reform and 
Oversight of the House of Representatives?
    Answer. No, I don't believe I said that. What I said was, I believe 
I have responded to 12 requests for data searches, document searches, 
in the last 8 months.
    Question. In the last 8 months, and they were in----
    Answer. Over a period of 8 months, correct. Strike that; over a 
period of 8 months.
    Question. And do you believe the number was 12?
    Answer. I'm quite sure of that.
    Question. And what gave rise to the request of 12?
    Answer. 12 requests from the White House Counsel's Office.
    Question. Do you know who was the source of those requests? Were 
they all from the House? The Senate? The Justice Department? Do you 
know?
    Mr. Ballen. This is the third time you have gone over this, 
Counsel.
    The Witness. The source was either Jack Quinn or Charles Ruff.
    Mr. Bennett. I don't believe it is the third time. If it is, I 
apologize. The one who takes the deposition does not ordinarily 
continue to take notes at the same time, and I don't believe it is the 
third time, Mr. McLaughlin, and I apologize to the witness if it is.
    Mr. McLaughlin. Count in the transcript.
    Mr. Bennett. Colonel Sparks, do you have an objection to any of 
these questions?
    Colonel Sparks. I don't.
    Mr. Bennett. Thank you very much.
                      EXAMINATION BY MR. BENNETT:
    Question. With respect to the subpoena itself, let me show you what 
has been marked as exhibit 1. Just looking at exhibit 1, I gather from 
what you have advised us thus far you have never seen this subpoena; is 
that correct?
    Answer. That's correct.
    [Sullivan Deposition Exhibit No. 1 was marked for identification.]

    [Note.--All exhibits referred to may be found at end of 
deposition on p. 1043.]

                      EXAMINATION BY MR. BENNETT:

    Question. Is today the very first time that you have viewed this 
subpoena?
    Answer. That's correct.
    Question. And if you look at the second page, schedule A?
    Answer. Correct.
    Question. You will see with respect to the definition of ``record 
or records,'' and without belaboring this point, I will just for your 
purposes, Mr. Sullivan, I will advise you that as of last Friday, in a 
meeting with Mr. Ruff, there didn't appear to be any question that the 
term ``record or records'' includes videotapes and audio recordings, 
and I am just allowing you to read it now because I gather you have not 
ever seen this document until day.
    Answer. That's correct, I have not seen it until today.
    Question. And I gather that in terms of all persons with whom you 
have discussed this subpoena--why don't you make sure I'm clear. And, 
again, if I have asked this question before--I don't believe I have 
specifically, but if I have, I apologize. I gather you have discussed 
the subpoena with Cheryl Mills?
    Answer. I have not discussed this subpoena with Cheryl Mills.
    Question. Have you discussed the subpoena with anyone?
    Answer. I was not aware of the subpoena, the existence of the 
subpoena, until the beginning of this deposition.
    Question. Until we started asking you questions this morning, you 
were not aware that there was this subpoena?
    Answer. That's correct.
    Question. And you were not aware that the subpoena included the 
term, in terms of definitions, ``included the videotapes and 
audiotapes''?
    Answer. Because I did not see the subpoena until this morning, I 
could not know what the contents of the subpoena would be, QED.
    Question. I guess my point is, you hadn't read about it in press 
accounts or anything else, is my question, prior to this morning?
    For the record, Mr. Ruff was on national television last Sunday 
discussing the matter of some errors, and I'm just trying to understand 
the nature of your knowledge.
    Answer. And I have yet to look at that show, because I was in 
church with my two boys and then went to play soccer afterwards.
    Question. Again, you don't have any knowledge of the subpoena, 
period? No one has discussed it with you at the White House?
    Answer. No. No. And let me just make this perfectly clear. I run an 
operational organization, and the process by which the all-consuming 
Washington business goes on is inherently boring to me. I'm much more 
interested in whether my airplanes are on time or not, so I don't--I'm 
not a news junkie on this stuff.
    Question. Directing your attention, then, I can summarize for you, 
given you had not seen it before, in item 16 there is a request with 
respect to White House coffees. But, again, you would not have had any 
knowledge of that?
    Answer. What is item 16, sir?
    Question. Item 16 on the subpoena, sir. If you want to look at 
that.
    Answer. Do we have an item list? Yes.
    Question. I think we do.
    Answer. I see item 16.
    Question. Again, no one ever discussed White House coffees with 
you?
    Answer. I received a request that included the term ``coffees.''
    Question. Let me show you what has been marked as exhibit 2, which 
in fact is a memorandum from Mr. Ruff that has been provided by the 
White House, which apparently is an April 28, 1997, memorandum that we 
have been advised was sent around in connection with this subpoena.
    [Sullivan Deposition Exhibit No. 2 was marked for identification.]

                      EXAMINATION BY MR. BENNETT:

    Question. The subpoena was, for your understanding, Mr. Sullivan, 
issued on March 4th of this year, and then Mr. Ruff's memorandum is 
April 28th. Have you seen this memorandum?
    Answer. I have seen the April 28th memorandum, exhibit 2.
    Question. And do you recall when you first saw it?
    Answer. I first saw it either April 28th or April 29th.
    Question. And do you recall what steps you took once you received 
this memorandum?
    Answer. Yes, I do recall.
    Question. And what steps did you take, sir?
    Answer. I scanned it, as I had its numerous predecessors, and I 
asked my staff to put it on the fax machine and send it to the 10 unit 
commanders. And then I'm told that we always put a hard copy in their 
out basket, in their mail distribution boxes, as well.
    Question. And did you keep a copy of any covering sheet with 
respect to the fax?
    Answer. Yes, I did.
    Question. And would you still have a copy of that in your records?
    Answer. I have a copy that shows--yes, I do.
    Mr. Bennett. And, Colonel Sparks, we did not----
    The Witness. Let me make a correction, for the record.

                      EXAMINATION BY MR. BENNETT:

    Question. Sure.
    Answer. That fax was signed out by my then chief of staff, Colonel, 
now Brigadier General, Jim Hawkins.
    Question. And where is General Hawkins now stationed?
    Answer. Grand Forks, North Dakota.
    Question. He is not retired?
    Answer. No.
    Mr. Bennett. Colonel Sparks, do you happen to have--we didn't ask 
for any document production with respect to the subpoena, but to the 
extent that you can get a copy of the covering sheet sent from Mr. 
Sullivan's office with respect to this memorandum, could you please 
make an effort to locate that and forward that to both Minority and 
Majority counsel?
    Colonel Sparks. I can do that.

                      EXAMINATION BY MR. BENNETT:

    Question. Looking at this memorandum of April 28, 1997, Mr. 
Sullivan, do you recall reading it? I understand you get a lot of 
documents on your desk, but did you make an effort to read it?
    Answer. I scanned it.
    Question. Do you know if there is any reference there to videotapes 
in the memorandum from Mr. Ruff?
    Answer. I am not aware of any reference to a videotape.
    Question. Then I gather when you looked at this document in April 
of 1997, you personally had no knowledge of any request for videotapes?
    Answer. We conducted a search on the terms that were in attachment 
A.
    Question. To exhibit 2?
    Answer. To exhibit 2 on the videotape directory.
    Question. I guess my specific question though, sir, was, you were 
not aware then in April that the subpoena issued by this committee on 
March 4, 1997, had included a request for videotapes?
    Answer. I was not aware--no, I was not aware of that. But what I am 
saying is that we did not bypass the videotape archives in our 
searches, so therefore we obviously considered videotapes to be a 
potentially responsive form of record.
    Question. I'm not sure if I understand that, in that how did you 
check these individuals?
    Answer. I think they typed the names into the--it is an 
electronically maintained database, and they typed these people's names 
in to see if they got any hits; words search.
    Question. I understand. In terms of whether or not they had been 
scheduled in the WAVE records at the White House or meetings or just 
who, and also the second page are corporations, are they not, they are 
entities, and I gather that was done?
    Answer. Yes.
    Question. But, again, in terms of any knowledge you had in April of 
1997, you did not have any knowledge about seeking whether or not there 
were any videotapes of any of these people?
    Answer. I did not know--no, I did not have any specific knowledge 
of the media, but we were not media specific in our searches, we were 
request specific in our searches.
    Question. Specifically, what I'm addressing your attention to is, 
again, I know you have indicated you prefer to not pay attention to the 
media as a political junkie may pay attention to it, but in a recent 
article in The Washington Post, I think dated Monday of this week, 
there is an indication that--first of all, do you know Steven Smith?
    Answer. Yes.
    Question. And he is? Who is he? What is his position?
    Answer. He is the assistant operations officer, or operations 
officer at WHCA.
    Question. And he comes underneath your command; correct?
    Answer. Under Colonel Simmons' command.
    Question. And Colonel Simmons comes under your command?
    Answer. Correct.
    Question. And Mr. Smith has indicated, or there is an indication in 
The Washington Post that Mr. Smith has sworn that he was never asked 
for any videotapes or other records of the controversial coffees until 
about 2 weeks ago.
    In light of that statement by him, I am asking you if in April of 
1997, based upon the memorandum you received from Mr. Ruff, did you 
have any specific understanding that you were to look for videotapes?
    Answer. No, I did not have a specific understanding I was to look 
at videotapes any more than I had a specific understanding I was to 
look for audiotapes, to look for databases, to look at my message 
center, to look at my flight manifests, but I looked at all those 
things, as I did for every other search before and subsequent.
    Question. And I guess my question, before I get to the matter of 
what information you sent on to WHCA, how was it that you would not 
become aware in April of 1998 of the existence of videotapes if you 
searched for videotapes with respect to the individuals and entities 
listed on the attachment to exhibit 2?
    Answer. April 1998? I don't think we are there yet, sir.
    Question. I'm sorry, April 1997. Excuse me.
    Answer. I'm sorry, I focused on----
    Question. If it is a poorly phrased question, I will rephrase it.
    Answer. I lost track when you said '98.
    Question. We have been going for almost 2 hours. We will take a 
break in a minute, if you want. My question is, you have this 
memorandum from Mr. Ruff?
    Answer. Correct.
    Question. As reflected by exhibit 2; correct?
    Answer. Right.
    Question. And you believe you received it on or about the same day, 
April 28, 1997?
    Answer. Correct.
    Question. And Mr. Smith has apparently indicated and has been 
quoted as saying that he had no knowledge and was never asked by anyone 
for videotapes of the coffees. He wasn't asked for videotapes, has been 
his response.
    Answer. Well----
    Question. My question to you is, how is it that you would not have 
become aware of the fact that there are videotapes involving these 
people if you specifically looked for videotapes?
    Answer. Are you finished?
    Question. Sure. Sure.
    Answer. The videotapes are not catalogued by the subjects of the 
individual who is taped, they are catalogued by the type of event. So 
it all depends on your library system. And if your card catalogue is 
structured one way and you search in a taxonomy that is not that way, 
you will not come up with any responsive results.
    And when we typed the word ``coffee'' in later on, we got lots of 
responses. But if you type in ``Mi Ryu Ahn,'' or whatever it is, you 
will not get anything out of that archive.
    Conversely, let my say that when you go to the message center and 
you type in names of individuals, you do get responses, whereas if you 
type ``coffee,'' you don't get responses. So it all depends how you 
structure your query.
    Question. If you will look at page 2 of the exhibit.
    Answer. There is a large business out there called structured query 
languages.
    Question. If you look at page 2 in front of you, 1(b) says relating 
to White House political coffees.
    Answer. That's correct.
    Question. But as I understand it, you didn't have, or at least in 
the White House Military Office you didn't enter anything with respect 
to coffees?
    Answer. That's correct.
    Question. Now, exactly what did the White House Military Office do 
with respect to this memorandum? What did you do physically prior to 
faxing it over to WHCA?
    Answer. I physically did nothing.
    Question. Did you physically conduct the search?
    Answer. No.
    Question. Well, then, in terms of your description which we just 
went through the last couple of minutes, it is your understanding, 
then, of what you believe WHCA did with respect to the search?
    Answer. That's correct.
    Question. So correct me if I'm wrong; with respect to this 
memorandum from Mr. Ruff, you faxed this memorandum from Mr. Ruff to 
officials at the White House Communications Agency and, I believe you 
said, all agencies under your command?
    Answer. For precision, let me say my clerk, one of the clerks, 
faxed it to all of the agencies using a broadcast distribution system 
in our fax machine. What that means is that you put the fax, the 
original, in the machine once. It is preprogrammed with 10 telephone 
numbers. You hit ``Send,'' and it sends them sequentially to the 
various entities.
    Question. And to your knowledge, was that done with respect to all 
the entities underneath your command?
    Answer. Yes.
    Question. And to your knowledge, was the full 4-page memorandum 
from Mr. Ruff sent to all agencies under your command?
    Answer. I know that the full memorandum along with a cover sheet 
and along with my fax cover sheet was received by at least four of my 
entities.
    Question. And which four would they be?
    Answer. Special Programs Office, Presidential Contingency Programs, 
and I can't recollect the other two, but I can get them for you.
    Question. I notice you didn't mention that WHCA was one of those 
four that received the transmission.
    Answer. That's correct.
    Question. And how do you know that WHCA did not receive the 
transmission?
    Answer. I don't know they didn't receive it.
    Question. How do you know there are four that definitely did?
    Answer. Because I went to them after the fact and said, ``Do you 
have a copy of what we sent you in your files?''
    Question. And why is it you went to those four and not the other 
six under your command?
    Answer. We went to a number of them, but several of them had 
discarded it because, for example, the medical unit doesn't find this 
sort of--when they do their response, just for simplicity's sake, they 
dispose of the original request.
    Question. With respect to WHCA, have you spoken with anyone at WHCA 
with respect to your transmission of this memorandum?
    Answer. No, I have not.
    Question. Do you know whether or not WHCA received the entire 4-
page transmission?
    Answer. I do not know that for a fact. I do know that when you 
transmit--the technology drive is the answer on this. If you use an 
electronic distribution system where the clerk presses a button once 
and the machine takes over from there, barring an internal failure of 
the machine, if the fax was received in its entirety in one 
destination, it is either received in its entirety at all destinations 
or it is not received at all because the telephone line didn't work, 
barring a failure of the fax machine at the other end.
    Question. So, then, correct me if I'm wrong; in terms of what you 
are saying, in light of the fact that four of the agencies under your 
command you were able to verify received the entire 4-page 
transmission, it is your belief testifying here today that those other 
entities to whom you faxed material would also have received the entire 
4-page transmission?
    Answer. That's correct. I would have regarded any one as being 
conclusive; four certainly is.
    Question. So, then, as far as you are concerned, you believe in 
terms of how your office handled this, the White House Military Office 
that--conclusively, you believe that WHCA would have received the 
entire 4-page transmission?
    Answer. I will conclude that.
    Question. Was this e-mailed or photocopied? You said it was faxed 
and sent. Was it ever e-mailed?
    Answer. No, it was not e-mailed.
    Question. So it was basically photocopied then sent by facsimile 
transmission?
    Answer. Yes.
    Question. And a hard copy to follow?
    Answer. Hard copy to follow. I cannot verify that. I was told that 
is our normal procedure.
    Question. But you can verify it was clearly sent by facsimile?
    Answer. Yes. It was sent between the hours of approximately 7:45 to 
8:15 on the 29th of April.
    Question. And, again, so I am clear on this, Mr. Sullivan, as far 
as you are concerned, you personally made no error with respect to the 
transmission of the request to WHCA?
    Answer. Physically, we made no error.
    Question. What other error would you perhaps have made, if not 
physically?
    Answer. I don't know; perhaps lack of insight.
    Question. But my question is that you yourself, as you sit here, I 
understand what you have said in terms of the steps you took with the 
4-page memo and the transmission--you yourself do not believe in your 
personal office, there in the White House Military Office, that you 
made any error with respect to the transmission to WHCA?
    Answer. No; that is correct.
    Question. I'm not alleging they did, I'm trying to verify your 
position.
    Answer. I'm just telling you they didn't.
    Question. I understand.
    Mr. Bennett. Would you like to take a break now for a few minutes?
    Colonel Sparks. That would be helpful.
    The Witness. Yes, it would be very helpful.
    Ms. Comstock. Sure. Fine.
    [Brief recess.]

                      EXAMINATION BY MR. BENNETT:

    Question. Do you recall specifically--why don't I give you this 
exhibit, and this will help you along, Mr. Sullivan.
    I will show you what has been marked as exhibit 3, and exhibit 3 is 
information that has thus far been supplied to us by the White House, 
and you will see that they are certifications or memos, and I'm just 
asking you to look at that.
    [Sullivan Deposition Exhibit No. 3 was marked for identification.]

                      EXAMINATION BY MR. BENNETT:

    Question. The first page of exhibit 3 is, in fact, a memorandum for 
Mr. Ruff from you dated May 6, 1997. Do you recall that, sir?
    Answer. I do.
    Question. And looking at that memo, which is fairly short, it says, 
``Subject: Document request. In response to your memorandum of April 
28, 1997, we have searched our files and found the six attached 
documents referring or relating to the individuals or entities 
identified in the memorandum.''
    Do you see that?
    Answer. Yes.
    Question. And do you recall what those six documents were that you 
were forwarding in light of Mr. Ruff's memo of April 28?
    Answer. I can generally describe them.
    Question. Okay.
    Answer. They were cables or messages extracted from our message 
center.
    Question. Would that have been derived from your database?
    Answer. That would have been derived from the message center's 
database.
    Question. And do you recall what the topic areas were?
    Colonel Sparks. If we can, these were classified.

                      EXAMINATION BY MR. BENNETT:

    Question. That's fine. They were classified; is that correct, Mr. 
Sullivan?
    Answer. That's correct. Some of them were classified. Maybe they 
all were. But they were State Department and intelligence agency 
cables.
    Question. But for those six matters that may or may not have been 
classified--and in the abundance of caution, Colonel Sparks, I will not 
go into them in case they were classified--none of them related to 
White House coffees or videotapes?
    Answer. No; they referred specifically to items as listed in 
attachment A of exhibit 2.
    Colonel Sparks. Excuse me. Let me just interject, only because I 
don't know the security clearances of everyone here, if at some later 
point we need to find out what the contents of those are, we can do 
that.
    Mr. Bennett. We will make a note of that for the record, and I 
thank you for that.

                      EXAMINATION BY MR. BENNETT:

    Question. With respect to page 2 of that document, it was a 
memorandum signed by your boss, Jodie Torkelson, Assistant to the 
President for Management and Administration. That memorandum went to 
Mr. Nionakis, Associate Counsel to the President. Do you see that?
    Answer. Yes, I do.
    Question. Did you have any knowledge of that memorandum going to 
him from Ms. Torkelson?
    Answer. No.
    Question. Did Ms. Torkelson advise you she had sent that 
memorandum?
    Answer. No.
    Question. Did you have a close working relationship with her?
    Answer. I kept as much distance from her as I could generate, and 
it wasn't enough.
    Did you get that clearly?
    Question. And why was that, Mr. Sullivan?
    Answer. She was a very difficult person to work for.
    Question. And in what ways was she a difficult person to work for?
    Answer. Abrasive, corrosive, and presumed that you were an idiot.
    Question. And did, at any time, given that relationship you had 
with Ms. Torkelson----
    Colonel Sparks. I hope we will move beyond that.

                      EXAMINATION BY MR. BENNETT:

    Question. We are sort of laughing here at the table. Any other 
thoughts you have on Ms. Torkelson?
    Answer. No; they might be actionable.
    Question. Any time you want to state your opinion here, feel free 
to do so.
    I want the record to reflect that I finally got Mr. Andrew 
McLaughlin to laugh during this deposition, which is maybe a landmark 
event in terms of discussion.
    Mr. McLaughlin. It is a first.
    Mr. Bennett. It is a first.

                      EXAMINATION BY MR. BENNETT:

    Question. With respect to the matter of Ms. Torkelson, given your 
relationship with her, did you have a discussion with her about Chuck 
Ruff's April 28 memorandum or your effort to respond to it?
    Answer. I don't know. The memorandum that I signed out, which is 
page 1 of exhibit 3, I have been told after the fact was delivered by 
Lieutenant Colonel Raths to wherever it had to go.
    Question. I'm sorry, the memorandum you signed dated May 6, 1997?
    Answer. Right.
    Question. Was hand delivered by?
    Answer. Lieutenant Colonel Raths.
    Question. And who is Lieutenant Colonel Raths?
    Answer. He is my assistant chief of staff who works in my front 
office.
    Question. You don't know whether he actually delivered it to Mr. 
Ruff or not?
    Answer. No. As a matter of fact, I don't know into whose hand he 
delivered it. But I know that he made a practice, with my full 
concurrence, of going by Jodie Torkelson's office, advising them that 
we had a response in hand, and asking if they wanted us to route it 
through that office or respond directly to counsel.
    Question. And what was the response of Ms. Torkelson's office?
    Answer. It varied from time to time.
    Question. Based upon your review of these documents, what do you 
believe occurred with respect to this one?
    Answer. I believe we delivered it directly to the counsel's office.
    Question. And not through her office?
    Answer. Correct.
    Question. Then I gather that she herself, based upon your response 
then, certified her office had responded?
    Answer. Correct.
    Question. Who else is under her command, apart from you? I hate to 
use the word ``command,'' in light of your relationship with her, but 
given she was your superior.
    Answer. The Office of Management and Administration has three major 
subordinate operating entities: The White House Military Office, the 
Office of Administration, and the White House Office.
    Question. And with respect to that, do you believe--is it your 
understanding that she received--did she receive directly the 
memorandum from Chuck Ruff reflected by exhibit 2?
    Answer. I would infer that, simply by the nature of the 
distribution list, which it is addressed to the Executive Office of the 
President, which is a very inclusive distribution list.
    Question. So, again, I did not ask you this specifically, but I 
gather, then, exhibit 2, Mr. Ruff's memorandum of April 28, would have 
come to Ms. Torkelson, who would then have distributed it to the three 
offices underneath her supervision?
    Answer. No.
    Question. No?
    Answer. I do not believe that is the case. I believe it was 
distributed independently to various levels simultaneously.
    Question. So you believe you got it directly from Mr. Ruff's office 
and not through Ms. Torkelson's office?
    Answer. I think so, because we are both addressees.
    When you address something to the Executive Office of the 
President, it is my understanding that we would both receive something 
like that simultaneously. If we're going to distribute hierarchically, 
it would be memorandum for assistant to the President, because of her 
title.
    Question. Am I correct in understanding, then, that the other two 
pages on this document would reflect the response of those other two 
offices underneath the supervision of Ms. Torkelson?
    Answer. I haven't seen these before.
    Question. Take your time if you want to look at it.
    Answer. Yes.
    Question. And I note that with respect to your office, the White 
House Military Office, that the nature of your response, the form 
appears to be different than as to the other two offices underneath Ms. 
Torkelson's purview. Do you see that?
    Answer. Yes.
    Question. Do you know why that would be?
    Answer. No.
    Question. Did she extend you the courtesy, in terms of having the 
same checklist for documents or matters found, as the other two 
offices?
    Answer. Despite the somewhat strained personal relationship we may 
have had, she had more confidence in my operation than she did any 
other operations, because it's a highly structured military operation, 
and therefore, rather than regarding this as a courtesy, I believe that 
this way was her way of assuring--and I'm speculating--of assuring that 
the work actually got done, whereas that question would not be raised 
in my office.
    So I regard this--I would regard this as a slap in the face, not as 
a courtesy.
    Question. And let me ask you this. Did you ever produce videotapes 
in response to any request?
    Answer. Yes.
    Question. When?
    Answer. October 1997.
    Question. In terms of the Senate request and the House request?
    Answer. In terms of the requests from the White House Counsel's 
Office.
    Question. Within the last 2 weeks, in terms of the matters that 
have come forward?
    Answer. We have produced as many videotapes as we can run through 
the machines.
    Question. Prior to this month, had you ever produced videotapes in 
response to any request?
    Answer. No.
    Question. Where was your office in relation to Ms. Torkelson?
    I will get off this topic in a second. I want to clarify one other 
matter, however. Where was your office in relation to her office?
    Answer. My office is in the East Wing of the White House. Ms. 
Torkelson's office is in room 145 of the Old Executive Office Building.
    Question. So your offices are fairly distant from one another?
    Answer. Yes. As I describe to my friends, I regard the East Wing as 
Outer Siberia, the Old Executive Office Building as Inner Siberia, and 
of course the West Wing is central--center.
    Question. Do you have any knowledge in terms of WHCA operations 
with respect to any fixed audio or visual equipment in the White House 
that perpetually records or videotapes?
    Answer. None. I'm aware there is some WHCA infrastructure in the 
White House, but that is to support the closed-circuit TV for public 
events. There are drop jacks so we can put the video signal through.
    Question. But do you have any knowledge of any fixed visual 
equipment in the White House----
    Answer. None.
    Question [continuing]. That perpetually records certain----
    Answer. None, and I have asked the question and have been assured 
there is none.
    Question. Who did you ask?
    Answer. Colonel Simmons.
    Question. And when did you ask?
    Answer. When I got there, probably.
    Question. And Colonel Simmons indicated to you there was no such 
fixed visual equipment?
    Answer. Right.
    Question. So that, to your knowledge, there aren't any rooms that 
are perpetually videotaped, photographed, or audiotaped.
    Answer. To the best of my knowledge.
    Colonel Simmons arrived roughly the same time I did. He came 
straight from a brigade in Germany, so I don't think he was co-opted in 
that period of time.
    Question. I'm not suggesting he was.
    Answer. I understand, but I'm giving you the basis for my belief 
that there is none.
    Question. Do you know--in terms of WHCA and just going back to one 
matter you mentioned, do you have any knowledge or are there any 
facilities for maintaining the negatives of still photographs at the 
White House?
    Answer. Yes.
    Question. And, essentially, every person who is photographed with 
the President, for whatever reason, obviously those people want to have 
their picture signed by the President or whatever; correct?
    Answer. Yes.
    Question. And there are records kept of all of those photographs; 
correct--or negatives?
    Answer. Yes. We have an image database repository.
    Question. And who has access to that database?
    Answer. It would be my--I don't know, but that would most likely 
fall under the purview of the photographer's office, which is not part 
of WHCA.
    Question. And in terms of those still photographs, that is not part 
of WHCA, you said?
    Answer. Yeah.
    Question. I'm sorry, I thought I understood you said it was at one 
time. I apologize if I misunderstood you.
    Answer. It is confusing, so let me just lay it out for you, because 
to master this is more intricate than it should be.
    In 1954, WHCA started providing photographic support to the 
President of the United States, and at that time they used Army 
photographers as well as Army photographic equipment.
    Question. From the Signal Corps, I think.
    Answer. Yes, that's correct, from the Signal Corps.
    At some point--and I believe it was during the Kennedy 
administration, but I'm not sure--they switched to civilian 
photographers. It may have been later than that. But those civilian 
photographers are not part of the White House Communications Agency and 
they are not part of the White House Military Office.
    However, the White House Military Office continues to provide the 
film developing support. We develop all the film, and we also provide 
the photographic equipment for use by the photographers.
    Is that helpful?
    Question. It is. And then the individuals taking the still 
photographs are then civilian; correct?
    Answer. Yes, they are appointees of the administration or 
employees.
    Question. In terms of the database that you maintain in your 
office, the White House Military Office, there is a computer database 
that you maintain there?
    Answer. Of what?
    Question. Do you draw from WAVE records or from Secret Service 
records?
    Answer. No.
    Question. What records do you yourself keep in terms of visitors to 
the White House or people who have been taped that would fall within 
the purview of your office? is my question.
    Answer. I heard two questions, and so----
    Question. I apologize. Let me rephrase it.
    Answer. I will respond to both.
    Question. Thank you.
    Answer. My office is in room 206 of the East Wing. The only records 
we maintain on site are those that pertain to my front office 
operation. These involve every officer nomination that goes to the 
Senate. We maintain records on that.
    We maintain records on people that have received Presidential 
exemptions to be buried in Arlington Cemetery.
    We maintain records on issuance of the Presidential Service Badge 
to military members assigned to White House duty and other files of 
that nature.
    We also maintain correspondence files of correspondence that passes 
through our office of a record type, such as requests from the counsel.
    We don't have any automated data processing support in my office, 
with the exception of lap-top, or--excuse me--desktop computers hooked 
up into a local area network. But we are not database administrators.
    Question. So you don't have access to the White House database, for 
example?
    Answer. No, I don't.
    Question. Nor would you have access to Secret Service information 
in terms of in-and-out visits, who has visited the White House?
    Answer. No.
    Now, like any user of the White House network, you can input a WAVE 
request through the system. I don't know if you're familiar with this.
    Question. Yes. Go ahead.
    Answer. We can request a visitor clearance. There's a screen for 
that. But we have no retrospective data.
    Question. So you were not involved in any database searching in 
terms of code words on the computer? You yourself were not involved?
    Answer. None.
    Question. In terms of the phrase, ``fund-raising, coffees,'' and 
what have you, essentially was your delegation of that task down to 
WHCA and officials at WHCA who would have undertaken that?
    Answer. I delegated it to every one of the 10 organizations; plus 
the clerks in my office had to go look through our files to see if 
there was anything that per chance--in our case, it would probably be a 
physical search of the documents, document categories in paper filing 
folders.
    I would like to make one observation that I would think help frame 
things a little bit.
    Question. Sure.
    Answer. One of the other tasks that has not come up in this 
discussion this morning is that last year--and this is true of most 
years--we handled 96,230 pieces of citizen mail pertaining to matters, 
military matters, either to the Pentagon or from the Pentagon, or from 
service members, or from Members of Congress, or expressions of concern 
from citizens that had a military cast to them.

                      EXAMINATION BY MR. BENNETT:

    Question. All right. I meant to ask one other thing on the matter 
of the photographs. In terms of those photographs, once they are taken, 
are they owned--are they civilian owned or militarily owned, in terms 
of--I gather they are owned by the--they are kept by the civilian 
photographers on record at the White House. These still photographs 
aren't military records, per se, in terms of being owned by the 
military?
    Answer. I don't believe so. But I have not given any real 
consideration to that question. We certainly don't view them as our 
property.
    Question. I understand. Let me just ask you one other--just to go 
back on one thing. I don't think I really got into this but if I did we 
will just move quickly through this. In terms of your discussing the 
audio or videotapes with anyone in the counsel's office, I believe you 
indicated that the only person you have spoken with in the counsel's 
office was Cheryl Mills, correct?
    Answer. That's correct.
    Question. And prior to her was Wendy White, and I think you said 
she left a year or so ago.
    Answer. Correct.
    Question. In terms of discussions with Ms. Mills, when was the very 
first time that you ever discussed audio or videotapes with her, 
meaning did you ever discuss audio or videotapes with Cheryl Mills 
prior to November of 1996?
    Answer. November of 1996?
    Question. Yes, prior to the reelection of the President.
    Answer. No.
    Question. In other words, any conversations that you had with 
Cheryl Mills with respect to videotapes or audiotapes would have been 
in this month of October 1997?
    Answer. That's correct. Prior to November 1996, the conversations 
that I had with Cheryl Mills largely pertain to the issue of isolating 
the costs associated with the reelection of the President between 
official and unofficial activities, and those were in connection with 
communications, sound and lighting at events.
    Question. Did you have any discussions with anyone with respect to 
videotaping matters prior to the presidential election in 1996?
    Answer. I did not.
    Question. Okay. Do you know whether or not there are any 
individuals in WHCA who were contacted by people involved in the 
political campaign with respect to videotaping prior to November of 
1996?
    Answer. No.
    Question. You just weren't involved in that at all?
    Answer. I was involved in providing the logistics support on an 
issue-by-issue basis, but I don't know why anyone would contact those 
people because those products are generally routed to the archives 
directly. That's my understanding. And secondly, the product is 
generally inferior to that produced by the media.
    Question. I gather that you have never had any conversations with--
based upon your response with, for example, Mr. Michael Imbroscio?
    Answer. I never have talked to him in my life. I didn't even know 
who he was a month ago.
    Question. Just--just another few minutes and I am winding up here, 
Mr. Sullivan.
    Answer. That's all right. Take your time, please.
    Question. I know it has been a long morning for you. I am looking 
through my notes here.
    Answer. That's fine.
    Question. I believe in terms of--we went over this a little bit 
before, but I believe--just to go back on one point, in terms of those 
organizations underneath your command at the White House Military 
Office, what would be described as, for example, the motor pool 
vehicles, would also come under your purview unless they are Secret 
Service limousines, correct?
    Answer. That's correct.
    Question. And the motor pool, I think, is known by an acronym as 
CRPET, C-R-P-E-T?
    Answer. That's correct.
    Question. And first of all, what does the acronym CRPET stand for, 
just for my edification?
    Answer. It is a leftover term that used to be a radio call sign 
from the old Signal Corps days.
    Question. What is the standard operating procedure with respect to 
the use of those cars in the carpool in CRPET?
    Answer. They are for official use only, and only designated people 
may be transported in them.
    Question. Are there logs of any requests for use of those motor 
pool records?
    Answer. There are logs maintained for relatively brief periods of 
time.
    Question. And are there logs kept with respect to those people who 
travel in those vehicles?
    Answer. Yes. It's a dispatch log.
    Question. I understand.
    Answer. Let me amplify. The dispatch log will reflect the 
requester's name and in whose name the car has been issued. I don't 
know that the log would reflect the names of additional passengers in 
the car.
    Question. Are there any other logs kept by the motor pool other 
than the log you just indicated?
    Answer. Yes. There is--we are required to keep long-term logs on 
three people's cars because they have--are one of--they have portal-to-
portal service which they pay for.
    Question. And who is that, sir?
    Answer. Sandy Berger, Jim Steinberg and Erskine Bowles.
    Question. And that is also under your command, correct?
    Answer. That's correct.
    Question. And whoever has traveled in those cars, there would be a 
record of those, then, correct?
    Answer. There is--the Army has--let's see. The White House 
Transportation Agency operates using Army procedures in accordance with 
the Military District of Washington, MDW, Military District of 
Washington, and it is my belief that the record retention policy is 60 
days.
    Question. With respect to any traveling in those cars, do you know 
whether or not there are car phones in those cars?
    Answer. There are.
    Question. And are there tapes kept of conversations or audiotapes 
of any of those conversations on those car phones?
    Answer. No. We do not tape conversations.
    Question. Are there any records of who is called from those cars in 
terms of billing records?
    Answer. The----
    Question. You have the telephone records that reflect the numbers 
called on those car phones, correct?
    Answer. The cell telephone bills, those cellular telephone bills, 
are paid by the White House Communications Agency.
    Question. So there would be a record, then, of any and all calls 
made?
    Answer. There could be. However, let me say this: Based upon 
principles of management, WHCA is not a contracting agency and WHCA is 
not a disbursing agency, WHCA itself. The phone bills are actually paid 
by an outfit called DITCO, Defense contracting organization, DITCO, D-
I-T-C-O. WHCA receives a summary bill. However, the--I am aware that 
Bell Atlantic Mobile, who is our service provider, has the ability to 
produce the bills in detail for several years.
    Question. And I think I asked you--hold on just one second.
    Just a few other things here.
    Answer. I think I have retrieved what DITCO means.
    Question. Sure.
    Answer. Defense Information and Telecommunications Contracting 
Office.
    Question. Are you aware of any recording that the President does, 
or the Vice President, in any vehicles--well, strike that. The 
President really wouldn't travel in these vehicles in CRPET because he 
and the Vice President would travel in limousines maintained by the 
Secret Service, correct?
    Answer. Yes. But WHCA maintains the communications systems in those 
cars, so from that point of view it's the same.
    Question. So then again WHCA would have, apart from the car phone 
records, with respect to cars in CRPET, WHCA would also have records of 
phone calls from the limousines of the Secret Service, correct?
    Answer. WHCA would have records only associated with the bills that 
were generated by using those cellular telephones.
    Now, that makes the presumption that the President used the 
cellular telephone. The cars are also equipped with alternative 
communication paths.
    Question. And when you say alternative communication pads, I am not 
sure I understand what an alternative communication pad is.
    Answer. Path; path.
    Question. Path. I am sorry.
    Answer. It is a duplex radio that connects with a vehicle that 
follows the limousine, called ``Roadrunner,'' which in turn beams it up 
to a military satellite after encoding it and brings it back down into 
a ground entry point through the WHCA switchboard and off to wherever 
it needs to go.
    Question. And WHCA would have records of all of those 
conversations?
    Answer. I believe they only maintain those records for a brief 
period of time.
    Question. How brief a period of time?
    Answer. I believe only 60 days.
    Question. Why are they only maintained for 60 days?
    Answer. Because I believe that's what the Department of Army's 
standard is.
    Question. Are you aware of the President perhaps using his personal 
hand--I am not giving this question that Agent Hodgson wants me to give 
so I am going to ask you directly. Are you aware that the President, 
perhaps using his personal hand-held recorder, like a daily recorder, 
regularly makes tapes?
    Answer. I have never seen him with a hand-held recorder.
    Question. And you don't have any knowledge of WHCA handling these 
tapes?
    Answer. I have no knowledge of that whatsoever.
    Question. Do you have any--in terms of this satellite system, do 
you know who is in charge of the uplink to the satellite, what office 
is in charge of that?
    Answer. White House Communications Agency.
    Question. And it would be, then, underneath Colonel Simmons' 
purview?
    Answer. All roads lead to Colonel Simmons.
    Question. We will certainly let him know that you said that.
    Again, we are laughing at that.
    Answer. Strike that.
    Question. I am sure he will be very pleased to hear that. We may 
start his deposition by saying that Mr. Sullivan has indicated--the 
record should reflect some laughter here.
    Just zeroing in now on the matter of tapes, correct me if I am 
wrong, you indicated that you have never even seen the tapes other than 
on television, is that right?
    Answer. That's correct.
    Question. And do you have any knowledge of anyone who has copies of 
these tapes?
    Answer. No.
    Correction. I know that they have been making copies of these tapes 
to give to the various investigative bodies, so presumably whatever 
investigative bodies have asked for tapes or have gotten tapes, they 
would be the people.
    Question. In sort of concluding, Mr. Sullivan, I am going to ask 
you to look at a few tapes here that we have, and give you the benefit 
of it. Just one second, please, off the record.
    [Off the record.]
    Mr. Bennett. I am sorry. Excuse me. I apologize.

                      EXAMINATION BY MR. BENNETT:

    Question. Mr. Sullivan, I understand clearly your lack of access to 
these tapes in terms of the chain of command, but I am just trying to 
clarify a matter. You yourself have indicated that you don't have any 
knowledge of any splicing or editing of the tape, correct?
    Answer. I have no knowledge of that whatsoever.
    Question. Nor have you spoken with anyone at the White House 
Communications Agency about that?
    Answer. No. It is----
    Mr. Bennett. Why don't we run--J. T., just tell me, if you will, 
what is this first tape?
    Mr. Mastranadi. It is going to be James Riady having a conversation 
with the President, and the conversation is cut off and then it----
    Mr. Bennett. So the tape, for the record, is what date, March 11, 
1995?
    Mr. Mastranadi. No, this is a different date.
    Mr. Bennett. For the record, Mr. J. T. Mastranadi is providing 
information on the record to the witness so the witness is able to 
review the tape.
    Mr. Mastranadi. This is a tape from September 10th, 1994.
    Mr. Bennett. Can I have that, please, just for the record. 
Representing on the record that based upon the production made to us by 
the White House in a box marked Tape 5, this is a tape of September 10, 
1994 records which have been produced. These are among the videotapes, 
the 50--I don't know how many boxes of videotapes we have, 50-some thus 
far.
    If you will now, Mr. Mastranadi, play this for the benefit of the 
witness so Mr. Sullivan can take a look.
    [Videotape played.]
    Mr. Bennett. Hold on one second. Stop, please.
    Counsel is not at the table. Stop, please. I did not realize, Mr. 
Sullivan, that Colonel Sparks had stepped away from the table.
    Just for the record, Colonel Sparks is on the telephone at the 
other end of the table. I apologize, Mr. Sullivan. I did not realize 
that he had stepped away for a minute.
    Colonel Sparks. I am sorry.
    Mr. Bennett. I am sorry. I started the questioning. I did not 
realize you had stepped away.
    We are back on the record. I wasn't aware you had stepped away from 
the table.

                      EXAMINATION BY MR. BENNETT:

    Question. We have three videotapes, Mr. Sullivan. I am going to ask 
you to look at it. I understand you have indicated your lack of any 
access to these. And whoever the individuals are on the tape, as a 
matter of record they can be established by--let me ask you this, for 
the record: Do you know Mr. James Riady?
    Answer. No.
    Question. Do you know Mr. John Huang?
    Answer. No.
    Question. Do you know Mr. Mark Middleton?
    Answer. No.
    Question. All right. So you don't have any knowledge--you have 
never seen these people; you wouldn't be able to identify them on the 
tape?
    Answer. I hope you will tell me who they are.
    Question. I will make an effort to represent to you, but I am not 
testifying here, but just for purposes of--just watching the tape is 
the purpose of it. I believe ultimately that can be established. But 
just in fairness to you, we are going to ask you to look at this tape. 
This is a tape dated September 10, 1994, which this committee received, 
both Majority and Minority counsel received, in a box marked Tape 5.
    Mr. Mastranadi. I have to go back a little bit.
    Mr. Bennett. You need to turn up the volume, if you will.
    Mr. Bennett. Stop one second, if you will. In fairness to you, Mr. 
Sullivan, the individual in the screen with the President right now on 
Tape 5, I believe, can ultimately be identified as a Mr. James Riady.
    Go back on the tape, please.
    Mr. Mastranadi. We just missed.
    Mr. Bennett. You can't really testify, Mr. Mastranadi. If you want 
to go back on the tape, go back on the tape.
    Mr. Mastranadi. Okay.
    Mr. Bennett. Just go back. I will tell you when to start again. 
Just keep going back some more. We will just run the entire tape.
    Are you ready to stop? All right. Stop.
    [Videotape played.]
    Mr. Bennett. Now, just so you understand, again, you cannot 
identify some of these people and you asked if I could, perhaps. If you 
want to stop that for a second, please.

                      EXAMINATION BY MR. BENNETT:

    Question. There is an individual that we believe ultimately to be 
identified as Mr. John Huang on the tape, and these are tapes produced 
to both the Majority and Minority by White House Counsel's Office. Do 
you understand, Mr. Sullivan?
    Answer. Yes, I do.
    Question. Then ultimately an individual, James Riady, comes on to 
the screen speaking with the President. I would ask if you will watch 
this videotape through, including one portion when we need to ask you a 
question on it.
    Answer. Very well.
    [Videotape played.]

                      EXAMINATION BY MR. BENNETT:

    Question. If you will go back again, please, I want to you look 
carefully at this. You haven't had the benefit of seeing this, but it 
appears this tape has been spliced and there is a gap. I need to know 
if you can observe this or if you have any knowledge of this.
    Mr. Riady is speaking to the President.
    [Videotape played.]

                      EXAMINATION BY MR. BENNETT:

    Question. And then there is a gap in the tape. Do you see the gap, 
sir? If you will look back again.
    There is a continuous tape up to this point and then there is a gap 
and then there is further taping.
    [Videotape played.]

                      EXAMINATION BY MR. BENNETT:

    Question. Do you see where there is a flip?
    Answer. No, I don't. I see where the film stops and resumes but I 
don't see a gap.
    Question. Let's do this. With respect to the film stopping and 
resuming, do you have any knowledge, any knowledge as to this tape, why 
the tape would appear to stop and then resume?
    Answer. Yes. I would submit to you that the photographer stopped 
filming and resumed filming.
    Mr. McLaughlin. I will note for the record that the camera is in a 
different position after the break than it is before.
    [Videotape played.]

                      EXAMINATION BY MR. BENNETT:

    Question. Go back again, if you will.
    Now, in terms of that stopping and resuming, you don't know what 
the reason for that stopping and resuming is, yourself?
    Answer. No, and I am not qualified to surmise.
    Question. I understand. Can you yourself vouch for the--this tape 
came apparently from the White House Communications Agency. Can you 
yourself, Mr. Sullivan, vouch for the authenticity of this tape?
    Answer. You are asking me to vouch for that which I don't have any 
direct knowledge of.
    Question. Correct. I am asking you if you are comfortable vouching 
for that tape coming underneath your command, in terms of whether or 
not that tape has been altered in any way?
    Mr. McLaughlin. Mr. Bennett, we haven't established a chain of 
custody for this tape.
    Mr. Bennett. Good point, Mr. McLaughlin.
    Mr. McLaughlin. It is enormously unfair to ask a question like 
that.
    Mr. Bennett. I don't mean to be unfair to the witness.
    Mr. McLaughlin. He has never seen the tape before.

                      EXAMINATION BY MR. BENNETT:

    Question. In terms of the chain of custody, we don't know what the 
chain of custody is on this tape, Mr. Sullivan. Perhaps you can assist 
me in that regard. We received these tapes from the White House. You 
have indicated on the record here today that you yourself had not seen 
these tapes.
    Did you have any involvement in handing these tapes over from the 
White House to this committee here at the House of Representatives?
    Answer. No, I did not.
    Question. Do you know who directly dealt with this particular tape?
    Answer. No, I don't.
    Question. And in terms of whether or not it is--the camera--you 
indicated it might be the camera stopping and resuming. Were they your 
words? I think they were, I thought?
    Answer. I thought so.
    Question. Okay. Or whether it is a change of camera position, as 
suggested by Mr. McLaughlin, you yourself cannot vouch for the 
authenticity of this tape, correct?
    Mr. McLaughlin. Can you explain what you mean by authenticity, Mr. 
Bennett?

                      EXAMINATION BY MR. BENNETT:

    Question. Specifically, you here today, you don't have any 
knowledge of any splicing or cutting of tape, correct?
    Answer. That's right. I have no knowledge--I have no knowledge 
about the tape at all.
    Question. All right. I understand. So here today you yourself 
cannot vouch for the authenticity of this tape?
    Answer. I am not sound biting.
    Question. I am sorry?
    Answer. I am not going to issue sound bites. I can neither vouch 
nor not vouch.
    Question. And in terms of the--what appears to be a change, however 
you phrase it, gap, change, change of camera position, the only thought 
you have with respect to that portion there where it stops and resumes 
is that the cameraman may have stopped and then resumed, is that 
correct?
    Answer. That is what I would presume to have been the case.
    Question. And with respect to the camera stopping and resuming, who 
is the person who would make the determination to have the camera stop 
and then resume?
    Answer. I don't know.
    Question. It would have been one of the three people--I think you 
mentioned three people in a huddle earlier who would determine it. You 
said the fellow with the microphone and the fellow with the camera and 
the third person, who would have been--I am looking for my notes, the 
individual you named?
    Answer. Oh, Steven Goodin.
    Question. Is that the kind of situation where Mr. Goodin and two 
other people might make a determination to stop the camera and then 
resume?
    Answer. I don't know.
    Question. But is that what you mean by stop and resume?
    Answer. No. I would have thought it was just a matter of the 
cameraman getting out of people's way that were exiting from shaking 
the President's hand. He is standing right in the path of the people 
that are exiting from the ``grip and grin.''
    Question. Why don't we roll through some more so we can see this? 
Roll back and roll it again.
    Answer. Let me say for the record, I wasn't there.
    Question. I understand.
    Answer. So I don't know what happened.
    Question. I understand.
    Mr. McLaughlin. I want to note for the record that Mr. Sullivan was 
not present. He has already testified he has no knowledge about these 
tapes. He is a lay witness. We could just as easily pull somebody in 
off the sidewalk and ask them to surmise what was going on. This is a 
uniquely unproductive line of questioning, Mr. Bennett.
    Mr. Bennett. For the record, Mr. McLaughlin, given that at least as 
a matter of courtesy I try to exercise professional--I will take 
exception to the matter of a lawyer trying to characterize with 
adjectives the conduct of another lawyer. I don't think that is 
professional and I don't think that it is necessary to ever do that.
    Mr. McLaughlin. I don't think the record will reflect that I did 
that.
    Mr. Bennett. Well, I think that was the nature of the question. So 
I will let that go by. Perhaps with years you will learn not to do 
that.

                      EXAMINATION BY MR. BENNETT:

    Question. But my point is, I am not asking, Mr. Sullivan, with 
respect to terms of an expert witness. I am asking--you had said 
earlier, I think, Mr. Sullivan--didn't I ask you about, if there is a 
stopping or resuming of the tape, that Mr. Goodin and two other people 
would make that decision?
    Answer. I believe the question that I responded to was the question 
of whether an event would be filmed or not. That is the huddle that I 
referred to. And if I was unclear, I apologize.
    Question. Or if I misunderstood you, I apologize.
    Answer. On the other hand, I have no insight as to the actual 
conduct of the filming of the specific event.
    Question. Okay. And to your knowledge, if there was a stopping and 
a resuming of taping--and why don't we go through here and now roll 
through one more time on this particular tape--if there is a stopping 
or resuming or for whatever reason, you have no knowledge as to the 
reason for that?
    Answer. That's correct.
    Mr. Bennett. Let's go to the second tape.
    Mr. McLaughlin. Mr. Bennett, while we are waiting for the tapes to 
be switched, are you going to be making copies of those as exhibits to 
this deposition?
    Mr. Bennett. I am just going to note what they are, and both 
Majority and Minority counsel have those tapes.
    Mr. McLaughlin. We have received videotapes.
    Mr. Bennett. You received them in the same fashion.
    Mr. McLaughlin. Well, that's your representation. I don't know if 
that's true or not.
    Mr. Bennett. It is my representation from the White House to our 
office.
    Mr. McLaughlin. I understand that, but that's your representation 
and that's the White House's representation. It is always my preference 
that when you show something to a witness, that it be appended to the 
deposition so there will be no question later as to what was shown to 
the witness.
    I will make a request, which you can honor or not honor as you 
choose, that a copy of that VHS tape that you are holding in your hand, 
or at least the portions that were shown to the witness, be copied and 
included with the deposition so that Members, for example, reviewing 
this deposition in the future will have an opportunity to review that.
    Mr. Bennett. Point well taken, Mr. McLaughlin. And we will 
definitely endeavor to copy that portion of Tape 5 that we noted, as 
well as tape--we are now doing Tape 64.
    Mr. McLaughlin. I appreciate that, Mr. Bennett.

                      EXAMINATION BY MR. BENNETT:

    Question. We will take a look at Tape 64 now.
    Answer. Now, the committee is aware now, of course, that the 
originals are filmed in Beta format?
    Question. Yes, I understand. Your point being that they are then 
transferred over to VHS?
    Answer. They go to the archives in Beta format. Only when they have 
to go in consumer machines are they transcribed to VHS format.
    Mr. Bennett. Go ahead. Stop for just one second. Give me the box 
just for one second. What is the date?
    Mr. Mastranadi. March 11th, 1995.
    Mr. Bennett. This tape I am showing you now, for the record is a 
tape that was marked No. 64 and to my knowledge, for the record, both 
Majority and Minority counsel received this tape as No. 64 in the boxes 
of tapes that were delivered to both staffs, and this relates to March 
11, 1960----
    Mr. Mastranadi. 1995.
    Mr. Bennett. 1995, March 11, 1995.
    [Videotape played.]

                      EXAMINATION BY MR. BENNETT:

    Question. Again, there, clearly there is no photograph of that 
individual leaving the President. It appears that without using the 
word ``splice'' or ``change'' or ``modification,'' let us just use the 
word ``gap,'' for whatever reason on the tape, do you see what I am 
addressing, Mr. Sullivan, in terms of the individual not seen leaving 
off camera and suddenly you pick up with the next person?
    Answer. I saw an interruption.
    Question. Okay. We can use the word ``interruption'' then.
    With respect to the interruption on that tape, again, in terms of 
any explanation for it from the--from WHCA, the only explanation you 
would have would be it might be the tape stopping and then resuming at 
the event?
    Answer. Yes. Yes.
    Question. You have no other explanation for it?
    Answer. I was not present at that event.
    Question. I understand.
    Answer. I am not involved with the details of how the photographers 
perform under the guidance of the President and Steven Goodin. I don't 
know who the people are on the tape. I don't even know what kind of an 
event that is. So I have nothing useful to say because I just flat 
don't know.
    Question. Who would produce the copies of these tapes from the Beta 
to the VHS?
    Answer. Technicians in the White House Communications Agency.
    Question. And who would those technicians be?
    Answer. People in the Chief McGrath's organization.
    Question. So Chief McGrath, you believe Chief McGrath might have 
knowledge with respect to these interruptions?
    Answer. If--yes.
    Mr. Bennett. Let's go to one more. And again for the record, 
pursuant to Mr. McLaughlin's point, which is perfectly valid, we will 
make sure we produce that portion of it, Mr. McLaughlin, to include as 
an exhibit to the deposition. I would ask that these will ultimately be 
marked as Exhibits 4A, B and C.
    [Sullivan Deposition Exhibit No. 4A was marked for identification.]
    [Sullivan Deposition Exhibit No. 4B was marked for identification.]
    [Sullivan Deposition Exhibit No. 4C was marked for identification.]
    Mr. McLaughlin. I appreciate that, Mr. Bennett.
    Mr. Bennett. For the record, we will not do the entire tapes with 
respect to these exhibits. We will do those portions that we have shown 
to the witness. And hold on just one second.
    For the record, clarification, the first tape I showed was not Tape 
5 but was Tape 63, Mr. McLaughlin, and then--to my knowledge, your 
office has the same tape number sequence. And then the second tape was 
Tape 64; and now this tape, the third tape and the last tape we are 
doing is Tape 5. Also, for the record, Ms. Ashley Williams of the 
communications office of the Majority staff will be responsible for 
reproducing those portions and snippets. And for the record, Mr. J. T. 
Mastranadi will assist Ms. Williams in noting those portions we have 
shown to the witness. Once we have done that, we will make that 
available for you, as well as, Mr. McLaughlin, as well as Colonel 
Sparks, to make sure we have accurately included those same snippets.
    Does that suffice for your position? Of course, the court reporter 
as well.
    Mr. McLaughlin. That's fine. Can you confirm the date of that first 
one?
    Mr. Bennett. Tape 63 was dated September 10, 1994, and Tape 64, the 
second tape, was dated March 11, 1995.
    Now we are on to Tape 5, the third exhibit which will be marked as 
Exhibit 4C, February 19th, 1996. And if we will stop for a minute here, 
if we can, Mr. Mastranadi, just so you understand, Mr. Sullivan, I 
represent to you that I believe that the document as produced by the 
White House to both Majority and Minority staffs would indicate this is 
at the Hay Adams Hotel.

                      EXAMINATION BY MR. BENNETT:

    Question. This is not at the White House, but, again, the White 
House Communications Agency will follow the President and film events 
in his life regardless of where he is, correct?
    Answer. That's correct.
    Question. So you understand this is an event not at the White House 
but at the Hay Adams Hotel.
    Answer. Correct.
    [Videotape played.]

                      EXAMINATION BY MR. BENNETT:

    Question. Now, in terms of that, again, regardless of how--let's 
use your word before. You would note that there is definitely an 
interruption in that tape, is that correct?
    Answer. I agree.
    Question. And the same answers with respect to that interruption 
that you gave as to the previous two tapes would apply here as well?
    Answer. That's correct. I certainly was not at the Hay Adams Hotel.
    Question. And your explanation of any interruption, again using 
your words, would be the same?
    Answer. I don't know.
    Question. You have no knowledge of it?
    Answer. I have no knowledge.
    Mr. Bennett. I have no further questions. Thank you, Mr. Sullivan. 
I believe Mr. McLaughlin may have some questions.
    The Witness. Certainly.
    Mr. McLaughlin. I do.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. Mr. Sullivan, since we are apparently relying on you as a 
lay witness as to videotaping matters, let me just represent to you, as 
somebody who has viewed a large number of these videotapes, that brief 
momentary interruptions as we have just been exposed to are legion 
throughout the videotapes. Would it surprise you--would that fact 
surprise you as a lay observer?
    Answer. No.
    Question. Is it possible that perhaps the camera operator, whenever 
he shifts position, turns the camera off, adopts a new position and 
then turns the camera back on?
    Answer. Yes.
    Question. That would not surprise you?
    Answer. No.
    Question. Okay. Let me turn--on a substantive matter, let me direct 
your attention to Exhibit 2.
    Answer. Yes.
    Question. And I would like to particularly direct you to the second 
sentence of that exhibit, and I will read it for the record. We ask 
that you--and let me just preface this, for purposes of the cold 
record, by noting that this is a--the memorandum from Charles Ruff, 
Counsel to the President, to Executive Office of the President, Re: 
Document request, dated 4-28-97.
    The second sentence reads, ``We ask that you conduct a thorough and 
complete search of ALL,'' and those are capitalized letters, capital A, 
capital L, capital L, ``ALL of your records,'' paren, ``whether in hard 
copy, computer or other form,'' closed paren, ``that were created 
during the period of January 20 to the present, unless otherwise noted 
below, for materials responsive to the requests below.''
    I would like to question you, since you were questioned about this 
at some length by Mr. Bennett, about your understanding of the phrase 
``all of your records, whether in hard copy, computer or other form.''
    Is it your understanding--was it your understanding, in April and 
May of 1997, Mr. Sullivan, that the phrase, ``all of your records, 
whether in hard copy, computer or other form,'' included videotapes?
    Answer. Yes.
    Question. Was it your understanding then that that phrase included 
audiotapes?
    Answer. Yes.
    Question. Okay. Let me turn--direct your attention briefly to 
Exhibit 1. This is the subpoena which you have stated you have not seen 
before today. I would like to direct your attention to page 1, 
paragraph numbered 1 under the heading ``Definitions and 
Instructions.'' I will note that the heading includes both definitions 
and instructions.
    Turning to paragraph 1, it states--and then I will ask you my 
question--``For the purposes of this subpoena, the word `record' or 
`records' shall include, but shall not be limited to, any and all 
originals,'' et cetera, et cetera.
    Let me just ask you for a lay person's opinion. And actually, 
before I do that, let me, for comparison let me turn--let me refer you 
to the numbered paragraph 2 on page 2. This paragraph reads, and I will 
just read the first part, ``For purposes of this subpoena, the terms 
`refer' or `relate' and `concerning' as to any given subject means 
anything that constitutes,'' et cetera, et cetera.
    Is it consistent with your understanding as a lay person that 
paragraph No. 2, which uses the verb ``means,'' is a definition, 
whereas paragraph No. 1, which says ``shall include, but shall not be 
limited to,'' is perhaps something other than a definition, like, for 
example, a list of examples?
    Answer. Paragraph 2 is written explicitly as a definition. 
Paragraph 1 is a litany of examples, apparently in alphabetical order, 
I might add.
    Question. Does the verb, to the extent at least in the first two 
lines, does the verb ``means'' appear in the paragraph numbered 1?
    Answer. No, but I would point out that this is the first time I 
have seen this subpoena, so it was not actionable for me, either 
paragraph 1 or 2.
    Question. I understand.
    Answer. As I was conducting my search.
    Question. I am just trying to determine what your understanding of 
the phrase, ``all of your records, whether in hard copy, computer or 
other form'' was and whether it would include the example items that 
are given in paragraph No. 2. Why don't we just do a few examples.
    In April and May of this year, Mr. Sullivan, was it your 
understanding that the--the phrase ``all of your records, whether in 
hard copy, computer or other form,'' would have included cables?
    Answer. Yes.
    Question. Would it have included calendars?
    Answer. Yes.
    Question. Would it have included card files?
    Answer. Yes.
    Question. I am just going to skip ahead here through some of these. 
Would it have included diaries?
    Answer. Yes, although I don't know of anyone that keeps those.
    Question. Okay. Would it have included documents?
    Answer. Yes.
    Question. Electronic mail?
    Answer. Yes.
    Question. Facsimiles?
    Answer. Yes.
    Question. Would it have included, and I will skip ahead again, 
press releases?
    Answer. Yes, but it would not have been relevant to us.
    Question. Okay. Would it have included recordings?
    Answer. Indices thereof.
    Question. Indices of recordings?
    Answer. Yes.
    Mr. McLaughlin. And I will just leave it at that, on that line of 
questioning.
    In closing, Mr. Sullivan, let me simply thank you on behalf of the 
Minority members of the committee. To the extent that we are aware, 
your record of service to the military and to this country is of 
unblemished integrity, and everything that I have observed today has 
only reinforced that reputation.
    The Witness. Thank you.
    Mr. McLaughlin. Thank you, Mr. Bennett. That's all I have.
    Mr. Bennett. Just for the record, I don't think anybody disputes 
that your service is a distinguished military career for the country. I 
am sorry that you got embroiled in all of this, and I am glad for your 
coming forward here, and I also thank you. I think all members of the 
committee would thank you and I also thank you, on behalf of the 
Majority.

                      EXAMINATION BY MR. BENNETT:

    Question. Let me just close with saying that we indicated how this 
deposition will be handled, and it will be made available for Colonel 
Sparks. Is it your intention, Mr. Sullivan, or have you been advised to 
discuss this deposition with anyone upon its conclusion?
    Answer. I have not received any advice one way or the other.
    Question. Okay. I mean, no one has indicated to you that you were 
to debrief them or speak with them immediately upon the conclusion of 
this deposition?
    Answer. No. I expect I will ask Colonel Sparks how it went.
    Question. I understand. For the record, I appreciate your candor 
here. My point is, is that absent advice from your counsel, you are not 
under any directives or intentions with respect to discussing this 
deposition with any particular person?
    Answer. I have not been asked to back-brief anybody.
    Mr. Bennett. All right. And again I thank you, and I believe that 
will conclude this morning's deposition.
    I think, Colonel Sparks, we are just about right on schedule.
    Colonel Sparks. Just about.
    Mr. Bennett. Okay. Good. Thank you very much.
    [Whereupon, at 12:30 p.m., the deposition was concluded.]

    [The deposition exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5405.505
    
    [GRAPHIC] [TIFF OMITTED] T5405.506
    
    [GRAPHIC] [TIFF OMITTED] T5405.507
    
    [GRAPHIC] [TIFF OMITTED] T5405.508
    
    [GRAPHIC] [TIFF OMITTED] T5405.509
    
    [GRAPHIC] [TIFF OMITTED] T5405.510
    
    [GRAPHIC] [TIFF OMITTED] T5405.511
    
    [GRAPHIC] [TIFF OMITTED] T5405.512
    
    [GRAPHIC] [TIFF OMITTED] T5405.513
    
    [GRAPHIC] [TIFF OMITTED] T5405.514
    
    [GRAPHIC] [TIFF OMITTED] T5405.515
    
    [GRAPHIC] [TIFF OMITTED] T5405.516
    
    [GRAPHIC] [TIFF OMITTED] T5405.517
    
    [GRAPHIC] [TIFF OMITTED] T5405.518
    
    [GRAPHIC] [TIFF OMITTED] T5405.519
    
    [GRAPHIC] [TIFF OMITTED] T5405.520
    
    [GRAPHIC] [TIFF OMITTED] T5405.521
    

</pre></body></html>
